<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]



                                                        S. Hr. 107-820
 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003
=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 2766

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF LABOR, HEALTH AND 
  HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES, FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2003, AND FOR OTHER PURPOSES

                                ___________

                        Department of Education
                Department of Health and Human Services
                          Department of Labor
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.access.gpo.gov/
                            congress/senate

                                 ______

                           U.S. GOVERNMENT PRINTING OFFICE
78-480                         WASHINGTON : 2003
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area 
(202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
ERNEST F. HOLLINGS, South Carolina   ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HARRY REID, Nevada                   JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia        MIKE DeWINE, Ohio
                           Professional Staff
                              Ellen Murray
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                              Erik Fatemi
                       Bettilou Taylor (Minority)
                        Mary Dietrich (Minority)
                    Sudip Shrikant Parikh (Minority)
                       Candice Rogers (Minority)

                         Administrative Support
                             Carole Geagley














                            C O N T E N T S

                              ----------                              

                         Tuesday, March 7, 2002

                                                                   Page

Department of Health and Human Services: Office of the Secretary.     1

                        Thursday, March 14, 2002

Department of Education: Office of the Secretary.................    65

                        Thursday, March 21, 2002

Department of Health and Human Services: National Institutes of 
  Health.........................................................   111

                         Thursday, June 6, 2002

Department of Labor: Office of the Secretary.....................   249

                       Nondepartmental Witnesses

Department of Labor..............................................   347
Department of Health and Human Services..........................   370
Department of Education..........................................   659
Related agencies.................................................   715













  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, at 11:07 a.m., in room SD-192, 
Dirksen Senate Office Building, Hon. Tom Harkin (chairman) 
presiding.
    Present: Senators Harkin, Kohl, Murray, Landrieu, Specter, 
Stevens, Cochran, and DeWine.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                        Office of the Secretary

STATEMENT OF HON. TOMMY G. THOMPSON, SECRETARY OF 
            HEALTH AND HUMAN SERVICES


                opening statement of senator tom harkin


    Senator Harkin. This hearing of the Labor, Health, Human 
Services, and Education Appropriations Subcommittee will now 
come to order. I want to welcome Secretary Thompson this 
morning to testify about the fiscal year 2003 budget for the 
Department of Health and Human Services.
    The fiscal year 2003 budget for the Department of Health 
and Human Services appropriated activities is $312.1 billion, 
an increase of $21.6 billion over fiscal year 2002. The fiscal 
year 2003 discretionary spending proposal includes $59.5 
billion, an increase of $2.3 billion over fiscal year 2002. So, 
the bulk of the increase is in mandatory spending and not in 
the discretionary spending that we have jurisdiction over in 
this committee.
    Our colleague Senator Inouye of Hawaii once said that, 
while the Defense Appropriations Subcommittee is the committee 
that defends America, this subcommittee is the committee that 
defines America. Each year this committee helps to define 
America's future by the choices it makes in education, Head 
Start, maternal and child health care programs, Pell grants, 
job training, worker safety, Medicare, and of course biomedical 
research.
    I am very happy to see the administration's 2003 budget 
includes a total of $27.3 billion for NIH, an increase of $3.7 
billion. This increase will be the fifth and final installment 
in our effort to double NIH funding over 5 years. I say to my 
friend and my colleague Senator Specter, who has helped lead 
this charge to double NIH funding, it has been a major part of 
our strong partnership on this subcommittee over the years.
    I might also say that--and I will recognize him next--that 
the former chairman of the full committee, now the ranking 
member of the full committee, Senator Stevens, has also been a 
driving force behind ensuring that we double the NIH budget 
over 5 years. I look forward to the final passage of this bill 
and we can finally declare victory in the efforts to double 
funding for medical research over 5 years.
    The budget also includes significant resources to combat 
bioterrorism, including $940 million to upgrade State and local 
public health programs, $518 million to increase the capacity 
of hospitals to address bioterrorism. Since September 11 this 
subcommittee has held a number of hearings on the threats of 
bioterrorism. It became clear that our Nation's hospitals and 
public health departments were not prepared to adequately 
respond to a bioterrorism event.
    To address that need, we included a billion dollars in the 
fiscal year 2002 supplemental appropriations bill. Mr. 
Secretary, I am glad that your budget continues that effort and 
I look forward to working closely with you on this issue.
    Mr. Secretary, I am pleased with the increases you have 
included for medical research and for bioterrorism, but I am 
deeply concerned about cuts in the other HHS programs, 
particularly cuts to HRSA. HRSA is the access agency which 
works to ensure health care access for all Americans, the 
uninsured, those with special needs, and those in rural areas. 
Rural health care programs are of particular interest to me 
because that is where I was born and raised and that is where I 
still live, in a town of 150 people, Cumming, Iowa. In fact, I 
still live in the house in which I was born.
    I said that to a young person the other day and he looked 
at me and said: How old are you, anyway? I said: Well, let me 
put it this way: I was born in the last century. How about 
that?
    While many Americans are rediscovering rural America as a 
place to live and work and raise a family, we have got to do 
more to ensure access to health care in our rural areas. Last 
year our subcommittee, under the leadership first of Senator 
Specter and then later me, included a rural health initiative 
in our bill. It increased support for the National Health 
Service Corps and Community Health Centers. It created a new 
Rural Hospital Improvement Program to provide regulatory relief 
and quality improvement for small rural hospitals, and we 
increased funding for our State offices of rural health.
    So while I want to commend you for building on this 
initiative by requesting increases for the National Health 
Service Corps and the Community Health Centers--those are two 
great items, Mr. Secretary, and I really appreciate your 
requesting increases for that--but again, I am disappointed 
that we do not adequately meet some other needs in rural health 
areas. The budget cuts funding for the State offices of rural 
health. It cuts funding for rural health research. It cuts 
funding for telemedicine programs. Quite frankly, I think that 
is the wrong direction to take.
    While these discretionary programs can make a difference, 
they are not the only answer. Many problems that arise in rural 
areas are a result of unfair Medicare payment policies. Rural 
hospitals are much more dependent on public dollars and small 
hospitals are more likely than others to struggle. If this is 
not enough, people in rural areas are in poorer health.
    So we need to work together to get rid of the myth that it 
costs less to provide health care in rural areas. There is this 
whole myth that somehow if you work in a rural area in a 
hospital they can pay you less. We now know that is not true, 
because if they pay you less you go to the cities and work, and 
then we have a vacuum. So we have to match those payments. It 
is just not fair to say that it is cheaper.
    Smaller hospitals when they buy their pharmaceuticals and 
they buy their gloves and they buy their equipment, they buy in 
small quantities, so they pay top dollar. Large urban hospitals 
that are joined together, they buy in huge quantities. They get 
supplies and equipment at the cheaper price. So in many cases 
for the smaller hospital, actually it is more expensive to 
provide health care than in some of our larger urban hospitals.
    Last year I introduced a bill with Senator Craig from Idaho 
called the FAIR Act, Medicare Fairness in Reimbursement Act, to 
change the payment system so that no State earns more than 105 
percent of the national average and no State earns below 95 
percent of the national per-beneficiary average. Again, during 
our questioning period, Mr. Secretary, I want to get into that 
further and point out some of these discrepancies when I get 
into the question and answer session.
    But I know that Senator Stevens has another commitment he 
has to make and Senator Specter has been gracious enough to 
yield to Senator Stevens.
    Senator Specter. Mr. Chairman, I do yield to our 
distinguished colleague Senator Stevens.


                opening statement of senator ted stevens


    Senator Stevens. You are both very kind. We do have 
meetings in the full committee and I am delighted to be here to 
welcome the Secretary.
    Mr. Secretary, I do thank you for your willingness to look 
into the problems of rural America as the chairman has just 
described. We have some of the most daunting health problems in 
the country and I hope we will be able to arrange that you can 
come up and visit us again in Alaska. Unfortunately, you want 
to talk about statistics; we have the highest rates of child 
abuse, domestic violence, substance abuse, particularly 
alcohol, and fetal alcohol syndrome. Strangely, I believe rural 
America has worse health problems than the inner core city, and 
probably it is because of some of the things that the chairman 
has just discussed.
    I do want you to know that we are really grateful to you 
for leading the charge on obesity in our country, particularly 
our young people. In the last year the Congress enacted a bill 
I introduced, the Carol White PEP, Physical Education for 
Progress. The concept of no child being left behind is a very 
important part of the education phase of the President's 
program. Because of the obesity problem, we want to restore 
physical education to children on a daily basis in our country. 
I would like very much to work with you on that.
    My only comment is, you will find I am disturbed that the 
Denali Commission was----
    Secretary Thompson. So am I.
    Senator Stevens [continuing]. Not funded properly. It is 
authorized. It is not a congressional add-on. It is something 
that the President has approved in the past, presidents have 
approved in the past. I do hope we can restore that funding.
    As I said, Mr. Chairman, I just came by really to pay my 
respects to my friend the Secretary and to tell you that he has 
visited Alaska. As a matter of fact, he came up and worked 
right through the night with us literally and then moved on to 
the West Coast. He is a traveling Secretary and he is becoming 
ubiquitous. But we are delighted to know that your enthusiasm 
and your talents are directed towards improving our health care 
in the country, Mr. Secretary.
    Thank you very much for allowing me to speak now.
    Secretary Thompson. You know, Senator, we will be up there 
the first week in August with senior staff to travel Alaska 
again.
    Senator Stevens. Thank you very much.
    Senator Harkin. Thank you, Senator Stevens.
    Senator Specter.


               opening statement of senator arlen specter


    Senator Specter. Thank you, Mr. Chairman.
    I join my colleagues, Mr. Secretary, in welcoming you to 
this hearing. The Department which you head is second to none 
in importance in the Federal Government. I am glad to see that 
the administration has recognized the importance of NIH. That 
is a battle which this subcommittee had initiated many years 
ago, could not scrape an extra dollar out of the 
administration, and now it has become recognized, which is very 
much to the country's advantage.
    While there are, sir, important increases in a number of 
important fields, some of these cuts just cannot be 
accommodated. If you take a look at the CDC buildings and 
facilities, there is a cut of $186 million. That was an 
initiative which this subcommittee undertook 2 years ago, 
adding $170 million to a ramshackle operation, and last year I 
believe the figure was $255 million.
    You know the facilities there and I know the facilities. We 
both visited them. You simply cannot have people working in the 
quarters, distinguished scientists, and having materials which 
could be very dangerous, not under appropriate security 
precautions as they do research. So we are going to have to do 
a lot of juggling in this subcommittee to try to make ends meet 
here.
    There has been a significant cut in children's graduate 
medical education. There is an enormous constituency for that. 
Community services block grants, LIHEAP--I am not exactly sure 
where we go, but we are going to have to make accommodations on 
those matters.
    I see the press reports about a new head of NIH, which is 
long overdue. Of course, a good bit of the delay was due to the 
prior administration as well. It has been vacant since January 
of the year 2000, but more than 1 year into this 
administration.
    The commissioner on FDA, vacant since September of 1999--a 
very important agency. I hear a lot of major concerns that 
there are matters pending there that the subordinates will not 
sign off on because they do not want to take the chances, and 
that is the job of somebody at the top. You just have to have a 
person.
    The other directorships are vacant for the Institute of 
Neurological Disorders, the Institute of Biomedical Imaging, 
the Institute on Drug Abuse, the Institute on Mental Health, 
the Institute on Alcohol Abuse, the Institute on General 
Medical Sciences.
    I am going to ask you what your progress is on moving ahead 
there. Then just a word or two on homeland defense--very vital. 
I am glad to see the increase of $1.3 billion, up to $4.3 
billion. This subcommittee, Senator Harkin and I, held a 
hearing last year October 5. We had to go to the bowels of the 
Capitol because we could not operate over here, and we got more 
than $3 billion to move ahead there and that is just 
indispensable because of the great concern. The President has 
been very blunt about the threat of some continuing risk. Any 
day something could happen of mammoth proportions, worse than 
9/11. So that has got to be a top speed project.
    Just a brief comment or two about stem cells and about the 
current controversy on therapeutic cloning. I am not quite sure 
where we go here about the ideology of the new director of NIH. 
I am hopeful we can keep ideology out, but I do not know that 
that is possible to do. We initiated here trying to get Federal 
funding for the stem cells and we collected 64 Senators in 
writing last spring who wanted to have more Federal 
involvement. Twelve more in reserve did not want to sign a 
paper.
    The President acted on August 9. But on the facts I think 
it is insufficient and time will tell us more about that. But 
it has been put on the back burner by 9/11.
    Now we have the issue of therapeutic cloning, which is a 
misnomer. It is not cloning at all. We are all against 
reproductive cloning. But if you do not have the process where 
you take a cell from a person, for example, who has 
Parkinson's, put it in the egg and get stem cells which will 
not be rejected, medical science is going to be set back 
tremendously.
    We are going to fight that battle on the Senate floor. So 
perhaps it is not going to be a matter for you, and I know your 
constraints with all the White House directives or the NIH 
director to follow White House constraints to get an 
appointment. So it is in the lap of the Senate, and if we do 
the wrong thing God help America on the export of science and 
scientists to foreign countries and thwarting what could be 
really very important medical research.
    So all of our hands are full. The issues which you face as 
the Secretary and which we face on this subcommittee level are 
gigantic, and we will work together to try to see to it that 
the public interest is carried out.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.
    Senator Cochran.


               opening statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you. I join you in 
welcoming the Secretary to our hearing and I look forward to 
his testimony. I am very impressed with the way he is taking up 
the challenge of serving in the cabinet in this important 
position. I have been able to meet with him, as others on the 
committee have, talking about homeland security issues and 
particularly the responsibilities of the Food and Drug 
Administration and other agencies that he is interested in 
helping to supervise and direct.
    I know there are big challenges in terms of personnel. We 
have had NIH with a vacancy. And FDA, we have a new acting 
director there. At CDC you are looking for a new director to 
run that agency. These are all very important research and 
administrative functions and I know that the Secretary is 
giving his personal attention to these challenges as well.
    I want to add one comment about the stem cell research 
debate. I think it is really important for us to move to 
issuing regulations in this area to show that we are not going 
to shut off useful research using stem cells if it can be done 
without any question about leading to cloning. I think in the 
area of diabetes, particularly Parkinson's disease, we have two 
clear examples of possible beneficial uses for stem cell 
research.
    I hope we can resolve this dilemma. I am clearly opposed to 
human cloning and I think we can agree on that. But we ought to 
be able to find a way to describe and restrict permissible 
research in this area without getting into the cloning 
activities that would trouble many in our country, and it would 
trouble me greatly as well.
    So I hope that we can devote some attention and make this 
one of the highest priorities of our government at this time.
    I am also worried that we are not recognizing the plight of 
small towns and rural communities in terms of the 
discriminatory reimbursement of hospitals and health care 
professionals in those areas. I do not know why we continue to 
make it impossible to have dependable medical care in the small 
towns and rural communities of our country because of this 
discriminatory policy of low reimbursements.
    This is particularly true in the deep South. We have had 
hearings in our subcommittees of Appropriations and in other 
committees as well on this topic, and some changes have been 
made. But I think we need to take a new look at some of the 
deficiencies that continue to be manifested in this area. I am 
hopeful, Mr. Chairman, that you can help us figure out what to 
do to relieve those problems.
    Mr. Chairman, thank you very much.
    Senator Harkin. Thank you, Senator.
    Senator DeWine.
    Senator DeWine. Nothing, Mr. Chairman.
    Senator Harkin. Secretary Thompson is the 19th Secretary of 
the Department that oversees the health and welfare of this 
Nation. His career in public service began in 1966 as a 
representative in the Wisconsin State Assembly. Most recently 
he served as Governor of the State of Wisconsin from 1987 to 
2000, making him the longest serving Governor in Wisconsin 
State history.
    Secretary Thompson is well known as a leader in welfare 
reform and expanding access to health care for low income 
children. He has served as Chairman of the National Governors 
Association, the Education Commission of the States, and the 
Midwestern Governors Conference. Secretary Thompson received 
both his B.S. and J.D. degrees from the University of Wisconsin 
in Madison.
    Mr. Secretary, welcome again to the committee.


              summary statement of hon. tommy g. thompson


    Secretary Thompson. Thank you and good morning, Chairman 
Harkin, Senator Specter. Thank you both for your hospitality 
and willingness to work with my Department and with me 
personally, and I thank you both for your leadership. Members 
of the subcommittee, I thank you as well.
    It is an honor for me to come before you to discuss the 
President's fiscal year 2003 budget for the Department of 
Health and Human Services. Mr. Chairman, the past 13 months 
have witnessed some significant achievements at HHS. I will 
detail some of them in the course of my testimony.
    As to our budget proposal itself, the total HHS request for 
fiscal year 2003 is $489 billion. The discretionary component 
before this committee, as you indicated, is $59.5 billion in 
budget authority, an increase of $2.3 billion, or 4.1 percent 
over the comparable fiscal year 2000 budget.


               protecting the nation against bioterrorism


    After September 11, I appointed Dr. D.A. Henderson, the 
physician who spearheaded the successful drive to eliminate 
smallpox worldwide, to head a newly created Office, in my 
Department, of Public Health Preparedness. About 20 feet from 
my office we have set up a 24-hour-a-day, 7-day-a-week, command 
center where we receive information from all over the world and 
dispense information to individuals and to communities and to 
States all over the country about possible bioterrorism 
attacks. We also dispense the pharmaceutical supplies to New 
York and Washington, DC, from that office.
    In a word, we have been very aggressive. We have been 
prudent to prepare for any biological or chemical threat our 
enemies could use against us.
    To prepare further, President Bush and I are requesting an 
additional $4.3 billion, an increase of 45 percent over the 
current fiscal year, to support a variety of critical 
activities to prevent, identify, and be able to respond to 
incidents of bioterrorism. Right now we are providing $1.1 
billion, thanks to you and Members of both parties in this 
Congress that provided $1.1 billion, to State governments to 
help them strengthen their capacity to respond to bioterrorism 
and other public health emergencies.
    We are working to hook up every State and every major 
county health system in the Nation electronically through the 
Health Alert Network, and we should hope to have 90 percent of 
all the counties hooked up by the year 2003.
    In addition, we are requesting more than half a billion 
dollars for our hospital preparedness program, which will 
strengthen local hospital preparation for biological and 
chemical attacks and expand their surge capacity.
    The NIH is researching better anthrax, plague, botulism, 
and the hemorrhagic fever vaccines; and we are purchasing an 
additional 154 million doses of smallpox vaccine so that every 
man, woman, and child in this Nation will be able to have a 
vaccine he or she needs by the end of this year.
    When it comes to bioterrorism, we are growing stronger in 
our preparedness each and every day.


                    investing in biomedical research


    We are also advancing important biomedical research. The 
budget provides $5.5 billion for research on cancer throughout 
NIH--I know it is a subject that both you, Senator Harkin and 
Senator Specter, are very interested in--and a total of $2.8 
billion for HIV-AIDS-related research.
    We are also working hard to improve patient safety. As many 
as 98,000 Americans die annually due to medical errors. So in 
the 2003 budget President Bush is proposing $10 million in new 
funding to improve patient safety and reduce medical errors. 
The increased funding will bring the total HHS budget for 
improving patient safety to $84 million in fiscal year 2003. 
The funds will support efforts to put known safety technologies 
into wider use, develop new approaches, and support a stronger 
system for rapid reporting of adverse medical events.


                     supporting health communities


    We are also requesting $20 million for a Healthy 
Communities Initiative, which is a new innovation. It is a new 
interdisciplinary service effort that will concentrate 
Department-wide expertise on the prevention of diabetes, 
asthma, obesity, and health disparities in minority 
communities. Let me note how concerned I am and how concerned 
all of us should be about how obesity is affecting our health 
as a people. Roughly three out of every five adults are 
overweight and approximately 300,000 U.S. deaths a year 
currently are associated with obesity and simply weighing too 
much. The total direct and indirect costs attributed to being 
overweight and to obesity amounted to $117 billion in the year 
2000.
    We have also got a serious problem with diabetes. Nearly 16 
million Americans have diabetes and 800,000 more fall victim to 
the disease annually. This epidemic is witnessing a terrible 
increase, tripling within the last 3 decades. Yet we have got 
solid research that shows that if you exercise just 30 minutes 
a day--and walking is a perfectly suitable form of exercise--
and lose 10 to 15 pounds, your risk of getting diabetes falls 
by nearly 60 percent.
    So the President and I are committed to our across the 
board prevention initiative. Preventive health care saves huge 
amounts of money, but, more importantly, it can save untold 
thousands of lives.


                             welfare reform


    We are also helping to prepare low income Americans for 
their future. That is why welfare reform remains so important. 
The good news is that since 1996, when Congress passed the TANF 
I bill, nearly 7 million fewer individuals are on welfare, and 
2.8 million fewer children are in poverty, in large part 
because welfare has been transformed.
    The President's budget boldly takes the next step, which 
requires us to work closely with States to help families that 
have left welfare to climb the career ladder. The foundation of 
welfare reform's success still remains work, for work is the 
only way to leave poverty and be able to become independent.
    Let me also make crystal clear that the news reports 
yesterday about a plan to change the minimum wage law were 
absolutely false and incorrect. President Bush and I will 
insist that welfare recipients receive at least the minimum 
wage for the hours that they work, including community service 
jobs. This is an important principle that I fought for as 
Governor of Wisconsin and one the President and I remain 
committed to today as we take the next step in welfare reform.
    The President's budget allocates $16.5 billion for block 
grant funding, provides supplemental grants to address 
historical disparities in welfare spending among States, and 
strengthens work participation requirements. The budget 
provides another $350 million in Medicaid benefits for those in 
the transition from welfare to work.
    We are calling for a continued commitment also to child 
care, including $2.7 billion for entitlement child care funding 
and $2.1 billion for discretionary funding. We are giving 
States the flexibility they need to mix effective education and 
job training programs with work, as well as the money to 
strengthen families and reduce illegitimacy.
    Strengthening Medicare is another key component of our 
across-the-board effort to broaden and strengthen our country's 
health care system. The 2003 budget dedicates $190 billion over 
10 years for immediate targeted improvements and comprehensive 
modernization.


                     expanded access to health care


    As we reach out to those still relying on welfare anywhere 
to strengthen Medicare, we cannot ignore the roughly 40 million 
Americans who lack health insurance. Since January 2001 I have 
been able to approve State plan amendments and Medicare and 
SCHIP waivers that have expanded opportunity for health 
coverage to 1.8 million Americans and improved existing 
benefits to 4.5 million individuals.
    The 2003 budget also seeks $1.5 billion to support the 
President's plan to impact 1,200 communities with new or 
expanded health centers by 2006. This is a $114 million 
increase over fiscal year 2002 and would support 170 new and 
expanded health centers and provide services to 1 million 
additional patients. We will soon be issuing 27 grants totaling 
$12 million under President Bush's Health Centers Initiative to 
help more Americans get access to quality health care. The 
awards are the second round of fiscal year 2002 grants under 
the President's initiative and will help bring needed health 
services to some 157,000 Americans in 17 States.
    The President's budget includes $89 billion in new health 
credits to help American families buy health insurance which 
will provide health coverage for many low income families.


                           management reforms


    Finally, Mr. Chairman, I want to note that when I accepted 
my post at HHS, the President charged me to make significant 
management reforms in my Department. I have taken the 
President's charge seriously and have implemented reforms that 
will enable HHS to serve the American people even better in the 
coming years. To that end, we will reduce the number of HHS 
personnel offices from 46 to 4. We are realigning and 
consolidating throughout the Department, bringing better 
stewardship to our use of taxpayer dollars, and we have 
launched a regulatory reform initiative to reduce the paperwork 
burden on physicians, hospitals, and other health providers.
    For HHS to truly be compassionate, we have to be effective. 
That means running our programs well and honoring the taxpayers 
with the best possible services that we can provide.

                           prepared statement

    Mr. Chairman, this comprehensive, aggressive budget 
addresses the most pressing public health challenges that face 
our Nation--from bioterrorism preparedness to coverage for the 
uninsured--in order to ensure that we have a safe and healthy 
America. I am confident that by working together in a 
bipartisan fashion we can continue to improve the health and 
wellbeing of our fellow citizens.
    Thank you again, Mr. Chairman and members, for letting me 
come before you today. I look forward now to your questions.
    [The statement follows:]
              Prepared Statement of Hon. Tommy G. Thompson
    Good Morning Chairman Harkin, Senator Specter and members of the 
Committee. I am honored to appear before you today to discuss the 
President's fiscal year 2003 budget for the Department of Health and 
Human Services. I am confident that a review of the full details of our 
budget will demonstrate that we are proposing a balanced and 
responsible approach to ensuring a safe and healthy America.
    Before I discuss the fiscal year 2003 budget, I would like to thank 
the committee for its hard work and dedication to the programs at HHS. 
Over the past year, I have come to really appreciate your support and 
interest in the issues and health needs of the American people. Like 
you, I believe in the services HHS programs provide including our 
commitment to the war against bioterrorism. I look forward to 
furthering our relationship and building on the successes achieved 
during the past year.
    The budget I present to you today fulfills the promises the 
President has made and proposes creative and innovative solutions for 
meeting the challenges that now face our nation. Since the September 
11th attacks we have dedicated much of our efforts to ensuring that the 
nation is safe. HHS was one of the first agencies to respond to the 
September 11th attacks on New York City, and began deploying medical 
assistance and support within hours of the attacks. Our swift response 
and the overwhelming task of providing needed health related assistance 
made us even more aware that there is always room for improvement. The 
fiscal year 2003 budget for the Department of Health and Human Services 
builds on President Bush's commitment to ensure the health and safety 
of our nation.
    The fiscal year 2003 budget places increased emphasis on protecting 
our nation's citizens and ensuring safe, reliable health care for all 
Americans. The HHS budget also promotes scientific research, builds on 
our success in welfare reform, and provides support for childhood 
development while delivering a responsible approach for managing HHS 
resources. Our budget plan confronts both the challenges of today and 
tomorrow while protecting and supporting the well being of all 
Americans.
    Mr. Chairman, the total HHS request before this committee for 
fiscal year 2003 is $312.1 billion in outlays. The discretionary 
component of the HHS budget totals $59.5 billion in budget authority, 
which is an increase of $2.3 billion, or +4.1 percent over fiscal year 
2002. The mandatory component before this committee totals $252.7 
billion, which is an increase of $19.4 billion or +8.3 percent. Let me 
now discuss some of the highlights of the HHS budget and how we hope to 
achieve our goals.
               protecting the nation against bioterrorism
    Mr. Chairman, as you know, the Department of Health and Human 
Services is the lead federal agency in countering bioterrorism. In 
cooperation with the States, we are responsible for preparing for, and 
responding to, the medical and public health needs of this nation. The 
fiscal year 2003 budget for HHS bioterrorism efforts is $4.3 billion, 
an increase of $1.3 billion, or 45 percent, above fiscal year 2002. The 
amount before this committee totals $4.1 billion. This budget supports 
a variety of activities to prevent, identify, and respond to incidents 
of bioterrorism. These activities are administered through the Centers 
for Disease Control and Prevention (CDC), the National Institutes of 
Health (NIH), the Office of Emergency Preparedness (OEP), the Substance 
Abuse and Mental Health Services Administration (SAMHSA), the Health 
Resources and Services Administration (HRSA) and the Food and Drug 
Administration (FDA). These efforts will be directed by the newly 
established Office of Public Health Preparedness (OPHP).
    On January 31, 2002, HHS announced plans for making $1.1 billion 
available to States. This funding is available for hospital 
preparedness, laboratory capacity, epidemiology, and emergency medical 
response. Approximately 20 percent of this total either has already 
been provided (or will be provided within the next few weeks) for 
immediate expenditure to all eligible entities in base awards that will 
be used to establish core programs and address current needs for 
bioterrorism preparedness. The remaining 80 percent will be made 
available for expenditure once the Secretary has approved the States' 
work plans for their awarded funds. States will submit plans which will 
be reviewed by the HHS staff to ensure that funding is used wisely for 
bioterrorism efforts.
    In order to create a blanket of preparedness against bioterrorism, 
the fiscal year 2003 budget provides funding to State and local 
organizations to improve laboratory capacity, enhance epidemiological 
expertise in the identification and control of diseases caused by 
bioterrorism, provide for better electronic communication and distance 
learning, and support a newly expanded focus on cooperative training 
between public health agencies and local hospitals.
    Funding for the Laboratory Response Network enhances a system of 
over 80 public health labs specifically developed for identifying 
pathogens that could be used for bioterrorism. Funding will also 
support the Health Alert Network, CDC's electronic communications 
system that will link local public health departments in covering at 
least ninety percent of our nations' population. Funding will be used 
to support epidemiological response and outbreak control, which 
includes funding for the training of public health and hospital staff. 
This increased focus on local and state preparedness serves to provide 
funding where it best serves the interests of the nation.
    An important part on the war against terrorism is the need to 
develop vaccines and maintain a National Pharmaceutical Stockpile. The 
National Pharmaceutical Stockpile is purchasing enough antibiotics to 
be able to treat up to 20 million individuals in a year for exposure to 
anthrax and other agents by the end of 2002. The Department is 
purchasing sufficient smallpox vaccines for all Americans. The fiscal 
year 2003 budget proposes $650 million for the National Pharmaceutical 
Stockpile and costs related to stockpiling of smallpox vaccines, and 
next-generation anthrax vaccines currently under development.
    Another important aspect of preparedness is the response capacity 
of our nation's hospitals. Our fiscal year 2003 budget provides $518 
million for hospital preparedness and infrastructure to enhance 
biological and chemical preparedness plans focused on hospitals. The 
fiscal year 2003 budget will provide funding to upgrade the capacity of 
hospitals, outpatient facilities, emergency medical services systems 
and poison control centers to care for victims of bioterrorism. In 
addition, CDC will provide support for a series of exercises to train 
public health and hospital workers to work together to treat and 
control bioterrorist outbreaks.
    The fiscal year 2003 budget also includes $184 million to 
construct, repair and secure facilities at the CDC. Priorities include 
the construction of an infectious disease/bioterrorism laboratory in 
Fort Collins, Colorado, and the completion of a second infectious 
disease laboratory, an environmental laboratory, and a communication 
and training facility in Atlanta. This funding will enable the CDC to 
handle the most highly infectious and lethal pathogens, including 
potential agents of bioterrorism. Within the funds requested, $12 
million will be used to equip the Environmental Toxicology Lab, which 
provides core lab space for testing environmental samples for chemical 
terrorism. Funding will also be allocated to the ongoing maintenance of 
existing laboratories and support structures.
    The fiscal year 2003 budget also includes $60 million for the 
development of new Educational Incentives for Curriculum Development 
and Training Program. The goals of this program will be the development 
of a health care workforce capable of recognizing indications of a 
bioterrorist event in their patients, that possesses the knowledge and 
skills to best treat their patients, and that has the competencies to 
rapidly and effectively inform the public health system of such an 
event at the community, State and national level.
                    investing in biomedical research
    Advances in scientific knowledge have provided the foundation for 
improvements in public health and have led to enhanced health and 
quality of life for all Americans. Much of this can be attributed to 
the groundbreaking work carried on by, and funded by, the National 
Institutes of Health (NIH). Our fiscal year 2003 budget enhances 
support for a wide array of scientific research, while emphasizing and 
supporting research needed for the war against bioterrorism.
    NIH is the largest and most distinguished biomedical research 
organization in the world. The research that is conducted and supported 
by the NIH offers the promise of breakthroughs in preventing and 
treating a number of diseases and contributes to fighting the war 
against bioterrorism. The fiscal year 2003 budget includes the final 
installment of $3.9 billion needed to achieve the doubling of the NIH 
budget. The budget includes $1.75 billion for bioterrorism research, 
including genomic sequencing of dangerous pathogens, development of 
zebra chip technology, development and procurement of an improved 
anthrax vaccine, and laboratory and research facilities construction 
and upgrades related to bioterrorism. With the commitment to 
bioterrorism research comes our expectation of substantial positive 
spin-offs for other diseases. Advancing knowledge in the arena of 
diagnostics, therapeutics and vaccines in general should have enormous 
impact on the ability to diagnose, treat, and prevent major killers-
diseases such as malaria, TB, HIV/AIDS, West Nile fever, and influenza.
    The fiscal year 2003 budget also provides $5.5 billion for research 
on cancer throughout all of NIH. Currently, one of every two men and 
one of every three women in the United States will develop some type of 
cancer over the course of their lives. New research indicates that 
cancer is actually more than 200 diseases, all of which require 
different treatment protocols. Promising cancer research is leading to 
major breakthroughs in treating and curing various forms of cancer. Our 
budget continues to expand support for these research endeavors. The 
fiscal year 2003 budget also includes a total of $2.8 billion for HIV/
AIDS-related research. NIH continues to focus on prevention research, 
therapeutic research to treat those already infected, international 
research, and research targeting the disproportionate impact of AIDS on 
minority populations in the United States.
                     supporting healthy communities
    The fiscal year 2003 budget includes $25 million for a Healthy 
Communities Innovation Initiative--a new interdisciplinary services 
effort that will concentrate Department-wide expertise on the 
prevention of diabetes and asthma, as well as obesity. Of this amount, 
$20 million is available in HRSA. The purpose of the initiative is to 
reduce the incidence of these diseases and improve services in 5 
communities through a tightly coordinated public/private partnership 
between medical, social, educational, business, civic and religious 
organizations. These chronic diseases were chosen because of their 
rapidly increasing prevalence within the United States. In addition 
there is $5 million in CDC for a national media campaign to promote 
physical fitness activities, with an emphasis on families and 
communities.
    More than 16 million Americans currently suffer from a preventable 
form of diabetes. Type II diabetes is increasingly prevalent in our 
children due to the lack of activity. In a recent study conducted by 
NIH, participants that were randomly assigned to intensive lifestyle 
intervention experienced a reduced risk of getting Type II diabetes by 
58 percent. HHS plans to reach out to women and minorities to help make 
this initiative a success.
                    increasing access to health care
    Of all the issues confronting this Department, none has a more 
direct effect on the well-being of our citizens than the quality and 
accessibility of health care. Our budget proposes to improve the health 
of the American people by taking important steps to increase and expand 
the number of Community Health Centers, strengthen Medicaid, and ensure 
patient safety.
    Community Health Centers provide family oriented preventive and 
primary health care to over 11 million patients through a network of 
over 3,400 health sites. The fiscal year 2003 budget will increase and 
expand the number of health center sites by 170, the second year of the 
President's initiative is to increase and expand sites by 1,200 and 
serve an additional 6.1 million patients by 2006. We propose to 
increase funding for these Community Health Centers by $114 million in 
fiscal year 2003. Our long-term goal is to increase the number of 
people who receive high quality primary healthcare regardless of their 
ability to pay. With these new health centers we hope to achieve this 
goal.
    In addition to expanding Community Health Centers, we are seeking 
to expand the National Health Service Corps by $44 million. Currently, 
more than 2,300 health care professionals are providing service to 
health center patients and others in under served communities.
    The Medicaid program and the State Children's Health Insurance 
Program (SCHIP) provide health care benefits to low-income Americans, 
primarily children, pregnant women, the elderly, and those with 
disabilities. The fiscal year 2003 budget we propose strengthens the 
Medicaid and SCHIP programs by implementing essential reforms in the 
way we pay for prescription drugs and by extending expiring SCHIP 
funds.
    We propose to work with stakeholders to develop legislative 
proposals that build on the Health Insurance Flexibility and 
Accountability (HIFA) demonstration in order to give states the 
flexibility they need to design innovative ways of increasing access to 
health insurance coverage for the uninsured. The Administration's plan 
would allow at State option those who receive the President's health 
care tax credit to increase their purchasing power by purchasing 
insurance from plans that already participate in their State's 
Medicaid, Children's Health Insurance, or State employees' programs. 
This could help keep costs down and provide a more comprehensive 
benefit than plans in the individual market.
    We also need to make an effort to narrow the drug treatment gap. As 
reflected in the National Drug Control Strategy, Substance Abuse and 
Mental Health Services Administration estimates that 4.7 million people 
are in need of drug abuse treatment services. However, fewer than half 
of those who need treatment actually receive services, leaving a 
treatment gap of 3.9 million individuals. Our budget supports the 
President's Drug Treatment initiative, and to narrow the treatment gap. 
We propose to increase funding for the initiative by $127 million. 
These additional funds will allow States and local communities to 
provide treatment services to approximately 546,000 individuals, an 
increase of 52,000 over fiscal year 2002.
             building upon the successes of welfare reform
    President Bush has said that American families are the bedrock of 
American society and the primary source of strength and health for both 
individuals and communities. Our budget includes a number of new 
initiatives that support this principle by targeting resources to 
strengthen our nation's families. We look forward to working with 
Congress in considering the next phase of welfare reform and other 
elements of the President's proposals to help America's low-income 
families succeed.
Temporary assistance for needy families
    As a former governor, I can tell you that the Temporary Assistance 
for Needy Families program--or TANF--has been a truly remarkable 
example of a successful Federal-State partnership. States were given 
tremendous flexibility to reform their welfare programs and as a 
result, millions of families have been able to end their dependency on 
welfare and achieve self-sufficiency.
    In New York City, where we are understandably most concerned about 
job opportunities, the City has achieved more than 53,000 job 
placements for welfare recipients from September through December 2001. 
While the number of TANF recipients increased briefly directly because 
of the tragedy on September 11, by December there were about 15,000 
fewer TANF recipients on the rolls than there were in August. Indeed, 
in December the City had its lowest number of persons on welfare since 
1965.
    Our reauthorization proposal embraces the needs of families by 
maintaining the program's overall funding and basic structure, while 
focusing increased efforts on building stronger families through work 
and job advancement and adding child well-being as an overarching 
purpose of TANF.
    Our budget proposes $16.5 billion each year for block grants to 
States and Tribes; $319 million a year to restore supplemental grants; 
$2 billion over five years for a more accessible Contingency Fund; a 
$100 million a year initiative for research, demonstration and 
technical assistance primarily to promote family formation and healthy 
marriage activities; and $100 million redirected from High Performance 
Bonus funds to create a competitive matching grant program to develop 
innovative approaches to promoting healthy marriages and reducing out-
of-wedlock births. In addition, our proposal will call for modification 
of the bonus for high performance to reward significant achievement in 
promoting employment of program participants.
Other programs supporting TANF goals
    The President's Budget also includes funding for several other 
programs at the State and community level that work to support the 
goals of TANF. The Social Services Block Grant (SSBG) provides a 
flexible source of funding for States to help families achieve or 
maintain self-sufficiency and provide an array of social services to 
vulnerable families. The President's Budget request for SSBG is $1.7 
billion.
    The President's Budget extends the Transitional Medical Assistance 
(TMA) program which provides valuable health protection for former 
welfare recipients after they enter the workforce. This important 
program allows families to remain eligible for Medicaid for up to 12 
months after they are no longer eligible for welfare because of 
earnings from their new job. TMA is an important stepping stone in 
helping workers and their families successfully transfer from welfare 
to work without fear of losing vital health coverage.
Child care
    Child Care has played an important role in the success of welfare 
reform by providing parents the support they need to work. The 
President's Budget recognizes this critical link and maintains a high 
level of commitment to childcare. Continuing the substantial increase 
in funding that Congress has provided over the last several years, the 
President's Budget includes a total of $4.8 billion in childcare 
funding in conjunction with our request to reauthorize the mandatory 
and discretionary funding provided under the Child Care and Development 
Block Grant and the Child Care Entitlement. States will also continue 
to have significant flexibility under the TANF program and under the 
Social Services Block Grant program to address the needs of their low-
income working families. These additional funding opportunities have 
substantially increased the amount of resources dedicated to child care 
needs. For example, in fiscal year 2000 States transferred $2.3 billion 
in TANF funds to the Child Care and Development Block Grant.
Child support enforcement
    The Child Support Enforcement program offers another vital 
connection to families' ability to achieve self-sufficiency and 
financial stability. The President's Budget proposes to increase child 
support collections and direct more of the support collected to 
families transitioning from welfare. Under our proposal, the Federal 
government would share in the cost of optional expanded State efforts 
to pass through child support collections to families receiving TANF. 
States could also opt to direct all child support to families who 
formerly received TANF.
    Overall collections would be increased by expanding our successful 
program for denying passports to parents owing $2,500 in past-due 
support, requiring States to update support awards in TANF cases every 
three years, and authorizing States to offset certain Social Security 
Administration payments when they determine such action would be 
appropriate to collect unpaid support. Our child support legislative 
package would also impose a minimal annual processing fee in any case 
where the State has been successful in collecting support on behalf of 
a family that has never received assistance.
Strengthening families
    The fiscal year 2003 budget contains funds for four competitive 
grant programs, targeted at community and faith based organizations, to 
assist in delivering innovative services, to strengthen families and 
help change lives. The Compassion Capital Fund, at $100 million, will 
expand the capacity of groups and organizations willing to step up and 
help provide these critical social services.
    Over 25 million children live in homes without fathers. To assist 
non-custodial fathers to become more involved in the lives of these 
children, the budget provides $20 million in competitive grants to 
faith-and community-based organizations to encourage and help fathers 
to support their families and avoid welfare, improve fathers' ability 
to manage family business affairs, and encourage and support healthy 
marriages.
    The budget also provides $25 million for the mentoring children of 
prisoners initiative first proposed last year. This funding will enable 
public and private entities to establish or expand programs providing 
mentoring for children of incarcerated parents.
    Finally, young pregnant mothers and their children will be provided 
safe environments through the $10 million included for Maternity Group 
Homes. Approximately 80 grantees will provide a range of services such 
as childcare, education, job training, counseling and advices on 
parenting and life skills.
Promoting safe and stable families
    The President's Budget would increase the funding level for this 
program to $505 million, fully supporting the increased authorization 
included in the new law. These funds will be used to help promote and 
support adoption so that children can become part of a safe and stable 
family, as well as for increased preventive efforts to help families in 
crisis.
    This landmark legislation also authorized a new program to provide 
vouchers to youth who are aging out of foster care so that they can 
obtain the education and training they need to lead productive lives. 
The President's Budget includes $60 million for these vouchers, 
bringing the total request for the Foster Care Independence Program to 
$200 million.
Child welfare/foster care/adoption
    Our budget framework includes resources for a number of additional 
programs targeted to protecting our most vulnerable and at-risk 
children. Foster Care, Adoption Assistance, Adoption Incentives and 
Child Welfare Services enhance the capacity of families to raise 
children in a nurturing, safe environment. The President's Budget 
provides resources to help States provide safe and appropriate care for 
children who need placement outside their homes, and to provide funds 
to States to assist in providing financial and medical assistance for 
adopted children with special needs who cannot be reunited with their 
families, and to reward States for increasing their number of 
adoptions. The budget also supports Child Welfare Services programs 
with the goal of keeping families together when possible and in the 
best interest of the child.
    The budget provides $4.9 billion for Foster Care, $1.6 billion for 
Adoption Assistance, and $43 million in Adoption Incentive funds. The 
President's Budget seeks almost $300 million in funding for child 
welfare services and training. Together, these funds will support 
improvement in the healthy development, safety, and well being of the 
children and youth in our nation.
Head Start
    Our budget continues to provide support for Head Start and supports 
early childhood education and school readiness. The President's Budget 
request includes $6.7 billion for Head Start, an increase of $130 
million over fiscal year 2002. In fiscal year 2003, almost 915,000 
children will receive Head Start services including 62,000 children in 
Early Head Start. The funding increase will maintain current enrollment 
levels, strengthen training and technical assistance, and support 
competitive salaries for Head Start teachers.
    In fiscal year 2003, the Department will continue to focus on early 
literacy through investments in teacher quality and credentialing and, 
specialized efforts such as Head Start Centers of Excellence on 
Literacy and the Head Start Family Literacy Project. In 2003, Head 
Start will meet its statutory goal, assuring that 50 percent of all 
Head Start educators have a college degree.
                         strengthening medicare
    The fiscal year 2003 President's Budget dedicates $190 billion over 
ten years for immediate targeted improvements and comprehensive 
Medicare modernization, including a subsidized prescription drug 
benefit, better insurance protection, and better private options for 
all beneficiaries. Let me assure you, the President remains committed 
to the framework he introduced last summer, and to bringing the 
Medicare program up to date by providing prescription drug coverage and 
other improvements. We cannot wait: it is time to act. Recognizing that 
there is no time to waste, the President's Budget also includes a 
series of targeted immediate improvements to Medicare.
  --HHS has just released a revised and improved version of the 
        proposed drug card program, which will give beneficiaries 
        immediate savings on the cost of their medicines and access to 
        other valuable pharmacy services. The President is absolutely 
        committed to providing immediate assistance to seniors who 
        currently have to pay full price for prescription drugs, and 
        this initiative will lay the groundwork for a comprehensive 
        Medicare drug benefit.
  --Recently, I announced a model drug waiver program-Pharmacy Plus-to 
        allow States to reduce drug expenditures and expand drug only 
        coverage to seniors and certain individuals with disabilities 
        with family incomes up to 200 percent of the federal poverty 
        level. This program is being done administratively. The 
        recently approved Illinois initiative illustrates how states 
        can expand coverage to Medicare beneficiaries in partnership 
        with the federal government. The Illinois program will give an 
        estimated 368,000 low-income seniors drug coverage.
  --This budget proposes additional federal assistance for 
        comprehensive drug coverage to low-income Medicare 
        beneficiaries up to 150 percent of poverty--about $17,000 for a 
        family of two. This policy would eventually expand drug 
        coverage for up to 3 million beneficiaries who currently do not 
        have prescription drug assistance, and it will be integrated 
        with the Medicare drug benefit that is offered to all seniors 
        once that benefit is in place. This policy also helps to 
        establish the framework necessary for a Medicare prescription 
        drug benefit and is essentially a provision that is in all of 
        the major drug benefit proposals to be debated before Congress.
  --The President's budget also includes an increase in funding to 
        stabilize and increase choice in Medicare+Choice program by 
        aligning payment rates more closely with overall Medicare 
        spending and paying incentives for new types of plans to 
        participate. Over 500,000 seniors lost coverage last year 
        because Medicare+Choice plans left the program. Today close to 
        5 million seniors choose to receive quality health care through 
        the Medicare+Choice program. Because it provides access to drug 
        coverage and other innovative benefits, it is an option many 
        seniors like, and an option we must preserve. The President's 
        budget also proposes the addition of two new Medigap plans to 
        the existing 10 plans. These new plans will include 
        prescription drug assistance and protect seniors from high out-
        of-pocket costs
    Some of these initiatives give immediate and tangible help to 
seniors. But, let me make clear: these are not substitutes for 
comprehensive modernization and availability of a drug benefit option 
to all seniors in Medicare. They are immediate steps we want to take to 
improve the program in conjunction with comprehensive reform, so that 
beneficiaries will not have to wait to begin to see benefit 
improvements. I want to pledge today to work with each and every member 
of this Committee to fulfill our promise of health care security for 
America's seniors- now and in the future.
          improving management and performance of hhs programs
    I am committed to being proactive in preparing the nation for 
potential threats of bioterrorism and supporting research that will 
enable Americans to live healthier and safer lives. And, I am excited 
about beginning the next phase of Welfare reform and strengthening our 
Medicare and Medicaid programs. Ensuring that HHS resources are managed 
properly and effectively is also a challenge I take very seriously.
    For any organization to succeed, it must never stop asking how it 
can do things better, and I am committed to supporting the President's 
vision for a government that is citizen-centered, results oriented, and 
actively promotes innovation through competition. HHS is committed to 
improving management within the Department and has established its own 
vision of a unified HHS--One Department free of unnecessary layers, 
collectively strong to serve the American people. The fiscal year 2003 
budget supports the President's Management Agenda.
    The Department will improve program performance and service 
delivery to our citizens by more strategically managing its human 
capital and ensuring that resources are directed to national 
priorities. HHS will reduce duplication of effort by consolidating 
administrative management functions and eliminating management layers 
to speed decision-making. The Department plans to reduce the number of 
personnel offices from 40 to 4 and consolidate construction funding, 
leasing, and other facilities management activities. These management 
efficiencies will result in an estimated savings of 700 full time 
equivalent positions, allowing the Department to redeploy staff and 
other resources to advance primary missions.
    HHS continues working to improve budget and performance integration 
in support of the Government-wide effort. Although we work in a 
challenging environment where health outcomes may not be apparent for 
several years, and the Federal dollar may be just one input to complex 
programs, HHS is committed to demonstrating to citizens the value they 
receive for the tax dollars they pay.
    By expanding our information technology and by establishing a 
single corporate Information Technology Enterprise system, HHS can 
build a strong foundation to re-engineer the way we do business and can 
provide better government services at reduced costs. By consolidating 
and modernizing existing financial management systems our Unified 
Financial Management System (UFMS) will provide a consistent, 
standardized system for departmental accounting and financial 
management. This ``One Department'' approach to financial management 
and information technology emphasizes the use of resources on an 
enterprise basis with a common infrastructure, thereby reducing errors 
and enhancing accountability. The use of cost accounting will aid in 
the evaluation of HHS program effectiveness, and the impacts of funding 
level changes on our programs.
    HHS is also committed to providing the highest possible standard of 
services and will use competitive sourcing as a management tool to 
study the efficiency and performance of our programs, while minimizing 
costs overall. The program will be linked to performance reviews to 
identify those programs and program components where outsourcing can 
have the greatest impact. Further, the incorporation of performance-
based contracting will improve efficiency and performance at a savings 
to the taxpayer.
                 government performance and results act
    HHS is committed to continual improvement in the performance and 
management of its programs and the Administration's efforts to provide 
results-oriented, citizen-centered government. The budget request for 
fiscal year 2003 is accompanied by annual performance plans and reports 
required by the Government Performance and Results Act (GPRA). The 
performance measures cover the wide range of program activities 
essential to carrying out the HHS mission. Some notable fiscal year 
2001 achievements include:
  --Moving Families Toward Self-sufficiency: ACF reported that 42.9 
        percent of adult recipients of TANF were employed by fiscal 
        year 1999. This is a primary indicator of success in moving 
        families toward self-sufficiency. It improves on the fiscal 
        year 1998 baseline of 38.7 percent and exceeds the target of 42 
        percent.
  --Families Benefiting from Child Support Enforcement: The Child 
        Support Enforcement program broke new records nationwide in 
        fiscal year 2001 by collecting $18.9 billion, one billion over 
        fiscal year 2000 levels. In one such initiative in fiscal year 
        2000, the government collected a record $1.4 billion in overdue 
        child support from Federal income tax refunds, and more than 
        1.42 million families benefited from these collections.
    These are just a few of the dozens of impressive success stories 
found in the 13 performance plans and reports. Performance measurement 
has been, and will continue to be, an important part of our effort to 
improve the management and performance of our programs.
         working together to ensure a safe and healthy america
    Mr. Chairman, the budget I bring before you today contains many 
different elements of a single proposal; what binds these fundamental 
elements together is the desire to improve the lives of the American 
people. All of our proposals, from building upon the successes of 
welfare reform, to protecting the nation against bioterrorism; from 
increasing access to healthcare, to strengthening Medicare, are put 
forward with the simple goal of ensuring a safe and healthy America. I 
know this is a goal we all share, and with your support, we are 
committed to achieving it.

                              NIH DIRECTOR

    Senator Harkin. Thank you very much, Mr. Secretary, for 
your statement.
    Mr. Secretary, picking up a little bit on what Senator 
Specter talked about and what Senator Cochran mentioned also, 
there is an article in the newspaper this morning, the 
Washington Post, that basically, if it is true--I do not know 
if it is--I think is highly disturbing, about the new pick to 
be the head of the NIH. Now, as I understand it no name has 
come forward. This is just sort of touted. This name of this 
person, Elias Zerhouni, has not been submitted yet; is that 
correct?
    Secretary Thompson. That is correct, Senator.
    Senator Harkin. So again I do not know whether it is true, 
but I am just saying if it is, it is very disturbing that a 
person would have to pass some philosophical test before they 
could be appointed the head of the NIH, that he had to agree to 
oppose all stem cell research that could lead to cures for 
things like Alzheimer's and Parkinson's and juvenile diabetes.
    It is just disturbing to me that the NIH, the premier 
medical research agency in the world, might be led by someone 
with a closed mind about this promising avenue of research. As 
I said, I do not know if this is true or not, but it is very 
disturbing if it is.
    Secretary Thompson. If it was true, I would be very 
disturbed, too. But it is not true, Senator.
    Senator Harkin. Oh, this story in the Post is not true?
    Secretary Thompson. That story, the conclusions of that 
story are not true.
    Senator Harkin. It quoted an unknown--you always have to 
ask questions when it is an unknown. An unknown congressional 
Republican who is working to enact the anti-cloning legislation 
said: ``He is one of us. He supports Brownback and we support 
him.''
    I guess we will have to find out if his name comes up. But 
are you saying that that is not true, either?
    Secretary Thompson. I do not know his position on the 
Brownback bill, but I would like to point out, Senator, if I 
might, that there is no litmus test and I would be very 
disturbed if there was. There is not.
    Second, the President of the United States has not chosen, 
has not advanced a name yet. But I know the President is 
reviewing the names that are over in the White House and I am 
very hopeful and quite confident that a name will be coming 
forth relatively soon.
    Senator Harkin. Mr. Secretary, I do not know----
    Secretary Thompson. I have had a chance to interview all of 
the candidates and I can assure you none of the candidates that 
are in the White House have a closed mind about stem cells and 
about research. I think once you get a chance to meet any of 
the three candidates that are over there you will be very 
satisfied after you get a chance to discuss it with them.
    Senator Harkin. Well, that is reassuring, and of course we 
will meet with them. They will have to come up to our committee 
for confirmation.
    Secretary Thompson. That is correct.
    Senator Harkin. I just say publicly for the record that--
again, you say you assure me this is not true. I am just 
saying, if it is, if there is substance to that and such a 
person were appointed to be the head of the NIH, I think you 
would see a mass exodus of scientists out of NIH. To think that 
somehow you are going to have a director of NIH that had a 
closed mind on a legitimate and I think promising source of 
research would be something that has never happened at NIH.

                        CANDIDATE QUALIFICATIONS

    Here we have just doubled the funding for it. We put all 
that money into it. We want to attract the best and the 
brightest minds to NIH.
    Secretary Thompson. You do and I do as well, Senator. I can 
assure you that the person that will be nominated, when he is 
nominated by the President, will have an open mind about 
research and that you will feel comfortable with him. I am 
fairly confident about that.
    Senator Harkin. Well, I hope so. Again, there are rumors 
around. I can only say they are rumors. I do not know if there 
is any substance to them.
    Secretary Thompson. I read the article myself this morning 
and I would like to point out that Dr. Varmus, who was the NIH 
director, spoke very highly of the individual in question.
    Senator Harkin. He said: ``While Zerhouni is not widely 
known among basic researchers, he is a talented scientist with 
the ability to instill confidence in the agency.''
    Well, I heard a disturbing report that one of the 
candidates for the NIH director position was interviewed by a 
certain U.S. Senator, who turned thumbs down and that ended it. 
Now again, I do not know if that is true or not, but it was on 
the basis of his opposition to--or that he would not be opposed 
to stem cell research. I do not know if that is true.
    Secretary Thompson. I know full well about that individual 
and I have the utmost confidence, as you do, in that person. He 
is an outstanding scientist. The question was would he give up 
his institute in order to take the NIH directorship and he said 
no. That was the question.
    Senator Harkin. But that person did not meet with a U.S. 
Senator regarding his position on stem cell research?
    Secretary Thompson. I am sure he met with Senators. I do 
not know how many he met with, but I know he did because I 
requested that he do that.
    Senator Harkin. That he meet with Senators?
    Secretary Thompson. Yes.
    Senator Harkin. Well, he did not meet with me. I do not 
know what Senators he met with.
    Secretary Thompson. I do not know either, sir.
    Senator Harkin. Well, there is that story out there that he 
met with a Senator who turned thumbs down on him because he 
would not commit to being opposed to stem cell research. Now 
again, that is just a rumor.
    Secretary Thompson. All I know from inside information is 
that it was not that decision that affected his appointment. It 
was whether or not he would turn down--whether or not he could 
handle his institute and the directorship of NIH, and he wanted 
to do both. I thought he could and, after reviewing it, the 
decision was made that--well, the decision has not been made 
yet, but that is the question. It is not his philosophical or 
ideological positions. It is whether or not he could handle 
both positions, Senator.
    Senator Harkin. That is reassuring.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary, these appointments raise very difficult 
considerations for Senate confirmation. It is not unexpected 
that the President would seek appointees who share his views on 
stem cells and so-called therapeutic cloning. There has even 
been some suggestion that you do not agree totally with the 
President on some of those issues, but you are following the 
administration policy. I am not going to ask you to comment on 
that, but leave that as an option for you if you want to 
comment on it.
    Okay, the option is on the table.
    Secretary Thompson. Sometimes discretion is the better part 
of valor.

                 INFORMATION FLOW FROM HHS TO COMMITTEE

    Senator Specter. Especially after you are confirmed.
    Well, that is a political fact of life and it is recognized 
and respected. One assurance that I do want from you on the 
record is that when this subcommittee seeks information on 
these controversial subjects that we will get it in an 
unvarnished way. Now, you and I had a difference of opinion 
last year when this subcommittee wrote to the directors of all 
the institutes asking for their views on stem cells and their 
responses were edited in HHS. So that you do have directors of 
quite a number of the institutes who are there institutionally 
and they are not being appointed by the administration, which 
is going to ask for ideological agreement. They are there in 
the long haul.
    The new directors may well have to pass the same sort of a 
test that the NIH director is, at least as reported in the 
media, and it has the ring of authenticity. Will you assure 
this subcommittee, Mr. Secretary, that when we ask for 
information from these directors and scientists at NIH that we 
will get their views without any editing or any ideological 
review?
    Secretary Thompson. I can assure you without any 
equivocation whatsoever that will be the case, Senator.
    Senator Specter. That is very important, so we can at least 
go back to the directors who have been appointed in the past. 
And they may have views similar to the President's, and if they 
do that is fine, or they may not.
    Secretary Thompson. Everything scientifically based should 
be given to you in an unvarnished fashion, any way that you 
want it.
    Senator Specter. That is what we want to do.
    Secretary Thompson. I can assure you that is the course of 
action.
    Senator Specter. That is very important in evaluating what 
to do with the nominees which the President submits. Of course, 
he is the President of my party as well as your party.
    Secretary Thompson. Yes.

                BUDGET FOR CDC BUILDINGS AND FACILITIES

    Senator Specter. On to some of these items. Mr. Secretary, 
do you endorse a cut of $186 million for the CDC buildings and 
facilities?
    Secretary Thompson. Senator, I was faced with a difficult 
situation, as you are, in this budget. The first priority is 
the war. The second priority is bioterrorism and we have got a 
45 percent increase in there. I was allocated so much money, as 
is the case in the budget resolution and in your house and in 
the House of Representatives, and I had to make the tough 
decisions. Those are the decisions that are in here, and some 
of those have been changed by OMB. But I think that the budget 
request of $184 million--I would have much rather had $250 
million, which is a figure that you and I have discussed many 
times before at CDC.
    Senator Specter. You are putting in $64 million.
    Secretary Thompson. $184 million. It is in the budget 
request, Senator.
    Senator Specter. Let me ask staff to double-check it.
    Well, I am told by Senator Taylor that the $100 million is 
for Fort Collins. Of all the experts in the field, Mr. 
Secretary, she knows more than anybody. In fact, she knows more 
than everybody combined.
    Secretary Thompson. Fort Collins is part of CDC and that is 
part of the building program, and we put in $184 million.
    Senator Specter. But that is not----
    Secretary Thompson. Fort Collins is one of the 
laboratories.
    Senator Specter. Fort Collins, Colorado?
    Secretary Thompson. That is correct.
    Senator Specter. That is a long way from Atlanta, Georgia.
    Secretary Thompson. But it is a part of the CDC building 
program.
    Senator Specter. I know. But those buildings in Atlanta are 
crumbling, Mr. Secretary.
    Secretary Thompson. I understand that. You have been there; 
I have been there. There are three campuses of CDC in Atlanta 
and we are renting 24 other buildings. My objective, as yours 
is, is to consolidate them, get all those CDC employees in 
rented buildings into one of those new buildings.
    Senator Specter. Mr. Secretary, they had an award ceremony 
down in one of the Senate buildings, Senator SC-6, last spring 
and they gave you an award for the money for CDC. Now, frankly, 
I had some doubts as to whether they should have given you that 
award because all that money came from Senator Harkin. I 
thought he should have gotten the award.
    Secretary Thompson. He probably should have.
    Senator Specter. Do you know that if----
    Senator Harkin. You started it.
    Senator Specter. It is easier for me to say it should have 
gone to you rather than to me. It would be self-serving if I 
said it other than to Senator Harkin.
    But the point that I am making here is that if you stand by 
this $64 million instead of $250 million, you are not going to 
get an award next spring. Do you realize that?
    Secretary Thompson. I probably realize that full well. I 
also full well realize that I had to make some tough decisions, 
as you will, Senator, and we had to put the money in 
bioterrorism and the war effort first. This is what we were 
able to come up with.
    Senator Specter. But the war on bioterrorism requires a 
building to do the research.
    Secretary Thompson. That is correct.
    Senator Specter. And if you do not have a building you are 
not going to be able to fight the war. But as long as you 
factored in the consideration that you would not get an award 
when you put this figure on, I will let you go now, 
temporarily, because my time is up.
    Secretary Thompson. Thank you, Senator.
    Senator Harkin. Senator DeWine.

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Good to see you.
    Secretary Thompson. Good morning, Senator. How are you.

                  FOSTER CARE AND ADOPTION ASSISTANCE

    Senator DeWine. Good morning. Let me turn your attention to 
Title 4.E and I want to talk a little bit about a proposed 
change that you have that is causing a great deal of concern in 
my home State of Ohio and I imagine around the country. HHS has 
announced a policy change prohibiting Title 4.E reimbursement 
for administrative and training costs associated with the 
placement of children in unlicensed foster homes. It is my 
understanding that this policy change was made due to what your 
Department deemed were inconsistencies with the old policy and 
a law that I was very much involved in writing, the Adoption 
and Safe Families Act, in particular a provision that I wrote 
that requires that the health and safety of the child always be 
paramount, be the paramount concern when deciding whether to 
remove a child from the home and in making placement decisions.
    In my home State of Ohio, this change, Mr. Chairman, is 
going to cost about $22 million in funding. It cannot be 
replaced anyplace else. To put it in simpler terms, what we 
have is many times grandparents, we have aunts and uncles. 
These are unlicensed foster care homes. What your rule would do 
is it would say we can no longer count those in regard for 
reimbursement for administrative and training.
    We are not talking about direct reimbursement for putting 
them in the home. We are talking about just the overall 
counting them for training for the caseworkers, for the 
training and the administrative costs.
    I just would ask you to look at that. I wrote the provision 
of the bill that apparently has caused the problems in the 
bureaucracy and it was not my intention to cause that problem. 
I will absolutely guarantee you this was the farthest thing 
from my mind, that your Department would interpret it that way. 
So I would ask you to take a look at that. It is just not our 
intention.
    Secretary Thompson. Senator, it is certainly not my 
intention to in any way adversely impact your district by $22 
million, and it is not our intention to do that at all.
    Senator DeWine. Well, Mr. Secretary, it goes beyond--I 
understand budget cuts, but this decision was not made on the 
point of view of budget cuts. I think we also understand the 
philosophy that we want licensed, we want licensed homes.
    Secretary Thompson. That is right.
    Senator DeWine. We want that. But the reality is, for any 
number of reasons in the real world, an aunt or an uncle or a 
grandparent does not go through the process to have that home 
licensed. What we are simply saying is those kids still have to 
be monitored.
    Secretary Thompson. Absolutely.
    Senator DeWine. And the State has still got the cost of 
doing that.
    The direct result of this, it is not money. The direct 
result is we are going to have fewer caseworkers out there, and 
that is the last thing we want to do. So if you will look at 
it, if you could.
    Secretary Thompson. Senator, I will look at it the 
beginning of next week and I will get back and have an answer 
to you within 10 days.
    Senator DeWine. I appreciate that. That is fine. That is 
all I can ask.

                   FUNDING FOR POISON CONTROL CENTERS

    Let me turn to another issue and that is the poison control 
centers. This is something that I have worked on for a number 
of years. We made great progress. We now have a national 1-800 
number. We have had for the last few years a small amount of 
money that goes into the budget that is administered to help 
the poison control centers around the country.
    The President's budget proposes $21.3 million, which I 
certainly appreciate. The question I have is, though, that I 
notice that in the fiscal year 2003 budget the poison control 
center budget line was moved to your budget for purposes of 
supporting our Nation's bioterrorism preparedness effort. I do 
not have any problem with that. I think that one of the things 
that we need to understand is that the poison control centers 
in the event of a horrible disaster would be right there in the 
front line. We would be using them. We have to have them and, 
frankly, I think we have to invest a little more. I appreciate 
what your budget does provide.
    My question, though, is will HRSA still administer the 
distribution of the grant dollars and will these dollars still 
be used for the purposes established under our original 
legislation?
    Secretary Thompson. Absolutely. It is in the bioterrorism 
line, Senator, so that we are able to have a more comprehensive 
plan for all the bioterrorism dollars and be able to bring all 
of our assets together. In case of a tragedy, we will be able 
to bring all those assets to bear.
    Senator DeWine. Which I applaud.
    Secretary Thompson. But HRSA will still be responsible for 
the $21.3 million for giving out the grants. I know this is 
something that is of interest to you. You fought very hard for 
it. They do an excellent job throughout America and I for one 
applaud you and applaud the job that they are doing.
    Senator DeWine. I appreciate it. One last comment and 
question. I was disappointed--I know you have tough budget 
decisions, but I was disappointed to see the graduate medical 
education account, the children's hospital graduate medical 
education, reduced from $285 million, which is where we have 
been able to get it the last couple years, down to $200 
million. That is really going to impact on our children's 
hospitals, and so I just would bring that to your attention and 
I hope that we are going to be able to find the money here on 
Capitol Hill to restore that.
    Secretary Thompson. The reason for that decision, Senator, 
is that in fiscal year 2000 this budget was started with $40 
million. Then it was raised to $200 million and last year it 
was raised to $285 million. We thought that $200 million is 
still a huge increase from the base year of fiscal 2000. It 
goes from, instead of a stipend of $72,000 per pediatric doctor 
in children's hospital, to $52,000. We think a subsidy of 
$52,000 is quite adequate.
    Senator DeWine. I appreciate that. The reality is that the 
only reason we are having this discussion is because of a 
quirk, what I call at least a quirk, in the law many years ago 
that children's hospitals were not included under the formula 
to begin with. We have to fight over this every year. It is not 
your fault, not my fault. It is history. But we have to fight 
over this every year because this has to come out of the 
discretionary funds and does not come into some sort of 
entitlement that just goes through and we never have to worry 
about or think about and it just automatically happens.
    So I know my time is up and, Mr. Secretary, I appreciate 
your comments.
    Secretary Thompson. Thank you, Senator DeWine, and we will 
look at that administrative function on the children.
    Senator DeWine. Thank you. I appreciate it.
    Secretary Thompson. We will get back to you.
    Senator Harkin. Thank you, Senator.
    Senator Kohl.

                 OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. I thank you very much, Mr. Chairman.
    Secretary Thompson. Senator, my friend, how are you.
    Senator Kohl. Good to see you.
    Secretary Thompson. Good seeing you.
    Senator Kohl. Governor, there is no doubt that today one of 
the highest priorities is obviously winning the war on 
terrorism abroad while keeping Americans safe at home. But we 
also have the continuing responsibility of meeting the health 
and human services needs of our Nation, as you know. I am 
concerned that in some areas the President's HHS budget falls 
short in this regard and I hope that we can work together to 
address those problems over the coming months.

               BACKGROUND CHECKS FOR NURSING HOME WORKERS

    As you know, on Monday the Aging Committee held a hearing 
on abuse in nursing homes. We heard, not for the first time, 
stories of patients being beaten, raped, and even killed by 
employees who are supposed to care for them. While the vast 
majority of nursing home workers do a great job, it only takes 
a few to terrorize patients.
    I have introduced legislation to create a national registry 
of abusive workers and also to require the FBI to conduct a 
criminal background check before hiring an employee. The bill 
is supported by both patient advocates and the nursing home 
industry. The HHS Inspector General's Office, GAO, local 
prosecutors, and State officials have all called for a national 
background check system.
    I would like to hope that you and the administration will 
be supportive of this legislation. I know if you will we will 
have an outstanding chance this year of getting it passed. I 
would like to solicit most respectfully your support for this 
legislation.
    Secretary Thompson. Senator, first let me point out 
unequivocally that I personally support your legislation. I 
think it is needed and I think it would be a good step forward.
    Short of that, what we have done through CMS is put in 
place the Nursing Home Compare web site where CMS will publicly 
report nine quality measures in six States beginning April 15. 
We are trying to increase the quality in nursing homes, and the 
consumer tool allows beneficiaries to select homes for 
comparison by city, State, county, or facility name. The six 
States participating in the pilot are Rhode Island, Colorado, 
Washington State, Maryland, Ohio, and Florida.
    We also in January started posting and we will have this 
data up so that individuals will be able to look at the web 
site at CMS, to be able to determine nursing homes in their 
particular States on the information that we received, the 
information that we get, the kinds of quality care as well as 
some of the problems that you have indicated, and we are hoping 
that people will look to this web site when they choose the 
correct nursing home, because you know as well as I do there 
are excellent nursing homes out there and some that are not 
measuring up and we want to get those and, if possible, improve 
their quality, so that every person that goes to a nursing home 
receives the kind of care that you and I would like to receive.
    Senator Kohl. Does that mean you would support my 
legislation?
    Secretary Thompson. Yes, I said that at the beginning. But 
short of that, in the meantime, we are proceeding through 
administrative functions, while you are working on your 
legislation, to do other things to improve the quality.
    Senator Kohl. Well, I thank you. I thank you for what I 
believe will be your support. I think that is great.
    Secretary Thompson. Thank you.

            FUNDING FOR STATE SURVEY AGENCIES AND OMBUDSMEN

    Senator Kohl. Governor, at last year's hearing we talked 
about the importance of giving State survey agencies enough 
funding so that they can inspect nursing homes, handle 
complaint investigations, and make sure residents get safe and 
quality care. It is also important that the State long-term 
care ombudsmen have enough resources to handle the increasing 
number of nursing home complaints. Each year I have fought to 
increase funding for these programs and so I was disappointed 
to see that the President's budget actually cuts survey funding 
by $6 million and flat-lines the ombudsman funding, despite the 
fact that complaints have jumped quite a bit last year.
    It is clear to me that we need to increase and not decrease 
our efforts to make sure all nursing home residents are safe. I 
ask the question, how can we expect States and ombudsmen to 
carry out these critical duties, which I know you regard as 
important, while at the same time decreasing their funding?
    Secretary Thompson. All I can tell you, Senator, is that, 
number one, we had so much money. We had a 45 percent increase 
in bioterrorism to $4.3 billion. We increased NIH by $3.7 
billion. Everything else we had to make some tough decisions, 
and those tough decisions are reflected in this budget bill.
    We are also trying to do things other than the ombudsman 
program and the survey program. We are putting information up 
on the web site so people can find nursing homes and have an 
opportunity to compare nursing homes and the quality of care 
that patients are receiving in those nursing homes.
    I know that is not the answer you would like, but it is as 
candid as I possibly can be.

                        CHILD SUPPORT PROPOSALS

    Senator Kohl. Okay, I appreciate that.
    The last question, Governor. I would like to thank you for 
what I am sure was your influence in making sure that the 
President's budget included child support distribution reform. 
You and I worked together on this issue in Wisconsin for many 
years and with great success.
    Secretary Thompson. Yes, we did.
    Senator Kohl. Our State of Wisconsin has had this policy 
due to your efforts since 1997. As you know, Wisconsin has seen 
great results with the program. That is why I myself sponsored 
legislation that would let all States follow the example that 
you set up in Wisconsin.
    I was pleased to see that the President's budget included 
similar child support proposals. But even though we are all in 
agreement on this, we still face a tight budget this year. Can 
I hope that you will be able to get this program enacted on a 
national level this year?
    Secretary Thompson. I am hopeful, because it is the right 
thing to do for the Nation. But we have a lot of things that 
are on our plate, Senator. All I can tell you is I will try.
    Senator Kohl. I thank you so much. I thank you for being 
here today. I cannot help but think as I look to you how 
important you have always been to the State of Wisconsin, to 
the people of Wisconsin. Any chance you will ever return, 
Governor?
    Secretary Thompson. Absolutely, Senator, without a doubt. 
Thank you so very much and good luck to the Bucks.
    Senator Kohl. Thank you.
    Secretary Thompson. Thank you, sir.

                      MEDICARE REIMBURSEMENT RATES

    Senator Harkin. Mr. Secretary, I just have a couple more 
questions I would like to propound to you. One, as I mentioned, 
one of the biggest obstacles in affecting rural States' ability 
to provide services is the discrepancy in Medicare payment 
rates. Let me draw your attention--I gave you that chart at the 
desk, I think; did I not?
    Secretary Thompson. You did not give it to me. You showed 
it to me, Senator. I do not have it in front of me, but that is 
all right.
    Senator Harkin. Well, here is a big one.
    Secretary Thompson. I can see that, almost.
    Senator Harkin. It is a big one. What this is is the 
variation among the 50 States.
    Secretary Thompson. I bet Iowa is down at the bottom.
    Senator Harkin. I bet you are right. That is a very good 
guess. Here we are.
    Fifty States, from $7,336 per beneficiary in Louisiana to 
$3,053 in Iowa. Now, our people pay the same taxes exactly as 
the people in Florida, Louisiana, New York, Texas, Connecticut, 
Pennsylvania, Rhode Island, et cetera. We pay the same. Why are 
we penalized so much?
    Just look at Iowa, and here is Nebraska. Iowa gets $3,053 
per beneficiary. Nebraska gets $4,856 per beneficiary. What 
could possibly be the reason that Nebraska would get 63 percent 
more per beneficiary than Iowa?
    This variation is simply unjustifiable and unacceptable. 
Now, I understand there might be some variances, there might be 
some reasonable differences in cost someplace. But differences 
of this magnitude are just unacceptable.
    It has been estimated that Iowa every year, just if you 
took the national average, what we lose if we were just at the 
national average is about $1 billion a year. We are being 
penalized in the State of Iowa. It is $1 billion a year, and 
people wonder why we are having trouble getting doctors in our 
rural areas. They wonder why our small hospitals are closing. 
They wonder why other health care professionals like nurses and 
nurse practitioners and others are leaving.
    Yet in Iowa we have the second highest proportion of 
elderly over 85 of any State in the Nation. I think we are 
fourth, in proportion of elderly over 65. And it is the small 
rural hospitals that are burdened the most with Medicare 
patients, the disproportionate share.
    I am told that in some of these States above the national 
average line people get three or four times the doctor visits 
for the same illness, compared to low payment States. How do I 
tell my people in Iowa that this is somehow fair and this is 
equitable, and they pay the same taxes?
    Secretary Thompson. You cannot.
    Senator Harkin. I cannot say that.
    Secretary Thompson. You cannot.

               STATUTORY CHANGES TO REIMBURSEMENT FORMULA

    Senator Harkin. My question is what are we going to do 
about it?
    Secretary Thompson. Change the law. The law requires us--we 
are implementing the law as it is. The biggest difference, 
Senator----
    Senator Harkin. Has the administration proposed a change in 
the law?
    Secretary Thompson. No.
    Senator Harkin. Well, will the administration propose a 
change in the law?
    Secretary Thompson. I will help you.
    Senator Harkin. Well, I hope so.
    Secretary Thompson. I will help you a lot.
    What the biggest difference is, 71 percent of the 
difference is in the wage index. When the law was set up it was 
based upon the wage index, 71 percent. Twenty-four percent on 
top of the 71 percent is based upon utilization. So 95 percent 
of the rate that goes into the Medicare reimbursement is based 
upon the wage index and the utilization.
    In Iowa, when the law was passed Iowa's wages were lower, 
as is Wisconsin, as is Nebraska.
    Senator Harkin. Wisconsin is right here.
    Secretary Thompson. Wisconsin is not doing much better.
    Senator Harkin. Not doing much better.
    Secretary Thompson. Not much better, but better.
    And the utilization. Your State is healthier, evidenced by 
the fact that it has the second highest proportion of 
individuals over the age of 85. The utilization--people in Iowa 
and Wisconsin do not go in and use the hospital and the clinics 
as much as other people do in the large urban areas. I guess it 
is one of the things that we grow up with. You know, we 
suffered more.
    Senator Harkin. Maybe. I do not know.
    Secretary Thompson. I do not know what the reason is, but 
the utilization is down, and it has been documented that it is 
down. When you add 24 percent, which is part of the factor for 
utilization, 71 percent for the wage index, it is 95 percent 
and that is the difference.
    The law has got to be changed. We do not have the power to 
change the law out there. I wish we did because I think there 
needs to be a look at that. Hopefully, this year on a 
bipartisan basis we could sit down and do something to 
strengthen Medicare, change the reimbursement formula, put a 
prescription drug in there, and come out of here with a 
bipartisan bill, and that is my dream. But I do not know if 
that is entirely possible.
    Senator Harkin. Well, we will get into prescription drugs 
another time. But this has gotten to the point now that we 
cannot just say, well, maybe next year or the year after or the 
year after. We have got to change this right away.
    Now, as I said in my opening statement, Senator Craig and I 
have a bill in that would basically say no State over 105, and 
State under 95. So it would still leave a 10 percent variation.
    Secretary Thompson. Yes, it would.
    Senator Harkin. For various things, but it still would not 
leave 100 percent variations.
    Now, two things I would just respond to you. You are right 
on the wage and the utilization. I am doing some research to 
find out when these wage things were set and what was the 
rationale for it. But there is this myth that somehow it is 
cheaper in a rural area to provide the same----
    Secretary Thompson. It is not.
    Senator Harkin. Of course. You know that. You know that 
from Wisconsin.
    Secretary Thompson. I come from a big city compared to 
yours. My city is 1,500. Yours is 150.
    Senator Harkin. Okay, right.
    Secretary Thompson. But we both know the needs of small 
rural hospitals.
    Senator Harkin. As I said, they buy in small quantities, 
they pay more money.
    Secretary Thompson. Yes.
    Senator Harkin. In terms of wages, though, if they do not 
pay their nurses and their doctors and their administrators 
equivalent to what the city will pay, they lose them. So what 
happens is it just degenerates down, and you are losing a lot. 
That is the wage myth.
    Now, the utilization myth is another thing. The utilization 
goes down because what is happening is the hospitals and the 
doctors are not taking any more Medicare patients. They are 
saying, we cannot take any more because this is charity work, 
it goes on our fee for pay people or managed care people or 
insurance people. That is where it goes and they are picking up 
the burden, and they cannot pick it all up.
    So what happens is if the utilization rate was low at one 
time, it just keeps getting lower and lower and lower and lower 
as more and more hospitals say, we cannot take any more 
Medicare patients.
    Secretary Thompson. And that impacts on the reimbursement 
formula.
    Senator Harkin. That impacts the reimbursement. So it just 
keeps spiraling down.
    Secretary Thompson. We have to modernize it.
    Senator Harkin. I would hope that--again, I am looking 
forward to some legislation. We have our bill in. If you do not 
like that, come up with something else. I am not saying that 
what Larry Craig and I put in is the absolute way we have got 
to go. Maybe there is another way. If there is--I would like to 
work with you and this administration to address this inequity 
that we have here.
    Secretary Thompson. Senator, I want to work with you, 
because when I was Governor I used to complain like you are 
complaining. Maybe not as eloquently as you are, but I 
complained vociferously the fact that Wisconsin was not getting 
reimbursed properly. I think that hopefully we can work 
together and come up with a change. But it is going to be 
difficult.
    Senator Harkin. Well, it may be difficult, but it is 
grossly unfair, grossly unfair, to the people that live in 
these States down in here, grossly unfair that they have this 
kind of discrepancies. Again, I look forward to working with 
you on it, but I just wanted to make that point.
    Yes, you may go next, and my time is out.
    Secretary Thompson. Thank you, Senator.
    Senator Harkin. Senator Specter.
    Senator Specter. Mr. Secretary, just a few more questions 
because other of our colleagues have arrived. The budget, 
$2.982 billion, almost $3 billion, was added for homeland 
defense in the Department of Defense supplemental.
    Secretary Thompson. The supplemental last year.
    Senator Specter. Now, I do not know quite how all the 
arithmetic works out here, but it seems to me that in a context 
where the increase for HHS is only $2.3 billion that homeland 
defense really ought to be a part of the Department of Defense 
budget as Congress legislated putting the $3 billion in the 
DOD, Department of Defense, supplemental appropriation bill 
last year. If that money were charged to defense, which has an 
increase of about $28 billion for a total budget--we had those 
hearings in this room last week--around $390 billion, we would 
have more leeway in the HHS budget.
    That would enable us to accommodate some of these cuts, 
like graduate medical education. There was a real struggle to 
get it up to $285 million and it is just not adequate to cut it 
by $85 million. Or the community service block grants or the 
chronic disease prevention. I know your position is you had to 
make hard choices and I understand that, but I would ask for 
your assistance in trying to get OMB or the administration 
generally to acknowledge that this money for homeland defense 
ought not to come out of the domestic programs, which in effect 
it does.
    Will you help us on that?
    Secretary Thompson. Nobody has ever asked that question of 
me before, Senator.
    Senator Specter. That is the first time I ever asked a 
question nobody else had asked.
    Secretary Thompson. Are you talking about the $4.3 billion 
that comes----
    Senator Specter. Yes.
    Secretary Thompson. The problem with it is that most of the 
money actually goes into research. Nine hundred million dollars 
of that goes into NIH for new research for vaccines for 
hemorrhagic viruses, botulism, plague, and a new anthrax 
vaccine. So that money definitely is--and $1.1 billion, $1 
billion of that, goes back to the States through CDC to develop 
a really strong local and State public health system, something 
that we have disinvested in in the past. We have a great 
opportunity, Senators, to build a real vibrant, strong, local 
and State public health system.
    Then there is $518 million of that that goes into hospital 
preparedness and that is all really Health and Human Services, 
so I cannot imagine the administration or the Department of 
Defense being willing to take that as a responsibility.
    Senator Specter. Well, I am all for that, Mr. Secretary, 
but not if it involves cuts in children's graduate medical 
education or community service block grants. Those funds are in 
response to 9-11 and they are an important response, but they 
are really a Department of Defense response, just like the 
money we added in in the Department of Defense supplemental 
last year. Well, take a look at that.
    My time is about to expire and I want to cover one other 
subject with you.
    Senator Harkin. I just wanted to, if the Senator would just 
yield so I could buttress what he is saying.
    Senator Specter. You have to stop the clock.
    Senator Harkin. We will stop the clock.
    Senator Specter is right on target on this. As I look at 
the bioterrorism overview, there are a number of items in there 
that rightfully should be in defense. When you are talking 
about anthrax for $18 million, they are already doing that. 
These all add up. You may say, well, it is only $18 million.
    Secretary Thompson. I did not hear that, Senator. I am 
sorry.
    Senator Harkin. The anthrax vaccine. I am saying that the 
Department of Defense is already doing a lot of that.
    Secretary Thompson. It does.
    Senator Harkin. So I think that ought to be in their 
purview. You have got down here command, control----
    Secretary Thompson. I just would like to add, I argued that 
the $250 million on the purchase of anthrax should be under 
Department of Defense. I lost that fight. I lost that battle.
    Senator Harkin. Well, let us consider that again here in 
our Appropriations Committee perhaps. That is where we have got 
to argue it again here, Mr. Secretary.
    National security and early warning surveillance, $10 
million. Biological detection and assessment teams. We have got 
$3 million in here for the Olympics. I really do not think that 
should come out when your budget proposes cutting community 
service block grants and child care.
    Secretary Thompson. Well, the $3 million for Olympics 
actually really rightfully was used because we had to inspect 
all of the food. We had a lot of our doctors and health 
officers out there. We had 400 personnel working during the 
Olympics.
    Senator Harkin. I will give you that one. But there are a 
lot more in here I think that we could pick out.
    Secretary Thompson. I am more than happy to work with you, 
Senator.
    Senator Harkin. Thank you very much.
    Senator Specter.

                         NIH STEM CELL REGISTRY

    Senator Specter. The last question I have for you, Mr. 
Secretary, relates to the NIH stem cell registry, which now 
identifies 78 stem cell lines which were purportedly in 
existence at 9 o'clock on August 9, the magic time line. What I 
would like you to provide for the record is how many stem cell 
lines there were on August 9 at 9 o'clock, which is the 
bewitching hour set by the President, and what level of 
development these stages are, in development and 
characterization, and how many of these stem cell lines are 
immediately available to U.S. researchers, because that issue 
has been put on the back burner with a lot of concern 
immediately after the President's speech on August 9 that there 
were insufficient research lines available.
    I would like to see an update on that, because when our 
focus shifts from 9-11 we are going to come back to that 
question as to whether it is adequate. We had 64 Senators sign 
letters that there ought to be more NIH participation in 
research on stem cells and another 12 were in agreement but 
would not put it in writing, which was a factor in leading the 
President to make the changes he did. There are many of us who 
feel that, while those changes were helpful, that they are not 
enough.
    So if you would update this so we have specific information 
on what are the lines now available for research, we would 
appreciate it.
    Secretary Thompson. Senator, there are 78--there were 62 
the night that the President made his announcement. There are 
78 today that meet the requirements. But of the 78, 70 are 
distinct. The additional 8 above the 70 are derivations and 
further characterizations of the 70. So actually I think you 
should really look at 70.
    Senator Specter. Are you saying that those 70 lines are 
immediately available to U.S. researchers?
    Secretary Thompson. They are all on the registry. I do not 
know if they are all ready for research. I think they are. I 
can get that information for you.
    Senator Specter. If you get that information, I would 
appreciate it.
    Secretary Thompson. I would be more than happy to. Did you 
want to know about the applications that we have in?
    Senator Specter. Yes.
    Secretary Thompson. We have right at the present time--the 
registry was posted November 7.
    Senator Specter. Mr. Secretary, would you provide that for 
the record, because other colleagues are waiting to question.
    Secretary Thompson. Sure, I would be more than happy to.
    [The information follows:]
                           Stem Cell Registry
    The 78 lines that are listed on the Registry are in varying states 
of availability. The WiCell agreement makes the lines from Wisconsin 
available, and one is being shipped. Infrastructure grants have been 
made available to help all sources increase their ability to fill 
requests for lines. We are making the first such awards shortly. The 
availability of lines other than WiCell depends to some degree on 
resolution of agreements between WiCell and the other sources. It 
appears that such negotiations are proceeding and will soon result in 
other lines becoming available.

    Senator Specter. Thank you.
    Senator Harkin. Thank you, Mr. Secretary.
    Senator Murray.
    Senator Specter. Thank you.
    Senator Harkin. Senator Murray.

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, good to have you here today.
    Secretary Thompson. Thank you, Senator.
    Senator Murray. I walked in as we were having the 
discussion on the regional inequities in the Medicare 
reimbursement and wholeheartedly support what Senator Harkin 
was showing us in terms of the regional inequities. This is not 
just a rural health problem or a rural reimbursement problem.
    Washington State is 45th on the list and the reason we are 
45th is because we had a very efficient delivery system before 
this was enacted and we are being penalized for that. So we are 
being kept down at the bottom, and seniors in my State are 
furious about this. They feel very strongly that their ability 
to have good care should not depend on where they live in this 
country.
    But it certainly is, when you look at this chart--and if 
you live in one of the States on the bottom here and you are a 
senior citizen, you are looking at doctors leaving your State, 
as we are in ours, health care facilities closing. They do not 
think they should move to, much as they love my friend Senator 
Landrieu, move to Louisiana or Florida or New York in order to 
have better care.
    So we have to deal with this issue and I hope that you look 
at Senator Harkin's proposal and work with all of us on this 
very, very critical problem.
    Secretary Thompson. Senator Murray, if I could quickly 
respond. I want to. I fought this fight when I was Governor. I 
have discussed this with you before. I have discussed it with 
Senator Harkin. The law is the law. We cannot change the law in 
the Department of Health and Human Services. The law says that 
you base the reimbursement on the wage index, which is 71 
percent of it, and utilization, which is 24 percent.
    Now, it should be upgraded, but we cannot do that without 
the change in the law, and I want to work with you. I think we 
need to do that. The problem is that when you change, increase 
your reimbursement, does that mean that the reimbursements for 
Louisiana are going to go down? I do not think Senator Landrieu 
is going to be too excited about voting for that.
    Senator Murray. Well, if there is additional money it 
should go into the States at the bottom.
    Well, let me move on and ask you about the upper payment 
limit.
    Secretary Thompson. Yes.
    Senator Murray. In Washington State that is used to provide 
health care services to the most vulnerable. It is not about 
supplanting dollars. It is not about redirecting funds. It 
really is about providing health care. I am very concerned that 
the administration is looking to roll back funding on that.
    It is my understanding that the administration's efforts on 
UPL are intended to improve the integrity of Medicaid and to 
ensure that these funds are not being misused. I would just 
tell you, if you have any concerns about how Washington State 
is using this money I would be more than happy to sit down with 
you and my Governor and to walk through this. But what I want 
to remind you today, that Washington State for years has been 
ahead of what most of the States have in this country in 
expanding access for children.
    In 1994 my State provided coverage up to 200 percent of the 
FPL. That is better than some States are providing now even 
with CHIPS. So we have really gone out of our way to do that, 
and pulling the rug out from Washington State right now when we 
are facing a billion dollar shortfall really is going to 
jeopardize the care we can provide for low income families and 
particularly children in the State of Washington.
    So Mr. Secretary, if you could respond and just let me know 
how you propose States like Washington will be able to meet 
their obligation under this program.
    Secretary Thompson. The upper payment limit has been 
something that has been a very controversial subject, that has 
been abused in the past, and the administration feels that 100 
percent is 100 percent and you should not be reimbursing above 
that 100 percent. That is what the proposed rule is. Congress 
passed the law I think last year, or 2 years ago--it was before 
I came out here, 2 years ago--that has allowed for a declining 
period for various States. I do not know where the State of 
Washington is. I know the State of Illinois and California have 
a glide path of 8 years. I do not know where Washington is.
    Senator Murray. Ours is as well.
    Secretary Thompson. What?
    Senator Murray. We are as well.
    Secretary Thompson. You have got a glide path of 8 years as 
well?
    Senator Murray. But cutting the rug out from underneath us 
right now is going to create a critical impact on our ability 
to provide----
    Secretary Thompson. The glide path is still in the law.
    Senator Murray. But the reimbursement is going to be pulled 
out from under us this year, it is my understanding.
    Secretary Thompson. It is my understanding that the glide 
path is still in place.
    Senator Murray. Mr. Secretary, what I would like to suggest 
is that perhaps you and my Governor and I can sit down and walk 
through this.
    Secretary Thompson. Absolutely.
    Senator Murray. Because it is really a critical challenge.
    Secretary Thompson. Your Governor has been in and I will be 
more than happy to see him again. In fact, he was in I think 
last week and talked to me on a waiver. I think he said that 
you supported it.
    Senator Murray. No, he actually said that he was going to 
talk to me about supporting that.
    Let me ask one other quick question. I know that this is a 
concern I share with Senator Landrieu. She may ask about it as 
well. But I am concerned about the TANF proposal that seeks to 
expand the number of hours a week that a beneficiary must work 
up to 40 hours, but the President's budget does not provide any 
funding for child care. The biggest and most costly hurdle for 
women in meeting these work requirements is funding safe, 
affordable, dependable child care.
    I am really concerned that the additional work requirements 
will make it almost impossible for TANF beneficiaries to 
provide safe, secure child care unless we increase those 
dollars. What is your administration going to do about that?
    Secretary Thompson. Basically, Senator, your question is 
right on target because there is no question that child care 
has got to be appropriate and it has got to be funded in order 
to allow for individuals to leave welfare. This was one of the 
things that I argued for way back when.
    But I also argued when I was the Chairman of the National 
Governors Conference and we negotiated the first TANF proposal 
that if Congress would level fund we would make do. This 
administration is continuing on with that promise even though 
there was a lot of pressure to reduce the $16.5 billion, 
lowering that, because the caseload has been reduced by one-
half.
    There was the argument made that we should only put in $8.5 
to $10 billion rather than the $16.5 billion. I argued that we 
should maintain the commitment of $16.5 billion so we can go to 
the next step.
    We are also putting in the supplemental funding, which is 
very helpful to a State like Louisiana, $314 million. We are 
putting in $350 million for going from independence, 
dependence, and giving them a 1-year coverage on health care, 
which is extremely important, plus a contingency fund of $2 
billion.
    All of these things add up to well over $19 billion when 
the caseload is in half. As far as child care, we maintain 
level funding, $2.7 billion in mandatory funding, $2.1 billion 
in discretionary funding, for a total of $4.9 billion. We also 
allowed in the TANF proposal the flexibility for States to use 
up to 30 percent of their TANF money for child care and then 
also taking money out of the SSBG, the Social Service Block 
Grant, for child care.
    You have got an extreme lot of flexibility to develop a 
good program. So even though it is level funded, we think the 
discretion is there, and with the caseload one-half of what it 
was we felt that it was adequate funding, considering the 
overall impact to the budget where we had to put a 45 percent 
increase into bioterrorism out of our budget.
    Senator Murray. Well, thank you very much, Mr. Secretary. I 
appreciate your response.
    Mr. Chairman, my time is up, but I would just say if we are 
going to expand the number of hours that we are requiring 
beneficiaries to work we are going to have to increase the 
dollars for child care or we are simply putting a tremendous 
burden on women out there, and we are going to increase the 
number of kids who are in unsafe conditions in this country.
    Senator Harkin. Senator, you are absolutely right, and that 
is why--we have got to do something with this budget on child 
care. It is totally inadequate. Hopefully we can work something 
out on it.
    Senator Landrieu.

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Well, thank you, Mr. Chairman.
    Let me begin by just following up and welcome Mr. 
Secretary.
    Secretary Thompson. Thank you, Senator.
    Senator Landrieu. I apologize for being late. I have had 
four meetings like this already this morning.
    Secretary Thompson. It did not bother me that you did not 
come----
    Senator Landrieu. I am going to try to ask one easy 
question. But let me start with the difficult and I think very 
appropriate one of Senator Murray. Are you suggesting, then, 
that because the Federal Government has lived up to its 
commitment of level funding, that the States will then have to 
find savings by their dropping caseloads to increase their 
block grant for child care? Is that what you are suggesting?
    Secretary Thompson. No. We put a lot of flexibility in 
there for governors and for State legislatures to do. One of 
those was, under the previous TANF proposal it was only 
allocated on a year to year basis, so the States had to spend 
all that money or had to obligate that money 1 year at a time 
because they were fearful the Federal Government would pull 
back. We are now allowing for the States to obligate their 
allotment over the 5-year period, so that they will have much 
more flexibility.
    We are also putting a waiver in here that is going to allow 
for the States to have an extremely lot of flexibility for 
developing a good program from education and so on.
    The third thing is it is not 40 hours a week. It is 40 
hours, 24 hours of work. Sixteen hours can go into education, 
can go into the job training, job seek, or into alcohol or drug 
treatment and rehabilitation. We think there is flexibility 
there for the States to meet their obligations.
    Senator Landrieu. I appreciate that. I only suggest that 
flexibility without money is no flexibility at all. So I am 
trying to understand if your argument is that we are going to 
fund the welfare basically reform effort at the same level, 
therefore all States, as your caseloads are reduced, you are 
going to have to be creative in increasing your child care 
block grants, but you are going to have to do that on your own 
by efficiencies? Because if that is the message, we need to 
take that to the governors and to the locals and see if they 
buy it.
    They very well may be able to. You were a Governor and a 
very effective leader in this area. Perhaps we can convince our 
States that that is the way those child care block grants are 
going to be funded in the future.
    But I am not sure they would agree with that approach. I 
just do not know. I will speak to my Governor and my 
legislature immediately about it, because we have got to--if we 
want people to go to work, particularly women, we also want 
them to be good at raising their children and be effective and 
be nurturing and loving--then we need to meet them more than 
half way and help them with these expensive child care 
arrangements, which I say before this committee again, Mr. 
Chairman, it has been a while since you have raised children. I 
am raising them now, one that is 10 and 5. I had quite a shock 
when I came to Washington to put Mary Shannon in day care and 
it cost me $7,000 a year.
    Luckily, I can afford that. But I can think of a lot of 
women that work in this building that cannot afford that, let 
alone women who do not have the kind of jobs, et cetera. So 
point made.
    Let me just thank you for your help----
    Secretary Thompson. If I could just quickly add. You are 
absolutely correct if the caseload was growing. But the 
caseload is declining, and so level funding should with the 
decline, should be sufficient.
    Senator Landrieu. Should be adequate. So we will hear from 
our governors about their counter to that about why they are 
not able to increase their child care block grants by 20 or 30 
or 40 percent, which would really help us.
    Let me congratulate you for your focus on this new 
scholarship program for foster care and the help that this 
administration has been to the 25,000 children, a small number 
relative to the whole population, but I think we have a special 
obligation to these kids, because the system took their 
families, original families, away for good reason--neglect and 
gross abuse, and danger--but we failed to give them another 
family.
    So if we could not get them another family, we need to give 
them at least a chance to create a family of their own. That 
best chance is to give them a college education or training.
    So I want to thank you and would only urge you----
    Secretary Thompson. I want to thank you, because you have 
been a leader in this and I applaud you. You and I spoke 
together and I was amazed at your passion on this subject and 
your knowledge. I want to thank you.
    Senator Landrieu. Well, I appreciate that. But I want to 
work with you closely to make sure that the States--and Mr. 
Chairman, I want us to focus because this is a new program that 
is standing up--to make sure that the States are not siphoning 
off this money even for well-intentioned middlemen and 
middlewomen and keeping the money, as opposed to getting it to 
these young people, the same age as people, young people who 
put on the uniform and are fighting for us in Afghanistan, 18, 
19 year olds. They are responsible enough to take that money, 
use it for college, etcetera.
    My point is there is a great idea floating that is 
bipartisan called IDA's, and I think you are going to be 
leading that, Independent, Individual Development Accounts. It 
is hooked to the new charity initiative, something that Senator 
Lieberman and Senator Santorum have championed and the 
President has endorsed it.
    My point on this is, and for the chairman too, that there 
is money in the budget to set up these IDA's that is restricted 
to buying a home, retirement, and starting a business. I want 
to suggest that we expand it to allowing families or 
individuals that qualify to put a down payment or to purchase 
an automobile, the reason being that it connects to our welfare 
to work. People need child care and transportation to get to 
work, and if we link that, Mr. Secretary, by just expanding the 
parameters of that, you could be I think very successful in 
helping us to lead a more effective way, because with our 
policies on transportation, as much as we talk about, Mr. 
Chairman, mass transit, we do not have a whole lot of it.
    For poor people who are living in suburbs, if they do not 
have access to an automobile they cannot access the jobs. There 
is a disconnect from where the jobs are and where they might 
live. We keep saying we are going to provide buses and trains. 
We do not do a good job of it. So since we decided automobiles 
is the way to go, then let us help poor people to purchase an 
automobile--it could be used, there could be restrictions--to 
get them the vehicle to get to work.
    So I am going to send this to you in a letter.
    Secretary Thompson. I would appreciate that.
    Senator Landrieu. I have already approached Senator 
Lieberman on the idea and I am going to send something to the 
President on it.
    My final point is on faces of adoption. We have a very 
exciting technology that was developed in the private sector, 
to use the technology to try to put a face and a voice now on a 
computer that can help a family that is looking for a child to 
find one that they might be willing to raise. It is very cost 
effective. It is the only hope that these children have that 
are lost in this foster care system to really try to find a 
family.
    For 4 years, Mr. Chairman, we have funded in this committee 
some money to help do this. Yet, while we have 100,000 children 
who are available for adoption, we only have 6,000 of their 
pictures up on the Internet. My question is why are we moving 
so slowly? If you need extra funding, maybe we can come up with 
it.
    Do you have any ideas or are familiar with this?
    Secretary Thompson. No, I am not, but I will be by next 
week.
    Senator Landrieu. Well, can I send this too, in writing, 
and become familiar, because this is a great opportunity for us 
to do something for foster care children in this country, but 
show a model to the world about how using technology in 
appropriate ways, not exploiting children or exploiting 
emotions, but to help these kinds find a home.
    I will end with, as Phil Gramm said, who is my advocate 
with me on this: ``Every child that we can place out of foster 
care into a family willing to adopt them is not only the most 
wonderful thing to do for the family and the child, but it 
saves the taxpayers a lot of money when we do that.'' I know 
you know it.
    Secretary Thompson. But it is the right thing to do.
    Senator Landrieu. It is the right thing to do. So let us 
make the small investments that really make this work.
    I thank you, Mr. Chairman.
    Secretary Thompson. I want to work with you on both those 
subjects.
    Senator Landrieu. Thank you, Mr. Secretary.
    Secretary Thompson. Just send me the letter and I will be 
more than happy to respond.
    Senator Landrieu. Thank you.
    Secretary Thompson. Thank you.
    Senator Harkin. Thank you, Senator.
    Before you leave, Mr. Secretary, I just want to respond a 
little bit to what Senator Landrieu pointed out about the need 
for the child care money and, as you pointed out, that because 
of the declining caseload, we will have more money in TANF to 
be able to do some of those things. We will have to take a 
close look at that because the caseload now--what we have done 
is we have gotten rid of the easy cases. The easy cases have 
gotten off welfare.
    What is left are the hard ones, and these are the people 
that maybe in a lot of cases are not going to get off welfare. 
So they have got drug problems, they have got a lot of other 
problems. They may have medical problems, disability problems, 
whatever. They have got a lot of different problems.
    So they are the hardest to serve. So I am not certain, just 
off the top of my head, I am not certain you are going to be 
able to find much savings there to be able to use for child 
care. As I said, the easy ones are gone. Now we are down to the 
hard cases. I think trying to look for savings there, just to 
make that connection, is not necessarily valid. We have to look 
at that.
    Secretary Thompson. Senator, I made the same argument when 
I was Governor.
    Senator Harkin. Well, wait a minute. Then how come I am 
making this argument to you?
    Secretary Thompson. Just history revisited.
    Senator Harkin. I guess so.
    Well, I am glad you are where you are, Mr. Secretary. I 
think you are doing a great job and I really appreciate the 
openness and all of the work you have done with our committee, 
and your staff has been great and very accessible and we 
appreciate that very much.
    Secretary Thompson. Thank you.
    Senator Harkin. Thank you, Mr. Secretary.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                  hiv/aids services through ryan white
    Question. This is the second year the Administration has not 
requested an increase of the Ryan White CARE Act Services programs. The 
Centers for Disease Control and Prevention (CDC) has just reported that 
an estimated 900,000 Americans are currently infected with HIV/AIDS. 
CDC further reports that about a third of these individuals do not know 
they are infected, and another third know their status, but are not 
receiving care. What is the rationale for maintaining these programs at 
the fiscal year 2002 level when CDC has just reported that the number 
of patients who require these services is higher than we expected? What 
is the impact of limiting these funds in light of medical inflation on 
each of the Ryan White CARE Act Titles?
    Answer. The fiscal year 2003 budget maintains funding of the Ryan 
White Care Act at the historically high level of $1.9 billion. Ryan 
White activities have increased by over 65 percent since fiscal year 
1998. At this level, HRSA will continue in providing services to an 
estimated 500,000 persons. To further the Administration's 
comprehensive efforts to ensure services to individuals living with 
HIV/AIDS, the fiscal year 2003 President's Budget requests $15 billion 
(more than $950 million above fiscal year 2002 Enacted) government-wide 
for domestic prevention, treatment, care, and research activities.
                     health professions reductions
    Question. The Health Professions Education programs authorized by 
Title VII of the Public Health Service Act have long served the Nation 
well in producing quality health care providers in every discipline. 
For almost 40 years, these programs have provided professional health 
training opportunities for poor and disadvantaged Americans to enter 
the medical and allied health fields. Over the years, specific Health 
Professions programs were established to meet the needs the market 
could not fill. These programs have been particularly effective in 
ensuring training opportunities for minority individuals and 
individuals at minority institutions. Your data has shown that these 
individuals have filled gaps in the supply chain in areas where other 
individuals have chosen not to practice.
    There are still great needs throughout the country, particularly in 
underserved frontier and rural areas where Americans lack sufficient 
health providers. Why does the Administration continue to propose 
drastic cuts in these Health Professions Education programs? Does DHHS 
feel that there is no longer a need for increasing the pool of 
qualified health providers through these programs? Is there no longer a 
commitment to assuring minority access to Health Professions Education?
    Answer. The goal of our Health Professions programs is to increase 
services to the underserved. Over the past two decades, we have spent 
$6 billion on Title VII health professions grants and our track record 
on performance is not good. Based on data reported in the HRSA 
Government Performance and Results Act Annual Performance Plan, only 30 
percent of individuals who participate in the Title VII programs go on 
to practice in medically underserved areas. However, with the Health 
Center program and National Health Service Corps (NHSC), we know that 
100 percent of these funds are going to provide services to the 
underserved. Of NHSC clinicians who fulfilled their service commitment 
in CY 2000, 75 percent chose to remain in service to the underserved. 
In addition to serving underserved minority populations, the NHSC 
provides scholarships and loans to providers from disadvantaged and 
racial/ethnic minority groups. In fiscal year 2001, approximately 33 
percent of NHSC Scholars and 29 percent of NHSC Loan Repayment 
participants were from disadvantaged and racial/ethnic minority groups. 
The National Institutes of Health also funds medical education for 
students from disadvantaged backgrounds. We believe by expanding these 
effective programs we will increase the number of health care providers 
serving underserved populations, including minorities.
                                security
    Question. Last year this Subcommittee held several hearing 
regarding bioterrorism preparedness and the public health 
infrastructure. We heard from many witnesses who spoke about how 
unprepared this Nation was against a bioterrorist attack. Subsequently 
this Subcommittee provided over $2 billion for bioterrorism 
preparedness in a supplemental appropriations bill because we felt the 
additional money was urgent and was needed sooner, rather than later. 
I'm glad to see that your budget request continues this funding.
    However, some of your request is for security improvements and 
construction of biohazard labs at NIH and CDC. Shouldn't some of these 
important needs be addressed now? This appropriations bill won't be 
passed until later this year--could some of these things be included in 
this year's supplemental?
    Answer. The most critical security and facilities construction 
needs were addressed in the fiscal year 2002 Emergency Relief Fund 
(ERF). The supplemental funds provided through the fiscal year 2002 ERF 
will allow NIH to increase support for counter-bioterrorism research, 
provide for the construction of a high containment BSL-4 research 
facility, and support upgrading current BSL-3 laboratories to handle 
select agents for the NIH. Additionally, the ERF will provide funding 
to enhance NIH security measures that are necessary for the protection 
of its staff and facilities. The remaining requirements are adequately 
addressed through the fiscal year 2003 President's Budget.
    CDC will $56 million provided in emergency supplemental funding to 
address the most urgent security projects. This includes $10 million 
released September 21st by the Administration and planned to be used to 
assure on-going operation of Medicare reimbursement in the New York 
area. When it was determined that these funds were not needed for this 
purpose, they were allocated to immediate security needs at CDC, along 
with $46 million that was included in the emergency supplemental 
appropriation. These funds will be used for the following projects:

                        [In millions of dollars]

Permanent transshipment building at the perimeter of the Roybal
    Campus........................................................    32
Armed Security Guards at all CDC locations........................     3
Campus hardening projects at all CDC locations (fencing, lighting)     6
Integrated emergency communication system for the Roybal Campus...     5
Design and Related Services for New Laboratory @ Fort Collins, CO.     8
Security Upgrades @ Fort Collins, CO..............................     2

    The $20 million included in the fiscal year 2003 President's budget 
request will extend CDC's security beyond the most immediate needs. 
With these funds, CDC will:

                        [In millions of dollars]

Add biometric access technologies to select agent laboratories....     5
Increase CCTV capability for select agent laboratories............     5
Increase security at outlying facilities..........................     7
Provide for maintenance of security technologies and the armed 
    guard contract................................................     3
                              bioterrorism
    Question. In one of these bioterrorism hearings, Dr. Koplan spoke 
about how overwhelmed the CDC was during the anthrax attacks. Many of 
their staff had to work around the clock and their labs were strained 
to capacity. If the CDC was this overwhelmed by one incident, the 
system could break down if multiple attacks occurred. Mr. Secretary, is 
there a need for CDC to have regional labs around the country, so that 
they have more laboratory capacity to respond to any contingency?
    Answer. CDC has established a network of laboratories throughout 
the country to respond to bioterrorism events. This Laboratory Response 
Network (LRN) includes 103 laboratories located in all 50 states. These 
are public health and federal laboratories. These laboratories have 
laboratory protocols and reagents for many of the BT agents of greatest 
concern, including anthrax, and they have been trained in laboratory 
diagnosis of these agents.
    The anthrax attacks resulted in many hoaxes and unknown powders 
suspected of being anthrax being reported to law enforcement. This 
resulted in 122,000 specimens being tested for anthrax. About 85,000 
specimens were tested in state public health LRN laboratories and CDC 
laboratories tested about 7500. Besides CDC, many of the LRN 
laboratories were also overwhelmed with testing specimens. New monies 
for bioterrorism preparedness and response will be used to expand the 
capacities of the LRN laboratories to respond to future events. CDC is 
also making contingency plans for responding to such events in the 
future.
                          dose reconstruction
    Question. Can you tell me when you expect to finalize the 
regulations on dose reconstruction and on probability of causation?
    Answer. We expect both rules to be within the next couple of 
months.
    Question. When do you expect to start finalizing dose 
reconstructions?
    Answer. We have begun the process of conducting dose 
reconstructions, and expect that we will be able to begin reporting 
draft results to a limited number of claimants for their review and 
approval in April 2002. The pace of finalized dose reconstructions will 
pick up substantially in the coming months, with the addition of 
substantial personnel through a dose reconstruction contract.
    Question. Can you tell me when you expect to publish procedures for 
naming additional special exposure cohorts?
    Answer. We expect to publish a HHS statement of policy for public 
comment on the procedures for designating classes of employees as 
members of the special exposure cohort in April 2002.
    Question. When do you expect to be able to name additional cohorts 
if warranted?
    Answer. We expect to be able to publish the policy statement in 
April 2002 for public comment. Approximately 60 days will be required 
to review public comments and finalize the policy. At that time we will 
be in a position to consider petitions by classes of employees. The 
time required to render a decision on a petition depends on the extent 
of effort required for full development of the factual basis for making 
a well-grounded decision, as well as the amount of time required for 
review of petitions by the Advisory Board on Radiation and Worker 
Health. HHS decisions on petitions become effective after a 180-day 
period during which Congress may review and act upon the HHS decision, 
as required by EEOICPA.
    Question. How many cases have you received from DOL for dose 
reconstruction?
    Answer. As of March 20, 2002, we have received 2,605 cases from DOL 
which will require dose reconstruction.
    Question. How many of those cases are from the Iowa Army Ammunition 
Plant and from Ames Laboratory?
    Answer. Two of the cases we have received from DOL include 
employment at the Iowa Army Ammunition Plant; none of the cases 
received from DOL to date involve employment at the Ames Laboratory.
    Question. I have heard that HHS has requested DOL (or some DOL 
centers) to limit the number of applications it passes on for dose 
reconstruction. Is this true, and if so, what are the requested limits?
    Answer. HHS has not requested that DOL or any DOL District Office 
limit the number of cases it refers to HHS for dose reconstruction. We 
have requested that each DOL District Office forward any claims which 
are ready for dose reconstruction to us on a specified day each week.
    Question. I understand that you have been proceeding with the work 
of dose reconstructions (without finalizing them) under the draft 
regulations. Can you tell me for how many cases you have attempted dose 
reconstructions?
    Answer. We have identified approximately 70 cases where the 
personal radiation exposure information received from DOE appears to be 
adequate to initiate a dose reconstruction. We expect to complete about 
20 of these in the coming month. As mentioned above, we expect the pace 
of finalized dose reconstructions to pick up substantially in the next 
few months with the addition of substantial personnel through a dose 
reconstruction contract.
    Question. For how many of these cases have you been unable to do 
accurate dose reconstructions due to lack of available exposure data?
    Answer. We have not yet reached the point in our dose 
reconstructions where we have identified specific cases where lack of 
data will not permit us to develop a reasonable estimate of an 
employee's radiation dose.
    Question. Can you tell me the status of contracting out dose 
reconstructions, and how many HHS staff or contractor staff are 
currently working on this?
    Answer. We are currently in the process of evaluating proposals 
submitted in response to a Request for Proposal entitled ``Radiation 
Dose Estimation, Dose Reconstruction and Evaluation of SEC Petitions 
under EEOICPA.'' We expect to have a contract awarded and in place by 
June 2002. The NIOSH Office of Compensation Analysis and Support 
currently has a staff of 15, with 3 more positions soon expected to be 
filled, along with 6 contractor staff. These staff all play critical 
roles in managing the claims, collecting the necessary data from DOE 
and claimants, and performing the dose reconstructions. We expect that 
the contract, when awarded, will bring substantial resources to bear on 
dose reconstructions and evaluations of special exposure cohort 
petitions.
    Question. What are your plans for dealing with cases for which 
there is inadequate personal exposure data (e.g. personnel who were not 
issued badges or who routinely did not wear them), particularly where 
area monitoring was also inadequate?
    Answer. NIOSH will attempt to obtain a variety of types of 
information to estimate radiation doses in cases where personal 
exposure and area monitoring information are inadequate. Such 
information may include general process descriptions for the employee's 
work areas, characterization of the source term (i.e., the radionuclide 
and its quantity), extent of encapsulation, methods of containment, and 
other information to assess the potential for airborne dispersion. 
Interviews with employees, survivors and co-workers are also expected 
to be a valuable source of information in all cases, and particularly 
where other data are inadequate.
                           disability grants
    Question. Your budget once again zeroes out funding for two 
disability initiatives within the Centers for Medicare & Medicaid 
Services: $40 million for Real Choice Systems Charge Grants to States 
and $15 million to continue the Nursing Home Transition Initiative. 
What objection does the Administration have to these initiatives which 
are aimed at helping disabled persons live independently and avoid 
costly nursing home care?
    Answer. We appreciate the interest and initiative of Congress to 
remove barriers to community living on the part of people with a 
disability or long-term illness. These are the very same goals 
articulated by the President in his New Freedom Initiative. We share a 
common and vital agenda.
    With the recent $55 million appropriated by Congress for the grant 
programs in
    2002, in addition to the $70 million we awarded in 2001, we will 
soon have a funding relationship with all 48 States that applied. These 
grants are important and they are making a difference in the ability of 
States to improve their systems. The Federal-State partnership that 
these grants exemplify is a feature that has drawn considerable praise 
from Governors and State legislators.
    We have not included further funding in the President's budget for 
2003 for two reasons. First, we have permitted States up to three years 
to invest and spend these funds in projects that improve community 
services. We think it will be prudent, with 48 States already 
participating, to give States time to implement the projects underway 
and for us to assess the results. Second, we are interested in focusing 
future grant initiatives in ways that promote specific system 
improvement strategies that are coordinated with demonstration designs 
that go beyond just grant funds. For example, under the President's New 
Freedom Initiative there are specific demonstrations proposed for 
respite services for caregivers of either adults or children, as well 
as a demonstration of community services for children with a disability 
who may otherwise be placed in a residential treatment facility. These 
are high-priority issues identified by States that are included in the 
President's 2003 budget. I hope you can support these important 
initiatives.
             medicare overpayments for equipment & supplies
    Question. The General Accounting Office (GAO) found that Medicare, 
which pays more than $6 billion annually for medical equipment and 
supplies, continues to pay more than market prices for certain items. 
What is the status of your efforts to reduce excessive Medicare 
payments for medical equipment and supplies? (Background: For example, 
GAO found Medicare pays up to $62 for eyeglass frames that retail for 
$40 and which the Department of Veterans' Affairs purchases for less 
than $33.)
    Answer. The only authority that the Department has for adjusting 
Medicare's payment allowances for medical equipment, such as eyeglass 
frames, is a statutory provision referred to as ``inherent 
reasonableness.'' This authority allows the Secretary or his designee 
to adjust Medicare Part B payment allowances, other than payments made 
under the physician's payment methodology, when the Secretary 
determines that the existing payment allowance is either grossly 
excessive or deficient.
    The BBRA of 1999, however, prohibits use of the inherent 
reasonableness authority until after the Department publishes a final 
regulation that responds to a 2000 GAO report and to comments received 
regarding the interim final rule published in 1998. At the current 
time, the final regulation is in the clearance process.
    CMS is currently involved in DME competitive bidding demonstrations 
that cover five product categories: oxygen supplies and equipment, 
hospital beds and accessories, enteral nutrition, urological supplies, 
and surgical dressings. An independent evaluation of the Polk County, 
Florida demonstration found that the demonstration resulted in a 
reduction of charges of 17 percent. The Administration is proposing 
legislation to institute competitive bidding for all durable medical 
equipment and supplies to take advantage of these savings and bring 
down the costs of these expenditures.
                      chief dental officer at cms
    Question. The Committee stated in its report last year that it was 
important to retain the position of Chief Dental Officer at CMS.
    What steps has your department taken to fill that position?
    Answer. The Deputy Administrator and other senior CMS officials 
have met with representatives from the American Dental Association and 
assured them that we would give full consideration to their 
recommendation that we fill the position of Chief Dental Officer.
    Question. When do you expect to have the position filled?
    Answer. While we are looking into filling this position, at this 
point we have no timeline for doing so.
    Question. It was the Committee's intent that the Chief Dental 
Officer at CMS be a full-time position at the same level as it was held 
through December 2001. Please tell the Committee how you intend to 
address those concerns.
    Answer. We are aware of the language in both the House and Senate 
Appropriations bill urging CMS to continue the position of Chief Dental 
Officer, and we are exploring the possibilities for doing so.
                        kda reductions in samhsa
    Question. The fiscal year 2003 budget request proposes significant 
reductions in services research and knowledge development and 
application activities at SAMHSA Centers. For example, proposed funding 
for Best Practices activities at the Center for Substance Abuse 
Prevention is more than 50 percent less than last year and the 
reduction proposed for the Center for Substance Abuse Treatment is 
almost 45 percent. SAMHSA's fiscal year 2003 GPRA Annual Performance 
Plan identifies the Agency's Mission as follows: ``SAMHSA is the 
Federal agency charged with improving the quality and availability of 
prevention, treatment and rehabilitative services in order to reduce 
illness, death, disability and cost to society resulting from substance 
abuse and mental illness.''
    Mr. Secretary, how will SAMHSA make progress in its mission related 
to improving the quality of prevention, treatment and rehabilitative 
services with these proposed reductions?
    Answer. Reductions in funding have been proposed for the Best 
Practices or researched focused programs in 2003. SAMHSA will instead 
collaborate with NIH to ensure that services research efforts 
responsive to the needs of the field are continued. Most of the funding 
for services research was directed to the Targeted Capacity Expansion 
programs, which help improve the availability and quality of 
prevention, treatment and rehabilitative services.
             samhsa's role in research coordination council
    Question. While not specifically mentioned in the SAMHSA 
congressional justification, it is my understanding that the Department 
has proposed creating a Research Coordination Council. Has your 
Department proposed created such a Council? If so, can you provide me 
with more information about the mission--of the proposed Council, how 
its members will be selected and the outcomes' expected to be achieved? 
Will SAMHSA have a role in the Council? If so, what will it be, and how 
does it relate to the significant reductions proposed in SAMHSA's 
services research budget?
    Answer. SAMHSA and the other OPDIVs participate in the HHS Research 
Coordination Council (RCC) which is chaired by the Assistant Secretary 
for Planning and Evaluation (ASPE). The RCC will evaluate Department-
wide research priorities to ensure that efficiencies are realized and 
research finding priorities are consistent with Administration 
priorities. SAMHSA has presented to the RCC its plans to work with the 
National Institutes of Health (National Institute of Mental Health, 
National Institute on Alcohol Abuse and Alcoholism, and the National 
Institute on Drug Abuse) to bring evidence-based, effective products of 
research to community programs nationwide. SAMHSA has already taken 
steps to expand our partnership with NIH to produce a ``Science to 
Services'' agenda that is responsive to the needs of the field.
           implementing institute of medicine recommendations
    Question. Mr. Secretary, according to a recent Institute of 
Medicine report, the lag between discovery of more efficacious forms of 
treatment and their incorporation into routine patient care is 
unnecessarily long, in the range of about 15 to 20 years. The IOM also 
recommended that HHS develop a comprehensive program for aimed at 
making scientific evidence more useful and accessible to clinicians and 
patients and suggested that the Secretary should collaborate with 
professional and health care associations in this endeavor. What steps 
is SAMHSA undertaking to reduce this lag between research and 
translation? How is SAMHSA involving service provider professionals in 
implementing the IOM recommendation? In particular, how are they 
involved to ensure that scientific evidence is useful to them?
    Answer. The President's proposed fiscal year 2003 budget reinforces 
the SAMHSA mission in services and in bringing evidence-based, 
effective products of research to community programs nationwide. It 
also reinforces language in our authorizing legislation that SAMHSA and 
the National Institutes of Health (NIH) should collaborate to promote 
the study, dissemination, and implementation of research findings that 
improve the delivery and effectiveness of substance abuse and mental 
health services. SAMHSA has already taken steps to expand the 
partnership with NIH to produce a ``Science to Services'' agenda that 
is responsive to the needs of the field. A dialogue with the Directors 
of the National Institute on Alcohol Abuse and Alcoholism, the National 
Institute on Drug Abuse, and the National Institute of Mental Health 
has been initiated and a common commitment to this agenda was found. 
Dialogue will continue with service provider professionals to ensure 
that their needs for useful scientific evidence guide our plans. Over 
the next year, SAMHSA will define and develop a ``Science to Services'' 
cycle that reduces the time between discovery of an effective treatment 
or intervention and its adoption as part of community-based care.
    While NIH will provide appropriate focus on the development of new 
services-related knowledge, SAMHSA will continue its strong efforts to 
translate best practice information to providers nationwide. Each of 
SAMHSA's three Centers continues to have mechanisms in place to work 
with the field to implement efficacious approaches. These include 
programs such as the National Repository of Effective Prevention 
Programs; Community Action Grants; dissemination of best practice 
information through clearinghouses and knowledge application programs; 
a Decision Support System; and others. Importantly, best practice 
approaches will continue to be required in programs which SAMHSA 
supports directly. SAMHSA's continued commitment to service quality and 
effectiveness is expected to help reduce the lag time IOM noted in 
knowledge translation.
                        community based services
    Question. Given the President's Executive Order on Community-Based 
alternatives (Olmstead) to enable individuals with a disability, 
including those with a mental illness, to live and participate in their 
communities, how does SAMHSA realize that promise without additional 
funding for CMHS? In particular, I am concerned that the budget request 
does not include any funding to make new awards for the community 
action grant program. This program has been very successful in helping 
communities put evidence-based practices into use for people with 
mental illness and children with serious emotional disorders. Given the 
Administration's New Freedom Initiative and interest in fostering 
community-based services, why does this budget fall to request funding 
for this important program?
    Answer. In fiscal year 2003, funds are reinvested in new programs 
that address the principles of the Olmstead/New Freedom Initiative. 
These include co-occurring disorders, substance abuse treatment, 
prevention and early intervention, children's services, homelessness, 
aging, HIV/AIDS, and criminal justice. Priority investments in Best 
Practices that relate to some components of the Community Action Grant 
program include: the development of evidence-based practice toolkits, 
the development of Centers of Excellence on evidence-based practices, 
and the Knowledge Application Initiative to disseminate findings from 
five multi-site studies through technical assistance and publications.
                             mental health
    Question. Flat funding under the fiscal year 2003 spending plan for 
the Center for Mental Health Services (CMHS) is of heightened concern 
given an underfunded, overburdened, severely strained public mental 
health system, the events of September 11 and double-digit medical 
inflation. With no additional resources, how will the Administration 
address the overburdened and underfunded public mental health system? 
As we increase efforts to protect our nation, what efforts are being 
proposed in your budget to address the mental health of our citizens in 
a post-September 11th world?
    Answer. Public mental health systems will be carefully examined by 
the National Commission on Mental Health which will soon be 
established. Commission recommendations will also consider issues such 
as disaster relief. It should be noted that the public mental health 
system is primarily funded by sources such as Medicare/Medicaid, and 
State revenues. SAMHSA funding is a very small portion of the total 
effort.
    Under the Public Health Service Act Section 501(m), SAMHSA is 
authorized to use up to 2.5 percent of all amounts appropriated under 
Title V of the PHS Act, other than those appropriated under Part C, in 
each fiscal year to respond in emergency situations when behavioral 
health needs overwhelm State, Tribal or local resources, and other 
resources are unavailable. Applications for grants under this authority 
require that the mental health or substance abuse emergency be 
certified by the State's chief executive officer, rather than from a 
local government, based on the governor's experience and expertise in 
disaster declarations gleaned from the FEMA grants.
    At the same time, SAMHSA's mental health service programs provide a 
key impetus for improving service quality and availability. They expand 
the nation's capacity to deliver mental health services and apply the 
knowledge gained from the outstanding services research being 
accomplished by NIH and others, and our legacy of developing knowledge 
about systems change. The Mental Health Block Grant is undergoing a 
transition to a performance partnership with States to increase State's 
flexibility in the use of funds while establishing an accountability 
system based on performance. This additional flexibility further 
supports States in increasing and improving their community-based 
delivery systems to better meet the treatment needs of persons who do 
not receive any care; receive inappropriate care; and those persons 
receiving care that does not lead to an effective outcome.
    With respect to disaster relief, SAMHSA has initiated several 
programs to address the mental health of our citizens in a post 
September 11th world. In fiscal year 2001, the National Child Traumatic 
Stress Initiative established 18 treatment development and community 
service centers to treat children who have experienced trauma, 
collected clinical data to further understanding of the developmental 
impact of trauma on children and the success of interventions, and 
developed a comprehensive resource center that provides education-
oriented materials for health professionals, children, and the public. 
In fiscal year 2002, this program increases by $20 million from $10 
million to $30 million.
    In fiscal year 2002, SAMHSA established a National Suicide Resource 
Center to provide training and field support and serve as a 
clearinghouse for all pertinent best practice information regarding 
suicide prevention. The Center promotes evaluation of suicide 
prevention programs to ensure that effective techniques, strategies, 
and recommended best practices are made available to users. In fiscal 
year 2003, SAMHSA will continue this program as well as the Suicide 
Hotline Program, begun in fiscal year 2001.
    In fiscal year 2003, the President's budget includes $10 million 
for Terrorism/Bioterrorism preparedness and planning program to be 
funded entirely from the Public Health and Social Services Emergency 
Fund. This program will support Federal preparation in the area of 
fear-induced behaviors and psychosocial consequences of bioterrorism. 
The focus on the program would be:
  --Technical assistance to States to assist them in incorporating 
        bioterrorism readiness and response into their State emergency 
        preparedness planning
  --Behavioral health triage in health care settings, bioterror crisis 
        intervention
  --Disseminating knowledge to public officials to prepare them in 
        averting widespread public fear and panic, fear-induced 
        overutilization of health care facilities and loss of 
        confidence in public institutions
  --Mental health needs for first responders
  --Programs that target an increase the State's emergency response 
        capacity to provide mental health treatment and services to 
        public safety workers affected by disasters of national 
        significance
    Question. Secretary, as you know, Surgeon General Satcher's 1999 
mental health report called for public education efforts to combat the 
social stigma associated with mental illness that prevents many 
Americans from accessing the services they need. Last year, Congress 
inserted language into both the House and Senate Labor/HHS Committee 
report urging your department to fund a program in this area. I 
understand that you have responded by directing the Substance Abuse & 
Mental Health Services Administration (SAMHSA) to obligate $2 million 
for a ``barriers to treatment'' public education initiative. What's the 
timetable for implementing this important anti-stigma initiative? 
Please inform the subcommittee about the focus and structure of this 
new program?
    Answer. SAMHSA plans to implement the Elimination of Barriers to 
Treatment/Initiative (EBI) in September 2002. This activity promotes 
the President's New Freedom Initiative by developing public education 
approaches to overcome barriers to treatment and community 
participation for persons with psychiatric disabilities.
    This program will provide targeted intensive support to eight State 
Mental Health Authorities and their corresponding State Mental Health 
Planning Councils as well as State Consumer Networks. The primary goals 
are to (1) enhance State and grantee social marketing/communications 
capacity; (2) increase awareness of and support for community support 
systems through partnerships with State, local and community 
organizations; (3) reduce stigma and discrimination in targeted 
communities, and; (4) increase awareness and understanding of mental 
health needs as well as the principle of recovery.
    To support the goals of this program, a National Steering Committee 
will be formed of representatives of State and local officials, State 
Planning Councils, State consumer network grantees, providers, 
advocates, media, consumer and family leaders, and others. They will 
recommend how best to provide services to State and local efforts.
                   samhsa data collection activities
    Question. Mr. Secretary, last year the Administration proposed a 
$17 million increase in budget authority for data collections 
activities. This investment, in combination with funding available 
through the block grant set aside, was intended to enable SAMHSA to 
make improvements in the Household Survey, Drug Abuse Warning System 
(DAWN) and the Drug and Alcohol Services--information System (DASIS). 
Congress appropriated an increase of $9 million for data collection 
activities which is being used for improvements to the DAWN and DASIS. 
Why has the Administration eliminated the $9 million required to 
sustain these data collection Improvements? Given the funding pressures 
on the block grant set aside for technical assistance to States to 
implement performance partnerships, how will this reduction affect 
SAMHSA's data collections activities?
    Answer. The fiscal year 2003 request places priority on services 
delivery rather than data collection programs. Data collection 
activities are being reduced by $9 million in fiscal year 2003. With 
this reduction, SAMHSA will not continue two one-time expansions within 
the Drug Abuse Warning Network (DAWN) and the Drug and Alcohol Services 
Information System (DASIS).
                    response to chronic homelessness
    Question. The President's budget indicates that the Administration 
has developed an initiative which is designed to refocus federal 
homeless spending and end chronic homelessness within the next decade. 
This initiative includes activities at several departments including 
HHS, HUD, VA and Labor.
    Can you update the Subcommittee on SAMHSA's discussions with HUD to 
reform the federal government's response to chronic homelessness among 
individuals with severe mental illness and co-occurring substance abuse 
disorders? What information can you provide this subcommittee about the 
nature of discussions between SAMHSA and HUD regarding more effective 
targeting of federal mental health and substance abuse treatment and 
support services dollars to the chronic homeless population?
    Answer. SAMHSA has been working with HUD to address chronic 
homelessness in a variety of ways. First, for over a year, SAMHSA has 
been working with HUD through an informal HHS-HUD staff workgroup to 
address various definitional and operational issues related to the 
integration of services and housing. For example, SAMHSA and other HHS 
agencies have explored developing a joint definition of chronic 
homelessness with HUD that would coordinate eligibility in both HHS and 
HUD programs. We also provided suggested definitions for the services 
covered by HUD's Continuum of Care programs that ensure a better fit 
with services supported by HHS. We have also offered to assist HUD in 
reviewing grant applications for this program. Second, we have also, 
along with other HHS agencies and HUD, devoted resources and 
considerable staff time to plan and hold State Policy Academies on 
Homelessness. These academies provide technical assistance to State 
teams addressing key aspects of homelessness. Particular emphasis is 
given to encouraging the States to extend flexibilities inherent in 
HHS-supported programs (e.g., block grants and Medicaid) to ensure 
coverage of family homelessness and chronic homelessness. The State 
1Policy Academy on Chronic Homelessness will be held April 9-11 in 
Boston. Finally, SAMHSA is contributing at the Department level to the 
development of an HHS-wide plan to address this issue. An HHS-wide plan 
would engage resources beyond those of SAMHSA and create opportunities 
for a formal or targeted collaboration with HUD.
                          integrated treatment
    Question. The Administration's fiscal year 2003 budget request 
highlights SAMHSA's efforts to assist states in increasing their 
capacity to meet the needs of individuals with co-occurring mental 
illness and substance abuse. As you know, in 2000 Congress directed 
SAMHSA develop a new knowledge bass effective clinical interventions 
for this difficult to serve population (Public Law 106-310). Over the 
past decade, NIH research has built up increasing evidence base that 
``integrated treatment'' is the most effective approach to treating 
persons with co-occurring mental and addictive disorders. This research 
appears to demonstrate that ``parallel'' and ``sequential'' treatment 
generally fails this population. Further, the 1999 Surgeon General's 
Report on Mental Health noted the effectiveness of ``combined'' 
treatment for this population.
    What steps are underway at SAMHSA to help states foster 
``combined'' programs that follow an integrated treatment model with 
blended funding streams and an interdisciplinary treatment approach? 
Can you update the Subcommittee on SAMHSA's efforts to meet the mandate 
set forth by Congress on co-occurring disorders as part of Public Law 
106-310?
    Answer. Addressing the needs of individuals with co-occurring 
mental and substance abuse disorders is a SAMHSA priority. SAMHSA 
assists States in using integrated treatment approaches to meet the 
needs of individuals with co-occurring mental illness and substance 
abuse disorders. In fiscal year 2003, SAMHSA has requested $6.0 million 
for a new Co-Occurring State Incentive Grant (SIG) program to support 
State integration of mental health and substance abuse services/
treatment and the development of systems of care to provide more timely 
and efficacious treatment services.
    The Youth Drug and Mental Health Services Act of 2000 (Public Law 
106-310) requires SAMHSA to submit a Report to Congress (RTC) on 
Individuals with Co-Occurring Substance Abuse and Mental Illness by 
October 17, 2002. This Report is being developed with guidance and 
input from: (1) the Subcommittee on Co-Occurring Disorders of SAMHSA's 
Advisory Council, with ad hoc representatives added to ensure 
comprehensive input from mental health and substance abuse researchers, 
States, family members, consumers, advocates, and provider, all 
recognized as experts on co-occurring mental and substance abuse 
disorders; (2) constituent organizations, including States, mental 
health and substance abuse researchers, treatment providers, prevention 
specialists, individuals receiving treatment services, family members 
of such individuals and representatives from criminal justice, 
healthcare, public health, education, housing, shelters, homeless 
programs, Medicaid, foundations, and academia; (3) responses to a 
Federal Register request for comments on present strengths/promising 
developments, barriers and recommendations; and (4) a meeting with 
SAMHSA's HHS and non-HHS Federal partners, scheduled for mid-April, 
including CMS, HRSA, AoA, OCR, ACF, NIH, FDA, VA, SSA, Labor, HUD, 
Transportation, Agriculture, Education, and Justice.
    In June, 1999 SAMHSA published a policy statement that confirms 
that the Substance Abuse and Mental Health Block Grant funds may be 
utilized for the purposes of providing co-occurring services, as long 
as the monies can be tracked for the purpose that Congress intended 
them to be expended. This policy removes any perceived funding barriers 
to the use of Block Grant funds to support services for this 
population. States retain the flexibility and responsibility for making 
the decisions on how such funds may be utilized. Starting with fiscal 
year 2002, States are now describing their systems of care and 
inclusion of services disorders for persons with co-occurring in their 
Mental Health Block Grant plans.
             commission to improve mental illness treatment
    Question. As part of his ``New Freedom Initiative'' President Bush 
has committed to form a commission to examine ways to improve public 
sector mental illness treatment services to promote recovery and 
greater independence for consumers. Can you please update the 
Subcommittee on progress the Administration has made in forming this 
commission and getting it off the ground?
    Answer. The President expects to announce the New Freedom 
Commission on Mental Health within a few months. White House staff have 
been progressing with the Commission by working to identify and 
interview individuals who may be selected to serve on the Commission.
                     federal jail diversion program
    Question. A report issued by the United States Department of 
Justice in 1999 revealed that 16 percent of all inmates in state and 
federal jails and prisons suffer schizophrenia, manic depressive 
illness (bipolar disorder), major depression, or another severe mental 
illness. This means that on any given day, there are roughly 283,000 
persons with severe mental illnesses incarcerated in federal and state 
jails and prisons. In contrast, there are approximately 70,000 persons 
with severe mental illnesses in public psychiatric hospitals, and 30 
percent of them are forensic patients. Additionally, police are 
increasingly becoming front-line respondents to people with severe 
mental illnesses experiencing crises in the community.
    n response to these trends in our criminal justice system, Congress 
authorized a federal jail diversion. program at CMHS. For fiscal year 
2002, this Subcommittee appropriated $4 million for this effort. Can 
you update the Subcommittee on efforts to make these funds available to 
local communities?
    Answer. In April 2002, SAMHSA's Center for Mental Health Services 
(CMHS) will announce the availability of fiscal year 2002 funds for 
programs to divert individuals with mental illness from the criminal 
justice system to mental health treatment and appropriate support 
services. These grants will be made as part of the SAMHSA/CMHS' 
``Targeted Capacity Expansion'' (TCE) program. The shortened title of 
this TCE program will be Jail Diversion Programs. It is estimated that 
a total of $4 million will be available to support the program under 
this Guidance For Applicants (GFA). Requested funding in fiscal year 
2003 will help continue support and expand this TCE program. Diversion 
programs will be asked to address the following objectives:
    (1) Expansion of local services through implementation of required 
interventions for persons with a mental illness who have been diverted 
from the criminal justice system.
    (2) Service linking between mental health, substance abuse, and 
criminal justice systems to coordinate assessment and treatment of 
persons with a mental illness who are diverted from the criminal 
justice system.
    (3) Community outreach to ensure that services are accessible to 
the target population and that the community accepts use of the 
services as beneficial.
                      early childhood development
    Question. Mr. Secretary, I am concerned that the budget request 
does not include any additional resources for early childhood 
development programs. In his State of the Union Address, the President 
stated: ``We need to prepare our children to read and succeed in school 
with improved Head Start and early childhood development programs.'' I 
agree with him, but I am not certain how that can be accomplished with 
a budget that does not enroll one additional child in Head Start-when 
we are serving roughly half of those eligible and less than one in 20 
infants and toddlers eligible--where no additional funding is provided 
for high quality child care--when less than 15 percent are served and 
when the Early Learning Fund is eliminated.
    How will the Presidents goal be achieved with millions of children 
not served in programs for which they are eligible? What new 
investments are proposed in this budget that will help prepare our 
children to succeed in school?
    Answer. The President's proposed fiscal year 2003 Head Start budget 
will permit a 2 percent across-the-board cost-of-living increase. The 
request needs to be put in the context of the recent growth in the 
funding of Head Start. In fiscal year 1999, Head Start's appropriation 
was $4.658 billion. In fiscal year 2002, it has increased to $6.538 
billion, an increase in just three years of nearly $2 billion, or 40 
percent. Approximately $1.1 billion of that increase was used to 
maintain and improve program quality through cost-of-living and quality 
improvement increases awarded to local grantees.
    One of the largest quality investments was made in 1999 and 2000 in 
which $40 million was made available, each year on an on-going basis, 
to grantees to increase their number of teachers with qualifying 
degrees. That is, $80 million is included in the annual funding level 
each year to continue efforts to increase the number of Head Start 
teachers with degrees in Early Childhood Education. These funds, plus 
other discretionary funds available to grantees for training and salary 
enhancement, will assure that we will be able to continue the trends of 
the last few years which saw the percentage of degreed teachers 
increase from 37 percent in 1999 to 46 percent in 2001 and also assure 
that Head Start will meet the statutory requirement that 50 percent of 
its teachers have qualifying college degrees by September 2003.
    The President's fiscal year 2003 budget maintains a high level of 
commitment for the Child Care and Development Fund (CCDF), at $4.8 
billion including $2.1 billion in discretionary funds and $2.7 billion 
in mandatory funds. At this level, approximately 2.2 million children 
will receive child care subsidies. Funding for child care over the last 
several years has grown dramatically. In fact, funding under the CCDF 
has more than tripled in the last 10 years.
    Regarding child care eligibility, currently we are looking at 
better ways to reflect the child care services actually being provided 
by States and to more accurately estimate the need for child care 
assistance. The 12 percent figure previously used includes children 
served through the Child Care and Development Fund, but not those 
served with funds being spent directly on child care through TANF and 
through programs such as the Social Services Block Grant, Head Start, 
and State pre-kindergarten programs. It also overstates eligibility for 
child care by assuming all States set eligibility thresholds at the 
maximum level when in fact, most States set thresholds that are lower.
    To maximize services to children and families, ACF promotes 
collaboration between child care and other early childhood programs. 
Child Care and Head Start have been working in partnership for a number 
of years to ensure that children receive the comprehensive benefits of 
the Head Start program and the full-day, full-year services that 
parents need in order to work. We provide guidance and technical 
assistance to State and local grantees on ways to combine funding 
streams and develop innovative collaborative program models. Through 
partnerships, we are working to ensure that no child is left behind in 
critical domains of child development or in family self-sufficiency.
    In addition, the President's budget includes support for a new 
investment geared toward helping children become ready for school: The 
Early Childhood Education and School Readiness Planning Initiative. 
Jointly funded by HHS and the Department of Education, this new 
initiative is designed to identify effective models for providing early 
childhood education and care from birth through age five.
                               head start
    Question. Mr. Secretary, the budget proposal states that the ground 
work is being developed to transfer Head Start from your Department to 
the Department of Education, and also indicates that a joint task force 
is being developed to assess ways to improve Head Start.
    What evidence is available that indicates that the Head Start 
program would better achieve its goals under the stewardship of the 
Department of Education and therefore support this proposed transfer? 
What specific actions are being taken by either Department related to 
the laying of the ground work? What activities will the joint task 
undertake to assess ways to improve Head Start?
    Answer. Head Start has, in most regards, been an excellent program 
that has helped America's disadvantaged children and families for over 
35 years. However, the one area in which the President feels the 
program has not been fully successful is in helping get Head Start 
children ready for school by getting them ``ready to read.'' To support 
this effort, the President has proposed to reform Head Start and return 
it to its original focus--getting children ready to learn. The budget 
provides an increase of $130 million in fiscal year 2003 to maintain 
participation and program quality. HHS and the Department of Education 
have formed an interagency task force to assess ways to improve Head 
Start and lay the groundwork for the proposed transfer to the 
Department of Education. The task force will focus on issues including, 
surveying what is known about how best to encourage early literacy and 
developing a research plan for filling in the gaps.
                             welfare reform
    Question. Mr. Secretary, in your statement on March 6, 2002, you 
indicated that the ultimate goal of Welfare Reform is to help families 
climb the career ladder and achieve self-sufficiency, I agree with you; 
I have said a hand up, not a hand out. However, when I look at the HHS 
budget request, I see flat funding for the TANF block grant, not one 
additional dollar for child care, not one child added to Head Start, 
flat funding for SSBG and a reduction in funding for the community 
services block grant program. These resources are critical to State 
efforts to support work and to reduce and eliminate poverty in 
communities throughout our nation.
    Mr. Secretary, how can we ask States to put more families to work 
and ask families to work more without the community supports they need 
to succeed in their efforts to work, particularly given the current 
fiscal climate where States throughout the country are slashing their 
budgets and TANF expenditures last year, exceeded the amount of the 
annual TANF block grant? Isn't it true that States spent almost $2 
billion more than their annual TANF allotment in fiscal year 2001, thus 
proving that individuals still on the welfare roles will be more 
expensive to serve and help transition to work?
    Answer. The President's Budget provides States with adequate and 
flexible resources to help families climb the career ladder. While 
States, indeed, had a record outlay of $18.6 billion in TANF funds in 
fiscal year 2001, the upswing in fiscal year 2001 expenditures should 
not be construed as evidence that the dramatically reduced caseload is 
more expensive to serve. We know that many TANF recipients have 
obstacles to employment, but it does not appear that the current 
recipients are harder-to-employ than those who have left TANF rolls for 
jobs. In fact, according to research that was conducted by the Urban 
Institute, which compared recipients at the beginning of TANF with more 
recent recipients, the distribution of new entrants, cyclers (those 
that received TANF intermittently from 1997 to 1999), and long-term 
recipients has remained remarkably the same. We also know that some 
States needed time to determine how they could use the flexible funding 
available to them during the initial years of TANF implementation.
    Further, we know some States may have been motivated to expend 
unobligated funds resting in the Federal Treasury because they believed 
they would be in danger of losing them. The President's TANF 
reauthorization proposal would allow States to count ``rainy day'' 
funds as obligated. Funds will stay in the Federal Treasury, but will 
be earmarked for a designated purpose and States will be assured they 
will not be rescinded. The $16.5 billion in continued basic TANF grant 
funding is continued even though caseloads are less than half what they 
were five years ago and we are proposing to reauthorize a $2 billion 
Contingency 1Fund as a safety net in the event of a recession, making 
it more accessible to the States.
    Although the President's proposal for TANF contains new work 
requirements, our commitment to State flexibility continues, along with 
adequate funding for supportive services such as child care. States 
will have the flexibility to provide necessary services for families 
that need help addressing serious barriers such as substance abuse and 
to combine education with work to help make people employable at a 
higher level. States also will have time to adapt to the new work 
requirements, since they will receive the benefit of the full caseload 
reduction credit in the first fiscal year and 50 percent of the credit 
the following year. Further, while the Child Care and Development Fund 
(CCDF) itself is level-funded, the combined resources available to 
States to provide care includes TANF transfers to the CCDF, direct TANF 
spending on child care, SSBG funds some $9 billion annually. And when 
you add in State TANF Maintenance of Effort Spending, this amounts to 
almost $11 billion. The SSBG provides an additional flexible resource 
to help continue the effort to support work. All considered, we are 
confident that the resources are available to allow States to continue 
and improve their services to help all families know the dignity of 
work.
                               child care
    Question. Mr. Secretary, the fiscal year 2003 budget includes no 
additional resources for child care, either on the mandatory or the 
discretionary side of the budget. Next year, this could result in a 
reduction in child care subsidies for 30,000 kids. Over the next five 
years, the number of families that could lose their child care might 
number more than 100,000./
    Given the well documented challenges two-parent and single-parent 
working families face in finding and securing affordable, high quality 
child care, why has the Administration proposed such a reduction in 
child care subsidies? What options will that leave for low and middle 
income families trying to balance work and care of their children?
    Answer. The President's fiscal year 2003 budget maintains a high 
level of commitment to child care. Funding for child care over the last 
several years has grown dramatically. In fact funding under the Child 
Care and Development Fund has more than tripled in the last 10 years. 
In addition, States continue to have significant flexibility under the 
TANF program and the Social Services Block Grant program to address the 
needs of their low income working families.
    The combined resources available to States to provide child care, 
including TANF transfers to CCDF, direct TANF spending on child care, 
and SSBG funds, amounts to some $9 billion annually. And when you add 
in State TANF MOE Spending and State CCDF spending, this amounts to 
almost $11 billion.
    In addition, I would add that States have a tremendous amount of 
flexibility to target their funds strategically (e.g., by adjusting 
eligibility, co-payments, and/or provider reimbursement), develop 
innovative ways to serve families, and increase their collaboration 
with other programs.
          barriers to faith and community based organizations
    Question. The White House Faith Based report identified Limited 
Accessibility of Federal Grants Information as one of the barriers that 
faith and community based organizations face. In fact, the report 
stated: ``Federal discretionary grant programs typically announce the 
availability of funds in the Federal Register and on the program's or 
the respective Department's Website. These sources are not everyday 
reading for small faith-based and community groups; these places are 
regular information sources only for organizations that have already 
decided that they might have a chance to win Federal funds and that can 
dedicate staff attention to monitoring funding announcements.'' Yet the 
Department's response to this barrier was to create links on the HHS 
Center for Faith-Based and Community Initiatives website to the Catalog 
of Federal Discretionary Assistance, Federal Register and funding 
opportunities listed by agency within the Department.
    How will this action reduce the barrier of limited accessibility to 
information? What other steps has the Department taken--within current 
law--to reduce barriers identified in the White House report?
    Answer. The first step to expanding access was to create a more 
user friendly and centralized website which has helped introduce small 
novice and potential applicants to the Department, the overall 
initiative, and available grant opportunities. The news about this 
website and initiative has begun to expand beyond the Beltway, not only 
through our individual staff speeches and contact with community and 
faith leaders, but through the various organizations and leaders 
promoting it in their newsletters and existing networks. Further, we 
are working within each Agency to look at new ways to reach out, for 
example, by expanding existing mailing lists and e-mail list serves, 
conducting pre-application workshops with enough advance notification, 
and by sponsoring conferences and workshops geared for training smaller 
faith and community-based organizations. This is an on-going process, 
and the Department will continue to seek new and creative ways to 
increase communication and opportunities for new faith and community 
partners.
                        compassion capital fund
    Question. Congress provided $30 million for fiscal year 2002 for 
the Compassion Capital Fund for grants to public/private partnerships 
that help small faith-based and community-based organizations replicate 
or expand model social services programs. Funds also were intended to 
support and promote rigorous evaluations on the ``best practices'' 
among charitable organizations so that successful models can be 
emulated and expanded by other entities. Please provide an update on 
your plans for developing a competition for these funds, as well as 
your plans for awarding these funds.
    Answer. Since the inception of the faith and community based 
offices throughout the federal government, we have seen a tremendous 
need for technical assistance, capacity building and research for the 
non-traditional provider community. On Feb. 26th, a request for comment 
went out to the public to gain insight from the provider community on 
how to design the Fund. Comments are due back to the Department March 
29th. We plan to award the first round of grants in the Fall of 2002.
    Question. The President's message accompanying the fiscal year 2003 
budget states: ``Where government programs are succeeding, their 
efforts should be reinforced--and the 2003 Budget provides resources to 
do that. And when objective measures reveal that government programs 
are not succeeding, those programs should be reinvented, redirected, or 
retired.'' Mr. Secretary, the fiscal year 2003 request for the 
Compassion Capital Fund includes an increase of 233 percent, when non-
defense and homeland security programs on average received an increase 
of 2 percent. What justifies such a dramatic increase in this program? 
When will information be available about how funds are used, and 
whether they are being spent effectively to meet the goals and 
objectives of this program?
    Answer. Successful support for those in need comes from many 
sources and we must broaden our efforts to work with faith-based and 
community-based organization. These organizations are closest to the 
people in need; they have a stake in the community and have a history 
of providing services to those in need. The Administration is committed 
to ensuring that the Federal government plays a larger role in 
providing support to charitable organizations because as indicated in 
response to the previous question, there is a tremendous need for 
technical assistance, capacity building and research for faith and 
community based providers. The Compassion Capital Fund is intended to 
support this partnership. With respect to when information will be 
available, the first grant awards will be issued this fall. At that 
time we will be better able to estimate when measurable results will be 
available.
                                 liheap
    Question. Given the significant growth in LIHEAP caseloads (a 38 
percent increase since fiscal year 2000) and the unknown of next 
winter's energy prices, how will States continue to serve the more than 
5 million current LIHEAP recipients with a $300 million reduction in 
regular funding if prices are higher next winter than currently assumed 
in the budget request? In the current condition of state budget 
deficits, won't they be forced to choose between reducing eligibility 
and/or cutting benefits?
    Answer. Each year, States make decisions in setting eligibility and 
benefit levels for energy programs that target those households that 
are most vulnerable and have the most need, and determining how to make 
efficient use of the resources available to them.
    The Low Income Home Energy Assistance Program (LIHEAP) provides 
assistance to the States and is targeted to those low-income households 
that have the highest energy costs or needs, taking into account family 
size, and responds to emergency situations such as extreme weather 
conditions, supply disruptions, or price spikes.
    A number of States have been successful in negotiating reduced 
utility rates for households that receive LIHEAP assistance. For 
instance, Massachusetts and Connecticut have very sophisticated pricing 
mechanisms that allow them to realize substantial savings for their 
clients. Minnesota negotiates specific discount rates with each of its 
fuel vendors. Many States take advantage of the opportunity to use as 
much as 15 percent of their LIHEAP funds for weatherization and other 
low-cost energy repairs. Under certain circumstances, a State can ask 
for a waiver to use up to 25 percent for weatherization. The 
flexibility to use a small portion of LIHEAP funs in this way allows 
States to help households make their energy bills more affordable.
    Additionally, the Personal Responsibility and Work Opportunity 
Reconciliation Act (Public Law 104-193) provides that States may use 
both Federal Temporary Assistance for Needy Families (TANF) dollars and 
State funds used for the TANF ``maintenance of effort'' (MOE) 
requirement to provide energy assistance and services to financially 
eligible or needy families. In using these funds for energy assistance, 
States establish their own financial eligibility criteria--i.e., the 
income and resource standard to determine whether the family is 
eligible for the particular energy benefit the State might offer.
    For fiscal year 2003, the President's budget includes $1.4 billion 
in regular block grant appropriations and an additional $300 million in 
emergency contingency funds for the unanticipated home energy needs. 
This request is consistent with the level Congress appropriated in 
fiscal year 2001, prior to the temporary and unprecedented increases in 
fuel prices. With the $300 million in fiscal year 2001 carry-over 
contingency funds, there should be sufficient funding available to 
address severe and unanticipated needs. The Department of Energy 
forecasts fuel prices to remain constant through the remainder of the 
year.
    Question. Mr. Secretary, payroll employment fell by 1.2 million 
from August 2001 to February 2002, as 12 states exhausted all of their 
LIHEAP funding for the current year. Another four states expect to be 
out of money by the end of March. Do you believe these conditions 
warrant release some or all of $600 million currently available to the 
Administration in the LIHEAP contingency fund? If not, why not?
    Answer. As you know, LIHEAP contingency funds are generally 
released in the event of an energy emergency, such as unusually severe 
weather or high home energy prices. This year, relatively mild winter 
weather across the nation has produced lower fuel costs. In addition, 
we must also be prepared in the event that there is a need for 
contingency funds resulting from a heat wave or some other unexpected 
cooling emergency this summer.
    The full $1.7 billion in fiscal year 2002 LIHEAP formula block 
grant funds are available to the States. States are usually limited to 
90 percent of their funds through the second quarter. However, the 
Administration granted waivers to states that requested to receive 100 
percent of their funds to meet their needs this winter.
    To date, the Administration has retained the Supplemental 
Contingency Funds. We are continuously monitoring conditions to 
determine how to best allocate the Contingency Funds, and the President 
is prepared to respond by releasing the funds should the determination 
of a qualified emergency be made.
                  nutrition services incentive program
    Question. Please clarify how the funds for the Nutrition Services 
Incentive Program (NSIP) that the Administration proposed to transfer 
from the United States Department of Agriculture to AoA will be 
distributed to the States. How will this proposal better serve seniors?
    Answer. Instead of funding nutrition programs through two separate 
agency appropriations, The President's Budget requests that the funding 
previously provided for the USDA Nutrition Services Incentive Program 
(NSIP) be combined with AoA nutrition program funding. To ensure that 
each State continues to receive the same level of funding, the current 
formula used to distribute USDA funds, contained in section 311 of the 
Older Americans Act, would continue to be applied to $150 million of 
the combined funding appropriated to AoA for nutrition programs.
    No older person will be adversely effected by this transfer. States 
and localities will benefit from the increase in management efficiency, 
streamlining and reduction in duplication especially in reporting that 
will result from implementation of this proposal.
                interagency task force on aging programs
    Question. Last year, the Senate Committee report included language 
directing the Department to form an Interagency Task Force on Aging 
Programs. The purpose of this task force was to maximize the positive 
impact of existing programs, reduce and eliminate duplication in 
service provision and minimize regulatory burdens and costs at the 
local level. What is the current status of complying with this 
directive? What role will AoA assume in the HHS Interagency Task Force 
on Aging? How is the development and the work of the task force 
progressing within HHS?
    Answer. HHS is already involved in a number of efforts related to 
building an Interagency Task Force on Aging. We operate HHS as ``one 
Department'' just as the President operates this Administration as 
``one government.'' We are working first within HHS and secondly across 
other Cabinet level agencies in the areas of regulatory reform, removal 
of barriers to accessing services, enhancing consumer focus, and 
developing an integrated system for linking health care systems and 
community-based services that serve older individuals and their 
families and caregivers.
    Within HHS we have sought greater partnerships and coordination of 
activities across HHS agencies such as CMS, the CDC, the FDA, HRSA, the 
Indian Health Service (IHS) and a number of other agencies. These 
activities include:
  --CMS--working together to help States and local providers coordinate 
        Older Americans Act funded programs with Medicare and Medicaid
  --CDC--working to develop an integrated system of health promotion 
        and disease prevention services for older adults through the 
        ``Aging States Project''
  --FDA--partnering in the current diabetes awareness campaign by 
        enlisting the assistance of the aging network as a vital and 
        effective partner in this effort
  --HRSA--working together on issues related to the current shortage of 
        professional and paraprofessional health care workers.
  --IHS--working together on home and community-based long-term care 
        issues in Indian communities.
    These partnerships are also being expanded to other Departments. 
For instance, under the New Freedom Initiative, we are working to 
remove barriers to services across government. HHS is also working with 
the Department of Transportation on issues of better coordination of 
transportation, especially in rural areas. AoA has also received a 
number of comments through its community listening sessions across the 
country as part of its development of regulations. AoA has met with 
staff from other Departments, including Labor, the Department of 
Veterans Affairs, the Department of Housing and Urban Development, the 
Social Security Administration, and a number of other cabinet agencies, 
and will continue these efforts in the future.
    The Administration on Aging has provided leadership in these 
efforts and will continue to do so. As an example, AoA has had a 
leading role in the ``New Freedom Initiative'' that focuses on health, 
social services, transportation, housing and labor issues for the 
disabled. AoA has led efforts to receive and analyze comments and input 
from consumers and advocates reflecting aging concerns.
                       nutrition program funding
    Question. Last year, this subcommittee provided historic 
investments in the Aging Network, including additional investments in 
elderly nutrition programs, family caregiving activities, senior 
centers and critical support services like transportation and adult day 
care. In a press statement on March 1, 2002 celebrating the 30th 
Anniversary of the Older Americans Act Nutrition Program, Mr. 
Secretary, you referred to the Nutrition Program as one of the most 
successful community-based programs for seniors in America. Yet this 
budget request essentially level funds funding for Older American Act 
programs, including an increase of less than 1 percent for the 
Nutrition Program. In a budget request that provides an average 
increase of 2 percent for non-defense and non-homeland security 
programs, why has one of the most successful programs for the elderly 
received what amounts to a reduction in funding?
    Answer. AoA has a solid budget request that maintains and builds on 
the historic investments in the network that the Congress provided in 
fiscal year 2002. Notwithstanding the hard choices that the President 
had to make this year, including decisions on funding for the war on 
terrorism, bioterrorism and homeland security, the AoA request provides 
increases for home-delivered meals and preventive health activities, 
two areas especially important for the growing population of older, 
frail elderly.
    Federal funds constitute a portion (30 percent) of the total 
spending by the Network on Older Americans Act programs. Older 
Americans Act nutrition programs leverage additional State, local, and 
private funds which reflect the efficiency of these programs. These 
programs will continue to target those most in need. Of the clients 
served by the aging network (1999 data) 32 percent were poor, 19 
percent were of minority origins, and 34 percent lived in rural areas.
    Working with our partners in the aging network, we expect to 
maintain the fiscal year 2002 level of meals served, 300 million meals 
to 2.6 million older adults. Historically, when appropriated funds have 
not increased over the previous year, the aging network has been able 
to maintain services and meals provided to seniors.
                                 i_____
                                 
              Questions Submitted by Senator Arlen Specter
                   nationwide health tracking network
    Question. We have heard some concerns that CDC is not giving the 
Nationwide Health Tracking Network program a high enough profile. 
Building upon earlier reports that there is duplication and 
inefficiency within CDC, how can you assure us that a nationwide health 
tracking network will take full advantage of existing programs and 
build a coordinated system? (Specifically, the National Center for 
Environmental Health has established a new branch, its Division of 
Environmental Hazards and Health Effects. We are concerned that burying 
the tracking network this deep in an individual center will continue 
the silo mentality and lead to duplication rather than coordination as 
the tracking network is developed.)
    Answer. Building the nationwide health tracking network efficiently 
and cost-effectively will require supplementing, not supplanting or 
duplicating existing programs associated with this tracking effort. 
CDC's National Center for Environmental Health (NCEH) has worked 
closely with the various programs throughout the Agency to gather input 
and lay the groundwork for continued collaboration. In fact, NCEH has 
made it a priority to assure that collaboration extends beyond CDC to 
include other relevant federal and state government agencies, and non-
governmental organizations. The NCEH staff is in the process of 
establishing ``linkages'' across Centers and programs such as the 
National Electronic Disease Surveillance System (NEDSS), the Data web, 
the National Program of Cancer Registries, the Behavioral Risk Factor 
Surveillance System, and the State Birth Defects and Surveillance 
Activities Program. To ensure continued collaborations, the center is 
developing a CDC-wide/ATSDR internal workgroup to guide its efforts and 
to improve communications between various existing activities. CDC's 
environmental health tracking program will build upon the lessons 
learned from existing systems and work closely with those programs that 
will be essential in building a strong national network.
    Within CDC's organizational structure, many major public health 
programs have been designed, implemented, and have flourished under the 
division and branch structure. Programs such as the National Breast and 
Cervical Cancer Early Detection Program, the National Childhood Lead 
Poisoning Program, the National Asthma Control Program, and the 
National Cancer Registries Programs, just to name a few, are 
successfully managed out of branches.
    Question. The CDC received $1 billion to develop a public health 
infrastructure that is responsive to the shortcomings that were 
highlighted by September 11 and the anthrax attacks. As you are 
developing the tracking network, how is it connected to all the 
activities of rebuilding surveillance and infrastructure for bio-
terrorism? Is it part of the planning and implementation? To what 
degree?
    Answer. Using the supplemental funds provided under the ``Public 
Health Preparedness and Response for Bioterrorism'' cooperative 
agreement, grantees will be required to develop and/or enhance existing 
surveillance systems to monitor key bioterrorism and infectious disease 
indicators. Information Technology guidelines have been provided to 
assist the grantees in creating electronic systems that can be easily 
integrated into databases of not only possible bioterrorism agents, but 
infectious diseases.
    In addition, Congress has provided funds in the fiscal year 2002 
budget to begin the development of a nationwide, environmental health 
tracking network that will integrate data on environmental exposure 
with data on the occurrences of diseases that have possible links to 
the environment. These funds will be used to assure development of 
environmental and chronic disease surveillance systems and linkage to 
EPA and state environmental department data and information systems. 
This is unique to the development of this network and will complement 
the development of bioterrorism surveillance systems for environmental 
hazards.
    This system will allow on-going monitoring and dissemination of 
information on levels of environmental contaminants, trends in disease 
occurrences, facilitate research on possible linkages, and measure the 
impact of regulatory and prevention strategies. Funding will be made 
available for pilot projects to develop strategies and mechanisms for 
building statewide or regional systems that will provide the foundation 
and architecture for linking, integrating and displaying health and 
environmental data.
    Real time assessment of environmental hazard data will provide 
states with capability for early detection of emerging hazards, threats 
or intentional releases of dangerous chemicals. This can initiate a 
response on the part of state and local environment management teams to 
mitigate the potential for exposure to the public. Additional public 
health action may be needed to prevent or respond to associated disease 
occurrences.
    Question. How are you using the $17.5 million appropriated for 
Nationwide Health Tracking in fiscal year 2002 budget?
    Answer. The goal of environmental health tracking is to develop a 
surveillance network, which can integrate data on environmental 
exposure with data on the occurrences of diseases that have possible 
links to the environment. This system will allow on-going monitoring 
and dissemination of information on levels of environmental 
contaminants, trends in disease occurrences, facilitate research on 
possible linkages, and measure the impact of regulatory and prevention 
strategies. With this information, federal, state and local agencies 
will be better prepared to develop and evaluate effective public health 
action to prevent or control diseases across our nation.
    Funding will be made available for up to 15 state and/or local 
pilot projects to develop strategies and mechanisms for building 
statewide or regional systems that will provide the foundation and 
architecture for linking, integrating and displaying health and 
environmental data. Funding will also be provided to several Schools of 
Public Health/Centers of Excellence to coordinate and translate 
research needs/activities between academia and the pilot projects/state 
grantees. The Centers of Excellence will assist with the development 
and understanding of public health surveillance practices and 
methodologies.
    Question. More and more, it appears that CDC is trying to become 
more of a research organization than a community-based public health 
organization. It appears that very valuable data is sitting on desks 
until it can be released in a peer-reviewed journal, which might look 
good on the CV of your staff but doesn't help bring the information to 
the communities where it is most needed. How are you insuring the 
community right-to-know provisions of the tracking network? Are you 
engaging communities in the process of developing the network? How will 
you assure that citizens will be able to access information about 
exposures and health outcomes in their community? We know about the 
work groups and I assure you that these workgroups do not reflect the 
community nor do they adequately represent community concerns.
    Answer. The CDC has always played a major role in assisting state 
and local public health officials in developing and implementing 
programs that will improve the health of communities. CDC is committed 
to disseminating information learned from disease surveillance to drive 
public health action and to conduct essential research that translates 
into improved public health practices.
    The CDC is looking very carefully at how right-to-know issues 
relating to environmental health surveillance can be balanced with 
right-to-privacy and confidentiality issues. Guidelines and procedures 
for making aggregated data available to the public at a community 
level, in an easily accessible and readily available format will be 
developed as part of the standard operations for the Environmental 
Health Tracking Program. It is too early in program development to 
outline exactly what that data will look like.
    Each state grantee will be asked to develop community-based 
coalitions to ensure local community input in identifying environmental 
public health priorities and needs. Additionally, CDC will identify 
Network stakeholders, assess their needs, and determine effective 
communication in order to fully understand how national and statewide 
systems can best serve communities.
    Plans being developed for statewide and national networks will 
address access and dissemination issues. A public access web site which 
provides both the environmental and health outcome data in an easy to 
understand format and which assures the protection of individual 
privacy is a logical model to consider. However, because many members 
of the public do not have access to the web or are not comfortable with 
electronic systems, written reports and fact sheets will be developed 
and shared. Other methods for providing communities access to 
information will be explored.
                 office of the secretary consolidations
    Question. You are proposing to consolidate the management of 
construction funds under your office. You are also planning a major 
consolidation of the Department's communications, legislative and 
public affairs offices and placing them directly under your control. 
How will this sudden centralization of decision-making and information 
dissemination affect the ability of Congressional staff to receive fast 
and accurate information? Could you explain your reasons for these 
plans?
    Answer. Our intention is to improve the flow of information to both 
Congress and the public by avoiding the confusion and delays that are 
sometimes caused by the present separation of information offices 
within the Department. This change does not represent any alteration in 
our policy regarding the ready availability and active dissemination of 
information; instead, it represents an administrative change intended 
to overcome bureaucratic gaps that can negatively impact the flow of 
information. Furthermore, by consolidating efforts throughout the 
Department, we expect to achieve more effective and less duplicative 
dissemination of information than at present. Members of Congress and 
their staffs will still be able to contact individual Operating 
Divisions directly; however, it might be more efficient and effective 
for them to contact the consolidated legislative or public affairs 
office in Washington instead, as those offices will be able to pull the 
pertinent pieces together from all of the Operating Divisions, and 
deliver a comprehensive and clear answer to a Member.
    I have decided to implement these changes in administrative 
structure because consolidation offers HHS the opportunity to achieve 
economies of scale, and to redeploy resources from administrative 
support to mission-critical areas. Following are additional details 
regarding these consolidations.
    Health Facilities Construction and Management Fund.--HHS will 
provide the oversight of all construction projects from a centralized 
office in the Office of the Secretary. The intent is to inject more 
accountability into the construction process, by centralizing the 
financial management of construction projects and continuously 
monitoring the progress being made in relationship to the dollars being 
spent. In summary, the concept is centralized oversight with 
decentralized execution.
    Personnel Offices.--In September 2001, HHS had 40 personnel offices 
providing human resource services to HHS employees. This represents 
tremendous duplication of effort--e.g., more than 20 separate personnel 
offices on the NIH campus, six personnel offices at FDA, multiple 
personnel offices in one building (the Parklawn Building in 
Rockville)--as well as wide variation in the quality and timeliness of 
the services provided. By the end of fiscal year 2003, we plan to move 
from these 40 separate offices to four consolidated service sites. 
These consolidated sites will be co-located with large employee 
concentrations in Atlanta, Baltimore, Bethesda, and Rockville.
    The first phase of our current consolidation effort has begun. The 
personnel offices for SAMHSA and AHRQ were consolidated with the PSC 
personnel office in October 2001. By the end of this fiscal year, NIH 
will consolidate its current 27 personnel offices into one, and FDA 
will consolidate its 6 personnel offices into one. Planning is well 
underway for both of these consolidations, and we expect the NIH and 
FDA consolidated sites to operate with fewer FTE than are now dedicated 
to personnel services in those Operating Divisions. As with SAMHSA and 
AHRQ, this will provide the opportunity to shift resources to front-
line operations.
    To achieve our goal of further consolidating to four sites by the 
end of fiscal year 2003, the Department will soon convene a workgroup 
of Operating Division representatives to design the new structure, 
recommend service and resource levels, and address staffing issues. 
While our objectives include more efficient service delivery and more 
effective use of resources, my commitment is that no employee will lose 
a job as a result of consolidation, although they will not necessarily 
stay in the same job they now have. Nor do we expect our consolidation 
efforts to result in wholesale employee geographic relocation.
    Public Affairs and Legislative Affairs.--HHS is currently in the 
process of developing a detailed plan for executing these 
consolidation. This effort entails working closely with each Operating 
Division to determine the positions involved, the job duties involved, 
and how best to restructure the operations within each agency into a 
coordinated effort. The goal is to create a cohesive structure that 
supports the development and execution of clear, timely and fact-based 
communication with both Congress and the public.
    Specific individuals to be transferred to the consolidated Public 
Affairs and Legislative Affairs offices have not yet been identified. 
Below is a table outlining the number of FTE to be transferred from 
each HHS Operating Division, and the cost associated with those FTE.

----------------------------------------------------------------------------------------------------------------
                                                        Total            Public Affairs          Legislation
            HHS Operating Division             -----------------------------------------------------------------
                                                   FTE      Dollars      FTE      Dollars      FTE      Dollars
----------------------------------------------------------------------------------------------------------------
FDA...........................................         80     $7,317         46     $4,623         34     $2,694
HRSA..........................................         31      3,354         18      1,947         13      1,407
IHS...........................................          8        838          5        599          3        239
CDC...........................................         60      7,870         44      5,415         16      2,455
SAMHSA........................................         12      1,610         11      1,476          1        134
CMS...........................................         63      5,714         17      1,551         46      4,163
ACF...........................................         10      1,090          7        753          3        337
NIH...........................................        381     51,106        372     49,899          9      1,207
AHRQ..........................................         12      1,610         10      1,342          2        268
                                               -----------------------------------------------------------------
      Total...................................        657     80,509        530     67,605        127     12,904
----------------------------------------------------------------------------------------------------------------

                                 liheap
    Question. The Administration has not released $600 million in 
emergency LIHEAP funds, despite high energy prices and cold 
temperatures. Why haven't these funds been released and why is there a 
request to cut $300 million from LIHEAP in fiscal year 2003?
    Answer. The fiscal year 2003 President's budget includes $1.4 
billion in regular block grant appropriations and an additional $300 
million emergency contingency funds for the unanticipated home energy 
needs. Given the reduction in fuel prices from last year, we believe 
these funds will be sufficient. The Department of Energy forecasts fuel 
prices to remain constant through the remainder of the year into next 
winter absent any unforeseen energy emergencies.
    Additionally, the $300 million in funds appropriated under LIHEAP's 
emergency contingency provision in the July 2001 Supplemental 
Appropriations Act remains available. Since this amount is considered 
to be ``no-year'' funding, it can be carried over into subsequent 
fiscal years. Therefore, if part or all of these monies are not 
released this year, these funds would be available for LIHEAP in fiscal 
year 2003 to meet any unexpected demands.
               healthy communities innovation initiative
    Question. Could you explain more about your Healthy Communities 
Innovation Initiative? Given the focus on reducing diabetes, obesity, 
and asthma, can you explain how this new program does not duplicate 
similar programs that have been funded for years through CDC?
    Answer. HHS has been working hard to treat and prevent asthma, 
diabetes, and obesity. However, I believe their rapidly increasing 
prevalence calls for an initiative to target resources on a new 
interdisciplinary services demonstration to focus our efforts at the 
community level. The Healthy Communities Innovation Initiative will be 
modeled on the successful Healthy Start community-based demonstration 
project to enhance access to services and change health outcomes.
    HRSA's expertise is in working with communities to develop and 
implement tailored services programs through a variety of activities 
and programs. HRSA currently partners with other agencies, including 
CMS and CDC, and will use its expertise to enhance the effectiveness of 
other existing programs to reduce the prevalence of diabetes, asthma, 
and obesity. HRSA will forge a tightly coordinated public/private 
partnership between prevention, medical, social, educational, business, 
civic, and religious organizations to enhance access to services and 
change health outcomes, while avoiding duplication of existing efforts.
    Another critical element of this initiative will be based upon HRSA 
experiences gained in the successful Maternal and Child Health Block 
Grant performance measurement agreements worked out in collaboration 
with all 59 States and territories, and in place and working well for 
three years now. This HRSA experience will be used to effectively 
develop and utilize requirements for each grantee to define achievable 
health outcome goals and measures for which it will be held 
accountable.
                        community health centers
    Question. The budget request includes a $114 million increase to 
expand community health centers to serve poor, migrant, and homeless 
individuals. Will this increase result in additional health centers, or 
the expansion of existing health centers? With this increase, how many 
more people will be served? What additional areas of the country will 
be served?
    Answer. The President's Budget for fiscal year 2003 proposes a $114 
million increase to fund the second year of the Presidential Initiative 
to increase and expand health center access points by 1,200 and 
increase the number of people served by 6 million in five years. These 
funds will support the establishment of approximately 90 new access 
points and the expansion of service capacity at 80 existing sites. 
Thirty of the 90 new access points are projected to be new sites of new 
grantee organizations, with the remaining 60 new access points 
projected to be new satellite sites of existing grantee organizations.
    These new and expanded sites will increase services to an 
additional 1 million individuals, for a total of 12.8 million persons. 
This will include an additional 60,000 migrant farm workers and their 
family members, and 64,000 special population clients including 
homeless persons and residents of public housing facilities. Due to the 
competitive nature of the grant application and review process, the 
Health Center program is unable to predict the geographic distribution 
of grant awards. However, the Program is expected to continue to 
maintain an appropriate balance between rural and urban grant awards, 
and to continue to give special consideration to sparsely populated 
areas of the country.
                 children's graduate medical education
    Question. The Children's Hospitals Graduate Medical Education (GME) 
has been essential to supporting medical education in free-standing 
children's hospitals because these hospitals serve few, if any, 
Medicare patients and, therefore, do not receive medical education 
funding from Medicare as do other teaching hospitals. The President's 
budget cuts Children's GME $85 million. Could you explain the reasons 
for this cut and how you believe this will affect children's hospitals?
    Answer. Since fiscal year 2000 when this program was initiated, it 
has expanded seven fold, going from $40 million to $285 million in only 
three years. Our proposal for fiscal year 2003 is a modest effort to 
restrain spending, holding funding at $200 million. We have made a few 
priority determinations in developing the overall President's Budget 
and this is one place where we suggest that the funding level could be 
pared back. Even with the $85 million reduction in GME payments, the 
approximately 60 Children's Hospitals in the country would receive an 
estimated per resident payment of $51,200.
                           health professions
    Question. The Administration has zeroed out funding for Public 
Health Workforce Development in the Health Resources and Services 
Administration. Could you explain the cut in that area, as well as cuts 
in funding for other health professions?
    Answer. The goal of our Health Professions programs is to increase 
services to the underserved. Over the past two decades, we have spent 
$6 billion on Title VII health professions grants and our track record 
on performance is not good. Based on data reported in the HRSA 
Government Performance and Results Act Annual Performance Plan, only 30 
percent of individuals who participate in the Title VII programs go on 
to practice in medically underserved areas. However, with the Health 
Center program and National Health Service Corps, we know that 100 
percent of these funds are going to provide services to the 
underserved. Title VII programs were enacted to correct an overall 
shortage of physicians. Today, there is no shortage of physicians. In 
fact, the number of physicians have increased by 21 percent in the last 
10 years and 64 percent over the last 20 years.
    We have provided increases in two areas where we do have shortages 
nursing and ensuring our health professionals are adequately trained to 
diagnose and treat bioterrorism illnesses. It is also important to note 
that we make substantial investments in training health care workers, 
particularly doctors, through Medicare reimbursements $8 billion 
estimated in fiscal year 2003 through Graduate Medical Education.
                            nursing shortage
    Question. We continue to face an ever-increasing shortage of nurses 
in this country. Unless we focus our attention on this problem, the 
nursing shortage will only worsen as our population ages. What short-
term, mid-term, and long-range strategies are you instituting to deal 
with this crisis?
    Answer. HRSA administers programs authorized under Title VIII of 
the Public Health Service Act, often referred to as the Nurse Education 
Act. Specific activities helping to mitigate the shortage of nurses 
include support for (1) basic and advanced nursing education programs, 
(2) diversity programs targeting minority and disadvantaged students, 
(3) scholarship, traineeships and loans, and (4) nursing workforce 
analysis.
  --The Advanced Education Nursing Program supports projects educating 
        nurses for faculty positions in nursing schools, public health 
        nurses, nurse administrators and advanced practice nurses which 
        include nurse practitioners, clinical nurse specialists, nurse 
        anesthetists, and nurse midwives. Funds from this program 
        support advanced education projects enrolling approximately 
        4,550 students and provide traineeship support for 5,800 
        graduate level students.
  --The Nursing Workforce Diversity Program provides support to 
        projects targeting 1,800 minority and disadvantaged students in 
        elementary and secondary schools, pre-nursing programs, and 
        nursing schools. This program provides remedial and support 
        services necessary to assure successful completion of those 
        students enrolled in nursing programs.
  --The Basic Nurse Education and Practice Program supports academic 
        and continuing education projects designed to recruit and 
        retain a strong nursing workforce. Funds are used to support 
        basic entry-level career ladder programs for licensed practical 
        nurses, innovative academic distance learning projects for 
        rural RNs, and projects to expand enrollments in baccalaureate 
        nursing programs. Support is provided for retention strategies 
        through continuing education projects to enhance the skills of 
        the existing nursing workforce for practice in existing and 
        emerging health care systems. In addition, support for faculty-
        run nurse managed centers provides educational settings for 
        nursing students and clinical practice sites for faculty 
        providing care to underserved populations.
  --The Nursing Education Loan Repayment Program assist registered 
        nurses by repaying up to 85 percent of their qualified 
        educational loans over 3 years in return for their commitment 
        to provided services at health facilities in shortage areas.
  --Other student scholarship and loan support available under the 
        following HRSA programs for fiscal year 2001 provided the 
        following:
    --The Scholarships for Disadvantaged Students Program Assistance
    --The revolving Nursing Student Loan Program
    --The National Health Service Corp Scholarship and Loan Repayment 
            Programs
                              bioterrorism
    Question. What is the status of the applications from the States 
for the remaining 80 percent of funds appropriated for bioterrorism 
preparedness? Has the Department received much feedback from the 
States? Does it appear that the timeline the Department has set for 
review of applications is realistic?
    Answer. Recently awarded cooperative agreements from the Centers 
for Disease Control and Prevention and the Health Resources and 
Services Administration, respectively, allocated over $1 billion by 
formula to health departments of states and other eligible entities to 
enhance public health preparedness. Twenty percent (20 percent) of the 
allocated funds are available for immediate expenditure. The remaining 
eighty percent (80 percent) will become available as soon as the 
Secretary has approved the awardees' work plans for expenditure of the 
funds. These work plans are due on or before April 15, 2002.
    To help the awardees prepare their work plans, the Department 
offered detailed guidance and conducted four regional workshops 
(Atlanta, Denver, San Francisco, and Boston). Based on this first hand 
contact, we find the awardees enthusiastic at the prospect of this 
major infusion of funds to enhance bioterrorism preparedness in general 
and the public health infrastructure in particular.
    We believe that the timeline is realistic. A few states may request 
a short extension of the deadline for submitting the work plans. 
However, the Department remains committed to reviewing and approving 
the workplans within 30 business days following determination that the 
plans are complete. Both the Department and the awardees share a sense 
of urgency about enhancing public health preparedness.
    Question. How are bioterrorism funds, which are spread out among 
several agencies within the department, being coordinated?
    Answer. I have commissioned Dr. D.A. Henderson and the new Office 
of Public Health Preparedness (OPHP) he heads to direct and coordinate 
our efforts across HHS. He is overseeing all parts of our preparedness 
planning efforts. We created this office precisely because our 
bioterrorism functions are diverse. We engage a wide array of experts 
throughout the Department and strive to ensure that their efforts are 
effectively channeled to meet growing demands for preparedness.
    Most of our bioterrorism funding was appropriated to a single 
unified account--the Public Health and Social Services Emergency Fund 
in the Office of the Secretary. We are making these monies available to 
the operating organizations--the Centers for Disease Control and 
Prevention (CDC), the Health Resources and Services Administration 
(HRSA), and the Office of Emergency Preparedness (OEP)--as soon as 
plans for their use have been approved by Dr. Henderson and the 
Assistant Secretary for Budget, Technology, and Finance.
    In particular, we have moved aggressively to allocate more than $1 
billion for improving State and local preparedness for bioterrorism and 
other public health emergencies. This involved close collaboration 
among CDC, HRSA, OEP, and the Office of the Secretary.
    CDC issued cooperative agreements totaling $918 million using a 
formula-based allocation. The awardees (primarily states) can use up to 
20 percent of their awards immediately and will be able to access the 
remaining 80 percent once the Secretary has approved their work plans 
for use of the funds. Among the objectives are enhancements of 
infectious disease surveillance and epidemic response and planning for 
receipt and distribution of material from the National Pharmaceutical 
Stockpile.
    HRSA allocated $125 million to States and other eligible entities 
for hospital preparedness using a formula based approach similar to 
that used by CDC. Further, the HRSA awardees also can use 20 percent of 
their allocated funds immediately and will have access to the rest once 
the Secretary has approved their work plans.
    Although NIH and FDA received direct appropriations, both are 
coordinating their plans closely with OPHP. FDA's funding was highly 
targeted- much of it directed to adding new inspectors/compliance 
officers that FDA is actively recruiting and hiring.
                           stem cell research
    Question. The NIH Stem Cell Registry now identifies 78 stem cell 
lines. It is my understanding that these lines are at various stages of 
development and characterization. How many of these stem cell lines are 
immediately available to U.S. researchers?
    Answer. The 78 lines that are listed on the Registry are in varying 
states of availability. The WiCell agreement makes the lines from 
Wisconsin available, and one is being shipped. Infrastructure grants 
have been made available to help all sources increase their ability to 
fill requests for lines. The notices have been issued for the first 3 
of these awards. The availability of lines other than WiCell depends to 
some degree on resolution of agreements between WiCell and the other 
sources. It appears that such negotiations are proceeding and will soon 
result in other lines becoming available.
                                 ______
                                 
          Question Submitted by Senator Kay Bailey Hutchinson
                   response to tropical storm allison
    Question. Secretary Thompson, I want to commend you and your 
Department for your concern and responsiveness to my state after the 
disastrous flooding we encountered from Tropical Storm Allison last 
summer. The total losses in Houston alone were over $5 billion, and the 
medical institutions at the Texas Medical Center alone suffered $2 
billion worth of this damage. More importantly, as I'm sure you are 
aware, the losses to our entire country, in fact to the world, of 
critical research in areas such as breast cancer, a flu vaccine and 
AIDS research will likely take years to replace. I understand that many 
of these losses will never be reimbursed because FEMA reimburses 
property loss and even NIH takes a pretty narrow view of what it is 
actually able to reimburse.
    A significant portion of the Texas Medical Center's losses were 
incurred because of business loss. I understand that following 
September 11, the New York City hospitals also suffered enormous 
business losses. Mr. Secretary, you now have the authority in recent 
disaster relief legislation to reimburse the New York City hospitals 
from your Public Health and Emergency Assistance Fund for their 
business losses and the Congress has earmarked $140 million 
specifically for this purpose.
    May I have your commitment that you will review the situation with 
the Houston hospital and research facility business losses and do your 
best to find a way to provide similar relief for these losses in my 
state?
    Answer. I personally visited the Texas Medical Center last year to 
observe first-hand the devastation caused by the floods. NIH officials 
have also made numerous visits to offer technical assistance in 
applying for supplemental research grants from NIH and in working 
through FEMA's rules for compensation. NIH has assigned a case-manager 
to work with the affected research institutions. NIH has awarded over 
$12 million in supplemental grants for research and research equipment 
at Baylor College of Medicine and more than $1 million to the 
University of Texas-Houston. NIH also has about 8-10 more such 
administrative supplements in the review queue. Each of these 
institutions have also received about $3 million in extramural 
construction funds from NIH to help rebuild the research labs that were 
lost. As an example of the close and effective collaboration we have 
had with FEMA on the research side, FEMA has agreed to support the 
costs of technicians needed to regenerate knock-out mouse strains. It 
is my understanding that the research institutions have been pleased 
with NIH's efforts on their behalf and have sent NIH letters of thanks. 
The fiscal year 2002 Emergency Supplemental provided $140 million to 
reimburse only those entities with health care-related expenses or lost 
revenues directly attributable to the September 11, 2001, terrorist 
attacks. Further Congressional guidance states that funds are to be 
allocated based on the applicants' proximity to the attack zone, the 
number of patients served, or the provision of specialized services 
such as trauma care which participated most directly in disaster 
response efforts. These funds are not available for costs that have 
otherwise been reimbursed or are eligible for reimbursement from other 
sources.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                        community health centers
    Question. The budget request includes a $114 million increase to 
expand community health centers to serve poor, migrant, and homeless 
individuals. Will this increase result in additional health centers, or 
the expansion of existing health centers? With this increase, how many 
more people will be served? What additional areas of the country will 
be served?
    Answer. The President's Budget for fiscal year 2003 proposes a $114 
million increase to fund the second year of the Presidential Initiative 
to increase and expand health center access points by 1,200 and 
increase the number of people served by 6 million in five years. These 
funds will support the establishment of approximately 90 new access 
points and the expansion of service capacity at 80 existing sites. 
Thirty of the 90 new access points are projected to be new sites of new 
grantee organizations, with the remaining 60 new access points 
projected to be new satellite sites of existing grantee organizations.
    These new and expanded sites will increase services to an 
additional 1 million individuals, for a total of 12.8 million persons. 
This will include an additional 60,000 migrant farm workers and their 
family members, and 64,000 special population clients including 
homeless persons and residents of public housing facilities. Due to the 
competitive nature of the grant application and review process, the 
Health Center program is unable to predict the geographic distribution 
of grant awards. However, the Program is expected to continue to 
maintain an appropriate balance between rural and urban grant awards, 
and to continue to give special consideration to sparsely populated 
areas of the country.
                     community services block grant
    Question. The budget documents mention a focus on strengthening 
families and supporting communities through faith- and community-based 
initiatives. However, given this focus, why does the request cut the 
community services block grant by $80 million? These funds help provide 
housing and employment assistance, education and training services, and 
nutrition and substance abuse treatment. Could you explain the reasons 
for this cut?
    Answer. The fiscal year 2003 budget includes $570 million for the 
Community Services Block Grant. While a reduction from the fiscal year 
2002 level, the President's budget makes significant investments in 
similar programs which focus services at the community based level.
                       substance abuse treatment
    Question. Unfortunately, my State has one of the highest rates of 
substance abuse. I support the President's request for an increase in 
funding for drug treatment; however, I am concerned and disappointed 
that the request includes a $45 million cut in drug prevention 
programs. These programs focus on children and teens to attempt to 
prevent what can be life-long addictions. Could you explain the 
rationale for this drastic cut in these important programs?
    Answer. The President's budget focuses on increasing the 
availability of drug treatment. The budget totals $2.1 billion, an 
increase of $127 million to fund the second year of the President's 
multi-year Drug Treatment Initiative. SAMHSA will be able to provide 
treatment services to an additional 52,000 individuals, for a total of 
546,000 people receiving treatment services. Within the increased 
amount, $67 million will fund activities which provide direct treatment 
services to individuals and community-based organizations and $60 
million is for the Substance Abuse Prevention and Treatment Block 
Grant. It should be noted that 20 percent of the block grant funds are 
used for prevention activities.
    Prevention activities are an important element in reducing drug 
abuse problems in this country. SAMHSA will continue its efforts in 
providing substance abuse prevention services that focus on children 
and teens, however they will be de-emphasizing the Best Practices 
applied research activity--relying instead on NIH to accomplish this 
work. The Budget requests continued level funding for prevention 
services such as through the State Incentive Grants. In addition, I 
have tasked the Office of the Assistant Secretary for Planning and 
Evaluation with coordinating all non-biomedical research across the 
Department. Specifically, the Department's strategy will be to 
streamline research through its Research Coordinating Council (RCC). 
The RCC will evaluate Department-wide research priorities to ensure 
that efficiencies are realized and research funding priorities are 
consistent with the Administration's priorities.
                            nursing shortage
    Question. We continue to face an ever-increasing shortage of nurses 
in this country. Unless we focus our attention on this problem, the 
nursing shortage will only worsen as our population ages. What short-
term, mid-term, and long-range strategies are you instituting to deal 
with this crisis?
    Answer. HRSA administers programs authorized under Title VIII of 
the Public Health Service Act, often referred to as the Nurse Education 
Act. Specific activities helping to mitigate the shortage of nurses 
include support for (1) basic and advanced nursing education programs, 
(2) diversity programs targeting minority and disadvantaged students, 
(3) scholarship, traineeships and loans, and (4) nursing workforce 
analysis.
  --The Advanced Education Nursing Program supports projects educating 
        nurses for faculty positions in nursing schools, public health 
        nurses, nurse administrators and advanced practice nurses which 
        include nurse practitioners, clinical nurse specialists, nurse 
        anesthetists, and nurse midwives. Funds from this program 
        support advanced education projects enrolling approximately 
        4,550 students and provide traineeship support for 5,800 
        graduate level students.
  --The Nursing Workforce Diversity Program provides support to 
        projects targeting 1,800 minority and disadvantaged students in 
        elementary and secondary schools, pre-nursing programs, and 
        nursing schools. This program provides remedial and support 
        services necessary to assure successful completion of those 
        students enrolled in nursing programs.
  --The Basic Nurse Education and Practice Program supports academic 
        and continuing education projects designed to recruit and 
        retain a strong nursing workforce. Funds are used to support 
        basic entry-level career ladder programs for licensed practical 
        nurses, innovative academic distance learning projects for 
        rural RNs, and projects to expand enrollments in baccalaureate 
        nursing programs. Support is provided for retention strategies 
        through continuing education projects to enhance the skills of 
        the existing nursing workforce for practice in existing and 
        emerging health care systems. In addition, support for faculty-
        run nurse managed centers provides educational settings for 
        nursing students and clinical practice sites for faculty 
        providing care to underserved populations.
  --The Nursing Education Loan Repayment Program assist registered 
        nurses by repaying up to 85 percent of their qualified 
        educational loans over 3 years in return for their commitment 
        to provided services at health facilities in shortage areas.
  --Other student scholarship and loan support available under the 
        following HRSA programs for fiscal year 2001 provided the 
        following:
    --The Scholarships for Disadvantaged Students Program Assistance
    --The revolving Nursing Student Loan Program
    --The National Health Service Corp Scholarship and Loan Repayment 
            Programs

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 2:30 p.m., Thursday, March 
14, in room SD-138. At that time we will hear testimony from 
the Honorable Roderick Paige, Secretary, Department of 
Education.
    [Whereupon, at 12:41 a.m., Thursday, March 7, the subcom- 
mittee was recessed, to reconvene at 2:30 p.m., Thursday, March 
14.]










  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 14, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:39 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Gregg, Murray, Stevens, Cochran, 
and Specter.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. RODERICK PAIGE, SECRETARY OF 
            EDUCATION
ACCOMPANIED BY:
        WILLIAM HANSEN, DEPUTY SECRETARY
        THOMAS SKELLY, DIRECTOR, BUDGET SERVICE

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Good morning. The Labor, Health and Human 
Services and Education Subcommittee will now come to order.
    Mr. Secretary, I apologize for being a little late, and I 
thank you for joining us today to talk about the fiscal year 
2003 budget for the Department of Education. This is our first 
education hearing since the passage of the No Child Left Behind 
Act of last year.

             EDUCATION FUNDING INCREASES OF PREVIOUS YEARS

    Over the past 6 years, Congress has increased the Federal 
investment in education by an average of 13.5 percent per year. 
Instead of building on that progress, the President has 
proposed an increase for education of just 2.8 percent next 
year, and that barely keeps up with inflation.
    The budget would cut teacher-quality programs. It would 
freeze funding for after-school programs, bilingual education, 
and State assessments. It will eliminate all funding for over 
40 other programs, including rural education, school 
counseling, dropout prevention, teacher training and 
technology, and civic education.

                    NO CHILD LEFT BEHIND ACT OF 2001

    I guess the reason I am so disappointed in this budget is 
it came right after we signed the No Child Left Behind Act, 
which we supported, and which I supported. The administration 
actually cuts funding for the programs in that act by $90 
million.
    If we fail to invest in education reform, then Leave No 
Child Behind becomes another unfunded mandate for States that 
are already strapped for cash. According to the National 
Governor's Association, at least 40 States are now experiencing 
budget shortfalls totaling more than $40 billion.
    In Iowa, the last year, a budget shortfall forced schools 
to cut spending by 4.3 percent in the middle of the school 
year. If we really want reform, we have to provide schools with 
the resources to get the job done right, and it will be a test 
to whether we keep our promise of opportunity to all.

            TEACHER QUALITY MANDATES IN NO CHILD LEFT BEHIND

    Now, where are my charts?
    This is a list of all of the new teacher quality mandates 
that are in the bill that we signed. They are mandates. Those 
are mandates.
    Let us look at the budget. Last year, we appropriated 
$3.232 billion before all those mandates, and now with all the 
mandates, your budget has us at $3.077 billion. So we have the 
mandates, and we have the funding.

               PELL GRANTS AND AFFORDABLE COLLEGE TUITION

    Now, the President's proposal for higher education is also 
a concern. More than ever before, what workers earn is tied to 
what they learn. For example, the average salary of someone 
whose education ends after high school is almost 55 percent 
less than someone with a bachelor's degree. If we are going to 
invest in America's economic future, we have to invest in the 
workforce of the future, and that means making a college 
education more affordable and accessible for every American. 
Unfortunately, students and families throughout the country are 
finding it harder to make ends meet when it comes to a college 
education.
    Last week, I had a meeting in Des Moines with a number of 
students, teachers, and others about their college education 
expenses. Rae Taylor, whom I met last Friday, is a junior at my 
alma mater, Iowa State. She comes from a background much like 
my own, a working-class family. Rae and her parents work hard, 
but like a lot of Americans they cannot afford the high cost of 
higher education, but Rae has not let that stand in her way. 
She works three jobs, 40 hours a week, and carries a courseload 
of 17 credits. Even though she receives the maximum Pell Grant 
award, she has already accumulated $20,000 in loans before she 
graduates.
    Mr. Secretary, I simply could not explain to Rae that this 
administration cannot give her a hand by increasing the maximum 
Pell Grant. She is willing to work hard, she has proven that. 
She has taken on debt, she wants to go to school, but your 
budget will not increase her Pell Grant by even one penny.
    So where does that leave Rae? Well, her tuition is going to 
increase by 19 percent next year. She has a choice. She can 
either work more hours than 40 hours a week, or she can delay 
her graduation. I do not think that is a fair choice for her to 
make. She has done her part. It is time for us here in the 
Congress, and for the President, to do ours, and I hope that we 
will work together to make college more affordable for Rae and 
students like her.

                LOAN FORGIVENESS FOR TEACHERS AND NURSES

    One positive step in that direction is the President's 
proposal to increase the limit on loan forgiveness for highly 
qualified math, science, and special education educators 
serving in high-needs schools. That is a good step, but we 
should go further, and that is why I announced this morning 
that I will introduce legislation providing additional loan 
forgiveness for all teachers serving in high-needs schools, and 
for all nurses providing direct medical care. There are 
thousands of young people in America who want to go into 
teaching or nursing, but when they look at the debts that they 
will pile up, and what that job pays them, they opt into other 
fields of endeavor. I hope that we can work together to make it 
better and easier, more affordable, for these kids to go to 
college and become teachers and nurses.
    A great deal, I know, has changed since the Secretary first 
came before us last year. The tragedy of September 11th has 
forced us to adjust our priorities, as well it should, but we 
cannot allow terror from abroad to paralyze us here at home. We 
need to take a hard look at this education budget. I believe it 
comes up well short of where we need to be, but I do want to 
work with you, Mr. Secretary, and with the President, first, to 
make education reform work. I supported the No Child Left 
Behind bill, and I believe those reforms are good, but if we do 
not have the money to back it, then I think we are setting up 
schools for failure. So I think we have to increase our 
investment there and in higher education.

                           PREPARED STATEMENT

    Again, Mr. Secretary, I look forward to hearing your 
testimony and working with you to insure a better opportunity 
for all of our kids in school. I will leave the record open for 
an opening statement by my ranking member, Senator Specter, and 
I would yield and recognize the distinguished ranking member of 
the entire committee, Senator Stevens.

                Prepared Statement of Senator Tom Harkin
    This hearing of the Labor, Health and Human Services, and Education 
Appropriations Subcommittee will now come to order.
    Mr. Secretary, thank you for joining us today to talk about the 
fiscal year 2003 budget for the Department of Education. This is our 
first education hearing since the passage of the No Child Left Behind 
Act last year, and I'd like to congratulate you for your work on that 
important piece of legislation.
    The passage of that bill was a victory for public education, and I 
was proud to support it. But my belief in education reform is why I am 
so deeply disappointed by the president's education budget for the 
coming year.
    Over the past 6 years, Congress has increased the federal 
investment in education by an average of 13.5 percent a year. Instead 
of building on that progress, the president has proposed an increase 
for education of just 2.8 percent. That barely keeps up with inflation.
    This budget would cut teacher quality programs. It would freeze 
funding for after school programs, bilingual education and state 
assessments. And it would eliminate ALL funding for over 40 other 
programs, including rural education, school counselors, dropout 
prevention, teacher training in technology, and civic education.
    I guess the reason I'm so disappointed in this budget is that it 
came right after President Bush signed the No Child Left Behind Act. 
The Administration actually cuts funding for the programs in that bill 
by $90 million.
    If we fail to invest in education reform, `Leave No Child Behind' 
becomes another unfunded mandate for states that are already strapped 
for cash. According to the National Governors Association, at least 40 
states are now experiencing budget shortfalls totaling more than $40 
billion. In Iowa last year, a budget shortfall forced schools to cut 
spending by 4.3 percent in the middle of the school year.
    If we really want reform, we've got to provide schools with the 
resources to get the job done right. It will be the test of whether we 
keep our promise of opportunity to all of America's children.
    The president's proposal for higher education is also cause for 
concern. More than ever before, what workers earn is tied to what they 
learn. For example, the average salary of someone whose education ends 
after high school is almost 55 percent less than someone with a 
Bachelor's Degree. If we're going to invest in America's economic 
future we have to invest in the workforce of the future. That means 
making a college education more affordable and accessible for every 
American.
    Unfortunately, students and families throughout the country are 
finding it harder to make ends meet when it comes to a college 
education. Raye Taylor, who I met last Friday in Des Moines, is, a 
junior at my alma mater, Iowa State. She comes from a background much 
like my own. Raye and her parents work hard, but like a lot of 
Americans they simply can't afford the high cost of higher education.
    But Raye hasn't let that stand in her way. She works three jobs for 
a total of 40 hours a week while carrying a course load of 17 credits. 
Even though she receives a maximum Pell Grant award, she's already 
accumulated $20,000 in loans.
    Mr. Secretary, I simply couldn't explain to Raye that this 
Administration, for all of its talk about education, can't give her a 
hand by increasing the maximum Pell grant. She's willing to work hard, 
she's taken on debt, she wants to go to school and become a 
veterinarian. Yet your budget won't increase her Pell Grant by even one 
penny.
    So where does that leave Raye? Well, her tuition is going to 
increase by 19 percent next year. She's got a choice--she can either 
work more hours, or she can delay her graduation. I don't think that's 
a choice Raye or any other hard working kid should be forced to make. 
She's done her part, Mr. Secretary. It's time for you and the president 
to do yours. I hope you'll work with us to make college affordable for 
Raye and students like her.
    One positive step in that direction is the president's proposal to 
increase the limit on loan forgiveness for highly qualified math, 
science and special education educators serving in high need schools. 
It's a good step, but we should go further.
    That's why I announced this morning that I will introduce 
legislation providing additional loan forgiveness for ALL teachers 
serving in high-need schools and for all nurses providing direct 
medical care. There are thousands of young people in America who want 
to go into teaching or nursing, but they've got so much student loan 
debt they just can't afford it. I hope I can work with you and the 
president to help them serve America in these important professions.
    A great deal has changed in America since the Secretary first came 
before us last year. The tragedy of September 11 has forced us to 
adjust our priorities, as well it should. But we cannot allow terror 
from abroad to paralyze us here at home. We need to take a hard look at 
this education budget. It comes up well short of where we need to be. 
But I want to work with you, Mr. Secretary, and with the president, to 
make education reform work and to increase our investment in higher 
education.
    I look forward to hearing your testimony, Mr. Secretary, but first 
I'll yield to my friend, Senator Arlen Specter, for an opening 
statement.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you for your courtesy. I do have to 
go to another meeting. I am pleased to see you here, Secretary 
Paige, and welcome you to the committee.
    Secretary Paige. Thank you.

                    NO CHILD LEFT BEHIND ACT OF 2001

    Senator Stevens. You have a great challenge before you, I 
think, wide-ranging concepts of secondary and elementary 
education, and in the No Child Left Behind Act, which the 
President signed in January, which we all support very 
strongly. But, I wonder if you know that in many places, as a 
matter of fact, I think outside of the major school districts, 
in what we call the unorganized borough of our State, I am 
informed that not one child could pass the tests that are now 
required by Federal law.

                  ALASKAN NATIVE EDUCATION EQUITY ACT

    We are in a situation where we funded last year an Alaskan 
Native Education Equity Act at $24 million. Your budget 
proposes to reduce that program to $14.2 million below what we 
provided for 2001 and for 2002.
    We hope you will come up and see our State and go out to 
those native areas. I think maybe you can come up with 
Secretary Thompson sometime, because you have joint 
responsibilities in many things. Sixty percent of those 
children do not graduate from high school. In some of the 
schools, as I said, not a single child has passed the exams.
    Last year, out of 227 villages, there were 80 teacher spots 
in rural Alaska that were vacant that we could not fill. Now, 
the Alaskan Education Equity Act provided the extra funds to 
help bridge those gaps and try to get some increased quality of 
education in rural Alaska. I would hope that you would help us 
and proceed. There is some indication that the Department wants 
to wait 3 years to get the results from the national tests 
before you proceed, is that correct?
    Secretary Paige. I do not believe that is correct, Senator.
    Senator Stevens. I hope it is not. I am just going with the 
hope that you would not do that. Our State is one-fifth the 
size of the whole United States, and the population is just 
slightly higher than that of North Dakota. We have areas that I 
want to take you to that have no roads, they are accessible 
only by plane, and as a matter of fact, you have to go in the 
daylight, because those runways do not even have lights on 
them. We are dealing with an area that is rampant with high 
rates of abuse of substances, that have basically no running 
water or sewer, and they have increasing population rates that 
is astounding, about eight children per family.
    We need to find somebody to follow through on the act that 
we passed, that the President requested, and we passed, in an 
area that really it will help. It does not really fit, but it 
will help, if we recognize the need to bring those children up 
to where they, too, can have a quality education.

           CAROLYN WHITE PHYSICAL EDUCATION FOR PROGRESS ACT

    I am also concerned about the funding for a program we call 
the Carolyn M. White Physical Education for Progress, the PEP 
Act, which is part of that No Child Left Behind Act. Mr. 
Secretary, that is named after my chief of staff, who is on her 
way to Duke right now for about her tenth session in radiation 
and other treatment, because of a brain tumor. She conceived 
that act, and on a bipartisan basis, the committee decided to 
name it after her. She has a very fine edge in terms of whether 
she survives or not. We all pray for her.
    This budget eliminates that funding, and we authorized it, 
and we had hoped that it would be funded as part of the 
process. I hope that you will take a look at that. I have long 
been an advocate of physical exercise for the focus of health. 
In our State--well, as a matter of fact, the Surgeon General 
issued a report that we have an epidemic of obesity, he said, 
the other day.
    In Alaska, I checked this morning, since 1991, obesity in 
our State has risen 50 percent. Obesity-related diseases, like 
diabetes and heart disease, outstrip, for instance, smoking-
related illnesses now, and I think physical activity ought to 
be a major portion of the educational system. Of course, I am 
old enough to remember that we had to do it 1 hour a day 
whether we liked it or not, and it was tough, and the toughest 
part of the whole education program was the coaches, and you 
played whether you were good or not, and you exercised. As a 
matter of fact, we got most of our hygiene education, and even 
the differences between the birds and the bees from the 
coaches. I do not want to elaborate on that.
    Secretary Paige. I do not know if that is good or bad, 
Senator.
    Senator Stevens. As a father of six, I have had to follow 
through and take their places a few times.
    I do ask that you take a look at the PEP Act. It was 
designed to have some examples throughout the country that 
school districts would take on the duty of restoring daily 
physical education in grades one through twelve, and if they 
did, they got assistance in modernization of their facilities 
to provide that physical education opportunity.

           JUVENILE DIABETES CONNECTED TO LOW EXERCISE LEVELS

    I have one other comment to you, Mr. Secretary. I will not 
ask questions at this time. I am taking too much time already. 
The diabetes problem in this whole equation, it bothers me, 
because the diabetes people tell me that with just a little bit 
of exercise every day, and we could hold back juvenile 
diabetes. Did you know that? It really retards growth. Yet, the 
education program neglects physical education totally.
    What is your feeling about that? Can I ask one question? 
What is your feeling about physical education, as far as the 
education curriculum?
    Secretary Paige. I think it is a very important part of the 
curriculum, Senator. In fact, I have a background in physical 
education----
    Senator Stevens. Good.
    Secretary Paige [continuing]. And I would think that 
physical education is imperative, in fact, along the lines of 
which you have just spoken about.
    Senator Stevens. I want you to meet my chief of staff when 
she recovers, God willing, and she will give you a few lessons 
about physical education.
    Secretary Paige. Please indicate our blessings to her.
    Senator Stevens. Thank you very much. Thank you for your 
courtesy.
    Senator Harkin. Thank you, Senator Stevens.
    Senator Murray.

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman.
    I will submit my opening statement and my questions for 
answers, since I will not be able to stay for that part, but 
let me just echo what the chairman said about my deep 
disappointment about the President's budget that has been sent 
to us. We worked very hard last year to come to a consensus on 
an education reform bill that was called No Child Left Behind.

                    NO CHILD LEFT BEHIND ACT OF 2001

    There were two parts of that bill. It called for higher 
standards and accountability, but it also promised more 
investments so schools could make progress. So I was very 
deeply disappointed just a few months after that bill was 
signed, and everybody went around the country touting it, that 
the budget does not reflect the reality of the need in the 
numbers that came to us. Freezing programs like after school, 
and safe and drug-free schools, and Pell Grants, and not fully 
funding our share of special education costs, that was a huge 
part of the debate over ESEA reauthorization, cutting all funds 
for dropout prevention and smaller schools, training teachers 
to use technology, rural student achievement, mentoring 
disadvantaged students. It just is a real disappointment to see 
the numbers after we heard such rhetoric out there, and I echo 
the chairman's comments about that.
    I am especially surprised to see in the budget a proposal 
for a massive expenditure on a backdoor voucher scheme through 
tax cuts, when the Committee, and Congress rejected vouchers in 
the No Child Left Behind Act. So it seems to me that we have 
made a decision against vouchers. Yet the President has made a 
decision to go ahead and fund that at the expense of a lot of 
things we all worked together on and agreed on with the 
President in terms of leaving no child behind.
    I also just want to mention rural education. Senator 
Stevens talked about the tremendous challenges rural education 
faces, from severe teacher shortages, to transportation costs, 
lack of resources, or lack of access to advanced classes, I was 
really surprised to see the President's budget zero out funding 
for the Rural Education Advancement Progam, and I want to know 
how we plan to overcome these barriers, if we do not provide 
additional funds.

                           PELL GRANT FUNDING

    Finally, Mr. Chairman, let me just mention that I was 
really disappointed to see $1.3 billion in cuts to other 
education investments to pay for last year's Pell Grant 
increase. That is unnecessary. The program has frequently run a 
deficit in the past. It has always been corrected. What the 
President did was really cut all of the investments that we 
identified as needs in our local communities. I know that you 
as a former superintendent know, that we know the needs out in 
our local districts far better than somebody here in 
Washington, DC.
    Those programs were ones that we identified and then as a 
Congress, agreed on in the appropriations bill. I think the 
needs of Washington State to fund investments that we know are 
needed, like early childhood education programs, after-school 
programs, and Internet connections for our rural districts, 
should not be played off against very needed Pell Grant 
increases.
    Mr. Chairman, I just came to express my real frustration 
with the budget request that we have been given, and I want to 
work with you and Secretary Paige as well, because I think we 
are doing our kids a disservice if we fund education in this 
manner. Thank you very much.
    Senator Harkin. Thank you, Senator Murray.
    I know Senator Specter has obligations on another 
committee, and I would turn to our ranking member, Senator 
Specter at this time.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Well, thank you, Mr. Chairman.
    Mr. Secretary, I join my colleagues in welcoming you here--
--
    Secretary Paige. Thank you.
    Senator Specter [continuing]. And thanking you for your 
service in the administration, and for coming from Houston. I 
think you are doing an outstanding job.
    Secretary Paige. Thank you.

                    NO CHILD LEFT BEHING ACT OF 2001

    Senator Specter. There is no higher priority than 
education. I think last year was a very good year for education 
in America, with the increase in funding, and with the 
enactment of the No Child Left Behind Act, an important 
education bill. The bill provides accountability and testing on 
a bipartisan basis, I think it was a very, very significant 
piece of legislation.
    The budget which has been submitted candidly looks a little 
spare to me, considering as much as we really ought to be doing 
in education, but I know that the administration faces 
difficult priorities, and OMB has a very important, if not 
decisive, hand in the budgets which are proposed. But, Senator 
Harkin and I will be working through it, and trying to find a 
way to expand it to the extent that we can.
    I am presently involved in the Judiciary Committee hearing 
on Judge Pickering, and statements are being made at this time. 
I was able to leave, because Senator Hatch was speaking. It is 
very important to have the proper inflexion on that, not to 
have any suggestion at all, but I do have to return. I will be 
submitting some questions in writing.

                              CAMPUS CRIME

    One item I would comment on, Mr. Secretary, is the campus 
crime issue, something that I have been working on for a long 
time. The constituents, the Clary's, are the parents of a young 
girl who was brutally murdered, and they have been an 
inspirational force. We passed legislation, and we need to have 
a look by you Mr. Secretary, personally, at the way that the 
laws are being enforced. There is a great deal more that I 
would like to say, but I do have to return to the Pickering 
hearing.
    Thank you, Mr. Chairman.
    Secretary Paige. Thank you for coming, Senator.
    Senator Harkin. Thank you, Senator Specter.
    Senator Gregg.

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. Thank you, Mr. Chairman. Mr. Secretary, it 
is a pleasure to be here with you today, and to have a chance 
to have you present testimony to this committee relative to the 
President's proposal on education.
    Let me just say, I have to disagree with the 
characterization of the chairman and the Senator from 
Washington as to the President's initiatives here on education. 
Let us put it in some perspective.

             EDUCATION FUNDING INCREASES OF PREVIOUS YEARS

    First off, I congratulate the chairman of this committee 
and the other members of this committee for the extraordinary 
commitment they have had to education over the last few years, 
and the significant increase in funding, as the chairman 
mentioned, a 13.7 percent increase I think is what he said.

                    NO CHILD LEFT BEHIND ACT OF 2001

    We have to remember that when we did the No Child Left 
Behind bill, basically, we looked at all the programmatic 
activity that was out there. In the context of those increases, 
we made some very significant decisions as to how we should 
reorganize the delivery of education dollars from the Federal 
level.

            INCREASES IN CLASS SIZE AND SCHOOL CONSTRUCTION

    One of the decisions we made was that in those 13 percent 
increases, the majority of those increases came in two 
categorical programs, class size and building construction, 
along with a variety of smaller categorical programs.
    We decided as an authorizing committee, of which everyone 
on this committee seems to be a member, that we will change the 
focus of those programs. We reduced the number of categorical 
programs out there, and we took specifically the class-size 
money and the school construction money and changed the way it 
was to be allocated.

              TEACHER QUALITY PROGRAMS--FUNDING INCREASES

    Education quality funding, as noted in the charts by the 
chairman, is a reflection of a huge increase in spending for 
teachers. Last year, under this committee's leadership, the 
teacher dollars went up, I think, something like $780 million, 
something like that. Essentially, what we did with those new 
dollars, which were then class-size dollars mostly, was we 
joined them together with the Eisenhower fund, and we turned 
them back to the local communities, and said, ``Here, these 
dollars are now going to be given to you with great 
flexibility. You can hire more teachers, if you need them, for 
class size, you can educate your teachers better, you can give 
them more support, or you can pay your teachers better.'' We 
did this in an attempt to get more for those dollars, and to 
leave it to the local communities to get more for those 
dollars, and to recognize the fact that we had put a huge 
amount of money into this account, and that we weren't getting 
more for those dollars, because we weren't seeing an increase 
in educational efforts.
    So I think that account and its new structure, under the 
funding mechanism that has been proposed, is properly funded, 
because actually these communities are going to end up with 
more bang for the buck, a lot more bang for the buck, and 
because of this committee's commitment earlier in the prior 
years to significantly increase those dollars, there are a lot 
of dollars in the pipeline.

                   TITLE I AND IDEA FUNDING INCREASES

    Where the President did significantly increase education 
funding, and it was regrettably not mentioned here earlier, is 
on the accounts that have not been adequately funded over the 
last 8 years. Over the last 8 years, the prior administration 
simply did not pay attention to Title I. Title I, or IDEA, for 
that matter, this committee paid attention to IDEA, but the 
President did not, the prior President.
    So what this President has said is, ``I want to focus the 
new dollars on the programmatic activity that is directly the 
responsibility of the Federal Government, which is helping low-
income kids and helping kids who are disabled. So he has 
increased, the most significant increase in history, Title I, 
by $1 billion, more than $1 billion, and he has, for the second 
year in a row--in fact, he increased that last year, too, for 
the second year in a row--sent up $1 billion increase in IDEA, 
which makes the 2 most significant years of increase in IDEA 
ever proposed by the administration. However, I will note, 
under the leadership of Senator Harkin, this committee has 
managed to beat the administration in the last 2 years, and I 
congratulate them for that.

                        NO CHILD LEFT BEHIND ACT

    The point here is this. The No Child Left Behind bill set 
up a new structure to approaching education, which was 
essentially that we were going to focus on getting money into 
the Title I system, and we were going to decide to get the 
Title I system to be more responsive to benefitting the low-
income child, and the President recognizes that with his 
funding punch, significant funding punch, and he has also 
recognized the need for IDEA funding.
    So I think if you put the dollar increases in that context, 
you can recognize that the President has fulfilled his 
commitments, he has lived up to what he said he would do under 
the No Child Left Behind bill. A lot of miscellaneous programs, 
which have not necessarily been proven to work that well, have 
been reduced, and most of them are small programs, and some of 
the budget has been level funded, because it had received such 
large increases in the prior years.

                       PELL GRANT FUNDING DEFICIT

    Pell Grants is another issue. Pell Grants has been running 
a deficit for 2 or 3 years now, a $900 million deficit 2 years 
ago, an $800 million deficit this year. Trying to correct that 
is something that we as a Congress are going to have to figure 
out how to do, and the President has set up a supplemental to 
try to do that, and he has committed to try to get the backlog 
of people at the $4,000 Pell Grant award level, but we haven't 
even covered the $4,000. I don't know how we can even go 
higher.

                   TITLE I AND IDEA FUNDING INCREASES

    So I do believe this President has made the type of 
commitment that is appropriate to living up to the 
understanding under No Child Left Behind. There is a strong 
commitment, and it is especially strong in the context of the 
fact that when we started this exercise, there was a huge 
surplus, and we were not at war. Today, we are at war, and we 
are in deficit, and the President has still stood by his 
commitment to dramatically increase funding, the largest 
increase in history in Title I, and to maintain the continued 
strong funding stream of increases in IDEA.
    So that is the way I perceive this. I recognize that it is 
a little different than the way the chairman perceives it, but 
that is why we have two parties. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Gregg.
    Senator Cochran.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I join you in 
welcoming the distinguished Secretary of Education to our 
committee. It is good to see you, Mr. Secretary.
    Secretary Paige. Thank you, Senator.

                    TEACHER RECRUITMENT AND TRAINING

    Senator Cochran. I congratulate you on the work you are 
doing as the Secretary. We appreciate you coming to our State, 
and visiting schools, and colleges. I was just with the 
president of Jackson State University over at my office, and 
they were pretty excited about some support that they were 
receiving under a discretionary program for teacher recruitment 
and training, trying to do something about the teacher 
shortage, and the like. I want to congratulate you on the 
effort you are making to help deal with that problem at the 
national level.

                 DIGITAL EDUCATIONAL PROGRAMMING GRANTS

    One other area that I want to specifically mention is that 
last year the education authorization bill included a 
competitive grant program for local public television stations 
who were faced with inordinate expenses in converting to 
digital programming for education programs. Twelve million 
dollars were actually appropriated to fund the program, and 
there is no information, though, on the Department's web site 
about the grant process, or how to apply and compete, and it 
makes us wonder what point we are at in getting this program 
functioning, and getting people up to speed as to what they 
ought to do to compete for these funds.
    I bring that to your attention just by way of expressing 
the hope that the local public television stations will know 
soon how they can compete for these funds.
    Secretary Paige. Thank you.
    Senator Cochran. There is a very important program that you 
are requesting funds for. There were some categorical programs 
that we argued over, here in the Congress, about whether to 
authorize them in the reauthorization bill, but things like 
character education, Reading is Fundamental, you've requested 
funds for these programs, and I want to congratulate you there, 
and many others, such as tech prep, which is important. It 
shows that the administration is willing to work with the 
Congress, and I think that is a very important step to identify 
these areas of special interest, and to provide the funds for 
them.

                       READY TO LEARN TELEVISION

    The Ready to Learn Television program, for example, has a 
request in your budget for $22 million for that program. I have 
seen for myself at some demonstrations back in my State how 
students are reacting, parents and preschool children are 
reacting to these programs. I really think we are on to 
something here, and I think you realize that, and I 
congratulate you and the people in your department for working 
to make these programs a success. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Cochran.
    Secretary Paige, you have been very kind and generous to 
hear us all out on our thoughts on the budget, and now, it is 
your turn.
    So, Mr. Secretary, again, we welcome you here, and your 
entire statement will be made a part of the record, and please 
proceed as you so desire.

                SUMMARY STATEMENT OF HON. RODERICK PAIGE

    Secretary Paige. Well, thank you. Thank you, Mr. Chairman.
    Members of the committee, thank you for this opportunity to 
testify on behalf of President Bush's 2003 budget for the 
Department of Education. I want to begin by once again thanking 
the members of this committee, along with your colleagues in 
the full Senate, for your hard work and many contributions to 
securing the passage of the No Child Left Behind Act of 2001, 
which President Bush signed into law in January.

                    NO CHILD LEFT BEHIND ACT OF 2001

    I take it as a vote of confidence--in the new law and in 
the Department of Education's ability to carry out the law--
that the Congress followed up its approval of the No Child Left 
Behind Act by providing the $6.7 billion increase for the 
Department in fiscal year 2002. This was the largest in a 
series of increases that have more than doubled the 
Department's discretionary budget since fiscal year 1996.
    These new resources, which will be available for the school 
year beginning this fall, will help States, school districts, 
and schools implement the No Child Left Behind Act as quickly 
as possible.
    For fiscal year 2003, the President's budget was driven by 
the overriding concern of defending our Nation and people from 
the threat of terrorism following the terrible events of 
September 11. Most of the new resources in the President's 
proposal for 2003 are dedicated to the Defense Department, 
which continues to wage war against terrorism outside our 
borders, and to Homeland Security, for efforts to keep our 
States and communities safe, and to prevent attacks.

                      NO CHILD LEFT BEHIND FUNDING

    Nevertheless, our 2003 budget for education builds on the 
major increases provided in recent years. It gives States and 
school districts the resources they need to implement the 
changes called for in the No Child Left Behind Act. The request 
would provide $50.3 billion in discretionary appropriations, an 
increase of $1.4 billion, or 2.8 percent, over the 2002 enacted 
level.
    With this increase, the Federal investment in education 
will have climbed nearly $15 billion, or 41 percent, over the 
past 3 years. I emphasize the very significant increase 
provided by this committee for the Department in recent years 
to make the larger point about President Bush's strategy for 
investing in education.
    With this administration, No Child Left Behind was not just 
about how we spend Federal funds on education, but rather about 
how we increase the return on that investment. We have very 
little to show, for example, for the nearly $190 billion we 
have invested in the Elementary and Secondary Education Act 
since 1965.
    Dramatic growth in State and local funding for elementary 
and secondary education of the past decade also has failed to 
significantly close the achievement gap for poor and minority 
students, or even raise the overall student achievement in any 
meaningful way. Increased funding may be one answer, but it is 
clearly not the only answer for our education problems.
    In addition, while we all agree on the importance and the 
promise of programs like Title I Grants to Local Education 
Agencies, that is simply not the case for every program 
reauthorized by the No Child Left Behind Act. Many of the 
smaller ESEA programs are redundant, serving the same purposes 
and populations as larger, more flexible programs, while others 
do not appear to actually work, and still others have already 
achieved their original purpose, or are just too small to have 
a national impact on our schools. These realities gave us some 
clear guidelines for responding to the dramatically different 
budget perspectives resulting from the combination of September 
11 and declines in economic performance.

               PRINCIPLES UNDERLYING NO CHILD LEFT BEHIND

    First, we believe that the No Child Left Behind Act 
provides a real opportunity to leverage existing Federal 
education resources already in the pipeline following the large 
increases of recent years. Funding decisions will be based on 
the principles that drove the No Child Left Behind Act, 
including increased accountability, greater choice for parents 
and students, particularly those from low-income backgrounds 
who attend low-performing schools, more flexibility for States 
and school districts, and stronger emphasis on teaching methods 
grounded in scientifically based research, especially in 
teaching our children to read.

                  TARGETING FEDERAL EDUCATION DOLLARS

    Second, we remain committed to targeting Federal education 
dollars to poor and minority students, and others who are more 
likely to be left behind by our education system. One way to do 
this would be to redirect resources from narrow categorical 
programs to more flexible formula grant programs that better 
focus on the students in schools with the greatest need for 
assistance.
    The results of these guidelines is a fair and 
straightforward 2003 budget request that we believe provides 
effective support for turning the vision reflected in the No 
Child Left Behind Act into a reality of better schools and 
improved student achievement.

                       PROPOSED FUNDING INCREASE

    We are proposing significant increases for Title I Grants 
to Local Education Agencies, Special Education Grants to 
States, and Pell Grants. Other priorities include major 
increases for the research-based Reading First program, and for 
further research, development, and dissemination of proven 
educational practices.

                      TEACHER QUALITY STATE GRANTS

    We would maintain funding for large, flexible State grant 
programs, most of which, like Improving Teacher Quality State 
Grants, have received big increases in recent years. The 
request would consolidate and eliminate some smaller and less 
flexible categorical programs, which in nearly every case could 
be continued at the discretion of State and local authorities 
under other authorities.

                           PREPARED STATEMENT

    These are rough times for those charged with preparing a 
responsible Federal budget, and they demand rough choices. I 
believe the President's 2003 budget makes these rough choices 
in a way that is fully consistent with the No Child Left Behind 
Act. I hope you will seriously consider our proposals, and I 
would be happy to answer any questions that you might have. 
Thank you for this opportunity.
    [The statement follows:]
               Prepared Statement of Hon. Roderick Paige
    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to testify on behalf of President Bush's 2003 budget for 
the Department of Education. I want to begin by once again thanking the 
Members of this Committee, along with your colleagues in the full 
Senate, for your hard work and many contributions to securing passage 
of the No Child Left Behind Act of 2001, which the President signed 
into law in early January.
                        no child left behind act
    This new law, which reauthorized the Elementary and Secondary 
Education Act, promises to greatly improve Federal support for the 
changes we need to raise student achievement and ensure that no child 
is left behind by our education system. In particular, the stronger 
accountability found throughout the No Child Left Behind Act (NCLB) 
will help ensure that the investments this Committee makes in education 
bring real improvement to our schools.
    I take it as a vote of confidence--in the new law and in the 
Department of Education's ability to carry out that law--that the 
Congress followed up its approval of the No Child Left Behind Act by 
providing a $6.7 billion increase for education for fiscal year 2002. 
This was the largest of a series of increases that have more than 
doubled the Department's discretionary budget since fiscal year 1996. 
We are working hard to help States, school districts, and schools to 
use these new resources effectively, through rapid implementation of 
the reforms in the new law, to help all students meet high standards.
                    fiscal year 2003 budget request
    For fiscal year 2003, I think all of you know that the President's 
budget was driven by the overriding concern of defending our Nation and 
people from the threat of terrorism following the terrible events of 
September 11. Most of the new resources in the President's proposal for 
2003 are dedicated to the Defense Department, which continues to wage 
the war against terrorism outside our borders, and to Homeland Security 
for efforts to help our States and community prevent and prepare for 
new attacks on our freedom.
    Nevertheless, I believe we are proposing a strong budget for 
education in 2003. It builds on the major increases provided in recent 
years, and gives States and school districts the resources they need to 
implement the changes called for in the No Child Left Behind Act.
    The request would provide $50.3 billion in discretionary 
appropriations for the Department of Education in fiscal year 2003, an 
increase of $1.4 billion, or 2.8 percent, over the 2002 enacted level. 
With this increase, the Federal investment in education will have 
climbed nearly $15 billion, or 41 percent, over the past three years.
    I want to emphasize two points about our investment in education. 
First, as most of you know, Federal education dollars are closely 
targeted to poor and minority students, those students who are most 
likely to be left behind by our education system. Our 2003 budget would 
do an even better job of targeting, by redirecting resources from 
narrow, categorical programs to more flexible formula grant programs 
that better focus on students and schools with the greatest need for 
assistance.
    Second, we want to make sure this new investment in education 
produces results, in terms of improved student achievement. 
Unfortunately, this has not been the case in recent years, which have 
witnessed growing Federal budgets for education but flat or even 
declining student achievement. For this reason, our budget targets the 
same principles that drove the No Child Left Behind Act, which 
reauthorized the Elementary and Secondary Education Act.
    These principles include increased accountability for States, 
school districts, and schools; greater choice for parents and students, 
particularly those from low-income backgrounds who attend low-
performing schools; more flexibility for States and school districts in 
the use of Federal education dollars; and a stronger emphasis on 
teaching methods grounded in scientifically based research, especially 
in teaching our children to read.
                   implementing no child left behind
    For example, our request includes $11.4 billion for Title I Grants 
to Local Educational Agencies, an increase of $1 billion, or 9.7 
percent, to give States and school districts additional resources to 
turn around low-performing schools, improve teacher quality, and ensure 
that no child is trapped in a failing school. The $1 billion increase 
would be allocated through the Targeted Grants formula, which directs a 
greater share of funds to the highest-poverty schools than the other 
Grants to LEAs formulas.
    We also are asking for a $100 million increase for Reading First 
State Grants, for a total of $1 billion to support comprehensive 
reading instruction, grounded in scientifically based research, for 
children in grades K-3. The budget would continue to provide $75 
million for Early Reading First, the new competitive grant program that 
helps to develop the school readiness of preschool-aged children in 
high-poverty communities.
    To help increase the availability of evidence-based research and 
knowledge of proven educational practices, the request includes $175 
million for Research and Dissemination, an increase of $53.2 million, 
or almost 44 percent. And to support State efforts in measuring the 
progress of all students toward proficiency in reading and mathematics, 
we would provide $387 million for State Assessments and Enhanced 
Assessment Instruments. These funds would pay the Federal share of 
developing and implementing--by the 2005-2006 school year--the expanded 
annual assessments in grades 3 through 8 that are integral to the 
strong State accountability systems required by the NCLB Act.
                     expanding options for parents
    A key principle of the No Child Left Behind Act is that when 
parents have the information and options they need to make the right 
choices for their children's education, our schools and our children 
will succeed. The NCLB Act requires States and school districts to 
report annually on how their schools and students are performing, and 
the new assessments will provide diagnostic information that will help 
parents and teachers to identify the strengths and weaknesses of 
individual students. Parents of students in failing schools will have 
the option of transferring them to a better public school or obtaining 
supplemental educational services from the provider of their choice. 
Our 2003 budget would help to ensure that parents have meaningful 
options for providing their children a high-quality education.
    For example, the President is proposing a new refundable tax credit 
for parents transferring a child from a failing public school. If a 
student's regular public school fails to make adequate yearly progress, 
parents would be able to transfer the student to another public or 
private school and receive a credit of 50 percent of the first $5,000 
in tuition, fees, and transportation costs.
    The request also includes $50 million for a new Choice 
Demonstration Fund, which would support research projects that develop, 
implement, and evaluate innovative approaches to providing parents with 
expanded school choice options, including both private- and public-
school choice. We also would continue to support Voluntary Public 
School Choice through $25 million in grants to establish or expand 
public school choice programs across States or districts. Grants would 
support planning, transportation, tuition transfer payments, and 
efforts to increase the capacity of schools to accept students 
exercising a choice option.
    Another key part of the Administration's efforts to increase choice 
for students and parents is continuing support for Charter Schools, 
which would receive $200 million in 2003. In addition, we are proposing 
a new, $100 million Credit Enhancement for Charter School Facilities 
program. A major obstacle to the creation of charter schools is their 
limited ability to obtain suitable academic facilities. Our proposal 
would support competitive grants to public and nonprofit entities to 
help charter schools finance their facilities through such means as 
providing loan guarantees, insuring debt, and other activities to 
encourage private lending.
         increasing flexibility for states and school districts
    The NCLB Act provides unprecedented flexibility for States and 
school districts to combine resources from selected State formula grant 
programs to pursue their own strategies for raising student achievement 
and ensuring that no child is left behind. For example, States and LEAs 
may transfer up to 50 percent of the funding they receive under four 
major formula grant programs to any one of the programs, or to Title I. 
The covered programs are Improving Teacher Quality State Grants, 
Educational Technology, Innovative Programs, and Safe and Drug-Free 
Schools and Communities.
    The President's budget includes substantial funding for these 
flexible programs, including $2.85 billion for Improving Teacher 
Quality State Grants, $700.5 million for Educational Technology State 
Grants, $385 million for State Grants for Innovative Programs, and $472 
million for Safe and Drug-Free Schools and Communities State Grants.
    In addition, the request provides $665 million for English Language 
Acquisition State Grants, which replace a complex series of categorical 
grants with a flexible program that will enable States to design and 
implement statewide strategies, grounded in scientifically based 
research, for meeting the educational needs of limited English 
proficient and immigrant students. The request also provides $1 billion 
for 21st Century Community Learning Centers to provide before- and 
after-school academic enrichment opportunities, particularly for 
children who attend high-poverty or low-performing schools.
            special education and vocational rehabilitation
    Special education is another area that we will be focusing on over 
the next year. President Bush's commitment to leave no child behind 
specifically includes children with disabilities. This is why he 
believes it is important for the Federal Government to continue 
providing additional support, through the Individuals with Disabilities 
Education Act (IDEA), for State and local efforts to help children with 
disabilities meet the same challenging State standards as other 
children. For 2003, the President is proposing a $1 billion, or 13.3 
percent, increase for Special Education Grants to States. In addition, 
the President has established a Commission on Excellence in Special 
Education which, as part of the reauthorization process, will assist 
the Administration in a comprehensive, evidence-based review of the 
IDEA.
    The 2003 request also supports the President's New Freedom 
Initiative, which is aimed in part at promoting the integration of 
individuals with disabilities into the workforce. Although many people 
with disabilities are obtaining and retaining jobs, the unemployment 
rate for people with disabilities remains unacceptably high. To help 
individuals with disabilities prepare for, obtain, or retain 
employment, the budget provides $2.6 billion for the Vocational 
Rehabilitation (VR) State Grants program, an increase of $134.9 
million, or 5.4 percent. The request for VR State Grants reflects the 
mandatory inflation increase, an additional $20 million to improve 
employment outcomes, and a consolidation of funding from smaller, 
overlapping categorical programs under a multi-year Administration 
effort to reform the Federal Government's training and employment 
programs.
                        postsecondary education
    The President emphasized reform of elementary and secondary 
education during his first year in office, but he fully recognizes the 
critical role of postsecondary education in securing the American Dream 
of success and prosperity. This is why, for example, our budget 
includes $10.9 billion for the Pell Grant program, an increase of $549 
million, or 5.3 percent, to help ensure access to postsecondary 
education for low-income students and families and to maintain the 
maximum Pell award level at $4,000. This increase does not include the 
$1.3 billion supplemental for Pell Grants that the President is 
proposing for fiscal year 2002 in order to address the shortfall 
created by the 2002 appropriations act.
  --Overall student financial aid available would expand to $54.9 
        billion under the President's budget for 2003, an increase of 
        $2.8 billion, or 5 percent, over 2002, with the number of 
        recipients of grant, loan, and work-study assistance growing by 
        339,000 to 8.4 million students and parents.
      In addition to traditional student aid, our request would 
        encourage highly qualified math, science, and special education 
        teachers to teach in low-income communities by expanding loan 
        forgiveness for such teachers from $5,000 to a maximum of 
        $17,500. Too often, schools in such communities are forced to 
        hire uncertified teachers or assign teachers who are teaching 
        ``out-of-field.''
  --The budget also increases support for institutions that enroll a 
        large proportion of minority and disadvantaged students, 
        including Historically Black Colleges and Universities, 
        Historically Black Graduate Institutions, Hispanic-Serving 
        Institutions, and other colleges serving underrepresented 
        populations. The request includes a total increase of $15.8 
        million for these institutions to help close achievement and 
        attainment gaps between minority students and other students. 
        The budget also includes $802.5 million for the Federal TRIO 
        Programs, and $285 million for Gaining Early Awareness and 
        Readiness for Undergraduate Programs (GEAR UP), to provide 
        educational outreach and support services to help more than 2 
        million disadvantaged students to enter and complete college.
                         department management
    Finally, I want to mention part of our budget that is very 
important to me personally, and that is our effort to improve 
Department Management. As most of you know, I am determined to carry 
out the President's Management Agenda and make the Department a model 
Federal agency. To help reach this goal, our 2003 request supports my 
Blueprint for Management Excellence, a long-term action plan for 
improving Department management. This plan includes efforts to ensure 
financial integrity, strengthen management of the student financial aid 
programs, improve the Department's use of its human capital, use 
technology to better meet customer needs, and create an accountability-
for-results culture within the Department.
                               conclusion
    The President's 2003 budget for education supports the vision 
reflected in the No Child Left Behind Act for closing the achievement 
gap and improving the quality of education for all Americans. I urge 
you to give these proposals careful consideration, and I stand ready to 
answer any questions you may have.

                        RURAL EDUCATION PROGRAM

    Senator Harkin. Mr. Secretary, thank you very much, and I 
can assure you that we will. This committee will seriously look 
at the budget requests and proposals, but as you have heard 
from some of the people on the committee before they left, 
there may be some adjustments made in some of the programs.
    One that I just wanted to pick up on, Mr. Secretary, is 
sort of closely tied to what Senator Stevens was talking about, 
and that has to do with rural education. Rural school districts 
have many unique needs. I know. I came from one. I went to a 
two-room school in a small rural district in Iowa. Small 
schools in these rural areas, when they try to attract good 
teachers, they have a problem. They have a problem in offering 
any kind of advanced classes. They have a problem in providing 
up-to-date technology.
    Now, when you are talking about formula grants, they are so 
small sometimes that the money they get from a formula grant is 
not really much--they cannot do much of anything with it. So 
last year, Congress created a new rural education program, and 
funded it at $162 million. As a result--I can only talk about 
my State--more than 80 small districts in my State of Iowa will 
each receive an additional $20,000 to $60,000, as well as 
greater flexibility to pull together the funds they get from a 
variety of programs.
    I have heard from some of them. They are very excited about 
using this money to make some significant changes in their 
schools, but now they learn that the President's budget 
completely eliminates the program.
    I will tell you about one that I heard from. This is a 340-
student Preston School District in Iowa. The superintendent, 
Paul Tobin, says that under the President's budget his district 
would get about $1,200 for technology, $2,000 for Safe and 
Drug-Free Schools, $2,000 for an innovative program grant, 
$1,500 for professional development.
    Now, even if you pool all that money together, as you 
suggest, Mr. Tobin says it is not that much to work with, but 
if you add another $30,000, which is what he would get under 
the Rural Education Program, then he would have enough to do 
something significant, like add some up-to-date technology, 
hire another teacher. So that is the difference that he is 
looking at. So how would you explain this to Mr. Tobin, and 
what he should do, Mr. Secretary?
    Secretary Paige. I would begin by saying the administration 
proposed no funding for rural education in fiscal year 2003, 
and this is because the administration believes that changes 
made in the reauthorization of the Elementary and Secondary 
Education Act of 1965 eliminates the needs for categorical 
programs like the two rural education programs. The 
reauthorized ESEA programs, target dollars in broader 
categories that can be used to cover those needs, so the 
dollars are not taken away, they are just in different places 
in the budget. Title I would be a specific reference that I 
would make.
    Senator Harkin. Well, by the elimination of this program, 
Superintendent Paul Tobin loses $30,000. Now, you say there is 
another $30,000 someplace for him. He loses $30,000. Tell me 
where he is going to--you say he is going to get some more 
money someplace. Tell me where he is going to get it.

                        RURAL EDUCATION FUNDING

    Secretary Paige. Mr. Chairman, it may be different from 
district to district, but in the aggregate, the total money is 
increased, so when we look at the increases in the technology 
monies, and the Title I monies, the teacher quality monies, 
those are the activities that we believe would be better 
vehicles to drive those funds to rural districts.
    We know that the numbers may be different from district to 
district, but in the aggregate, the numbers we have would 
actually hopefully drive more money to rural education 
activities.
    Senator Harkin. Did you mention technology?
    Secretary Paige. Yes.
    Senator Harkin. I guess there is no increase in technology 
money.
    Secretary Paige. I am talking about the increases from 2001 
to 2003, total.
    Senator Harkin. Well, he says his district is going to get 
about $1,200 for technology. I mean he admits that. I told you 
what he's going to get. He had had the $30,000. Now he is not 
going to get it.
    Secretary Paige. Did he indicate what he was getting in 
2001, by any chance?
    Senator Harkin. Well, I do not know. The figures I read to 
you were for 2002.
    Secretary Paige. Okay.
    Senator Harkin. I guess you are saying that there are not 
going to be any cuts out there, but Mr. Tobin tells me that he 
is losing $30,000. I understand aggregates. That is wonderful. 
Mr. Tobin, he does not care about aggregates. He cares about 
his school district.
    There are about 80 districts in my State that are going to 
be cut, and these are rural districts, and they have no other 
place to go. I just want some help here. What am I supposed to 
tell him?
    Mr. Hansen. Again, as the Secretary said in his opening 
statement, the priority programs in our budget were for Title I 
and IDEA, and that is where $3.5 billion of increases were 
proposed in our budget.
    Secretary Paige. What is happening here is that the core 
programs of the ESEA are experiencing significant increases in 
terms of the President's request. Title I would be such a 
program. We consider this a core program. There are other small 
programs inside the ESEA that have been reduced, reasoning that 
the larger increase in Title I will offset that, and they can 
draw funds from Title I, with the flexibility that is provided 
there, to cover the costs of the $30,000 that you are speaking 
of.
    The difference is we are not categorically specifying where 
these dollars go, because we are providing the kind of 
flexibility to the States and local districts to make those 
decisions. So where he has found a loss there, he will find an 
increase in Title I.
    Senator Harkin. Well, I will check into that. Now, he did 
not list Title I, but I am told that any increases in Title I 
will not replace the money lost to the Preston School District 
by eliminating the rural education money. I will look at it 
further, I do not know, but that is what I am told.
    Secretary Paige. We will do so as well, Senator, but I can 
assure you of one thing, and that is, we have no interest in 
making matters worse for our rural educators, or our urban 
educators. We want all education to experience an increase in 
productivity. We will have some discussions with you about 
that.
    Senator Harkin. I just think that a number of us on this 
committee recognizes that some of these small rural districts, 
when it all falls out, and you get all these programs, and 
grants, and all that kind of stuff, they just do not get much, 
and so we wanted to get a targeted program out to help them, 
and that is what this was for, but we will work with you on it, 
and see if we can----
    Secretary Paige. Thank you.
    Senator Harkin [continuing]. Figure something out.
    Secretary Paige. As we will as well.
    Senator Harkin. Thank you. Thank you, Mr. Secretary.
    Senator Cochran. Mr. Chairman?
    Senator Harkin. Senator Cochran.

                    FLEXIBILITY IN EDUCATION FUNDING

    Senator Cochran. Thank you very much. I can remember when I 
was running for Congress in 1972, and I talked to my parents 
first about it, and my wife, and her parents. And after having 
decided to run, when I was in the process of figuring out 
things that I wanted to accomplish, I asked my father, who was 
a county superintendent of education, what I ought to say to 
the teachers and the school principals that I would run into in 
the congressional district. He said, ``We need more flexibility 
in how we use the Federal funds that come to us, and we need to 
know earlier in the year, rather than later in the year, how 
much we are going to get.'' Those were the two things that have 
stuck with me over the years that I remember from that initial 
campaign.

                            TITLE I INCREASE

    I think this budget, like you pointed out, carries that 
into the language of the budget request, because Title I is 
increased by $1 billion over the last year's level of funding, 
and we are providing that information to school districts 
earlier rather than later, as to what the budget request is, so 
they can make plans more coherent and consistent with the 
availability of the funds that they will need to administer the 
programs. So I want to congratulate you for that, and for using 
as a centerpiece of education reform the flexibility that you 
have given to local school administrators and teachers.
    I had a hearing back in my State last year with the State 
board of education, and some of the administrators of these 
Title I funds in Mississippi to gauge how important they were, 
were they useful, how we could change the program to improve 
the effectiveness of it, and many of those suggestions that we 
got were included in the legislation that we passed last year, 
and that the President supported and recommended, to some 
extent.
    So I think we are headed in the right direction. I know 
there are some programs that we asked to be included in the 
reauthorization bill that are not a part of the budget request, 
but that is part of the give and take, and as we go through our 
process of the hearings, and analyzing the budget in more 
detail, we will have to compromise on some of those things, and 
I think that is what the chairman is suggesting here, too, that 
we are going to probably have some differences of opinion, but 
in my view, they are not going to be very serious.
    I think we really are on the same wavelength now, and a lot 
of that has to do with the President's attitude and your 
attitude as well.
    Secretary Paige. Thank you.
    Senator Cochran. I am very pleased overall, and I think you 
are going to find that kind of response throughout the country 
as well.
    Secretary Paige. Thank you.
    Senator Harkin. Thank you, Senator Cochran.

                        TEACHER QUALITY MANDATES

    I just have a couple more things that I would like to go 
over with you, Mr. Secretary. Would you put that chart back up 
there, that one with all the mandates on it. I wanted to go 
over this with you again, because I think it--not only for my 
own benefit, but for everyone else's.
    Here are the new teacher quality mandates. ``Beginning in 
2002 and 2003, all teachers newly hired in a program supported 
by Title I funds must be highly qualified. They must be fully 
licensed or certified, have a bachelor's degree, and 
demonstrate they are competent to teach the subject or subjects 
they are teaching.''
    Number two, ``All current teachers, not just those in Title 
I schools, must meet this new standard by the end of the 2005-
2006 school year.''
    The third, ``States must monitor annual progress of the 
LEAs,''--local education agencies--``in reaching the 
requirement of having all teachers highly qualified.''
    Fourth, ``At the beginning of each school year, school 
districts must make available to parents, upon request, the 
following information about their child's classroom teacher, 
whether the teacher has met State qualifications and licensing 
criteria for the grade levels and subject areas taught, whether 
the teacher is teaching under emergency or provisional status, 
the baccalaureate degree of the teacher, and any other graduate 
certification or degree held by the teacher, and the subject 
area of the certification or degree, or if the child is 
provided a service by paraprofessionals, and if so, the 
paraprofessional's qualifications.''
    [The information follows:]
                      New Teacher Quality Mandates
    Beginning in 2002-03, all teachers newly hired in a program 
supported with Title I funds must be ``highly qualified.'' They must be 
fully licensed or certified, have a bachelor's degree and demonstrate 
they are competent to teach the subject or subjects they are teaching.
    All current teachers (not just in Title I schools) must meet this 
new standard by the end of the 2005-06 school year.
    States must monitor annual progress of LEAs in reaching the 
requirement of having all teachers highly qualified.
    At the beginning of each school year, school districts must make 
available to parents, upon request, the following information about 
their child's classroom teacher:
  --Whether the teacher has met state qualification and licensing 
        criteria for the grade levels and subject areas taught.
  --Whether the teacher is teaching under emergency or other 
        provisional status.
  --The baccalaureate degree of the teacher and any other graduate 
        certification or degree held by the teacher, and the subject 
        area of the cereification or degree.
  --Whether the child is provided service by paraprofessionals and, if 
        so, the paraprofessional's qualifications.

     TEACHER QUALITY FUNDING--FISCAL YEAR 2002 AND FISCAL YEAR 2003

    Senator Harkin. Well, that is quite a bit that they have to 
do, and I guess that was all part of the thought process in the 
Leave No Child Behind Act, of putting some standards out, and 
getting standards out there. Well, then we look at what we did 
on the teacher quality funding for the same group of teachers. 
This is all the teacher quality State grants. These are 
basically catch-all grants. School leadership, National Board 
for Professional Teaching Standards, which, by the way, was 
zeroed out in your budget.
    Early childhood education, professional development, left 
the same, math and science partnerships, left the same, which 
is a cut, if you include inflation. Math and science consortia, 
from $15 million to zero. Transition to teaching, that went up 
by $4 million. National writing project, from $14 million to 
zero.
    The teaching of American history, from $100 million to $50 
million. I think you are going to find a lot of people here on 
this committee concerned about that, dropping the teaching of 
American history. But how about this, technology training, 
$62.5 million to zero for technology training. Teacher quality 
enhancement left at $90 million.
    These are all of the items that we have before us on our 
plate as an appropriations committee to deal with. This deals 
with teacher quality funding. The previous chart I had showed 
all of the mandates for teacher quality, and yet we now see 
this as about $155 million less for teacher quality training, 
so, again, you can see our concern on where we are going to 
find this money, Mr. Secretary. May I have your response, 
please?
    [The information follows:]

                                             TEACHER QUALITY FUNDING
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year
                                                       ---------------------------------------------------------
                                                                    2002                     2003 (Bush)
----------------------------------------------------------------------------------------------------------------
Teacher Quality State Grants..........................  $2.85 billion..............  $2.85 billion
School Leadership.....................................  10 million.................  ...........................
National Board for Professional Teaching Standards....  10 million.................  ...........................
Early Childhood Educator Professional Development.....  15 million.................  15 million
Math/Science Partnerships.............................  12.5 million...............  12.5 million
Math/Science Consortia................................  15 million.................  ...........................
Troops to Teachers....................................  18 million.................  20 million
Transition to Teaching................................  35 million.................  39.4 million
National Writing Project..............................  14 million.................  ...........................
Teaching American History.............................  100 million................  50 million
Technology Training...................................  62.5 million...............  ...........................
Teacher Quality Enhancement...........................  90 million.................  90 million
                                                       ---------------------------------------------------------
      Total...........................................  3.232 billion..............  3.077 billion
----------------------------------------------------------------------------------------------------------------


    Secretary Paige. Yes. Thank you for the opportunity, 
Senator, to respond. This budget is based on prioritizing the 
expenditures of the dollars that we have available to us. I 
would like to use the teacher quality one, with the $2.85 
billion, as an example.
    A few years back, this was at $300 million. Now, it is at 
$2.85 billion, with a lot of flexibility added to it. We are 
saying these are dollars you can use to increase teacher 
quality. We relied on you to know if you need teacher quality 
increased in technology, where you see the reduction, that you 
might target those dollars for teacher in technology training.
    So the flexibility added to the increased dollars in the 
teacher quality provides opportunities for the local people on 
the scene to make the kinds of decisions that they need in 
order to improve student achievement at that particular 
location.
    So this represents for us an enhancement in teacher quality 
opportunities, not a reduction. We realize full well that the 
teacher quality is the highest leverage point in the student 
achievement. We just did not assume that we could, from 
Washington, identify the specific needs for every place in the 
Nation. That is why it is presented like that, Senator. It is 
not that we disagree at all that teacher quality is important.
    Senator Harkin. Well, it just seems to me that what you are 
saying is that the $3.232 billion that we funded last year was 
just too much money.
    Secretary Paige. No. That is absolutely not what I am 
saying.
    Senator Harkin. Well, if it is not, then you have $3.07 
billion this time. It had to be too much money.

              TITLE I TEACHER QUALITY FUNDING REQUIREMENT

    Secretary Paige. We are looking at it not just as 2003. We 
look at it also including the money in from 2002, where the 
increase occurred, and so we are looking at that broader span. 
In addition to that, what is not included there is 5 percent of 
the Title I dollars that must be used for teachers. That is not 
included on that chart.
    Senator Harkin. 5 percent of the Title I money has to be 
used for teacher quality standards?
    Mr. Skelly. That is right. A minimum of 5 percent, and up 
to 10 percent, is for teacher quality programs under the No 
Child Left Behind Act.
    Mr. Hansen. It would be another $50 million to $100 
million.
    Mr. Skelly. There is $1 billion increase in the President's 
budget for Title I, so if you were to spend 5 to 10 percent of 
that, you would add another $50 million to $100 million for 
teacher quality to the budget.
    Senator Harkin. So what you are saying is that you have 
gotten a $1 billion increase for Title I grants. Out of that 
increase in Title I, that billion dollars, 5 percent----
    Mr. Hansen. 5 to 10 percent.
    Secretary Paige. A minimum of 5 percent.
    Senator Harkin. A minimum of 5 percent has to be used for 
the list of things we have right here.
    Secretary Paige. Not necessarily the things that are on 
that list, but for teaching and teacher quality. There may be 
other needs that are not on that list, but for the broad 
category of teaching, these dollars must be used for that 
purpose.
    Senator Harkin. Okay. Well, we will take a look at that. 
Five percent, and it is mandated that it has to be used for 
teacher quality. of these.
    Mr. Hansen. For general teacher quality----
    Secretary Paige. That is right.
    Mr. Hansen [continuing]. For Title I teachers, right.
    Senator Harkin. All right. I will take a look at that. 
Okay. That may work. We will take a look at that.
    Mr. Skelly. The law also provides flexibility, as the 
Secretary was saying, to use some of the teacher quality money, 
the technology money, the Safe and Drug-Free Schools money, the 
innovative program grant money for Title I.
    Senator Harkin. 5 percent of $1 billion is how much?
    Mr. Hansen. $50 million.
    Senator Harkin. $50 million. What they are telling me is 
that you have $155 million cut here, even if you take the $50--
--
    Mr. Hansen. It could be $50 million to $100 million, 
because it is capped at 10 percent. It is 5 to 10 percent, so 
it could be $50 million to $100 million.
    Senator Harkin. So it could be $50 million to $100 million.
    Mr. Hansen. Right.
    Senator Harkin. So we are still short, even if we used all 
of it, all 10 percent, we are still short for money.
    Mr. Hansen. You may want to consider the Loan Forgiveness 
Program as well to be added to the list, because that is for 
teacher enhancement.
    Senator Harkin. We are getting closer. We are narrowing the 
gap all the time here. Okay. Well, we may have to narrow it 
even further, but the problem is that with the budget we have a 
hard time closing that gap, because we are just taking it from 
other areas.

                 LOAN FORGIVENESS FOR TEACHERS PROGRAM

    I just have two other little areas that I wanted to go over 
with you on the loan forgiveness proposal. I congratulate you. 
I appreciate what you have done. I think this is a step forward 
in the right direction, I have said so publically, for math, 
science, and special ed teachers.
    I guess what I would say is, as I look ahead, and we see 
all of the estimates for teacher shortages in the future, I am 
not certain that we are really stepping up to the plate here.
    I am told, and, again, this is the data that we are given, 
if you have different statistics, please let me know, but we 
were told that we are going to need to fill 2.2 million 
teaching jobs over the next 10 years. More than 700,000 will be 
needed in rural and high poverty districts. Again, these are 
the ones that have difficulty attracting teachers in all 
subject areas, not just math, science, and special education.
    In my State of Iowa, we face a real crisis. Forty percent 
of the current teaching force will be eligible to retire in the 
next 10 years. Forty percent. Seventeen percent, or one in six 
new teachers, will leave ranks after their first year of 
teaching.
    We have a problem in nursing, also. The American Hospital 
Association says there is 126,000 registered nurse positions in 
the Nation right now. So what is happening, and I had met with 
some students at Iowa just last week, what is happening is that 
there are some young kids that might want to go into teaching, 
they come from middle class, maybe lower middle class 
backgrounds. You heard me talk about Rae in my opening 
statement, and she is working 40 hours a week, 40 hours, and 
taking 17 credits, getting the maximum Pell Grant, and she 
already has $20,000 in loans just to go to school.
    I can tell you, she is not living high on the hog. She is 
not driving a new car. She is not taking fancy vacations. She 
is simply paying her tuition, her room and board, and that type 
of thing, and working. Then they find out what a beginning 
teacher makes, and they say, ``Well, gee, if I borrow this 
money, how can I go and be a teacher. I will do something 
else.''
    So we are finding that the pipeline is not being filled, 
because of the huge debt load that college students are facing 
when they get out. They want to go into something that pays a 
little bit more, business, or computers, or whatever, but not 
teaching, and not nursing. The same thing is happening right 
now with teachers we have out there. They get out, they have 
the debt, they go in, they teach for 1 year, and they are up 
against it, and they cannot make it, so they go off into the 
private sector. Well, that is what we are losing, and the 
private sector is after them.
    They are teachers, they are smart. They probably know about 
computers, things like that, and I will tell you, they can get 
a lot more, even in Iowa, in jobs that are not teaching, and 
that is what is happening to them. So while I applaud you for 
your loan forgiveness for math, science, and special ed, I, 
quite frankly, Mr. Secretary, think that ought to cover all 
teachers.

           LOAN FORGIVENESS--NEEDED FOR ALL TEACHERS, NURSES

    We ought to have a bold new program to provide for repaying 
debts, things like that, for all teachers. I would add nurses 
to that, too, because we are going to have this huge nursing 
shortage also in the country. Look at what they did for me when 
I got my GI bill. I got this money. I did not have to pay 
anything back. That was sort of like a Pell Grant, I guess, but 
I think we ought to realize that this is investment in our 
future.
    Like I said, I like what you have done, but I just think it 
ought to be broader than just that. So I just ask for any 
comments, or observations, or suggestions, Mr. Secretary, just 
on that one item, on loan forgiveness.
    Secretary Paige. Senator, the more I hear you express your 
interests and your concern about the teaching workforce and 
teachers, the more I find that we are in agreement with that. 
Our concerns are the same, and I share that interest 
completely.
    The difference, I think, stems from the fact that my 
experience in leading one of the largest school districts in 
America right in an urban blight section leads me to believe 
that increased funding is necessary and part of the solution, 
but only part of the solution, and it blurs our vision to see 
the other problems. That is also backed up by the research. We 
find that part of our problem with the teacher shortage has to 
do with the systems that we use to bring people into the 
teaching workforce.
    Mrs. Johnson, at Harvard, did a study some years ago of the 
$20,000 bonus that they had put on the table for people to come 
into teaching. They would get a $20,000 bonus paid over 4 
years. When she went back and examined it, she found out that 
the people who they had attracted into the teaching workforce 
did not come for the $20,000, they came because they wanted to 
teach, and this system allowed them a shortcut through the 
bureaucracy that is required to get into the teaching 
workforce, to get into the classroom.
    So I agree that we need to look for financial incentives, 
and I certainly agree that teachers must be paid more, but the 
system that we have the teachers in, has to also be improved, 
because good people will not work in bad circumstances. So we 
have to look a little broader than just the funding, so I think 
together that we could find ways to enhance this situation.
    Senator Harkin. Well, we are making those changes. With the 
bill, with the No Child Left Behind Act, we are making some of 
those changes. That is why I say, for the most part, I 
supported that bill. I am just concerned about the backing up. 
We will not get into that. But anyway, you said, and the 
administration said, we want a loan forgiveness program for 
math, science, and special ed. They did not say we are going to 
do this, but only after we change the system. They want to do 
it right now. So I say if that argument works for that group, 
it would work for all teachers, art teachers, and science 
teachers, and phys ed teachers, and others.

              SUPPLY AND DEMAND ASPECT OF LOAN FORGIVENESS

    Secretary Paige. I find no way to argue with that, except 
to say that the logic that we used in order to include those 
three categories of teachers is that that is a supply-and-
demand issue. We see right now that the supply of math teachers 
and special ed teachers are not in our favor.
    In fact, in Houston, where I worked, right across the 
street from our school district headquarters was Compaq 
Computers, and not far away was Dell Computers, and not far 
away was Texas Instruments, and then there was the whole 
petroleum industry right there that took all of our math and 
science teachers. So there were just fewer of them than there 
were of physical education teachers and other teachers. One of 
the ways to support that is to look at a differential salary 
structure, based on supply and demand, which in a lot of our 
educational system we conduct ourselves as if that law has been 
repealed, as far as education is concerned.
    Senator Harkin. I am not certain I know of what you speak 
there. I do not know what you are talking about.
    Secretary Paige. I mean these people who represent the 
shortages are paid the same as teachers who are teaching in 
fields where we have high surpluses. We would not do that in 
any other enterprise in civilized captivity.
    Senator Harkin. Well, I just think if you start down a 
system of differential pay depending upon the subject you 
teach, you are going to get wild swings. You are going to get a 
lot of people moving one way, and you are going to say, ``Oh. 
Now we have to cut them, we are getting too many, and we do not 
have enough over here, in the arts and sciences, so we will 
increase it there, and then there will be there, and then, oh, 
we have too much there, then we have to move''--we will always 
be changing this thing.
    Secretary Paige. That is exactly how the system works. I 
mean the same practices have made all of our major 
organizations in the United States, in the country, work; they 
all operate by that same system.

            DIFFERENTIATED TEACHER PAY, BASED ON PERFORMANCE

    Senator Harkin. But the private sector is different, I 
think, than the public sector and teaching. I think in 
teaching, what you have to do is provide the incentives for 
teachers on a broad basis to enter into education, to find 
those that are really good teachers, and to reward them, not 
just because they teach math or special ed, but how good they 
are as teachers.
    Secretary Paige. I would agree with that completely. What I 
hear you saying is, that there should be differentiated pay for 
performance.
    Senator Harkin. Yes, but not just based on a subject.
    Secretary Paige. Not based on supply and demand, but 
performance. We are in complete agreement about the 
performance. We are in complete agreement about that. I would 
just add supply and demand as well, and we could have some more 
discussion on it, but that is----
    Senator Harkin. That is why we should have, I think, loan 
forgiveness for teachers, period, not just for math, science, 
but for all of them.
    Secretary Paige. That is a good argument.

                              PELL GRANTS

    Senator Harkin. Okay. We are having a hard time getting in 
an argument here. I did want to just say that we are concerned 
about the Pell Grant situation, and the fact that we do not 
have any increases in your budget for Pell Grant increases. I 
think the advisory committee on student financial assistance 
last year called for increases in the Pell Grant program.
    Now, again, Senator Murray said earlier, we did have a 
shortfall in Pell Grant. We had that in the past. We had that 
all the time. If you have high unemployment, if you have people 
being put out of work, you get more of a demand on the Pell 
Grants. We know that. Every time we have had that, the Congress 
comes in and makes up for the shortfall, and we will do that 
again, but this advisory committee called for an increase in 
the Pell Grant program to improve access to college education.
    So, again, what is happening, it is kind of a vicious 
circle. Most States, because they have requirements for 
balanced budgets, that they have to constitutionally do that, 
because of the down turn of the economy, they are forcing cuts, 
and in almost every State I have looked at, what they have done 
is increase tuition at public colleges.
    In my State, tuition will increase 19 percent, from the 
lowest revenue growth in 50 years. Well, we have a 20 percent 
decline in net farm income this year. That gives you some idea 
what we are facing in Iowa. So a 19 percent increase in 
tuition, and if the Pell Grants stay the same, we have a real 
problem there.

                        PELL GRANT MAXIMUM AWARD

    So I just think we need to increase the reward. We are at 
$4,000 right now, and I think we need to increase it. I mean I 
just wonder what your views are on why we do not have something 
in the budget to increase the Pell Grant award.
    Secretary Paige. Well, I guess the best response I could 
have, Senator, is that we are operating in an environment where 
there are a lot of priorities. We thought that if the $4,000 
target is reached, we would wish we could do more, but there 
are some other priorities that are calling us right now, and 
these have to be coupled with the environment, the economic 
environment that we are operating within.
    So these are just priority decisions that we have made. I 
understand that we will have some more discussion with you. We 
respect your views on this, and wish to have your input, but we 
have submitted this as our best thinking.
    Senator Harkin. The problem is, obviously, Mr. Secretary, 
with the Pell Grants, a small increase is a big budget impact. 
So with the budget we have to work with, it is going to be 
pretty hard to make any significant increases in the Pell 
Grant, unless the administration would support that, then that 
helps a lot----
    Secretary Paige. Yes.
    Senator Harkin [continuing]. But without that, it is going 
to be very tough for us to make any significant increases in 
the Pell Grant.

                      PELL GRANT PROGRAM INCREASES

    Mr. Hansen. Mr. Chairman, if I could--we do have a $550 
million increase in the Pell Grant program, and that does help 
us get to an all-time high in terms of number of students 
served in the program. So there are different ways you can look 
at the program. It is not just the maximum award. The total 
dollars in the program have gone up from about $5 billion in 
1996 to over about $10.8 billion in our budgets just in the 
last 5 years. The number of recipients have gone up from 3.6 
million to about 4.5 million, and the maximum award has gone up 
from $2,400 up to $4,000. So there has been some significant 
movement, and our budget does build upon this.
    Our budget does allow for half-a-billion dollars of new 
money, which will compensate for the additional students that 
are going to now be coming into the program. I think as the 
Secretary indicated in his opening statement, our top three 
priorities in our budget are special education, Title I, and 
the Pell Grant program.
    Senator Harkin. Well, I agree with you that you have to 
have some money to allow for some new entrants, but it does not 
raise the $4,000 cap. I understand that.
    I think we are going to have to continue our dialog on that 
one, too, as we move ahead on this budget.
    Secretary Paige. We look forward to that.

          CHAIRMAN'S CLOSING REMARKS--COMMITMENT TO EDUCATION

    Senator Harkin. Mr. Secretary, again, I want to thank you 
for being so forthright, and for your willingness to work with 
us on this. I know we have a tough budget situation, but, 
again, and I will let you have the last word, but I am just 
going to say that I know we have gotten new priorities, as I 
said, after September 11, but we just cannot let what happened 
on September 11, in our commitment as a Nation, to go after the 
terrorists, and to secure our Nation and our people, sort of 
paralyze us from doing the other things that are necessary to 
meet the needs of this country.
    That is what this appropriations committee is about. We are 
going to try to do our best, and we will work with you as much 
as we can to try to do that.

              SECRETARY'S CLOSING REMARKS--BIPARTISANSHIP

    Secretary Paige. Senator, I would just like to end by 
saying that since my short stay in Washington I have learned to 
have just enormous respect for the men and women who make these 
really difficult decisions. I have watched you, as you have 
argued the points that you feel are important, some of which we 
have different points of views, but I have always known the 
sincere effort that you have put forward in the House and the 
Senate, and I have always had great respect for that. So I 
would welcome the opportunity for us to continue to discuss 
some of these issues.
    I think the greatest thing that has happened in this last 
year was the way the Congress came together behind the No Child 
Left Behind Act in such a powerful bipartisan way. The men and 
women who had strongly different points of view found ways to 
discuss these differences and reach agreements. So I would 
suggest that as a model, as we go forward with these kinds of 
discussions, and we appreciate the opportunity to be a 
participant.
    Senator Harkin. Thank you very much, Mr. Secretary.
    Secretary Paige. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                      federal student aid programs
    Question. Mr. Secretary, the Administration is working around the 
clock to make sure that ``no child is left behind.'' However, the 
budget proposed by the Administration for student aid programs does not 
seem committed to this goal. Your budget level funds almost all of the 
major student aid programs, including Federal Work-study, the Perkins 
loan, the Supplemental Education Opportunity Grant and TRIO programs. 
In addition, the budget proposes maintaining the maximum Pell Grant 
award at only $4,000. Our neediest students are the ones supported by 
these programs and the very students that will be left behind if a 
budget like the one proposed by the Administration passes. How can the 
Administration justify the level funding of these programs at a time 
when State budgets are squeezing out higher education and there is a 
rapidly growing population of needy students that want and should go to 
college?
    Answer. Ensuring access to quality postsecondary education 
continues to be the major role as well as the Department's priority in 
higher education. I believe that our budget request for postsecondary 
education is consistent with this priority. The President's fiscal year 
2003 budget would expand new student financial aid to nearly $55 
billion, an increase of 5 percent over 2002. The number of student aid 
recipients would increase by 339,000 to 8.4 million.
                           pell grant program
    Question. In your strategic plan for education you make virtually 
no mention of the student aid programs, even in the section on 
postsecondary education. Yet, when President Bush ran for office, he 
made his support for Pell Grants a centerpiece of his higher education 
agenda. Is there a shift in the thinking about the Department's support 
for student aid? Are you looking at a new and different role in higher 
education?
    Answer. The Pell Grant program is the foundation of the Federal 
student assistance effort and has been the most effective and well-
targeted program in helping low- and middle-income students attend 
college. President Bush recognizes the importance of the Pell Grant 
program and has requested a substantial increase for Pell each year. 
Despite our war on terrorism and the additional funding needed to 
support our military and homeland security operations, the President 
has asked Congress for an increase of $549 million, or 5.3 percent, 
over fiscal year 2002 for Pell Grants.
         leveraging educational assistance partnership program
    Question. Mr. Secretary, your budget eliminates the Leveraging 
Educational Assistance Partnership (LEAP) program. Since nearly all 
States are facing deficits, tuition rates are being forced up, and 
research by the Advisory Committee on Student Financial Assistance and 
others has documented the need for more State/Federal partnership 
program funding to close the growing college access gap between low- 
and high-income students, can you tell me why you think eliminating 
this program is a good idea?
    Answer. The Leveraging Educational Assistance Partnership (LEAP) 
program was authorized in 1972 to encourage States to invest in need-
based grant and work-study assistance to postsecondary students; at 
that time, only 28 States had undergraduate need-based grant programs. 
Federal funds serve as an incentive to establish or expand need-based 
grant programs; States are required, at a minimum, to match LEAP grants 
dollar-for-dollar with State funds provided through direct State 
appropriations for this purpose.
    All States now have need-based student grant programs, and State 
grant aid has increased by close to 150 percent in the last 10 years. 
Most States significantly exceed the dollar-for-dollar matching 
requirements. For example, in academic year 1999-2000, matching funds 
totaled roughly $1 billion, $950 million over the dollar-for-dollar 
match. This program has established the principle that State need-based 
grant aid is a necessary complement to Federal student aid in helping 
students pay for higher education, and we believe States will continue 
to honor this principle.
       student loan administration--section 458 proposed transfer
    Question. The President's 2003 budget request proposes the 
development of a new, discretionary Student Aid Administration (SAA) 
account that would consolidate all student aid management costs 
previously funded through the discretionary Program Administration and 
Federal Family Education Loans Program (FFELP) accounts and the 
mandatory Federal Direct Student Loan Programs (HEA Section 458) 
account. Secretary Paige, could you please explain why the President 
and the Department are seeking to move the mandatory funds obligated 
under Section 458 of the Higher Education Act of 1965, as amended, from 
a mandatory to discretionary account?
    Answer. This Administration, and I personally, am dedicated to 
creating a culture of accountability in the Department, including a 
strong focus on performance measurement. The current student aid 
administration budget structure--split among multiple mandatory, 
discretionary, and subsidy accounts--hinders this increased 
accountability, which is also the foundation of the performance-based 
organization established to administer Federal student aid. Under a 
single discretionary account, student aid administrative activities 
will be subject to the same level of congressional scrutiny as other 
Department activities.
    Question. What will be the hierarchy for disbursement of these 
funds under the new discretionary Student Aid Administration (SAA) 
account? What plans are in place to ensure that the funds are evenly 
and appropriately distributed under this new Student Aid Administration 
(SAA) account?
    Answer. We are committed to effectively administering all the 
Federal student aid programs, including the direct and guaranteed loan 
programs. As is currently the case, specific decisions on the 
allocation of funds supporting student aid administration will be made 
by the Secretary and Deputy Secretary in consultation with the 
Assistant Secretary for Postsecondary Education, the Chief Operating 
Officer of the performance-based organization, and other Department 
senior staff.
    Question. Budget documents have stated that the reason for this 
proposed change is that it would increase accountability for reducing 
costs. Please explain why it is easier to reform a program funded by 
annual appropriations as opposed to mandatory funding.
    Answer. The annual appropriations process, in which activities 
compete for resources from a finite funding pool, imposes much-needed 
fiscal discipline and compels agencies to develop solid, well-
documented justifications for their requests. To support its request, 
the Department is in the process of developing a true activity-based 
budget formulation process for the unified Student Aid Administration 
account. Such a process would allocate the Department's student aid 
management expenses by program and specific business process to more 
accurately determine the cost of individual activities or programs, 
budget administrative funds to each business process, set cost 
reduction targets, and easily compare actual performance to budget 
targets.
    Question. Isn't it true that Congress established seven purposes in 
section 141 of the HEA for the creation of the Performance Based 
Organization (PBO)? How would this proposal better achieve all seven 
purposes?
    Answer. By simplifying cost analysis and subjecting student aid 
administrative funding to the discipline and flexibility of the annual 
appropriations process, the proposal would primarily advance purposes 
(B), ``to reduce the costs of administering these programs,'' and (C), 
``to increase the accountability of the officials responsible for 
administering the operational aspects of these programs.'' That said, 
the prudent and efficient allocation of administrative funds implicitly 
supports all the goals of the PBO and the Administration in general.
  student aid administration funds--changing from mandatory to annual 
                      discretionary appropriations
    Question. One of the purposes identified by the Congress for 
establishing the Performance Based Organization was to improve service 
to students and other participants in the student financial assistance 
programs authorized under title IV of the Higher Education Act. Given 
that administrative expenses for the PBO are closely associated with 
the number of loans issued in a given year--a level which could be 
difficult to predict--how will the proposal to make administrative 
expenses subject to annual appropriations better achieve that purpose 
behind the creation of the PBO? What would happen if funds appropriated 
fell short of the amount required to meet the operations of the PBO; 
how would services to students and other participants be affected?
    Answer. Moving to annual discretionary appropriations will actually 
decrease the likelihood that funding will fall short of the level 
needed to support operations, since the funding level will be 
determined only a year in advance, rather than up to 5 years in advance 
as is currently the case. In addition, the fact that funding is 
mandatory does not safeguard it from reduction. As you know, mandatory 
funding currently supporting student aid administration has been 
repeatedly reduced through appropriations and reconciliation action 
over the years, and is capped at the 2001 level through 2003. That 
said, whether discretionary or mandatory, there is never a guarantee 
that administrative funding levels will be sufficient to cover 
operations costs. The Department is committed to effectively managing 
all of its programs; managers will make responsible choices in 
allocating available funds to minimize adverse impacts on students and 
other program participants.
    Question. If the funding allocation for this new discretionary 
account failed to meet the President's budget request, which programs 
will suffer?
    Answer. As noted above, the Department is committed to effectively 
managing all of its programs; managers will make responsible choices in 
allocating available funds to minimize adverse impacts on students and 
other program participants.
    Question. Secretary Paige, I commend your focus on strengthening 
the management of the Department of Education and I appreciate your 
efforts to remove the student financial aid programs from the U.S. 
General Accounting Office (GAO) list of high risk programs. I 
understand that a Management Improvement Team you convened identified 
661 recommendations associated with audits and reviews of financial, 
management and information system weaknesses. This Team has developed 
corrective action plans to address most of the recommendations. Did any 
of the action plans include a proposal to move Federal funding 
available for administrative expenses from the mandatory to the 
discretionary side of the budget?
    Answer. Yes; action item number 37 in the Department's Blueprint 
for Management Excellence directly supported this proposal.
               loan forgiveness for child care providers
    Question. If all eligible applicants received the full amount of 
forgiveness for which they are eligible, how much funding would have 
been required in fiscal year 2001? The average loan obligation forgiven 
is listed at $13,333 for fiscal year 2001. If borrowers may have 20 
percent forgiven in the first year of service--with a maximum of 100 
percent for 5 years of service, how can the average loan obligation be 
$13,333? How much will be required in fiscal year 2002 and fiscal year 
2003?
    Answer. The $13,333 figure included in the Congressional 
Justification was based on preliminary data. Updated data indicate that 
fiscal year 2001 funding supported an average award of $4,708 to 212 
borrowers. Available funding in fiscal year 2001 was sufficient to 
support the full amount of forgiveness--that is, 100 percent of the 
outstanding loan balance--for all but 10 eligible applicants. The 
$4,708 average loan obligation reflects 100 percent of the outstanding 
balance of the eligible applicants, 20 percent--or an average of $942--
of which was forgiven in fiscal year 2001. The remaining fiscal year 
2001 funds have been set aside to support forgiveness costs for these 
borrowers over the next 4 years. The annual appropriation is obligated 
to assure that the full loan forgiveness amount will be available if 
borrowers complete the required 5 years of service; the guaranty of the 
full forgiveness provides the retention incentive the program is 
designed to provide.
    Question. How has the Department promoted this demonstration 
program?
    Answer. The Department took a number of steps to increase awareness 
of the program, including publishing a notice in the Federal Register, 
posting information on Department websites, sending letters and 
accompanying fact sheets to five major national child care 
associations, and creating a special toll-free phone number for 
borrowers to call to obtain program information. These efforts resulted 
in over 3,000 phone calls for information and 642 applications for 
forgiveness.
    Question. When will sufficient data be available to evaluate the 
effectiveness of this program?
    Answer. By structuring the program to assure the availability of 
the full forgiveness amount, we will be able to track a cohort of 
borrowers across time to better study the effectiveness of loan 
forgiveness in encouraging individuals to remain in the child care 
field. Thus, the completion of the second year will provide data on 
what percentage of the initial recipients qualify for their second year 
of forgiveness, as well as a much better sense of both whether 
awareness of the program has grown.
higher education--assessing and improving the effectiveness of federal 
                       trio and gear up programs
    Question. The budget justification indicates that the 
Administration will assess the effectiveness of the TRIO programs and 
GEAR UP and develop strategies for fiscal year 2004 to improve the 
performance of both and direct resources to the most effective 
strategies. Please explain what specific actions the Administration 
will take to assess the effectiveness of TRIO programs and GEAR UP.
    Answer. The Administration's performance assessment of the TRIO and 
GEAR UP programs is taking place on several different levels and will 
be an ongoing process. In the short-term, we are reviewing a wide-range 
of data that are currently available, particularly TRIO's Upward Bound 
and Student Support Services evaluations. We also are reviewing the 
performance reports that are submitted by grantees on an annual basis, 
and plan to modify those reports in ways that will provide more timely 
data related to project outcomes. As part of our long-term strategy, we 
have ongoing program evaluations that will provide a wealth of data on 
program impacts in the next couple of years, particularly for Talent 
Search and GEAR UP. Our goal is to create an environment of 
accountability where discussions about program performance are 
integrated with everyday programmatic decisions, and are informed by a 
combination of individual project reports and large-scale program 
assessments.
    Question. What is the timetable for the assessment process?
    Answer. As mentioned, we are currently reviewing findings from the 
Upward Bound and Student Support Services evaluations. We expect these 
reports to be released to the public this summer. Although the 
Congressional Justification anticipated a spring release of these 
reports, additional data analysis was necessary and the internal review 
process has lasted longer than expected. We also expect findings from 
the Upward Bound Math/Science evaluation to be available this summer. 
In 2003, we expect to release findings from the evaluations of the 
Talent Search and GEAR UP programs. In addition to each of these 
comprehensive evaluations, we are continually reviewing the 
effectiveness of individual projects and aggregating data from their 
annual performance reports.
             strategies for improving program effectiveness
    Question. What process or mechanism will be established for 
developing strategies for 2004 to improve the performance of both 
programs and direct resources to the most effective strategies?
    Answer. Since last fall, the Administration has been engaged in 
discussions about effective strategies to improve the performance of 
TRIO and GEAR UP. These ongoing discussions generally fall into three 
areas: strategies that can be implemented immediately, strategies that 
require legislative or regulatory changes, and strategies that require 
additional funding. With regard to the first category, as noted in our 
recently released Annual Plan for 2002-2003, we are currently 
discussing changes to be implemented for this fall's competition in 
TRIO's Upward Bound program. Based on findings from the program's 
evaluation, we are looking at several different options that will allow 
us to improve program effectiveness by encouraging projects to target 
higher risk students and to provide additional work-study 
opportunities. Based on further discussions and new data that become 
available, the President's fiscal year 2004 budget and reauthorization 
proposals will encompass additional strategies that fall under the 
other two categories. For example, final decisions about funding for 
Upward Bound will not be made until we can assess the number and 
quality of applications that are received and the anticipated impact 
that each will have.
    Question. Will these recommendations be part of the 
Administration's fiscal year 2004 budget proposal?
    Answer. Yes, we anticipate that these recommendations will be 
included in the President's budget request.
           allocation of undistributed fiscal year 2002 funds
    Question. How will the undistributed fiscal year 2002 funds be 
allocated?
    Answer. The funds listed as ``undistributed'' in the Congressional 
Justification will be used to provide additional work-study 
opportunities to an estimated 3,000 Upward Bound students.
    Question. What specific options is the Department considering for 
allocating proposed fiscal year 2003 funding that is identified as 
undistributed in budget documents?
    Answer. The Department is considering several options for these 
funds, including: providing additional work-study opportunities for 
Upward Bound students, supporting additional grant aid for Student 
Support Services students, targeting funds to improve program 
effectiveness in other ways, funding a larger number of new awards, and 
increasing awards for existing projects to serve more students.
demonstration projects to ensure quality higher education for students 
                           with disabilities
    Question. The Department is proposing to eliminate funding for the 
Demonstration Projects to Ensure Quality Higher Education for Students 
with Disabilities program. The rationale for this proposed action is 
that new projects can compete for and receive funding under FIPSE and 
Special Education Research and Innovation. When the demonstration 
projects program did not exist in fiscal year 1998, only 4 grants that 
focused on higher education were awarded under the special education 
authority. In fiscal year 2002, almost 30 awards will be made under the 
demonstration projects program. What new funding is proposed in the 
fiscal year 2003 budget to support this level of commitment to quality 
higher education opportunities for students with disabilities?
    Answer. The President's budget proposes an increase of $7.9 million 
for FIPSE, including $6.9 million to support all continuing projects 
from the Demonstration Projects to Ensure Quality Higher Education for 
Students with Disabilities program. In addition, we anticipate that a 
number of new and continuing projects will be funded under FIPSE's 
Comprehensive Program to serve disabled students. In fiscal year 2001, 
more than a dozen such projects were funded under FIPSE.
    Our budget also includes approximately $10 million for new field 
initiated research, demonstration, and outreach projects under the 
Special Education--Research and Innovation program. As in the past, 
competitions for these awards will be open to projects proposing to 
address the postsecondary needs of students with disabilities. 
Currently funded projects include those that, for example, focus on 
providing information to institutions of higher education on model 
practices for educating students with hearing impairments, and 
demonstrate a personal accommodation model to provide students with 
disabilities access to postsecondary education.
    Applications will also be solicited for a competition for projects 
of national significance under the Special Education--Personnel 
Preparation program. Awards under this competition may also address 
postsecondary needs. For example, one currently funded project is 
providing a Web-based professional development course that prepares 
college staff to develop and implement summer college preparation 
programs for individuals with disabilities.
    Other areas also provide support for postsecondary education. For 
example, under the Special Education--Technical Assistance and 
Dissemination program we currently support a national clearinghouse on 
postsecondary education, and the National Institute on Disability and 
Rehabilitation Research, funded under the Rehabilitation Services and 
Disability Research account, supports the National Center for the Study 
of Postsecondary Education, which, among other activities, provides 
technical assistance to institutions of higher education on serving 
students with disabilities.
                  javits fellowship and gaann programs
    Question. Mr. Secretary, the Graduate Assistance in Areas of 
National Need (GAANN) and Jacob Javits programs attract exceptionally 
promising students into graduate study to pursue degrees in areas if 
national need-such as chemistry, information sciences, and engineering, 
as well as in the arts, humanities, and social sciences. The 
Administration proposes level funding these programs at a time when 
supporting advanced study in these areas is of great importance to the 
Nation. Since the stipend level paid to students increases each year, 
level funding essentially decreases the size and capacity of the 
program. The National Science Foundation (NSF) and the National 
Institutes of Health (NIH) have proposed increasing their graduate 
education budgets for fellowships and traineeships. Why have you not 
done the same, given the important niche these programs serve in the 
Federal Government's graduate education portfolio?
    Answer. Due to the nature of award cycles, level funding in fiscal 
year 2003 will support an unusually large number of new fellows in both 
programs: an estimated 537 fellows in GAANN and 140 fellows in the 
Javits Fellowship program. These numbers are significantly higher than 
they have been the last couple of years.
          child care access means parents in school (ccampis)
    Question. Based on applications received in the latest award cycle, 
how much unmet need exists in terms of: amount of funds requested, 
child care capacity on or near campus and waiting lists for existing 
child care?
    Answer. The Department is in the process of preparing the notice 
inviting applications for new CCAMPIS awards for fiscal year 2002. The 
closing date for receipt of applications for this competition is 
scheduled for June 2002.
    With regard to the fiscal year 2001 competition, the Department 
received 232 applications and awarded grants to 222 out of 229 eligible 
applicants. Because the available funds exceeded the amount needed to 
cover continuations and make these new awards, the Department invited 
grantees from the fiscal year 1999 competition to increase their third 
year (2001) of CCAMPIS funding based on their 1999-2000 Federal Pell 
Grant disbursement figures. This invitation was also extended to fiscal 
year 2001 applicants because some applicants failed to request the 
maximum allowable. A good number of applicants responded favorably to 
this invitation by increasing their request for funding. Applicants 
requested approximately $16.6 million and the Department awarded (up to 
the statutory limitation) approximately $16.1 million in grant funding. 
The maximum grant awarded to an institution is limited to one percent 
of Pell Grant dollars at the institution.
    Based on a review of about 50 applications, it appears that many of 
the applicants have waiting lists for child care. However, in some 
cases, schools may lack the physical space to accommodate significantly 
more children. Current law prohibits eligible institutions from using 
grant funds for construction, other than minor renovation and repairs 
to meet State or local health or safety requirements.
    Question. What steps is the Department taking or planning to take 
to ensure that child care is not a barrier for students/families 
interested in pursuing postsecondary education?
    Answer. The Department proposes to continue funding the CCAMPIS 
program in fiscal year 2003. The Department has requested $15 million 
to cover the costs of continuing grants initiated in fiscal years 2001 
and 2002.
      increasing awareness and utilization of the ccampis program
    Question. Last year the Department lapsed more than $8 million in 
funds available for this program. What steps has the Department taken 
or planned to make sure these needed funds are fully utilized?
    Answer. The Department is undertaking a number of activities to 
heighten awareness and increase utilization of the financial assistance 
available through the CCAMPIS program.
  --In late February, Department staff presented at the National 
        Coalition for Campus Children's Centers (NCCCC) conference in 
        San Antonio, Texas. The conference, devoted to campus early 
        childhood programs, gave Department staff an opportunity to 
        share information and respond to questions from potential 
        future applicants and current grantees on issues relating to 
        the application process and available funding for the CCAMPIS 
        program.
  --The Department plans to conduct four Child Care pre-application 
        technical assistance workshops across the country (St. Louis, 
        MO; Miami, FL; Los Angeles, CA; and Washington, DC) to 
        encourage potential applicants to apply and to assist them in 
        submitting high quality applications. These workshops will also 
        serve as a major outreach activity to increase the numbers of 
        HBCUs, HSIs, and TCCUs that propose to provide quality and 
        affordable child care services to their low-income students who 
        are parents.
  --The Department has posted information regarding the CCAMPIS program 
        on its website at http://ed.gov/offices/OPE/HEP/campisp/. In 
        addition, interested individuals have access to information on 
        CAMPUSCARE-L, an electronic discussion list devoted to topics 
        related to the concerns of staff, faculty, and administrators 
        in laboratory schools or children's centers on university or 
        college campuses. The list is co-owned by the NCCCC and the 
        ERIC Clearinghouse on Elementary and Early Childhood Education 
        (ERIC/EECE).
  --The Department is looking into the possibility of posting the 
        closing date notice and additional CCAMPIS program-related 
        information in the Chronicle of Higher Education.
            teacher quality enhancement state grant program
    Question. The Administration has proposed overriding the 
authorizing statute for the Teacher Quality Enhancement Grant program. 
Under the State grants program, all but 26 States have received awards 
through fiscal year 2001 and budget documents indicate that 23 new 
awards would be made in fiscal year 2002. What is the latest 
information about the number of new State awards made in fiscal year 
2002?
    Answer. To date, no awards have been made in fiscal year 2002. The 
Department plans to complete the competition for new State awards this 
summer.
    Question. Why can't awards be made to the remaining eligible 
States?
    Answer. There is no reason that awards cannot be made to the 
remaining 26 eligible States. In fact, the Department's Budget 
Justifications assume that many of these States will apply and be 
awarded grants in fiscal year 2002. In order to encourage eligible 
States to apply, the Department intends to work closely with them, 
offering technical assistance and support in the application process.
    The Department is not planning to conduct another competition for 
new awards in 2003. The 31 States receiving their final year of 
continuation funding in 2001 and 2002 may not compete for new funding 
because the statute prohibits States from receiving more than one State 
grant. Once the Department has conducted the 2002 competition it is 
unlikely that there will be any remaining entities seeking funding. The 
Department believes that the program's 50 percent matching requirement 
may discourage some States from applying. Furthermore, as there have 
already been a number of competitions for this program, it is likely 
that those States most interested in the program have already received 
a grant. The Department proposes that fiscal year 2003 funding for 
State grants be limited to the amount needed to cover continuation 
costs.
    Question. How many of these unfunded States meet any of the 
priority criteria under section 205 (b)(2)(A)(i)-(iii)?
    Answer. In theory, all of the unfunded States may meet these 
priority criteria. However, until specific grant applications have been 
received, it will not be possible to ascertain the precise number of 
the unfunded States that meet the priority criteria. Section 205 
(b)(2)(A)(i)-(iii) of the HEA instructs that in awarding Teacher 
Quality Enhancement State Grants the Department give priority to 
applications that include reforms in three areas: reforms of 
certification requirements to ensure content knowledge, reforms 
designed to hold institutions of higher education accountable for the 
quality of teachers they prepare, and recruitment efforts aimed at 
reducing teacher shortages in high poverty urban and rural areas.
               vocational rehabilitation incentive grants
    Question. The Administration has proposed creating a new program 
designed to provide financial incentives to State vocational 
rehabilitation (VR) agencies for helping individuals with disabilities 
obtain competitive jobs. Please describe how this proposed program 
would operate. What criteria would be utilized for determining which 
States receive awards, what factors would determine the size of the 
State awards and what guidelines would be provided to States on 
appropriate uses of these funds?
    Answer. We are still in the process of developing the specific 
plans for the proposed Vocational Rehabilitation Incentive Grants 
program. However, I am happy to share with you how we envision this 
program operating. We plan to link the incentive grants to key measures 
under the current Evaluation Standards for the VR State Grants Program. 
We will initially focus on State vocational rehabilitation agencies 
that are the top performers under Performance Indicators 1.3 
(percentage of individuals obtaining competitive employment) and 1.5 
(VR consumers' earnings in comparison to the State's average wage). We 
also plan to include additional measures on the number and percentage 
of Social Security beneficiaries under the Supplemental Security Income 
(SSI) and the Social Security Disability Insurance (SSDI) programs who 
are served by the State VR agency and the percentage of individuals who 
are SSI recipients or SSDI beneficiaries who obtain competitive 
employment. These measures are intended to reward States who make a 
significant effort to assist these individuals to obtain employment. 
Beneficiaries under these programs have significant disabilities and 
historically have been among the most challenging to serve. We are 
analyzing data on prior year performance to determine what the 
performance criterion should be in identifying top performers. 
Additionally, we are considering a future category of ``most improved'' 
(agencies who have shown the greatest improvement over two or more 
years) when we have sufficient experience with the Standards and 
Indicators to allow us to establish those criteria.
    At this time, we cannot tell you what the actual size of the awards 
will be. The size of the award will depend on the results of our 
analysis of the performance data and the resultant pool of top 
performers. However, we anticipate that the size of the awards will be 
generally proportional to the size of the State VR agencies' grant 
allotment. At this point, we believe that the State VR agencies should 
have flexibility in spending award funds under the program as long as 
those expenditures are consistent with allowable costs under the VR 
State Grants Program.
            vocational rehabilitation performance standards
    Question. Under current law, doesn't the RSA require States that do 
not meet performance levels to develop program improvement plans that 
outline proposed efforts to achieve acceptable performance? What issues 
do States raise as barriers to achieving acceptable performance, and 
how would this new program support current RSA efforts to help States 
improve performance?
    Answer. Section 106 of the Rehabilitation Act requires State 
agencies that fail to meet the standards to develop a program 
improvement plan (PIP) outlining specific actions to be taken to 
improve program performance. We are currently in the process of 
publishing our first Evaluation Standards Performance Report. This 
report, as well as other program performance information, will be made 
available on the Department's website. Subsequent to this report, we 
will be working with States who do not meet the Standards to develop 
PIPs. At that point, we will have better information about what 
barriers States are experiencing in their efforts to achieve acceptable 
performance.
    The current Evaluation Standards and Performance Indicators are 
designed to ensure a minimal level of acceptable performance and raise 
the performance of low performing States. The incentive grants would 
award high performance. These grants would encourage State VR agencies 
at the top of the performance ladder to continue to improve or maintain 
high performance. In addition, we want to encourage States with 
satisfactory performance to strive for high performance.
                         recreational programs
    Question. With a success/sustainability rate of nearly 75 percent, 
recreational programs have proven to be an effective approach to 
leveraging local funding to support the integration of individuals with 
disabilities into the community. What specific sources of funding are 
available to replace this modest Federal investment? Budget documents 
indicate that this program has limited national impact and that funding 
is more appropriately derived from States, local agencies and the 
private sector. Why should the community integration needs of 
individuals with disabilities be left to the whims of State and local 
budget battles?
    Answer. The major purpose of the Recreational Program is to provide 
seed money for the establishment and operation of community-based 
recreational programs as well as to create opportunities for increased 
access to locally based recreational programs. RSA has found that after 
Federal funding ceases for recreational projects, the integration of 
individuals with disabilities into community-based recreational 
programs has continued with local public and private funding sources. 
In addition, the increased availability of existing accessible 
community-based recreational facilities demonstrates local support for 
the integration of individuals with disabilities into the community. 
While the Recreational Program is designed to promote inclusive 
recreational programs to integrate individuals with disabilities into 
community-based recreational programs, States have the responsibility 
to assist individuals with disabilities to achieve community 
integration by ensuring that public facilities such as parks and 
recreational programs are accessible. The Recreational Program has 
demonstrated the potential for supporting community integration through 
local and private funding sources.
    Question. Doesn't the Federal Government have a role in stimulating 
and leveraging local and private funding for programs that support the 
community integration needs of individuals with disabilities?
    Answer. The Federal Government does play a large role in 
stimulating and leveraging State, local, and private funding for 
programs that support the community integration needs of individuals 
with disabilities. That role is clearly demonstrated through many 
programs supported by the Rehabilitation Services Administration (RSA). 
The largest program, the $2.6 billion Vocational Rehabilitation State 
grants program, provides over 78 percent in Federal matching funds to 
assist States with their obligations in providing services for 
individuals with disabilities. In addition, the Centers for Independent 
Living program provides training in individual and systems advocacy 
that enables persons with disabilities to gain greater access to 
community resources.
                         projects with industry
    Question. The Administration has proposed eliminating direct 
Federal funding for Projects With Industry (PWI) projects and has 
requested legislative language to authorize States to use their 
Vocational Rehabilitation State Grants appropriation to cover 
continuation costs in fiscal year 2003. Does this mean that funding for 
some of the 75 PWI projects that just received funding in fiscal year 
2002 could be eliminated next fiscal year?
    Answer. Under the Administration's proposal, fiscal year 2002 would 
be the final year of direct Federal support for grants under the 
Projects With Industry (PWI) program. The purpose of the appropriation 
language proposed by the Administration is to assist the projects in 
their transition from Federal to State and local support. The language 
would provide State VR agencies with the authority and discretion to 
utilize their fiscal year 2003 funds to continue support for effective 
projects in their States. We expect that State VR agencies will 
continue to refer individuals to effective PWI programs for placement 
and other services. In the future, we anticipate that PWI projects, 
like other VR service providers, would be paid directly or by contract 
for their services by the State VR agency. The project period for PWI 
projects receiving fiscal year 2002 funds is from October 1, 2002 to 
September 30, 2003. Thus, State VR agencies and PWI projects will have 
ample time to plan for the transition and ensure that any disruption in 
the delivery of services is minimized.
                   supported employment state grants
    Question. The Administration has proposed folding this program into 
the VR State Grant program, because it has achieved its statutory goal. 
The Supported Employment (SE) program does not require a State match, 
while the VR program does. According to the Fiscal Survey of the 
States, 2001, States are experiencing significant reductions in 
revenues, which will result in State budget shortfalls of almost $40 
billion. Further, under this proposal, some States will actually 
receive less Federal support than they received last year. Given those 
realities, how will States continue to meet their commitment to serve 
those with the most severe disabilities with high quality supports and 
services?
    Answer. We know that supported employment is often an effective 
strategy in assisting individuals with the most significant 
disabilities to obtain competitive employment in integrated settings. 
However, the Administration believes that a separate supplemental 
source of funding to encourage States to develop collaborative programs 
with appropriate public and private nonprofit organizations for the 
provision of supported employment (SE) services is no longer needed. 
The State Vocational Rehabilitation (VR) agencies recognize supported 
employment as an integral part of the VR State Grants program and a 
viable employment option for individuals with the most significant 
disabilities. The number of individuals receiving SE services has 
continued to increase even though the annual appropriation for the SE 
State Grants program has remained constant since 1996. State VR 
agencies continue to spend an increasing amount of VR State Grant funds 
(including State matching funds) to provide supported employment 
services for those individuals who require such services to participate 
in the integrated labor market. We believe that States will continue to 
meet their commitment to serve those with the most severe disabilities 
with high quality supports and services under our proposal.
Impact of proposal to merge supported employment program with 
        vocational rehabilitation state grants
    In considering this proposal, we examined the impact of merging the 
funds both in terms of the effect on required State matching funds and 
the total allocation of funds to States. Our 2000 and 2001 data 
indicate that for most States the financial impact will be minimal. 
Under the Rehabilitation Act, the Commissioner is required to reallot 
any available VR State Grant funds to States who request additional 
funds and can match those funds. Currently, about 80 percent of the 50 
States, D.C., and Puerto Rico request additional funds in the 
reallotment process. In fiscal years 2000 and 2001, only a handful of 
States did not request additional funds and only 2 States were unable 
to meet their State match requirement and had to return part of their 
original allotment. Second, on average the relative increase in the 
total matching funds as a result of combining the VR and SE funds is 
minimal, about 1.5 percent. Third, fiscal year 2001 State expenditures 
for nearly one-third of the States exceeded the amount of funds they 
would be required to provide as match under the President's fiscal year 
2003 budget request. Further, State VR agencies have been seeking 
increased appropriations for the VR State Grants program, which 
suggests that they will be able to match these funds. Given this 
information, it appears that the vast majority of States should not 
have a problem in providing sufficient funds to meet their State match 
requirement.
    Because of the differences in the programs' funding formulas, we 
also examined the total amount of funds that States would receive under 
the proposed consolidation in the fiscal year 2003 President's request. 
Our analyses indicate that under the proposed consolidation, all States 
will receive an increase in Federal funds in fiscal year 2003 as 
compared to the total Federal funds they received under the VR and SE 
programs in fiscal year 2002.
    Consolidating the separate SE funding source into the larger VR 
State Grants program will send the message that supported employment is 
an accepted and valued outcome of the VR program. The consolidation 
would also streamline and eliminate burdensome and duplicative 
accounting and reporting requirements. Further, we intend to monitor 
State data to ensure that they do not reduce their efforts to provide 
supported employment services.
                     assistive technology programs
    Question. State Grant funding provided under title I of the 
Assistive Technology (AT) Act has been critical to building an 
infrastructure specifically designed to ensure that people with 
disabilities--regardless of age or disabling condition--have access to 
the technology devices and services they need to be independent and 
productive members of society. Without this national infrastructure, 
there will be unbridgeable gaps in access to AT devices and services 
throughout the country. Why does the Department's budget request 
propose eliminating Federal financial support for 23 States?
    Answer. The Assistive Technology Act (AT Act) of 1998, which 
authorizes funding for the Assistive Technology (AT) State grants 
program, provides for a declining Federal share and limits funding for 
individual States to no more than 13 years. The Department's request 
would support the States that are authorized to receive funding in 
fiscal year 2003.
    Question. Policy changes such as the Olmstead decision, Section 508 
final guidelines, and the Telecommunications Act Sect. 255 were not 
anticipated when the sunset provisions related to Federal support of 
Tech Act Projects were originally conceived. Does the Department 
believe that State Tech Act projects have a role to play in building an 
infrastructure that ensures that people with disabilities can be 
independent and productive members of society? If so, how will their 
mission be achieved given that a recent National State Budget Officers 
Association survey revealed that almost all States are facing revenues 
that have fallen far below original estimates, resulting in net budget 
shortfalls estimated to be as high as almost $40 billion?
    Answer. The Department agrees that there have been significant 
changes since the passage of the Technology-Related Assistance for 
Individuals with Disabilities Act (Tech Act) in 1988. In addition to 
those mentioned in the above question, we note such developments as the 
passage of the Americans with Disabilities Act (ADA); the proliferation 
of electronic information technologies and their applications; changes 
in workforce practices, such as telecommuting; the emergence of new 
devices and new technological knowledge; alterations in the governing 
statutes, regulations, and policies of other Federal and State 
agencies; the characteristics and awareness of consumers; and the 
activities of the projects funded under the Tech Act and the AT Act, 
among other factors.
Promoting access to and assessing current state-of-the-field assistive 
        technology for individuals with diabilities
    Promoting access to AT/IT is an important element of the 
President's New Freedom Initiative, and the Department is considering 
the best mechanisms to achieve this goal.
    In order to reach an informed conclusion about the current state-
of-the-field, NIDRR is undertaking several information-gathering 
efforts, based on our knowledge of the entire continuum of getting AT/
accessible IT to consumers. Included are a needs study, with a 
population-based survey of individuals with disabilities concerning 
their uses, needs, and resources relative to AT/IT. A second area of 
inquiry is a survey of consumer organizations and public agencies at 
the State level--providers of assessments, prescriptions, training, and 
financing for AT. A third area will be an examination of those segments 
of the AT/IT continuum that could increase the flow of innovative and 
affordable technologies from the laboratory and the manufacturer into 
the consumer marketplace, and provide supports such as training, 
maintenance, replacement, and consumer safeguards.
                 american printing house for the blind
    Question. Last year, the Administration requested level funding for 
APHB, even though the Printing House asked for an increase justified by 
an expected increase in the number of students served. Budget documents 
indicate that the number of students served will increase this year by 
1.2 percent. Once again, the Administration has requested level funding 
for APHB. How does the request provide sufficient funding to maintain 
operations, given the expected increase in the number of individuals 
served?
    Answer. Funding for the Printing House has more than doubled in the 
past five years, going from $6.68 million to $14 million, an increase 
of 110 percent. At the same time, the number of students served through 
APH has increased by only 4.8 percent. The rate of increase also has 
slowed down, going from 2.8 percent in 1998 to .47 percent in 2000. In 
fiscal year 2001, the number of students served actually declined by 
1.5 percent. The Department believes that its request of $14 million 
for the American Printing House for the Blind (APH) for fiscal year 
2003 provides more than sufficient funds to maintain operations at 
appropriate levels.
    States are required to provide a free appropriate public education 
to all students with disabilities under the Individuals with 
Disabilities Education Act (IDEA), which includes the provision of all 
necessary educational materials. These programs have the primary 
responsibility for ensuring that all children with visual impairments 
receive a free appropriate public education, including all necessary 
specialized educational materials. Federal support for special 
education under the IDEA Grants to States, Preschool Grants, and Grants 
for Infants and Families programs has grown by over $5.3 billion since 
1996, or 178 percent. In addition, the fiscal year 2003 request would 
provide an additional $1.02 billion for these programs. The funds 
provided under the appropriation for APH merely supplement the 
resources already available to the States to achieve this goal.
    At the fiscal year 2003 request level, States will receive an 
additional $186.72 per student with a visual impairment for specialized 
materials through APH based on its estimate of the number of students 
to be served in fiscal year 2003. APH funding for educational materials 
simply provides additional support to States to provide a free 
appropriate public education. We believe that additional funds are not 
necessary for educational materials and that the request provides 
sufficient funding to support a full spectrum of advisory services and 
research activities.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings
                          blue ribbon schools
    Question. Mr. Secretary, thank you for appearing before the 
Subcommittee today. I wanted to spend a few minutes discussing the 
future of the Blue Ribbon Schools program with you.
    As you know, the Blue Ribbon process involves a school conducting a 
thorough self-examination, submitting an application to your department 
that outlines the leadership, professional development, curriculum, and 
student support services used by the school, and disclosing the 
implications of such policies on key academic indicators like student 
performance on norm-referenced assessments, student attendance rates 
and teacher attendance rates. On the basis of site visits and the 
quality of the application, your department bestows the Blue Ribbon 
designation on a select number of schools each year.
    I am concerned by rumors that your department, Mr. Secretary, will 
eliminate the Blue Ribbon Schools program in favor of another awards 
program focused solely on student performance on standardized tests. 
While I believe that we should recognize schools that improve test 
scores, I feel that it is just as important that we recognize the 
practices and activities that lead to the improved test scores. That is 
exactly the information that we gain from the Blue Ribbon Schools.
    A few years ago, I was shocked to learn that the Department kept 
these award-winning Blue Ribbon applications that contain a great deal 
of information on successful research-based programs sitting in a 
filing cabinet, doing little more than gathering dust. In South 
Carolina, we have taken advantage of these Blue Ribbon best practices 
to generate measurable school reform and academic achievement. Hand 
Middle School in Columbia, SC used the same process and last year was 
designated the National Middle School of the Year by Time Magazine. In 
1994-95, their test scores ranked at the 50th percentile among State 
schools. Within five years by using Blue Ribbon best practices, the 
school had progressed to the 90th percentile and had become one of the 
largest winners of State incentive funds given for measurable gains in 
achievement test scores. From 1995-99, every subpopulation's test 
scores increased with the highest gains in race, African-American, with 
an 85 percent gain. In the 1994-95 school year, Beaufort Elementary 
School was listed as one of South Carolina's 200 worst schools. Thanks 
to reforms modeled after the practices of Blue Ribbon Schools, Beaufort 
Elementary School turned itself around 180 degrees and won a Blue 
Ribbon designation of its own in 1999. Within a 5-year period in grades 
2-5, standardized test scores increased by 15 Mean NCEs--from 40 to 56 
NCE. I can think of no better example in South Carolina promoting 
school-wide reforms that left no child behind.
    I strongly believe that room exists at the Department of Education 
to honor both schools that improve test scores and schools that undergo 
reforms that produce positive academic results. Mr. Secretary, what are 
your plans for the Blue Ribbon Schools program?
    Answer.
Focus on achievement for awards recognizing school performance
    The Department is committed to recognizing schools that make 
significant progress in closing achievement gaps and in ensuring that 
all children learn to high standards. One main focus of our new 
program, which will build on the Blue Ribbon Schools tradition, will be 
recognizing schools with disproportionately high numbers of students 
from disadvantaged backgrounds that perform at the highest levels. We 
will, as before, recognize high performing private schools as well as 
public schools. And, we will recognize schools that implemented reforms 
that led to improvements in student achievement.
    However, our focus is on achievement. Our commitment to leaving no 
child behind means that we must ensure that all students are learning, 
and we want our highest performing schools to be recognized. While we 
applaud schools that are working to reform their programs, we believe 
that national recognition should be reserved for those schools in which 
the reforms have led to actual improvement in student achievement. And, 
we want to know that the recognized schools are the schools in the 
community with the highest performance. It is difficult to explain why 
one school gets a Blue Ribbon award and yet, right down the road, 
another school with similar students can show much more in terms of 
student achievement but does not get the award. We want to ensure that 
the Blue Ribbon schools really are the highest performing schools--and, 
yes, test scores do give us objective data about that.
    I am pleased to announce that we will be simplifying the 
application process. During our review of the program we discovered 
that many schools found applying for Blue Ribbon status to be 
burdensome. Some high performing schools did not apply for Blue Ribbon 
status because the application package required an inordinate amount of 
time--and the schools were too busy making certain their children were 
learning to take time to complete the application.
    We will continue to make information on the recognized schools 
available so that others may learn from their accomplishments. In the 
past, the Department has supported workshops where Blue Ribbon Schools 
and aspiring schools could come together to discuss best practices, and 
we made the Blue Ribbon Schools applications available on our 
Department website. In the future, we will work with schools and 
teachers to improve our outreach efforts and make sure that they have 
timely and useful information about the program and about recognized 
schools.
New ``what works'' clearinghouse
    The Department also is planning to award a contract for a national 
clearinghouse that will provide information on programs and strategies 
that have been proven to be effective in improving education. The 
``What Works'' Clearinghouse will allow educators to select programs 
and practices that have strong evidence of effectiveness based on 
solid, reliable, scientifically based research and evaluation.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                              campus crime
    Question. The United States Department of Education is charged with 
enforcing the Jeanne Clery Act, which requires institutions of higher 
education in the United States to disclose campus security information 
including crime statistics for the campus and surrounding area. The 
Department of Education may level civil penalties against institutions 
of higher education in amounts up to $25,000 per violation or suspend 
them from participating in Federal student financial aid programs. The 
Clery's contend that guidance concerning reporting standards has often 
been hard to obtain, and when violations are alleged it is difficult to 
secure investigation and corrective action. To help remedy these 
problems, they have proposed that an office be established within the 
Department of Education that would be a central point of action.
    It is my understanding that there is currently not a central office 
within the U.S. Department of Education responsible for enforcing the 
Jeanne Clery Act. Does the Department plan to establish a campus 
security policy compliance office to provide a central point for 
schools to obtain guidance and for enforcement actions to be handled?
    Answer. We are committed to helping schools provide students with a 
safe environment in which to learn, and to keeping students, parents 
and employees well informed about campus security. The Department is 
working to ensure that families are made aware of safety concerns as 
well as preventive measures that colleges and universities are taking. 
The Department supports the Clery Act and is committed to ensuring that 
all postsecondary institutions are in full compliance.
    The Department's Office of Postsecondary Education (OPE) and 
Federal Student Aid (FSA) office have responsibility for campus crime 
policy and compliance, respectively. Under this arrangement, OPE is 
responsible for policy governing the Clery Act, developing regulations 
and non-regulatory guidance and responding to policy questions from 
institutions and the public. FSA is responsible for ensuring 
institutional compliance, conducting on-site reviews and targeted 
reviews of campus crime statistics when complaints are received. FSA 
also provides information to institutions about their responsibilities 
under the Clery Act as part of on-going training and technical 
assistance activities. Substantial guidance and information on the 
Clery Act is provided in the Student Financial Aid Handbook; the 
Department has also established a website to provide guidance and 
information on Clery Act reporting requirements at: http://www.ed.gov/
offices/OPE/PPI/security.html.
    This year, the Department plans the following enhancements to its 
implementation of the Clery Act:
    1. Issue a regulation codifying the recently added provisions 
related to the registration of sex offenders;
    2. Produce a separate document for campus law enforcement to use in 
implementing the Clery Act requirements;
    3. Establish a single point of contact for making complaints; and
    4. Conduct a number of program reviews targeted at Clery Act 
implementation issues on the campuses of selected institutions.
    Given these efforts, we do not believe that there is a need for a 
dedicated campus crime office.
                pennsylvania's education empowerment act
    Question. Under the Education Empowerment Act, the Pennsylvania 
Secretary of Education would use the Pennsylvania System of School 
Assessment to identify those districts with a history of low 
performance (scoring in the bottom-measured group of students statewide 
in math and reading for the previous two years). How do the 
accountability provisions in last year's ESEA reauthorization bill 
compare to those under Pennsylvania's Education Empowerment Act, under 
which 12 low-performing local educational agencies have been identified 
for technical assistance and corrective actions, and alternative 
governance structures have been established for the Philadelphia, 
Harrisburg, and Chester-Upland school districts?
    Answer. Without knowing all the details of the Education 
Empowerment Act, it appears that the Pennsylvania accountability system 
includes some, but not all, of the provisions of the No Child Left 
Behind Act (NCLBA), which reauthorized the Elementary and Secondary 
Education Act. For example, Pennsylvania's use of school-level reading 
and math assessments to measure school district performance is 
consistent with the NCLBA, as is identifying districts for improvement 
following two years of poor performance. Strong accountability for 
school districts, with alternative governance arrangements for the 
worst performers, is another characteristic shared by the Pennsylvania 
system and the NCLBA.
    However, it appears that Pennsylvania's system is focused on 
district-level accountability, rather than the school-level 
accountability that is at the heart of the NCLBA. Also, the NCLBA 
requires States to set annual measurable goals that will result in all 
students reaching proficiency in 12 years and to identify for 
improvement all districts and schools that are failing to meet those 
goals, not just the bottom performers.
    Question. Is the Pennsylvania school district accountability 
program a model for the Nation as it begins to implement the new 
requirements under the ESEA Act?
    Answer. Pennsylvania's system provides a good working model for the 
kind of strong accountability measures and corrective actions that we 
expect to see at the district level as a result of the NCLBA. However, 
it is not clear how this district-level approach plays out at the 
school level, which is the core of accountability under the new ESEA. 
Also, the new ESEA requires tough accountability for all districts and 
schools that fail to meet challenging State standards, not just the 
bottom performers that are the focus of Pennsylvania's system.
                           pell grant program
    Question. In fiscal year 2001 we appropriated $8.8 billion to 
provide for a maximum Pell Grant of $3,750. The appropriation was based 
on a 2.5 percent increase in the students applying for funds. However, 
because of the economic situation, there was a 7.7 percent increase in 
student participation which created a shortfall of $860 million. In 
fiscal year 2002, we provided $10.3 billion and a maximum grant of 
$4,000, which created a shortfall of $416 million. The total shortfall 
is $1.276 billion. The fiscal year 2003 budget is an increase of $549 
million and a maximum grant of $4,000.
    Given the unexpected growth in the program over the past 2 years, 
do you expect that your estimates for fiscal year 2003 will create a 
further shortfall?
    Answer. Under current estimates, which reflect recent applicant 
trends, our request for fiscal year 2003 will fully support the cost of 
a $4,000 maximum award in the 2003-2004 academic year. This assumes 
that the $1.3 billion shortfall will be funded through a supplemental 
appropriation in fiscal year 2002.
           pell grant shortfalls since academic year 1989-90
    Question. Over the life of the Pell Grant program, how often have 
there been annual funding shortfalls? Please outline how each of these 
shortfalls has been addressed?
    Answer. There have been 5 years since academic year 1989-90 in 
which available funding was insufficient to support program costs:
  --1989-90. The fiscal year 1990 appropriation designated $131 million 
        to support the prior year shortfall.
  --1990-91. This shortfall was addressed through a linear reduction 
        imposed on Pell Grant awards.
  --1991-92, 1992-93. In fiscal year 1992, $90 million was transferred 
        to Pell Grants from the Educational Excellence account, and an 
        additional $40 million was appropriated to support Pell Grants 
        as part of disaster relief funds associated with Hurricane 
        Andrew. The 1993 appropriation designated $240 million for use 
        in the 1992-93award year. An fiscal year 1993 supplemental 
        appropriation included an additional $341 million for 1992-93 
        Pell Grant costs. An additional $30 million in funds 
        appropriated for disaster relief related to Midwest flooding 
        supported Pell Grant awards.
  --1993-94. The 1994 appropriation designated $250 million to support 
        the prior year shortfall.
    Question. Does your proposal to keep the maximum Pell Grant at 
$4,000 for fiscal year 2003 mean that students served by the program 
will lose ground relative to the price of college?
    Answer. Under our request for 2003, the average Pell Grant will 
have increased by 26 percent--from $1,917 to $2,410--from 1999-2000 to 
2003-2004. This increase outstrips growth over the same period in cost 
of attendance at 2-year public (16 percent) and 4-year private (22 
percent) institutions and is only slightly less than cost increases at 
4-year public schools (29 percent).
      incarcerated youth offenders program (prison postsecondary)
    Question. Approximately two-thirds of Federal and State inmates 
released on parole are arrested within 3 years of leaving prison, and 
almost half are reincarcerated. The Department of Education found that 
participation in the State correctional programs lowered the likelihood 
of reincarceration by 29 percent. A Federal Bureau of Prison study 
showed a 33 percent drop in recidivism among Federal inmates who were 
enrolled in vocational education programs.
    Mr. Secretary, your budget eliminates the youth offender program. 
Given the evidence that programs like this reduce recidivism rates, why 
are you proposing to eliminate the program?
    Answer. The Incarcerated Youth Offenders program provides grants to 
State correctional agencies to assist incarcerated youths, aged 25 or 
younger, in acquiring functional literacy and life and job skills. 
Formula grants go to States that choose to participate. The program 
includes spending caps of $1,500 per student, per year, for 
instructional costs, and $300 per student, per year, for related 
services, such as occupational assessment or post-release job placement 
assistance.
    The budget request is consistent with the Administration's effort 
to redirect resources to high-priority areas and to eliminate small 
programs whose activities can be funded from other sources. The 
population served by this program can already receive support under 
Adult Education State Grants. That program provides up to 8.25 percent 
for education of prisoners and other institutionalized individuals. 
Funds can be used for basic education, special education programs, and 
English literacy programs. The appropriation for the Adult Education 
State Grants has increased in recent years and, as a result, more 
funding is available for the education of this population.
    In addition, the Vocational Education State Grants program allows 
States to use up to 1 percent (an estimated $11.5 million in fiscal 
year 2003) to serve individuals in State institutions such as State 
correctional institutions.
    The Three State Recidivism Study, currently being conducted by the 
Correctional Education Association, focuses only on Maryland, 
Minnesota, and Ohio. The study is not designed to provide findings that 
can be generalized across States. Also, study data are limited with 
regard to length of participants' involvement in a corrections 
education program. In addition, the mean age of the participants in the 
study is about 31 years of age for the group that participated in 
correction programs and about 33 years of age for the group that did 
not participate, so data will not necessarily be valid for the 
population served by the Youth Offenders program, which serves students 
25 years of age and younger.
                 pennsylvania's classroom plus program
    Question. The Classroom Plus program provides a tutorial services 
program under which parents of certain pupils in grades 3-6 with low 
achievement test scores may apply for grants of up to $500 to pay the 
cost of tutoring from State-approved providers. This program was 
started one year ago by Governor Ridge with funding from the State of 
$23.6 million. How do the new Title I requirements for supplemental 
services compare to this program?
    Answer. Classroom Plus appears to offer services very similar to 
those required under the new Title I supplemental services 
requirements. Both programs permit parents to select from a broad range 
of State-approved providers and both offer a similar level of financial 
support to pay for tutoring services. Under Title I, however, such 
services are part of the strong school-level accountability required by 
the No Child Left Behind Act (NCLBA). School districts must provide 
supplemental educational services to students attending schools that 
have failed to make adequate progress toward State standards for at 
least three years. All poor students attending such schools--not just 
low-achieving kids in grades 3-6--are eligible to receive services, 
although districts must give priority to low-achieving poor children if 
funding is insufficient to serve all eligible students.
    Question. How might the State and Federal support for supplemental 
services be coordinated?
    Answer. Pennsylvania clearly has a head start in developing an 
effective, statewide system of supplemental educational services that 
will meet the requirements of the new Title I law. In particular, it 
has already identified potential providers of such services--a key 
first step in making services widely available to parents and their 
children. While the State will need to adjust its eligibility criteria 
to comply with the NCLBA, it will now be able to use Federal education 
funds, including Title I funds, to expand the Classroom Plus program. 
The Department is currently preparing regulations and guidance on 
supplemental educational services, and will provide maximum flexibility 
within the law for adapting existing programs like Classroom Plus to 
meet the requirements of the new law.
                      adult education and literacy
    Question. Nationally, fewer than 10 percent of adults who could 
benefit from literacy programs are currently being served. The National 
Adult Literacy Survey found that over 40 million Americans age 16 and 
older have significant literacy needs, and that more than 20 percent of 
adults read at or below a fifth-grade level--far below the level needed 
to earn a living wage. It also noted that 43 percent of people with the 
lowest literacy skills live in poverty, 17 percent receive food stamps, 
and 70 percent have no job or only a part-time job.
    Mr. Secretary, your budget cuts the Even Start Family Literacy 
program and level funds the adult education State grant program. How 
will we make progress in this important area without additional 
investments?
    Answer. The President's 2003 budget for education builds on major 
increases provided in recent years. For example, since fiscal year 
2000, funding for Even Start has increased 67 percent, and Adult 
Education State Grants increased 28 percent. However, additional 
funding is clearly not the only answer to improvements in education, 
which is why the President's strategy is not only about investing in 
education but also about how to increase the return on that investment.
    The 2003 request for Even Start would provide $200 million, a 
decrease of $50 million from 2002. The request is supported by the 
mixed evidence on Even Start's impact on literacy outcomes for children 
and adults. The two previous evaluations of the Even Start program 
focused on evaluating the components and outcomes of the Even Start 
model, which integrates early childhood education, adult education, and 
parenting education. On measures of literacy used in both of these 
evaluations, participating families consistently made gains each year. 
However, results from an experimental study during the first evaluation 
showed no difference in achievement between those who participated in 
Even Start and those who did not.
    In terms of adult literacy, Even Start adults in the first Even 
Start evaluation achieved statistically significant gains on the 
Comprehensive Adult Student Assessment System (CASAS) and Test of Adult 
Basic Education reading and mathematics tests. However, in the 
experimental study, adults who received no assistance from Even Start 
achieved similar gains on the CASAS.
    The President strongly supports efforts to ensure that all adults 
have the skills they need to be productive members of society. Toward 
that end, the Federal Government contributes about 25 percent of the 
total spent on adult education. The Department's Adult Education State 
Grants program supports State efforts to improve adult education, and 
the 1998 reauthorization put greater emphasis on accountability for 
results. States are just beginning to report data that can be used to 
consider the program's impact.
    To provide additional information about how well the program is 
working, the Department is collecting and analyzing statistical data to 
understand better the scope and implications of literacy skills within 
the U.S. adult population, investing in research to better understand 
effective instructional strategies and interventions that benefit adult 
learners, and examining options to increase the impact of adult 
education programs on the national effort to improve adult education 
and English acquisition. Insights from these efforts will help inform 
the upcoming Adult Education reauthorization.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                    physical education for progress
    Question. Last week, Secretary Thompson testified before this 
Subcommittee and stated that 16 million Americans currently suffer from 
Type II diabetes--a preventable form of the disease. This type of 
diabetes is increasingly prevalent in children due to the lack of 
physical activity. Yesterday, it was reported that researchers found 
that one in four extremely obese children and one in five obese 
adolescents under the age of 18 have a condition known as impaired 
glucose tolerance--a precursor to type II diabetes. The good news is 
that changes in diet and increased exercise often can reverse impaired 
glucose tolerance, which, in turn, can prevent or delay the development 
of type II diabetes. In the U.S. today there are approximately 4.7 
million children aged 6-17 who are overweight or obese. Since 1980, the 
prevalence of overweight children has nearly doubled and the prevalence 
of overweight adolescents has nearly tripled.
    Given these statistics, Mr. Secretary, and the increased health 
risks of obesity, why did you zero out the $50 million Physical 
Education for Progress program? Let me point out that this program 
helps to improve and expand physical education programs, including 
after-school programs for kindergarten through 12th grade.
    Answer. I strongly share your views on the benefits to children of 
increased physical activity. I have a background in physical education, 
and I think physical education is important to children's well being.
    The President's 2003 budget request builds on the major increases 
provided in recent years and gives States and school districts the 
resources they need to implement major changes called for in the No 
Child Left Behind Act. Our budget would maintain funding for large, 
flexible State grant programs, but would consolidate and eliminate many 
smaller and less flexible categorical programs, such as Physical 
Education, in order to reallocate scarce resources to other, higher-
priority programs such as Title I, Reading First, and Special Education 
State Grants.
                 alaska native education equity program
    Question. Since 1998, we have slowly increased this program to give 
Alaska kids a little extra help. Given the fact that Alaska students' 
test scores are 40 percent lower than other students, why are you 
cutting this program by $9.8 million?
    Answer. Coming up with a budget that would fit within our ceilings 
was difficult, and it required many tough choices. The 2003 budget 
shifts funding for small categorical programs, like the Alaska Native 
Education Equity program, in order to reallocate scarce resources to 
other, higher-priority programs. The request is consistent with the 
Administration's intent to reduce or eliminate small programs that have 
a narrow or limited effect, or that duplicate the efforts of other 
programs.
    We are proposing significant increases for programs such as Title I 
Grants to Local Education Agencies and Reading First, in order to help 
many students achieve at higher academic levels, including many Alaska 
native students. The requested level of funds for the Alaska Native 
Equity program would be sufficient to cover the costs for all 
continuation grants.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 11 a.m., Thursday, March 
21, in room SD-192. At that time we will hear testimony from 
the Honorable Ruth L. Kirschstein, Acting Director, National 
Institutes of Health.
    [Whereupon, at 4 p.m., Thursday, March 14, the subcommittee 
was recessed, to reconvene at 11 a.m., Thursday, March 21.]











  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:07 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Specter, and Cochran.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

STATEMENT OF RUTH L. KIRSCHSTEIN, M.D., ACTING DIRECTOR
ACCOMPANIED BY:
        ANDREW VON ESCHENBACH, M.D., DIRECTOR, NATIONAL CANCER 
            INSTITUTE
        CLAUDE LENFANT, M.D., DIRECTOR, NATIONAL HEART, LUNG, AND BLOOD 
            INSTITUTE
        LAWRENCE A. TABAK, Ph.D., DIRECTOR, NATIONAL INSTITUTE OF 
            DENTAL AND CRANIOFACIAL RESEARCH
        ALLEN M. SPIEGEL, M.D., DIRECTOR, NATIONAL INSTITUTE OF 
            DIABETES AND DIGESTIVE AND KIDNEY DISEASES
        AUDREY S. PENN, M.D., DIRECTOR, NATIONAL INSTITUTE OF 
            NEUROLOGICAL DISORDERS AND STROKE
        ANTHONY S. FAUCI, M.D., DIRECTOR, NATIONAL INSTITUTE OF ALLERGY 
            AND INFECTIOUS DISEASES
        MARVIN CASSMAN, Ph.D., DIRECTOR, NATIONAL INSTITUTE OF GENERAL 
            MEDICAL SCIENCES
        DUANE ALEXANDER, M.D., DIRECTOR, NATIONAL INSTITUTE OF CHILD 
            HEALTH AND HUMAN DEVELOPMENT
        PAUL A. SIEVING, M.D., Ph.D., NATIONAL EYE INSTITUTE
        KENNETH OLDEN, Ph.D., DIRECTOR, NATIONAL INSTITUTE OF 
            ENVIRONMENTAL HEALTH SCIENCES
        RICHARD J. HODES, M.D., DIRECTOR, NATIONAL INSTITUTE ON AGING
        STEPHEN I. KATZ, M.D., Ph.D., DIRECTOR, NATIONAL INSTITUTE OF 
            ARTHRITIS AND MUSCULOSKELETAL AND SKIN DISEASES
        JAMES F. BATTEY, JR., M.D., Ph.D., DIRECTOR, NATIONAL INSTITUTE 
            ON DEAFNESS AND OTHER COMMUNICATION DISORDERS
        RICHARD NAKAMURA, Ph.D., ACTING DIRECTOR, NATIONAL INSTITUTE OF 
            MENTAL HEALTH
        GLEN R. HANSON, Ph.D., D.D.S., ACTING DIRECTOR, NATIONAL 
            INSTITUTE ON DRUG ABUSE
        RAYNARD KINGTON, M.D., Ph.D., ACTING DIRECTOR, NATIONAL 
            INSTITUTE ON ALCOHOL ABUSE AND ALCOHOLISM
        PATRICIA A. GRADY, Ph.D., DIRECTOR, NATIONAL INSTITUTE OF 
            NURSING RESEARCH
        DONNA DEAN, Ph.D., ACTING DIRECTOR, NATIONAL INSTITUTE OF 
            BIOMEDICAL IMAGING AND BIOENGINEERING
        FRANCIS S. COLLINS, M.D., Ph.D., DIRECTOR, NATIONAL HUMAN 
            GENOME RESEARCH INSTITUTE
        JUDITH L. VAITUKAITIS, M.D., DIRECTOR, NATIONAL CENTER FOR 
            RESEARCH RESOURCES
        STEPHEN E. STRAUS, M.D., NATIONAL CENTER FOR COMPLEMENTARY AND 
            ALTERNATIVE MEDICINE
        JOHN RUFFIN, Ph.D., NATIONAL CENTER ON MINORITY HEALTH AND 
            HEALTH DISPARITIES
        GERALD T. KEUSCH, M.D., DIRECTOR, FOGARTY INTERNATIONAL CENTER
        DONALD A.B. LINDBERG, M.D., DIRECTOR, NATIONAL LIBRARY OF 
            MEDICINE
        YVONNE T. MADDOX, Ph.D., ACTING DEPUTY DIRECTOR, OFFICE OF THE 
            DIRECTOR
        JACK WHITESCARVER, Ph.D., ACTING DIRECTOR, OFFICE OF AIDS 
            RESEARCH
        SUSAN QUANTIUS, ASSOCIATE DIRECTOR FOR BUDGET
        CHARLES E. LEASURE, DEPUTY DIRECTOR FOR MANAGEMENT

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. This hearing of the Labor, Health and Human 
Resources, and Education Appropriations Subcommittee will now 
come to order.
    I apologize to all of you for being a little late. I had a 
backup of different committee meetings this morning on the 
authorizing end of this appropriations committee, and I had to 
be there just for a few moments for that.
    Ever since the early 1990's, some of us have had the goal 
of doubling the NIH budget. This year I am proud to say that 
that goal will be achieved, and I say publicly for the record 
it could not have happened without the strong support of my 
good partner, Senator Arlen Specter from Pennsylvania. During 
the time that he chaired this committee, we began that process, 
and now we are going to end it this year. I am very pleased 
that the President has included the necessary increase in his 
budget so that we can finish that goal of doubling the NIH 
budget in 5 years. It is, I think, a remarkable achievement.
    I thank all of you for all of the support that you have 
given and for the information, the advice, and consultation 
necessary so that people would see the wisdom of doing this.
    We are opening more doors all the time in basic research in 
every institute and every center at NIH. I am sure that every 
director here can tell of advances not only in basic research, 
but in the applications of that research to better treatments 
and better prevention, new blood tests that can detect ovarian 
cancer, the first vaccine against staph, new research on the 
importance of exercise in preventing type 2 diabetes. So, I 
look forward to the hearing to hear more about these advances 
over the rest of this morning.
    Funding is not the whole story, however. I believe we are 
going to have to address the issue of how much and to what 
extent those in the public policy area, those of us who are in 
the elected areas of Congress are going to interfere and try to 
set parameters on biomedical research.
    As I said the other evening to a group assembled, to hear a 
lot of people talk out there, it is almost as if medical 
researchers somehow checked their morals and their ethics at 
the lab door. And I said, nothing could be further from the 
truth. It is those medical researchers in all the areas 
represented at this table today who spend their days, their 
months, their lives many times doing the research necessary to 
alleviate human suffering and disabilities and age-old 
illnesses that still plague mankind. So, to me there is really 
no higher calling than to do that. So, I can say without any 
hesitation that every biomedical researcher I have met in my 
life--and I have met a lot of them--were individuals, men and 
women, of the highest moral and ethical standards who have only 
one goal in mind and that is to help people and to help people 
live better lives.
    But I guess we are going to have to have that debate. It is 
unfortunate, but I guess we are going to have to.
    On a more fortunate note, we are fortunate to have all of 
you here today, and we are fortunate to have Dr. Ruth 
Kirschstein, the Acting Director of NIH. Dr. Kirschstein, you 
and I have had a great relationship going back now, well, 18 
years, now that I think about it. Well, that is how long I have 
been here.
    Dr. Kirschstein has worked at NIH since 1956, and I guess 
that counts 46 years, and I trust that you will continue to 
bring honor, as you have in the past, on NIH for many more 
years to come. You have on more than one occasion stepped up to 
the plate to fill in and to lead the NIH. You have done a 
remarkable job of doing that, and you have my highest 
admiration and compliments for what you have done both in your 
own personal and your professional life in terms of your own 
discipline but also for what you have done to lead NIH. So, Dr. 
Kirschstein, thank you for that. We look forward to your 
remarks.
    I will at this point leave the record open for any opening 
statement made by Senator Specter.

             SUMMMARY STATEMENT OF DR. RUTH L. KIRSCHSTEIN

    I now would recognize Dr. Kirschstein who has been Acting 
Director of NIH since January of 2000. Your statement will be 
made a part of the record in its entirety, and if you would 
like to summarize, please proceed, as you so desire.
    Dr. Kirschstein. Mr. Chairman, Senator Harkin, thank you 
very much. It has been a great pleasure to interact with you 
over many of these years. I have enjoyed it. I have enjoyed 
everything I have done in this regard, and I appreciate all of 
the things you said.
    I am appearing before this subcommittee today representing 
my colleagues who are basically at the table with me. They are 
the directors of the 27 institutes and centers and each of 
whom, in addition to me, has presented a written statement 
related to the President's budget proposal for the fiscal year 
2003. I shall present the overview of the total administration 
budget for NIH.
    The Congress in general, this committee in particular, and 
especially, Senator Harkin, you and Senator Specter, as well as 
the American public, have been committed to doubling the 
funding of the NIH by the end of this fiscal year, 2003. 
Although scientific accomplishments often take years to produce 
new treatments or diagnostic tools, the confluence of the 
generous budget that you have provided to NIH and the 
extraordinary scientific opportunities have already begun to 
yield amazing results.
    The current budget proposal, as you know, is $27.3 billion, 
an increase of 15.7 percent over fiscal year 2002, and it does, 
as you said, complete the original commitment. It enables NIH 
to continue to take advantage of the broader and deeper 
opportunities now at hand to understand diseases and to improve 
health, and it opens the way for future progress in medical 
research.
    Opportunities truly are at hand. Some are general. They 
benefit research in many areas, and others are specific dealing 
with particular diseases and disorders. Among the general 
opportunities, the complete draft of the DNA sequence of the 
human genome is the best known of the new tools, helping 
scientists in many disciplines to understand how the human body 
works and what causes disease.
    But there are several other areas of investigation that are 
changing the way biomedical research is done. These include 
proteonomics, the computer-aided analysis of the patterns 
present in the large sets of proteins, which are the products 
of our genes, with the goal of understanding their function; 
combinatorial chemistry, a new way to generate new, large 
libraries of molecules that can be screened for the use as 
drugs; and new, advanced imaging techniques that enable 
scientists to see within the human body and within its cells as 
various functions are carried out. There are, as well, new and 
expanded opportunities in therapeutics and prevention that we 
will be undertaking.
    These efforts, however, do not eclipse research into 
specific diseases and disorders, but rather enable us to 
acquire new knowledge to more fully understand and ultimately 
control or defeat cancer, Parkinson's disease, diabetes, 
Alzheimer's disease, asthma, heart disease, and many others, as 
well as to prepare for what we hope will not happen, incidents 
of bioterrorism. The President's budget for fiscal year 2003 
provides the NIH and its institutes and centers with funding to 
deliver results on these promises.
    Mr. Chairman, my written statement has a number of 
important examples of NIH accomplishments and there are many 
others that I could mention. However, in the interest of time, 
I would like to summarize some of the activities based on our 
proposal, and they are related to the very practical things 
that talk about the number of research grants that we will be 
funding and how we go about doing that.
    We will fund the largest number of new and competing 
research grants that we have been ever able to fund and the 
largest total number as well. So, the research will progress. 
Areas will progress also in certain things we are studying, 
such as bioterrorism. We will use the contract mechanism. In 
addition, there will be expansion of the centers and some of 
our other activities.

                           prepared statement

    One important component that I think we should discuss is 
the fact that we have started the loan repayment program in 
fiscal year 2002, and we will double the number of contracts 
that we will provide to young physicians who want to do 
research and whose tuition, therefore, can be forgiven by these 
loan repayments. This, we think, is going to be a very, very 
important facet of what is going on.
    So, Mr. Chairman, I will conclude by saying my colleagues 
are also available to answer any questions.
    [The statements follow:]
               Prepared Statement of Dr. Ruth Kirschstein
    Mr. Chairman and Members of the Committee: I am Ruth Kirschstein, 
the Acting Director of the National Institutes of Health. I am honored 
to appear before the Subcommittee, representing my colleagues, the 
Directors of the 27 Institutes and Centers, each of whom has presented 
a written statement related to the President's budget proposal for 
fiscal year 2003. I shall present an overview of the total 
Administration budget for the NIH for fiscal year 2003.
    The Congress, the Administration, and the American public have been 
committed to doubling the funding of the NIH by fiscal year 2003. 
Although scientific accomplishments often take years to produce new 
treatments or diagnostic tools, the confluence of generous Budgets and 
extraordinary scientific opportunity has already begun to yield amazing 
results. The current budget proposal of $27.3 billion, an increase of 
15.7 percent over fiscal year 2002, completes the original commitment, 
enables the NIH to continue to take advantage of the broader and deeper 
opportunities now at hand to understand diseases and improve health, 
and opens the way for future progress in medical research.
    Opportunities truly are at hand. Some are general, benefitting 
research in many areas, and others are specific, dealing with 
particular diseases and disorders. Among the general opportunities, the 
complete draft of the DNA sequence of the human genome is the best 
known of the new tools, helping scientists in many disciplines to 
understand how the human body works and what causes disease. But there 
are several other areas of investigation that are changing the way 
biomedical research is done. These include proteomics--the computer-
aided analysis of the patterns present in large sets of proteins (the 
products of our genes) with the goal of understanding their function; 
combinatorial chemistry--a new way to generate large libraries of 
molecules that can be screened for use as drugs; and new, advanced 
imaging techniques that enable scientists to see within the human body 
and within its cells as various functions are carried out. There are, 
as well, new and expanded opportunities in therapeutics and prevention 
that we will be undertaking. These efforts do not eclipse research into 
specific diseases and disorders, but enable us to acquire new knowledge 
to more fully understand--and ultimately to control or defeat--cancer, 
Parkinson's disease, diabetes, Alzheimer's disease, asthma, and many 
other diseases, and prepare for incidents of bioterrorism. The 
President's budget for fiscal year 2003 provides the NIH and its 
Institutes and Centers with funding to deliver results on these 
promises, some of which I will now describe.
                            cancer research
    The fiscal year 2003 budget request provides an estimated $5.5 
billion in cancer-related research. By building upon past successes, we 
will accelerate the pace of cancer research and improve our ability to 
find better ways to help those whose lives are touched by cancer.
    Last month, for example, scientists from the National Cancer 
Institute (NCI) and the
    Food and Drug Administration (FDA) reported using proteins found in 
blood serum to detect cancer of the ovary, even at early stages. This 
new diagnostic method, built on the concept of proteomics, has great 
promise. Usually patients with ovarian cancer are diagnosed at a late 
stage and have only a 20 percent chance, or even less, of survival 
after five years. Preliminary studies of this new test are able to 
identify correctly, in a small number of patients, all of those with 
ovarian cancer who were at stage I of the disease. Not only is this 
test simple and accurate, requiring only a blood sample, but the 
approach has exciting potential for diagnosing many other cancers, as 
well as other diseases.
    Last May, as discussed at last year's hearings, another new 
concept--the design of drugs based on understanding the molecular 
anatomy of tumor cells--produced Gleevec, which is taken as a pill to 
treat a chronic type of leukemia that usually strikes middle-aged or 
older people. While studies continue with Gleevec in patients with this 
type of leukemia, it is also being tested for those with other cancers, 
including those that attack the brain and nervous system, the soft-
tissues such as muscle, and the gastrointestinal tract. An intensive 
effort is now underway to identify other cancer-causing proteins in 
other tumors so that drugs can be specifically designed to block their 
action.
    With the increases requested for fiscal year 2003, the NIH will 
provide support to answer critical questions about controlling, 
preventing and screening for cancer. For example, the NIH will conduct 
the largest prevention study ever to determine if vitamin E and 
selenium can protect against prostate cancer. The study will include 
32,400 men recruited through more than 400 sites in the United States, 
Puerto Rico, and Canada and is expected to take 12 years to complete. 
The NIH will also launch the first multicenter study to compare digital 
mammography to standard mammography for the detection of breast cancer. 
Digital mammographic technology provides images at higher resolution 
than standard mammography, and investigators want to determine if it 
can detect breast cancer more accurately.
    These are just a few examples of compelling new avenues for cancer 
research. While increases for the National Cancer Institute constitute 
over 80 percent of the proposed increase for cancer research, many 
other NIH Institutes and Centers will also contribute to the emphasis 
placed on cancer. For example, the National Center for Complementary 
and Alternative Medicine will study the integration of complementary 
and alternative therapies into more conventional treatments for cancer, 
the National Institute of Neurological Disorders and Stroke will 
emphasize sophisticated ways to improve the treatment of brain tumors, 
and the National Institute on Deafness and Other Communication 
Disorders will continue its research on new therapies to treat patients 
with head and neck cancers, while preserving their ability to speak.
                         bioterrorism research
    The threat of bioterrorism became a reality for the United States 
with the intentional delivery of anthrax spores through the mail, 
demonstrating our vulnerability and giving impetus to research to 
protect the public health. A number of government agencies have 
specific roles to play in protecting the public from bioterrorism; the 
role of the NIH is to conduct research to learn more about the viruses 
and bacteria that can be used in bioterrorism and about how the body 
responds to such assaults, and to develop counter-measures, such as 
diagnostic tests, vaccines, and treatments.
    The fiscal year 2003 budget request for bioterrorism-related 
research is $1.75 billion, an increase of $1.47 billion over fiscal 
year 2002. Most of these funds will go to the National Institute of 
Allergy and Infectious Diseases (NIAID), which already has a remarkable 
track record for success in this area of science. For example, in 
November 2001, scientists funded by the NIAID reported a new 
understanding about the toxins released by the anthrax bacterium, 
providing leads for potential new therapies. The NIAID is now 
completing a study aimed at learning whether use of the current 
smallpox vaccine, if diluted to stretch the existing supply, could 
still convey protection; results are scheduled to be reported soon. 
Meanwhile, the NIAID continues to work on a new, safer smallpox vaccine 
as well as a new vaccine to protect against anthrax. In addition, 
members of the NIAID intramural research program have demonstrated the 
efficacy of an Ebola vaccine in a monkey model. This vaccine will soon 
enter early safety trials in humans. And as we all remember, Mr. 
Chairman, when HIV/AIDS was first recognized as an epidemic some 20 
years ago, the NIAID took the lead at the NIH in swiftly mobilizing key 
stakeholders, planning research, providing resources, and translating 
basic findings into clinical practice.
    The NIAID has already convened a Blue Ribbon Panel of experts to 
review a strategic plan prepared by NIAID to guide the effort against 
bioterrorism. Some elements of the plan include establishing Extramural 
Centers of Excellence for Bioterrorism and Emerging Infections around 
the country so that scientists can have the tools and the secure 
facilities they need to conduct their work; continuing the study of the 
genetics of microbes that might be used in bioterrorism; launching 
challenge grants to industry and academic centers to attract their 
long-term interest; and supporting clinical trials of next-generation 
vaccines and therapeutic agents. The Nation's research enterprise is 
alert to this urgent need and eager to expand its efforts.
                   translating research into practice
    Clinical research, or studies involving patients and healthy 
volunteers, is the crucial step for translating basic science into 
better health for everyone. Our new age of medical research--
capitalizing on the Human Genome Project, the new field of proteomics, 
and advanced imaging technology--is providing unprecedented 
opportunities to design new ways to prevent, diagnose, and treat many 
diseases and conditions. But we will not realize the promise of new 
knowledge and new techniques without clinical research--and well-
trained clinical researchers--to bring findings from the laboratory to 
the patient. Our clinical trials have become wider-ranging, more 
representative of the population, and larger and they must become even 
more so in the future. In fiscal year 2003, the NIH will place 
additional emphasis on clinical research.
    For example, the National Institute on Aging (NIA) is accelerating 
research to slow the progress of Alzheimer's disease, to delay its 
onset, and to prevent the disease entirely. Already scientists have 
identified new targets to block directly the effects of the disease in 
the brain and are developing imaging and other tests to diagnose people 
in the early stages of the disease. Major prevention trials are under 
way using vitamin E and the drug Aricept, as well as folate, anti-
inflammatory drugs, and estrogen. The NIA is also funding a five-year 
initiative to speed the development of immune-based approaches and 
other novel strategies for preventing Alzheimer's disease.
    Another example: The National Institute of Neurological Disorders 
and Stroke (NINDS) will support a network of acute stroke centers 
across the United States, each capable of treating patients rapidly and 
serving as a clinical laboratory for scientific studies related to 
acute stroke, including tests of new drugs. The first effective 
treatment for acute ischemic stroke, the drug TPA, is only partly 
effective and cannot be used for all types of strokes. The NINDS has 
demonstrated the potential of others drugs for stroke in laboratory 
studies, and translating those findings into practical treatments would 
be enhanced by state-of-the-art centers for stroke.
    The potential of such clinical studies to improve the Nation's 
health has made even more urgent our need to recruit and retain highly 
qualified health professionals as clinical investigators. The NIH plans 
to expand its current Extramural Loan Repayment Program for Clinical 
Researchers, which provides for repaying the educational loans of 
qualified health professionals who agree to conduct clinical research. 
The fiscal year 2003 President's budget request doubles this program by 
providing $28 million over the fiscal year 2002 estimate.
                     research on disease prevention
    Research to prevent disease has been a major aspect of the NIH's 
mission, and we plan to launch a number of prevention initiatives in 
fiscal year 2003, while continuing others started earlier. Although 
considered a traditional approach, vaccines are effective forms of 
prevention, and today's vaccine research takes advantage of the most 
up-to-date knowledge and technology. NIH scientists and NIH-supported 
scientists are producing and testing vaccines aimed at preventing 
otitis media (which causes ear infection and sometimes hearing loss in 
children), Ebola (an often fatal disease caused by a virus found in 
parts of Africa), dengue fever (a viral disease spread by mosquitoes), 
HIV/AIDS, Leishmania (a devastating disease spread by sandflies in the 
subtropics), and malaria. Just last month, scientists at the National 
Institute of Child Health and Human Development announced the 
development of the first vaccine against Staphylococcus aureus (often 
called ``staph''), a major cause of infection and death in hospital 
patients.
    Also last month, scientists supported by the National Institute of 
Diabetes and Digestive and Kidney Diseases (NIDDK) reported the results 
of the Diabetes Prevention Program. The research conveys a powerful 
message of hope to individuals at risk for type 2 diabetes, a life-
threatening disease that has been increasing in this country parallel 
to the increase in obesity. The study showed that millions of 
overweight Americans at high risk for type 2 diabetes can delay and 
possibly prevent the disease with improved diet and moderate exercise. 
The same study found that the oral diabetes drug metformin also reduces 
the risk of type 2 diabetes, but not as effectively as lifestyle 
changes.
    We know that lifestyle patterns contribute greatly to the risk of 
developing type 2 diabetes. Thus, the great challenge now is to 
identify those at risk for type 2 diabetes and encourage them to act on 
the findings of the study. We are prepared to do that since our 
legislative authority and the traditional mission at the NIH has always 
included both disseminating the results of research and communicating 
general health information directly to health care professionals, 
patients, and the public. In cooperation with the Centers for Disease 
Control and Prevention (CDC), the NIH has already launched the National 
Diabetes Education Program to increase public awareness of diabetes, 
its risk factors, and strategies for preventing diabetes and its 
complications.
                  other features of the budget request
    Mr. Chairman, this is only a brief summary of our emphasis areas 
now and in fiscal year 2003. Our research portfolio is so broad, deep, 
and complex that, even in many more pages, I would still not be able to 
give a complete picture. Yet I am confident that the fiscal year 2003 
budget request enables the NIH to sustain momentum of research already 
in progress, to open the way to new research opportunities in the 
coming fiscal year and in years to come, and to augment both our 
research infrastructure and our human capital. In fiscal year 2003 the 
President's budget request would fund a total of 9,854 new, competing 
research grants, or a total of 38,038 awards, the highest annual total 
ever. Intramural research increases by 15 percent over the fiscal year 
2002 estimate, with most Institutes and Centers increasing by 9 
percent, while the NIAID and the NCI increase by 52 percent and 11 
percent respectively, as a result of the large increases in 
bioterrorism and cancer research. The Research Management and Support 
(RMS) funds are vital, if the NIH is to manage its programs and 
resources efficiently and effectively. The RMS funds are used by the 
NIH to sustain, guide, and monitor extramural and intramural research 
activities. This funding increases by 17 percent in total in fiscal 
year 2003. All Institutes and Centers except the NIAID and the NCI 
increase by 9 percent over the fiscal year 2002 estimate. The NCI and, 
in particular, the NIAID are requesting increased resources in RMS 
funding to effectively manage their large program increases.
    Mr. Chairman, this concludes my opening statement. I would be glad 
to respond to any questions.
                                 ______
                                 
           Prepared Statement of Dr. Andrew C. von Eschenbach
    Mr. Chairman and Members of the Subcommittee: I am Dr. Andrew von 
Eschenbach, the Director of the National Cancer Institute (NCI). I am 
pleased to appear before you to discuss some of the activities 
supported by the NCI and to present the President's budget proposal for 
fiscal year 2003. The significant budget increases over the past 
several years have allowed the NCI to continue on an aggressive path of 
discovery in cancer research. This path is aimed at the development of 
interventions that will continue to reduce the suffering and death 
caused by cancer.
    Over the past 30 years, our nation has invested a great deal of its 
resources in cancer research. It is an investment that has enabled the 
NCI to conduct research and to support thousands of scientists 
throughout this country. It is an investment that has sustained 
promising research and more recently, data-sharing infrastructures and 
multidisciplinary collaborations. And it is an investment that is now 
paying significant scientific dividends. Where major breakthroughs were 
once measured in years or even decades, we are now moving forward at 
record pace. Every day, we uncover yet another footprint in the genetic 
and molecular process by which a cell becomes malignant, grows 
uncontrolled, invades, metastasizes, and ultimately kills.
    While our knowledge of this complex process is still rudimentary, 
the path ahead is now clear and greater dividends are within reach. 
Even with our just emerging picture of cancer, we are exploiting this 
knowledge to devise better imaging and diagnostic tools and design new 
interventions to treat and prevent this devastating disease.
    We stand on the threshold of a biomedical revolution, where 
multidisciplinary collaboration will translate the breakthroughs of 
basic research swiftly from the lab to the bedside. One recent example 
of success emerged in the fight against ovarian cancer, one of the 
deadliest cancers for women, in part due to lack of effective screening 
methods. A sophisticated computer-based screening tool has shown the 
ability to recognize protein profiles in the blood from women with 
diagnosed ovarian cancer and uses the information to detect new cancer 
cases in women at an early stage of disease. Current discovery of such 
molecular signatures of cancer may also make possible powerful, new 
tools for detecting cancer and its recurrence.
    The elucidation of the biology of cancer is a scientific pursuit. 
But the eradication of cancer is a human experience. The ultimate goal 
of the people of the National Cancer Institute is saving lives and 
improving the quality of life among cancer patients.
                             cancer trends
    Five years ago, NCI initiated an annual report to the Nation on the 
burden of cancer. This report is developed in collaboration with the 
American Cancer Society (ACS), the North American Association of 
Central Cancer Registries, the Centers for Disease Control and 
Prevention and its National Center for Health Statistics. Based on 
statistics from these sources, we are continuing to see encouraging 
overall trends, including continued decline in the rate of new cancer 
cases and cancer deaths.
    Today, we can successfully treat or increase life expectancy for 
more than half of all cancer patients. We now have more options for 
prevention, including chemoprevention such as tamoxifen for breast 
cancer, and are developing more evidence-based interventions for cancer 
control. Adult smoking is down dramatically from the 1960s for men and 
the increase in smoking among women has finally reached a plateau. The 
latest statistics from the Report to the Nation that we will release 
this spring also show that while breast cancer incidence continues to 
rise (due to increase in early stage disease), overall breast cancer 
deaths continue to decline. And for the first time ever, we are seeing 
a small, but significant decline in breast cancer mortality among 
African-American women.
    Yet even as these trends give rise to hope, they must also steel 
our resolve to use the fruits of discovery to the further benefit of 
patients. That's because we know that this year, based on ACS 
estimates, over 1.2 million Americans will be diagnosed with cancer 
this year, and about 550,000 Americans are expected to this disease, 
more than 1,500 people a day. The number of new cancer cases is still 
rising for some cancers such as esophageal, liver, melanoma, and non-
Hodgkin's lymphoma. And there remains a disparate burden of cancer 
experienced by America's undeserved population. Another trend indicates 
that youth smoking continues to rise except in states with vigorous 
tobacco control programs. NIH estimated the overall costs for cancer to 
be $156.7 billion in the year 2001.
    Of course, behind these numbers lies the real and human face of 
cancer. It is the face of a child with retinoblastoma whose only hope 
is radical surgery that will leave him cured but permanently blind. It 
is the face of a young woman living with the fear that her breast 
cancer will recur. And it is the face of a grandfather whose lung 
cancer has shattered his dream of spending his golden years with his 
grandchildren.
    These faces demand urgency. It is an urgency that will be at the 
forefront of NCI's continued efforts to translate research quickly and 
safely to the cancer patient. I have highlighted several activities 
that illustrate NCI's accelerated approach to scientific discovery.
                     highlights in cancer research
    We understand that improved technology for early detection and 
diagnosis is critically needed for cancer to become a rare disease. For 
this reason, imaging research supported by NCI is advancing on several 
fronts. Now, with the recent reawakening of debate on mammography 
guidelines, it is more important than ever to redouble our efforts in 
this area. In addition to assuring women that the weight of the 
evidence still shows that mammography saves lives, NCI is accelerating 
research into better screening tools. Besides efforts to improve 
conventional and digital X-ray mammography, NCI supports research for 
several other technologies such as magnetic resonance imaging (MRI), 
ultrasonography, positron emission tomography (PET), and single photon 
emission computed tomography (SPECT). Already, with these technologies, 
scientists can ``see'' biological processes taking place in living 
tissues such as blood flow, oxygen consumption, and glucose metabolism.
    A major research effort is also under way to create molecular 
imaging technologies that can noninvasively detect and display the 
actual molecular events taking place in the body. Imaging technology to 
detect cancer recurrence using flurodeoxyglucose (FDG) PET scans and 
dynamic MRI for functional therapy monitoring are among the 
sophisticated imaging techniques currently being investigated.
    In addition, several PET studies are in progress for the 
evaluation, staging and monitoring of therapy using PET for woman with 
breast cancer. In a large clinical trial from the University of 
Pennsylvania, doctors are incorporating dedicated breast PET into the 
standard diagnostic regimen for women with breast cancer.
    On the therapeutic front, researchers are making headway against 
certain forms of leukemia, where an abnormal protein complex called 
bcr-abl forms inside the cell and stimulates uncontrolled growth. A 
search for agents that would interfere with bcr-abl led to the 
identification of STI-571, later renamed imatinib mesylate 
(Gleevec<Register>). In clinical trials with this drug, more than 50 
percent of patients with myeloid blast crisis responded well as 
measured by a decrease in the abnormal leukemic blood cells. 
Gleevec<Register> has moved swiftly from clinical trials to the cancer 
centers and is now available as treatment for patients with chronic 
myelogenous leukemia (CML). This drug is now being evaluated in the 
treatment of ovarian, certain types of brain cancer, as well as a very 
rare form of stomach cancer and prostate cancer.
    In the area of prevention, research is pointing to certain agents 
that are capable to changing a person's risk for cancer. When basic 
research establishes a biological basis for an intervention, trials 
serve to test the hypothesis. For example, the Selenium and Vitamin E 
Cancer Prevention Trial (SELECT) will determine if seven or more years 
of daily supplements of selenium and/or vitamin E reduces the number of 
new prostate cancers diagnosed in healthy men. In addition, a Study of 
Tamoxifen and Raloxifene (STAR) will determine whether the osteoporosis 
drug raloxifene has equivalent breast cancer risk reduction benefits 
with reduced risk of side effects as compared to tamoxifen.
    While the fast pace of discovery from these and other areas is 
welcome, the volume of data generated can often be overwelming to the 
research community. To address this, NCI supports a fully integrated 
cancer biology approach to discovery through a discipline called 
bioinformatics. NCI programs such as the Cancer Genome Anatomy Project 
(CGAP), the Proteomics Initiative, Mouse Models Program, the Drug 
Discovery Program produce information and enable the research community 
nationwide to access these Web-based data sets that serve as tools for 
collaboration and scholarly discovery. This ensures that the analyses 
and interpretation of data across disciplines proceed in parallel and 
synergistically so that discovery in one system informs research in the 
other.
    Bioinformatics enables researchers in CGAP to build, analyze, and 
interpret databases of genes expressed in cancer cells and of single 
nucleotide polymorphisms (SNPs), important markers for cancer risk-
related genes. In proteomics, the ovarian detection tool that I 
mentioned earlier has demonstrated the power of bioinformatics to 
detect invisible patterns of disease. And in drug discovery, 
bioinformatics ensures that the most promising targets identified in 
the extramural research community can be exploited using the modern 
tools of cell-based drug analysis and gene-based high-throughput 
screening.
                          maintaining momentum
    Much of the research I've highlighted is being conceived and 
conducted by scientists in laboratories and clinics across the country 
and at NCI--building on the wellspring of scientific discovery. Our 
goal for fiscal year 2003 is to speed the rate of discovery and 
translation of those discoveries to cancer patients by expanding and 
facilitating researchers' access to resources and new technologies. To 
understand the basic processes of cancer and translate this research 
into clinical practice, we must link researchers with the resources and 
technologies they need while encouraging multi-disciplinary 
collaboration.
    NCI will continue to create and sustain research infrastructures 
for collaboration, technology support and development, and access to 
resources that enable multiple scientific disciplines to address the 
complex questions before us. We will achieve this by expanding our 
nationwide infrastructure of cancer centers, centers of research 
excellence, networks, and consortia in ways that promote and facilitate 
complex scientific interactions and the sharing of information and 
resources.
    Two important programs deserving of special mention are Rapid 
Access to Intervention Development (RAID) and Rapid Access to 
Preventive Intervention Development (RAPID). These programs expedite 
new agent development on the part of independent investigators in 
universities or biotechnology companies by making NCI's preclinical 
drug development resources and expertise available for moving novel 
molecules toward clinical trials.
    Also key to our multidisciplinary approach are Specialized Programs 
of Research Excellence (SPOREs). Several major academic centers of 
excellence are now working on a wide range of scientific approaches to 
translational research--that is, focusing on the biology of cancer 
specifically as it may inform development of new treatments. NCI will 
expand the use of SPOREs in the coming year.
    We will continue our efforts to ensure that the clinical trials 
program addresses the most important medical and scientific questions 
in cancer treatment and prevention quickly and effectively through 
state-of-the-art clinical trials that are broadly accessible to cancer 
patients, populations at risk for cancer, and the physicians who care 
for them. Despite major advances in our understanding of tumor biology 
and potential molecular targets for cancer prevention and treatment, 
our capacity to apply and test these findings in clinical settings has 
not kept pace. The NCI will invest more resources in developing and 
testing new therapies and increasing access to and participation in 
clinical trials.
    We will also expand surveillance data systems, methods, 
communications, and training to improve capacity for monitoring 
progress in cancer control and for exploring potential causes of cancer 
nationally and among diverse, underserved populations.
    NCI is also launching research to improve the quality of cancer 
care by strengthening the information base for cancer care decision 
making. Researchers must better understand what constitutes quality 
cancer care, with an emphasis on the patient's perspective; identify 
geographic, racial/ethnic, and other disparities in who receives 
quality care; and strengthen the scientific basis for selecting 
appropriate interventions.
    Finally, to sustain new ideas, we will continue to nurture and 
develop new scientists. To deliver new biology-based interventions, we 
must educate and train capable physicians. That's why NCI will continue 
to expand its efforts to design and implement opportunities for 
scientists at all career levels to meet the challenge of building a 
stable, diverse cadre of basic, clinical, behavioral, and population 
scientists trained to work together effectively and use the most 
advanced technologies.
                                closing
    NCI's mission is broad and our approach is necessarily ambitious, 
because, while our primary role and our expertise is research, our 
focus and sense of urgency is in serving the American people, the 
country's cancer patients and their families, friends and neighbors.
    As director of NCI, a doctor, an investigator, and a cancer 
survivor, I share the urgency of America's cancer patients and I am 
confident that the efforts I've highlighted and many additional 
activities will bring us closer to the ending the death and suffering 
caused by this disease.
                         budget statement/gpra
    I am pleased to present the President's budget request for the 
National Cancer Institute for fiscal year 2003, a sum of 
$4,724,505,000, which reflects an increase of $514,784,000 over the 
comparable fiscal year 2002 appropriation.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compares to our fiscal year 2001 results to the goals in 
our fiscal year 2001 performance plan.
                                 ______
                                 
                Prepared Statement of Dr. Claude Lenfant
    Mr. Chairman and Members of the Committee: I am pleased to address 
this Committee once again on behalf of the National Heart, Lung, and 
Blood Institute (NHLBI) and, in particular, to thank the Committee for 
its longstanding and generous support of the Institute's research 
programs. Let me begin by commenting on where we stand with regard to 
diseases of importance to the NHLBI, and then move on to describe 
several promising new research directions.
                           burden of disease
    The first chart below, which summarizes mortality during the most 
recent 10 years for which data are available, provides welcome 
reassurance that the decline in the death rate for cardiovascular 
diseases is continuing the trend that began several decades ago. I 
believe it is fair to say that medical science has made more progress 
in this area than in any of the other major disease categories. This 
reflects the wisdom of our great investment in research, which has 
yielded unprecedented advances in treatment, both medical and surgical, 
and widespread attention by the public and the medical establishment to 
addressing risk factors such as hypertension and blood cholesterol. 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Nonetheless, it is equally and starkly apparent that we in this 
country are far more likely to die of cardiovascular diseases than of 
any other cause.
    Of equal or perhaps mor significance is the societal burden of 
living with disease. One measure of this burden is time spent in the 
hospital. As the chart on the next page indicates, cardiovascular 
disease patients spend more than 30 million days per year in acute-care 
hospitals, and respiratory ailments are the second most common reason 
for hospitalization. Beyond the pain and suffering, the cost associated 
with these hospitalizations demands our attention.
    The enormous cost of treating diseases of concern to the NHLBI was 
also made apparent in a study published in the January 16, 2002, issue 
of the Journal of the American Medical Association. Reporting the 
results of a nationwide survey, the researchers identified medications 
that are most commonly taken. Fourteen of the top 21 prescription drugs 
address cardiovascular, lung, or blood problems. And, these data most 
assuredly understate the cost of treatment, given that many such drugs 
(e.g., beta blockers, statins) are underprescribed, and patients with 
limited financial resources are generally inclined to spend their money 
on medications that make them feel better (e.g., for menopausal 
symptoms, hay fever, arthritis pain, or depression) before they spend 
money on drugs to treat conditions such as hypertension and high 
cholesterol that, however threatening, produce no symptoms. 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                             basic research
    As always, basic research is one cornerstone of our effort to 
alleviate the burden of disease. In this arena, we have been able to 
capitalize on our budget increases by putting into place a number of 
activities that would have been impossible under other circumstances. 
An example is our Programs in Genomic Applications, which seek to 
maximize the fruits of the new information about the human genome in 
order to identify the causes of disease, determine who is susceptible 
to it, and tailor treatments and, possibly, cures to the individual.
    We are moving forward on other basic science fronts, based on 
recent scientific findings. For instance, we are stimulating research 
on cell-based therapy in the wake of astonishing discoveries that, 
contrary to everything we thought we knew before, cells of the heart 
and other organs are capable of regeneration. Examining hearts of 
people who had suffered fatal heart attacks, researchers found dividing 
cells in the area of the damaged heart muscle. Furthermore, doctors 
studying male patients who received heart transplants from female 
donors found evidence that male cells had somehow arisen and 
incorporated themselves into the donated heart tissue. If we could find 
a way to harness and direct the body's ability to regenerate cells, we 
would have an entirely new approach to therapy for diseases that are 
currently irreversible, such as heart failure.
    Accumulating evidence suggests that inflammation--the body's 
normal, protective response to injury or infection--may be at the core 
of many chronic degenerative diseases. Its role in asthma has been well 
established, and reports that blood levels of a substance called C-
reactive protein, a marker of inflammatory activity, are correlated 
with risk of heart attack and stroke suggest a role in atherosclerosis 
as well. Understanding the delicate balancing act of the immune system 
could pave the way for new preventive and therapeutic strategies. 
Related work from a number of laboratories has found that exposure to a 
variety of infectious agents, both viral and bacterial, is associated 
with development of vascular disease and of chronic obstructive 
pulmonary disease. We are vigorously pursuing basic research to 
elucidate the mechanisms underlying these phenomena in the expectation 
that it may ultimately lead to new approaches, perhaps even vaccines, 
to prevent disease.
    The quest to develop gene therapies made a significant step forward 
this year. Researchers used--HIV the AIDS-causing virus that is 
notorious for its ability to find its way into the nuclei of cells--to 
deliver a therapeutic gene to the bone marrow of mice with sickle cell 
disease. A cure resulted. Before such a therapy can be attempted in 
human patients, more basic research is needed to establish its safety 
and develop a non-toxic way to rid the body of sickled cells--goals 
that we are supporting strongly.
                           clinical research
    As we pursue these and other basic research avenues, we are working 
to strengthen clinical research to ensure that findings from the 
laboratory have a swift and effective impact on patient care. Our 
research centers program is being reconfigured as Specialized Centers 
of Clinically Oriented Research (SCCORs) to sharpen its focus on the 
patient. We have made competitive funds available for investigators 
involved in SCCORs, clinical networks, and multicenter clinical trials 
to develop skills--development programs to enhance the training and 
career development of clinical investigators. We have made known to the 
community our strong interest in supporting Mentored Patient-Oriented 
Research Career Development Awards and Midcareer Investigator Awards in 
Patient-Oriented Research. And, we have worked with other NIH 
components to craft loan repayment programs that will encourage 
clinically trained individuals to funnel their talents into research.
                         education and outreach
    To maximize the impact of research findings on the people whom we 
serve, the NHLBI is strongly committed to educating patients, health 
professionals, and the public about disease awareness, diagnosis, 
treatment, and prevention. The National Asthma Education and Prevention 
Program (NAEPP), for example, has developed and disseminated guidelines 
for asthma diagnosis and management; produced practical guides for 
patients, emergency department personnel, pharmacists, nurses, and 
schools; conducted media campaigns to promote asthma awareness among 
the general public and to encourage undiagnosed patients to seek care; 
and worked with communities to develop coalitions to address local 
asthma issues. The NAEPP serves as a focal point for coordination of 
all federal activities related to asthma, and has developed a plan to 
enhance collaboration among relevant agencies. And, finally, the impact 
of the NAEPP is being felt worldwide through the Global Initiative on 
Asthma, conducted in partnership with the World Health Organization.
                     amount of president's request
    I am pleased to present the President's budget request for the 
NHLBI for fiscal year 2003, a sum of $2,798,178,000, which reflects an 
increase of $216,618,000 over the comparable fiscal year 2002 current 
estimate.
                 government performance and results act
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's third annual performance 
report which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    I would be pleased to respond to any questions that the Committee 
may have.
                                 ______
                                 
              Prepared Statement of Dr. Lawrence A. Tabak
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Dental and 
Craniofacial Research (NIDCR) for fiscal year 2003, a sum of 
$374,319,000, which reflects an increase of $29,016,000 million over 
the comparable fiscal year 2002 appropriation. The NIH budget request 
includes the performance information required by the Government 
Performance and Results Act (GPRA) of 1993. Prominent in the 
performance data is NIH's second annual performance report, which 
compared our fiscal year 2001 results to the goals in our fiscal year 
2001 performance plan.
                   improving the nation's oral health
    Over the past 50 years, our nation's investment in dental, oral, 
and craniofacial research has yielded tremendous advances in American 
public health. At this time when our nation is engaged in a war, it is 
interesting to reflect back to the World War II era when many 
patriotic, able-bodied young men were rejected from military service 
because they lacked the mandatory six opposing teeth to enlist in the 
military. In hopes of countering this public health problem, Congress 
established in 1948 the then National Institute of Dental Research to 
help eradicate dental decay and tooth loss in America. Today, NIDCR and 
its partners in public health reflect with pride upon the fact that few 
young men and women lose teeth. In addition, 70 percent of older 
Americans have not lost their teeth, compared to 54 percent just 20 
years ago.
               commitment to reducing health disparities
    The NIDCR's mission to improve the nation's oral health remains far 
from finished, however. One reason is the sobering fact that many of 
the nation's oral health advances have yet to adequately benefit our 
underserved populations. Specifically, there is a clear and compelling 
need to push forward and reduce the higher incidence of oral cancer, 
gum disease, and tooth decay among the underprivileged in our society. 
The NIDCR remains firmly committed to forwarding this effort and 
pursuing it to its rightful conclusion. As a first step, NIDCR, in 
collaboration with the National Center for Minority Health and Health 
Disparities, has funded five Centers for Research to Reduce Oral Health 
Disparities in Boston, New York, San Francisco, Seattle, and Detroit. 
Another large study has been funded to examine the underlying causes of 
oral health disparities in rural West Virginia. This multi-year 
investigation will focus on the unusually high incidence of children 
born in this region with cleft lip and palate. The hope is that, with 
inexpensive dietary interventions during pregnancy, more mothers will 
give birth to babies free of this socially stigmatizing, expensive-to-
treat problem.
           unprecedented opportunity for scientific discovery
    The NIDCR leadership also recognizes that scientists today truly 
stand on the threshold of an unprecedented ``Golden Age'' in biology. 
The recent completion of the Human Genome Project, in tandem with the 
emergence of more powerful research technologies in the laboratory, are 
allowing scientists to catalogue with encyclopedic comprehensiveness 
the actual genes, proteins, and protein networks that power our cells. 
Such studies, an impossibility just a few years ago, have opened a 
valuable window into the genetic programs of some of the most complex 
developmental and disease processes involving oral and craniofacial 
tissues.
         tmj disorders: building the scientific infrastructure
    Given the tremendous opportunity that now exists for fundamental 
discovery in biomedicine, NIDCR has targeted as one of its high-
priority research areas for fiscal year 2003 a group of conditions 
collectively known as temporomandibular joint (TMJ) disorders. These 
disorders affect the joint that connects the lower jaw (mandible) to 
the skull and the surrounding muscles that are used to chew and open 
the mouth. An estimated 5 to 12 percent of Americans report having pain 
associated with the temporomandibular joint. Studies suggest that TMJ 
disorders may be as much as two times more common in women than men.
    By investing in this new initiative, the Institute plans to create 
the needed research infrastructure to allow multi-disciplinary teams of 
scientists to more rapidly and systematically tease out the molecular 
and physiological basis of these conditions. Only then can rational and 
targeted treatment approaches be devised to help control or alleviate 
the chronic pain and dysfunction that people with these conditions 
confront on a daily basis.
    To begin building the needed research infrastructure, NIDCR plans 
to establish the first registry for people with TMJ disorders. The 
registry will help track the incidence and natural history of these 
conditions, a longstanding need in the field. The NIDCR also will make 
a concerted effort to identify biomarkers--genes, proteins, or even 
protein networks--that are adversely affected by TMJ disorders. Through 
this research, the Institute hopes to lay the intellectual foundation 
for the development of tests that generate meaningful, telltale 
diagnostic or prognostic information for doctors and patients. The 
Institute also will invest in the development of animal models that 
closely mimic TMJ conditions, providing an important scientific tool to 
test emerging hypotheses as the research progresses.
                    relieving acute and chronic pain
    One of the great challenges today in medicine is the management of 
pain. Yet, because most people experience pain differently, its study 
can be a lot like trying to analyze multiple moving targets at once. 
Among the variables involved in the pain process are: age, immune 
function, endocrine and neural activity, genetics, stress, 
psychological state, gender, and even cultural background.
    Despite the inherent complexity of their work, NIDCR scientists and 
grantees continue to make progress in understanding the dynamics of 
pain and how to effectively control it in dental care and for pain 
sufferers in general. Recently, for example, NIDCR researchers used 
positron emission tomography (PET) to image the brain's chemical 
activity while human volunteers received a stimulus mimicking the 
chronic pain of temporomandibular joint disorders. This marked the 
first time ever that scientists had non-invasively analyzed sustained 
pain, while also (1) simultaneously monitoring brain scans of a key 
neurochemical system and (2) recording the self-reported pain ratings 
of human participants.
    The NIDCR scientists found that after experiencing pain in the jaw 
muscles for 20 minutes, the volunteers had a surge in the release of 
natural opioids, part of the brain's painkilling system, and a 
concomitant drop in pain and pain-related emotions. But, most 
significantly, the researchers discovered a major variation among 
volunteers in the baseline and pain-induced levels of naturally 
occurring opioids. Interestingly, when comparing placebo and pain-
inducing conditions, the activation of the anti-pain response was 
dramatic in some volunteers, while in others it was much less 
pronounced. Those who had the greatest change tended to report the 
lowest experience of pain, both in its sensory and emotional aspects.
    This study provides new insights into the importance of the body's 
natural painkiller system and the reasons why each of us experiences 
pain differently. The results also show how brain chemistry regulates 
sensory and emotional experiences. The findings may help researchers 
better understand prolonged pain and find more effective ways to 
relieve it.
          learning to regenerate oral and craniofacial tissues
    The physical complexity of the human head and face has captured the 
imagination of artists since the beginning of time. However, this 
exquisite complexity sometimes can be problematic for clinicians who 
must treat injuries, diseases, and genetic defects of the craniofacial 
region. A noted example is the relatively rare genetic disorder, 
ectodermal dysplasia (ED). Children born with ED often have malformed 
and missing teeth, meaning they must cope with the rigors of wearing 
dentures for a lifetime. Yet, if scientists could learn to trick the 
body into regrowing a full set of healthy teeth, the quality of life 
for these children would be greatly enhanced.
    The NIDCR leadership believes that the opportunity now exists to 
discover in a more rational, systematic manner how to effectively 
manipulate the body's developmental signals to regenerate oral and 
craniofacial tissues. To help forward this potentially high-yield 
research, the NIDCR plans to launch an initiative to develop 
biomimetic, tissue engineering, and stem cell approaches to restore 
craniofacial tissues. Specifically, the initiative will focus on 
learning how to repair and regenerate teeth, gums, and the bones that 
support these tissues; learning how to restore salivary gland function 
to help people with Sjogren's syndrome; and learning to develop 
diagnostic and treatment strategies for temporomandibular joint repair 
and restoration.
                   reducing the burden of oral cancer
    Most Americans have heard that early detection is often critical to 
beat cancer. Though this principle has been difficult to apply to some 
hard-to-access areas of the body, such as the pancreas and the ovaries, 
that is not the case for many oral cancers. Precancerous oral lesions 
are often visible to the eye and readily accessible for biopsy.
    Yet, according to American Cancer Society estimates, 7,400 
Americans will die this year--in most cases needlessly--from oral and 
pharyngeal cancer. That totals an estimated 74,000 Americans who will 
succumb to oral cancer during the decade. Thousands more will undergo 
multiple surgeries to remove advanced tumors and reconstruct their 
faces and oral cavities.
    What can be done to improve this needless public health problem? 
The NIDCR has invested in several approaches, starting with efforts to 
heighten public and professional awareness of oral cancers. NIDCR has 
funded an initiative to assess the rate of oral cancer in five states--
New York, North Carolina, Florida, Michigan, and Illinois. At the same 
time, this initiative will assess public and professional knowledge of 
oral cancer risk factors, while also documenting and evaluating the 
practices used to diagnose oral cancers among various health 
professions. Included in this research is an assessment of the 
important public health question: How likely is it that an American 
will receive an annual oral cancer examination from a healthcare 
provider? The data generated from this research will allow individual 
states to tailor intervention strategies to their specific demographic 
and professional needs. Already, based on the results of an earlier 
pilot project, Maryland has developed a targeted training program for 
its health professionals on how to examine patients for oral cancer and 
identify early, developing lesions.
    Second, NIDCR has invested in research to develop powerful new 
tests for the rapid diagnosis of oral cancer. The latter is an 
important point because, as with all cancer sites, abnormal lesions in 
the oral tissues can be difficult to characterize by simply staining 
and looking at them under a microscope. In fact, using current 
diagnostic tests, it is impossible to know whether a suspicious oral 
lesion indeed will turn cancerous. Neither is it possible to determine 
whether a cancer will grow rapidly or slowly. Since current diagnostic 
tests cannot read the so-called ``molecular signatures'' of biopsied 
tissue--information that would greatly increase diagnostic specificity.
    With the arrival of more powerful laboratory tools over the past 
decade, NIDCR scientists and grantees have helped to identify many 
molecular glitches that trigger oral cancer. In fact, the step-by-step 
progression model for oral cancer is among the most well developed in 
all of oncology. Given the tremendous potential for progress in the 
study of these deadly cancers, NIDCR has invested in powerful new 
molecular technologies that could yield improved diagnostic tests for 
oral cancers. Already, work is under way to develop a small computer 
chip--about the size of a quarter--that contains hundreds of genes 
associated with oral tumors and their metastasis. This chip, if 
validated, could offer a genetic sensor as an early warning system for 
a developing oral cancer.
    Work also is under way to design a related diagnostic chip that 
doctors one day could use to detect, in a matter of minutes, the 
abnormal activity of the very proteins that trigger oral cancers. Such 
a level of molecular and diagnostic specificity has been a longstanding 
goal of science, and the great promise of molecular medicine is now 
closer at hand than ever.
    With its longstanding commitment to scientific excellence, NIDCR 
will continue in coming years to support basic and clinical advances to 
improve the nation's oral health. This investment in the power of 
research represents not only hope for millions of Americans today, but 
improved health and quality of life for generations to come.
                                 ______
                                 
               Prepared Statement of Dr. Allen M. Spiegel
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Diabetes 
and Digestive and Kidney Diseases (NIDDK) for fiscal year 2003, a sum 
of $1,609,292,000, which reflects an increase of $138,477,000 over the 
comparable fiscal year 2002 appropriation. The NIH budget request 
includes the performance information required by the Government 
Performance and Results Act (GPRA) of 1993. Prominent in the 
performance data is NIH's second annual performance report, which 
compared our fiscal year 2001 results to the goals in our fiscal year 
2001 performance plan. I appreciate the opportunity to testify on 
behalf of the NIDDK, which supports research on a wide range of 
chronic, debilitating diseases. My testimony will highlight some 
examples of research progress, opportunities and plans.
                                diabetes
    In type 1 diabetes, immune system destruction of insulin-producing 
beta cells leads to lifelong dependence on insulin injections for 
survival. Last year, I told you that a team of researchers from 
Edmonton, Canada, had restored natural insulin production in a small 
number of patients by transplanting clusters of insulin-producing beta 
cells, called islets, taken from donor cadaver pancreases. This year, I 
am very pleased to report that scientists in a recently-established 
NIDDK intramural Transplantation and Autoimmunity Branch have achieved 
similar positive results in several patients. While we must closely 
monitor these patients to weigh the long-term effects of therapy, these 
early results are very encouraging. They provide an important ``proof 
of principle'' that islet transplantation can develop into a viable 
treatment for type 1 diabetes. The current shortage of cadaver 
pancreases, however, poses a beta-cell supply problem that must be 
solved if islet transplantation is to become a widely available 
treatment option. To address this problem, we have launched a 
multifaceted initiative to learn all we can about insulin-producing 
cells through a revolutionary ``Comprehensive Beta Cell Project.'' This 
project will reveal the intricacies of beta cell biology, and define 
the patterns of gene expression at every stage of beta cell development 
within the pancreas. These studies will help researchers find ways to 
generate an unlimited supply of new beta cells for transplantation 
therapy in type 1 diabetes. Moreover, they should help clarify the 
basis for the failure of beta cells to secrete adequate amounts of 
insulin in type 2 diabetes. As we strive to develop a cure for type 1 
diabetes, we are also working diligently to prevent new cases in those 
at risk. Building on expanded knowledge of the immune system, we have 
launched a nimble clinical TrialNet to ensure rapid pilot testing of 
innovative ways to prevent disease onset. In this way, the most 
promising approaches can be readily propelled into larger multi-center 
clinical trials.
    In parallel with our beta cell efforts, we are pursuing stem cell 
biology--not only as a source of islets for cell-based therapy of type 
1 diabetes, but also for its application to a host of other diseases, 
such as end stage liver disease, in which transplantation is curative, 
but inadequate organ supply limits the number of patients who can 
receive transplants. Our initiatives are consonant with extensive 
previous work on bone-marrow-derived and other adult stem cells, and 
with the President's decision to permit NIH funding of research using 
certain existing human embryonic stem-cell lines. With advice from an 
external strategic planning group, we have developed a linked series of 
initiatives and planned genomics projects to capitalize on the enormous 
promise that stem cells hold for restoring tissues and organs ravaged 
by disease. These initiatives will explore the versatility of 
progenitor stem cells to differentiate into virtually any specific cell 
type in the body.
    In type 2 diabetes, we are tackling a public health problem of 
epidemic proportions, fueled by the rising tide of obesity in the 
United States. The prevalence of diabetes in adults is eight percent, 
equating to about 16 million people.\1\ The number of Americans who 
have diabetes has increased 49 percent from 1990 to 2000 and is 
expected to burgeon further in the decade ahead.\2\ Compounding today's 
grim statistics are particularly troublesome reports that both type 2 
diabetes and obesity are on the rise in children and teens. This trend 
is especially strong among minority groups, such as Native Americans, 
Mexican Americans and African Americans, in whom adults are already 
disproportionately affected by both conditions. Thus, today's epidemic 
may well be the tip of an iceberg that will surface--with great menace 
for our health care system--as these newly affected youngsters grow 
into adulthood.
---------------------------------------------------------------------------
    \1\ Harris MI: Diabetes in America: epidemiology and scope of the 
problem. Diabetes Care 1998;21 suppl 3: C11-C14.
    \2\ Mokdad AH, Bowman BA, Ford ES, Vinicor F, Marks JS, Koplan JP. 
The continuing epidemics of obesity and diabetes in the United States. 
Journal of the American Medical Association 286:1195, 2001.
---------------------------------------------------------------------------
    Prevention is a critical means of halting the dual burden of 
diabetes and obesity. While treatments exist for those already 
affected, no strategy can be better than preventing, from the very 
outset, the interlinked health problems of type 2 diabetes and obesity. 
Impressive proof that prevention really works comes from our major 
clinical trial in type 2 diabetes, the Diabetes Prevention Program or 
DPP. Last year, I testified that we were nearing this trial's 
completion--hopeful of positive results. Today, I can report that the 
final results have far surpassed our hopes. So strikingly positive are 
the findings that we ended the trial one year ahead of schedule. The 
results were announced by Secretary Thompson at a press conference held 
at NIH on August 8, 2001, and reported in detail in The New England 
Journal of Medicine on February 7, 2002. With a lifestyle intervention 
consisting of only modest changes in diet and exercise, the development 
of type 2 diabetes was reduced by 58 percent in individuals at high 
risk for developing the disease. The beneficial effect of the lifestyle 
intervention applied across all racial, ethnic and age groups. Minority 
groups comprised 45 percent of the study population, and 20 percent 
were 60 years of age or older--thus demonstrating that this prevention 
strategy can be realistically applied to the diverse U.S. population. 
In another arm of the study, the diabetes medication metformin was also 
effective, reducing the development of diabetes by 31 percent, but the 
drug was effective only in younger and heavier individuals. Now, armed 
with the impressive results of the DPP, we must translate these 
successful prevention approaches to the 20 million Americans with 
impaired glucose tolerance who are at high risk for the disease--with 
emphasis on the 10 million at greatest risk. To this end, we are 
launching an initiative to develop cost-effective methods to identify 
those at high risk and to implement the lifestyle intervention on a 
wider scale. We are also supporting a network of centers to develop 
effective prevention strategies specifically targeting children at high 
risk for type 2 diabetes. At the same time, vigorous fundamental 
research provides a framework for combating obesity by providing 
insights into the processes regulating appetite and metabolism. 
Research on fat-cell hormones, such as the appetite-inhibiting hormone 
leptin, is proving that fat tissue is not a passive depot of energy, 
but an active participant in regulating metabolic processes. These 
findings may pave the way to the development of effective drugs to aid 
weight loss and prevent or reduce obesity. In addition, we will 
continue to support behavioral research and outcomes research with 
implications for public health policy--for example, the recent finding 
that breast feeding may help a mother prevent her child from becoming 
obese.
    For diabetes patients, the major killer is heart disease. Our 
National Diabetes Education Program has therefore launched a new 
campaign urging Americans to know their ``ABCs.'' The ``A'' stands for 
the hemoglobin ``A'' 1c test--an integrated measure of blood glucose 
levels. The ``B'' for blood pressure and the ``C'' for cholesterol 
levels emphasize important prevention strategies that are built on 
extensive research by the National Heart, Lung and Blood Institute. 
This ``ABCs'' program is designed to help reduce mortality from heart 
disease and stroke in patients with diabetes.
                           digestive diseases
    In digestive diseases research, I am pleased to announce the 
identification of the first gene that increases susceptibility to 
Crohn's disease, a debilitating form of inflammatory bowel disease or 
IBD. A new IBD Genetics Consortium will take full advantage of this 
discovery, and also speed the search for other culprit genes in this 
complex disease. Identification of novel susceptibility genes for 
Crohn's disease and ulcerative colitis should lead to improved 
diagnosis and treatments. We are convening a meeting on therapeutic 
endpoints for clinical trials in IBD to facilitate efficient testing of 
innovative therapies. We are also augmenting our clinical research 
efforts in liver disease with a planned consensus conference for 
hepatitis C treatment, a cohort study of adult-to-adult liver 
transplantation, and two clinical trial networks one for nonalcoholic 
steatohepatitis, a liver disease associated with insulin resistance and 
diabetes, and a second for biliary atresia, a serious pediatric 
disorder. We are developing plans for a hepatotoxicity network to apply 
advanced genomic methods to the serious problem of drug-induced liver 
injury.
                  kidney, urologic and blood diseases
    The incidence of end stage renal disease (ESRD) is increasing at an 
alarming rate with 300,000 patients currently on chronic dialysis and 
projections of 600,000 patients on dialysis by 2010.\3\ Only 31 percent 
of dialysis patients survive five years.\4\ We are taking multiple 
steps to address this problem. In addition to emphasizing primary 
prevention and effective treatment of diabetes--the cause of ESRD in 45 
percent of patients--we are establishing a new National Kidney Disease 
Education Program (NKDEP), which will initially target high risk 
groups. The NKDEP will promote early recognition of chronic kidney 
disease, and implementation of treatment measures proven to slow 
progression to ESRD. For example, our major clinical trial, the African 
American Study of Kidney Disease (AASK), showed conclusively that 
treatment with angiotensin converting enzyme (ACE) inhibitors is more 
effective than calcium channel blockers in preventing hypertensive 
kidney disease from progressing to ESRD in high- risk African 
Americans. We are also launching treatment trials for other important 
causes of ESRD such as polycystic kidney disease and focal segmental 
glomerulosclerosis. Mortality of patients with chronic renal 
insufficiency, primarily from heart disease, is extremely high. A new 
cohort study of patients with chronic renal insufficiency will help 
shed light on the causes of the cardiovascular mortality that affects 
these patients, and a trial that lowers homocysteine levels in the 
blood of kidney transplant patients will test whether this amino acid 
is responsible for increased heart disease in ESRD patients.
---------------------------------------------------------------------------
    \3\ U.S. Renal Data System.
    \4\ U.S. Renal Data System.
---------------------------------------------------------------------------
    Our portfolio of urology research continues to flourish. This 
research is uncovering important knowledge about how bacteria attach to 
the bladder surface, and how we can use these insights to combat 
antibiotic resistance in the treatment of urinary tract infections. 
Major clinical initiatives in bladder disorders include clinical 
research networks to speed the testing of therapies for urinary 
incontinence and interstitial cystitis. Scientific recommendations of 
an expert panel, the Bladder Research Progress Review Group, will help 
guide our program development. Results of our major multi-center trial 
on Medical Therapy of Prostatic Symptoms (MTOPS) are to be announced 
later this year. We intend to bolster prostate research by making 
available biopsy tissue obtained in MTOPS for study by a network of 
investigators. We will also be launching a trial of saw palmetto and 
other phytotherapies widely used for symptoms of prostate enlargement.
    In blood diseases, our strong portfolio in areas such as 
hematopoietic stem cell research and globin gene regulation is the 
basis for clinical advances. We are supporting studies on drugs to 
eliminate the toxic iron overload that is a byproduct of current 
treatment for Cooley's anemia. We are also supporting development of 
new non-invasive methods for accurate measurement of iron burdens in 
patients.
    Mr. Chairman and Members of the Committee, these are just a few 
examples of our many research advances and initiatives. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
                Prepared Statement of Dr. Audrey S. Penn
    Mr. Chairman and Members of the Committee: I am Audrey Penn, Acting 
Director of the National Institute of Neurological Disorders and 
Stroke. I am pleased to present the President's budget request for 
NINDS for fiscal year 2003, a sum of $1,443,392,000, which reflects an 
increase of $111,744,000 over the comparable fiscal year 2002 
appropriation. The NIH budget request includes the performance 
information required by the Government Performance and Results Act 
(GPRA) of 1993. Prominent in the performance data is NIH's second 
annual performance report which compared our fiscal year 2001 results 
to the goals in our fiscal year 2001 performance plan.
    The mission of NINDS is to reduce the burden of neurological 
disease a burden borne by every age group, by every segment of society, 
by people all over the world. The Institute carries out this mission 
through research on the healthy and diseased brain, spinal cord, and 
nerves of the body, which together make up our nervous system. The 
intricacy of the brain is awesome, its workings are elusive, and an 
extraordinary variety of disorders affect the nervous system. 
Furthermore, the brain and spinal cord are difficult to access, 
sensitive to intervention, and reluctant to regenerate following 
damage. For these reasons, neurological disorders often defy the best 
efforts of medicine, even in the modern era.
    The last decade has brought the first treatments for acute stroke 
and spinal cord injury, new immune therapies that slow the progression 
of multiple sclerosis, and increased drug and surgical options for 
treating Parkinson's disease, epilepsy, and chronic pain. Continuing 
advances in preventing stroke and birth defects, such as spina bifida, 
are also improving the public health. Still, treatments for most 
neurological disorders are far from adequate, often failing to stop or 
even slow the disease process. What is encouraging, however, is the 
variety of new treatment and prevention strategies under development: 
drugs that home in on the molecules that cause disease, stem cell 
therapies that replace lost nerve cells, neural prostheses that read 
control signals directly from the brain, vaccines that target 
neurodegeneration, implantable electronic stimulators that compensate 
for brain circuits unbalanced by disease, and behavioral interventions 
that encourage the brain's latent capacity to repair itself.
                  the burden of neurological disorders
    Our strategies are shaped not only by scientific insights but also 
by the sheer variety of neurological disorders. The causes of 
neurological disorders include trauma, infections, toxic exposure, 
developmental defects, degenerative diseases, tumors, gene mutations, 
systemic illness, vascular events, nutritional deficiencies, immune 
reactions, and adverse effects of essential treatments, such as cancer 
chemotherapy. Stroke, chronic pain conditions, dementia, and traumatic 
brain injury are among the leading causes of death and disability in 
the nation. Epilepsy, spinal cord injuries, multiple sclerosis, 
Parkinson's disease, the muscular dystrophies, autism, cerebral palsy, 
and peripheral nerve disorders, are common enough to be familiar to 
most Americans. But there are many other neurological disorders 
unfamiliar to most people until a family member is affected, and 
Congress has been active in bringing attention to less familiar 
diseases, including amyotrophic lateral sclerosis (Lou Gehrig's 
disease), Batten disease, the dystonias, facioscapulohumeral and 
congenital muscular dystrophies, Friedreich's ataxia, mitochondrial 
disorders, mucolipidosis type 4, neurofibromatosis, reflex sympathetic 
dystrophy, spinal muscular atrophy, spina bifida, and tuberous 
sclerosis. A complete list of neurological disorders would include 
hundreds more.
                   different diseases, common themes
    As scientists unravel the complex processes that underlie 
neurological disorders, ranging from acute stroke to the inexorable 
chronicity of Parkinson's disease, common themes are emerging, leading 
to the hope that similar therapeutic and preventive strategies will 
also apply. To put it another way, progress against a single disease is 
likely to have a bearing on many others. A few examples of cross-
cutting research areas illustrate the broader trend.
    Scientists have implicated ``free radicals'' as culprits in brain 
damage from stroke and trauma, as well as neurodegenerative diseases 
like ALS, Parkinson's and Alzheimer's, and even infections that affect 
the brain. Free radicals are highly reactive chemicals that are normal 
byproducts of energy metabolism, but can damage cells if produced in 
excess or improperly controlled. This year scientists discovered that 
patients with a type of inherited ataxia, a movement disorder, had 
abnormal levels of a vitamin-like substance called coenzyme Q10, which 
helps protects cells from free radicals. When researchers provided 
coenzyme Q10 supplements, the patients responded with improved 
coordination, increased strength and less frequent seizures. Another 
research team demonstrated in a clinical trial that the drug 
allopurinol, chosen to help scavenge free radicals, helps protect the 
brains of high-risk infants undergoing heart surgery. Several other 
disease mechanisms repeatedly come into play in many disorders, 
including excitotoxicity from excessive release of normal brain 
signaling chemicals, abnormal calcium handling within cells, 
aggregation of proteins, and activation of ``cell suicide'' programs. 
Each of these provides targets for developing preventive and 
therapeutic strategies that may be widely applicable.
    Just as common disease mechanisms help us confront the staggering 
variety of neurological disorders, there are therapeutic strategies 
that may apply to many diseases. Gene therapy is deceptively simple in 
concept, but difficult in practice. The complexities of working with 
nerve and muscle cells compound the problems. However, scientists have 
shown promising results in fixing or replacing defective genes in 
animal models of inherited disorders such as Duchenne muscular 
dystrophy, and research is demonstrating the potential of gene therapy 
even in non-inherited disorders, for example, by coaxing cells to make 
the nerve cell survival factor GDNF or the neurotransmitter dopamine in 
animals with Parkinson's-like disorders. Stem cells likewise present 
broad promise. For many years NINDS has supported pioneering research 
on animal and adult human stem cells, including therapeutic studies in 
animal models of stroke, spinal cord injury, Parkinson's disease, 
muscular dystrophy, and inherited metabolic disorders. In the past 
year, we have seen blood-derived cells convert into nerve-like cells, 
neural progenitor cells harvested from human brain tissue after death, 
and stem cells persuaded to become dopamine-secreting nerve cells 
needed in Parkinson's disease or insulin-secreting cells lacking in 
diabetes. We are intensifying research on all types of stem cells, as 
we initiate the study of human embryonic stem cells in accordance with 
the President's policy announced last August.
    Stem cells and gene therapy may have captured the public's 
attention, but other therapeutic approaches are also promising. Deep 
brain stimulation (DBS) with implanted electrodes has helped some 
people with essential tremor and Parkinson's disease and may be more 
widely applicable to epilepsy, dystonia, pain, and depression. NINDS is 
building on the expertise of its neural prosthesis program, which 
helped develop the technology necessary for DBS over the last 30 years, 
to improve DBS. The Institute is also expanding its drug development 
efforts to capitalize on the growing understanding of disease at the 
molecular level. These efforts include high- throughput screening and 
testing of drugs approved by the FDA for other purposes.
    The remarkable progress in understanding the fundamental biology of 
the brain, of course, is the foundation supporting studies of the 
common mechanisms of disease and the development of new preventive and 
therapeutic strategies. Genetics provides one unifying theme, often 
revealing the first clues to disease processes and yielding animal 
models for studying disease and testing treatments. The burgeoning 
research on brain plasticity how the brain adapts to experience and the 
environment may teach us how to encourage adaptive plasticity to foster 
recovery from stroke and trauma, and also how maladaptive plasticity 
contributes to chronic pain and dystonia.
                     planning and enabling research
    Motivated by scientific opportunity, enabled by budget increases, 
and guided by strategic and disease specific planning efforts, NINDS is 
taking a more active role in directing research. The NINDS strategic 
planning process began in 1998 and drew upon the nations' leading 
scientists and physicians, the public and Institute staff. The effort 
coalesced around cross-cutting themes of neuroscience and resulted in 
the NINDS Strategic Plan: Neuroscience at the New Millenium which has 
provided a framework for the Institute's activities. These include 
intensified efforts, through workshops, grant and contract 
solicitations, and other means as appropriate, that target gene 
discovery, gene therapy, microarray technology, drug screening, stem 
cells, deep brain stimulation, pediatric neurology, and common 
mechanisms of disease, such as mitochondrial dysfunction and protein 
aggregation.
    As NINDS testified last year, the strategic planning process also 
engendered an increased emphasis on clinical trials, prompted by the 
opportunities arising from neuroscience research and building on 
extensive NINDS experience in clinical trials for stroke and other 
diseases. Ongoing trials range from pilot studies to large phase III 
efforts, focus on prevention and on treatment, and test interventions 
that run the gamut, including drugs, surgery, gene therapy, deep brain 
stimulation, hormone therapy, tissue transplantation, hypothermia, 
transcranial magnetic stimulation, radiosurgery, behavior modification, 
and diet, as well as rehabilitation methods. A partial list of 
disorders being addressed in trials includes: AIDS, ALS, brain tumors, 
cerebral palsy, attention deficit hyperactivity disorder, brain trauma, 
epilepsy, Turner syndrome, Parkinson's disease, Lyme disease, migraine, 
sleep disorders, dystonia,, hereditary ataxias, multiple sclerosis, 
pain, and stroke. Clinical trial results published during the past year 
report effective immunotherapy for the symptoms of stiff person 
syndrome--a rare movement disorder; successful field delivery of 
emergency care for seizures; clinical benefit of enzyme therapy for 
Fabry disease; improved management of chronic tension headache with 
added behavior modification; information regarding estrogen hormone- 
replacement therapy for women for secondary stroke prevention; and 
improvements in preventing stroke. To complement the clinical trials 
program, NINDS is developing a comprehensive program to expedite 
translational research. Translational research bridges from fundamental 
discoveries about the brain and disease, and rapidly accumulating 
results in animal models of diseases such as muscular dystrophy, 
ataxias, ALS, Alzheimer's, Parkinson's, Huntington's, and many others, 
to the identification of specific agents to be examined in clinical 
trials of safety and effectiveness.
    NINDS health disparities and disease-specific planning efforts 
build on the foundation of the strategic planning process. The NINDS is 
implementing research priorities in stroke, neuroAIDS, epilepsy, pain, 
and cognitive and emotional health in minorities, and in infrastructure 
and partnership development in minority institutions. NIH has reported 
separately to Congress, as directed, about progress in implementing the 
Parkinson's Disease Research Agenda and the January 2002 Consortium 
meeting. The Agenda represents the most concerted attack NINDS has 
undertaken against any disease, from basic studies of brain mechanisms 
through large clinical trials, including efforts to refine existing 
therapies and to develop new strategies on the frontiers of medicine, 
such as stem cells, deep brain stimulation, and gene therapy. Among the 
many facets of this program, the Institute is embarking on a large 
clinical trial to test drugs that actually slow the course of the 
disease, rather than merely lessening symptoms.
    Other disease-specific planning and implementation efforts are, or 
will soon be, underway. In March 2000, a landmark conference, ``Curing 
Epilepsy: Focus on the Future,'' began a process through which epilepsy 
researchers, patient advocates, and NINDS staff formulated 
``benchmarks'' for epilepsy research, and developed a process to engage 
the entire epilepsy research community in attaining those goals. NINDS 
has also reported separately to Congress on this effort, as requested. 
Major NINDS planning efforts in brain tumor and stroke are following 
the Progress Review Group (or PRG) model developed by the National 
Cancer Institute; the brain tumor effort in direct collaboration with 
NCI. In each PRG, more than 100 scientists and representatives of 
voluntary groups assess the current state of the science and identify 
future needs and opportunities. The Institute is also undertaking 
planning efforts in muscular dystrophy and tuberous sclerosis research 
in the coming year. NINDS is coordinating NIH efforts to implement the 
DHHS Bovine Spongiform Encephalopathy (BSE)/Transmissible Spongiform 
Encephalopathy (TSE) Action Plan. BSE, known ass ``mad cow'' disease, 
is one of the TSEs that pose a potential threat to the public health 
and economy, and the HHS plan includes surveillance, protection, 
research and oversight activities. It is important to emphasize that 
NINDS is also continuing to hold workshops focused on a wide range of 
specific disorders, such as dystonia, congenital muscular dystrophy, 
familial dysautonomia, pediatric neurotransmitter diseases, and Joubert 
syndrome. These meetings, and the ongoing informal interaction among 
NINDS professional staff, the research community, and disease 
advocates, catalyze research, while informing the Institute where 
specific solicitations or other actions may be warranted. Finally, 
unsolicited grants continue to be the backbone of NINDS research 
efforts. The collective wisdom of scientists and physicians throughout 
the nation is especially suited to confronting the broad spectrum of 
neurological disorders and the scope of science that is essential to 
progress.
    In conclusion, it would be a disservice to patients and families to 
promise when cures will become available, because medical progress is 
notoriously difficult to predict. Yet researchers are cautiously 
optimistic that, by recognizing cross-cutting areas of scientific 
opportunity, while maintaining a continuing focus on the unique aspects 
of each disease, we are moving toward an era when curing or preventing 
neurological disorders will become commonplace. Thank you.
                                 ______
                                 
               Prepared Statement of Dr. Anthony S. Fauci
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Allergy 
and Infectious Diseases (NIAID) for fiscal year (fiscal year) 2003, a 
sum of $3,999,379,000, which reflects an increase of $1,456,933,000 
over the comparable fiscal year 2002 appropriation. The NIAID budget 
request includes the performance information required by the Government 
Performance and Results Act (GPRA) of 1993. Prominent in the 
performance data is NIAID's second annual performance report, which 
compared our fiscal year 2001 results to the goals in our fiscal year 
2001 performance plan.
                           overview of niaid
    NIAID supports and conducts basic and applied research to better 
understand, treat and prevent infectious, immunologic, and allergic 
diseases. For more than fifty years, NIAID research has led to new 
therapies, vaccines, diagnostic tests, and other technologies that have 
improved the health of millions of people in the United States and 
around the world. The scope of the NIAID research portfolio has 
expanded considerably in recent years in response to new challenges 
such as bioterrorism; the emergence or re-emergence of diseases such as 
the acquired immunodeficiency syndrome (AIDS), West Nile fever, dengue, 
malaria and tuberculosis; and the increase in asthma among children in 
this country. The growth of NIAID programs also has been driven by 
unprecedented scientific opportunities in the core NIAID scientific 
disciplines of microbiology, immunology, and infectious diseases. 
Advances in these key fields have led to a better understanding of the 
human immune system and the mechanisms of infectious and immune-
mediated diseases.
                responding to the threat of bioterrorism
    The final four months of 2001 were among the most extraordinary--
and tragic--in American history. The September 11 attacks on the World 
Trade Center and Pentagon have transformed society in ways that we are 
only now beginning to discern. Superimposed on that tragedy were the 
first recorded cases of anthrax in the United States to result from an 
intentional human act. Of 18 confirmed anthrax cases associated with 
bioterrorism in the eastern United States in 2001, 11 individuals 
suffered the inhalational form of the disease; 5 of these people died.
    Homeland defense is a multifaceted endeavor. Defense against and 
response to bioterrorism is a critical component of homeland defense, 
and our ability to detect and counter bioterrorism depends to a large 
degree on the state of biomedical science. As the lead agency at NIH 
for infectious diseases and immunology research, NIAID has developed a 
Strategic Plan for Counter-Bioterrorism Research, as well as a detailed 
NIAID Counter-Bioterrorism Research Agenda, with short-, intermedi- 
ate-, and long-term goals. The Strategic Plan and Research Agenda 
stress two over-arching and complementary components: basic research 
into agents with bioterrorism potential and the specific and non-
specific host defense mechanisms against those agents, and applied 
research with pre-determined milestones for the development of new or 
improved diagnostics, vaccine and therapies. We focus on research in 
six key areas:
    Microbial Biology.--Research into the basic biology and disease-
causing mechanisms of pathogens underpins all our efforts to develop 
interventions against agents of bioterrorism. NIAID supports research 
to better understand the factors that influence the virulence and 
invasiveness of a pathogen, as well as those that determine antibiotic 
resistance.
    An important new tool in understanding all microbes is our ability 
to rapidly obtain microbial genome sequence information, including that 
of potential bioterror agents. Many such agents have already been 
sequenced; others, including different strains of Bacillus anthracis, 
the anthrax bacterium, are in the process of being sequenced. These 
efforts promise to facilitate the discovery of new medical 
interventions.
    Host Response to Microbes.--In order to develop potent, safe, and 
effective vaccines, accurate diagnostics, and immunotherapeutics 
against microbes that may be used as bioterrorist agents, research has 
been accelerated to improve our understanding of the complex parameters 
of two components of the human immune system: innate and adaptive 
immunity.
    Vaccines.--NIAID has bolstered research efforts on vaccines against 
many of the infectious agents considered to be bioterrorism threats, 
with an eye toward generating products that are safe and effective in 
civilian populations of varying ages and health status. For example, a 
three-tiered strategy for smallpox vaccine research has been developed. 
In the near-term, a clinical trial at several NIAID Vaccine and 
Treatment Evaluation Units suggests that it is possible to ``stretch'' 
the 15,400,000 available doses of licensed smallpox vaccine 5- or 10-
fold by dilution. A concurrent initiative is the development of a new 
smallpox vaccine: a safe, sterile product grown in cell cultures using 
modern technology. This vaccine will be rapidly tested in human 
clinical trials; more than 200,000,000 doses will be produced and 
delivered to the Federal Government by the end of 2002. In the long-
term, basic research promises to provide a third generation of smallpox 
vaccines that could be used in all segments of the population, 
including pregnant women and people with weakened immune system. 
Additional bioterrorism vaccines also are in development. For example, 
a new anthrax vaccine, based on a bioengineered component of the 
anthrax bacterium called recombinant protective antigen (rPA), will 
soon enter human trials. On the NIH campus, researchers at the NIAID 
Dale and Betty Bumpers Vaccine Research Center have developed a DNA 
vaccine that protected monkeys from infection with Ebola virus, and 
that will soon be tested in human volunteers.
    Therapeutics.--NIAID therapeutics research focuses on the 
development of new antimicrobials and antitoxins, as well as the 
screening of existing antimicrobial agents to determine whether they 
have activity against organisms that might be employed by 
bioterrorists. For example, in collaboration with DOD and with support 
from CDC, NIAID has rigorously screened a large number of antiviral 
drugs against smallpox-related viruses. One of these agents is an 
antiviral drug called cidofovir, which is approved by the Food and Drug 
Administration (FDA) for treating certain AIDS-related viral 
infections. Cidofovir has shown potent activity against poxviruses 
related to smallpox in test tube studies and in animal models. NIAID 
has taken the lead in developing a protocol that would allow cidofovir 
to be used in emergency situations for the treatment of smallpox. 
Concurrently, other anti-smallpox agents are being investigated.
    Diagnostics.--The overall goal of NIAID bioterrorism research on 
diagnostics is to establish methods for the rapid, sensitive, and 
specific identification of natural and bioengineered microbes as well 
as the determination of the microbe's sensitivity to drug therapy. 
These scientific advances will allow health care workers to diagnose 
and treat patients more accurately and quickly.
    Research Resources.--Basic research and the development of new 
vaccines, therapeutics, and diagnostics depend on the availability of 
research resources, such as genomics/proteomics information, 
appropriate animal models, standardized reagents, and appropriate 
laboratory facilities. Among many initiatives, NIAID plans to 
accelerate training of investigators specializing in bioterror agents, 
establish the first four to seven of what will be ten regional Centers 
of Excellence for Bioterrorism and Emerging Diseases Research, develop 
a centralized research reagent repository, and expand the national 
bioterrorism research infrastructure. The latter will include the 
construction/renovation of BioSafety Level (BSL) 3-4 laboratories, 
necessary to work with the most dangerous pathogens.
          spin-offs of bioterrorim research for other diseases
    We anticipate that the large investment in research on counter-
bioterrorism will have many positive ``spin-offs'' for other diseases. 
The planned NIAID research on microbial biology and on the pathogenesis 
of organisms with bioterror potential will certainly lead to an 
enhanced understanding of other more common and naturally occurring 
infectious diseases that afflict people here and abroad. In particular, 
the advancement of knowledge should have enormous positive impact on 
our ability to diagnose, treat and prevent major killer-diseases such 
as malaria, tuberculosis, HIV/AIDS, and a spectrum of emerging and re-
emerging diseases such as West Nile fever, dengue, influenza, and 
multi-drug resistant microbes. Furthermore, and importantly, the NIAID 
research agenda on counter-bioterrorism will greatly enhance our 
understanding of the molecular and cellular mechanisms of the innate 
immune system and its relationship to the adaptive immune system. This 
clearly will help in the search for new ways to treat and prevent a 
variety of immune-mediated diseases such as systemic lupus 
erythematosus, rheumatoid arthritis and other autoimmune diseases. In 
addition, new insights into the mechanisms of regulation of the human 
immune system will have positive spinoffs for diseases such as cancer, 
immune-mediated neurological diseases, allergic and hypersensitivity 
diseases, as well as for the prevention of rejection transplanted 
organs.
                          vaccine development
    Vaccine research, so important to our preparedness against future 
bioterrorism attacks, has long been a cornerstone of NIAID research. 
NIAID-supported research has led to the development of many new and 
improved vaccines that are now widely used; these vaccines have saved 
literally millions of lives and prevented untold illness and disability 
from infectious diseases. Success stories include the development of 
vaccines against Haemophilus influenzae type b, pertussis, chickenpox, 
pneumococcal disease, and hepatitis A and B. NIAID has three broad 
goals in vaccine research: identifying new vaccine candidates to 
prevent diseases for which no vaccines currently exist; improving the 
safety and efficacy of existing vaccines; and designing novel vaccine 
approaches, such as new vectors and adjuvants. To speed these efforts, 
NIAID has made a significant investment in the growing field microbial 
genomics, and has funded the genomic sequencing of more than 60 
medically important microbes. Approximately 20 of these projects have 
been completed, including the bacteria that cause tuberculosis, 
gonorrhea, chlamydia, cholera, the parasite that causes malaria, as 
well as the mosquito that transmits malaria. The availability of the 
genomic sequences of these and other organisms will facilitate the 
identification of a wide array of new antigens for vaccine targets.
    One of the important challenges for the 21st century is the 
development of safe and effective vaccines for the three greatest 
microbial killers worldwide: HIV/AIDS, malaria, and tuberculosis. These 
three diseases account for one-third to one-half of healthy years lost 
in less developed countries. NIAID has a robust portfolio of vaccine 
research and development for these and other diseases of global 
importance.
               acquired immune deficiency syndrome (aids)
    Despite recent progress in treatment and prevention, human immune 
deficiency virus (HIV) disease and AIDS continue to exact an enormous 
toll throughout the world. An estimated 40,000,000 people are living 
with HIV/AIDS, and another 22,000,000 people with HIV/AIDS have died. 
More than 95 percent of these infections and deaths have occurred in 
developing countries, most of which are also burdened by other 
significant health challenges. In these nations, HIV/AIDS threatens not 
only human welfare, but social, political and economic stability as 
well. In the United States, approximately 850,000-950,000 people are 
living with HIV/AIDS; approximately 450,000 deaths among people with 
AIDS had been reported to the CDC as of the end of 2000. The rate of 
new HIV infections in this country has reached an unacceptable plateau 
of 40,000 per year, with minority communities disproportionately 
affected.
    In the United States and other western countries, potent 
combinations of anti-HIV drugs (highly active antiretroviral therapy or 
``HAART'') have dramatically reduced the numbers of new AIDS cases and 
AIDS deaths. Meanwhile, the toll of AIDS has accelerated elsewhere in 
the world, especially in poor countries where expensive HAART regimens 
are beyond the reach of all but a privileged few. Fortunately, this 
disparity in access to life-saving medications may be changing. 
Building on the research infrastructure NIAID has helped establish in 
Africa and elsewhere in the developing world, we are actively working 
with our international colleagues to link the provision of anti-HIV 
therapy to efforts in prevention research, with the goal of 
facilitating a comprehensive approach to the AIDS pandemic in poor 
countries. Concurrently, NIAID-supported investigators are testing a 
diverse range of HIV prevention and vaccine strategies. Prevention 
efforts in our country and abroad focus on several key areas, including 
behavioral modification, interventions to prevent mother-to infant 
transmission of HIV, and the development of topically applied 
microbicides that women could use to protect themselves against HIV and 
other sexually transmitted pathogens. Several vaccine candidates have 
recently shown remarkable promise in tests in non-human primates. The 
best candidates are rapidly being moved into human clinical trials at 
sites of NIAID's HIV Vaccine Trials Network in the United States and 
abroad, and at the NIAID Vaccine Research Center.
                  research on immune-mediated diseases
    NIAID-funded research in basic and clinical immunology has led to 
many promising approaches for treating individuals with immunologic 
conditions such as multiple sclerosis, type I diabetes and asthma. 
Researchers are developing novel ways of selectively blocking 
inappropriate or destructive immune responses, while leaving protective 
immune responses intact, an area of research known as tolerance 
induction. The NIAID-supported Immune Tolerance Network an 
international consortium of approximately 50 research groups, now has 
16 clinical trials that are enrolling patients or will do so soon, in 
areas such as islet transplantation (for diabetics), kidney 
transplantation, autoimmune diseases, and asthma and allergic diseases.
    For the past decade, NIAID also has focused on reducing the 
significant and growing burden of asthma among inner-city minority 
children. The current Inner-City Asthma Study has investigated novel 
interventions to improve the health of inner-city children with asthma. 
One approach, called a physician feedback intervention, involves 
periodic reports to the child's doctor about the status of the child's 
asthma. These reports, generated from bi-monthly phone interviews with 
parents, recommend changes in the child's treatment regimen according 
to National Heart, Lung, and Blood Institute (NHLBI) guidelines, if 
warranted. Another method is an environmental intervention that 
involves identifying and removing asthma triggers such as cigarette 
smoke or cockroaches from the child's home. Both interventions are 
reducing health care utilization, and the children receiving the 
environmental intervention gained an additional three weeks of symptom-
free days during the intervention year. We are working to make such 
interventions available nationwide.
                               conclusion
    With a strong research base, talented investigators in the United 
States and abroad, and the availability of powerful new research tools, 
we fully expect that our basic and applied research programs will 
provide the essential elements to enhance our defenses against those 
who would attempt to harm us with bioterrorism, to develop new tools in 
the fights against HIV/AIDS and other infectious diseases, and to 
improve therapies and management of immune-mediated diseases.
                                 ______
                                 
                Prepared Statement of Dr. Marvin Cassman
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of General 
Medical Sciences (NIGMS) for fiscal year 2003, a sum of $1,881,378,000, 
which reflects an increase of $154,911,000 over the comparable fiscal 
year 2002 appropriation.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's third annual performance 
report, which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    Today, 40 years since NIGMS was established, we can look back and 
reflect on the many accomplishments of the Institute. NIGMS-funded 
research has played a major role in building a strong foundation for 
all of biomedicine, producing a steady stream of research advances in a 
spectrum of disciplines. These advances have emerged from fundamental 
research in very basic areas like genetics, chemistry, and cell 
biology; and from more applied areas of science such as the body's 
response to medicines and to injury caused by trauma or burns.
                              a good model
    In our anniversary year, I think it is fitting to showcase some of 
the medical benefits that have grown out of NIGMS's strong investment 
in supporting basic research--especially that obtained from studies 
with non-mammalian model organisms. Years of basic research with model 
organisms continue to yield valuable information, including important 
medical insights. An explosion of new discoveries rooted in basic 
investigations of the biology of the common baker's yeast are paving 
the way for effective means to treat infections caused by microbial 
cousins of this common fungus, including the potentially dangerous 
yeast C. albicans. This species of yeast causes vaginal and gut 
infections and can cause life-threatening problems for people with 
weakened immune systems, such as AIDS patients or transplant 
recipients.
    Other recent medical advances stemming from studies with yeast 
include several important research findings on biofilms, specialized 
``mats'' of bacteria or fungi that tend to be particularly resistant to 
medical attack. Biofilms, which account for everything from dental 
plaque to unsightly toilet bowl stains, also thrive in the clogged 
airways of people with cystic fibrosis, where they create tremendous 
problems. NIGMS-funded research with baker's yeast has shown that these 
ordinary fungi can be made to form a biofilm structure, providing 
scientists with a robust, inexpensive, and safe system to study the 
properties of biofilms as well as test drugs to block the formation of 
biofilms.
    There is no question that, for years to come, scientists will 
continue to relish the versatility and economy of baker's yeast, 
properties that make this model organism an extraordinarily resilient 
and productive research tool.
    I would like to move on to an exciting story about a team of 
scientists who are getting some old drugs to try new tricks. Over time, 
the group's research findings on the chemical and physical properties 
of certain enzymes and other proteins involved in basic metabolism led 
to the idea that a certain class of chemicals may live a dual life. 
These so-called ``bisphosphonates,'' the researchers discovered, are 
capable of blocking an enzyme critical to the livelihood of parasites, 
the organisms that cause malaria and other infectious scourges. But the 
same chemicals can also knock out a human enzyme whose activity breaks 
down bone during osteoporosis. This multifaceted group of researchers 
put their heads together and--blending chemistry, biology, and very 
fast computers--discovered that a key step in parasite metabolism could 
indeed be knocked out by the anti-osteoporosis medicines 
Fosamax<Register>, Actonel<Register>, and Aredia<Register>. Their new 
research shows that fairly low concentrations of these FDA-approved 
drugs can do away with parasites while sparing human cells. The 
scientists are now testing the drugs in animal models of the diseases 
and so far have obtained cures--in mice--of certain types of 
leishmaniasis, another disease caused by parasites. If the medicines 
work well in animal models, testing the drugs in people could occur 
relatively quickly, since the medicines have already been approved for 
other uses, and therefore have already been tested for safety in 
people.
    Other fundamental lines of inquiry have led to unexpected practical 
benefits in treating disease. Ten years of intense analysis of the 
properties and functions of a plant enzyme led to the discovery that 
the active ingredient in the weedkiller Roundup attacks this particular 
enzyme. The enzyme, the researchers learned years later, also happens 
to be present in parasites, fungi, and other microorganisms. From this 
discovery, the potential medicinal value of interfering with this 
enzyme came into clear view. Fundamental biophysical studies that show 
what this enzyme looks like up close have now handed scientists a 
blueprint for designing chemical compounds to disable the action of 
this critical molecule. This research will likely lead to potent new 
medicines to treat parasites, bacteria, and fungi that cause illness in 
people.
                      medicines from land and sea
    NIGMS's research investment in chemistry has yielded important 
medical treatments from the ocean, which can be illustrated by two 
examples. The first is a poison derived from the venom of a marine 
snail species called Conus. To marine predators, a small molecule 
produced by Conus snails is deadly and serves as a form of defense. But 
for people with certain forms of chronic pain, this molecule may be 
extremely helpful in numbing pain that is unresponsive to other methods 
of pain treatment. Nearly a decade of NIGMS research probing the 
properties and physiological effects of Conus poisons has matured into 
the discovery and production of the compound Ziconotide. This medicine 
has completed clinical testing and is awaiting FDA approval. If 
approved, Ziconotide will be the first marine organism-based 
pharmaceutical product. Due to the fact that so many Conus varieties 
exist in nature, and that each snail produces many different venoms, 
the pharmaceutical potential of this humble organism seems vast. 
Indeed, a number of other promising Conus-derived molecules are in the 
drug development pipeline for a range of clinical applications, 
including treatment for burn pain, eye pain, postoperative surgical 
pain, and certain nervous system disorders.
    A second example of medicine from the sea is a chemical called 
``Et743,'' which was originally discovered in a Caribbean sea squirt 
called Ecteinascidia turbinata. Scientists have shown that Et743 is an 
extremely powerful killer of cancer cells, particularly soft-tissue 
sarcomas, and the drug is now in late-stage clinical testing. Despite 
the medical potential of Et743, a severe shortcoming early on was its 
very limited availability in nature. NIGMS-funded chemists made an 
important step in extending the utility of this chemical by figuring 
out how to make it easily in the lab, starting with simple materials.
    Getting back to land, I want to highlight some medical benefits 
offered through research with a terrestrial laboratory darling, the 
ordinary fruit fly. Fundamental research using these tiny red-eyed 
insects has shed light on many basic features of the development of all 
of the body parts of embryos, including the development of human 
embryos. NIGMS-supported scientists discovered a fruit fly gene whose 
protein product helps fly ovary cells move to where they need to go 
during the normal process of development of the ovaries. This fly gene 
is strikingly similar to a human gene that, when misspelled, is 
overproduced in human breast and ovarian cancers. The work not only 
adds to fundamental knowledge about how cells know where to go as they 
meld together into organs and tissues, but it also provides a useful 
tool for cancer researchers studying the causes and treatments for 
breast and ovarian cancer.
    Recently, NIGMS-funded genetic research with fruit flies 
demonstrated that these insects may hold a key to curing a host of 
different human diseases. One study unearthed 548 fly genes that are so 
similar to genes involved in 714 different human genetic disorders that 
the likelihood of the similarity occurring by chance alone is 1 in 10 
billion. What this means is that scientists can look for causes and 
treatments for blindness, cancer, Parkinson's disease, diabetes, and 
many other disorders using lab fruit flies that are inexpensive and can 
be bred very quickly. Ultimately, scientists predict that fly genes 
will play an important role in the study of at least 1,000 of the 5,000 
known genetic diseases in people.
                           research training
    NIGMS is proud once again to cite the Nobel Prize-winning work of 
two of its long-time grantees. Geneticist Dr. Leland Hartwell and 
chemist Dr. Barry Sharpless each received the Nobel Prize in 2001 for 
their work on the cell cycle and chemical tools called chiral 
catalysts, respectively. Such quality scientific research gets done by 
quality researchers, and a vital component of the NIGMS mission is 
training the next generation of scientists. NIGMS maintains its leading 
role at NIH in research training by supporting nearly 44 percent of the 
predoctoral trainees and roughly 29 percent of all trainees receiving 
training funds from NIH. In recognition of the interdisciplinary nature 
of biomedical research today, all of NIGMS's training programs place a 
strong emphasis on crossing disciplinary boundaries. Nearly half of the 
NIGMS-funded biotechnology predoctoral fellowship programs, for 
instance, are centered in engineering departments.
    In keeping with its commitment to training a diverse research work 
force, NIGMS is vigilant to how institutions recruit and retain 
trainees who are members of underrepresented minority populations. To 
propel these efforts, NIGMS sponsored a successful workshop in May 2001 
at which institutions shared best practices for minority recruitment 
and retention in their training programs. We are promoting continued 
sharing via a minority recruitment and retention strategies Web site.
    Looking more globally at our minority programs, I want to bring to 
your attention a few very interesting and fruitful examples of outreach 
with Native American populations. Together with National Human Genome 
Research Institute staff, this past year NIGMS staff organized a visit 
to Dine College on the Navajo Reservation. Staff of the NIGMS Division 
of Minority Opportunities in Research continue to work tirelessly to 
motivate, guide, and assist minority institutions, faculty members, and 
other prospective grantees who are new to the NIH funding system. I 
would like to highlight one particularly innovative ongoing partnership 
with the Indian Health Service. Beginning in fiscal year 2001, NIGMS 
established a collaborative program designed to improve research and 
research training responsive to the needs of Native American 
communities. The Native American Research Centers for Health (NARCH) 
program supports partnerships between American Indian or Alaska Native 
tribes and research-intensive institutions.
                          special initiatives
    Of course, a key component to providing top-notch training programs 
is to closely follow the directions in which science takes us, and 
NIGMS has listened carefully to what the scientific community has to 
say about what's needed to move science forward. To that end, I am 
happy to report that NIGMS-funded initiatives aiming to pull together 
science from different, complementary fields of study are moving ahead. 
Important progress is being made by researchers in the NIGMS-led NIH 
Pharmacogenetics Research Network, with four new research teams joining 
the existing effort in September 2001. Two new teams of scientists 
joined NIGMS's Protein Structure Initiative, and three multifaceted 
research groups were awarded large-scale ``glue'' grants to study how 
cells communicate via natural sugar molecules, how cells move around 
the body, and how the body responds to injury caused by trauma and 
burns.
                               conclusion
    NIGMS remains dedicated to developing and sustaining programs that 
ensure the advancement of the basic biomedical research that will fuel 
the discovery of tomorrow's medicines.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that you may have.
                                 ______
                                 
               Prepared Statement of Dr. Duane Alexander
    Mr. Chairman and Members of the Committee: I am pleased to present 
the fiscal year 2003 President's budget request for the National 
Institute of Child Health and Human Development (NICHD) of 
$1,218,112,000 which reflects an increase of $100,870,000 over the 
comparable fiscal year 2002 appropriation.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compares our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    For almost 40 years the NICHD has conducted research that touches 
Americans throughout their lives. We seek to ensure that people are 
able to have the children they want at the time they want them; that 
women experience pregnancy without complications and suffer no adverse 
consequences from the reproductive process; that every child is born 
healthy and wanted; that all children experience healthy physical, 
cognitive, behavioral, and social development and reach adulthood free 
of disease and disability and able to fulfill their potential for a 
productive life; and that people of all ages who experience disability 
as a consequence of congenital defects, injury, or disease achieve 
maximum function through the best rehabilitation we can provide. We 
have a broad mission, and we have a dynamic program of research in all 
of these areas.
             early childhood education and school readiness
    Reading skills are essential to function in our society. Yet many 
children, particularly children born in poverty, never learn to read. 
This inability to read has profound and long term implications for the 
children in terms of their health, their participation in civic life, 
and their ability to function in an increasingly complex world. Our 
research has demonstrated that getting children ready to read before 
kindergarten is a critical step in actually learning to read. Children 
need to have a basic understanding that there is a connection between 
sounds, letters, words and print before and during kindergarten to 
learn to read by the first grade. Our research has also revealed that 
the vast majority of students who are poor readers in the first grade 
remain poor readers in the fourth grade and that almost all children 
who are good readers in the first grade remain good readers in the 
later grades. Early intervention is critical to developing good reading 
skills and the interventions should start before kindergarten. The 
NICHD, in cooperation with the NIMH and the Department of Education, is 
launching a new program to identify the most effective ways to help 
children develop their learning abilities. The program has a 
comprehensive focus that includes promoting cognitive, language and 
early reading and math abilities as well as self regulation skills, 
social competency, and emotional health. We strongly believe that every 
healthy child can and must learn to read.
                     advances in mental retardation
    Since the NICHD was established, we have made remarkable progress 
in identifying, treating, and preventing many of the causes of mental 
retardation. Today, parents do not have to fear phenylketonuria (PKU), 
congenital hypothyroidism, or Hemophilus influenzae type b meningitis 
because these major causes of mental retardation have been virtually 
eliminated. Moreover, other causes of mental retardation such as 
measles encephalitis, congenital rubella syndrome, and bilirubin 
encephalophy have nearly disappeared. And we are making progress in 
learning more about the most common inherited cause of mental 
retardation Fragile X syndrome.
    NICHD has a long history of supporting research on Fragile X 
syndrome. In the early 1990s, our research led to the identification of 
the gene affected in Fragile X, FMR1. Last year, in a unique 
collaboration between the NICHD, the NIMH and the FRAXA Research 
Foundation, we funded researchers exploring the neurobiology and 
genetics of Fragile X syndrome. This year, we will establish three new 
Fragile X Research Centers to conduct research directly related to the 
causes, treatment and prevention of Fragile X syndrome.
    We are also increasing our research in autism. Within the NIH, five 
Institutes are members of the NIH Autism Coordinating Committee (NICHD, 
NIMH, NINDS, NIDCD, and NIEHS). Since this Committee was established a 
few years ago, the NIH has substantially increased its support of 
autism research from $22 million in 1997 to more than $55 million in 
2001. The Collaborative Programs of Excellence in Autism (CPEAs) are a 
major focus of our research in autism. The CPEAs, which we fund along 
with the NIDCD, link more than 2,500 families of people with autism to 
more than 75 researchers in 26 universities around the country. The 
CPEA Network in turn is linked to a six-nation European autism 
consortium. The Network serves as a resource for individuals with 
autism and their families. The CPEA Network is now studying the world's 
largest group of well-diagnosed people with autism whose genotype and 
phenotype are available. NICHD will also join other NIH Institutes in 
funding at least five new comprehensive Centers of Excellence in Autism 
Research as required by the Children's Health Act of 2000.
    Our Institute is committed to understanding and eliminating the 
causes of mental retardation. We are equally committed to applying the 
results of our research to the elimination of the barriers that people 
with mental retardation experience. The President's New Freedom 
Initiative calls for all Americans to be able to realize the dream of 
equal access to full participation in American society. For people with 
mental retardation, we came closer to realizing that dream in our 
collaboration with the Surgeon General on the Conference on Health 
Disparities and Mental Retardation. This unique conference was planned 
and carried out with the full participation of people with mental 
retardation. It resulted in a blueprint that we all can use to reduce 
these disparities.
                            mobility for all
    Traumatic injury is the leading cause of death for children and 
adolescents in the United States. Major advances in medicine and 
emergency room services have helped children survive their injuries, 
but many survive with disabilities and long term effects on their 
quality of life. Their conditions are managed through a variety of 
rehabilitation interventions such as medications, physical therapy, and 
adaptive equipment or prostheses. However, we have little information 
on the effectiveness of many interventions for children. A wide range 
of developmental events distinguishes the rehabilitation of infants, 
children, and adolescents from that of adults. Therefore we are 
establishing a series of clinical trial planning grants in pediatric 
rehabilitation. Our goal is to assure that infants and children who 
experience traumatic injury are restored to their maximum function 
through the best rehabilitation we can provide.
    Traumatic brain injury (TBI) is a leading cause of disability among 
adults. During the last two decades, our understanding of traumatic 
brain injury has increased dramatically. For instance, we now know that 
not all neurologic damage occurs at the moment of injury, but evolves 
over the ensuing minutes, hours and days. We are therefore establishing 
a multi-center network of clinical sites to evaluate the relationship 
between acute care practice and rehabilitation strategies and the long 
term well-being of TBI patients. Our goal is to identify which of the 
interventions are most likely to result in long term improvements.
                            premature births
    Infants born prematurely have much greater risk of dying in infancy 
than do other infants. Premature birth puts infants at greater risk for 
life-threatening infections, for a serious lung condition known as 
respiratory distress syndrome, and for serious damage to the 
intestines. The earlier infants are born, the more problems they are 
likely to face. Some may develop lifelong disabilities, such as 
blindness, mental retardation, and cerebral palsy. The causes of 
premature birth remain a puzzle. Physicians have been largely powerless 
to prevent this serious, and often deadly, complication of pregnancy. 
Now, however, two groups of NICHD scientists have put many of the 
puzzle pieces in place and a clearer picture is taking shape.
    Recently, NICHD scientists and their colleagues discovered that a 
surge in a stress hormone may signal the beginning of premature labor. 
They found that women who gave birth prematurely had higher levels of 
the stress hormone than did women who gave birth at full term. They 
also found that women who had a low level of education, received public 
assistance, or worked at jobs requiring them to stand or walk for more 
than six hours a day, also were more likely both to have high levels of 
the stress hormone and to give birth prematurely. These researchers are 
now looking for ways to reduce the levels of stress hormone during 
pregnancy to help prevent premature birth.
    Our research is also changing the way we think about prematurity. 
Traditionally, researchers have believed that premature labor is an 
accident in which the uterus begins to contract before the unborn 
infant has reached full term. NICHD scientists have now uncovered 
evidence that in many cases, the fetus becomes seriously ill and 
chemically signals the beginning of labor in order to escape a hostile 
uterine environment. Instead of being an accident, the initiation of 
early labor may be a means that nature developed to spare mothers and 
babies from infection. We are now trying to find ways to identify women 
who have these infections and who may be at risk for premature labor 
and find successful ways to treat them. We are also exploring why 
African American women are more likely to give birth prematurely than 
are women in other ethnic groups. For example, we have discovered that 
some African American families are more likely to possess variations in 
the genes that signal rupture of the membranes, the prelude to labor. 
These variations may make it more likely that labor will begin 
prematurely.
                         decline in sids rates
    Since we began a public health campaign eight years ago urging 
parents and caretakers to place infants on their backs to sleep, we 
have witnessed a continuous and steady decline in the number of infants 
dying from Sudden Infant Death Syndrome or SIDS. Provisional data from 
the CDC show that the SIDS rate has declined by more than 50 percent 
since the campaign began. This remarkable achievement is a result of 
the thousands of individuals and the many organizations who have taken 
part in this national public health education effort.
    Although the number of infants who die of SIDS has declined in all 
ethnic groups, twice as many African American infants die from SIDS as 
do white infants. To address and help eliminate this disparity, we are 
working with several national African American organizations including 
Alpha Kappa Alpha, 100 Black Women, and the Women of the NAACP who are 
meeting with parents and caretakers in schools, in churches, and in a 
variety of community settings on the ways to reduce the risks of SIDS. 
In the last 12 months more than 50 individual workshops have been 
conducted, and many more workshops are planned in the coming months in 
our effort to eliminate the disparity in the rate of SIDS.
       drugs to improve the health of children and pregnant women
    Until fairly recently, over the counter and prescription drugs that 
were safe for adults were considered safe for children. However, in 
addition to being a smaller size, children's brains, bones, and 
metabolism are different from those of adults. Many of the drugs that 
have been shown to be safe and effective for adults have never been 
tested with children and in fact may behave very differently in 
children. In 1994 the NICHD established the Pediatric Pharmacology 
Research Unit (PPRU) network as a resource for testing the safety and 
effectiveness of drugs for infants, children and adolescents, and 
immediately began conducting research on drugs that have been 
inadequately studied. The network consists of a partnership among the 
NIH, the pharmaceutical industry, and university-based researchers. The 
PPRU network has grown considerably since the 1997 passage of the Food 
and Drug Administration Modernization Act. Thus far, the PPRU network 
has conducted more than 100 studies of drugs in children, including a 
new anti-diabetic drug. The working group is also developing new and 
advanced techniques to monitor a child's blood sugar. The PPRU network 
demonstrates that studies of drugs can be ethically and efficiently 
conducted in children.
    The study of drugs used during pregnancy is another area of 
significant concern. Surveys reveal that nearly two-thirds of all 
pregnant women take at least four or five drugs during their pregnancy. 
Most of these drugs have never received FDA approval for obstetric use. 
Funds in the fiscal year 2003 request will enable the NICHD to 
establish a network of Obstetric Pharmacology Research Units (OPRUs) to 
conduct studies of drugs during pregnancy to assess dose and safety 
issues in a way that will provide the necessary information for 
labeling for use in pregnancy.
                        women's health research
    In another area of women's health, NICHD has established a Clinical 
Trials Network in Female Pelvic Floor Disorders and has funded eight 
sites in this network this year. Each site in the network supports a 
multidisciplinary team with the expertise, resources, and 
infrastructure needed to conduct the clinical studies in pelvic floor 
dysfunction, such as pelvic organ prolapse and incontinence. We are 
also collaborating with the NIDDK in funding a Urinary Incontinence 
Treatment Network. Through this array of support of basic and clinical 
research we hope to discover better ways to prevent and treat pelvic 
floor disorders.
                            anthrax vaccine
    Scientists in NICHD's intramural laboratories, using funds provided 
in the DHHS Bioterrorism Initiative in the last three years, have 
developed a new approach to a vaccine against anthrax that they believe 
will require fewer injections, have fewer side effects, and induce 
better immunity. Funds in the fiscal year 2003 budget request will 
support clinical trials of this new vaccine.
    Mr. Chairman, I will be happy to provide answers to any questions 
you have.
                                 ______
                                 
               Prepared Statement of Dr. Paul A. Sieving
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Eye Institute (NEI) for 
fiscal year 2003, a sum of $631.8 million, which reflects an increase 
of $49 million over the comparable fiscal year 2002 appropriation.
    It is my pleasure to testify today as the new Director of the NEI. 
I am grateful for the opportunity to assume this role during a time of 
unparalleled growth, progress, and opportunity in biomedical research. 
The National Eye Institute and the scientists it supports are committed 
to reducing the threats to our vision and to improving the visual 
health of our citizens. The research that they perform in this pursuit 
touches upon every area of scientific endeavor and every facet of the 
visual system. Vision scientists have advanced our knowledge of and 
improved treatment for a number of eye diseases during this past year, 
and they stand ready to seize the new opportunities and meet the 
challenges that await us in the field of vision research.
                        retinal disease research
    The retina is the transparent, light-sensitive tissue that lines 
the back of the eye. Diseases and disorders of the retina and its blood 
vessels account for much of the blindness and visual disability in this 
country. In the United States, the most important of these include 
macular degeneration, diabetic retinopathy, retinitis pigmentosa and 
related disorders, retinal detachment, uveitis, and glaucoma.
    NEI-supported scientists have made important progress in treating a 
form of childhood blindness. A genetic disorder called Leber's 
Congenital Amaurosis (LCA) causes blindness in children by mechanisms 
similar to those in retinitis pigmentosa. Scientists demonstrated 
successful gene transfer to restore vision in an animal model of this 
disease. Treatment was performed by introducing normal copies of the 
gene to replace the mutated gene. Exciting work lies ahead of us to 
determine whether this approach has potential as a sight-restoring 
therapy in humans. It is our best hope that this research will lead to 
a safe and effective means to restore vision or prevent vision loss in 
patients with LCA and provide a roadmap for the development of 
therapies for people with a variety of similar diseases.
    Researchers also released major findings related to the prevention 
of macular degeneration. The Age-Related Eye Diseases Study, called 
AREDS, demonstrated that high levels of antioxidant nutrients and zinc 
reduced the risk of advanced age-related macular degeneration. Other 
NEI-sponsored scientists continue to conduct laboratory and clinical 
studies on the developmental, molecular and cellular biology, the 
molecular genetics, and metabolism of the photoreceptor cells that 
capture light; the initial neural processing of information that is 
transmitted to the visual centers of the brain; the pathogenesis of 
diabetic retinopathy; and a variety of other sight-threatening eye 
diseases and conditions. The ultimate goal of these studies is to 
develop effective therapeutic or preventive measures where none 
currently exist or to improve those treatments that are currently 
available.
                        corneal disease research
    The cornea is the transparent tissue at the front of the eye that 
plays an important role in refracting or bending light to focus visual 
images sharply on the retina. Because the cornea is the most exposed 
surface of the eye, it is especially vulnerable to damage from injury 
or infection. The leading causes of corneal blindness are herpes 
simplex virus (HSV) infection and other infections, corneal 
opacification or clouding, and inherited and degenerative diseases. 
Recent results from NEI-sponsored studies have provided important 
information about the spread of HSV and have suggested that rapid 
systemic treatment may be more effective than topical antivirals in 
treating acute, primary infections. Scientists have also learned more 
about the immune mechanisms involved in corneal transplant rejection 
and have suggested a means to increase transplant success.
    The NEI supports a variety of other laboratory and clinical 
studies, including: the regulation of genes that express proteins 
unique to corneal tissue; investigation of the use of adult corneal 
stem cells to treat corneal damage due to disease or injury; the 
mechanisms that maintain corneal hydration and transparency; 
improvement in the diagnosis and treatment of dry eye; the physiologic 
basis for autoimmune disease involving the cornea; and corneal wound 
healing. These studies should ultimately improve our ability to limit 
or prevent damage to corneal clarity caused by injury, infection, or 
other disease processes.
                           cataract research
    A cataract is an opacity of the eye's normally clear lens that 
interferes with vision. Cataract may develop at any time during life, 
although it is most often associated with advancing age. In addition to 
aging, cataract may be a consequence of diabetes and other metabolic 
disorders, trauma, exposure to ionizing radiation, or it may be 
inherited. Although cataract treatment in this country is one of the 
most successful of all surgical procedures, development of non-surgical 
approaches to preventing or treating cataracts remains a research 
priority.
    NEI investigators have recently reported that women on estrogen 
replacement therapy are less likely to develop cataracts. Additionally, 
scientists have found that a subunit of a major protein component of 
the lens is highly effective in protecting cells from stress-induced 
cell death but may become overwhelmed, leading to cataract formation. 
These results suggest additional avenues of research that may lead to 
non-surgical therapies to prevent or delay cataract formation. NEI-
sponsored research continues on the development and aging of the normal 
lens of the eye; the identification of the molecular and cellular 
components that maintain the transparency and proper shape of the lens; 
the control of lens cell division and differentiation; and the impact 
of continual oxidative insult on the lens.
                           glaucoma research
    Glaucoma leads to blindness from damage to the optic nerve of the 
eye. Glaucoma is often, but not always, associated with increased 
pressure within the eye caused by inadequate drainage of aqueous humor, 
the fluid within the eye that nourishes the cornea and lens. Although 
glaucoma is primarily a chronic disease of aging, it may occur at any 
age. It can occur as a primary disorder or it can be secondary to other 
ocular or systemic conditions. Glaucoma is a major health problem and 
the number one cause of blindness in African-Americans. Glaucoma 
research is a primary focus for NEI's research on health disparities. 
More than two million Americans have definite glaucoma and it is 
estimated that another two million are unaware that they have the 
disease. Nearly 120,000 are blind from this disease.
    In the past few weeks, NEI-funded investigators identified a new 
gene mutation on chromosome 10 that caused a form of adult-onset 
glaucoma. The gene codes for a protein that normally protects nerve 
cells from damage. Scientists have also recently identified a molecular 
marker of glaucoma in the trabecular meshwork, which forms the tissue 
that regulates the exit of aqueous humor from the eye. This same 
substance is the earliest marker for the buildup of fatty deposits in 
the linings of blood vessels damaged by high blood pressure. Other 
markers that are usually associated with oxidative stress and 
inflammatory reactions were also identified in cells from glaucoma 
patients. Such studies offer insights and hope for new and more 
effective therapeutic interventions.
         strabismus, amblyopia, and visual processing research
    Childhood vision loss most frequently results from strabismus, a 
misalignment of the eyes and the development of amblyopia, or lazy eye. 
Strabismus results in diseases in which visual processing is abnormal. 
Amblyopia can result from this misalignment or from unequal refraction 
between the eyes. Research on strabismus and amblyopia encompasses a 
broad range of clinical and laboratory studies on the structure and 
function of the neural pathways from the retina to the brain, the 
central processing of visual information, visual perception, the 
control of ocular muscles, and refractive errors.
    Important new results from the Amblyopia Treatment Study are being 
released March 13. This study began recruiting patients in April 1999 
to compare two different treatments for amblyopia eye patching or 
administration of a single eye drop of atropine per day. These exciting 
findings will change clinical practice in this country. NEI research 
support continues for a broad range of other preventative, therapeutic 
and laboratory studies that are concerned with the development and 
function of the neural pathways from the eye to the brain; wiring of 
the visual system of the brain during the young years of development; 
the central processing of visual information; visual perception; optic 
neuropathies; eye movement disorders; and the development of myopia.
                          healthy people 2010
    Healthy People 2010 is a national initiative to prevent disease and 
promote health issues sponsored by the U.S. Department of Health and 
Human Services. Vision objectives, codified as Healthy Vision 2010, are 
highlighted in this initiative. The NEI coordinates the workgroup 
activities designed to accomplish these objectives. This vision focus 
area addresses visual impairment due to eye disease and refractive 
error; regular eye examinations for children and adults; vision 
screening for pre-school children; and injury prevention. Initial 
activities include collecting baseline data on eye disease prevalence, 
so that progress can be monitored in treating the visual disabilities 
that lead to low vision and impair the productivity and quality of life 
of our citizens.
                   health education and communication
    The National Eye Health Education Program (NEHEP) was mandated by 
Congress and implemented by the NEI to increase awareness among health 
care professionals and the public of scientifically based health 
information that can be applied to preserving sight and preventing 
blindness. NEHEP works through its partnership of over 60 professional 
and voluntary organizations to implement three formal education 
programs covering glaucoma, diabetic retinopathy, and low vision.
    The newest of these programs is the Low Vision Education Program, 
designed to increase awareness of low vision and its impact on quality 
of life. As a part of this program, the NEI launched a multi-year 
nationwide shopping center tour of THE EYE SITE--A Traveling Exhibit on 
Low Vision. The exhibit consists of five colorful kiosks and features 
an innovative interactive multimedia touchscreen program. The exhibit 
is targeted to all people over age 65, and Hispanics and African 
Americans of any age. These groups, their families, and friends are the 
primary audience for the exhibit.
    Another NEHEP program theme highlights a new Medicare benefit for 
glaucoma detection, which became effective in January. The Medicare 
benefit includes coverage of a dilated eye examination with an 
intraocular pressure measurement for people at highest risk of 
developing the disease, including African Americans over age 50, people 
with diabetes and those with a family history of the disease. This new 
effort is being coordinated with other Federal agencies, including the 
Center for Medicare and Medicaid Services.
                 government performance and results act
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    Mr. Chairman that concludes my prepared statement. I would be 
pleased to respond to any questions you or other members of the 
committee may have.
                                 ______
                                 
                Prepared Statement of Dr. Kenneth Olden
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget for the National Institute of Environmental 
Health Sciences (NIEHS) for fiscal year 2003, a sum of $619,769,000, 
which reflects an increase of $48,290,000 over the comparable fiscal 
year 2002 appropriation. The NIH budget request includes the 
performance information required by the Government Performance and 
Results Act (GPRA) of 1993. Prominent in the performance data is NIH's 
second annual performance report which compared our fiscal year 2001 
results to the goals in our fiscal year 2001 performance plan.
                              introduction
    Although most of the visible environmental problems of the 1950s 
and 1960s have been ameliorated, massive quantities of toxic agents are 
still polluting our environment. This includes chemicals that are known 
to be rodent and human carcinogens and neuro-, immuno-, or 
developmental-toxins. Whether current levels of exposure to these 
agents are contributing to the high or increasing incidence of cancer, 
Parkinson's and Alzheimer's Disease, asthma, autism, learning 
disabilities, diabetes, or other complex disorders is a matter of 
considerable concern. Finding answers to these questions has been a 
slow and difficult process. The traditional methodologies available to 
environmental health researchers have not been adequate to elucidate 
the intricate gene-environment interactions involved in the development 
of complex diseases.
    Today, the environmental health sciences stand on the threshold of 
new and exciting opportunities. The knowledge and technologies spun by 
the Human Genome Project has unshackled this important discipline and 
created unprecedented technological opportunities to advance our 
understanding of environmentally-associated toxicities and diseases. By 
using a combination of new technologies (genomics, proteomics, and 
metabonomics), one can achieve an integrative view of gene-environment 
interaction at the level of the whole organism.
    To exploit the disease prevention promise of these technologies, 
NIEHS has targeted three critical areas of research: (1) identification 
of the suite of gene-environment interactions involved in the 
development of the major diseases, (2) development of public health or 
medical prevention/intervention strategies, and (3) development of 
mechanisms to translate knowledge and technology into the practice of 
preventive and clinical medicine. By investing in these areas of 
research, NIEHS expects to be a major contributor to one of the most 
important functions of government--the protection of human health.
    I will briefly describe three technologically-driven initiatives 
that represent major investments for the NIEHS, and have potential for 
preventing disease, making sound environmental health policy decisions, 
and reducing the time and costs associated with assessing the toxicity 
or carcinogenicity of chemical and physical agents in our environment.
             search for environmental susceptibility genes
    Throughout life, human and other organisms are subjected to 
environmental insults on a continual basis. As a result, sophisticated 
metabolic pathways have evolved to buffer against toxic injury. 
Collectively, these buffering pathways or mechanisms have been referred 
to as the ``environmental response machinery.'' All human genes, 
including those that code protein components of the environmental 
response machinery, are subject to genetic variability that can result 
in outright failure or altered efficiency in a buffering or protective 
mechanism.
    Although reference is made to the human genome, the concept of a 
single genome is misleading. Each individual's genetic makeup, with the 
exception of identical twins, is unique. While the genomes of 
individuals are 99.9 percent identical, the 0.1 percent variation 
leaves considerable room for individual differences among the 
approximately three billion nucleotide base pairs that make up the 
human genome. The variation in gene structure among individuals is 
known to play a significant role in disease development by increasing 
or decreasing sensitivity to environmental insults.
    To date, very few environmental susceptibility genes have been 
identified, but with improvements in methods of gene discovery and 
genotyping, large-scale studies of the genetic basis for susceptibility 
to environmental exposures are now practical. Therefore, NIEHS 
initiated a search for such environmental susceptibility genes 
approximately three years ago with the announcement of the 
Environmental Genome Project (Science 278: 569-570; Nature Genetics 18: 
91-93), by contracting with the genome sequencing laboratories 
developed by the Human Genome Project. The questions being addressed by 
the genome discovery project include: (1) Which of the genes coding for 
proteins involved in buffering against environmental insults vary 
structurally among individuals, (2) What is the relative distribution 
of the various forms of the genes in the U.S. population, and (3) What 
are the consequences of the genetic alterations with respect to toxic 
injury or susceptibility to environmental exposures? To date, we have 
completed the search for functional variations in 104 of the 544 genes 
initially targeted for analysis. This has been done in a sufficient 
population sample size so that we can be reasonably certain that 
variations discovered are representative of the U.S. population. 
However, I should stress that the 544 genes examined in this study do 
not represent all, or even most, of the environmental susceptibility 
genes in the human genome; most are yet to be discovered. In fact, 
NIEHS is collaborating with the National Human Genome Research 
Institute and other Institutes in the Single Nucleotide Polymorphism 
discovery and the Haplotype-Mapping projects to uncover other 
susceptibility genes.
    I should also emphasize that genes are not the only factors that 
contribute to differences in susceptibility to environmental exposures; 
age or stage of development, behavior, and general health or 
nutritional status can have a spectacular influence. In the interest of 
time, these issues will not be addressed here, but they are among the 
top investment priorities of the NIEHS.
                             toxicogenomics
    The vast majority of synthetic and natural chemicals in our daily 
environment have not been thoroughly screened for toxicity (``Toxic 
Chemicals,'' Environmental Defense Fund, 1993). Also, the demand for 
toxicity assessment has increased dramatically over the past decade 
because of the rapid evolution of drug discovery science and the build-
up of chemical and physical pollutants in the environment resulting 
from activities of the increasing human population. Thus, more 
efficient and cost-effective toxicity screening methods must be 
developed. The conventional approaches of exposing laboratory animals 
to high doses of single chemicals are too slow, too expensive, use too 
many animals, and are not very informative with respect to mechanisms 
of toxicity.
    Toxicogenomics is a new discipline, spun from the Human Genome 
Project, that merges toxicology with new technologies for analysis of 
genes (genomics), proteins (proteomics), and metabolites (metabonomics) 
derived from cells, tissue extracts or body fluids. This field of 
endeavor was formally inaugurated when NIEHS announced the development 
of the National Center for Toxicogenomics in November 2000 (Science 
289: 536-537; Pollack, Andrew, The New York Times, 28 November 2000). 
The Center consists of an intramural laboratory and five university-
based programs. Program coordination and database management are 
handled by the intramural component.
    This approach to assessment of toxicity was made possible by 
development of the capacity to array thousands of DNA fragments, 
corresponding to specific genes, on matrices and hybridization with 
mRNA or cDNA. Using this approach to profile mRNA expression patterns, 
one can determine which genes are turned on or off by exposure to 
specific environmental agents. However, the mRNA product of a single 
gene can be sliced or processed to give rise to several proteins or 
peptides. Therefore, protein and metabolite analyses are necessary to 
understand the mechanisms and pathways involved in the development of 
disease or toxicity.
    Toxicogenomics is a promising technology, but one that will take a 
while to achieve the potential public health and economic benefits. 
Toxicologists must develop a knowledge base to discriminate between 
adaptive or pharmacological responses and toxicological effects, as 
virtually any change in the environment will influence the expression 
of many genes. Also, signature patterns must be correlated with 
conventional indices of toxicity. So, hundreds of chemicals and many 
experimental variables will need to be examined before we will know its 
full impact.
                         mouse genomics centers
    Fortunately, almost every human gene appears to have a counterpart 
in the mouse, opening the possibility of constructing special mouse 
models containing the specific variations (polymorphisms) identified in 
the Environmental Genome Project. Such models are now being developed 
by use of gene ``knock-out'' and ``knock-in'' technology in several 
university-based Centers established for this purpose by NIEHS in 2001. 
These models will be made available to researchers upon request to 
investigate the relationship between particular genotypes and 
environmental exposures and diseases.
              public outreach and translation of research
    It is becoming increasingly important to get consumers more 
intimately involved and informed about science and its implications. To 
this end, NIEHS employs citizen-based priority setting through Town 
Meetings and Brainstorming Sessions held throughout the year in various 
regions of the U.S. These sessions involve the participation of the 
senior leadership of the NIEHS, elected officials, local industry, 
regional offices of other federal agencies, state and county health 
officials, university scientists, public interest groups, and lay 
citizens. On average, a Town Meeting attracts an attendance of 200 to 
400 participants from the local community.
    NIEHS also supports workshops and roundtables under the banner of 
the National Academy of Sciences to promote awareness and understanding 
of the new opportunities in environmental health and policy 
implications of the science. Furthermore, the 40 NIEHS-supported 
Centers are required to sponsor outreach activities in their local 
communities.
    To ensure that progress is made in translating our science into the 
practice of medicine, NIEHS has developed several Centers programs that 
bring basic and clinical researchers (physician scientists) together in 
the same space. Examples of such programs include our existing 
Children's Environmental Health Research and Prevention Centers. This 
year we expect to develop similar centers on Parkinson's disease and 
breast cancer.
                           national security
    Over the past 35 years, the NIEHS has developed a cadre of first-
rate researchers in the environmental health sciences. Five NIEHS-
supported Centers in the New York area have more than 100 researchers 
with expertise in air pollution, asbestos toxicity, exposure 
assessment, children's health, and population-based epidemiology 
studies. Since September 11, they have initiated research activities in 
response to the attack on the World Trade Center with NIEHS support and 
coordination. Their efforts include exposure assessment, epidemiology, 
medical care and clinical evaluation, and community outreach and 
education. These activities are now being integrated into the 
government-wide effort coordinated by the Federal Emergency Management 
Agency.
    The other area in which NIEHS has expertise and plans to 
contribute, is in the Nation's preparation to prevent toxicity and 
death from bioterrorism. Toxicogenomic technologies discussed earlier 
are capable of detecting, tracking, and containing chemical poisons or 
infectious microorganisms. Identification of susceptibility genes and 
characterization of their function through toxicogenomics can provide 
importance clues for understanding, and ultimately preventing, the 
progression of diseases. The specific pattern of gene response can also 
provide clues about host defense mechanisms which can also be exploited 
for prevention. NIEHS plans to use the National Toxicology Program to 
conduct toxicological evaluations of defined mixtures of contaminants 
identified by environmental monitoring studies of ambient and indoor 
air and dust; and to evaluate the safety of therapeutic regimens and 
intervention measures likely to be employed in biological or chemical 
terrorism events. This technology is not limited to chemicals; it could 
also identify genes whose expressions are critical for a pathogen to 
overcome body or host defense mechanisms.
                                summary
    Investment in environmental health prevention research is the best 
hope of eliminating the epidemic of disease. Investment in such 
research will save lives, spare pain and suffering, and save money in 
the years ahead. The proposed and ongoing research will lead to more 
effective environmental surveillance systems with the capacity to 
rapidly analyze and assess the health risks of chemical and biological 
agents.
                                 ______
                                 
               Prepared Statement of Dr. Richard J. Hodes
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute on Aging 
(NIA) for fiscal year 2003, a sum of $971,709,000, which reflects an 
increase of $75,645,000 over the comparable fiscal year 2002 
appropriation. The NIH budget request includes the performance 
information required by the Government Performance and Results Act 
(GPRA) of 1993. Prominent in the performance data is NIH's second 
annual performance report, which compared our fiscal year 2001 results 
to the goals in our fiscal year 2001 performance plan.
    Americans over age 65 are more likely today than at any other time 
in history to be vigorous and productive. Life expectancy, disability 
rates, and health and wealth indicators have all shown significant 
improvement over the past decade. At the same time, healthy, 
comfortable older age continues to elude many Americans, particularly 
members of certain racial, ethnic, and socioeconomic groups. Diseases 
of aging, including Alzheimer's disease, cardiovascular disease, 
osteoporosis, cancer, diabetes, and arthritis, affect too many older 
men and women, seriously compromising the quality of their lives. And 
the challenges of dealing with a rapidly aging population will continue 
to grow: According to data from the U.S. Bureau of the Census, there 
are today approximately 35 million Americans age 65 and older. If 
current demographic trends hold, that number will double by the year 
2030. NIA is committed to supporting high-quality research to address 
all aspects of aging, from conditions and diseases that primarily 
affect older people to physical, behavioral, and cellular 
characteristics of the aging process.
            americans are living longer and healthier lives
    Census data indicates that life expectancy in the United States is 
approximately 76 years, up from about 49 a century ago. This increase 
is largely due to improvements in health care, nutrition, and overall 
standard of living for most people. Longevity, particularly ``super-
longevity'' (living 100 years or beyond), also has a significant 
genetic and molecular component. For example, several genetic 
polymorphisms are known to confer extreme longevity in animal models, 
and studies suggest that similar polymorphisms may operate in humans. 
Scientists have also found that a positive outlook in early life may be 
associated with greater longevity. More research is needed to 
understand the connection between early emotional state and length of 
life.
    Not only are Americans living longer, but we're also remaining 
healthier into old age. The most recent National Long Term Care Survey 
(NLTCS), the latest of a series of surveys of the U.S. elderly 
population, continues to document a dramatic decline in the overall 
prevalence of physical disability among older Americans over the past 
two decades. While 26.2 percent of the elderly were assessed as 
disabled in 1982, this figure dropped to 19.7 percent in 1999. Of 
particular note is the sharp reduction in disability rates among 
African Americans during the 1990s, reversing trends from the 80s. 
Results from the NLTCS also show significant declines in severe 
cognitive impairment, with 900,000 fewer cases in 1999 than expected 
based on the 1982 rates a decline in prevalence from 5.2 to 2.7 
percent. The finding that cognitive disability is declining is also 
supported by evidence from the Health and Retirement Study, which 
indicated that declines were especially large among those with less 
than a high school education and those ages 80 and older, groups in 
whom cognitive impairment is particularly prevalent.
                     conquering alzheimer's disease
    Alzheimer's disease (AD), the most common cause of dementia among 
older persons, tragically affects as many as four million Americans, 
most of whom are 65 or older, according to the Alzheimer's Association. 
However, we have made progress in several important areas. For example:
    We are identifying risk factors.--Identifying risk factors for AD 
will help us identify pathways affecting its development or progression 
and may lead to better predictors of the disease even before it is 
clinically apparent. Until last year, just four of the approximately 
30,000 genes in the human genome were conclusively known to affect the 
development of AD pathology. Recent genetic studies suggest that as 
many as four additional and as yet unidentified genes may also be risk 
factors for late-onset AD. NIA-supported researchers are attempting to 
identify other risk factors through population studies.
    We are improving our ability to diagnose AD early.--Scientists are 
developing and refining powerful imaging techniques that target 
anatomical, molecular, and functional processes in the brain. These new 
techniques hold promise of earlier and more accurate diagnosis of AD, 
as well as improved identification of people who are at risk of 
developing the disease. Recent studies suggest that positron emission 
tomography (PET) scanning of metabolic changes in the brain and 
magnetic resonance imaging (MRI) scanning of structural brain changes 
may be useful tools for predicting future decline associated with AD 
and other neurodegenerative diseases.
    We are developing new, more effective treatments for AD.--One way 
to treat AD successfully may be to interfere with early pathological 
changes in the brain, including the development of AD's characteristic 
amyloid deposits and neurofibrillary tangles. A number of promising 
approaches, many of them targeted at the reduction of amyloid plaques, 
are being developed and tested in various model systems. In 2001, NIA 
funded research to find new ways to treat AD by targeting underlying 
disease processes and continuing development of a vaccine to prevent 
the disease. Recent studies have successfully used antibodies to clear 
amyloid plaques from the brains of mice that were genetically 
engineered to develop AD-like pathology. Other recent studies have 
shown that statins, the most commonly used cholesterol-lowering drug, 
may be associated with a lower risk of AD, and that high blood levels 
of the amino acid homocysteine may increase risk. Increasing intake of 
folic acid and vitamins B6 and B12 can reduce blood levels of 
homocysteine, and NIA is planning a clinical trial of these substances 
to test whether supplementation can slow the rate of cognitive decline 
in people diagnosed with AD.
    NIA is currently supporting 18 AD clinical trials, seven of which 
are large-scale prevention trials. These trials are testing agents such 
as estrogen, anti-inflammatory drugs, and anti-oxidants for their 
effects on slowing progress of the disease, delaying AD's onset, or 
preventing the disease altogether. Other intervention trials are 
assessing the effects of various compounds on the behavioral symptoms 
(agitation, aggression, and sleep disorders) of people with AD. The NIA 
is also supporting studies that are testing interventions for improving 
AD patient care delivery and alleviating caregiver burden.
                   understanding the biology of aging
    We are continuing to advance our understanding of the molecular and 
cellular changes that underlie aging processes. New technologies are 
providing answers to questions about how genes control cell and tissue 
function. Arrays of DNA corresponding to specific genes permit the 
comparison of expression of tens of thousands of genes at one time to 
determine which are turned on or off in a particular cell or condition. 
A collection of 15,000 mouse genes has been developed, including genes 
active in early development. To facilitate extensive use of this gene 
collection, NIA has made it available to research institutions 
worldwide. Verified sequences of each gene in the set are also 
available; by comparing the sequence information with genes that have 
already been well studied, scientists may be able to determine the 
function of these genes in mice. The Institute has also developed the 
NIA Microarray Facility, which provides investigators with low-cost 
access to microarrays developed from the set and will also provide for 
collecting and analyzing the gene expression findings of multiple 
investigators. Continued discovery of genetic pathways that influence 
longevity in a variety of experimental animal models may help in 
identifying both genes and molecular processes that affect health of 
aging humans.
                    reducing disease and disability
    In addition to AD, we have made a number of advances in other 
diseases and conditions. Our knowledge of the beneficial effects of 
exercise continues to increase; for example, last year researchers 
found that physical activity can stave off disability in older persons 
with osteoarthritis of the knee, a form of arthritis that is 
particularly common among people age 50 and over. NIA's highly 
successful campaign to encourage older people to exercise is working to 
translate research findings into action. Since the campaign was 
launched in 1998, NIA has distributed over 430,000 copies of its 
exercise guide and over 55,000 copies of its companion video to the 
public. In addition, a Spanish-language version of the guide was 
published in January 2002.
    To address disability and disease in special populations, NIA 
implemented a major new study of health disparities among different 
racial, ethnic, and socioeconomic groups. The study, Healthy Aging in 
Nationally Diverse Longitudinal Samples (HANDLS), focuses primarily on 
cerebrovascular health, cardiovascular health, age-associated changes 
in cognition, and strength and physical functioning. Through this 
study, we hope to address hypotheses about aging and health disparities 
in minority and poor populations to understand the significance of 
environmental and genetic risk factors for disease. The pilot phase of 
HANDLS, in which investigators assessed the logistics and feasibility 
of this community-based study, was completed at the end of 2001, and 
the larger population-based phase of this study is scheduled to begin 
in late fall of 2002.
    Other important research advances include:
    Parkinson's Disease.--In an effort to develop a new model of 
Parkinson's disease, scientists exposed rats to rotenone, a common 
pesticide. Exposed rats showed pathological changes characteristic of 
Parkinson's disease, as well as motor behavior abnormalities, such as 
rigidity and decreased motor activity, that are frequently seen in 
Parkinson's disease patients. This new model of Parkinson's disease 
will be useful in designing and testing new therapeutic interventions, 
as well as further identifying environmental exposures that may be risk 
factors for developing the disease.
    Diabetes.--Diabetes is one of the major debilitating diseases that 
affect older people. Among the elderly, type 2 diabetes is the most 
common; it occurs when pancreatic beta cells produce insufficient 
insulin or when the body cannot use its insulin efficiently. NIA-
supported researchers participated in the Diabetes Prevention Program, 
a major, multi-institutional study that was initiated by the National 
Institute on Diabetes and Digestive and Kidney Diseases and was 
designed to identify interventions that could prevent or delay the 
development of type 2 diabetes. The researchers found that people who 
are at high risk for diabetes can sharply reduce their risk by adopting 
a low-fat diet and moderate exercise regimen. This effect was most 
pronounced among study participants age 60 and over. Treatment with the 
drug metformin (Glucophage<Register>) also reduced diabetes risk among 
study participants, but for unknown reasons was less effective among 
older participants. Nearly half of the study participants were members 
of racial and ethnic groups that suffer disproportionately from type 2 
diabetes, including African Americans, Hispanic Americans, Asian 
Americans and Pacific Islanders, and American Indians.
    Cancer.--Much remains unknown about cancer diagnosis, prevention, 
and treatment in older people. NIA supports a variety of cancer-related 
basic and clinical research projects, many of them in collaboration 
with the National Cancer Institute (NCI) and other NIH Institutes. For 
example, NIA has an initiative to expand knowledge on aging- and age-
related aspects of prostate cancer in different populations. NIA and 
NCI have also created a partnership that has resulted in an aggressive 
research agenda within the NCI-designated cancer centers to reduce the 
burden of cancer for older persons.
    Hip Fracture Recovery.--According to a recent study (Marcantonio et 
al., J Am Geriatr Soc 48: 618-624, 2000), 250,000 older Americans 
fracture a hip each year, and delirium, an acute confusional state, 
complicates recovery from hip fracture repair in at least one-third of 
these people. Besides being frightening to patients and their families, 
and difficult to manage in the hospital, delirium after hip fracture is 
also associated with poor recovery of function in both the short and 
long term. In a recent study aimed at reducing risk factors for 
delirium, geriatricians provided a variety of recommendations to the 
orthopedic physicians caring for the hip-fracture patients. This 
intervention led to a one-third reduction in the number of patients who 
developed delirium and a one-half reduction in the patients who 
developed severe delirium.
    Estrogen Replacement Therapy.--Each year, millions of American 
women turn to hormone replacement therapy (HRT) to relieve peri- and 
post-menopausal symptoms and for protection against age-related 
conditions such as heart disease and osteoporosis. However, HRT can 
have unwanted side effects. In a recent clinical trial, women over age 
65 received one of three doses of estrogen. The highest dose was the 
amount most commonly prescribed today, and the lowest dose was one-
fourth of this amount. They found that the low dose markedly reduced 
bone breakdown, a reduction that was similar to that produced by the 
highest dose, and reduced the frequency of common side effects. In 
fact, low-dose therapy resulted in no more side effects than placebo. 
These findings suggest that a lower dose of estrogen may be just as 
effective as the regular dose, but have fewer side effects.
    Cardiovascular Disease.--An exciting area of stem cell research 
lies in the ability of the body to use its own stem cells to repair 
damaged organs. In a recent study, mice with induced heart damage were 
injected with particular proteins called cytokines. Stimulated by the 
cytokines, the mice's own primitive bone marrow cells migrated to the 
heart, converted to several different types of cardiac cells, and 
contributed to repair of the damaged tissue, improving both heart 
function and survival of the treated mice. In a study of human heart 
transplant patients, scientists found that primitive cells from heart 
transplant recipients can migrate to and become a functioning part of 
the donated heart. These results are extremely preliminary, and further 
research is needed. However, the findings from these studies challenge 
the conventional wisdom that damaged heart tissue cannot be 
regenerated, and suggest that the body's own naturally-occurring stem 
cells may be able to repair tissue damage and fight disease.
                               conclusion
    It is becoming increasingly obvious that old age need not be 
associated with illness, frailty, or disability. In fact, we have made 
tremendous progress against all of the major diseases and conditions of 
aging. However, much work remains to be done. By continuing and 
intensifying research, NIA can move forward in meeting the promise of 
extended life by improving the health and well-being of older people in 
America.
                                 ______
                                 
               Prepared Statement of Dr. Stephen I. Katz
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Arthritis 
and Musculoskeletal and Skin Diseases for fiscal year 2003, a sum of 
$488,228,000, which reflects an increase of $37,988,000 over the 
comparable fiscal year 2002 appropriation.
    It is an honor for me to have this opportunity to share stories of 
research advances as well as highlights of the many opportunities we 
have in research on bones, muscles, joints, and skin. The mission areas 
of our Institute touch the daily life of millions of Americans, and we 
are committed to improving quality of life as well as longevity. 
Diseases within our mandate know no barriers in terms of age, gender, 
ethnicity, or socioeconomic status. In fact, many of the diseases in 
our mission areas disproportionately affect women and minority 
individuals, and we are committed to determining why this is the case.
                          research in children
    While we typically associate chronic diseases with the elderly, the 
fact is that they can affect people of all ages, and can rob a child of 
the joys and activities of the young. The other reality is that 
children are not small adults--diseases affect them in different ways 
and treatments may have different effects in children than adults. In 
light of these and other realities, the NIAMS has undertaken a number 
of programs and activities focused on children to enhance our 
understanding of childhood diseases and to develop improved treatments 
for our younger generation. For example, it has been said that 
osteoporosis is actually a disease of childhood that is manifested in 
later years. We know how vitally important it is that children develop 
a strong skeleton in childhood so that they can withstand the age-
related changes that occur in their bones later in life. Research 
supported by the NIAMS has resulted in the design of a 7-month, high 
intensity jumping regimen that will increase peak bone mass at two 
clinically critical sites, the hip and the spine. Investigators 
discovered that children who participated in the jumping program had a 
significantly greater change in bone mineral content in both the hip 
and spine compared with a control group, as well as showing positive 
differences in bone mineral density and bone area. This regimen, which 
can easily be incorporated into the regular elementary school 
curriculum, has potentially important public health implications with 
respect to optimizing peak bone mass attainment in young people.
    The NIAMS has also placed an enhanced emphasis on research on 
osteogenesis imperfecta (OI), one of the most common genetic diseases 
of bone. OI is characterized by brittle bones that fracture easily, and 
is caused by mutations in the gene for a protein called type I 
collagen. NIAMS-supported researchers have recently reported very 
exciting progress in both the controlled introduction of genes into 
bone cells, as well as the ability to inactivate mutant genes that can 
cause disease. Further progress in OI research is expected as a result 
of several new grant awards from the NIAMS for projects ranging from 
cutting-edge gene and cell therapies to testing drug treatments in 
mouse models of the disease.
    In other research related to children, the NIAMS continues to lead 
the NIH's Pediatric Rheumatology Clinic. In addition to providing 
diagnosis, evaluation, and treatment of juvenile arthritis and other 
rheumatic diseases, the clinic facilitates the translation of research 
advances to improve patient care. A new study underway at the clinic is 
designed to determine the best medication combinations for treating 
children with juvenile rheumatoid arthritis. We recognize that we have 
much to learn about diseases in children and we are currently 
developing a new, broad initiative that will focus on multidisciplinary 
translational research projects in rheumatic and immuno-inflammatory 
skin and muscle diseases of children so that we can target those areas 
that present special challenges in children.
                 arthritis and other rheumatic diseases
    Research on osteoarthritis, a degenerative joint disease, took a 
big step forward with the launching of the new public-private 
partnership that teams several NIH entities, the FDA, and four 
pharmaceutical companies in the Osteoarthritis Initiative. Clinical 
research on osteoarthritis has been severely hampered by the lack of 
biological markers needed to assess the progression of this most common 
form of arthritis. The significant commitment required to undertake 
such a study has been beyond the scope of either government or industry 
alone, but is feasible and indeed underway through this new 
partnership. The NIAMS teamed with our colleagues in the National 
Institute on Aging in leading this effort to fund from four to six 
clinical research centers to establish and maintain a natural history 
database for osteoarthritis. The database will include clinical 
evaluation data and radiological images, as well as a biospecimen 
repository. All data and images collected will be available to 
qualified researchers worldwide to help hasten the pace of scientific 
studies and biomarker identification. In a separate effort, the NIAMS 
is supporting work to develop biomarkers for two chronic inflammatory 
diseases which affect many Americans, rheumatoid arthritis and lupus.
    Lupus is a serious and potentially fatal autoimmune disease that 
occurs with greater frequency and intensity in African American women, 
and it affects many organ systems of the body. One of the challenging 
manifestations of lupus is the involvement of the nervous system, and 
researchers supported by the NIAMS have recently reported significant 
advances in our understanding of the molecular mechanisms involved in 
the changes that can occur in the brains of people with lupus. The 
identification of the particular antibodies involved not only helps us 
to understand the nervous system complications in lupus, but also 
provides some new therapeutic possibilities for this aspect of lupus 
that can be difficult and challenging for affected patients, their 
families, and their health care providers. To further enhance research 
in this area, the Institute has recently released a solicitation for 
applications on neuropsychiatric lupus, in an effort to stimulate 
additional study of the neurological and psychiatric syndromes 
associated with this chronic disease.
                     bone biology and bone diseases
    Basic researchers have reported new insights into the complex 
effects of estrogen on bone. We know that the most common cause of bone 
loss is the decline in the female sex hormone, estrogen, in women after 
menopause. Estrogen also appears to be important in maintaining bone 
mass in men, although men have more of the male sex hormone androgen 
than estrogen. Recent research reports from work supported by the NIAMS 
have provided important clues to the complex relationship between 
estrogen and bone, and revealed as many research investigations do that 
we still have much to learn about the action of estrogen as well as the 
function of estrogen receptors. The most recent research reports 
indicate that either estrogen or androgen can act to increase bone 
formation and prevent net bone loss. In other research, scientists have 
shown that particular cells of the immune system called T cells can 
contribute to the bone loss that occurs when estrogen levels are low. 
These and other basic studies funded by the NIAMS are adding to the 
foundation of knowledge of normal function in bone biology and the 
changes that occur in bone diseases. Recent initiatives to stimulate 
further work in the bone sciences include the release of solicitations 
to encourage applications on new research strategies for the evaluation 
and assessment of bone quality, and one on basic and applied stem cell 
research for arthritis and musculoskeletal diseases.
                   muscle biology and muscle diseases
    This has been a very active year in the whole field of the muscular 
dystrophies as the NIAMS has joined our colleagues in the NINDS in 
targeting research in this area. Over the last two years, we have 
supported two successful scientific conferences, and issued research 
solicitations to the research community targeting those areas of 
particular opportunity that were identified by experts at the 
conferences. As a result of these activities, the NIAMS and NINDS 
recently awarded several new grants to support both basic and clinical 
research studies in facioscapulohumeral dystrophy (FSHD), the third 
most common genetic disease of skeletal muscle. We have also funded a 
number of projects in follow-up to a solicitation for proposals on 
therapeutic and pathogenic approaches for the muscular dystrophies. In 
addition, we continue to support a research registry in particular 
forms of muscular dystrophy that serves as an invaluable resource for 
scientists to collect and analyze new research data in their pursuit of 
better treatments for muscular dystrophies.
                     skin biology and skin diseases
    Chronic wounds are a significant public health challenge, 
particularly in the elderly and people with diseases like diabetes that 
affect skin healing. A new living skin substitute showed a significant 
improvement in wound healing and a decrease in time to complete closure 
of the wound in people with diabetic foot ulcers. Newer technologies 
such as artificial skin equivalent systems can improve the rate of 
healing of existing wounds, as well as minimize or reduce the incidence 
of severe complications.
    Pseudoxanthoma Elasticum (PXE) is a systemic inherited disorder 
that affects the elastic tissue in the skin, eyes, and cardiovascular 
system, and it can result in severe and even fatal problems in affected 
individuals. The fascinating new dimension to our understanding of PXE 
is that, contrary to earlier beliefs, PXE is actually a metabolic 
disorder. The recognition that this is a metabolic disease offers new 
hope for the development of treatments based on metabolic modifications 
potentially including such approaches as diet manipulation or drug 
therapy. There is also the potential for PXE to be identified in 
affected people early so that treatment can be instituted before signs 
and symptoms of the disease actually occur. To boost research on PXE 
and other heritable disorders of connective tissue, such as Marfan 
syndrome and Ehlers-Danlos syndrome, the Institute recently released a 
solicitation, along with our colleagues at the National Heart, Lung, 
and Blood Institute, to encourage more basic and clinical studies of 
these disorders.
                           health disparities
    A number of diseases within the mission areas of the NIAMS affect 
women and members of minority groups disproportionately, including 
lupus, scleroderma, osteoarthritis, vitiligo, and keloids. In addition 
to the vigorous research portfolio that the NIAMS funds in these areas, 
I want to cite two programs that the Institute supports that address 
the critically important area of health disparities. We continue our 
active involvement in the Health Partnership Program, a model 
community-based research program to study rheumatic diseases in the 
African American and Hispanic/Latino communities in the metropolitan, 
Washington, D.C., area. In addition, we enthusiastically support a 
newly initiated program that the NIAMS was active in creating--a new 
strategy for enhancing clinical research training in minority-serving 
institutions. The goal of this program is to produce well-trained 
clinical researchers who will go on to lead clinical research projects. 
Finally, in follow-up to a major scientific conference organized by the 
Institute, the NIAMS is developing a new initiative on health 
disparities in rheumatic and skin diseases.
                      intramural research program
    The NIAMS Intramural Research Program (IRP) is a vital and growing 
program that has become a national and international resource, as well 
as a recognized site for scientific excellence on the NIH campus. A 
major new program that the IRP has undertaken is the initiation of a 
trans-NIH collaboration in musculoskeletal medicine. This effort will 
include the development of innovative fundamental science, clinical 
studies, and translational research. The collaboration is designed to 
build on strengths that are already present at the NIH, as well as 
foster the growth of new research and training programs in the critical 
and under-served area of musculoskeletal medicine.
                               conclusion
    Virtually every home in America is touched by diseases affecting 
bones, joints, muscles, and skin. We are committed to better 
understanding, diagnosis, treatment, and prevention of these diseases 
and disorders that are typically chronic, costly, common, and 
disabling. The vitality of our bones, joints, muscles, and skin is key 
to the length and quality of our lives. Medical research supported by 
the NIAMS has made significant strides in improving health and quality 
of life, and we are committed to pursuing promising research 
opportunities that will continue to improve the health of the American 
people.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is the NIH's second annual 
performance report which compared our fiscal year 2001 results to the 
goals in our fiscal year 2001 performance plan.
    I will be happy to answer any questions that you may have.
                                 ______
                                 
             Prepared Statement of Dr. James F. Battey, Jr.
    Mr. Chairman, and members of the Committee: I am pleased to present 
the President's budget request for the National Institute on Deafness 
and Other Communication Disorders (NIDCD) for fiscal year 2003, a sum 
of $371,951,000, which reflects an increase of $28,880,000 over the 
comparable fiscal year 2002 appropriation. The NIH budget request 
includes the performance information required by the Government 
Performance and Results Act (GPRA) of 1993. Prominent in the 
performance data is NIH's second annual performance report which 
compared our fiscal year 2001 results to the goals in our fiscal year 
2001 performance plan.
    Disorders of hearing, balance, smell, taste, voice, speech, and 
language exact a significant economic, social, and personal cost for 
many individuals. The NIDCD supports and conducts research and research 
training in the normal processes and the disorders of human 
communication that affect many millions of Americans. Human 
communication research now has more potential for productive 
exploration than at any time in history. With substantive 
investigations conducted over the past decades and the advent of 
exciting new research tools, the NIDCD is pursuing a more complete 
understanding of the scientific mechanisms underlying normal 
communication and the etiology of human communication disorders. 
Results of this research investment will foster the development of more 
precise diagnostic techniques, novel intervention and prevention 
strategies, and more effective treatment methods.
    Excessive noise has long been recognized as an occupational hazard 
among adults, and hearing conservation programs have been implemented 
in the workplace. However, the resiliency of a child's auditory system 
following noise exposure needs further research. Chronic exposure to 
loud music, fireworks, lawn mowers or toys can accumulate over a 
lifetime to gradually produce irreversible damage to the sensory cells 
of the inner ear. The results of a recent survey conducted by the 
Centers for Disease Control and Prevention revealed that approximately 
5.2 million American youths have some degree of hearing loss due to 
exposure to noise at hazardous levels.
    Identification of Genes Causing Deafness.--Hearing loss occurs with 
a frequency of about 1 in 1,000 newborns and is also a prevalent, but 
not necessarily inevitable, feature of the aging process. Causes of 
hearing loss in children and the elderly include viral and bacterial 
infections, loud noise, head trauma, drugs or other chemicals that are 
toxic to the sensory cells of the inner ear, as well as mutations in 
genes critical for normal auditory function and development. NIDCD 
scientists are identifying the genes whose mutations result in hearing 
loss. Recently, NIDCD Intramural scientists identified a gene located 
on chromosome 10 that is involved in Usher syndrome type 1D (USH1D). 
Individuals that inherit two copies of this mutated gene are born 
profoundly deaf, have severe balance problems and gradually lose their 
sight beginning in adolescence. The scientists discovered that USH1D 
gene encodes a protein called cadherin-23. Knowledge of the function of 
cadherin-23 in the inner ear will provide new insight into cellular 
processes essential for normal auditory function, which may ultimately 
guide the development of improved diagnosis and treatment methods. 
NIDCD expects to support collaborations between its Intramural 
scientists and those of the National Eye Institute in these areas.
    NIDCD scientists also identified a gene (DFNB29) located on 
chromosome 21 whose mutation caused recessively inherited hearing loss. 
This gene encodes a protein, claudin-14, which is believed to help seal 
adjacent cells together in the inner ear thus preventing the leakage of 
endolymph fluid. The endolymph bathes the sound transduction cells and 
is essential for conversion of the mechanical energy of sound into an 
electrical signal that is sent to the brain. Studies are underway in a 
new mouse model to advance our understanding of the function of 
claudin-14.
    Discovery of Novel Deafness Genes and Genetic Characterization of 
Hearing Impairment.--NIDCD has developed a substantial research 
portfolio to study existing mouse mutants as well as creating new mouse 
models to facilitate the discovery and analysis of genes whose mutation 
causes hereditary hearing impairment in humans. In a recent study 
utilizing the mouse mutant Waltzer, NIDCD Intramural scientists showed 
that mutations in the human cadherin gene family cause Usher Syndrome 
type 1D. This mouse model is a critical research tool for determining 
the identification of the mechanisms by which cadherin mutations cause 
this devastating deafness and blindness syndrome. In another NIDCD-
supported study, a mouse nuclear gene has now been shown to interact 
with mutated genes in the mitochondria to significantly alter the 
severity of age-related hearing loss. This model system should provide 
important information regarding age-related hearing loss in humans, a 
relatively common and debilitating health problem within the aging U.S. 
population. These findings underscore the power of mouse genetics and 
the value of mouse models of deafness for the identification and 
detailed molecular characterization of human hearing impairment.
    Scientists Identify Sweet Taste Receptor Gene.--Understanding the 
molecular and cellular events that occur at the early stages of taste 
perception at the level of the taste receptor cell provides important 
insight into how we taste different sweet, bitter, salty and sour 
substances. A variety of distinct signaling pathways are activated by 
the basic taste qualities of salty, sour (acid taste), sweet, and 
bitter. Salty- and sour-tasting compounds activate ion channels that 
are located at taste receptor cells clustered within taste buds of the 
tongue and palate while bitter and sweet compounds bind to G protein-
oupled receptors. Recently, four NIDCD-supported laboratories 
independently identified a gene, T1R3, at the mouse Sac locus that 
encodes a sweet taste receptor subunit. Differences in sweetener intake 
among inbred strains of mice are partially determined by variation in 
genes at the saccharin preference (Sac) locus. It was determined that 
the T1R3 receptor differs in amino acid sequence in ``sweet 
preferring'' versus ``sweet indifferent'' mouse strains. Both human and 
mouse T1R3 are G protein- coupled receptors, and are selectively 
expressed in subsets of taste receptor cells that are sensitive to 
sweet substances.
    Abilities in Auditory Pitch Recognition are Largely Inherited.--
Auditory pitch recognition is a complex process that allows us to 
determine the pitch or tone of a sound. In this process, the ears 
receive the sound signal and the brain interprets this signal to 
produce the pitch we perceive. Individuals with problems in pitch 
recognition are sometimes referred to as ``tone deaf.'' Severe deficits 
in pitch recognition may be associated with speech and language 
disorders. It was long known that tone deafness can run in families. 
However, it was not known whether this disorder was due to inherited 
genes or to a common environment shared by family members. To answer 
this question, NIDCD Intramural scientists performed a large study on 
twins. The results show that identical twins scored much more alike 
than fraternal twins on a Distorted Tunes Test. The data revealed that 
approximately 70-80 percent of an individual's score is due to their 
genes and 20-30 percent due to other factors. The discovery that 
individual differences in pitch recognition are mostly genetic opens up 
the possibility of using genetic methods and information from the Human 
Genome Project to find the genes essential for pitch recognition. 
Identifying such genes and how they function will provide new insight 
into how the brain processes sound.
    How Basic Biology Translates into New Technology to Help the 
Hearing Impaired.--Over the past decade, NIDCD-supported scientists 
have been studying the amazing auditory capability of Ormia ochracea, a 
tiny parasitic fly with such acute directional hearing that it has 
inspired a new generation of hearing aids and nanoscale listening 
devices. Ormia can detect very small differences in sound-source 
position, a situation analogous to humans trying to detect who is 
speaking in a crowded room. This accomplishment is due to the unique 
anatomy of the eardrums of Ormia. The fly's eardrums are connected 
internally by a cuticle-based bridge that functions as a flexible 
lever. This unusual structure allows the membranes of the eardrum to 
vibrate in response to sound in two distinct ways, with different 
resonant frequencies. Trying to mimic the Ormia ear in silicon, 
engineering groups so far have developed prototype ``microphone 
eardrums'' that function ``Ormia-like'' as predicted but at ultrasonic 
frequencies. Additional research will be needed to generate prototypes 
that detect sound in the range of normal human hearing, that will be 
highly directional, fit inside the ear canal, and be affordable. Other 
applications of the Ormia-inspired silicon ear might include robotic 
listening devices. These latest findings have led to collaborations 
between neurobiologists and engineers to make a directional hearing aid 
that would be smaller, simpler and cost less than currently available 
devices.
    Although hearing aid technology has advance rapidly over the last 
few decades, the various hearing aids available still do not function 
well in real world situations where sound from more than one source is 
present, and they are not particularly effective in restoring the 
listener's ability to cope with the problem of attending to a single 
speech source among competing speech sources. NIDCD-supported 
scientists are actively engaged in research to develop ``intelligent'' 
hearing aid systems that are capable of selectively locating and 
characterizing a sound in a crowd.
    Functional Brain Imaging as a Tool to Understand Cochlear Implant 
Performance.--The cochlear implant is the first clinically useful 
neural sensory prosthesis to replace a human sense. It converts sound 
into electrical impulses on an array of electrodes that is surgically 
inserted into the inner ear, bypassing the inner ear hair cells and 
stimulating the auditory nerve directly, restoring the perception of 
sound to persons who are totally, or almost totally, deaf. This device 
has allowed adults who lost their hearing to recover an ability to 
understand speech. Although speech perception performance of adults has 
steadily increased with new advances in cochlear implantation, wide 
performance variations exist among cochlear implant recipients. 
Differences in structural and functional abnormalities of the auditory 
system may play a role in this variability. However, little is known 
about the reorganization of the auditory system following deafness, or 
on the preservation or recovery of auditory function following cochlear 
implantation. NIDCD-supported scientists have completed preliminary 
studies examining functional brain imaging in individuals before and 
after cochlear implantation. The data suggest that preoperative to 
postoperative changes in the brain's responsiveness as measured by 
imaging are related to improvements in speech perception scores. Also, 
despite relatively similar hearing losses in each ear, significant 
differences in preoperative auditory cortex activation were observed 
between ears, which may help guide selection of the more appropriate 
ear for implantation.
    Phase I Clinical Trial of an Otitis Media Vaccine Candidate.--
Otitis media (OM) is the most common reason for a sick child to be 
evaluated by a physician, a public health burden estimated to cost 
approximately $5 billion a year in the United States. In addition to 
the cost savings, prevention of OM is particularly important because 
repeated antibiotic treatment of OM often results in the appearance of 
drug-resistant strains of bacteria which can no longer be eradicated 
with first-line antibiotics. NIDCD Intramural scientists have developed 
candidate vaccines that would protect infants from OM caused by two 
major bacterial pathogens: nontypeable Haemophilus influenzae and 
Moraxella catarrhalis. These two pathogens account for two-thirds of OM 
cases in children, and there is no vaccine available for prevention of 
the disease. Pre-clinical testing with such vaccines from nontypeable 
H. influenzae demonstrated that the vaccines could generate specific 
immunity against the bacteria and reduce bacterial colonization in nose 
and throat, and reduce the incidence of OM in animal models. Additional 
clinical trial involving 40 normal human adult volunteers, one such 
vaccine directed against H. influenzae proved to be both safe and 
effective, eliciting a significant immune response against the 
bacteria. This candidate vaccine will soon be tested in a second trial 
for safety and effectiveness in children. For Moraxella catarrhalis, 
similar preclinical approaches were taken, resulting in several 
candidate vaccines. Pre-clinical testing in animal models with vaccines 
for Moraxella catarrhalis demonstrated that the vaccines were safe and 
effective, eliciting a significant immune response that inhibited 
bacterial growth.
    Additional clinical trials are planned to test these candidate 
vaccines for safety and efficacy in humans.
    Genetic Testing and the Clinical Management of Nonsyndromic 
Hereditary Hearing Impairment.--In the last decade, approximately 20 
genes whose mutations result in nonsyndromic hearing impairment have 
been identified and isolated. Mutations in one of these genes, GJB2, 
accounts for about 25 percent of all autosomal recessive nonsyndromic 
hereditary hearing impairment in American children. With the 
identification of genes that contribute to hearing function, genetic 
testing becomes technically possible but not necessarily suitable for 
widespread clinical application at present. With the enactment of some 
type of legislation that requires universal hearing screening for 
newborns in 36 states, not only are infants with severe hearing 
impairment identified much earlier in life but infants with lesser 
degrees of hearing impairment are now also being identified. Many 
unresolved issues remain for clinicians as they characterize auditory 
performance in a newborn who fails hearing screening, design 
intervention strategies to optimize communicative success and ensure 
that a ``medical home'' exists for the infant with hearing impairment. 
The advances in the genetics of hereditary hearing impairment and in 
the early identification of hearing impairment have now converged. 
These advances have led some to suggest genetic testing/evaluation for 
all infants who are identified with a hearing loss at birth. In 
consideration of these developments, the NIDCD and the National Human 
Genome Research Institute are collaborating on an initiative to address 
the clinical relationship between genetic and audiologic/otologic 
information, as well as to address the clinical validity and utility of 
genetic testing in the diagnosis, treatment and management of 
nonsyndromic hereditary hearing impairment.
                                 ______
                                 
             Prepared Statement by Dr. Richard K. Nakamura
    Mr. Chairman, and members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Mental 
Health (NIMH) for fiscal year 2003, a sum of $1,359,008,000, which 
reflects an increase of $105,358,000 over the comparable fiscal year 
2002 appropriation.
    In my statement I will highlight new NIMH initiatives that 
represent both what we are doing proactively to better meet the 
clinical treatment needs of people with severe mental disorders, and 
how we are responding to urgent national needs, including the 
psychological aftermath of the September 11 terrorist attacks. I also 
will describe selected findings that illustrate how NIMH is exploiting 
advances across a broad spectrum of neuroscience and behavioral science 
toward our goal of understanding the brain and, of understanding how, 
when its processes go awry, mental disorders can occur.
         mental illness is real and can be treated effectively
    From our perspective at NIMH, one of the signal accomplishments of 
the past decade has been the continuing destigmatization of mental 
illness. Many parties, from patients and families, to grass roots 
organizations, to the media, to government have contributed to the task 
of public education. The landmark Surgeon General's Report on Mental 
Health struck a resounding chord with millions of Americans. Supported 
by a meticulous review of current scientific knowledge, it issued a 
straightforward message: Mental illnesses are real and are treatable, 
and recovery is possible. More than a scientific communication, this is 
a message of hope that has raised spirits across our Nation. As a 
marker of the success of NIMH in continuing to disseminate accurate 
education about mental disorders, I would note that our award-winning 
home page (www.nimh.nih.gov) now registers some 7 million hits each 
month.
             developing new treatments for mental illnesses
    Of course, our educational efforts must be backed up by productive 
science. We are confident our investments in basic science are on the 
right track. We also have launched an unprecedented series of clinical 
effectiveness trials characterized by large sample sizes and relatively 
few exclusion criteria; in order to further ensure the generalizability 
of findings, these trials occur not only in academic clinics but also 
in more ``real world'' settings including primary care settings. We are 
assessing outcome on the basis of symptom reduction and also use 
measures of functional rehabilitation. The approach also calls for 
aggressive dissemination of results.
    Now, in a major new enhancement of treatment improvement research, 
NIMH is launching a sweeping initiative designed to introduce 
fundamentally new approaches to the development of treatments for 
mental disorders. Somatic and psychological treatments available today 
are highly effective for many people with mental disorders. For 
significant numbers of persons, however, extant treatments are not 
effective. Too much time may be required for medications to exert 
therapeutic effect, thus rendering a treatment impractical in some 
instances; in other cases, certain individuals do not respond 
sufficiently to achieve full remission from an acute episode of illness 
or to avoid recurring episodes. With the advice of the Treatment 
Development Workgroup of the National Advisory Mental Health Council 
(NAMHC), we are exploring how federally funded research complements and 
can leverage work being conducted in the private sector. With respect 
to medications development, for example, we plan to step up our efforts 
to generate information needed by private sector entities whose 
business it is to develop and test promising new compounds. 
Additionally, a challenge of immediate importance for NIMH is to 
encourage the field to move beyond thinking of new treatments only from 
the perspective of diagnostic entities such as schizophrenia or 
depression, and to focus down to the component symptoms that combine to 
form global diagnostic entities. Schizophrenia, for example, is 
characterized by dimensions such as disorganized thinking, 
misperception of reality, and cognitive impairment. The Food and Drug 
Administration (FDA) currently approves most drugs for psychiatric 
disorders only for diagnoses categorically defined in the Diagnostic 
and Statistical Manual (DSM) of Mental Disorders (4th Edition). 
Research that leads to an appreciation of psychiatric diagnoses as 
``multi-dimensional'' will position NIMH to partner with FDA and 
industry to achieve consensus on appropriate methods and clinical 
endpoints other than DSM diagnoses. If symptom complexes such as 
cognitive impairment in schizophrenia were to be recognized by the FDA 
as legitimate targets for new drug registration, the pharmaceutical 
industry would be provided with powerful incentives to develop 
treatments targeting these specific disabilities and great benefits in 
health might accrue.
    The Treatment Development Initiative will be an Institute-wide 
enterprise, with a key role to be assumed by the intramural Mood and 
Anxiety Disorders Program. This newly established program has recruited 
senior investigators from academia and now stands at the leading edge 
of research aimed at understanding and measuring structural changes in 
the brain associated with depression, chronic stress, and post-
traumatic stress disorder, and at developing brain-based biomarkers to 
be used in monitoring treatment progress and outcome. Other research 
objectives will encompass studies of gene expression of proteins that 
may serve as potential targets for new drugs, development of more 
informative animal models, preclinical development of promising new 
compounds, and efforts to better dissect DSM syndromes into component 
dimensions that can be targeted for specific treatment.
    Meeting the urgent goal of expanding the array of interventions 
that will be effective for more individuals with disorders is 
contingent on our long-term investments in diverse areas of research. I 
would like to highlight a few findings reported by NIMH-funded 
investigators over the past year indicating that we are, indeed, 
realizing dividends from our research conducted over the course of many 
years, for example, in refining brain imaging technologies and in 
exploiting cutting edge tools such as molecular genetics in the study 
of mental disorders.
          visualizing brain changes in childhood schizophrenia
    Schizophrenia, the subject of the acclaimed new film, A Beautiful 
Mind, based on the book by Sylvia Nassar, is a cruel disease. According 
to the World Health Organization, schizophrenia affects approximately 1 
percent of the population globally. The illness most often manifests in 
late adolescence or early adulthood. Psychotic symptoms, including 
hallucinations and delusions, can be severely and persistently 
disabling. Understanding brain changes that correlate with psychotic 
symptoms will give us insight into the origins of schizophrenia. In 
recent years, imaging studies have shown changes in the volume of 
various brain structures that correlate with a diagnosis of 
schizophrenia. Last year, a team of NIMH investigators reported a study 
that used magnetic resonance imaging (MRI) to examine, over the course 
of 5 years, a group of teenagers with relatively rare early-onset 
schizophrenia, and to compare the brain scans of these young patients 
to those of a group of healthy controls. In the ill children, gray 
matter loss began in a small region of the parietal cortex, where gray 
matter is lost normally in adolescence. Over the course of the study, 
however, the images revealed a virtual wildfire of tissue loss 
spreading across the brains of these teens as schizophrenia progressed; 
the extent of these structural changes reflected the severity and time-
course of symptoms. Identifying these changes and their causes will 
help researchers to understand the mechanisms of psychotic disorders 
and, in the long run, develop better treatments.
           seeking clues to genetic vulnerability for autism
    Although no specific genes have been identified to date and no 
specific region of the genome has been linked unambiguously to autism, 
the presence of a strong genetic component is incontrovertible. The 
genetic, or heritable, component is thought to account for as much as 
90 percent of the liability for autism. Evidence to date is most 
consistent with involvement of multiple genes, each having small 
effect, that together with nongenetic factors produce vulnerability. A 
number of Institutes are collaborating on studies of autism, and the 
pace of research is encouraging. Last year, an NIMH grantee reported a 
potential linkage to autism of variants of a gene called wnt2. The gene 
is expressed in the brain's thalamus, a region important for 
integrating information. The product of the wnt2 gene appears to play a 
key role in brain development and behavior. The finding is intriguing 
in light of other studies demonstrating that mice that lack a signaling 
molecule called ``Disheveled,'' which is in the same molecular pathway 
as wnt2, exhibit reductions in general social interactions, in huddling 
during sleep, and in other grooming behaviors--all behaviors that 
suggest symptoms of autism. The promise of genetics research is to shed 
light on the biology of the illness and, in turn, to lead to earlier 
diagnosis and improved treatments; ultimately, of course, we anticipate 
that genetics studies will lead to preventive interventions.
    As this basic work proceeds, I wish to note that NIMH maintains a 
network of Research Units on Pediatric Psychopharmacology, or RUPPS, 
that includes five research groups dedicated to evaluating treatments 
for autism, examining, for example, dose ranges and regimens of 
medications and their effects on cognition, behavior, and development. 
Complementary studies of pediatric pharmacology are being supported by 
the National Institute of Child Health and Human Development (NICHD). I 
also am pleased to report that NIMH and NICHD soon will launch the 
first round of funding in the new STAART (Studies to Advance Autism 
Research and Treatment) Centers program called for in the Children's 
Health Act of 2000.
            9/11: responding to the psychological aftermath
    In opening, I mentioned that the Institute has been involved in our 
national response to the September attacks on our Nation. Even as we 
mourn the loss of the more than 3,300 persons who lost their lives that 
day in New York, Washington, and Pennsylvania, we must attend also to 
the cost of those tragic events to millions of Americans who have 
suffered and are living with horrific images and memories of 9/11. 
While communities are pressed to deal with immediate problems, it is 
important to learn what we can from these terrible events. NIMH is 
utilizing multiple research mechanisms, including Rapid Assessment Post 
Impact of Disaster (RAPID) grants and supplements to existing 
longitudinal and clinical studies. The RAPID program was established 
years ago to support research in the aftermath of an unforeseen event 
that necessarily requires expedited peer review and funding 
consideration. From a large number of inquires, we invited 
approximately 18 applications to undergo peer review. These propose to 
address topics including the epidemiology of exposure and reactions; 
the nature of settings in which victims/survivors present for care and 
what types of care are provided; the mental health impact of 
bioterrorism and on-going threats; the mechanisms by which trauma 
confers risk for adverse health outcomes; and use of various 
interventions to reduce the risk of disorder and disability. Several 
projects now are in review and plans are being made for funding.
    In addition, we are enhancing ongoing epidemiological and clinical 
research studies by adding questions relevant to the impact of the 
attacks. For example, questions related to exposure to terrorist attack 
and the subsequent psychological distress were added to ongoing studies 
of adult and child mental health being conducted by investigators in 
New York. Research on the neurobiological mechanisms by which trauma 
increases the risk of mental disorder for children and adults also is 
being conducted in New York, and now will involve victims/survivors of 
the World Trade Center attacks. NIMH will also be looking to a number 
of national surveys of health and mental health to provide estimates of 
prevalence of mental disorders, functional impairments and disability, 
services needed and being used before and after the attacks.
    In this context, we know that post-traumatic stress disorder, or 
PTSD, can be a chronic, debilitating disorder that develops in some but 
not all people exposed to severely threatening trauma. Insomnia and 
non-restorative sleep--and nightmares representing the trauma--are 
recognized symptoms of PTSD. Recent research indicates a relationship 
of dream characteristics and early adaptive vs maladaptive patterns of 
processing traumatic memory. These findings have immediate clinical 
utility in helping suggest persons to whom early treatments should be 
targeted.
         john edward porter neuroscience research center (nrc)
    We are pleased that work is progressing on schedule in construction 
of the NRC. The foundation is being poured imminently, and six NIH 
institutes that have programs in neuroscience are slated to begin 
working in the facility in January 2004. Ultimately, the neuroscience 
programs of ten Institutes will be housed in the Center, greatly 
facilitating the exchange of information and its translations into 
clinical applications.
                           nimh directorship
    Dr. Steven E. Hyman, NIMH Director from 1996 to December 2001, has 
returned to Harvard University as Provost. While we miss his energy and 
vision, we plan to continue build on the progress of the past five 
years. A national search for a permanent director is underway.
    Mr. Chairman, the NIH budget request includes performance 
information required by the Government Performance and Results Act 
(GPRA) of 1993. Prominent in the performance data is NIH's second 
annual performance report, which compared our fiscal year 2001 results 
to the goals in our fiscal year 2001 performance plan. I will be 
pleased to respond to any questions.
                                 ______
                                 
                Prepared Statement of Dr. Glen R. Hanson
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute on Drug Abuse 
for fiscal year 2003, a sum of $967, 898,000 which reflects an increase 
of $76, 960,000 over the comparable fiscal year 2002 appropriation.
                   nida's strong research foundation
    I feel very honored to be serving as the Acting Director of the 
National Institute on Drug Abuse (NIDA) at a time when new discoveries 
of significant promise are transforming our understanding of the brain 
and body and providing us with the knowledge we need to confront both 
the new and the old realities of the day.
    Budget increases, visionary predecessors, and the unprecedented 
pace in neurobiology have allowed the National Institute on Drug Abuse 
to establish a strong research foundation from which to alleviate the 
complex public health problem of drug abuse and addiction. As the 
world's leading supporter of research on the health aspects of all 
drugs of abuse, including nicotine, NIDA addresses the most fundamental 
and essential questions about drug abuse and addiction, which range 
from understanding how drugs act on the brain; to identifying and 
minimizing the role that stress can play in drug use and relapse; to 
detecting and responding to emerging drug use trends such as 
``Ecstasy'' and prescription drugs.'' This portfolio also continues to 
elucidate our understanding of drug abuse as a preventable behavior and 
drug addiction as a treatable disease.
    Coupled with strong research is our ability to expand its 
dissemination to clinicians. Through coordinated dissemination and 
translational research efforts, NIDA ensures that even the most basic 
neurobiology discoveries systematically influence community prevention 
and treatment providers across the country so that our citizens can 
live healthier and more productive lives. For example, almost 1,000 
people from both rural and urban communities are participating in 
treatment protocols where they are receiving science-based drug 
addiction treatment and medical care through their participation in 
NIDA's National Drug Abuse Treatment Clinical Trials Network (CTN). And 
even more citizens are stopping the initial use of drugs by 
participating in prevention programs that follow the science-based 
prevention principles identified and disseminated by NIDA. Much has 
been accomplished, but more remains to be done.
                  drug abuse is costly at many levels
    Directly or indirectly, every family and community is affected by 
drug abuse and addiction. We all have family members, friends, or 
acquaintances who abuse some substances. These drugs take a tremendous 
toll on our society; and they are costly at many levels. At the 
economic level, the cost of illegal drugs to our Nation was estimated 
by the White House Office of National Drug Control Strategy to be more 
than $161 billion in 2000. When one adds the cost of the Nation's 
deadliest addiction--use of tobacco products--the cost soars to nearly 
$300 billion each year.
    Drug abuse is inextricably linked with the spread of infectious 
diseases such as HIV/AIDS, tuberculosis, and hepatitis C, and is also 
associated with domestic violence, child abuse, and other violent 
behavior. But because our research has shown that drug abuse is 
preventable and drug addiction is treatable, there is much reason for 
optimism.
bringing a multi-disciplinary approach to drug abuse revention research 
                                efforts
    Researchers have learned much about why people use drugs and have 
identified many of the risk and protective factors that can influence 
drug use. In the past year, research has also revealed new insight into 
how to tailor anti-drug messages to sensation- seeking adolescents to 
actually reduce marijuana use, and taught us not to group together high 
risk youth for prevention interventions. Despite our progress, research 
gaps remain. For example, researchers are trying to determine what 
influences adolescent decision-making, especially decisions about 
drugs. What thoughts and emotions are going on at the precise moment an 
adolescent makes the initial and subsequent decisions to try or not to 
try drugs? These are questions that can not be answered by prevention 
researchers alone. A transdisciplinary and multi-pronged research 
approach that integrates all areas of science--basic behavioral, 
cognitive, developmental, social, neurobiological, and clinical--to 
develop innovative directions in drug abuse prevention research, is the 
underlying premise for NIDA's new National Drug Abuse Prevention 
Research Initiative. Testing the effectiveness of new and existing 
science based prevention approaches through multi-site trials conducted 
at the local community level will also be important in this endeavor.
        treating addiction to nicotine and other drugs of abuse
    Tobacco use remains one of the greatest risk factors for cancer. It 
is addiction to the drug, nicotine, that drives the continued use of 
tobacco in this country and abroad, despite the known negative 
consequences. Smoking cessation remains among the most successful and 
cost-effective approaches to reversing the tide of tobacco-related 
diseases, including cancer. New technologies and breakthroughs in 
neurobiology, such as the recent identification of the critical role 
that the gene tryptophan hydroxylase--an enzyme that produces the brain 
chemical messenger serotonin--plays in the initiation of smoking are 
providing new opportunities for NIDA and other NIH Institutes such as 
the National Cancer Institute to collaborate at the scientific and 
clinical levels. Developing novel and selective medications to better 
treat addiction to tobacco and other substances of abuse is of mutual 
interest to many in the private and public sectors. NIDA will continue 
to develop addiction treatments, especially treatments that are 
specifically tailored to adolescent populations, such as those being 
tested at our Teen Tobacco Treatment Research Center in NIDA's 
Intramural Research Program in Baltimore, MD.
    Developing new and effective ways to treat all addictions continues 
to be a high NIDA priority. Both behavioral therapies, such as 
cognitive behavioral therapies that have been shown successful in 
reducing cocaine use, and pharmacological approaches, will continue to 
be supported by NIDA. NIDA's Medications Development Program is about 
to bring two anti-cocaine medications to Phase III Clinical Trials this 
year. Not only are the medications Selegeline and Disulfiram showing 
success in cocaine-addicted populations, but they show promise as 
potential treatments for methamphetamine addiction as well.
                expanding nida's clinical trials network
    Recognizing that the path leading from new findings to changes in 
clinical practice can be lengthy, and that millions of people across 
the country are in need of quality drug abuse treatment, NIDA has 
established an infrastructure to more rapidly and systematically bring 
new treatments to those in need. When research-based treatments such as 
the behavioral therapy, motivation enhancement, and the pharmacological 
therapy, buprenorphine-assisted detoxification, are proven to work 
repeatedly in small controlled settings, they are developed into 
treatment protocols by researchers and practitioners and undergo 
rigorous multi-site trials to determine their effectiveness in 
community-based treatment settings. Currently, more than 15 treatment 
protocols are being tested or about to be tested in the established 
multi-site trials across the country. In fiscal year 2003 NIDA plans to 
expand this infrastructure to ensure greater geographic distribution, 
and to reach underserved populations and regions underrepresented in 
the health care system, including individuals who have mental 
illnesses, those suffering from HIV/AIDS or other infectious diseases, 
adolescents who may be in need of drug treatment, and Hispanic and 
other minority populations.
                  aids and other medical consequences
    Considerable scientific progress has been made in understanding, 
preventing, and treating HIV/AIDS and other infections among drug 
users. For example, NIDA-supported researchers have made tremendous 
progress in our battle against the Hepatitis C Virus (HCV). HCV 
infection is a major public health problem with 60 percent of all new 
cases of acute HCV infection attributed to syringe and needle sharing. 
One of the most critical problems in controlling HCV is the variability 
of the virus with more than 9 distinct types of virus known. NIDA 
researchers identified an antibody that can block HCV from binding to 
the CD81 receptor that is found in both liver and B cells. This may 
prove to be a useful therapeutic target. An antibody proven to block 
this receptor would have the potential of blocking HCV infection or 
modulating early infections in exposed persons by interfering with the 
Hep C viral life.
    Given that the epidemiological patterns of drug abuse and risk 
behaviors are constantly changing and new infections of HIV and other 
blood-borne and sexually transmitted infections continue to emerge and 
spread, NIDA is encouraging researchers to apply new findings to 
develop new and improved approaches to prevent the acquisition and 
ongoing transmission of these infections, as well as strategies to 
improve access to diagnostic screening and care.
         integrating treatment into the criminal justice system
    Drug abuse treatment has been shown to reduce drug use and its 
related criminal behavior. The majority of individuals in prisons have 
a drug problem that requires treatment. For these reasons many 
different approaches for bringing treatments into the criminal justice 
system have been tried, including treatment as an alternative to 
prison, drug courts, drug abuse treatment in prison settings and 
treatment in community settings after release. Outcomes for each 
approach vary. NIDA is establishing a research infrastructure to test 
models at multi-sites to establish a more integrated approach to the 
treatment of incarcerated individuals with drug abuse or addictive 
disorders. The National Criminal Justice Drug Abuse Treatment Research 
System will serve as the vehicle for blending public health and public 
safety approaches.
                 stress and how it influences drug use
    Particularly relevant in light of the events of September 11 is the 
role stress plays in drug use and addiction. We are expanding our 
research to better understand the role that stress plays in initiation, 
escalation and relapse to drug use so we can develop more effective 
ways to manage and treat stress. While we know that people take drugs 
initially to experience their rewarding and pleasurable effects, we 
also know that they relapse to taking drugs even after long periods of 
abstinence, for entirely different reasons. Stress is identified by 
most patients as the predominant factor to relapse. People prone to 
relapse also identify the triggers of environmental cues associated 
with previous drug use, and the drugs themselves. We are just beginning 
to appreciate that each of these triggers may involve brain circuitry 
different from that involved in the initiation of use and each operates 
on its own pathway. For example, stress-induced relapse appears to 
involve the hypothalamo-pituitary-adrenal axis to release stress 
hormones such as CRF from the brain and cortisol (steroid) from the 
adrenal glands. In contrast, cue-induced relapse appears to involve 
portions of the amygdala; and drug-induced relapses involves the 
mesolimbic circuitry. By more clearly defining the neural pathways that 
subserve each trigger for relapse, such as the activation of CRF in the 
brain, NIDA will be able to more strategically identify and develop 
prevention strategies, as well as new targets for addiction 
medications.
             government performance and results act (gpra)
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
                    the formidable force of science
    Continued progress can be expected in curtailing drug abuse and 
addiction if we continue to capitalize on the strong research 
foundation that NIDA has established. Research is critical to all of 
our Nation's endeavors and there is hope in knowing that new and 
growing public health needs such as Addiction, AIDS, Bioterrorism, and 
Cancer, and Diabetes, and others, are being tackled head on with the 
formidable force of science.
    I would be pleased to respond to any questions. Thank you.
                                 ______
                                 
              Prepared Statement of Dr. Raynard S. Kington
    Mr. Chairman and members of the Committee: I am pleased to present 
the President's budget request for the National Institute on Alcohol 
Abuse and Alcoholism (NIAAA) for fiscal year 2003, a sum of 
$418,487,000, which reflects an increase of $32,541,000 over the 
comparable fiscal year 2002 appropriation.
    Alcohol-use disorders are among the most pervasive of the 
behaviorally manifested diseases. One-quarter of our Nation's urban 
hospital beds are occupied by patients with behavioral or physical 
problems stemming from alcohol use.\1\ More than 60 million American 
adults, adolescents, and children are alcoholic (physically dependent 
on alcohol) or abuse alcohol. Fourteen million of the adults among them 
are alcoholic.\2\
---------------------------------------------------------------------------
    \1\ Moore, RD; Bone, LR; Geller, G; Mamon, JA; Stokes, EJ; Levine, 
DM Prevalence, detection, and treatment of alcoholism in hospitalized 
patients. ``Journal of the American Medical Association'' 261(3):403-
407, 1989.
    \2\ Grant, BF et al. Prevalence of DSM-IV alcohol abuse and 
dependence: US, 1992. ``Alcohol Health and Research World'' 18(3):243-
248,1994.
---------------------------------------------------------------------------
    The consequences of alcohol misuse cost society $185 billion every 
year, $47 billion more than the annual cost of smoking.\3\ Alcohol 
misuse affects every age group, from fetuses exposed to alcohol in the 
womb to the elderly, and it affects these age groups differently. It 
cuts across genders and minority groups, which also respond to 
alcohol's toxic effects differentially. All of these consequences are 
preventable.
---------------------------------------------------------------------------
    \3\Updated estimate by the Lewin Group, October 1999, of Harwood, 
H., et al. ``The Economic Costs of Alcohol and Drug Abuse in the US,'' 
1992. National Institute on Drug Abuse, 1998. U.S. Dept. of the 
Treasury. ``The Economic Costs of Smoking in the US and the Benefits of 
Comprehensive Tobacco Legislation,'' Washington, DC, 1998.
---------------------------------------------------------------------------
                    advances in prevention research
    About half of the risk of alcoholism is genetic, but environmental 
factors--peer pressure, culture, and community attitudes toward alcohol 
use, for example--can attenuate that risk. NIAAA conducts research on 
neuroscience and on environmental and behavioral strategies designed to 
prevent abusive drinking and its consequences. Investigators develop 
and test interventions at the individual, community, and policy levels, 
in specific populations, age groups, and settings.
    In the past year alone, we have made significant advances in these 
areas. For example, a community-wide approach that focused on reducing 
the supply of alcohol available to youths achieved significant 
reductions in drinking by children and adolescents. Another program 
that took a comprehensive, community-wide approach to reducing drinking 
resulted in significantly fewer violent assaults and car crashes.
    Preventing children and adolescents from drinking is a major focus 
of NIAAA's research, which reveals that people who start drinking early 
in life are more likely than others to become alcoholic. Behavioral 
scientists found that this increase in risk may be the result of a 
common pathology that underlies a number of behavioral disorders.
    Epidemiologic data identify disease trends that require preventive 
interventions. NIAAA epidemiologists discovered a change in racial and 
ethnic trends in mortality rates of cirrhosis, the primary cause of 
which is alcohol misuse, by examining improved methods of reporting on 
death certificates. White Hispanic males now show a higher rate of 
deaths from cirrhosis than do Black non-Hispanic males, who were 
thought to have higher rates.
    A collaborative epidemiology project by the NIAAA, the National 
Institute on Drug Abuse, and the National Institute of Mental Health is 
examining the burden of co-occurring alcohol, drug, and mental 
disorders and associated disabilities, world-wide. This NIH-funded 
World Health Organization project also is developing standardized 
methods of collecting, analyzing, and reporting resource utilization 
and costs of these diseases and disabilities in diverse cultural 
settings.
             advances in neuroscience and genetics research
    Intricate biological mechanisms are the intermediaries of alcohol's 
physical actions in the nervous system, which manifest themselves as 
behaviors toward alcohol. NIAAA's neuroscience and genetics research 
have generated significant findings in this area during the past year.
    For example, NIAAA-supported researchers established preliminary 
evidence that increasing production of specific proteins in the brain 
through genetics techniques may some day have utility in reducing 
drinking. Investigators also strengthened the evidence that specific 
genes, on chromosomes 1 and 7, are involved in alcoholism.
    Through a collaboration with the National Institute of Mental 
Health, our intramural researchers found that a genetic variation in 
the serotonin neurotransmitter system plays a role in the sensitivity 
of nerve cells to the toxic effects of alcohol. NIAAA's intramural 
researchers also found further evidence that some of the same 
mechanisms in the nervous system that regulate appetite for food may 
play a role in risk of alcoholism.
    By understanding the interplay of biological and environmental 
factors that contribute to alcohol-use disorders, we are better 
positioned to identify markers for people and populations at risk, and 
points for pharmaceutical and behavioral interventions.
        advances in research related to the toxicity of alcohol
    The tissue-damaging effects of alcohol are not limited to the 
nervous system. Alcohol is a toxin, and it can injure any tissue in the 
body, with significant medical sequelae; for example, liver disease, 
some kinds of cancer, and brain damage.
    Among the tissues most vulnerable to alcohol's toxicity are those 
of unborn fetuses, whose nervous systems are particularly susceptible 
to alcohol's effects. The most severe outcome is fetal alcohol syndrome 
(FAS), which results in a lifetime of neurobehavioral deficits and 
disabilities. For the first time, using living mammalian models, 
investigators have found that administering two different, naturally-
occurring substances, choline and nerve-growth factors, can prevent 
alcohol-induced brain damage to the developing fetus. This is a 
significant finding, since no treatment for FAS exists, currently.
    Intramural investigators discovered a potential explanation as to 
why chronic, heavy drinkers are completely unresponsive to treatment 
for hepatitis C virus infection. Hepatitis C infection is a prevalent 
disease, particularly among alcoholics, and the current treatment of 
choice is expensive. Investigators found that a protein produced in 
response to inflammation suppresses the biochemical pathway of the drug 
used for treatment and boosts activity of the genes whose protein 
products block the effects of the treatment drug.
                           recent initiatives
    During the five-year doubling of the NIH budget, NIAAA has 
established major new initiatives designed to advance research in each 
of the areas essential to its mission.
    The Integrative Neuroscience Initiative on Alcoholism (INIA) is 
advancing our understanding of alcohol's actions in the nervous system. 
INIA integrates findings from multiple disciplines, from the genetic to 
the molecular and behavioral levels. Our intramural program also 
established an integrative neuroscience research program that combines 
cellular and molecular biology studies, considered the most powerful 
approach to the neural basis of alcohol abuse and alcoholism.
    We have established several initiatives that are enabling us to 
capture the potential of new genetics technologies. On the molecular 
level, an initiative that focuses on the use of advanced 
instrumentation soon will enable our scientists to examine directly 
alcohol's interactions with the brain's neurotransmitter systems. In 
doing so, scientists can couple molecular events with behavioral 
events, in real time. This technology will provide essential 
information for our neuroscience research.
    The initiatives described above are moving us closer to identifying 
optimal targets for therapeutic interventions. We have launched a major 
effort to develop medications that are more widely effective in 
treating alcohol abuse and alcoholism. Studies include tests designed 
to determine what types of patients respond favorably to currently 
available medications, and whether combining medications with specific 
behavioral therapies improves success rates.
    The increases in the NIAAA budget also have enabled our intramural 
researchers to establish a liver biology program. Investigators in this 
program already have produced an important breakthrough; they have 
found that a specific protein of the immune system protects liver cells 
from the toxic effects of alcohol. NIAAA recently established two new 
initiatives on alcohol-related liver disease.
    Because some minority groups and women appear to suffer 
disproportionately from alcohol-induced organ damage, such as liver 
disease, we have established an initiative to study disparities in 
alcohol toxicity. A recently established collaborative initiative 
focuses on FAS prevention. Prominent in these investigations are 
studies of specific minority groups, such as Native Americans and 
African Americans, who are disproportionately affected by FAS.
    We also are stimulating research to develop biomarkers that detect 
early, alcohol-induced toxic changes in cells. Another initiative is to 
develop a biosensor that monitors alcohol levels continuously, to 
elucidate how drinking behaviors lead to organ damage.
    Our prevention program is conducting studies to assess whether 
interventions that have proven to be successful in majority populations 
also are effective for specific minority groups. The program also 
encourages research that examines whether high-alcohol-content, low-
cost beverages, such as malt liquor, disproportionately affect 
minorities.
    Youth is a special focus of our prevention research, and the 
initiatives we have established over the past five years include a 
major effort to prevent alcohol problems among college students and 
another to prevent alcohol use among young adolescents. College 
drinking is more destructive than previously recognized, and the NIAAA 
Council's Task Force on College Drinking has brought together the 
college and research communities in an unprecedented national dialogue.
                                outreach
    Ultimately, NIAAA's research is intended to benefit the public's 
health. We attempt to achieve that goal in a number of ways. For 
example, our Research to Practice Initiative is a collaboration between 
NIAAA and the Substance Abuse and Mental Health Services 
Administration's Center for Substance Abuse Treatment. Representatives 
from these two agencies meet with treatment providers and 
administrators to exchange information about current research findings 
and obstacles to providing treatment that practitioners encounter. The 
agencies then arrange for experts to serve temporary residencies in 
treatment programs, to ensure success.
    Women of child-bearing age are the focus of the D.C. Initiative, a 
major effort to prevent FAS in the District of Columbia, which has one 
of the Nation's highest FAS rates. The project is designed to prevent 
drinking among African-American women who are pregnant or can become 
pregnant.
    On April 9, after three years of investigations, the NIAAA 
Council's Task Force on College Drinking will release a report that 
includes recommendations for colleges, researchers, and communities. 
NIAAA will hold regional workshops that will involve 3,200 colleges, 
and will provide brochures for parents, college administrators, high-
school guidance counselors, and community leaders. Papers and panel 
reports that served as the basis for the Task Force's report will be 
published in scientific journals; for example, a supplement to the 
April 2002 issue of the Journal of Studies on Alcohol, on college 
drinking, will include 18 review articles adapted from papers 
commissioned by the Task Force. An interactive NIAAA website serves as 
a resource for college personnel, researchers, and the public.
    Alcohol Screening Day, a nationwide event sponsored by the NIAAA, 
enables people to receive free screening for alcohol problems and, if 
needed, referrals. This year's Screening Day will take place on April 
11. We anticipate more than 2,000 participating sites, more than half 
of which will be college campuses.
    We are reaching children and adolescents through our Leadership to 
Keep Children Alcohol-Free. Thirty-three State governors' spouses have 
joined this project to reduce drinking by young people; a crucial 
effort, given our research findings that early initiation of drinking 
portends higher risk of alcoholism later in life. We also are preparing 
public service announcements on underage drinking.
                 government performance and results act
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's third annual performance 
report, which compares our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan. As performance trends on research 
outcomes emerge, the GPRA data will help NIH to identify strategies and 
objectives to continuously improve its programs.
                                 ______
                                 
              Prepared Statement of Dr. Patricia A. Grady
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Nursing 
Research for fiscal year 2003, a sum of $130,809,000, which reflects an 
increase of $10,058,000 over the comparable fiscal year 2002 
appropriation.
    For over a century, the nurse's role in care of the sick has been 
well known, especially in times of war or disasters. What is also 
important in this new century is the role of nurse as scientist--
bringing to the scientific process an additional perspective critical 
to health, examples of which will be highlighted today. Our science is 
young, yet it is already making innovative changes to practice. These 
contributions were evident as NINR celebrated its 15th anniversary at 
the National Institutes of Health with a scientific symposium that 
featured nursing research programs of excellence.
    The nursing shortage, however, which is capturing national 
attention, is emerging just when challenges to the healthcare system 
are increasing. Therefore, it is critical that nursing research produce 
results that improve health and quality of life for the American 
people. Innovative strategies to address these challenges must be 
identified, and they must be scientifically tested.
                      research to help caregivers
    Major challenges for healthcare are the increase in age of our 
population, the increase in chronic illness, and the earlier discharge 
of patients from hospitals, which, taken together, have created a 
greater need for informal caregivers. These caregivers are generally 
family members, friends, or neighbors. According to the 1997 National 
Caregiver Survey by the AARP, more than 22 million adults are informal 
caregivers to ill or fragile Americans over 50 years of age. A study of 
informal caregivers, published in 1999 in Health Affairs, indicates 
that most caregivers are middle-aged, married women, almost half of 
whom have young children. They provide most of the long-term care in 
our country, yet the economic value of their services, estimated at 
$196 billion in 1997, is not included in cost of illness figures. The 
healthcare system, in effect, depends on their collective assistance. 
Research to address caregiver issues is critical at this important 
juncture.
    In addressing these issues, nursing research has focused on helping 
caregivers avoid or reduce their burdens, including stress, especially 
related to chronic illnesses, such as dementia, emphysema, and 
congestive heart failure. Caregivers must manage disruptive behaviors, 
including wandering, aggression, and sleep-wake disturbances, and they 
may be required to administer medication and use unfamiliar equipment, 
such as suctioning devices and ventilators. NINR-supported research 
also identifies caregiver techniques to improve their own health and 
quality of life.
    Although subgroups of caregivers characterize their situation as a 
positive experience, there is also a high incidence of stress among 
caregivers that can lead to depression, physical illness, and increased 
mortality. A recently published study of a community-based 14-hour 
training program for caregivers, held during a two-week period, found 
that three months after the training, 25 percent of participants 
reported lower levels of depression, 28 percent reported improvement in 
behavioral problems of their care recipients, and 9 percent indicated 
that they felt less burdened. This brief intervention provided 
caregivers with information and practical skills for dealing with 
dementia, and ways to improve confidence, coping skills, and 
communication. The results are illustrative of the possibilities of 
using coaching and teaching to reduce the negative effects of 
caregiving. Further research is needed to identify techniques that work 
best--for example, those that can be generalized and those that may 
only apply to specific situations.
   risks of uterine rupture in future pregnancies following initial 
                             cesarean birth
    A recent study published in The New England Journal of Medicine has 
captured the public's attention. This study demonstrated that cesarean 
delivery can increase the risk of uterine rupture during labor in a 
subsequent pregnancy. Researchers analyzed records of over 20,000 women 
who gave birth to a second child after an earlier cesarean delivery. 
The risk of uterine rupture when having a second cesarean delivery with 
no labor is 1.6 per 1,000 births. The risk of rupture during 
spontaneous labor for this population is over three times as great, and 
if prostaglandins are used to induce labor, the risk increases 15 fold. 
Since 60 percent of women with prior cesarean deliveries attempt labor 
with the next pregnancy, this is important information for use in 
patient education. Mothers-to-be also need to know that initial 
cesarean delivery will affect future births.
 learning deficits in children treated for acute lymphoblastic leukemia
    For children with Acute Lymphoblastic Leukemia, who now have 
considerably improved long-term, disease-free survival rates, there are 
also long-term consequences, including academic difficulties caused by 
aggressive, life-saving treatments. These treatments involve the 
central nervous system and include whole brain radiation and high dose 
chemotherapy. Nursing research has shown that these children have 
declines in arithmetic, verbal fluency and visual and motor-related 
skills, which affect their success in school. Young survivors showed 
these deficits for up to four years after their treatment regimens 
ended. A pilot study testing a remedial math intervention to minimize 
this type of deficit has shown early positive results. A larger study 
to test this intervention is now in progress.
               reducing risks of a second cardiac arrest
    In addition to finding ways to reduce or eliminate treatment side 
effects, nursing research also examines how to lower risks accompanying 
disease. Preliminary results of a biobehavioral intervention on 
patients who had cardiac arrest showed that there was an 86 percent 
reduction of mortality from cardiovascular disease in these patients 
for up to two years. The intervention consisted of training in 
physiological relaxation using biofeedback; coping skills for 
depression, anxiety, and anger; and health education about 
cardiovascular risks. Although the underlying reasons for these 
positive results are not fully understood, it is hypothesized that 
decreases in psychological distress improve cardiovascular prognosis. 
This study underscores the importance of biobehavioral approaches for 
survivors of cardiac arrest.
                      new and expanded initiatives
    In fiscal year 2003, NINR plans to expand activities that address 
the health disparities prevalent in our society by incorporating such 
factors as ethnicity, culture, gender, socioeconomic status, and 
geography. This area has always been an important tenet of nursing 
science and is one of its special strengths. Since ethnic minority 
groups have a number of health problems associated with higher 
morbidity and mortality rates than do majority groups, NINR will 
continue to focus on these issues. A major new emphasis will be on 
community research partnerships in which community members help to 
identify and address key health concerns. A workshop to delineate 
possible research areas and strategies was held earlier this year to 
begin this activity.
    As the Committee is aware, NINR is advancing research on end-of-
life and palliative care, and is the lead coordinator of NIH research 
in this area. In addition to investigating new models for palliative 
care, next year we plan to focus on pediatric and genetic end-of-life 
issues, with continued efforts to include minorities in our research 
programs.
    Next year NINR will expand the research agenda to address care 
issues for residents in long-term facilities, such as nursing homes and 
assisted living. The number of assisted living residents is projected 
to increase from approximately 1 million in 1998 to more than 1.7 
million in 2025, according to the National Center for Assisted Living. 
NINR plans to solicit studies that deal with issues such as residents' 
functional mobility, transitional problems in adjusting to their loss 
of independent living, and prevention of falls and depression,
    Another emphasis is health promotion for adolescents to reduce 
their high-risk behaviors that will affect their health later in life. 
We will encourage studies that test health promotion interventions to 
decrease smoking, substance abuse, and risky sexual behavior, and 
improve nutritional status in school, at work, and in community-based 
settings. Research to test culturally and linguistically appropriate 
interventions involving ethnic minorities will provide valuable answers 
to address these problems.
    Since nursing research is important to improve better health, it is 
imperative that NINR work at building future capacity. The nursing 
shortage will impact nursing research by reducing the number of 
investigators available to conduct studies that add to the scientific 
base for practice. To ensure a stable research workforce for the 
future, NINR plans to use several new approaches, including earlier 
entry to research careers. Research career development of minority 
nurses will be emphasized to enhance research on health disparities. 
One innovative strategy is being carried out in collaboration with the 
new National Center on Minority Health and Health Disparities. Together 
we developed pilot research partnerships between established research 
intensive institutions and minority-serving institutions. The goal was 
to increase diversity in the nurse researcher pool and to increase 
research to reduce health disparities. The second phase of this 
activity is currently under way and shows much promise.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    In closing, we are in a high pressure period of increasing demands 
for empirically based nursing care, while facing a possible diminution 
of both nurses and nurse researchers. Research provides career 
challenges for nurses that will stimulate their intelligence, their 
empathy, and their energy. Nursing research offers the opportunity to 
enhance the health for all of our Nation's people.
    Thank you, Mr. Chairman. I will be pleased to answer questions the 
Committee may have.
                                 ______
                                 
              Prepared Statement of Dr. Francis S. Collins
    Mr. Chairman and Members of the Committee: During fiscal year 2003, 
the field of genetics will observe a major anniversary, and the 
National Human Genome Research Institute will reach an unprecedented 
accomplishment. Fifty years ago, in the spring of 1953, Drs. James D. 
Watson and Francis Crick reported the discovery of the double helix 
structure of DNA, a landmark achievement in the annals of scientific 
research. In 2003 the Human Genome Project expects to complete the 
final DNA sequence of the human genome. NHGRI and their partners in the 
International Human Genome Sequencing Consortium announced the working 
draft of the human genome sequence in June 2000, published the initial 
analysis in February 2001, and since then have been working to correct 
all the remaining spelling errors and fill in all the gaps. The Human 
Genome Project is on target to meet that deadline and expects to finish 
the analysis in time for the 50th anniversary of the Watson-Crick 
paper.
    The availability of the genome sequence of humankind could be said 
to mark the starting point of the genome era in biology and medicine. 
There is now much important work to do to deliver on the promise that 
these advances in genomics offer for human health. While sequencing the 
human genome has been NHGRI's most visible goal, the Institute has also 
been conducting important genetic and genomic research in a variety of 
areas, including working to understand the way individuals differ from 
each other at the genetic level and the impact these variations may 
have on health. In addition, the Institute leads in the development of 
new technologies, such as DNA chips and tools for proteomics, and has 
been creating novel research strategies to study the function of genes 
and genomes.
                     a new research plan for nhgri
    The Human Genome Project has, since its inception, been guided by a 
series of overlapping 5-year plans. These plans have laid out ambitious 
goals to advance our understanding of the human genome and the 
associated ethical, legal and social implications. The plans have been 
instrumental to the success of the Project by clearly enumerating our 
program objectives to the scientific community and the public, and by 
providing measurable objectives to guide our work and gauge our 
progress and success.
    In December 2001, the NHGRI convened about 200 experts, including 
scientists, researchers in the ethical, legal, and social implications 
(ELSI) of the Human Genome Project, consumers, and policy experts to 
think very broadly and creatively about the future of genomics. Over 
the course of the following months, we will host several workshops to 
explore specific topics in detail and enumerate specific goals 
appropriate for NHGRI. We will take stock of where we are and where we 
have come from, critically evaluating the challenges and opportunities 
that lie before us and creating a bold new vision for the future of 
genomics.
       early and stunning results from the human genome sequence
    Obtaining an accurate reference version of the human sequence has 
always been the most compelling goal of the Human Genome Project. 
Between March 1999 and June 2000, the production of human genome 
sequence data in Institute-supported laboratories skyrocketed. During 
this time, scientists sequenced 1,000 DNA letters a second--24 hours a 
day, 7 days a week. The resulting working draft sequence covered over 
94 percent of the human genome, with 33 percent in highly accurate 
finished form by February 2001. By January 2002 the amount in highly 
accurate finished sequence had risen to 65 percent. The final sequence 
will be completed in 2003, two years ahead of the original ambitious 
schedule.
    The draft sequence of the human genome is already having a major 
impact on biomedical research. In the 12 months following the February 
2001 publication in Nature of the publicly funded draft sequence, the 
paper has been cited in over 700 scientific reports, making it one of 
the most cited papers in all of science for the past year. These 
citations clearly demonstrate the widespread utility of the publicly 
available genome sequence and its enormous early impact to advance 
biomedical research in a wide array of areas.
    The rationale for the Human Genome Project, and the strong and 
sustained Congressional support for it, has been the promise of 
improving human health. We are already beginning to see the fruits of 
that investment. Some of the citations of the Nature publication 
represent research that could not have been accomplished in nearly the 
same way or would not have been as profound were it not for the draft 
sequence of the human genome. More than 50 genes involved in human 
disease have been discovered, based on access to the public human 
genome sequence data. The examples cited below show the direct 
connection the genome sequence is having on improving human health.
Prostate Cancer
    Using the draft sequence of the human genome, scientists at Johns 
Hopkins University and the NHGRI have found the first gene associated 
with an inherited form of prostate cancer. In a study of 91 high-risk 
prostate cancer families the researchers mapped the first hereditary 
susceptibility to prostate cancer to a region of chromosome 1 that they 
called the Hereditary Prostate Cancer 1 Region, or HPC1. They have now 
identified a specific gene--called RNASEL--in the HPC1 region that 
contains DNA misspellings associated with prostate cancer. Misspellings 
in this one gene do not explain all forms of inherited prostate cancer, 
but the discovery of this gene is an exciting step towards 
understanding the causes of this common and devastating form of cancer. 
Ultimately, this discovery should bring us closer to being able to 
prevent the disease as well as better diagnostics and treatments.
Kidney Disease Gene
    The recent identification of the gene for autosomal recessive 
polycystic kidney disease (ARPKD) by a team at the Mayo Clinic again 
shows the great power of the draft human sequence. The publicly 
available sequence of the human genome played an important role in the 
discovery of this disease-causing gene. With the identification of the 
responsible gene and the characterization of a rat model of the 
disease, rapid progress in understanding ARPKD can now be anticipated.
                         the future of genomics
    The Human Genome Project and the NHGRI have always aimed to develop 
new information, tools and technologies that would enable scientists to 
gain a deeper understanding of the genetic contributions to disease, 
and to use this knowledge to improve human health. The imminent 
completion of the project's initial goals presents a compelling 
opportunity to focus aggressively on translating the spectacular 
research advances into medical advances. With the completion of the 
Human Genome Project soon at hand, much additional basic research, 
guided by a genomic approach, remains to be done to shed light on the 
many mysteries of life. At the same time, genome research offers a 
myriad of other opportunities for connecting detailed knowledge of the 
human genetic instruction book with important problems in clinical 
research. These basic and applied paths are not mutually exclusive, and 
finding the right balance between them, although challenging, will be 
the most effective approach in the end.
Comparative Genomics
    To understand the function of the human genome sequence, scientists 
would like to compare it to the genome sequences of many other 
organisms. This approach relies on the fact that functionally important 
regions of DNA are conserved over long periods of evolutionary time. By 
comparing the human genome sequence with those of the rat, mouse, and 
other organisms, similar regions are readily apparent, indicating that 
something biologically interesting such as the existence of a gene or 
important regulatory element must be present at that location of the 
genome.
Simplifying the Study of Complex Genetic Diseases: The Haplotype Map of 
        the Human Genome
    Prior to the completion of the draft sequence of the human genome, 
most studies of diseases using genetics focused on single gene 
disorders such as cystic fibrosis and Huntington's disease. With the 
tools of the Human Genome Project, finding the genes for diseases 
caused by alterations in single genes has become relatively 
straightforward. Many common diseases, however, such as diabetes, 
cancer, heart disease, psychiatric disorders, and asthma are influenced 
by complex interactions between multiple genes as well as by non-
genetic factors such as diet, exercise, smoking, and exposure to 
toxins.
    A key next step of the Human Genome Project will be the generation 
of a ``haplotype map'' of the human genome. This comprehensive resource 
for human biomedical research will capture the complete catalogue of 
the common genome ancestral segments--``haplotype blocks''--observed in 
the major human populations. This map will provide a new tool for 
scientists to scan the entire genome and identify more rapidly and 
effectively those genetic variations associated with disease risk and 
drug response in the human population. That, in turn, will help 
researchers develop an understanding of the complex biological 
processes that give rise to the disease and assist scientists in 
discovering treatments or cures for these illnesses. This new and 
exciting project is expected to be a public-private partnership and the 
data will be immediately and freely accessible.
Health Disparities Strategic Plan
    From its inception NHGRI has been concerned about including 
individuals from various groups in its activities. As the Institute has 
grown in size and complexity the need for this has become even more 
imperative and a variety of initiatives have been started and continue 
to evolve to address this need. The NHGRI staff recognizes the inherent 
value of increasing diversity among the research workforce as well as 
engaging and empowering people from minority communities through joint 
research projects, information sharing, dialogue and the development of 
partnerships. In order to achieve these goals, NHGRI has developed a 
plan that lays out a multifaceted approach to address issues of health 
disparities. The plan encompasses research, training, and education/
outreach activities.
                 ethical, legal and social implications
    From its inception, NHGRI has taken on the responsibility to 
address the broader ethical implications of rapid advances in genetic 
information and technology. Since 1991, it has committed 5 percent of 
its budget to studying the ethical, legal, and social implications 
(ELSI) of genome research.
    The ELSI Research Program has continued to support significant and 
innovative research on the ethical, legal, and social implications of 
human genome research. Research projects supported in fiscal year 2001 
included projects in the areas of the privacy and fairness in the use 
and interpretation of genetic information; clinical integration of new 
genetic technologies; issues surrounding genetics research; and public 
and professional education.
    As the Institute develops its new research plan, the ELSI issues 
will be carefully integrated. It will be extremely important to 
consider these issues as new fields of genomic discovery appear. It 
will also be essential for ELSI funded research to inform policy 
development in the area of genetics.
                         education and outreach
National Coalition for Health Professional Education in Genetics
    In 1996, along with the American Medical Association and the 
American Nurses Association, the NHGRI founded the National Coalition 
for Health Professional Education in Genetics as a national effort to 
promote health professional education and access to information about 
advances in human genetics.
NHGRI/ORD Genetic and Rare Diseases Information Center
    There are more than 6,000 genetic and rare diseases afflicting more 
than 25 million Americans, but many of these illnesses affect 
relatively few individuals. As a result, information about these rare 
disorders may be limited or difficult to find. In order to respond to 
this need, the NHGRI and the Office of Rare Diseases (ORD) have 
established the NHGRI/ORD Genetic and Rare Diseases Information Center 
to provide information on genetic and rare disorders to the public. The 
Information Center will meet the ever- increasing information needs of 
the general public, including patients and their families, health care 
professionals, and biomedical researchers by: 1) serving as a central, 
national repository of information materials and resources on genetic 
and rare diseases, 2) collecting and disseminating information on the 
diagnosis, treatment, and prevention of genetic and rare disorders, and 
3) coordinating with organizations and associations interested in 
genetic and rare disorders.
                               conclusion
    The investment in the Human Genome Project is already paying off in 
terms of advances in biomedical science that promise unprecedented 
advances in human health. We are moving into a new phase of genomics 
which will give us a deeper understanding of the genetic contributions 
to disease. Our vision is that by focusing on the applications of 
genetics to human health we will make great strides towards treating 
and curing many complex diseases.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compares our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    Mr. Chairman, I am pleased to present the President's budget 
request for the National Human Genome Research Institute for fiscal 
year 2003, a sum of $466,695,000, which reflects an increase of 
$35,977,000 over the comparable fiscal year 2002 appropriation.
                                 ______
                                 
                Prepared Statement of Dr. Donna J. Dean
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Institute of Biomedical 
Imaging and Bioengineering (NIBIB) for fiscal year 2003, a sum of 
$121,378,000, which reflects an increase of $9,356,000 over the 
comparable fiscal year 2002 appropriation.
    Over the past year, it has been my privilege to preside over the 
formation and early development of the NIBIB, striving to provide a new 
and enriched focus at the National Institutes of Health (NIH) for 
bioengineering and imaging sciences. I can report to you today that, 
with help and support from the trans-NIH community, the NIBIB has taken 
significant steps in creating a research program in biomedical imaging 
and bioengineering that Congress envisioned when passing the NIBIB 
Establishment Act in December 2000.
                         milestones to success
    Guided by legislative language, and with input from the biomedical 
imaging and bioengineering communities, a mission statement was 
developed in March 2001, to articulate the NIBIB overall vision, goals 
and objectives. Upon my appointment as Acting Director in April, I was 
able to focus immediately on NIBIB's future as defined by the mission--
``to improve health by promoting fundamental discoveries, design and 
development, and translation and assessment of technological 
capabilities in biomedical imaging and bioengineering, enabled by 
relevant areas of physics, chemistry, mathematics, materials science, 
information science, and computer sciences.'' Our Institute will foster 
and support an integrated and coordinated program of research and 
research training that can be applied to a broad spectrum of biological 
processes, disorders and diseases and across organ systems.
    The foundation upon which the NIBIB will build its success comes 
from the applications submitted by investigator-initiated research. 
NIBIB staff worked with the NIH Center for Scientific Review to 
implement referral guidelines and procedures so that applications 
relevant to the NIBIB mission would be appropriately directed to the 
Institute. In addition, Institute staff monitored the ongoing peer 
review process for grant applications already in the pipeline that 
would be eligible for NIBIB funding.
    In accordance with the NIBIB mission to foster trans-NIH 
collaboration, the administration of the NIH Bioengineering Consortium 
(BECON) was transferred to the NIBIB. The BECON has been in existence 
since 1997 and has served as the focus of bioengineering extramural 
research at the NIH. The Consortium consists of senior-level 
representatives from most of the NIH Institutes and Centers (ICs) as 
well as representatives of other Federal agencies concerned with 
biomedical research and development. NIBIB joins the BECON as an 
additional institute representative and, in its administrative role, is 
committed to maintaining the successful coordination of trans-NIH 
bioengineering research, training, and communication programs.
    The NIBIB is committed to supporting collaborations with other 
Federal agencies, and outside organizations, as indicated in our 
mission, to promote translation of cross-cutting technologies in 
bioengineering and imaging into biomedical applications. For example, 
the NIBIB and the Department of Energy (DOE) partnered to sponsor a 
workshop on ``Applications of Thermography in Medical Diagnosis and 
Therapy'', which served to identify clinical applications of the 
technology and to facilitate research partnerships between the DOE 
national laboratories and NIH investigators. In addition, with support 
from the NIBIB and the Institute of Electrical and Electronics 
Engineers (IEEE), the ``International Symposium on Biomedical Imaging: 
Macro to Nano'' will take place this July. These activities provide a 
forum to showcase current technology and applications, identify future 
biomedical needs and the emerging technologies, and assist in the 
process of planning the future research agenda.
    On October 1, 2001, the NIBIB announced its establishment to the 
public through the launch of the official Institute website (http://
www.nibib.nih.gov). The site serves as a conduit of information for 
those with an interest in the Institute and the fields of biomedical 
imaging and bioengineering. Comprehensive information about the 
history, mission, legislative activities, budget, staff, vacancy 
announcements, research and training opportunities and the 
administration of the Institute is available on the website. To date 
the website has received almost 700,000 hits from over 22,000 
individuals and groups. Feedback indicates that the website is reaching 
a wide audience and providing useful information.
    In addition, significant efforts are being made to communicate 
directly with the groups that look to the NIBIB for research support. 
We have targeted outreach activities specifically for engineering, 
physical and quantitative science communities, many of whom may be new 
to NIH programs and procedures. As Acting Director, I have made 
presentations across the nation to organizations that represent 
biomedical imaging and bioengineering communities. In addition, our 
staff have attended numerous meetings to inform the scientific 
communities about the NIBIB mission and current and planned research 
opportunities. For example, in recent months, we have met with 
academic, industrial, and government representatives in the states of 
Connecticut, Hawaii, Kentucky, New York, Pennsylvania, North Carolina, 
Indiana, California, and Virginia to discuss the development of 
consortia that support regional economies and multi-disciplinary 
biomedical research programs.
                     building a research portfolio
    The overarching goals of the NIBIB research program are to develop 
fundamental new knowledge, foster potent new technologies, facilitate 
cross-cutting capabilities and nurture a new generation of researchers. 
To that end, several scientific areas have been identified for targeted 
research that is uniquely suited to the NIBIB mission. Among these are 
microtechnology and nanotechnology, diagnostic imaging, molecular-and 
cellular-level imaging, biosensors, biophotonics, materials, 
computational biology and computer technology. In addition, the 
training portion of the NIBIB mission will involve facilitating 
training programs for scientists with backgrounds that combine the 
biological and medical sciences with the allied engineering and 
physical science disciplines to develop the expertise they will need to 
carry out biomedical imaging and bioengineering research in the years 
to come. The next phase of building the NIBIB research and research 
training portfolio involves developing initiatives that will stimulate 
activities in these areas.
    As one of the first steps in building the NIBIB research portfolio, 
scientific staff worked to identify ongoing research programs within 
the other NIH Institutes and Centers (ICs) involving areas of 
biomedical imaging and bioengineering that would be appropriate for 
NIBIB participation. For example, the ``Bioengineering Research 
Partnerships'' Program Announcement (PA) solicits applications from 
researchers seeking to establish multi-disciplinary research teams to 
address a significant area of bioengineering research within the 
mission of NIH. Another PA, ``Technology Development for Biomedical 
Applications,'' invites applicants who are developing novel 
instruments, devices, methodologies and software for use in biomedical 
research. In order to form partnerships with other ICs as articulated 
in our mission, the NIBIB has joined a variety of other initiatives 
across NIH.
    To further enhance our research portfolio, the NIBIB is proud to 
announce our first two scientific initiatives in the areas of 
biomedical sensors and molecular-level imaging. Biomedical sensors can 
be defined broadly as devices that detect specific molecules or 
biological processes and convert this information into a signal. 
Biology and medicine have gained enormous insight into the life process 
by discovery, development and application of sensors. To advance this 
technology, the NIBIB recently issued a Request for Applications (RFA) 
entitled ``Sensor Development and Validation.'' The purpose of the RFA 
is to support basic and applied research targeted at sensor 
development. In addition, the NIBIB will be the lead sponsor of an 
international assessment of the status of biosensor technology along 
with several other Federal agencies.
    Discoveries in molecular and cellular biology present extraordinary 
opportunities for biomedical imaging to play an important role in the 
early detection, diagnosis and treatment of disease. The support of 
fundamental discovery and technical development of imaging 
technologies, before specific disease- or organ-oriented applications 
are determined, is critical, and is highlighted in the NIBIB mission. 
Another RFA recently issued by NIBIB, entitled ``Research and 
Development of Systems and Methods for Molecular Imaging,'' addresses 
this important scientific need, and will support novel investigations 
for development of molecular imaging and spectroscopy that can be 
applied to multiple biological or disease processes.
    The NIBIB's current portfolio supports a broad range of cross-
cutting biomedical research and enabling technology development in 
areas such as biomaterials that encourage neural regeneration, 
microneedles for painless drug delivery, high-resolution imaging of 
soft tissue, and sensor microarrays for instantaneous chemical 
identification.
                           future strategies
    In the upcoming year, the NIBIB will begin to focus its research 
agenda and develop programs in such areas as nanotechnology and 
reparative medicine. Many scientists believe that nanotechnology is a 
new field of research that will enable the development of a new 
generation of scientific and technological approaches, as well as tools 
and devices used in research and clinical settings. One area where 
nanotechnology could be applied to medical therapy is the development 
of nanoparticle materials for drug discovery, production, and delivery. 
Nanoparticle materials offer significant improvements in 
bioavailability and efficiency through oral and injectable pathways. 
Since cellular- and molecular-level interactions occur on the nanometer 
scale, such technologies have the potential to offer significant 
improvements over current treatment options. The NIBIB plans to 
stimulate research in this area, based on recommendations from the 2000 
BECON symposium entitled, ``Nanoscience and Nanotechnology: Shaping 
Biomedical Research''.
    Reparative medicine represents a critical and highly visible 
frontier in biomedical and clinical research. A key component of the 
field is tissue engineering, the goal of which is to repair or replace 
tissues and organs by delivering DNA, proteins, protein fragments, 
implanted cells or scaffolds to areas where they are needed. The NIBIB 
has a role in this endeavor to explore the following areas: self-
monitoring materials for cell-, drug-, or gene-based therapies; 
predictive, low-cost in vivo and in vitro models; accelerated testing 
and failure analysis; and approaches to understanding the biology-
biomaterial interface. In accord with recommendations from the 2001 
BECON symposium entitled, `` Reparative Medicine: Growing Tissues and 
Organs'', we are developing initiatives to address these needs.
    Other areas presenting rich opportunities for NIBIB research are 
included in our plans for future programs. In imaging device 
development, we plan to support research and development of generic 
biomedical imaging technologies before specific applications are 
demonstrated. In implant science, critical needs are development of 
tools for assessing loads and stresses in an operating environment, 
rapid simulation and prototyping methods and life-time predictive 
methods for design and analysis at the time of implant design, and 
during dysfunction and failure. Imaging processing and analysis offer 
challenges in the development, design, and implementation of image 
acquisition and information analysis algorithms, image-guided 
procedures and techniques for deriving physiology and function from 
multidimensional images.
    Planning for a research training program is a high priority for the 
NIBIB, considering the recent Department of Labor report which 
indicated that biomedical engineering jobs would increase by more than 
31 percent by the end of the decade. To determine needs in trans-
disciplinary training, the NIBIB participated in a joint NIH-National 
Science Foundation (NSF) workshop on training and education in the 
fields of bioengineering and bioinformatics that brought together 
researchers and educators from across the nation. Preliminary plans 
include funding for multiple components at all career levels, including 
experiences at the pre-doctoral and post-doctoral levels, a summer 
training experience for quantitative science students, and 
institutional grants through the NIH National Research Service Awards 
(NRSA) program. Our goal is to facilitate the trans-disciplinary 
training and education necessary to assure the availability of future 
generations of highly-trained professionals to meet the anticipated 
national demands.
    As a dynamic and synergistic Institute, the NIBIB is pleased to be 
a part of the Federal science and technology research enterprise in the 
21st century high-tech information age. We look forward to establishing 
our role in this important endeavor.
    Mr. Chairman, I would be pleased to answer any questions you or the 
Committee may have.
                                 ______
                                 
            Prepared Statement of Dr. Judith L. Vaitukaitis
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Center for Research 
Resources (NCRR) for fiscal year 2003, a sum of $1,091,374,000, which 
reflects an increase of $78,836,000 over the comparable fiscal year 
2002 appropriation.
    We cannot do today's science with yesterday's tools. As director of 
the National Center for Research Resources, I hear regularly from the 
scientific community that to do quality work, scientists must have 
access to state-of-the-art research tools and technologies. NCRR 
provides the biomedical research community with the research tools, 
specially designed research facilities, biologic models of human 
disease and other resources necessary for studies that define the 
causes of human disease. I am pleased to have this opportunity to share 
with you recent research contributions made possible by NCRR-funded 
programs, and to outline our future plans for facilitating biomedical 
discovery through development of novel technologies and strategic 
provision of research resources.
    NCRR's crosscutting research resources transcend the entire 
spectrum of scientific inquiry funded by the institutes and centers 
within the National Institutes of Health (NIH). Each year more than 
28,000 investigators, supported by more than $4 billion in competitive 
grants from other NIH components, as well as from other Federal 
agencies and the private sector, use NCRR-supported research resources 
to conduct their studies. To get the most out of dollars committed to 
research resources, NCRR encourages investigators and institutions to 
share scarce or expensive research resources. In addition, NCRR 
supports research resource facilities for both basic and clinical 
research that are shared institutionally, regionally or nationally. 
Those include networks for General Clinical Research Centers (GCRCs), 
Regional Primate Research Centers, Biomedical Technology Resource 
Centers, Research Centers in Minority Institutions, and many other 
resources, including bio-repositories--all essential to NIH-supported 
research. The clinical research settings of the GCRCs allow countless 
investigations of human diseases, both rare and common. The biologic 
models validated and supported by NCRR have exposed many of the basic 
mechanisms that underlie human disorders. NCRR-funded technology 
resources have broad-ranging applications, ranging from molecular 
structures to views of the brain affected by degenerative processes, 
including Alzheimer's and Parkinson's diseases. Other resources include 
those for generating vectors for human gene transfer, and centers for 
isolation of human pancreatic islet cells for transplantation into 
patients with Type 1 diabetes mellitus. Resource sharing is a cost 
effective approach to funding biomedical research.
    The challenge for NCRR is to keep pace with the biomedical 
community's changing needs for research tools and to ensure that 
tomorrow's research queries have tomorrow's critical instrumentation 
and technologies in hand. The research resources and tools needed for 
scientific investigations change dramatically over time as more complex 
research queries are posed and require new technologies and 
biomaterials with greater sensitivities and much higher through-puts. 
Many research tools now considered critical to understanding the cause 
of disease and protecting the health of Americans were unheard of just 
a few years ago. For instance, the Magnetic Resonance Imagers, or MRIs, 
now found in hospitals and medical centers across the country were rare 
and experimental less than 20 years ago. Today MRI is an essential 
clinical tool, saving countless invasive surgical procedures each year. 
NCRR supported the development of MRI from its earliest iterations--as 
an obscure technology used only in chemistry labs--to the clinical tool 
that physicians have come to depend on. NCRR continues to support the 
evolution of MRI and other technologies, including mass spectrometry 
and synchrotron beam lines for crystallographic studies of 
macromolecules encoded by the tens of thousands of genes within the 
human and other genomes. These advanced technologies evolved from the 
basic research efforts of physicists and engineers who needed these 
sophisticated instruments for studies of particle physics. The NIH 
biomedical research community, frequently in collaboration with 
investigators from other federal agencies, adapted the physicists' 
tools to study the molecular causes of disease and to develop specific 
therapies to prevent, cure or ameliorate the disease.
                         advanced technologies
    The shared resources supported by NCRR provide a fertile 
environment to stimulate collaborations among investigators. 
Interdisciplinary research teams are indispensable as scientists begin 
to address more complex research problems. One example is the 
exploration of the human genome and the macromolecules encoded by the 
more than 30,000 genes identified to date within the human genome. 
Working at the scale of the proteome (proteins expressed by the 
genome), investigators may need to characterize thousands of proteins 
to address fundamental questions that cannot be answered by examining 
just one protein at a time. To assist examination of such complex 
problems, NCRR will initiate a program to support a system or an 
integrative approach for biomedical research resource centers equipped 
thematically with the most advanced technologies, including structural 
and protein purification techniques, mass spectrometry, and DNA 
microarrays to address the biocomplexity of research. Research teams at 
these centers will include investigators with wide-ranging but 
complementary expertise, including physicists, physical chemists, 
engineers, bioinformaticists, computer programmers, and both physicians 
and basic scientists trained in sophisticated biomedical research.
    In order to respond rapidly to scientists' changing needs, NCRR 
works in trusted partnership with the biomedical research community and 
with other NIH institutes and centers. An overwhelming number of 
scientists we hear from have identified an urgent need for 
bioinformatics tools to collect, manage, analyze, and share the 
enormous data sets that arise from genomics, proteomics, and imaging 
efforts. Last year, NCRR launched an ambitious pilot project known as 
the Biomedical Informatics Research Network (BIRN). BIRN is a 
collaborative effort with the San Diego Supercomputer Center, the 
National Science Foundation, and several universities. An essential 
feature of the BIRN testbed is the creation of infrastructure that can 
be deployed rapidly to other research sites throughout the country, and 
promises to have applications beyond neuroimaging, the project's 
initial focus.
    Another successful pilot venture is the Internet-based network, 
CFnet, which NCRR established a few years ago in partnership with the 
Cystic Fibrosis Foundation. The initial goal of CFnet was to determine 
if phase 1 and 2 clinical trials could be facilitated across several 
GCRC sites with web-based data management. The effort proved so 
successful that we anticipate extending CFnet to an additional 12 GCRC 
sites and will include phase 3 clinical trials. NCRR, in collaboration 
with Internet 2, plans to establish a comparable network at the eight 
minority-serving medical schools to facilitate their participation in 
clinical trials and in studies designed to examine the factors 
contributing to health disparities and ways to eliminate them. This 
network will be extended to the entire cohort of institutions currently 
supported through NCRR's Research Centers in Minority Institutions 
program. NCRR also plans to initiate networking with a subset of 
academic institutions within the Institutional Development Award (IDeA) 
program.
                     genomics and genetic medicine
    NCRR supports national repositories for biologic models, which play 
an indispensable role in uncovering the basis of human health and 
disease. The genomes of animal species are remarkably similar to ours; 
consequently, animal models offer a wealth of information about human 
gene function. NCRR plans to support national resources to 
systematically validate, classify and characterize genetically altered 
animal models. National genotyping laboratories will be established to 
serve both the clinical research and animal model communities.
    Research with embryonic stem cells may hold the key to treatment of 
disorders for which no effective therapies exist. These cells have the 
potential to develop into any type of cell in the body. To explore the 
full potential of these cells, NCRR will fund studies of several animal 
models, including nonhuman primates and rodents, to identify the 
factors within their microenvironments that induce embryonic stem cells 
to transform into insulin-producing islet cells, blood-forming cells, 
dopamine-producing neurons, and more--ultimately for therapeutic 
purposes.
    Despite the fact that half of all NIH-funded research grant 
applications include animal-based research, relatively few 
veterinarians are research trained, and veterinary schools have too few 
faculty who can serve as mentors or role models for students. To 
address this need, NCRR proposes to establish academic Centers of 
Veterinary Research Excellence (COVRE) in colleges of veterinary 
medicine. The goal of COVRE is to develop a pool of research-trained 
veterinarians who will fill a rapidly growing need in biomedical 
science. COVRE will provide competitive support to further develop the 
research infrastructure--the research facilities, instrumentation and 
investigator development--of Veterinary Schools of Medicine.
                research training and career development
    To address the need for research trained physicians and dentists in 
patient-oriented research, NCRR will expand its support for several 
NIH-wide career development programs. The NCRR proposes to enhance 
support for the Mentored Patient Oriented Research Career Development 
Awards (K23), and Mid-Career Investigator Awards (K24). NCRR will 
continue to be a major supporter of the institutional Clinical Research 
Curriculum Awards (K30). In fiscal year 2001, NCRR demonstrated its 
commitment to the development of a cadre of clinical researchers by 
supporting more K23 awards than any other NIH component except one. 
NCRR will expand support of the loan repayment program for NCRR-
supported junior investigators (dentists and physicians) who are 
pursuing patient-oriented clinical research career development.
    NCRR proposes to expand support for clinical research pilot studies 
in GCRCs so that promising junior investigators and established 
investigators with novel ideas may collect important preliminary data 
to support the feasibility of research questions proposed in their 
research grant applications. NCRR also intends to begin funding of a 
new institution-based career development program for physicians and 
dentists. The Mentored Clinical Research Scholar Program was created as 
an institutional patient-oriented career development program. The 
program flexibly integrates educational instruction through seminars, 
workshops and formal courses that may lead to advanced degrees and the 
acquisition of biomedical research expertise in a mentored setting. 
Candidates must participate for a minimum of two years but not longer 
than five years and may be eligible for the loan repayment program. 
Candidates may earn an M.S., M.P.H., or Ph.D. degree in areas relevant 
to clinical research. The goal is to prepare physicians and dentists 
for independent careers in patient-oriented research.
    Another NCRR effort is to enhance medical students' interest in 
clinical research careers through support for the Mentored Medical 
Student Clinical Research Program. This program provides medical and 
dental students with support for one year of didactic clinical 
investigation and mentored research at institutions with a GCRC or an 
RCMI Clinical Research Center. The goal is to provide support for up to 
5 students per GCRC site per year. A similar program for veterinary 
students will be expanded.
                       research capacity building
    NIH proposes to continue support for construction or renovation of 
extramural research facilities through the Research Facilities 
Improvement Program in fiscal year 2003. The research community has 
expressed a need for Biosafety Level (BSL) 2/3/4 facilities for 
handling dangerous bacteria, viruses, and other agents; good 
manufacturing procedures (GMP) facilities for manipulation of cell 
therapies and production of vectors for human gene transfer. 
Applications from smaller institutions will be given special 
consideration for funding. Separately, at least $5 million of funds 
appropriated for construction for fiscal year 2003 will be required to 
finish building a chimpanzee sanctuary system.
    The NIH Institutional Development Award (IDeA) Program provides 
support to enhance the biomedical research capacities of institutions 
in states that have not fully participated in NIH research funding in 
the past. To develop and enhance their research infrastructure, NIH 
launched two program initiatives, the Centers of Biomedical Research 
Excellence (COBRE) and Biomedical Research Infrastructure Networks 
(BRIN). In response to recommendations of institutional officials and 
investigators in the IDeA states and Puerto Rico, NCRR proposes to 
create an Internet-based network with distributed databases, using 
Internet 2 to link the BRINs and COBREs, to foster collaborations among 
the participating institutions. IDeAnet will provide access to 
bioinformatics tools for data analysis and visualization as well as 
access to scalable computing up to the teraflop level.
                           health disparities
    Finally, in order to address health disparities, NCRR proposes to 
establish Comprehensive Centers for Health Disparities Research. These 
Centers will develop the capacity of RCMI medical schools to conduct 
basic and clinical research in type 2 diabetes and cardiovascular 
disease, both of which disproportionately affect minority populations. 
The Centers will provide support to further develop the requisite 
research infrastructure, recruit magnet clinical investigators, recruit 
and develop promising junior faculty, and facilitate substantial 
collaboration between the RCMI grantee institutions and more research-
intensive universities. Partnerships between investigators at GCRC 
sites will be developed.
    Mr. Chairman, the NIH budget request includes the performance 
information required by the Government Performance and Results Act 
(GPRA) of 1993. Prominent in the performance data is NIH's second 
annual performance report which compared our fiscal year 2001 results 
to the goals in our fiscal year 2001 performance plan.
    I will be happy to respond to any questions you may have. Thank 
you.
                                 ______
                                 
              Prepared Statement of Dr. Stephen E. Straus
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Center for 
Complementary and Alternative Medicine for fiscal year 2003, a sum of 
$113,823,000, which reflects an increase of $8,843,000 over the 
comparable fiscal year 2002 appropriation.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report that compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
    Fiscal year 2001--NCCAM's third year--was one of exciting growth 
and productivity. Substantive progress was made towards advancing each 
of the four primary goals articulated in NCCAM's five-year strategic 
plan: stimulating and supporting research, research training, outreach, 
and facilitating integration.
                          building for success
    NCCAM's evolving success has depended on our firm adherence to a 
series of guiding principles. First, we solicit the best research ideas 
from a wide base of our stakeholders, investigators, and practitioners 
from the many mainstream and complementary and alternative medicine 
(CAM) disciplines and fields; we incorporate similarly wide 
perspectives into peer-review; and we invest in only the most 
competitive, exacting, and important work. Second, our portfolio 
emphasizes clinical research because CAM practices are already widely 
used, and the American people need information that is based on 
scientific evidence so that they can make informed health care choices. 
Third, the range of clinical conditions addressed by CAM and the cost 
of clinical studies, especially large trials, dictates that we leverage 
our intellectual and capital resources through collaboration with 
sister Institutes, Centers, and agencies. Fourth, CAM products and 
practices, in spite of their wide use, are often of variable quality. 
Thus, we must ensure the highest standards of safety and 
reproducibility of our studies.
    The progress made in each of these areas has been facilitated by 
our creation of programs in international health research, special 
populations research, and clinical and regulatory affairs (PCRA), as 
well as the establishment of an Intramural Research Program (IRP), 
including the appointment of the first NCCAM Director for Clinical 
Research. The PCRA coordinates and monitors NCCAM-funded multi-center 
trials, including related Institutional Review Board (IRB) and data and 
safety monitoring activities. Further efforts to enhance research 
quality include NCCAM-funded preparation of high-priority clinical 
research-grade botanical products such as cranberry, Echinacea, saw 
palmetto, and milk thistle, for which existing supplies sold to 
consumers are too variable in product content and quality. The IRP 
creates on the NIH campus an environment for collaborative research, 
training, and clinical care with CAM modalities.
    Evidence of our success over the past three years includes a nearly 
25-fold increase in grant applications to NCCAM and a commensurate 
increase in the quality of our awards. Our research portfolio has begun 
to demonstrate the breadth and complexity typical of work supported by 
the more established Institutes. We have expanded our support for 
investigator-initiated studies on the basic mechanisms of action and 
clinical applications for diverse, widely used CAM therapies. NCCAM 
manages a substantive Centers program to investigate a range of 
botanical products, cancer therapies, cardiovascular disease 
treatments, and women's health approaches, among others, while 
thousands of research subjects have been enrolled into the most 
rigorous Phase III studies of CAM treatments ever conducted (Table). We 
have steadily increased the number of research training awards for pre- 
and postdoctoral fellows, physicians, nurses, and CAM practitioners. 
Our outreach efforts have benefitted from an award-winning web site and 
an Information Clearinghouse enriched with new fact sheets, reports, 
and publications for the public and the research and health care 
communities.

                  SELECTED RANDOMIZED, CONTROLLED PHASE III CLINICAL TRIALS SUPPORTED BY NCCAM
----------------------------------------------------------------------------------------------------------------
                                                                      Cosponsoring NIH
      Phase III clinical trials                 Status               Institutes/Centers       Target enrollment
----------------------------------------------------------------------------------------------------------------
Shark cartilage as adjunctive therapy  Enrolling subjects......  NCI.......................  756
 for lung cancer.
Ginkgo biloba to prevent dementia....  Enrolling subjects......  NIA, NHLBI, NINDS.........  3,000-3,500
Acupuncture for osteoarthritis pain..  Enrolling subjects......  NIAMS.....................  570
Glucosamine/chondroitin to treat       Enrolling subjects......  NIAMS.....................  1,588
 osteoarthritis.
Vitamin E/selenium to treat prostate   Enrolling subjects......  NCI.......................  32,400
 cancer.
Hypericum perforatum to treat minor    Awarded.................  NIMH, ODS.................  300 (min.)
 depression.
EDTA chelation therapy to treat        Under review............  NHLBI.....................  1,600 (est.)
 coronary artery disease.
Saw palmetto/P. africanum to prevent   Announced...............  NIDDK, ODS................  3,000 (est.)
 progression of benign prostatic
 hypertrophy.
----------------------------------------------------------------------------------------------------------------

    Allow me to highlight our approaches to and plans for some of the 
most complex and important facets of human health--cancer, 
neurosciences, and HIV/AIDS--and international health as illustrative 
of our overall strategy.
                                 cancer
    Surveys show that many cancer patients, hoping to improve their 
prognosis or to reduce the side effects of conventional treatments, use 
CAM modalities; others choose a CAM therapy as an alternative, 
especially for those cancers that are not responsive to conventional 
therapies. This widespread use has made studies of CAM approaches to 
cancer a high priority for NCCAM, as evidenced by a notable increase in 
investment in this area. NCCAM is collaborating with the National 
Cancer Institute and leading cancer specialists to examine diverse 
complementary and alternative therapies for cancer and its 
complications, as palliative care treatment, and as options for care at 
the end of life. We jointly support CAM programs at specialized cancer 
centers; we co-fund the largest ever studies of the dietary supplements 
selenium and vitamin E for prevention of prostate cancer and shark 
cartilage as adjunctive therapy for lung cancer (Table). Our portfolio 
of recently funded studies ranges from basic molecular and 
pharmacological studies of herbal products used by cancer patients, to 
assessments of massage, spiritual approaches, and complex nutritional 
regimens. We hope to support additional rigorous Phase I and II studies 
of a variety of popular alternative treatments for which the scientific 
literature provides limited or no evidence to confirm their safety or 
effectiveness: high-dose antioxidants (e.g., vitamin C or Coenzyme 
Q10), herbal mixtures (e.g., Flor-Essence, Essiac, PC-SPES, or 
traditional Chinese medicines), single whole plant extracts (e.g., 
mistletoe, oleander, or green tea), biopharmacologics (e.g., MTH-68, or 
714-X), or complex regimens (e.g., Revici or Gerson therapies).
                           the neurosciences
    Another large component of the NCCAM research portfolio focuses on 
important public health needs and opportunities in the neurosciences, 
including studies on pain, mental health, stroke, addiction, and 
neurodegenerative disorders, as well as the neurobiological effects of 
placebos and diverse CAM therapies. Together, these studies promise to 
determine the range of neurological conditions for which CAM therapies 
may be beneficial and to further elucidate the intricate processes of 
the human nervous system.
    Even though acupuncture has enjoyed millennia of empiric 
development and widespread use in Asia, it has been poorly explicated 
or accepted by the standards of contemporary biomedicine. Currently, 
NCCAM investigators are learning more about acupuncture's mechanisms of 
action and its value for pain relief. Several different basic science 
studies are applying powerful new brain imaging techniques (such as 
functional magnetic resonance imaging and positron emission tomography) 
to identify physiological linkages between needle insertion sites, 
ancient acupuncture meridians, and critical brain neurotransmitter and 
endogenous opioid pathways Many of NCCAM's studies are dedicated to 
investigating how effective acupuncture is at managing pain relative to 
other contemporary approaches. For example, in collaboration with the 
National Institute of Arthritis and Musculoskeletal and Skin Diseases, 
NCCAM will complete the largest and most rigorous trial to date of the 
safety and efficacy of acupuncture for the pain of osteoarthritis of 
the knee (Table). NCCAM supports smaller studies for other conditions 
including: carpal tunnel syndrome; temporomandibular disorder and 
postoperative dental pain; and back pain. Collectively, this is the 
largest ever compendium of formal acupuncture studies.
    The dominant theme of research in NCCAM's IRP focuses on the body's 
cardinal communications network that links the mind/brain and body: 
neural, endocrine, and immune systems and their responses to 
significant age-related life stressors, such as depression, chronic 
pain, cognitive decline, and sleep disorders, all of which are prime 
targets of CAM approaches. One of the first intramural studies will 
examine the use of acupuncture to control nausea associated with 
aggressive cancer therapy.
    The placebo effect also hinges on the powerful dialogue between 
mind and body, representing a change in a patient's condition that 
occurs in response to administration of otherwise inert substances or 
participation in a psychophysiological activity in a healing context. 
Research has shown that placebos affect treatment outcome. In November 
2000, NCCAM, the National Institute of Diabetes and Digestive and 
Kidney Diseases, and 15 other Institutes, offices and health agencies 
cosponsored a major international conference to examine social, 
psychological, and neurobiological contributions to the placebo effect, 
and the ethical use and evaluation of placebo actions in clinical 
trials. In response to recommendations from the conference, NCCAM has 
planned and will fund, in collaboration with nine other NIH Institutes 
and Centers, new research initiatives aimed at elucidating the 
neurobiological mechanisms that mediate placebo effects, and supporting 
studies of social and behavioral factors that facilitate placebo 
responses in clinical practice settings.
                                hiv/aids
    People with HIV/AIDS often incorporate CAM modalities into their 
treatment strategies. Consequently, NCCAM is building an innovative and 
broad-based research portfolio to determine the safety and efficacy of 
CAM modalities used by these individuals. NCCAM plans to solicit 
studies that build on ongoing in vitro, animal, and early phase 
clinical studies that address: the potential antiretroviral action of a 
number of CAM therapies either alone (e.g., dehydroepiandrosterone 
[DHEA]) or in concert with approved anti-HIV drugs (e.g., licorice 
[Glycyrrhiza glabra] and St. John's wort [Hypericum perforatum]); the 
amelioration of undesirable side effects of conventional treatments 
(including garlic to prevent the unusual deposition of fatty tissues 
under the skin, known as lipodystrophy); or the restoration of the 
immune system by dietary supplements (e.g., alpha lipoic acid or 
creatine). Because palliation is one of the purported benefits of many 
CAM therapies, NCCAM also supports several research projects on 
improving the quality of life for people with advanced AIDS (parallel 
studies are being conducted with people who have advanced cancer), 
including massage therapy to treat depression and improve the quality 
of life, cognitive behavioral coping and Tai Chi to reduce stress, and 
the role spirituality plays in sustaining one's will to live.
                     international health research
    Recognizing that a global CAM research network would also enhance 
CAM research activities in the United States by affording investigators 
access to unique bioresources and traditional therapies, NCCAM 
established a research program on international health in fiscal year 
2001. The goal is to promote the validation of indigenous CAM practices 
by encouraging their rigorous assessment in their native context in a 
culturally sensitive manner. Collaborations with the Fogarty 
International Center, the World Health Organization, and other agencies 
are facilitating these endeavors. In accord with the strategic plan for 
this effort, NCCAM has begun by convening international workshops and 
plans to solicit applications to develop an international site of CAM 
research excellence.
                               conclusion
    While many CAM remedies have been employed for centuries, we still 
have much to learn about them. By continuing our studies on their 
underlying mechanisms and clinical effects, we will discern which 
approaches are safe and effective, and therefore suitable for 
incorporation into medical practice, while well-informed consumers will 
reject those that are not.
    I am now happy to take your questions about NCCAM's activities and 
plans.
                                 ______
                                 
                 Prepared Statement of Dr. John Ruffin
    Mr. Chairman and Members of the Committee: I am honored to appear 
before you as the Director of the National Center on Minority Health 
and Health Disparities (NCMHD) to present the President's budget 
request for fiscal year 2003, a sum of $187.159 million, which reflects 
an increase of $29.294 million over the comparable fiscal year 2002 
appropriation. The NIH budget request includes the performance 
information required by the Government Performance and Results Act 
(GPRA) of 1993. Prominent in the performance data is NIH's second 
annual performance report which compares our fiscal year 2001 results 
to the goals in our fiscal year 2001 performance plan. As performance 
trends on research outcomes emerge, the GPRA data will help NIH to 
identify strategies and objectives to continuously improve its 
programs.
    Thanks to the support of the Congress, the National Center on 
Minority Health and Health Disparities was created in January 2001, as 
mandated by Public Law 106-525. NCMHD's mission is to lead, coordinate, 
support, and assess the NIH effort to reduce and ultimately eliminate 
health disparities. The Center will achieve its mission by conducting 
and supporting basic, clinical, social, and behavioral research, 
promoting research infrastructure and training, fostering emerging 
programs, disseminating information, and reaching out to minority and 
other health disparity communities. NCMHD envisions an America in which 
all populations will have an equal opportunity to live long, healthy 
and productive lives.
    Over the past year, NCMHD has worked diligently with its partners, 
the other Institutes and Centers (ICs) and Offices at NIH, to implement 
its statutory requirements. I am grateful for the extensive support and 
cooperation that the Center has received from Dr. Ruth Kirschstein, 
Acting Director of NIH, and all of the other IC Directors. The help of 
the other ICs is demonstrated in the Center's achievements that I will 
discuss today. Last year, I informed you of what we were planning to 
attain. Now, one year later, I am proud to share with you highlights of 
what we have accomplished. The Center has successfully developed its 
organizational structure and continues to hire new staff to carry out 
its programs and initiatives.
              nih comprehensive strategic plan and budget
    For the first time in the history of the National Institutes of 
Health, it will have a comprehensive Strategic Plan and Budget that 
will be a guiding mechanism for the conduct and support of all NIH 
minority health disparities research and other health disparities 
research activities. NCMHD was honored to be charged with the 
development of this plan in collaboration with the Director of NIH and 
the Directors of the other NIH ICs. The Center has submitted the 
Strategic Plan and Budget to the Office of the Director, NIH, for 
review.
    The Plan was developed with substantial input from various 
stakeholders including the public, academia and health professionals 
representing those who disproportionately experience disparities in 
health. It describes current activities and future plans of the NIH to 
address the health disparities crisis, to build a culturally competent 
cadre of biomedical and behavioral investigators and to increase the 
number of minority clinical and basic medical scientists who are 
essential to the success of our efforts. There are three main goals of 
the plan research, research infrastructure and community outreach which 
encompasses information dissemination and public health education. 
Within each goal there are areas of emphasis and objectives to 
accomplish the priorities identified or mandated. Each objective 
outlines an action plan, time-line, performance measures to monitor and 
report progress and outcome measures to demonstrate accomplishment and 
ultimate impact. The Plan will continue to be an evolving document over 
the next five years. Once finalized, it will be posted on the NCMHD 
website at www.ncmhd.nih.gov on a continuing basis, and comments from 
the public will be welcomed at any time. We will update and revise the 
Strategic Plan and Budget annually with the continued collaborative 
input of the other NIH ICs, and we will provide annual reports on our 
progress.
                ncmhd congressionally mandated programs
    NCMHD also has made rapid progress in implementing its three major 
congressionally mandated programs--the Loan Repayment Program, the 
Endowment Program for Section 736 (PHS Act) institutions, and the 
Centers of Excellence Program. Currently, we are in the preliminary 
phase of implementing the Centers of Excellence Program, which we have 
named Project EXPORT, ``Centers of EXcellence in Partnerships for 
Community Outreach, Research on Health Disparities, and Training.'' We 
are grateful to the NIH ICs for providing us with the necessary 
mechanisms and support which made it possible for the NCMHD to launch 
in fiscal year 2001 our two new loan repayment programs and the 
Endowment Program for Section 736 institutions.
                      the loan repayment programs
    In fiscal year 2001, the Center established the Loan Repayment 
Program for Health Disparities Research, mandated in law, and the 
Extramural Clinical Research Loan Repayment Program for individuals 
from disadvantaged backgrounds, the authority for which was delegated 
to the Center by the Acting Director of NIH. The Loan Repayment Program 
for Health Disparities Research is aimed at increasing the number of 
highly qualified health professionals in health disparity research 
careers, and focuses on basic, clinical, and behavioral research with 
priority given to biomedical research. The Extramural Clinical Research 
Program seeks to increase the number of highly qualified health 
professionals from disadvantaged backgrounds who pursue clinical 
research careers. Applicants to the loan repayment programs, must have 
a health professions degree, such as a M.D., Ph.D., D.O., D.D.S., or 
equivalent doctorate degree. Individuals completing their residencies, 
post-doctoral training, and internships may also apply.
    We are pleased to report that the first round of loan repayment 
awards were made to 45 health professionals in fiscal year 2001, eight 
months after the Center's creation. Twenty eight awards went to the 
Health Disparities Research Loan Repayment Program, and seventeen 
awards to the Extramural Clinical Research Loan Repayment Program. A 
total of 125 applications were received. Based on the tremendous 
interest in the program, during the current fiscal year we anticipate 
receiving about 350 applications. We plan to announce the fiscal year 
2002 awards in September.
                         the endowment program
    The Center is fortunate to have had similar success in implementing 
the Endowment Program for Section 736 Institutions, as required by 
Public Law 106-525. These institutions are Centers of Excellence 
already established by the Health Resources and Services Administration 
(HRSA) under Section 736 of the Public Health Service Act. The purpose 
of this program is to facilitate capacity building for minority health 
disparities research and other health disparities research at 
institutions that have a demonstrated commitment to educating and 
training researchers from minority and health disparity populations. In 
fiscal year 2001, the NCMHD made the first round of endowment awards to 
five institutions. The Center will continue its commitment to the 
Endowment Program this year. The preliminary phase of the application 
process will begin with the release of the next RFA in April to 
culminate with the issuing of fiscal year 2002 awards in September.
                     centers of excellence program
    Our efforts to implement our Project EXPORT Centers of Excellence 
Program are well underway. The purpose of the Project EXPORT program is 
to develop and implement a network of centers of excellence at academic 
institutions with a significant number of students from racial and 
ethnic minority and other health disparity populations. This program 
aims to promote the conduct of minority health and/or health disparity 
research aimed at reducing disparities in health status; promote the 
participation of members of health disparity groups in biomedical and 
behavioral research, prevention and intervention activities through 
education and training; and build research capacity in minority serving 
institutions. The RFAs for the program have been released, and the 
Center is currently accepting applications through May 24. We have just 
successfully completed a series of four technical assistance workshops 
across the country, which provided the community with guidance on all 
aspects of completing and submitting applications for the program. The 
attendance and level of participation at the workshops was outstanding, 
and we look forward to receiving a number of highly competitive 
applications. We expect to announce the fiscal year 2002 awards in 
September.
                            new initiatives
    NCMHD is excited about the opportunity to undertake new approaches 
to the health disparities crisis. The Center is presently exploring the 
development of the following additional programs for fiscal year 2003:
    (1) The Virtual University Program: to improve training outcomes 
for students from minority and other health disparity groups, improve 
the transition from undergraduate to graduate programs and to 
independent investigators, and serve as a resource for continuing 
education and/or retooling for faculty at minority serving 
institutions.
    (2) The Rural Poor and other Health Disparity Groups: NCMHD will 
collaborate with the National Institute on Dental and Craniofacial 
Research (NIDCR) to support 1) planning grants for research to prevent 
or reduce oral health disparities, 2) pilot grants for research to 
prevent or reduce oral health disparities, and 3) research 
infrastructure and capacity building for minority institutions to 
reduce oral health disparities.
    (3) Community Outreach: the NCMHD is committed to creating 
communication channels that lend themselves to the bi-directional, 
interactive nature of effective outreach. Accordingly, the NCMHD will 
divide its outreach efforts into three major objectives: (1) Outreach 
to Communities and their Community Based Organizations; (2) Outreach to 
Health and Social Service Professionals; and (3) Outreach to Health, 
Research and Social Service Institutions, Professional Organizations, 
and the Business Sector.
    (4) Mississippi Delta Project: with a medical research agenda for 
the Mississippi Delta Region, the NCMHD will concentrate on (1) 
solidifying the organizational and technological network within the 
community to conduct research on health disparities; (2) increasing the 
level of involvement of community residents in the health research; (3) 
facilitating the availability of culturally-appropriate health 
education material; and (4) establishing a base for involvement of 
small businesses with these entities.
                               conclusion
    The NCMHD is grateful to the Congress, the Administration and the 
NIH Institutes and Centers for the overwhelming support that each has 
provided the Center in transitioning from the Office of Research on 
Minority Health, to the National Center on Minority Health and Health 
Disparities. I am proud of the progress that the Center has made over 
the past year in establishing its organizational structure and 
programs. The American people can now learn about the Center's 
activities and programs by accessing our new website at 
www.ncmhd.nih.gov which is now averaging about 50,000 hits a month. 
Through continued and increasing collaborative ventures, NCMHD will 
work diligently to define the health disparity issue for every 
American, and garner their support to someday ensure an America in 
which all populations will have an equal opportunity to live long, 
healthy and productive lives.
                                 ______
                                 
               Prepared Statement of Dr. Gerald T. Keusch
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the Fogarty International Center for 
fiscal year 2003, a sum of $63,833,000 which reflects an increase of 
$6,480,000 over the comparable fiscal year 2002 appropriation.
                       science for global health
    For 34 years now, the Fogarty International Center (FIC) has built 
alliances for global health to advance medical research for the, 
benefit of all. We live in an interconnected, international community 
and because science is an inherently international endeavor, FIC 
initiatives reach across borders and contribute knowledge to enhance 
health here at home while narrowing the gap in health status between 
rich and poor countries.
    We face many global health challenges and threats. The World Health 
Organization (WHO) estimates that 1,200 people die each hour from an 
infectious disease. AIDS has killed more than 22 million people, 
leaving in its wake households without bread-winners, orphaned 
children, and unspeakable human suffering. In the United States, 45,000 
people become infected each year. As we battle AIDS, TB, malaria and 
other infectious diseases on the rise around the globe, we confront new 
microbial threats and drug-resistant strains of common foes. At the 
same time, we know that chronic diseases will become more important 
causes of the global burden of disease in the coming decades (WHO/World 
Bank Report, 1996). With aging of populations and changing 
demographics, due to new economic growth, heart disease, stroke, 
diabetes, mental illness and other chronic diseases, will all add to 
the increasing health burden on the global community. As we combat 
today's diseases challenges, we must prepare for those on the horizon. 
Sound science is at the foundation of our approach to addressing these 
global health threats.
    As a nation, our interest in global health stems not only from our 
humanitarian concerns as we work to alleviate human suffering, but also 
from an enlightened self-interest. Traditionally, such interests focus 
on protecting our nation from imported diseases. Now we recognize the 
political and economic benefits as well: healthy, stable countries make 
strong allies and trading partners. Yet, our self-interest goes beyond 
these issues. Through partnerships with scientists from around the 
world, including those in developing countries, we are able to identify 
new strategies and new understandings of disease processes, including 
for AIDS, TB, and chronic diseases such as heart disease, that affect 
us all. In light of the tragic events of September 11, these 
partnerships take on new meaning. As President Bush noted to the U.N. 
General Assembly soon after the tragedy, ``My country is pledged to 
investing in education and combating AIDS and other infectious diseases 
around the world. Following September 11, these pledges are even more 
important. In our struggle against . . . poverty and despair, we must 
offer an alternative of opportunity and hope.'' The programs of the FIC 
provide both scientific opportunity and hope for generations of 
scientific leaders, especially those in the poorest, most marginalized 
parts of the world.
                      narrowing the knowledge gap
    FIC currently addresses global health challenges through twenty 
research and research capacity building programs as well as through its 
leadership of global scientific alliances. Working in over 100 
countries and through more than 120 U.S. universities, medical schools 
and schools of public health, FIC-supported scientists are in the 
vanguard in advancing research and in training the next generation of 
scientists. The pairing of research with research training is the 
cornerstone of FIC's approach toward building capacity in the 
developing world, and it has produced over time spectacular and 
enduring results. A complete description of the FIC Strategic Plan is 
available on the Web at htip://www.nih.gov/fic/about/Slan.html.
    FIC's AIDS International Training and Research Program, now in its 
14th year, has provided Ph.D.-level, Master's-level and advanced short 
course training to thousands of scientists in the developing world. 
Research successes supported through that program include 
identification of effective strategies to reduce HIV transmission from 
mother to child, insights into risk behavior that leads to HIV 
infection and related intervention strategies, and development of 
technologies to ensure the safety of the blood supply. Importantly, 
scientists who received training through the AIDS program are 
competitive for other NIH funds, as well as funds from other science 
agencies, and become the leaders in science in their home countries as 
new studies and clinical interventions are developed and tested.
    Among the outstanding leaders associated with FIC's research 
capacity building programs is Dr. Nelson Sewankambo, a long-standing 
FIC affiliate of our AIDS program, now Dean of the School of Medicine 
in Kampala, Uganda. Dr. Crispus Kiyonga, Minister of Health of Uganda, 
has received advanced training in AIDS research methodologies with FIC 
support to Johns Hopkins University. Both individuals had a major 
impact on the formulation and implementation of AIDS policies that have 
contributed to the decline in overall HIV infections in Uganda. Today, 
Dr. Kiyonga leads the United Nations Global Fund for AIDS, TB and 
Malaria, a newly-established fund to address the burden of those 
diseases in the developing world. In addition, Dr. Phillippa Musoke, 
once a trainee in the AIDS program, later competed successfully for NIH 
funds and went on to make one of the seminal discoveries in Uganda on 
the use of anti-retroviral drugs to block mother to child transmission 
of AIDS. Looking more broadly at the impact of the AIDS program on 
individual career development and scientific productivity, a review of 
the presentations at the most recent AIDS International Conference held 
in Durban, South Africa, in June 2000 shows that fully 25 percent of 
all research papers were authored or co-authored by FIC-supported 
scientists from developing countries. Ultimately it is people who drive 
progress.
    Using the same capacity building paradigm as with AIDS, FIC 
supports research and research training in other critical areas of 
global health concern, including in the fields of maternal and child 
health, environmental and occupational health, and tobacco and health, 
while building essential capacity in ethics and information technology. 
While training the next generation of researchers, key advances in 
critical areas have emerged: a U.S.-Peru team developed a low-cost 
diagnostic test for multi-drug resistant TB that is fast, cost-
effective and can be used in resource-poor settings; a U.S.-Brazil team 
tracked the spread of penicillin resistance in populations; a U.S.-
China team elucidated the risks associated with unsafe blood products 
and the spread of HIV; and a U.S.-Russia team defined intravenous drug 
use and sexual practices related to the burgeoning AIDS epidemic in 
Russia to identify effective interventions. As a companion to these 
research capacity building programs for developing country scientists, 
FIC supports a career development program for junior U.S. scientists to 
allow them opportunities to conduct research on global health issues in 
developing country institutions.
    FIC's support for research also includes work that spans diverse 
disciplines to generate new knowledge. For example, the International 
Cooperative Biodiversity Groups program, launched in 1993, fosters drug 
development from diverse plants and microorganisms. At the same time, 
working through community groups and local governments, it works to 
conserve biodiversity and promote economic development where these 
source organisms are located. A number of novel lead compounds to 
combat a range of diseases, including AIDS, TB, malaria, 
leischmaniasis, bacterial infections, and cancer, are now in animal 
testing programs in collaboration with pharmaceutical partners. 
Additionally, FIC is working to strengthen the knowledge base of the 
linkage between health status and economic development through joint 
awards to economists and health scientists. Launched with other NIH 
partners and the World Bank, this new FIC program supports studies to 
promote collaborative decision making among Ministries of Development, 
Finance and Health in the developing world, for example studies that 
document the link between the nutritional status of children and adult 
economic productivity, providing the evidence base for appropriate 
interventions.
                           global leadership
    As a leader in the global health arena, FIC initiates partnerships 
and implements research and training with other NIH components on 
issues of common interest as well as with other U.S. agencies, science 
funding agencies abroad, international organizations, foundations and 
other non-governmental groups. FIC is the Secretariat for the 
Multilateral Initiative on Malaria (MIM), a global alliance of 
organizations and institutions committed to advancing malaria research 
and building research capacity in the developing world. FIC works 
closely with the National Institute of Allergy and Infectious Diseases, 
the National Library of Medicine, the WHO and science funding agencies 
in France, the United Kingdom, and other countries to advance the goals 
of the MIM. In addition to its support for collaborative research 
projects and training in malaria, the Secretariat will hold the third 
Pan-African and International Malaria Conference in Arusha, Tanzania in 
November 2002. Other examples of FIC's leadership in key global health 
areas include a major project to develop a new assessment of ``Disease 
Control Priorities in Developing Countries,'' in partnership with the 
World Bank, WHO, and the Bill and Melinda Gates Foundation. This new 
initiative will develop data on disease burden and health care 
infrastructures in the developing world as a means to inform policy 
makers. FIC has been selected by the partners as the Secretariat for 
the Project. In another area, FIC is playing a leading role in advising 
on the development of the Global Alliance for Improving Nutrition, a 
public-private sector partnership to enhance global health through food 
fortification and other nutritional interventions.
    meeting unmet global health needs: fiscal year 2003 initiatives
    Translating AIDS and TB advances from bench to bedside in the 
developing world.--As the global community continues to work to address 
the paired pandemics of AIDS and TB, donations of anti-AIDS drugs, 
increased funding from foundations and other circumstances make it 
possible to consider more aggressive care for those already infected 
while working to prevent new infections. As countries in the developing 
world gear up to test new treatment protocols, the need for enhanced 
clinical research skills and support becomes more and more important. 
Building on the foundation that FIC and its partners have established 
over many years, FIC has spearheaded the development of a new program 
to expand training in AIDS and TB to include clinical, operational and 
health services research. This program, developed closely with NIH 
partners as well as with other U.S. agencies and non-governmental 
groups, will build the capacity in poor countries so that research 
advances made at the bench may be rapidly translated into the delivery 
of health care for those who are in greatest need.
    Combating Brain Drain from Developing Countries.--As we work to 
address global health challenges, ensuring that scientists from the 
developing world who train in the U.S. have opportunities to conduct 
research on their return home is increasingly critical. To foster their 
productive ``re-entry,'' FIC and partners at NIH will expand the pilot 
effort to provide competitive awards to junior scientists from the 
developing world who have ``graduated'' from FIC training programs in 
U.S. universities or who have received training in the NIH intramural 
laboratories in Bethesda. This program encourages continuity of the 
scientist-to-scientist: collaboration, builds capacity in global health 
areas in the developing world, and encourages junior scientists from 
the developing world to return home because they can establish 
independent research careers, and builds relationships between our 
nations.
    Addressing the Growing Burden of Brain Disorders.--Mental illness 
and brain disorders will contribute increasingly to the global burden 
of disease in the coming decades (Institute of Medicine Report on 
Neurological, Psychiatric and Developmental Disorders, 2001). In 
addition to the human suffering associated with these conditions, they 
contribute to significant losses in economic productivity. FIC will 
work with partners across NIH to address the challenges of 
neurological, psychiatric, and developmental disorders in the 
developing world. In fiscal year 2003, FIC will launch a program to 
build research capacity in the field of brain disorders while 
supporting operational research to identify and implement interventions 
that are relevant, feasible and affordable in low-resource settings. It 
is expected that the benefits of this program will be realized not only 
in the developing world but also in the United States, for populations 
that share genetic and cultural similarities with those in resource-
poor settings abroad.
    The Linkages between Health, Environment, and Economic 
Development.--Understanding the linkages between sustainable 
development, environmental change and health is a great challenge to 
those who set national health policy, especially in resource-limited 
nations. Building on current FIC research programs that address the 
impact of improving health on economic productivity on the one hand, 
and research to understand the impact of environmental degradation on 
the other, FIC will launch a new program to more fully understand the 
relationships between health, environment, and economic development. 
This research program will focus on the effects of urbanization in low-
resource countries, the health effects and consequences of agricultural 
practices, waterborne diseases, nutrition and food safety, and the 
economic, social and health costs and benefits of globalization.
    Stigma and Global Health.--One of the pervasive problems affecting 
health globally is the stigma attached to certain diseases and its 
powerful impact on individuals, families and communities. Stigma 
inhibits individuals from obtaining diagnostic services or care, and 
from participating in research studies designed to find solutions to 
their condition, and results in ostracism, physical harm or even death. 
As the prevalence of stigmatizing conditions, including AIDS, mental 
illness, drug use and others, increases in the coming decades, the 
impact of stigma will also increase. Building on the out-comes of the 
FIC-led ``International Conference on Stigma: Setting a Research 
Agenda'' held in September 2001, FIC and partners across NIH will 
launch a new research and training program to enhance our understanding 
of the social and cultural determinants of stigma, both in the United 
States and in the developing world, and the behavioral responses 
resulting from stigmatization in different cultural settings. This 
understanding is fundamental to the identification and testing of 
effective behavioral interventions.
    Trauma and Injury--New Challenges.--Every day the global toll from 
trauma and injury from all causes is almost 16,000 deaths, and far 
greater numbers incur permanent disability (WHO Report; 1999). In the 
coming decades, road traffic accidents, injuries and trauma will 
contribute increasingly to the global burden of disease. FIC and NIH 
partners are working to address this challenge through the development 
of a multidisciplinary program to link basic research on trauma, burns, 
wound-healing, post-traumatic stress disorders and other conditions 
with training for scientists from the developing world. One objective 
is to develop low-cost effective interventions that would be applicable 
in the developing world as well as within the developed world.
                               conclusion
    As we enter the 21st century, the health challenges facing the 
United States and the global community will continue to converge. With 
strong scientific partnerships across national borders, we are 
positioned to tackle shared health problems and to develop shared 
solutions. The programs of the FIC are critical to building these 
partnerships and to advancing medical research for the benefit of all 
the world's people.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report, which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan.
                                 ______
                                 
             Prepared Statement of Dr. Donald A.B. Lindberg
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the National Library of Medicine 
(NLM) for fiscal year 2003, a sum of $315,163,000, which reflects an 
increase of $33,411,000 over the comparable fiscal year 2002 
appropriation.
    It is a phenomenon that has challenged the NLM and changed the way 
we operate: the ability to freely and instantaneously provide access 
via the Internet to the information we have accumulated for decades. 
MEDLINE, our database of more than 11 million references and abstracts 
to medical journal articles is now being searched 400 million times a 
year. MEDLINEplus, our extensive information resource for the general 
public, is viewed 100 million times a year. This activity dwarfs 
previous usage of the NLM's bibliographic services, whether electronic 
or print. It has changed fundamentally how the Library operates: how 
and what it collects, how it preserves information, and how it 
disseminates biomedical knowledge.
    The consequence of this communications revolution is most easily 
seen in the greatly expanded user community we serve. This community 
includes not only traditional audiences--health professionals, 
scientists, educators, students, and librarians--but now, also, for the 
first time, the general public. Surveys of Internet usage show that 
health information is one of the most cited reasons for searching the 
Internet, and we estimate that fully one-third of MEDLINE searching 
(and almost all of MEDLINEplus usage) is by the public. We believe that 
the trend toward virtual ubiquity in electronic information access will 
accelerate and that the NLM must be able to move quickly to ensure that 
those who need reliable health information have access to it. The 
effort to double the NIH budget, which is fulfilled in the fiscal year 
2002 President's Budget request, makes this a realistic goal for the 
Library.
    An example of NLM's ability to respond rapidly to changing 
circumstances was its action in putting up on its Web site information 
about bioterrorism and biowarfare, including extensive information 
about anthrax and smallpox. NLM information specialists, both medical 
librarians and specialists in toxicology information, reviewed existing 
resources and quickly made reliable data available to all. In fact, in 
the weeks following September 11, more people looked at anthrax 
information on MEDLINEplus than looked at cancer information.
    Despite the NLM's extensive involvement with computer and 
communications technology, the staff is ever mindful of its 
responsibility to maintain the integrity of the world's largest 
collection of medical books and journals. Increasingly, this 
information is in digital form, and the NLM, as a national library 
responsible for preserving the scholarly record of biomedicine, is 
working with the Library of Congress and others to develop a strategy 
for selecting, organizing, and ensuring permanent access to digital 
information. Regardless of the format in which the materials are 
received, ensuring their availability for future generations remains 
the Library's highest priority.
             serving scientists and the health professions
    From the fledgling database first mounted in 1971, usable only by 
trained librarians, MEDLINE has grown into the world's largest 
bibliographic database of biomedical literature. Anyone with access to 
the World Wide Web can easily search it. Some 4,600 journals published 
around the world are currently indexed for MEDLINE. The Library is also 
converting information from the 1950s into MEDLINE form, so that 
valuable research information on smallpox and tuberculosis, to take 
just two pertinent examples, will be available to today's scientists 
and health professionals.
    The sophisticated yet easy-to-use access system for searching 
MEDLINE on the Web is called PubMed. Since its introduction in 1997, 
continual improvements have been made, and today PubMed offers a high 
degree of flexibility to users. For example, it now has links to half 
of the journals in MEDLINE, permitting access to the full text of 
articles referenced in the database. Where such links are not 
available, users may avail themselves of the PubMed feature known as 
``Loansome Doc'' to order an article directly from a library in the 
National Network of Libraries of Medicine.
    A new service to the scientific community is PubMedCentral. This 
Web-based digital archive of life sciences journal literature was 
created by NLM's National Center for Biotechnology Information. 
Publishers electronically send peer-reviewed articles be included in 
PubMedCentral. A journal may deposit material as soon as it is 
published, or it may delay release for a specified period of time. NLM 
guarantees free access to the material; copyright remains with the 
publisher or the author. There are at present a dozen journals in 
PubMedCentral, with more soon to come online.
    The National Center for Biotechnology Information (NCBI) designs 
and develops databases to store genomic sequence information and 
creates automated systems for managing and analyzing knowledge about 
molecular biology and genetics. With the release of the ``working 
draft'' of the human genome in 2001, the global research focus is 
turning from analysis of specific genes or gene regions to whole 
genomes, which refers to all of the genes found in cells and tissues. 
To accommodate this shift in research focus, NCBI has developed a suite 
of resources to support the comprehensive analysis of the human genome 
and is thus a key component of the NIH Human Genome Project. NCBI is 
responsible for all phases of the NIH GenBank database, a collection of 
all known DNA sequences. GenBank is growing rapidly with contributions 
received from scientists around the world and now contains more than 13 
million sequences and is accessed by 50,000 researchers each day.
    Scientists use not only the sequence data stored in GenBank, but 
avail themselves of the sophisticated computational tools developed by 
NCBI investigators, such as the BLAST suite of programs for conducting 
comparative sequence analysis. Entrez is NCBI's integrated database 
search and retrieval system. It allows users to search enormous amounts 
of sequence and literature information with techniques that are fast 
and easy to use. Using this system, one can access NCBI's nucleotide, 
protein, mapping, taxonomy, genome, structure, and population studies 
databases, as well as PubMed, the retrieval system for biomedical 
literature. NCBI's Map Viewer provides graphical displays of features 
on NCBI's assembly of human genomic sequence data as well as 
cytogenetic, genetic, physical, and radiation hybrid maps. The public 
``Human Gene Map'' is another example of an important analysis tool 
developed by NCBI researchers. GeneMap represents an outline of the 
draft human genome and contains the location of more than 35,000--about 
half--of all human genes.
                           serving the public
    There was an unexpected consequence of making MEDLINE freely 
available on the Web in 1997: what had been a scientific information 
resource used almost exclusively by medical librarians, scientists, and 
health professionals was discovered by consumers. NLM estimates that 30 
percent of all MEDLINE searching is being done by the public. In an 
effort to arm the public with more useful information, the NLM, in 
1998, introduced MEDLINEplus, a source of authoritative, full-text 
health information from the NIH institutes and a variety of non-Federal 
sources.
    MEDLINEplus has grown tremendously in its coverage of health and 
its usage by the public. There were one million unique users in January 
2002. The original two dozen ``health topics,'' containing detailed 
consumer information on various diseases and health conditions, have 
been increased to more than 550. Other information available through 
MEDLINEplus includes medical dictionaries, an extensive medical 
encyclopedia written in lay language with thousands of illustrations, 
detailed information about more than 9,000 brand name and generic 
prescription and over-the-counter drugs, information in Spanish, 
directories of health professionals and hospitals, and links to 
organizations and libraries that provide health information for the 
public. The most recent additions to MEDLINEplus are illustrated 
interactive patient tutorials and a daily news feed from the public 
media on health-related topics. To be added soon is an information 
resource called NIHSeniorHealth, which the NLM is preparing in 
collaboration with the National Institute on Aging.
    The 550 MEDLINEplus health topics have links to a database of 
ongoing and planned scientific studies--ClinicalTrials.gov. This 
database is a registry of some 5,700 trials for both federally and 
privately funded trials of experimental treatments for serious or life-
threatening diseases. Most of the studies are in the United States and 
Canada, but about 70 countries are represented in all. 
ClinicalTrials.gov includes a statement of purpose for each study, 
together with the recruiting status, the criteria for patient 
participation in the trial, the location of the trial, and specific 
contact information.
    There are several new NLM databases of interest to the public. One 
is ``CAM on PubMed.'' This allows users to limit a MEDLINE search to 
articles about complementary and alternative medicine (CAM). The CAM on 
PubMed subset currently contains a quarter million references to 
journal articles related to CAM research. Another new online service is 
a Web site aimed at the special needs of the inhabitants of the far 
north. ``ArcticHealth,'' as it is called, provides access to evaluated 
health information from hundreds of local, state, national, and 
international agencies, as well as from professional societies and 
universities. The new site has sections devoted to chronic diseases, 
behavioral issues, traditional medicine, environment/pollution, and 
environmental justice.
                                outreach
    The National Network of Libraries of Medicine (NN/LM) continues to 
be the NLM's primary collaborator in outreach to the biomedical 
community and to the public. The NN/LM consists of 8 Regional Medical 
Libraries, 150 resource libraries (at medical schools and other major 
institutions), and 4,400 libraries at hospitals, clinics, and local 
health institutions. In 2001 the NLM competitively awarded new 5-year 
contracts to eight institutions to serve as Regional Medical Libraries. 
The goal of the Network is to provide access to accurate and up-to-date 
health information for health professionals, patients, families, and 
the general public, irrespective of their geographic location. The NN/
LM places a special emphasis on outreach to underserved populations in 
an effort to reduce health disparities. For example, there are programs 
to assist in remedying the disparity in health opportunities 
experienced by such segments of the American population as African 
Americans, Latinos, Native Americans, senior citizens, and rural 
populations.
    One highly successful NLM outreach program has been strengthening 
Historically Black Colleges and Universities so that they can train 
people to use information resources in dealing with environmental and 
chemical hazards. Under this program, more than 80 minority 
institutions have received such training, and it was recently expanded 
to include a Hispanic serving college and a tribal college. NLM is 
using these schools as conduits to work with underserved communities in 
promoting high-quality Internet connectivity and the use of technology 
for research and education. The same NLM division that operates these 
programs also makes local awards to promote better information access 
for patients, families, and caretakers dealing with HIV/AIDS. In all 
these programs dealing with minority populations, NLM seeks to involve 
a wide variety of grass-roots organizations, from local health 
departments to churches, schools, and public libraries.
                        research and development
    The Library remains at the cutting edge of research and development 
in medical informatics--the intersection of computer technology and the 
health sciences. It does this both through a program of grants and 
contracts to university-based researchers and through R & D conducted 
by the NLM's own scientists. The Library was a leader in the High 
Performance Computing and Communications initiative of the nineties and 
is presently working to ensure that the health sciences are prepared to 
take full advantage of the Next Generation Internet. NLM's Lister Hill 
National Center for Biomedical Communications conducts a wide range of 
research to improve biomedical communication and also oversees a broad-
gauge telemedicine program and the Visible Human Project.
    The Library has funded a variety of innovative telemedicine 
projects that demonstrate the application and use of the capabilities 
of the Next Generation Internet. ``A Clinic in Every Home'' is an 
especially promising telemedicine project with the Iowa Department of 
Public Health and the University of Iowa. Building on work successfully 
done under an existing contract with NLM, this project is providing a 
test-bed for medically underserved rural Iowa residents to provide them 
with access to high quality health care. The expectation is that using 
such a system will both raise the quality of health care and lower 
health care costs.
    Applications involving the Visible Humans will also use the 
expanded capabilities of the Next Generation Internet. The Visible 
Human male and female data sets, consisting of MRI, CT, and 
photographic cryosection images, are huge, totaling some 50 gigabytes. 
The datasets are licensed to scientists at more than 1,400 institutions 
around the world. Projects range from teaching anatomy to practicing 
endoscopic procedures to rehearsing surgery. One new aspect of the 
Visible Human evolution is the project to develop an extremely detailed 
atlas of the head and neck in collaboration with four NIH Institutes 
and the National Science Foundation. The application of cutting edge 
technologies in this project will allow interactive dissection of 
anatomic structure and ``fly-through'' anatomic relationships, for 
example, traveling down the optic nerve and viewing the ophthalmic 
artery and its tributaries.
    NLM Extramural Programs have an important role in supporting R&D in 
biocommunications. One timely example is the early warning public 
health surveillance system developed at the University of Pittsburgh 
and recently demonstrated to the President. NLM's grant program also is 
a key supporter of NIH's ``Biomedical Information Science and 
Technology Initiative.'' The Library is funding 12 training programs at 
universities across the nation for the express purpose of training 
experts to carry out research in general informatics and in the genome-
related specialty of bioinformatics. The NLM has recently augmented 
each of the training programs with a ``BISTI supplement'' and has also 
funded two planning grants that will eventually lead to the development 
of what are called National Programs of Excellence in Biomedical 
Computing.
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's third annual performance 
report which compared our fiscal year 2001 results to the goals of our 
fiscal year 2001 performance plan.
                                 ______
                                 
               Prepared Statement of Dr. Yvonne T. Maddox
    Mr. Chairmen, Members of the Committee: I am pleased to present the 
President's budget request for the Office of the Director (OD) for 
fiscal year 2003, a sum of $258,544,000 which reflects an increase of 
$19,720,000 over the comparable fiscal year 2002 appropriation. The OD 
provides leadership, coordination, and guidance in the formulation of 
policy and procedures related to biomedical research and research 
training programs. The OD also is responsible for a number of special 
programs and for management of centralized support services to the 
operations of the entire NIH.
    The OD guides and supports research by setting priorities; 
allocating funding among these priorities; developing policies based on 
scientific opportunities and ethical and legal considerations; 
maintaining peer review processes; providing oversight of grant and 
contract award functions and of intramural research; communicating 
health information to the public; facilitating the transfer of 
technology to the private sector; and providing fundamental management 
and administrative services such as budget and financial accounting, 
and personnel, property, and procurement management, administration of 
equal employment practices, and plant management services, including 
environmental and public safety regulations of facilities. The 
principal OD offices providing these activities include the Office of 
Extramural Research (OER), the Office of Intramural Research (OIR), and 
the Offices of: Science Policy; Communications and Public Liaison; 
Legislative Policy and Analysis; Equal Opportunity; Budget; and 
Management. This request contains funds to support the functions of 
these offices.
    In addition, the OD also maintains several trans-NIH offices and 
programs to foster and encourage research on specific, important health 
needs; I will now discuss the budget request for each of these trans-
NIH offices in greater detail.
                      the office of aids research
    In response to the AIDS pandemic, NIH has developed a comprehensive 
biomedical and behavioral research program to better understand the 
basic biology of HIV, develop effective therapies to treat it, and 
design interventions to prevent new infections from occurring. The role 
of the Office of AIDS Research (OAR) is to plan and coordinate this 
research program that is sponsored by 25 NIH Institutes and Centers 
(IC's); to serve as a focal point for AIDS policy and budget 
development; and to monitor and foster plans for NIH involvement in 
international AIDS research activities.
    The OAR develops an annual comprehensive AIDS research plan and 
budget, based on the most compelling scientific priorities that will 
lead to better therapies and prevention for HIV infection and AIDS. 
Those priorities are determined through a unique and collaborative 
process involving the NIH institutes and non-government experts from 
academia and industry, with the full participation of AIDS community 
representatives. The plan is divided into five Scientific Areas of 
Emphasis and four Areas of Special Interest. The plan serves as a 
framework for developing the NIH AIDS budget, for determining the use 
of NIH AIDS-designated dollars, and for tracking and monitoring those 
expenditures. The fiscal year 2003 budget request for OAR is $58.3 
million.
                the office of research on women's health
    The Office of Research on Women's Health (ORWH) is the focal point 
for women's health research at NIH and strives to ensure that research 
supported by NIH addresses the health concerns of women, that women are 
appropriately included as subjects in clinical research, and that women 
are encouraged to pursue and succeed in careers in biomedical research.
    The priorities for research and the science-based initiatives of 
ORWH are based on the recommendations in the report of the Task Force 
on the NIH Women's Health Research Agenda for the 21st Century, ``An 
Agenda for Research on Women's Health for the 21st Century'' with 
consideration of new advances in science and continuing gaps in 
knowledge. ORWH will strive to address these scientific initiatives 
about women's health and sex and gender factors in disease. In fiscal 
year 2003, the OD budget request of $40.7 million includes an increase 
of $3.3 million over the fiscal year 2002 enacted budget of $37.3 
million for ORWH to implement recommendations within this agenda, 
including the prevention and detection of ovarian and cervical cancer, 
new and emerging issues surrounding the inclusion of women in clinical 
studies, successful aging and health-related quality of life issues, 
sex and gender differences in health and disease, developing an 
initiative with OAR to address priorities for prevention, care, 
treatment, and support for girls and women with HIV/AIDS, research 
regarding women and eye disease, and reproductive health including the 
full range of gynecologic and obstetrical conditions, fibroids, and the 
menopausal transition.
    ORWH will support centers for research and career development 
including a cadre of interdisciplinary researchers doing women's health 
research. ORWH, NIH IC's, and the Agency for Healthcare Research and 
Quality will support career development programs that promote the 
pursuit of interdisciplinary research careers relevant to women's 
health and encourage basic and clinical research careers. ORWH will 
also encourage networks of interdisciplinary researchers by providing 
opportunities for them to meet yearly and exchange ideas and 
experiences at NIH. In addition, ORWH and the NIH IC'S will support 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health to study and advance interdisciplinary research to 
better understand the basic molecular, cellular, and physiologic 
mechanisms underlying the response of both women and men to therapeutic 
interventions and hormonal factors. Finally, ORWH will continue to work 
with OER and OIR to monitor compliance with and facilitate analysis by 
gender of the policies for the inclusion of women and minorities in 
clinical research.
         the office of behavioral and social sciences research
    NIH has become increasingly aware of the importance of the 
contributions from behavioral and social sciences research to improving 
the health of the population. The Office of Behavioral and Social 
Sciences Research (OBSSR) provides leadership within the NIH community 
in identifying and implementing research programs in behavioral and 
social sciences that are likely to improve our understanding of the 
processes underlying health and disease and provide directions for 
intervention. OBSSR works to integrate a behavioral and social science 
approach across the programs of the NIH. The fiscal year 2003 OD budget 
includes $25.8 million for OBSSR, an increase of over $2 million or 9 
percent above the fiscal year 2002 appropriation.
    In its efforts to increase support for behavioral and social 
sciences research, OBSSR frequently identifies important topics that 
have relevance across many NIH IC's. One such initiative that OBSSR is 
developing is in the area of environmental influences on gene 
expression. The dramatic advances in genetic research in the recent 
past have only served to underscore that health outcomes are a result 
of interplay between genetic make-up and environmental influences. 
While the human genome has been characterized, the environment is less 
well understood. OBSSR, in collaboration with several Institutes, is 
undertaking an initiative to improve the understanding of the key 
environmental factors that affect gene expression and health.
    While the results of many behavioral and social science studies 
hold great promise for improving health, the incorporation of those 
results into health care is often slow or nonexistent. OBSSR is joining 
with several NIH Institutes to explore opportunities to work with the 
Centers for Disease Control and Prevention and the Agency for 
Healthcare Research and Quality to improve the translation of evidence-
based behavioral and social interventions into health care.
    Many of the most exciting scientific developments are occurring at 
the intersection of behavioral and social science research and 
biomedical research. OBSSR and several IC's are in the process of 
developing new approaches to training individuals to be prepared to 
undertake a program of research that extends well beyond traditional 
disciplinary boundaries.
                    the office of disease prevention
    The Office of Disease Prevention (ODP) has several specific 
programs/offices that strive to place new emphasis on the prevention 
and treatment of disease.
    In fiscal year 2003, the Office of Dietary Supplements (ODS) within 
ODP will continue to promote the scientific study of the use of dietary 
supplements. The Office will continue to support investigator-initiated 
research through the Research Enhancement Awards Program (REAP) and 
through program announcements with other IC's at NIH. The Office will 
also stimulate research through conduct of conferences, workshops, and 
presentations at national and international meetings. In continuing 
efforts to inform the public about the benefits and risks of dietary 
supplements, the ODS expanded the International Bibliographic 
Information on Dietary Supplements database to include a consumer-
oriented search strategy. ODS is nearing completion of public-oriented 
information pages (Fact Sheets) about specific vitamin and mineral 
dietary supplements for wide dissemination in print and on the 
Internet. These are to be followed by a series of Fact Sheets for 
botanical and herbal supplements, which are being developed in 
conjunction with the National Center for Complementary and Alternative 
Medicine. The fiscal year 2003 budget request for ODS is $18.5 million.
    In fiscal year 2002, ODS will commission an evidence-based review 
on the relationship between omega-3 fatty acids and coronary heart 
disease. A report of the review, done in collaboration with the 
National Institute of Heart Lung and Blood Institute and other NIH 
IC's, will be available in fiscal year 2003. The results of the report 
will serve as the basis for planning an NIH research agenda on omega-3 
fatty acids. To determine the efficacy and safety of dietary 
supplements containing ephedra, ODS with other Federal partners, 
commissioned an evidence-based review of ephedra efficacy and safety. 
This report is currently being drafted and will be available late 
summer, 2002. ODS has also nominated ephedra for study by the National 
Toxicology Program of the National Institute of Environmental Health 
Sciences.
    Congressional language in the fiscal year 2002 appropriation report 
has directed ODS to enhance an ongoing collaboration for the 
development, validation, and dissemination of analytical methods and 
reference materials for botanical dietary supplements. ODS will work 
with other Federal partners, non-governmental organizations, industry, 
and academia to meet this objective. In February 2002, ODS held a 
public stakeholder's meeting to receive comment on the development and 
validation of analytical methods and reference materials for dietary 
supplement products.
    Another component of ODP, the Office of Rare Diseases (ORD), 
develops and disseminates information to patients and their families, 
health care providers, patient support groups, and others and forges 
links among investigators with ongoing research activities in this 
area. The ORD continues to support workshops and symposia to stimulate 
research and to identify research opportunities related to rare 
diseases. To provide better and faster information, ORD, together with 
the National Human Genome Research Institute (NHGRI), established the 
Genetic and Rare Diseases Information Center to respond to requests for 
information about genetic and rare disorders. The fiscal year 2003 
budget request for ORD is $11.3 million.
    The ORD is also planning to respond to the critical needs of 
patients with rare, life threatening diseases by establishing regional 
and intramural centers of excellence. These centers will support rare 
diseases research and diagnostic research that will eventually benefit 
many of those patients whose diagnoses have been elusive despite 
extensive prior efforts to determine the exact nature of their 
illnesses.
                    the office of science education
    The Office of Science Education (OSE) plans, develops, and 
coordinates a comprehensive science education program to strengthen and 
enhance efforts of the NIH to attract young people to biomedical and 
behavioral science careers and to improve science literacy in both 
adults and children. The Office develops, supports, and directs new 
program initiatives at all levels with special emphasis on targeting 
students in grades kindergarten to 12, their educators and parents, and 
the general public. It maintains a website as a central source of 
information about NIH science education resources, establishes national 
model programs in public science education, such as the NIH Mini-Med 
School, and promotes science education reform as outlined in the 
National Science Education Standards and related guidelines. OSE works 
closely with the NIH extramural, intramural, women's health, laboratory 
animal research, and minority program offices on science education 
special issues and programs to ensure coordination of NIH efforts.
    Begun in fiscal year 1997 as a major new initiative in 
collaboration with the NIH institutes and centers, the Office of 
Science Education (OSE) develops and distributes standards-based 
curriculum supplements for use in K-12 classrooms. These supplements 
are distributed free-of-charge to science teachers and school 
administrators throughout the United States, and are designed to 
complement existing life science curricula that are used at the state 
and local levels. The NIH Curriculum Supplements align with the 
National Science Education Standards; incorporate inquiry-based 
learning activities; promote peer collaboration, problem solving, and 
critical thinking skills; and include cutting-edge science and up-to-
date medical research findings that are translated into real-world 
scenarios.
    As of summer 2001, over 40,000 copies of the first three titles in 
the series (Cell Biology and Cancer, Emerging and Reemerging Infectious 
Diseases, and Human Genetic Variation) have been distributed to 
teachers across the nation. This represents a potential audience of 
more than 1.5 million high school students. Preliminary evaluation 
research of the effectiveness of the curriculum supplements conducted 
in New York City has yielded promising results. Students' ratings of 
how well the material covered was connected to their lives were 96 
percent higher in classrooms using the NIH Curriculum Supplements. 
Students using the NIH Curriculum Supplements also out-performed their 
peers on a standardized test of science achievement.
                 loan repayment and scholarship program
    The NIH, through the OIR maintains the Loan Repayment and 
Scholarship Program (LRSP). The LRSP supports the following programs: 
the Clinical Research Loan Repayment Program for the repayment of the 
educational debt of awardees if they agree to conduct clinical research 
as NIH employees; the Undergraduate Scholarship Program in which 
scholars agree to serve as NIH employees after graduation, one year for 
each year of scholarship support received; and the General Research 
Loan Repayment Program which provides support for physicians and 
scientists engaged in both basic and clinical research activities at 
the NIH. Technical and logistical support is also provided for two 
extramural loan repayment programs funded with the IC's.
    Thank you for giving me the opportunity to present this statement; 
I will be pleased to answer questions.
                                 ______
                                 
              Prepared Statement of Dr. Jack Whitescarver
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the AIDS research programs of the 
NIH for fiscal year 2003, a sum of $2,769,997,000 an increase of 
$255,043,000 above the comparable fiscal year 2002 appropriation. The 
NIH budget request includes the performance information required by the 
Government Performance and Results Act (GPRA) of 1993. Prominent in the 
performance data is NIH's second performance report which compared our 
fiscal year 2001 results to the goals in our fiscal year 2001 
performance plan.
    The NIH represents the largest and most significant public 
investment in AIDS research in the world. It supports a comprehensive 
program of basic, clinical, and behavioral research on HIV infection 
and its associated opportunistic infections and malignancies that will 
lead to a better understanding of the basic biology of HIV, the 
development of effective therapies to treat it, and the design of 
better interventions to prevent new infections. Perhaps no other 
disease so thoroughly transcends every area of clinical medicine and 
scientific investigation, crossing the boundaries of the NIH 
institutes. The Office of AIDS Research (OAR) plays a unique role at 
the NIH. The OAR, fulfilling its Congressional mandate, coordinates the 
scientific, budgetary, and policy elements of the NIH AIDS program, 
supported by nearly every Institute and Center; prepares an annual 
comprehensive trans-NIH plan and budget for all NIH-sponsored AIDS 
research; facilitates NIH involvement in international AIDS research 
activities; and identifies and facilitates scientific programs for 
multi-institute participation in priority areas of research.
                         the exploding pandemic
    The December 2001 AIDS Epidemic Update of the Joint United Nations 
Programme on HIV/AIDS (UNAIDS) states, ``AIDS has become the most 
devastating disease humankind has ever faced.'' Since the epidemic 
began, nearly 60 million people worldwide have been infected with HIV. 
UNAIDS reported that AIDS has killed more than 22 million people, 
surpassing tuberculosis and malaria as the leading infectious cause of 
death worldwide. The impact of AIDS on developing nations and many 
countries of the former Soviet Union is profound, with even greater 
potential disaster still to come. The UNAIDS report states, ``the 
epidemic is driving a ruthless cycle of impoverishment.'' AIDS is 
reversing decades of progress from important public health efforts, 
lowering life expectancy, and significantly affecting education, 
agricultural output, and commerce of all kinds. Lost productivity and 
profitability, the cost of sickness and death benefits, and the decline 
in a skilled workforce in the developing world will have economic 
effects worldwide. AIDS is affecting the military capabilities of some 
countries as well as the international peacekeeping forces. In Africa, 
the epicenter of the pandemic, AIDS is sabotaging economic development, 
leading to massive social breakdown, and creating a generation of 
orphans. If the global spread of HIV/AIDS continues unchecked, South 
and Southeast Asia, and perhaps China will follow the disastrous course 
of sub-Saharan Africa. AIDS remains a serious threat in Latin America 
and the Caribbean. UNAIDS also reports that HIV incidence now is rising 
faster in Eastern Europe and Central Asia than anywhere in the world, 
with a 15-fold increase in reported new infections in the Russian 
Federation in just the past three years.
                 the aids epidemic in the united states
    In the United States, the HIV/AIDS epidemic continues to expand and 
evolve, presenting new and complex scientific challenges. The Centers 
for Disease Control and Prevention (CDC) reported last month that the 
total number of individuals living with HIV in the United States is 
increasing as the use of antiretroviral therapies has prolonged the 
lives of HIV-infected individuals. At the same time, the rate of new 
HIV infections has not declined in over a decade, remaining at 
approximately 40,000 new cases each year. This means that the overall 
epidemic is continuing to expand. HIV infection rates are continuing to 
climb among women, racial and ethnic minorities, young homosexual men, 
individuals with addictive disorders, and people over 50 years of age.
    An additional concern is that although antiretroviral regimens have 
extended the length and quality of life for many HIV-infected 
individuals in the United States and Western Europe, unfortunately a 
growing proportion of patients receiving these therapies are now 
experiencing treatment failure. Some patients find it difficult or 
impossible to comply with arduous treatment regimens, develop 
toxicities and side-effects, or fail to obtain a satisfactory reduction 
in viral load even while adhering to treatment regimens. In addition, 
serious complications, including heart, liver, and kidney problems, 
insulin resistance, and body composition changes such as deforming fat 
deposits, have emerged in individuals who have been on long-term 
antiretroviral regimens. An increasing number of treatment failures are 
linked to the increasing emergence of drug-resistant HIV, presenting 
another serious public health concern.
              comprehensive aids research plan and budget
    To address the compelling scientific questions that this worldwide 
epidemic presents, the OAR develops an annual comprehensive trans-NIH 
AIDS research plan and budget, based on the most compelling scientific 
priorities and opportunities that will lead to better therapies and 
prevention strategies for HIV infection and AIDS. The planning process 
is inclusive and collaborative, involving the NIH institutes as well as 
eminent non-government experts from academia, foundations, and 
industry, with the full participation of AIDS community 
representatives. The Plan is also unique, as it serves as the framework 
for developing the annual AIDS research budget for each Institute and 
Center, for determining the use of AIDS-designated dollars, and for 
tracking and monitoring those expenditures.
    The Plan establishes the NIH AIDS scientific agenda for the 
Scientific Areas of Emphasis of AIDS research: Natural History and 
Epidemiology; Etiology and Pathogenesis; Therapeutics; Vaccines; and 
Behavioral and Social Science. As the epidemic expanded, we recognized 
that we also needed to take a planning approach that cross-cut these 
scientific areas. Thus, the Plan also addresses the critical cross-
cutting areas of Racial and Ethnic Minorities; Women and Girls; 
Microbicides; Prevention; International Research; Training, 
Infrastructure, and Capacity Building; and Information Dissemination.
    The Plan initiates the budget development process. Based on the 
objectives and priorities established in the Plan, the Institutes and 
Centers submit their AIDS research budget requests to OAR, focusing on 
new or expanded program initiatives for each scientific area. The OAR 
reviews the IC initiatives in relation to the Plan, to OAR priorities, 
and to other IC submissions to eliminate redundancy and/or to assure 
cross-institute collaboration. The law requires that the NIH Director 
and the OAR Director shall together determine the total amount 
allocated for AIDS research. Within that total, the OAR allocates the 
AIDS research budget levels to each IC based on the scientific priority 
of the proposed initiatives at each step of the budget development 
process up to the time of the Conference Committee. This involves 
consulting regularly with the IC Directors. This process allows the OAR 
to ensure that NIH AIDS research funds will be provided to the most 
compelling scientific opportunities, rather than distribution based 
solely on a formula.
    The overarching themes that continue to frame the NIH AIDS research 
agenda are: prevention research, including development of vaccines, 
microbicides, and behavioral interventions, critically needed to reduce 
HIV transmission; therapeutics research to develop simpler, less toxic, 
and cheaper drugs and drug regimens to treat HIV infection and its 
associated illnesses, malignancies, and other complications; 
international research, particularly to address the critical needs in 
developing countries; and research targeting the disproportionate 
impact of AIDS on minority populations in the United States. All of 
these efforts require a strong foundation of basic science, the bedrock 
of our research endeavor.
                         trans-nih coordination
    OAR plays a crucial role in identifying scientific areas that 
require focused attention and facilitating multi-institute activities 
addressing those needs. This is a two-way process. In some cases these 
issues are raised within OAR and shared with the Institutes; in other 
cases, an one or more Institutes may ask the OAR to bring other 
Institutes together to address an area of research or a specific grant 
or project. OAR can foster this research through a number of 
mechanisms, such as establishing working groups or committees; 
sponsoring workshops or conferences to highlight a particular research 
topic; sponsoring reviews or evaluations of research program areas to 
identify gaps or needs; and designating funds and supplements to jump-
start or pilot program areas.
    For example, a number of years ago OAR identified microbicides 
research as an area needing additional attention on the part of a 
number of Institutes. Microbicides research has proved particularly 
challenging, as there is no definitive clinical evidence as yet 
establishing that a product applied topically in humans can prevent HIV 
infection. Microbicides research requires a complex multidisciplinary 
and multisectoral approach by teams of scientists with a broad array of 
expertise, with increased pharmaceutical company involvement. To 
address this important need, OAR established a Trans-NIH Microbicides 
Working Group, comprised of program staff of relevant institutes and 
offices, which worked together to help plan the first international 
conference on microbicides and to spearhead the development of the NIH 
Strategic Plan for Microbicides. There are many more examples where OAR 
has played a key role in coordinating institute participation in a 
specific research project, such as the NIAID-sponsored multi-institute 
HIV Prevention Trials Network, and the Adolescent Trials Network, 
sponsored by NICHD and co-supported by a number of other institutes. 
OAR coordinated the efforts of NIDDK and other institutes in supporting 
a highly meritorious and innovative research project to comprehensively 
study the serious metabolic side-effects and complications of 
antiretroviral therapy. Insight gained from this multi-site 
collaborative study will have direct impact on the development of 
better tretment regimens for HIV-infected individuals.
                         international research
    To address the increasing urgency of the AIDS pandemic, the OAR has 
established a new initiative and strategic plan for global research on 
HIV/AIDS aimed at slowing the disaster and reversing its destruction of 
communities, economies, and nations worldwide. The Global AIDS Research 
Initiative and Strategic Plan reaffirms NIH's long-standing commitment 
to international AIDS research and will significantly increase research 
efforts in the coming year to benefit resource- and infrastructure-poor 
nations. NIH supports a growing portfolio of research conducted in 
collaboration with investigators in developing countries. Results of 
this research benefit the people in the country where the research is 
conducted as well as people affected by HIV/AIDS worldwide. Critical to 
the success of these international studies are foreign scientists who 
are full and equal partners in the design and conduct of collaborative 
studies. To that end, NIH also supports international training programs 
and initiatives that help build infrastructure and laboratory capacity 
in developing countries where the research is conducted.
                      racial and ethnic minorities
    OAR has placed high priority on research to address the 
disproportionate impact of the HIV/AIDS epidemic on racial and ethnic 
minority communities in the United States. OAR is directing increased 
resources toward new interventions that will have the greatest impact 
on these groups and making significant investments to improve research 
infrastructure and training opportunities for minorities. OAR has 
provided additional funds to projects aimed at: increasing the number 
of minority investigators conducting behavioral and clinical research; 
targeting the links between substance abuse, sexual behaviors and HIV 
infection; increasing outreach education programs targeting minority 
physicians and at-risk populations; and expanding our portfolio of 
population-based research. OAR also has initiated a series of Training 
and Career Development Workshops specifically designed for racial and 
ethnic minority investigators.
                                summary
    The worldwide human and economic toll of this insidious disease is 
profound. Our response requires a unique and complex multi-institute, 
multi-disciplinary, global research program. This diverse research 
portfolio demands an unprecedented level of scientific coordination and 
management of research funds to enhance collaboration, minimize 
duplication, and ensure that precious research dollars are invested in 
the highest priority areas of scientific opportunity. The nation's 
investment in AIDS research is reaping even greater dividends, as AIDS 
research is unraveling the mysteries surrounding many other infectious, 
malignant, neurologic, autoimmune, and metabolic diseases.
    The authorities of the Office of AIDS Research allow NIH to pursue 
a united research front against the global AIDS epidemic. We are deeply 
grateful for the continued support this Committee has provided to our 
efforts.
                                 ______
                                 
                 Prepared Statement of Stephen A. Ficca
    Mr. Chairman and Members of the Committee: I am pleased to present 
the President's budget request for the Buildings and Facilities (B&F) 
Program for fiscal year 2003, a sum of $632,800,000, which reflects an 
increase of $306,700,000 over the comparable fiscal year 2002 
appropriation.
                      role in the research mission
    The fiscal year 2003 Budget establishes a new HHS Facilities 
Construction and Management fund that will finance all construction 
projects for NIH and CDC within the Office of the Secretary. The fund 
will allow HHS to prioritize and manage construction projects 
effectively.
    The Buildings and Facilities (B&F) program supports the physical 
infrastructure required to carry out the in-house component of the 
biomedical research mission of the National Institutes of Health (NIH). 
In turn, the fiscal year 2003 Buildings and Facilities budget request 
supports long-standing commitments to create, expand, and sustain a 
robust, modern, safe and secure physical infrastructure for the conduct 
of basic and clinical research across the spectrum of biologic systems 
and diseases. It also provides new, specialized containment facilities 
in which the United States will conduct research on a variety of 
biologic materials that present a health threat as emerging infections 
and/or bioterrorism agents.
    The NIH B&F plan is the product of a deliberate strategic planning 
and priority setting process. This process is overseen by the NIH 
Facilities Planning Advisory Committee (FPAC) and captured in the NIH 
Strategic Facilities Plan. The FPAC, comprised of Institute Directors 
and other senior IC scientific and management staff, advises the NIH 
Leadership and Director on the long-range capital facilities 
investments that are needed to sustain NIH research programs and 
priorities. The FPAC is also instrumental in adjusting priorities as 
necessary to deal with unanticipated public health challenges and 
changes in national priorities. The goal of the planning process is to 
optimally meet the changing facility needs of the NIH research programs 
in the Washington, D.C., region and across the NIH field stations with 
a mix of owned and leased facilities.
    The NIH Strategic Facilities Plan is structured as a logical 
sequence of programs and projects orchestrated to enable the NIH to 
build facilities critical to new and expanding research initiatives and 
programs and to concurrently manage and maintain existing NIH real 
estate assets.
    The construction program supported by the proposed fiscal year 2003 
budget request strikes a balance among three critical facility 
priorities: the creation of new facilities for new and expanding 
scientific opportunities, as well as for research on biologic materials 
that present a health threat as emerging infections and/or bioterrorism 
agents; the upgrading of existing facilities to keep pace with the 
changing requirements of ongoing NIH programs, and the responsible 
stewardship of the entire NIH real estate portfolio. The fiscal year 
2003 B&F proposal is organized into six broad Program Activities: New 
Construction; Essential Safety and Regulatory Compliance; Physical 
Security Improvements; Repairs and Improvements; Renovations; and 
Equipment and Systems. The fiscal year 2003 request provides funds for 
specific projects in each of the program areas. The projects and 
programs enumerated are the end result of the aforementioned NIH 
Strategic Facilities Planning process and are the NIH's capital 
facility priorities for fiscal year 2003.
    The fiscal year 2003 B&F budget request of $632,800,000 is an 
increase of $306,700,000 from the comparable fiscal year 2002 level. As 
a result of this increase, the NIH will be able to fulfill its 
commitment to integrating neuroscience research in the John Edward 
Porter Neuroscience Research Center; maintain responsible funding 
support for the ongoing essential safety, renovation, repair and 
related projects that are vital to proper stewardship of the entire 
portfolio of real property assets; continue with the integration of the 
new Mark O. Hatfield Clinical Research Center (CRC) into old Building 
10; increase the physical security of NIH facilities; and construct 
critically-needed, high-containment facilities on the Bethesda Campus 
and at Ft. Detrick.
    The John Edward Porter Neuroscience Research Center will enable the 
integration of the neuroscience research community at the NIH. The 
Center is conceived as a place where the best and brightest scientists 
from many disciplines will collaborate in state-of-the-art laboratories 
to develop and evaluate therapies for some of the most complex problems 
in biomedical research. The Center will house researchers from nine 
Institutes and multiple disciplines under one roof. It will be designed 
to support high-priority research initiatives using innovative 
strategies in cell biology, neuroimaging and bio-informatics to better 
describe the link between biochemistry and behavior, to elucidate the 
nerve cell degenerative processes, and to explore other lines of 
inquiry that are emerging from the genetic mapping of the brain. New 
facilities are needed to support this vision because nearly all of the 
space that houses NIH neuroscience research is substandard. Current 
facilities for cellular and molecular neuroscience on campus are 
inadequate to meet the challenges of high-quality, high-risk research 
projects. The fiscal year 2003 request would support the construction 
of the second phase of this facilities project; Congress appropriated 
funds for the first phase in fiscal year 2001 and 2002.
    The fiscal year 2003 Building and Facilities budget request also 
contains major facility investments that are a response to the United 
States' heightened attention to Homeland Security. These include 
construction of a set of high-containment facilities at the Bethesda, 
Maryland, campus and at Ft. Detrick, Maryland, as well as a series of 
projects that will substantially increase the physical security of NIH 
facilities.
    While NIH continues to take advantage of unique research 
opportunities for new treatments and cures, the recent tragic events 
have revealed the need for an expanded program of medical research on 
all aspects of bioterrorism. The capability to detect and counter 
terrorism depends to a substantial degree on the relevant medical 
science and basic research. There is an increased need for basic 
research to accelerate knowledge of the physiology and genetics of 
potential bioterrorism agents, immune system function, and response to 
each agent, and the pathogenesis of each disease, and for tests to 
rapidly diagnose, vaccines and immunotherapies to prevent, and drugs 
and biologics to treat diseases caused by agents of bioterrorism. The 
massive research agenda required to protect the American population 
against present and future attacks by these agents must include 
construction of facilities in which such agents may be safely studied. 
Facilities and procedures for the handling of these lethal agents with 
no threat to laboratory and clinical personnel or to adjacent 
communities comprise an integral element of the research program. These 
proposals for new construction, renovations and improvements are key 
elements to responding to the new research agenda while ensuring the 
continued vitality of the NIH biomedical research enterprise.
                    fiscal year 2003 budget summary
    The fiscal year 2003 budget request for Buildings and Facilities is 
$632.8 million. The B&F request totals $464.1 million for new 
construction composed of $4 million for the information technology 
infrastructure to complete the first phase of construction of the John 
E. Porter Neuroscience Research Center; $168 million to fund the 
construction of the second phase of the Center; $186.1 million to 
construct the Center for Bioterrorism and Emerging Infections--new 
laboratory space on the NIH Bethesda campus for rapid response programs 
dealing with select infectious agents that may be used as weapons of 
bioterrorism and other emerging infections; $105 million to construct a 
Biosafety Level 4 (BSL-4) Lab/Clinic at Ft. Detrick, Maryland, that 
will provide the specialized, highcontainment lab facilities needed to 
conduct biomedical research on the most dangerous and highly infectious 
diseases that could become or have been bioterrorism weapons; and $1 
million to continue the Concept Development Studies program. There is a 
total of $6 million for essential safety and regulatory compliance 
programs composed of a combined sum of $0.5 million for the phased 
removal of asbestos from NIH buildings; $2 million for the continuing 
upgrade of fire and life safety deficiencies of NIH buildings; $1 
million to systematically remove existing barriers to persons with 
disabilities from the interior of NIH buildings; $0.5 million to 
address indoor air quality concerns and requirements at NIH facilities; 
and $2 million for the continued support of the rehabilitation of 
animal research facilities. For physical security improvements, the 
request includes $80 million to bolster NIH's ability to provide a safe 
and secure environment for the conduct of the NIH mission on its sites. 
In addition, the fiscal year 2003 request includes $56.5 million for 
the continuing program of repairs, improvements, and maintenance that 
is the core of the B&F program; $24.2 million for the Building 10 
transition program; and $2 million to upgrade mechanical systems at 
NIEHS.
             government performance and results act (gpra)
    The NIH budget request includes the performance information 
required by the Government Performance and Results Act (GPRA) of 1993. 
Prominent in the performance data is NIH's second annual performance 
report which compared our fiscal year 2001 results to the goals in our 
fiscal year 2001 performance plan. My colleagues and I will be happy to 
respond to any questions you may have.

    Senator Harkin. Thank you very much, Dr. Kirschstein. I 
just want to get in a little bit on that loan repayment. I am 
not certain I understand it all, but before I do that, I would 
like to yield to Senator Cochran for any opening statement.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    Dr. Kirschstein, I want to congratulate you on the 
outstanding job you have done as interim director. I think it 
has been clear, from my point of view, that you have not just 
been an interim director, you have actually moved NIH forward 
in some very innovative and impressive ways, and I congratulate 
you for that and say that we look forward to continuing to work 
with you in the future.

                           prepared statement

    I have some additional comments for the record, Mr. 
Chairman, which I would like to put in the record.
    [The statement follows:]
                   Statement of Senator Thad Cochran
    Dr. Kirschstein, thank you for joining us today to discuss the 
National Institutes of Health budget. We have focused much effort on 
increasing this budget over the past several years and appreciate the 
opportunity to hear how these increases are leading to better medicine.
    I want you to know we continue to support increases in NIH funding. 
We have had great success in increasing NIH Appropriations. However, as 
we continue to move forward we must strive to improve the quality of 
the research. And, we must strive to focus this research on the most 
pressing health issues. Our goal should be to make sure this research 
benefits all Americans.
    One example of such research is the Jackson Heart Study. This study 
is a collaborative effort of the University of Mississippi Medical 
Center, Jackson State University and Tougaloo College, and it is one of 
the major, groundbreaking studies in the area of cardiovascular disease 
in African-Americans.
    Another example I am familiar with is the new National Institute of 
Biomedical Imaging and Bioengineering. I believe imaging and related 
technologies fill an important gap in both diagnosis and treatment of 
disease. Such technologies expand the ability to practice innovative 
medicine in every rural and underserved area of our country.
    One of the ways we move this technology to underserved areas is 
through the coordination of activities and technologies of the NIH and 
other federal agencies. For example, at the Medical Center at the 
University of Mississippi we have the ability to utilize NASA satellite 
imaging technology to perform surgery in Japan or even perform 
emergency surgery aboard the space shuttle while it is in orbit.
    Now, if we can use this technology to reach these far away places, 
we can surely find ways to use the technology at the University of 
Mississippi, or University of Iowa Medical Center, to reach rural, 
underserved areas of the country. This is just one example of how we 
should insist on developing new technologies through integrated 
partnerships and make sure we translate these technologies into 
practical strategies that reach patients. I support your efforts in 
this area and look forward to the future.
    Research directed toward underserved areas must increase. And I 
believe it is essential for some of this research to be conducted in 
the areas of the country where the most urgent health needs exist. 
Research and the reason for the research must intersect. Researchers in 
these underserved areas know far better the challenges facing their 
patients.
    While we will always insist on the most scientifically sound 
research, we must find ways to build the research infrastructure. The 
NIH should take an active role in making sure research reaches the 
underserved areas of our country. I look forward to hearing how we can 
continue to address this issue. I'm interested in helping NIH succeed 
in this effort.
    Finally, Dr. Kirschstein, I want to thank you for your leadership 
on both the budget and your leadership of the NIH. You have gone beyond 
serving in an interim capacity. You have not only guided the NIH 
through a time of transition, you have moved it forward. The next 
director must now be prepared to continue that forward, innovative 
movement. The health of Americans depends on it. Thank you.

    Dr. Kirschstein. May I just say thank you, Mr. Cochran.
    Senator Harkin. Thank you, Senator Cochran.
    We are now joined by our ranking member and, as I said 
earlier, one of the driving forces behind the doubling of NIH 
which we are accomplishing this year. I said it before, but I 
will say it again. It could not have happened without the 
leadership of Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Well, thank you very much, Mr. Chairman. I 
consider it a partnership. I liked it a little better when I 
was the chairman.
    But I like it with your being the chairman.
    We have shown on this committee and Senator Cochran who is 
soon to be ranking and soon to be chairman of the full 
Appropriations Committee. We function in a nonpartisan way, and 
I learned a long time ago, if you want to get something done in 
Washington, you have to cross party lines. And this 
subcommittee is exhibit A on doing that.
    To paraphrase John Kennedy, the brain power assembled in 
this room today exceeds that when Jefferson died alone.
    This is the Federal Government's premier group in my 
opinion. I get into trouble with everybody else in the Federal 
Government, but I think that the NIH is the crown jewel of the 
Federal Government and sometimes I say perhaps the only jewel.
    This subcommittee, as you know, has taken the lead on the 
funding. A few years ago, it was $11 billion, and now it is $23 
billion. And now it is very fashionable. And the President's 
budget adds $3.7 billion.
    When we first started to add the first billion dollars to 
NIH, we asked the Budget Committee for it, got turned down, and 
went to the floor and lost 63 to 37. But this subcommittee got 
out a sharp pencil and found a billion from priorities.
    So, having lost on our effort to get an extra billion, the 
next year we asked for $2 billion. That is the way you do 
business in Washington. We got turned down again. But we found 
the money on priorities and the last vote that we had was 96 to 
4, and the 4 dissenters agreed that NIH was important but 
thought that we should be giving others some extra funding.
    But we have taken very special care of your institutes 
because of the great progress you have made, and you have a 
very heavy burden to produce. You have got to produce. And it 
is not possible for us to have the kind of congressional 
oversight to get into your business, and you do not really want 
us there, but you are great professionals.
    We have had the stem cell battle, and you know all about 
that. Now we have got the therapeutic cloning battle. The next 
time you give a label to something, please do not call nuclear 
transplants cloning. We face a real tough battle, and there has 
to be a mobilization nationally.
    Bettilou Taylor has drafted a letter which we have sent to 
every newspaper in the country to try to mobilize a vote which 
we are going to have in the Senate on legislation which would 
ban so-called therapeutic cloning. We will have a great export 
of brains if that happens. It will tie your hands and tie the 
hands of scientists. So, we have our work cut out.
    I am delighted to be here and look forward to the 
testimony. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.
    Senator Specter. If I might just add, we have on the floor 
today a battle on Federal nominations for the judiciary. We had 
a big battle last week, as you know, about Judge Pickering, and 
Senator Lott has filed a motion to give hearings to all the 
judges who were nominated last May 9 at least by this May 9. 
So, I am going to have to excuse myself at a point earlier than 
I would like to, but I will follow the testimony very closely.
    No. I will ask a question. Dr. Kirschstein, again I 
congratulate you on the work that you have done, taking over 
really as the director, a very, very difficult job.

                   EFFECTIVENESS OF BUDGET INCREASES

    Is the National Institute in the position to document for 
the doubters about the effectiveness of the tremendous 
increases which have been voted for you?
    Dr. Kirschstein. Yes, sir, we are. Much of that is in the 
opening statements of each of the institute directors. They 
also have collections of information about that, and we 
collected and have things done centrally.
    In addition, because of the Government Performance Review 
Act, we have been engaged for the last 2\1/2\ or 3 years in 
evaluating the research that we have done. We bring in--and we 
did twice in a row, annually--advisors from outside 
universities, medical schools, et cetera, and people from the 
lay interested public through our Council of Public 
Representatives and our Advisory Committee to the Director to 
review the accomplishments that each of the institutes has 
prepared as having taken place over the previous year. That is 
a requirement of the GPRA act.
    Senator Specter. Dr. Kirschstein, as you know, for my 
questions in the past, I have asked what you accomplished with 
the increase you got last year, what you will accomplish if we 
are able to get you $3.7 billion more this year.
    Dr. Kirschstein. Yes.
    Senator Specter. Are answers available to those two 
questions in writing?
    Dr. Kirschstein. Yes, they are.
    Senator Specter. Okay. Well, I will take a look at them. 
Thank you very much.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Specter.

                         LOAN REPAYMENT PROGRAM

    Dr. Kirschstein, I just wanted to pick up on the one thing 
you said about the loan repayment program. The President's 
budget takes it from $28 million to $56 million. Is that about 
right? It will take it from $28 million to $56 million? I think 
that is right. I would ask maybe the budget people on that.
    Dr. Kirschstein. Yes.
    Senator Harkin. Now, can you help me a little bit with 
that? This is a program that I think is invaluable because what 
it does is it says to people who have gone through medical 
school, as I understand it--correct me if I am wrong. 
Obviously, they have got a lot of debts. I do not know what the 
average is, but I think it is about $100,000.
    Dr. Kirschstein. $100,000.
    Senator Harkin. $100,000 right now. So, obviously, if you 
are going to go into research that is not paying all that much, 
it is hard to pay back those loans. So, this is a way of 
enticing or getting young people who want to do research to be 
able to afford to do so.
    How is that operated? I do not know the nuts and bolts of 
it, and I do not mean to get all into it. But take an average 
student with $100,000 and they have come out of medical school. 
What could this do for that student?
    Dr. Kirschstein. It will forgive per year $35,000 of the 
loan plus the interest and also the taxes involved. The loan 
repayments are done as a contract between NIH, the particular 
institute involved, and the individual young physician who 
knows that he will get, based on a submission of data on his 
loans and on a summary of what he plans to do, where he or she 
plans to work, in what field, at what organization either in 
further training in a career or in a very early stage of 
getting individual research grants with a career, how he will 
go about it. It will repay up to $35,000 per year for 2 to 3 
years, and it gets paid in a lump sum.
    So, the $20 plus million that we will expend in 2002 will 
pay off totally the debt of about 250 young people. We are 
going to double it in fiscal year 2003, and it will be another 
500 people doubling the number.
    Senator Harkin. In their contract, do they have to agree to 
at least stay in research for a certain amount of time?
    Dr. Kirschstein. They have to agree to start their careers 
in research, and we want them to start for a certain amount of 
time. I am not sure there is a specific time indicated.
    Senator Harkin. I just did not know. Find out for me.
    Dr. Kirschstein. We will.
    It is a wonderful program. We have been doing it for a 
number of years in a very small way within our intramural 
program. We have been anxious to do it for the physicians who 
are in research throughout the country who want to go into 
research for a very long time and finally got the authorization 
to do so.
    Senator Harkin. One of the reasons I am happy that the 
President put this in and we are going to be very supportive of 
this is that with the doubling of the NIH funds over 5 years, I 
think it sends strong signals to a lot of young people to enter 
research, that they can get the research grants funded at a 
better rate than what we have ever done before. But if they 
cannot afford to get into research because they are married, 
they have families, and they are at the age where they are 
probably starting families, they just cannot afford to do it. 
So, we have got to open that door. That is why I am delighted 
that we have got the funds in there.
    I assume those monies will be used. In other words, with 
the doubling of that money, you could use that money for 
getting researchers in.
    Dr. Kirschstein. The first awards will be made at the end 
of fiscal year 2002, and we will report back to you at the 
hearing next year. We will be following these people to see 
what is going on. This is a program that is near and dear to 
the heart of every one of the institute directors, who would be 
pleased to expand on these statements that I have made.
    The applications have been received. There are a large 
number of them coming. We anticipate that it is possible over 
the years that we may get 5,000 applications a year.
    Senator Harkin. That is what our committee needs to know. 
What does it look like out there in terms of how many people 
are applying for it and see what we need to do for next year.
    Dr. Kirschstein. We will keep you apprised.
    Senator Harkin. I appreciate that.

                            BUDGET LEVELING

    Dr. Kirschstein, I said earlier I am a little concerned 
about what is going to happen after this year. This year, as 
you know, the President has requested a $3.7 billion increase 
that will complete the commitment over that 5 years, and that 
will bring us up to $27.3 billion. However, in the budget for 
next year, after that, according to the budget, at least the 
projected budget for fiscal year 2004, we are looking at a 2.1 
percent increase, 2.2 percent, 2.3 percent, 2.3 percent.
    And I am concerned what is going to happen in those out-
years, what NIH is doing to prepare for that. What is going to 
be the impact on NIH after next year when we only get a 2.1 
percent increase? I do not know what inflation is. It may be an 
inflation increase. So, it really is a flat line.
    Could you talk about what might be a more appropriate 
increase? I am just concerned that everything is just flat-
lined at that point. I do not think that was ever our objective 
in doing this.
    What started this, I remember, years ago was one of your 
predecessors saying to me and to others that because we had 
gone so many years without really adequate increases in NIH 
funding, that the number of peer-reviewed grants that were 
being funded was getting less and less and less. Whereas, it 
used to be maybe one out of three or one out of two in some 
cases, now it is one out of five, one out of six. And I said at 
the time--this is several years ago--well, what do we need? 
Well, if you look at it, to get back where we were back in--I 
do not know--back in the 1960's or 1970's, we really needed to 
get up on a plateau. You needed to double it to get back up 
there. So, I think that was really a lot behind what we did.
    But the goal was never just to double it and then just 
flat-line it after that. It was to get it up and then keep the 
increases going so that you could keep that rate of approval of 
peer-reviewed grants going at a good rate rather than falling 
right back into the same old trap we did in the past. So, if 
you could speak to that, I would certainly appreciate that. 
What does it look like out there if we only have 2.1 percent 
and 2.2 percent increases?
    Dr. Kirschstein. Mr. Chairman, we have been concerned about 
this too, and we have been looking at what we can do, if as the 
administration's position is, that the increase will be 2.1 
percent, to sort of smooth what might happen in at least the 
first of the future years.
    First of all, the President's budget projects a 2.1 percent 
increase, and we understand that.
    Second, as a result, we have thought about many of the 
things that we should be doing during fiscal year 2002, as well 
as what we will do in 2003. We will make every attempt to 
provide the kinds of things that researchers need to be able to 
do their work effectively which, in the past years that you 
have been describing, they were not able to obtain, such as 
large pieces of equipment, such as the construction of 
laboratory buildings, that you have been interested in, such as 
the data banks and the tissue and cell banks and information 
technology, which we can provide money for in 1 year and then 
those things with maintenance costs will be able to be 
continued for several years to come.
    Nevertheless, we are as cognizant as anyone else that 
science is not going to stop evolving and expanding because the 
doubling has ended. The scientific opportunities, if anything, 
are going to be greater because we have opened the doors. You 
started off your statement by saying that. So, we have also 
looked at what other things can be possible.
    Now, if we know that we are going to have a 2.1 percent 
budget, we will try to plan how to make some of the activities 
that we are engaged in, that have come from initiatives that 
are developed as a result of some of this, constrained for a 
little bit as we concern ourselves with the level of numbers of 
research grants and this one in two or one in three that you 
have been talking about.
    We are actually going to have a 1-day retreat of all the 
institute directors. We decided that this morning. We had 
planned it for a particular day. We have to change it because 
of certain circumstances. We are going to try to collectively 
work out the best ways to go about this.
    But I want to make it clear that we all feel that science 
does not stop because the doubling effort has stopped, and we 
would like to say that the opportunities probably lend 
themselves to talking about not a doubling, not 15 percent, but 
somewhere between an 8 and 10 percent increase.
    Senator Harkin. Thank you very much, Dr. Kirschstein. My 
time is up.
    Senator Specter.

                         RESEARCH APPLICATIONS

    Senator Specter. When we make an evaluation of the NIH 
budget, we hear about the increasing number of applications. 
What percentage of applications for grants are now being 
awarded?
    Dr. Kirschstein. About 30 percent in fiscal year 2002 and 
we anticipate the same percentage in 2003.
    Senator Specter. To what extent are the applications 
increasing?
    Dr. Kirschstein. There has been a large influx of 
increasing applications.
    Senator Specter. How many in the last 3 years, if you have 
those figures?
    Dr. Kirschstein. I do not know that we have the total 
number of applications, but we can extrapolate from the number 
of new and competing that were awarded. It is about 38,000 
because we are funding 9,000, and we are funding about a third.
    Senator Specter. Well, if you are still at 30 percent and 
you have significant increases in----
    Dr. Kirschstein. We received a total of 30,000 applications 
in 2002, and we are expecting 33,000 in 2003. That's estimated.
    Senator Specter. How many in 2001?
    Dr. Kirschstein. I do not have it, but it is probably 
somewhat less than what was in 2002.
    Senator Specter. Could you provide for us the number of 
applications in the last 5 years and the number granted?
    Dr. Kirschstein. Yes, sir.
    Senator Specter. Could you use more money?
    Dr. Kirschstein. Mr. Specter, the Congress and the 
administration have been enormously generous. In discussions 
that we have had, because not only have we gotten more 
applications, but we believe--and there is reason to believe--
that the progress that we have made is due to the fact that 
more of the applications that we are receiving are of high 
quality. Whereas, we have in the past said that we were pleased 
to have about one in three applications funded--and we still 
are. Believe me, we still are--we have probably, in many cases, 
applications of a quality that we would be pleased to be able 
to provide funds for about 40 percent and in some cases 45 
percent of the number of applications we receive.
    Senator Specter. Well, it is obviously difficult to 
increase the level of funding $3.7 billion. No doubt about 
that. But we have often wondered about how many doors remain 
closed when 70 percent of the applications are turned down. It 
raises a question as to how many worthwhile applications are 
being rejected. I come back to the proposition that we are a 
very wealthy country. We have a Federal budget of 
$2,100,000,000,000, and to have $23 billion or $26.4 billion is 
not an excessive contribution for medical research.

                          PARKINSON'S DISEASE

    It is not possible, in the course of a very brief hearing, 
to go into any great detail, but Dr. Penn, how are we doing on 
Parkinson's? In the past we have had some estimates we might be 
within 5 years of curing Parkinson's. Is that now down to 4 or 
perhaps 3?
    Dr. Penn. I would like to say so, sir, but I cannot say 
today that it will be 3 years. I think we have made remarkable 
progress, and we certainly have a control mechanism that we are 
working on, really very forcefully, and this is deep brain 
stimulation, which I believe you have heard about before.
    A cure is going to require a great deal more research and a 
great deal of work to get the proper molecules into the brain, 
and we have to be very careful with the brain. So, for me to 
say ``cure,'' I would like to, and I did before, but I think I 
will not say 4 years. I will leave it open.
    Senator Specter. But you did before.
    Dr. Penn. I know, sir.
    Senator Specter. Were you under oath then, Dr. Penn?
    Dr. Penn. Probably.
    Senator Specter. Are the stem cells very helpful on the 
cure of Parkinson's?
    Dr. Penn. In the models of Parkinson's--and we have 
excellent models--the embryonic stem cells, both in the mouse 
model and in the non-human primate model, are able to do real 
repair. Now, remember, this is not truly Parkinson's disease, 
as all of the patients know it, because what we have done is 
poison those cells. So, the stem cells can replace.
    However, in Parkinson's itself, there is a great deal of 
interest, a great deal of planning, and the question is, which 
cells to use? If we could possibly turn on the cells that are 
already in the brain, that we know now are there thanks to our 
investigators, this would be wonderful.
    Senator Specter. Do you need the nuclear transplant to be 
sure that a patient who has Parkinson's will not reject the 
stem cells?
    Dr. Penn. Well, as you know, sir, we are not advocating 
nuclear transfer. And I am really not sure this process would 
be necessary. I think we have enough information that we can 
develop dopaminergic cells, the transmitter cells, and we can 
use those. We have to do a lot more than that, though, because 
we have to get the cells in the right place. We have to make 
them grow. We have to hope that they----
    Senator Specter. Pardon me for interrupting you, but my 
time is about up and I want to ask another question of another 
doctor.
    Dr. Penn. Yes, sir.

                          THERAPEUTIC CLONING

    Senator Specter. Would you favor legislation which would 
prohibit so-called therapeutic cloning?
    Dr. Penn. I think that legislation that would prohibit--I 
would prefer to say--I mean, if it is absolutely necessary--and 
some think it is----
    Senator Specter. And some think it is not. What do you 
think?
    Dr. Penn. I think that we do not know if we need it for 
this purpose.
    Senator Specter. Do you think we need it for other 
purposes?
    Dr. Penn. Some do. I cannot really come down on that 
because I really think there is a great deal to know about stem 
cells. We are in the middle of finding it out, and we are going 
to test all these things in our model systems first. I sure 
hope it is not necessary.
    Senator Specter. Senator Harkin and I were conferring about 
your answer, Dr. Penn. We have had very considerable testimony 
on the subject, and it has been to the effect that when you 
have someone with Parkinson's, as an example, and you take a 
cell and remove the DNA from the egg and put the cell of 
Parkinson's victim, that you then find that you do not have the 
stem cells rejected. Is that incorrect?
    Dr. Penn. That is correct, sir. But we are not necessarily 
at the point where we would automatically get rejection of 
cells developed in other ways.
    Senator Specter. But would you like to have the freedom to 
be able to undertake the process I just described?
    Dr. Penn. I believe that, as you know, the National Academy 
of Sciences has come down on this side. They definitely think 
that this is worth doing, and as I said, I need evidence on 
both sides, and I need evidence from the models that all of our 
investigators are working on. We happen to be really close to 
getting things done there.
    Senator Specter. I am sorry. I did not understand that last 
part.
    Dr. Penn. We are very close to, as I said, almost curing 
this disease in the models, but I cannot today say that nuclear 
transfer for Parkinson's is what I would advocate at this time. 
I need more information.
    Senator Harkin. Our time is up. I have to move on to 
Senator Cochran.
    But I just have to say, Dr. Penn, that that is contrary to 
every scientific input that has come into the committee.
    Dr. Penn. Yes, sir.

                              LPA RESEARCH

    Senator Specter. May I ask Dr. Lenfant just a question or 
two? How are you doing on your research on LPA?
    Dr. Lenfant. Quite well, Senator. As you know, our 
limitation today is more on how to treat it than to doing the 
research itself. We have at the present time one medication 
which is available which is called niacin which has lots of 
side effects, and for that reason, compliance or even taking 
the medication, if you want to take it, makes it very 
difficult.
    The good news is I understand that within 6 months, perhaps 
1 year or 18 months, a new medication will become available, 
and the preliminary data, which I am aware of, seem to indicate 
that there will be no side effects.
    Senator Specter. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Harkin. Thank you, Senator Specter.
    I am sorry. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                            MINORITY HEALTH

    In my State of Mississippi, there is a study underway, 
partially funded by the Centers for Disease Control and 
supported actively in a collaborative role by the University of 
Mississippi Medical Center, looking at why the African American 
community is disproportionately affected by certain illnesses 
and diseases, particularly hypertension, heart disease, related 
troubles of that kind. We welcomed this and we encouraged this 
activity in our State because we think it will serve a very 
important public health need.
    To what extent is NIH involved in providing the research 
underpinning or assistance in helping find the answers to those 
questions?

                          JACKSON HEART STUDY

    Dr. Kirschstein. To a very large extent, Senator Cochran. 
As you know, we have a study that is supported by the National 
Center for Minority Health and Health Disparities, as well as 
the National Heart, Lung and Blood Institute, called the 
Jackson Heart Study, and I might ask the directors of those two 
institutes to make comments about that. Dr. Ruffin?
    Senator Cochran. Thank you.
    Dr. Ruffin. Thank you. Mr. Cochran, I will let Dr. Lenfant 
address the scientific issues that are going on there, but what 
I would like to say is that you have three of your universities 
in the State of Mississippi that are actually involved in the 
Jackson Heart Study: Tougaloo College, Jackson State 
University, and then, of course, the University of Mississippi 
Medical Center.
    There is much that is being done over at Tougaloo College 
as it develops a strong epidemiological training initiative, 
and also at Jackson State to recruit African Americans 
participants into the study.
    I think the study really got going when all three of those 
institutions became involved in that particular partnership, 
and that program is working very, very well in the State of 
Mississippi.
    I will let Dr. Lenfant address some of the scientific 
issues of the study.
    Senator Cochran. Thank you very much.

                        NEW RECRUITMENT APPROACH

    Dr. Lenfant. Senator, I would like to echo what Dr. Ruffin 
said about the study in Jackson and how well it is doing. We 
had difficulties at the beginning of the study, because the 
recruitment of subjects was difficult. But actually just last 
week I met with Dr. Connolly and Dr. Jones, the leaders from 
the medical school there, and we have worked out a new approach 
to our recruitment. And I do know that in just 1 week we have 
seen a step-up in the recruitment, which leads me to be quite 
optimistic about the future of the study.
    I should say also that we are entirely committed to it. In 
fact, you may have heard that we call it the Framingham of the 
South. You surely have heard about Framingham in Massachusetts. 
And we are establishing this community down there which I think 
is going to be quite successful.

                   DISPARITIES AND ETHNIC DIFFERENCES

    Now, to address the issue of the research, throughout the 
country, there are many institutions, including the University 
of Mississippi where we have there a very large program on the 
study of high blood pressure, the causes, the manifestations, 
and the treatment, but throughout the country there are many, 
many studies which are focusing on the disease itself, stroke, 
high blood pressure, heart disease, but also on the reasons for 
the disparities and ethnic differences.
    We are making progress. I have to say it is difficult for a 
variety of reasons that I could submit to the record, if you 
want, but I think we are making progress. And in fact, we are 
beginning to see a reduction in the difference in mortality 
rates between the various ethnic groups.
    Dr. Kirschstein. Senator Cochran, I would like to expand a 
little bit. When I was answering Senator Harkin's question 
about what we think are the opportunities and what we would 
like to do in further years, among the things is work with 
States like Mississippi even more than we have up to now to 
assure that biomedical research has a more stable base there 
than there has been in the past. As you know, I and many of my 
colleagues have been down there on several occasions, and we 
are making plans. We started the BRIN program. We would like to 
expand that. So, one of the things that would please me 
inordinately is if we could continue to have some expansion, we 
could continue to work with States like Mississippi.
    Senator Cochran. That is very good news, and I appreciate 
very much the explanation and the response to my inquiry on 
this subject. I have been very much encouraged that we are 
being asked to build on the legacy really of Dr. Arthur Guyton 
who was a pioneer, and many of you know him personally. I guess 
his physiology textbook is still maybe the textbook in medical 
schools around the country. We are very proud of that 
reputation that he really built for us. But seeing it now 
expanded to include related activities and research programs 
and this program in particular is very heartening to me.
    I am delighted with the opportunities that we may have to 
do other things too. I know the National Institute of 
Biomedical Imaging and Bioengineering is looking at the 
possibility of some research efforts in the State, and we 
encourage the pursuit of that idea too and want you to know 
that we want you to tell us ways that we can be helpful here on 
the subcommittee and in funding. If we can break down some 
barriers or provide additional assistance to help make these 
dreams come true, I want to be actively involved in doing that.
    I see my time is up. I want to compliment too the NIH 
researchers who developed the basis for new techniques in 
screening and discovering impairments that cause children to be 
unable to read at early ages. And we are now seeing NIH's work 
in that research area translated into teaching techniques, 
screening, diagnostic activity which are making it possible for 
children to learn to read who would not otherwise be able to 
and have full and normal lives because of the work at NIH. I 
think these are examples--and I know there are many others. 
Juvenile diabetes. I want to ask about that, and Parkinson's 
and many other areas where NIH has really caused a huge 
difference in the lives of Americans. And I want to 
congratulate you all for continuing that kind of work, the 
excellence in research that you have become famous for.

                            READING RESEARCH

    Dr. Kirschstein. Thank you, Senator Cochran. If the 
committee will permit us, I am sure Dr. Alexander would be 
delighted to expand on the activities related to learning to 
read.
    Senator Cochran. Thank you.
    Dr. Alexander. Senator Cochran, we particularly appreciate 
the support that you have given to this research program for 
Mississippi. This reading research is a program conducted over 
the last 15 to 20 years. It has been experimentally based and 
translated into the classroom and really formed the foundation 
for the President's legislation, No Child Left Behind, the 
education legislation that the Congress passed with 
overwhelming support earlier this year.
    We are very happy that the contributions of the NICHD 
research enabled this to happen. We are continuing that 
research effort. We are working with the Department of 
Education, with the National Science Foundation, and others to 
continue and expand that research, as well as to translate it 
into the classroom setting as States work to implement the 
requirements that instruction be research-based and evidence-
based. So, we are very happy we have been able to succeed in 
this way.
    Senator Cochran. Thank you very much.
    Thank you, Mr. Chairman, for your indulgence.
    Senator Harkin. Thank you. I am sorry I had to just duck 
out there for a minute.
    We have got to set up a time and we have to set up some 
points where we can bring each of the institute directors down 
where we can have some more time to interact with each of the 
institute directors. We are just rushed this year right now. We 
have done that in the past, and I intend to reinstitute that 
sometime in the near future.
    We have got all the institute directors here, and just for 
my own knowledge and for the knowledge of others who are here 
and for our staffs, I would just like to go around and make 
sure that I introduce everyone. Perhaps just stand when I call 
your name. I just want to make sure that our staffs know 
exactly who everyone is here. We have got some new people. We 
have got some long-time people, but we have got some new people 
too. So, I am going to take a little bit of time to do this. 
You have taken the time to come all the way down here and I 
just at least want to recognize each of the individual 
directors.
    I guess I am going to start on this side with Dr. Andrew 
von Eschenbach, the Director of the National Cancer Institute. 
Thank you, Doctor.
    The next is Dr. James Battey, Director of the National 
Institute on Deafness and Other Communication Disorders. Thank 
you very much, Dr. Battey.
    Next is Dr. Audrey S. Penn, Acting Director of the National 
Institute of Neurological Disorders and Stroke. Dr. Penn.
    Next would be Dr. Steven Straus, Director of the National 
Center for Complementary and Alternative Medicine. Dr. Straus.
    Next would be Dr. Lawrence Tabak, Director of the National 
Institute of Dental and Craniofacial Research. Did I pronounce 
that right?
    Dr. Tabak. Tabak.
    Senator Harkin. Thank you, Dr. Tabak.
    Next would be Dr. Steven Katz, Director of the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases. 
Dr. Katz.
    Next is Dr. Richard Hodes, Director of the National 
Institute on Aging. Thank you, Dr. Hodes.
    Next is Dr. Marvin Cassman, Director of the National 
Institute of General Medical Sciences. Thank you, Dr. Cassman.
    Next is Dr. Duane Alexander, Director of the National 
Institute of Child Health and Human Development. Thank you, Dr. 
Alexander.
    Next is Dr. Paul Sieving, Director of the National Eye 
Institute. Dr. Sieving.
    Going around the table, Dr. Jack Whitescarver, Acting 
Director of the Office of AIDS Research.
    Next is Dr. Kenneth Olden, Director of the National 
Institute of Environmental Health Sciences. Dr. Olden.
    Next would be Dr. Gerald Keusch, Director, Fogarty 
International Center. Did I pronounce that right, Dr. Keusch?
    Dr. Keusch. I probably mispronounce it as Keusch.
    Senator Harkin. All right, I got that now.
    Next would be Dr. Glen Hanson, Acting Director of the 
National Institute on Drug Abuse. Dr. Hanson.
    Next would be Dr. Patricia Grady, Director of the National 
Institute of Nursing Research. Dr. Grady.
    Coming around the table, Dr. Raynard Kington, Acting 
Director, National Institute on Alcohol Abuse and Alcoholism. 
Dr. Kington.
    Next would be Dr. Donald Lindberg, Director of the National 
Library of Medicine. Dr. Lindberg.
    Next would be Dr. Donna Dean, Acting Director, National 
Institute of Biomedical Imaging and Bioengineering. Dr. Dean.
    Next would be Dr. John Ruffin, Director of the National 
Center on Minority Health and Health Disparities. Dr. Ruffin.
    Next would be Dr. Richard Nakamura, Acting Director of the 
National Institute of Mental Health. Dr. Nakamura.
    Next would be Dr. Judith Vaitukaitis.
    Dr. Vaitukaitis. It sounds like a disease. Vaitukaitis.
    Senator Harkin. Dr. Vaitukaitis, Director of the National 
Center for Research Resources. Dr. Vaitukaitis.
    Next would be Dr. Francis Collins, Director of the Human 
Genome Research Institute. Dr. Collins.
    Next would be Dr. Allen Spiegel, National Institute of 
Diabetes and Digestive and Kidney Diseases. Dr. Spiegel.
    Next would be Dr. Anthony Fauci, Director of the National 
Institute of Allergy and Infectious Diseases. Dr. Fauci.
    And next, Dr. Claude Lenfant, Director of the National 
Heart, Lung, and Blood Institute.
    Dr. Kirschstein. And, Mr. Chairman, if I might add, I will 
introduce the people at the front table.
    Senator Harkin. Would you please? Yes.
    Dr. Kirschstein. Dr. Yvonne Maddox is the Acting Deputy 
Director of NIH. And to her immediate right is Mr. Charles 
Leasure, who is the Deputy Director for Management, and to my 
left is Sue Quantius, who is the Director of the Office of 
Budget.
    Senator Harkin. Well, thank you very much, Dr. Kirschstein. 
Again, I thank you all for being here. As I said, we had a 
process some time ago that I am going to get back to where we 
are going to have--we will not do it in one day, but what we 
will do is we will have groups of maybe four or five institute 
directors come down. We will set aside a couple of hours to go 
over their areas so that I can become more knowledgeable in the 
different areas that are there and so my staff can also. I will 
work with you to try to set that up and to arrange that at some 
time in the near future.
    Dr. Kirschstein. Senator Harkin, we would be pleased to do 
so. Many of us remember doing that in the past with you and it 
was a very successful endeavor.
    Senator Harkin. We are going to return to that. I just was 
unable to do that this spring. I may not wait until next year.
    Dr. Kirschstein. Fine.
    Senator Harkin. I may just do it sometime coming up this 
summer. I will be glad to work with you and the other institute 
directors to set up those points in time when we can do that.
    Dr. Kirschstein. Fine, sir. We look forward to it.
    Senator Harkin. I do too. I always found those in the past 
to be the most enlightening times of my service here.
    There are a couple of things that I wanted to go over. Dr. 
von Eschenbach, this has to do with pancreatic cancer. 99 
percent of people who get pancreatic cancer die. It is the 
highest death rate of all cancers.
    Now, before you came to NCI in last year's appropriations 
report, we requested that NCI develop a professional judgment 
budget for research on pancreatic cancer for the next 5 years. 
The goal was to ascertain how much we are actually spending on 
pancreatic cancer compared to the current funding level to see 
what was needed to make some inroads in this awful disease.
    As I said, this happened before your watch. I would just 
ask that at some point would you please advise us here as to 
where you are on that budget for pancreatic research and how 
many pancreatic researchers we have. I have heard there is a 
severe shortage. I do not know. Just focus on that a little 
bit.

                           PANCREATIC CANCER

    Dr. von Eschenbach. Thank you, Senator. I can give you an 
interim update, and I would be happy to provide you with a more 
detailed analysis.
    There have been a number of initiatives that have been 
launched in response to the directive. They include both 
epidemiologic studies to look at the distribution and causation 
with regard to pancreatic cancer. There is also a very 
important group of studies going on to look at environmental 
linkages, including diet and exposure to things such as 
tobacco, to begin to understand the causation of pancreatic 
cancer.
    There is a 10-point research program that has been 
instituted to begin to define basic laboratory investigations 
with regard to the mechanisms by which pancreatic cancers occur 
and then progress.
    And in addition to that, very importantly specialized 
programs of research excellence have been funded that focus on 
the problem of pancreatic cancer, and the particular importance 
of these SPORE initiatives is the fact that they bring together 
both basic scientists, as well as clinical scientists, so that 
we create a translation of the information that occurs in the 
laboratory to actual development of interventions in the clinic 
that can treat and perhaps even prevent pancreatic cancer. One 
of those happens to be at Johns Hopkins where about 50 percent 
of their gastrointestinal SPORE is devoted to pancreatic 
cancer, and then at the University of Nebraska there is one of 
those programs that is totally directed to pancreatic cancer.
    So, we are beginning to emphasize the approach to this 
cancer on understanding its nature, understanding how to detect 
and define it, and then, most importantly, how to treat it.

                            EARLY DETECTION

    Senator Harkin. I understand the problem is in detection. 
You just do not know you have it until it has become quite 
invasive.
    Dr. von Eschenbach. That is unfortunately correct, sir, and 
a very important challenge.
    Senator Harkin. I assume there is some research going on on 
early detection methodologies perhaps?
    Dr. von Eschenbach. One of the important areas I think that 
might also impact upon that is the larger agenda that is 
occurring with regard to molecular or functional imaging 
technologies where we will be able to detect cancers at earlier 
stages and then, as you alluded to in your opening remarks, 
some of the interesting work that is being done in being able 
to detect cancers by virtue of protein profiles in the blood 
stream. That has been demonstrated as proof of principle in 
ovarian, and hopefully we will now apply it to a series of 
other cancers including, hopefully, pancreatic.
    Senator Harkin. Interesting. I never thought about that. 
That is interesting. So, you can take what you have done on 
ovarian cancer and maybe apply that to some other cancers then.
    Dr. von Eschenbach. Yes, sir, exactly.
    Senator Harkin. Fascinating. Well, thank you very much. 
Just keep me advised on that then when you get the full report 
done on what you think we need for that next 5 years.
    Dr. von Eschenbach. Thank you, sir.
    Senator Harkin. Dr. Kirschstein--I see my time is up. 
Senator Cochran, do you have some more questions?
    Senator Cochran. No, Mr. Chairman, I have no other 
questions. Thank you.
    Senator Harkin. Thank you, Senator. I just had a couple 
that I wanted to follow up on.

                               STEM CELLS

    I do want to return to the issue that Senator Specter 
raised and that is stem cells. When President Bush announced 
last year that Federal funding could be used for research on 
human embryonic stem cells, I was disappointed that he limited 
it only to those cell lines that were in existence on August 9 
at 9 p.m. I asked, could we have not made it 10 p.m. or 
midnight?
    The reason I say that is because, obviously, that is a very 
arbitrary cutoff date and time.
    But until we get the rule changed, I strongly urge NIH to 
fund as many grants as possible under those guidelines. I 
understand there were only nine grant applications to the NIH 
for studying human embryonic stem cells by the first deadline 
of November 27 last year, 2001. Dr. Kirschstein, can you tell 
us now or could you tell the committee at some point soon when 
will NIH decide how many of those applications will be funded?
    Dr. Kirschstein. Those applications are in review at the 
present time, sir, in the primary review. They will be going to 
the advisory councils in the May/June period, and the 
meritorious ones will be funded prior to the end of this fiscal 
year.
    Some of us were more surprised than others as to the 
number. But it was a short period of time, no matter which way 
you think about it, from August 9th to the end of November. And 
furthermore, the lines which had to be listed on the registry 
were from disparate sources and the sources need to have 
sustenance to make sure that they can produce and people need 
to be trained on how to use them.
    So, right from the beginning, we announced that we would 
provide, first of all, administrative supplements to anybody 
who had research that was related and that could go ahead with 
reasonably sized budgets of $50,000 approximately to do the 
work, but second, to provide the ability for scientists to go 
the various places where the stem cells are being produced, the 
ones that are on the registry, and learn how to particularly 
work with those lines. Every cell culture of stem cells may be 
different and, indeed, we have known from years from the days 
that early cell cultures started that the cells have a great 
deal of individuality and you have to learn how to manipulate 
them and how to work well with them.
    In addition, we have been providing for training and for 
the ability to build up the supply.
    Senator Harkin. Dr. Kirschstein, do you know how many 
embryonic stem cell applications you have received since 
November 27?
    Dr. Kirschstein. It has been more but not a large number. 
And we are not surprised. Scientists want to present their best 
scientific effort, and once they realized they could use the 
lines, they have been garnering probably preliminary data, 
putting applications together carefully, and we expect the 
number to grow.

                      INTELLECTUAL PROPERTY RIGHTS

    Senator Harkin. I have heard different opinions about 
whether scientists' access to these stem cell lines will be 
limited because of intellectual property issues involving 
patents both here and overseas. Dr. Spiegel, your institute 
will likely be a key player on stem cell research because of 
the potential for curing diabetes. At least, that is what I am 
told anyway. I just wondered if you have any thoughts on this 
problem of intellectual property issues.
    Dr. Spiegel. Let me just say that I will defer to the legal 
experts. Dr. Kirschstein may want to designate someone 
specifically for that purpose.
    The Office of Extramural Research and the Office of 
Technology Transfer have gone to great lengths to try to 
surmount these issues. There have been individual negotiations 
with the people at Wisconsin, and with the University of 
California, San Francisco. Every effort has been made to 
surmount these issues. I will defer to others who have the 
specific legal expertise.
    The only other comment I would make is that you are exactly 
right. In terms of type 1 diabetes, we at NIDDK are mounting 
every effort not only in terms of islets relevant to type 1 
diabetes but also in terms of research on adult hematopoietic 
stem cells to differentiate into liver cells. With the 
mechanisms you heard about--support for infrastructure and 
training mechanisms so people can learn how to culture these 
cells, and a variety of other mechanisms, such as grant 
supplements--we expect to be vigorously supporting this area.
    Senator Harkin. Thank you, Dr. Spiegel.

                            ANTHRAX VACCINE

    Dr. Kirschstein, the NIH budget that we have before us from 
the White House includes $250 million for procurement of a next 
generation anthrax vaccine. Now, while I obviously think this 
is a worthy investment, given the problems surrounding the 
current vaccine, my question is, why is NIH funding the 
procurement of this vaccine? It is my understanding that CDC 
has responsibility for the stockpile. They purchased the 
smallpox vaccine. Should CDC not be funding this rather than 
NIH? I just ask that question. I am just wondering why this is 
in the NIH budget and not under CDC. Do you have any 
observations on that at all?
    Dr. Kirschstein. Dr. Fauci is the expert on that.
    Senator Harkin. Dr. Fauci.
    Dr. Fauci. Yes. I am an expert in telling you that I cannot 
explain it.
    That is the short answer. I could give you a longer answer.
    The responsibility for the development of the next 
generation anthrax vaccine, which is a recombinant protective 
antigen, is a project that antedated the submission of the 
President's budget and now is incorporated into it and will 
continue over the next, I would project, Mr. Chairman, 1\1/2\ 
to 2 years for the development of that next generation vaccine. 
So, that is really the product and the candidate that we are 
referring to, the recombinant protective antigen.
    The wording that is in the language for the budget uses the 
word ``procuring.'' I would imagine that that is going to be a 
combination of the development of and then ultimate procurement 
of the vaccine, because it is a process that is going to be 
seamless. As we are developing it, we are going to have to be 
collaborating with industrial partners for the actual 
production of and then ultimate procurement of the vaccine. But 
the precise reason for that language in there I cannot explain.
    Senator Harkin. Well, my concerns are there are a couple, 
three items that are in the NIH budget which my staff has 
picked out which really legitimately look like they should be 
funded from other sources. There is one DOD. There is this one 
that I just talked about at CDC. And I will look to see whether 
or not this is procurement or development. I am not certain I 
know myself.
    Dr. Fauci. Yes, but I think what we are referring to is 
probably going to be a combination of both. Even though it 
specifically says procurement, we cannot engage in 
``procurement'' yet because we have not developed it yet.
    Senator Harkin. Well, then maybe the whole $250 million is 
for development?
    Dr. Fauci. That is not what the language says, so I think 
that really needs to be clarified.
    Senator Harkin. I think, staff, we have got to go back to 
OMB and ask them what they mean by that.
    I also wanted to look for--well, it is not your problem. 
There is some DOD money also in there that I am concerned about 
also.

                  EYE DISEASES IN THE AGING POPULATION

    Dr. Sieving, an NEI study released yesterday shows that my 
State of Iowa has the second highest rate of vision impairment 
and blindness of all the States in the country. So, obviously, 
that was brought to my attention right away. 3.7 percent of 
Iowans have vision impairment compared to the national average 
of 2.85 percent. I do not know how the study was designed, but 
I assume a part of it is because we have the highest proportion 
of elderly over age 85 of any State in the Nation. Maybe that 
is the reason. I do not know. Like I say, I have not looked at 
it.
    But it led me to try to focus on this question about any 
new research to prevent and treat vision impairment. Again, I 
do not know whether this is just because of certain people that 
get into my office or get to me or I see in Iowa, but I am 
hearing more and more about macular degeneration now than I 
have ever heard. So, is there something happening out there or 
what? Has the incidence of macular degeneration perceptibly 
increased in the last few years?
    Dr. Sieving. That is an interesting question, Senator. I 
think the answer to that is very simple. We are all getting 
older. We have a birthday every year, and with aging, some of 
the aging diseases become more prevalent. The aging diseases 
that affect the visual system include macular degeneration, 
diabetes, diabetic retinopathy, cataract, and glaucoma. 
Consequently in the U.S. population, the prevalence of those 
conditions appears to be increasing, or is increasing because 
the population is aging.
    As one thinks to the future of the intersection of better 
health care, longer survival, and an aging population pool that 
will be increasing, the prevalence and the need to do something 
about these diseases will also be increasing in the years 
ahead.
    These, in general, are complex diseases. Cataract 
fortunately can be ameliorated with appropriate surgery with a 
good success rate, but macular degeneration and glaucoma are 
neurodegenerative diseases that affect the neurons in the 
retina at the back of the eye. As we all know, I think neural 
and neurologic diseases are difficult to treat at the moment. 
So, we have ahead of us the task of understanding the etiology 
of these neurodegenerative processes and ultimately devising 
appropriate strategies to intervene.
    The Eye Institute is busy with that task. We have a very 
vital extramural pool of scientists who are working on aspects 
of transplantation of neural tissue. We have work going on in 
neuroprotection. But I think the most fundamental work we have 
going on is to understand the basic biological mechanisms that 
are responsible ultimately for the genesis of these conditions, 
so that we can appropriately target the real biological root 
causes.
    We did have one success story this last year, one I am 
saying because some of these success stories are a long time in 
coming. This was the Age-Related Eye Disease Study, or AREDS, 
an epidemiologic intervention study, that had its genesis about 
10 years ago. For the past 7 years, a large population 
approaching a number somewhat less than 5,000 subjects with 
macular degeneration were treated with antioxidant nutrients, 
vitamins C, E, and beta carotene, and the addition of the 
essential mineral zinc. It was found that with high-dose 
supplementation, the population at risk for macular 
degeneration was--the incidence of additional vision loss was 
slowed by a little bit less than 30 percent. On a population 
basis, that has a very significant impact on the social 
morbidity and the economic morbidity that macular degeneration 
causes in our elderly population. So, we are pleased with that 
and we look forward to understanding the biological causes of 
it to see if we can build on that success.
    Senator Harkin. What were the vitamins? What was it beta 
carotene? I am sorry.
    Dr. Sieving. I am pleased that you are interested.
    It is antioxidant vitamins C, E, and beta carotene, which 
is a form of vitamin A, and the addition of zinc which is 
essential in some of the metabolic pathways of the cells in the 
outer part of the neural retina.

                      VISION IMPAIRMENTS/NUTRITION

    Senator Harkin. Dr. Straus, is your center doing anything 
on this along with them?
    Dr. Straus. Mr. Chairman, that study was well underway 
before the creation of the Center for Complementary and 
Alternative Medicine. But Dr. Sieving and I have met on a 
number of occasions and discussed opportunities to work 
together in following up the very agenda he discussed. We are 
funding some other nutritional studies at Johns Hopkins today 
looking at lutein, the red pigment from red vegetables and 
fruits, for other retinal disorders.
    Senator Harkin. Well, I am delighted to know that you are 
working together on this. That is very interesting, some of the 
stuff you just said, Dr. Sieving.

                      HEALTH INFORMATION TO PUBLIC

    I just have one more thing that I want to bring up. A part 
of NIH's statutory mission is to disseminate good, accurate 
information about health to the public as quickly as it becomes 
available. I am concerned about the Department's plan to add 
another layer of bureaucracy to this process. As I understand 
it, right now the people at NIH, who have the job of 
translating research into useful information for the public, 
work directly with the scientists, and together they decide 
what kind of educational materials to distribute. But under the 
Secretary's plan, those decisions would not necessarily be made 
by scientists, they would be made downtown at the Department 
headquarters.
    Dr. Lenfant, I guess maybe it would be your institute that 
has put together some excellent education campaigns. I am 
cognizant of those. I have seen them over the past. They are 
designed to prevent heart disease, for example, save lives when 
heart attacks occur. How would your process for developing 
these campaigns be affected? How would it be different in the 
future under this new plan?
    Dr. Lenfant. Well, Senator, at this time, we have received 
little information as to how that would work. But one thing I 
can say on the positive side is that if the people who do 
communication education are far away from where the information 
originates, that is, the science itself, I think this gap will 
have the tendency to widen and much will be lost in the end 
that is in the educational process. I have to say if that is 
what is going to happen, I would be very concerned. But, of 
course, I do not know how that would work actually.
    Dr. Kirschstein. Senator, we have been having discussions 
with the Department and we have made it clear that we believe 
that the people who transmit the information to the public must 
be kept closely allied to the science and the science leaders 
who are represented at this table in regard to how and what 
information gets translated to the public. We believe that they 
will allow that closeness to continue. That issue has not been 
totally decided yet, but you have a proposal in the budget for 
what is to be done.
    Dr. Lenfant. If I may add, Mr. Chairman, I think that for 
education to work, you have to have a dynamic process that goes 
back and forth between where the knowledge is developed and 
what it is that you are communicating. And it is not static; it 
has to move back and forth. I think it is critical that we 
recognize these two functions: knowledge acquisition and the 
dissemination of that knowledge.
    Senator Harkin. Well, I have asked the Secretary and I am 
going to ask the Secretary, for whom I have the highest regard 
and respect, Secretary Thompson. But what was broken here? If 
there was something wrong, what is trying to be fixed? And I am 
trying to get that information. I have not gotten it yet, but I 
am going to continue to ask that. What is it about the way that 
it was done in the past that this change in operation of having 
it clear down at the Department is meant to address? I have not 
gotten a satisfactory answer to that yet, but I will continue 
to ask the question.
    I have very deep concerns about adding that other layer to 
it, both in terms of slowing down the access to information and 
dissemination but also in terms of perhaps coloring it one way 
or the other. I do not think it should be. I think I would 
rather leave that in the hands of the scientists and not people 
who may have perhaps other agendas to follow.
    Well, with that, I want to thank you all very much for 
being here. Thank you, Dr. Kirschstein. I thank all of the 
institute directors who are here for taking your valuable time 
to be here today.
    I look forward to having a more in-depth dialogue with you 
as the year goes ahead. As I said, I would have done it this 
spring, but I have another hat to wear and I have got to get a 
farm bill through and it has taken a lot of my time. But that 
only happens once every 5 or 6 years, so hopefully as this year 
goes along, we will be able to have a more in-depth dialogue 
with each of the institute directors.
    But to each of you, you have my highest compliments, my 
highest respect and admiration, and I hope what is plainly 
obvious, my support. Thank you very much.
    Dr. Kirschstein. Thank you, Senator Harkin. We have 
appreciated it.
    Senator Harkin. Thank you.

                           PREPARED STATEMENT

    We have received the prepared statement of Senator Larry 
Craig which will be placed in the record.
    [The statement follows:]
               Prepared Statement of Senator Larry Craig
    Good morning. Thank you for attending today's hearing of the Labor, 
Health and Human Services, Education Subcommittee. I would like to 
thank the witnesses for agreeing to testify before this committee on 
the fiscal year 2003 Budget for the National Institutes of Health.
    Recently Congress passed the Labor, Health, Human Services, 
Education fiscal year 2002 appropriations bill which increased funding 
for the NIH by $2.7 billion. I think that you will agree with me that 
this money is a step in the right direction toward solving the numerous 
diseases that affect millions of Americans and that this Congress is 
committed to health research and education.
    Funding for biomedical research, of all diseases, is a high 
priority because medical research is a key to eradicating disease and 
improving the quality of life. The benefits from medical research are 
far-reaching. New discoveries return value to patients and their 
families, they translate into better diagnosis, better treatment, and 
better prevention of disease, as well as in discovering new methods of 
treating the afflicted.
    I believe that the NIH should be given adequate funding to support 
fiscal year 2003 research programs that move us toward cutting-edge 
treatments and prevention efforts, while helping to reduce overall 
health care costs. However, as we all know there are harsh budget 
realities that we must work within. We must find a way to provide the 
appropriate level of funding for health programs while being fiscally 
responsible. We can make significant strides in the field of medical 
research while still working toward a balanced budget.
    I'd like to thank each of the witnesses for being here today and 
for sharing their insights into this complex problem. I look forward to 
hearing your testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator. Harkin. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Harry Reid
                         interstitial cystitis
    Question. Despite progress in interstitial cystitis (IC) research, 
we still do not know the etiology or understand the pathogenesis of 
this disease. How are you going to ensure that progress continues 
specifically in IC research?
    Answer. We believe progress will be achieved through the NIDDK's 
continuing support of a multi-faceted approach to interstitial cystitis 
(IC) research. The question of immediate management of the complex 
array of symptoms suffered by patients with IC is being tackled by the 
NIDDK's Interstitial Cystitis Clinical Trials Group, which is currently 
running two clinical trials with different approaches to IC treatment. 
One trial is comparing combinations of oral medications for the most 
effective relief of symptoms, while the other is testing the efficacy 
of a therapeutic bladder wash to relieve pelvic pain and frequent 
urination.
    To facilitate the identification and treatment of all individuals 
with IC, and to gain knowledge of the full range of risk factors and 
clinical symptoms, awards have been made to research the epidemiology 
of IC, specifically broadening the surveyed population. The recently 
funded ``Urologic Diseases in America,'' a retrospective study and 
compendium of statistics on urologic health care and disease 
prevalence, will also assist researchers in identifying individuals 
with IC and in learning more about the burdens of this disease.
    Research on management of the debilitating pain suffered by 
patients with IC will also be supported through collaborative efforts 
with other disease experts well-versed in pain management-such as those 
familiar with irritable bowel syndrome-as was recommended at the recent 
meeting entitled ``Bladder and Interstitial Cystitis: Progress and 
Future Directions.'' This meeting was co-sponsored by the NIDDK and the 
Interstitial Cystitis Association.
    A critical element in our progress to combat IC is research to 
understand its underlying causes. Thus, basic research remains at the 
top of the list of NIDDK's research priorities in IC. At the moment, 
the most promising research avenues for IC lie in a better 
understanding of normal bladder physiology and of the pain pathways 
that are affected in IC. The recent identification of an anti-
proliferative factor produced by the bladder and found only in the 
urine of IC patients has already provided clues into both the 
pathogenesis of the disease and to normal bladder function. The 
discovery has also generated many new research questions for pursuit. 
New findings about the pain pathways in the bladder have sparked 
intense investigation. Researchers are eager to investigate how the 
perturbation of these pathways releases chemicals which may, in turn, 
cause the altered bladder function observed in IC.
    To ensure that progress in IC and other bladder disease research 
continues, the NIDDK recently established the Bladder Research Progress 
Review Group (PRG). This group of external scientific experts met last 
summer in order to draw up a map for future research directions in 
bladder disease, including IC. The PRG made scientific recommendations 
on high-priority research areas for IC such as etiology and 
pathogenesis. These recommendations will be invaluable in aiding the 
NIDDK and its National Advisory Council to determine the best means 
possible to support this research.
    I would also add that, because the etiology and pathogenesis of 
interstitial cystitis are still unknown, the NIDDK's continued support 
of basic research on the structure and functioning of the bladder 
provides a crucial framework for accumulating a knowledge base from 
which IC-specific research will surely benefit.
    Question. The trend in funding specific research on IC has 
significantly decreased in 2000 and 2001. And of the $88 million in new 
research grants that the NIDDK is expected to fund in fiscal year 2003, 
only $5 million would go to urology and nothing to IC. Although I 
realize ongoing research is being funded, I am very concerned about 
this downward trend and deeply disturbed that no new monies are being 
directed at IC--particularly toward basic science.
    Answer. The President's Budget Request for NIDDK for fiscal year 
2003 includes an overall increase for noncompeting and competing 
research project grants of approximately $86 million, which we intend 
to use to benefit all of our research programs. In recent years, we 
have increased both urology research, as a broad field of research, and 
interstitial cystitis and basic bladder research studies, as a specific 
area within the larger field of urology. We estimate that we spent 
approximately $76.5 million on urology research in fiscal year 2001, 
and intend to spend approximately $88.2 million in fiscal year 2002 and 
$95.5 million in fiscal year 2003, based upon the current budget 
request. Within these overall totals, we spent $12.3 million on 
interstitial cystitis and basic bladder research in fiscal year 2001, 
and intend to spend approximately $14.3 million in fiscal year 2002, 
and $15.5 million in fiscal year 2003, based upon the current budget 
request. Studies supported with these funds include clinical trials of 
IC therapies and research exploring the basic mechanisms of bladder 
disease, including bladder dysfunction, and possible underlying causes 
of IC. For both urology research in general and IC-related research 
specifically, the number and quality of research applications received 
by the Institute may affect the funding total, but we are engaged in 
active efforts to identify and pursue research opportunities. For 
example, our establishment of the Bladder Research Progress Review 
Group (PRG) is culminating in a set of recommendations for future 
research directions, and we will stimulate research applications from 
the investigative community in the areas of opportunity identified by 
the PRG.
                           juvenile diabetes
    Question. Juvenile diabetes has a devastating impact on every organ 
in the body and often leads to serious, life-threatening complications. 
Therefore, virtually every NIH Institute has a role to play in juvenile 
diabetes research. How do you ensure that all relevant NIH Institutes 
collaborate to advance research to treat the devastating complications 
of this disease and ultimately find a cure?
    Answer. One important route for facilitating collaboration is the 
Diabetes Mellitus Interagency Coordinating Committee (DMICC), which the 
NIDDK chairs. This committee has representatives from the Centers for 
Disease Control and Prevention, the Food and Drug Administration, 
Agency for Healthcare Research Quality, and other Health and Human 
Services agencies. It coordinates research on all aspects of diabetes, 
including type 1, or juvenile, diabetes and its complications. The 
DMICC has been a focal point for catalyzing NIH-wide research on key 
issues relevant to juvenile diabetes, including the eye, kidney, and 
heart complications, and the disturbing increase in type 2 diabetes in 
children.
    Another avenue of collaboration is the trans-HHS Planning and 
Evaluation Strategy Group that guides the use of special funds for type 
1 diabetes research, which were provided by the Balanced Budget Act of 
1997 and the 2001 Consolidated Appropriations Act. The NIDDK chairs 
this Planning and Evaluation Strategy Group, which includes 
representatives from multiple NIH institutes and centers, the CDC, the 
FDA, AHRQ, the Juvenile Diabetes Research Foundation, and the American 
Diabetes Association. The Planning Group has met several times to 
identify areas of scientific importance for type 1 diabetes research 
initiatives. In February 2001, the Group met to consider the most 
recent proposals for the special type 1 diabetes research funds, which 
were submitted by the participating NIH institutes and centers, and the 
other HHS agencies.
    To leverage support for type 1 diabetes research, high priority has 
been given throughout the resource allocation process to proposals to 
which HHS components would commit regularly appropriated funds, 
proposals that cross institute or agency boundaries, and proposals that 
could attract new scientific talent who have relevant experience to 
diabetes research.
    Members of the Planning Group have also suggested leading 
scientists to serve on external advisory panels on the use of the 
special type 1 diabetes funds. One such panel met in April 2000 and 
another advisory meeting is planned for May 2002. A significant number 
of Planning Group representatives attended the initial meeting in 2000 
and are expected to also participate in the upcoming session. The 
success of this ongoing planning process is demonstrated by the scope 
of the special type 1 diabetes funding program. Each of nine NIH 
institutes and centers and the CDC have lead responsibility for at 
least one type 1 diabetes research initiative that has been supported 
by the special funds through fiscal year 2002; further, the majority of 
these initiatives represent collaborative efforts between multiple NIH 
components. The NIDDK is presently leading the development of a 
mandated report to the Congress on the use of the special funds for 
type 1 diabetes research. This report is expected to be transmitted to 
the Congress in January 2003.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
                                epilepsy
    Question. As you know, over 2.5 million Americans have epilepsy, 
including at least 750,000 with intractable epilepsy. The annual direct 
and indirect costs of epilepsy are estimated to exceed $12.5 billion. 
But while NIH funding has increased by nearly 15 percent each year, 
Epilepsy funding has increased by only 8 or 9 percent each year. Given 
the huge impact of epilepsy, it seems that epilepsy research lags far 
behind what is needed--despite the encouragement of Congress over the 
past few years to intensify efforts to find a cure. What do we need to 
do to ensure that more resources are devoted to curing epilepsy.?
    Answer. We are working with scientists and the epilepsy community 
in a concerted effort to accelerate research on epilepsy. As you note, 
intractable epilepsy, which is especially a problem in children, must 
be a high priority. The scientific community is motivated by the burden 
of epilepsy on society and energized by the new opportunities arising 
from progress in neuroscience research. In March 2000, the National 
Institute of Neurological Disorders and Stroke (NINDS), together with 
several patient advocacy groups sponsored a White House-initiated 
conference, ``Curing Epilepsy: Focus on the Future.'' A major outcome 
of the Cure Conference was the creation of an epilepsy planning group 
including researchers, clinicians, representatives of the advocacy 
community, and NINDS professional staff. This group developed seventeen 
specific research ``benchmarks'' for the epilepsy research community to 
use to measure their progress towards finding a cure for epilepsy. The 
benchmarks were published on the NINDS website in January 2001.
    Central to the concept of the Benchmarks is the belief that they 
are milestones for the entire epilepsy community. In order to emphasize 
this collaborative relationship, the Epilepsy Benchmarks planning group 
has developed the concept of ``stewardship'' under which senior well-
established individuals in the epilepsy community will accept primary 
responsibility to be a steward for a given benchmark, working in 
conjunction with the NINDS to ensure that the scientific community is 
fully engaged and appropriate resources are allocated to achieve the 
benchmarks. We are all committed to working together toward developing 
ways to prevent and cure epilepsy.
    Question. We are anxiously awaiting your Epilepsy Research Agenda 
requested by April 1 of this year, along with projected funding 
requirements for implementing the plan. What are the first steps 
required to carry it out? Can you ensure that the NINDS research will 
continue to search for cures for epilepsy, rather than simply 
treatments for symptoms? Do you see any specific research areas which 
might offer potential breakthroughs?
    Answer. NINDS, working together with the epilepsy community, has 
already made significant progress on the Benchmarks implementation 
plan, including confirming the initial list of Benchmarks stewards and 
working with several advocacy groups to produce a lay summary of the 
Benchmarks. We have held a number of workshops focused on specific 
topics arising from the Benchmarks, such as animal models for epilepsy 
research, anti-epileptic drug monotherapy, and epilepsy genetics, with 
meetings soon to be held on subjects such as brain imaging and 
epilepsy. We have also solicited applications to promote cross-
disciplinary collaborative projects among junior investigators in the 
fields of patient-oriented research, developmental neurobiology, 
genetics, advanced technology, imaging, pharmacotherapeutics, or other 
research areas that would be likely to lead to a cure for epilepsy. In 
addition to efforts focused exclusively on epilepsy, NINDS is enhancing 
efforts in several cross-cutting areas of research that are likely to 
have a bearing on epilepsy, including gene discovery, gene therapy, 
pediatric neurological diseases, pediatric brain imaging, and 
translational research. NINDS is committed to building on its ongoing 
significant efforts in epilepsy and, through the concept of 
stewardship, to working closely with the research and advocacy 
communities to achieve the Epilepsy Benchmarks and move the field 
toward the ultimate goal of curing epilepsy.
    While progress has been made, the treatments we now have for 
epilepsy are far from perfect. This is especially so for the many 
people whose epilepsy is ``intractable.'' Even for those people whose 
seizures can be controlled, the side-effects of treatment are often a 
significant problem, with special concerns for children and women. 
Perhaps the biggest reason our sights have changed from symptomatic 
treatment to a cure is that the science has advanced to the point that 
we can begin to see avenues toward finding a cure. So, we should not 
underestimate the difficulties, but I assure you we are committed to 
the goal, defined by the landmark meeting ``Curing Epilepsy: Focus on 
the Future'' as ``preventing epilepsy in those at risk and no seizures, 
no side effects in those who develop the disorder.''
    There are many areas of science that offer potential for 
breakthroughs. We must attend to all because medical advances are so 
difficult to predict and because epilepsy arises from several different 
causes, so no single approach is likely to be best for every person who 
has epilepsy. Understanding how genes contribute to epilepsy, whether 
directly or as a determinant of susceptibility is obviously important 
to pursue. Likewise as gene therapy develops, some forms of epilepsy 
may be candidates for that approach. The burgeoning understanding of 
brain plasticity--that is, how the brain changes in response to its 
environment and experience--has many ramifications, both as a potential 
contributor to the development of epilepsy and as a strategy for 
overcoming seizures or the problems that arise from treatments. The 
enormous advances in understanding the molecules that control 
electrical activity in brain cells provides many new targets for 
developing drugs that act more specifically to control seizures without 
side effects. Better understanding of how the brain develops is leading 
to insights about the development of epilepsy for many children. 
Technologies such as deep brain stimulation, triggered by intelligent 
sensors that detect the signs of oncoming seizures, is yet another 
possibility. There are certainly others I could mention, but perhaps 
what is most encouraging is the extent to which advances in so many 
areas of neuroscience may come to bear on epilepsy research in the 
foreseeable future.
    Question. The Congressional Report Language this year-encourages 
the establishment of an Interagency Coordinating Council to coordinate 
research efforts in epilepsy between the NINDS, the National Institute 
on Aging, the National Human Genome Research Institute, the National 
Institute for Child Health and Human Development, and the National 
Institute of Mental Health. How do you envision taking a leadership 
role in coordinating the efforts of these various Institutes? How do 
you envision these cross-agency efforts furthering the search for a 
cure?
    Answer. The National Institute of Neurological Disorders and Stroke 
(NINDS) is the lead NIH Institute for epilepsy research, but several 
other NIH Institutes also fund epilepsy related projects, including the 
National Institute of Mental Health (NIMH), the National Institute on 
Aging (NIA), the National Institute for Child Health and Human 
Development (NICHD), and the National Human Genome Research Institute 
(NHGRI). NINDS is working with these Institutes to coordinate epilepsy 
research efforts, including their involvement, as appropriate, in the 
implementation of the research benchmarks. This includes joint 
sponsorship of workshops and conferences, joint funding of initiatives, 
and periodic meetings to identify and discuss areas of common interest 
and opportunities for collaboration. NINDS has already initiated such 
efforts. For example, NHGRI is participating in a recent workshop on 
molecular analysis of complex genetic epilepsies; NIA and NIMH are 
cooperating with NINDS in a Request for Applications entitled ``Gene 
Discovery for Neurological and Neurobehavioral Disorders'' which was 
directly relevant to the Epilepsy Benchmarks for discovery of genes 
that predispose individuals to epilepsy; and similar cross-NIH efforts 
are underway on topics such as gene therapy.
    NINDS also recognizes the importance of working with patient 
advocacy groups. The March 2000 conference on curing epilepsy 
represented a cooperative effort by NIH, working together with the 
Epilepsy Foundation, the American Epilepsy Society, Citizens United for 
Research in Epilepsy (CURE), and the National Association of Epilepsy 
Centers. The efforts to develop the Benchmarks were also a cooperative 
effort and we are continuing along those lines as we implement the 
benchmarks.
    Central to the concept of the Benchmarks is the belief that they 
are milestones for the entire epilepsy community. Thus, NINDS plans to 
coordinate with other NIH Institutes and Centers efforts to implement 
the Benchmarks. Additionally, we plan to include the epilepsy 
professional organizations, and the epilepsy patient community in 
research activities. All of these entities must work collaboratively if 
the goals are to be reached.
                            vascular disease
    Question. There seems to be evidence that vascular diseases--
including stroke, high blood pressure, and diabetes--are associated 
with an increased risk of Alzheimer's disease. Some promising initial 
studies suggest that cholesterol-lowering drugs and changes in diet 
could reduce that risk. Is the Institute investing in this area of 
research and are you collaborating with the Heart, Lung, and Blood 
Institute?
    Answer. There is intriguing evidence from both NIA-funded basic 
science studies in animals and human clinical studies that vascular 
disease itself, as well as vascular risk factors, may be involved in 
the development of Alzheimer's disease. For example, an NIA study 
suggests that high blood pressure in midlife is a risk factor for 
developing AD. Researchers are currently investigating the effect of 
raising blood pressure on behavior and development of brain pathology 
in young and middle-aged animals.
    There is also evidence that both cholesterol-lowering drugs and 
dietary changes may reduce risk of AD. For example, mice that carry a 
gene for early-onset AD and are fed a high-cholesterol diet show an 
increase in the formation of brain plaques that are pathologically 
similar to the plaques seen in human AD patients, and a clinical study 
indicated that increasing total cholesterol was associated with AD risk 
in humans. In addition, recent results from a number of epidemiological 
studies indicate that people who had taken statins, the most common 
type of cholesterol-lowering drugs, were at reduced risk of developing 
AD.
    In addition to cholesterol, high blood levels of the amino acid 
homocysteine are associated with an increased risk of heart disease and 
stroke, and in a recently published report from the Framingham Heart 
Study (a National Heart, Lung and Blood Institute study, in which NIA 
funds one component), it was reported that high homocysteine is also a 
risk factor for the development of dementia and AD. The relationship 
between AD and homocysteine is of particular interest because blood 
levels of homocysteine can be reduced, for example, by increasing 
intake of folic acid (or folate) and vitamins B6 and B12.
    There are a number of ongoing and planned clinical trials to 
investigate the effects of lowering cholesterol with statins and 
lowering homocysteine with vitamins (B6/B12/folate) on AD. The NIA 
funds an add-on study to the NHLBI-supported Women's Antioxidant 
Cardiovascular Study to assess the effect of B6/B12/folate on the 
development of cognitive decline and dementia. Through the Alzheimer's 
Disease Cooperative Study clinical trials consortium, NIA is planning 
clinical trials of the cholesterol-lowering drug simvastatin and 
vitamins B6/B12/folate to delay progression of AD among people who have 
the disease.
                       minority aging/alzheimers
    Question. By 2030, minorities will represent 25 percent of the 
elderly, compared with 16 percent today. Some studies are now showing a 
higher prevalence of Alzheimer's disease in certain minority groups. 
New evidence suggests that two diseases that are especially common in 
minority populations--namely diabetes and hypertension--are associated 
with an increased risk of Alzheimer's disease. Does NIA have any plans 
to pursue research in this area in fiscal year 2003?
    Answer. NIH recognizes the high prevalence of Alzheimer's disease 
(AD) in racial and ethnic minorities and plans to continue research in 
this area. One important and expanding research focus is on the 
possible interactions among other health conditions, particularly 
cardiovascular disease and diabetes, and the risk of developing AD. 
Both high blood pressure and diabetes are prevalent in some minority 
populations; and the NIA is funding a number of epidemiological and 
basic science studies to identify such risk factors, and their 
interplay with genetic risk factors, on the likelihood of developing 
AD. Many NIA-supported epidemiology studies are specifically designed 
to include minorities, with some emphasizing possible interactions 
between other organ systems and the brain. For example, in an NIA-
funded study published last year, researchers at Columbia University 
showed a modest association between diabetes and the risk of AD in a 
group of patients that were 45 percent Hispanic and 32 percent African-
American. Studies on possible mechanisms linking diabetes and cognitive 
decline and AD are underway.
    Increased systolic blood pressure (the ``top number'' in a blood 
pressure reading, measuring the pressure on the blood vessel walls as 
the heart beats) has also been associated with increased risk for AD in 
several epidemiology studies. The mechanisms by which high blood 
pressure may contribute to AD brain pathology is being studied in 
animals and humans. In one study, researchers are comparing patients 
with vascular dementia (cognitive dysfunction caused by damage to the 
blood vessels in the brain) and patients with AD. By following these 
patients using positron emission tomography (PET scans) to study the 
brain's metabolism, as well as other tests, researchers hope to better 
understand the mechanisms leading to both conditions, and possible 
interactions between them. The Institute also recently funded a number 
of research projects to investigate the relationships among 
hypertension, aging, cognition and brain pathology
    The 29 NIA-supported Alzheimer's Disease Centers are conducting 
research on etiology, pathogenesis, treatment and the effects of the 
disease on the daily life of patients with AD and their families. Many 
Centers have set up Satellite clinics in minority neighborhoods to 
enhance the recruitment of minority subjects into research programs. In 
recent years, minority subjects represented approximately 16 per cent 
of the patients enrolled in the Alzheimer's Centers. Research is being 
carried out to determine differences in the age of onset among 
different patient groups, the differential influence of risk factors 
that affect development of disease in various racial and ethnic 
populations, responses to experimental drug treatment, and coping and 
support strategies used by minority families and communities to deal 
with the stresses of caring for patients with AD.
    The Aging (NIA) and the National Center on Minority Health and 
Health Disparities (NCMHD) have worked collaboratively on supporting 
research efforts on Alzheimer's disease and other aging related 
conditions affecting minority populations. The NIA and NCMHD are 
collaborating in two broad program areas, the Nathan Shock Centers of 
Excellence in Basic Biology of Aging and the Resource Centers for 
Minority Aging Research (RCMAR).
    The Nathan Shock Centers of Excellence in Basic Biology of Aging 
are designed to stimulate and enhance research into the basic 
biological processes of aging. Ultimately, research at the Centers is 
expected to yield breakthroughs in understanding the course of normal 
aging and the diseases and conditions that affect older people, such as 
Alzheimer's disease, frailty, and cancer. This program has placed 
significant emphasis on increasing the expertise of minority 
investigators and minority-serving institutions in biology of aging 
research. The RCMAR program represents one of NIH's most focused 
efforts to build the national research infrastructure for minority 
aging research. The six RCMAR Centers are actively involved in 
establishing a research mentoring mechanism in minority health, 
enhancing professional diversity in minority health research, 
developing measurement tools tailored to minority populations, and 
developing strategies for recruiting and retaining minority research 
participants. RCMAR efforts include research on AD.
                       information dissemination
    Question. Over the past few years, we have seen remarkable strides 
in understanding Alzheimer's disease. The question is how quickly can 
some of that new information be put into the hands of physicians and 
hospitals? Along the same lines, do you feel that there are sufficient 
clinical researchers trained to translate all of this new knowledge 
into treatments and better patient care?
    Answer. The National Institute on Aging (NIA) places a high value 
on sharing our improved understanding of Alzheimer's disease with both 
the public and medical communities, especially physicians and other 
health care providers. To accomplish this mission, the NIA has 
developed a number of programs and products to ensure the transmission 
of accurate and up-to-date information about Alzheimer's disease. In 
1990, the Congress directed the establishment of the Alzheimer's 
Disease Education and Referral (ADEAR) Center at NIA. Since that time, 
the ADEAR Center has delivered the latest information about Alzheimer's 
disease through its toll-free information service, publications 
program, databases, news releases, exhibits at professional meetings, 
and liaison with other NIA programs such as the Alzheimer's Disease 
Centers (ADCs) program and the Alzheimer's Disease Cooperative Study 
(ADCS). More recently, NIA has established a web site to provide 
information 24 hours a day, and worked with the Food and Drug 
Administration (FDA) and the National Library of Medicine (NLM) to 
provide up-to-date information about clinical trials being conducted in 
the field of Alzheimer's disease and other dementias.
    Two publications are specifically aimed at the medical community-
the annual Progress Report on Alzheimer's Disease and the quarterly 
newsletter Connections. The Progress Report details the advances being 
made in Alzheimer's disease research at NIA and the other NIH 
Institutes. This report is distributed widely to medical professionals, 
hospitals, researchers, and interested members of the general public. 
Through notices in their newsletters and other publications, we are 
able to help medical professionals keep up-to-date on AD research 
developments. Copies of the Progress Report are provided to the 
Alzheimer's Disease Centers, who distribute them at local conferences 
and meetings. Thus, we are able to use one centrally developed 
publication to share information through many channels. In the past 10 
years, the size of the report has more than doubled. The current and 
past editions of the report are available at the ADEAR web site, and 
can be downloaded from a pdf file.
    In addition to these resources, we provide health professionals, 
hospitals, Alzheimer's Association chapters, community and voluntary 
groups, and our grantees with publications to help them educate the 
public about Alzheimer's disease. To increase the reach of our efforts 
we have tried to capitalize on the new technologies available to 
communicate our messages about Alzheimer's disease research. For 
example, the AD clinical trials database provides the latest 
information about clinical trials that are being conducted. At the 
ADEAR web site, physicians and others can locate detailed information 
about current trials as well as the clinical trial sites located 
nearest to them. In many cases, direct linkage is provided to the study 
through an email hot link. In addition, members of the medical 
community can sign up for automatic email notification when new trials 
are posted. Last year more than 600,000 individual visits were made to 
the ADEAR web site.
    The NIA has a history of training physician scientists by using 
several grant mechanisms--Alzheimer's Disease Centers, Program Project 
research grants, Leadership and Excellence in Alzheimer's Disease 
(LEAD) grants, the Alzheimer's disease Cooperative Study and career 
development awards (K series)--all of which have provided multi-
disciplinary training and mentorship to young physicians. To further 
augment research training for new investigators, the NIA is providing 
funds for young physician scientists under the Alzheimer's Disease 
Clinical Research and Training Awards program, (Public Law 106-505, the 
Public Health Improvement Act) passed during the 106th Congress. Six 
awards are being made in fiscal year 2002 under this new program and we 
are in the process of soliciting new applications for fiscal year 2003. 
The next generation of clinical researchers will be better prepared to 
translate research advances into clinical practice because of better 
training in the basic mechanisms underlying the disease process. One 
example is in the area of molecular neuropathology and brain imaging 
where it is imperative to advance our diagnostic capabilities to 
measure changes in the brain that reflect the early development of 
Alzheimer's disease and related dementias. Understanding the basic 
mechanisms will permit a new generation of physician scientists to 
develop diagnostic markers that identify persons who are at risk or are 
in the early stages of the disease so that therapeutic intervention can 
be implemented early enough to prevent or slow the development of the 
disease. Better diagnosis may be achieved either by visualizing brain 
pathology directly using advanced imaging techniques or by measuring 
changes in blood levels of molecules produced in the brain that reflect 
the presence of the disease. As new knowledge accumulates, physicians 
and scientists will meet periodically to decide which of the new 
findings best reflect the presence or severity of disease and, by 
consensus, decide how the findings can be translated into clinical 
practice to help in the diagnosis and management of the disease. Once 
consensus is reached, new practice guidelines will be distributed to 
the wider medical community.
    Question. Last fall the NEI released the results of the Age-Related 
Macular Degeneration study revealing that people at high risk of 
developing advanced stages of Age-Related Macular Degeneration lowered 
their risk of advanced development of this disease by taking a 
combination of vitamins and zinc. What has been done to translate the 
research results into treatments for people at risk of developing AMD?
    Answer. In an effort to rapidly disseminate and translate into 
medical practice the results of the Age-Related Eye Diseases Study 
(AREDS), the National Eye Institute (NEI) coordinated both a national 
and locally-based campaign to inform the public of the results through 
print, radio, television, and internet coverage. An estimated 174 
million people had the opportunity to hear or read about the AREDS 
results that were released at a national press conference conducted 
concurrently with the publication of the results in the journal 
Archives of Ophthalmology. The results were also released through a 
VISION Public Information Network for Eye Institutes and Departments of 
Ophthalmology and Schools and Colleges of Optometry to ensure the pubic 
and health professionals are aware of the findings.
                   general clinical research centers
    Question. It has been almost 2 years since the NCRR Advisory 
Council approved the concept of providing ``seed money'' for GCRC-based 
pilot projects. This Subcommittee urged you to move forward with this 
approach in report language accompanying our fiscal year 2000, 2001 and 
2002 bills. How many centers have received pilot study support? How 
many pilot projects been funded? What is the total amount of funding 
that has been provided for this purpose? Does each GCRC receive an 
equal amount for pilot projects? If not, how are the funds distributed?
    Answer. Pilot studies on GCRCs were phased in during fiscal year 
2002 with the intent that all GCRCs would be able to request up to 
$100,000 per annum for their support within 2-3 years. We become aware 
of pilot projects when GCRCs make a specific request for new funds and, 
in fiscal year 2002, 27 GCRCs made such requests. GCRCs are also 
permitted to rebudget funds internally to support pilot projects.
    Approximately 32 pilot projects were funded in fiscal year 2002 in 
the 27 GCRCs that applied for new funds for the purpose.
    A total of $645,000 was made available in fiscal year 2002, but 
internal rebudgeting may allow for the funding of additional pilot 
projects. The full number will not be known until the Centers submit 
their annual reports.
    No, they do not. The amount received depends first on the 
participation of the GCRC and on the local approval of the pilot 
projects by an Advisory Committee. By fiscal year 2003 we anticipate 
making new funds available for two pilot projects per center. Centers 
may increase their number of pilot projects beyond this if they are 
able to rebudget funds internally.
                   general clinical research centers
    Question. It is my understanding that a number of other programs 
are funded out of the GCRC appropriation. Could you tell me why this 
is, what those programs are, and how much money each receives?
    Answer. The GCRC program and the research resource provided to 
clinical investigators have evolved markedly over the past several 
years. As a consequence, the funding mechanisms used have adjusted to 
also provide support for career development, loan repayment, research 
subject advocates, biostatisticians, bioinformatics, and a series of 
national resources for clinical research. Those include centers for 
human gene transfer, human islet cell resources, and more. Until a few 
years ago, one of the NIH centers budget lines had been labeled 
``GCRCs''--more than 90 precent of the funds in that budget line paid 
for the GCRC facilities, professional staffing and ancillary costs 
along with the costs for a unique GCRC clinical associate physician 
(CAP) program, a research career development program for physicians and 
dentists. The CAP awards were made as competitive supplements to the 
parent GCRC grant; the CAP program is undergoing a phase out and is 
being replaced by the K23 award.
    The research careers programs now account for the largest amount of 
``clinical research'' funding through the ``other research'' budget 
mechanism. The amount included in the fiscal year 2003 President's 
Budget request for clinical research careers (including curriculum 
development) is $26.6 million. NCRR's clinical loan repayment program 
will total $3.5 million in fiscal year 2003; awards will be through a 
contract mechanism. There are several smaller components of the 
clinical research budget, including the costs of peer review of 
clinical research applications, conference grants, and funding for 
ethics training grants.
    Question. This past weekend, I met with several children with 
Diabetes from Wisconsin, as part of the Juvenile Diabetes Research 
Foundation's Children's Congress. Their parents told me about their 
children's daily struggle with diabetes, including daily insulin 
injections and blood sugar checks. They also told me about promising 
research involving transplantation of insulin-producing cells, which 
has resulted in dozens of individuals with the disease no longer 
requiring insulin. Can you update us on the status of this research, 
and also explain what the Institute is doing to utilize stem cell 
research in this area?
    Answer. The NIDDK has a vigorous research effort on cell-based 
therapies with the goal of treating diabetes. In juvenile diabetes, the 
body's immune system mistakenly destroys the pancreatic beta cells, 
which produce insulin, a hormone critical for life. Beta cells normally 
exist within groups of pancreatic cells called islets. Recently, 
researchers, both intramural and extramurally, have obtained 
encouraging results in transplanting islets into several adult diabetic 
patients using islets obtained from cadaver pancreases. Researchers in 
the Immune Tolerance Network are also attempting to replicate the 
successful islet transplantation procedure developed in Edmonton, 
Canada, and other research is being vigorously pursued at the clinical 
level.
    While the results of these clinical studies are preliminary, if 
this therapeutic approach continues to show promise in treating 
diabetes, then stem cells might one day provide a replenishable supply 
of beta cells--provided that scientists can develop reproducible ways 
for ``coaxing'' stem cells in the laboratory to differentiate into beta 
cells. I'll highlight some key examples of our efforts in this area.
    The work of one research team suggests that the objective of 
increasing the supply of islets may be realized from pancreatic duct 
cells from human pancreatic tissue that is normally discarded in the 
process of preparing human islets for transplant. Researchers have 
shown that these cells can be encouraged to form insulin-producing 
cells. Although the number of islets generated was small, these 
findings certainly raise the possibility that, with further 
optimization, this technique might have major implications for use in 
islet cell replacement therapy in the future.
    In another example, in laboratory experiments on animals, 
investigators have generated insulin-producing islets from cells 
isolated from the pancreatic ducts of mice. When they implanted the 
islets into the kidneys of non-obese diabetic mice, the researchers 
were able to wean the mice off insulin injections.
    In other research, scientists found that human pancreatic islets 
contain a distinct population of cells that may be adult stem cells. 
These cells can differentiate into cell types of the pancreas. If 
researchers can learn how to isolate them in sufficient numbers and 
control their differentiation, these cells could also potentially be 
used for therapies for diabetes patients.
    These studies were performed with animal cells or with human adult 
stem cells. We certainly plan to continue funding research on these 
cells. In addition, new initiatives are now encompassing support for 
research on the human embryonic stem cell lines eligible for study 
under federal policy. For example, we are providing an opportunity for 
supplemental awards to NIDDK grantees who seek to add research on these 
cells to their work, in cases where such additional research would be 
within the scope of, and would be a relevant extension of, an ongoing 
project funded through the peer review process. We are also planning 
support for research training and infrastructure to help investigators 
commence research on these delicate cells. One major NIDDK initiative 
is to establish a ``Beta Cell Biology Consortium'' to facilitate 
interdisciplinary approaches that will advance our understanding of 
pancreatic islet development and function in order to build fundamental 
knowledge that may lead to improved therapies for diabetes. The NIDDK 
will also extend its progenitor cell genome anatomy project through an 
initiative to study how adult stem cells and embryonic stem cells lead 
to the development and maintenance of tissues and organs. Further 
initiatives that will encompass research on stem cells, as well as 
other cells, for potential cell-based therapies include: planned 
support for gene transfer approaches to enhance islet transplantation; 
a research effort to attract new research talent to type 1 diabetes 
research; and an effort to develop ``bench-to-bedside'' partnerships 
between clinical and basic scientists to help extend successful basic 
research approaches to type 1 diabetes to the point at which they can 
be tested in animal models or in patients.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
               department of defense research activities
    Question. The NIH budget includes $49 million ``directed towards 
collaborative research projects with the Department of Defense.'' It is 
unclear from your budget justification just how that money would be 
used. Funds would be used for electronic laser research ($11 million), 
radiation exposure research ($14 million), and HIV clinical trial 
research ($23.2 million). Are you transferring the funds from NIH to 
DOD? Or are you moving some of the DOD defense science and technology 
activities to the NIH?
    Answer. The White House Office of Management and Budget directed 
the transfer of oversight and management for the DOD HIV Research and 
Development Program of the U.S. Army Medical Research and Material 
Command (USAMRMC) to the NIH in January 2002. NIAID, which has the 
primary responsibility for HIV/AIDS research within the NIH, will 
assume responsibility for this program beginning October 1, 2002.
    The $11 million for the free electron laser research effort will be 
provided to the Department of Defense.
    The NIDDK will be providing $14.3 million directly to the 
Department of Defense for radiation exposure research through an 
interagency agreement.
                          obesity and diabetes
    Question. In the U.S. today there are approximately 4.7 million 
children aged 6-17 who are overweight or obese. Since 1980, the 
prevalence of overweight children has nearly doubled and the prevalence 
of overweight adolescents has nearly tripled. You state in your 
testimony that NIH funded a study showing that millions of overweight 
Americans are at high risk for type 2 diabetes and that improved diet 
and moderate exercise could possibly prevent the disease. You have 
launched a National Diabetes Education program with the Centers for 
Disease Control. How does this program help address the obesity problem 
and is it designed to reach and educate all segments of the population, 
including parents, teachers, and physicians regarding obesity and its 
consequences?
    Answer. The National Diabetes Education Program (NDEP) is a 
partnership of the National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK), the Centers for Disease Control and 
Prevention, and more than 200 public and private organizations. The 
NDEP's objectives are: to increase public awareness of the seriousness 
of diabetes, its risk factors, and strategies for preventing diabetes 
and its complications; to improve understanding about diabetes and its 
control and to promote better self-management behaviors among people 
with diabetes; to improve health care providers' understanding of 
diabetes and its control and to promote an integrated approach to care; 
and to promote health care policies that improve the quality of and 
access to diabetes care.
    To accomplish these goals, NDEP's message is designed to reach 
people with diabetes and their families (with special emphasis on 
minority populations disproportionately affected by diabetes), members 
of the public at risk for diabetes, health care providers, and health 
care purchasers, payers and policy makers.
    Based on the exciting results of the Diabetes Prevention Program 
(DPP) study that you mentioned, the NDEP is focusing its efforts on 
preventing type 2 diabetes, and its serious risk factor, obesity. The 
DPP demonstrated that millions of overweight adult Americans at risk 
for type 2 diabetes can delay and possibly prevent the disease by 
improving their diets and engaging in moderate exercise. We are working 
to get this message to health care providers and to Americans at risk, 
in the hope of helping millions to avoid developing type 2 diabetes.
    In complementary efforts, the NIDDK is also currently funding 
investigators who are designing a trial to prevent type 2 diabetes in 
children and adolescents, using a school-based approach that includes 
lifestyle changes. This initiative will begin in fiscal year 2003. We 
view these efforts as especially important in light of recent reports 
of the increase in type 2 diabetes and obesity in children and 
adolescents, especially in minority populations. Other pilot studies 
under way are likewise focused on preventing obesity, and some of these 
also target children and adolescents. As with other trials, once we 
find interventions that work, we will use the NDEP to disseminate 
information to those who can benefit. The NDEP's ``Diabetes in Children 
and Adolescent Work Group'' has been established to raise awareness 
among health care providers about diabetes in children and adolescents 
and to improve early diagnosis, treatment, and management of children 
with diabetes, as well as those at risk for diabetes. The Work Group 
has developed several resources for children with diabetes 
(www.ndep.nih.gov) including a fact sheet, resource directory, and 
annotated bibliography. A manual targeted to school personnel, which is 
designed to encourage optimal management of children with diabetes in 
the school setting, is under development. The Work Group is continuing 
its efforts to promote knowledge of the link between diabetes and 
obesity among children and adolescents. In addition to the NDEP's 
efforts, the Weight-control Information Network (WIN), another health 
information program of the NIDDK, is also developing science-based 
information about the overall health benefits of regular exercise and 
healthy eating for health care providers and the public, including 
parents with children who are overweight and at risk for developing 
type 2 diabetes.
    Another component of the NDEP that is an important corollary to its 
messages about the benefit of improvements in diet and exercise is its 
newly launched campaign entitled ``Be Smart About Your Heart: Control 
the ABC's of Diabetes.'' This campaign is designed to make people with 
diabetes aware of their high risk for heart disease and stroke and the 
steps they can take to lower that risk dramatically. The campaign 
emphasizes managing blood glucose (best measured by the Alc test), 
blood pressure, and cholesterol. The ``ABC'' campaign was mentioned in 
the March 24, 2002, issue of Parade Magazine, which reaches millions of 
Sunday newspaper subscribers.
    Using all of the avenues I have described, the NIDDK and its 
partners in NDEP are attempting to reach and educate all segments of 
the population to inform them of the risks of obesity and its dire 
consequences.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                        anthrax vaccine purchase
    Question. The NIH budget proposes to spend $250 million for 
``anticipated procurement of anthrax vaccines currently under 
development and testing.'' If Congress approves this request, it would 
reduce the biomedical research funding by $250 million. Vaccine 
purchase is usually funded through the CDC--not through the NIH.
    Isn't it unusual for the NIH to be spending $250 million for the 
purchase of an anthrax vaccine? Is this request somewhat of a double 
count--it counts towards your doubling of the research funds and then 
also counts towards the overall bioterrorism number?
    Answer. The nation has an urgent and compelling need to have a 
second-generation anthrax vaccine product quickly available. At the 
moment, a second-generation anthrax vaccine still needs to be developed 
and tested. Due to the accelerated nature needed to do the research, 
develop, test, and purchase this vaccine in a short time, NIH is taking 
the lead. Ultimately, the vaccine, when purchased, will be managed by 
CDC as part of the national stockpile. NIH will not become a stockpile 
manager for this vaccine.
    The request to use $250 million to develop, test, and purchase a 
second-generator vaccine product does meet both categories--the 
development and testing of the product is an integral part of this 
purchase and the end product is a key tool to help counter a crucial 
bioterroristic threat.
                                smallpox
    Question. There was an article in Tuesday's Wall Street Journal 
that describes the debate surrounding the inclusion of an anti-viral 
drug known as cidofovir (pronounced--side-off-a-veer) in the National 
Pharmaceutical Stockpile. The article quotes Dr. James LeDuc of the 
Centers for Disease Control and Prevention as saying that cidofovir 
``continues to look good'' as a treatment for smallpox. The article 
also says the CDC backs the idea of stockpiling cidofovir. However, Dr. 
D.A. Henderson, who is coordinating the Department's Bioterrorism 
Preparedness activities, is skeptical. Recent press accounts of a 
variant of cidofovir that is taken orally sound promising. What is your 
opinion of placing anti-virals, such as cidofovir, in the National 
Pharmaceutical Stockpile?
    Answer. Placing antivirals in the National Pharmaceutical Stockpile 
is an important tool for the nation to have to combat and neutralize 
bioterroristic threats and agents of bioterrorism. We believe that the 
issue of whether to include cidofovir in the National Pharmaceutical 
Stockpile needs to be addressed; both, for the treatment of smallpox, 
and for the treatment of the rare complications of smallpox 
vaccination. Experience with other antivirals suggests that for 
cidofovir to be effective, the product must be available to administer 
as soon as possible after infection or after symptoms appear. However, 
few pharmacies keep more than a few doses of cidofovir on the shelf. 
With supplies of cidofovir being limited, other organizations, 
including DOD, are planning purchases. Ultimately, the decision on what 
products to include in the National Pharmaceutical Stockpile will be 
determined by the Secretary in consultation with the director of the 
Office of Public Health Preparedness (OPHP) and the Center for Disease 
Control and Prevention (CDC). OPHP and CDC are themselves advised by 
other DHHS experts that includes representatives from NIH.
    Research conducted on the oral variant of cidofovir, HDP-cidofovir, 
looks promising in animal models. Further studies are needed to 
determine the efficacy in humans before it is made available.
                       basic & clinical research
    Question. This Subcommittee has been NIH's biggest supporter when 
it comes to providing additional funding for basic research. As a 
result of that funding, scientists have gained considerable knowledge 
about human genes and cells. When we reach the doubling goal in 
October, what is going to become of this investment--what is the next 
step? How do we translate that new scientific knowledge into better 
treatments and cures for sick people?
    Answer. The Human Genome Project is providing biomedical 
researchers with a vast and unprecedented amount of new biological 
information. The first draft of the human genome sequence was completed 
in 2001 and the final sequence is expected to be completed by 2003, 
well ahead of schedule. The goal of sequencing the human genome is to 
better understand normal human physiology and, ultimately, to find the 
root causes of many of our most devastating diseases. The human genome 
sequence is the first step in this effort.
    With this new information scientists must now gain an understanding 
of the proteins expressed by each gene and the roles such proteins play 
in all biological processes. The NIH plans to undertake a number of 
activities, including large-scale efforts to determine the three-
dimensional structures of all proteins in nature, as well as the 
development of innovative research technologies and databases essential 
to the exploration of protein expression, structure, and function. By 
using our knowledge about genes, their expressed proteins, and the role 
they play in disease, future treatments will be based on the underlying 
causes of disease, rather than its symptoms. Such information will also 
help classify diseases by subtypes that may respond to different 
treatments or result in different or varied side effects.
    New knowledge about genes and proteins is just one step on the way 
to improving health. The translation of basic biomedical findings into 
clinical studies on human subjects and populations helps scientists is 
the essential link on the road to new and more effective prevention 
strategies, diagnostics, treatments. To this end, the NIH also plans to 
engage in new and renewed efforts in clinical research and 
epidemiology.
    The NIH research program spans all aspects of the medical research 
continuum, including basic research, observational and population-based 
research, behavioral research, clinical research, and health services 
research. In addition, the timely dissemination of medical and 
scientific information is a key part of what we do as is the 
expeditious transfer of the results of NIH-funded medical research to 
the broader research community, both public and private, for use in 
further research and development.
    NIH develops and disseminates informational materials to 
individuals and groups, including medical and scientific organizations, 
industry, the media, and volunteer and patient organizations. 
Information dissemination efforts have expedited the translation of 
NIH's scientific advances and technologies into important diagnostic, 
preventive, and therapeutic products. In addition, they have brought 
about major health-enhancing changes in public attitudes and behaviors, 
such as reduction of smoking and better control of high blood pressure 
and high cholesterol levels. To effectively reach diverse audiences, 
whose knowledge of science and health differ, NIH disseminates 
information ranging from highly technical research advances to the 
steps individuals can take to improve their own health.
    NIH disseminates information on scientific findings and 
technologies to scientific and other health professionals through 
various avenues: scientific publications, workshops and symposia, 
scientific meetings, consensus development conferences, press releases, 
special physician education programs, and clinical alerts concerning 
immediate health and safety issues. NIH also provides access to 
information about scientific articles, NIH research grants, clinical 
trials and treatment through extensive electronic databases.
    Additionally, as a federal R&D agency, the NIH has a statutory 
mandate to engage in technology transfer activities for discoveries 
that must be brought to the market by a company in order to benefit the 
public. The requirement is applied to recipients of NIH research grants 
and contracts as well as our own intramural research activities. In 
return for title to inventions developed under NIH support, recipient 
institutions enter into agreements (licenses) with commercial partners 
to undertake additional research and development with the invention and 
ultimately bring a product to market. Internally, we evaluate new 
research discoveries, seek patent protection if further development is 
needed, and market the technology to potential licensees. These 
companies are monitored in their efforts to move the technology to the 
market place in an expeditious manner.
    Question. When he was NIH Director, Dr. Harold Varmus called 
clinical research an ``embattled enterprise.'' He implied that we are 
not training enough physician scientists, the people who are best 
equipped to use research to find help for patients. Where do we stand 
now? Are we attracting enough physician scientists into this field of 
research? Do you have anyone advising you on the direction clinical 
research should be going, like an office of clinical research or an 
advisory board?
    Answer. The clinical research enterprise has improved. The NIH has 
made substantial efforts in the training and career development of 
physician scientists since Dr. Varmus' assessment. He led the 
development of several programs designed to encourage physician 
scientists into research careers. For example, the patient-oriented 
research career development program and the mid-career investigator 
award in patient-oriented research are products of his efforts. As 
shown in the data below, since 1998, there has been a steady increase 
in the number of physicians in the NIH training programs and career 
development programs:

        Fiscal year \1\                               Total number of MD

1998.............................................................. 3,222
1999.............................................................. 3,452
2000.............................................................. 3,608

\1\ Fiscal year 2001 data are not yet available since trainee 
appointments are made several months after training grants have been 
awarded.

    The NIH is committed to continue its support of physician 
scientists to ensure that there is a sustainable workforce in this 
important area of research. The number of physician scientists who are 
principal investigators in clinical research has increased. In fiscal 
year 2000, there were 5,562 and in fiscal year 2001, the number has 
increased to 6,815.
    The NIH has an Associate Director for Clinical Research. In 
addition, each Institute and Center, including the Office of the 
Director, has a National Advisory Council to provide programmatic 
advice and guidance to the Institute Director. These councils have 
clinical researchers as members.
                           clinical research
    Question. What elements need to be in place to move information 
from the research laboratory into the hands of physicians who are 
treating patients? Ideally, there should be a balance between basic 
science and clinical research. How much is NIH devoting to each of 
these categories? Do you think that's the right balance to get more 
information into the hands of physicians? Does NIH set aside a certain 
proportion of grants for clinical research?
    Answer. The NIH invests the public's resources and support for 
medical research in four basic and interrelated ways. First and 
foremost, NIH supports and conducts medical research. Second, it 
contributes to the development and training of scientific talent. 
Third, it participates in the support, construction, and maintenance of 
laboratory facilities in Bethesda and around the Nation that are 
necessary for conducting cutting-edge medical research. Fourth, NIH 
engages in a wide variety of knowledge dissemination activities to help 
ensure that knowledge gained from NIH supported basic and clinical 
research will be moved from the laboratory to treatment providers in a 
timely manner. By focusing its efforts on both basic and disease-
specific research, the NIH can achieve both near-term improvements in 
the diagnosis, treatment, and prevention of specific diseases, as well 
as long-term discoveries in basic science that hold the promise of even 
greater medical advances.
    In fiscal year 2003, NIH estimates that $14,454 billion of direct 
funding will be spent on basic research, and $11,280 billion on applied 
research, which encompasses the clinical research program.
    NIH does not set aside a certain proportion of grants for clinical 
research. Most of the NIH's budget supports the individual research 
projects conceived of and conducted by either government scientists 
working on the NIH campus or scientists based elsewhere, at 
universities, medical, dental, nursing, and pharmacy schools, schools 
of public health, non-profit research foundations, and private research 
laboratories. These basic research projects may appear initially to be 
unrelated to any specific disease, but might prove to be a critical 
turning point in a long chain of discoveries that might prove relevant 
to clinical problems important to that Institute's mission.
    The NIH does recognize the critical need for increased investment 
in clinical research, however, and towards that end has created several 
new programs to foster greater participation by clinicians in research, 
including the Clinical Research Training and Career Development 
initiatives, such as the Mentored Patient-Oriented Research Career 
Development Award (K23), the Midcareer Investigator Award in Patient-
Oriented Research (K24), and the Clinical Research Curriculum Award 
(K30), as well as the creation of the Extramural Clinical Research LRP, 
and the Pediatric Research LRP. These new programs will help to 
increase the number of outstanding investigators in clinical research 
in the future, and hasten the translation of basic research into 
improved health for all Americans.
    Question. To what extent are clinical researchers included on 
review panels that consider applications for clinically-oriented 
research?
    Answer. The Center for Scientific Review (CSR) recently conducted 
an informal poll of reviewers currently serving on its review 
committees. The poll indicated that approximately 34 percent of 
reviewers are engaged in patient care and 27 percent see patients as 
part of their research activities.
    New opportunities to apply the results of basic scientific 
discoveries to human health problems have generated increased need for 
reviewers with clinical research experience. CSR has initiated a number 
of outreach activities to establish closer ties with professional 
clinical research societies. In addition, CSR staff work closely with 
funding institutes and centers to identify appropriate clinical 
researchers to serve on review committees. Finally, CSR recognizes 
that, because of their other responsibilities, clinical researchers are 
often quite limited in the time they have available to participate in 
review activities. We are working to find ways to accommodate the 
special review service needs of clinical researchers.
                       minority aging/alzheimers
    Question. By 2030, minorities will represent 25 percent of the 
elderly, compared with 16 percent today. Some studies are now showing a 
higher prevalence of Alzheimer's disease in certain minority groups. 
New evidence suggests that two diseases that are especially common in 
minority populations-namely diabetes and hypertension-are associated 
with an increased risk of Alzheimer's disease. Does it have any plans 
to pursue research in this area in fiscal year 2003?
    Answer. NIH recognizes the high prevalence of Alzheimer's disease 
(AD) in racial and ethnic minorities and plans to continue research in 
this area. One important and expanding research focus is on the 
possible interactions among other health conditions, particularly 
cardiovascular disease and diabetes, and the risk of developing AD. 
Both high blood pressure and diabetes are prevalent in some minority 
populations; and the NIA is funding a number of epidemiological and 
basic science studies to identify such risk factors, and to analyze 
their interaction with genetic risk factors in affecting the likelihood 
of developing AD. A number of NIA-supported epidemiology studies are 
specifically designed to include minorities, with some emphasizing 
possible interactions between other organ systems and the brain. For 
example, in an NIA-funded study published last year, researchers at 
Columbia University showed an association between diabetes and the risk 
of AD in a group of patients that were 45 percent Hispanic and 32 
percent African-American. Studies on possible mechanisms linking 
diabetes and cognitive decline and AD are underway.
    Increased systolic blood pressure (the ``top number'' in a blood 
pressure reading, measuring the pressure on the blood vessel walls as 
the heart beats) has also been associated with increased risk for AD in 
several epidemiology studies. The mechanisms by which high blood 
pressure may contribute to AD brain pathology is being studied in 
animals and humans. In one study, researchers are comparing patients 
with vascular dementia (cognitive dysfunction caused by damage to the 
blood vessels in the brain) and patients with AD. By following these 
patients using positron emission tomography (PET scans) to study the 
brain's metabolism, as well as other tests, researchers hope to better 
understand the mechanisms leading to both conditions, and possible 
interactions between them. The Institute also recently funded a number 
of research projects to investigate the relationships among 
hypertension, aging, cognition and brain pathology
    The 29 NIA-supported Alzheimer's Disease Centers are conducting 
research on etiology, pathogenesis, treatment and the effects of the 
disease on the daily life of patients with AD and their families. Many 
Centers have set up Satellite clinics in minority neighborhoods to 
enhance the recruitment of minority subjects into research programs. In 
recent years minority subjects represented approximately 16 per cent of 
the patients enrolled in the Alzheimer's Centers. Research is being 
carried out to determine differences in the age of onset among 
different patient groups, the differential influence of risk factors 
that affect development of disease in various racial and ethnic 
populations, responses to experimental drug treatment, and coping and 
support strategies used by minority families and communities to deal 
with the stresses of caring for patients with AD.
    The NIA and the National Center on Minority Health and Health 
Disparities (NCMHD) have worked collaboratively on supporting research 
efforts on Alzheimer's disease and other aging related conditions 
affecting minority populations. The NIA and NCMHD are collaborating in 
two broad program areas, the Nathan Shock Centers of Excellence in 
Basic Biology of Aging and the Resource Centers for Minority Aging 
Research (RCMAR).
    The Nathan Shock Centers of Excellence in Basic Biology of Aging 
are designed to stimulate and enhance research into the basic 
biological processes of aging. Ultimately, research at the Centers is 
expected to yield breakthroughs in understanding the course of normal 
aging and the diseases and conditions that affect older people, such as 
Alzheimer's disease, frailty, and cancer. This program has placed 
significant emphasis on increasing the expertise of minority 
investigators and minority-serving institutions in biology of aging 
research. The RCMAR program represents one of NIH's most focused 
efforts to build the national research infrastructure for minority 
aging research. The six RCMAR Centers are actively involved in 
establishing a research mentoring mechanism in minority health, 
enhancing professional diversity in minority health research, 
developing measurement tools tailored to minority populations, and 
developing strategies for recruiting and retaining minority research 
participants. RCMAR efforts include research on AD.
                       information dissemination
    Question. Over the past few years, we have seen remarkable strides 
in understanding Alzheimer's disease. The question is how quickly can 
some of that new information be put into the hands of physicians and 
hospitals? Along the same lines, do you feel that there are sufficient 
clinical researchers trained to translate all of this new knowledge 
into treatments and better patient care?
    Answer. The National Institute on Aging (NIA) places a high value 
on sharing our improved understanding of Alzheimer's disease with both 
the public and medical communities, especially physicians and other 
health care providers. To accomplish this mission, the NIA has 
developed a number of programs and products to ensure the transmission 
of accurate and up-to-date information about Alzheimer's disease. In 
1990, the Congress directed the establishment of the Alzheimer's 
Disease Education and Referral (ADEAR) Center at NIA. Since that time, 
the ADEAR Center has delivered the latest information about Alzheimer's 
disease through its toll-free information service, publications 
program, databases, news releases, exhibits at professional meetings, 
and liaison with other NIA programs such as the Alzheimer's Disease 
Centers (ADCs) program and the Alzheimer's Disease Cooperative Study 
(ADCS). More recently, NIA has established a web site to provide 
information 24 hours a day, and worked with the Food and Drug 
Administration (FDA) and the National Library of Medicine (NLM) to 
provide up-to-date information about clinical trials being conducted in 
the field of Alzheimer's disease and other dementias.
    Two publications are specifically aimed at the medical community--
the annual Progress Report on Alzheimer's Disease and the quarterly 
newsletter Connections. The Progress Report details the advances being 
made in Alzheimer's disease research at NIA and the other NIH 
Institutes. This report is distributed widely to medical professionals, 
hospitals, researchers, and interested members of the general public. 
Through notices in their newsletters and other publications, we are 
able to help medical professionals keep up-to-date on AD research 
developments. Copies of the Progress Report are provided to the 
Alzheimer's Disease Centers, who distribute them at local conferences 
and meetings. Thus, we are able to use one centrally developed 
publication to share information through many channels. In the past 10 
years, the size of the report has more than doubled. The current and 
past editions of the report are available at the ADEAR web site, and 
can be downloaded from a pdf file.
    In addition to these resources, we provide health professionals, 
hospitals, Alzheimer's Association chapters, community and voluntary 
groups, and our grantees with publications to help them educate the 
public about Alzheimer's disease. To increase the reach of our efforts 
we have tried to capitalize on the new technologies available to 
communicate our messages about Alzheimer's disease research. For 
example, the AD clinical trials database provides the latest 
information about clinical trials that are being conducted. At the 
ADEAR web site, physicians and others can locate detailed information 
about current trials as well as the clinical trial sites located 
nearest to them. In many cases, direct linkage is provided to the study 
through an email hot link. In addition, members of the medical 
community can sign up for automatic email notification when new trials 
are posted. Last year more than 600,000 individual visits were made to 
the ADEAR web site.
    The NIA has a history of training physician-scientists by using 
several grant mechanisms--Alzheimer's Disease Centers, Program Project 
research grants, Leadership and Excellence in Alzheimer's Disease 
(LEAD) grants, the Alzheimer's disease Cooperative Study and career 
development awards (K series)--all of which have provided multi-
disciplinary training and mentorship to young physicians. To further 
augment research training for new investigators, the NIA is providing 
funds for young physician scientists under the Alzheimer's Disease 
Clinical Research and Training Awards program, (Public Law 106-505, the 
Public Health Improvement Act) passed during the 106th Congress. Six 
awards are being made in fiscal year 2002 under this new program and we 
are in the process of soliciting new applications for fiscal year 2003. 
The next generation of clinical researchers will be better prepared to 
translate research advances into clinical practice because of better 
training in the basic mechanisms underlying the disease process.
                                 autism
    Question. I have been hearing about a great increase in the 
incidence of autism in America, particularly in California. What can 
you tell me about that?
    Answer. The reported increase in the incidence of autism in 
California, and elsewhere in the United States, is likely to be the 
result of a number of factors. There is much more awareness of autism 
between professionals and parents than there has been in the past, so 
it is more likely that autistic individuals are identified and 
diagnosed. Most researchers believe that a large portion of the 
increase is likely due to improved techniques for diagnosing the 
disease; increased awareness of the condition; more referrals due to 
availability of services; and a greater social willingness to identify. 
Also, autism is now recognized as a spectrum of disorders, so the 
criteria for classifying an individual as autistic have been expanded. 
Thus, individuals that, previously, may have been classified with other 
disorders (e.g., learning impairment) may now be included under the 
expanded definition of autistic disorder. So, we do not know if there 
is, in fact, an actual increase in the incidence of autism because 
accurate assessment of any increase is confounded by changes in the way 
we define, diagnose, and possibly even report current cases of autism.
    Question. Tell us how you have implemented the provisions of the 
Children's Health Act of 2000 with regard to autism.
    Answer. Children's Health Act of 2000 (Public Law 106-310) Title I 
focused on autism. The Act was authorizing legislation requiring major 
enhancements of research activities at the Centers for Disease Control 
(CDC) and NIH, as well as mandating the establishment of an Inter-
Agency Autism Coordinating Committee (IACC) to enhance communication 
and effective interaction among the several agencies that support or 
conduct autism-related research, service, or educational activities. 
NIMH was designated as the lead among NIH Institutes and Centers (IC) 
and was also later delegated (from the Secretary, Department of Health 
and Human Services (HHS) the authority to organize the IACC, except for 
the appointment of public members, which the Secretary reserved. The 
NIH activities required by the Act have been coordinated by the NIH 
level Autism Coordinating Committee, which remains functional and in 
close communication with the IACC. The Institutes have retained control 
over their own activities, such as the long-standing Collaborative 
Programs for Excellence in Autism (CPEAs), a network of sites funded by 
NICHD and NIDCD.
    In November 2001, NIMH led the organization and implementation of 
the inaugural meeting of the IACC, which included the public members 
selected by the Secretary of HHS. The date of the second meeting, May 
24, 2002, has been set. The IACC is on the schedule to meet twice a 
year as set forth in the Children's Health Act.
    NIH issued an Request For Applications (RFA) to implement, on a 
fast-track, the requirement of the Children's Health Act that there be 
established a new center's program for autism research. These 
comprehensive centers are to be called STAART (Studies to Advance 
Autism Research and Treatment) Centers. Eleven applications were 
received in response to this initial RFA and were reviewed in March 
2002 for funding in approximately July 2002. A second round of 
competition will have a deadline for applications of August 2002, with 
funding of the successful applications in 2003. The participating NIH 
institutes (NIMH, NICHD, NINDS, NIDCD, NIEHS) have established a pool 
of $12 million per year (including $8 million per year from NIMH) to 
fund the full cohort of centers that will be established by 2003.
    NICHD/NIDCD will competitively renew their long-standing CPEAs--
Cooperative Program for Excellence in Autism. The CPEAs program will 
expand to be essentially the same size as the STAART program, and the 
NIH commitment to each of these programs will continue for at least the 
next five years.
    The overall commitment of NIH to autism research continues to 
expand substantially each year. The internal NIH Autism Coordinating 
Committee continues to be active at the NIH level, and has a strong 
relationship with the IACC so that NIH activities will be coordinated 
with those of other agencies. This year the ACC endorsed two RFAs: one 
for developmental grants for groups intending to submit applications 
for the STAART competition, and one for innovative research into 
treatments for autism. For fiscal year 2001, the total NIH commitment 
to autism research was about $56 million, with the NIMH contribution 
being larger than that for any other IC, although this is due, in part, 
to NIMH being more inclusive in the scope of research included in this 
total.
    Section 105 of the Act calls for an annual report from the 
Secretary regarding activities of the Federal government on autism. The 
report for 2001 was drafted by NIMH with input from the FDA, CDC, and 
other NIH ACC institutes. The report was signed by the Secretary on 
March 12, 2002 and sent to Members of Congress.
    In summary, NIMH/NIH are on schedule in terms of implementing the 
letter and the spirit of all of the aspects of the Children's Health 
Act that fall within their purview.
                     bone disease and osteoporosis
    Question. We understand that bone diseases, such as osteoporosis, 
affect a lot of people in this country, and that these diseases are 
debilitating and extremely costly to our Medicare program. In fact it 
has been reported that osteoporosis and low bone mass are a threat for 
almost 44 million U.S. women and men aged 50 and over. Doctor, is there 
a trans-NIH plan currently in place to address bone diseases? Please 
share the details of the plan with the committee-such information will 
be helpful as we allocate resources among the various institutes.
    Answer. The NIAMS is committed to stimulating and supporting 
research to enhance our understanding of the causes of, and potential 
treatments for, osteoporosis and related bone diseases. Several years 
ago, the Institute initiated the Federal Working Group on Bone 
Diseases, an interagency committee comprised of the NIAMS and ten other 
NIH components as well as other Federal agencies. This group focuses on 
osteoporosis, Paget's disease, and other bone disorders and offers a 
forum for sharing information and facilitating the development of 
collaborative research activities based on each Institute's mission.
    The NIH Consensus Development Conference on Osteoporosis 
Prevention, Diagnosis and Therapy is an important example of a trans-
NIH activity. This conference, held in March 2000, was sponsored by the 
NIAMS and the NIH Office of Medical Applications of Research. This 
three-day conference provided a platform for national and international 
experts to present and discuss the latest research findings on 
osteoporosis. The panel recommended several areas for future research 
including improved diagnosis and treatment of secondary causes of 
osteoporosis, such as that resulting from the use of glucocorticoids; 
developing quality-of-life measurement tools that incorporate gender, 
age and race/ethnicity; and conducting randomized clinical trials of 
combination therapies to prevent or treat osteoporosis.
    There are many other examples of trans-NIH osteoporosis and related 
bone disease initiatives undertaken by the NIAMS. In 1999, the 
Institute joined with the National Institute on Aging (NIA) and the 
National Cancer Institute to support a major study of osteoporosis in 
men. This 7-year, seven-center study will follow 5,700 men 65 years and 
older and determine the extent to which the risk of fracture in men is 
related to bone mass and structure, biochemistry, lifestyle, tendency 
to fall, and other factors. In 2001, the NIAMS, the NIA and the 
National Institute of Child Health and Human Development sponsored a 
solicitation for New Research Strategies in Osteogenesis Imperfecta. As 
a result, the NIAMS funded several new grants to support research 
activities ranging from cutting-edge gene and cell therapies to testing 
drug treatments on animal models. Also in 2001, the NIAMS joined the 
National Heart, Lung and Blood Institute to support research on bone 
formation and calcification in cardiovascular disease. Most recently, 
the NIAMS and the National Institute of Dental and Craniofacial 
Research released a solicitation for New Research Strategies for 
Evaluation and Assessment of Bone Quality. This initiative focuses on 
novel means of assessing bone quality, elucidating relationships among 
disease- and aging-related changes in bone quality, gender variations 
in bone quality and increased bone fragility and fracture 
susceptibility.
    In addition to the Institute's support of extramural research in 
osteoporosis and related bone diseases, there are intramural research 
efforts underway. For example, the NIAMS is leading a consortium 
focused on developing a trans-NIH collaboration in musculoskeletal 
medicine. This trans-NIH effort will build on strengths that are 
already present and are beginning to be coordinated, enhance research 
productivity through synergy of the programs, develop new programs, 
recruit new investigators, coordinate with existing and newly developed 
clinical programs, and make it possible to create a national resource 
in this critical and underserved area of research.
    Finally, in the area of information dissemination, the NIAMS and 
five other NIH components support the NIH Osteoporosis and Related Bone 
Diseases National Resource Center. The resource center collects, 
develops and disseminates information on a variety of bone diseases. 
Its mission is to expand awareness and to enhance knowledge of the 
prevention, early detection, and treatment of these diseases, as well 
as develop strategies for coping with them.
    Question. Dr. Katz, it would appear that NIAMS is the lead NIH 
institute for bone research. Can you tell the committee what you see 
for the future of bone research--especially as it relates to women's 
health? Also, we understand that bone diseases, such as osteoporosis, 
affect men as well. Is this a serious problem for men?
    Answer. The NIAMS has a major interest and investment in research 
on bone diseases, such as osteoporosis, Paget's disease, and 
osteogenesis imperfecta. In a recent advance, NIAMS supported 
researchers have determined that estrogen affects programmed cell death 
(apoptosis) in cells that are responsible for degradation of bone 
(osteoclasts). Most recently, scientists have determined that either 
estrogen or androgen (a steroid that maintains masculine 
characteristics) can have this anti-apoptotic effect, and that it can 
be mediated by either estrogen receptors or androgen receptors, 
regardless of which sex hormone is present. By paving the way for 
future assessment of whether drugs can also affect the programmed cell 
death of osteoclasts--thereby making them potentially useful as bone-
protecting treatments--this discovery represents an exciting link 
between basic research and tangible patient benefit.
    Patient-based research has shown that elderly women who already had 
several spine fractures at the start of a study experienced the 
greatest health benefit from calcium supplementation, both in terms of 
reducing the rate of new spine fractures and stopping bone loss. This 
finding has clear implications for developing and targeting new 
preventive strategies.
    In 1991, the NIAMS joined the National Heart, Lung and Blood 
Institute and several other NIH components in the creation of the 
Women's Health Initiative (WHI). The WHI is a long-term national health 
study that focuses on prevention strategies for cardiovascular disease, 
cancer and osteoporosis in postmenopausal women. The research completed 
through the WHI will strengthen both osteoporosis prevention and 
treatment.
    In other research on women's health, osteoporosis is also a major 
complication of systemic lupus erythematosus. The NIAMS continues to 
support the Safety of Estrogen in Lupus Erythematosus National 
Assessment (SELENA) study which examines the effects of hormone 
replacement therapy on lupus activity in postmenopausal women, and 
studies the effects of oral contraceptives. In the next few years, 
researchers will determine the effects of oral contraceptives on 
osteoporosis.
    The NIAMS continues to support research in bone disease as it 
relates to women's health through several new initiatives. In 2001, the 
NIAMS joined the National Heart, Lung and Blood Institute to support 
research on bone formation and calcification in cardiovascular disease, 
and with the National Institute of Child Health and Human Development 
and the National Institute on Aging to stimulate new applications on 
osteogenesis imperfecta. More recently, the NIAMS has released 
solicitations for New Research Strategies for Evaluation and Assessment 
of Bone Quality, and for proposals on Pilot and Feasibility Trials in 
Osteoporosis. In addition, the NIAMS continues to support research on 
combination therapies in the treatment of osteoporosis.
    With respect to osteoporosis in men, the NIAMS has joined with the 
National Institute on Aging and the National Cancer Institute to 
support a major, multi-center study to better understand the risk 
factors that predispose aging men to bone fractures and osteoporosis. 
The study will follow 5,700 men 65 years and older and determine the 
extent to which the risk of fracture in men is related to bone mass and 
structure, biochemistry, lifestyle, tendency to fall, and other 
factors. The project will also try to determine if bone mass is 
associated with an increased risk of prostate cancer.
    We believe that the future is very promising for women of all ages 
because of our improved understanding of osteoporosis, as well as 
better diagnostic tools and treatments--all as a result of medical 
research. We are also gaining insights into the increase of 
osteoporosis in men, a growing public health problem as men live 
longer. The future of bone research has unprecedented opportunities 
primarily because of the sophisticated research tools now available in 
medical research that will improve the understanding, diagnosis, 
treatment and prevention of osteoporosis.
    Question. Briefly describe any initiatives that are currently 
underway or that you plan to undertake to learn more about osteoporosis 
in men.
    Answer. Although American women are four times as likely to develop 
osteoporosis as men, an estimated one-third of hip fractures worldwide 
occur in men. In addition, men are now much more likely to live into 
their eighth and ninth decade than 20 years ago. As other causes of 
early mortality in men are reduced, there is a greater need to focus on 
chronic disabling conditions such as osteoporosis that can limit 
independence and affect quality of life. Men tend to get osteoporosis 
an average of ten years later in life than women, a difference that has 
been attributed to a higher peak bone mass at maturity and a more 
gradual reduction in sex steroid influence in aging men.
    In 1999, the NIAMS launched a major study of osteoporosis in men 
with the awarding of a 7-year, 7-center, $23.8 million grant, in 
partnership with the National Institute on Aging and the National 
Cancer Institute. The study is enrolling and following 5,700 men ages 
65 and older, and is determining the extent to which the risk of 
fracture in men is related to bone mass and structure, biochemistry, 
lifestyle, tendency to fall, and other factors. The study is also 
trying to determine if bone mass is associated with an increased risk 
of prostate cancer. Such a relationship is already known to exist 
between high bone mass and breast cancer in women, another hormonally 
sensitive condition.
    Question. What initiatives are currently underway to expand 
research in Paget's disease? Are you making any progress in 
understanding the cause of this disease? How large a research 
investment are you making in finding the cause of Paget's disease?
    Answer. Paget's disease is a chronic disorder that typically 
results in enlarged and deformed bones. The excessive breakdown and 
formation of bone tissue that occurs in Paget's disease can cause bone 
to weaken, resulting in bone pain, arthritis, deformities, and 
fractures. In addition to considerable support for research on basic 
bone biology--which could have implications for our understanding of 
Paget's disease--the NIAMS continues to fund a number of projects 
focused on this disorder, including investigations of the viral and 
genetic factors contributing to Paget's. For example, current research 
is working toward the development of an animal model of the disease by 
introducing viruses or expressing viral genes in mice.
    Genetic research has linked Paget's disease to chromosome 18q, and 
through numerous grant awards from the NIAMS, researchers are 
investigating the possibility of the involvement of multiple genes in 
the predisposition to the disease. Also, several researchers are 
investigating the occurrence of osteosarcoma in patients with Paget's 
disease--as well as in individuals not affected by Paget's--in order to 
evaluate the presence of a genetic link. Osteosarcomas are believed to 
result from a series of genetic alterations which transform 
osteoblasts, cells that build up bone, into a malignant state. Research 
addressing a genetic link between pagetic osteosarcoma and sporadic 
osteosarcoma will enhance the future development of treatments for both 
diseases.
    In fiscal year 2001, research supported by the NIAMS on Paget's 
disease totaled $1.2 million.
                           public health need
    Question. Do you think that there should be more consideration 
given to public health need when the NIH budget is distributed to 
institutes and centers? For example, demographic data show that we are 
facing a huge increase in the number of elderly Americans as the baby 
boom ages. So, should that be reflected in the budgets of the relevant 
institutes, such as the National Institute on Aging and the National 
Institute of Mental Health? We have also seen that the recent WHO/World 
Bank study has shown that mental disorders are among the leading causes 
of disability both in developed countries and worldwide, particularly 
depression, schizophrenia, and obsessive-compulsive disorder (OCD.) Do 
you think that research at the National Institute of Mental Health 
ought to be commensurate to this need?
    Answer. Public health needs have historically motivated public 
support of medical research. Public health need is one of five criteria 
which shape the NIH budget. The allocation of the NIH budget, the 
formation of Institutes and Centers, and the development of specific 
research programs and offices reflect Congressional, and therefore 
public, concerns with the burdens associated with various diseases and 
conditions as well as with the special needs of the young, the aged, 
women, and minorities.
    An over emphasis on the allocation of funds to specific disease or 
public health need may not, however, be productive, unless there are 
promising scientific opportunities to pursue. Further, consensus on 
relative public health need may be difficult to achieve. Rankings will 
depend on whether need is measured in terms of the number of people who 
have a particular disease, the number of deaths, the degree of 
disability, the economic and social costs, or the threat of the growth 
or spread of the disease in the future.
    The NIH Director and the individual Institute Directors gather and 
receive information and advice for setting research priorities from 
many sources, including science experts, voluntary organizations, 
representatives of the public, and members of Congress. Good 
stewardship of public research funds demands that the NIH leadership 
seek a balance between public health need and other important 
considerations, including the quality of research proposals, the 
pursuit of promising scientific opportunities, the need to maintain a 
diverse portfolio, and the support of the human capital and material 
assessments of science. The public will continue to benefit from NIH's 
stewardship of public funds as long as the Agency continues to 
appropriately balance this complex array of factors in setting research 
priorities.
    Efforts to prolong and improve the health of the aging baby boom 
generation will require the efforts of all of the various NIH 
Institutes and Centers. People are living longer and better, at least 
partly, as a result of research supported by all parts of the NIH. The 
last century witnessed victory over many infectious diseases and the 
improved diagnosis, prevention and treatment of acute conditions.
    Infectious diseases, heart disease, stroke, and cancer, however, 
remain major threats to the aging and the elderly. With the longer life 
and with more people surviving heart attacks, strokes and the diagnosis 
of cancer, more people must also deal with chronic or relatively slow-
progressing conditions. Consequently, research on arthritis, 
osteoporosis, and diabetes are in order. So is research on cognitive 
and neurological impairments, impairments of vision, hearing or speech, 
and other chronic conditions.
    A research focus on the elderly is much too limited to improve the 
functioning and quality of life of elderly in the future. Functioning 
or general health in old age reflect health habits, assaults to health 
and quality of care received throughout the life span, including 
prenatal and early childhood care. As one example, injuries related to 
childbirth plague some women throughout their lives, and contribute to 
pain and disability during later years. As another example, eating and 
swallowing problems associated with poor oral health are linked to 
malnutrition and physical frailty among the elderly.
    Both the National Institute on Aging and the National Institute of 
Mental Health play vital roles for maintaining and improving the health 
of the aging baby boomers. The National Institute on Aging supports 
important research on the aging process and diseases or conditions 
closely linked with aging such as physical frailty and cognitive 
impairment. The prevalence and burden of mental illness for the 
elderly, as well as the general population, has been more extensively 
documented over the past two decades. However, sustaining and improving 
the health of the elderly requires contributions from each of the 
institutes and centers within the NIH.
    The burden of mental illness on health and productivity in the 
United States and throughout the world has long been profoundly 
underestimated. Data developed by the landmark Global Burden of Disease 
study, conducted by the World Health Organization, the World Bank, and 
Harvard University, reveal that mental illness, including suicide, 
ranks second in the burden of disease in established market economies, 
such as the United States.
    Mental illness emerged from the Global Burden of Disease study as a 
surprisingly significant contributor to the burden of disease. The 
measure of calculating disease burden in this study, called Disability 
Adjusted Life Years (DALYs), allows comparison of the burden of disease 
across many different disease conditions. DALYs account for lost years 
of healthy life regardless of whether the years were lost to premature 
death or disability. The disability component of this measure is 
weighted for severity of the disability. For example, major depression 
is equivalent in burden to blindness or paraplegia, whereas active 
psychosis seen in schizophrenia is equal in disability burden to 
quadriplegia.
    By this measure, major depression ranked second only to ischemic 
heart disease in magnitude of disease burden. Schizophrenia, bipolar 
disorder, obsessive-compulsive disorder, panic disorder, and post-
traumatic stress disorder also contributed significantly to the burden 
represented by mental illness. In the United States, mental disorders 
collectively account for more than 15 percent of the overall burden of 
disease from all causes and slightly more than the burden associated 
with all forms of cancer .
    NIMH continuously assesses its allocation of research funds to 
specific areas based on scientific opportunity and public health need. 
As has been apparent recently, the quality of NIMH-funded research has 
encouraged growing and receptive attention to the measurable 
contributions of research to alleviating the public health burden of 
mental disorders. NIMH research priorities reflect these data. The WHO 
evidence regarding the immense--and growing--toll of depressive 
disorders figured prominently in the Institute's decision to select 
depressive disorders (principally major depression and bipolar 
disorder) as the focus its first disorder-specific research strategic 
plan, which will be issued in Summer, 2002. This comprehensive analysis 
of the state-of-knowledge about mood disorders, including gaps and 
opportunities, will ensure optimal targeting of research resources to 
areas of greatest need and likely payoff. In another novel initiative, 
NIMH has launched a treatment development initiative that aims to 
discover innovative treatments to address the most incapacitating--and, 
thus, costly to society--dimensions of schizophrenia and depression. By 
fostering collaboration among NIMH-funded investigators, the FDA, and 
the private sector/pharmaceutical industry, the treatment development 
initiative will leverage increased private sector funding dedicated to 
development of knowledge generated through publicly funded research. A 
final example of the Institute's attention to the findings of the WHO 
study are seen in a series of trials of the clinical effectiveness in 
actual practice settings of treatments for schizophrenia as well as 
adolescent depression and adult bipolar disorder and major depression. 
One of these large trials is examining the effectiveness of newer 
antipsychotic medications in treating Alzheimer's disease. These 
effectiveness trials are unprecedented in the size of the participating 
population samples in the studies, the duration of the trials, and the 
breadth of the inclusion criteria for determining individuals' 
eligibility to participate in the trial.
                     treatments for mental illness
    Question. While we have come a long way in our treatments for 
mental illnesses, I know that many people are still suffering. What is 
the NIMH doing to discover new treatments?
    Answer. Somatic and psychological treatments available today for 
even the most severe mental disorders are highly effective for many 
patients. For an unacceptably large number of persons with mental 
disorders, however, extant treatments are inadequate. Too much time 
often is required for medications to exert therapeutic effect, and many 
patients do not respond fully to a treatment to achieve full remission 
from an acute episode of illness or to avoid recurring episodes; for 
yet others, available treatments simply do not work, for reasons that 
are not clear. We believe NIMH can play an important role in 
accelerating the development of new and more effective medications and 
other interventions to treat mental disorders. The National Advisory 
Mental Health Council also attaches high priority to the discovery of 
novel treatments, and has issued has issued several Council reports--
e.g., Bridging Science and Service; Translating Behavioral Science into 
Action, and Priorities for Prevention Research at NIMH--that call for 
innovative clinical and systems-level treatment research. We are in the 
process of updating for immediate reissuance a Program Announcement 
(PA) meant to encourage development and pilot testing of (1) new mental 
health interventions and methods of delivering care, (2) adaptations of 
existing interventions or services to new populations or new settings 
and (3) novel methods of restructuring the organizational and/or system 
context in which care is delivered. This PA authorizes the R-21 grant 
mechanism to provide resources for evaluating the feasibility, 
acceptability and safety of novel approaches to improving mental 
health, and for obtaining the preliminary data needed as a pre-
requisite to a larger-scale (efficacy or effectiveness) intervention or 
services study.
    The flagship effort in our various ongoing clinical treatment 
research programs is a new Treatment Development Initiative. This 
initiative recognizes that common and disabling mental illnesses such 
as schizophrenia and major depression have a range of symptoms, such as 
hallucinations, disorganized behavior, lack of motivation, poor social 
skills, and impaired thinking and problem solving. Currently available 
medications only target some of these symptoms. As a result, patients 
are often left with serious residual disabilities. For example, while 
one medication may be very effective in controlling hallucinations, it 
may do nothing to alleviate so-called negative symptoms such as lack of 
motivation. NIMH-funded basic research has yielded intriguing clues 
about biological and neurochemical processes that mediate different 
dimensions of mental illness symptoms. Our treatment development 
program will focus on translating these basic research findings into 
new and more effective treatments. Specifically, we will: (1) 
collaborate with private industry in identifying new compounds to 
reduce particular symptoms that are inadequately treated by available 
medicines; (2) develop better measures and methods to test the 
effectiveness of new medications against these symptoms; and (3) work 
with academic, industry, and regulatory officials to achieve consensus 
about what dimensions of mental illness symptoms are inadequately 
remedied by available treatments and therefore represent important 
targets for new medication development. If regulatory agencies accept 
inadequately treated clinical symptoms as valid endpoints for drug 
registration, the pharmaceutical industry will have a powerful economic 
incentive to focus drug development efforts on these important 
individual sources of disability.
    I would add that the inclusion of non-scientists--and particularly 
representatives of mental health service consumer groups--on our 
clinical and treatment-related Initial Review Groups and, of course, 
our National Advisory Mental Health Council assigns a strong voice to 
the need for innovative treatment discovery research.
                      nimh efforts following 9/11
    Question. Since September 11th, we have been hearing reports of 
mental health consequences of the terrorism that shook our country. 
Recently, the Washington Post carried a story about people experiencing 
flashbacks and post traumatic stress disorder. What can you tell me 
about NIMH efforts in this area?
    Answer. We have learned from research that the vast majority of 
those exposed to disasters do not develop a serious mental disorder. We 
have also learned that many people experience very disturbing symptoms 
that interfere with their ability to function for a period of time and 
others will develop quite serious psychobiological disorders (e.g., 
post-traumatic stress disorder (PTSD) and other anxiety disorders, 
depression, substance abuse) that can be severe and/or chronic and 
require treatment. Prior research suggests that widespread mental 
disorders are not anticipated in the U.S. population as a result of the 
September 11, 2001 attacks, yet unprecedented levels of mental 
disorders--particularly in the most affected communities--are 
anticipated, and effective care must be made available to those in 
need.
    A long history of supporting research following natural disasters 
and human-caused emergencies has allowed NIMH to provide some guidance 
on how to respond to the 9/11/01 terrorist attack. NIMH immediately 
established communications with several agencies and departments that 
were mounting a mental health response on behalf of the Federal 
government. This included participating in briefings with the Secretary 
and others within HHS, as well as organizing and delivering educational 
information to the public and to clinicians, and identifying clinical 
and training resources around the country. The intramural and 
extramural programs of NIMH worked with a group of U.S. and 
international research and clinical experts on violence, traumatic 
stress, and disasters to share knowledge with the Substance Abuse and 
Mental Health Services Administration (SAMHSA) and other authorities in 
Maryland, Pennsylvania, D.C., Virginia, and New York. After 
consultations with HHS and NIH, useful information for the general 
public and clinicians lacking trauma experience was posted on the NIMH 
Website.
    The focus of NIMH early post-terrorist guidance fell into three 
areas: (1) helping the public to recognize that the widespread shock 
reactions for the vast majority of people in this country were normal 
and would dissipate with time; (2) providing practical advice on how to 
reassure one another, particularly young children who needed to 
understand that responsible people were trying to make things as safe 
as possible; (3) providing information about seeking professional 
mental health care if problems persisted and interfered with the 
ability to continue daily activities. Guidance was provided about who 
was most at risk and might benefit from mental health services. 
Finally, information was disseminated about what is known about 
effective interventions for both acute and long-term mental health 
concerns.
    It was soon evident that much of what is known comes from research 
on interpersonal violence and trauma or natural disasters. There is not 
yet adequate knowledge about the potential consequences of terrorist 
attacks like those of September 11 and how to mount adequate responses. 
More research is particularly needed on how various risk and protective 
factors impact the likelihood of adverse outcomes such as anxiety or 
depression after trauma. More also needs to be known about the 
neurobiological responses to traumatic stress. This knowledge will be 
key to developing effective interventions for all those who suffer. A 
better understanding of the content of interventions and the most 
appropriate timing for introducing either psychotherapy or medication 
is also needed.
    NIMH has taken steps to foster needed disaster research, 
recognizing that there is a public health need to learn from these 
tragedies in a way that is sensitive to the immediate practical needs 
of trauma victims and their service providers as well as to be better 
prepared to assist those who need help after mass violence wherever it 
occurs. Three approaches are being taken: (1) reactivating the Rapid 
Assessment of Post-Impact Disaster (RAPID) grant program that 
facilitates research following an unforeseen event http://
grants.nih.gov/grants/guide/notice-files/NOT-MH-01-012.html; (2) 
providing supplemental funding for carefully selected and existing 
clinical research and epidemiological studies that could generate new 
information; and (3) adding questions to several nationwide cross-
sectional surveys of health and mental health that might provide 
relevant information. To facilitate these activities, the Institute put 
together a multi-divisional interdisciplinary working group to review 
proposals for supplements to existing grants and applications for new 
research.
    Several new data collection activities are in place and others will 
be getting underway soon. (see URL funding page noted above). These 
projects concern the epidemiology of exposures in children and 
adolescents in the affected communities as well as in the country as a 
whole; the settings where people present for care, as well as the 
health and mental health impact of bioterrorism and its threat; pre- 
and post-attack effects on a wide variety of psychological and mental 
health problems; the impact of living with chronic threat and 
terrorism; the mechanisms by which trauma is linked to illness in 
children bereaved by the attacks; and whether the development of a 
chronic disorder after the attacks can be prevented in people already 
experiencing symptoms of mental illness. NIMH is also supporting a 
number of ongoing surveys, including a replication of the National 
Comorbidity Survey and the National Survey of African Americans (adults 
and adolescents) that collects information on mental disorders, 
impairments, and disabilities.
    To be better prepared in the event of subsequent events/attacks, 
NIMH is exploring how to establish and support disaster mental health 
research education and rapid response centers to overcome 
methodological challenges faced by past disaster studies, and how to 
train new research clinicians and create interdisciplinary research 
teams for rapid data collection efforts after acts of mass violence, in 
conjunction with federal, state and local authorities and researchers.
                 national disease research interchange
    Question. The fiscal year 2002 report asked for a report on the 
NDRI and we would appreciate you promptly submitting the report. Please 
outline what you have done and what you will do to ensure that NCRR 
will substantially increase its core support' for the National Disease 
Research Interchange, and what you have done to expand NDRI's support 
directly from the various institutes at NIH. Please provide actual and 
expected funding for fiscal year 2002 and fiscal year 2003 by 
Institute.
    Answer. The NDRI has been supported, in part, by the National 
Center for Research Resources (NCRR) for 11 years through a cooperative 
agreement entitled ``Human Tissue and Organ Resource for Research'' 
(HTOR).
    Financial support for this activity is expected to increase over 20 
percent during fiscal year 2002, due to an increase in the number of 
institutes participating in this multi-Institute award. NCRR will 
provide approximately $740,000 for NDRI in fiscal year 2002. The 
National Eye Institute will double its co-funding of the HTOR, from 
$100,000 in fiscal year 2001 to $200,000 in fiscal year 2002.
    In fiscal year 2000, National Institute of Diabetes and Digestive 
and Kidney Diseases (NIDDK) agreed to participate in the core support 
of HTOR, providing $25,000 annually. This support will increase to 
$50,000 in fiscal year 2002. The NIH Office of Rare Diseases (ORD) 
began its support for HTOR in fiscal year 2000. ORD, which has a 
mission to address diseases that are within the purview of most other 
Institutes, has elected to increase its annual contribution to $30,000 
in fiscal year 2002. Fiscal year 2002 also saw the addition of the most 
recent NIH participant in the HTOR cooperative agreement, the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases, which has 
agreed to contribute $25,000 annually to the core support.
    To help meet the needs of the research community in obtaining 
tissues for human immunodeficiency virus (HIV) research, the National 
Institute of Allergy and Infectious Diseases (NIAID), with the NCRR, 
has developed a pilot program to determine if the NDRI can provide a 
cost-effective method to make appropriately prepared fresh human tissue 
available for study. This pilot program, costing $300,000 per year, 
supports the procurement and processing of fresh tissue from HIV-
positive individuals, with the tissues being used to address critical 
questions such as the origin and maintenance of viral reservoirs, 
mechanisms of immune reconstitution, and sources of viral diversity. 
The pilot program will be evaluated in fiscal year 2003 at the end of 
its planned 3 years, and a full-scale initiative may be considered 
then.
    Representatives of all Institutes that contribute to the support of 
NDRI participate with NCRR in semi-annual HTOR-NIH Coordinating 
Committee meetings to facilitate the activities of NDRI. The advice and 
oversight provided by the participating Institutes is a focused effort 
to both extend and improve the activity of NDRI in the arenas of many 
diseases. Other components of the NIH whose investigators utilize the 
HTOR resources continue to be informed of NDRI's activities to 
encourage their participation in the HTOR Cooperative Agreement.
    The table below displays funding for NDRI by IC. This award will be 
competing for funding in fiscal year 2003, funding levels will be set 
at this time.

  SUMMARY OF FUNDING FOR NATIONAL DISEASE RESEARCH INTERCHANGE, FISCAL
                             YEAR 2001-2002
------------------------------------------------------------------------
                                                  Fiscal year
          Institute/Center           -----------------------------------
                                            2001              2002
------------------------------------------------------------------------
NCRR................................          $664,000          $740,000
NEI.................................           100,000           200,000
NIDDK...............................            25,000            50,000
ORD.................................            20,000            30,000
NIAID...............................           300,000           300,000
NIAMS...............................  ................           $25,000
                                     -----------------------------------
      TOTAL.........................         1,109,000         1,345,000
------------------------------------------------------------------------

                  focal segmental glomeruloscelerosis
    Question. Dr. Spiegel, I am aware that NIDDK is conducting a 
clinical trial for patients with focal segmental glomerulosclerosis or 
FSGS. In addition to this clinical trial, I understand that NIDDK is 
collaborating with the NephCure Foundation on a joint research program 
involving basic science research. Can you update me on the status of 
this initiative? Additionally, FSGS disproportionately affects African 
Americans. Will this study help to identify the prevalence of FSGS?
    Answer. In June of 2001, the NIDDK released a Request for 
Applications (RFA) entitled ``Multicenter Clinical Trial of Focal 
Glomerulosclerosis in Children and Young Adults.'' This initiative is 
designed to test the relative effectiveness of various interventions in 
preventing progression of FSGS. The NephCure Foundation has indicated a 
willingness to fund some pilot and feasibility studies in conjunction 
with this RFA and we appreciate this ``partnering'' approach which can 
help to synergize and advance research efforts. Applications in 
response to this RFA are currently undergoing review and awards are 
anticipated to be made in September 2002.
    The planned trial will address new therapies for FSGS, not 
prevalence of the disease. Determining the prevalence of FSGS is 
actually a difficult problem, because the disease is relatively 
uncommon and often silent, and the only early manifestation may be 
protein in the urine (proteinuria). Proteinuria is considered both a 
marker of glomerular injury within the kidney and a risk factor for 
progression to end-stage renal disease. The NIDDK is planning a 
workshop for October 2002 that will focus on strategies for screening 
for proteinuria. The development of guidelines for proteinuria 
screening is a critically important step that should pave the way for 
studies to assess the prevalence of FSGS and other kidney diseases.
    You are correct that the impact of glomerular disease is greater in 
non-Caucasian populations. Compared to rates of Caucasians with end-
stage renal disease due to glomerular disease, rates in African 
Americans are more than twice as high, and rates in Native American and 
Asian American populations are almost twice as high.
                           neurofibromatosis
    Question. Dr. Kirschstein and Dr. Andrew von Eschenbach, I have 
long been supportive of Federal funding for Neurofibromatosis. In 
Fiscal 1992, I included language in the Senate Committee Report asking 
the National Cancer Institute to initiate a NF research program, and 
for the past several years this Subcommittee has included report 
language under the National Cancer Institute, NINDS, and other 
institutes encouraging those institutes to expand their NF research 
portfolios. I am concerned that while this Subcommittee has 
dramatically increased funding for NIH, the Cancer Institute has 
actually decreased funding for NF from $6.87 million in fiscal year 
2000 down to $4.5 million in fiscal year 2002. What is the status of NF 
research overall at NIH? What is the cause of NCI's decreased financial 
commitment to NF research? Would the NIH and NCI provide the 
Subcommittee a list of NF research it funds, and the number of NF and 
NF-related research proposals submitted to NIH overall and NCI 
specifically, and a figure for the success rate of those NF and NF-
related research proposals submitted to NIH and NCI?
    Answer. Neurofiboromatoses (NF) are genetic disorders that cause 
tumors to grow on nerves and produce other abnormalities such as skin 
changes and bone deformities. Because NF may affect cognitive functions 
as well as hearing and sight, these disorders fall within the purview 
of a number of institutes within NIH, and attempts are being made to 
coordinate the research effort across NIH.
    The NIH investment in Neurofibromatosis (NF) related research in 
fiscal year 2001 was $14.2 million. Of that amount, approximately 50 
percent was funded by the National Institute of Neurological Disorders 
and Stroke (NINDS). In May 2000, the NINDS held a two-day workshop to 
assess the status of NF research and to identify future research 
opportunities that could be developed in fiscal year 2001. The NINDS 
has been vigorously engaged in the initiation of a broad spectrum of 
activities to respond to the needs and pursue the opportunities that 
were identified at the meeting.
    In March 2001, NINDS issued a Request for Applications (RFA) in 
conjunction with the National Institute on Aging and the National 
Institute of Mental Health to promote research on the identification of 
genes that cause or contribute to human neurological and 
neurobehavioral disease. The participating Institutes intend to commit 
a total of approximately $4 million in fiscal year 2002 to fund new 
grants submitted in response to this RFA; of this amount, NINDS will 
commit up to $3 million. This RFA was developed by NINDS as a direct 
result of the May 2000 workshop, as well as the comments provided by 
leading NF researchers on the type of directed research solicitations 
that likely would prove most useful in advancing NF research. This 
solicitation was designed to encourage applications for genetics 
research projects to identify the gene or genes that produce disease 
susceptibility; to identify ``modifier'' genes that affect disease 
susceptibility or outcome; and to investigate the relationship between 
genotype and disease phenotype. These goals are particularly important 
with respect to NF research. Although the primary genes that cause NF1 
and NF2 have been identified--neurofibromin and Merlin/schwannomin 
respectively--the modifier genes that contribute to determining the 
disease phenotype, that is, the clinical manifestations in individual 
patients, are unknown. In addition, determining the relationship 
between specific NF1 and NF2 gene mutations carried by patients and 
their clinical manifestations, known as genotype-phenotype analysis, is 
of critical importance for the diagnosis and treatment of NF.
    A critical bottleneck for NF research has been translating advances 
in basic research into diagnostic tools and clinical therapies. To 
accelerate this process, NINDS has developed a broad, overarching 
concept and series of mechanisms to facilitate translational research. 
The needs of the NF research and patient communities, as expressed in 
the May 2000 workshop and subsequent related discussions, served as 
both the impetus and a coalescing model for its development. NINDS 
expects to finalize and issue this translational research package by 
early 2002.
    NINDS continues its longstanding outreach and support to the NF 
research and advocacy communities. Through a competitively awarded 
grant, NINDS was the major supporter of the National Neurofibromatosis 
Foundation (NNFF) sponsored meeting of the International Consortium for 
the Molecular Biology of NF1 and NF2 held May 20-23, 2001. At this 
gathering of the world's leading scientists working on NF, new and 
exciting results were reported by a number of different investigators 
in studies ranging from animal models to tumors to learning 
disabilities. The meeting was also structured to attract exceptional 
new investigators to the field of NF research. NINDS also funded and 
moderated an NF ``satellite'' conference as part of a Child Neurology 
Society meeting in early November, 2001. This conference was extremely 
well attended, and well received. Finally, NINDS is actively engaged in 
an advisory capacity in exploring the development, by the NF research 
community in conjunction with patient advocates, of a strategic plan 
for NF research, particularly in the area of clinical trials.
    The National Cancer Institute (NCI) funds approximately 30 percent 
of NF Related Research at NIH. NCI efforts continue to build upon the 
workshop hosted last year by NINDS to assess the status of NF research 
and to identify future research opportunities. Several priorities were 
agreed upon at the workshop, including development of more refined 
animal models for NF1 and NF2; further analysis of the mechanisms of 
action of neurofibromin and merlin--the proteins whose functions are 
disrupted in NF1 and NF2 respectively; and the identification of 
modifier genes that affect the expression of neurofibromin and merlin.
    NCI supports clinical trials through the pediatric clinical trials 
cooperative groups that specifically include children with cancers 
associated with NF1. Of special concern are the brain tumors associated 
with NF1 and in particular the low-grade gliomas that develop in 
children with NF1. The Children's Oncology Group (COG) of the NCI 
continues accrual to its clinical trial (CCG-9952) for children younger 
than 10 years of age with progressive low grade astrocytoma. 
Approximately 200 children have now been entered into this study, and 
at current rates of accrual, the study should complete patient 
enrollment in two years. The primary objective of the study is to 
compare event-free survival in children who are treated either with a 
regimen of carboplatin and vincristine or with a regimen of 6-
thioguanine, procarbazine, CCNU, and vincristine. Accrual is limited to 
children with disease that is progressive after surgery or those whose 
risk of neurologic impairment with progression is high enough to 
require immediate treatment. Children with neurofibromatosis who have 
radiographic diagnosis of chiasmatic-hypothalamic tumor are eligible 
for the study after tumor progression is documented radiographically.
    NCI Intramural scientists have been studying NF2 since 1987. This 
disorder is characterized by development of bilateral vestibular 
schwannomas (VS), which cause hearing loss and vestibular symptoms in 
early adulthood. Meningiomas and other benign central and peripheral 
nervous system tumors are also common. Although NF2 is relatively rare, 
unilateral VS and meningiomas comprise 30 percent of all brain tumors 
in adults. The study population has consisted of two major groups: 
members of multi-generation multiplex NF2 families, and sporadic cases 
whose parents are unaffected clinically.
    In addition, intramural clinical studies have demonstrated a new 
feature of NF2, the presence of two different types of cataracts at an 
early age. Studies have also suggested that two major subtypes of NF2 
families exist. Patients with severe disease usually develop symptoms 
before age 20, have many central nervous system tumors in addition to 
VS, and rapid clinical progression. In contrast, patients with mild 
disease often are symptom-free until the third decade of life and have 
few tumors other than VS. In general, affected family members have 
similar manifestations. To date, 20 different NF2 germline mutations 
have been identified in 21 of our NF2 families. By comparing the 
clinical and molecular data in these families, the phenotypic 
manifestations have been shown to correlate strongly with type of 
mutation. Mutations that shorted the C-terminus of the NF2 protein 
usually result in severe NF2, whereas mutations that replace one amino 
acid with another usually lead to mild disease.
    NCI Intramural investigators have begun partnering with extramural 
investigators to refine the understanding of genotype-phenotype 
correlations, and to examine the natural history of NF2, beginning with 
vestibular schwannomas (VS) and spinal tumors. In this regard, NCI 
Intramural investigators have recently completed a study examining 
factors that influence the rate of growth of the VS in NF2 patients. In 
general, VS growth rates were found to be highly variable, but tended 
to decrease with increasing age at onset of symptoms of NF2, and age at 
diagnosis of NF2. The rate of growth of the VS was not influenced by 
either the type of NF2 mutation that the patients had, or by the 
presence in the patients of other cranial or spinal tumors. Finally, 
the observed growth rates of VS were found to be highly variable among 
affected relatives of similar ages from the same family. The 
implication of this finding is that the clinical course and approach to 
management of VS in one family member is not likely to be useful in 
predicting the clinical course or best approach to management of VS in 
other family members, even when other clinical aspects of NF2 may be 
similar.
    Significant progress has been made in the development of animal 
models for NF. By generating mice whose hematopoietic system is 
reconstituted with NF1-deficient hematopoietic stem cells, NCI 
intramural scientists showed that NF1 gene loss produces a 
myeloproliferative disease similar to human juvenile chronic 
myelogenous leukemia, which is observed at increased frequency in 
juvenile human NF1 patients. They also identified homeobox genes that 
appear to cooperate with NF1 gene loss in the progression to acute 
murine myeloid disease. Studies have also shown that mice carrying germ 
line mutations in NF1 and p53 develop malignant peripheral nerve sheath 
tumors supporting a causal and cooperative role for p53 mutations in 
development of tumors. These new mouse models provide the means to 
address fundamental aspects of disease development and to test 
therapeutic strategies.
    The National Eye Institute also funds neurofibromatosis related 
research. The tumors or neurofibromas, under study, are often 
subcutaneous but also invade neural and ocular tissues. The ocular 
involvement may occur as lesions within the eye or surrounding orbital 
tissue, including eyelids, cornea, conjunctiva, iris, and retina. A 
severe form of congenital glaucoma is also associated with this 
disease.
    The overwhelming majority of NCI's NF related research in terms of 
dollars has been funded through grants. For a number of years, NCI has 
supported a grouping of grants whose original research was considered 
to be neurofibromatosis related. The research of these grants focused 
upon NF1 and NF2 genes. NF1 and NF2 are tumor suppressor genes with a 
wide range of effects in embryonic and adult tissues. Lately, these 
grants have focused exclusively upon the relationship of NF1 and NF2 
genes and certain types of cancers. The NF1 gene has been found to be 
associated with some astrocytomas (in persons without 
neurofibromatosis) and appears also to have a role in epithelial 
carcinogenesis, including some skin and urinary bladder tumors. The NF2 
gene product is essential for normal embryonic development. NF2 
mutations have been found in sporadic meningiomas, sporadic 
schwannomas, and some ependymomas and mesotheliomas, all in persons 
without neurofibromatosis. Accordingly, these grants are no longer 
classified to be neurofibromatosis related for purposes of allocation 
of dollars, however, they still are research opportunities that can 
have important implications for NF. In the interim, the relative 
quality of other grants focusing on NF have not come within the 
acceptable range (payline) to replace these, so the dollars designated 
to NCI's NF research amount has decreased.
    Attached please find a copy of the project listing of funded NF 
research by IC. As not all NIH institutes code unfunded applications 
for specific disease areas, we are unable to provide specific numbers 
of unfunded NF and NF-related applications and the success rate of NF 
or NF-related research.
                          parkinson's disease
    Question. Dr. Kirschstein, the Fiscal 2002 Senate Labor, Health and 
Human Services, Education Appropriations Committee Report refers to the 
Parkinson's Disease Research Agenda, which the NIH developed in 
cooperation with Parkinson's researchers and the Parkinson's advocacy 
community. The Committee Report states that the Research agenda 
recommends that a $143,500,000 increase over the baseline year would be 
needed to implement year 2 of the agenda (e.g. Fiscal 2002). The report 
also asks the NIH to hold a series of research consortia with the 
extramural research community.
    The Committee Report requests that the NIH Director report by March 
15 of this year on the specific steps that the NIH will take to 
implement the Research Agenda, and on the research consortia. What is 
the level of funding for Parkinson's research that the NIH is projected 
to commit for fiscal year 2002?
    Answer. NIH has been actively involved in implementing the 
Parkinson's Disease (PD) Research Agenda for the past two years. This 
effort has been remarkable, and has led to the continued support of 
multiple centers of excellence, new grant applications on important 
topics, targeted contracts, consortia in several research areas, and 
research workshops. As a result of these many initiatives, numerous 
scientific advances have been made, the best new ideas have been 
funded, and dozens of new projects--including important clinical 
studies--have been initiated. NIH is fully committed to continued 
implementation of the Agenda. The estimated NIH funding for Parkinson's 
disease research in fiscal year 2002 is $198.9 million.
    Question. Furthermore, what is the status of the NIH Director's 
Report on Parkinson's that this Committee requested you to submit by 
March 15 of this year?
    Answer. The initial Consortium meeting was held on January 9-10, 
2002. The meeting focused on the scientific opportunities in the field 
of PD research, and the participants identified a number of research 
priorities within the context of the original research Agenda. It is my 
understanding that the requested NIH Director's Report on Parkinson's, 
which provides a detailed overview of this Consortium meeting, was 
submitted to this Committee on April 15, 2002.
                               fragile x
    Question. Each year since 1995, this Subcommittee has asked the 
National Institutes of Health to increase and enhance its funding of 
research ``on Fragile X, the most common cause of inherited mental 
retardation. The National Institute of Children's Health and Human 
Development has assumed a leading responsibility for this research. 
Please tell us whether and to what extent the NIH has expanded and 
enhanced its Fragile X research during the past several years and 
whether and to what extent it has plans to increase and enhance Fragile 
X research in future years.
    Answer. NICHD has a long history of commitment to the support of 
research relevant to Fragile X Syndrome, having initially supported 
early studies that led to the isolation of the gene affected in Fragile 
X, FMR1, in the early 1990s. As a result of recommendations resulting 
from a 1998, NICHD sponsored ``Workshop on Fragile X: Future Research 
Directions,'' NICHD issued an RFA, ``Neurobiology and Genetics of 
Fragile X Syndrome'' in April 2000. This RFA, supported by funding from 
NICHD, NIMH, and the FRAXA Research Foundation, resulted in the funding 
of nine proposals in fiscal year 2001.
    The NICHD published a RFA for Fragile X Research Centers that was 
released in January of 2002. The purpose of this RFA is to establish 
Fragile X Research Centers affiliated with existing Mental Retardation 
and Developmental Disabilities Research Centers to stimulate research 
designed to increase our knowledge base relevant to this disorder by 
encouraging applications that include developmental neurobiology, 
pathophysiology, genetics, proteomics, epidemiology, structure-function 
correlations, and clinical, behavioral and biobehavioral studies 
directly related to Fragile X syndrome. An informational meeting was 
held in March 2002 for applicants who plan on responding to the RFA.
    The NICHD also held a Fragile X investigator's meeting in March of 
2002 to bring together researchers currently funded in the field of 
Fragile X syndrome. These investigators discussed their new research 
findings in the context of the current state of Fragile X research and 
future directions. The format of the meeting was thematic and involved 
presentations by speakers, including RFA awardees, and other 
investigators who have received new Fragile X grant funding in the past 
three years. A report that summarizes the 2 day meeting is currently 
being prepared.
    In addition, NICHD participated in a November 2001 workshop on 
``Mental Health Aspects of Fragile X Syndrome: Treatment Research 
Perspectives.'' This meeting, sponsored by the NIMH, brought together 
investigators currently funded by NICHD to inform program staff at NIMH 
of the basic and clinical aspects of research of Fragile X syndrome. 
Biomedical, behavioral, and biobehavioral research were discussed in 
the context of therapeutic strategies and targeted drug discovery.
                         schizophrenia research
    Question. In 1998, NIMH was reorganized to better address the major 
public health needs associated with severe mental illnesses. Given the 
vulnerability of clinical research in general, and the many changes 
underway at NIMH in terms of the funding of clinical research and the 
clinical research centers how is NIMH moving to ensure that the 
research base studying schizophrenia is strengthened and expanded?
    Answer. Prior to 1998, NIMH had prominent divisions and branches 
dedicated to specific clinical disorders, while separating basic 
behavioral and neuroscience research within a discrete division. A 
reorganization of NIMH in September 1997, established three new 
operating divisions focused, respectively, on neuroscience and basic 
behavioral neuroscience research; services and intervention research; 
and mental disorders, behavioral research, and AIDS. Under the new 
structure, responsibility for research on mental disorders was assigned 
to each of these three extramural divisions, with each accountable for 
the challenge of ``translating'' new knowledge gained at a given level 
of analysis into information applicable to clinical- and systems-
oriented needs. Urgent need for the translation of knowledge B both in 
the traditional ``basic to clinical'' sense and in the sense of moving 
what is known about the efficacy of interventions to documentation of 
their effectiveness--was the core justification for the reorganization. 
The Institute, in consultation with the field, sought to create new 
opportunities for sustained interactions between basic and clinical 
researchers, to generate new opportunities for scientists at both ends 
of the continuum to think about pathophysiology and treatment 
development for mental disorders. The revamped organizational structure 
has been very effective in broadening the institutional base of 
responsibility for research on schizophrenia (and other mental 
disorders) at a time when the field stands on the verge of a revolution 
in our understanding of schizophrenia and our ability to treat people 
who suffer from this devastating illness. With the introduction, first 
of clozapine, then more recently, a whole series of ``atypical'' 
antipsychotics (risperidone, olanzapine, quetiapine, ziprasidone, and 
soon aripiprazole and iloperidone), new vistas have opened in the 
pharmacotherapy of schizophrenia. These new antipsychotics seem to 
allow patients, families, and their clinicians to focus on coping with 
illness, rather than just symptom control. In fiscal year 2002, an 
NIMH-sponsored clinical trial (Clinical Antipsychotic Trials of 
Intervention Effectiveness, CATIE, with sites in 34 different states) 
is comparing these new antipsychotics, and will define strategies for 
their optimal use in treating schizophrenia. In addition in 2001, NIMH 
launched a 4-site, 5-year clinical trial to study the effectiveness of 
3 different antipsychotic medications for children and adolescents (8-
19 year old) who have schizophrenia, schizophreniform disorder, or 
schizoaffective disorder. Both short- and long-term effects will be 
comprehensively assessed for up to 1 year of treatment.
    Advances in basic neuroscience, the decoding of the human genome, 
and development of sophisticated neuroimaging techniques strengthen the 
likelihood that the puzzle of schizophrenia will be solved in the not 
too distant future. The NIMH has set out to gather a sufficiently large 
number of families with schizophrenia to pin down the genes that 
predispose people to developing the illness. Once these are identified 
and their function in the brain is understood, a whole new generation 
of specific treatments may become possible. Through sophisticated new 
techniques to image brain function, we are increasingly able to 
understand the neural circuitry that underlies the symptoms of 
schizophrenia. With the development of methods to noninvasively 
stimulate selected regions of brain, it even may be possible to turn 
off some of the troubling hallucinations and delusions suffered by 
patients with schizophrenia. The NIMH program of Silvio O. Conte 
Centers for the Neuroscience of Mental Disorders are an important and 
vibrant element in our efforts to bridge basic and clinical research. 
These Centers support hypothesis-driven, interdisciplinary research 
encompassing highly interactive and synergistic projects and cores in 
which clinical research informs, and is informed by, basic research and 
vice-versa, all addressing specific questions directly relevant to 
complex mental disorders. Five Conte Centers (at the University of 
Pittsburgh, University of Pennsylvania, Harvard University, Yale 
University, and Washington University) currently are dedicated to 
research on schizophrenia, with a sixth scheduled for funding this 
year.
                           biopolar disorder
    Question. Bipolar disorder, or manic depression is a serious brain 
disorder that causes extreme shifts in mood, energy, and functioning. 
It affects 2.3 million adult Americans, or 1.2 percent of the 
population. While there is no cure for bipolar disorder, it is a highly 
treatable and manageable illness. Unfortunately, many of these 
treatments are palliatives that were originally developed for other 
disorders such as epilepsy. Maintenance treatment with a mood 
stabilizer can reduce the number: and severity of episodes for most 
people, although episodes of mania of depression may occur and require 
a specific additional treatment. Clearly newer, more effective 
treatments for bipolar disorder are needed. Can you please update the 
Subcommittee on progress in implementing the NIMH bipolar disorder 
research plan?
    Answer. The NIMH Strategic Plan for Mood Disorders will be 
completed by this summer. The document identifies numerous 
opportunities for developing new pharmacologic and psychosocial 
interventions. The Plan recognizes that in clinical settings, the 
effectiveness of more precise and efficacious treatments will be 
contingent on the accuracy and timeliness of diagnosis and the 
availability of well-established treatment guidelines and, thus, will 
call for research in these and related areas.
    While the Strategic Plan will accelerate the pace of discovery of 
new treatments for bipolar disorder, immediate need exists to better 
understand and use treatments that are currently available. Toward this 
end, NIMH is funding the Systematic Treatment Enhancement Program for 
Bipolar Disorder (STEP-BD), a long-term project under contract at a 
dozen sites around the country. Now in its fourth year, the STEP-BD 
clinical trial is aimed at maximizing the effectiveness of existing 
pharmacological and psychosocial treatments for bipolar disorder in 
naturalistic settings; some 2,000 patients have been enrolled to date, 
and all will be followed for several years. Related to the STEP project 
are three additional smaller studies looking at issues specific to 
women's mental health, including the safety of current treatments and 
new options for bipolar disorder during pregnancy. Additional 
investigator-initiated treatment research now underway and directed at 
bipolar disorder in adults ranges from studies to understand the 
mechanisms of action of lithium, to the development of new approaches 
for maintenance treatment, to research on prevention of relapse/
suicidal behavior in this long-term, recurrent chronic disorder. The 
NIMH also supports studies on treatment of bipolar disorder in 
children.
                accessing the newest advanced treatments
    Question. In the past decade, many new treatments and services have 
been developed and proven for severe mental illnesses such as 
schizophrenia. Yet most individuals with these illnesses receive 
extremely poor treatment. What efforts are underway (or ongoing) to 
ensure that the improved treatment interventions being developed now 
ill be effectively disseminated to providers and made available to the 
people who so desperately need these treatments?
    Answer. The NIMH has a specific program that sponsors grants to 
find ways to ensure that effective treatments are implemented in 
community practice. Ongoing activities in this program include a new 
program announcement calling for grants in this area; new funding 
mechanisms to promote this area (including one jointly issued with CMHS 
on Children's Services); and sponsorship of workshops and conferences 
to foster new research ideas in this area. Examples of such workshops 
include one recent workshop focused on implementing evidence-based 
practices into the public mental health sector.
    NIMH has collaborated with SAMHSA, especially CMHS, on issues 
related to improving the implementation of new treatment interventions. 
CMHS representatives were actively involved in recent workshops and 
discussions about joint funding of future projects. Other collaborative 
efforts are underway to foster new research opportunities and 
implementation strategies.
                   general clinical research centers
    Question. It has been almost two years since the NCRR Advisory 
Council approved the concept of providing ``seed money'' for General 
Clinical Research Center-based pilot projects. How many centers have 
received pilot study support and how many pilot projects have been 
funded? How many pilot projects have been funded? What is the total 
amount of funding that has been provided for this purpose? Does each 
GCRC receive an equal amount for pilot projects? If not, how are the 
funds distributed? Answer. Pilot studies on GCRCs were phased in during 
fiscal year 2002 with the intent that all GCRCs would be able to 
request up to $100,000 per annum for their support within 2-3 years. We 
become aware of pilot projects when GCRCs make a specific request for 
new funds and, in fiscal year 2002, 27 GCRCs made such requests. GCRCs 
are also permitted to rebudget funds internally to support pilot 
projects.
    Approximately 32 pilot projects were funded in fiscal year 2002 in 
the 27 GCRCs that applied for new funds for the purpose.
    A total of $645,000 was made available in fiscal year 2002 but 
internal rebudgeting by the Centers may result in additional pilot 
projects. The full number will not be known until the Centers submit 
their annual reports.
    No, each GCRC does not receive an equal amount for pilot projects. 
The amount received depends first on the participation of the GCRC and 
on the local approval of the pilot projects by an Advisory Committee. 
By fiscal year 2003 we anticipate making new funds available for 2 
pilot projects per center. Centers may increase their number of pilot 
projects beyond this if they are able to rebudget funds internally.
            loan repayment program for clinical researchers
    Question. I am very pleased that the President's budget would 
double the funding for the Loan Repayment Program for Clinical 
Researchers. I have two questions: In the first year, only researchers 
with NIH support were eligible to apply. But I understand that NIH 
plans to expand the program eligibility after the first year. When will 
the details of this expansion be announced? How many applications did 
NIH receive for the first year of this program? If you have compiled 
any additional demographic information on the applicants, such as their 
average tuition loan debt, I would appreciate that as well.
    Answer. In fiscal year 2002, the first year of the Clinical 
Research Loan Repayment Program, the eligibility criteria were designed 
to allow for the smooth implementation of several Loan Repayment 
Programs concurrently, using an innovative electronic web-based 
application process, and to provide a starting point to gain insight 
into the size and nature of the applicant pool. We are using knowledge 
gained from this pool of applicants to enhance the process so that we 
are able to communicate more effectively with a larger and more diverse 
pool in future years.
    Beginning with fiscal year 2003, the eligibility criteria will be 
expanded to include individuals whose research is supported by 
foundations, professional societies, and other non-profit sources.
    The details of the program expansion will be announced in the NIH 
Guide to Grants and Contracts and on our Internet home page 
(www.lrp.nih.gov) no later than May 2002. In addition, we will present 
information about the programs as widely as possible in other venues, 
such as annual meetings of professional associations and at educational 
institutions.
    The NIH received 487 Clinical Research Loan Repayment Program 
applications this fiscal year. Of these, 5.14 percent receive funding 
under a National Research Service Award for Postdoctoral Fellows (F 
series), 36.42 percent receive funding under an Institutional Research 
Training Grant (T series), 38.27 percent receive funding under an NIH 
Career Development Award (K series), 15.64 percent receive funding 
under a Research Grant (R series), 2.67 percent receive funding under a 
Research Program Project Grant (P series), and 1.85 percent receive 
funding under a Research Project Cooperative Agreement (U series).
    The racial and ethnic composition of the applicant pool for the 
Clinical Researchers Loan Repayment Program is 68.41 percent Caucasian, 
11.27 percent Asian, 6.24 percent African-American, 3.02 percent 
Latino, 0.6 percent American Indian or Alaskan Native, 0.6 percent 
Native Hawaiian or Other Pacific Islander, and 8.85 percent reported 
``other'' or did not respond. Female applicants constitute 41.68 
percent of this pool, male applicants constitute 54.62 percent of the 
pool, and 3.7 percent did not respond.
    The average educational loan debt (outstanding principal and 
interest) of the applicant pool for the Clinical Researchers LRP is: 
$80,625 for applicants with a K grant, $99,602 for applicants with a T 
award, $64,130 for applicants with an F award, $97,500 for applicants 
with a P grant, $59,012 for applicants with an R grant, and $59,652 for 
applicants with a U grant. These averages are tentative and will be 
adjusted as we continue to verify the total eligible debt of each 
applicant.
                              nih doubling
    Question. Congress has nearly completed the job of doubling NIH 
funding over five years, and this President has joined Congress in 
committing to this idea, I would like your analysis for various options 
for out-year growth.
    Please provide for the committee an analysis of the implications of 
three options on NIH's ability to fund research grants during each of 
fiscal year 2004-2008: the President's Budget out-years, which projects 
growth at the following rates: fiscal year 2004, 2 percent; fiscal year 
2005, 2.2 percent; fiscal year 2006, 2.3 percent; fiscal year 2007, 2.3 
percent and fiscal year 2008, 2.3 percent; a more historically 
consistent rate of growth from NIH, pre-doubling, of 7.5 percent for 
each of the next five years; and a more robust growth rate of ten 
percent for each of the next five years. The analysis should also 
include projections for numbers of new grants, total grants, center 
grants, intramural, training grants & their stipends, construction, and 
success rates.
                      embryonic stem cell research
    Answer. There are currently 78 human embryonic stem cell lines 
listed in the NIH Stem Cell Registry. The Registry does not make clear 
how many of these stem cell lines are immediately available to 
researchers or what intellectual property requirements must be adhered 
to for use of the lines. Two recent scientific publications in the 
journal Nature cast doubt on the claim that adult stem cells are so 
promising that work with embryonic stem cells is unnecessary. The new 
papers suggest that much of the flexibility attributed to adult stem 
cells might be the result of bizarre fusions between adult stem cells 
and other types of cells. If this turns out to be correct, it would be 
a serious setback to any hope of using adult stem cells to treat 
disease. (See attached article)

                      NIH STEM CELL RESEARCH FUNDING

Stem Cell Research Fiscal Year 2001

Actual Adult............................................    $265,457,000
Embryonic (Animal only).................................      40,541,000

Note.--No NIH funds have yet been used for human embryonic stem cell 
research. All of the progress made thus far on human cells has been made 
with private funds. NIH received only 9 grant applications for the first 
deadline of November 27, 2001. These applications are currently under 
review and NIH expects the first grants will be made in June. The second 
grant application deadline was February 2, 2002, but NIH officials do 
not yet know how many grant applications for stem cell research they 
have received. (They received a total of 10,000 applications and have 
not gone through them all yet). These second round of grants will be 
made in September.
---------------------------------------------------------------------------
                          therapeutic cloning
    Question. Scientists at MIT recently reported the first use of 
therapeutic cloning in an animal model. The labs of Dr. Rudolf 
Jaenisch, who testified before this subcommittee in January, and Dr. 
George Daley used skin cells from a mouse, which was completely immune 
deficient, to create a cellular therapy that was able to partially 
restore immune function in the mouse. Dr. Daley says that ``Though the 
immune system wasn't completely restored, there was enough improvement 
to predict that a comparable result in humans would translate into a 
significant clinical benefit.'' It is my understanding that this 
research was supported in part by the National Cancer Institute and the 
National Institute of Diabetes and Digestive and Kidney Diseases.
    Dr. von Eschenbach and Dr. Spiegel, what are your impressions of 
this research that your institutes funded?
    Answer. Dr. Rudolf Jaenisch is a founding member of the Whitehead 
Institute and Professor of Biology at MIT. The laboratory of Dr. 
Jaenisch has been one of the leaders in transgenic science (gene 
transfer to create mouse models of human disease) and has produced 
valuable models, which have aided in understanding of cancer and 
various neurological diseases. One of the areas of exploration in Dr. 
Jaenisch's laboratory has been the process by which a modification of 
DNA called methylation plays a role in carcinogenesis. In certain 
neurological diseases associated with mental retardation (e.g., Prader-
Willi syndrome and Angelman syndrome), methylation also appears to play 
a role in the process referred to as ``imprinting'' that is abnormal in 
patients with these diseases. A desire to understand these processes 
led to interest in mouse cloning since in mouse embryonic stem cells, 
all marks of methylation are removed. It is postulated that these 
studies could shed light on cancer since some precancerous cells 
exhibit diminished methylation and appear to be abnormally prone to 
mutation and cancer development. Dr. Jaenisch and his colleagues have 
already demonstrated that alteration in methylation can impact the 
development of colon cancer in mice with a genetic predisposition to 
this disease. Since certain drugs and diet can affect methylation 
patterns, it is important to understand the influence of altered 
patterns of methylation on carcinogenesis. The work of Dr. Jaenisch on 
DNA methylation, gene regulation, and cancer is funded by an RO1 grant 
from the NCI.
    Dr. George Daley is also associated with the Whitehead Institute 
and is an assistant professor of medicine at Harvard Medical School. 
Dr. Daley has also served as Chair of the Whitehead Task Force on 
Genetics and Public Policy. Dr. Daley and his laboratory study stem 
cells of the blood in order to define the molecular basis of human 
leukemia and to understand more fully the development of normal blood. 
More specifically, Dr. Daley focuses on the BCR/ABL oncoprotein that is 
responsible for human chronic myelogeneous leukemia. It is through 
efforts to understand mouse blood cell development that Dr. Daley is 
working with mouse embryonic stem cells that can differentiate in vitro 
into a diverse array of cell types including neurons, myoblasts, 
cardiac myocytes, and blood cells. The BCR/ABL gene product is the 
target for the drug Gleevec (also known as ST1571) that has recently 
garnered much public attention as a prototype for molecularly targeted 
therapeutics. Some work by Dr. Daley and his colleagues relates to use 
of other classes of therapeutic agents that may be efficacious in cells 
that are resistant to Gleevec. Dr. Daley's work on therapeutic 
mechanisms of CML is funded through an NCI RO1 grant, and his work on 
hematopoietic stem cells from totipotent stem cell types is funded by 
an RO1 grant from NIDDK.
    The NIDDK-funded regular research grant (RO1) to Dr. Daley is on 
hematopoiesis--the development of the different blood cell types, 
including cells of the immune system. Dr. Daley's grant was designed to 
investigate how mouse embryonic stem cells can be ``coaxed'' to form 
hematopoietic stem cells in the laboratory, and could then be 
transplanted into mice and differentiate into blood cell types. Dr. 
Daley and his colleagues developed a new technique for doing this, 
based on expression of a gene called HoxB4. The development of this 
technique shed light on the molecular mechanisms of hematopoiesis. This 
technique was used in the study you cited--which is an interesting 
piece of research combining somatic cell nuclear transfer with gene 
therapy to correct, partially, a genetic defect in immune response in 
mice.
    Question. How significant an advancement have these investigators 
achieved?
    Answer. In their recent paper published in the journal Cell, Dr. 
Jaenisch and his colleagues demonstrated that nuclei derived from the 
tail of an genetically immunodeficient mouse when transferred to the 
egg of a mouse lacking its own nucleus could give rise to mouse 
embryonic stem cells. These stem cells have the same genetic mutation 
that characterized the mouse from which the nucleus was derived. This 
defect was ``repaired'' by a process called homologous recombination. 
Finally, the repaired cells were injected into the mutant mouse and 
mature and competent immune cells were detected 3-4 weeks after the 
transplantation of the repaired cells. This work demonstrates that this 
genetic disorder in the mouse can be treated by combining nuclear 
transplantation therapy and gene therapy.
    In their paper published in the same issue of Cell, Dr. Daley and 
his colleagues report on a mouse model for hematopoietic 
transplantation therapy. This work largely focuses on the 
characteristics of definitive adult hematopoietic stem cells and more 
primitive stem cells derived from the mouse yolk sac or embryo. These 
authors showed that the expression of a particular gene (called HoxB4) 
resulted in a switch from the yolk sac or embryonic mouse stem cells to 
a cell more like the definitive stem cell. These cells like the 
``repaired'' cells of the Jaenisch paper described above were capable 
of restoring immune functions to a mouse following transplantation.
    Both papers provide insights into the properties of mouse stem 
cells. These studies demonstrate the extraordinary complexity of this 
process and the importance of exploring these systems in animal model 
experimentation.
    This work, using a mouse genetic model of immunodeficiency, is 
unique. Previous investigators have created cloned mice using somatic 
cell nuclear transfer; however, the primary research objective of the 
present investigators was to test somatic cell nuclear transfer to 
correct a genetic defect in a living mouse model of disease. 
Furthermore, other investigators have previously used gene therapy to 
correct a defect successfully in mouse models, for example in 
experiments relevant to thalassemia and sickle cell disease. (The 
reference for this is May C, Rivella S, Callegari J, Heller G, Gaensler 
KML, Luzatto L, Sadelain M: Therapeutic haemoglobin synthesis in beta-
thalassaemic mice expressing lentivirus-encoded human beta-globin. 
Nature 406: 82-86, 2000.) Clearly, there are multiple approaches to 
developing therapies for various diseases: cell based therapy, gene 
therapy, and the combination of both. What is unique about the present 
work is its combination of approaches. As the researchers state, it 
constitutes the first comprehensive ``proof of principle'' that 
combines somatic cell nuclear transfer with gene-and cell-therapy to 
repair, albeit partially, a genetic disorder in mice. This research 
also illuminates an unexpected difficulty in bone marrow engraftment in 
these genetically-deficient mice, which the investigators managed to 
overcome using additional strategies. While the present research shows 
that combining these approaches is feasible and partially effective in 
mice, it also reveals unexpected biologic processes. As the 
investigators who did this research point out, further research in 
mouse models using reprogrammed somatic cell therapy combined with gene 
therapy will be valuable in providing insights into as yet unknown 
biological and methodological issues.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 11 a.m., Thursday, June 6, 
in room SD-186. At that time we will hear testimony from the 
Honorable Elaine Chao, Secretary, Department of Labor.
    [Whereupon, at 12:27 p.m., Thursday, March 21, the 
subcommittee was recessed, to reconvene at 11:30 a.m., 
Thursday, June 6.]











  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         THURSDAY, JUNE 6, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Landrieu, Specter, and 
Stevens.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. ELAINE CHAO, SECRETARY OF LABOR

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. The Subcommittee on Labor, Health, and 
Human Services of the Appropriations Committee will come to 
order. Today we will hear from the Secretary of Labor, Elaine 
Chao, testifying on budget requests for her department.
    Madam Secretary, I must say at the outset I was very glad 
to see the administration emergency supplemental request for 
dislocated workers. I congratulate you for your success in 
securing that request from the Office of Management and Budget. 
I think the administration's new willingness to support 
adequate funding for these essential training efforts 
implicitly includes a recognition that we are all coming to.
    Last year, Congress rescinded what we thought was a modest 
amount of dislocated worker funding based upon as-yet-untested 
assumptions about carryover funding in a brand-new workforce 
system. For fiscal year 2003 the administration recommended 
large cuts in training programs in part based upon these same 
untested carryover assumptions. Then the administration and 
Congress found we needed to respond to the substantial and 
enduring effects of joblessness resulting from the economic 
downturn, so we worked together, and we are now considering a 
substantial emergency replenishment of dislocated worker 
funding. We are taking these actions together now because I 
think both the administration and Congress recognize the harsh 
realities that out-of-work Americans face.
    The continuing, nagging rise in unemployment, now at 6 
percent, the highest rate in nearly 8 years, makes it much more 
difficult for unemployed Americans to return to work. As you 
know, Madam Secretary, more than 2 million workers have lost 
their jobs over the past year, and the economic, social, and 
emotional effects of these job losses typically linger for 2 
years or more after economic recovery begins.
    I hope the administration's supplemental request represents 
a recognition that while we might aspire to anticipate every 
turn in the business cycle, it is not prudent to have an 
underfunded workforce system at any time. If we want our 
Governors and the business-led local boards that plan and 
administer the workforce program to be able to meet the ongoing 
needs of job-seekers and business and to respond to local, 
State, and national changes in the economy, you must provide 
them with reliable and adequate funding over the long term.
    And Madam Secretary, I am also pleased that your fiscal 
year 2003 budget request includes another substantial increase 
for the Office of Disability Employment Policy, from $35 
million up to $47 million. My personal thanks to you for 
leading the effort in doing that. This will result in more than 
doubling the funding of this office in the 2 years since it was 
created and, as you know, Madam Secretary, more and more people 
with disabilities, over the last 12 years since ADA, and now 
that it has permeated all of our consciousness in our society, 
more and more people with disabilities are getting higher 
education, getting better job training, and they are in the 
workforce. So this office really is a very important factor in 
helping make sure that they are adequately employed and that 
they have access to employment, so I thank you for requesting 
this substantial increase.
    However, I must say that there are a couple of things that 
I am disappointed about in the budget. The recommendation for 
overall reductions in staffing of the worker protection 
programs, including OSHA, is one that I am disappointed in. I 
am disappointed that instead of promulgating a new regulation 
to protect workers from ergonomic injuries, the Department 
instead is developing voluntary guidelines.
    Further, the Department is recommending deep cuts in 
programs aimed at reducing child labor throughout the world, 
and I will have more to say about that after your statement. 
But your Department has done great work on this over the last 
several years in really getting up to speed and taking the lead 
and reducing child labor throughout the world. This budget that 
you are requesting would reduce some of these programs, and I 
am very dismayed at that, and we will go over that in our 
questions and answers.
    Also, the budget request totally eliminates a 35-year-old 
program serving migrants and seasonal farmworkers, so I would 
like to address the impact of these reductions again in greater 
detail when we get to questions and answers, Madam Secretary.
    At this point, I would leave the record open for any 
opening statement by my Ranking Member, Senator Specter.
    Senator Harkin. I would recognize Senator Murray for any 
opening statement.

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman, and thank you, 
Madam Secretary, for being with us today. I am encouraged by 
some parts of your budget: increased funding for Job Corps is 
important, I believe, and the increased funding for the Office 
of Disability Employment Policy. But I share the chairman's 
concerns on some other budget cuts that would help at-risk 
youth and employment and training for dislocated workers and 
worker safety programs. So Mr. Chairman, I would like an 
opportunity, after the Secretary speaks, to ask some specific 
questions on those.

                 SUMMARY STATEMENT OF HON. ELAINE CHAO

    Senator Harkin. Thank you, Senator Murray. Well, we welcome 
Secretary Chao again to this subcommittee. Secretary Chao was 
sworn in as the 24th Secretary of Labor on January 31, 2001, as 
the first Asian American woman appointed to the President's 
Cabinet in U.S. history. Secretary Chao was president and CEO 
of the United Way Foundation from 1992 to 1996, and served as 
Director of the Peace Corps and as Deputy Secretary of the 
Department of Transportation under former President Bush. Most 
recently, she was a distinguished fellow at the Heritage 
Foundation.
    Secretary Chao received her MBA from Harvard Business 
School, and her undergraduate degree from Mount Holyoke 
College.
    Madam Secretary, that is an impressive background, and we 
welcome you again to the subcommittee, and your statement of 
course will be made a part of the record in its entirety, and 
you can please proceed as you so desire.
    Secretary Chao. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the committee to present the 
Department of Labor's fiscal year 2003 budget and, as you 
mentioned, I would like to submit my written statement for the 
record.
    The administration's 2003 budget necessarily reflects the 
challenges that our Nation still faces in the wake of September 
11, the ongoing war against terrorism, the urgent need to 
improve homeland defenses, and a struggling domestic economy. 
This is not a business-as-usual budget. In order to fund 
pressing wartime obligations we have had to carefully set 
priorities, consolidate overlapping programs, and delayer our 
internal bureaucracy.
    We also took seriously the President's management directive 
to integrate performance evaluations into our budgeting process 
to ensure that we are making the maximum use of taxpayers' 
dollars. We must do a better job of managing the money given to 
us by hardworking Americans, which means that programs that do 
not meet basic performance standards should not be funded. As a 
result, I believe we have submitted a budget that should be 
viewed as not smaller, but more effective, not less money, but 
more bang for the buck.
    In OSHA, for example, we are eliminating layers of 
management in order to put more inspectors on the front line 
conducting more inspections than ever. In ETA we are 
consolidating a rifle-shot program approach into the Workforce 
Investment Act system to reinforce a vision of Congress that 
States and localities, and not Washington, should be in charge 
of their workforce development. In PWBA and the Office of 
Inspector General we are increasing funding to better protect 
Americans' pensions from mismanagement, fraud, and racketeering 
influences.
    Let me briefly mention three other priority areas for the 
Department in fiscal year 2003, and some of the important work 
that is being done in these areas first of all concerns 
migrant, immigrant workers. The first of these priorities is 
addressing the needs of immigrant workers.
    The Census Bureau tells us that more than 10.5 million 
Americans speak little or no English. The Bureau of Labor 
Statistics found that during the last year of the previous 
administration fatalities among Hispanic workers increased by 
almost 12 percent, from 730 to 815, so we have got our work cut 
out for us, and the Department is taking action.
    At my direction, OSHA is now translating a broad array of 
safety materials into Spanish, and is developing partners in 
the Hispanic community such as civic groups, churches, and 
Mexican consulates. OSHA is updating its incident-reporting 
requirements to determine the language skills of injured 
workers. Our Wage and Hour Division has also targeted nearly 
one-third of its total reserves toward improving compliance in 
low-wage industries, where many immigrants currently work. Wage 
and Hour is also adding more Spanish-speakers on its front 
lines of investigation and compliance assistance.
    Other agencies within DOL, such as Pension Welfare Benefits 
Administration and the Mine Safety & Health Administration, are 
developing new approaches to help immigrant workers in this 
country. We want America to be a safe and fair place to work 
whether you have full citizenship, a green card, or a temporary 
work visa.
    A second priority for our Department is meeting the needs 
of working women. In today's economy, women want more 
flexibility in balancing their careers and families. Right now, 
our laws and regulations do not really give them very much 
choice. Women also have unique needs and concerns about 
retirement, and one of the most significant developments for 
working women is the rise of female small business owners. 
Earlier this year, the Department's Office of the 21st Century 
Workforce hosted a national summit of woman entrepreneurs. This 
summit brought together over 1,000 small business owners from 
all across the country. Both the President and I spoke, and we 
had several interactive sessions where we learned about the 
interests and needs of this community.
    Our Women's Bureau has a partnership with PWBA to help 
women better prepare for retirement, and one of the fruits of 
that partnership was seen in this year's Saver Summit, where 
one of the key elements was meeting the retirement needs of 
women, both those who work at home, and those who work at a 
job.
    A third priority is addressing the nursing shortage, about 
which I know, Mr. Chairman, you are concerned. Changes in the 
health care industry combined with ever-increasing numbers of 
older Americans have created an urgent demand for trained 
nurses that is quickly outstripping demand. Within the next 
couple of weeks we will announce a memorandum of understanding 
among the Department of Labor, the Department of Education and 
the Department of Health & Human Services. This MOU will 
integrate the training, education, and job placement efforts of 
all three Departments to effectively promote careers in 
nursing.
    In addition to the MOU, our Department has already engaged 
in a partnership with a private sector health care company, one 
of the largest, to train and employ more people in this field. 
This project will provide millions of dollars in scholarships 
that will be connected to real opportunities to work in the 
nursing care. We have asked for additional moneys for this 
partnership as part of our high-growth job-training initiative 
in the administration's supplemental request. We have also 
recently launched CareCareers.net, an online job bank sponsored 
by the Department of Labor that links job-seekers with openings 
in long-term health care.

                           prepared statement

    We have sought to integrate these three priorities into a 
newly emerging workforce that is composed of new participants 
like immigrant and women's small business owners, and we want 
to focus on new growth sectors of our economy like health care. 
We need to make our Department's programs and activities more 
flexible to meet the needs of a changing workplace and a 
workforce. We believe that our budget, the fiscal year 2003 
budget, moves us in that direction, helping us to better serve 
and respond to the needs of the 21st Century workforce.
    Mr. Chairman, thank you for the time to present my 
statement, and I will be glad to answer any questions that you 
may have at this time.
    [The statement follows:]
               Prepared Statement of Hon. Elaine L. Chao
    Mr. Chairman, and distinguished Members of the Subcommittee, thank 
you for the opportunity to appear before you today to present the 
Department of Labor's fiscal year 2003 Budget. I appreciate the 
opportunity to be with you again this morning.
    As the members of this Committee well know, our Nation since 
September 11 has had many demands placed upon it for defense and 
homeland security. Thus, our budget for fiscal year 2003 reflects these 
new needs and priorities. As Labor Secretary Frances Perkins aptly said 
in 1942, ``One of the things we have tried to do is to become very 
realistic about requests for any increases in this coming year's 
budget. We know only too well that the great expenditures should be 
directly on the war effort.''
    Every department of the government must take a hard look at all of 
its programs, especially in times of war. We must provide more funding 
for those programs that work; reform and revitalize those that can be 
improved; and cut or eliminate those that have not proven effective, 
are duplicative of other programs, or are not a great national 
priority.
    I believe we have balanced the goals of meeting the overarching 
national need of a streamlined budget with the many important goals our 
Department pursues. For fiscal year 2003, the Department will play a 
key role in ensuring that President Bush's economic agenda is 
accomplished. From ensuring that America's workforce is prepared for 
21st Century challenges, to providing a secure retirement to the men 
and women who have worked to provide a better life for themselves and 
their families, the Department of Labor will be on the job in fiscal 
year 2003.
    The Department's fiscal year 2003 budget was developed with the 
goal of serving the needs of the 21st Century Workforce. It reflects 
the amounts necessary to address the challenges related to a changing 
economy and workforce while balancing the achievement of three 
overarching national goals: winning the war against terrorism; 
strengthening protections of our homeland; and revitalizing our economy 
and creating jobs.
    The total request for the Department in fiscal year 2003 is $56.5 
billion in budget authority and 17,179 full-time equivalents (FTE). The 
request for the Department's discretionary programs is $11.4 billion.
                    employment and training programs
    The Department's fiscal year 2003 budget for Employment and 
Training Programs is $6.3 billion. Included in this total is $2.3 
billion targeted for employment and training programs for adults, with 
$1.4 billion for employment and training activities for dislocated 
workers. In addition, $2.6 billion is requested for youth employment 
and training programs, including $1.5 billion for Job Corps, which I 
will address in greater detail in a moment.
    Although the overall fiscal year 2003 employment and training 
budget represents a net decrease in new budget authority of $545 
million from 2002, there will be more than enough money in the system 
to pay for anticipated employment and training needs. This is because 
States have not expended approximately $1.7 billion in funds still 
available from previous years. I want to be clear, Mr. Chairman: the 
Administration is committed to meeting employment and training needs. 
The State carryover can be used in lieu of new budget authority to meet 
these needs with no diminution of service.
    The Administration is also supporting a larger near-term increase 
in funds for dislocated worker assistance. Helping American workers who 
have lost their jobs remains a top priority for President Bush. On 
March 9, the President signed the Job Creation and Worker Assistance 
Act, which extended unemployment benefits for an additional 13 weeks; 
gave states $8 billion in additional funds to improve unemployment 
benefits and services; and provided new tax incentives to create 
hundreds of thousands of new jobs. While the economy is showing signs 
of improvement, some workers are still having trouble finding work, and 
some communities have been hard hit. That is why the President's fiscal 
year 2002 supplemental budget proposal is so critical.
                 fiscal year 2002 supplemental proposal
    President Bush's $750 million fiscal year 2002 supplemental request 
would provide the urgent assistance that is needed now to ensure that 
affected workers receive the assistance and jobs they so desperately 
need. There are four main components of the supplemental proposal:
  --The proposal restores last year's $110 million rescission of 
        Federal funds for dislocated workers--making those resources 
        available through the states for employment and training 
        assistance to workers who have lost their jobs;
  --Recognizing that the economic recovery is taking place more slowly 
        in some areas than others, it provides $550 million to 
        replenish and strengthen the National Emergency Grant program 
        to provide fast, flexible assistance targeted to those workers 
        and communities that need additional assistance in recovering 
        from the economic slowdown;
  --It provides up to $50 million to carry out demonstration and pilot 
        projects, and multi-state and multi-service projects relating 
        to employment of dislocated workers; and
  --It provides $40 million for transfer to the Secretary of Commerce 
        for the Economic Adjustment Program to help create new jobs in 
        communities that have been hardest hit and to improve 
        coordination of Federal workforce and economic development 
        activities.
    This request for supplemental appropriations is intended to address 
the needs of dislocated workers in those pockets of high unemployment 
that still exist or where the economic conditions require additional 
assistance. Moreover, the National Emergency Grant program has always 
provided a reserve for states who are hit with unexpected natural 
disasters. Replenishing the national reserve account is essential for 
this purpose as well.
                               job corps
    The President is requesting $1.5 billion for Job Corps in fiscal 
year 2003, an increase of $73 million (5 percent) above fiscal year 
2002. According to a thorough and objective impact evaluation published 
last year, the dollar value of benefits that Job Corps generates for 
society is more than twice what the taxpayers invest. The President's 
fiscal year 2003 request will permit the Job Corps to enroll more than 
73,000 new students. In addition, the President's 2003 budget request 
contains measures to increase teacher pay, support center expansion, 
and further improve the quality of Job Corps services to disadvantaged 
young people. Finally, the increased funding will allow Job Corps to 
fully implement its initiative launched in Program Year 2001 to help 
all Job Corps centers achieve accreditation to award high school 
diplomas to Job Corps students.
          unemployment insurance and employment service reform
    The Department's Unemployment Insurance and Employment Service 
systems provide critical services to unemployed workers. Unemployment 
Insurance helps workers bridge the gap between jobs while stabilizing 
the economy during downturns. The Employment Service system helps 
unemployed workers find jobs and employers find new workers.
    The Department's 2003 budget proposes strategies to promote 
flexibility and strengthen unemployment insurance and employment 
services to America's workers and businesses. These proposals would 
make extended benefits more readily available in future economic 
downturns, reduce Federal unemployment taxes, and give States control 
of their own administrative funding. During transition, the 
Administration would help States implement funding changes that would 
lead to more flexible programs by providing billions of dollars from 
the U.S. Treasury's Unemployment Trust fund. The fiscal year 2003 
request of $44.0 billion for income maintenance includes $40.8 billion 
for benefits paid from the Unemployment Trust Fund.
                           worker protection
    I am deeply committed to enforcing the many laws that protect 
workers' safety and economic security. As you know, Mr. Chairman, I 
have made expanding and improving compliance assistance one of my major 
new initiatives at the Department of Labor, but not at the expense of 
enforcement. The Department has provided targeted increases of $37 
million to its enforcement agencies in fiscal year 2003, while 
eliminating unnecessary and obsolete activities and functions. I 
believe the clear winner is the American worker.
    In fiscal year 2003, the budget for the Department's Pension and 
Welfare Benefits Administration is to increase by $7 million and the 
Employment Standards Administration's Office of Labor Management 
Standards by $4 million. I will momentarily address both of these 
increases in further detail. Additional Departmental funds are proposed 
in the President's fiscal year 2003 budget for the Inspector General to 
help DOL protect pension funds from labor racketeering. These increases 
will make a real difference in the day-to-day protection of America's 
workers.
    The fiscal year 2003 budget would give the Occupational Safety and 
Health Administration $13 million in targeted increases. Our nation now 
has the lowest occupational injury and illness rate on record in its 
history--6.1 cases per 100 workers--as measured by the Bureau of Labor 
Statistics. This latest drop in the injury and illness rate was the 
eighth in a row. Injury and illness rates in more dangerous occupations 
also continued to drop. Work-related fatalities have also continued a 
downward trend. Even so, one injury or fatality is too many, and we 
will strive to do better through the appropriate mix of enforcing 
health and safety standards and providing compliance assistance, 
education and training as proposed in our budget.
    In fiscal year 2003, the Mine Safety and Health Administration 
would receive targeted increases of $10 million. While 2001 data show 
that fatal accidents in America's mining industry have reached the 
lowest level ever, MSHA issued a challenge to mine operators and 
workers to join the Department to cut in half, over the next four 
years, the number of miners killed and amount of time lost as a result 
of work-related injuries.
    The requests for both OSHA and MSHA also propose offsetting savings 
through workforce restructuring and the elimination of funding for 
completed activities.
    I have seen reports in the press that our budget may result in less 
enforcement in areas such as occupational safety and health or wage and 
hour laws. I must tell you, Mr. Chairman, that these reports are false. 
We took care to ensure that our enforcement agencies will have the 
resources they need to maintain enforcement activities at current 
levels and indeed to increase those activities in several critical 
respects. Where agencies are to receive less money than in fiscal year 
2002, that is because the agencies will eliminate unnecessary 
bureaucracy and obsolete activities, and because of an adjustment 
related to pension-related costs. In fact, excluding one-time emergency 
response funding, the accruals proposal, and our proposal to finance 
Federal Employees' Compensation Act administration through a surcharge 
on customer agencies, worker protection agencies are kept at roughly 
the previous year's level. Mr. Chairman, workers benefit from the 
appropriate targeting of resources in the agencies that protect them--
not unnecessary bureaucracy and adherence to outdated approaches.
    So let me be clear: we will vigorously enforce our worker 
protection laws, as we always have. But we will also look for better, 
more efficient ways to fulfill our mission--that is, to help protect 
workers from risks right now as well as to enforce against past 
violations.
    One important example is my February 1st announcement of a series 
of initiatives to ensure the safety and promote the prosperity of 
Hispanics in the workplace. Hispanic or Latino workers accounted for a 
disproportionate number of workplace fatalities in 2000, 13.8 percent, 
compared with their proportion of employment, which was 10.7 percent; 
and, while the number of fatal injuries declined for all workers from 
1999 to 2000, there was an 11.6 percent increase in job-related 
fatalities for Hispanic or Latino workers. Given these troubling 
statistics, I directed the Occupational Safety and Health 
Administration to form a task force to reach out and educate Hispanic 
workers and their families about health and safety on the job. I also 
called on other Departmental agencies to make unprecedented efforts to 
increase workplace safety for Hispanics.
    One immediate result is OSHA's new Spanish language website, which 
serves both Hispanic workers and employers. This webpage initially 
focuses on areas such as OSHA and its mission; how to file complaints 
electronically in Spanish; worker and employer rights and 
responsibilities; and a list of resources for employers and workers. It 
also features highlights from the agency's extensive website and offers 
one-stop service for Spanish-speaking employers and employees. 
Additional information will be added in months to come.
                               ergonomics
    While not a specific part of the President's fiscal year 2003 
budget request, I want to briefly touch on the issue of ergonomics. As 
you know, Mr. Chairman, on April 5, OSHA unveiled a comprehensive plan 
designed to dramatically reduce ergonomic injuries through a 
combination of industry-targeted guidelines, tough enforcement 
measures, workplace outreach, advanced and coordinated research, and 
dedicated efforts to protect Hispanic and other immigrant workers.
    Our goal is to help workers by reducing ergonomic hazards in the 
workplace in the most effective way possible and in the shortest time 
frame possible. I believe this plan is a major improvement over the 
rejected old rule because it will prevent ergonomics injuries before 
they occur and reach a much larger number of at-risk workers. I 
recently announced that the first set of industry-specific ergonomics 
guidelines is being developed for the nursing home industry, and OSHA 
expects to release those guidelines in the near future. OSHA has also 
begun work to develop other industry and task-specific guidelines to 
reduce and prevent ergonomic injuries that occur in the workplace.
    On the question of whether OSHA has sufficient funds for this 
effort, I can assure you that we have examined OSHA's budget request 
very carefully and believe we do.
                          retirement security
    President Bush and I share the priority of ensuring retirement 
security for our Nation's workers and retirees. To achieve that goal, 
the Department's Pension and Welfare Benefits Administration protects 
the integrity of pensions, health plans, and other employee benefits 
for more than 150 million participants and other beneficiaries in 
private benefit plans. From ensuring that workers receive the 
information they need to protect their benefit rights to ensuring that 
plan officials understand and meet their legal responsibilities to 
workers, DOL is helping millions of Americans rest a little more 
soundly at night. For fiscal year 2003, the President's request for 
PWBA is $121 million, a $7 million increase over fiscal year 2002, and 
861 FTE.
    The President is also proposing legislative changes that would 
reinforce the American workers' confidence in the security of the 
private retirement system. The President's Retirement Security Plan, 
announced on February 1, would strengthen workers' ability to manage 
their retirement funds more effectively by giving them freedom to 
diversify, better information, and access to professional investment 
advice.
    The Department's budget also proposes to provide additional 
resources to the Office of Inspector General to protect pension funds 
from labor racketeering, as is discussed below.
                    office of the inspector general
    The President's request in fiscal year 2003 for the Office of 
Inspector General (OIG) is $65 million, an increase of $5 million over 
fiscal year 2002. This increase will allow the OIG to further its 
mission of improving the effectiveness, efficiency, and economy of 
Departmental programs and operations through audits, investigations, 
and evaluations. The OIG also serves to detect and prevent fraud and 
abuse in DOL programs and labor racketeering in the American workplace.
                  office of labor management standards
    The Office of Labor Management Standards (OLMS) in the Department's 
Employment Standards Administration is the Federal agency charged with 
administering and enforcing most provisions of the Labor-Management 
Reporting and Disclosure Act of 1959, as amended. This law ensures 
basic standards of democracy and fiscal responsibility in labor 
organizations representing employees in private industry. OLMS serves 
as a key piece of the Department's enforcement strategy and manages 
50,000 worker-generated inquiries per year. For fiscal year 2003, the 
President is requesting an overall increase of $3.9 million and 40 FTE 
for OLMS to carry-out this important mission.
                 office of disability employment policy
    The President's fiscal year 2003 request for the Office of 
Disability Employment Policy (ODEP) is $47 million, an increase of $9 
million, or 24 percent over fiscal year 2002. This level will support 
ODEP's mission of providing leadership to increase employment 
opportunities for youth and adults with disabilities. In fiscal year 
2003, ODEP will provide technical assistance; identify and develop best 
practices; expand outreach, education, and constituent services; make 
policy recommendations, and promote ODEP's mission among employers.
    The fiscal year 2003 request for ODEP also continues support for 
the President's New Freedom Initiative to expand employment 
opportunities for individuals with disabilities. ODEP requests an 
increase of $4.9 million to expand the Olmstead Implementation Grants 
to provide employment services to support persons with significant 
disabilities who are moving from institutions into the community. ODEP 
also requests a $3.0 million increase for the youth services and 
training grants programs to assist youth with disabilities in 
fulfilling their potential in the workforce.
                 bureau of international labor affairs
    The fiscal year 2003 budget requests $55 million and 85 FTE for the 
Bureau of International Labor Affairs. Given that the agency's budget 
jumped 1,500 percent between fiscal year 1995 and 2001, the fiscal year 
2003 request would allow the agency to maintain sensible spending 
policies and return closer to its core mission and traditional labor 
advocacy role. In fiscal year 2003, ILAB will continue providing grants 
to international organizations to reduce exploitative child labor, and 
finance bilateral technical assistance to support international trade 
agreements.
    ILAB will also continue to coordinate the Department's global 
responsibilities and provide expert support for many of the 
Administration's international initiatives. The Bureau's core 
responsibilities include representing the United States government at 
the International Labor Organization and on the Employment, Labor, and 
Social Affairs Committee of the Organization of Economic Cooperation 
and Development. The fiscal year 2003 request recognizes the importance 
of promoting international labor standards and reducing child labor 
throughout the world while managing the growth of this activity.
                            labor statistics
    The 2003 request includes $21.5 million in additional funding for 
the Bureau of Labor Statistics and 2,529 FTE, the same number as fiscal 
year 2002. Included in fiscal year 2003 is $5.9 million for modernizing 
the computer systems of the Producer Price Index and International 
Price Program, along with continuing other important program 
improvements.
                 federal training and employment reform
    The President's 2003 Budget is launching a long-term reform of the 
Federal government's overlapping training and employment programs. The 
Federal government has at least 48 training and employment programs 
scattered throughout ten agencies. Although the programs vary 
considerably, their common goal is to improve participants' employment 
and earnings. However, no consistent measure exists to compare results 
across these programs. Definitions vary, data quality is uneven, and 
data are collected using different statistical techniques. Improvements 
are needed and, as a leader in Federal training and employment policy 
and programs, the Department supports this reform.
    The 2003 Budget begins this multi-year effort to target resources 
to programs with documented effectiveness and eliminate funding for 
ineffective, duplicative, and overlapping programs. The reforms 
proposed for 2003 would reduce the number of Federal job training 
programs from 48 to 28. Within DOL, the number would decrease from 17 
to nine through some consolidation, the transfer of some veterans 
employment programs to the Department of Veterans Affairs, and the end 
of funding for some programs that have not proven effective.
               veterans' employment and training service
    The President's fiscal year 2003 budget request for the Veterans' 
Employment and Training Service (VETS) is $212 million and 250 FTE. The 
2003 budget adopts the recommendation of the Congressional Commission 
on Service members and Veterans Transition Assistance to fund the 
veterans employment grant programs on a competitive basis with clear 
employment outcomes. In addition, we propose to move these VETS 
programs from the Department of Labor to the Department of Veterans 
Affairs. Programs transferred to the Department of Veterans Affairs 
(VA) will be the Disabled Veterans' Outreach Program (for which the 
fiscal year 2003 request is $82 million); the Local Veterans' 
Employment Representatives program ($77 million); and the Homeless 
Veterans' Reintegration Program ($17 million). In addition, the 
Transition Assistance Program, which provides job training, employment 
assistance, and other transitional services to separating service 
members, will also be transferred to VA. The total transfer to the 
Department of Veterans Affairs is $197 million and 199 FTE.
    The transfer proposal is designed to provide the inter-related 
services of education, training, vocational rehabilitation, homeless 
veterans reintegration, and employment as part of an integrated, 
seamless continuum of services. By operating all of these programs in 
the VA, the duplication of effort can be minimized and services to 
veterans can be strengthened. Our veterans deserve our attention to 
their employment needs. I am working closely with Veterans Affairs 
Secretary Principi on this proposed transfer to ensure that it will be 
smooth and seamless.
    The Department will retain responsibility for the Workforce 
Investment Act's Veterans' Workforce Investment Program and will 
continue to enforce veterans' employment and re-employment rights 
(USERRA) and veterans' preference. The fiscal year 2003 request for 
these remaining programs is $14 million and 51 FTE.
                  office of the 21st century workforce
    Last year, I announced the creation of the Office of the 21st 
Century Workforce. The mission of this office is to ensure that all 
American workers have as fulfilling and financially rewarding a career 
as they aspire to have, and to ensure that no worker is left behind in 
the limitless potential of the dynamic, global economy of this new 
millennium. Much has been done to further this effort.
    On June 20, 2001, I hosted the Summit on the 21st Century 
Workforce. The Summit was a rousing success as President George W. Bush 
and leaders from business, labor, academia, and government joined me to 
address the structural changes affecting our workforce and our economy. 
In January 2002, we hosted a Washington-area Job Fair and, in April, we 
launched the magazine XXI. The Office also worked with the Department's 
Women's Bureau to host the ``Women's Entrepreneurship in the 21st 
Century'' conference in March.
             implementing the president's management agenda
    The Department has instituted a systematic approach to addressing 
and implementing the President's management reform agenda. The five 
government-wide agenda reforms--Budget and Performance Integration; 
Strategic Management of Human Capital; Competitive Sourcing; Improve 
Financial Performance; and Expanding Electronic Government are teamed 
with a sixth reform with which the Department has been charged, Faith-
based and Community Initiatives.
    In August 2001, I established the Department's Management Review 
Board (MRB) to support the Administration's priorities and to 
coordinate action on management issues with Department-wide impact that 
require common solutions. Through the MRB, the Department has in place 
a management process that complements the President's Management 
Council, thus facilitating consistency in Departmental decision-making.
    The Department's fiscal year 2003 request includes an increase of 
$24 million for Information Technology (IT) activities. The increase is 
for the third year of the Department's efforts to replace previously 
duplicative and disparate systems with a coordinated and centralized IT 
investment strategy. The fiscal year 2003 request will support the 
acquisition of Departmental Information Technology, enterprise 
architecture, infrastructures, equipment, software, and related needs. 
These funds will be allocated by the Department's Chief Information 
Officer in accordance with the Department's capital investment 
management process to ensure a sound investment strategy for the entire 
Department. The Department's investment management process has been 
cited as a ``best practice'' by the Office of Management and Budget.
                 government performance and results act
    Initiatives under the leadership of the Management Review Board 
have advanced the Department's progress during the last year in 
managing for results and furthered our implementation of the Government 
Performance and Results Act (GPRA). As a majority of the Department's 
performance goals now focus on key program outcomes, DOL's attention 
has turned to developing a management infrastructure that will promote 
the achievement of these goals, thus ensuring continuous improvement in 
the results the Department achieves on behalf of the Nation's working 
men and women.
    The Department recognizes that, to be effective, performance-based 
management must become an integral part of DOL's daily operational 
practices. Among its most significant new management practices, the 
Department has incorporated the responsibility for achieving DOL's 
performance goals into the individual performance agreements or 
standards for all executives, managers, and supervisors. The Department 
will also expand the use of program evaluations during fiscal year 
2002, with an emphasis on improving the performance of programs not 
currently reaching their goals and assessing the effectiveness of 
programs not recently evaluated.
    The Department's recently-released fiscal year 2001 Annual Report 
on Performance and Accountability and the fiscal year 2003 Annual 
Performance Plan provide detailed information on the Department's 
results and our ambitious plans for the near-term. I look forward to 
working with you as these plans continue to unfold.
                          financial management
    The Department continues to demonstrate its commitment to 
responsible stewardship of the resources entrusted to us. This was 
reflected by the fifth consecutive ``unqualified'' or ``clean'' audit 
opinion on the Department's financial statements, as well as the 
Department's receipt of the Association of Government Accountants' 
Certificate of Excellence in Accountability Reporting. In the 
Department's recently-released fiscal year 2001 Annual Report on 
Performance and Accountability, we were also proud to report the 
successful completion of a multi-year initiative to bring all the 
Department's financial systems into compliance with the Federal 
Financial Management Improvement Act of 1996.
                               conclusion
    Mr. Chairman, this is an overview of what we have planned at the 
Department of Labor for fiscal year 2003 within the context of helping 
achieve the three overarching national goals of winning the war against 
terrorism; strengthening protections of our homeland; and revitalizing 
our economy and creating jobs. As I stated, from ensuring a workforce 
that is prepared for 21st Century challenges to providing a secure 
retirement to the Nation's workers, the Department of Labor will be 
hard at work in fiscal year 2003.
    I will be happy to answer any questions you may have on the 
Department's fiscal year 2003 budget request.

    Senator Harkin. Thank you very much, Madam Secretary.
    Senator Stevens.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Mr. Chairman, I hate to interrupt, but I 
have a bill on the floor and just wanted to make one comment.
    Senator Harkin. I'm sorry. The Senator is recognized for a 
statement or a question or whatever.
    Senator Stevens. There we go again, technology. Madam 
Secretary, I welcome you here, and I do thank you very much for 
what you are doing with regard to putting into effect the 
immediate implementation of the program you are developing 
industry-wide guidelines to prevent injuries, the repetitive 
stress concepts. I supported delaying the old regulations 
because I thought there ought to be a better way to do it, and 
I hope you will continue. I do have two questions, Mr. 
Chairman. I would ask my statement in full appear in the 
record.
    Senator Harkin. Without objection.
    Senator Stevens. I have come particularly because the 
Department turned down the applications from employees from an 
oil industry employer in Alaska because they said that the 
trade adjustment assistance funds would be used only for new 
job training and education. We are in a situation up there, as 
the oil industry is literally collapsing in our State, that it 
requires some concepts of dealing with these people. We know 
that there is an additional 120 from Anchorage alone that are 
being laid off, and I have got a question here that I am 
submitting. I would hope you would take a look at that, because 
we have to have assistance for these people. They are really 
displaced workers. Because of the changes in the oil industry, 
having been denied access to the drilling programs for the 
Arctic Slope, we are going to see a lot more lay-offs, and I 
hope that we can find some way to assist them.

                           prepared statement

    I thank you very much, Mr. Chairman, and I hope that you 
will put this statement and questions in the record. Thank you.
    [The statement follows:]
               Prepared Statement of Senator Ted Stevens
    Thank you Mr. Chairman. I'm pleased to be here today to welcome our 
Labor Secretary Elaine Chao to talk about her agency's budget request 
for fiscal year 2003.
    Madam Secretary, you are doing a great job in leading your agency 
on a number of fronts.
    I support your recently announced program to quickly put into 
effect a new program of incentive-driven compliance by business to 
protect workers against repetitive stress, or ``ergonomics'' injuries.
    As I understand it, your new program is developing industry-
specific guidelines to prevent such injuries.
    It has the advantage of immediate implementation, rather than the 
years-long wait for new regulations that new legislation on this 
subject would surely entail.
    Businesses will have incentives to keep workers healthy and safe.
    And, for that small number of businesses that do not maintain safe 
workplaces, two recent court cases--Beverly Enterprises and Pepperidge 
Farms--have affirmed that the Labor Department's ``general duty'' 
clause gives you the authority to step in and sanction offenders.
    I do support measures to protect our workforce from repetitive 
stress injuries. Your approach deserves to be given the opportunity to 
succeed, and I support your efforts.
    On another matter, the Senate Appropriations Committee's 
Supplemental Appropriations legislation, that we are debating on the 
Senate floor right now, does not provide the full funding of $550 
million for you to use for National Emergency Grants and $50 million to 
fund new projects targeted at high growth job areas.
    Our bill provides a total of $200 million for both National 
Emergency Grants and high growth job projects. As this bill moves 
through the full Senate and to conference with the House, we may find a 
way to increase the level of that funding for your department.
    After the events of September 11, many people across the country 
have felt the effects of the economic downturn. We need to have funds 
that can be made available quickly, where they are most needed, to help 
struggling communities and to put our people back to work in high 
growth job markets.
    Madam Secretary, thank you for the job you are doing with your 
agency.

    Secretary Chao. I am not aware of that, but I will take a 
look at it, but I think that also points to the flexibility of 
the national emergency grants. They are much more targeted and 
much more flexible, but I will take a look at it. Thank you.
    Senator Harkin. Thank you, Senator Stevens.
    Madam Secretary, as I mentioned to you earlier, I would 
like to now engage with you a little bit in discussion 
concerning something that I have been involved in for over 10 
years. I first introduced a bill here in 1992 regarding child 
labor and doing something about the introduction into 
international trade of articles made with abusive child labor, 
and so it has been a long process, and we have made some 
strides.
    And your Department, beginning just a few years ago, 
started doing some things on this. First of all, one of the 
best things the Department did was to compile seven volumes of 
investigations on the use of child labor around the world, and 
it is just a seminal work on what is happening with child 
labor, where it is, what they are doing, how these products 
intertrade. It was all done by the Department of Labor, so they 
are down in your shop, and it is really very, very good.
    What I said earlier is that we have some tremendous cuts 
here that you have asked for in your budget, in child labor. 
Just 2 weeks ago I joined 65 other Senators in supporting the 
bill to grant President Bush new trade negotiating authority, 
and the President said in Quebec: ``Our commitment to open 
trade must be matched by a strong commitment to protecting our 
environment and improving labor standards.''
    Well, before the Senate approved the bill 2 weeks ago, the 
Senate adopted my bipartisan amendment to that bill which makes 
ending the use of the worst forms of child labor in 
international trade a principal U.S. negotiating objective in 
all future trade talks. So in light of the President's 
pronouncement, the fact that at least in the Senate bill U.S. 
trade negotiators must now pursue an end to the use of child 
labor in the production of goods flowing in international 
trade, how can the Department justify the following cuts in the 
Bureau of International Labor Affairs?
    A 100-percent cut and the abolition of a U.S. bilateral 
program to combat abusive child labor by improving access to 
basic education for children who are removed from abusive child 
labor conditions.
    A 100-percent cut in funding for multilateral technical 
assistance.
    A 100-percent cut in funding for the U.S. Labor Department 
to improve monitoring and reporting with respect to 
internationally recognized worker rights and the core labor 
standards in foreign countries with whom the United States has 
international trade agreements, and as required by 14 different 
U.S. laws enacted since 1993.
    And a 33-percent cut in the U.S. contribution to the 
international program on the elimination of child labor.
    Now, these are the cuts. I just have them up on a chart up 
there. There is also elimination of at least 38 staff positions 
in the Bureau of International Labor Affairs within DOL. These 
are big cuts that really go to the heart of the effort that the 
Department of Labor has been making up to this year, I would 
say under both Democrat and Republican Presidents up to this 
year, and being in the forefront of the fight against abusive 
child labor.
    Now, again, if I might, 33 Senators just wrote a letter to 
FIFA, that is the--it is a French word. I cannot speak French, 
but it is the Federation for International Football, for 
soccer, asking that the World Cup games now being held in Korea 
certify that the soccer balls they are using are not made with 
child labor. I have information from the Global March Against 
Child Labor that they are, indeed, using soccer balls from 
countries where it is made with child labor.
    Now, there are soccer balls made in countries where they 
are not using child labor, and so 33 Senators signed the letter 
to ask them to do that. I personally am asking the U.S. World 
Cup team, which just had a great victory over Portugal, by the 
way, to insist that the next game they play, they play with 
soccer balls that are certified not made with child labor.
    And again, I have some charts. I can show you some 
pictures. These are ones that I have had for some time. Here is 
a young boy--his name is Tarik. He is 12 years old. He is hand-
sewing soccer balls with the Nike swoosh, and he is paid 60 
cents a day, and he works over 12 hours a day. And he is 12 
years old, making these soccer balls, but that is not bad 
enough. Here is a little girl. This is Silje. She is 3 years 
old. She has four sisters, and they make 75 cents a day 
stitching soccer balls.
    Pakistan alone stitches 5 million soccer balls a year just 
for the United States--just for the United States--and this 
says right here, Made in Pakistan. I do not care if they are 
made in Pakistan. That is fine. I just do not think they ought 
to be made by girls that are 3 years old and boys that are 12 
years old.
    So these things happen. And Madam Secretary, your 
Department, along with the Senate and the Congress in the last 
few years, have been making tremendous strides in both our 
funding for our contribution to IPEC and for taking leadership 
in ILAB to reduce this incidence of child labor. And I am just 
very, very dismayed that this budget makes these tremendous 
cuts in this effort that we were making.
    So any response you might have, Madam Secretary, I would 
appreciate.
    Secretary Chao. Thank you. Well, the President's budget 
provides ample resources to meet any reasonable request for 
technical assistance associated with the free trade agreement, 
so let me answer that first. I will work through the ILO to 
assist countries in implementing core labor standards and 
target funds at countries where there is a clear need for 
assistance and a willingness among the Government, the 
employer, and the worker representatives to adhere to the 
principles of the declaration on----
    Senator Harkin. Madam Secretary, I am sorry, I cannot hear. 
Can anybody turn up the volume on this thing? I cannot hear a 
thing. I don't know, is that a bad one, or what?
    Secretary Chao. How about this one?
    Senator Harkin. Ah. Now, much better.
    Secretary Chao. Mr. Chairman, thank you for the opportunity 
to answer some of your concerns. Let me begin with the free 
trade agreement. As I say, we believe the President's budget 
offers ample resources to meet any reasonable request for 
technical assistance associated with the free trade agreement. 
ILAB will work through the ILO to assist countries implementing 
core labor standards, and also target funds at countries where 
there is a clear need for assistance and a willingness among 
Government, employer, and worker representatives to adhere to 
the principles of a declaration on fundamental principles and 
rights at work.
    We are concerned about child labor. We are committed to 
eradicating and eliminating child labor. But ILAB saw a 1,400-
percent increase in appropriations in the past several years 
for an organization that in 1996 had a budget of $9 million. 
For it now to absorb $147 million is beyond the capacity of 
this organization. As I have mentioned in the past, the 
Inspector General has raised concerns over ILAB's management 
structure, control over the grant programs, and the roles and 
responsibilities of individual staff to manage this increased 
level of funding.
    We have committed $3 million to help retrain workers to 
reenter the economic mainstream in certain countries. We have 
also had $5 million to improve access to basic education for 
children in Pakistan, and perhaps, we believe that the improved 
access to basic education would be a way to help eliminate 
abuse of children at this early age.
    Senator Harkin. What was that last statement, Madam 
Secretary? I'm sorry?
    Secretary Chao. We also have a $5-million grant to improve 
basic education for children in Pakistan. We also have a $1.8-
million program to support a program through the ILO to combat, 
again, child labor issues.
    Senator Harkin. I hate to interrupt, but where did you get 
that $5 million? I am looking at my chart here.
    Secretary Chao. It is to provide basic education for 
children. Then there is a $1.8-million----
    Senator Harkin. I have got it zeroed out in my budget 
request from you.
    Secretary Chao. I will clarify this. You are right about 
that. The child labor IPEC grant is $30 million.
    Senator Harkin. IPEC is--oh yes, that is $30 million, that 
is right, but on the basic education, that was zeroed out. 
Thank you.
    Secretary Chao. We are concerned about this tremendous 
increase in funding, and whether the organization, again, has 
the capacity to be able to effectively manage it, and truly 
adhere to its core mission.
    Senator Harkin. My time is up, and I apologize to my fellow 
Senators. I will just finish by saying that in your budget 
document, quite frankly, you talked about the increase in 
funding for ILO, IPEC activities, and talked about all of these 
significant things that were being done with it. There is 
nothing here that indicates that you were not able to use those 
funds. In fact, you said that also in fiscal year--listen to 
this. This is your budget document: ``In fiscal year 2001, 
25,500 children were actually prevented or removed from 
exploitative work through ongoing ILO/IPEC projects funded by 
DOL.''
    Well, congratulations. I think that is great, and so--and 
then when you say there has been a 1,400 percent increase, 
well, I always respond when I hear that, where did we start 
from? If you start from zero, zero to 1 is an infinite 
increase. And the fact is that in 1996 we only had one program. 
That was just this basic ILAB program. This Congress added 
these other programs, so these are new programs, and we went 
from fiscal year, basically, in 1998, 1999, 2000, 2001, and 
2002. So when you start with a new program, obviously whatever 
money you have is an infinite increase. You could have said 
that for basic education, it was an infinite increase, because 
it went from zero to $37 million.
    Secretary Chao. Well, in 1996 ILAB had about $9 million, so 
it is a big increase.
    Senator Harkin. Well, ILAB had about $8.9 million in 1996, 
but that was the only thing we had. I am just saying that these 
are new programs that we started, so I am not too impressed by 
the fact that it is a 1,400 percent increase.
    Secretary Chao. It does present a management challenge.
    Senator Harkin. I understand, but your budget document does 
not say anything about any kind of management challenge 
whatsoever.
    Secretary Chao. That was an oversight which we should have 
put in.
    Senator Harkin. You have utilized this very, very well, and 
I compliment you for that. I just want the budget request 
different, that is all.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. Let me 
just start by thanking you for your tremendous leadership on 
the issue of child labor. And I think that the tragic picture 
you showed of this young girl behind us really underscores the 
need for us to keep our focus on this. And since I have been 
here in the Senate you have been a voice for children 
everywhere who have been lost for a very long time, so I really 
appreciate your devotion to this subject.
    Madam Secretary, following along on focusing on young 
people and where we are today, I think it is pretty clear that 
today's workers need more education and training so that they 
can develop skills that really reflect the changing economy 
that they are growing up in.
    I think the events of September 11, factors like the 
collapse of the Enron Corporation, the fact that major U.S. 
companies are continuing to move abroad, really underscore the 
need for us to make sure our workforce is more adaptable, and I 
am very concerned that your budget provides $289 million less 
for youth employment and training programs in 2002, and I 
really believe that we should be increasing, not decreasing our 
investments that focus on one of the most vulnerable sectors of 
the workforce, and that is our young people here.
    I am particularly concerned that you propose to cut the 
youth opportunity grants by $181 million, and essentially that 
guts the program. It goes from $225 million in 2002 to 44.5. 
That is going to hurt kids in inner cities and high poverty 
areas that are trying to transition from school to work, and if 
you could explain to this committee why you are requesting an 
elimination of a program that really gives our most at-risk 
youth some hope that they can be productive members of our 
society by helping them stay in school and find work when they 
graduate.
    Secretary Chao. We are very committed to helping young 
people access hope and opportunity. The youth opportunity 
grants were a pilot program, and what we thought would be a 
more effective way of helping them is to channel this money 
through the WIA funding stream.
    Senator Murray. I am sorry, through----
    Secretary Chao. Streamline this money through the Workforce 
Investment Act, and let the States have the flexibility of 
deciding how they want to help the youth in their community.
    Senator Murray. So have you increased the WIA budget?
    Secretary Chao. There is a $1.7 billion excess overhang.
    Senator Murray. Is there any directive to the WIA boards to 
focus on youth?
    Secretary Chao. It is pretty much a block grant. We do not 
direct them to do very much at all.
    Senator Murray. Well, I would be very concerned with that, 
because a lot of our States, like mine, are really having 
difficulty right now. We have the second highest unemployment 
in the Nation in the State of Washington, and just block-
granting money out to the States, there is real concerns. Of 
course they love block grants, we all love block grants, but I 
think at the Federal level we need to continue our focus on 
making sure that young people across this country, no matter 
where they are or where they come from, or what the economic 
opportunities are, have that kind of adaptability, so I am very 
concerned about this gutting of the youth opportunity grants 
program.
    Secretary Chao. Senator, let me qualify. There are 
currently 36 grantees, and they will receive their 5-year 
funding commitments.
    Senator Murray. Well, the other area, Mr. Chairman, that I 
am very concerned about has to do with dislocated workers. And, 
like I said, my State has the second-highest unemployment in 
the Nation. We have had a lot of problems with layoffs in our 
State. The energy crisis precipitated it, the high tech sector 
deflating a year and a half ago. September 11 made it worse. We 
have had layoffs at Boeing.
    We are a very high-tech State, Boeing-dependent State, and 
we are really hurting right now. And the recent Department of 
Labor decision to cut adult employment and training programs by 
$39 million, after last year you requested a $257 million cut, 
is really going to have an impact on our ability to help those 
dislocated workers. Can you explain your rationale behind that 
cut?
    Secretary Chao. We just recently gave your Governor $15 
million in national emergency grants.
    Senator Murray. But your overall budget request last year 
was cut $257 million and this year $39 million.
    Secretary Chao. We disagree with the characterization that 
resources will be cut, because again we have $1.7 billion in 
excess unused funds. This is going to be a debate that we are 
going to have next year as well. What I, and I am going to 
suggest that we work on reauthorization of the Workforce 
Investment Act, because right now this is a block grant program 
that goes out to the States. We have very little control over 
it. And I get very little information. And based on the 
information that we have received from the States, there is an 
overhang of $1.7 billion in excess, unused funds.
    Now, the States may disagree with that. Not the States, the 
localities, the individual districts may disagree with that. 
But we are going to have this discussion every year, and so I 
would suggest that with reauthorization coming up next year, 
that we work on this issue in terms of getting better 
information on where the districts are in terms of their unused 
funds.
    Senator Murray. Well, I am happy to work on reauthorization 
on WIA with you, but the needs are real now. Our unemployment--
--
    Secretary Chao. We are not compromising the quality of 
these programs.
    Senator Murray. With the budget cuts you are requesting----
    Secretary Chao. These are not budget cuts. There is $1.7 
billion in excess, unused funds in the system.
    Senator Murray. Well, Mr. Chairman, I would like to work 
with you, and I would like to see your figures and rectify 
the----
    Secretary Chao. Actually, may I just put the chart up a 
little bit? Is there a chart here?
    It is a matter of carryover funds, so we do not plan, nor 
expect, any compromises in the quality. We do not expect a 
decrease in the number of people served due to the carryover 
funds. You have the budget authority in green, the carry-in----
    Senator Murray. So you are saying that you had excess funds 
before; therefore you are coming in at a much lower budget 
request now because you do not think the States need the money?
    Secretary Chao. It is not a much lower funding request. We 
had the same discussion last year, and I would love more than 
anything not to have this discussion again, but we are going to 
next year. There is this continuing overhang of funds, which go 
unused.
    Senator Murray. Well, let me just point out that the 
economy of the last, whatever, 6 years you have on there is 
dramatically different than the economy that we are facing 
today, where again, because of the energy, because of the high-
tech drop in employment, because of layoffs, because of 
September 11, in my home State because of Boeing, those 
requests for dollars are not going to be decreased this year.
    The economy, as I think everybody knew, is in a recession; 
it still is in my State. And I am very concerned, at a time 
when our economy is hurting, that we are taking a look back at 
the last 6 years when everyone was doing well, and then looking 
at what we need.
    Secretary Chao. And I do not mean to be argumentative or 
disrespectful, but every State has a surplus.
    Senator Murray. Well, thank you, Mr. Chairman, and I will 
continue this discussion. I realize my time is up. I do have 
other questions. I have to get to another meeting, but I would 
like to submit them for the record.
    Senator Harkin. Absolutely. Thank you very much, Senator 
Murray.
    Senator Landrieu, I know you wanted to make an opening 
statement, too, so I would extend the time for you to make an 
opening statement.

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Well, actually, Mr. Chairman, I would 
just like to submit my opening statement for the record and 
just go right into just a couple of questions.
    Let me first comment and follow up on both, Mr. Chairman, 
what you and what Senator Murray said. First, to give my full 
support to you and to your efforts in terms of child labor.
    And particularly as we focus, Madam Secretary, on the new 
and exciting and wonderful opportunities for trade, more global 
trade, more international trade, the opportunity to help build 
a middle class, the opportunity to encourage educational 
opportunities for all people, not just children but people of 
all ages, but particularly the children of the world, and to 
use the enforcement mechanisms and the budgetary strengths that 
we have as a Nation, I think are crucial in our battle against 
inappropriate and excessive, or inappropriate child labor. And 
if the agency that we have tapped is not able to absorb the 
additional funds, then we could create several other agencies, 
several other avenues to get these desperately needed funds to 
help solve a problem that is truly horrific.
    And, frankly, no one in the world supports child labor, not 
Democrats, not Republicans, not people in the United States, 
and so Senator Harkin, I think even with his great efforts 
there are a couple of hundred million, or maybe 100 or 150 
million. To me, the problem is so great that it would take a 
lot more money than that. So it is our challenge to create the 
entities that can use it effectively and to stop these children 
from sewing soccer balls and everything else they are doing, so 
I just want to support Senator Harkin and just urge us to not 
cut funding, but to perhaps reorganize so our work can be more 
effective.
    And what Senator Murray said, let me also say, that I am 
also concerned and have received quite a few calls, Madam 
Secretary, from Louisiana about the loss of the youth challenge 
grants. There seems to be a lot of confusion out there on this 
budget matter. So perhaps this morning is not the time to get 
into the details, but I really want to work with your office, 
because these youth challenge grants have been used 
effectively. There is some confusion about the zeroing out of 
that and consolidating it, so I will get back with you on that.

                           prepared statement

    But one program that came up just last week on the Senate 
floor, and I wanted to call your attention, as you know or are 
probably aware, the Louisiana delegation has been very 
supportive both in the House and the Senate, on helping both 
the last administration and this administration opening up 
trade opportunities. We have been more of a pro-trade 
delegation and are happy to do that. But a recent decision by 
the administration to improve steel imports has now put 
hundreds of our maritime workers' jobs in jeopardy, and while 
we were unable to secure administration help for these workers 
in the trade bill on the floor, the administration did give us 
an indication that you, Madam Secretary, might be able to give 
them some relief through this emergency grant provisions that 
you have, that the rules are written in such a way that you 
could give them some relief.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Mr. Chairman, thank you for holding this hearing that, I trust, 
will guide us in making sound, informed decisions as we enter the 2003 
appropriations cycle. I am very pleased to see Secretary Chao here to 
comment on the Department of Labor's budget. As our economy slowly 
emerges from recession, and as we contemplate broad Presidential 
authority to negotiate trade agreements, I believe it is vital that 
this Department has a budget that will meet the challenges that we 
place before it.
    There is an old Confucian proverb that summarizes my view of the 
Department of Labor's role in our economy.

    ``He that would perfect his work must first sharpen his tools.''

    In today's post-industrial economy, the tools that we need for 
success are not machines, but a educated, trained and skilled workers. 
Thus, if we are to perfect the workings of this economy, we must first 
sharpen the quality of our workforce. With that in mind, I believe we 
should focus our attention on three ideas: job training, job safety, 
and job security.
    In the time since the September 11 attacks, we have transformed our 
priorities, our actions, and our vocabulary. Today we are focused on 
our national security. President Bush has called for an economic 
security plan. And while we will discuss the specifics of his plan in a 
minute, it is helpful to remember what this means for the average 
American. It means jobs. What is the most effective way to create jobs 
for Americans? And how do we keep those jobs both safe and secure.
                              job training
    The President has placed most of the job training money for next 
year's budget into Job Corps, offering an increase of $73 million. I 
applaud the President on this initiative. Job Corps centers are an 
effective resource that deserves our support. I have two Job Corps 
centers in my state that serve to train hard working young people to 
become productive members of society. But these Centers are not enough. 
At any one time, these centers can only serve 375 people. We need to 
extend Job Training programs in all areas, to reach the greatest 
possible number of affected people. Some people are simply unable to 
leave their homes and communities for six months to a year in order to 
complete residential job training programs.
    In my state, programs like Youth Opportunity Grants have led to 
marked improvements in some of the poorest areas of Louisiana. It seems 
contradictory to cut funding for job training in these areas while the 
nation's unemployment rate is near double what it was last year. For 
three parishes in Northeast Louisiana, East Carroll, Madison, and 
Tensas, the unemployment rate hovers near 12 percent, almost double the 
national average. Youth Opportunity grants have served more than 1000 
young people in Louisiana. That means 1000 people have access to GED 
education, Job Training, and College scholarships. Youth Opportunity 
and similar programs must be given the chance to capitalize on such 
success stories.
    Job Corps has been in existence for nearly 30 years. Its methods 
have been perfected and its success rate is high. And please don't 
misunderstand me, I support Job Corps. But I don't think that this 
program is right for every American in every situation. Other, newer 
programs are being cut without the benefit of 30 years to achieve real 
program efficiency. We won't know if a program works until we allow 
that program to operate. Then we can study it. Then we can tell if the 
program is effective or ineffective.
                               job safety
    The President and the Congress are focused on job safety. Last 
year, the Senate and the House voted to disapprove of the previous 
administration's ergonomics rule. I agreed with the majority of my 
colleagues not because I don't believe in ergonomic standards, but 
because I disagreed with that particular rule.
    We need some sort of rules and regulations to protect workers. Its 
just that simple. Over 5 million people were injured on the job in 
2000. These Americans expect and deserve our protection. While the 
voluntary standards that the Administration is recommending are 
laudable, they miss the point. Voluntary compliance works for good 
actors precisely the type of people that are likely to support best 
practices within the workplace without any government compulsion. Of 
course, these entities are not the problem. It is the bad actors that 
need the motivation, and i see no way to provide it short of a 
regulatory regime.
                              job security
    The message of the administration is clear in this area: Every 
American deserves to be secure in her job. Secretary Chao, you may 
remember, and my distinguished colleagues will certainly remember, the 
debate here in the Senate on the Trade Bill last month. This Senate 
debated long and hard regarding adequate protections for workers who 
lose their jobs because of the trade practices of Foreign Governments 
and Corporations. But when workers are hurt by the practices of the 
United States, they get no help whatsoever. The President's steel 
tariff has hurt workers at Ports around the country and especially at 
the Port of New Orleans. It is only fair that the United States 
compensate workers when its trade practices hurt them.
    Soon, the state of Louisiana will apply for a National Emergency 
Grant, and I urge the administration and Secretary Chao to look 
favorably upon this application, as my state is in great need for 
assistance for these workers.
    I look forward to hearing your testimony and your answers to our 
questions.

    Senator Landrieu. My first question is, is that true, that 
you were able to give them some relief? Would you be willing to 
offer assistance and to help work with us in Louisiana and help 
us to process the applications necessary to tap into those 
funds?
    Secretary Chao. The short answer is, of course. I might 
also add again--and I am going to put a plug in for national 
emergency grants. The TAA process is very cumbersome. It takes 
a very, very long time to process, and many times it is harder 
to obtain. The national emergency grants are very targeted, 
they are very flexible, they are very responsive, and they can 
be out within a very short period of time, so we would look 
forward to working with you on that.
    Senator Landrieu. There are hundreds, Mr. Chairman, of 
maritime workers that have worked for years on our docks that 
are being negatively affected because the steel imports, 
certain steel imports have been diminished because of the 
tariff. Of course, it was put on to help other workers in other 
parts of the State, but the maritime workers now have been 
negatively affected. So this perhaps would be an opportunity to 
help them get through this very difficult time, and I want to 
work with you, and I thank you for that.
    My second question or comment would be about the ergonomics 
issue. As you know, I was one of the majority of Senators that 
suggested that the rule that we had come up with was too broad, 
too difficult, would have maybe caused more problems than it 
would have solved. On the other hand, Senator Breaux, Senator 
Lincoln and myself and some others that objected to the initial 
rule have been very committed to working with you on a new 
rule. My question is, have you made a decision that this new 
rule is going to only be voluntary? And if that is your 
decision as Secretary, what could you offer today that would 
make me or other Senators believe that companies that are not 
engaging in good practices with their workers--what would make 
them follow a voluntary set of guidelines? And my question is, 
are you supporting only voluntary and not mandatory and, if so, 
what would make you believe that companies would follow 
voluntary guidelines?
    Secretary Chao. We have proposed a comprehensive approach 
that consists of guidelines, teamed with an aggressive 
enforcement program, teamed with a third phase, which is an 
aggressive outreach program for employers and employees to 
reduce ergonomic injuries, and fourthly, to do additional 
research. How do we prevent ergonomic injuries? There are three 
gaps in the science area on ergonomic injuries. So it is a 
comprehensive approach that relies not just on voluntary 
guidelines, but it is a very aggressive approach that 
encompasses outreach, education, and enforcement.
    Senator Landrieu. So you are saying that you will support 
mandatory enforcement of certain new rules?
    Secretary Chao. Part of the problem with any sort of 
mandatory program is that, if it is very prescriptive, it is 
one-size-fits-all, and it does not allow for the creativity of 
workers and employers at a particular work site to decide how 
best to reduce ergonomic injuries. We have had many, many 
examples of very innovative and creative solutions of employers 
and workers working together to reduce ergonomic injuries. Part 
of the reason why the previous rule, which was bipartisan, as 
you mentioned, was not successful, was that it was 
prescriptive, and it took a very long time to effect.
    The other thing about the previous rule which I was very 
concerned about was that an injury would have to occur before 
the process would be triggered And I think under the guidelines 
approach, and this comprehensive approach, that we be able to 
prevent injuries before they occur and do so in a very fast 
manner.
    Senator Harkin. Senator Landrieu, if I could, we have a 
vote on.
    Senator Landrieu. Oh, I am sorry.
    Senator Harkin. I am sorry to have to cut you off, but 
Senator Specter wanted to have something.
    Senator Landrieu. I am sorry. Go right ahead.
    Senator Harkin. We have only got about 8 minutes.
    Senator Landrieu. Thank you. But let me just say, I look 
forward to working with you, Madam Secretary. Because I agree 
that the formal rule--with you. But I do not think that 
voluntary standards is where we need to be.
    Senator Harkin. I agree with you, Senator. Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman. I regret my late 
arrival, but the Judiciary Committee at this moment is hearing 
Director Mueller on the terrorism issue, and that is, I do not 
have to tell you, it is all-consuming.
    Next to terrorism, Secretary Chao, your issues are the most 
important for the country, but they are in second place, behind 
terrorism.
    I have noted your budget, and I know you are under very 
tight constraints with the Office of Management & Budget, but I 
am concerned about the cuts in job training and the elimination 
of training for migrant and seasonal farmers and the cuts in 
international labor affairs, and the absence of an increase for 
worker protection.
    The ergonomics issue continues to be one of controversy, 
and I supported, as you know, the congressional action to 
eliminate the ergonomics bill because it was simply too 
complicated, and I know you have been working on it for a long 
time and have come up with the approach of voluntary standards, 
which I have grave concerns about. I have cosponsored 
legislation, but candidly, in part to keep your Department 
moving as to what will be done before there could be 
legislation. Perhaps if there was an outpouring of 
voluntariness that really solved the problem, legislation would 
not be necessary. Candidly, I doubt that there will be that 
outpouring of voluntariness, but let us see.
    But what is happening on the efforts to have voluntary 
compliance with the problems and issues here on repetitive 
motion, et cetera?
    Secretary Chao. We actually are doing quite a bit. As I 
mentioned, we did come out with a comprehensive approach and so 
it is not just voluntary guidelines. It is also a match-up of 
our enforcement policy with our legal policy, and we intend to 
go after the bad actors very aggressively.
    Senator Specter. What will you do to the bad actors if they 
do not voluntarily comply?
    Secretary Chao. I think we have been pretty effective in 
invoking 5(a)(1) with focus and determination, and we have 
coupled it with our enforcement, and as an example we have 
settled with Beverly.
    Senator Specter. How do you do that, Madam Secretary, if 
you do not have OSHA regulations in place to give guidance to 
what should be done? What we are looking for is something which 
gives direction but is not onerous, but at the present time, 
what do they have to comply with which you would have a basis 
for enforcement action on?
    Secretary Chao. The OSHA act has a general duty clause 
which requires employers to provide their employees with 
employment that is free of recognized hazards that are likely 
to cause serious physical harm, and to establish a violation 
there are a certain number of conditions which are evaluated 
and determined subsequently.
    Senator Specter. Madam Secretary, we are about to go to a 
vote. Would you do this, would you provide the subcommittee the 
specifics?
    Secretary Chao. Sure.
    Senator Specter. That sounds like such a very generalized 
standard as to be----
    Secretary Chao. We have been pretty effective in using it, 
again, with Beverly, and we have said that we are going to have 
guidelines in the health care industry, and we are going to be 
announcing two additional industries with which we will have 
alliances as well.
    Senator Specter. It sounds like you have been effective. 
What I would like you to do is submit in writing the specifics.
    Secretary Chao. We will do that.
    Senator Specter. What enforcement can you undertake from 
that generalized standard? Give us a dozen illustrative cases 
as to where you have gone, and how you have been effective, and 
we will take a look at that.
    Thank you very much, Madam Secretary. Thank you, Mr. 
Chairman.
    Senator Harkin. Thank you, Senator Specter. We have just a 
little bit of time. I have two last issues, one I think Senator 
Specter would also be interested in. You are proposing a cut of 
$4.7 million and 65 full-time staff from the coal mine 
enforcement activities in the Mine Safety and Health 
Administration, yet the number of coal miners killed has 
increased. 29 were killed in 1998, 34 in 1999, 38 in 2000, 42 
in 2001. I think you should take another look at this to make 
sure there is no reduced effort in enforcement of the Mine Act. 
My father worked for 20 years in the coal mines, so I have a 
little bit of interest in this, and to make sure that we do not 
back down, especially----
    Secretary Chao. We are not cutting back enforcement at all. 
We are very concerned about that.
    Senator Harkin. You are cutting back 65 full-time staff.
    Secretary Chao. We are reducing the bureaucracy and the 
layers. It is in the management layers. Also from 1995 to 2001 
the number of coal mines in America have reduced by 30 percent, 
approximately, and the requisite----
    Senator Harkin. The number of mines have gone down, but the 
number of deaths are going up.
    Secretary Chao. We are concerned about the deaths, of 
course. Last year we had a horrible accident with a mine in 
Alabama that I personally visited.
    Senator Harkin. But there is one last thing I have to bring 
up. In fiscal year 2001 appropriation there was $500,000 
appropriated to the Des Moines Area Community College for the 
establishment of a manufacturing skills training center. In the 
same bill, there was $461,000 for the University of Northern 
Iowa for a program to integrate immigrants and refugees into 
the workforce.
    I am sorry to say that neither one of these have been 
awarded by your Department. The funding for the Employment and 
Training Administration works on a program year, which means 
its funding will expire in 24 days. I can tell you, Madam 
Secretary, I will be very unhappy if this funding is not out by 
then, and I will not be the only one. The money for the 
$461,000 for UNI was provided by the chairman of the House 
Budget Committee, Congressman Nussle. I do not think he would 
be very happy, either, to have this expire, so I hope you will 
have your people take a look at this and get this funding out 
before it expires before the end of June.
    Secretary Chao. I will do so.
    Senator Harkin. Thank you very much. Madam Secretary, thank 
you, and we look forward to working with you again. There is a 
lot I like in what you have done. There are some things that we 
have to work out in the child labor area.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
                  dol and usaid cooperative agreement
    Question. Is DOL now party to or has it ever been party to a 
cooperative agreement with USAID, using the Economy Act or otherwise, 
as part of an inter-agency agreement to implement some of the bilateral 
projects designed to help reduce abusive child labor by improving 
access to basic education. If so, please provide copies of pre-existing 
or current cooperative agreements. If not, why not?
    Answer. A cooperative agreement does not exist between DOL and 
USAID on international child labor. Consistent with the language in the 
appropriations bill, DOL regularly consults with USAID in the 
development of spending plans for the Child Labor Education Initiative. 
USDOL officials have also held consultations with USAID staff in the 
field during country needs assessments conducted to ascertain the 
extent and nature of exploitative child labor and its impact on 
children's school attendance. DOL is currently collaborating with USAID 
and the ILO's International Program on the Elimination of Child Labor 
(ILO-IPEC) on the development of a joint project to address child 
labor, trafficking, and rural development in West Africa.
                    enforcement of child labor laws
    Question. Since 1983, the Congress has enacted 14 different laws 
linking U.S. trade, investment, and aid benefits to compliance with 
child labor and related worker rights laws in foreign countries, not to 
mention the applicable international law. How is your Department 
stepping up to the challenge of securing effective enforcement of these 
laws and what have you done in this regard to make certain that Labor 
Department findings and recommendations are taken more seriously and 
acted upon by the USTR, State, Commerce, and Treasury Departments in 
the Inter-agency Trade Policy Committee?
    Answer. DOL is an active participant in the interagency process 
that is responsible for applying U.S. laws conditioning trade, 
investment, and aid benefits for foreign countries on their adoption 
and implementation of internationally recognized worker rights. Within 
the interagency process, the Department of Labor plays a lead role in 
developing materials and documenting the extent to which labor laws and 
practices in foreign countries meet the standards set out in U.S. law. 
In recent times, these efforts have included, for example, extensive 
analysis of worker rights in potential beneficiaries of the United 
States-Caribbean Basin Trade Partnership Act (CBTPA) and the African 
Growth and Opportunity Act (AGOA), as well as detailed follow-up 
research pursuant to their continued eligibility in these programs.
    For example, the United States self-initiated a labor review of 
Guatemala in 2000 pursuant to the Generalized System of Preferences 
(GSP) and DOL conducted a large part of the research connected with 
this case. As part of the GSP review, DOL staff traveled to Guatemala 
as part of an interagency team in April 2001. The United States' review 
led to significant improvements in worker rights in Guatemala, 
including a major reform of the national labor code. DOL has also 
participated in consultations between the United States and other CBTPA 
and AGOA beneficiaries.
    DOL has also actively pursued labor aspects of U.S. investment and 
aid policies. The Deputy Secretary of Labor is a member of the Board of 
Directors of the Overseas Private Investment Corporation (OPIC). DOL 
provides regular input to the Treasury Department to help implement 
statutes that require U.S. representatives to international financial 
institutions to adopt programs and policies in support of 
internationally recognized worker rights.
                         combating child labor
    Question. In the fiscal year 2002 Act, our Subcommittee 
incorporated virtually every request you made to provide flexibility 
and to equip your Department to more efficiently and responsively 
administer all ILAB's activities. We also gave you more tools to use to 
strengthen and extend ILAB's internal capacities and to affirm its 
growing importance vis-a-vis other federal agencies. Accordingly, how 
many and which countries, for example are now waiting in line at the 
doors of DOL and the ILO respectively in search of assistance and 
resources to implement projects and programs to combat the worst forms 
of child labor by improving access to basic education?
    Answer. According to the ILO, approximately 211 million children 
between the ages of 5 and 14 were working around the world in 2000. 
Given the extent of the child labor problem, many countries have 
requested assistance from the ILO's International Program on the 
Elimination of Child Labor (ILO-IPEC). Since fiscal year 1995, the U.S. 
has provided approximately $112 million to IPEC to fund projects that 
provide viable alternatives to child labor in over 40 countries; the 
U.S. is currently the largest contributor to IPEC. However, it is clear 
that the magnitude of the child labor problem around the world easily 
exceeds the availability of funding from all donors to address the 
situation.
    In both fiscal year 2001 and fiscal year 2002, DOL received $37 
million with a two-year obligation authority to fund child labor basic 
education projects in countries with a high incidence of child labor 
and lack of access to quality basic education. On the basis of 
carefully developed pre-selection criteria, nine countries will be 
funded with fiscal year 2001 funds. As of April 2002, $19 million out 
of the $37 million appropriated in fiscal year 2001 had been obligated 
for projects in India, El Salvador, Nepal, and Tanzania. The remaining 
funds will be used for programs in Bolivia, Pakistan, Peru, Togo and 
Zambia and will be obligated by September 30, 2002. In addition, $5 
million of fiscal year 2001 funding has been earmarked for a global 
Education Innovations grant that will provide funds for organizations 
proposing grassroots innovations for the education of child laborers 
and for identification and dissemination of best practices in 
community-based education initiatives. It is planned that at least 
seven more countries will be funded by September 30, 2003 with the $37 
million appropriated to DOL in fiscal year 2002.
       obligations of fiscal year 2001 and fiscal year 2002 funds
    Question. Why has DOL been so slow in obligating all of the fiscal 
year 2001 and fiscal year 2002 funds appropriated to provide such 
assistance?
    Answer. DOL has undertaken a systematic process for programming the 
funds which included extensive consultation with USAID and U.S. 
Embassies in 22 countries, strategic planning, in-country needs 
assessments, and drafting and signing of letters of understanding with 
concerned ministries in countries where projects have been planned. A 
joint DOL-USAID spending plan identifying target countries was 
completed in February 2002. All of these time-consuming steps have been 
carried out in order to establish strong foundations before granting 
implementation awards to eligible organizations.
    availability of funding for child labor basic education projects
    Question. Even now, why is it that DOL has failed to define and 
post to the Federal Register clear guidelines for interested employer 
groups, trade unions, and NGOs to submit project proposals in this 
regard and get timely decisions?
    Answer. To inform interested parties and provide advanced notice 
about the availability of funding for child labor basic education 
projects, USDOL published in the Federal Register on April 18, 2002 a 
notice of intent to solicit applications for grant applications for 
awards to be given before September 30, 2002. Four Solicitations for 
Grant Applications (SGAs) have already been published in the Federal 
Register (Togo, Education Innovations, Pakistan and Peru/Bolivia). Each 
of these SGAs gives very clear and precise instructions to potential 
applicants on the requirements and guidelines to receive the awards. 
These four SGAs have either already closed or will close by July 9. A 
final SGA for Zambia will close July 31. DOL expects all awards for 
fiscal year 2001 funds to have been obligated by August 2002.
            nafta supplementary agreement on labor standards
    Question. Pursuant to the NAFTA Supplementary Agreement on Labor 
Standards, what specific actions has DOL taken following the 
Ministerial Consultations of the ITAPSA and Han Young health and safety 
complaints, which were combined and supposed to have been ``resolved'' 
by August 2001?
    Answer. Under a Ministerial Consultations Joint Declaration signed 
in May 2000 to address the ITAPSA and Han Young submissions, the United 
States and Mexican labor departments agreed, among other things, to 
hold a government-to-government session for experts from the two 
countries to exchange information on techniques and policies to promote 
compliance with safety and health laws and regulations. Due to 
scheduling difficulties, this session has not yet taken place. On June 
11, 2002 Secretary of Labor Elaine L. Chao and Mexican Secretary of 
Labor Carlos Abascal established an ongoing bilateral occupational 
safety and health working group tasked with reviewing safety and health 
issues raised in the submissions, formulating technical 
recommendations, and developing technical cooperation projects. The 
working group will be co-chaired by the U.S. Assistant Secretary for 
Occupational Safety and Health and the Mexican Director General for 
Occupational Safety and Health and will hold its first meeting in early 
July. The establishment of this working group will create a continuing 
forum for addressing occupational safety and health issues with the 
Government of Mexico and offers a stronger commitment than the 
previously agreed to government-to-government session.
     evaluation committee of experts request by petitioners in the 
                        customtrim/autotrim case
    Question. Recently, DOL denied a request by the petitioners in the 
Customtrim/Autotrim case for an Evaluation Committee of Experts. Why 
should these petitioners be denied this request when the prior 
Ministerial Consultations on health and safety have literally taken 
years and have resulted in no substantial improvements in the 
implementation of Mexican laws?
    Answer. The Auto Trim/Custom Trim submission was filed with the 
U.S. National Administrative Office on July 3, 2000, and was accepted 
for review on September 1, 2000. The NAO issued a public report on 
April 6, 2001, and Secretary Elaine L. Chao requested ministerial 
consultations on June 25, 2001, which were accepted by Mexican 
Secretary of Labor Carlos Abascal on July 24, 2001. When, in early 
2002, the petitioners requested that Secretary Chao seek an Evaluation 
Committee of Experts (ECE), we were engaged in ministerial 
consultations with the Government of Mexico. As was explained to the 
submitters, a request for an ECE at that time would not have been 
appropriate and would not have furthered the objectives of the North 
American Agreement on Labor Cooperation or the interests of the U.S. 
Government. The consultations continued and, on June 11, 2002, 
Secretary Chao signed a Joint Declaration with Mexican Labor Secretary 
Carlos Abascal addressing the issues in the Auto Trim submission. In 
addition to the establishment of a bilateral occupational safety and 
health working group as described above, the Government of Mexico 
committed to outreach efforts to inform workers about the status of 
cases related to prevention of and compensation for occupational 
injuries and illnesses, the right to file complaints and to appeal 
decisions, and the availability of free legal advice and assistance 
offered by government entities to assist workers in assuring their work 
place rights. We believe that these efforts, as well as additional 
cooperative programs and technical assistance projects that result from 
the continuing dialogue between our labor departments, has and will 
continue to lead to safer and healthier work places.
                    migrant and seasonal farmworkers
    Question. Over the last 5 years, the non-profit and public agencies 
that receive grants via Section 167 of WIA have helped over 30,000 
migrant and seasonal farmworkers obtain good jobs outside of 
agriculture. In each of those years, the average hourly wage of those 
workers has increased. Last year, the average wage of the nearly 6,000 
beneficiaries who were trained and placed was $8.04 per hour. That 
translates to over $16,000/year, quite a step up from the less than 
$10,000/year that most farmworkers earn from all sources. Most of these 
workers also got job-related benefits for the first time, experienced 
steady work, and enjoyed some measure of job security. Some of these 
farmworkers have bought homes for the first time and have been able to 
keep their kids in school by settling down instead of constantly 
migrating to find work. What is ineffective about these results in 
helping arguably the most vulnerable and impoverished subset of the 
American work force?
    Answer. The Department has evaluated programs and processes to 
reduce instances of ineffective and duplicative efforts and to 
streamline the delivery of services to all of our workforce customers. 
Each of the required partners of the One-Stop delivery system is 
required to serve all customers equitably.
    The elimination of the WIA 167 means that farmworkers will have the 
same access as other customers to the WIA program services available at 
local One-Stop centers. Effectively, this change provides farmworkers 
full access to the entire network of services available from all the 
partners of the One-Stop delivery system. This will expand the range of 
services provided for farmworkers beyond the current levels of 
utilization by farmworkers.
    The 2003 Budget proposes to end this program because it has not 
succeeded in significantly improving participants' employment and 
earnings. It provides little job training. Nevertheless, the 
Administration recognizes the importance of support services to this 
population. DOLs' transition from a primary-source service provider to 
the One-Stop center's multiple-source system of service providers will 
require a reasoned and strategic process that promotes the recognition 
and support of farmworkers by all the partners. We are committed to 
bringing these partners together to ensure migrant and seasonal 
farmworkers continue to receive quality services.
    Also, other Departments have programs to address the needs of 
migrant workers and their families. For example, the Women, Infants, 
and Children (WIC) and Head Start programs provide targeted assistance 
to migrant worker families. In addition, two Department of Education 
programs are available to help migrant students complete high school 
and succeed in college. The budget requests $23 million for the Migrant 
High School Equivalency Program (HEP) and $15 million for the College 
Assistance Migrant Program (CAMP).
                    national farmorker jobs program
    Question. I understand now that most of the Section 167 WIA-funded 
agencies do participate in the one-stop centers as mandated partners. 
The farmworkers they serve have significant unique barriers to 
employment. Most participants in the existing National Farmworker Jobs 
Program (NFJP) did not finish high school and have limited English 
language and reading skills. The 167 agencies typically have bilingual 
staff, flexible hours, and operating offices in rural areas near fields 
where farmworkers work. They also provide outreach to labor camps, 
fields, churches, health clinics, and wherever else migrant and 
seasonal farmworkers congregate. All of these services not only assist 
farmworkers who often work 12 hours/day during harvesting, but they 
also assist employers and growers because they greatly reduce ``down'' 
time that growers would otherwise experience. Do one-stop centers 
typically provide this fully array of services? If not, how will 
migrant and seasonal farmworkers, agricultural employers, and growers 
be assisted in FT 2003 and beyond of the Section 167 WIA-funded 
agencies are no longer part of the one-stop network?
    Answer. The 2003 Budget proposes to end this program because it has 
not succeeded in significantly improving participants' employment and 
earnings. It provides little job training. Nevertheless, the 
Administration recognizes the importance of support services to this 
population.
    The Workforce Investment Act has created a system of local One-Stop 
Career Centers for individual communities to design a workforce 
delivery system responsive to the needs of its customers. The WIA 167 
program is the One-stop partner that is currently recognized for 
assisting farmworkers. That arrangement will change to a system where 
all the One-stop partners recognize farmworkers as their customers, and 
the partners possess the capacity to respond to the needs of 
farmworkers. The Department will assist in the transition from the old 
system, which primarily depended on one partner to serve farmworker 
customers, to the system envisioned by WIA where all the partners 
recognize and accept eligible farmworkers as their customers. The 
services available at a local One-Stop career center must be made 
available to farmworkers equitably with other customers. It is 
incumbent upon the state and Local Workforce Investment Boards to 
ensure that local One-Stop center partners facilitate the delivery of 
the center's services to the farmworker population in their community. 
This could be achieved through, or in coordination with, other 
community service providers including the staff of the former NFJP 
partner agency in the state.
    Also, other Departments have programs to address the needs of 
migrant workers and their families. For example, the Women, Infants, 
and Children (WIC) and Head Start programs provide targeted assistance 
to migrant worker families. In addition, two Department of Education 
programs are available to help migrant students complete high school 
and succeed in college. The budget requests $23 million for the Migrant 
High School Equivalency Program (HEP) and $15 million for the College 
Assistance Migrant Program (CAMP).
            migrant and seasonal farmworker support services
    Question. The Bush Administration has taken the position that most 
NFJP beneficiaries only receive employment-related assistance 
(including emergency services) and that these services should be 
provided by state welfare offices, private agencies, or churches 
instead of through a federally-funded program to help farmworkers find 
non-agricultural jobs.
    Given that migrant and seasonal farmworkers have very special needs 
and confront multiple barriers to employment such as having to travel 
long distances between jobs, living and working in very remote areas, 
and subsisting on very low wages, why are you proposing to eliminate 
altogether the very modest safety net of support services available 
nationwide for those farmworkers who wish to stay in farmwork instead 
of training for a different type of job?
    Answer. We concur that the supportive services available for 
farmworkers from the National Farmworker Jobs Program, such as 
temporary housing, food, emergency transportation and child care, are 
important. We also believe that the workforce investment system should 
serve businesses, especially small businesses such as family farms. To 
grow and thrive, farmers require a rural economy that delivers an 
adequate workforce when and where it is needed.
    However, the supportive services used by farmworkers are also 
offered through other federal programs (such as the Department of 
Health and Human Services) and through community service agencies, some 
of which are partners at local One-Stop career centers.
    We will work with the states to develop further the organizational 
culture among the partners that leads to a full appreciation and 
recognition of the importance of providing supportive services to 
farmworkers. By our doing so, farmers will be served and farmworkers 
will have access to a more comprehensive range of partners and 
services, including partners with the capacity to provide supportive 
services to farmworkers.
    Question. When you and your staff are promoting the one-stop 
concept for the rest of America's workers, why are you discouraging 
this one-stop approach that employment-related assistance provides for 
migrant and seasonal farmworkers all across the country?
    Answer. We support the continuation of supportive services (Related 
Assistance Services) to farmworkers through the various federal 
programs. Supportive services help farmworkers stay employed in 
farmwork, help educate their families and help provide farmers and 
agricultural growers with an adequate supply of workers when and where 
they are needed.
    DOL recognizes the value of the services to farmworkers by non-
profit and public agencies. These organizations have built an excellent 
network of resources, enabling them to specifically meet the needs of 
the migrant and seasonal farmworkers. The result of this, however, is a 
focus on a single subset of the workforce population (farmworkers) 
versus the capacity of the One-Stop centers to serve the universe of 
populations.
    DOL's proposal will hold the entire network of One-Stop partners 
responsible for serving farmworkers. By setting the expectation for 
each partner to recognize a farmworker as a potential customer, 
farmworkers' access to One-Stop services will grow, not diminish. DOL 
strives to build One-Stop delivery systems that identify and serve all 
customers of the workforce investment system equitably and efficiently.
    Question. How do you plan to answer the agricultural employers and 
growers who have written to me and other Senators who believe 
maintaining current services are essential to their ability to secure a 
stable, reliable workforce to harvest their crops?
    Answer. At present, farmers and the other agricultural employers 
use the One-Stop system to access available labor. Farmworkers who are 
seeking agricultural employment use the One-Stop system to identify 
available agricultural jobs. For all other services needed by 
farmworkers, referrals are made to the NJFP in the local area. 
Elimination of the WIA section 167 will streamline the coordination and 
delivery of labor-exchange services to farmers and supportive services 
to farmworkers.
            employment of children in processing occupations
    Question. It is my understanding that American children under 18 
are prohibited from working in certain hazardous jobs. For example, 
there exists a Hazardous Order pertaining to their employment in meat-
packing plants, pursuant to 29 CFR, Part 570, Subpart E, because the 
nature of that work and conditions under which it is performed are such 
that children under 18 have no place there. Nevertheless, child under 
18 are allowed to work in poultry processing, the fastest growing and 
largest employer in the meat industry. (54 percent of all meat workers 
are now employed in the poultry industry.) Over the past 20 years, the 
percentage of food workers who work in the meat industry has more than 
doubled. At the same time, I understand that the injury and illness 
rate in this industry is now more than twice the national average. Am I 
correct that children under 18 are allowed to work in this industry? 
What restrictions, if any, are placed upon them by law or regulation?
    Answer. Child Labor Regulation No. 3 (Subpart C of Regulations, 29 
CFR Part 570) specifically prohibits the employment of minors less than 
16 years of age in any processing occupation, including poultry 
processing. Although there is no Hazardous Occupations Order (HO) that 
specifically prohibits youths 16 and 17 years of age from working in 
the poultry processing industry, several of the existing HOs limit the 
types of jobs that such minors may perform in that industry. For 
example:
  --HO 2 prohibits any occupational driving by youths under 17 and 
        limits the type and frequency of driving by 17-year-olds.
  --HO 7 prohibits minors under 18 from operating power-driven hoisting 
        equipment such as forklifts and tiering trucks.
  --HO 12 restricts minors under 18 years of age from operating and 
        unloading balers and compactors and provides restrictions on 
        the loading of such equipment by 16- and 17-year-olds.
  --HO 14 prohibits workers under 18 years of age from operating power-
        driven circular saws, band saws, and guillotine shears on 
        carcasses.
    Question. Why aren't children under 18 who work in the poultry 
industry covered under existing Hazardous Orders?
    Answer. Children under 16 years of age are prohibited from 
employment in the poultry processing industry by Child Labor Regulation 
No. 3. The 17 existing Hazardous Occupations Orders (HOs) for non-
agricultural employment were first issued between 1939 and 1963 and 
amended over the years. While Hazardous Order No. 10 prohibits the 
employment of youths under 18 years of age in most meat processing 
occupations it does not include poultry, seafood, or small game 
processing.
    In fiscal year 1999, the Department entered into an inter-agency 
agreement with the National Institute for Occupational Safety and 
Health (NIOSH) to review occupational fatality and injury data and make 
recommendations regarding the current HOs, and the creation of new HOs. 
From the onset of this review, it was understood that NIOSH would 
examine both the poultry and seafood processing industries. The 
Department is continuing its analysis of the NIOSH report and has begun 
the process of prioritizing the recommendations with the aim of 
balancing the benefits of employment opportunities for youth with the 
need to ensure their safety on the job. The recommendations regarding 
youth employment in the poultry processing industry--as with the other 
recommendations--will be carefully evaluated.
                    review of hazardous work orders
    Question. Did DOL conduct and complete a review of all existing 
Hazardous Work Orders in 2001 with a view to assessing current 
workplace hazards pertaining to children under 18?
    Answer. In fiscal year 1999, the Department entered into an inter-
agency agreement with the National Institute for Occupational Safety 
and Health (NIOSH) to conduct a review of occupational fatality and 
injury data and make recommendations regarding the current HOs, and the 
creation of new HOs, to ensure today's youths continue to receive 
adequate workplace protections while not being denied access to those 
positive jobs which they can safely perform. The report is now 
available to the public.
                   poultry industry hazardous orders
    Question. Did DOL consider bringing children under 18 who are 
employed in the poultry industry under the scope of any Hazardous 
Orders? What decision was made and why?
    Answer. Children under 16 years of age are currently prohibited 
from employment in the poultry processing industry by Child Labor 
Regulation No. 3. Youth 16 and 17 years of age who work in the poultry 
industry are protected under existing HOs that limit the types of jobs 
that minors may perform in that industry. In 1994, the Department 
sought public comment on the feasibility of restricting youth 
employment in poultry processing and fish and seafood processing. A 
small number of comments were received on this issue.
    In fiscal year 1999, the Department entered into an inter-agency 
agreement with the National Institute for Occupational Safety and 
Health (NIOSH) to review occupational fatality and injury data and make 
recommendations regarding the current HOs, and the creation of new HOs. 
From the onset of this review, it was understood that NIOSH would 
examine both the poultry and seafood processing industries. The 
Department is continuing its analysis of the NIOSH report and has begun 
the process of prioritizing the recommendations with the aim of 
balancing the benefits of employment opportunities for youth with the 
need to ensure their safety on the job. The recommendations regarding 
youth employment in the poultry processing industry--as with the other 
recommendations--will be carefully evaluated.
    Question. Did DOL spend at least $750,000 pursuant to Inter and 
Intra-Agency Agreements #99-08-01M2 entered into between DOL and NIOSH 
to conduct such a review? Please provide a copy of the results of that 
review, including the findings regarding whether children under 18 who 
work in the poultry sector deserve greater protections from workplace 
hazards.
    Answer. The Department entered into an inter-agency agreement with 
the National Institute for Occupational Safety and Health (NIOSH) in 
fiscal year 1999. In each of the three fiscal years (1999, 2000 and 
2001), the Department provided $750,000 to NIOSH to fund the inter-
agency agreement. Pursuant to the agreement, NIOSH has completed a 
review of occupational fatality and injury data and made 
recommendations regarding the current HOs and the creation of new HOs.
          protection of retirement savings of american workers
    Question. One of the most important policy questions facing the 
country today is how to protect the retirement savings of American 
workers. Therefore, I was particularly disturbed by a recent report 
issued by the Department of Labor's Inspector General on cash balance 
pension plans, ``PWBA Needs to Improve Oversight of Cash Balance Plan 
Lump Sum Distribution.'' The report found that cash balance plans were 
underpaying workers millions of dollars of their hard earned pension 
benefits. Can you comment on the report?
    Answer. I agree that protecting Americans' retirement security 
should be--and is--a top legislative and regulatory priority for this 
Administration. President Bush believes that ``government must support 
policies that promote and protect savings'' because ``the American 
Dream includes a sound pension plan.''
    In fact, the President's 2001 tax legislation, the Economic Growth 
and Tax Relief Reconciliation Act of 2001 (EGTRRA), implemented 
important changes in the laws impacting cash balance plans. EGTRRA 
amended Code section 4980F and ERISA section 204(h) to replace the 15-
day advance notice requirement with a ``reasonable time'' notice 
requirement. The Treasury Department's draft regulations provide for 45 
days advance notice for most plans, 15 days advance notice for small 
plans and mergers, and adequate advance notice where the plan provides 
choice.
    Other important changes include requiring notification of a 
reduction in the rate of early retirement subsidies; requiring that a 
plan administrator must provide written notice to affected plan 
participants of an amendment that provides a significant reduction in 
the rate of future benefit accruals; and the imposition of a tax of 
$100 per day per affected participant up to $500,000 where there is a 
failure to provide the notice.
    The new law also permits the Secretary of the Treasury to provide 
for a simplified notice for plans with fewer than 100 participants. 
And, in the case of an egregious failure to comply with these 
provisions, a participant may be entitled to the greater of the 
benefits they would have been entitled to without regard to the 
amendment or the new benefits.
    On the regulatory side, the Department of Labor and the Pension and 
Welfare Benefits Administration (PWBA) take very seriously the 
responsibility to safeguard, through both stronger voluntary compliance 
and enforcement, the retirement assets of 200 million workers, their 
families, and retirees.
    Recoveries from enforcement efforts for all investigations in 2001 
resulted in total monetary recoveries of $652.4 million consisting of 
nearly $330 million as a result of prohibited transactions corrected, 
$139 million in plan assets restored, $114 million in future losses, 
and $69 million in benefits restored directly to participants. As 
transactions become more sophisticated and complex, we are committed to 
providing the most effective technical and human capital resources 
needed to protect American workers and their families.
    In March 2002, the GAO issued a report entitled, ``Pension and 
Welfare Benefits Administration: Opportunities Exist for Improving 
Management of the Enforcement Program.'' It noted that PWBA is a 
relatively small agency facing a daunting challenge of safeguarding the 
economic interests of millions of Americans by overseeing the providers 
of employee benefits plans. The report observed that over the years, 
PWBA has taken steps to strengthen its enforcement program and leverage 
its resources by placing the majority of its resources into its 
enforcement program, decentralizing its investigative authority to its 
regions, and making improvements in technology. The GAO summarized its 
findings by stating that all these actions ``contributed to what is, 
overall, a well-run program.''
    GAO identified areas in which PWBA could further improve its 
enforcement program; we are now addressing these recommendations.
    Also, as referred to in the question, in March 2002, the DOL's 
Inspector General's Office (IG) issued a report titled ``PWBA Needs to 
Improve Oversight of Cash Balance Plan Lump Sum Distributions.'' The 
report examined the actions of 60 companies that converted from 
traditional defined benefit to cash balance plans and found that in 13 
of 60 cases, employees who left the company before normal retirement 
age ``did not receive all of the accrued benefits to which they were 
entitled.'' The report suggested that PWBA ``direct more resources to 
protecting cash-balance plans participant benefits and that it initiate 
specific enforcement action on the 13 plans that are putatively 
underpaying some workers.''
    Since our regulation and enforcement of ERISA's Title I provisions 
are coordinated with the Internal Revenue Service (IRS) and the Pension 
Benefit Guaranty Corporation (PBGC) on related provisions, we are 
currently working closely with these agencies to address the issues 
that were raised in the Report.
    It should be noted that the OIG's report does not take into account 
the division of authority regarding enforcement and regulation of cash 
balance plan conversions and distributions among PWBA, the Department 
of Treasury and the IRS.
                       cash balance pension plans
    Question. Among other things, the OIG recommended that PWBA provide 
additional oversight, intervention, and guidance with respect to cash 
balance pension plans. But, in her response to the OIG's report, 
Assistant Secretary Ann Combs refused to increase oversight and 
enforcement of cash balance plan benefit calculations. Instead, 
Secretary Combs chose to argue with the OIG over the sampling 
methodology and assumptions used by the OIG's audit team. Can you 
comment on this extraordinary lack of concern for workers?
    Answer. We respectfully differ on the characterization of Assistant 
Secretary Combs' response. She did not refuse to increase oversight and 
enforcement of cash balance plan benefit calculations, rather, 
Assistant Secretary Combs immediately referred the findings of the OIG 
report to the IRS and the Department of the Treasury, and stands ready 
to take appropriate action after these agencies have completed their 
review of the OIG audit report and provided analysis to PWBA.
    In sum, the OIG report fails to recognize the division of authority 
regarding enforcement and regulation of cash balance plan conversions 
and distributions between PWBA, the Department of Treasury and the 
Internal Revenue Service (IRS). As soon as the OIG communicated its 
conclusions to PWBA, the agency requested an expedited review of the 
identified cases by the IRS, and will work diligently to develop a 
coordinated response once the IRS has provided guidance.
    PWBA takes pride in its enforcement of benefit protections that are 
so important to American workers, retirees and their families.
    First, in analyzing the OIG's conclusions, it is important to 
understand the limitations on PWBA's regulatory and enforcement 
authority in this area. There are two major limitations under current 
law. First, under Reorganization Plan No. 4 of 1978 (codified in notes 
to 29 U.S.C. 1001), the authority of the Department of Labor to issue 
regulations, rulings, opinions, variances and waivers with respect to 
the benefit accrual, forfeiture, and related provisions of ERISA, was 
transferred to the Secretary of the Treasury. Although the 
Reorganization Plan provides that the Secretary of Labor may continue 
to enforce compliance with these provisions of ERISA, the Department is 
bound by regulations and interpretations issued by the Secretary of the 
Treasury.
    Second, Federal ERISA law further restricts the Department's 
ability to initiate enforcement actions regarding alleged violations 
related to plan participation, vesting, and funding. When a plan is 
qualified or pending qualification under the Internal Revenue Code, the 
Labor Secretary may exercise her authority with respect to a violation 
relating to participation, vesting, and funding only if requested to do 
so by the Secretary of the Treasury, or if one or more participants, 
beneficiaries, or fiduciaries of such plan make such a request in 
writing. If a participant makes a request, the Secretary may exercise 
her authority only if she determines that such violation affects, or 
such enforcement is necessary to protect, claims of participants and 
beneficiaries to benefits under the plan.
    In light of these restrictions on PWBA's interpretive authority and 
enforcement oversight, the agency concluded that the official view of 
the IRS was necessary regarding the alleged violations identified in 
the OIG report in order to properly evaluate the recommendations and 
properly respond to the report. Furthermore, in formulating the 
conclusions regarding the 13 plans, the OIG itself relied on the IRS, 
specifically Notice 96-8 addressing certain requirements of Code 
sections 411 and 417 (and the parallel provisions in Title I of ERISA) 
as applied to present value calculations of lump sum distributions from 
cash balance plans.
    Therefore, on February 7, 2002, PWBA forwarded a copy of the OIG 
report and supporting work papers to the IRS for its review and 
comments. We have asked the IRS to expedite its review and we 
anticipate receiving its written response in the near future. Once 
these comments are received and discussed with the IRS, we will 
immediately determine an appropriate course regarding the 13 plans 
identified in the report. We look forward to working with the IRS and 
the Treasury Department to develop additional guidance for plan 
sponsors and others in the regulated community on calculating lump sum 
distributions of accrued benefits in cash balance plans. We will also 
review our enforcement resources.
    However, in reviewing the plans identified by the OIG, PWBA 
examined the cash balance issues that do fall within its enforcement 
authority, such as whether plan administrators provided cash balance 
plan participants the necessary disclosures required under ERISA. As 
you may know, the Department supported legislation to strengthen 
ERISA's disclosure requirements, and worked with both House and Senate 
leaders to include these improvements in pension legislation enacted as 
part of EGTRRA. Also, PWBA has developed general guidance on cash 
balance plans for plan participants that can be found on our web site, 
www.dol.gov/pwba. PWBA recently initiated an enforcement project in 
certain regions to determine if expenses are being improperly paid by 
the plan in connection with the conversion of a traditional defined 
benefit plan to a cash balance plan. Since fiscal year 1999, PWBA has 
opened 30 investigations of cash balance plans involving the improper 
allocation of expenses and recovered $789,000 on behalf of participants 
and beneficiaries.
    Question. Secretary Combs asserted in her response to the OIG that 
she had asked the Department of Treasury for its review and comments on 
the OIG's report. Yet, in a May 10th letter from Treasury's Benefits 
Tax Counsel, Bill Sweetnam asserts that Treasury has not received any 
such communication. Can you explain this discrepancy?
    Answer. PWBA's request for assistance was sent on February 7, 2002, 
to Paul Schultz, Director, Employee Plans Rulings & Agreement, Internal 
Revenue Service. A copy of the letter is attached.
                          U.S. Department of Labor,
               Pension and Welfare Benefits Administration,
                                                    Washington, DC.

Re Department or Labor's Office of Inspector General's (``OIG's'') 
        Audit of Cash Balance Plans.

Paul T. Shultz,
Director, Employee Plans Rulings & Agreements, Internal Revenue 
        Service, T:EP:RA, 1111 Constitution Ave., NW, Washington DC.
    Dear Mr. Shultz: As part of the OIG's oversight responsibilities of 
the PWBA's enforcement program, OIG reviewed 60 cash balance plan 
conversions to determine if violations of ERISA were occurring, either 
during or after the plan converted to a cash balance plan. The review 
disclosed that 13 of the plans contained in the sample may have 
miscalculated the lump sum distributions pursuant to IRC sections 411 
and 417(e) and did not comply with the guidance set forth in IRS Notice 
96-8. Notice 96-8 proposes guidance concerning the applications of IRC 
sections 411 and 417(e) to single sum distributions under defined 
benefit pension plans that are cash balance plans. OIG has asked the 
PWBA to comment on their findings. The PWBA cannot respond adequately 
to the OIG without reviewing these findings with the IRS.
    According to Reorganization Plan No. 4 of 1978, Sec. 101 Fed. Reg. 
47713, sole authority over benefit accruals, forfeitures and related 
provisions of ERISA is transferred from the Secretary of Labor to the 
IRS. While the Secretary of Labor may continue to enforce compliance 
with these provisions of ERISA, the Department of Labor is bound by the 
regulations, rulings, opinions, variances, and waivers issued by the 
IRS pursuant to the transfer of authority.
    We are requesting the assistance of the IRS in reviewing the OIG's 
audit work papers and a summary chart, which the OIG prepared, of their 
findings to determine if the IRS concurs that these plans are in 
violation of IRC sections 411 and 417(e). The OIG intends to issue 
their draft report no later than February 20, 2002. We would appreciate 
if you could expedite your response in light of the OIG's issuance 
date. In the interim, we would like to meet with you and your 
associates, and Ralph McClane, Assistant Regional Director for Audit 
for the San Francisco Regional office of the OIG, to discuss the OIG's 
findings.
    Thank you for your prompt attention to this matter. If you have any 
questions, please contact either Joseph Canary or Catherine Suttora. 
Their numbers are (202) 693-8531 and (202) 693-8450, respectively. 
Alternatively, Mr. McClane has stated he would be available to review 
the work papers with you. His number is (415) 975-4030.
            Sincerely,
                               Virginia C. Smith, Director,
                                             Office of Enforcement.
           pwba's oversight of cash balance plan fiduciaries
    Question. In her letter to the OIG, Secretary Combs also asserts 
that the Department of Labor's ability to regulate and enforce pension 
plans is restricted by the Reorganization Plan. However, under the 
Reorganization Plan the Department of Labor has the ability and duty to 
enforce the fiduciary provisions of ERISA, including the provision that 
requires plan fiduciaries to discharge their duties solely in the 
interest of plan participants and to use plan assets for the exclusive 
purpose of paying benefits to plan participants. How can the PWBA 
improve its oversight of cash balance plan fiduciaries?
    Answer. PWBA is committed to discharging its responsibility to 
enforce the benefit protections that are so important to American 
workers, retirees and their families, and works in coordination with 
other enforcement agencies. The agency is confident that it can 
continue to appropriately address fiduciary issues in cash balance 
plans.
    As noted in the response above, the authority of the Department of 
Labor to issue regulations, rulings, opinions, variances and waivers 
with respect to the benefit accrual, forfeiture, and related provisions 
of ERISA, was transferred to the Secretary of the Treasury. Although 
the Reorganization Plan provides that the Secretary of Labor may 
continue to enforce compliance with these provisions of ERISA, the 
Department is bound by regulations and interpretations issued by the 
Secretary of the Treasury.
    In addition, under ERISA when a plan is qualified or pending 
qualification under the Code, the Labor Secretary may exercise her 
authority with respect to a violation relating to participation, 
vesting, and funding only if requested to do so by the Secretary of the 
Treasury, or if one or more participants, beneficiaries, or fiduciaries 
of such plan make such a request in writing. If a participant makes a 
request, the Secretary may exercise her authority only if she 
determines that such violation affects, or such enforcement is 
necessary to protect, claims of participants and beneficiaries to 
benefits under the plan.
    As indicated above, we have asked the IRS to expedite a review of 
the 13 plans identified by the OIG report and once these comments are 
received and discussed with the IRS, we will immediately determine an 
appropriate course regarding the 13 plans. PWBA looks forward to 
working with the IRS and the Treasury Department to develop additional 
guidance concerning how to calculate lump sum distributions of accrued 
benefits in cash balance plans.
    PWBA recently initiated an enforcement project in certain regions 
to determine if expenses are being improperly paid by the plan in 
connection with the conversion of a traditional defined benefit plan to 
a cash balance plan. Since fiscal year 1999, PWBA has opened 30 
investigations of cash balance plans involving the improper allocation 
of expenses and recovered $789,000 on behalf of participants and 
beneficiaries.
              guidance for sponsors of cash balance plans
    Question. Secretary Combs has asserted that she is working with the 
IRS to develop improved guidance for sponsors of cash balance plans. 
However, the HELP Committee held hearing on this issue almost 3 years 
ago, and no guidance has been announced either by the Treasury, the 
IRS, or the Department of Labor? When do you expect that this guidance 
will be provided?
    Answer. Again, it is important to note that under Reorganization 
Plan No. 4 of 1978, DOL's authority to issue regulations, rulings, 
opinions, variances and waivers with respect to the benefit accrual, 
forfeiture, and related provisions of ERISA, was transferred to 
Treasury. Assistant Secretary Combs has--and will continue--to provide 
PWBA's input and perspective as Treasury drafts additional guidance on 
cash balance plans, which we understand will be issued in the near 
future.
             office of disability employment policy (odep)
    Question. What is the Office of Disability Employment Policy (ODEP) 
currently doing and what are its long-term goals? Will it offer 
programs to the disabled community or create policy?
    Answer. The Office of Disability Employment Policy was created to 
provide national leadership to increase employment opportunities for 
adults and youth with disabilities while striving to eliminate barriers 
to employment. ODEP's long-term goal is to promote policy that will 
increase opportunities by expanding access to training, education, 
employment supports, assistive technology, community-based employment, 
and entrepreneurial and small business development.
    To achieve its long-term goal, ODEP is focused on policy 
development. As you are aware, young people and adults with 
disabilities encounter significant barriers to employment. Our strategy 
for policy analysis and development relies upon a strategic plan that 
will include several components. Although ODEP is finalizing its fiscal 
year 2003 strategic plan and related goals and objectives, the general 
direction for the plan is emerging.
    First, we are working to expand our partnerships with our critical 
stakeholders: individuals with disabilities and their families, private 
employers, Federal, state, and local government, educational and 
training institutions, disability organizations, and providers of 
employment and training service. These partnerships are crucial for 
understanding and exploring these persistent employment barriers, 
conducting research and evaluation into employment alternatives, 
performance effectiveness, validating best practices, and providing 
outreach, dissemination, and technical assistance to effect systemic 
change.
    Second, we are working with our partners to increase the capacity 
of the workforce development system to serve people with disabilities. 
Our strategy is to leverage our resources, including $23 million in 
fiscal year 2002, to test and validate best practices and to conduct 
research and evaluation that result in the development of alternative 
policy solutions for the workforce development system. Our resources 
are strategically leveraged to enhance partnerships among our 
stakeholders such as the workforce development system, including One-
Stop Career Centers and youth services at the state and local levels, 
researchers and trainers, and the disability community to test models 
for increasing the capacity of the system to better serve and benefit 
people with disabilities. For example, our Customized and Innovative 
Youth initiatives are targeted to increasing the capacity of the 
workforce development system by linking the system to stakeholders with 
an understanding of needs of people with disabilities and potential 
research-based practices for addressing these needs.
    We also support Congressional and White House initiatives to 
increase the employment of people with disabilities through policy 
development. For example, in fiscal year 2002 Congress asked us to 
develop, test, and disseminate best practices and policy development 
for promoting telework/telecommuting as an employment alternative for 
people with significant disabilities through Federal agencies that have 
telework initiatives. The Department is also actively supporting the 
President's New Freedom Initiative through such policy development 
initiatives as the Olmstead Community Initiative, and the Ticket-to-
Work, Work Incentives Improvement Act Initiative.
    With these research and best practice initiatives in place, our 
task is to take the lessons learned from our initiatives and conduct 
policy analysis and development. ODEP policy staff conducts analysis 
and develops policy options for the workforce development system.
    The third component emerging through our strategic planning process 
is replicating and implementing the research-based best practices and 
policy alternatives throughout the workforce development system. This 
is achieved through extensive outreach and technical assistance to our 
critical stakeholders.
    Finally, evaluating our performance is a critical component of our 
emerging strategic plan. Currently, we have established intermediate 
milestones to measure our progress and anticipate finalizing our fiscal 
year 2003 strategic plan this summer. Measuring our performance and 
learning from these measures position ODEP to provide national 
leadership in policy direction and guidance in order to integrate 
people with disabilities into the workforce, promote their economic and 
social independence, and enhance their inclusion in communities 
throughout this nation.
   diversity within leadership, management and rank-and-file of odep
    Question. Leadership and management positions at the ODEP are 
currently being filled. Is it important to you that people with 
disabilities--who acknowledge their disabilities--are in visible 
leadership or management positions: Does diversity in the leadership of 
this new office matter to you? Will you give your word to this 
Committee that you are committed to diversity within the leadership, 
management and rank-and-file of this new office?
    Answer. The Office of Disability Employment Policy (ODEP), along 
with the entire Department of Labor, is committed to recruiting, 
developing, and retaining a diverse workforce that includes individuals 
with disabilities. Our nominee for the Assistant Secretary of ODEP is a 
step in this direction. Individuals with disabilities are and will 
continue to be an important part of that diversity.
               lump sum distributions of accrued benefits
    Question. I have been very involved in conversations over cash 
balance plan conversions, with specific regard to their effect on aging 
workers, and have also been concerned with the distribution of lump sum 
for workers in defined benefit plans. To address the latter, I crafted 
an amendment to the HELP Committee pension legislation that was added 
in committee markup in late March that would require Treasury to draft 
rules requiring employers who offer a lump sum instead of a regular 
annuity in defined benefit plans to provide a clear statement of the 
relative values of the two options using standard interest and 
mortality rates. This is in response to a letter that I sent to both 
Treasury and Labor in January of 2000. What is the Labor Department 
doing on this front, and what resources can be provided to assist in 
your progress in this area?
    Answer. As noted previously, DOL's authority to issue regulations, 
rulings, opinions, variances and waivers with respect to the benefit 
accrual, forfeiture, and related provisions of ERISA, was transferred 
to Treasury.
    PWBA looks forward to working with the IRS and the Treasury 
Department to develop additional guidance for plan sponsors and others 
in the regulated community concerning how to calculate lump sum 
distributions of accrued benefits, as well as other issues, regarding 
cash balance plans.
                           erisa enforcement
    Question. Similarly, I read with interest the Inspector General's 
investigation of the Pension Welfare Benefits Administration's 
oversight of cash balance pension plan lump sum distributions in an 
audit dated March 29, 2002. I have a three-part question involving this 
issue.
    The IG stated that additional enforcement resources should be 
directed to this issue, and PWBA's response was that the IG's sampling 
methodology may be in error. However, assuming that a broader study had 
occurred and the conclusions of the audit are correct, what kinds of 
additional resources would be needed to take appropriate enforcement 
action?
    Answer. PWBA is committed to the enforcement of benefit protections 
that are so important to American workers, retirees and their families, 
and works in coordination with other enforcement agencies. The agency 
is confident that it can continue to appropriately address fiduciary 
issues in cash balance plans.
    In areas where the agency does have jurisdiction, PWBA has devoted 
considerable resources to issues related to plan design, age 
discrimination and disclosure to participants. In addition, PWBA has 
spent significant resources on educating participants about cash 
balance plans, and recently initiated an enforcement project in certain 
regions designed to determine if the expenses incurred in connection 
with converting a traditional defined benefit plan to a cash balance 
plan have been improperly paid from plan assets. During fiscal year 
2001, PWBA spent 88 staff days investigating cash balance plans and for 
the first 7 months of fiscal year 2002 spent 126 staff days. PWBA 
intends to continue this effort.
    Question. What actions have PWBA taken since the audit was 
released?
    Answer. As stated earlier, on February 7, 2002, PWBA forwarded a 
copy of the OIG report and supporting work papers to the IRS for its 
review and comments. We have asked the IRS to expedite their review and 
after these comments are received and discussed with the IRS, PWBA will 
immediately determine an appropriate course regarding the 13 plans.
                            patient's rights
    Question. Recently, I understood Members of the House sent a letter 
to you asking you to make immediate changes to the Department of 
Labor's patients' rights claims procedure rule. I am very concerned 
about this request because I know that this rule provides important 
patient protections to consumers in private, job-based health plans, 
ensuring that the health plan's process for making benefit decisions 
and hearing appeals is fair and timely. This rule is scheduled to go 
into effect July 1 of this year. It has already taken nearly five years 
for this rule to be implemented.
    Is your Department considering any further delays or changes that 
would take away from these important protections for consumers?
    Answer. As you are aware, the Bush Administration and, in 
particular, this Department are committed to protecting the rights and 
benefits of American workers and their families. Few benefits are more 
important to today's workers than affordable, quality health care 
coverage. This is why the President has long supported enactment of a 
Patients' Bill of Rights.
    The new claims procedure regulation went into effect as scheduled 
and will be applied to health claims for plan years beginning on or 
after July 1, 2001. We are focusing our efforts on providing the 
technical guidance and compliance assistance necessary to facilitate a 
smooth and efficient transition to the new requirements. Most recently, 
the Department released, via its website, answers to a set of 
``frequently asked questions'' that are intended to address 
implementation and other issues raised with the Department since the 
publication of the final regulation.
  resources for labor-management reporting and disclosure act (lmrda) 
                              enforcement
    Question. Your budget request includes an additional $3.4 million 
and 40 additional full-time employees dedicated solely to ensure that 
unions comply with the Labor-Management Reporting and Disclosure Act 
(LMRDA). At the same time, you propose cutting 253 full-time employees 
from the Department of Labor, including 83 employees in OSHA, 46 
employees in the Mine Safety and Health Administration, and 39 
employees in the Employment Services Administration, which is the part 
of the Agency that protects the nation's workers from wage and overtime 
violations. It appears that you are seeking to target labor unions at 
the expense of the safety and health of the nation's workers.
    How do you justify asking for such a substantial increase in 
resources for LMRDA enforcement, while at the same time you are 
proposing to significantly reduce the number of Department staff 
members who are dedicated to protecting the safety of workers and 
protecting workers' rights under wage and hour laws?
    Answer. As Deputy Secretary Findlay indicated in his April 10, 
2002, testimony before the House Subcommittee on Employer-Employee 
Relations and the Subcommittee on Workforce Protections of the 
Committee on Education and the Workforce, the LMRDA is one of a number 
of important statutes that have been enacted over the years to 
safeguard the rights of workers. For example, the Occupational Safety 
and Health Act protects worker safety, the Fair Labor Standards Act 
protects certain labor standards the Employee Retirement Income 
Security Act protects worker pensions, and the LMRDA protects the 
rights of union members. As Secretary of Labor, I take very seriously 
the Department's responsibility to enforce each of these statutes.
    The request for an additional $3.4 million and 40 additional full-
time employees for the Office of Labor-Management Standards (OLMS), the 
DOL agency that enforces the LMRDA, is a first step toward reversing 
the steady reductions that have hindered the enforcement of the LMRDA 
in recent years. OLMS compliance audits have fallen from a high of 
1,583 in 1984 to only 238 in 2001. Today, ten of the largest national 
unions have never been audited. This deterioration in the level of 
compliance review and enforcement would not be tolerated with respect 
to OSHA, Wage and Hour, or PWBA. It should not be tolerated under the 
LMRDA either. The LMRDA is a worker protection statute like any other 
that we are charged with enforcing at the Department of Labor.
    Question. It appears that your decisions to propose a substantial 
cut in your staffs that safeguard workers' occupational safety, mine 
safety, and rights to receive wages and overtime pay owed to them, 
while proposing a massive increase--40 new full-time employees and $3.4 
million--to do nothing but ensure that labor organizations file annual 
financial reports, could be interpreted as being strongly against 
workers and their unions, and strongly in favor of the interests of 
employers and big business. Viewing your proposed budget in light of 
your Department's performance on the issue of ergonomics over the past 
year and a half, what can you say in reply to the charge that you are 
simply acting in the interests of big business and against America's 
workers?
    Answer. The reporting requirements of the LMRDA are at the heart of 
the protections accorded to union workers by that law, and, as stated 
previously, the vigorous enforcement of those requirements is in 
keeping with a sound worker protection strategy. During testimony 
before the House Labor Committee in June 1959 prior to passage of the 
LMRDA, AFL-CIO President George Meany himself recognized the importance 
of reporting when he said ``if the powers conferred [in the LMRDA] are 
vigorously and properly used, the reporting requirements will make a 
major contribution toward the elimination of corruption and 
questionable practices.'' However, in report year 2000 over 34 percent 
of unions either were late in filing their statutorily required annual 
financial reports or failed to file at all.
    The 40 new full-time employees in the budget request will support 
agency efforts to secure timely and accurate union financial reporting 
and enable an increase in audits of unions under the OLMS Compliance 
Audit Program (CAP) and International Compliance Audit Programs (I-
CAP). These audits are conducted to verify the reports filed by unions, 
detect financial mismanagement and embezzlement, and provide compliance 
assistance to union officers. As a result of the 30 percent decrease 
since 1992 in the staff responsible for enforcing the LMRDA, the number 
of compliance audits has dropped from a high of 1,583 in 1984 to only 
238 in 2001. OLMS cannot effectively enforce the statutory rights and 
interests of union workers at this funding level. The staff increase 
would provide additional front-line investigators, auditors, and 
support positions for ensuring greater compliance with the reporting 
and union financial integrity standards in the LMRDA.
    Question. What led you to seek such a large increase in resources 
to enforce the LMRDA? Has there been an increase in complaints by union 
members about their unions, and do you have statistics that show an 
increase in complaints? Or is this budget request a response to 
conservative elements who are not themselves union members, but whose 
goal is to weaken the labor movement?
    Answer. The increase sought for OLMS is a modest attempt to reverse 
some of the dramatic staff reductions the agency has suffered in 
previous years. This increase is critical because of the 30 percent 
decrease since 1992 in the staff responsible for enforcing the LMRDA.
    OLMS frequently receives complaints from union workers about union 
reporting, handling of funds, elections of officers, and similar 
maters, but does not formally track the number of such complaints.
    The LMRDA was enacted to eliminate union corruption and to protect 
union members' right to democratic participation within their unions. 
It is DOL's responsibility to enforce the law that guarantees democracy 
to union workers.
    Question. Your budget request includes an additional $3.4 million 
and 40 additional full-time employees dedicated solely to ensure that 
unions comply with the Labor-Management Reporting and Disclosure Act 
(LMRDA), as well as an additional $2 million for electronic filing and 
Internet posting of the yearly reports submitted by labor 
organizations. The LMRDA also imposes reporting obligations on 
employers and management consultants, yet your budget request includes 
no additional funding to ensure greater compliance by these parties. 
How do you justify singling out unions for compliance?
    Answer. While the Department's fiscal year 2003 budget request 
includes an additional $3.4 million and 40 FTE for the LMRDA program, 
it does not include an enhancement over the prior year in the level of 
funding earmarked for electronic reporting and Internet disclosure . 
The Labor Organization Annual Financial Reports (Forms LM-2, LM-3, and 
LM-4) account for most of the reporting and disclosure activity under 
the LMRDA. Approximately 30,000 unions are required to file these 
reports with OLMS each year.
    The Act also requires unions to file Form LM-1, Labor Organization 
Information Report, and Forms LM-15, LM-15A, and LM-16, trusteeship 
reports. When combined, these reports total about 1,300 each year. 
Consequently, in the normal course of business, unions and their 
members will be the constituents primarily affected by OLMS policies 
and processes.
    Under certain circumstances, reports are also required from labor 
relations consultants (Forms LM-20 and LM-21), employers (Form LM-10), 
surety companies (Form S-1), and union officers and employees (Form LM-
30). However, these ``other'' reports make up only about 2 percent of 
the reports filed with OLMS every year. But while there are 
significantly fewer of these reports filed, OLMS's oversight remains 
the same.
    To implement the President's E-Government Initiative, in fiscal 
year 2003 OLMS will continue efforts to facilitate electronic filing, 
and public access to LMRDA reports. Electronic filing and Internet 
disclosure have been implemented for the Labor Organization Annual 
Financial Reports (Forms LM-2, LM-3, and LM-4), and OLMS plans to 
provide for electronic filing and Internet disclosure of the other 
reports filed by unions, labor relations consultants, employers, surety 
companies, and union officers and employees.
                          legislative savings
    Question. There are two major portions of your budget that depend 
upon enactment of authorizing legislation to generate fees to replace 
appropriations: $138 million for processing employers' applications for 
permanent foreign labor certifications; and $86 million for 
administration of the workers' compensation program. That's $224 
million that may not materialize to fund programs in your fiscal 2003 
request.
    What would you recommend the Appropriations Committee do if these 
legislative savings are not available?
    Answer. One near-term option that the Appropriations Committee 
could consider would be to authorize the Secretary of Labor on a one-
time basis to redirect $110 million of the unobligated H-1B technical 
skill training grant fund balances for purposes of reducing the 
permanent labor certification backlog and providing prevailing wage 
services. This would provide the needed funds while the Congress acts 
on the Administration's legislation to terminate the ineffective H-1B 
training grant program. Transferring $110 million on a one-time basis 
to the permanent labor certification program would not adversely affect 
the H-1B technical skill training grant program because there would 
still be sufficient funds available for new awards of technology 
training grants.
    Question. Which of your requested increases could be scaled back?
    Answer. The Administration is proposing a reduction of existing 
funds for the permanent foreign labor backlog rather than a funding 
increase. Transferring $110 million of the H-1B technical skill 
training grant balances, on a one-time basis, would cover the needs of 
reducing the permanent labor certification backlog, and no other 
funding would be requested. A redirection of funds for one year's worth 
of backlog processing would equal $57.1 million. However, this would 
require a similar redirection or appropriation in fiscal year 2004 in 
order completely process the backlog.
                         faith-based initiative
    Question. You recently announced a $14.9 million Faith-Based and 
Community-Based Initiative, setting aside funds appropriated for One-
Stop Career Centers for these grant awards. There does not appear to be 
any mention of this initiative in your budget request.
    Can you tell us more about this initiative, and the rationale for 
utilizing funds appropriated for One-Stop Centers, without requesting a 
reprogramming?
    Answer. ETAs fiscal year 2002 One-Stop/America's Labor Market 
Information System budget proposal outlined several proposed 
investments to promote and extend ``universal access for customers'' 
under the One-Stop system. With our state and local partners, ETA has 
recognized that there are identifiable populations in urban and rural 
areas that can benefit from the core, intensive and training services 
which the local One-Stop Centers provide. These populations, however, 
have lacked knowledge of the existence of these services or may have 
encountered impediments in their use (e.g., transportation distance or 
difficulty).
    In January 2001, President Bush issued Executive Order 13198 which 
created the Office for Faith-Based and Community Initiatives in the 
White House and centers in the departments of Labor, Health and Human 
Services (HHS), Housing and Urban Development (HUD), Education (ED), 
Justice (DOJ). President Bush charged the Cabinet centers with 
identifying barriers--statutory, regulatory, and bureaucratic--that 
stand in the way of effective faith-based and community initiatives, 
and to take steps that these organizations have equal opportunity to 
compete for federal funding and other support.
    With the ``universal access'' principle as a major touchstone for 
our discussions, ETA and the Department's Center for Faith-Based and 
Community-Based Initiatives (CFBCI) developed a number of strategies. 
These strategies were intended to provide additional opportunities for 
the Federal-state-local partnerships under WIA to engage the faith-
based and community-based organizations in service delivery, while 
providing more ``points of entry'' for customers into the One-Stop 
system. In April 2002, ETA announced the availability of funds under 
three separate competitions to award grants to states, intermediaries, 
and small faith-based and community-based non-profit organizations. 
These investments have several important objectives, which were 
uniformly conveyed in all three solicitations:
  --To expand the access of faith-based and community-based 
        organizations' clients and customers to the services offered by 
        the nation's One-Stops (``the universality principle'');
  --To increase the number of faith-based and community-based 
        organizations serving as committed and active partners in the 
        One-Stop delivery system; and,
  --To identify, document, showcase and replicate successful and 
        innovative instances of faith- and community-based involvement 
        in our system-building.
    Through these grant awards announced in June, ETA has reaffirmed 
its continuing commitment to those customer-focused reforms instituted 
by state and local governments. These reforms help Americans access the 
tools they need to manage their careers through information and high 
quality services, and to help U.S. companies find skilled workers. 
These solicitations also reflect the interest in creating new avenues 
(``access zones'') through which qualified grass-roots organizations 
can more fully participate under WIA while bringing their particular 
strengths and talents in service provision to our customers. Since the 
universal access goal expressed in the budget proposal was addressed by 
both the design and objectives of this FBO/CBO investment, no 
reprogramming request was judged necessary by the agency.
    Question. Do you plan to continue this effort in fiscal year 2003, 
and, if so, with what funding?
    Answer. The agency has also not yet made a final decision on what 
proportion of funds might help support the exemplary grantees who 
receive fiscal year 2002 funding, and what proportion will be dedicated 
to the award of new grants.
                        local survey of spending
    Question. The National Association of Counties has conducted a 
survey indicating that most local workforce investment areas have 
``legally obligated'' more than 85 percent of their available 
dislocated worker funds, and a majority have ``legally obligated'' 
nearly 100 percent of their funds. ``Legally obligated'' funds are 
those funds that are no longer available for use either because they 
have been expended or because they have been designated for a specific 
activity through a legally binding contract with a service provider or 
individual training account. This data seems to contradict the Labor 
Department's estimates of large, unspent balances of job training hinds 
throughout the nation.
    What is your reaction to this data?
    Answer. We would not dispute these findings. The Department has 
never questioned state and local claims that these funds are legally 
obligated, only claims that they are, therefore unavailable for 
services. We have questioned the nature of these obligations and the 
unprecedented levels of unspent funds in some states and communities, 
whether obligated for future spending or unobligated. We contend that 
if large amounts are obligated but not spent, according to state 
reports, for services over the next two years, then large amounts 
remain available to provide services to people who need them and small 
reductions in 2003 allotment levels can be absorbed with no adverse 
impact. Likewise, we would challenge state and local program managers 
to reexamine these obligations to determine their continued necessity 
or whether they could be financed by a future year's allotment rather 
than through a commitment of current year's money.
                   one-year targeted training grants
    Question. In addition to longer term institutional competency 
grants, there's another group of new one-year grants that you awarded 
last year, after first canceling their five-year program days before 
the programs were to begin. One of these grantees is Kirkwood Community 
College from Iowa. When these grants were awarded, DOL told these 
grantees that, ``If first year performance is satisfactory and funds 
are available, grants may be renewed for an additional 12 month 
period.'' My understanding is that in the past, these programs have 
always been funded for a second year. Well, funds are available; we 
appropriated them in the fiscal year 2002 budget. We have seen no 
indication that performance of most of the grantees is anything but 
satisfactory. Yet in your April 26 letter, you indicated to us that you 
may make these grantees start all over and recompete once again for 
their funding.
    Is this a suitable way for the Department of Labor to treat its 
grantees that are performing satisfactorily?
    Answer. I believe there is some misunderstanding about OSHA's plans 
for the Susan Harwood Training Grant Program in fiscal year 2002. OSHA 
published a new Harwood grant solicitation on May 22, announcing two 
different grant categories for fiscal year 2002: Targeted Topic grants 
for training programs addressing ergonomic hazards and homeland 
security issues; and Institutional Competency Building grants.
    In addition, OSHA has reserved some of its fiscal year 2002 grant 
funds to offer second-year grant renewals to the 28 current targeted 
training topic grantees, such as Kirkwood Community College, that were 
funded in fiscal year 2001. Renewal grant applications will be mailed 
to eligible grantees as soon as the Harwood fiscal matters are 
resolved. Second year renewal funding will be available to targeted 
training grantees that apply for a second year and are performing 
satisfactorily.
    Question. What if Congress treated you like that? Promised you 
money for multiple years, then, without warning, took it away despite 
good performance and adequate funding?
    Answer. OSHA's May 22 Federal Register notice did announce that 
OSHA reserved some of its fiscal year 2002 grant funds to offer second-
year grant renewals to the current targeted training grant topic 
grantees. OSHA's efforts with regard to the funding and renewal of 
these grants were intended to improve the process for the disbursement 
of funds, and to assure more effective performance under the grants.
                osha reorganization and standards budget
    Question. On April 23, OSHA announced a proposed restructuring of 
National Office operations and functions. One proposal is to merge the 
Directorate of Safety Standards and the Directorate of Health Standards 
and Guidance. This new Directorate will not only be responsible for 
developing safety and health standards, but will also have 
responsibility for developing and managing non-regulatory approaches.
    Currently, the Directorate of Technical Support is responsible for 
developing guidelines, technical information bulletins and non-
mandatory documents. Are you proposing to reprogram the money and 
personnel allocated for this work in the Technical Support Directorate 
to the new combined standards and guidance directorate and, if so, how 
much money and how many people will be reprogrammed from technical 
support to the standards directorate in your fiscal year 2002 budget 
and in your fiscal year 2003 request? If you are not proposing to 
reprogram money, how can you justify spending money that was requested 
and appropriated for setting mandatory safety and health standards for 
another purpose?
    Answer. The proposed reorganization and merger of the Directorate 
of Safety Standards and Directorate of Health Standards into one 
Directorate of Standards and Guidance will not require a reprogramming. 
The Safety and Health Standards and Technical Support budgets would 
continue to fund the same activities. Currently, the existing 
directorates are funded under the Safety and Health Standards budget 
activity. When the reorganization is approved, the merged Directorate 
of Standards and Guidance will also be funded under the Safety and 
Health Standards budget activity that would continue to finance the 
promulgation of standards and development of other non-regulatory 
products, such as voluntary guidelines. Funding for the Technical 
Support budget activity will continue to support activities such as 
technical information bulletins, electronic compliance assistance 
tools, and the agency's Technical Information Retrieval System. It 
should be noted that the Safety and Health Standards Directorates have 
been involved in the development of guidance documents in the past, so 
this is not a new function for these directorates.
    Question. The President's fiscal year 2003 budget proposal cuts the 
budget for OSHA standard setting by $1.3 million and 10 FTEs. It 
requests $14.2 million for standard setting in fiscal year 2003. This 
represents about 3 percent of the $437 million requested for OSHA in 
fiscal year 2003. This compares to $60 million for compliance 
assistance and $20.2 million for technical support activities. Setting 
health and safety standards is one of OSHA's major responsibilities. 
How can the Administration justify cutting the OSHA standard's budget 
when the current resources for standards are so small?
    Answer. Safety and health standards are one of the tools the agency 
uses to improve the working conditions of the Nation's workers. The 
fiscal year 2003 budget proposed for Safety and Health Standards is 
sufficient to support the proposed regulatory agenda and develop other 
non-regulatory approaches to rulemaking. The budgets for the Technical 
Support and Compliance Assistance Federal budget activities support a 
variety of critical activities in the agency, including training at the 
OSHA Training Institute; the development and delivery of outreach and 
assistance to employers and workers; voluntary and partnership programs 
such as the Voluntary Protection Programs; sample analysis at the Salt 
Lake City Technical Center; the development of electronic compliance 
assistance tools; and equipment repair and calibration. All these 
activities work in concert with standards setting to improve 
occupational safety and health and achieve the goals of the Department 
and OSHA.
    Question. What final standards will the Department issue in fiscal 
year 2002 and in fiscal year 2003? And which standards will be delayed 
as a result of the proposed cuts in the fiscal year 2003 budget?
    Answer. The Regulatory Agenda was published in the Federal Register 
on May 13, 2002 (67 FR 33342-55). A copy of the relevant portions is 
attached. Unlike past practice, we have reviewed the agenda commitments 
carefully, and only included those that we can meet during the 12 month 
period following its publication. For many years, OSHA included many 
items in its regulatory agenda that were not being actively worked on, 
and which had little chance of being completed during the time period 
the agenda addressed. We believe it is more important to be realistic 
about what can be accomplished, and to notify the public of those areas 
OSHA actually intends to address in the coming year.
    The agenda does not address all of fiscal year 2003, but only the 
next 12 months, and decisions have not been made regarding all of the 
work commitments that may be completed during that fiscal year. 
Adjustments will be made as necessary in six months when the agenda is 
published next. Our proposed fiscal year 2003 budget fully supports our 
regulatory agenda.
    Question. Two OSHA standards that have been proposed and have gone 
through the public comment and hearing process are the standard on 
tuberculosis and the standard that requires employers to pay for 
personal protective equipment required by OSHA standards. When will 
OSHA issue final standards on TB and payments for personal protective 
equipment?
    Answer. The record on the TB standard was re-opened on March 25, 
2002, to allow the public to comment on a new study as well as risk 
assessment issues. The comment period closed on May 24, 2002. The May 
13 Regulatory Agenda indicates that OSHA will determine the next step 
in this rulemaking by the end of October 2002.
    Similarly, the agency continues to review the issue of employer 
payment for PPE, and will make a determination on that issue by the end 
of October 2002 as well. This too is reflected in the current 
Regulatory Agenda.
    Question. The Department of Labor's December 2001 Regulatory Agenda 
removed dozens of OSHA and MSHA regulatory actions from the agenda 
including standards on perchlorethylene, updating permissible exposure 
limits for toxic chemicals, metalworking fluids, and covering reactive 
chemicals under the process safety management standard. There was a 
recent report that the next Regulatory Agenda, due out in June, will 
cut back further on planned OSHA standards. Can you tell me which 
standards that are currently on your regulatory agenda will be 
eliminated in the new regulatory agenda?
    Answer. The regulatory agenda is intended to reflect those items 
that will be completed during the next twelve months. The most recent 
regulatory agenda was published on May 13, 2002. Only regulatory 
actions published previously in the Federal Agenda in the proposal or 
post-proposal stages were withdrawn from the agenda announced on May 
13, 2002. Other items removed from the agenda had not reached the 
proposal stage and could be resurrected if resources and priorities 
permit. These include indoor air quality (withdrawn December 2001), and 
four out-of-date proposals in the shipyard industry (withdrawn March 
2002).
                        ergo advisory committee
    Question. As part of your comprehensive ergonomics program you have 
proposed to establish yet another advisory committee on ergonomics that 
you have said will look at questions of research needs.
    Are you aware that in recent years the Congress appropriated more 
than $1.4 million for two NAS studies on the question of the science 
and research needs on ergonomics and that NIOSH also conducted a major 
review and study on the same issue?
    Answer. The Department is aware of the NAS and NIOSH studies and 
agrees with their primary findings--that injuries related to ergonomic 
hazards are real. It is important to note, however, that the NAS 
studies did not make any policy recommendations and concluded that 
there are still gaps in the research. To quote from the NAS study: ``In 
the course of its review, the panel identified several important gaps 
in the science base.'' These gaps included a need to develop ``better 
tools for exposure and outcome assessment as well as further 
quantification of the relationship between exposures and outcome . . 
.'' as well as further research into ``tissue mechanobiology, 
biomechanics, psychosocial factors and stress, epidemiology, and 
workplace interventions.'' The presence of these gaps is one reason we 
developed a multi-faceted plan that will help drive research and 
development to fill these gaps, working with NIOSH. This will be OSHA's 
first effort at using an advisory committee solely to evaluate and make 
recommendations about specific research, guidance, and outreach 
relating to ergonomics in the workplace.
    Question. Isn't it true OSHA itself already has a number of 
advisory committees?
    Answer. OSHA has four general advisory committees: the National 
Advisory Committee on Occupational Safety and Health (NACOSH), the 
Advisory Committee on Construction Safety and Health (ACCOSH), the 
Maritime Advisory Committee on Safety and Health (MACOSH), and the 
Federal Advisory Committee (FACOSH). This list does not include 
advisory committees that are established to conduct negotiated 
rulemaking on a specific standard. OSHA currently has one advisory 
committee working on a negotiated rulemaking for fire protection in 
shipyards, and the Agency will be publishing shortly a notice of its 
intent to establish a negotiated rulemaking advisory committee for 
cranes and derricks in construction.
    Question. You have NACOSH, the National Advisory Committee on 
Occupational Safety and Health, as well as a Construction Advisory 
Committee, both statutorily required committees. Both of these 
committees have done extensive work on ergonomics. Are you going to use 
them to advise you on the ergonomics issue?
    Answer. We have, and will, continue to seek advice from all 
stakeholders on the ergonomics issue, including all our current 
advisory committees.
    Question. You also have a Maritime Advisory Committee and a Federal 
Agency Advisory Committee, both of which have also done work on 
ergonomics. Why aren't all of these currently existing OSHA advisory 
committees adequate to provide you with advice on ergonomics?
    Answer. While the present OSHA advisory committees can and do 
provide general policy advice to the agency, they were not constituted 
to assist in the specific areas that we identified in our announcement 
of intention to establish this new committee. As explained in our 
Federal Register notice (May 2, 2002, 67 Fed. Reg. 22121), OSHA's 
Ergonomics Committee will advise OSHA about issues related to 
ergonomics--including ergonomic guidelines, research, and outreach and 
assistance. In particular, OSHA intends to seek advice from the 
Committee on the Department's comprehensive approach to ergonomics, 
including:
    (1) Information related to various industry or task-specific 
guidelines;
    (2) Identification of gaps in the existing research base related to 
applying ergonomic principles to the workplace;
    (3) Current and projected research needs and efforts;
    (4) Methods of providing outreach and assistance that will 
communicate the value of ergonomics to employers and employees; and
    (5) Ways to increase communication among stakeholders on the issue 
of ergonomics.
    Identifying research gaps, consequently, is only one of the areas 
to be addressed. Members of the new committee also will have more 
specific expertise and experience in the areas of ergonomics than do 
members of existing OSHA advisory committees. The new committee, 
therefore, will be able to advise OSHA in more depth about guidelines, 
research, outreach, and assistance.
    Question. Meanwhile, at NIOSH, there is the National Occupational 
Research Agenda (NORA) which has a musculoskeletal disorders team that 
has broad representation from the ergonomics community and whose 
mission it is to develop a comprehensive research agenda, facilitate 
development of partnerships directed at implementing successful control 
strategies and to provide a framework for increasing funding for 
research.
    In addition to the NORA ergonomics team, NIOSH also has a Board of 
Scientific Counselors, established under the Federal Advisory Committee 
Act, which provides oversight and advice on all NIOSH research 
initiatives, including ergonomics.
    Can you explain to me what your new committee is going to do that 
all of these other committees have not already been doing for a number 
of years?
    Answer. While NIOSH's Board of Scientific Counselors does provide 
advice to the Secretary of Health and Human Services on research 
initiatives, it does not focus solely on ergonomic matters. Rather, its 
focus is on a much wider range of occupational safety and health issues 
and it is supported by a membership drawn from varied scientific 
disciplines. As explained in our Federal Register notice, the OSHA 
Ergonomics Committee's members will have skills specialized to address 
ergonomic issues and will be able to advise the Secretary of Labor on 
specific ergonomic research needs. In addition, as explained above and 
in our Federal Register notice, the OSHA Committee will advise the 
agency on several other issues, including the need for, and 
effectiveness of, various industry- or task-specific guidelines, 
methods of providing outreach and assistance to employers, and ways to 
improve communication between stakeholders on the issue of ergonomics. 
The Committee's advice will help OSHA to better fulfill its statutory 
responsibilities.
    While it is true that the NORA musculoskeletal disorders team 
focuses strictly on ergonomics, their efforts to date have been limited 
to research needs generally. The team does not address many of the 
specific areas where OSHA needs information.
    Of course, NIOSH is, and will continue to be, the principal 
organization to conduct research in occupational safety and health. We 
believe our approach will complement NIOSH's and NORA's roles by 
looking for practical solutions and applied results. We expect to 
collaborate closely with both NIOSH's Board of Scientific Counselors 
and the NORA team and, where OSHA Ergonomics Committee recommendations 
involve research efforts, OSHA will forward such recommendations to 
NIOSH.
    Question. The OSHA Act states that NACOSH ``be composed of 
representatives of management, labor, occupational safety and 
occupational health professions, and of the public.'' The other 
advisory committees have similar criteria. I see no such requirements 
for this new ergonomics advisory committee in the Federal Register 
Notice. Can you tell me why not?
    Answer. While not explicitly stated in the Federal Register notice, 
the agency is seeking membership from the broadest possible range of 
stakeholder interests, including all the categories mentioned in your 
question. I can assure you that membership on the committee will be 
balanced. We will make every effort to include individuals with 
knowledge or expertise on the issues to be addressed, representing a 
wide range of backgrounds and interests.
    Question. Can you tell me which groups and interests will be 
represented on this committee and how this committee will have balanced 
representation?
    Answer. At this time, I am unable to state exactly which of the 
many and diverse interested parties will actually be invited to serve 
on the Committee. To date, the Agency has received over 200 individual 
nominees. The nominees come from a wide range of backgrounds, and 
represent the medical, scientific, labor, academic, and industrial 
communities, as well as the professional societies and the general 
public. Every attempt will be made to ensure that the individuals 
selected for the Committee collectively represent the viewpoints of all 
of these diverse interests. As stated in the Federal Register notice 
announcing the establishment of the Committee, OSHA will select members 
based on their specific knowledge of ergonomics, their knowledge of the 
scientific research and gaps in that research, their ability to discuss 
the value of ergonomics in the workplace, and their ability to advise 
the Secretary about how to disseminate ergonomics information to all 
involved stakeholders.
                        expenditure rate trends
    Question. How well are States spending their WIA allotment?
    Answer. Although state spending has increased over recent months, 
only recently has spending reached the level included in the budget. We 
expect that PY 2001 total spending will be less for the complete year 
that had been projected when the PY 2003 request was provided to the 
Committee. We believe the reductions in new budget authority requested 
for Program Year 2003 remains appropriate and allow for significant 
increases in participation. We do not expect PY 2002 and PY 2003 
spending to increase to a level where the large carryover will be 
significantly reduced.
    Question. What is the range of expenditure rates and Treasury draw-
downs among States in the current program year?
    Answer. For the second quarter, ending March 31, 2002, the ``Fund 
Utilization Rate'' for the three WIA state programs combined averaged 
44.8 percent nationally and ranged for states from a high of 75.9 
percent to a low of 26.1 percent. This rate represents total spending 
during the current program year as a percent. We estimate that at the 
end of the year this rate will be 69 percent.
    Question. Do you see any changes in the expenditure rates between 
program year 2000 and program year 2001?
    Answer. As previously indicated, we have seen increases in this 
spending rate. For Program Year 2000, the Fund Utilization Rate for the 
combined programs was 56.7 percent, compared to the projected rate at 
the end of the year of 69 percent.
    Question. How do the expenditure rates observed under WIA compare 
with those under JTPA?
    Answer. Expenditure data for all Job Training Partnership Act 
programs was not sufficiently complete or reliable to provide 
meaningful comparisons. The JTPA Dislocated Worker program did have a 
reallotment requirement based on expenditure. For the last two years 
where a reallotment was required, states spent all of their funds 
carried into the year plus 84.8 percent (Program Year 1996) and 84.3 
percent (Program Year 1997) of current program year funds.
    Question. What do you consider to be a ``good'' expenditure rate 
for a State and what portion of States have met that benchmark?
    Answer. We believe that rate of 80 percent would be satisfactory. A 
state that carried over 25 percent of its prior year allotment and 
spent 75 percent of its current year award would attain this 80 
percent. A state on target to reach this 80 percent would be at 
approximately 60 percent at the end of the March quarter. Only six 
states were at this combined rate as of March 31, 2002.
    Question. What is the basis of that benchmark and do you consider 
it to be reasonable given the fundamental way in which WIA has changed 
employment and training?
    Answer. This rate is the same as the threshold required for 
reallotment under JTPA Dislocated Workers. We believe this is 
reasonable, even in light of changes in WIA.
    Question. How does the structure of the WIA program affect 
expenditure rates such as the way in which the 15 percent set-aside is 
appropriated, how service contracts are procured, and how participants 
are registered for programs?
    Answer. We do not believe these requirements or other WIA 
requirements impose such a burden that would require that large amounts 
remain unspent and be carried forward to a subsequent year. There may 
be changes from requirements under JTPA, but procedures also must be 
adapted to ensure the timely and effective spending of resources 
provided on people who need services.
    Question. What is Labor doing to address low expenditure rates?
    Answer. ETA has conducted an on-going program of evaluation to 
determine state and local partner progress in implementing WIA. The 
seven ETA regional offices routinely conduct on-site visits with our 
partners to determine success against the implementation objectives 
reflected in the state strategic plan. The regional offices file a 
quarterly report on outstanding issues in governance, performance 
measurement and a number of other key issues, noting both progress and 
remaining problems. The ETA's emphasis on identifying the major 
operational issues that impede complete implementation remains an 
important priority. The agency has also enlisted outside contractors--
including Social Policy Research Associates--to assist in the process 
evaluation of WIA implementation. Both these Federal and contractor 
findings become valuable, continuing input into technical assistance 
strategies that are developed for states. Our negotiation of state 
performance measures has also been mindful of the Administration's 
emphasis on the Government Performance Results Act and the requirement 
to set high targets of accomplishment for those customers served by the 
Adult, Dislocated Worker and Youth funding streams under WIA.
    ETA hosts both national and regional conferences, which organize 
presentation agendas and workshops around ``solutions to problems''.
    ETA also issues Training and Employment Guidance Letters to the 
workforce system on a routine basis to provide clarification on WIA 
policy, technical assistance materials, ``questions and answers'' and 
other advisories that will assist our partners.
    ETA staffs have also conducted an analysis of quarterly financial 
reports to determine the various dimensions of the under expenditure 
issue, and the combination of causal factors contributing to the 
reported low outlays. The problem is more acute in some states than in 
others. Early implementation was certainly marked by significant under 
expenditure in a subset of states as they moved from JTPA to WIA.
    The examination of financial reports led to the development of a 
diagnostic line of inquiries that has been used by our line staff and 
political leadership in conversations with the states. These questions 
probe state knowledge, experience, and intent. Among them:
  --What information do you have at the state level on local workforce 
        investment area obligations?
  --What is the nature of these obligations? Are they obligations 
        attached to specific customers for training, such as Individual 
        Training Accounts, and/or specific services? Are they 
        obligations to service providers to assist customers over the 
        next few immediate months? Or are they obligations made from 
        one administrative entity to another for services and training 
        over a longer extended period?
  --Spending for statewide activities has lagged considerably behind 
        local spending. Why is this? If you have large balances in 
        statewide activities, have you discussed reducing the amount 
        reserved for these services to provide a greater proportion of 
        the funds to areas that lack resources to meet demands for 
        training and services?
  --Are there particular obstacles--statutory or regulatory--that have 
        restricted the timely expenditure of these funds?
    The pursuit of this issue has also focused on the arguments made by 
many local One-Stop operators that funds have been obligated at the 
local level, but have not been reflected in the state reports 
(differences in ``closing dates'' for account structures, etc.).
    Both the analysis of reports and our ongoing conversations with the 
states have translated into ``action items'' for all levels of WIA 
governance. We believe the states are working extremely hard to fully 
implement the law and realize the goals and objectives outlined in 
their respective strategic plans. The effort to fully enlist all the 
partners in the day-to-day operation of the One-Stop delivery system 
has certainly been a difficult and time-consuming process in many 
communities, a contributing factor to the under spending during this 
period. The time and energy to deal with the documentation requirements 
necessary to certify eligible training providers for a period of, 
``subsequent eligibility'' was also perhaps not fully anticipated at 
the outset of WIA implementation.
    We have convened state and local partners in a series of ``WIA 
readiness'' sessions across the country, gathering their viewpoints on 
what has worked (and what has not worked). These workgroups were 
charged with suggesting strategies to assist the system in addressing 
implementation issues in four areas--One-Stop service delivery, adult 
and dislocated worker services, youth services, and attracting and 
retaining employer involvement on workforce boards. Their commitment 
and work yielded a series of recommended actions that were shared with 
the workforce development system in November 2001.
    Our collective stewardship of these WIA resources is a mutually 
recognized one; ETA is fully committed to working with our state and 
local partners to ensure that employers and jobseekers are provided the 
assistance they need in all the local workforce investment areas. The 
agency is moving to issue new policy (or restate existing policy) where 
clarity in the Federal position is needed.
    Question. To what does Labor attribute these low expenditure rates? 
Are they an indicator that States are not effectively managing their 
WIA allotment in order to maximize services to eligible participants?
    Answer. We do not generally believe that the low spending in many 
states is the result of poor program management. The transition from 
JTPA to WIA brought considerable change to state and local workforce 
development system that had the effect of slowing spending. As 
previously indicated, ETA and our state and local partners worked very 
closely to identify and respond to these issues. Also, many states and 
locals told us that with the legislated change to the Dislocated Worker 
program that based the reallotment of funds on obligations rather than 
expenditures, their focus shifted from spending to contracting for the 
services. This contributed to lower spending and reduced service levels 
during the first two years of WIA.
    Question. Has Labor provided guidance and technical assistance?
    Answer. As previously indicated, ETA dedicates considerable time 
and resources to providing guidance and technical assistance to our 
partners. This guidance comes in part through regular and frequent 
policy guidance and ongoing communications. Technical assistance is 
provided through national and regional conferences and workshops, on-
site expert visits and publications.
    Question. Is Labor monitoring States' financial management systems 
and practices?
    Answer. DOL does not routinely monitor state financial systems and 
practices. In the past, ETA has relied upon the Single Audit Act to 
audit these systems and has supplemented these audits only when 
problems or issues have been identified.
    ETA has published a Request for Proposal to procure additional 
contractor assistance from CPA firms to assist the agency in examining 
grantee financial systems and providing specialized assistance. This is 
financed through an increase received in the fiscal year 2003 budget.
                    quality of wia expenditure data
    Question. What do you know about the quality of information that 
Labor uses to track States' WIA expenditures?
    Answer. From conversations with states and their sub-recipients we 
are increasingly concerned about the quality of the information 
reported. Both the GAO and the OIG are conducting independent reviews 
of state spending. We hope to get feedback from them that will assist 
us in addressing financial system shortcomings.
    Question. How are States defining expenditures? Obligations?
    Answer. The WIA regulations include definitions for obligations and 
the Department's grants administration regulations define expenditures. 
We have no evidence that states or their sub recipients are using 
different definitions. However, while expenditures reflect the cost of 
actual services and training delivered and are intended to be recorded 
concurrently on Federal, state and local books when incurred, 
obligations represent a legal commitment to provide future services and 
are recorded at different times, depending on the funding processes of 
the entity. For example, the Federal obligation occurs when the 
allotment is provided to the state on the first day of the funding 
period. A state, in turn, obligates the funds when providing them to 
the sub recipient. The sub recipient might obligate the funds when 
contracting with a service provider. And finally, a service provider 
may not obligate the funds until a participant is enrolled in a 
specific training program. Because of this, obligations have many 
meanings, depending on the entity that is reporting, are not comparable 
between similar entities and can be misleading when discussing the 
availability of funds.
    Question. We have reason to believe that the definitions differ 
widely among States. What is Labor doing to facilitate consistency in 
collecting and reporting the data?
    Answer. We intend to review the findings of our own review efforts 
and those of GAO and Labor's OIG, to provide additional assistance to 
states and their sub-recipients.
    Question. Describe Labor's efforts to validate expenditure data.
    Answer. DOL does not validate expenditure data. We rely on the 
Single Audit Act to review state systems and determine whether state 
records and spending reports accurately reflect activity occurring.
    Question. Do Labor's expenditure reports accurately reflect States' 
available funding?
    Answer. The reports that we provide to the Committees and share 
with the states reflect reports submitted to us by the states. Because 
WIA allows the states to pool spending for a number of different state 
and local activities, some allocations among funding streams are 
required. OIG auditors reviewed these allocations as part of the annual 
audit of our own systems and financial statements this past year. They 
provided no criticism of our methodology.
    Question. Does Labor's calculation of expenditures and available 
funds include States' obligations?
    Answer. Labor's reports reflect only expenditures. As previously 
indicated, we do not display obligations by state because they are of 
questionable value nationally and may not be comparable among states. 
Labor does recognize that not all obligations will be liquidated during 
the year and that monies will be unspent at year-end. The concern that 
we have expressed is the extent to which funds have remained unspent, 
whether obligated or not.
    Question. If not, how is Labor adjusting for these obligations when 
deciding whether funding cuts are justified or warranted?
    Answer. Labor does not adjust for these obligations. Instead we 
recognize that funds will be unspent and that when these levels 
approach the high levels that have been experienced recently, small 
cuts in new authority should be considered since they can be made with 
no reduction in services.
    Question. We understand that, while local workforce investment 
areas are required to report expenditures, they are not required to 
report obligations. Yet obligations are an important indicator of local 
spending activity. Given this, does Labor have a good understanding of 
the amount of funds available in local areas?
    Answer. As previously stated, we question the usefulness of any 
local obligation data for the reasons stated above.
               issues related to state and local spending
    Question. You proposed budget reductions of States' WIA funds in 
both fiscal years 2002 and 2003 citing large amounts of unspent funds. 
What impact do you think these shifts in funding levels have on the 
ability of States and localities to plan and develop a stable and 
comprehensive workforce investment system?
    Answer. We believe these reductions in budget requests have had a 
positive effect on the workforce investment system. Both the Department 
and our partners have had a positive and meaningful dialogue on the 
causes of lower spending and what can and should be done to address the 
problems and issues identified, fully utilize available resources and 
maximize service to those in need. The requests themselves, while 
drawing much attention, have been small relative to the total resources 
available for the program. The requested reduction in new budget 
authority to state programs for fiscal year 2003 for WIA Adult is 5.3 
percent, for WIA Youth it is 11.3 percent and for the WIA Dislocated 
Worker programs it is 10.7 percent.
    However, when these new resources are combined with the Large 
unspent balances in these programs, the President provides more than 
enough new resources to support a substantial increase in assistance to 
adults, youth, and dislocated workers. The budget for these programs 
includes $5 billion in total resources--which is $1.1 billion, or 30 
percent, more than the estimate of what states will spend in 2002. This 
resource total includes $3.3 billion in new budget authority and $1.7 
billion in unspent balances for state formula grants that will be 
carried into Program Year 2003.
    Question. States have three program years within which to spend 
their allotment, including the year in which funds were received. Thus, 
funds received in program year 2000 must be spent by the end of program 
year 2002. Is it reasonable to reach conclusions about WIA spending and 
make decisions about future program funding before the three-year 
period is up?
    Answer. Yes, it is reasonable. To date, we still have seen no 
significant and sustained departure from the trend since WIA 
implementation of tower than estimated spending on participants. Given 
the totals that were unspent at the end of the last program year and 
the amounts projected to be carried into 2003, we do not believe the 
small proposed reductions in new budget authority will have adverse 
impact on the program or those seeking the training and services it 
offers.
    Question. Will Labor be recapturing unspent WIA funds in light of 
the low expenditure rates you are observing?
    Answer. Under WIA, the Department has no authority to recapture 
unspent amounts retained by states. Such authority was available under 
the Job Training Partnership Act Dislocated Workers program and 
spending rates were significantly higher. The Department only has the 
authority to reallot unobligated funds in excess of 20 percent of the 
year's allotment. Since obligating funds is a relatively simple task, 
states can easily avoid recapture of funds.
    Question. Do you have plans to recapture unspent funds from States 
that have not met their target spending levels and reallocate them to 
other States that have already spent their allotment?
    Answer. As indicated previously, under WIA, the Department has no 
authority to reallocate unspent funds available to states.
    Question. How many States are in jeopardy of having their funds 
recaptured?
    Answer. No states are in jeopardy of having funds recaptured. WIA 
does provide the Secretary with the authority to reallot unobligated 
funds in excess of 20 percent of the year's allotment. Since obligating 
funds to avoid a reallotment is a relatively simple task, we expect 
that no states will have WIA funds recaptured at the end of the current 
program year.
    Question. Have any States recaptured unspent funds from their local 
areas?
    Answer. The Department has not collected this information from the 
states.
              senior community service employment program
    Question. Madame Secretary, Congress provided an fiscal year 2002 
increase of $8.9 million for community service employment programs for 
older Americans. Effective with the program year beginning July 1, 
2002, twenty five percent of this increase will go to private sector 
grantees funded directly to the Department and seventy five percent 
will be granted to states. Can you tell us the current status of plans 
for this increased funding?
    Answer. On July 1 we will provide these funds for the Senior 
Community Service Employment Program to support part-time community 
service positions. The funds will be distributed in accordance with the 
authorizing legislation. First, a small set-aside is provided for the 
territories. Then, funds will be set-aside for the national Indian and 
Asian/Pacific groups. The balance of the appropriation will be 
distributed according to the formula prescribed in the law. It will be 
divided so that 25 percent of the increased funding will be provided to 
the national private sector grantees and 75 percent will be provided to 
the state agencies that operate this program.
    Question. Additionally, this Committee provided guidance in last 
year's Report regarding the Department's plans to increase the SCSEP 
unsubsidized placement goal. The Committee requested certain assurances 
from the Department regarding available WIA training funds for older 
workers in light of anticipated increases in this goal. The Committee 
has not yet received such assurances and so we again request them.
    Answer. Based on the Committee's request, we are preparing a report 
that will respond to that inquiry. The report will address the level of 
JTPA and WIA services provided to persons age 55 or over.
    Question. Finally, on April 11, 2002 Chairman Harkin, Senator 
Specter and four Senators who are members of the authorizing committee 
wrote the Secretary regarding our concern that the bipartisan agreement 
on the reauthorization of Title V be implemented in a way that complies 
with the Congressional intent that competition for SCSEP grants be 
conducted in a fashion that ensures currently successful grantees 
continue to receive funding. We look forward to receiving your 
assurances in that regard.
    Answer. A response to the April 11, 2002 letter will be mailed 
shortly. The letter mentioned Senate report language in the context of 
commenting on the GPRA goal of 37 percent for unsubsidized placement of 
SCSEP participants.
    A later paragraph in the letter states that the group of five 
Senators, ``looking forward to receiving your assurances that 
competition requirements will maintain continuity and stability at the 
national level by ensuring that successful grantees continue to receive 
funding.''
    In response, we note that Federal acquisition regulations require 
that grants and contracts are awarded through a competitive process 
where possible. The Procurement Review Board at the Department of Labor 
has reviewed the national sponsor portion of the SCSEP and recommended 
that it be subject to competition. The Department is committed to 
seeing that older Americans receive the best services. Therefore, we 
are looking at the option of competing the National grantee share of 
the SCSEP. While we wholeheartedly support accountability sanctions for 
poor performance, we believe that the best interests of participants 
are served by taking steps to improve services in the first instance 
rather than sanctioning poor performance, which has already negatively 
impacted participants. If such a competition were to take place, we 
would do everything in our power to insure that it does not 
unnecessarily disrupt current participants and provides a fair 
opportunity for all eligible organizations to be national SCSEP 
grantees. We would expect that high performing grantees would be in an 
excellent position to compete for grants, although it would be a 
competition in name only if the results were guaranteed ahead of time.
                            nursing shortage
    Question. As you know, our country is facing a nationwide nursing 
shortage. Not only are people choosing not to enter the nursing 
profession, but they are leaving the profession in alarming rates as 
well. In a recent study released by the Division of Nursing at HHS, the 
Division found that 500,000 licensed registered nurses have chosen to 
leave nursing.
    In the fiscal year 2002 Labor-HHS-Education conference report, the 
Committee directed the Departments of Labor and HHS to convene a 
national panel to examine the education and training requirements for 
all nursing care occupations--including nurses aides, orderlies, LPNs, 
registered nurses with all levels of educational preparation, and 
advanced practice nurses. This panel was tasked with providing specific 
recommendations on the education, training, continuing education, and 
professional development for all levels of nursing care providers. This 
initiative is very important, especially in light of the nursing 
shortage that is plaguing our country. Our citizens need to be assured 
that they have the most appropriate provider giving their nursing care 
at whatever level of acuity their health care needs may be. The panel 
was to host its first meeting by March of this year. I would like to 
know the progress of this very critical effort. What are your plans to 
have a report to the Congress within a year? What are some other 
efforts that the Department of Labor is undertaking to address the 
severe shortage of registered nurses and other nursing care providers?
    Answer. The Departments of Labor (DOL) and Health and Human 
Services (HHS) have had initial conversations as to how best to 
assemble the national panel on nursing. Both departments are 
enthusiastic about establishing the panel and we are continuing to work 
on this important effort.
    We at DOL have a number of initiatives to address the national 
shortage of nurses and other workers in related health care 
professions. For example, staff from DOL, HHS, and the Department of 
Education have drafted and agreed upon a broad-based strategy that will 
guide the joint work of the three agencies in addressing the shortage 
of nurses and related occupations. These strategies will better link 
existing recruitment, career guidance, training and education, job 
referral and placement efforts.
    Other efforts DOL has undertaken include a public-private 
partnership with HCA, Inc., the nation's largest manager/owner of 
hospitals and other health care facilities. The DOL-HCA partnership 
will offer scholarships and certification to workers dislocated as a 
result of September 11th who choose to pursue careers as RNs, LPNs, 
Certified Nursing Assistants (CNAs), and radiological or surgical 
technicians. DOL and HCA are each contributing $5 million.
    DOL has also partnered with the American Health Care Association 
and the American Association of Homes and Services for the Aging to 
provide a web-based clearinghouse that includes a searchable database 
on caregiver jobs (http://www.carecareers.net/). DOL is also working on 
a project using ETA's electronic tool kit and the One-Stop Career 
Center infrastructure to help health care providers fill worker 
shortages by recruiting displaced workers from the hospitality 
industry.
    Other DOL activities include: ``sectoral'' projects to address 
health care shortages while assisting dislocated workers; Job Corps 
training in fifteen specialty areas including CNA, Medical Assistant 
and Physical Therapy Assistant, producing 4,700 new workers annually; 
the Apprenticeship Health Care Outreach Initiative to encourage 
hospitals, nursing homes and other health care facilities in 
establishing apprenticeship programs for such occupations as CNAs, 
LPNs, radiology technicians, and home health aids; and competitive 
Welfare-to-Work grants provided for projects preparing public 
assistance recipients and other low income individuals for entry-level 
health care jobs
    lifting of ergonomic standard's affect on health care profession
    Question. Much attention has been given to the lifting of the 
ergonomics standard last year and the potential effects this decision 
could have on the nation's workforce. Of particular concern to me is 
the effect on our health care system. For example, America's nurses 
have both seen and experienced the devastating effects of repetitive 
lifting, forceful exertions and inadequate prevention measures. These 
conditions are contributing to the shortage of health care workers, 
including nurses, who are willing to work in fast-paced, repetitive, 
stressful and dangerous environments.
    The health care occupations of nurses' aide and registered nurse 
rank first and sixth, respectively, among U.S. occupations at risk for 
strains and sprains, outranking construction laborers and stock 
handlers. And, although effective control measures exist to reduce 
these risks, few health care employers have voluntarily implemented 
them.
    The absence of enforceable ergonomics regulations is also putting 
an even greater strain on the nation's health care industry, which is 
already facing a nursing shortage that is fast reaching crisis 
proportions. And many nurses view the potential for disabling injuries 
as a major contributing factor in their decision to leave the 
profession. In an American Nurses Association survey conducted last 
year, 60 percent of nurses surveyed cited a disabling back injury as 
ranking among their top three health and safety concerns. Additionally, 
nurse respondents stated that more than half the facilities in which 
they worked did not have lifting and transfer devices readily available 
for moving patients. Without a federal mandate, how can our health care 
workforce be protected from these injuries?
    Answer. OSHA has a number of options with regard to actions it can 
take to address injuries related to ergonomic conditions in the 
workplace. Secretary Chao's comprehensive strategy for ergonomics, 
includes four elements:
  --Industry-specific and task-specific guidelines
  --A strong and effective enforcement strategy
  --Extensive outreach and assistance
  --Research
    The nursing home industry has been selected as the first one in 
which to develop industry-specific guidelines. This will help protect 
the health care workforce in an area that currently has many work-
related injuries related to ergonomic hazards. Given that concerns such 
as patient lifting are similar in other parts of the health care 
industry, it may be anticipated that these guidelines will have a 
positive impact in sectors other than nursing homes. Combined with the 
other three elements of the strategy, effective protection can be 
achieved.
                       carryover in a few states
    Question. I understand that the majority of the carryover in 
Workforce Investment Act funds is found in a handful of States, while 
the majority of States and local areas are spending their WIA funding 
allocations at or above rates in past years. Does this correspond with 
your understanding of the situation?
    Answer. While spending is considerably lower in a few states, many 
of the states have substantial carryover. In fact, with three quarters 
of the program year over through March 31, only 5 states have spent 
more than 60 percent of the total funds available for the program year 
for all three WIA state formula programs.
    Question. How would the President's proposed cuts affect those 
States and local communities that are fully spending their funding 
allocations who would not have excess carry-over funds to cushion 
funding reductions?
    Answer. A reduction in the amount appropriated for any program will 
result in reduced allotments for all states and locals. However small 
these reductions at the local level, to the extent that Governors 
elect, they could provide additional resources to local areas from 
statewide WIA balances available to them. Likewise, where major 
dislocations occur, applications for National Emergency Grants can be 
submitted for the department's expeditious consideration.
    Question. What have these states and localities told you about the 
effect that these cuts would have on their ability to deliver services?
    Answer. Some states and localities have expressed concerns about 
the proposed reductions. Again, however, the reductions in new budget 
authority are small relative to the large amounts unspent, and planned 
services will not be adversely affected.
    In the 2003 Budget, the President provides more than enough new WIA 
grant resources to support a substantial increase in assistance to 
adults, youth, and dislocated workers. The budget for these programs 
includes $5 billion in total resources--which is $1.1 billion, or 30 
percent, more than the estimate of what states will spend in 2002. This 
resource total includes $3.3 billion in new budget authority and $1.7 
billion in unspent balances for state formula grants that will be 
carried into Program Year 2003.
    Question. Could you submit for the record, an analysis of the 
funding allotments on both a state by state and local workforce 
investment area by local workforce investment area basis (using the 
current year's formula), which takes into account the reductions 
proposed in the Administration's budget?
    Answer. Attached are tables that display state allotments at the 
Program Year 2002 appropriated level and at the Program Year 2003 
request level. States do not provide the Department with local area 
allocation information so a local analysis is not possible. However, 
the overall reduction should approximate the overall percentage 
reduction requested.
     Employment and Training Administration, Advisory System, U.S. 
                          Department of Labor
           training and employment guidance letter no. 13-01
To: All State Workforce Liaisons; all State Workforce Agencies; all 
        State Worker Adjustment Liaisons; all One-Stop Center System 
        Leads

From: Emily Stover DeRocco, Assistant Secretary

Subject: Workforce Investment Act (WIA) Allotments for Program Year 
        (PY) 2002; Wagner-Peyser Act Prelirninary Planning Estimates 
        for PY 2002; Reemployment Services Allotments for PY 2002; and 
        Workforce Information Grants to States for PY 2002.

1. Purpose
    To provide states and outlying areas with WIA title I Adults and 
Dislocated Workers and Youth Activities allotments for PY 2002; 
preliminary planning estimates for PY 2002 public employment service 
(ES) activities, as required by Section 6(b)(5) of the Wagner-Peyser 
Act, as amended; Reemployment Services allotments for PY 2002; and the 
Workforce Information Grants to States for PY 2002.
2. References
    Wagner-Peyser Act, as amended (29 U.S.C. 49 et seq.; Workforce 
Investment Act of 1998 (WIA), (29 U.S.C. 2801 et seq.) Public Law 106-
113; Planning Guidance and Instructions for Submission of the Strategic 
Five-Year State Plan for Title I of the Workforce Investment Act of 
1998 and the Wagner-Peyser Act (64 F.R. 9402 (February 25, 1999); State 
Unified Planning Guidance (65 F.R 2464 (January 14, 2000); Training and 
Employment Guidance Letter (TEGL) No. 11-98; TEGL 3-99, dated January 
31, 2000; TELL 12-00, dated March 6, 2001; and TEGL 22-00, dated May 
23, 2001.
3. Background
    The WIA allotments, the Wagner-Peyser Act preliminary planning 
estimates, the Reemployment Services allotments, and the Information 
Grants to States allocations are part of the fiscal year 2002 funds 
appropriated in the Departments of Labor, Health and Human Services, 
and Education, and Related Agencies Appropriations Act, 2002, Public 
Law 107-116, January 10, 2002. This appropriation includes:
    Youth Activities--$1,353,065,000--a decrease of $24.9 million, or 
1.8 percent below PY 2001 (including the $25 million supplemental), 
composed of (1) Formula funds--$1,127,965,000; and (2) Youth 
Opportunity Grants--$225,100,000;
    Adult Activities--$950,000,000--the same level as PY 2001;
    Dislocated Workers Activities--$1,549,000,000--a decrease of 
$41,040,000, or 2.6 percent below the PY 2001 level;
    Wagner-Peyser Act (preliminary planning estimates)--$761,735,000--
the same as the PY 2001 level;
    Reemployment Services--$35,000,000--the same level as PY 2001; and
    Workforce Information Grants to States--$38,000,000--the same level 
as PY 2001.
    The WIA allotments for states are based on formulas defined in the 
Act. The allotments for outlying areas are based on a discretionary 
formula as authorized under WIA title I. These allotments and 
preliminary planning estimates were published in the Federal Register 
on March 8, 2002. Comments are being invited from the public on the 
formula used to distribute outlying areas funds only.
4. Outlyine Areas Funds for Youth Activities, Adult Activities, and 
        Dislocated Worker Activities
    A. Total funds for outlying areas.--The total funds available for 
the outlying areas for each program were reserved at the maximum 0.25 
percent of the full amount appropriated for each program in accordance 
with WIA provisions. For Youth Activities, this calculation was done on 
the total appropriation including $225.1 million for Youth Opportunity 
Grants. The calculation resulted in $3,382,663, a decrease of $124,750, 
or 3.6 percent, from the PY 2001 level. The total available for the 
outlying areas for the Adult Activities program is $2,375,000, the same 
level as PY 2001. Outlying areas' total funds for Dislocated Worker 
Activities are $3,872,500, a decrease of $102,600 for the areas from PY 
2001.
    WIA section 127(b)(1)(B)(i)(IV) provides that the Freely Associated 
States (Marshall Islands, Micronesia, and Palau) are not eligible for 
funding for any program year beginning after September 30, 2001. 
However, section 3 of Public Law 106-504, (November 13, 2000), 
supercedes this section of WIA, and provides that the Freely Associates 
States remain eligible for funding until negotiations on the Compact of 
Free Association is complete and consideration of legislation pursuant 
to the compact is completed. Accordingly, the Freely Associated States 
are provided funds for PY 2002.
    B. Competitive Grants.--The WIA provisions for competitive grants 
from all three programs for the outlying areas expired after PY 2001, 
this no competitive grant funds are available in PY 2002.
    C. Formula Grants.--For the Youth Activities and Adult Activities 
programs, the funds were distributed among all outlying areas by the 
same formula as used for these programs for PY 2001, i.e., based on 
relative share of number of unemployed with a 90 percent hold-harmless 
of the prior year share, a $75,000 minimum, and a 130 percent stop-gain 
of the prior year share. Data used for the relative share calculation 
in the formula were the same as used for PY 2001 for all outlying 
areas, essentially 1995 Census data from special surveys. Updated 2000 
special Census data are expected to be available for next year's 
allotment calculations. The Dislocated Worker Activities funds for 
grants to all outlying areas were distributed by the methodology 
previously used, i.e., based on the same pro rata share as the areas 
received for the PY 2002 WIA Adult Activities program. For amounts 
determined for outlying areas, see Attachment I for Youth Activities, 
Attachment II-A for Adult Activities, and Attachment III-A for 
Dislocated Workers Activities.
5. State Youth Activities Funds: Title I--Chapter 4--Youth Activities
    A. State and Native Americans Allotments.--PY 2002 Youth Activities 
funds appropriated under WIA total $1,353,065,000 (including $225.1 
million for Youth Opportunity grants). Attachment I contains a 
breakdown of the $1,127,965,000 in WIA Youth Activities program 
allotments by state for PY 2002 and provides a comparison of these 
allotments to PY 2001 Youth Activities allotments for all states, 
outlying areas, Puerto Rico and the District of Columbia.
    The total amount available for Native Americans is 1.5 percent of 
the total amount for Youth Activities excluding Youth Opportunity 
Grants, in accordance with WIA Section 127. This total is $16,919,475, 
the same level as the PY 2001 Youth Activities level (including the 
supplemental appropriation) for Native Americans.
    After determining the amount for the outlying areas (discussed in 
item 4 above) and Native Americans, the amount available for allotments 
to the states for PY 2002 is $1,107,662,862, a nominal increase of 
$124,750 from the PY 2001 level (including the supplemental 
appropriation). This total amount was above the required $1 billion 
threshold specified in Section 127(b)(I)(C)(iv)(IV); therefore, as in 
PY 2001, the WIA additional minimum provisions were applied:
    1. Minimum 1998 dollar (not percentage) (JTPA II-B and II-C 
combined) allotment, and
    2. Two-tier small state minimum allotment (.3 percent of first $1 
billion and .4 percent of amount over $1 billion), rather than .25 
percent. These provisions were in addition to the traditional provision 
of a 90 percent hold-harmless from the prior year allotment percentage. 
Also, as required by WIA, the provision applying a 130 percent stop-
gain of the prior year allotment percentage was used. The three formula 
factors required in WIA use the following data for the PY 2002 
allotments:
      (a) the number of unemployed for areas of substantial 
        unemployment (ASU's) are averages for the 12-month period, July 
        2000 through preliminary June 2001;
      (b) the number of excess unemployed individuals or the ASU excess 
        (depending on which is higher) are averages for the same 12-
        month period used for ASU unemployed data; and
      (c) the number of economically disadvantaged youth (age 16 to 21, 
        excluding college students and military) are from the 1990 
        Census. (2000 Census data are not expected to be available for 
        use until PY 2004 allotment calculations.)
    B. Notices of Obligation (NOOs) and State Plans.--Pursuant to WIA 
section 189(g)(1)(B), youth allotments will be issued on April 1, 2002. 
In preparation for this action, states will be receiving grant 
documents shortly. Those states who plan to receive their Youth 
Allotments by April 1 should complete and return their new WIA Annual 
Funding Agreements by mid-March. This will allow for the timely 
execution of the new WIA Annual Funding Agreements and Youth allotments 
by April 1, 2002.
    C. Within-State Allocations.--Youth Activities funds are to be 
distributed among local workforce investment areas (subject to 
reservation of up to 15 percent for statewide workforce investment 
activities) in accordance with the provisions of WIA section 128 and 
according to the approved state plan.
    D. Transfers of Funds.--There is no authority for local workforce 
investment areas to transfer funds to or from the Youth Activities 
program.
    E. Reallotment of Funds.--Reallotment of Youth Activities formula 
funds, as provided for by WIA section 127(c), will be based on 
completed program year financial reports submitted by the states. 
Reallotment of funds among states under WIA will occur during PY 2002 
based on obligations made during PY 2001 (20 CFR Sec. 667.150 of the 
WIA interim final regulations). There were no recapture/reallotment of 
WIA funds in PY 2001.
6. State Adult Employment and Training Activities Funds: Title I--
        Chapter 5--Adult and Dislocated Worker Employment and Training 
        Activities
    A. State Allotments.--The total Adult Employment and Training 
Activities appropriation is $950,000,000, the same level as PY 2001. 
Attachment II-A shows the PY 2002 Adult Employment and Training 
Activities allotments and comparison to PY 2001 allotments by state.
    After detaining the amount for the outlying areas (discussed in 
item 4 above), the amount available for allotments to the states is 
$947,625,000, the same as PY 2001. Unlike the Youth Activities program, 
the WIA minimum provisions were not applied for the PY 2002 Adult 
Activities allotments because the total amount available for the states 
was below the $960 million threshold required for Adults in section 
132(b)(1)(B) (iv)(IV). Instead, as required by WIA, the JTPA section 
202(a)(3) (as amended by section 701 of the Job Training Reform 
Amendments of 1992) minimums of 90 percent hold-harmless of the prior 
year allotment percentage and 0.25 percent state minimum floor were 
used. Also, like the Youth Activities program, a provision applying a 
130 percent stop-gain of the prior year allotment percentage was used. 
The three formula factors use the same data as were used for the Youth 
Activities formula, except that data for the number of economically 
disadvantaged adults (age 22 to 72, excluding college students and 
military) from the 1990 Census were used. (2000 Census data are not 
expected to be available for use until PY 2004 allotment calculations.)
    B. NOO's.--For PY 2002, Congress appropriated funds for this 
program in two portions: $238 million available for obligation on July 
1, 2002, and $712 million available for obligation on October 1, 2002 
(fiscal year 2003). Allotments to states will be prorated based on 
these amounts and two NOO's will be issued: one for July 1, 2002, under 
the PY 2002 WIA grant agreement, and the other for October 1, 2002, 
(also under the PY 2002 W1A grant agreement) (see Attachment II-B).
    C. Within-State Allocations.--Adult Activities, funds are to be 
distributed among local workforce investment areas (subject to 
reservation of up to 15 percent for statewide workforce investment 
activities) in accordance with the provisions in WIA section 133 and 
according to the approved state plan.
    D. Transfers of Funds.--WIA Section 133(b)(4) provides the 
authority for workforce investment areas, with approval of the 
Governor, to transfer up to 20 percent of the Adult Activities funds to 
Dislocated Workers Activities, and up to 20 percent of Dislocated 
Workers Activities funds to Adult Activities.
    E. Reallotment of funds.--Reallotment of Adult Activities formula 
funds, as provided for by WIA section 132(c), will be based on 
completed program year financial reports submitted by the states. 
Reallotment of funds among states under WIA will occur during PY 2002 
based on obligations made during PY 2001 (20 CFR Sec. 667.150 of the 
WIA interim final regulations). There were no recapture/reallotment of 
WIA funds in PY 2001.
7. State Dislocated Worker Employment and Training Funds: Title I--
        Chapter S--Adult and Dislocated Worker Employment and Training 
        Activities
    A. State Allotments.--The total Dislocated Worker appropriation is 
$1,549,000,000, a decrease of $41,040,000, or 2.6 percent from the PY 
2001 pre-rescission level. The total appropriation includes 80 percent 
allotted by formula to the states, while 20 percent is retained for 
National Emergency Grants, technical assistance and training, 
demonstration projects, and the outlying areas Dislocated Worker 
allotments (outlying areas are discussed in item 4 above). Attachment 
III-A shows the PY 2002 Dislocated Worker Activities fund allotments by 
state.
    The amount available for allotment to the states is 80 percent of 
the Dislocated Workers appropriation, or $1,239,232,000, a decrease of 
2.6 percent from the PY 2001 pre-rescission level. Since the Dislocated 
Worker Activities formula has no floor amount or hold-harmless 
provisions, funding changes for states directly reflect the impact of 
changes in number of unemployed. The three formula factors required in 
WIA use the following data for the PY 2002 allotments:
    (1) the number of unemployed are averages for the 12-month period, 
October 2000 through September 2001;
    (2) the number of excess unemployed are averages for the 12-month 
period, October 2000 through September 2001; and
    (3) the number of long-term unemployed are averages for calendar 
year 2000.
    B. NOO's.--For PY 2002, Congress appropriated fields for this 
program in two portions, $489,000,000 available for obligation on July 
1, 2002, and $1,060,000,000 available for obligation on October 1, 2002 
(fiscal year 2003). Allotments to states will be prorated based on 
these amounts and two NOO's will be issued: one for July 1, 2002, under 
the PY 2002 WIA grant agreement, and the other for October 1, 2002, 
(also under the PY 2002 WIA grant agreement) (see Attachment III-B).
    C. Within-State Allocations.--Dislocated Worker Activities funds 
are to be distributed among local workforce investment areas (subject 
to reservations for Rapid Response and statewide workforce investment 
activities) in accordance with the provisions in WIA section 133 and 
according to the approved state plan.
    D. Transfers of Funds.--WIA Section 133(b)(4) provides the 
authority for workforce investment areas, with approval of the 
Governor, to transfer up to 20 percent of the Dislocated Workers 
Activities funds to Adult Activities, and up to 20 percent of Adult 
Activities funds to Dislocated Workers Activities.
    E. Reallotment of Funds.--Reallotment of Dislocated Worker 
Activities formula funds, as provided for by WIA section 132(c), will 
be based on completed program year financial reports submitted by the 
states. Reallotment of funds among states under WIA will occur during 
PY 2002 based on obligations made during PY 2001 (section 667.150 of 
the WIA interim final regulations). There were no recapture/reallotment 
of WIA funds in PY 2001.
8. Wagner-Peyser Act Grants to States Preliminary Planning Estimates
    The public employment service program involves a Federal-State 
partnership between the U.S. Department of Labor and the State 
Workforce Agencies. Under the Wagner-Peyser Act, funds are allotted to 
each state to administer a labor exchange program responding to the 
needs of the state's employers and workers through a system of local 
employment service offices that are part of the One-Stop service 
delivery system established by the state. Attachment IV shows the 
Wagner-Peyser Act preliminary planning estimates for PY 2002. These 
preliminary planning estimates have been produced using the formula set 
forth at section 6 of the Wagner-Peyser Act (29 U.S.C. 49e). They are 
based on monthly averages for each state's share of the civilian labor 
force (CLF) and unemployment for the 12 months ending September 2001. 
Final planning estimates will be published in the Federal Register, 
based on calendar year 2001 data, as required by the Wagner-Peyser Act.
    State planning estimates reflect $16,000,000, or 2.1 percent of the 
total amount appropriated, which is being withheld from distribution to 
states to finance postage costs associated with the conduct of Wagner-
Peyser Act labor exchange services for PY 2002.
    The Secretary of Labor is required to set aside up to three percent 
of the total available funds to assure that each state will have 
sufficient resources to maintain statewide employment service (ES) 
activities, as required under Section 6(b)(4) of the Wagner-Peyser Act. 
In accordance with this provision, the 3 percent set-aside funds, 
$22,372,050, are included in the total planning estimate. The set-aside 
fiends are distributed in two steps to states which have lost in 
relative share of resources from the previous year. In Step 1, states 
which have a CLF below one million and are also below the median CLF 
density are maintained at 100 percent of their relative share of prior 
year resources. All remaining set-aside funds are distributed on a pro-
rata basis in Step 2 to all other states losing in relative share from 
the prior year but not meeting the size and density criteria for Step 
1.
    Under Wagner-Peyser Act section 7(b), ten percent of the total sums 
allotted to each state shall be reserved for use by the Governor to 
provide performance incentives for public ES offices, services for 
groups with special needs, and for the extra costs of exemplary models 
for delivering job services.
9. Reemployment Services
    The purpose of these funds is to ensure that all Unemployment 
Insurance (UI) claimants receive the necessary services to become re-
employed. The total fluids available for PY 2002 are $35 million, the 
same as in PY 2001. The allocation figures for the distribution of the 
$35 million in Reemployment Services fiinds for each state for PY 2002 
are listed in Attachment V. The remaining fluids were allocated using 
the following method: each state received $215,000; the remaining funds 
were distributed using each state's share of first payments for fiscal 
year 2001 to Ul claimants. There will be a slight increase in funds to 
the states this year as there was no deduction in PY 2002 for an 
evaluation of services provided through these fluids. Guidance on the 
use of these fiends will be provided in a separate TEGL.
10. Workforce Information Grants to States
    Total PY 2002 finding for Workforce Information Grants to States is 
$38,000,000, the same as for PY 2001. Funds are allocated by formula to 
the fifty states, the District of Columbia, Guam, Puerto Rico and the 
Virgin Islands. Part of the allotment formula is based on the relative 
share of the CLF for each entity. Slight year-to-year changes in the 
size of the CLF in each area resulted in insignificant increases and 
decreases to PY 2002 allotments, as compared to PY 2001 allotments. 
Guidance on the use of these funds will be provided in a separate TEGL.
11. Reporting
    For the WIA programs, states will be required to submit one WIA 
quarterly report for each of the fund sources received (including a 
separate report for each of the funding periods for Adults and 
Dislocated Workers--July 1 fluids and October 1 fiands). This report 
will be divided into six separate sub-reports detailing statewide 
activities; statewide rapid response (Dislocated Workers Activities); 
local area administration; local area Youth program activities; local 
area Adult program activities; and local area Dislocated Workers 
program activities.
12. Inquiries
    Questions regarding these allotments, preliminary planning 
estimates and planning requirements may be directed to the appropriate 
Regional Office. Information may also be found at the website--http://
usworkforce.org
                              attachments
    I. Youth Activities Allotments, PY 2002 vs PY 2001
    II-A. Adult Employment and Training Activities Allotments, PY 2002 
vs PY 2001
    II-B. Adult Employment and Training Activities Allotments, July 1 
and October 1 Funding
    III-A. Dislocated Worker Employment and Training Activities 
Allotments, PY 2002 vs PY 2001
    III-B. Dislocated Worker Employment and Training Activities 
Allotments, July 1 and October 1 Funding
    IV. Wagner-Peyser Act Allotments, PY 2002 Preliminary Planning 
Estimates vs PY 2001 Final
    V. Reemployment Services Allotments, PY 2002 vs PY 2001
    VI. Workforce Information Grants to States, PY 2002 vs PY 2001 





    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                 impact of workforce cuts on employers
    Question. What effects will continue budget cuts to the workforce 
investment system have on the building of business leadership and 
support for the new system?
    Such support was a major goal of the Congress in developing the 
Workforce Investment Act, and I fear that instability of funding, 
particularly at the local level, will undermine the important work that 
has been done to ensure the relevance of the job training system to 
business needs, to instill confidence with employers, and to build this 
vital support.
    Answer. The Department of Labor is working to strengthen business 
connections with the public state and local workforce investment 
system. Under the Workforce Investment Act (WIA) of 1998, business 
leaders, as members of state and local Workforce Investment Boards, 
have the opportunity to develop state and local strategies to address 
skill shortages based upon their assessment of local and regional labor 
market needs. Businesses in need of workers can learn about and gain 
access to workforce investment system information and services and as a 
result, workers should find expanded employment opportunities.
    The Department of Labor request recognizes that unspent WIA funds 
remain available to maintain or increase services and continue building 
the workforce investment system. At the same time, it proposes to 
eliminate programs that did not live up to their promise or that 
duplicate other efforts. We believe this is sound business practice and 
should encourage confidence among business leaders as well as American 
taxpayers. Most states and local communities have high levels of 
unspent carryover funds in their WIA formula allotments, so the 
Department does not expect the decrease in the fiscal year 2003 budget 
request to have an adverse impact on the services provided to American 
workers or U.S. companies. While we recognize that major dislocations 
or unemployment could result in increased demand for workforce services 
in some communities, resources are available for under National 
Emergency Grants to respond to major dislocations that may result in 
increased demand for workforce investment services in particular 
communities.
    The Department of Labor is continuing to develop closer connections 
among business and state and local public workforce systems to better 
meet business' needs for skills by equipping American workers with 
knowledge and skills employers are seeking in the 21st century. The 
Department of Labor also is working to reform the unemployment 
insurance and employment service programs, making them more responsive 
to business and worker needs, providing states more flexibility, and 
promoting economic growth. We believe that these efforts will 
strengthen business partnerships with the state and local workforce 
investment system, building long-term confidence that the system will 
be able to respond quickly to meet skill needs.
                              h-1b program
    Question. The Bush Administration proposes to transfer $138 million 
from H-1B training programs into clearing up the backlog in permanent 
foreign labor certification requests. Yet H-1B training was part of a 
commitment made to American workers as part of the quid pro quo in 
raising the number of H-1B (foreign guest worker) visas.
    Why is the Administration abandoning this national commitment to 
training workers in skill shortage occupations jobs so suddenly, 
particularly since the Department only began awarding these grants in 
2000 and most of the projects funded thus far have barely begun 
implementation?
    Answer. The H-1B technical skill grant training program was 
authorized to help American workers acquire the skills to fill jobs for 
which skills shortages caused U.S. companies to hire high-skilled 
foreign workers. The Department of Labor started awarding H-1B training 
grants in 1999, and a number of these grants are nearing conclusion. 
There is no evidence that these grants will have a measurable national 
impact on American business' demand for temporary, highly-skill foreign 
workers. Indeed, little DOL-supported training is sufficient to 
adequately train workers at the level of H-1B visa holders, 97 percent 
of whom have at least a Bachelor's or Professional degree and most of 
whom are information technology systems analysts or programmers, 
engineers, professors, physicians, surgeons or architects.
    Given this, the Department of Labor plans to redirect the H-1B fees 
paid by employers that currently finance these training grants to 
reduce the backlog of pending applications for the permanent 
certification program at the state and federal levels. Many workers 
admitted under the H-1B program apply for permanent residency, 
contributing to these backlogs. The Department of Labor has worked with 
our state partners to improve processing these applications and while 
productivity has nearly doubled, the volume of incoming applications 
has outpaced productivity gains. These redirected funds will serve the 
customers of employment-based immigration programs and resolve the 
backlog problem.
    American workers can access information through the existing 
network of One-Stop Career Centers about career opportunities and 
available education and training resources that may help them acquire 
the skills business is demanding. Among these training resources are 
funds for eligible dislocated and other adult workers under the 
Workforce Investment Act of 1998. We believe the H-1B training program 
is duplicative of these resources.
    Question. If government and the private sectors don't work together 
to partner on the kind of community-based job training initiatives 
envisioned under the H-1B training program, how are we ever going to 
decrease our reliance on foreign guest workers?
    Answer. Enhanced employment opportunities for American workers and 
increased business prosperity continue to result from private sector 
and public sector partnerships. The Workforce Investment Act (WIA) of 
1998 established a broad framework to begin to meet the needs of the 
Nation's businesses and Americans seeking work or wanting to further 
their careers. Under WIA, business leaders have the opportunity to 
develop state and local strategies to address skill shortages based on 
their assessment of local and regional labor market needs. Businesses 
in need of workers can learn about and gain access to the public 
workforce investment system and as a result, workers should find 
expanded employment opportunities. The Department of Labor will 
continue to develop closer connections among businesses experiencing 
skill shortages and state and local public workforce investment systems 
to better meet businesses' needs for skills by equipping American 
workers with the knowledge, skills and abilities sought after in the 
21st century.
    Question. If we eliminate this program, how are incumbent American 
workers going to get the training they need to qualify for those 
employment opportunities that are said to be going begging because we 
apparently don't now have sufficiently-trained U.S. job seekers?
    Answer. We need to help American workers make better use of 
available training and education resources to qualify for current and 
future jobs that meet business needs for skilled workers. The Workforce 
Investment Act (WIA) of 1998 provides the framework for a public, state 
and local workforce preparation and employment system designed to meet 
both the needs of businesses and the needs of workers. In the 2003 
budget the President provides $2.0 billion in new budget authority for 
the WIA Adult and Dislocated Worker State Grant Program, which when 
combined with an estimated $1 billion in unspent balances represents an 
increase of 27 percent over what states will spend on these programs in 
2002. We are encouraging this state and local system to more 
effectively partner and connect with business and with public and 
postsecondary education systems to help workers take advantage of 
career opportunities in high-growth sectors of the modern economy.
    WIA established the network of state and local One-Stop Career 
Centers where workers can access information about a wide array of 
public job training, education, and employment services. Through these 
One-Stop Centers, workers wishing to upgrade their skills can learn 
about training and education resources for which they are eligible, 
including WIA-financed training, federal student financial aid, and 
other financing opportunities such as Lifetime Learning and HOPE tax 
credits. We need to encourage workers to make good use of this 
information in managing their careers.
    Question. Please provide any formative evaluations that the 
Department has undertaken on H-1B programs along with all summative 
evaluations.
    Answer. The H-1B technical skill training grants program is 
comparatively new. Thus, the evaluation activities funded by ETA to 
date provide early snapshots of how the grants are being implemented 
rather than information on their impact on the number of H-1B visa 
holders being hired by U.S. companies.
    The Department of Labor sponsored an early review of six H-1B 
training grant sites by Dr. Stephen Baldwin of the KRA Corporation in 
August 2001. This study largely focused on initial grant implementation 
along the various dimensions, such as targeting participants and 
occupations, determining the level and intensity of skill training, and 
obtaining business engagement and the collaboration of other community 
entities. The Department of Labor sponsored a second short-turnaround 
study of six other grantee sites that was completed by Dr. Burt Barnow 
of the Institute for Policy Studies of Johns Hopkins University. The 
objectives of this study were to compare and contrast approaches 
undertaken across the six sites and to highlight interesting practices 
that might be replicated by current and future grantees. Interested 
individuals can access both studies through the Department of Labor's 
Employment and Training website: www.doleta.gov. (Copies of the studies 
are also attached for the Subcommittee's use.)
    The Department of Labor has commissioned a longer-term, in-depth 
study of the H-1B technical skills training grant program. This three-
year effort is being undertaken by Bruno Associates in association with 
WESTAT, Inc. as the result of a competitive process. Now in its early 
phases, the study will encompass a process evaluation; collect 
quantitative administrative data; and assess the feasibility of 
conducting an impact study.
    The Department's Office of the Inspector General is conducting 
audits of several grantees and has published one of them. A copy may be 
accessed at www.oig.dol.gov.
                   cleaning up the green card backlog
    Question. Your budget proposes shifting all current and future H-1B 
training dollars into faster processing of the backlog of pending 
employer applications for permanent labor certifications. Are you 
really going to need every single current and future H-1B training 
dollar that's nearly one half billion dollars (that will be generated 
by new and extended H-1B visas over the next several years to clear up 
the green card backlog?
    Answer. The President's Budget proposes to redirect the portion of 
H-1B fee revenues that go for training grants to eliminate the backlog 
of permanent program applications at the State level. The H-1B fee is 
scheduled to sunset on September 30, 2003, at which time the cap 
reverts back to 65,000 visas. The number of H-1B fee paid petitions 
processed by INS has not kept pace with earlier projections. The 
195,000 cap was not reached in fiscal year 2001, and based upon recent 
fee revenues received, it does not appear the cap will be reached in 
fiscal year 2002. The Immigration and Naturalization Service (INS) 
reported that H-1B visa petitions are down 48 percent compared to the 
first six months of fiscal year 2001, which will substantially reduce 
the current and future balance level.
    There are approximately 300,000 pending permanent labor 
certification applications in the states and the DOL regional offices. 
Over 200,000 of these applications were received as a result of the 
Congress enacting the Legal Immigration Family Equity (LIFE) Act. The 
Immigration and Nationalization Service (INS) receives revenue from a 
$1,000 fee to process LIFE Act applications. DOL does not receive any 
resources specifically for LIFE Act application processing. Employer 
applicants have cause to expect their applications will be processed 
within a reasonable time. Processing times today, depending upon the 
state, can take more than 5 years.
    The budget proposes shifting the H-1B training grant funds to 
support processing of the applications under the current regulation. 
Approximately, 15 percent-25 percent of these applications are believed 
to be high-skilled H-1B visa holders who desire to remain permanently 
employed in their current jobs. Based upon a management review 
conducted by Pricewaterhouse Coopers (PwC), we estimate it will take 
approximately 2-2\1/2\ years for these backlogged cases to be 
processed.
    Concurrent with the processing of backlogged applications under the 
current regulation, the Department plans to implement the proposed 
Permanent Employment in the United States (PERM) regulation in Spring, 
fiscal year 2003. This new regulation is expected to significantly 
streamline the processing of newly submitted permanent labor 
certification cases. The budget does not propose shifting the H-1B 
training grant funds to implement the proposed streamlined PERM 
regulation, only for processing applications under the current 
regulation.
    Question. Have you developed a budget for exactly how all of this 
money is going to be spent to clear up the backlog?
    Answer. The Employment and Training Administration (ETA) engaged 
Pricewaterhouse Coopers (PwC) to conduct a management review of the 
permanent labor certification program to determine where processing 
efficiencies may be realized and the necessary resources to clear out 
the backlog. ETA is using PwC's budget estimate and evaluating several 
PwC recommendations on where processing efficiencies may be realized. 
Once this evaluation is concluded, an exact budget, including how much 
is needed and how the redirected H-1B training grant balances would be 
used, will be developed.
    Question. At a time of high levels of unemployment, particularly in 
the high tech sector, do you think it makes sense for the government to 
be taking steps to accelerate the entry of even more foreign workers 
into the United States?
    Answer. In the vast majority of cases, the alien beneficiary is 
already working for the U.S. employer at the time an application for 
alien employment certification is filed. Hence, eliminating the current 
backlog will not have an appreciable effect on the U.S. labor market. 
Further, it should also be clearly understood that under the permanent 
labor certification program the Secretary certifies the job 
opportunity, not the alien beneficiary of the labor certification. The 
labor certification regulations require, pursuant to section 
212(a)(5)(A) of the Immigration and Nationality Act, a test of the 
labor market to determine that there are not sufficient American 
workers who are able, willing, qualified and available, and the 
employment of the alien beneficiary will not adversely affect the wages 
and working conditions of workers in the United States similarly 
employed.
                           ergonomic hazards
    Question. In a recent survey of nurses conducted by the American 
Nurses Association, 60 percent stated they feared a disabling back 
injury. Fewer than half of the facilities (46 percent) where these 
nurses were employed made lifting and transfer devises readily 
available. Currently, since no federal ergonomics standard exists, 
facilities are not required to provide such devices. What is the 
Department doing to address the concern of nurses and other health care 
workers about such problems as back injuries?
    Answer. OSHA is in the process of implementing a comprehensive plan 
to address ergonomic hazards. This plan combines enforcement measures, 
industry guidelines, outreach, and research to reduce the incidence of 
injuries related to ergonomic hazards in the workplace.
    In this regard, OSHA has developed, and is preparing to implement, 
a National Emphasis Program (NEP) to focus on injuries from resident 
lifting and transfers in Nursing and Personal Care Facilities. The 
purpose of this enforcement effort is to encourage employers to 
minimize manual lifting, as the majority of lost workday injuries in 
nursing homes are a result of resident transfer and lifting. For each 
year of this NEP, OSHA anticipates conducting inspections at 
approximately 1,000 Nursing and Personal Care Facilities with the 
highest injury and illness rates. OSHA is optimistic that through this 
enforcement effort, employers throughout the nursing and health care 
industry will implement the use of effective and feasible controls to 
address back injuries and other musculoskeletal disorders.
    OSHA also provides annual training to our Compliance Officers in 
the recognition of hazards in the health care industry, including 
ergonomic stressors. Back injuries and other musculoskeletal disorders 
are recognized hazards in the health care industry. Even the absence of 
a specific OSHA standard to address this hazard, employers retain a 
positive duty to protect their employees from work related injuries and 
illnesses. The OSH Act of 1970 allows OSHA to cite under the ``General 
Duty Clause'' when employers are not fulfilling this obligation.
    In addition to this enforcement activity, the agency is moving 
forward with guidelines for Nursing and Personal Care Facilities, and 
other specified industries. OSHA also has numerous outreach materials 
on its website (www.osha.gov), including a graphical menu to identify 
hazards and controls found in the Hospital and Health Care Industry, an 
e-tool for Nursing and Personal Care Facilities, reference material, 
and fact sheets addressing hazards, including ergonomic hazards in 
these industries.
    The goal of these efforts is to address the hazards and the 
concerns of nurses and nursing staffs and to reduce the injury and 
illness rates within the health care industry.
                   job training technical assistance
    Question. Secretary Chao, you talked about the slow spending of 
Workforce Investment Act resources at last year's hearing, over a year 
ago. There is an obvious need for services nationally during difficult 
economic times, especially for dislocated worker finding as exemplified 
by the Administration's supplemental request.
    What sort of technical assistance for states and localities have 
you ordered to help improve Workforce Investment Act spending rates in 
States and localities across the country?
    Answer. ETA attributes low spending, in part, to the implementation 
of the new WIA program. ETA has conducted an on-going program of 
evaluation to determine state and local partner progress in 
implementing WIA. The seven ETA regional offices routinely conduct on-
site visits with our partners to determine success against the 
implementation objectives reflected in the state strategic plan. The 
regional offices file a quarterly report on ``outstanding issues'' in 
governance, performance measurement and a number of other key issues, 
noting both progress and remaining problems. ETA's emphasis on 
identifying the major operational issues that impede complete 
implementation remains an important priority. The agency has enlisted 
outside contractors, including Social Policy Research Associates, to 
assist in the process evaluation of WIA implementation. Both these 
Federal and contractor findings become valuable, continuing input into 
technical assistance strategies that are developed for states. Our 
negotiation of state performance measures has also been mindful of the 
Administration's emphasis on the Government Performance Results Act and 
the requirement to set high targets of accomplishment for those 
customers served by the Adult, Dislocated Worker and Youth funding 
streams under WIA.
    ETA hosts both national and regional conferences that organize 
presentation, agendas, and workshops around solutions to problems.
    ETA also issues Training and Employment Guidance Letters to the 
workforce system on a routine basis to provide clarification on WIA 
policy, technical assistance materials, questions and answers, and 
other advisories that will assist our partners.
    ETA staff have also conducted an analysis of quarterly financial 
reports to determine the various dimensions of the underexpenditure 
issue and the combination of causal factors contributing to the 
reported low outlays. The problem is more acute in some states than in 
others. Early implementation was certainly marked by significant 
underexpenditure in a subset of states as they moved from JTPA to WIA.
    The examination of financial reports led to the development of a 
diagnostic line of inquiries that has been used by our line staff and 
political leadership in conversations with the states. These questions 
probe state knowledge, experience, and intent. Among them:
    What information do you have at the state level on local workforce 
investment area obligations?
    What is the nature of these obligations? Are they obligations 
attached to specific customers for training, such as Individual 
Training Accounts, and/or specific services? Are they obligations to 
service providers to assist customers over the next few immediate 
months? Or are they obligations made from one administrative entity to 
another for services and training over a longer extended period?
    Spending for statewide activities has lagged considerably behind 
local spending. Why is this? If you have large balances in statewide 
activities, have you discussed reducing the amount reserved for these 
services to provide a greater proportion of the funds to areas that 
lack resources to meet demands for training and services?
    Are there particular obstacles--statutory or regulatory--that have 
restricted the timely expenditure of these funds?
    The pursuit of this issue has also focused on the arguments made by 
many local One-Stop operators that funds have been obligated at the 
local level, but have not been reflected in the state reports 
(differences in ``closing date'' for account structures, etc.).
    Both the analysis of reports and our ongoing conversations with the 
states have translated into ``action items'' for all levels of WIA 
governance. We believe the states are working extremely hard to fully 
implement the law and realize the goals and objectives outlined in 
their respective strategic plans. The effort to fully enlist all the 
partners in the day-to-day operation of the One-Stop delivery system 
has certainly been a difficult and time-consuming process in many 
communities and a contributing factor to the underspending during this 
period. The time and energy to deal with the documentation requirements 
necessary to certify eligible training providers for a period of 
``subsequent eligibility'' was also perhaps not fully anticipated at 
the outset of WIA implementation.
    We have convened state and local partners in a series of ``WIA 
readiness'' sessions across the country, gathering their viewpoints on 
what has worked (and what has not worked). These workgroups were 
charged with suggesting strategies to assist the system in addressing 
implementation issues in four areas: One-Stop service delivery, adult 
and dislocated worker services, youth services, and attracting and 
retaining employer involvement on workforce boards. Their commitment 
and work yielded a series of recommended actions that were shared with 
the workforce development system in November, 2001.
    Our collective stewardship of these WIA resources is a mutually 
recognized one. ETA is fully committed to working with our state and 
local partners to ensure that employers and jobseekers are provided the 
assistance they need in all the local workforce investment areas. The 
agency is moving to issue new policy (or restate existing policy) where 
clarity in the Federal position is needed.
    Question. How have you addressed this continuing problem?
    Answer. ETA dedicates considerable time and resources to providing 
guidance and technical assistance to our partners. This guidance comes 
in part through regular and frequent policy guidance and ongoing 
communications. Technical assistance is provided through national and 
regional conferences and workshops, on-site expert visits, and 
publications.
                        youth opportunity grants
    Question. I share the pride that many of my colleagues feel in the 
success of the Job Corps program, in which a five-year study of the Job 
Corps program, conducted by Mathematica Policy Research, Inc., recently 
found that $2.01 was returned to society for every dollar spent on the 
program. The success of the Job Corps did not happen overnight in fact 
efforts were made on the floor of the Senate to disband it as a 
national program as late as 1995. We were able to preserve Job Corps 
and give it the chance to achieve success. That is what concerns me so 
greatly about your proposed cuts to the Youth Opportunity Grants the 
grants were awarded only two years ago, and are providing intensive 
services to at risk youth in 36 of the poorest communities across the 
nation.
    How is this consistent to leaving no child behind, particularly in 
a recession?
    Answer. Since the Youth Opportunity Grants (YOG) started, the 
Department has urged grantees to develop plans for sustaining the 
activities and services under these grants after completion of federal 
funding. The President's 2003 Budget completes five-year funding for 
existing grantees but does not initiate new grants. Instead, youth will 
continue to be served through Workforce Investment Act (WIA) Youth 
Activities and Job Corps. The 2003 Budget includes about $3 billion in 
resources for these programs, including an estimated $398 million in 
unspent balances that states will carry into Program year 2003.
    The Administration is concerned about mismanagement by certain YOG 
Grantees and is actively working to correct all identified problems. 
The Department will work with YOG grantees to ensure that all instances 
of mismanagement are completely corrected while the program activities 
are completed. Where appropriate, the Department will work with YOG 
grantees to maintain and formalize their relationships with existing 
partners, connect them with the local workforce investment system in 
their communities, and sustain relationships that they have developed 
with the youth.
                        osha enforcement budget
    Question. You are proposing to cut OSHA's enforcement budget by 
$918,000, and 64 full time equivalent staff. I understand you plan only 
to cut management staff, not inspectors. Instead of getting rid of 
these managers, why don't you make them into inspectors?
    Answer. OSHA has submitted what it believes is a sound, responsible 
budget that will support OSHA's mission and the way it does business. 
(Excluding the one-time terrorism related supplemental funding OSHA 
received for this activity in fiscal year 2002, the proposed reduction 
in OSHA's Federal Enforcement is $548,000). Staff proposed for 
elimination in fiscal year 2003 are managers and other administrative 
support positions that are not involved in the delivery of front-line 
safety and health in the workplace. The reassignment of staff would not 
be feasible, as inspection work demands different and relatively 
technical skills. The fiscal year 2003 budget would allow OSHA to 
continue to vigorously enforce the laws that protect the Nation's 
workers.
                  need to expand job training services
    Question. Your budget states that you will be able to retain the 
current level of job training services of about 2 million participants, 
despite cuts in funding, due to the assumed availability of unspent 
funds from prior years.
    Even assuming this is correct, since the number of unemployed has 
grown by more than 2 million in just the last year, shouldn't we now be 
expanding the level of job training services?
    Answer. In the 2003 Budget, the President provides more than enough 
new resources to support a substantial increase in assistance to adults 
and dislocated workers, when combined with large unspent balances. The 
budget for Workforce Investment Act (WIA) adult and dislocated worker 
programs includes $3 billion in total resources--which is $623 billion, 
or 27 percent, more than the estimate of what states will spend in 
2002. This resource total includes $2.0 billion in new budget authority 
and about $1 billion in unspent balances for state formula grants that 
will be carried into Program Year 2003.
    Additionally, the Administration recognized the dislocation impact 
of the events of September 11, 2001 on the nation's workforce as well 
as the consequences of a continuing downturn in the economy. In an 
effort to quickly address these issues in the short term, the President 
proposed and has continued to be a strong supporter of additional 
resources to help the nation's unemployed and dislocated workers. In 
October 2001, the President proposed a ``Back to Work Relief Package,'' 
which included extended unemployment benefits and an additional $3 
billion for National Emergency Grants (NEGs) to target resources to 
dislocated workers and communities that were struggling during the 
economic downturn. Although the House-passed economic stimulus bill 
included $4 billion for NEGs, the final legislation did not provide 
additional resources for this critical program. However, the enacted 
economic stimulus package did include $8 billion in Reed Act transfers 
to States, which are available to provide employment services and 
unemployment insurance benefits to unemployed workers. Nevertheless, 
again in March 2002, the President proposed a $750 million supplemental 
budget request, which included $550 million for targeted assistance to 
dislocated workers through NEGs.
    Although Congress ultimately did not adopt the President's 
supplemental request, another source of assistance for dislocated 
workers and other adults recently became available. From the fiscal 
year 2002 appropriation, the Department of Labor will allocate almost 
$2.2 billion in state formula grants for adult and dislocated worker 
assistance, and approximately $265 million for additional NEGs. These 
resources will help achieve the President's goal of returning 
dislocated workers and other adults to work as quickly as possible.
                    cuts in youth training programs
    Question. Your budget submission cuts over $360 million in youth 
programs other than Job Corps. As a result of the recession, over one 
million young people lost jobs in the past year. The old adage ``last 
hired first fired'' proved true once again. With this in mind, is it 
the right time to make such damaging cuts in programs designed to serve 
disadvantaged youth just when we were beginning to see some very 
positive outcomes in these programs?
  --Cutting the Youth Opportunity Grant Program by 80 percent;
  --Eliminating the Youth Offender Program; and
  --Cutting the Youth formula program by $126 million.
    This appears to be especially risky in light of the President's 
pledge to ``leave no child behind'' as these are the only programs 
geared to these young people who have already fallen between the cracks 
of our educational system.
    Answer. The President and the Department of Labor remain committed 
to helping young people in need. We also are committed to making smart 
investments on behalf of the American people. To do so, we are reducing 
requests for new money when unspent balances remain available to 
maintain or increase spending and ending programs that are expensive 
relative to the benefits they provide, ineffective, and/or duplicative 
of other efforts.
    In the 2003 Budget, the President provides more than enough new 
resources to support a substantial increase in assistance to youth, 
when combined with large unspent balances. The budget for the effective 
Job Corps program is $1,532 million, a $73 million (5 percent) increase 
over fiscal year 2002. This increase will be used to support center 
expansion, increase teachers' pay, and obtain accreditation of Job 
Corps' curriculum so that it may award high school diplomas. The budget 
for WIA youth state formula grants includes $1.4 billion in total 
resources--which is $223 million, or 19 percent more than the estimate 
of what states will spend in the program year 2002. This resource total 
includes $1.0 billion in new budget authority and about $400 million in 
unspent balances for state formula grants that will be carried into 
Program Year 2003.
    The Department of Labor continues to bolster opportunities for 
young people who participate in youth workforce training programs to 
acquire the knowledge and academic and work skills and behaviors that 
can help them successfully transition to further education or training 
or to employment. Most states and communities have significant funds in 
their youth activities formula allotments from last year, so we don't 
expect the decrease in new budget authority to have adverse impact.
    Youth Opportunity grants were intended to concentrate large amounts 
of funds into high poverty areas to bring about community-wide change 
in the long-term employment rate of youth growing up in these areas. 
Given the cost of replicating the Youth Opportunity approach and the 
uncertainty of future local funding beyond federal funding, the 
Department decided to complete existing grants and not award new 
grants. We will share useful information learned from the Youth 
Opportunity grantee with state and local workforce investment boards. 
Finally, the Department of Labor initiated a multi-phased Youth 
Offender demonstration to help meet the reentry needs of ex-offenders 
and youth at risk of court or gang involvement. The approach allowed 
the Department to develop and test an effective youth offender public 
management model and with fiscal year 2002 funds, begin transitioning 
the demonstration to local communities. The Department plans to use 
evaluation findings on the youth offender demonstration to inform state 
and local workforce investment systems about what works best and what 
does not to help them integrate these services into mainstream programs 
targeted to at-risk youth.
                        pockets of underspending
    Question. We have difficult choices to make in this Subcommittee 
and I think we all agree that the overriding principle needs to be 
fairness in making funding decisions. While implementation of the 
Workforce Investment Act is progressing in most areas of the country, 
there are a few States and local areas that lag significantly behind. 
In some cases these under expenditures are so dramatic that they 
distort the cumulative expenditure rates for entire States, and for the 
entire system.
    What is the Department doing to ensure that areas with significant 
under expenditures are kept to a minimum?
    Answer. The Department has been working with our partners to 
identify issues confronted nationwide while implementing WIA that might 
be impacting spending and services. We are also working with individual 
states and communities where spending is particularly low. Through 
technical assistance and clarification of WIA rules and requirements, 
we hope to see turnarounds and spending increases commensurate with 
amounts allocated for programs.
    Question. What type of technical assistance is being provided to 
such areas, as demand for employment and training services has always 
outstripped available resources to provide such services?
    Answer. ETA attributes low spending, in part, to the implementation 
of the new WIA program. ETA has conducted an on-going program of 
evaluation to determine state and local partner progress in 
implementing WIA. The seven ETA regional offices routinely conduct on-
site visits with our partners to determine success against the 
implementation objectives reflected in the state strategic plan. The 
regional offices file a quarterly report on ``outstanding issues'' in 
governance, performance measurement and a number of other key issues, 
noting both progress and remaining problems. ETA's emphasis on 
identifying the major operational issues that impede complete 
implementation remains an important priority. The agency has also 
enlisted outside contractors, including Social Policy Research 
Associates, to assist in the process evaluation of WIA implementation. 
Both these Federal and contractor findings become valuable, continuing 
input into technical assistance strategies that are developed for 
states. Our negotiation of state performance measures has also been 
mindful of the Administration's emphasis on the Government Performance 
Results Act and the requirement to set high targets of accomplishment 
for those customers served by the Adult, Dislocated Worker and Youth 
funding streams under WIA.
    ETA hosts both national and regional conferences that organize 
presentation, agendas, and workshops around solutions to problems.
    ETA also issues Training and Employment Guidance Letters to the 
workforce system on a routine basis to provide clarification on WIA 
policy, technical assistance materials, questions and answers, and 
other advisories that will assist our partners.
    ETA staff have also conducted an analysis of quarterly financial 
reports to determine the various dimensions of the under expenditure 
issue and the combination of causal factors contributing to the 
reported low outlays. The problem is more acute in some states than in 
others. Early implementation was certainly marked by significant under 
expenditure in a subset of states as they moved from JTPA to WIA.
    The examination of financial reports led to the development of a 
diagnostic line of inquiries that has been used by our line staff and 
political leadership in conversations with the states. These questions 
probe state knowledge, experience, and intent. Among them:
  --What information do you have at the state level on local workforce 
        investment area obligations?
  --What is the nature of these obligations? Are they obligations 
        attached to specific customers for training, such as Individual 
        Training Accounts, and/or specific services? Are they 
        obligations to service providers to assist customers over the 
        next few immediate months? Or are they obligations made from 
        one administrative entity to another for services and training 
        over a longer extended period?
  --Spending for statewide activities has lagged considerably behind 
        local spending. Why is this? If you have large balances in 
        statewide activities, have you discussed reducing the amount 
        reserved for these services to provide a greater proportion of 
        the funds to areas that lack resources to meet demands for 
        training and services?
  --Are there particular obstacles--statutory or regulatory--that have 
        restricted the timely expenditure of these funds?
    The pursuit of this issue has also focused on the arguments made by 
many local One-Stop operators that funds have been obligated at the 
local level, but have not been reflected in the state reports 
(differences in ``closing dates'' for account structures, etc.).
    Both the analysis of reports and our ongoing conversations with the 
states have translated into ``action items'' for all levels of WIA 
governance. We believe the states are working extremely hard to fully 
implement the law and realize the goals and objectives outlined in 
their respective strategic plans. The effort to fully enlist all the 
partners in the day-to-day operation of the One-Stop delivery system 
has certainly been a difficult and time-consuming process in many 
communities and a contributing factor to the under spending during this 
period. The time and energy to deal with the documentation requirements 
necessary to certify eligible training providers for a period of 
``subsequent eligibility'' was also perhaps not fully anticipated at 
the outset of WIA implementation.
    We have convened state and local partners in a series of ``WIA 
readiness'' sessions across the country, gathering their viewpoints on 
what has worked (and what has not worked). These workgroups were 
charged with suggesting strategies to assist the system in addressing 
implementation issues in four areas: One-Stop service delivery, adult 
and dislocated worker services, youth services, and attracting and 
retaining employer involvement on workforce boards. Their commitment 
and work yielded a series of actions that were shared with the 
workforce development system in November 2001.
    Our collective stewardship of these WIA resources is a mutually 
recognized one. ETA is fully committed to working with our State and 
local partners to ensure that employers and jobseekers are provided the 
assistance they need in all the local workforce investment areas. The 
agency is moving to issue new policy (or restate existing policy) where 
clarity in the Federal position will accelerate expenditures.
    If areas are significantly under spending and carrying out large 
balances from year to year, we would be hard pressed to argue that the 
demand for services outstrips available resources.
    Question. If these under spending communities do not improve their 
expenditure rates, are there plans to reallocate resources to areas 
where funding is being spent well and is desperately needed?
    Answer. Unlike predecessor programs such as the Dislocated Workers 
formula program under the Job Training Partnership Act, the Workforce 
Investment Act does not provide the Department authority to reallocate 
monies between states when large amounts remain unspent. Our authority 
to reallocate resources is limited only to instances where over 20 
percent of a year's allotment has not been obligated. In many instances 
obligations recorded are for services that will not be provided until a 
subsequent year.
                           ergonomics budget
    Question. On April 5, 2002, after months of delay and inaction, the 
Department announced its plans on ergonomics. The plan consists of four 
parts--voluntary guidelines, enforcement under the general duty clause, 
outreach and compliance assistance, and a research advisory committee. 
It does not include the development of a new mandatory standard.
    You have said that your approach will be more protective than the 
previous ergonomics standard and provide protection faster than a new 
ergonomics standard. According to the Bureau of Labor Statistics, there 
were more than 577,000 ergonomic injuries that resulted in time off 
work reported by employers in 2000. OSHA has estimated that there are 
more than 1.8 million total musculoskeletal disorders each year. How 
many ergonomic injuries and illnesses will your ergonomics plan prevent 
in 2002? How many will it prevent in 2003, 2004?
    Answer. The Department's goal is to help workers by reducing 
ergonomic hazards in the shortest possible time frame. This 
comprehensive approach is the best way to get protections into place 
quickly. In addition, our plan is a major improvement over the 
rescinded rule because it will prevent injuries caused by ergonomic 
hazards before they occur and will reach a much larger number of at-
risk workers. We expect to see significant declines in injuries in 
those industries that will be the focus of our efforts.
    Voluntary industry efforts have been successful in reducing the 
injury and illness rates related to these disorders. For example: 
carpal tunnel illness rates fell by 30 percent from 1992 to 2000; the 
rate of strains and sprains fell by almost 41 percent between 1992 and 
2000; back injury rates fell by 24 percent between 1992 and 2000.
    In the meatpacking industry, using industry-specific guidelines and 
focused OSHA enforcement, we have seen even greater progress. Since 
1992, there has been a 73 percent decline in the rate of carpal tunnel 
illnesses, a 76 percent decline in the rate of strains and sprains and 
a 63 percent decline in the rate of back injuries.
    Our measurement of success is very simple--significant and 
sustained reductions in the number of injuries.
    Question. The first element of your plan is voluntary guidelines. 
Can you tell me how many ergonomic guidelines will the Department of 
Labor develop and issue in 2002, and for what industries?
    Answer. OSHA has announced that it is working on guidelines in 
three industries: nursing homes, retail grocery stores, and poultry 
processing. We expect to complete draft guidelines for these three 
industries during calendar year 2002.
    Question. How many guidelines will the Department of Labor develop 
and issue in 2003 and for what industries?
    Answer. We have not yet made decisions regarding what industries 
will be addressed through guidelines beyond the three already mentioned 
for 2002.
    Question. The next element of your plan is enforcement. Can you 
tell me how many enforcement actions has OSHA conducted under the 
general duty clause against ergonomic hazards in the past year? How 
many inspections on ergonomics hazards does OSHA plan to conduct in 
fiscal year 2002 and fiscal year 2003?
    Answer. During the past year OSHA routinely examined ergonomic 
hazards during its inspections, but did not issue any General Duty 
Clause citations for ergonomics. OSHA focuses its inspection resources 
on complaints, referrals, and workplaces with high overall injury and 
illness rates. In fiscal year 2002, Federal OSHA plans to conduct 
36,400 inspections, and in fiscal year 2003 we plan to do 37,700. 
Ergonomic hazards will be addressed where they are identified in the 
course of programmed (planned) inspections, including about 3,600 Site-
Specific Targeting inspections that are scheduled in the nation's most 
hazardous workplaces. Workplaces are included on the SST targeting list 
because of the high injury and illness rates the employers have 
reported to OSHA. Likewise, workplace complaints and referrals that 
allege ergonomic hazards will be treated under OSHA's normal 
procedures, including inspections and investigations. Thus, where OSHA 
finds ergonomic hazards in the course of its enforcement activity, the 
agency will address them appropriately. Finally, OSHA is creating a 
National Emphasis Program that will direct enforcement efforts to 
industries where ergonomic hazards are present.
    Question. What level of funding has been targeted to support your 
``comprehensive approach'' to ergonomics in the current fiscal year 
2002 budget? Now let me turn to your fiscal year 2003 request. How much 
money is included in your budget request for the development of 
ergonomics guidelines? For enforcement of ergonomic hazards under the 
general duty clause? For training and compliance assistance on 
ergonomic hazards? For your proposed research advisory committee?
    Answer. OSHA does not specifically earmark funds to address any 
particular workplace hazard. However, budgets in both years include the 
necessary resources to support the Secretary's comprehensive plan to 
address ergonomic hazards.
    Question. How many staff at OSHA and the Department have been 
assigned to work on your ergonomics initiative?
    Answer. OSHA personnel throughout the agency have been assigned 
responsibilities in carrying out each prong of the comprehensive 
approach. The agency is working directly with the Office of the 
Solicitor to fashion the enforcement aspect of the plan. In addition, 
staff from the field and national office are involved in developing and 
delivering the outreach and assistance portion of the plan. As part of 
the effort, OSHA is hiring individuals with specific knowledge and 
expertise in ergonomics.
                         ergonomics enforcement
    Question. After you issue ergonomic guidelines, will you use these 
guidelines for enforcement purposes under the general duty clause? If 
not, why won't you use them for enforcement purposes?
    Answer. OSHA will use the General Duty Clause to cite employers for 
ergonomic hazards. The OSH Act's General Duty Clause requires employers 
to keep their workplaces free from recognized serious hazards, 
including ergonomic hazards. This requirement exists whether or not 
there are voluntary guidelines. We understand that many employers have 
implemented their own measures that would meet this requirement. If an 
employer with ergonomic hazards has instituted measures that 
effectively identify and reduce ergonomic hazards and injuries, there 
is unlikely to be any basis for a Section 5(a)(1) citation. OSHA 
intends the guidelines to provide information to help employers 
identify ergonomic hazards in their workplaces and implement feasible 
measures to control such hazards. An employer's failure to implement 
guidelines, however, is not in itself a violation of the General Duty 
Clause of the OSH Act.
    Question. You have cited the Pepperidge Farm case and Beverly 
nursing home case as examples of the successful litigation the 
Department has undertaken in the past on ergonomics enforcement under 
the general duty clause. Each of these cases took 10 or more years to 
complete, during which time no abatement of hazards was required. Could 
you tell me what was the total cost of these cases to the Department, 
from beginning to end, including the inspection, review before the ALJ, 
the Review Commission and in the Beverly case, resources devoted to 
reaching the settlement?
    Answer. The Pepperidge Farm and Beverly cases were indeed successes 
for the Department. In both cases, the Commission determined that the 
General Duty Clause could be used to address ergonomic hazards. The 
Beverly settlement also demonstrates how successful the general duty 
clause can be in protecting a large number of workers. Initially OSHA 
issued general duty clause citations in five nursing home facilities. 
The Beverly settlement, however, applies to approximately 270 nursing 
home facilities nationwide.
    It is true that in both the Beverly and Pepperidge Farm cases the 
employers were not required to abate the hazards until the case was 
completed. However, this is the case when OSHA issues any citation, 
whether for a standard or under the General Duty Clause. Under the OSH 
Act the employer does not have to abate the hazard until a final 
Commission decision is issued.
    Regarding the 10-year time frame, it is important to note that 
these types of ``groundbreaking'' cases generally take longer to 
litigate the first time around. Future cases should not take nearly as 
long to litigate. Furthermore, there is no reason to believe that cases 
brought under the rejected ergonomics standard would have taken any 
less time than the Beverly or Pepperidge Farm cases.
    The agency cannot provide the full costs of the Beverly and 
Pepperidge Farm cases as many records are no longer available, because 
they were disposed of in accordance with relevant Federal records 
retention policies. In addition, the Department does not have a cost 
accounting system that tracks expenses to that level of specificity. 
However, the Department has attempted to estimate the cost of expert 
witnesses, travel, and other expenses from the Beverly cases based upon 
a review of available documents. The total estimate of these costs is 
approximately $278,000. In addition, the case required approximately 
7.5 Full Time Equivalent (FTE) of attorney time.
    Question. What does the Department estimate that it will cost to 
bring and litigate a major ergonomics enforcement case under its new 
plan, and what level of funding is included in your fiscal year 2003 
budget request for this purpose? How many large enforcement cases on 
ergonomics will the Labor Department be able to handle in fiscal year 
2003?
    Answer. It is extremely difficult to estimate how much it will cost 
to litigate an ergonomics case under the General Duty Clause because 
the scope and number of contested issues will vary considerably from 
case to case. In any case litigated by the Department, the Department 
could incur costs for expert witnesses, travel, stenography, and 
attorney time. In addition, most cases are settled. OSHA is not 
requesting new funding specifically for litigation of 5(a)(1) cases, as 
this has never been a specific line-item request in either the 
Department's or OSHA's budget. Both OSHA's and the Department's budgets 
are sufficient to support the effort required to implement the 
comprehensive ergonomics approach and make it successful.
                             older workers
    Question. A bipartisan group of Senators, including myself, sent a 
letter to Assistant Secretary Emily DeRocco on April 11, 2002, seeking 
assurances that the Labor Department would follow Senate Report 
language designed to ensure that successful grantees, under the Senior 
Community Service Employment Program, would continue to receive 
funding.
    Will you look into this matter and expedite a response?
    Answer. A response to the April 11, 2002 letter will be mailed 
shortly. The letter mentioned Senate report language in the context of 
commenting on the GPRA goal of 37 percent for unsubsidized placement of 
SCSEP participants.
    A later paragraph in the letter states that the group of five 
Senators ``. . . . look forward to receiving your assurances that 
competition requirements will maintain continuity and stability at the 
national level by ensuring that successful grantees continue to receive 
funding.''
    In response, we note that Federal acquisition regulations require 
that grants and contracts are awarded through a competitive process 
where possible. The Procurement Review Board at the Department of Labor 
has reviewed the national sponsor portion of the SCSEP and recommended 
that it be subject to competition. The Department is committed to 
seeing that older Americans receive the best services. Therefore, we 
are looking at the option of competing the National grantee share of 
the SCSEP. While we wholeheartedly support accountability sanctions for 
poor performance, we believe that the best interests of participants 
are served by taking steps to improve services in the first instance 
rather than sanctioning poor performance which has already negatively 
impacted participants. If such a competition were to take place, we 
would do everything in our power to insure that it does not 
unnecessarily disrupt current participants and provides a fair 
opportunity for all eligible organizations to be national SCSEP 
grantees. We would expect that high performing grantees would be in an 
excellent position to compete for grants, although it would be a 
competition in name only if the results were guaranteed ahead of time.
    Question. What is your rationale for cutting the appropriation 
request for this older worker program by $4.9 million in fiscal year 
2003?
    Answer. Due to overall budget considerations, we did not include 
the additional $4.9 million that Congress provided in last year's 
appropriation. Our request is a return to the status quo, not a cut, as 
Congress appropriated the additional funds for a single program year.
                          osha training grants
    Question. In 2000, as part of the Susan Harwood Grant program, OSHA 
awarded a number of Institutional Competency Building training grants 
that were to be funded for five years assuming ``satisfactory 
performance and the availability of funds.'' These grants were awarded 
to non-profit groups, including the National Safety Council, unions, 
universities and immigrant worker groups to build safety and health 
training programs with particular focus on underserved workers and high 
risk groups. Last Fall, without any warning to the grantees, OSHA cut 
the 2nd year of these grants by 25 percent and announced that the 
program would be terminated due to reductions in funding proposed in 
the President's fiscal year 2002 budget request.
    This committee provided an additional $3 million in the OSHA fiscal 
year 2002 budget and instructed the Labor Department to use that 
additional funding to ``restore the institutional competency building 
training grants.''
    In a letter sent to OSHA Assistant Secretary Henshaw in January, 
Senator Specter and I requested information on the agency's progress 
and, in case our instruction in the Report language was not clear 
enough, clarified that we expected OSHA to restore the 25 percent cut 
made last Fall AND ``fully fund the third year of this program for all 
grantees who have performed satisfactorily.''
    Yet, in a letter sent to us on April 26, Mr. Henshaw informed us 
that instead of doing as the Committee instructed, OSHA plans to 
terminate your commitments to these grantees, and open competition for 
a new, one-year round of grants that you are calling ``Institutional 
Competency Building `transitional' grants.''
    Am I correct in understanding that, instead of complying with our 
request, it is your intention to eliminate the 5-year grants, start a 
new competition for a one-year program, paste on the same name as the 
old program, and then claim that you are doing what we told you to do?
    Answer. The May 22 Federal Register notice announced that the 
Department is making available approximately $5.5 million for new 
Institutional Competency Building Grants (ICB), a significant portion 
of the overall $11.175 million available for Susan Harwood Training 
Grants. The Department also announced that these grants would be 
available, through competition, to any eligible organization, include 
the 17 organizations that have received ICB grants in the past.
    Question. Why would you terminate an existing program that is 
successful, reaching high-risk workers and providing much needed 
training and education to workers?
    Answer. The agency hopes to attract new grantees with new and 
innovative ideas. Preference will be given to organizations that would 
develop, evaluate and validate training materials for OSHA to 
distribute to the public. All current fiscal year 2000 ICB grantees are 
eligible, and are encouraged, to apply for these grant funds in fiscal 
year 2002. By recompeting these grants OSHA will be able to fund 21 ICB 
grants, as opposed to the 17 currently funded.
                          migrant job training
    Question. Madam Secretary, the $80 million Migrant and Seasonal 
Farmworker Program is slated for elimination in the Department's fiscal 
year 2003 budget proposal. But, Madam Secretary, I wonder whether the 
Department has examined the real life difficulties of providing 
training and related services to farmworker families and how such a 
program elimination would actually affect them. A look at a local 
agency providing services under this program may be instructive.
    This program enables the California Human Development Corporation 
to serve migrant and seasonal farmworkers throughout Northern 
California. Without these funds, more than thirteen local farmworker 
services offices would close with the loss of job training and a broad 
range of other services to more than 10,000 farmworker families. These 
offices also provide outreach for the Labor Department's One Stop 
System whose offices are not located in farmworker communities and 
usually do not have bilingual staff.
    My own State of Iowa receives $1.3 million to provide a broad range 
of services including housing for migrant workers, family self-
sufficiency services, opportunities for migrant youth, emergency 
assistance programs, energy services such as home weatherization and 
assistance with utility bills, citizenship and naturalization services, 
and domestic violence reduction and prevention.
    How does the Department intend to ensure availability of these 
needed services without these funds?
    Answer. The 2003 Budget proposes to end this program because it has 
not succeeded in significantly improving participant's employment and 
earnings. It provides little job training. Nevertheless, the 
Administration recognizes the importance of support services to this 
population. DOL's transition from a primary-source service provider to 
the One-Stop center's multiple-source system of service providers will 
require a reasoned and strategic process that promotes the recognition 
and support of farmworkers by all the partners. We are committed to 
bringing these partners together to ensure migrant and seasonal 
farmworkers continue to receive quality services.
    Also, other Department's have programs to address the needs of 
migrant workers and their families. For example, the Women, Infants, 
and Children (WIC) and Head Start programs provide targeted assistance 
to migrant worker families. In addition, two Department of Education 
programs are available to help migrant students complete high school 
and succeed in college. The budget requests $23 million for the Migrant 
High School Equivalency Program (HEP) and $15 million for the College 
Assistance Migrant Program (CAMP).
                    job corps expansion in wisconsin
    Question. I am glad that in the fiscal year 2002 and now fiscal 
year 2003, the President's budget for the Job Corps program includes 
funds for Job Corps expansion. As you know, the State of Wisconsin is 
interested in developing a new Job Corps center to train our youth with 
the academic and vocational skills they need to succeed in the 21st 
century workforce. Currently, Wisconsin is last in terms of per capita 
participation in Job Corps.
    Will the new round of expansion focus on expansion in under served 
areas like Wisconsin?
    Answer. The Department recently published a notice in the Federal 
Register to solicit applications from communities that are interested 
in providing a site for a new Job Corps center. One of the criteria 
that the Department will use to select the two winning applications 
will be the degree of need for a new Job Corps center in the state in 
terms of eligible youth population versus the number of Job Corps 
training slots now located in the state.
    Question. What steps can we take to ensure another Job Corps center 
comes to the State of Wisconsin?
    Answer. One important step is to encourage responsible state and 
local officials to submit responsive applications that fulfill or 
exceed all of the criteria reflected in our recent Federal Register 
notice.
    Question. At the Blackwell center in Northern Wisconsin, one of the 
main trades being taught is business and clerical. However, the 
equipment at the center is quite outdated and does not allow for 
students to use technology that they would use in the workplace. Also, 
each vocational classroom only has one computer with Internet access, 
which is not enough. Part of the curriculum is job searching on-line 
and posting your resume on-line and students are unable to fulfill this 
with only one Internet access computer.
    The Blackwell Job Corps Center in my state has done a tremendous 
job of educating our youth with the technological tools they need to 
enter the workforce, but continuing upgrades are needed to keep pace 
with industry.
    What provisions does this budget make for Job Corps technology 
upgrades?
    Answer. Job Corps is advancing a long-term strategy for the use of 
technology in its student training programs. In support of that 
strategy Job Corps' budget request, which is an increase of $73 million 
(5 percent) above the 2002 level, includes provisions for the 
development of online and computer instruction in its academic and 
vocational classrooms. Primarily this will include funding to pilot 
web-based high school programs, or ``virtual high schools,'' to 
increase students' opportunities to obtain their diplomas. It will also 
involve online professional development courses for instructors and 
training to enable staff to upgrade their information technology (IT) 
skills in order to help students more effectively. Job Corps is 
undertaking this initiative in partnership with the Department of 
Education as a part of the June 2001 Memorandum of Understanding to 
improve literacy and academic achievement in training programs for 
youth and adults.
    In addition, Job Corps' budget provides for continued investment in 
its computer-based training efforts that have been initiated over the 
past three years. These efforts include:
  --enhancing Job Corps' program to teach students basic IT skills in 
        the first 60 days that they are on centers;
  --developing information technology vocational training offerings 
        including computer repair service and network cable 
        installation;
  --infusing IT training in all other Job Corps vocational training 
        programs; and
  --establishing working relationships with employers such as Cisco 
        Systems, AT&T, and Sun Microsystems to develop on-center 
        training programs, work-based learning opportunities and to 
        gain information on industry skill requirements.
    To support Job Corps' use of technology in training, Job Corps will 
continue to invest in its technology infrastructure. Job Corps has 
completed wiring and installation of computers in all academic and 
services trades classrooms. It has installed Learning Resource Centers 
in all Job Corps centers to provide students and staff with 
opportunities for customized, cost-effective training through Internet 
access, video conferencing and distance learning. In addition, Job 
Corps is establishing a comprehensive computerized Center Information 
System to gather student information, track student progress in the 
program and follow-up on students' placement and support after they 
leave Job Corps.
   partnerships between job corps centers and information technology 
                               employers
Job Corps Center--Sargent Shriver, Edison, Phoenix
Location--Devens, Massachusetts; Edison, New Jersey; and Phoenix, 
        Arizona
Employer Partner--Sun Microsystems; AT&T; and Cisco Systems
    Question. How will those funds help the Blackwell center in 
Wisconsin?
    Answer. We cannot tell you this far in advance what the exact 
impact will be at the Blackwell Job Corps center. These resources will 
be available for use starting in July, 2003. Around that time, program 
managers and staff will undertake a process that will identify and 
prioritize the needs for equipment upgrades in classrooms at all Job 
Corps centers. The fund allocations to Blackwell and all other Job 
Corps centers will be based on the results of this process.
    Question. Is there anything the Department of Labor can do to help 
them upgrade their equipment and software?
    Answer. We can assure you that the IT equipment and software needs 
at Blackwell will receive equitable consideration in the fund 
allocation process. Since July 1998 through the current program year 
(2001) Blackwell Job Corps Center has received $193,587 in 
modernization funds. A large portion of these funds supported the 
purchase of computers, workstations, and related equipment for both the 
academic classes and vocational programs, in particular the Business/
Clerical program. Starting in the new program year that will begin July 
2002, Blackwell is scheduled to receive an additional $2,028,000 in 
modernization funds. These funds have been allocated for an addition/
renovation to the Academic Education Building, which will include 
wiring to support the technological infrastructure and $129,000 for the 
purchase of equipment and computers.
                                 ______
                                 
            Question Submitted by Senator Ernest F. Hollings
                     national skill standards board
    Question. Madame Secretary, thank you for appearing before the 
Subcommittee today. I want to seek clarification of comments made about 
the National Skills Standards Board (NSSB) on page 221 of the 
President's budget. In particular, the President attempts to justify 
eliminating funding for the NSSB because of standards developed to 
train busboys how to clear tables and prevent manufacturing employees 
from stealing. While I certainly would not want additional federal 
funds spent in this manner, it is my understanding that the Departments 
of Labor and Education issued these standards, not the NSSB. In fact, I 
have been told that these standards were released before the Board was 
even seated. Could you please clarify who in fact was responsible for 
the standards discussed on page 221 of the President's budget?
    Answer. The skill standards example on page 221 of the President's 
fiscal year 2003 budget was the result of early work to develop skill 
standards by industry under a grant by the Department of Labor.
    The decision to eliminate the funding for the NSSB in the 
President's fiscal year 2003 budget was not made based on this or any 
other anecdotal example. The decision was made largely because the NSSB 
was not conceived as a continuous Federal investment. Legislation 
authorizing the Board included a sunset date of September 30, 1999. It 
is clear that the legislation envisioned the completion of skills 
standards for all industry clusters by that date. The complete skill 
standards have not been achieved as of 2002 despite provision of $45 
million to NSSB.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                             youth programs
    Question. Today's workers need more education and training to 
develop skills that reflect our changing economy. September11th, the 
collapse of the Enron Corporation, and recent actions by major U.S. 
companies to move abroad, underscore the need for our workforce to be 
more adaptable. I am concerned that your budget provides $289 million 
less for youth employment and training programs than in 2002. We should 
be increasing not decreasing our investments that focus on one of our 
most vulnerable sectors of the work force, young people. I am 
particular concerned that you propose to cut the Youth Opportunity 
Grants by $181 million, from $225 million in 2002 to $44.5 million. 
That essentially guts this program. Your cut won't help children from 
inner cities and high poverty areas make transitions from school to 
work.
    Secretary Chao, why are you requesting an elimination of a program 
that gives our most at-risk youth hope that they can be productive 
members of our society, by helping them stay and school and find work 
when they graduate?
    Answer. The Youth Opportunity grants were intended to be five-year 
grants, with the final year of funding from PY 2003 funds. The 
Department intends to complete 5-year funding to the 36 current sites. 
The 36 sites were funded under a declining dollar amount formula, 
beginning with year 3. Remaining funds from PY 2001 and PY 2002 are 
being used to forward fund sites. Under current appropriations and with 
the PY 2003 budget request, we expect that there will be a relatively 
small reduction, amounting to only about $200,000 per grant site.
    Question. Do you provide adequate funding for programs aimed at 
helping children from poverty finish school and find work somewhere 
else in your budget?
    Answer. The youth formula-funded grant program is continued at a 
slightly reduced level of new budget authority in the fiscal year 2003 
budget. Under this program, states and local areas will continue to 
provide a comprehensive array of services to assist at-risk youth 
achieve academic and employment success. Despite the reduction in new 
budget authority proposed in the fiscal year 2003 budget for the 
program, it is expected that the same level of participants will be 
served in PY 2003, due to the amount of unexpended funds carried 
forward to 2003 estimated to be about $400 million. Approximately 
465,000 youth will be served in 2003. With unspent balances, we 
estimate that another 88,000 youth could be served.
    Also, we expect that more out-of-school youth and special 
populations, such as youth offenders, will be served by local One-Stop 
systems in fiscal year 2003, through increased outreach activities, by 
providing a broader array of age-appropriate services for older youth 
and young adults, and establishing close working relationships with a 
wider range of youth program partners that can meet the special needs 
of the out-of-school population, youth offenders, and homeless youth, 
among others.
                           dislocated workers
    Question. While there are signs of economic recovery, many sectors 
of our economy are still ailing. My state currently has the 2nd highest 
unemployment in the nation. Dislocated worker and training programs 
help support workers who find themselves out of a job unexpectedly. 
These programs help them get the training and assistance they need to 
transition to a new job. In the last few years, my area of the country 
has had particular problems with large-scale lay-offs and the energy 
crisis. September 11 made it worse. The slowdown in the tech sector has 
also impacted Washington State, as we are one of the more tech 
dependent areas of the country. Recently, the Department of Labor has 
helped workers get the training and assistance they need to find 
another job. My constituents and I appreciate your help. However, your 
budget cuts adult employment and training programs by $39 million from 
the 2002 numbers. Last year you asked for a $257 million dollar cut 
from the previous year.
    Secretary Chao, what measures do you propose to help workers who 
find themselves suddenly unemployed?
    Answer. In the 2003 Budget, the President provides more than enough 
new resources to support a substantial increase in assistance to adults 
and dislocated workers, when combined with large unspent balances. The 
budget for Workforce Investment Act (WIA) adult and dislocated worker 
programs includes $3 billion in total resources--which is $623 million, 
or 27 percent, more than the estimate of what states will spend in 
2002. This resource total includes $2.0 billion in new budget authority 
and about $1 billion in unspent balances for state formula grants that 
will be carried into Program Year 2003.
    Additionally, the Administration recognized the dislocation impact 
of the events of September 11, 2001 on the nation's workforce as well 
as the consequences of a continuing downturn in the economy. In an 
effort to quickly address these issues in the short term, the President 
proposed and has continued to be a strong supporter of additional 
resources to help the nation's unemployed and dislocated workers. In 
October 2001, the President proposed a ``Back to Work Relief Package,'' 
which included extended unemployment benefits and an additional $3 
billion for National Emergency Grants (NEGs) to target resources to 
dislocated workers and communities that were struggling during the 
economic downturn. Although the House-passed economic stimulus bill 
included $4 billion for NEGs, the final legislation did not provide 
additional resources for this critical program. However, the enacted 
economic stimulus package did include $8 billion in Reed Act transfers 
to States, which are available to provide employment services and 
unemployment insurance benefits to unemployed workers. Nevertheless, 
again in March 2002, the President proposed a $750 million supplemental 
budget request, which included $550 million for targeted assistance to 
dislocated workers through NEGs.
    Although Congress ultimately did not adopt the President's 
supplemental request, another source of assistance for dislocated 
workers and other adults recently became available. From the fiscal 
year 2002 appropriation, the Department of Labor will allocate almost 
$2.2 billion in state formula grants for adult and dislocated worker 
assistance, and approximately $265 million for additional NEGs. These 
resources will help achieve the President's goal of returning 
dislocated workers and other adults to work as quickly as possible.
    Furthermore, I am pleased to report that through the NEG funds, the 
Department was able to respond to the worker dislocations in Washington 
State related to the September 11 events by providing a grant of up to 
$15 million for airline and associated layoffs.
    The Department of Labor continues to work with states and local 
communities to strengthen the services provided through their One-Stop 
Career Center system by providing technical assistance to help them 
continue to improve services to dislocated workers. In this regard, the 
Department has developed new tools to help state and local programs 
improve Rapid Response services to workers prior to their unemployment. 
As you know, Rapid Response provides early intervention help to workers 
while they are still employed with the goal of reducing their 
unemployment or eliminating it entirely through immediate entry into 
new employment. In addition, we recently convened over 150 experimental 
dislocated worker demonstration project grantees to distill ``promising 
practices'' from their experiences for dissemination to the broader 
workforce community.
    We are confident that a mix of new funding, carryover balances, 
TAA, technical assistance, national emergency resources, and 
improvement through implementation of pilot project lessons learned, 
presents a strong set of measures to effectively help America's 
dislocated workers.
    Question. Do you think it is wise to cut finding for these programs 
in a time where the economy is unpredictable?
    Answer. In the 2003 Budget, the President provides more than enough 
new resources to support a substantial increase in assistance to adults 
and dislocated workers, when combined with large unspent balances. The 
budget for Workforce Investment Act (WIA) adult and dislocated worker 
programs includes $3 billion in total resources--which is $623 million, 
or 27 percent, more than the estimate of what states will spend in 
2002. This resource total includes $2.0 billion in new budget authority 
and about $1 billion in unspent balances for state formula grants that 
will be carried into Program Year 2003.
    In addition, National Emergency Grant funds may provide additional 
assistance in response to applications from states with insufficient 
resources, including dislocated worker formula allotted funds, to 
respond to unexpected or community-wide events such as mass layoffs, 
plant closures, and workers indirectly or indirectly affected by 
foreign trade or national disasters.
    Question. Does the administration care about workers who have lost 
their job and are now trying to learn the skills necessary to find a 
new one? If you read your budget requests since taking office I think 
it points to the conclusion that dislocated American workers aren't a 
priority of this administration.
    Answer. To the contrary, the Administration has made, and continues 
to make, training and jobs for American workers one of its most 
important goals. In the 2003 Budget, the President provides more than 
enough new resources to support a substantial increase in assistance to 
adults and dislocated workers, when combined with large unspent 
balances. The budget for Workforce Investment Act (WIA) adult and 
dislocated worker programs includes $3 billion in total resources--
which is $623 billion, or 27 percent, more than the estimate of what 
states will spend in 2002. This resource total includes $2.0 billion in 
new budget authority and about $1billion in unspent balances for state 
formula grants that will be carried into Program Year 2003.
    In an effort to quickly address these issues in the short term, the 
President proposed and has continued to be a strong supporter of 
additional resources to help the nation's unemployed and dislocated 
workers. In October 2001, the President proposed a ``Back to Work 
Relief Package,'' which included extended unemployment benefits and an 
additional $3 billion for National Emergency Grants (NEGs) to target 
resources to dislocated workers and communities that were struggling 
during the economic downturn. Although the House-passed economic 
stimulus bill included $4 billion for NEGs, the final legislation did 
not provide additional resources for this critical program. However, 
the enacted economic stimulus package did include $8 billion in Reed 
Act transfers to States, which are available to provide employment 
services and unemployment insurance benefits to unemployed workers. 
Nevertheless, again in March 2002, the President proposed a $750 
million supplemental budget request, which included $550 million for 
targeted assistance to dislocated workers through NEGs.
    Although Congress ultimately did not adopt the President's 
supplemental request, another source of assistance for dislocated 
workers and other adults recently became available. From the fiscal 
year 2002 appropriation, the Department of Labor will allocate almost 
$2.2 billion in state formula grants for adult and dislocated worker 
assistance, and approximately $265 million for additional NEGs. These 
resources will help achieve the President's goal of returning 
dislocated workers and other adults to work as quickly as possible.
    In addition, early in my role as Secretary, I launched the 21st 
Century Workforce Initiative. Its mission is to ensure that all 
American workers have the opportunity to equip themselves with the 
necessary tools to succeed in their careers and in whatever field they 
choose in this new and dynamic global economy. This is a time of 
tremendous economic change across the country. These changes include a 
fundamental transformation for all industries and increasingly require 
higher skill sets and higher education. The Department of Labor cannot 
and must not simply react to changes. We must anticipate them, thus 
helping all workers to have as fulfilling and financially rewarding 
careers as they aspire to have and to ensure that no worker gets left 
behind. In March 2001, I created a new Office of the 21st Century 
Workforce to direct this effort.
    One of the goals of the Department's One-Stop Career Center system 
is to assure that all workers have universal access to workforce 
information and services. The Department's Employment and Training 
Administration has established a Toll-Free Help Line as well as 
America's Service Locator on the Internet to provide additional 
information and locations of One-Stop offices where many services might 
be obtained. Information on health and pension benefits is also 
available at the Department's Pension and Welfare Benefits 
Administration Web site.
    In addition, we are preparing new materials for workers and for 
employers. Some of these materials more fully explain the Worker 
Adjustment and Retraining Notification Act and directly address each 
constituency's concerns. These materials will also be available in 
Spanish. As other language needs become apparent, additional 
translations will be made available. We have also developed new 
materials to help state and local programs improve Rapid Response 
services to workers prior to their unemployment. This service focuses 
on providing early intervention services to workers while they are 
still employed, with the goal of reducing their unemployment or 
eliminating it entirely through immediate entry into new employment.
    These reflect just a few of the ways by which dislocated workers 
can receive help and are being empowered to help themselves: Lifelong 
learning; increased user-friendly information through technology; 
better understanding of rights, responsibilities and benefits; and up 
front intervention before layoffs occur.
    Another experimental approach we have undertaken is what we are 
calling ``Partnerships for Jobs'' with large-scale employers like HCA 
Healthcare, Toys R Us, and Home Depot. In the case of HCA, we have 
matched $5 million in corporate scholarship funds with $5 million in 
additional WIA funds provided to States and local Workforce Investment 
Boards to work with the company to hire and train dislocated workers 
(primarily those displaced by the economic fallout of September 11) and 
others into health care careers with an upwardly mobile future.
                     dealing with dol on petitions
    Question. Programs, like Trade Adjustment Assistance, have helped 
Americans deal with transitioning from a job that has been taken away 
due to no fault of their own to an occupation that provides a livable 
wage. A problem with getting the needed assistance under these programs 
is the Department of Labor has frequently missed statutory time lines, 
failed to make contact with many petitioners, and have even mistaken 
the subject matter being investigated. One investigator of a petition 
in my state failed to understand the difference between wood pulp and 
paper, and that the product to be investigated was paper not pulp. What 
resulted were numerous appeals, letters and an on-site investigation by 
a DOL investigator. The petitioner eventually won the trade act 
certification after 18 months of struggle that could have been resolved 
with one phone call.
    Secretary Chao, what measures are you taking to ensure that those 
handling petition for assistance in your department are communicating 
better with the petitioner?
    Answer. Establishing good lines of communication are a key part of 
successfully completing actions on trade petitions. Through internal 
meetings with investigators and internal memoranda, we will re-
emphasize the need to communicate timely and effectively with 
petitioners, companies and customers. Also, in the past year, we have 
hired and trained 10 contract staff to assist in the investigation 
process due to the huge increases in caseload experienced in the past 
year and a half. These actions will undoubtedly improve our ability to 
effectively manage and complete petition caseload.
    Question. Can you assure me that situation like I've mentioned will 
be the exception and not the norm?
    Answer. Yes. I can assure you that the situation mentioned is an 
exception and not the norm, and we will work diligently to minimize 
such exceptions.
                                asbestos
    Question. Secretary Chao, last year when you testified before this 
Subcommittee, I asked you about MSHA's efforts to protect miners and 
their families from exposure to asbestos. Specifically, I am interested 
in what steps MSHA has taken to implement the recommendations outlined 
in the Inspector General's March 22, 2001 report.
    Can you please update me on MSHA's progress?
    Answer. Yes, I can. MSHA published an Advanced Notice of Proposed 
Rulemaking in the Federal Register on March 29, 2002. This Notice 
requested information from the public on three major issues from the 
OIG's report:
    1. Whether MSHA should lower its existing Permissible Exposure 
Level of 2 fibers per cubic centimeter to a more protective level;
    2. Whether MSHA should use a more sensitive analysis method called 
Transmission Electron Microscopy to quantify fibers in our samples, 
rather than the current method called Phase Contrast Microscopy; and
    3. Whether take-home asbestos contamination is a problem and, if 
so, how MSHA should address the problem.
    As part of the public comment phase, MSHA is holding seven public 
meetings to solicit further comments from the public on these three 
issues. So far, six public meetings have been held in the following 
locations: Pittsburgh, Pennsylvania; Spokane, Washington; Vacaville, 
California; Canton, New York; Phoenix, Arizona; and Virginia, 
Minnesota. The last meeting will be held on June 20 in Charlottesville, 
Virginia.
    The information submitted to MSHA in connection with these meetings 
is being posted on the MSHA web site for the public to access.
    Question. Does MSHA have a time-line for implementing these 
recommendations?
    Answer. The public comment period closes June 27, 2002. MSHA will 
evaluate the information submitted to the record to determine the next 
appropriate action on each of these issues and will publish its 
decision in the October 2002 Unified Agenda of planned regulatory 
actions.
                        job corps and technology
    Question. Overall the digital divide has narrowed, but the 
disparity between the haves and have not has been widening in some 
communities. Regardless of the truth, the use of computers in our 
academic and vocational classrooms is important to the skills our youth 
take with them to higher education or employment. Some Job Corps 
Centers have done a tremendous job of educating our youth with the 
technological tools they need to enter the workforce successfully. We 
all agree that strong IT skills are necessary for success in today's 
marketplace.
    Secretary Chao, are there provisions in the Job Corps' budget 
request for technology upgrades at our Centers?
    Answer. Job Corps is advancing a long-term strategy for the use of 
technology in its student training programs. In support of that 
strategy Job Corps' budget request, which is an increase of $73 million 
(5 percent) above the 2002 level, includes provisions for the 
development of online and computer instruction in its academic and 
vocational classrooms. Primarily this will include funding to pilot 
web-based high school programs, or ``virtual high schools,'' to 
increase students' opportunities to obtain their diplomas. It will also 
involve online professional development courses for instructors and 
training to enable staff to upgrade their information technology (IT) 
skills in order to help students more effectively. Job Corps is 
undertaking this initiative in partnership with the Department of 
Education as a part of the June 2001 Memorandum of Understanding to 
improve literacy and academic achievement in training programs for 
youth and adults.
    In addition, Job Corps' budget provides for continued investment in 
its computer-based training efforts that have been initiated over the 
past three years. These efforts include:
  --Enhancing Job Corps' program to teach students basic IT skills in 
        the first 60 days that they are on centers;
  --Developing information technology vocational training offerings 
        including computer repair service and network cable 
        installation;
  --Infusing IT training in all other Job Corps vocational training 
        programs; and
  --Establishing working relationships with employers such as Cisco 
        Systems, AT&T, and Sun Microsystems to develop on-center 
        training programs, work-based learning opportunities and to 
        gain information on industry skill requirements.
    To support Job Corps' use of technology in training, Job Corps will 
continue to invest in its technology infrastructure. Job Corps has 
completed wiring and installation of computers in all academic and 
services trades classrooms. It has installed Learning Resource Centers 
in all Job Corps centers to provide students and staff with 
opportunities for customized, cost-effective training through Internet 
access, video conferencing and distance learning. In addition, Job 
Corps is establishing a comprehensive computerized Center Information 
System to gather student information, track student progress in the 
program and follow-up on students' placement and support after they 
leave Job Corps.
                   osha national office restructuring
    Question. On April 23, OSHA announced a proposed restructuring of 
National Office operations and functions. One proposal was to merge the 
Directorate of Safety Standards and the Directorate of Health Standards 
into the new Directorate of Standards and Guidance.
    Will this new position be responsible for developing the ergonomics 
guidelines that OSHA announced in April?
    Answer. In the past, the Standards Directorates have been involved 
in the development of guidance documents though other Directorates may 
have issued the guidelines. The new guidelines are being developed in 
the Directorates of Health and Safety Standards at present, and 
development will continue in the new Directorate of Standards and 
Guidance when the restructuring is implemented.
                          osha budget request
    Question. You have requested $14.2 million for standards 
development. Isn't this funding for developing mandatory standards that 
are different than voluntary guidelines?
    Answer. Funding requested for the Safety and Health Standards 
budget activity provides not only for the development, promulgation, 
review and evaluation of safety and health standards, but also other 
non-regulatory products that include voluntary guidelines and 
informational materials.
    Question. million for federal compliance assistance. Isn't this the 
budget category that is funded to develop voluntary guidelines?
    Answer. The Federal Compliance Assistance budget activity funds a 
variety of activities, including general outreach and technical 
assistance, partnerships and voluntary programs, and other compliance 
assistance guides. However, it does not fund the development of 
voluntary guidelines. These activities are funded in the Safety and 
Health Standards budget activity.
                             osha standards
    Question. What standards will you issue in fiscal year 2002 and 
fiscal year 2003?
    Answer. The Department of Labor's regulatory agenda was published 
on May 13, 2002 (67 FR 33308). OSHA's regulatory agenda may be found on 
pages 33342 through 33355.
                         osha regulatory agenda
    Question. There was a recent report that the next Regulatory 
Agenda, due out in June, will cut back further on planned OSHA 
standards. Can you tell me which standards that are currently on your 
regulatory agenda will be eliminated in the new agenda?
    Answer. The regulatory agenda is intended to reflect those items 
that will be completed during the next twelve months. Some of the items 
withdrawn in the May 13, 2002 Federal Agenda had been previously 
published in the Federal Agenda in the proposal or post-proposal 
stages. Other items withdrawn from the agenda had not reached the 
proposal stage and could be resurrected if resources or priorities 
permit. As already noted, the current regulatory agenda is the one 
published on May 13, 2002. A new agenda is published every six months, 
so there is no new agenda due in June. The only items withdrawn from 
the agenda were published in the Federal Register prior to publication 
of the agenda. Indoor Air Quality was removed from the agenda in 
December 2001 (66 FR 64946). In March of this year, OSHA published a 
notice removing four out-of-date proposals addressing shipyards (67 FR 
13177). These were the only ongoing OSHA rulemakings that were actually 
eliminated when they were removed from the Regulatory Agenda. Most of 
the rulemakings that OSHA has removed from the last two Regulatory 
Agendas were removed because OSHA's Regulatory Agenda now includes only 
projects for which the Agency expects to complete some important 
regulatory step within twelve months. Removal of an agenda item, in and 
of itself, does not mean that the Agency has either stopped work on, or 
eliminated, that project.
                        osha enforcement budget
    Question. I would like some clarification on the OSHA enforcement 
budget. Isn't it true you are cutting the OSHA enforcement budget?
    Answer. While the fiscal year 2003 budget includes some reductions, 
they reflect workforce restructuring (including the elimination of 
unnecessary management and administrative positions) and elimination of 
obsolete and one-time activities--all of which are intended to improve 
the way OSHA does business. They do not reflect a move away from 
enforcement. OSHA is not cutting any inspectors in fiscal year 2003. In 
fact, OSHA plans to conduct an additional 1,300 inspections next year.
    Question. Instead of getting rid of these managers, why don't you 
make them into field inspectors? Especially, considering it would take 
federal OSHA 119 years at its current pace to visit every workplace in 
the United States under its jurisdiction?
    Answer. OSHA has submitted what it believes is a sound, responsible 
budget that will support OSHA's mission and improve the way it does 
business. The proposed reduction of staffing in Federal Enforcement 
does not impact the safety and health of America's workforce. Staff 
proposed for elimination in fiscal year 2003 are managers and other 
administrative support positions that are not involved in the delivery 
of front line safety and health in the workplace. The reassignment of 
these staff would not be feasible, as inspection work demands different 
and relatively technical skills. The fiscal year 2003 President's 
Budget would allow OSHA to continue to vigorously enforce the laws that 
protect the Nation's workers.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                      trade adjustment assistance
    Question. British Petroleum recently submitted an application for 
Trade Adjustment Assistance (TAA) for 120 employees who are in the 
process of being laid off in Alaska. An additional three employees who 
were already laid off from BP because of declining oil production in 
the state applied on their own for trade adjustment assistance through 
your Department, but their applications were denied. The TAA funds 
would be used directly by the displaced workers for new job training 
and education. It is essential that they develop new skills if they are 
to find work. I am told that your Department until August or September 
will not make the decision on the application for the additional 120 
employees. I am hopeful that your department can come to a decision 
sooner on this application so that these 120 employees can get the 
money necessary to get additional training for other employment, and 
that when the three already displaced workers appeal your Department's 
decision they can get some sort of assistance.
    Answer. Decisions on petitions are made when all the necessary 
information is gathered and analyzed in order to determine whether the 
Trade Act criteria are met for certification. We began working on the 
latest BP petition mid-May and would expect to have a decision on the 
petition soon. Regarding the denied BP petition, the appeal (request 
for reconsideration) came to us on May 30. We are reviewing the 
information provided carefully and will determine if there was anything 
that may have been overlooked in making our earlier decision. We would 
expect a decision on this request for reconsideration by late June, or 
early July.
    As you are probably aware, the Dislocated Worker Program under the 
Workforce Investment Act is available to dislocated workers in Alaska. 
Dislocated workers can pursue opportunities for training and other 
supportive services through this program.
                  postal substations in grocery stores
    Question. I have been contacted by the manager of a Safeway store 
and several constituents in Kodiak, Alaska concerning a Department of 
Labor review on the status of Postal substations in grocery stores. I 
am told only 10 Safeway stores nationwide are renting space to the 
Postal Service, but that your Department may classify the entire 
Safeway chain as a government contractor because of the USPS presence. 
This would subject nearly 1,500 Safeway stores nationwide to cumbersome 
reporting and government audits, even though most of the stores are not 
housing postal substations.
    In many rural areas, the co-location of the post office with other 
community-centered enterprises is essential to maintaining reasonable 
cost structures and providing reliable service. I am told by executives 
at Safeway's headquarters that if your Department persists in this 
interpretation that they will have no choice but to cancel their 
contracts with the Postal Service, leaving my constituents in Kodiak 
and other rural Americans without access to some postal services. I 
have been told by the Postal Service that they disagree with your 
Department's current position on this issue, and that this will create 
serious problems for them in the future in terms of service options.
    I am hopeful you can help find a solution to this situation that is 
beneficial for all involved parties without burdening an entire grocery 
chain.
    Answer. The Department is well aware of constituents' concerns 
regarding these postal services. At present, Safeway has requested 
OFCCP to grant an exemption to its stores with current Postal leases, 
or alternatively, an exemption to its other retail outlets on the basis 
that they are separate and distinct establishments from those that have 
contracts with the Postal Service. OFCCP officials met with Safeway 
representatives to discuss their request. As a result of this meeting 
and information Safeway has provided to OFCCP, we believe that Safeway 
will be able to retain its postal facilities without triggering 
significant burdens under OFCCP regulations. Safeway is a large food 
retail chain, with approximately 1,500 retail locations. OFCCP requires 
covered federal contractors to develop and maintain an affirmative 
action program for each of their individual facilities.
    In fiscal year 2001, OFCCP sent out 50,000 EO Surveys. Safeway 
complained about the aggregate burden of developing and maintaining 
affirmative action programs for each of its 1,500 stores and for having 
to complete nearly 500 EO Surveys. According to Safeway, it decided to 
terminate many of its contracts with the government to avoid these 
burdens. One of the types of government contracts that Safeway began to 
eliminate was leases to operate postal service centers in ten of its 
stores. Safeway terminated contracts as to 8 of the 10 postal service 
centers. As we understand the facts, at two Safeway locations with 
postal service centers, Tumwater, Washington and Kodiak, Alaska, 
customers complained vigorously about the proposed closing of the 
postal facilities. Safeway encouraged these customers to contact their 
Congressional representatives. In March, 2002, Safeway submitted a 
formal request for an exemption to OFCCP. Beginning around May, 2002, 
the Department began receiving correspondence from members of Congress 
inquiring about the Safeway situation and relating their constituents' 
concern over loss of postal services.
    In July, 2002, OFCCP met with Safeway representatives and within 
the next several weeks obtained all the information necessary to 
evaluate Safeway's request for an exemption. OFCCP is working on a 
decision memorandum that will assess Safeway's exemption request and 
make a final determination. OFCCP's action will allow Safeway to 
maintain its postal service centers without incurring the more 
burdensome aspects of OFCCP's regulations.

                         CONCLUSION OF HEARINGS

    Senator Harkin. Thank you all very much for being here, 
that concludes our hearings.
    [Whereupon, at 12:30 p.m., Thursday, June 6, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]












  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                          DEPARTMENT OF LABOR

          Prepared Statement of the Harborview Medical Center
    As per our prior correspondence, we very much need your help in 
maintaining funding for our Project With Industry within the 
Rehabilitation Act. This is a very effective and efficient program with 
tight evaluative criteria and close ties to business.
    At the Harborview Medical Center, we are on track to place into 
competitive employment, 112 individuals with epilepsy, traumatic brain 
injury, and multiple sclerosis. More than half of our client base are 
already on Social Security and yet have the desire for competitive 
employment. We could not accomplish our goals without the commitment of 
company representatives from Microsoft, CSG Openline, Alaskan Copper 
and Brass, and other's who have a real commitment to our program.
    Please work to maintain or increase federal funding for PWI within 
the Rehabilitation Act.
                                 ______
                                 
   Prepared Statement of the Inter-National Association of Business, 
                      Industry, and Rehabilitation
    We would like to bring to your attention what we consider to be a 
serious error in judgment in the President's Budget Request for fiscal 
year 2003. The President's request would eliminate funding for a number 
of discretionary programs authorized under the Rehabilitation Act of 
1973, as amended. Specifically, four line items would be zero-funded: 
Projects with Industry (PWI), Supported Employment (SE) State Grants 
Migrant Farm Workers, and Recreation Projects. We urge you to restore 
and increase funding for these programs. We recommend that PWI be 
funded at $50 million for fiscal year 2003 and that Supported 
Employment be funded at $75 for fiscal year 2003.
    This statement is being made by the Inter-National Association of 
Business, Industry and Rehabilitation (I-NABIR) and is submitted for 
the record. I-NABIR is made up of 111 organization members. They 
include major international corporations, local rehabilitation service 
organizations, state and regional programs, national and local labor 
organizations, state rehabilitation agencies, national trade 
associations, school transition programs, disability specific 
organizations, mental health centers, and organizations created just to 
provide PWI services. Members run the gamut of organizations providing 
employment related services to persons with disabilities, but the 
business and labor communities are active members as well. I-NABIR 
represents most of the programs funded under the Projects with Industry 
program.
    The Administration appears to think these separate line items are 
unnecessary or that they provide services that ``overlap'' or duplicate 
the services funded by State Vocational Rehabilitation (VR) program 
funded through Section 110 of the Rehabilitation Act. The assumption 
seems to be that if these services are not funded with federal dollars, 
the states will automatically pay for them. Currently, most states are 
in the process of cutting their budgets and do not have the capacity to 
pay for these services. In addition, rather than being duplicative or 
overlapping, the discretionary programs funded under the Rehabilitation 
Act are complementary, often providing services which are substantively 
different than the services provided by State VR agencies. Rather than 
providing statewide services like VR does, these discretionary projects 
are often designed to meet specific service needs (e.g., providing a 
business partnership model of placement services or recreational 
services) or to address the needs of individuals with the most severe 
disabilities (e.g., supported employment projects). Some discretionary 
projects are designed specifically to meet national or regional needs, 
while others are designed to meet the needs of specific segments of the 
population which are significantly underserved by the State VR 
agencies.
    Rather than de-funding, and thus ending these discretionary 
programs, we believe that they, along with the Public VR program, need 
and deserve significant increases in funding for fiscal year 2003. The 
Consortium for Citizens with Disabilities (CCD) has recommended that 
PWI funding be increased to $50 million and Supported Employment to $75 
million along with a very substantial increase in Title I funding. We 
agree with these recommendations and urge them to be incorporated in 
the Senate bill.
    Projects With Industry was created in 1968 as part of the 
Rehabilitation Act. Its purpose is to develop cooperative arrangements 
between rehabilitation organizations and private employers in building 
competitive employment placement programs for persons with 
disabilities. According to the US Department of Education, 
approximately 13,000 persons with disabilities obtained jobs through 
Projects with Industry programs in 2000 at an average cost per 
placement of $1,700. The PWI program is currently funded at $22.1 
million. It has been level funded since 1994.
    Thirty-seven State VR agencies are under an order of selection for 
fiscal year 2002. State VR agencies are more likely to use any 
additional funding to meet the needs of individuals applying for VR 
services, rather than initiating new programs or funding existing PWI 
or supported employment projects. In fact, the Council of State 
Administrators of Vocational Rehabilitation (CSAVR) and the National 
Organization of Rehabilitation Partners (NORP), the organizations 
representing State VR agencies across the country are opposed to the 
President's proposal to roll the funding for these important and 
complementary discretionary into the federal appropriation for the 
Public VR program.
    At a minimum, the President's budget request to defund PWI and 
Supported Employment should be delayed and examined in context of the 
upcoming reauthorization of the Rehabilitation Act in 2003. Policy 
changes of this magnitude should be part of a reauthorization process, 
not part of the appropriations' process. There are many important 
issues that need to be thoroughly reviewed and addressed by Congress 
over the next year as part of the reauthorization process. In de-
funding these four discretionary programs, the Administration is 
actually amending the Rehabilitation Act through the appropriations' 
process. We feel this is not the proper way to address these important 
legislative issues.
    One particular concern is the fact that elimination of the Projects 
with Industry and Supported Employment State Grant Programs would have 
a negative impact on the success of the new Ticket to Work program that 
is intended to assist Social Security disability beneficiaries in 
securing employment and getting off the disability rolls. Existing PWI 
and supported employment projects are viewed as critical players as 
employment networks in the Ticket to Work program. While the President 
calls for timely implementation of the Ticket to Work program, his 
budget request will have a definite negative impact on such 
implementation. The Advisory Panel on the Ticket Program has written 
President Bush expressing their strong opposition to his budget 
proposal to end federal funding for PWI and supported employment.
                         projects with industry
    Projects With Industry was created in 1968 as part of the 
Rehabilitation Act. Its purpose is to develop cooperative arrangements 
between rehabilitation organizations and private employers in building 
competitive employment placement programs for persons with 
disabilities. According to the U.S. Department of Education, 
approximately 13,000 persons with disabilities obtained jobs through 
Projects with Industry programs in 2000 at an average cost per 
placement of $1,700. The PWI program is currently funded at $22.1 
million. Individual PWI's must match the federal funds with 20 percent 
of their own funds or donated goods or services. In some cases, the 
match made available to a PWI project is well above 20 percent. PWI 
differs from other placement services in several respects. First and 
foremost, business is recognized as a full partner in the process. 
Business Advisory Councils (BAC) are key to every aspect of the program 
from determining labor market needs to designing training that will 
meet employer needs. It is recognized that employers are customers of 
PWI projects, as are the individuals with disabilities seeking 
placement services. It is understood that successful placements will 
not occur if the needs of employers are not being met. There are over 
2,500 businesses that currently serve on PWI BAC's.
    PWI is business and results oriented with stringent performance 
standards. This is the type of program that should be valued and 
increased--not eliminated.
 pwi is not a duplication of the state vocational rehabilitation (vr) 
                                program
    PWI's are not a duplication of the State VR program, or of other 
job training or placement programs. The business partnerships make PWI 
services fundamentally unique and different from VR services. Most of 
the projects provide job training as well as placement services. Often 
the job training is done in conjunction with the members of the BAC. 
These members also contribute a great deal in goods and services to the 
services available to job seekers, creating a match for the federal 
dollars that range from the required 20 percent to 100 percent, with an 
estimated average match of almost 40 percent.
    PWI's have served as a bridge between the VR system and the 
business community. They have served well as partners to VR. As 
businesses themselves (or by operating in a business outcome-based 
model), PWIs have a thorough understanding of the needs of the business 
community and have proven to be effective and efficient in meeting 
those needs. Many employers cite this as the critical different that 
justifies a separate PWI program.
                   pwi needs to be a federal program
    Many PWI projects are national or multi-state in nature. Job 
prospecting and client placements don't end at the state lines. The job 
prospecting moves along industry lines.
    With PWIs operating as Federally funded projects, a peer review, 
competitive grant process is used to select the most qualified from a 
national pool of applicants. This national competitive process helps to 
assure quality and openness of opportunity.
    PWI organizations also work in strong partnership with a broad 
variety of other programs from School to Work, TANF, One-Stops, 
Workforce Development Boards, Ticket to Work, Business Leadership 
Networks, and many locally based programs.
    Choice is a major concern among people with disabilities, 
advocates, and policy makers. Job seekers with disabilities which are 
barriers to employment need to be able to choose from an array of 
providers and PWI offers an excellent alternative.
    few, if any, pwi's would survive under the administration's plan
    If the Administration's budget proposal is implemented, few, if 
any, current PWI's will survive. Even if states were to decide to 
continue funding the existing PWI's (which is doubtful) it would be too 
late since most PWI's will end their current grant cycle in September 
2002.
    Most states are so strapped financially that they will need any 
additional funds to address other priorities. If the PWI funds are 
rolled into the VR funding, states will have to match these additional 
funds. As a separate funding stream, PWI funds are already being 
matched with private resources.
   the research triangle institute should complete the pwi evaluation
    The Administration should not take this drastic step of ending a 
program that has been successful for more than 30 years without 
thoroughly studying the matter and receiving input from a variety of 
interested parties. The Research Triangle Institute (RTI) in North 
Carolina was granted a 2-year contract beginning October 1, 2000 to 
conduct a through evaluation of the PWI program. Activities RTI is 
undertaking to fulfill the purposes of this study include: (1) a 
comprehensive review of grantee documents; (2) collection of survey 
data from the universe of PWI grantees; and (3) site visits to 30 
nationally representative PWI projects. These site visits will involve 
interviews with PWI project directors, state VR agency staff, Business 
Advisory Council members, and local Workforce Investment Board members. 
RTI has a survey instrument ready to send to the various audiences 
noted above; however, questions from the Office of Management and 
Budget have delayed implementation of the survey. RTI's evaluation was 
to have been completed by September 2002 so the results could be used 
in the reauthorization of the Rehabilitation Act in 2003. We think it 
is imperative that the Administration postpone any final decision on 
the PWI program until the RTI evaluation has been completed and the 
findings of the evaluation have been analyzed.
       any changes to the pwi program should be made through the 
                        reauthorization process
    The appropriate means to consider changes to programs under the 
Rehabilitation Act is through the reauthorization process. The 
Rehabilitation Act is up for reauthorization in 2003. The 
reauthorization process is the appropriate time for the Administration 
to put forth major policy changes related to the Rehabilitation Act.
                congress should increase funding for pwi
    PWI has a proven track record over more than 30 years of placing 
persons with disabilities into competitive jobs in the community. It 
has proven to be a most effective means of involving the business 
community in the rehabilitation process. PWI provides a bridge between 
the private business community and government supports for people with 
disabilities. In every nationwide PWI competition conducted during the 
last 15 to 20 years, the number of qualified applications has far 
exceeded the available funding. Rather than cutting PWI funding, we 
believe additional funding should be made available so that more 
individuals with disabilities can be placed through PWI projects We 
recommend that the Projects with Industry program be funded at $50 
million for fiscal year 2003.
                                 ______
                                 
      Letter From the International Association of 
                                         Machinists
      Center for Adminitering Rehabilitaton and Employment 
                                                  Services,
                                                     Arlington, TX.
Senator Kay Bailey Hutchison,
Washington, DC.
    This letter is being written to encourage positive participation in 
the fate of the Projects With Industry Grant Programs for People with 
Disabilities.
    IAM CARES, Inc. (International Association of Machinists-Center for 
Administering Rehabilitation and Employment Services) is a 501(c)3 
national organization that has been in the Fort Worth Dallas area since 
1984 serving people with disabilities and helping them to find jobs. 
During the course of these years, IAM CARES--Texas has placed 
approximately 2,000 persons into competitive positions earning good 
wages and paying taxes.
    Many of our national offices operate, as does Fort Worth Dallas, 
under these PWI programs. They are the single most influential programs 
in the country affecting thousands of lives of the people we serve. IAM 
CARES has placed over 25,000 people across the nation while serving 
mostly under the PWI programs.
    Because of your position as a member of the Senate Appropriations 
Subcommittee for the Departments of Education-HHS-Labor, IAM CARES-
Texas would like to encourage you to think favorably about the funding 
levels for the next year for Project With Industries (PWI) programs. 
These DOE/RSA grants are designed to help people with disabilities find 
jobs by bringing together Business, Industry, and Rehabilitation.
    This is accomplished through a Business Advisory Council 
representing IAM CARES and is comprised of seventeen local and area 
representatives of businesses, District #776 Machinists union, the 
Texas Rehabilitation Commission and the Texas Workforce Commission. It 
is the only program of its kind in the country, as far as I know.
    The basic message to get across at this time is: (1) PWI is 
important to people with disabilities and businesses in Texas. (2) I 
would like to request that, as a member of the Senate Appropriations 
Subcommittee, you help maintain federal funding for PWI and the other 
discretionary programs in the Rehabilitation Act as well as the basic 
state grant program and (3) Funding for PWI at $50 million for next 
year (fiscal year 2003).
    Thank you for your time and consideration to this important matter.

                                                 R.A. Wade,
                              Area Project Director, PWI: IAMCARES.
                                 ______
                                 
                 Prepared Statement of Robbie Arrington
    The Honorable Kay Bailey Hutchison: Please accept this statement as 
support for funding PWI programs at $50 million for next year (fiscal 
year 2003). Please review the attached Houston PWI Program stats.
    PWI is important to people with disabilities and businesses in 
Texas. People with disabilities gain meaningful and gainful employment 
while employers receive the benefit of pre-screened applicants and 
assistance in working with people with disabilities (ADA issues).
    I am also requesting that as a member of the Senate Appropriations 
Subcommittee you will maintain federal funding for not only PWI but the 
other discretionary programs in the Rehabilitation Act as well as the 
basic state grant program.

----------------------------------------------------------------------------------------------------------------
                                                               10/97-9/98   10/98-9/99   10/99-9/00   10/00-9/01
----------------------------------------------------------------------------------------------------------------
Number of Customers Served..................................          224          250          245          233
Number of Customers Served/w Significant Disabilities.......          140          115          137          199
Total Number of Customers Placed............................           83          105          104          139
Average Hourly Wage.........................................        $8.35        $8.46        $8.82        $8.66
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of the Association of University Programs in 
                     Occupational Health and Safety
    Thank you for the opportunity to present testimony to the 
Subcommittee in support of funding for the National Institute for 
Occupational Safety and Health (NIOSH) and for the NIOSH-funded 
Education and Research Centers (ERCs). My name is Jacqueline Agnew, and 
I am the Director of the Education and Research Center at Johns Hopkins 
University.
    I am testifying on behalf of the Association of University Programs 
in Occupational Health and Safety (AUPOHS), the organization that 
represents 16 multi-disciplinary, NIOSH-supported, university-based 
Education and Research Centers (ERCs). The ERCs are regional resources 
for all parties involved with occupational health and safety--industry, 
labor, government, academia, and the general public. The ERCs play the 
following roles in helping the nation reduce losses associated with 
work-related illnesses and injuries:
  --Prevention Research.--Developing the basic knowledge and associated 
        technologies to prevent work-related illnesses and injuries.
  --Research Training.--Preparing doctoral-trained scientists who will 
        respond to future research challenges and who will prepare the 
        next generation of occupational health and safety 
        professionals.
  --Professional Training.--Graduate degree programs in Occupational 
        Medicine, Occupational Health Nursing, Safety Engineering, and 
        Industrial Hygiene to provide qualified professionals in 
        essential disciplines.
  --Continuing Education.--Short courses designed to enhance 
        professional skills and maintain professional certification in 
        occupational health and safety disciplines. These courses are 
        delivered on-campus at the 16 ERCs as well as through distance 
        learning technologies.
  --Regional Outreach.--Responding to specific requests from local 
        employers and workers on issues related to occupational health 
        and safety.
     the scope of the problem of occupational injury and illnesses
    The many causes of occupational injury and illness represent a 
striking burden on America's health and well-being. On an average day, 
the nation suffers the following losses:
  --137 Americans die from work-related illnesses
  --17 Americans die from work-related injuries
  --9,000 workers sustain injuries on the job resulting in temporary or 
        permanent disabling conditions
    This is an especially tragic situation because most work-related 
fatalities, injuries and illnesses are preventible with effective, 
professionally directed, health and safety programs. Although we have 
our nation has made tremendous progress in reducing occupational 
illnesses and injuries during the past 30 years, leading to a decline 
in the rate of total recordable cases from 11.0 to 7.1 cases per 100 
full-time workers between 1973 to 1997, the burden of occupational 
illnesses and injuries remains unacceptably high.
    Furthermore, we do not live in a static environment. The rapidly 
changing workplace continues to present new health risks to American 
workers that need to be addressed through occupational safety and 
health research. For example, by the year 2005, an estimated 33 percent 
of the U.S. workforce will be 45 years or older. Work-injury fatality 
rates begin increasing at age 45, with rates for workers 65 years and 
older nearly three times as high as the average for all workers. 
Despite being the primary federal agency for occupational disease and 
injury prevention in the nation, NIOSH receives only about $1 per 
worker per year for its mission of research, professional education and 
outreach.
    the new role of occupational safety and health professionals in 
                           homeland security
    The tragic events of September 11, and the new threats faced by 
emergency responders, mail handlers, and other workers, illustrate the 
great concern for workplace health and safety needed in the ongoing war 
on terror. The NIOSH ERCs play a crucial role in preparing Occupational 
Safety and Health (OSH) professionals to identify and ameliorate 
vulnerabilities to terrorist attacks and other workplace hazards.
    Thanks to the Subcommittee's support for occupational health and 
safety research, NIOSH last year developed more effective methods to 
test for anthrax contamination in congressional offices. These 
procedures are now being used by the Coast Guard, the FBI, and 
Government Building Contractors.
    In addition, occupational health and safety professionals have 
worked for several years with emergency response teams to minimize 
losses in the event of a disaster. NIOSH took a lead role in protecting 
the safety of emergency responders in New York City and Virginia, with 
ERC-trained professionals applying their technical expertise to meet 
immediate protective needs and conducting ongoing activities to 
safeguard the health of clean-up workers.
    In the face of the growing concerns surrounding homeland security, 
ERCs have rapidly upgraded research coordination and expanded training 
opportunities, including sponsoring national and regional forums on 
response to bioterrorism and other disasters.
          the need for occupational safety and health manpower
    The NIOSH ERCs were reviewed by the DHHS Office of the Inspector 
General in 1995. The resulting report affirmed the efficacy of the ERCs 
in producing graduates who pursue careers in occupational safety and 
health. Since the ERCs are regional, they are ready to respond to 
various trends in industries throughout the country. And because they 
provide training that is multi-disciplinary, ERCs graduate 
professionals who can protect workers in virtually every walk of life. 
Despite the recognized success of the ERCs in training qualified 
occupational health and safety professionals, the country continues to 
have ongoing shortages. The manpower needs are especially acute for 
doctoral-level trained professionals who can conduct biomedical 
research and help in implementing the National Occupational Research 
Agenda.
    In May 2000, the Institute of Medicine issued its final report on 
the education and training needs for occupational safety and health 
(OSH) professionals in the United States. This report concluded that 
``the continuing burden of largely preventable occupational diseases 
and injuries and the lack of adequate OSH services in most small and 
many larger workplaces indicate a clear need for more OSH professionals 
at all levels.'' Specific needs identified by the IOM report include:
  --An insufficient number of doctoral-level graduates in occupational 
        safety, thus limiting the nation's capacity to perform 
        essential research and training in traumatic injury prevention.
  --An inability to attract physicians and nurses into formal OSH 
        academic training programs, thus limiting the resources needed 
        to deliver occupational health services.
              funding recommendation for fiscal year 2003
    Mr. Chairman, AUPOHS supports Congress' goal to double funding for 
biomedical research through support of the National Institutes of 
Health (NIH). We also believe that investment in biomedical research to 
prevent, treat, and rehabilitate occupational injuries and illnesses is 
an equally wise investment. NIOSH, which is part of the Centers for 
Disease Control and Prevention, does not have a research counterpart in 
NIH. Therefore, efforts to address occupational health and safety 
research needs should be appropriately funded by Congress and led by 
NIOSH.
    NIOSH and its partners in the private and public sector have 
developed the National Occupational Research Agenda (NORA) to guide 
occupational safety and health research into the next decade. Our 
nation's universities, through AUPOHS, have participated with industry, 
labor, and professional organizations to help NIOSH develop this 
coordinated research agenda for the nation.
    The implementation of NORA requires increased NIOSH funding. While 
other federal research bodies have experienced growth in their budgets 
during the past two decades, NIOSH has lost research capacity at a time 
when it is needed more than ever. This erosion of research capacity is 
recognized by university researchers and has negatively impacted new 
research initiatives. NIOSH is fully integrated into the NIH system for 
funding research grants. All submitted proposals are peer reviewed by a 
standing NIH study section. For most of the 1990s, research proposals 
submitted to NIOSH had a funding success rate of between 15 and 20 
percent, compared to a success rate of about 28 percent for NIH 
overall. The relatively low success rate, which is directly tied to low 
levels of research funding, has led some investigators to refocus their 
research priorities into other areas, leading to a shrinkage in grant 
submissions. Additional support for ERCs would expand the pool of 
qualified researchers and ensure that critical research needs are 
addressed.
    Thanks to the Subcommittee, and the Chairman in particular, 
Congress has taken a first step to reversing this trend by providing $2 
million to ERCs in fiscal year 2002 for research activities as part of 
an overall NIOSH increase of $16 million. Given the expanded need for 
both research and training in response to the heightened threat of 
terrorism, we hope to work with the committee to expand federal support 
for NIOSH and the ERCs.
    AUPOHS requests $5 million for ERCs, and we are supporting a $60 
million total increase over fiscal year 2002 for NIOSH.--Given that 
most of NIOSH's extramural research program is carried out by our 
institutions, sustaining the academic infrastructure provided by the 
ERCs is essential to the success of NORA. Our recommendation would 
ensure that our nation's universities have the capacity and manpower to 
implement NORA and expand training programs to improve the health and 
productivity of American workers.
    Funding for NIOSH and the ERCs would reduce the staggering burden 
of occupational illnesses and injury on the American economy. In 1992, 
the direct and indirect costs of work-related injuries and illnesses 
totaled $171 billion. To put this number in perspective, these costs 
dwarf the $33 billion for AIDS and the $67 billion for Alzheimer's 
Disease, and they are comparable to the $164 billion economic cost for 
all circulatory diseases and the $171 billion cost of cancer. Yet 
federal support for occupational safety and health research pales in 
comparison for example, cancer research receives 15 times as much 
federal funding.
    Indeed, total funding for ERCs alone remained essentially flat 
throughout the 1990s, despite the growth in the number of ERCs. In real 
dollars, the average ERC has suffered a 35 percent reduction in funding 
since 1980. This erosion in real dollar support seriously threatens our 
ability to implement the NORA agenda through university-based research 
and training and respond to the ever-changing needs of the American 
workplace.
    Thank you for the opportunity to testify of the great need for 
research and training in occupational safety and health.
         niosh-supported education and research centers (ercs)
    The University of Alabama (Birmingham) and Auburn University, Deep 
South Center for Occupational Health and Safety; University of 
California at Berkeley and University of California at San Francisco, 
Northern California Education and Research Center; University of 
California at Los Angeles and University of Southern California, 
Southern California Education and Research Center; University of 
Cincinnati, Institute for Occupational and Environmental Health; 
Harvard University, Harvard Education and Research Center; The 
University of Illinois, Great Lakes Center for Occupational and 
Environmental Health; The University of Iowa, Iowa Education and 
Research Center; Johns Hopkins University, Johns Hopkins Education and 
Research Center; The University of Michigan, Michigan Center for 
Occupational Health and Safety Engineering; The University of 
Minnesota, Midwest Center for Occupational Health and Safety; Mt. Sinai 
Medical Center, New Jersey Institute of Technology, and Hunter College, 
New York-New Jersey Education and Research Center; The University of 
North Carolina, North Carolina Education and Research Center; The 
University of South Florida, Sunshine Center for Occupational Safety 
and Health; The University of Texas at Houston, Southwest Center for 
Occupational and Environmental Health; The University of Utah, Rocky 
Mountain Center for Occupational and Environmental Health, and The 
University of Washington, Northwest Center for Occupational Health and 
Safety.
                                 ______
                                 
      Prepared Statement of the National Treasury Employees Union
    My name is Colleen M. Kelley and I am the National President of the 
National Treasury Employees Union (NTEU). NTEU represents more than 
150,000 federal employees across 25 agencies and departments of the 
federal government, including employees in a number of HHS agencies.
    NTEU represents employees in the Health Resources and Services 
Administration (HRSA), Substance Abuse and Mental Health Services 
Administration (SAMHSA), Administration for Children and Families 
(ACF), Administration on Aging (AoA), Office of the Secretary (OS), 
Office for Civil Rights (OCR), Program Support Center (PSC) and the 
National Center for Health Statistics (NCHS). NTEU also represents 
employees in the Social Security Administration's Office of Hearings 
and Appeals (OHA).
    The tragic events of September 11 showed the world that civil 
servants at every level of government are hard-working men and women 
committed to doing the best possible job in spite of often difficult 
circumstances. The need to hire and maintain a highly trained and 
skilled federal workforce has never been more clear. Yet, due to 
inadequate pay and benefits, the federal government often loses the 
battle for the best employees to state and local governments and 
private sector employers.
    As the Chairman knows, for too long, too little attention and too 
few resources have been spent on the federal government and its 
employees. The human capital crisis the federal government faces will 
only be solved when we begin to treat federal employees as assets to be 
valued, not costs to be cut. Adequate and stable agency funding coupled 
with appropriate pay, benefits and incentives are key to ensuring that 
the government is able to attract and retain the federal employees it 
needs.
    Unfortunately, funding has been severely constrained at most 
federal agencies for quite some time. Agencies have been left with 
inadequate resources to accomplish their missions and insufficient 
funding to reward their employees. They have been hamstrung by 
restrictive appropriations levels and forced to shuffle resources 
between competing priorities and from one account to another.
    Fiscal year 2003 will be no different. According to the 
Congressional Budget Office (CBO), once funding for homeland security 
and defense is removed from the discretionary spending figures 
suggested in the President's fiscal year 2003 budget, discretionary 
spending declines by 1 percent. The funding levels suggested by the 
President will not even permit agencies to keep pace with inflation.
    The Administration's fiscal year 2003 budget request for program 
management at the Health Resources and Services Administration (HRSA) 
is $161 million, a reduction of $2 million from the fiscal year 2002 
funding level. HRSA's role is to insure equal access to quality health 
care, particularly for our low-income and uninsured populations as well 
as those with special needs. The essential services this agency 
provides are desperately in need of expansion, yet the agency faces a 
funding reduction of $2 million. HRSA cannot accomplish its mission 
with fewer employees and reduced resources.
    The President's proposal for program management funds for the 
Substance Abuse and Mental Health Services Administration (SAMHSA) is 
$80 million. This figure represents a reduction of $15 million and 28 
full time equivalent employees from the agency's fiscal year 2002 
funding level. As the Chairman knows, SAMHSA's mission is to constantly 
improve the quality and availability of services to help those 
suffering from substance abuse and mental illness. This will not be 
accomplished by squeezing agency funding levels and NTEU hopes the 
Committee will restore this much needed funding.
    The Administration for Children and Families (ACF) is not slated to 
receive any funding increase over its fiscal year 2002 level for 
program administration under the Administration's fiscal year 2003 
budget request. Given the array of programs this agency oversees to 
help strengthen families and develop supportive communities, it is 
difficult to understand the President's recommendation for no new 
funding. Funding restrictions in past years have already hampered ACF's 
ability to fulfill its complex and important mission. This is truly an 
agency that cannot continue to provide quality services to low-income 
families and individuals without additional resources.
    NTEU is also troubled by proposals the Administration has made to 
shift the Head Start Program from the Department of Health and Human 
Services to the Department of Education. The Head Start Program has a 
long tradition of delivering comprehensive family services--not just 
early learning experiences for young children, but an array of services 
that support the learning environment for low income families and 
parents. The Head Start Program's ability to address the range of 
issues often facing low-income children and their families is what has 
made Head Start the premiere program it is today. Proposals to transfer 
oversight for Head Start from HHS to the Department of Education ignore 
the comprehensive nature of the program. NTEU believes such proposals 
also risk destroying what most agree is one of the federal government's 
most successful programs. NTEU urges this Committee to reject proposals 
to move Head Start to the Department of Education.
    For fiscal year 2003, the budget request for program administration 
at the Administration on Aging (AoA) is $19 million, an amount 
identical to the agency's fiscal year 2002 funding level. Helping older 
Americans remain independent and productive is one of the 
Administration on Aging's key goals. The agency operates nutrition 
programs, caregiver support programs and preventive health programs. 
There is little question that AoA will be called upon to continue and 
expand its work in the coming years; their funding level needs to 
reflect this reality.
    NTEU also represents employees in the Office of the Secretary of 
HHS. The President's budget request for departmental management is $13 
million above the fiscal year 2002 funding level, a reflection of the 
important work accomplished by the Office of the Secretary. Employees 
of the Office of the Secretary administer and oversee the organization, 
programs and activities of the entire Department of Health and Human 
Services. NTEU hopes the Committee will support this proposed increase.
    The Administration's budget request for the Office for Civil Rights 
(OCR) for fiscal year 2003 is $2 million above their fiscal year 2002 
funding level. As you know, HHS's Office of Civil Rights provides 
critical oversight in insuring that all individuals have equal access 
to the services and programs HHS provides. OCR employees are 
responsible for enforcing civil rights statutes that prohibit 
discrimination in federal health and social services programs. In many 
years, OCR's funding level has not reflected the agency's critical 
mission and NTEU urges the maximum possible appropriation for the 
Office for Civil Rights.
    For the National Center for Health Statistics (NCHS), the 
Administration has requested a small increase over the agency's fiscal 
year 2002 funding level. The work undertaken by NCHS employees is 
critical to assessing the effectiveness of health care programs and 
determining appropriate public health practice. It is shortsighted not 
to provide the NCHS with the funding necessary to accomplish their 
mission.
    The Department of Health and Human Services' Program Support Center 
provides an array of support services to both HHS and other federal 
agencies. These services include human resource and financial 
management supports as well as a range of administrative services. For 
fiscal year 2003, the Administration has recommended an increase in 
appropriations, yet calls for a reduction of 51 full time equivalent 
employees. NTEU urges the Committee to question the Administration's 
plans for the PSC in the coming fiscal year and provide the highest 
possible funding level for the important work accomplished by this HHS 
division.
    NTEU also represents employees in the Office of Hearings and 
Appeals (OHA) of the Social Security Administration. As the Committee 
knows, OHA is charged with providing claimants who have been found 
ineligible for disability benefits with a fair and timely hearing of 
their cases. Today, the growing backlog of cases before OHA prevents a 
fair and timely hearing for these individuals. The fundamental problem 
is that OHA lacks sufficient decision makers to handle its rapidly 
growing workload.
    Since the mid-1990's, SSA's disability program has been in crisis. 
In 1995, SSA introduced a program called the Senior Attorney Program 
that was instrumental in reducing the backlog and improving processing 
times. In every respect, the Senior Attorney Program was a success. The 
agency's experienced staff attorneys were given the authority to decide 
and issue fully favorable decisions--without the time and expense of a 
full hearing--in those cases where the evidence clearly identified an 
individual as disabled. It materially improved both the quality and 
timeliness of service to the public. The OHA backlog fell from over 
550,000 pending cases to a low of 311,000 at the end of fiscal year 
1999.
    Unfortunately, SSA chose to terminate this innovative program as it 
undertook its Hearing Process Improvement (HPI) plan, a plan even SSA 
now agrees was not successful. Once again, the backlog of cases before 
OHA has climbed to record numbers. By March of 2002, the backlog stood 
at more than 486,000 pending cases and SSA projects that by the end of 
fiscal year 2002, the backlog will rise to 546,000 cases.
    The Senior Attorney Program benefitted more than just those 
claimants who received their disability benefits sooner than would have 
otherwise been the case. Administrative Law Judge time was more wisely 
spent on cases that required a hearing, thereby reducing processing 
times for those cases as well!
    NTEU urges the Committee to closely review the original Senior 
Attorney Program. Not only was it a resounding success, it materially 
improved the quality of service to the public and resulted in 
administrative and program cost savings. With an inevitable increase in 
disability applications expected as the ``baby boomers'' age, the time 
to address the situation is now. The Senior Attorney Program worked. It 
did not consume additional resources, nor did it require the hiring of 
hundreds of new Administrative Law Judges. The Senior Attorney Program 
provides an answer with proven results. Its termination was short 
sighted and NTEU urges this Committee to carefully consider it as a 
potential solution to the growing backlogs facing the Office of 
Hearings and Appeals.
    Mr. Chairman, thank you again for this opportunity to share our 
views on the fiscal year 2003 funding needs for the agencies within the 
jurisdiction of your Committee.
                                 ______
                                 
  Prepared Statement of the Consortium for Citizens with Disabilities 
                   Employment and Training Task Force
    The Consortium for Citizens with Disabilities Employment and 
Training Task Force, a coalition of national organizations writes to 
bring to your attention a serious concern we have with the President's 
fiscal year 2003 budget request. The President's request would 
eliminate funding for a number of discretionary programs authorized 
under the Rehabilitation Act of 1973, as amended. Specifically, four 
line items would be zero-funded: Supported Employment (SE) State 
Grants, Projects with Industry (PWI), Migrant Farm Workers, and 
Recreation Projects.
    The Administration appears to think these separate line items are 
unnecessary or that they provide services that ``overlap'' or duplicate 
the services funded by State Vocational Rehabilitation (VR) program 
funded through Section 110 of the Rehabilitation Act. The assumption 
seems to be that if these services are not funded with federal dollars, 
the states will automatically pay for them. Currently, most states are 
in the process of cutting their budgets and do not have the capacity to 
pay for these services. In addition, rather than being duplicative or 
overlapping, the discretionary programs funded under the Rehabilitation 
Act are complementary, often providing services which are substantively 
different than the services provided by State VR agencies. Rather than 
providing statewide services like VR does, these discretionary projects 
are often designed to meet specific service needs (e.g., providing a 
business partnership model of placement services or recreational 
services) or to address the needs of individuals with the most severe 
disabilities (e.g., supported employment projects). Some discretionary 
projects are designed specifically to meet national or regional needs, 
while others are designed to meet the needs of specific segments of the 
population which are significantly underserved by the State VR 
agencies.
    Although the President's budget encourages State VR agencies to 
continue funding these discretionary projects, it is very unlikely that 
this will happen since the funds available to State VR agencies are 
inadequate to meet the many challenges already facing the program. 
Thirty-seven State VR agencies are under an order of selection for 
fiscal year 2002. This means that these State Agencies have determined 
that the State and Federal funds available to the program are 
insufficient to meet the needs of the potentially eligible individuals 
with disabilities in the state who are likely to seek assistance from 
VR during fiscal year 2002. This being the situation, State VR agencies 
are more likely to use any additional funding to meet the needs of 
individuals applying for VR services, rather than initiating new 
programs or funding existing PWI or supported employment projects. In 
fact, the Council of State Administrators of Vocational Rehabilitation 
(CSAVR), the organization representing State VR agencies across the 
country is opposed to the President's proposal to roll the funding for 
these important and complementary discretionary into the federal 
appropriation for the Public VR program. CSAVR still maintains that the 
Public VR program is sorely under-funded to address its mandates in the 
Rehabilitation Act and the challenges facing the program due to changes 
in the environment, e.g., passage of the Workforce Investment Act of 
1998 and the Ticket to Work and Work Incentives Improvement Act of 
1999.
    At a minimum, the President's budget request should be delayed and 
examined in context of the upcoming reauthorization of the 
Rehabilitation Act in 2003. Policy changes of this magnitude should be 
part of a reauthorization process, not part of the appropriations' 
process. There are many important issues that need to be thoroughly 
reviewed and addressed by Congress over the next year as part of the 
reauthorization process. In de-funding these four discretionary 
programs, the Administration is actually amending the Rehabilitation 
Act through the appropriations' process. We feel this is not the proper 
way to address these important legislative issues.
    Of particular concern is the fact that elimination of the Projects 
with Industry and Supported Employment State Grant Programs would have 
a negative impact on the success of the new Ticket to Work program that 
is intended to assist Social Security disability beneficiaries (i.e., 
people on SSDI and SSI) in securing employment and getting off the 
disability rolls. Existing PWI and supported employment projects are 
viewed as critical players in the Ticket to Work program. Many of these 
projects will be applying to the Social Security Administration (SSA) 
to be approved to function as employment networks and provide services 
to eligible beneficiaries who want to go to work. One of the underlying 
principles of the ticket legislation is to increase the universe of 
service providers who will make their services available to Social 
Security beneficiaries with disabilities. While the President's New 
Freedom Initiative calls for timely implementation of the Ticket to 
Work program, his budget request will have a definite negative impact 
on such implementation.
    Rather than de-funding, and thus ending these discretionary 
programs, we believe that they, along with the Public VR program need 
and deserve significant increases in funding for fiscal year 2003. The 
Consortium for Citizens with Disabilities (CCD) recommendations 
increases in funding of $50 million for PWI and $75 million for 
supported employment state grants. CCD has recommended a very 
significant increase for the Title I state grants and feel that there 
be an increase of a minimum of 10 percent over the amount appropriated 
in 2002.
    We have attached detailed information on the supported employment 
program, the Projects with Industry program, and the challenges facing 
the Public VR program, along with a justification for an increase in 
funding for these three programs. Given that the funding for PWI and 
supported employment constitutes 92 percent of the total funds that the 
Administration is seeking to roll into the Section 110 funding, there 
is really no substantive increase in VR funding beyond the Consumer 
Price Index (CPI) increase mandated in the Rehabilitation Act.
    The co-chairs and other members of the Employment and Training Task 
Force would be glad to meet with you and your staff to discuss this 
matter at your convenience.
  --Alan Dinsmore, American Foundation for the Blind--202-408-0200; 
        Cheryl Bates-Harris, NAPAS--202-408-9514; Charles Harles, I-
        NABIR--202-546-2847; Celane McWhorter, APSE--703-683-1166
  --American Congress of Community Supports and Employment Services 
        (ACCSES); American Foundation for the Blind; American Network 
        of Community Options and Resources; Association for the 
        Education and Rehabilitation of the Blind and Visually 
        Impaired; Association for Persons in Supported Employment; 
        Council of State Administrators of Vocational Rehabilitation 
        (CSAVR); Easter Seal; Helen Keller National Center; Inter-
        National Association of Business, Industry and Rehabilitation 
        (I-NABIR); National Association of Developmental Disabilities 
        Councils; International Association of Psychosocial 
        Rehabilitation Services (IAPSRS); National Association of 
        Protection and Advocacy Systems (NAPAS); National Industries 
        for the Blind; National Mental Health Association; NISH; 
        Paralyzed Veterans of America; The Arc of the United States
                         projects with industry
    Projects With Industry was created in 1968 as part of the 
Rehabilitation Act. Its purpose is to develop cooperative arrangements 
between rehabilitation organizations and private employers in building 
competitive employment placement programs for persons with 
disabilities. According to the U.S. Department of Education, 
approximately 13,000 persons with disabilities obtained jobs through 
Projects with Industry programs in 2000 at an average cost per 
placement of $1,700. The PWI program is currently funded at $22.1 
million. This is the type of program that the Bush Administration 
should value and increase--not eliminate.
    PWI differs from other placement services in several respects. 
First and foremost, business is recognized as a full partner in the 
process. Business Advisory Councils (BAC) are key to every aspect of 
the program from determining labor market needs to designing training 
that will meet employer needs. There are over 2500 businesses that 
currently serve on PWI BAC's.
 pwi is not a duplication of the state vocational rehabilitation (vr) 
                                program
    PWI's are not a duplication of the State VR program, or of other 
job training or placement programs. The business partnerships make PWI 
services fundamentally unique and different from VR services. Most of 
the projects provide job training as well as placement services. Often 
the job training is done in conjunction with the members of the BAC. 
These members also contribute a great deal in goods and services to the 
services available to job seekers, creating a match for the federal 
dollars that range from the required 20 percent to 100 percent, with an 
estimated average match of almost 40 percent.
                   pwi needs to be a federal program
    Many PWI projects are national or multi-state in nature. Job 
prospecting and client placements don't end at the state lines. The job 
prospecting moves along industry lines.
    With PWIs operating as Federally-funded projects, a peer review, 
competitive grant process is used to select the most qualified from a 
national pool of applicants. This national competitive process helps to 
assure quality and openness of opportunity.
    PWI organizations also work in strong partnership with a broad 
variety of other programs from School to Work, TANF, One-Stops, 
Workforce Development Boards, Ticket to Work, Business Leadership 
Networks, and many locally based programs.
    Choice is a major concern among people with disabilities, 
advocates, and policy makers. Job seekers with disabilities which are 
barriers to employment need to be able to choose from an array of 
providers and PWI offers an excellent alternative.
    few, if any, pwi's would survive under the administration's plan
    If the Administration's budget proposal is implemented, few, if 
any, current PWI's will survive. Even if states were to decide to 
continue funding the existing PWI's (which is doubtful) it would be too 
late since most PWI's will end their current grant cycle in September 
2002. Most states are so strapped financially that they will need any 
additional funds to address other priorities. If the PWI funds are 
rolled into the VR funding, states will have to match these additional 
funds. As a separate funding stream, PWI funds are already being 
matched with private resources.
       any changes to the pwi program should be made through the 
                        reauthorization process
    The appropriate means to consider changes to programs under the 
Rehabilitation Act is through the reauthorization process. The 
Rehabilitation Act is up for reauthorization in 2003. The 
reauthorization process is the appropriate time for the Administration 
to put forth major policy changes related to the Rehabilitation Act.
Congress Should Increase Funding for PWI to $50 million for fiscal year 
        2003
 supported employment state grant and employment for individuals with 
                           high support needs
    The Supported Employment (SE) State Grant program was created in 
1986 when the Rehabilitation Act was amended to authorize the use of 
Title I funds for SE, opening doors to competitive, integrated 
employment options through the state VR system for the first time to 
individuals who require intense and long term supports in order to 
become employed. The only experience the VR system had traditionally 
had prior to the inclusion of SE in the Act in providing services to 
individuals with ``the most significant disabilities'' was in extended 
employment services--segregated workshop settings. The State Grant was 
established to provide incentives and assistance to include such 
individuals in their traditional employment caseloads. The SE State 
Grant program has been funded as a separate ``line item'' by the Labor, 
Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee since that time. Advocates in most states 
report that these designated funds are the primary reason the VR system 
provides SE services.
    The administration suggests that the SE State Grant ``overlaps'' 
with the state vocational rehabilitation program funded through Section 
110, Title I of the Act and, therefore, can easily be subsumed under 
the Title I umbrella, given additional Title I funding for fiscal year 
2003. The assumption is that extra funding is all that is necessary for 
the state Title I programs to pick up the services currently provided 
through the SE State Grant program. This is a very dangerous assumption 
for individuals with the most significant disabilities. While states 
can use Title I funds for SE, they rely on the SE State Grant money for 
a significant number of the individuals they serve in supported 
employment, and it will be difficult to maintain the current level of 
commitment to SE under the President's proposal.
    The VR accountability system provides significant disincentives 
both for the system and the individual counselor to provide supported 
employment services without designated funds. While supported 
employment can be considered an acceptable outcome, far more time and 
resources will be spent in securing the coveted ``26'' code for an 
individual in SE. In the absence of weighted measures, the counselor/
office/region that spends Title I resources on successful supported 
employment will likely have fewer numbers of individuals reported in 
their annual outcomes. This puts individuals who require extensive and/
or expensive work place supports at a disadvantage in the more generic 
Title I program.
    The presence of the separate SE funding stream has allowed the 
state VR systems to gradually move s to traditional competitive, 
integrated options for individuals with significant disabilities. Over 
all we know that more 150,000 individuals (reported aggregate number in 
1996) with significant disabilities have had access to VR funded 
supported employment since its inception. This number continues to 
increase, in large part due to the SE State Grant program. National 
data indicate the growing effectiveness of the program: fiscal year 
1991--9,528 total SE placements; fiscal year 1994--13,950 total SE 
placements; fiscal year 1998--23,056 total SE placements.
    Supported Employment creates invaluable partnerships with the 
business community. It is not just a placement, but an on-going 
relationship with the employer, providing the VR and other supporting 
public agencies a new and different forum for interaction with local 
businesses. Not only have there been over 150,000 placements in 
supported employment, many more employers have been offered and/or 
received long term public support for their supported employees.
    A final and very important consideration is the ultimate impact on 
funding for the states. Title VI-C does not require a state match while 
Title I does. Because of this discrepancy states will have to identify 
additional funds in order to access funding they now receive with no 
required match. The State VR systems along with individuals they 
currently serve in supported employment will lose vital service funds 
under the Administration's proposal.
           the public vocational rehabilitation (vr) program
    The Public VR Program is one of the most cost effective programs 
ever created by Congress. It enables hundreds of thousands of 
individuals with disabilities to go to work each year and become tax-
paying citizens. Each year, the Program assists over 1.2 million 
individuals with disabilities to go to work by providing services and 
supports to eliminate barriers to employment. Of those served each 
year, over 230,000 enter competitive employment. Over the last 10 
years, the Public VR Program has faced a number of challenges that have 
been compounded by minimal increases in Federal funding. Those 
challenges include:
    Special Education.--The federal appropriation for special education 
increased by approximately 140 percent between 1997 and 2002, with an 
increase of over $1 billion in fiscal year 2002. Increased funding for 
special education has increased the demand for VR services as 
increasing numbers of special education students leave school and seek 
VR services to assist them in securing meaningful employment.
    The Ticket to Work and Work Incentives Improvement Act of 1999 is 
intended to address disincentives to work found in the Social Security 
disability programs (SSDI and SSI) and to increase employment 
opportunities for individuals enrolled in these programs. As the Ticket 
to Work Program is implemented nationwide over the next 2 years, many 
people receiving tickets will go to the Public VR Program for 
information and services.
    Temporary Assistance for Needy Families (TANF).--A recent General 
Accounting Office (GAO) report found that individuals with disabilities 
represent approximately 44 percent of the remaining TANF population. 
State welfare agencies are increasingly turning to State VR agencies 
for assistance in meeting the needs of individuals with disabilities 
who are left on the TANF caseloads.
    Impact of the Workforce Investment Act of 1998 (WIA).--With the 
passage of WIA, the Public VR Program was faced with yet another 
priority. As states implement WIA's One-Stop approach to employment 
services, many are expecting financial participation from State VR 
agencies in the administrative costs of the One-Stop centers.
    Impact of the Olmstead Decision.--As individuals with disabilities 
are moved out of institutions, the Public VR Program will be playing a 
major role in assisting them in obtaining work.
    Attracting and Retaining Qualified Counselors.--The 1998 amendments 
to the Rehabilitation Act mandate that counselors working for State VR 
agencies meet the highest state standard for persons in that profession 
(in most cases, requiring a masters degree). One third to one half of 
the incumbent counselors in many states do not meet the state's 
standard, and must be provided additional education and training, often 
at a cost of as high as $30,000 per counselor. State VR agencies are 
finding it more and more difficult to attract and retain qualified 
individuals to serve as VR counselors.
    Unfortunately, the Public VR program is severely under-funded to 
meet the mandates in the Rehabilitation Act and the challenges facing 
it. Under the current appropriation, VR can meet the needs of only a 
small percentage of eligible individuals and many State VR agencies 
have been forced to implement an order of selection (a mandated system 
where assistance is targeted to serve individuals with the most 
significant disabilities).
    The Rehabilitation Act mandates that the annual Federal 
appropriation for the Public VR Program grow at a rate at least equal 
to the change in the Consumer Price Index (CPI) over the previous 
fiscal year. Congress has not seen fit during the last 6 years to 
provide any more than the CPI increase. This is particularly 
problematic because the formula used to distribute these funds, which 
is based on a state's per capita income and population, results in 
significant variations in the increases in individual state allotments.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board
    Mr. Chairman and Members of the Committee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2003 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During fiscal year 
2001, the RRB paid $8.4 billion in retirement/survivor benefits to more 
than 700,000 beneficiaries, and $119 million in unemployment/sickness 
insurance benefits to nearly 42,000 claimants.
              president's proposed fiscal year 2003 budget
    The President's proposed budget for fiscal year 2003 would provide 
$97.72 million for RRB administrative operations, which is 
approximately the same as the amount appropriated in fiscal year 2002. 
An additional $6.39 million would be provided under the 
Administration's proposed legislation to charge Federal agencies the 
full cost of post-retirement benefits for their employees under the 
Civil Service Retirement System and the Federal Employees Health 
Benefits Program.
    We estimate that the proposed funding would be sufficient for a 
staffing level of 1,064 full-time equivalent staff years (FTE's), which 
is 37 FTE's less than we plan to use in fiscal year 2002. Consistent 
with guidance from the Office of Management and Budget, our projections 
for salary and benefits reflect an estimated increase of 2.6 percent 
effective in January 2003. The proposed budget reflects the assumption 
that we could reach the lower staffing level through attrition, 
provided that we discontinue nearly all outside hiring beginning in 
mid-fiscal year 2002, which we do not believe is reasonable given our 
current workloads. A reduction-in-force would be necessary in fiscal 
year 2003 if sufficient attrition does not materialize.
    In order to fund 1,064 FTE's, we would also need to defer obtaining 
contractual services to assist us with information technology 
initiatives, suspend subsidizing the transit benefit program for our 
employees, and impose reductions in other areas, such as training, 
travel, and supplies. Furthermore, these reductions in staffing and 
administrative resources would have an adverse impact on customer 
service. At this level of funding, the accuracy and timeliness of our 
claims processing operations would decline from the levels we expect to 
achieve in fiscal year 2002. We would also need to defer a planned 
comprehensive study to determine the causes of erroneous Railroad 
Retirement Act payments, and the development of an action plan to 
eliminate or minimize these causes. In addition, we would need to delay 
a variety of key information technology investments, including three 
Internet pilot projects that would make customer information more 
readily accessible.
    The Administration's proposed budget assumes that the RRB, as a 
trust fund agency, will continue to pay actual costs to the General 
Services Administration (GSA) for rental of space and services. If GSA 
were to charge the RRB the commercially equivalent rate for space in 
fiscal year 2003, our rental costs and total costs would increase by 
approximately $3.2 million.
    In addition to the requests for administrative expenses, the 
Administration's budget includes $132 million to fund the continuing 
phase-out of vested dual benefits, and $150,000 for interest related to 
uncashed railroad retirement checks.
           request for additional funding in fiscal year 2003
    Budget-driven cutbacks would be particularly harmful in fiscal year 
2003 because of the increased workload created by enactment of the 
Railroad Retirement and Survivors' Improvement Act of 2001. The RRB is 
already operating at maximum capacity in order to implement the 
provisions of the new law on a timely basis. As shown in our Annual 
Performance Plan, however, this has made it necessary to reschedule 
some information systems improvements and other project activities, 
which will need to be completed in fiscal year 2003 along with the 
agency's regular production work.
    We estimate that the RRB will need an additional $3.28 million in 
fiscal year 2003, resulting in a total appropriation of $101 million 
for administrative expenses under current law. This funding would 
provide for a total staffing level of 1,083 FTE's (18 fewer than the 
fiscal year 2002 funded level), and would allow us to fill critically 
important vacancies without risking the need for a subsequent 
reduction-in-force (RIF). RRB staffing has already been reduced by more 
than 35 percent since 1993 through a combination of attrition, buyouts 
and RIF's. Further significant reductions in staffing would undermine 
our succession planning efforts and jeopardize our ability to fulfill 
our mission.
    The additional funding would also allow for restoration of cutbacks 
in other important areas. An estimated $806,000 would be used for task 
orders to provide assistance with strategic information technology 
initiatives. These include:
  --Conversion of the RRB's payroll/personnel system to a new operating 
        system,
  --Development of an E-Government initiative to allow railroad 
        employers to report data over the Internet,
  --Development of an automated system to support annuity adjustments 
        based on reported earnings, and
  --Conversion of existing agency systems to a new database management 
        system.
    In addition, approximately $650,000 would be used to restore the 
subsidized transit benefit program for RRB employees, and $298,622 
would be used to restore reductions in funding for training, travel, 
and supplies.
             strategic management of information technology
    During fiscal year 2001, the RRB completed development of its 
enterprise architecture with the publication of the Common Information 
Technology Requirements Vision, Conceptual Architecture Guiding 
Principles, Technical Reference Model and various architecture domain 
documents. During fiscal year 2002, we are building upon this effort to 
develop a gap analysis and migration plan of necessary actions to reach 
the target architecture.
    While developing the gap analysis, we are actively pursuing further 
automation and modernization of our various claims processing systems. 
Automation initiatives in recent years have significantly improved 
operations and allowed the agency to reduce staffing in key areas. 
Ongoing and planned projects will further increase and enhance the 
efficiency and effectiveness of our benefit payment operations and 
program administration. Key initiatives funded at the President's 
proposed level of the budget can be grouped into two major categories, 
as described below.
    Application Design Services.--Initiatives in this category focus on 
automation projects that are critical to our long-range strategy to 
promote better customer service through automation, while lowering the 
costs and increasing the efficiency of our operations. Specific 
investments planned for fiscal year 2003 include:
  --Document imaging ($123,000).--This multi-year initiative is key to 
        accomplishing our objective of paperless processing in our 
        claims operations. These funds will be used for licensing and 
        performance-based contractual support.
  --E-Government ($425,000).--In order to meet the requirements of the 
        Government Paperwork Elimination Act, we have been developing 
        interactive electronic service capabilities. These funds will 
        be used for performance-based contractual support.
  --System development tools ($43,000).--The agency will require 
        additional software development tools to remain current with 
        the changing technologies in electronic commerce and to 
        participate in interagency initiatives that seek to better 
        coordinate data sharing among agencies.
    Technology Infrastructure Services.--These investments are required 
to establish a firm foundation for the planned technology advances and 
to maintain our operational readiness. The specific investments in this 
category in fiscal year 2003 include:
  --Information Security ($250,000).--As a result of our review under 
        the Government Information Security Reform Act, several 
        information security weaknesses were identified. These funds 
        will be used for contractual assistance ($150,000) to improve 
        our overall information security structure and to conduct a 
        vulnerability assessment ($100,000).
  --Enterprise Architecture ($100,000).--In order to close the gaps 
        between the current and target architectures, contractual 
        assistance will be used to ensure the development of an 
        efficient and effective implementation plan over the coming 
        years.
  --Enterprise Storage Lease Payment ($161,000).--In order to support 
        the growing use of electronic services, additional data storage 
        was required. After a competitive selection process, an 
        enterprise network storage system has been installed. This 
        investment represents the second year of the capital lease for 
        this equipment.
  --Standard Workstation Infrastructure ($500,000).--This represents 
        the amount required to continue the agency's policy of annually 
        replacing and upgrading one-fourth of the agency's desktop 
        computers, printers and related equipment and software needed 
        to ensure an adequate work environment.
  --Network Operations ($250,000).--This amount represents replacements 
        and upgrades to network servers and related equipment needed to 
        support a stable and efficient network throughout the agency.
                  financial status of the trust funds
    Railroad Retirement Accounts.--At the end of fiscal year 2001, the 
net position in the railroad retirement accounts was $19.8 billion, an 
increase of $1.2 billion over the previous year. In June 2001, we 
released the 2001 Section 502 Report, which projected the status of the 
retirement trust funds under three employment assumptions. The report 
indicated no cash flow problems for 25 years. These projections were 
later updated to reflect the provisions of the Railroad Retirement and 
Survivors' Improvement Act of 2001. The updated projections show cash 
flow problems only under a pessimistic employment assumption, and then 
not until calendar year 2022.
    Railroad Unemployment Insurance Accounts.--The equity balance of 
the railroad unemployment insurance accounts at the end of fiscal year 
2001 was $40.1 million, a decrease of $53.7 million from the previous 
year. The RRB's latest annual report on the financial status of the 
railroad unemployment insurance system, issued in June 2001, was 
generally favorable. The report indicated that even as maximum daily 
benefit rates rise 52 percent (from $48 to $73) from 2000 to 2011, 
experience-based contribution rates are expected to keep the 
unemployment insurance system solvent, except for the need for a short-
term loan from the Railroad Retirement Account in fiscal year 2002. 
However, projections show a quick repayment of the loan even under the 
RRB's most pessimistic employment assumption. The average employer 
contribution rate remains well below the maximum throughout the 
projection period, but a periodic resumption of the surcharge required 
to maintain a minimum account balance was also predicted. We did not 
recommend any financing changes based on this report.
    In conclusion, we want to stress the RRB's continuing commitment to 
improving our operations and providing quality service to our 
beneficiaries. Thank you for your consideration of our budget request. 
We will be happy to provide further information in response to any 
questions you may have.
                                 ______
                                 
Prepared Statement of the Council of State Administrators of Vocational 
                             Rehabilitation
    The testimony submitted is presented on behalf of the Council of 
State Administrators of Vocational Rehabilitation (CSAVR), comprised of 
the chief administrative officers of the State Rehabilitation Agencies 
in the states, the territories, and the District. These agencies 
provide services to eligible persons with mental and/or physical 
disabilities in order that they can take their place in competitive 
employment.
    You in Congress created the Public Vocational Rehabilitation 
Program over 80 years ago. Indeed, this is truly one of your success 
stories in which we hope all of you take pride.
                        csavr's recommendations
    The fiscal year 2002 appropriation for the Public VR Program was 
$2.48 billion, an increase of 3.4 percent over the fiscal year 2001 
appropriation. The President's request for fiscal year 2003 would 
combine the funding for four discretionary programs (Projects with 
Industry, Supported Employment State Grants, Recreation Projects, and 
Migrant Farm Worker Projects) into the appropriation for the Public VR 
Program. While this would provide an increase above the mandated CPI 
increase for VR (i.e., 2.1 percent for fiscal year 2003), the 
consolidation of these funding streams does not result in any new 
funding being available to serve individuals with disabilities who are 
seeking to become gainfully employed. CSAVR does not support the 
President's proposal to consolidate these funding streams. For fiscal 
year 2003, CSAVR recommends an increase of $245 million above the 
fiscal year 2002 appropriation for the Public VR Program. This 
represents an increase of 10 percent above the fiscal year 2002 
appropriation and a 7.1 increase above the President's request for 
fiscal year 2003.
                             justification
    While the Rehabilitation Act is the cornerstone of our Nation's 
commitment to assisting eligible people with disabilities to obtain 
competitive employment and to live independent and productive lives, it 
is severely underfunded. While Congress may have thought it was funding 
each of the States at least at the cost-of-living rate, this was not 
the case.
    When one considers that a Louis Harris and Associates study 
estimates that two out of every three adults with a disability are 
unemployed, and that the Rehabilitation Program has the resources to 
provide services to render persons with disabilities employable to only 
one in twenty eligible people, this underfunding constitutes an 
unacceptable tragedy for the millions of people with disabilities who 
need services in order to become employed, yet are unable to receive 
them.
    The arguments that it is better to put people to work and make them 
taxpayers as opposed to living off the taxpayers on welfare, in 
Institutions, or worse, have often been made. Common sense tells us 
these arguments are true.
    As you know, the authorizing law provides that each state is to 
receive an allotment based on whatever Congress appropriates if that 
State can provide the matching resources. The law also provides that at 
least a cost of living be added to the total appropriations each year 
and is to be considered a minimum, not a ``cap''.
    Over the last 10 years, the Public VR program has faced a number of 
challenges that have been compounded by minimal increases in Federal 
funding. Welfare-to-Work programs are increasingly turning to State VR 
agencies for employment and training services because of the high 
percentage of people with disabilities who remain on the welfare rolls. 
The work incentives provisions and the Ticket-to-Work Program in the 
Ticket to Work and Work Incentives Improvement Act of 1999 are intended 
to encourage millions of Americans who receive Social Security 
disability benefits to seek assistance in entering or re-entering the 
workforce. Many of these individuals will turn to State VR agencies for 
services, potentially placing an enormous burden on the Public VR 
Program. Implementation of the Workforce Investment Act of 1998 and the 
Supreme Court's Olmstead decision which calls for the movement of 
people with disabilities from institutions to community living will 
increase the demand for VR services leading to employment.
    As you also know, over these past few years, Congress has 
authorized considerable additional resources for Special Education. Now 
those young men and women who have been in special education are 
turning to vocational rehabilitation for services as adults. This 
``transition'' is demanding increased resources to serve these 
individuals. We believe that if we in fact can serve individuals with 
disabilities leaving school, that will deflect them from having to get 
on SSI and can help them get into the world of work and toward self-
sufficiency.
    As you are also aware, Congress placed even greater responsibility 
upon the State Vocational Rehabilitation Program, with the passage and 
promises of the Americans with Disabilities Act (ADA). The ADA promises 
to expand opportunities for all Americans with disabilities. If 
Congress in its wisdom really meant to do just that, does it not also 
need to provide the means to accomplish this mission?
    It is our belief that it is vital that the State Vocational 
Rehabilitation Program have the resources available to assist people 
with disabilities to fully realize the promise of this landmark 
legislation.
    Basic State Service Grants are the lifeblood of the Vocational 
Rehabilitation Program, financing the provision of vocational 
rehabilitation services to eligible individuals with mental and 
physical disabilities for placement in competitive employment.
    Most states have been able to get sufficient state funding in order 
to fully match the Federal appropriation. Together, these funds permit 
State Rehabilitation Agencies to provide, or to contract with private 
organizations and agencies to provide, individualized, comprehensive 
services to eligible persons with mental and/or physical disabilities, 
for the purpose of rendering these individuals employed and 
independent. Such services may include evaluation; comprehensive 
diagnostic services; counseling; physical restoration; rehabilitation 
engineering; the provision of various kinds of training and training 
supplies, tools and equipment; prosthetic devices; placement; 
transportation; post-employment services; and ``any other service'' 
necessary to rehabilitate an individual into employment.
    Basic State Vocational Rehabilitation provides services designed to 
lead to gainful employment for over 1.2 million people with 
disabilities each year. Of this number, each year over 230,000 are 
placed in competitive employment. Despite this expenditure, there still 
are not sufficient funds to serve all the eligible, disabled 
individuals who have the potential and desire to work and who need 
rehabilitation and training services to obtain employment and self-
sufficiency.
    In carrying out the Congressional mandate to give priority of 
service to the rehabilitation of individuals who are severely disabled, 
State Agencies have found that the costs--in time, effort, and money 
for services--are much greater than the cost of rehabilitating people 
less severely disabled. At the same time, it is alarming to note that 
the purchasing power of the resources available has remained virtually 
stagnant since 1980.
    With these statistics in mind, the CSAVR strongly urges that the 
Congress assist us in facing this challenge by providing Federal 
appropriations for Basic State Vocational Rehabilitation Services with 
a 10 percent (including the CPI, or approximately $245 million) 
increase over the fiscal year 2002 appropriation. The CSAVR estimates 
that nearly 125,000 more persons will receive services and over 25,000 
more will be placed in competitive employment.
    The justification for higher funding levels stems from the purpose 
for which the money is spent--the prevention of an incalculable waste 
of human potential, a purpose on which no price tag can be placed.
    Over the decades, Vocational Rehabilitation has more than paid for 
itself by helping persons with disabilities become gainfully employed; 
by increasing their earning capacity; by freeing family members to 
work; and/or by decreasing the amount of welfare payments, health 
services, and social services they might need; as well as by assisting 
them to become taxpayers. Appropriating additional monies for 
Vocational Rehabilitation Services has helped reduce the Federal 
Deficit. Indeed, the Congressional Budget Office (CBO) has stated that 
``a reduction of funds for rehabilitation . . . would generate 
increases in other parts of the federal and state budgets.''
    Funds appropriated for Vocational Rehabilitation are a sound 
investment of the Public's money.
          other programs authorized by the rehabilitation act
    The Rehabilitation Act is recognized as the most complete and well-
balanced piece of legislation in the human services field. In addition 
to the Basic State Vocational Rehabilitation Services Program, the Act 
contains provisions for (1) an innovation and expansion program; (2) a 
training program; (3) a research program; (4) a comprehensive services 
for independent living program; (5) a supported employment program; 
and, among others, (6) special projects and demonstration efforts.
    The Council strongly supports adequate funding for all Sections of 
the Act.
    We appreciate the opportunity to appear before this important 
Subcommittee today and am available to answer any questions about this 
Program and our recommendations.
                                 ______
                                 
  Prepared Statement of the American Network of Community Options and 
                               Resources
    The American Network of Community Options and Resources (ANCOR) 
appreciates this opportunity to bring attention to a proposal in 
President Bush's fiscal year 2003 budget that would eliminate funding 
for the Supported Employment State Grants program. ANCOR calls on 
Chairman Harkin and the Senate Labor, Health and Human Services, and 
Education Appropriations Subcommittee to protect funding for this 
important discretionary program that provides individuals with mental 
retardation and other significant disabilities with the supports and 
services necessary to obtain or retain employment in the community.
    ANCOR is the national organization representing over 700 private 
providers of supports and services to more than 150,000 individuals 
with mental retardation and other disabilities. ANCOR members provide 
both community-living and vocational and employment services and 
supports, including supported employment services.
    As part of its effort to eliminate funding for ineffective, 
duplicative, and overlapping job training programs, the 
Administration's proposed budget would eliminate funding for the 
Supported Employment (SE) State Grants program, a discretionary program 
authorized under the Rehabilitation Act of 1973, as amended. The 
proposal consolidates funding for SE and several other discretionary 
programs dedicated to individuals with disabilities into the Vocational 
Rehabilitation (VR) State Grants program.
    ANCOR respectfully disagrees with the Administration's statement 
that there is no longer a need for a separate supplemental source of 
dedicated funds to ensure that supported employment services are 
provided. Full and adequate funding for the SE grant program has never 
been more important than today when the nation is committed to removing 
barriers for people with disabilities living and working in their 
communities.
    Individuals with the most severe disabilities--including 
individuals with mental retardation--have traditionally been 
underserved or unserved by state VR programs.--State VR services are 
time-limited to 18 months and funding for services has traditionally 
gone to individuals who most benefit from them and can return to work 
quickly. Individuals with mental retardation and other significant 
disabilities, on the other hand, often have high-cost, long-term 
support needs that may last beyond 18 months. ANCOR members throughout 
the nation provide on-going, long-term supports and services to assist 
individuals in achieving successful employment through the SE grant 
program. Without the grant program, ANCOR members will be unable to 
provide SE services to individuals with mental retardation and other 
significant disabilities who need on-going, long-term services and who 
want to work but whose employment needs beyond what VR has historically 
provided will remain unmet by many state VR agencies.
    Individuals with significant disabilities need more, not less, 
viable employment options.--The Department of Education's 
Rehabilitation Services Administration (RSA) recently eliminated 
extended employment as an acceptable employment outcome for individuals 
with the most severe disabilities. With the 70 percent unemployment 
rate of individuals with disabilities, the Administration should not 
propose--and the Subcommittee should not support--eliminating funding 
for another viable employment option for individuals with significant 
disabilities. Eliminating funding for the SE grant program will be a 
double whammy for these individuals who are already at a disadvantage 
for receiving services from the state VR agency.
    Further, eliminating funding for SE grants goes directly against 
the Supreme Court's July 1999 Olmstead decision, which affirmed the 
right of individuals to receive services in the community. It is also 
inconsistent with President Bush's Olmstead Executive Order and his New 
Freedom Initiative commitment to eliminate barriers--including 
employment barriers--to people with disabilities.
    Eliminating funding will jeopardize the success of the Ticket to 
Work Program by undercutting one of its goals--the expansion of 
services by the private sector.--In December 1999, the Senate 
unanimously passed the Ticket to Work and Work Incentives Improvement 
Act (Public Law 107-70) (TTWWIIA), which created the Ticket to Work and 
Self-Sufficiency Program (Ticket Program). Two significant principles 
of TTWWIIA are to increase the universe of private providers who will 
assist Social Security Disability Insurance (SSDI) and Supplemental 
Security Income (SSI) beneficiaries with disabilities in obtaining 
employment and increase the employment rate of people with disabilities 
and reduce their reliance on Social Security benefits.
    Eliminating SE grant funding flies in the face of successful 
implementation of the Ticket Program and will cause more reliance on 
public assistance programs such as SSI. Private providers--serving as 
Employment Networks (ENs) under the Ticket Program--will not be able to 
provide SE supports and services that will allow individuals to retain 
employment, earn higher wages, and reduce their reliance on SSI.
    At the same time that the Ticket Program is attempting to increase 
the base of private providers, eliminating funding for the SE grant 
program only serves to erode this base. Eliminating funding for the 
state grant program sends the wrong message to current and future SE 
providers, individuals in SE, and the employers who hire them--that 
individuals with the most significant disabilities cannot work in the 
community and that they are not worthy of any chance to try.
    States will be tempted to address their own budget shortfalls.--
While the President's budget encourages states to continue funding SE 
services, ANCOR believes that states will not heed such advice. Most 
states are in a period of fiscal constraint and are calling for across-
the-board budget cuts. State VR funding is already inadequate to meet 
current responsibilities. Over half of state VR agencies were under an 
order of selection by the second quarter of fiscal year 2002. 
Consolidating SE funding into the larger VR program will only allow 
states to continue their practice of failing to meet the employment 
needs of individuals with severe disabilities, thereby preventing these 
individuals from obtaining employment and reducing their reliance on 
SSI.
    It will cost states more dollars to continue to provide SE services 
without the dedicated grant program. In contrast to the state VR 
program, the SE grant program does not require state-matched funding. 
Given states' fiscal environments, many state VR agencies are more 
likely to use additional funding from consolidation to meet the needs 
of eligible individuals who can return to work quickly with little cost 
to the VR program.
    Individuals with mental retardation and other significant 
disabilities only stand to lose from the Administration's proposal. 
ANCOR urges the Subcommittee to recognize the value of people with 
disabilities and their employment options. ANCOR respectfully requests 
the Subcommittee provide full funding for the Supported Employment 
State Grants program in its fiscal year 2003 Labor, Health and Human 
Services, and Education appropriations.
                                 ______
                                 
    Prepared Statement of the Association for Persons in Supported 
                               Employment
  supported employment state grants funding essential for vocational 
      rehabilitation services for individuals with ``most severe 
                             disabilities''
    Issue.--The Administration's fiscal year 2003 Budget requests 
Congress to eliminate the Supported Employment State Grant Program, 
along with three additional discretionary programs under the 
Rehabilitation Act, and place the funding instead into the State VR 
Grant program (Section 110, Title I), with no requirement that the 
service requirement be transferred with the funds. The separate 
Supported Employment State Grant is authorized in Title VI-C of the 
Act, and funds are distributed to each state by formula (with no state 
match) specifically for supported employment services. Under this 
program States are required to develop a separate state plan for 
supported employment, and the SE State Grant funds can only be used to 
cover supported employment services--services limited by law to 
competitive, integrated employment (with individualized supports) for 
individuals with ``the most significant disabilities.'' Supported 
employment experts across the country report that these funds are 
crucial to both direct supported employment services and to supported 
employment infrastructure and capacity building at the state and local 
levels. Rather than eliminate the program, SE advocates believe it is 
time for the funds to be increased. The program has been held at the 
current $38 million for many years.
    Background.--The Supported Employment State Grant program was 
created in 1986 when the Rehabilitation Act was amended to authorize 
the use of Title I funds for SE. This opened the doors to competitive, 
integrated employment options through the state vocational 
rehabilitation system for the first time to individuals with more 
challenging disabilities--folks who require intense and often long term 
supports in order to become employed and were the time identified by 
labels--such as MR, DD, TBI, MH, Deaf-blind, multiple disabilities, 
etc. The only experience the VR system had traditionally had in 
providing services to these individuals prior to that time was in 
extended employment services, more commonly known as sheltered 
workshops. The State Grant was established to provide incentives and 
assistance to the state VR system to include individuals with the most 
significant disabilities in their traditional employment case loads. 
The SE State Grant program has been funded as a separate ``line item'' 
by the Labor, Health and Human Services, Education and Related Agencies 
Appropriations Subcommittee since that time. Advocates in most states 
report that these designated funds are the primary reason the VR system 
provides SE services.
    The Problem with the President's Request.--The administration 
suggests that the SE State Grant ``overlaps'' with the state vocational 
rehabilitation program funded through Section 110, Title I of the Act 
and, therefore, can easily be subsumed under the Title I umbrella, 
given additional Title I funding for fiscal year 2003. The assumption 
is that extra funding is all that is necessary for the state Title I 
programs to pick up the services currently provided through the SE 
State Grant program. This is a very dangerous assumption for 
individuals with the ``most significant disabilities.''
  --Congress authorized Title VI-C as a separate program as an 
        incentive to ensure access to vocational rehabilitation for 
        these individuals. The need for continuation of this program 
        was carefully re-examined during two subsequent 
        reauthorizations. The Administration is now asking Congress to 
        change this authorization on an appropriation bill, without the 
        thoroughness dedicated to policy changes during a 
        reauthorization process. This is far more than a funding issue 
        and should at a minimum be explored when the Act is 
        reauthorized next year.
  --While states can use Title I funds for SE, most states rely on the 
        SE State Grant money for a significant number of the 
        individuals they serve in supported employment. More and more 
        states are funding SE with their Title I funding, but the SE 
        designated funds are an important incentive to do so. The funds 
        are also spent in some states on expansion of SE services to 
        un- or under-served individuals in the VR system. We believe 
        that it will be difficult for states to maintain the current 
        level of commitment to supported employment when the State has 
        access to this money to serve individuals with less intense 
        support needs.
  --The VR accountability system provides significant disincentives 
        both for the system and individual counselor to provide 
        supported employment services without designated funds. The 26 
        coded closure, assigned to cases when an individual is 
        considered rehabilitated is the benchmark used to evaluate the 
        outcomes each year of individual counselors, local VR offices 
        and the state systems. While supported employment can be 
        considered an acceptable outcome, far more time and resources 
        will be spent in securing the coveted ``26'' code in SE. The 
        counselor/office/region that spends Title I resources on 
        successful supported employment will not have as many closures 
        at the end of the year as those who use the Title I funds for 
        individuals who require less support. This puts individuals in 
        SE at a disadvantage in the Title I program.
   the importance of supported employment services and the supported 
      employment state grant line item in the appropriations bill
    The presence of SE has allowed the state VR systems to gradually 
move towards traditional competitive, integrated options. Over-all we 
know that well over 150,000 individuals (reported aggregate number if 
1996) with significant disabilities have had access to VR funded 
supported employment since its inception and the number continues to 
grow, in large part due to the SE State Grant program. Supported 
employment costs an average of only $1,255 more than sheltered workshop 
closures. Wages in supported employment are nearly double the wages for 
individuals in sheltered workshops. The average hourly wage in 
sheltered work is $2.42 while the average wage in supported employment 
is $5.42. Despite this data, only one in four individuals eligible for 
SE in the VR system has access to this service. Most remain in 
segregated settings, either in workshops or day activity centers. SE is 
the path to independence and integrated employment.
    Recent regulatory changes by the Rehabilitative Services 
Administration limiting acceptable State VR employment outcomes to 
integrated settings has increased the importance of continuing the SE 
State Grant program as both a direct service program and to build the 
badly needed infrastrucure to ensure the integrated mandate works for 
individuals with the highest support needs. The designated supported 
employment funding is important in ensuring that this change does not 
unintentionally screen individuals with the most significant 
disabilities out of the State VR system.
    Supported Employment creates invaluable partnerships with the 
business community. It is not just a placement, but an on-going 
relationship with the employer, providing the VR and other supporting 
public agencies a new and different forum for interaction with local 
businesses. Not only have there been over 150,000 placements in 
supported employment, far more businesses that have been offered and/or 
received assistance to allow them to hire and retain supported 
employees.
    Because of the implementation of the formula, some states will 
actually lose money in the Administration's scheme of collapsing these 
funds into Section 110. At a minimum it will cost the state more to 
receive the additional Section 110 funds, for these funds must be 
matched with state dollars, while the Supported Employment State Grant 
does not require a state match. The administration believes that this 
will result in more funds for SE, given the addition of the required 
state match. Our concern is that in the face of rapidly declining 
resources in state budgets, the opposite will occur and the money will 
be lost to the state instead, with the ultimate losers being 
individuals with high support needs who will lose their opportunity for 
employment.
    APSE urges the Subcommittee to restore the funding, along with an 
increase as recommended by the Consortium for Citizens with 
Disabilities, for the SE State Grant program.
    For more information, please contact:
    Celane McWhorter, APSE Director of Public Policy--703-683-1166--
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfbcbab3beb1bab29fbaadb0b3acf1bcb0b2">[email&#160;protected]</a>
    Tammara Geary, APSE Executive Director--804-278-9187--
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7b3a6aaaaa6b5a687a6b7b4a2e9a8b5a0">[email&#160;protected]</a>
                                 ______
                                 
            Prepared Statement of Kelly Shupal, Houston, TX
    I am writing in regard of concern for Projects With Industries 
Program (PWI).
    Our local PWI program has helped numerous individuals over the 
years overcome barriers to employment and return to gainful employment. 
PWI is important to people with disabilities and businesses in Texas. 
It has been helpful in placing individuals with disabilities back into 
suitable gainful employment.
    I am requesting that as a member of the Senate Appropriations 
Subcommittee that you please consider maintaining federal funding for 
PWI and the other discretionary programs in the Rehabilitation Act as 
well as the basic state grant program Funding for PWI should be $50 
million for next year (fiscal year 2003).
    Here are some of the last several years statistics showing gainful 
outcomes.

------------------------------------------------------------------------
                               10/97-9/   10/98-9/              10/0-09/
                                  98         99     10/99-9/0      01
------------------------------------------------------------------------
Number of Customers Served..        224        250        245        233
Number of Customers Served /        140        115        137        199
 w Significant Disabilities.
Total Number of Customers            83        105        104        139
 Placed.....................
Average Hourly Wage.........      $8.35      $8.46      $8.82      $8.66
------------------------------------------------------------------------

    Thank you for your consideration for support of a good program.
                                 ______
                                 
               Prepared Statement of The American Legion
    The American Legion appreciates the opportunity to submit our views 
on the fiscal year 2003 budget as it pertains to the Veterans 
Employment and Training Service (VETS) within the Department of Labor 
(DoL).
    The mission of VETS is to promote the economic security of 
America's veterans. This stated mission is executed by assisting 
veterans in finding meaningful employment.
    Annually, DOD discharges approximately 250,000 service members. 
These recently separated service personnel actively seek employment or 
prepare to continue their formal or vocational education. The veterans' 
advocates within the VETS program play a significant role in helping 
these recently separated service personnel to reach their employment 
goals.
    The employment and training benefits offered through the VETS 
program are invaluable to transitioning servicemembers.
  --VETS continues to improve by expanding its outreach efforts with 
        creative initiatives designed to improve employment and 
        training services for veterans.
  --VETS provides employers with a labor pool of quality applicants 
        with marketable and transferable job skills.
  --VETS took the initiative in identifying military occupations that 
        require civilian licenses, certificates or other credentials at 
        the local, state, or national levels.
  --VETS helps to eliminate barriers to recently separated service 
        personnel and assists in the transition from military service 
        to the civilian labor market.
    VETS has begun an information technology project with the Computing 
Technologies Industry Association, to recruit veterans recently 
separated from the military; assess their interest and skill level for 
a career in information technology; provide occupational skills 
training and certification; and place these veterans into information 
technology jobs. VETS continues to expand its PROVET (Providing Re-
employment Opportunities for Veterans) program. PROVET is an employer-
focused job development and placement program that focuses on 
screening, matching and placing job ready transitioning service members 
into career-building jobs. PROVET programs are currently operating in 
several States. In addition to employment services, VETS also supports 
the Transition Assistance Program (TAP), the Disabled Transition 
Assistance Program (DTAP), Veterans Preference in the Federal 
workplace, and the Uniformed Services Employment and Re-employment 
Rights Act (USERRA).
    The American Legion strongly recommends restoring funding for the 
Assistant Secretary for Veterans Employment and Training Service 
(ASVET) within DoL's fiscal year 2003 budget at a funding level of $300 
million.
    Staffing levels for Disabled Veterans' Outreach Program (DVOP) 
Specialists and Local Veterans' Employment Representatives (LVERs) 
should match the Federal mandates or those statutes should be 
rewritten. The American Legion supports an additional $54 million and 
$38 million respectively for the DVOP and LVER programs for fiscal year 
2003 funding. These increases will allow the programs to raise staffing 
levels to adequately provide comprehensive case management job 
assistance to disabled and other eligible veterans.
    The American Legion strongly opposes any attempt to move VETS to 
the Department of Veterans Affairs (VA).
    DoL is the nation's leading agency in the area of job placement, 
vocational training, job development, and vocational counseling. Due to 
the significant barriers to employment experienced by many veterans, 
VETS was established to provide eligible veterans with the services 
already being provided to job ready Americans. Working with the local 
employment service offices, VETS gave eligible veterans the 
personalized assistance needed to assist in the transition into the 
civilian workforce. VA has very limited experience in the critical 
areas of job placement, vocational training, job development, and 
vocational counseling through its Vocational Rehabilitation Program. A 
side-by-side comparison of VETS and Vocational Rehabilitation Program 
success rate in actual job placement would prove to be very revealing.
    If VETS were to transfer to VA, funding for the agency, which now 
comes from the Federal Unemployment Trust Account, would have to derive 
from some other source since moving the agency would place it under VA 
line item in the Federal budget. This forces the agency to compete with 
NASA, HUD and other Federal agencies for scarce resources.
    In the President's budget request for fiscal year 2003, he proposes 
to add $197 million to VA's budget for a new competitive grant program 
that replaces programs currently administered by the DoL. The American 
Legion expressed opposition to a similar recommendation proposed by the 
Congressional Commission on Service members and Veterans Transition 
Assistance in 1999.
    The American Legion recommends an increase in NVTI budget to $3 
million annually.
    The National Veterans Training Institute (NVTI) provides 
standardized training for all veterans' employment advocates in an 
array of employment and training functions. Some suggest that moving 
VETS to VA would improve the overall performance of VA's Vocational 
Rehabilitation Program (Voc Rehab). Others would argue that moving Voc 
Rehab to VETS in DoL would be a much better approach. Nearly all VETS 
employees attend NVTI and receive continuing training, whereas few (if 
any) Voc Rehab employees ever attend NVTI training. The American Legion 
perceives the relationship between VETS and DoL to be much more germane 
than VETS and VA.
    The American Legion recommends that $5 million of VETS funding be 
provided for incarcerated veterans' education and transition assistance 
programs beginning in fiscal year 2003.
    Currently there is minimal to no effort being made in providing 
meaningful outreach to incarcerated veterans. All too often, the state 
prison systems are failing to provide adequate vocational and life 
skills training to inmates that are nearing their release dates. VETS 
could provide meaningful assistance to veteran inmates. The Federal 
government, in cooperation with individual states, must provide 
effective outreach services to incarcerated veterans to assist in a 
successful transition to a crime free civilian life.
    The American Legion recommends $30 million be provided for veterans 
training programs similar to the Service Members Occupational 
Conversion and Training Act (SMOCTA).
    SMOCTA was developed as a transitional tool designed to provide job 
training and employment to eligible veterans discharged after August 1, 
1990. Veterans eligible for assistance under SMOCTA were those with a 
primary or secondary military occupational specialty that the 
Department of Defense (DOD) has determined is not readily transferable 
to the civilian workforce; or those veterans with a service connected 
disability rating of 30 percent or greater.
    Those eligible veterans received valuable job training and 
employment services through civilian employers that built upon the 
knowledge and job skills the veterans acquired while serving in the 
military. This program not only improved employment opportunities for 
transitioning servicemembers, but also enabled the federal dollars 
invested in education and training for active duty servicemembers to be 
reinvested in the national job market by facilitating the transfer of 
skills from military service to the civilian workforce.
    The American Legion welcomes the opportunity to work with the 
Assistant Secretary for Veterans' Employment and Training and his staff 
to improve and enhance the overall performance of VETS. However, The 
American Legion believes reinventing the wheel within VA would be 
counterproductive and ineffective. The American Legion believes that 
many of VETS problems stem from persistent inadequate Federal funding, 
failure to be staffed at Federally mandated levels, and inconsistent 
leadership at the local, state, and national levels.
    The VETS program is one of the best-kept secrets in the Federal 
government. It is comprised of many dedicated individuals who simply 
cannot maintain a quality program without substantial funding and 
staffing increases. The American Legion believes the VETS programs is a 
good investment; one that actually returns money to the United States 
Treasury. This program cannot continue to be neglected without 
experiencing a serious diminution in service.
    Thank you for allowing The American Legion to express its views on 
this critical issue.
                                 ______
                                 

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

          Prepared Statement of the National Marfan Foundation
    The members of the National Marfan Foundation (NMF) thank you for 
the opportunity to provide written testimony in support of the budget 
of the National Institutes of Health (NIH) and the National Institute 
of Arthritis, Musculoskeletal and Skin Diseases (NIAMS). This is the 
second year that the NMF is submitting written testimony on its own. We 
have been previously included in the written and spoken testimony of 
the Coalition for Heritable Disorders of Connective Tissue (CHDCT). We 
would first like to express our gratitude of the Committee's on-going 
support of NIH research, and most particularly their support for 
increased funding for research on rare and genetic disorders--research 
that might not otherwise have been funded.
    The NMF believes that the Congress should strive to reach the 
intended goal of the doubling the NIH budget by fiscal year 2003. The 
NMF joins the Ad Hoc Group for Medical Research Funding, in asking that 
Congress support the bipartisan goal of doubling the NIH budget by 
approving a $27.3 billion for fiscal year 2003--a sentiment shared by 
the President, the Congress and the American people. The NMF along with 
the Coalition of Heritable Disorders of Connective Tissue, the NIAMS 
Coalition, and the Coalition of Patient Advocates for Skin Disease 
Research urges Congress to provide $520.9 million for NIAMS in fiscal 
year 2003, which is a 15.7 percent increase.
    The Marfan syndrome is a potentially fatal, relatively rare genetic 
disorder of the connective tissue which results in manifestations 
within in the cardiovascular, skeletal, ophthalmologic and pulmonary 
systems making it extremely difficult to manage. The NMF represents 
people affected with the Marfan syndrome. Voluntary health 
organizations such as ours consistently hear the frustrations, 
confusion and despair of people who deal with the daily medical issues 
associated with genetic disorders. In multi-systemic disorders such as 
Marfan syndrome, numerous physicians in specialties such as cardiology 
and cardiovascular surgery, orthopedics, ophthalmology, respiratory/
pulmonary, neurology, and genetics must be consulted to manage the 
manifestations of this syndrome. The families are distraught from the 
overwhelming emotional turmoil of dealing with so many doctors and the 
fear of losing their life at an early age, not to mention the 
tremendous monetary burden. These circumstances are multiplied many 
times over since this genetic disorder can affect more than one family 
member and more than one generation.
    It is estimated that approximately a quarter of a million people in 
the United States are affected by the Marfan syndrome and relate 
disorders. The Marfan syndrome is a potentially fatal, genetic disorder 
of the connective tissue. The Marfan syndrome is a multi-system 
disorder because the connective tissue is essentially the glue and the 
scaffolding of the body, and manifests itself in the heart, eyes, 
skeleton and blood vessels. Individuals with the Marfan syndrome are 
uncharacteristically tall, with arms, legs, toes and fingers that are 
disproportionately long and thin. Typically, patients also have poorly 
developed muscles and abnormally curved spines.
    The life-threatening aspect of this disorder is the weakening of 
the aorta, the largest artery that supplies blood to the heart. In the 
Marfan syndrome, the abnormalities in the connective tissue place a 
great deal of stress on the aortic artery and significantly weaken the 
walls of this most important blood vessel. Tears form in the walls of 
the aorta and death can only be prevented by surgical intervention. 
However, even with the diagnosis and management of the disorder, 
complications of all sorts do arise and unfortunately is still taking 
the lives of young people. For example, the Kiefer Family from Iowa has 
been fighting this uphill battle for years. Here is her story.
    Our family struggles with Marfan syndrome go back to 1989.
    Senator Harkin, you know some of the struggles our family has been 
dealing with trying to increase funding for medical research. In 
October of 1989, our phone rang at 4 a.m. It was our daughter-in-law 
informing us our son, Scott was at Mercy Hospital with severe chest 
pain and could we please come. On the way to Des Moines we discussed 
what could possibly be wrong with someone who had always been so 
physical. Scott had been a U.S. Marine, an Iowa National Guardsman, an 
avid runner, a rappeller, a bicyclist and involved with the YMCA. The 
news at the hospital was not good. An echocardiogram was done and I 
heard the Dr. say--I believe he has an aortic aneurysm. An angiogram 
was performed and revealed an aortic RUPTURE. Blood was pouring into 
his chest cavity. Surgery had to be performed immediately. He was given 
a 50/50 chance of survival. Miraculously, he did survive and within the 
next 2 weeks he developed pneumonia and had a pacemaker implanted to 
help his damaged heart
    Scott's life had to change drastically and he wasn't easy for ``a 
seemingly healthy young man with a family.'' Medicines every day that 
had to be monitored carefully, restrictive physical activity and 
learning how to deal with a genetic disorder that could take his live 
at a young age.
    Our family lives also changed. Within 2 weeks of Scott's surgery, 
my husband and our two daughters were diagnosed with Marfan. Everyone 
in my family was diagnosed. I was certain they would die and I would be 
left alone. Thirteen years ago, information on Marfan syndrome was 
slim. Our family was one of the pioneers in genetic testing because we 
were a three-generation family. It took 3 years for two of our six 
grandchildren to be diagnosed with Marfan. They are our youngest 
daughters children, now ages 13 and 16 and they both have aortic 
involvement. Our family does not exhibit many of the typical Marfan 
characteristics. However, they all have aortic involvement and the 
aorta is one thing you cannot live without.
    I became involved with National Marfan Foundation in 1989 and 
became a board member in 1990. The foundation is my strength in the 
struggle with Marfan syndrome.
    I have testified before this committee before. It was a great 
experience for me. I always say, ``I hate what Marfan has done to my 
family, but it did make me an assertive person.'' Scott also testified 
before the Senate and the House committee hearings.
    My husband and Scott did continue to have problems. My husband has 
been hospitalized twice with atrial fibrillation and is on medications. 
Scott had to have surgery in 1995 for an abdominal aortic aneurysm and 
had a continuing struggle with proper medication.
    Unfortunately, Scott had to have a third surgery in June 2001. His 
artificial graft had grown to the scar tissue of the first surgery and 
was pulling the artificial graft away from the heart. Scott did not 
survive the surgery. Let me tell you as a parent, to lose a child (even 
if he was 44), I believe it is the worst possible tragedy a parent can 
experience. A loss to big to comprehend. We will never be the same. He 
was a great husband, a fantastic father, the most loving son, a 
protective brother, a supportive uncle and a true friend to many. He 
was the Public Information Specialist for the State of Iowa Human 
Services. He was finding success as a stand-up comedian. It was 
something he really enjoyed.
    My husband is now facing surgery to repair his aorta. He is 66 and 
we are frightened to have to go through the surgery. Our daughters are 
42 and 38, mildly affected with Marfan syndrome, both having aortic 
aneurysms. They are on beta-blockers and are doing well at this time.
    At the NMF conferences, the Marfan specialists strongly suggest 
children be prescribed beta-blockers as soon as they are diagnosed to 
reduce the stress on the aorta. We actually had to plead with our local 
pediatric cardiologist to prescribe them for our grandchildren. Looks 
like our grandson has more aortic involvement than our granddaughter. 
The need for expanded research and education is required.
    Many lives are lost to Marfan syndrome and other disorders and 
other diseases. Medical research holds the key to answers, better 
therapies, and cures for genetic disorders, cancer, diabetes, heart 
disease and hundreds of others. Medical research could also help to 
educate health professionals on many disorders. Education is a goal of 
the NMF. There is much work to be done.
    I know first hand Senator Harkin is large supporter of medical 
research. We have had many conversations on this subject. He knows 
medical research is vital to all. I am proud Senator Harkin represents 
the state of Iowa and is the chair of this committee. Senator Harkin 
and committee members, I am asking you to support expanded research on 
behalf of my family, the NMF and thousands of others who will benefit 
from the increase in funding. Increased funding will someday help other 
families so they never have to lose a very special person in their 
lives. Thank you for allowing me to relate our personal story of our 
struggle with Marfan syndrome.
    It is stories such as these that move us to advocate for this 
Committee's support for increased research funding. Research is the 
only hope for Marfan-affected individuals.
    To this day ignorance still exists on how to adequately diagnose 
the Marfan syndrome. Many people die at a young age in the emergency 
room with a ruptured aorta because these people were never diagnosed. 
One of the main problems is that there is no simple diagnostic test for 
this multi-system disorder. Because most features of the Marfan 
syndrome progress with age, the diagnosis is often more obvious in 
older persons however, this can turn out to be deadly. Furthermore, 
those persons who are considered to be candidates of this syndrome but 
cannot get a precise diagnosis must also continually monitor themselves 
since the symptoms manifest over time. Research is desperately needed 
in this area. Development of a rapid molecular diagnostic test could 
save thousand of lives.
    Research into the basic mechanisms of the Marfan syndrome has borne 
fruit. In 1991, scientists discovered the cause of the Marfan syndrome, 
an alteration of the gene that encodes the protein fibrillin-1. 
Although this important finding did not lead us directly to a cure, it 
has allowed scientists to focus their research to look for answers to 
more specific questions. More research is needed to determine how this 
mutant gene actually produces the change in human biology that leads to 
this disease and is responsible for variability within the syndrome 
from mild to extremely severe cases. Additional basic research in 
molecular studies will also help us to fully investigate the 
interaction of the fibrillin-1 gene product with other molecules in the 
extracellular matrix to better understand pathogenesis of this disease. 
The use of this knowledge to develop a genetic manipulation strategy to 
eventually cure this disease is becoming technically feasible but is 
years away. In the meantime, more immediate issues need to be dealt 
with.
    Clinical research is needed to identify strategies and therapies 
for reducing aortic enlargement, to determine the optimal time for 
surgical intervention and to predict risk for aortic dissection. This 
is extremely important to save lives as noted in a recent letter to the 
NMF. A young woman writes ``My cousin's 17 year-old daughter died with 
a ruptured aortic aneurysm. She knew she had Marfan syndrome and had 
echocardiograms every 6 months. Her aorta was not large enough for 
surgery but she must have not read the book, because she died anyway. 
She had an echocardiogram just 6 weeks before she died.'' It is stories 
such as these that alert us to the fact that much more research is 
needed in this most crucial area. It is imperative to determine what 
are the clinical features and presentations of acute aortic dissection 
in Marfan patients and how is this different from non-Marfan patients.
    Clinical research can also offer more solutions to be used 
immediately to alleviate some of the pain and disabling effects such as 
curvature of the spine, dislocated lenses in the eye, and abnormalities 
in the heart valves. Clinical research of treatments for back pain due 
to scoliosis and more specifically for dural ectasia, the enlargement 
of the membrane that surrounds the brain and spinal cord, are 
desperately needed to reduce the amount of pain and suffering endured 
by Marfan-affected individuals.
    Funding biomedical research through the NIH is today's investment 
in America's future. The technology and the science are available to 
understand and ultimately cure or eradicate many of these devastating 
genetic disorders. Support for the NIH is especially crucial to 
unlocking the mysteries of rare diseases, such as the Marfan syndrome. 
We need your support.
    Mr. Chairman, there is another important topic that the NMF must 
address in our testimony. Our members expect to benefit in 
extraordinary ways from the incredible success of the Human Genome 
Project. In fact, they already have. However, the NMF cannot stress 
enough the importance of this subcommittee understanding that we are 
really at the end of the beginning stage. If we as a society fail to 
take the next steps to fully develop the potential that has been 
unleashed by sequencing the human genome, it will be a mistake with 
very real health consequences for very real people.
    Thanks to the Human Genome Project, we know the sequence of DNA. 
Now, we have to identify every gene, learn their functions, learn how 
they contribute to disease and determine what can be done about it. The 
President's request for the National Human Genome Research Institute is 
the minimal amount that needs to be done. Obviously, with the enormity 
of the task ahead, additional funding can only enhance and expedite the 
advances that we all seek. Your committee's support for this funding is 
critical and we urge you to do all you can to encourage this vital 
work.
                                 ______
                                 
             Prepared Statement of the National MPS Society
    My name is Les Sheaffer, I serve on the Board of Directors of the 
National MPS Society and as Chairman of the Committee on Federal 
Legislation. My 9 year old daughter Brittany suffers from MPS III. I am 
submitting this testimony for the purposes of expressing the views of 
the National MPS Society with respect to congressional appropriations 
for the National Institutes of Health and biomedical research 
priorities and issues.
    I wish to offer my thanks to Chairman Harkin and the members of the 
Subcommittee for their continuing support for enhanced investment in 
genetic and biomedical research, training and infrastructure at the 
National Institutes of Health.
    There are 11 primary types of Mucopolysaccharidosis (MPS) and 
Mucolipidoses (ML) are genetic Lysosomal storage disorders caused by 
the body's inability to produce certain enzymes. Normally, the body 
uses these enzymes to break down and recycle dead cells. In affected 
individuals, the missing or insufficient enzyme prevents the normal 
breakdown and recycling of cells resulting in the storage of these 
deposits in virtually every cell of the body. As a result of the 
storage, cells do not perform properly and cause progressive damage 
throughout the body including the heart, bones, joints, respiratory 
system and central nervous system. While the disease may not be 
apparent at birth, signs and symptoms develop with age as more cells 
are damaged by the accumulation of deposits. The most unfortunate 
result of these disorders is childhood mortality in many cases.
    MPS research has gained momentum in recent years, private sector 
investment, funding of research by non profit organizations, improved 
technology, increasing collaboration and the essential federal 
investment in valuable MPS and ML related research on the part of the 
National Institutes of Health have all contributed to a better 
understanding of these disorders.
    The average MPS researcher obtains approximately 85 percent of the 
funding they utilize for MPS and ML research projects from the National 
Institutes of Health and roughly 60 percent of these investigators have 
2 or more grants at any given time. These statistics are based upon the 
results of a poll of the Scientific Advisory Board of the National MPS 
Society in 2000. Clearly, strong federal funding of MPS related 
research is essential to ensure investigators have resources needed to 
perform critical research pursuing development of effective therapies 
for MPS and ML disorders.
    The primary institutes supporting MPS related research include the 
National Institute of Diabetes Digestive and Kidney Diseases (NIDDK), 
National Institute of Neurological Disorders and Stroke (NINDS), 
National Heart Lung Blood Institute (NHLBI) and National Institute of 
Child Health and Human Development (NICHD), additionally resources for 
development and maintenance of animal models is supported by the 
National Center for Research Resources (NCRR).
    The NINDS is sponsoring a scientific conference to be held in 
September of 2002 bringing key investigators in the current MPS 
research community together with professionals in relevant fields to 
explore ``Mucopolysaccharidosis--Therapeutic Avenues in the Central 
Nervous System''. This conference is being supported by the NIDDK, the 
institute that has historically had the largest investment in MPS 
related and the Office of Rare Diseases.
    We look forward with great anticipation to meaningful collaborative 
research efforts that may result from this event and potential issuance 
of Requests for Applications and or other mechanisms providing for 
enhancement of support and stimulation of activity of critical research 
that contributes to the development of effective treatments to improve 
the quality of life and ultimately save the lives of many children and 
individuals suffering from these deadly disorders.
    As you know Requests for Applications (RFA) are a valuable funding 
mechanism for stimulating research in a targeted area. For example we 
are hopeful the RFA soliciting proposals for Gene Therapy for 
Neurological Disorders (NS-02-007) may benefit many disorders including 
Lysosomal Storage Disorders (LSD) the family of disorders to which MPS 
and ML belong. The progression of neurological damage in MPS disorders 
is a profound threat to the lives of MPS children and has yet to 
effectively treated or managed in any MPS disorder.
    Targeted funding mechanisms with a concentrated focus on proposals 
addressing MPS Central Nervous System (CNS) issues will in our view 
will present a meaningful contribution to filling the gaps in important 
current research and address one of the most critical elements of the 
progression of MPS disorders, as noted above, the continued damage to 
the central nervous system and the current inability to deliver 
effective treatments to the brain.
    In light of these facts it is clear that resources and 
infrastructure to support intramural and extramural research are 
essential to ensuring current MPS and ML related research is supported 
and resources are available to take advantage of the promising research 
proposals we expect to see in the near future.
    Therefore on behalf of the Board of Directors and the membership of 
the National MPS Society I wish to express our steadfast support for 
the proposed NIH budget increase of 15.7 percent over fiscal year 2002 
bringing the total fiscal year 2003 budget to $27.3 billion, completing 
the Congress and administrations goal of doubling the NIH budget over 5 
years.
    Continued strong funding of the NIH will remain essential to ensure 
the continued advancement of basic research science and understanding 
of thousands of diseases affecting society, diseases that like MPS and 
ML rob the quality of life, financial stability and ultimately the 
lives of millions of American children and adults.
    In closing I wish to again thank the members of the Labor Health 
and Human Services Subcommittee for your continued dedication to 
medical research and the completion of the Congressional commitment to 
double the budget of the National Institutes of Health. It is our 
sincere hope that future budget and appropriations decisions continue 
to reflect the advancement of and investment in medical research as the 
highest possible priority for years to come. Our children and those of 
future generations deserve nothing less.
                                 ______
                                 
        Prepared Statement of the Sjogren's Syndrome Foundation
                              introduction
    Sjogren's syndrome (pronounced SHOW-grens) is one of this country's 
most prevalent autoimmune diseases, striking as many as 4 million 
Americans, ninety percent of whom are women. This disease devastates 
the lives of those who suffer from it, yet we still know little about 
what causes Sjogren's or how to treat it.
    The Sjogren's Syndrome Foundation (SSF) is doing all it can with 
its limited resources to encourage and support studies to increase 
understanding of this illness, but we need more help from NIH and other 
federal research agencies. We believe our country's scientific 
establishments are at a point where significant headway can be made in 
increasing our understanding of this terribly debilitating disease. Our 
Foundation and those afflicted by this disease desperately need the 
help of the NIH to accomplish our goal of increased understanding of 
the cause and effective treatment of Sjogren's.
    At the end of this presentation are specific suggestions of what we 
think can and should be done. Before making these recommendations, 
however, we will state what Sjogren's syndrome is, how it has affected 
the lives of particular individuals, and where current research is 
leading us.
                      what is sjogren's syndrome?
    In Sjogren's syndrome, the immune system turns against one's own 
body. Moisture-producing glands are primary targets, resulting in 
hallmark symptoms of dry eyes and dry mouth. These symptoms alone can 
be devastating. If not treated, dry eyes can lead to corneal ulcers and 
abrasions and potential blindness. Even with treatment, dry eyes cause 
pain, frequent eye infections, and blurred vision. The few treatments 
available--moisture drops and salves and closure of the puncta to 
decrease tear drainage--are palliative and don't correct the problem; 
they are also expensive and over-the-counter costs are often not 
covered by insurance.
    Untreated dry mouth can lead to rampant caries, gum disease, and 
loss of teeth. The lack of saliva to protect the lining of the mouth, 
throat, tongue, and digestive tract, leads to chronic burning, pain, 
susceptibility to yeast infections, and intolerance for many foods. 
Those with dry mouth suffer from difficulty swallowing and talking and 
problems with digestion and reflux. Many with Sjogren's do not have 
dental insurance, and even if they do, insurance often does not cover 
costs resulting from Sjogren's.
    Because moisture-producing glands exist throughout the body, the 
impact of dryness extends to the lining of the lungs and 
gastrointestinal and urinary tracts, the ears, nose, sinuses, throat, 
vagina, and skin. Autoimmune inflammation and destruction in Sjogren's 
can affect any body organ and system, including the pancreas, thyroid, 
liver, and gastrointestinal, vascular, nervous, and urinary and 
reproductive systems. Debilitating joint and muscle pain are common. In 
addition, maternal antibodies associated with Sjogren's can cause fetal 
heartblock. Sjogren's can also result in lymphoproliferative disorders, 
leading to development of non-Hodgkins lymphoma at a rate that is 44 
times higher than in the general population.
                            personal impact
    Realizing in human terms what it is like to live with a disease 
that takes no day off best demonstrates why research truly is so 
important. A few of the stories our Foundation has recently received 
follow:
    Billie from North Carolina writes us: ``My short story is a painful 
one, but I think quite common--it is one of the struggle for diagnosis, 
the friends you lose, the marriage that fails, the health insurance you 
can't get, treatment costs that make it a hardship to live, the 
struggle to find meaning in life when you are alone and no one believes 
you.''
    Susan Meyer from Connecticut writes: ``Before being diagnosed with 
Sjogren's syndrome, I was once sent home from work because the nurse 
thought I had contagious mumps due to swollen parotid (salivary) 
glands. I was told not to return without a doctor's note. I saw several 
physicians at that time, but no one could diagnose the problem. I was 
finally diagnosed at 31, and since that time have experienced the 
following: eyes so dry and sensitive to light that I would sit in a 
stall in the ladies room at work for 10 minutes just so I could close 
my eyes; eyes so red and swollen that I was too self-conscious to look 
directly at people; vasculitis (inflammation of the blood vessels) 
which would develop into open sores on my legs and feet and eventually 
prompted treatment with cyclophosphamide, a form of chemotherapy, which 
then put me into early menopause at the age of 38; I have taken 
corticosteroids for 8 years putting me at risk for osteoporosis and 
cataracts; I have fatigue and muscle weakness which sometimes makes 
even getting dressed too tiring. Sjogren's patients are also at risk 
for developing non-Hodgkin's lymphoma, which I was diagnosed with at 
the age of 37.''
    Dr. Teri Rumpf from Boston writes: ``I received my PhD, my first 
job offer, and my first incorrect diagnosis all in the same month. I 
was a 36-year old single mother, with a great deal of enthusiasm and no 
time to be sick. I needed to work, but it was a struggle to get up, get 
dressed, and get my son off to school each morning . . . . My illness 
had been sending out signs and signals for years, but no one was really 
paying attention. It took 9 years to establish the diagnosis of 
Sjogren's syndrome, and after such a long time, it was a relief to have 
a disease with a name, even if no one had heard of it. Eventually, my 
body failed me, and I have had a continual fight to remain on 
disability. I feel that it is very difficult to be ill with any dignity 
in this country and that people are punished twice, once by the burden 
of the illness and once by the lack of support for people with chronic 
illnesses.''
    Joan Manny from Maryland writes: ``My symptoms of Sjogren's 
syndrome became a burden for me and my family. The almost constant 
vasculitic symptoms (leg rashes called petechiae or purpura, swelling, 
pain and stiffness and occasionally an agonizing itch) made it 
difficult to plan family activities. By the end of the day my shoes no 
longer fit because of the swelling of my feet and legs, and without 
energy to do anything else, I spent evenings sitting with my feet 
elevated. When I awakened in the morning, my mouth was dry as paper, 
and the mucus that had accumulated in my lungs was so thick that it 
took about an hour in the morning to cough it up. I waited until the 
rest of the family left the house each day, because the sound of my 
coughing almost made them sick . . . Sleep became difficult. I have had 
frequent, painful parotid swelling usually accompanied by a low-grade 
fever and red, irritated eyes due to the constant dryness despite the 
frequent use of artificial tears. My children are grown now, and my 
dryness is better because of a drug studied at NIDCR, but I still 
suffer from difficult symptoms and look forward to a day when, finally, 
there might be a cure.''
                        appropriations language
    Sjogren's syndrome was first identified over 100 years ago, causes 
serious medical problems and devastation of quality of life for up to 4 
million Americans, and yet little is known about its causes or 
treatment.
    Part of the mission of the Sjogren's Syndrome Foundation is to find 
ways to increase research in Sjogren's so patients and their caretakers 
will have practical and successful treatment options to help make their 
lives better. SSF funds initiatives that will increase the likelihood 
of more research, provides grants to private researchers, and has 
partnered and offered partnerships with NIH to increase interest in 
supporting Sjogren's initiatives.
    Through these initiatives by SSF, the first international 
classification criteria on Sjogren's have been developed. This is 
critical to future progress in Sjogren's research, especially 
epidemiological studies; researchers now have a common frame of 
reference by which to include patients in their studies. A proposed 
major study on dry eye epidemiology and outcome measures, once 
considered by NEI, holds even greater promise now because of the 
Foundation's success in developing this international consensus on 
criteria, and we are working with NEI to resurrect that study. We are 
now supporting the development of outcome measures based on these 
criteria, which will open more avenues for research. Finally, a 
promising new Sjogren's mouse model for basic scientific studies is 
available, and the Foundation expects to work with the developer in 
making the model available.
    We recognize that our efforts--while significant--cannot bring 
about the major breakthroughs we need without federal help. That is why 
we are requesting federal attention be directed toward research into 
the causes, treatments, and a cure for Sjogren's syndrome.
    We are grateful for the help given by the Senate HHS appropriations 
subcommittee last year--for the first time, Sjogren's was mentioned in 
text accompanying an appropriations bill. It is too soon to determine 
precisely how effective that language will be, but we are heartened by 
increased discussions with NIH. We need recognition of the magnitude of 
the problems related to Sjogren's and action based on that recognition; 
continued reference to the need for Sjogren's research in 
appropriations text can help bring this about.
    Symptoms of and medical problems caused by Sjogren's syndrome cross 
many specialties and are relevant to the missions of many institutes at 
NIH. Sjogren's does not have just one natural home within NIH. In 
addition to research on dry eyes and dry mouth, we need research on 
musculoskeletal, immunological, gastrointestinal, lung, reproduction, 
endocrine, and nervous system manifestations and the crossover from an 
autoimmune process to cancer. Research about diseases 
disproportionately affecting women, studies related to aging, and 
complementary therapies are areas of great interest to patients with 
Sjogren's.
    SSF has initiated discussions with pertinent NIH institutes and 
taken an active role in the compilation of the NIH Autoimmune Diseases 
Research Plan. The inclusion of Sjogren's syndrome in the 2002 
appropriations bill gave extra weight to our requests, and we are 
grateful for that. We continue to encourage NIAMS and NIAID to find a 
way to honor our request in the 2002 NIH-Sjogren's language that they 
recognize Sjogren's to be part of their mission and include it in their 
portfolio of grants.
                             nidcr and nei
    NIDCR has taken a leadership role in investigating Sjogren's. This 
institute houses the Sjogren's Syndrome Clinic, which provides patient 
treatment, referral to other institutes for additional treatment, and a 
natural history study and ongoing clinical trials. The intramural 
program completed studies over the past year on 6 medical aspects of 
Sjogren's syndrome, is conducting pilot clinical trials on 4 drugs that 
might help those with Sjogren's, and is collaborating on autoantibody 
studies in Sjogren's. The Gene Therapy and Therapeutics Branch is 
conducting studies in Sjogren's animal models and tissue engineering. 
NIDCR currently supports 9 extramural research projects, including 
promising studies on muscarinic receptors.
    We gratefully acknowledge and thank the Senate subcommittee for 
supporting the doubling of the NIH budget over a 5-year period. We urge 
members to recognize that some institutes, such as NIDCR, do not 
receive the increased budget in proportion to other institutes.
    NEI also provides major federal support of Sjogren's, treating 
patients from NIDCR's Sjogren's Syndrome Clinic and most recently 
investigating Cyclosporin A for treatment of dry eye. NEI currently 
funds 19 extramural studies on Sjogren's and dry eye, the largest 
number of extramural grants at NIH on Sjogren's-related studies.
    We request that NIDCR and NEI are supported in current endeavors, 
and that they are urged to expand their support of investigations in 
Sjogren's. NIDCR is considering launching an international registry for 
Sjogren's, and we are discussing a major dry eye epidemiology study 
with NEI. Both are desperately needed if we are to make greater 
progress. The opportunities exist, the interest is there, and we need 
the urging of Congress to enable NIH to include appropriations for 
these projects.
    We have incredible opportunities ranging from immunology to cell 
biology, from drug development to genetic engineering, which might 
eventually bring about changes to actually block Sjogren's from 
developing. Investigations into complementary medicine can be expanded 
to encompass more studies on Sjogren's. We have unprecedented 
opportunities for research in the areas of immunomodulation, gene 
therapy, and creation of artificial glands. We are making new 
discoveries in the area of antibodies targeting muscarinic receptors 
and secretegogues, we have an internationally agreed upon definition 
for our disease, and we have a new mouse model. We must take advantage 
of these opportunities.
  the nih autoimmune diseases coordinating committee, niaid, and niams
    In addition to ensuring the funding exists and future programs are 
encouraged for current endeavors at NIDCR and NEI, another avenue for 
support has arisen--this one emphasizing the cross-cutting nature of 
autoimmune diseases, particularly Sjogren's. The NIH Autoimmune 
Diseases Coordinating Committee, overseen by NIAID, has just completed 
compilation of an NIH Autoimmune Diseases Research Plan. This plan, 
requested by Congress in December 2000, covers the more than 80 
autoimmune diseases, including Sjogren's syndrome.
    We gratefully acknowledge NIAID's involvement of scientists from 
the Sjogren's Syndrome Foundation in the plan's compilation. We have 
worked closely with NIH and other national voluntary health agencies to 
assimilate needs and opportunities for basic science (including 
genetics), clinical studies, epidemiology, and education and 
communication dissemination in the NIH Autoimmune Diseases Research 
Plan. Now that plan must be funded. NIH estimates that $400-$450 
million a year will be needed.
    We request the Senate Appropriations HHS subcommittee include 
funding of this plan in the 2003 appropriations bill. In addition, we 
specifically ask the subcommittee for help to make sure that Sjogren's 
syndrome is included as a priority in the execution of that plan.
    We also appreciate the generosity of advice and time provided by 
NIAMS to discuss ways to increase research. We have not yet made 
progress on partnerships, but with continued inclusion of language that 
NIAMS and NIAID recognize that Sjogren's is part of their mission and 
should be included in their portfolio of grants, we will make that 
progress.
  what are we asking the senate appropriations subcommittee on labor, 
   health and human services, education, and related agencies to do?
    1. Encourage NIH to recognize the need for Sjogren's research and 
to support scientific workshops on Sjogren's.
    According to researchers at NIH, the best way to increase interest 
and generate excitement for Sjogren's research within the scientific 
community is to hold workshops with participants from related areas and 
on shared concerns. The SSF is committed to this action. We can't do it 
alone and need appropriations language asking for support of and 
participation in such workshops on the part of institutes whose 
responsibilities include the many scientific aspects of Sjogren's. This 
includes NIAMS, NIAID, NEI, NIDCR, NINDS, NICHD, NCCAM, and NCI.
    2. Encourage NEI to pursue an epidemiology study on dry eye and 
Sjogren's syndrome.
    3. Help us ensure that the needs of the 4 million Americans with 
Sjogren's syndrome are included implementation of the NIH Autoimmune 
Diseases Research Plan.
    We desperately need a registry on Sjogren's and studies in 
epidemiology before greater progress in research can be made. We 
request support for these projects in addition to inclusion of 
Sjogren's in the plan's call for studies on genetics, basic research, 
clinical studies, and education.
    Sjogren's syndrome is one of the most prevalent autoimmune 
disorders, and within the NIH budget allotted for autoimmune disease, 
Sjogren's receives very little compared to other autoimmune diseases in 
relation to its prevalence. Of the total amount for autoimmune disease, 
the majority has gone to just three autoimmune diseases--rheumatoid 
arthritis, juvenile diabetes, and multiple sclerosis. That leaves a 
small percentage for the other approximately 77 autoimmune disorders! 
We need to ensure that as a national plan for autoimmune disease is 
executed, Sjogren's syndrome is a priority.
    4. Support the NIH Autoimmune Diseases Research Plan by providing 
the $400-$450 million a year needed to execute the plan, as described 
above.
    Autoimmune diseases make up the third largest disease category in 
the United States and include more than 80 diseases, many of which 
overlap and share symptoms. Yet, autoimmune disease currently receives 
only a fraction of the NIH budget. NIH has come up with a plan that 
cuts across all institutes to cover autoimmune disease; it's time such 
a plan is funded.
    5. Continue to support our request from the previous year that 
NIAMS and NIAID include Sjogren's as part of their mission and 
portfolio of grants.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) fully supports the 
Administration's fiscal year 2003 budget request of $27.3 billion, a 
15.7 percent increase, for the National Institutes of Health (NIH). The 
proposed fiscal year 2003 budget for the NIH includes new funding to 
expand the nation's biodefense research agenda and at the same time 
strengthens resources for research facilities, scientific personnel, 
and investigator initiated research on a vast array of diseases that 
continue to threaten public health. The Administration's budget request 
fulfills the bipartisan commitment to double the NIH budget by fiscal 
year 2003, a goal supported by the ASM to take advantage of new 
scientific opportunities. The ASM is grateful for the bipartisan 
support that Congress has shown the NIH, and for the generous funding 
increases provided for biomedical research.
    The September 11 tragedy has transformed the nation. We have seen 
the human toll of lives, illness and fear as the result of the 
deliberate use of anthrax. The capability to develop effective measures 
to counter the effects of a potential bioterrorism attack has never 
been more urgent. At the same time, we must increase research efforts 
to combat old and new diseases that threaten to undermine health and 
well-being in this country and globally.
    Fortunately, investments in basic and clinical research have 
produced medical advances in the past year which will help the nation 
respond to both deliberate and naturally occurring infectious diseases, 
including: the elucidation of the mechanisms by which anthrax toxin 
destroys cells, hastening the development of new drugs to treat 
anthrax; clinical research that suggests it is possible to ``stretch'' 
available does of licensed smallpox vaccine by dilution; a new anthrax 
vaccine, based on a bioengineered component of the anthrax bacterium 
called recombinant protective antigen (rPA) which will soon enter human 
trials; a number of improved HIV/AIDS treatments; the first vaccine 
against a blood infection common among hemodialysis patients; a hybrid 
vaccine that protects mice from West Nile infection; a new DNA-based 
vaccine that prevents the Ebola virus infection in monkeys and is now 
ready for human clinical trials; and the complete genome sequencing of 
several pathogenic bacteria. The progress and success of microbial 
genomics has been a critical achievement for biomedical research, with 
the complete genomic sequence of five disease causing bacteria, 
including E.coli 0157:H7, Salmonella typhimurium, Ureaplasma 
urealyticum, Streptococcus pneumoniae and Streptococcus pyogenes.
bioterrorism-related research: scientific opportunities to protect the 
                                 nation
    The ASM strongly supports the Administration's budget request of 
$3.99 billion, an increase of $1.5 billion for the National Institute 
of Allergy and Infectious Diseases (NIAID), which spearheads the 
bioterrorism research efforts of the NIH. The NIAID supports 
unprecedented research opportunities in the scientific disciplines of 
microbiology, immunology and infectious diseases, key fields which 
promise better understanding of the mechanisms of infectious diseases, 
antimicrobial resistance, and the human immune system. As the lead 
agency at NIH for infectious diseases and immunology, NIAID has 
developed a Strategic Plan for Counter-Bioterrorism Research and a 
detailed NIAID Counter Bioterrorism Research Agenda, with short-, 
intermediate-, and long-term goals for both basic and applied research. 
Research into the basic biology and disease-causing mechanisms of 
pathogens underpins all efforts to develop interventions to counter 
bioterrorism agents. The investment in research on counter bioterrorism 
and the genetics of microbes should have positive spin offs for other 
diseases and should lead to better understanding of naturally occurring 
infectious diseases, such as West Nile virus, dengue, influenza and 
multi-drug resistant infections.
    The $1.75 billion proposed in total for NIH bioterrorism related 
research in fiscal year 2003 ($441 million for basic research and 
development; $592 million for drug and vaccine discovery and 
development; $194 million for clinical research; and $521 million for 
research facilities) is needed to accelerate discovery and development 
of knowledge and products that will rapidly increase countermeasures to 
control bioterrorism agents and to enhance the capability to do 
research on threat agents. Antimicrobial and vaccine strategies depend 
on breakthroughs in basic research, genomics and computer sciences. The 
genome sequencing of the smallpox and cholera pathogens recently was 
completed, that of the anthrax bacterium is nearly completed, and 
sequencing will be done on a host of other potential bioterrorism 
agents. The NIAID's ambitious research agenda includes development of 
new vaccines, therapeutics, and diagnostic tests for potential agents, 
as well as unraveling the basic biology of microbes and of human host 
responses to infection. Studies will be expanded on microbial genomes 
to sequence the genomes of the various species and strains of microbes 
most likely to be used by terrorists and by performing comparative 
analysis of these genomes and their protein products to develop new 
leads for the development of new and improved diagnostic devices, 
drugs, vaccines and forensic tools. Comparative microbial genomics and 
proteomics will yield new insights into the genetic basics for why 
different species of microbes and different strains of the same species 
differ from one another and their virulence and susceptibility to 
antibiotics. Such research will help assess preventative and 
therapeutic strategies using existing products.
    The NIH is mounting a multi-layered assault on a long list of 
threatening microbes that will include expanded research resources for: 
extramural research project grants; expansion of the research 
infrastructure, in particular additional high-level biosafety 
laboratories; creation of ten Centers of Excellence for Bioterrorism 
and Emerging Infections nationwide, development of a centralized 
research reagent repository, expansion of research training and 
challenge grants to industry and academia. A major component of the 
research program is to enhance the research infrastructure at 
intramural and extramural sites to enable research efforts on 
pathogenic microbes and potential terrorism agents and to meet new 
biosecurity requirements.
    Substantial and comprehensive increases in resources will be needed 
if this effort is to be successful in attracting and synergizing the 
long-term interest of academic scientists and industry in support of 
research to develop biomedical tools to detect, diagnose, treat, and 
investigate diseases caused by deadly pathogens.
  new and emerging and drug resistant infectious diseases--threats to 
                   public health and global security
    The ASM remains alarmed by the persistence of infectious diseases 
in this country and abroad, and by the real possibility of even greater 
problems in the future. Worldwide more than 13 million deaths result 
from infectious diseases. In the United States, infections are 
significant killers and cost more than $120 billion annually. The 
multiple threats of emerging, re-emerging and drug resistant infections 
mandate that we accelerate the pace of biomedical research.
    Emerging and re-emerging pathogens appear at a time of increasing 
microbial resistance to standard therapeutics, two trends that together 
complicate already complex challenges for the research community. 
Antimicrobial resistance must be become a priority area of research 
efforts and new funding should be provided for the interagency 
Antimicrobial Resistance Action Plan released in 2001. In the United 
States, most Staphylococcus aureus infections acquired in hospitals are 
now resistant to the drug of choice. Approximately 14,000 people in 
this country alone are infected and die each year from a drug resistant 
microbe acquired in a hospital setting. Antimicrobial resistance is 
growing and spreading worldwide, affecting the ability to successfully 
treat respiratory, diarrheal, sexually transmitted, hospital-associated 
and other infections. Resistance to chloroquine, the main anti-malaria 
drug, is impairing efforts to control this disease in Africa. More 
research is needed to advance the field of study and develop new 
diagnostic, therapeutic and preventive approaches.
    In his budget message to Congress, President Bush cautioned that 
infectious diseases ``make no distinctions among people and recognize 
no borders.'' Aided by rapid travel and constant cultural exchanges, 
infectious diseases not only have not disappeared, they have persisted 
as a global problem. They exact a heavy toll not only in the United 
States, where infections are the third leading cause of death, but 
worldwide, with infectious diseases the leading cause of death for 
those under age 45 and particularly children. These sad statistics, and 
the entry into the United States of new pathogens such as the West Nile 
Virus 2 years ago, compel this nation to approach infectious disease as 
a global issue.
    Both developed and developing countries face significant challenges 
from infectious disease. In 1999 alone, the five leading infectious 
causes of death took more than 11.5 million lives across the globe. In 
some countries the HIV infection rate exceeds 30 percent, while 
worldwide during the past year, 5 million new HIV infections further 
burdened the political, economic, and health care systems of individual 
nations. In some of those nations, the gross domestic products will 
decline from 8 to 20 percent due to the effects of HIV/AIDS. Malaria is 
an ancient disease that causes great morbidity and mortality. It causes 
an estimated 300 million to 500 million new infections each year, and 
from 1 million to 3 million deaths. The World Bank reports that annual 
global economic losses due to malaria total $12 billion. Infectious 
diseases are not just the concern of those in medicine and health care, 
but also of world leaders.
    Aware of these political implications, the Congress consistently 
has invested in the NIH's long-standing efforts against malaria, HIV/
AIDS, and other diseases of global impact. In fiscal year 2001, the 
NIAID formalized a global health research plan for HIV/AIDS, malaria 
and tuberculosis, to extend on-going programs related to these 
diseases. Recently NIH scientists described a mechanism by which 
malaria parasites enter red blood cells, providing a potential target 
for vaccine or drug development. In fiscal year 2003, NIAID will 
support three new international centers of excellence for malaria 
research and fund the testing of malaria vaccines in early human 
clinical trials. Likewise, two HIV DNA vaccine candidates underwritten 
by the NIH are on their way toward phase I human trials. These and 
other successes validate the President's budget request to extend both 
the vigorous AIDS research underway and the Global Fund to Fight HIV/
AIDS, Malaria, and Tuberculosis.
    The ASM commends the proposed fiscal year 2003 budget in its 
continued high-level support to these and other public health concerns 
such as food-borne illnesses, hospital-acquired infections, and chronic 
disorders with microbial causes.
                biomedical research for the 21st century
    Biomedical research is an expansive enterprise that becomes more 
complex, more costly, and more demanding as technological tools and 
health policy issues grow in importance. To guide an idea or a solution 
from the bench to the bedside now involves coordinated teams of people, 
science disciplines and institutions working within a well-built 
infrastructure.
    Both preparedness and foresight must distinguish present-day 
biomedical research. Expecting the unexpected and ensuring a strong 
response from science calls for an improved research infrastructure--
training and career development, including adequate stipend levels to 
attract the best young scientists to pursue careers in research and 
programs to increase the participation of minorities in research 
careers; and increased support for state-of-the-art equipment and 
secure facilities for pioneering research on bioterrorism agents. The 
ASM commends the proposed NIH budget's provision for a record number of 
research grants and training positions. Investigator-initiated research 
is the basis for scientific creativity and productivity. Basic research 
remains the foundation from which advances and the ideas for future 
advances in biomedical research evolve.
    In the past 20 years, biomedical research has helped extend our 
life expectancy by 6 years. Such tangible benefits to public well-being 
come from dedicated innovation and investment in biomedical research. 
The proposed budget for the NIH will enhance its ability to seize 
scientific opportunities to advance both national health and national 
security.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry
    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to present its recommendations on issues 
related to fiscal year 2003 appropriations for mental health research 
and services. AAGP is a professional membership organization dedicated 
to promoting the mental health and well being of older Americans and 
improving the care of those with late-life mental disorders. AAGP's 
membership consists of approximately 2,000 geriatric psychiatrists as 
well as other health professionals who focus on the mental health 
problems faced by senior citizens.
    AAGP would like to thank the Subcommittee for its continued strong 
support for increased funding for the National Institutes of Health 
(NIH) over the last several years, particularly the additional funding 
you have provided for the National Institute of Mental Health (NIMH), 
the National Institute on Aging (NIA), and the Center for Mental Health 
Services (CMHS) within the Substance Abuse and Mental Health Services 
Administration (SAMHSA). Although we generally agree with others in the 
mental health community about the importance of sustained and adequate 
Federal funding for mental health research and treatment, AAGP brings a 
unique perspective to these issues because of the elderly patient 
population served by our members.
    There are serious concerns, shared by AAGP and researchers, 
clinicians, and consumers that there exists a critical disparity 
between appropriations for research, training, and health services and 
the projected mental health needs of older Americans. This disparity is 
evident in the convergence of several key factors:
  --demographic projections inform us that, with the aging of the U.S. 
        population, there will be an unprecedented increase in burden 
        of mental illness among aging persons, especially among the 
        baby boom generation;
  --this growth in the proportion of older adults and the prevalence of 
        mental illness is expected to have a major direct and indirect 
        impact on general health service use and costs;
  --despite the fact that effective treatment exists, the mental health 
        needs of many older adults remain unmet;
  --a lack of quality education programs exists to train sufficient 
        numbers of geriatric mental health providers;
  --a major gap exists between research and service delivery; and
  --despite recent significant increases in appropriations for support 
        of research in mental health, the allocation of NIMH and CMHS 
        funds for research that focuses on mental health and aging is 
        disproportionately low, and woefully inadequate to deal with 
        the impending crisis of mental health in older Americans.
       demographic projections and the mental disorders of aging
    With the baby boom generation nearing retirement, the number of 
older Americans experiencing mental disorders is certain to increase in 
the future. By the year 2010, there will be approximately 40 million 
people in the United States over the age of 65. Over 20 percent of 
those people will experience mental health problems. A national crisis 
in geriatric mental health care is emerging and has received recent 
attention in the medical literature. Action must be taken now to avert 
serious problems in the near future. While many forms of mental and 
behavioral disorders can occur late in life, they are not an inevitable 
part of the aging process, and continued research holds the promise of 
improving the mental health and quality of life for older Americans.
    It is also important to note that the current number of health care 
practitioners, including physicians, who have training in geriatrics is 
inadequate. As the population ages, the number of older Americans 
experiencing mental problems will almost certainly increase. Since 
geriatric specialists are already in short supply, these demographic 
trends portend an intensifying shortage in the future. There must be a 
substantial public and private sector investment in geriatric education 
and training, with attention given to the importance of geriatric 
mental health needs. We will never have, nor will we need, a geriatric 
specialist for every older adult. However, without mainstreaming 
geriatrics into every aspect of medical school education and residency 
training, broad-based competence in geriatrics will never be achieved. 
There must be adequate funding to provide incentives to increase the 
number of academic geriatricians to train health professionals from a 
variety of disciplines, including geriatric medicine and geriatric 
psychiatry.
    Current and projected economic costs of mental disorders alone are 
staggering. For example, the direct medical costs of caring for 
patients with Alzheimer's disease ranges from $18,000 to $36,000 a year 
per patient, depending on the severity of the disease. In addition, 
there are other expenses associated with caring for an Alzheimer's 
disease patient including social support, care giving, and often 
nursing home care. It is estimated that total costs associated with 
caring for patients with Alzheimer's disease is over $100 billion per 
year in the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and family burden. These psychiatric symptoms, 
combined with Alzheimer's disease, can increase the cost of treating 
these patients by more than 20 percent. Although NIA has supported 
extensive research on the cause and treatment of Alzheimer's, treatment 
of these behavioral and psychiatric symptoms has been neglected and 
should be supported through NIMH.
    Depression is another example of a common problem among older 
persons. Of the approximately 32 million Americans who have attained 
age 65, about five million suffer from depression, resulting in 
increased disability, general health care utilization, and increased 
risk of suicide. Approximately 30 percent of older persons in primary 
care settings have significant symptoms of depression; and depression 
is associated with greater health care costs, poorer health outcomes, 
and increased mortality. Older adults have the highest rate of suicide 
rate compared to any other age group.
    The enormous and widely underestimated costs of late-life mental 
disorders justify major new investments. The personal and societal 
costs of mental illness and addictive disorders are high, but advances 
in research and treatment will help save lives, strengthen families, 
and save taxpayer dollars.
               the benefits of research on public health
    The U.S. Surgeon General's Report on Mental Health (1999) and the 
Administration on Aging Report on Older Adults and Mental Health (2001) 
underscore the prevalence of mental disorders in older persons and 
provide evidence that research supports the development of effective 
treatments. These reports summarize research findings showing that 
treatments are being developed and tested that are effective in 
relieving symptoms, improving functioning, enhancing quality of life, 
including preliminary findings suggesting that these interventions 
reduce the need for expensive and intensive acute and long-term 
services. However, it is also well demonstrated that there is a 
pronounced gap between research findings on the most effective 
treatment interventions and implementation by health care providers. 
This gap can be as long as 15 to 20 years. These reports stress the 
need for translational and health services research focusing on 
identifying the most cost-effective interventions, as well as creating 
effective methods for improving the quality of health care practice in 
usual care settings. A major priority (neglected to date) is the 
development of a research agenda focusing on health services research 
on mental health and aging that examines the effectiveness and costs of 
proven models of mental health service delivery for older persons.
    Special attention also needs to be paid to investigations of 
inadequately or poorly studied, serious late-life mental disorders 
since illnesses such as schizophrenia, anxiety disorders, alcohol 
dependence and personality disorders have been largely ignored by both 
the research community and the funding agencies, despite the fact that 
these conditions take a major toll on patients, their care givers, and 
society at large. Many of AAGP's members are at the forefront of 
groundbreaking research on Alzheimer's disease, depression, and 
psychosis among the elderly, and we strongly believe that more research 
funds must be focused in these areas. Improving the treatment of late-
life mental health problems will benefit not only the elderly, but also 
their children, whose lives are often profoundly affected by those of 
their parents.
    While the funding increases supported by this Subcommittee in 
recent years have been essential first steps to a better future, a 
committed and sustained investment in research is necessary to allow 
continuous progress on the many research advances made to date.
                  national institute of mental health
    The President's proposed increase of $3.7 billion (15.7 percent) 
over fiscal year 2002 represents the final step in the doubling of the 
NIH budget between fiscal years 1999 and 2003. This increase would 
bring the NIH budget to a level of $27.3 billion. While AAGP applauds 
the President's commitment to double the NIH budget, we are concerned 
that the proposed budget increase for NIMH lags far behind the nearly 
14 percent increase proposed for other NIH institutes. For NIMH, the 
President is proposing $1.359 billion for scientific and clinical 
research, a $105 million increase over the agency's fiscal year 2002 
appropriation of $1.254 billion, amounting to an increase of 7.8 
percent. As Congress moves forward with deliberations on the fiscal 
year 2003 budget, AAGP believes that NIMH should receive a percentage 
increase that, at the very minimum, is at least equal to the average 
percent increase for the other NIH institutes.
    Commendable as recent funding increases for NIH and NIMH have been, 
AAGP would like to call the Subcommittee's attention to the fact that 
these increases have not always translated into comparable increases in 
funding that specifically address problems of older adults. Data 
supplied to AAGP by NIMH indicates that while extramural research 
grants by NIMH increased 59 percent during the 5-year period from 
fiscal year 1995 through fiscal year 2000 (from $485,140,000 in fiscal 
year 1995 to $771,765,000 in fiscal year 2000), NIMH grants for aging 
research increased at less than half that rate: only 27.2 percent 
during the same period (from $46,989,000 to $59,771,000).
    AAGP is pleased that in recent months NIMH has renewed its emphasis 
on mental disorders among the elderly, and commends the creation of an 
intra-NIMH consortium of scientists concerned with mental disorders in 
the aging population. However, funding for aging mental health research 
is still not keeping pace with that of other adult mental health 
research, and is actually decreasing proportionally when considered in 
the context of anticipated projections in growth of mental disorders in 
older persons. For example, the proportion of total NIMH newly funded 
extramural research grant funding devoted to aging research declined 
from an average of 8 percent from fiscal years 1995 to 1999 to a low of 
6 percent in fiscal year 2000. It is likely that one reason for the 
decline in funding of new grants is due to the lack of grant review 
committees at NIMH with specific expertise in aging. Grant review 
committees with specialized expertise in geriatrics are needed to 
assure fair review of research proposals that take into account 
knowledge of the unique biological factors associated with the aging 
brain, the universal presence of co-occurring medical disorders, and 
different nature of financing and health service delivery for older 
Americans.
    In addition to supporting research activities at the NIMH, AAGP 
supports increased funding for the other institutes at the NIH that 
address issues relevant to geriatric mental health, including the NIA 
and the National Institute of Neurological Disorders and Stroke.
                   center for mental health services
    It is also critical that there be adequate funding increases for 
the mental health initiatives under the jurisdiction of the CMHS within 
SAMHSA. While research is of critical importance to a better future, 
the patients of today must also receive appropriate treatment for their 
mental health problems. SAMHSA provides funding to State and local 
mental health departments, which in turn provide community-based mental 
health services to Americans of all ages, without regard to the ability 
to pay. AAGP was pleased that the Labor-HHS conference agreement for 
fiscal year 2002 included $5 million for evidence-based mental health 
outreach and treatment to the elderly. AAGP worked with members of this 
Subcommittee and its House counterpart on this initiative, which is a 
very important first step in addressing the mental health needs of the 
nation's senior citizens.
    Funding for the dissemination and implementation of evidence-based 
practices in ``real world'' usual care settings must be a top priority 
for Congress. Despite significant advances in research on the causes 
and treatment of mental disorders in older persons, there is a major 
gap between these research advances and clinical practice in usual care 
settings. The greatest challenge for the future of mental health care 
for older Americans is to bridge this gap between established research 
findings and clinical practice in the community. Adequate funding for 
this geriatric mental health services initiative is essential to 
disseminate and implement evidence-based practices in routine clinical 
settings across the states. Consequently, we would urge that the $5 
million for mental health outreach and treatment for the elderly 
included in the CMHS budget for fiscal year 2002 be increased to $20 
million for fiscal year 2003.
               agency for healthcare research and quality
    One of the most valuable resources in our efforts to improve access 
to and the quality of geriatric mental health services is the Agency 
for Healthcare Research and Quality (AHRQ). In recent years the Agency 
has supported important research on mental health topics including 
studies on children's mental health issues, the impact of mental health 
parity on consumers' share of mental health costs, improving care for 
depression in primary care, and cultural issues in the treatment of 
mental illness in minority populations. This work represents important 
contributions to the mental health literature and to the advancement of 
effective diagnosis and treatment of mental illness. We applaud these 
efforts and urge the Committee to increase support for the critical 
work of this Agency.
    However, we are concerned that the research agenda of the Agency 
has not given more attention to geriatric mental health issues. The 
prevalence of undiagnosed and untreated mental illness among the 
elderly is alarming. Affective disorders, including depression, 
anxiety, dementia, and substance abuse dependence, are often 
misdiagnosed or not recognized at all by primary and specialty care 
physicians in their elderly patients. There is accumulating evidence 
that depression as a co-occurring condition with a variety of chronic 
diseases can exacerbate the effects of cardiac disease, cancer, 
strokes, and diabetes. Research has also shown that treatment of mental 
illness can improve health outcomes for those with chronic diseases. 
Effective treatments for mental illnesses in the elderly are available, 
but without access to physicians and other health professionals with 
the training to identify and treat these conditions, far too many 
seniors fail to receive needed care.
    AAGP believes there is an urgent need to translate advancements 
from biomedical and behavioral research in geriatric mental illness to 
clinical practice. By utilizing the resources of the evidence-based 
practice centers under contract to AHRQ, results from geriatric mental 
health research can be assessed and translated into findings that will 
improve access, foster appropriate practices, and reduce unnecessary 
and wasteful health care expenditures. We urge the Committee to direct 
the Agency to support additional research projects focused on the 
diagnosis and treatment of mental illnesses in the geriatric 
population. We also believe a high priority should be given to the 
dissemination of scientific findings about what works best in the 
diagnosis and treatment of geriatric mental illness to ensure that 
physicians and other health professionals have access to significant 
advancements in care.
                               conclusion
    Based on AAGP's assessment of the current need and future 
challenges of late life mental disorders, we submit the following 
recommendations:
    1. The current rate of funding for aging grants at NIMH and CMHS is 
inadequate. Funding for NIMH and CMHS aging research grants should be 
increased to be commensurate with current need (at least three times 
their current funding levels). In addition, the anticipated projected 
future increase in mental disorders among our aging population in terms 
of dollar amount of grants and absolute number of new grants should be 
built into the budget process;
    2. A fair grant review process will be enhanced by committees with 
specific expertise and dedication to mental health and aging;
    3. Infrastructure and reporting mechanisms within NIMH and CMHS are 
essential to support the development of initiatives in aging research, 
monitor the quality and number of applicants for aging research grants, 
and management of those grants. Those individuals in the Office of the 
Director of NIMH and in the Office of the Director of CMHS who are 
designated to oversee the aging research agendas and initiatives for 
these two agencies should provide regular reports to Congress to ensure 
accountability; and
    4. AHRQ should undertake additional research projects focused on 
the diagnosis and treatment of mental illnesses in the geriatric 
population.
    AAGP strongly believes that the present research infrastructure, 
health care financing, and healthcare personnel with appropriate 
geriatric training, and the mental health delivery systems are grossly 
inadequate to meet the challenges posed by the expected increase in the 
number of elderly with mental disorders. Congress must support funding 
for research that addresses the diagnosis and treatment of mental 
illnesses, as well as programs that increase the quality of life for 
those with late-life mental illness.
    AAGP looks forward to working with the members of this Subcommittee 
and others in Congress to establish geriatric mental health research 
and services as a priority at NIMH, CMHS and AHRQ.
                                 ______
                                 
         Prepared Statement of the Leukemia & Lymphoma Society
                              introduction
    I am pleased to submit this statement on behalf of the Leukemia & 
Lymphoma Society (LLS). During its 52-year history, the LLS has been 
dedicated to finding a cure for the blood cancers--leukemia, lymphoma, 
and myeloma. Our central contribution to the search for a cure is 
funding a significant amount of basic and translational research in the 
blood cancers. In 2002, we will fund almost $38 million in research 
grants. In addition to our role as a funder of research, we provide a 
wide range of services to individuals with the blood cancers, their 
caregivers, families, and friends. Finally, we advocate responsible 
public policies that will advance our mission of finding a cure for the 
blood cancers.
    We are pleased to report that impressive progress has been made in 
the treatment of many blood cancers. Over the years, there have been 
steady and impressive strides in the treatment of the most common form 
of childhood leukemia, and the survival rate for that form of leukemia 
has dramatically improved. And just last year, a new therapy was 
approved for chronic myelogenous leukemia, a form of leukemia for which 
there were previously limited treatment options, all with serious side-
effects. This new therapy, a signal transduction inhibitor called 
Gleevec, is a so-called targeted therapy which corrects the molecular 
defect that causes the disease, and does so with few side effects.
    LLS contributed to the early research on Gleevec, as it has 
contributed to basic research on a number of new therapies. We are 
pleased that we played a role in the development of this life-saving 
therapy, but we realize that our mission is far from complete. Many 
forms of leukemia and lymphoma present daunting treatment challenges, 
as does myeloma. There is much work still to be done, and we believe 
the research partnership between the public and private sectors can be 
strengthened.
         the grant programs of the leukemia & lymphoma society
    The grant programs of the LLS are in three broad categories: Career 
Development Grants, Translational Research Grants for early-stage 
support for clinical research, and Specialized Centers of Research. In 
our Career Development program, we fund Scholars, Special Fellows, and 
Fellows who are pursuing careers in basic or clinical research. In our 
Translational Research Program, we focus on supporting investigators 
whose objective is to translate basic research discoveries into new 
therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator on Gleevec, was 
supported by a translational research grant from LLS. Dr. Druker is 
certainly a star among those supported by LLS, but our support in this 
field is broad and deep. Through the Career Development and 
Translational Research Programs, we are currently supporting more than 
400 investigators in 33 states and ten foreign countries.
    Our new Specialized Centers of Research grant program (SCOR) is 
intended to bring together research teams focused on the discovery of 
innovative approaches to benefit patients or those at risk of 
developing leukemia, lymphoma, or myeloma. The awards will go to those 
groups that can demonstrate that their close interaction will create 
research synergy and accelerate our search for new therapies, 
prevention, or cures.
                        planning for the future
    Despite enhancements in treating blood cancers, there are still 
significant research opportunities and challenges. LLS will continue to 
raise funds in the private sector to support blood cancer research. We 
offer the following recommendations for the federally funded blood 
cancer research effort:
  --Fund the programs authorized by the Hematological Cancer Research 
        Investment and Education Act.--This bill, authored by Senators 
        Kay Bailey Hutchison and Barbara Mikulski (S. 1094) and 
        Representatives Phil Crane, Marge Roukema, and Vic Snyder (H.R. 
        2629), has passed the Senate. The bill directs the National 
        Institutes of Health (NIH) to strengthen its blood cancer 
        research program by coordinating those research efforts. The 
        bill also establishes a blood cancer educational program for 
        patients and the public, to be administered by an agency within 
        the Department of Health and Human Services. We anticipate 
        final action on this legislation and urge the Committee to fund 
        the programs authorized by this bill.
      LLS is already involved in a wide range of educational 
        initiatives, and we urge HHS to implement the blood cancer 
        education program as a collaborative public-private sector 
        initiative. We believe that approach will best capitalize on 
        the experience and expertise of private sector organizations 
        while allowing an expansion of these programs to serve more 
        individuals in need of information about the blood cancers.
  --Encourage NCI to implement research initiatives proposed by the 
        Leukemia, Lymphoma, and Myeloma Progress Review Group (LLM-
        PRG).--In December 2000, the National Cancer Institute (NCI) 
        convened a blue-ribbon panel of extramural researchers, 
        clinicians, and advocates to provide advice on the NCI's blood 
        cancer research program. This group of experts, called the 
        Leukemia, Lymphoma, and Myeloma Progress Review Group, or LLM-
        PRG, made a series of recommendations aimed at strengthening 
        the blood cancer research program. One of those recommendations 
        was for a public-private sector translational research 
        consortium with the lofty goal of reducing by half the period 
        of time necessary for development of a new blood cancer 
        therapy. This idea is one that we would like to see developed 
        further, because it reflects our philosophy that collaboration 
        and cooperation are critical to improvements in cancer 
        treatment; it also reinforces the commitment of LLS to increase 
        our investment in translational research in order to speed the 
        movement of basic research findings to the bedside. The 
        implementation of the LLM-PRG report and the specific 
        recommendation for a translational research consortium appears 
        to have slowed in recent months, and we urge Congress to 
        encourage NCI to move forward with an implementation strategy.
  --Continue Progress Toward Doubling the NIH Budget.--LLS is pleased 
        to have this opportunity to express our sincere appreciation to 
        this Subcommittee for its leadership in shepherding through 
        Congress large increases in funding for NIH. You have had the 
        foresight to make an impressive investment in biomedical 
        research, and the benefits have only begun to be reaped. 
        Gleevec is an outstanding example of important research aimed 
        at developing more targeted cancer therapies that do not have 
        the serious side effects of much traditional chemotherapy. We 
        believe the development of additional targeted therapies is 
        possible, and the long-term investment in basic, translational, 
        and clinical research has made these new therapies a realistic 
        possibility.
      LLS and its advocates are integrally involved in efforts of the 
        cancer community, the larger biomedical research community, and 
        the voluntary health agency community to create a positive 
        environment for biomedical research and guarantee that support 
        for NIH remains strong even after the budget is doubled.
    We appreciate the opportunity to submit this statement, and we look 
forward to working with the Subcommittee toward our shared goal of a 
strong biomedical research effort in the United States.
                                 ______
                                 
        Prepared Statement of the Research Society on Alcoholism
    The Research Society on Alcoholism (RSA) appreciates the 
opportunity to present its views about the importance of alcohol 
research within our nation's priorities for health and improving the 
quality of life. The RSA is a professional society of over 1,400 
members who are committed to understanding and intervening in the 
negative consequences of alcohol through basic research, clinical 
protocols, psychosocial research and epidemiological studies.
    The cost of alcohol abuse and dependence on American society and 
individual lives is staggering. The cost to the nation is estimated at 
approximately $185 billion annually. Not only are the fiscal costs real 
and powerful, but alcohol misuse is costly in other ways as well.
    A recently released report on college drinking, sponsored by the 
National Institute on Alcohol Abuse and Alcoholism, reveals that 1,400 
college students between the ages of 18-24 die each year from 
unintended alcohol-related injuries. 500,000 students between the ages 
of 18 and 24 are unintentionally injured under the influence of 
alcohol.
    Equally disturbing is the increasing trend of alcohol consumption 
among children ages 9 to 15. A report issued last year by the Robert 
Wood Johnson Foundation, ``Substance Abuse: The Nation's Number One 
Health Problem,'' states that by the 8th grade, 52 percent of 
adolescents have consumed alcohol. The Leadership to Keep Children 
Alcohol Free, a multi-year national initiative founded by the National 
Institute on Alcohol Abuse and Alcoholism, The Robert Wood Johnson 
Foundation, and joined by additional federal agencies, reports that 
almost one-third of eighth graders and half of tenth graders have been 
drunk at least once. One-fifth of ninth graders report binge drinking 
(consuming five or more drinks in a row) in the past month.
    Alcohol abuse and alcoholism are a major cause of medical 
morbidity, mental retardation, accidental death and injury, homicide, 
suicide, lost productivity, and disruption of family. For some 
subgroups, such as the American Indians, the costs associated with 
alcohol misuse are disproportionately higher and may be directly linked 
to some of the major health problems in this group such as hypertension 
and diabetes. The Indian Health Service estimates that the age-adjusted 
alcoholism mortality rate for American Indians is 63 percent higher 
than the rate for all other races in the United States.
    Despite, or perhaps because of, the widespread impact and effects 
of alcohol, it has been impossible to identify a single cause or 
solution to alcohol's negative consequences. The causes and 
consequences of alcoholism can be discerned in the interactions of 
molecules, brain pathways, individuals, families and communities.
    The National Institute on Alcohol Abuse and Alcoholism (NIAAA) 
forges an integrated, multidisciplinary approach in attacking the 
problems of alcohol abuse and alcoholism. Because of this committee's 
historic support for the growth of biomedical research, and the 
investment in NIAAA more specifically, the alcohol research community 
has made important strides in clarifying many of the factors which we 
now know contribute to risk to alcoholism and the overall negative 
consequences of alcohol abuse and dependence. We have seen significant 
advances in disentangling the roles of genetics and environment genetic 
influence and role of family history in alcohol dependence, we have 
begun to identify the critical components of effective treatment, and 
we have begun to explore effective integrated treatments for those who 
suffer from the most severe forms of the disease. Given our scientific 
understanding of alcoholism only a few decades ago, this is truly 
remarkable progress.
    While recognizing these advances, the federal investment in alcohol 
research has been modest given the magnitude of the consequences from 
alcohol abuse and dependency on the nation. There must be a strong 
national commitment to alcohol research and treatment of alcohol-
related disorders if we hope to reverse current trends that result in 
unintended deaths, escalating health costs and lost productivity. The 
leadership of the Research Society on Alcoholism has framed the 
following set of priorities which, if adequately supported, will move 
the field significantly forward and provide translational benefits to 
additional NIH priorities.
  --Identification of Molecular Targets of Alcohol in the Brain.--
        NIAAA-funded research has successfully identified molecular 
        targets of alcohol in the brain. The characterization of these 
        targets may lead to the discovery of compounds that block 
        specific effects of alcohol. These discoveries have already led 
        to the prevention of alcohol-related birth defects in mice. 
        Increased funding will allow the NIAAA to stimulate additional 
        research on the molecular basis for the actions of alcohol.
  --Brain Mapping and Organ Imaging in Alcoholism.--Tremendous progress 
        has been made in mapping the brain pathways that are involved 
        in alcohol addiction and alcohol-related brain damage through 
        advanced imaging technology. Further research in this area is 
        necessary to fully understand the impact of alcohol abuse and 
        addiction on the underlying brain systems. The development of 
        advanced instrumentation is also necessary to enhance the 
        understanding of alcohol dependence as a ``brain event,'' other 
        alcohol-related medical disorders, and our understanding of 
        brain interactions with other substances such as illicit drugs 
        and tobacco.
  --Medications Development for Alcoholism Treatment.--NIAAA-sponsored 
        research has resulted in the development of pharmacotherapies 
        that have been proven effective in the treatment of alcoholism 
        and alcohol-related disorders in some patient populations but 
        not in others. Additional funding is needed to aggressively 
        pursue a range of activities from basic to clinical research in 
        an effort to ensure that new products are in the pipeline.
  --Prevention of Alcohol Abuse in Adolescents.--The alarming rates of 
        college campus deaths and the increasing use of alcohol among 
        elementary and secondary school-aged children requires further 
        study on the causes of alcohol abuse among this age group and 
        the development of strategies for effective prevention and 
        intervention. The magnitude and severity of this problem will 
        require an interdisciplinary, multi-agency effort.
  --Health Disparities.--We know that there appears to be an increased 
        risk for alcoholism and alcohol-related disorders within 
        certain ethnic/racial groups, however, it is unclear why this 
        risk exists and whether or not the risk applies to all members 
        of the group. Initial studies with certain racial groups have 
        identified specific strengths and vulnerabilities which are 
        important to further explore if we are to address the needs of 
        all Americans. The role of gender, ethnicity, socio-economic 
        status, and other variables in determining the effects of 
        alcohol use and abuse requires additional study. Greater 
        understanding of these variables will lead to improved 
        treatments of alcoholism and alcohol-related organ damage in 
        women and in ethnic minorities.
  --Multidisciplinary Research on Fetal Alcohol Syndrome.--Fetal 
        alcohol syndrome is the most common preventable cause of mental 
        retardation. Despite this fact, a recently released study by 
        the Centers for Disease Control and Prevention indicates that 
        the rates of binge drinking during pregnancy--consumption 
        patterns consistently related to damage to the developing 
        fetus--has remained unchanged through the late 1990s. NIAAA-
        sponsored research has studied the biological mechanisms 
        through which alcohol impacts the fetus. Additional research is 
        needed that will lead to effective interventions for the 
        prevention and treatment of fetal alcohol syndrome.
  --Longitudinal Studies.--Alcoholism develops over years in response 
        to interactions among genetic, psychological, and social 
        factors that are not fully understood. A longitudinal study 
        that recruits subjects in early adolescence and follows persons 
        as they develop and struggle with alcohol problems will help 
        lead to an understanding of where interventions might best be 
        targeted. A longitudinal study of this nature will require a 
        multi-Institute approach. RSA urges the Committee to provide 
        adequate resources for the NIAAA to plan and spearhead a 
        longitudinal study of this nature.
    Request.--The Research Society on Alcoholism believes that the 
continued support of NIAAA and NIH are imperative to the national 
effort to combat alcohol abuse and alcoholism and improve the quality 
of life for all Americans. The RSA respectfully submits the following 
two requests for which we urge the Committee's strong support.
    (1) The Research Society on Alcoholism supports the President's 
proposed $3.7 billion increase for the National Institutes of Health 
that will result in a total fiscal year 2003 budget of $27.3 billion. 
We urge the Committee to provide the NIH a funding level of at least 
$27.3 billion to complete the national campaign to double the NIH 
budget by 2003.
    (2) The Research Society on Alcoholism requests a total fiscal year 
2003 NIAAA budget of $475 million. This request represents the 
professional judgement of the alcohol research community and is 
justified on the basis of historic under funding of the NIAAA, pursuit 
of significant advances in recent years and the promise of new 
opportunities presently at hand.
    Thank you for the opportunity to present our views.
                                 ______
                                 
 Prepared Statement of the Doris Day Animal League and People for the 
                      Ethical Treatment of Animals
    Thank you for the opportunity to submit testimony on behalf of the 
1 million members and supporters of the Doris Day Animal League (DDAL) 
and People for the Ethical Treatment of Animals (PETA) requesting 
appropriations for the National Institute of Environmental Health 
Sciences' (NIEHS) National Toxicology Program Interagency Center for 
the Evaluation of Alternative Toxicological Test Methods (NICEATM) for 
Interagency Coordinating Committee for the Validation of Alternative 
Methods (ICCVAM) activities for fiscal year 2003. This request is also 
supported in separate testimony by The Humane Society of the United 
States. This entity, ICCVAM, was permanently authorized in 2000.
                           function of iccvam
    The ICCVAM performs an invaluable function for regulatory agencies, 
industry, public health, and animal protection organizations by 
assessing the validation of new, revised and alternative toxicological 
test methods that have interagency application. After appropriate 
independent peer review of the test method, the ICCVAM recommends the 
test to the federal regulatory agencies that regulate the particular 
endpoint the test measures. In turn, the federal agencies maintain 
their authority to incorporate the validated test method as appropriate 
for the agencies' regulatory mandates. This streamlined approach to 
assessment of validation of new, revised and alternative test methods 
has reduced the regulatory burden of individual agencies, provided a 
``one-stop shop'' for industry, animal protection, public health and 
environmental advocates for consideration of methods and set uniform 
criteria for what constitutes a validated test method. In addition, 
from the perspective of animal protection advocates, ICCVAM can serve 
to appropriately assess test methods that can refine, reduce and 
replace the use of animals in toxicological testing. This function will 
provide credibility to the argument that scientifically validated 
alternative test methods, which refine, reduce or replace animals, 
should be expeditiously integrated into federal toxicological 
regulations, requirements and recommendations.
                           history of iccvam
    The ICCVAM is currently composed of representatives from the 
relevant federal regulatory and research agencies. It was created from 
an initial mandate in the NIH Revitalization Act of 1993 for the NIEHS 
to ``(a) establish criteria for the validation and regulatory 
acceptance of alternative testing methods, and (b) recommend a process 
through which scientifically validated alternative methods can be 
accepted for regulatory use.'' In 1994, NIEHS established the ad hoc 
ICCVAM to write a report that would recommend criteria and processes 
for validation and regulatory acceptance of toxicological testing 
methods that would be useful to federal agencies and the scientific 
community. Through a series of public meetings, interested stakeholders 
and agency representatives from all 14 regulatory and research 
agencies, developed the NIH Publication No. 97-3981, ``Validation and 
Regulatory Acceptance of Toxicological Test Methods.'' This report has 
become the sound science guide for consideration of new, revised and 
alternative test methods by the federal agencies and interested 
stakeholders.
    After publication of the report, the ad hoc ICCVAM moved to 
standing status under the NIEHS' NICEATM. Representatives from federal 
regulatory and research agencies and their programs have continued to 
meet, with advice from the NICEATM's Advisory Committee and independent 
peer review committees, to assess the validation of new, revised and 
alternative toxicological methods. Since then, two methods have 
undergone rigorous assessment and are deemed scientifically valid and 
acceptable. The first method, Corrositex, is a replacement for animal-
based dermal corrosivity tests for some chemicals. The second, the 
Local Lymph Node Assay, is a reduction and refinement of an animal test 
for the skin irritation endpoint. The open public comment process, 
input by interested stakeholders and the continued commitment by the 
federal agencies has led to ICCVAM's success. It has resulted in a more 
coordinated review process for rigorous scientific assessment of the 
validation of new, revised and alternative test methods.
                       request for appropriations
    On December 19, 2000, the ``ICCVAM Authorization Act'' which makes 
the entity a permanent standing committee, was signed into Public Law 
No. 106-545. For the past few years, the NIEHS has provided 
approximately $1 million per fiscal year to the NICEATM for ICCVAM's 
activities. In order to ensure that federal regulatory agencies and 
their stakeholders benefit from the work of the ICCVAM, it is important 
to fund it at an appropriate level. I respectfully urge the 
Subcommittee to support an appropriation for the NIEHS's NICEATM for 
ICCVAM's activities at $5 million for fiscal year 2003. With the 
increasing workload assigned to the ICCVAM, the entity has been 
chronically underfunded. This year alone it is anticipated that several 
new, revised or alternative test methods will be under scientific 
review by the ICCVAM, its new advisory committee and independent peer 
review panels. In addition, several methods that have currently been 
approved by the European Centre for the Validation of Alternative 
Methods (ECVAM) will be expeditiously assessed by the ICCVAM for 
integration into United States federal regulations, requirements and 
recommendations. The ECVAM receives an annual appropriation of millions 
of dollars more than our ICCVAM, which demonstrates the European 
Union's commitment to humane, sound science. ECVAM has provided 
assessments of a number of test methods which are or will be used by 
international companies. To ensure that good, humane science is 
prioritized for new federal testing programs, it is imperative that the 
ICCVAM receive an increase in its appropriation for this fiscal year. 
The success of the entity will only be realized by properly funding its 
increasing workload. This appropriation request includes all FTEs, 
funding for independent peer review assessment of test methods and 
meetings of the ICCVAM and other activities as deemed appropriate by 
the Director of the NIEHS.
                 request for committee report language
    I also respectfully request the Subcommittee consider the following 
report language for the House Labor, Health and Human Services, 
Education and Related Agencies Appropriations bill:

    ``The Committee supports the assessment of scientific validation of 
new, revised and alternative toxicological test methods by ICCVAM. The 
Committee supports the use of the ICCVAM to streamline consideration of 
new, revised and alternative toxicological test methods. The Committee 
also urges the incorporation of scientifically validated new, revised 
and alternative test methods into federal regulations, requirements and 
recommendations in an expeditious manner. To this end, the Committee 
has provided $5 million to support ICCVAM's activities.''

    Thank you for the opportunity to submit this request on behalf of 
the Doris Day Animal League and People for the Ethical Treatment of 
Animals.
                                 ______
                                 
   Prepared Statement of the American Gastroenterological Association
                       summary of recommendations
    The American Gastroenterological Association (``AGA'') urges 
Congress to increase funding for medical research on digestive diseases 
and disorders through budgetary increases to the National Institutes of 
Health (``NIH''), the Centers for Disease Control and Prevention 
(``CDC''), and the Agency for Healthcare Research and Quality 
(``AHRQ'').
    AGA encourages Congress to provide at least a 16 percent increase 
over fiscal year 2002 for NIH, raising the funding levels from $23.6 
billion to $27.3 billion, as recommended by the Ad Hoc Group for 
Medical Research Funding, thus achieving the bipartisan goal of 
doubling the NIH budget by fiscal year 2003. Within NIH, AGA recommends 
at least a commensurate increase for the National Institute of Diabetes 
and Digestive and Kidney Diseases (``NIDDK''), the National Cancer 
Institute (``NCI''), and the National Institute of Allergy and 
Infectious Diseases (``NIAID''), each of which support a considerable 
portfolio of gastrointestinal research. These increases would allow for 
further research on the diagnosis, treatment and cure for debilitating 
and devastating digestive diseases. Despite the real and frightening 
threats of bioterrorism and the devastation caused by cancer, areas of 
deep commitment by the AGA, the AGA urges Congress not to favor one 
illness disproportionately over others by allocating a huge funding 
increase to select Institutes at the expense of other equally important 
NIH Institutes and Centers.
    AGA also urges Congress to increase funding over fiscal year 2002 
by 17.5 percent to $7.9 billion for the CDC, as recommended by the CDC 
Coalition, and by 30 percent to $390 million for AHRQ, as recommended 
by the Friends of AHRQ.
                    medical research recommendations
    AGA is the nation's oldest, not-for-profit specialty medical 
society, consisting of over 12,500 gastroenterologic physicians and 
scientists who are involved in research, clinical practice, and 
education on disorders of the digestive system. As the nation's leading 
voice on gastrointestinal research, AGA is uniquely qualified to advise 
Congress on the current status of federally supported digestive disease 
research programs and the areas in need of further research.
    Each year more than 62 million Americans are diagnosed with 
digestive disorders.--Among the more common digestive disorders are 
food borne illness, inflammatory bowel disease, obesity, 
gastrointestinal cancers, and motility disorders. In some of these 
areas, medical research has brought us close to developing lifesaving 
treatments and cures. Yet, in others, we still lack even a basic 
understanding of the cause and transmission of the disease. This 
testimony focuses on these serious health problems and makes 
recommendations on how Congress should allocate this country's precious 
medical research dollars to combat digestive diseases.
Preventing and Mitigating the Threat of Bioterrorism Involving Our Food 
        and Water Supply
    AGA is acutely aware of the threats presented by terrorists to the 
nation's food and water supplies. As such, it is vital that medical 
researchers and clinical physicians, and the nation as a whole, enhance 
their understanding of the symptoms, treatments and cures for such food 
and water borne illnesses as salmonella, E.coli, campylobacter, 
botulism, cholera, and typhoid. The AGA is dedicated to offering its 
expertise in the area of food and water borne illnesses to help prevent 
the potentially devastating events that would result if such an attack 
were to occur.
    Each year an estimated 76 million cases of food and water borne 
illness, such as salmonella, E.coli, campylobacter, botulism, cholera, 
and typhoid, occur in the United States, according to the CDC. Food 
borne pathogens enter the body through the gastrointestinal tract and 
often cause nausea, vomiting, abdominal cramps and diarrhea. The 
resultant loss of electrolytes and fluids leads to dehydration and 
shock, and, if not treated, death from vascular collapse and renal 
failure. Those populations at-risk for severe repercussions from food 
and water borne illness include those with decreased immune systems, 
pregnant women and fetuses, young children, elderly, those taking 
antibiotics and antacids, and those with inadequate access to health 
care such as the homeless, migrant farm workers, and those with low 
socio-economic status.
    The threat presented by food and water borne illnesses is 
considerably larger now in light of the efforts by terrorist 
organizations to infiltrate our country. Food borne pathogens have 
evolved throughout generations to adapt to the human host, making them 
viable agents for bioterrorist threats. These bacteria first attach to 
the lining of the gut, with each pathogen possessing a unique set of 
attachment factors. Once attached, they begin to spread toxins 
throughout the body. Currently, there are no vaccines available to 
prevent either the attachment of any of these bacteria to the gut or to 
inhibit the spread of the toxins through the host.
    Scientific opportunities exist for addressing the threats posed by 
food borne illness. The NIH has undertaken studies in the past several 
years to identify the pathophysiology and pathogenesis of food and 
water borne disease. While promising advances have been made, more 
research is desperately needed to better understand the disease process 
and to develop appropriate vaccines and other treatments for these 
diseases.
    AGA recommends that Congress encourage the NIH, especially NIDDK 
and NIAID, and others conducting food and water borne illness research 
like the United States Department of Agriculture and CDC, to 
concentrate intensively on research into treatments for food and water 
borne illness, including vaccines to prevent the attachment of the 
bacteria to the gut and to prevent the spread of the toxin in the host. 
The AGA urges Congress to make a modest investment of $10 million per 
year, over a 5-year period, to be dedicated to research aimed at 
eradicating the disabling and potentially deadly effects of food and 
water borne illness.
Inflammatory Bowel Disease
    It is estimated that 1 million Americans have inflammatory bowel 
disease (``IBD''), which includes Crohn's Disease and Ulcerative 
Colitis. Crohn's Disease usually causes intermittent deep inflammation 
at any site within the gastrointestinal tract but especially the small 
and large intestine, whereas Ulcerative Colitis causes continuous 
inflammation and sores in the top layers of the lining of the large 
intestine.
    Fortunately for the 1 million Americans who suffer from the 
terrible disease, there is new hope. Researchers recently identified 
the first gene associated with IBD. See Yasunori Ogura et.al., ``A 
framshift mutation NOD2 associated with susceptibility to Crohn's 
disease.'' Nature 411 (2001): 603-606. Importantly, recent works 
suggest that several other genes, yet to be identified, also play an 
important role in an individual's susceptibility to Crohn's Disease or 
Ulcerative Colitis. While IBD is believed to be a multigenic disease 
with as many as seven genes causing susceptibility, even this 
breakthrough discovery of the first gene will undoubtedly lead to 
further identification of the complex factors that cause IBD, leading 
to more effective management, treatment, and ultimately a cure for this 
devastating illness. We stand at an important crossroads in IBD 
research. Additional research is needed now to maintain momentum and 
discover new therapies and cures.
    AGA recommends that Congress dedicate $100 million in fiscal year 
2003 and such sums as may be necessary in fiscal year 2004-2006 to 
NIDDK to expand and intensify IBD research. Particular emphasis should 
be placed on research that identifies the other genes that are believed 
to cause susceptibility to IBD, animal model research on IBD, and 
clinical studies and treatment trials aimed at patients with IBD. 
Research is also needed to understand the interaction between microbial 
flora (bacteria) and the mucosal lining of the gut through the study of 
the barrier function of the gut lining and the subsequent mucosal 
immune response in subjects with IBD. The final step to fully 
understanding this disease is correlating the genetic characteristics 
of patients with IBD with the clinical symptoms they present, enabling 
physicians to develop targeted treatments for patients based on their 
genetic makeup. We believe that it is essential that Congress 
appropriate the $100 million as a supplemental effort to eradicate IBD, 
and not in a manner that would detract from other important areas of 
NIDDK research.
Nutrition and Obesity
    According to the Body Mass Index (BMI) scale, a widely accepted 
measurement that takes into account both a person's weight and height, 
110 million adults in this country are either overweight (61 million) 
or obese (49 million); 31.3 percent of men and 34.7 percent of women 
are considered to be clinically obese; one in five children are 
clinically obese. The number of obese adults in the United States has 
doubled in the last 25 years. According to NIH, obesity is a complex 
multifactorial chronic disease that develops from an interaction of 
genotype and the environment. This disease is an integration of social, 
behavioral, cultural, psychological, metabolic and genetic factors.
    Despite the fact that obesity is gaining more recent attention, a 
significant amount of ground must be covered before medical research 
catches up with the need to address the problem in a comprehensive 
manner. There are a growing, but inadequate, number of grants being 
funded to examine this disease. AGA recommends that Congress urge 
NIDDK, the National Institute of Child Health and Human Development, 
the Office of Research on Women's Health and the Center for Research on 
Minority Health to increase RO1 funding for obesity research by 15 
percent for fiscal year 2003.
Gastrointestinal Cancers
    Approximately 226,600 new cases of gastrointestinal cancers will be 
diagnosed this year. Sadly, 129,800 Americans will die from these 
cancers. The most common cancers involve the colon/rectum, stomach/
esophagus, and pancreas.
    AGA applauds the NCI for its commitment to improving the 
understanding of, and seeking cures to, these and other 
gastrointestinal cancers through mechanisms such as Progress Review 
Groups on colorectal and pancreatic cancers. However, more research is 
needed. Congress should urge the NIDDK to augment its efforts in these 
areas, and to particularly focus resources on the genetic aspects of 
these cancers, diagnostic tests for genetic abnormalities and 
prevention of these cancers, the modulation and understanding of 
epithelial injury and repair, the environmental factors relating to the 
development of these diseases, and the development and treatment of 
Barrett's Syndrome in patients with GERD.
Motility Disorders
    It is estimated that up to 30 percent of all Americans may be 
affected at some time during their lives by motility disorders. 
Irritable bowel syndrome (``IBS''), the most common motility disorder, 
is especially troubling because a patient does not present with any 
pathognomonic symptoms or laboratory findings of the disease, making 
diagnosis and treatment extremely difficult. Instead, patients present 
with abdominal pain, bloating, gas, diarrhea, and constipation. IBS is 
believed to be caused by overly sensitive intestines that have muscle 
spasms.
    Further research is needed in this area due to the high prevalence 
of this disease as well as the lack of knowledge on how to identify, 
diagnose, and cure it. A lack of a basic understanding of IBS has made 
drug manufacturers reluctant to fund research. If more federally funded 
research was focused on IBS, it would stimulate more private-public 
partnerships, and lead to advances in medical knowledge.
    As such, AGA urges Congress to direct the NIDDK to focus additional 
resources on IBS. Specifically, AGA recommends that NIDDK support 
research into the development of physiologic tests to characterize the 
phenotypic subgroups of functional gastrointestinal disorders, 
including non-ulcer (functional) dyspepsia, functional constipation, 
and irritable bowel syndrome (motility). Additionally, AGA urges 
Congress to also encourage the Office of Research on Women's Health to 
devote more of its attention to these areas of research in light of the 
high incidence of IBS among women.
                    medical research infrastructure
Training of Physician-Scientists
    While research has expanded our medical knowledge and enabled 
physicians and other providers to better prevent diseases, diagnose 
disorders, and treat people, there is growing concern that the number 
of physician-scientists (e.g., investigators who have medical degrees) 
is declining. If this trend continues, the shortage of physician-
scientists will begin to slow key medical research endeavors and 
advancements. Research training must be reinvigorated.
    A recent study documenting this decline points to the tremendous 
debt incurred by medical school graduates who have more lucrative 
options outside of research as a primary cause. See Tamara R. Zemlo et 
al., The Physician-Scientist: Career Issues and Challenges at the Year 
2000, 14 The FASEB Journal 221-230 (2000). A medical school graduate 
incurs an average debt of $99,089, as reported in the Medical School 
Graduation Questionnaire by the Association of American Medical 
Colleges.
    Unfortunately, clinical researchers are oftentimes expected to 
raise funds to support their research and a substantial proportion of 
their own salaries. For such support, young clinical researchers often 
turn to the NIH. However, in 1999, NIH began to phase out the R29 grant 
mechanism for first-time investigators. Despite substantial increases 
in NIH spending, the number of young physicians applying for their 
first NIH grant decreased by 30 percent over the past 5 years.
    AGA views this problem as an immediate and serious threat to the 
future of biomedical research generally, and gastrointestinal research 
in particular. To alleviate this growing problem, AGA urges Congress to 
increase funding for the continued expansion of clinical research and 
clinical research training opportunities. Congress should take the 
following steps: increase career support for established clinical 
investigators; enhance the K24 award mechanism to enable established 
clinical investigators to mentor new investigators; and provide a line-
item appropriation for the continued expansion of the Extramural Loan 
Repayment Program for Clinical Research administered by the NIH Office 
of Director. Additionally, Congress should applaud NIH for constructing 
and implementing the loan repayment provisions of the Clinical Research 
Enhancement Act in an expeditious manner.

Digestive Disease Research Centers
    Digestive Diseases Research Core Centers are key to establishing 
strong research networks and advancing medical knowledge.--Currently, 
fifteen fully funded centers exist which conduct basic and clinical 
research on a variety of digestive disorders. They have been highly 
successful in expanding medical knowledge on pancreatic disease, 
genetic diseases (e.g., hemochromatosis) and gene therapy, pediatric 
gastrointestinal diseases, hepatitis C, IBS, IBD, H.pylori, 
inflammatory cytokines, and food safety. AGA commends NIDDK for 
developing and enhancing this program and recommends that Congress urge 
NIDDK to maintain full funding for these centers.
Small Equipment Grants
    As technology continues to evolve, laboratory research equipment is 
becoming more expensive to purchase and maintain. Researchers struggle 
to keep the instrumentation in their laboratories up-to-date. NIH's 
current Shared Instrumentation Grant Program offers equipment grants 
for which researchers can apply for equipment with a minimum cost of 
$100,000; an appropriate mechanism for use in replacing pieces of large 
equipment. However, a similar grant program does not exist to assist 
researchers in replacing less expensive ($50,000-$100,000), often 
highly utilized, pieces of equipment. Researchers' small equipment 
needs are just as critical as larger pieces of equipment and the cost 
of replacing such instrumentation can be prohibitively expensive to 
support on a single grant application. Therefore, AGA urges Congress to 
suggest that NIH study the need for a small equipment grant program 
comparable to the existing Shared Instrumentation Grant Program.
Evaluation Tap
    AGA is grateful to Congress for the substantial investment made in 
biomedical research in the last 4 years. The goal of doubling the NIH 
budget is within reach and AGA is hopeful that Congress will achieve 
this goal in fiscal year 2003. However, AGA remains concerned that the 
obligations to transfer NIH funds to various non-NIH agencies has 
detracted significantly from NIH research activities and is having a 
destructive impact on such activities. AGA urges Congress to embrace 
the funding recommendations made by Friends of AHRQ and the CDC 
Coalition to fulfill the research needs of these agencies, rather than 
reprogramming NIH funds to achieve these ends.
                               conclusion
    The diseases described above continue to take a huge toll on 
America's health and economy. AGA appreciates Congress' commitment to 
biomedical research, to the NIH in recent years, and to digestive 
diseases research in particular. However, more effort is needed. 
Congress must keep up the momentum it has started, and in some cases, 
devote even more resources. AGA appreciates the opportunity to present 
its views on the fiscal year 2003 appropriations. Please call Michael 
Roberts, Vice President of Public Policy and Government Relations at 
AGA, at (301) 941-2618 if you have further questions.
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research
    The National Alliance for Eye and Vision Research (NAEVR) is 
pleased to have the opportunity to submit its views to the Committee. 
NAEVR is a nonprofit advocacy coalition of 43 organizations dedicated 
to expanding our national capacity to address eye and vision research 
opportunities and to ensure the best eye health for all Americans. The 
NAEVR organizations represent the spectrum of vision research and eye 
health interests, including researchers, providers, consumer advocates 
and industry.
    We would like to begin by thanking the Committee for your 
continuing commitment to biomedical research supported by the National 
Institutes of Health (NIH) and the National Eye Institute (NEI). 
Congress has been tremendously supportive of pushing the frontiers of 
medical research through support of the NIH and the NEI. We know that 
you have many difficult decisions with regard to funding priorities in 
your Appropriations Bill and we appreciate the strong support that you 
have provided NIH. With this funding, NEI supported researchers have 
developed several promising experimental treatments with the potential 
to halt vision loss and restore sight for millions of Americans. We are 
now at a turning point. Clinical trials testing a number of new 
treatments are within our grasp. To advance these promising treatments 
to clinical trials requires a strong, sustained financial commitment 
from the federal government.
                    fiscal year 2003 funding request
    We commend President Bush for proposing a funding increase for NIH 
that will complete the 5-year national campaign to double the NIH 
budget by fiscal year 2003. We urge the Committee to provide at least a 
$3.7 billion increase for NIH, resulting in a total NIH budget of $27.3 
billion in fiscal year 2003.
    Within the context of the NIH budget, the National Alliance for Eye 
and Vision Research requests your support for an NEI budget of $692 
million in fiscal year 2003. This funding level represents the 
professional judgement of the vision research community as the level 
necessary to advance important discoveries resulting from previous 
investments and to pursue new scientific opportunities. The National 
Alliance for Eye and Vision Research has framed the following set of 
priorities which, if adequately supported, will move the field of 
vision research significantly forward and provide translational 
benefits to additional NIH priorities.
    Neurodegenerative Eye Diseases.--Significant advances have been 
made in research on neurodegeneration across a range of eye diseases, 
including retinitis pigmentosa, ocular albinism, macular degeneration, 
and glaucoma. These investigations offer fresh insights on these 
diseases and suggest new intervention points for prevention and 
therapy. In light of these exciting developments, additional resources 
are needed to increase support for research on neurodegenerative eye 
diseases. Support for extramural research should be expanded, including 
support for genomic and proteomic resources and for collaborative 
multidisciplinary research.
    Genetics and Gene Therapy Approaches to Neurodegeneration.--Ongoing 
genetic studies are revealing the normal function of genes and how 
those functions are impaired when genes mutate which in turn will 
provide essential insight into many types of vision dysfunction. Gene 
therapy holds great potential as a therapeutic strategy to halt the 
progression of many forms of blinding eye diseases, including macular 
degeneration, retinitis pigmentosa, and glaucoma. Gene therapy has 
already proven to be successful in preventing vision loss and restoring 
sight in canine and rodent models with forms of retinitis pigmentosa, a 
group of inherited incurable forms of blindness. Increased support for 
the NEI will expedite additional study of gene therapy applications to 
establish the safety of these potential cures in order to move to 
clinical trials.
    Diabetic Eye Disease.--Diabetic retinopathy is the leading cause of 
new cases of blindness in this country. Diabetic macular edema, 
secondary to diabetic retinopathy, is a major cause of vision loss due 
to the leakage of fluids and other materials from damaged blood 
vessels. The NEI is implementing the recommendations of the Diabetes 
Research Working Group related to diabetic eye disease and has 
initiated plans to develop and evaluate more rapidly new treatments for 
macular edema through a new multicenter clinical trials network.
    Bioengineering and Advanced Instrumentation.--NEI is pursuing the 
development of advanced assistive devices for the visually impaired, 
adaptive optics and other imaging techniques to improve non-invasive 
examination of ocular tissues for both research and disease diagnosis, 
instruments to analyze the biomechanics of the eye, and instruments to 
analyze visual performance. Additional study is needed in tissue 
bioengineering related to artificial cornea and adult stem cell 
research to replace or regenerate corneal tissue damaged by injury or 
disease, as well as into other applications of innovative technologies 
that will enhance or restore vision.
    Health Disparities.--Research in this area will enhance our 
understanding of glaucoma, diabetic retinopathy, and myopia 
incorporating studies of comorbidity, natural history, and genetics 
with special emphasis on populations at increased risk. For example, 
rates of blindness from glaucoma are six times higher in African-
Americans than in Caucasians, however age-related macular degeneration 
is rare for African-Americans as compared to Caucasians. Mexican-
Americans have a high rate of diabetes that can lead to the development 
of the major complications of diabetes, including diabetic retinopathy. 
NEI-supported researchers have found that 20 percent of a population-
based sample of Mexican-Americans living in Tucson and Nogales, Arizona 
had diabetes. Many of the participants did not realize they had 
diabetes and almost a quarter of these already had moderate diabetic 
retinopathy.
    Low Vision.--A related area of concern is low vision, or vision 
impairment which is not correctable by glasses or contact lenses. 
Currently, there are more than 1 million Americans today in the United 
States who are legally blind and 2.3 million are visually impaired. 
More than 50,000 Americans lose their sight each year and nearly half 
of these individuals go blind needlessly. Approximately 30 million 
Americans suffer from age-related threats to sight, namely macular 
degeneration, glaucoma, cataracts and diabetic retinopathy. These 
conditions are expected to nearly double by the year 2030 as the baby-
boomers retire. By the year 2030, more than 66 million Americans will 
be at risk of developing a common eye disease. Even more serious are 
the eye diseases which cause visual impairment in children. These 
include retinopathy of prematurity, cortical visual impairment, and 
coloboma. Low vision in children often affects their development and 
results in the need for special education, vocational training, and 
social services throughout their lives.
    National Eye Health Education Program.--The National Eye Health 
Education Program (NEHEP) is coordinated by the NEI in partnership with 
over 60 national organizations that conduct eye health education 
programs. NEI has developed and is initiating a program directed at low 
vision in order to increase public awareness about visual impairment 
and the impact it has on everyday life. The Low Vision Traveling 
Exhibit, launched early last year, is being displayed in shopping malls 
around the country during the next 5 years. The program provides 
information about low vision services and the devices which are 
currently available to assist those with visual impairments. This 
effort is directed at those suffering from visual impairments and also 
to medical professionals, eye care specialists, managed care 
organizations, and family members. The NAEVR supports this public 
education partnership and urges the Committee to provide adequate 
resources for the continuation of this program and other important eye 
health public education initiatives.
    If we do not make significant investments in vision research, we 
will have both a health care and economic crisis in this country, given 
our nation's demographics. With increased support for the NEI, we can 
make treatments for many vision diseases and disorders happen within 
our lifetime.
                               conclusion
    Mr. Chairman, the National Alliance for Eye and Vision Research 
supports an increased research focus on eye and vision disorders. The 
benefits of this research will improve the quality of life for all 
Americans by allowing individuals to remain independent and lead 
productive, fulfilling lives. We urge the Committee to provide a total 
NEI budget of $692 million in fiscal year 2003. We also strongly 
support a total appropriation of $27.3 billion for the NIH in fiscal 
year 2003. In this time of great medical discovery, we must do our best 
to find ways to prevent and treat eye and vision disorders and provide 
quality eye care services and devices for those who are already 
suffering from visual impairment.
    Thank you for allowing the National Alliance for Eye and Vision 
Research to present its views.
                                 ______
                                 
      Prepared Statement of the Friends of National Institute of 
                     Environmental Health Sciences
    Over the last several years the nation has shown a strong 
commitment to health research sponsored by the National Institutes of 
Health (NIH). This financial commitment has allowed the nation to 
dedicate resources to emerging scientific opportunities that will lead 
to beneficial health outcomes for the American public. As we near the 
end of the 5-year national commitment to double the NIH overall budget, 
we continue to see promise in emerging research; however we are 
concerned about how we will fund these opportunities.
    This dilemma is particularly true for the National Institute of 
Environmental Health Sciences (NIEHS). This institute plays a critical 
role in what we know about the relationship between our environmental 
exposures and disease onset. Through the research sponsored by this 
Institute, we know that Parkinson's disease, breast cancer, birth 
defects, miscarriage, delayed or diminished cognitive function, 
infertility, asthma and many other diseases and ailments have confirmed 
environmental triggers. Our expanded knowledge, as a result, allows 
both policy makers and the general public to make important decisions 
about how to reduce toxin exposure and reduce the risk of disease and 
other negative health outcomes.
    In an effort to continue the expansion of this knowledge base, the 
Friends of NIEHS supports a tripling of the NIEHS budget by 2006. The 
Friends of NIEHS is a coalition committed to expanding NIH's 
environmental health research portfolio through increased 
appropriations for NIEHS. Made up of over fifty patient, healthcare 
provider, children's health, and industry groups, the Friends of NIEHS 
represents an enormously broad constituency dedicated to improving the 
nation's knowledge about our health and our environment.
    The effort to triple NIEHS' budget by 2006 requires an initial 
increase in appropriations of $293 million over fiscal year 2002 
funding. This additional funding will allow the Institute to continue 
current projects and pursue promising research in the areas of 
individual susceptibilities (due to gender, age, racial/ethnic 
backgrounds, etc.), environmental disease triggers and technologies 
(such as toxicogenomics and mouse genomics). The Friends of NIEHS 
respectfully requests Congress to appropriate a total of $865 million 
for fiscal year 2003.
                             general health
    Most diseases are suspected of having an environmental trigger that 
initiates disease development. Examples include: cancer, Parkinson's 
Disease, Alzheimer's Disease, asthma, infertility, diabetes, and 
autoimmune disease. The NIEHS has a number of initiatives aimed at 
determining the environmental causes of these diseases and disorders; 
however the current funding available to the Institute, despite the 
recent doubling effort, limits the Institute's research capacity to 
actively pursue emerging opportunities for prevention, screening, care 
and treatment.
    Individual susceptibility differs based on genetic structure, the 
time of life at which exposures occur, gender and even socio-economic 
status. This is particularly relevant when exploring issues of health 
disparities among low income and ethic/racial communities. Individuals 
in these categories are exposed to multiple toxins from countless 
sources. We must define how we, as individuals, differ in our response 
to environmental agents. Increased funding will allow the Institute to 
study genetic interactions to toxin exposure and intensify efforts to 
develop new methods of screening for environmental health risk factors. 
Additionally, we believe increased funding would allow the Institute 
the opportunity to go past studying only known carcinogens and explore 
for potentially new Cancer causing agents, or those combinations of 
chemicals/environmental conditions that become carcinogens.
                           children's health
    Advocates for children are keenly aware that children are at 
increased risk for being adversely affected by environmental agents. By 
virtue of their inherently small stature and rapidly developing bodies, 
children simply come into contact with more air pollution, more 
contaminated soil, and more lead paint. Consequently, children are more 
susceptible to negative health outcomes of toxin exposure. 
Environmental exposure both during the perinatal period and during the 
first 5 years of life increase the risk of developing learning and 
other developmental disabilities, asthma, leukemia, and autism.
    Of all the Institutes, NIEHS has done the most to research and 
expose recognition of harm to child development through environmental 
pollution. Increased Institute funding will sustain the 12 Centers for 
Children's Environmental Health and Disease Prevention as well as the 
10 Pediatric Environmental Health Specialty Units. The collective 
ability of these programs to advance the science as well as deliver 
clinical support is critical to making meaningful progress in 
children's health promotion in this country.
    The contributions of the NIEHS' Centers on Children's Environmental 
Health have been very significant to both scientific advances and 
public awareness through demanding partnership between researchers and 
community resources. NIEHS' focus on early child development and 
sciences has revealed preventive interventions that can be utilized by 
parents during the perinatal and postpartum periods to reduce the level 
of toxin exposure. Further, the Institute's research plays an important 
role in the development of policy impacting children's environmental 
health. Environmental health research serves as the basis for programs 
such as lead paint remediation, clean water and air programs and 
smoking cessation programs.
                          endocrine disruption
    There is growing evidence that hormone disruption (endocrine 
disruption) by chemicals is one of the mechanisms through which 
chemicals in the environment contribute to increases in human diseases. 
NIEHS has a critically important role to play in building and 
understanding of these hazards by answering questions that have been 
raised by other agencies' measurements of chemicals found in both the 
environment and in humans.
    Two recent studies clearly indicate that additional funding is 
needed to significantly increase NIEHS' research on endocrine-
disrupting chemicals. For example, in March 2002, the U.S. Geological 
Survey (USGS) reported on its first-ever nationwide reconnaissance of 
the occurrence of pharmaceuticals, hormones and other organic 
wastewater contaminants in the nation's waters. Thirty-three (33) of 
the 95 substances analyzed are known or are suspected to be endocrine 
disruptors. Detection of multiple contaminants was common, including 
many compounds for which no health guidelines have been established. 
USGS indicated that little is known about the health effects of the 
mixtures detected.
    Just over 1 year ago, in March 2001, the Centers for Disease 
Control and Prevention issued its first ``National Report on Human 
Exposure to Environmental Chemicals.'' The report presents levels of 27 
environmental chemicals in human blood and urine (e.g., lead, mercury, 
and metabolites of organophosphate pesticides). One of the reports 
purposes is to set priorities for research on the human health effects 
of environmental chemicals, including those known or suspected to be 
endocrine disruptors. Of particular interest was CDC's finding of 
higher-than-expected levels of certain phthalates in women of 
reproductive age. Certain phthalates are suspected of having endocrine-
related toxicity. NIEHS should play a leadership role in identifying 
the effects of these and the other hormone disruptors detected.
                               conclusion
    It is better to prevent disease than to have to treat disease. Of 
all the elements involved in disease development--our genes, our age, 
and our environment--only the environment is readily within our 
control. Environmental health science research is our most powerful 
disease prevention tool.
    The Friends of NIEHS appreciates the support that this Subcommittee 
has provided for NIH and specifically NIEHS. We realize that there are 
many competing priorities for the Subcommittee members, and we 
appreciate your consistent support.
    Thank you for the opportunity to submit testimony on these critical 
areas of funding.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
                              introduction
    On behalf of the Cystic Fibrosis Foundation, I am pleased to submit 
this statement to the Appropriations Subcommittee for Labor, Health and 
Human Services, and Education. I appreciate the opportunity to describe 
what cystic fibrosis (CF) is, how it affects patients and their 
families, and why we urgently seek your help to achieve new treatments 
or a cure. The CF Foundation is committed to finding a cure for CF as 
quickly as possible. We believe our efforts will be accelerated through 
a stronger partnership with National Institutes of Health (NIH).
    We are grateful for the leadership role of this Subcommittee in 
boosting the appropriations for the NIH for the past several years. We 
commend you for your steadfast commitment to doubling the NIH budget 
over 5 years, a process that we hope will be successfully completed 
this year. You have had great foresight in acknowledging the importance 
of this strong biomedical research effort to our nation. We look 
forward to working with the Subcommittee to ensure that NIH continues 
to flourish in the future and that our country reaps the benefits of 
such an impressive investment in biomedical research.
    We would like to share with you some of the exciting progress in CF 
research and explore the opportunity to form a public-private 
partnership to identify new treatments or a cure for CF. We urge you 
and your colleagues to encourage the NIH to support the mission of the 
CF Foundation in this tremendous undertaking to translate basic 
research advances into new treatments through its model clinical trials 
network. As CF is an ``orphan'' disease, the role of the NIH in 
translating basic research into treatments is critical. By encouraging 
the NIH's support, this partnership offers Congress the opportunity to 
champion promising, mission-driven research.
                      cystic fibrosis: the disease
    To give you a better idea of the progress we have made in treating 
CF and the substantial challenges we still face, I would like to share 
a few statistics. When a child was diagnosed with CF in 1960, that 
child had a life expectancy of less than 10 years. Today, children who 
are diagnosed with CF have a life expectancy of more than 30 years. 
Although this is significant progress, it is obviously not the cure we 
seek.
    CF is a genetic disease that affects approximately 30,000 children 
and adults in the United States. An individual must inherit a defective 
copy of the CF gene from each parent to have the disease. CF causes the 
body to produce abnormally thick, sticky mucus, due to the faulty 
transport of sodium and chloride to the outer surfaces of the cells 
that line organs, such as the lungs and pancreas. Individuals with CF 
experience persistent coughing and wheezing and are particularly 
susceptible to chronic lung infections, including pneumonia. A 
bacterial or viral infection that is of little concern or consequence 
to a person without CF could be devastating and potentially life-
threatening to someone with the disease. Individuals with CF also have 
excessive appetite but poor weight gain because the pancreas is 
obstructed and digestive enzymes cannot reach the intestines.
    The treatment of CF depends upon the stage of the disease and the 
organs involved. Patients with CF are often treated by chest physical 
therapy, which requires vigorous percussion on the back and chest or 
the use of mechanical devices to dislodge the thick mucus from the 
airways. Powerful antibiotics also may be used to treat lung infections 
and may be administered intravenously, orally, and by aerosol. Because 
of the effects of CF on the digestive system, patients cannot absorb 
enough nutrients and may need to eat an enriched diet and take both 
replacement vitamins and pancreatic enzymes. Eventually, organ 
transplantation may be necessary, which offers the few patients who 
successfully receive donated organs a new chance for a healthy future.
                     improvements in cf treatments
    In the past few years, there have been several important 
breakthroughs in new CF therapies, including: (1) the development and 
approval in 1993 of Pulmozyme<Register>, a mucus-thinning drug that 
reduces the number of respiratory infections and improves lung 
function; (2) the use of high-dose ibuprofen therapy to reduce lung 
inflammation; and (3) the development and approval in 1997 of 
tobramycin solution for inhalation, or TOBI<Register>, a reformulated 
version of a well-known antibiotic that can now be delivered directly 
to the site of lung infections.
    The gene that causes CF was discovered in 1989 by scientists 
supported by the CF Foundation. In the decade since that discovery, 
researchers have been working to translate the knowledge of the gene 
into therapies for CF. CF Foundation-supported scientists at several 
medical institutions are involved in gene therapy research; most are 
concentrating on the development of safe and effective gene delivery 
systems. The ultimate success of gene therapy will depend on 
identifying the optimal means of delivering sufficient quantities of 
healthy genes to the airways of individuals with CF. We continue to 
make a significant commitment to gene therapy research because we 
believe its promise is great.
    Although gene therapy appears to be a particularly promising area 
of research for CF, we also are pursuing a wide range of other research 
approaches that will help us treat the complex symptoms of CF. 
Researchers are looking for new types of antibiotics that will assist 
in treatment of chronic CF lung infections as well as treatments that 
will stimulate cells to secrete chloride, resulting in mucus that is 
less thick and sticky.
    Some promising compounds that are now in clinical trials include 
the following:
  --INS 37217 is a compound that is being tested to increase the 
        transport of chloride across the cell membrane to form thinner 
        mucus to help clear the airways of bacteria and other harmful 
        pathogens, rather than the thick, sticky mucus that now creates 
        a breeding ground for infection.
  --Phenylbutyrate is another compound that shows promise. It appears 
        to move the abnormal protein formed by the defective CF gene to 
        the proper spot on the cell surface to form a channel for 
        chloride to escape the cell and to inhibit the absorption of 
        excess levels of sodium.
                     the role of the cf foundation
Tailoring Care for Individuals With CF
    How can individuals with CF be sure they have high quality care 
that reflects these recent research advances, and how are these diverse 
research projects being supported?
    The CF Foundation is the driving force behind both CF treatment and 
CF research. It supports and accredits more than 115 CF care centers at 
teaching hospitals and community hospitals across the country. These 
care centers offer comprehensive diagnosis and treatment services to 
individuals with CF. The lives of patients with CF have been greatly 
improved by the specialized care at these centers, and the CF 
Foundation considers our role in maintaining this system of care 
centers to be one of our core responsibilities. The CF Foundation also 
maintains a registry including data on patients with CF and their 
health status, a database that remains vitally important to ongoing 
efforts to improve the quality of health care for individuals with CF.
Supporting Research to Advance Care
    The CF Foundation supports a broad array of CF research 
initiatives, including:
  --Sponsoring a Therapeutics Development Program that pursues the full 
        spectrum of CF drug development, from the discovery of 
        promising compounds through clinical evaluation of those 
        compounds. The Therapeutics Development Program applies 
        cutting-edge technologies to CF research through the screening 
        of potential drug candidates, their evaluation in the 
        laboratory, and their testing in pre-clinical studies and 
        clinical trials, including large-scale studies involving 
        patients with CF. In essence, a virtual pipeline for the 
        development of drugs to treat CF has been built.
  --Funding a variety of grants to scientists to conduct CF research. 
        The CF Foundation's awards include new investigator research 
        grants, clinical research grants, research fellowships, 
        clinical fellowships, and student traineeships.
  --Supporting 10 Research Development Program centers for basic 
        research projects at leading universities and medical schools.
  --Maintaining a centralized laboratory dedicated to identification of 
        Burkholderia cepacia complex, a species of bacteria found in 
        agricultural and consumer products that can be lethal to 
        individuals with CF.
The Therapeutics Development Network: Translating Basic Science Into 
        New Treatments
    This myriad of activities is critical to our mission of improving 
and lengthening the lives of individuals with CF. In 1997, the CF 
Foundation built an outstanding clinical trials network, the 
Therapeutics Development Network, to conduct clinical trials to 
translate basic research findings into new therapies. Our ability to 
conduct clinical research in a timely fashion through the Therapeutics 
Development Network is essential to our ultimate success. The 
Therapeutics Development Network provides access to top researchers to 
conduct trials, and to numerous patients who can enroll in trials. It 
conducts Phase I and II clinical trials, and taps into the CF 
Foundation's nationwide care center network for large-scale Phase III 
testing. It plays a pivotal role in accelerating the development of new 
CF treatments to improve and save the lives of individuals with CF.
    The clinical research conducted through the Therapeutics 
Development Network is focused on four types of treatment strategies: 
gene therapy, protein-assist and chloride channel therapies, anti-
inflammatory therapy, and anti-infection therapy. This comprehensive 
approach of the Therapeutics Development Network is dictated by the 
fact that a cure for CF will probably be a combination of gene therapy, 
protein repair therapy, and drug or other therapies. Through the 
network, eight trials have been completed, and 10 more have been 
selected for pursuit in the next 18 months.
The Need for Expansion
    To undertake clinical trials on all promising CF therapies, the CF 
Foundation must increase the number of medical institutions in the 
Therapeutics Development Network from eight centers to as many as 20 
centers around the country. This expansion will help to secure the 
expertise of a greater number of researchers and work with more 
patients. The translation of basic science findings into new therapies 
is not a simple, nor inconsequential, endeavor. The most significant 
challenge facing the CF Foundation is to ensure that we have the 
financial resources necessary for the expansion of the clinical trials 
network as we must pursue all the promising translational and clinical 
research opportunities before us.
    Because CF is an orphan disease, patients are not able to rely on 
industry to pitch in to the extent necessary to get the job done. The 
lives of thousands of individuals hang in the balance. The CF 
Foundation has taken it upon itself to leave no stone unturned and to 
aggressively pursue promising leads in rapid fashion. Many generous 
individual and corporate donors and successful special fund-raising 
events have financed our research and care programs. A few years ago, 
we received a $20 million gift from the Bill and Melinda Gates 
Foundation for a drug discovery program. Just last year, we received a 
pledge for $25 million over 5 years from Tom and Cydney Marsico, as a 
testament to our no-nonsense strategic approach to a cure. However, we 
remain concerned about the lingering effects of September 11th on our 
fund-raising successes, but the urgency to cure this disease remains. 
In order to take the Therapeutics Development Network to the next 
level, we need a stronger partnership with NIH.
An Opportunity for a Promising Partnership
    NIH has a laudable history of supporting translational and clinical 
research to ensure that basic research findings move quickly to the 
patient's bedside. It is obviously of keen interest to Congress to make 
certain that basic research findings are rapidly translated into 
treatments. Perhaps the best-known clinical trials system at NIH is 
that supported by the National Cancer Institute to test potential 
cancer therapies. Other NIH institutes have clinical trials networks or 
collaborate with the private sector, including private non-profit 
organizations, in undertaking clinical trials. All of these initiatives 
provide crucial support through public-private partnerships to 
translate basic science into improved treatments for millions of 
Americans.
    We urge NIH to partner with the CF Foundation to strengthen and 
expand the Therapeutics Development Network. This multi-institutional 
network with a centralized data management system and strong patient 
protections has been acknowledged, by NIH staff and others, as a model 
for conducting clinical trials, especially for orphan diseases. We 
believe a collaboration between NIH and the CF Foundation's 
Therapeutics Development Network would have two clear benefits: (1) it 
would accelerate the pace of research on new CF treatments; and (2) it 
would provide valuable information to the NIH regarding the structure 
of clinical trials networks for other rare genetic or metabolic 
diseases.
    We request that the Subcommittee encourage NIH to enter into a 
renewed partnership with the CF Foundation to advance CF clinical 
trials. The Subcommittee has placed great faith in the biomedical 
research enterprise by providing significant boosts in funding. We hope 
that the Subcommittee will now urge a robust public-private partnership 
in CF clinical trials to bring about the goal of all basic research 
findings--helping patients to overcome disease and live longer, 
healthier lives. By working together, we can continue adding tomorrows 
every day.
    Thank you again for the opportunity to submit this statement. The 
CF Foundation looks forward to working with Congress in continuing to 
support this biomedical research enterprise.
                                 ______
                                 
        Prepared Statement of the American Psychological Society
    On behalf of our members, I want to thank the Committee for your 
leadership in the bipartisan effort to double the NIH budget. As a 
member of the Ad Hoc Group for Medical Research Funding, the American 
Psychological Society recommends $27.3 billion for NIH in fiscal year 
2003 as the 5th and final installment of the 5-year doubling plan. The 
rationale for these aggressive increases remains as compelling today as 
it was in fiscal year 1999, the year that you and your colleagues in 
the Senate embarked on this path. NIH has experienced a period of 
unparalleled growth in the past 5 years, and the progress achieved as a 
result of research funded by NIH will lead us into a new era of 
discovery and innovation.
    Within the NIH budget, my testimony today focuses on the behavioral 
and social science research activities of NIH.
  overview: basic and applied psychological research related to health
    The effects of behavior on health are indisputable. Many leading 
health conditions--heart disease, lung disease, diabetes, developmental 
disabilities, brain injury, AIDS, and so many more--are behavioral in 
origin. Consider, for example, the devastating health consequences of 
smoking, drinking, taking drugs, engaging in risky sexual behaviors. 
Even conditions which may be biological in origin often are behavioral 
in their manifestation. I'm speaking, for example, of such things as 
cognitive impairment due to brain injury, mental illness, or dementia. 
None of these conditions can be fully understood without an awareness 
of the behavioral and psychological factors involved in causing, 
treating and preventing them. Understanding behavior is as important as 
mapping a gene or diagnosing a biological disorder.
    APS members include thousands of scientists who, with NIH support, 
conduct basic research related to physical and mental health at our 
Nation's leading universities and colleges. Virtually every institute 
at NIH supports some amount of psychological science. Examples include: 
The connections between the brain and behavior; research into how 
children grow and develop; management of debilitating chronic 
conditions such as diabetes and arthritis as well as mental disorders; 
and the behavioral aspects of smoking and drug and alcohol abuse, so 
that science may find ways for people to escape addiction. These are 
some of the most promising research frontiers today, and our field is 
poised to make significant strides in a number of scientific areas that 
a few years ago did not even exist.
    The basic psychological research conducted by APS members and 
others in the field has implications for a wide range of applications 
at NIH, including developing more effective interventions to prevent 
such diseases as diabetes, cancer, heart disease, and addiction, even 
developing more effective hearing aids and speech recognition machines. 
All of these areas of research are bound together by a simple concept: 
that understanding the human mind, brain, and behavior is central to 
maximizing human potential. That places these pursuits squarely at the 
forefront of the most pressing health issues facing this Congress, this 
Administration, and this Nation. We ask that you continue to help make 
behavioral research more of a priority at NIH, both by providing 
maximum funding for those institutes where behavioral science is a core 
activity, and by encouraging NIH to advance a model of health that 
includes behavior in deciding its scientific priorities.
     behavioral science research training: a guaranteed investment
    The outcomes of science are unpredictable. Yet there is one aspect 
of science where the time and money invested is guaranteed to pay off: 
the training of our future scientists. We know that if we provide 
support now for a young investigator, we will have a well-trained, 
highly-qualified scientist as a result. We also know that without 
training, we will not have an adequate pool of researchers to pick up 
where preceding generations leave off. This is a serious issue in 
behavioral science at NIH, where the demand for behavioral science 
investigators at NCI, NIMH, and other institutes outpaces the current 
supply of behavioral science researchers. In order to meet the future 
needs of research in health and behavior, NIH must have a comprehensive 
training strategy in place today, one that focuses on training young 
investigators in the core disciplines of behavioral and social science 
research as well as in multidisciplinary perspectives. We ask the 
Committee to support the development, in consultation with the relevant 
scientific community, of a comprehensive training strategy for 
behavioral and social science research at NIH. This strategy should 
include all training mechanisms, and should be balanced between 
interdisciplinary research and traditional core disciplines in the 
behavioral sciences.
    I would now like to turn my attention to the behavioral science 
research that is taking place at the individual institutes.
               national institute of mental health (nimh)
    Strengthening Clinical Science.--Under the leadership of Acting 
Director Richard Nakamura, NIMH is working with the Academy of 
Psychological Clinical Science to explore the development of training 
models for clinical science in psychology. The goal is to establish 
training for clinical scientists who will go on to create new ways to 
diagnose, measure and treat mental disorders, and new ways to evaluate 
how those treatments translate from the lab to the real world. We ask 
the Committee to support the efforts of NIMH as the institutes takes 
this very complex first step in the on-going fight against mental 
illness.
    Translational Research in Behavioral Science.--NIMH has 
demonstrated enormous leadership in promoting translational research in 
behavioral science, aimed at bringing knowledge from the laboratory 
into clinical research and application. The goal is to develop more 
effective, theory-based interventions and service-delivery models for 
mental disorders through increased applications of the garnered data. 
In simplest terms, this is the result Congress was looking for when it 
chose to double the NIH budget: the results of research being used to 
treat patients with complex disorders in an effective and efficient 
manner. This initiative will develop research centers that support the 
transition of basic behavioral science research to patient-oriented 
studies regarding new interventions and delivery of services for 
patients with mental disorders.
    Basic Behavioral Research at NIMH.--NIMH is to be commended for 
promoting the transfer of knowledge into application. At the same time, 
basic behavioral research at NIMH must continue to receive the same 
strong support it traditionally receives there. This is crucial, as 
NIMH is a de facto source of basic behavioral knowledge that is tapped 
by many other institutes. Until other institutes begin to support 
larger amounts of basic behavioral science research connected to their 
respective missions, it is essential that NIMH's programs of research 
into behavioral phenomena such as cognition, emotion, psychopathology, 
perception, development, and others continues to flourish. We ask the 
Committee to encourage NIMH's continued efforts to strengthen the ties 
between basic and clinical behavioral research, and to encourage NIMH's 
basic behavioral science portfolio in order to ensure continued 
progress in our understanding of the causes, treatment, and prevention 
of mental illness and the promotion of mental health.
                national institute on drug abuse (nida)
    Behavioral research plays an important role in NIDA's search for 
solutions to the complex social and public health problems posed by 
drug abuse and addiction. NIDA supports basic research on such topics 
as craving, motivation, and decision-making to determine how behavioral 
and cognitive factors underlie and can lead to drug addiction. 
Recognizing that for some individuals the initial voluntary behavior to 
use a drug is more likely to lead to the disease state of addiction, 
NIDA has a comprehensive behavioral research portfolio that serves as 
the foundation for all of its prevention and treatment efforts.
    NIDA's National Prevention Research Initiative.--NIDA's new 
Prevention Research Initiative integrates basic science with prevention 
research. NIDA-supported investigators will draw on basic behavioral, 
cognitive, developmental, social and neurobiological research to inform 
the development of innovative and novel prevention interventions. NIDA 
will focus on preventing the initiation of drug abuse by better 
understanding basic cognitive processes, such as the decision to use a 
drug. This basic research component is just one of three components 
(along with establishment of transdisciplinary prevention centers and 
community multi-site prevention trials) that NIDA will use to enhance 
national prevention efforts. Understanding behavior will not only aid 
in the development of prevention strategies, it will also aid in the 
development of new therapies for those addicted to drugs. We ask this 
Committee to increase NIDA's budget in proportion to the overall 
increase at NIH in order to reduce the health, social and economic 
burden resulting from drug abuse and addiction in this Nation.
       national institute on alcohol abuse and alcoholism (niaaa)
    NIAAA has broadened its behavioral science portfolio in order to 
understand the underlying psychological and cognitive processes that 
lead people to drink, and the impact of chronic alcohol abuse on those 
processes. As one example, NIAAA convened a workshop of national 
experts on social identification and alcohol research to examine ways 
that group peer pressure and group norms concerning drinking influence 
drinking. The Institute also convened a group of experts in cognitive 
research to explore the effects of alcohol abuse on memory, decision-
making, cognitive development to begin looking at issues of cognitive 
rehabilitation.
    Combining Behavioral Science with Pharmacology.--With research 
suggesting a genetic component to alcoholism and alcohol abuse and 
physiological dependency as a key factor in alcohol intake, the lines 
are becoming less and less clear between what is considered behavioral 
and what is considered biological research. An excellent example of how 
behavioral science research can mesh with pharmacological research is 
NIAAA's project, Combining Medications and Behavioral Interventions 
(COMBINE). Over the next 2 years, at eleven treatment research centers 
across the United States, alcohol-dependent research participants will 
receive one of two medications (naltrexone and acamprosate), and one of 
two behavioral therapies (moderate-intensity and minimal-intensity). 
Some individuals will receive only the moderate-intensity behavioral 
therapy. The goal is to develop the most effective therapies that 
combine both pharmacology and behavior.
    College Drinking.--In early April, 2002, NIAAA launched its College 
Drinking Initiative, highlighted by its just-released flagship report, 
``A Call to Action: Changing the Culture of Drinking at U.S. 
Colleges.'' The report is the result of several years of collaborative 
work by distinguished alcohol researchers, senior higher education 
officials, and students as members of NIAAA's Task Force on College 
Drinking. The release of this study on April 9, 2002 received 
significant nation-wide media attention on 3 major networks. Led by APS 
member Dr. Mark Goldman of the University of South Florida, and 
Reverend Edward Malloy of the University of Notre Dame, the task 
force's goals are to advise NIAAA and other policy makers on future 
research that can improve campus prevention and treatment programs, and 
to provide college presidents, policy makers, and researchers with 
information on the effectiveness of current interventions. The research 
strongly supports the use of comprehensive, integrated programs with 
multiple complementary components that target individuals, including 
at-risk or alcohol-dependent drinkers, the student population as a 
whole, and the college and the surrounding community. This is an 
excellent example of how behavioral science can be a pillar of public 
health. We ask this Committee to increase NIAAA's budget in fiscal year 
2003 in proportion to the overall increase at NIH in order to reduce 
the Nation's alcohol-related health problems.
         national institute of general medical sciences (nigms)
    NIGMS is the only National Institute specifically mandated to 
support research not targeted to specific diseases or disorders. That 
legislative mandate also extends to behavioral science research:

    ``The general purpose of the National Institute of General Medical 
Sciences is the conduct and support of research, training, and, as 
appropriate, health information dissemination, and other programs with 
respect to general or basic medical sciences and related natural or 
behavioral sciences [emphasis added] which have significance for two or 
more other national research institutes or are outside the general area 
of responsibility of any other national research institute.''----(TITLE 
42, CHAPTER 6A, SUBCHAPTER III, Part C, subpart 11, Sec. 285k)

    Despite this legislative mandate, NIGMS does not now support 
behavioral science research or training. This is an enormous oversight, 
given the wide range of fundamental behavioral topics with relevance to 
a variety of diseases and health conditions.
    Congress addressed this issue for the past 3 years in the reports 
on the fiscal year 2000, fiscal year 2001, and fiscal year 2002 
appropriations for NIH. Specifically, the Senate said: ``The Committee 
is concerned that NIGMS does not support behavioral science research 
training. As the only Institute mandated to support research not 
targeted to specific diseases or disorders, there is a range of basic 
behavioral research and training that NIGMS could be supporting. The 
Committee urges NIGMS, in consultation with the Office of Behavioral 
and Social Sciences, to develop a plan for pursuing the most promising 
research topics in this area.'' NIGMS has not responded to your 
requests. Once again, we ask the Committee to direct NIGMS to develop a 
plan for establishing a basic behavioral science research program at 
NIGMS.
                    national cancer institute (nci)
    Having already established itself as a leader among NIH Institutes 
in many fields of research, NCI has made enormous advances in the 
behavioral sciences.
    NCI's Behavioral Research Program.--NCI's comprehensive behavioral 
science research program ranges from basic behavioral science to 
research on the development, testing and dissemination of disease 
prevention and health promotion interventions in areas such as tobacco 
use, diet, and even sun protection. NCI's Behavioral Research Program 
applies conceptual and methodological innovations from psychological 
science to cancer-related issues. Focusing on transdisciplinary and 
collaborative research, NCI's Behavioral Program has expanded to five 
branches, including a basic biobehavioral research branch, a health 
communication and informatics research branch, and the tobacco control 
research branch. The transdisciplinary research conducted by NCI is an 
example of the new path for science, as disciplines are only made 
stronger when complimented by others. With every new discovery that 
arises, we see more and more that no branch of science is complete if 
it stands alone. The great Chinese philosopher Sun Tzu once said, ``The 
musical notes are just five in number, but their combination gives rise 
to so numerous melodies that one cannot hear them all.'' The same 
philosophy must be applied to scientific research; psychology, biology, 
physics, genetics, technology all are intertwined, and when used 
together they form a foundation for advancement that is endless. We ask 
Congress to support NCI's behavioral science research and training 
initiatives and to encourage other institutes to use these programs as 
models.
    Health Communications.--Recognizing the central role of effective 
communication in addressing issues of health and behavior, NCI has also 
undertaken a major effort to develop science-based communications 
strategies for disseminating information and persuasive messages about 
cancer prevention and treatment to the public. Researchers are 
exploring innovative strategies for communicating cancer information to 
diverse populations, looking at various communication approaches such 
as message tailoring and framing with application in multiple 
communication channels. These messages draw from a foundation of basic 
behavioral and social science research into such issues as how people 
learn and remember health information, how they perceive health risks, 
and how they are persuaded to adopt healthy behaviors.
    It's not possible to highlight all of the worthy behavioral science 
research programs at NIH. In addition to those I've discussed here, 
many other institutes play a key role in the NIH behavioral science 
research enterprise. These include the National Institute on Aging, the 
National Heart Lung and Blood Institute, the National Institute of 
Child Health and Human Development, the National Institute of 
Neurological Disorders and Stroke, and within the NIH Director's 
office, the Office of Behavioral and Social Sciences Research. 
Behavioral science is a central part of the mission of each of these, 
and each deserves the Committee's support.
    This concludes my testimony. Again, thank you for the opportunity 
to discuss the NIH and specifically, the importance of behavioral 
science research in addressing the Nation's public health concerns. I 
would be pleased to answer any questions or provide additional 
information.
                                 ______
                                 
           Prepared Statement of the American Cancer Society
    With more than 28 million volunteers and supporters, the American 
Cancer Society (the Society) appreciates the opportunity to submit 
written comments regarding increased funding for cancer research and 
application programs in fiscal year 2003. The American Cancer Society 
is the nationwide, community-based, voluntary health organization 
dedicated to eliminating cancer as a major health problem by preventing 
cancer, saving lives, and diminishing suffering from cancer through 
research, education, advocacy, and service. As the nation's largest 
cancer-fighting organization, we too are making hard choices and 
setting priorities for our community cancer control activities based on 
an evaluation of the success of current programs and interventions. The 
Society has set ambitious goals for the year 2015 to reduce the number 
of people dying from and being diagnosed with cancer and to 
significantly improve the quality of life for all cancer patients, 
survivors, and their families. To that end, the Society appreciates and 
encourages this Committee's leadership and help in providing 
significant increases in funding for the development and continuation 
of effective strategies to prevent cancer, promote healthier lifestyles 
and provide access to early detection tools and follow-up care.
    Our nation has benefited immensely from our past federal investment 
in cancer. But our work is by no means finished. This year about 
1,284,900 new cancer cases will be diagnosed, and 555,500 Americans 
will die of cancer--more than 1,500 people a day. Cancer is the second 
leading cause of death in the United States. But we have seen dramatic 
progress and promise in new cancer research, and our past research 
investments have shown that many cancer deaths can now be prevented 
through early detection and quality treatment, and by making changes in 
lifestyle and behavior. To further our progress in decreasing cancer 
incidence and mortality rates in the face of changing population 
demographics, we must invest substantial new resources in cancer 
research and control now to thwart a new cancer and public health 
crisis and address current and future health care needs of medically 
underserved populations--older Americans, minorities and the poor--that 
are hit hardest by cancer.
    A variety of proven activities and programs at the National 
Institutes of Health (NIH), National Cancer Institute (NCI) and Centers 
for Disease Control and Prevention (CDC) can be enhanced and expanded 
today to accelerate our progress against cancer through research, 
prevention, early detection, and improving access to quality care. 
These programs are critical to our nation's ability to address the 
anticipated dramatic increases in cancer cases and death and the 
associated growing health care expenditures resulting from our booming 
elderly population. To that end the Society would like to thank 
appropriators for maintaining a focus on crucial health programs while 
at the same time funding our nation's priorities relating to the war on 
terrorism. We understand the difficult decisions you face.
    The Society applauds President Bush's personal and professional 
commitment to the fight against cancer as demonstrated in his fiscal 
year 2003 budget. Recognizing the difficult choices necessary in the 
current budget climate, the Society is committed to continued increases 
for cancer prevention and control programs and is grateful for the 
President's proposed increase for cancer research at the NIH and the 
CDC's National Breast and Cervical Cancer Early Detection Program 
(NBCCEDP). We owe our citizens our continued best effort on the cancer 
front, and the Society encourages Members of Congress to continue the 
commitment to initiatives that will help eliminate cancer and advance 
biomedical research as a whole.
    Not only is research important, but the application of NIH research 
to the general population through chronic disease programs at the CDC 
is also vital. This is the fifth and final year of the effort to double 
the budget of the NIH. The Society is fully supportive of this effort 
and therefore requests $27.3 billion for the NIH for fiscal year 2003. 
We are grateful for the bipartisan support the committee has shown over 
the years and we look forward to the completion of the doubling this 
year.
    We have consistently advocated for funding of the National Cancer 
Institute (NCI) Director's By-Pass Budget, for which full funding this 
year would be $5.69 billion. As you know, more than 30 years ago, the 
Congress and President Nixon established the NCI and gave it special 
budget authority to present its budget directly to policymakers at the 
highest level. The Society urges Congress to carefully consider the 
extraordinary opportunities outlined in the By-Pass budget. This year, 
the President's budget comes close to achieving the fiscal year 2003 
By-Pass goal, by including $5.5 billion for cancer research across the 
NIH. Currently, NCI is able to fund fewer than 30 percent of all the 
peer-reviewed and approved grants it receives. Additional funding as 
outlined by the President will enable the NCI to move forward with 
additional peer-reviewed and approved research grants, foster the 
development of new drugs to treat cancer successfully, enhance and 
expand methods of cancer prevention and early detection, optimize 
quality of life for people living with cancer, and better understand 
health disparities.
    Demographic changes that are anticipated over the next decade 
elevate the importance of addressing health disparities. Medically 
underserved groups--particularly racial and ethnic minorities and the 
poor--are among the fastest growing segments of our population and are 
currently experiencing poorer health status and outcomes. The Society 
strongly believes it is vital to the nation's overall well-being to 
eliminate health disparities in cancer research, access, delivery, and 
incidence rates. Key to this effort is increasing our understanding of 
cultural differences and finding effective methods of communication for 
our nation's diverse communities.
    The Society was pleased to work with a bipartisan majority in 
Congress to establish the National Center for Minority Health and 
Health Disparities (NCMHD) at the NIH. With the large mandate Congress 
has given it, the new Center needs an infusion of resources to succeed 
at its important mission. The Society therefore requests funding for 
the Center of $199.6 million in fiscal year 2003. Specifically, working 
independently and alongside our partners in One Voice Against Cancer 
(OVAC), the Society is urging Congress to double the financial 
commitment to NCMHD over the course of the next three fiscal years to 
enable the Center to promote minority health and to lead, coordinate, 
support, and assess the NIH effort to reduce and ultimately eliminate 
health disparities. In this effort NCMHD will conduct and support 
basic, clinical, social, and behavioral research, promote research 
infrastructure and training, foster emerging programs, disseminate 
information, and reach out to minority and other health disparity 
communities.
    To truly capitalize on the enormous investment our nation makes in 
biomedical research, the knowledge we gain and advances we make as a 
result of that investment must be applied to the population as a whole. 
The Society strongly believes that investments in CDC have a positive 
impact on the nation's public health, and we appreciate your ongoing 
leadership on this issue. The Society recommends a significant 
expansion of the application of research, including cancer education, 
outreach, prevention and screening efforts through the CDC. Many CDC 
program areas have proven effective in saving lives, educating the 
public on cancer prevention, and providing wider access to early 
detection. Because we know that we must ensure that discoveries through 
research actually reach all Americans, we ask Congress to provide $348 
million for cancer prevention and control programs at the CDC's Chronic 
Disease Center. These programs combine the national reach of the 
federal government with the ``on the ground'' activity of our state and 
local health departments.
    The mission of CDC's Comprehensive Cancer Control Initiative (CCC) 
is to develop an integrated and coordinated approach to reduce the 
incidence and mortality associated with cancer through prevention, 
early detection, treatment, rehabilitation, and palliation. With 2002 
funding, CDC provides support and technical assistance to plan and 
implement comprehensive cancer control activities and programs in 19 
states and one tribal organization. Health agencies use this funding to 
establish broad-based cancer coalitions, provide epidemiological 
support, and develop and implement a comprehensive cancer control plan 
targeted towards the needs of their state. Additionally, CDC and its 
partners have developed a framework for establishing priorities, 
addressing cancer issues, and prioritizing the use of limited state and 
federal resources for comprehensive cancer control. The Society 
recommends that Congress invest $10 million in fiscal year 2003 to 
further the impact of these programs for all Americans.
    The CDC's National Program of Cancer Registries provides support 
for cancer registration activities in 45 states, the District of 
Colombia and three territories, work that has benefited from increases 
thanks to the bipartisan support of the Congress in the past 2 years. 
The program provides states with resources essential for directing 
cancer prevention and control efforts. The Society recommends $55 
million for the National Program of Cancer Registries in fiscal year 
2003 to continue the efforts of state registries to build the 
foundation of a comprehensive prevention strategy. CDC would use 
increased resources to help state cancer registries aggressively use 
their registry data to develop effective strategies to prevent and 
control cancer, especially in medically underserved areas and those in 
greatest need. By using a registry effectively, a state can more 
comprehensively deal with its cancer burden by: understanding specific 
cancer patterns; monitoring trends over time; determining whether 
cancer control methods are effective; setting priorities for scarce 
health care resources; advancing public health research; and providing 
information that can be used on a national basis to determine cancer 
incidence.
    Colorectal cancer is the nation's second leading cause of cancer-
related death among men and women after lung cancer. Research has found 
that when colorectal cancer is detected early at a localized stage, 
death rates are low. However, too few Americans are being screened for 
this disease. Therefore, it is a goal of the CDC to increase public 
awareness of colorectal cancer, and increase awareness of screening 
guidelines among health care providers. In North Carolina, a recent 
pilot project to evaluate the feasibility of conducting colorectal 
cancer screening in local health departments also examined the 
potential value of addressing cancer concerns from a comprehensive and 
family-health perspective. The evaluation found that this approach 
successfully raised public awareness about the importance of early 
detection and encouraged participation in screening programs. The 
Society recommends a funding level of $25 million for fiscal year 2003 
for CDC colorectal cancer screening, education and outreach efforts.
    The CDC continues to work with partners to address the issues 
relating to prostate cancer early detection. The Society requests $20 
million to continue CDC research activities and fund education, data 
collection, and awareness activities surrounding this disease. Through 
prostate cancer control initiatives, CDC is working to provide the 
public, physicians, and policymakers with the information they need to 
make informed decisions about the potential risks and benefits of 
prostate cancer screening and follow-up. CDC is also conducting a 
large, population-based study to assess whether prostate-specific 
antigen screening tests and digital rectal examinations reduce deaths 
from prostate cancer.
    Between 1990 and 2000, an estimated one-half million American women 
died from breast and cervical cancers, despite the fact that almost all 
deaths from cervical cancer and 30 percent of deaths from breast cancer 
could have been prevented through widespread use of Papanicolaou (Pap) 
tests and screening mammography. While breast cancer cannot yet be 
prevented, mammography is the best way to detect breast cancer in its 
earliest, most treatable stage. The CDC has established the NBCCEDP to 
create, expand and improve community based screening services for women 
at risk. Obviously, identifying women who should be screened and 
encouraging them to take advantage of early detection are the biggest 
challenges for this program, for which increased resources are 
necessary. The program currently reaches only a fraction of those women 
eligible for its benefits. We are grateful that the President singled 
out this program in his budget for an increase. The Society recommends 
$220 million for the NBCCEDP to help increase cancer screening and 
early detection of breast and cervical cancer.
    In 1999 Congress established the first Ovarian Cancer Control 
Initiative at the CDC to improve survival from ovarian cancer, the 
deadliest of gynecological cancers. For the past 2 years, the CDC has 
laid the foundation for an evidenced-based initiative to improve 
survival from ovarian cancer. The CDC convened agenda-setting meetings 
in 2000 to form the basis of the initiative and funded studies that 
will lead to earlier detection of ovarian cancer. Recent reports of new 
studies suggest that ovarian cancer produces protein patterns, which 
could result in a screening tool. This new research adds to the urgency 
of the CDC's involvement in ovarian cancer. Significant additional CDC 
resources are needed, however, to develop a risk model to define the 
most appropriate population for screening and to design and implement 
education strategies that reach women and health care providers about 
early detection. The Society requests $8 million for fiscal year 2003 
to ensure that these needs are met.
    Skin cancer is the most common form of cancer in the United States 
and is largely preventable when sun protection measures are used 
consistently. The goal of the CDC's Skin Cancer Prevention Program is 
to increase awareness of skin cancer and influence attitudes and 
behaviors related to sun exposure habits among young adults and teens. 
To help further increase awareness of this common form of cancer the 
Society asks for $10 million for the Skin Cancer Prevention Program in 
fiscal year 2003.
    For most Americans who do not use tobacco, dietary choices and 
physical activity are the most important modifiable determinants of 
cancer risk. While tobacco accounts for one-third of all U.S. cancer 
deaths, research suggests that about another one-third of cancer deaths 
occurring in the United States each year are due to inadequate 
nutrition, sedentary lifestyles, and obesity. The Society urges 
Congress to provide $130 million in fiscal year 2003 to support CDC's 
National Tobacco Control Plan (NTCP). The Society further recommends an 
appropriation of $60 million for CDC's state-based campaigns aimed at 
yielding improvements in healthy eating, physical activity and obesity 
control. Steps can be taken early in life to teach healthy behaviors 
and prevent chronic disease. CDC's Coordinated School Health Program 
provides effective guidance and essential funds for schools to 
implement such programs. The Society requests $35 million for the 
chronic disease functions of the School Health Program.
    The CDC's efforts to prevent and reduce chronic disease in our 
nation also include surveillance and research. The Behavior Risk Factor 
Surveillance System (BRFSS) provides critical information to state and 
local governments, enabling them to target messages more effectively 
toward diverse populations to modify behaviors that cause or lead to 
chronic disease. The Society requests $10 million in fiscal year 2003 
for BRFSS. Similarly, CDC's Prevention Research Centers (PRC) are an 
important link between biomedical research and translation to healthier 
lifestyles and healthier people. PRCs are academic health centers that 
focus on reducing behavioral and environmental risk factors while 
promoting disease prevention within the communities they serve, 
concentrating on elderly and medically underserved populations. These 
centers improve quality of life and save scarce health care dollars in 
costly treatments and the Society requests $50 million to help in this 
important mission. Finally, CDC's Racial and Ethnic Approaches to 
Community Health (REACH) program supports community-driven coalitions 
to eliminate disparities in health care. REACH 2010 is an effort to 
eliminate disparities in health status experienced by racial and ethnic 
minority populations. With increased funding of $50 million, REACH can 
create more demonstration projects that will lead us closer to ending 
health disparities.
    Research holds the key to improved prevention, early detection, 
diagnosis, and treatment of cancer. The Society is firmly convinced 
that the knowledge gained through research at NIH and NCI will lead to 
better methods for early detection, treatments and eventual cures for 
many types of cancer. We also know that effective interventions for 
many cancers are available today that, if applied across the entire 
population, could significantly reduce our nation's cancer burden. CDC 
plays a key role in translating and delivering our research 
achievements at the community level, and increased funding will expand 
the reach of these successful cancer prevention, awareness, and early 
detection programs to ensure that they reach all Americans.
    We are thankful for the broad bipartisan support cancer programs 
and research have traditionally enjoyed and we look forward to your 
continued assistance. The challenge for Members of Congress and for the 
Society is to reduce the gap between what is known and what is 
practiced. We must build support for cancer prevention, detection, and 
treatment that will eradicate the disease and we must find ways to 
achieve a balance between research and application. If we apply what we 
have learned through NIH, NCI, and CDC programs and capitalize on new 
promises, including life-saving cancer clinical trials, we will make a 
real difference in the lives of patients and families touched by 
cancer.
                                 ______
                                 
         Prepared Statement of the Coalition for Health Funding
    ``We are a Nation at risk. We face a world of new threats and 
ancient foes.''
    Centers for Disease Control and Prevention, Public Health's 
Infrastructure: Every health department fully prepared; every community 
better protected.----Report to Congress, March, 2001
    The Coalition for Health Funding is pleased to provide the 
Subcommittee with testimony recommending fiscal year 2003 funding 
levels for the agencies and programs of the U.S. Public Health Service. 
Since 1970, the Coalition's member organizations, representing 40 
million health care professionals, researchers, lay volunteers, 
patients and families, have been advocating for sufficient resources 
for PHS agencies and programs to meet the changing health challenges 
confronting the American people. The Coalition for Health Funding is 
the nation's oldest, most broadly based alliance focused on the breadth 
of discretionary health spending. One of the important principles that 
unites the Coalition's members is that the health needs of the nation's 
population must be addressed by strong, sustained support for a 
continuum of activities that includes biomedical, behavioral and health 
services research; disease prevention and health promotion; health care 
services for vulnerable and medically underserved populations; ensuring 
a safe and effective food and drug supply; and education of a health 
professions workforce in adequate numbers to address the breadth of 
need.
    Since the terrorist attacks of 9/11, and the subsequent anthrax 
attacks, the public is acutely aware of the role of public health in 
protecting them from the consequences of terrorism involving 
biological, chemical, or nuclear agents. The events also have 
dramatically demonstrated the extent to which the nation's public 
health infrastructure has been allowed to deteriorate. The Coalition 
for Health Funding applauds the extraordinary Congressional response to 
this serious deficit and supports the President's fiscal year 2003 
request for continued public health infrastructure enhancement.
    But while government agencies at the local, state and federal 
levels have a leading role in preparing for and responding to the 
terrorist challenge, all aspects of our health and public health system 
are critical to the success of this effort. It is relatively easy to 
understand the importance of strengthening the ability of local, state 
and federal public health agencies' ability to detect and respond 
rapidly to a deliberately released infectious agent, such as anthrax or 
smallpox. The importance of addressing racial and ethnic health 
disparities and access to essential medical care services in the 
context of the threat of bioterrorism may seem less clear--but 
populations at higher risk for both chronic diseases and naturally 
occurring infectious diseases and with less access to health care 
services are both more vulnerable to deliberately introduced diseases 
and less visible to the health care system when hours count. Similarly, 
it may be easy to understand the need to train more public health 
professionals, such as epidemiologists and public health lab 
technicians, to prepare and respond to terrorism. But who will take 
care of those who fall ill, or who need emergency vaccinations, or 
preventive medicines when we are facing serious shortages in the number 
of nurses, pharmacists, and allied health professionals? These and many 
other activities supported by the PHS agencies and programs, such as 
vaccine research conducted at the National Institutes of Health, 
medical errors research conducted at the Agency for Healthcare Research 
and Quality, and food and drug safety review conducted by the Food and 
Drug Administration, are clearly related to bioterrorism preparedness 
and response and need strong support. At the same time, even those 
activities that cannot be linked to bioterrorism, such as preventing 
birth defects, heart disease, or HIV/AIDS, are essential in our 
preparedness efforts because a healthy America is a strong America.
    The whole continuum of public health activity must be strongly 
supported to achieve both optimal terrorism preparedness and optimal 
health outcomes for the American people.
    Each year, the Coalition for Health Funding works with other health 
alliances to determine an appropriate level of federal support for 
health discretionary programs. For fiscal year 2003, the Coalition is 
recommending $51.7 billion be provided for the major programs and 
agencies of the U.S. Public Health Service. The Coalition's 
recommendation also includes funding for the Indian Health Service and 
the Food and Drug Administration, which are not within the jurisdiction 
of this Subcommittee, but are important federal public health agencies. 
The Coalition appreciates that these funding levels, 15.7 percent over 
fiscal year 2002, and $4.5 billion (9.5 percent) over the President's 
request, may appear excessive, but they reflect both the professional 
judgment within the various agencies as well as our own members' 
assessment of community and national needs. The Coalition presents 
these recommendations to the Subcommittee in the hope that it will view 
them as important targets in our efforts to achieve our mutual goal of 
improving the health and quality of life for all Americans.
    The following is a partial list of the Coalition's findings and 
recommendations; the attached table provides the Coalition's 
recommendations for all the public health agencies:
                  national institutes of health (nih)
    The Coalition supports the President's request for $27.3 billion in 
fiscal year 2003 for the National Institutes of Health and applauds the 
Members of the Subcommittee for leading the national effort to double 
our investment in the promising research supported and conducted by the 
NIH. The Coalition recognizes that the doubling goal has been, and 
continues to be, difficult to achieve in the context of many unmet 
health care needs, and that improved health outcomes are only achieved 
with the translation of NIH research discoveries into practice. This is 
effectively achieved, for all Americans, through a strong investment in 
other federal public health agencies and, in turn, state and local 
health agencies and community-based programs. Therefore, the Coalition 
cautions that the increase for NIH in fiscal year 2003 must not come at 
the expense of other public health programs.
    The primary reasons for a continued major investment in the NIH 
include the many health challenges that still confront us, the 
burgeoning scientific opportunities that are now available, 
particularly as a result of the scientific achievement of sequencing 
the human genome, and the large economic benefits that accrue as we 
make progress against diseases. Recent NIH investments have helped 
create new diagnostic methods, new treatments, new vaccines, and new 
cures. Just a few of these examples include Hepatitis B, Haemophilus 
influenzae Type B, pneumococcus and pertusis vaccines with the 
potential to save millions; the development and FDA approval of Gleevac 
for use in treating chronic myelogenous leukemia; and newly developed 
medications for schizophrenia that have reduced hospitalizations by 30 
percent and saved $1.7 billion in annual hospital costs.
    The Coalition also appreciates that medical research is a vision 
not a precise blueprint. It must be flexible enough to respond to 
society's changing health care needs and dynamic enough to open the way 
to ever more promising frontiers of fundamental research. Scientific 
discoveries are the result of a series of incremental steps that pave 
the way for future breakthroughs. This process needs sustained support. 
With it, and support for other public health partners, we will be ready 
to meet the challenges of the future.
            centers for disease control and prevention (cdc)
    The Coalition for Health Funding recommends an overall funding 
level of $7.9 billion for CDC in fiscal year 2003. This amount is $1.1 
billion more than the fiscal year 2002 funding level. The Coalition 
believes this is the amount needed to enable CDC to carry out its vital 
mission of disease prevention and health promotion.
    The Coalition is extremely pleased that Congress provided $2.3 
billion in fiscal year 2002 to the CDC to continue, and greatly 
enhance, the process of re-building the nation's seriously eroded 
public health infrastructure in order to prepare for bioterrorism and 
other terrorism threats. The Coalition supports the President's fiscal 
year 2003 request to provide $1.636 billion for public health 
infrastructure and bioterrorism preparedness, including $940 million 
for state and local health departments. The Coalition further 
recognizes that this level of funding will need to continue for the 
foreseeable future to truly re-build our public health system at the 
local, state and federal level.
    There are many other aspects of the President's budget request for 
the CDC, however, that are troubling. While nearly 60 new FTE's are 
requested for bioterrorism activities, approximately 150 other FTE's 
are proposed for elimination. CDC is a critical agency for many program 
areas and it is difficult to see how it can carry out its other 
responsibilities in the areas of infectious disease, immunizations, 
HIV/AIDS prevention, chronic disease prevention and health promotion, 
birth defects and developmental disabilities activities, and many other 
programs, without adequate staff. In addition, apart from bioterrorism 
activities, the President has proposed an overall cut of 4.1 percent 
for CDC that affects many of these same program areas. We cannot 
afford, as a nation, to diminish our investment in the programs that do 
so much to achieve improved health outcomes by translating knowledge 
gained through our investment in the NIH. By cutting CDC programs, we 
harm our overall progress toward building a healthy, strong America.
          health resources and services administration (hrsa)
    The Coalition for Health Funding recommends an overall funding 
level of $7.5 billion for HRSA in fiscal year 2003. This amount is $1 
billion more than the fiscal year 2002 funding level and is the amount 
that the Coalition believes is needed to provide adequate resources for 
the important programs that HRSA administers that address access to 
needed medical and health care services for medically underserved 
populations.
    The Coalition is pleased that the President has requested a 
significant 8.5 percent increase for community health centers, although 
this is short of the amount needed to achieve the President's expressed 
goal of doubling the number of health centers over 5 years. The 
Coalition is also pleased to see increased, and new, funding for 
hospital planning and infrastructure preparedness for bioterrorism 
threats, as well as support for health professions school curriculum 
development for bioterrorism training.
    However, there are many areas in the HRSA budget that the President 
proposes to cut deeply that the Coalition opposes. Chief among these is 
the elimination of the Title VII Health Professions Education programs. 
These programs are beginning to document formally what its supporters 
have long known: that it has a solid track record in recruiting and 
training the kind of health professionals that practice in, and stay 
in, medically underserved areas; and it has a solid track record in 
training needed health professionals in short supply. These now include 
pharmacists, allied health professionals, dentists, a range of public 
health practitioners, psychologists, physician assistants, as well as 
nurses.
    The Coalition also opposes a proposed 40 percent cut, or $85 
million, to the Children's Hospitals Graduate Medical Education program 
that trains physicians providing direct care for children in free-
standing children's hospitals. Similarly, the Coalition opposes the 
proposed elimination ($120 million) of the Community Access Program 
designed to help communities address the still massive numbers, over 40 
million, of uninsured Americans. When bioterrorism increases are set 
aside, the President proposes to cut existing HRSA programs by $740 
million, or 12 percent.
    Also disturbing is the proposed level funding for many other 
programs. This includes the Ryan White CARE Act programs at time when 
the United States is experiencing an increase in the number of new HIV/
AIDS cases. Flat funding is proposed for the Maternal and Child Health 
Block Grant at a time when many states are facing budget deficits, and 
an upsurge in the number of families needing TANF assistance. Family 
Planning services, which support 4,600 clinics across the United States 
that provide comprehensive services including screening for cancer, 
HIV, and other diseases as well as contraception and teen pregnancy 
prevention, are another critical safety net service that needs 
increased resources.
       substance abuse and mental health services administration
    The Coalition for Health Funding recommends an overall funding 
level of $3.6 billion for SAMHSA in fiscal year 2003. This amount is 
$500 million more than the fiscal year 2002 funding level and is the 
amount that the Coalition believes is needed to provide adequate 
resources for the agency charged with leading national systems 
addressing mental illness and substance abuse. Within this amount, the 
Coalition recommends $952 million for the Center for Mental Health 
Services (CMHS); $2 billion for the Substance Abuse Block Grant; $360 
million for the Center for Substance Abuse Treatment (CSAT) and $360 
million for the Center for Substance Abuse Prevention (CSAP).
    While the Coalition appreciates the President's request for an 
additional $66 million for CSAT, as only 20 percent of the 13-16 
million people needing treatment services are currently receiving care, 
this comes at the expense of substance abuse prevention programs which 
receive a $45 million cut in the request. Although treatment saves 
taxpayers $7 for every $1 invested, prevention can reduce the need for 
any treatment for many people. Both efforts need increased and 
sustained resources.
    CMHS is level funded in the President's request. This is most 
unfortunate when over 50 million adults in the United States are 
affected by mental illness in any given year and more than 5 million 
adults and children are diagnosed each year with a severe mental 
illness, such as schizophrenia. People can and do recover, but recovery 
depends on getting services when and where they are needed--preferably 
early in the course of the illness and close to home. CMHS, working 
with its state, local and private sector partners, is instituting 
state-of-the-art systems of care for those who suffer from mental 
illness.
    Finally, mental health and substance abuse problems are just 
beginning to surface in the wake of the 9/11 terrorist attacks and will 
intensify as we approach the anniversary of the tragedy. This is not 
the time to essentially flat-fund the federal agency that provides 
essential resources to a system of mental health and substance abuse 
services that the overwhelming majority of those suffering from these 
illnesses depend on.
               agency for healthcare research and quality
    The Coalition for Health Funding recommends an overall funding 
level of $390 million for AHRQ in fiscal year 2003. This amount is $90 
million more than the fiscal year 2002 funding level.
    The Coalition is very disappointed in the President's request for a 
$48 million (16 percent) cut in this agency which is charged with 
providing critical information on healthcare quality, ways to reduce 
medical errors, ways to improve access to healthcare services, and ways 
to more efficiently utilize healthcare resources. A cut of this 
magnitude will dramatically curtail AHRQ's ability to carry out its 
mission. It will, for instance, be unable to fund any new research or 
training grants and funding for current grants for non-patient safety 
research will be reduced by 50 percent, reducing our knowledge and 
understanding of how to provide cost-effective, quality healthcare. As 
we move, again, into double-digit medical inflation and face the 
tremendous challenge of an aging baby-boomer population, the research 
conducted by AHRQ is more relevant and more needed than ever.
    The Coalition sincerely appreciates this opportunity to provide its 
fiscal year 2003 funding recommendations to the Subcommittee for the 
agencies and programs of the U.S. Public Health Service. The 
Coalition's recommendations for all of the public health agencies are 
provided in the accompanying table. The Coalition, and its member 
organizations, look forward to working with the Subcommittee in the 
weeks ahead to improve the health of all Americans.

                                 COALITION FOR HEALTH FUNDING BUDGET COMPARISON
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                              Dollar    Percent
                                          President's     Dollar      Percent       CHF       change     change
                                 Fiscal      request      change       change      recom       CHF        CHF
            Agency             year 2002  fiscal year  President's  President's    fiscal     fiscal     fiscal
                                              2003     fiscal year  fiscal year     year       year       year
                                                         2003-2002    2003-2002     2003    2003-2002  2003-2002
----------------------------------------------------------------------------------------------------------------
HRSA \1\.....................     $6,405      $6,007        -$398         -6.2      $7,500    +$1,095      +17.0
CDC \1\......................      6,721       5,760         -961        -14.2       7,900     +1,179      +17.5
NIH \2\......................     23,623      27,335       +3,712        +15.7      27,335     +3,712      +15.7
SAMHSA \1\...................      3,151       3,208          +57         +1.8       3,652       +501      +15.8
AHRQ \2\.....................        300         251          -46        -15.3         390        +90      +30.0
IHS \2\......................      2,824       2,884          +61         +2.1       3,019       +195       +6.9
FDA \2\......................      1,413       1,432          +19         +1.3       1,625       +212      +15.0
OPHS \2\.....................        219         259          +40        +18.3         262        +43      +19.6
Secretary \3\................         46          43           -3         -6.5          43         -3       -6.5
                              ----------------------------------------------------------------------------------
      Totals.................     44,702      47,179       +2,481         +5.5      51,726      7,024     +15.7
----------------------------------------------------------------------------------------------------------------
\1\ Reflects Program Level minus user fees and mandatory spending, but does include Bioterrorism funding from
  PHSSEF.
\2\ Reflects Total Budget Authority.
\3\ Reflects Office of Public Health Preparedness and Cyber security only.

                                 ______
                                 
       Prepared Statement of the American College of Rheumatology
    The American College of Rheumatology (ACR) appreciates the 
opportunity to provide testimony to the Senate Labor, Health and Human 
Services and Education Subcommittee regarding fiscal year 2003 
appropriations to key programs within the Department of Health and 
Human Services.
    The ACR is an organization of physicians, health professionals and 
scientists that serves its members through programs of education, 
research and advocacy that foster excellence in the care of people with 
arthritis, rheumatic and musculoskeletal diseases. Arthritis means 
swelling, pain and loss of motion in the joints of the body. There are 
more than 100 rheumatic diseases that cause this condition, which can 
sometimes be fatal, in both children and adults of all ages. These 
chronic diseases cause life long pain and disability.
    Arthritis is the leading cause of disability in the United States, 
affecting approximately 43 million Americans. Arthritis has been found 
to rank first among the 10 leading health problems of individuals age 
50 and older. By the year 2020, the prevalence of arthritis will 
increase to an estimated 60 million Americans. The provision of care to 
people who are disabled contributes significantly to the financial 
costs paid by the government, private insurers, and to society as a 
whole. More than $65 billion are spent yearly due to medical costs and 
lost productivity associated with arthritis and related diseases each 
year.
    This burden will surely increase, possibly uncontrollably, as the 
baby boomer group continues to age. Although some forms of arthritis 
are predominant in older individuals, arthritis also affects children 
and adults of all ages. The number of individuals affected, as well as 
associated costs, will increase as the size of our elderly population 
continues its upswing. As such, the ACR strongly believes that Congress 
should support the funding levels recommended below so that necessary 
research and treatments to combat these prevalent diseases can 
continue.
                   the national institutes of health
    The goal of the National Institutes of Health (NIH) is to acquire 
new knowledge to help prevent, detect, diagnose, and treat disease and 
disability, from the most rare genetic disorder to the common cold. 
Money allocated to the NIH is dispersed to the different institutes 
within the NIH, such as the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS) and the National Institute of 
Allergy and Infectious Diseases (NIAID), whose agendas include a 
substantial focus on arthritis and related research areas.
    Along with the Administration, the ACR supports an appropriation of 
$27.3 billion for the NIH in fiscal year 2003. This $3.7 billion, 15.7 
percent, increase represents the final step toward the bipartisan goal 
of doubling the NIH by 2003, and the largest 1-year increase ever for 
the NIH. The ACR is pleased that the Senate Budget Committee's budget 
blueprint included the doubling of the NIH, as does the House-passed 
budget resolution. The ACR commends Congress and the Administration for 
their bipartisan, 5-year effort to double the NIH budget.
   the national institute of arthritis and musculoskeletal and skin 
                                diseases
    The National Institute of Arthritis and Musculoskeletal and Skin 
Diseases (NIAMS), a branch of the NIH, leads the federal medical 
research effort in arthritis and rheumatic diseases. Specifically, the 
NIAMS conducts research related to the causes, treatments and 
prevention of diseases of the bone, joints, muscle, skin and other 
connective tissues. The NIAMS sponsors research and research training 
at universities and medical centers throughout the United States. 
Research sponsored by the NIAMS leads to the development of more 
effective treatments, which leads to decreased costs and improved 
quality of life for patients suffering from rheumatic diseases.
    One example of the important work of NIAMS is the Osteoarthritis 
Initiative (OAI) launched last year. Osteoarthritis is the most common 
form of arthritis, and occurs when cartilage wears away. If affects 
approximately twenty one million people. The OAI is a public-private 
partnership to collect information and define disease standards on 
5,000 people at high risk of having OA and at high risk of progressing 
to severe OA. Funds will be provided for as many as six clinical 
research centers to establish and maintain a natural history database 
for osteoarthritis that will include clinical evaluation data and 
radiological images, and a biospecimen repository. All data and images 
collected will be available to researchers worldwide to help quicken 
the pace of scientific studies and biomarker identification.
    The ACR strongly supports an appropriation of $520.9 million for 
the NIAMS in fiscal year 2003. This would represent a $72.1 million or 
16 percent increase from the NIAMS funding level of $448.8 million in 
2002. Under President Bush's proposal, the NIAMS would receive a budget 
of $488 million, an increase of $38 million or 8 percent. Funding for 
the NIAMS has received steady increases in recent years. The ACR, 
however, is concerned that funding for the NIAMS has not kept pace with 
the allocations to the other NIH institutes, especially considering 
that musculoskeletal conditions are among the most common chronic 
conditions affecting Americans. The ACR, therefore, urges Congress to 
provide the NIAMS with a 16 percent increase in fiscal year 2003.
       the national institute of allergy and infectious diseases
    The National Institute of Allergy and Infectious Diseases (NIAID), 
also a branch of the National Institutes of Health, conducts research 
that strives to understand, treat, and ultimately prevent the myriad of 
infectious, immunologic, and allergic diseases. The NIAID's research 
focuses on the basic biology of the immune system and mechanisms of 
immunologic diseases including autoimmune disorders. To accomplish its 
goals, the NIAID carries out a wide range of basic, applied, and 
clinical investigations within its own laboratories, and provides 
research grant, contract, and cooperative agreement support to 
scientists at universities and other research institutions throughout 
the country and the world.
    The ACR recommends a fiscal year 2003 appropriation of $2.8 billion 
for the NIAID. This would represent a 15.7 percent increase from the 
NIAID 2002 funding level of $2.4 billion. The ACR urges Congress to 
provide this funding level increase for research on arthritis, 
rheumatic and musculoskeletal diseases in addition to the NIAID's 
important bioterrorism research.
             the agency for healthcare research and quality
    The Agency for Healthcare Research and Quality (AHRQ) is one of the 
primary health care research bodies within the Department of Health and 
Human Services. AHRQ's mission is to support, conduct, and disseminate 
research that improves access to and outcomes and quality of health 
care services. AHRQ often collaborates with other Department of Health 
and Human Services (HHS) agencies, particularly the National Institutes 
of Health (NIH) and the Centers for Disease Control and Prevention 
(CDC). AHRQ's health services research complements the biomedical 
research of the NIH by helping physicians, hospitals, purchasers and 
other stakeholders in health care delivery make informed decisions 
about what treatments work best, for whom, when, and at what costs.
    A collaborative research study between AHRQ and the Centers for 
Medicare and Medicaid Services (CMS) found that chronic conditions such 
as arthritis, often suboptimally managed in clinical practice, 
contribute significantly to poor physical function among women age 65 
and older enrolled in Medicare+Choice. Components of this work has been 
published in many journals and presented and many meetings, and may 
lead to the development of a new quality indicator aimed at improving 
arthritis care for Medicare+Choice plans.
    The ACR recommends an appropriation of $390 million for AHRQ for 
fiscal year 2003. This represents a $91 million increase over AHRQ's 
2002 budget of $299 million.
    The ACR is concerned with the President's proposed budget of $252 
million for AHRQ, a decrease of $48 million or 16 percent. Under this 
budget, AHRQ would be unable to fund any new research or training 
grants. Funding for current grants (except for protected areas such as 
patient safety research) would be reduced by 50 percent, requiring 
grant and contract renegotiations that will significantly reduce our 
knowledge and understanding of how to cost-effectively provide quality 
health care. Reductions in the AHRQ funding stream will result in lost 
opportunities for research projects currently in the middle of a 2- or 
3-year grant cycle. Mid-course interruptions will halt some projects 
just as these initiatives are about to bear fruit in the form of 
improved patient health outcomes and reductions in healthcare 
expenditures.
                   the national arthritis action plan
    The National Arthritis Action Plan (NAAP) is an innovative program 
developed jointly between the Centers for Disease Control (CDC) and the 
Arthritis Foundation to improve the quality of life of those suffering 
from arthritis. The NAAP, housed within the CDC National Center for 
Chronic Disease Prevention and Health Promotion, helps deliver the 
advances made in the biomedical research system to millions of 
Americans who have arthritis. The NAAP is designed to increase 
recognition among the general public, people with arthritis and their 
families, medical care providers, and policy makers, of the impact of 
arthritis, what can be done to prevent or delay its onset, and what 
effective interventions and are available to reduce disability and 
improve the quality of life of people with arthritis.
    It has made a tremendous impact in how state public health 
departments address this national health problem. The program currently 
enables 36 state health departments to develop or enhance programs to 
improve the quality of life for the millions of Americans affected by 
arthritis. Increased funding would establish programs in more states, 
as well as expand existing programs.
    The ACR strongly recommends a fiscal year 2003 appropriation of 
$24.5 million for the NAAP. This represents a $10.6 million increase 
from the NAAP 2002 budget of $13.9 million. The Administration's 2003 
budget plan, however, would cut NAAP funding by 6 percent, for a total 
of $13.07 billion. The ACR commends the Senate Budget Committee for 
restoring funding to the CDC Center for Chronic Disease Prevention and 
Health Promotion, under which the NAAP is funded, in its budget 
blueprint.
                    pediatric rheumatology workforce
    The Children's Health Act of 2000, signed into law in October of 
2000, recognized juvenile arthritis as a national health care priority. 
It authorized funding for a federal pediatric rheumatology workforce 
study to determine whether the number of pediatric rheumatologists is 
sufficient to address the health care needs of children with arthritis 
and related conditions. It also states that should the study find that 
the number of pediatric rheumatologists is not sufficient, strategies 
to help address the shortfall are to be developed. The ACR urges 
Congress to appropriate $1 million in fiscal year 2003 for the Health 
Resources and Services Administration (HRSA) to conduct such a study. 
This study will help ensure that the nearly 300,000 children with 
arthritis have access to the specialty care that plays a critical role 
in preventing and properly managing the pain and disability associated 
with the disease.
                                summary
    As physicians involved in both research and specialized patient 
care, ACR members are acutely aware of the magnitude of the challenges 
that disease and disability place on the health care delivery system. 
The ACR would like to thank the subcommittee for its support of these 
programs in recent years, and encourages the subcommittee to provide a 
strong investment in these programs for fiscal year 2003. Current basic 
science research is providing breakthrough advances that have the 
potential to revolutionize our understanding of arthritis and the care 
of rheumatic patients. This important research leads to the development 
of more effective treatments, decreasing costs and improving the 
quality of life for patients suffering from rheumatic diseases.
                                 ______
                                 
        Prepared Statement of the National Hemophilia Foundation
    Thank you for the opportunity for the National Hemophilia 
Foundation (NHF) to submit testimony to the Chairman and Members of the 
Appropriations Subcommittee on Labor, Health and Human Services, 
Education, and Related Agencies. NHF is a national voluntary health 
organization dedicated to improving the health and welfare of people 
with hemophilia, von Willebrand disease, and other bleeding disorders.
                               background
    Bleeding disorders are caused by genetic defects in the body's 
blood coagulation system, usually a missing protein, that prevents or 
slows down blood clotting. There are several types of bleeding 
disorders. The most recognized bleeding disorder is hemophilia, a 
predominantly male disorder affecting approximately 20,000 individuals 
in the United States. The most common bleeding disorder is von 
Willebrand disease, which affects between one to 2 percent of the U.S. 
population.
    Throughout their lives, people with hemophilia and other bleeding 
disorders are dependent on blood clotting factor products to supply the 
missing protein needed for their blood to clot normally. Today, most 
people with hemophilia in the United States prefer clotting factors 
manufactured using recombinant-DNA technologies. These products contain 
only a small amount of blood plasma. Until the mid-1990s, only clotting 
factors fully derived from concentrated blood plasma were available, 
with as many as 60,000 donors contributing to a single vial of product.
    As a result of their dependence on blood-based products, the 
hemophilia and bleeding disorders community has been severely affected 
by HIV and hepatitis. More than 80 percent of people with hemophilia 
born before 1992 have hepatitis C. During the 1980's, half of all 
persons with hemophilia became infected with HIV. More than 5,000 
members of the hemophilia community have died of HIV/AIDS.
                 ricky ray hemophilia relief trust fund
    NHF and the hemophilia community continues to be deeply indebted to 
the Committee for its leadership in providing full funding of the Ricky 
Ray Hemophilia Relief Fund Act. NHF worked for nearly a decade to 
achieve compassionate relief for those persons in our community and 
their families who were affected by HIV/AIDS. Full funding of the Ricky 
Ray Relief Fund enabled the Ricky Ray Program Office to move quickly in 
reviewing petitions and making compassionate payments to eligible 
individuals and their families. In little more than 1 year, the Program 
Office reviewed the nearly 6,200 petitions to the Trust Fund and made 
payments of $543 million on approximately 5,700 of those petitions. The 
remaining petitions have either been denied or continue to be processed 
by the Program Office.
    The Health Resources and Services Administration (HRSA) has 
performed in an exemplary manner in implementing and administering the 
Ricky Ray Relief Trust Fund. The high level of service provided by the 
Ricky Ray Program Office has not gone without recognition. The 
Department of Health and Human Services bestowed upon the program its 
prestigious Secretary's Distinguished Service Award for innovative use 
of technology in accomplishing program objectives and efficient 
management of administrative costs. HRSA awarded the program its Group 
Performance Award for effectively partnering with the hemophilia 
community, and the Public Employees Roundtable presented the Program 
Office its Public Service Award for Excellence by a Federal program.
    NHF is grateful for the compassion that has been demonstrated by 
the Program Office and expressed its appreciation earlier this year 
with the awarding of the Dr. L. Michael Kuhn Award to Ricky Ray Program 
Office Director Paul Clark for his service to the hemophilia community.
                        prevention and treatment
    The national network of hemophilia treatment centers (HTCs) created 
by Congress in 1974 remains essential to ensuring that comprehensive 
and specialized care is available for persons with bleeding disorders. 
The HTC role has expanded dramatically over the last three decades, 
evolving with the needs of the hemophilia and bleeding and clotting 
disorders community to provide coordinated HIV/AIDS and hepatitis care, 
blood safety surveillance, prevention, and improved disease management. 
These programs, carried out in conjunction with the Centers for Disease 
Control and Prevention (CDC), have demonstrated significant reductions 
in mortality and morbidity associated with HTC care. More than 70 
percent of the hemophilia community participate in one of the 150 
centers that comprise the HTC network. NHF urges the Committee's strong 
support for strengthening these programs within CDC.
    HTCs also provide needed services to the hemophilia community 
through the special projects of regional and national significance set-
aside within the Maternal and Child Health Bureau (MCHB) Block Grant. 
MCHB funds are utilized by HTCs to cover the non-reimbursable costs of 
providing on-going nursing, prevention, dental, and rehabilitative 
services and support. MCHB funding for HTCs has remained steady for the 
past nearly 20 years, resulting in eroded resources over time. 
Additional MCHB funds are needed to enable HTCs to continue meeting the 
needs of the hemophilia and bleeding disorders community and to expand 
outreach, services and support staff. NHF requests the Committee's 
support for increased funding for the MCHB Block Grant to enable $3 
million to be made available for HTCs.
                          hemophilia research
Gene Therapy and Genotyping
    NHF is appreciative of the Committee's continued commitment to 
research. The strengthened research funding provided by the Committee 
to the National Institutes of Health has brought about rapid advances 
in science, particularly in hemophilia gene therapy. It is widely 
believed that hemophilia, as a single gene defeat, will be among the 
first diseases treated and cured by gene therapy. We are particularly 
appreciative of the significant funding commitments to this promising 
research that have been made by the National Heart, Lung, and Blood 
Institute (NHLBI) and encourage the Committee's continued support for 
NHLBI's blood programs.
    Genotyping of the hemophilia community is essential to the 
successful introduction of gene therapy into hemophilia treatment and 
prevention efforts. Genotyping is necessary to select optimal gene 
therapy treatments for each individual, conduct pre-treatment risk 
assessments for potential inhibitor-induced complications, and perform 
testing to improve pre- and post-natal care and delivery management. It 
is estimated that there are between 7,000 and 8,000 families with 
hemophilia in the United States, with one member of each family needing 
to be genotyped to build a ``gene'' history.
    The Centers for Disease Control (CDC) currently conducts gene 
variation studies within the hemophilia community related to inhibitors 
to clotting factors. Through its hematologic branch laboratory, the CDC 
has a unique ability to genotype populations, like the hemophilia 
community, that are too small to attract commercial interests. NHF 
urges the Committee to provide CDC additional funding resources to 
genotype the hemophilia community and establish a national databank for 
the genetic information needed to assist in the appropriate management 
of gene therapy care for persons with bleeding disorders.
HIV and Hepatitis C
    HIV and hepatitis C continue to severely impact the hemophilia 
community. More than 2,500 people with hemophilia are living with HIV/
AIDS. Nearly all of these individuals also are co-infected with 
hepatitis C (HCV), and more than 80 percent of all persons with 
hemophilia born before 1992 have the disease. NHF has been grateful for 
the support of the Committee in encouraging continued partnerships 
between NHF and the National Institute of Allergy and Infectious 
Disease (NIAID) to address the hemophilia community's HIV and hepatitis 
needs.
    NIAID hosted a workshop in 1999 to develop strategies for treatment 
of HIV and associated complications in the hemophilia population. 
Recommendations from this workshop have served as a blueprint for 
research initiatives on HCV, HIV-infected persons in the hemophilia 
community with no history of progression to AIDS (long-term non-
progressors), and the effects of HIV therapies on hemostasis. The 
findings from these studies could yield information substantially 
benefiting NIH's broader HCV treatment improvement efforts. NHF is 
appreciative of NIAID's leadership in supporting research related to 
liver disease progression and response to HCV treatment among HIV/HCV 
co-infected persons with hemophilia and encourages the Committee's 
continued strong support of this effort.
                     women with bleeding disorders
    Bleeding disorders in women often are left undiagnosed and 
untreated, leading to anemia, unnecessary procedures including 
hysterectomy, complications of menstruation and pregnancy, and 
significant quality of life issues. Severe bleeding is a leading cause 
for hysterectomy among U.S. women of childbearing age. Of these 
disorders, von Willebrand disease (vWD) is the most prominent, 
affecting an estimated 1 to 2 percent of the U.S. population.
    In 1998, CDC, working with NHF, launched a public awareness and 
education campaign to inform the public and providers about the 
symptoms, diagnosis, complications and treatment of women's bleeding 
disorders. Since its inception, this campaign has resulted in strategic 
links with key provider organizations, government, women's center of 
excellence health centers, and lay and medical journalists. 
Informational materials have been made available to millions of women 
through women's magazines, partnerships with local health 
organizations, presentations and exhibits at health and provider 
organization meetings, NHF's own information network and website, and 
links with other websites. NHF urges the Committee's continued strong 
support of this effort by CDC.
    NHLBI also has played a key role in this campaign by continuing to 
support research to improve diagnosis and treatment of vWD and to 
identify needed elements for the future development of gene-based 
treatments and therapies. NHF thanks the Committee for its leadership 
in addressing this pressing health need and calls for the Committee's 
support of a NIH consensus conference on women with bleeding disorders 
to determine next steps for research to improve and diagnosis of these 
disorders.
                            recommendations
    Once again, NHF and the hemophilia community are truly indebted to 
the Committee for its leadership in providing full funding of the Ricky 
Ray Hemophilia Relief Trust Fund. This Trust Fund has provided needed 
relief and brought closure to the terrible tragedy of HIV/AIDS within 
our community. We also are grateful for the Committee's support of 
hemophilia research, prevention, treatment, and outreach initiatives. 
For fiscal year 2003, we urge the Committee to:
  --Strengthen its funding support for the hemophilia and bleeding and 
        clotting disorders prevention and treatment programs within 
        CDC.
  --Correct the current funding shortfall for HTC services by providing 
        $3 million for the treatment center network.
  --Expand available funding within CDC to enable genotyping of persons 
        with hemophilia and establish a databank for this genetic 
        information.
  --Continue to support additional resources for hemophilia gene 
        therapy research within the increases provided for NHLBI.
  --Provide support for continued collaboration between NIAID and NHF 
        to improve HCV treatment options for HCV and HCV/HIV co-
        infected persons in the hemophilia community.
  --Support continued efforts to expand awareness of women's bleeding 
        disorders and call for a NIH consensus conference to determine 
        next research steps for improving treatment and diagnosis of 
        these disorders.
    Thank you for the opportunity to provide this statement to the 
Committee.
                                 ______
                                 
   Prepared Statement of the American Association for Dental Research
                              introduction
    Mr. Chairman and members of the committee: I am Dr. Steven 
Offenbacher, Director of the University of North Carolina School of 
Dentistry Center for Oral and Systemic Diseases and President of the 
American Association for Dental Research (AADR). I am presenting 
testimony on behalf of AADR. I would like to discuss our 2003 budget 
recommendations for the National Institute of Dental and Craniofacial 
Research (NIDCR). In addition, I will discuss the Agency for Healthcare 
Research and Quality (AHRQ) and the Centers for Disease Control and 
Prevention (CDC).
    The American Association for Dental Research (a Division of the 
International Association for Dental Research) is a non-profit 
organization with over 5,000 individual members and 100 institutional 
members within the United States.
    Its mission statement rests on three pillars:
  --Advance research and increase knowledge for the improvement of oral 
        health
  --Strengthen the oral health research community
  --Facilitate the communication and application of research findings
    Mr. Chairman and members of the Committee, I want to thank you for 
this opportunity to testify about the ongoing work of NIDCR.
                    why dental research is important
    Dental research is concerned with the prevention, causes, 
diagnosis, and treatment of diseases and disorders that affect the 
teeth, mouth, jaws, face, and related systemic diseases. Dental 
researchers are leaders in studies of disfiguring birth defects, 
chronic pain conditions, oral cancer, infectious diseases, including 
oral infections and immunity, bone and joint diseases, the development 
of new diagnostics and biomaterials, and the interaction with systemic 
diseases that can compromise oral and craniofacial health.
    Throughout the lifespan, the oral cavity is continuously challenged 
by both infections that may have systemic as well as local implications 
for health. Through their research, dental scientists continue to 
demonstrate that the ``the mouth is a window to the body.''
    Research into the causes of oral diseases and new ways to treat and 
prevent these diseases is estimated to save Americans $4 billion 
annually.
    Oral health is an essential and integral component of health 
throughout life. Of the 28 focus areas for Healthy People 2010, oral 
health is integrated into 20 of them. No one can be truly healthy 
unless he or she is free from the burden of oral and craniofacial 
diseases and conditions.
    Mr. Chairman, I would like to offer some statistics on the extent 
of the problem:
  --Dental caries, or tooth decay, is one of the most common diseases 
        among 5-17 year olds.
  --80 percent of tooth decay in permanent teeth is now found in only 
        25 percent of school-aged children.
  --Minority children ages 2-4 in the United States have more dental 
        decay than white children.
  --18 percent of children aged 2-4, 52 percent of those aged 6-8, and 
        61 percent of 15-year-olds have experienced tooth decay.
  --16 percent of children aged 2-4, 29 percent of those aged 6-8, and 
        20 percent of 15-year-olds have untreated tooth decay.
  --Only 23 percent of children and 15 percent of adolescents have 
        received dental sealants--a simple and noninvasive service to 
        prevent tooth decay.
  --Oral lesions are common in teenagers who use spit tobacco.
  --According to the Centers for Medicare and Medicaid Services, 
        approximately 500 million dental visits occur annually in the 
        United States, with an estimated $60 billion currently being 
        spent on dental services. Yet, many children and adults 
        needlessly suffer from oral diseases that could be prevented. 
        In fact, 30,000 Americans will be diagnosed with oral and 
        pharyngeal cancers this year, resulting in more than 8,000 
        deaths--many of which could have been prevented.
                   the importance of saliva research
    NIDCR scientists are using gene therapy methods to repair damaged 
salivary glands and are developing artificial salivary glands which 
also have great potential in the treatment of conditions such as 
Sjogren's Syndrome, in which the salivary glands cease to function.
    Saliva, like blood and urine, can be used to detect and measure 
many compounds in the body. It is easy to collect in a non-invasive 
manner and to store. In 1993, a conference supported by the NIDCR was 
held to discuss utilizing saliva as a diagnostic medium. To this day, 
remarkable technological advances are promising to revolutionize the 
field of diagnostics as we know it. Experimental salivary assays have 
already been developed for detecting antibodies for measles, mumps, and 
rubella. Saliva is also reliable in diagnosing viral hepatitis A, B, 
and C in laboratory tests and is being used increasingly to monitor 
Alzheimer's disease, Sjogren's Syndrome, cystic fibrosis, diabetes, 
breast cancer, and diseases of the adrenal cortex. Saliva has the 
potential to serve as a source for assessment and monitoring of 
systemic health and disease states and exposure to environmental, 
occupational, or abusive substances as well as to agents dispersed by 
bioterrorists. In fact, dental researchers continue to pursue a saliva-
based diagnostic test for anthrax exposure.
                         new scientific fields
    Biomimetics and tissue engineering are two relatively new 
scientific fields. Biomimetics studies the process of how nature 
designs and produces its various tissues such as skin, bone, and 
tendon. Based on the principles of biomimetics, tissue engineers 
fabricate unique molecules and materials that promote the growth of new 
tissues that are lost due to disease, trauma, or congenital defects.
    One area of great interest within both disciplines is stem cell 
research. This interest results from the fact that stem cells are 
capable of generating many specialized cell types. There are now 
opportunities to develop unique strategies for the repair and 
regeneration of oral facial structures adversely affected by congenital 
disorders, disease, or injury.
    Research is currently underway that will lead to the development of 
safe and effective stem cell-based treatments. The goal is to foster 
research on human and mouse embryonic and adult stem cell biology that 
could help clarify the complications that come about during oral, 
dental, and craniofacial development and disease.
                         oral facial structures
    Jaw growth is a slow and gradual process, taking place as we grow 
into adulthood. Sometimes the upper and lower jaws may grow at 
different rates, resulting in a mismatch between these jaws. Patients 
may have difficulty chewing and speaking properly, develop jaw joint 
problems, and have teeth, which are not properly aligned. These 
patients tend to be very self-conscious and insecure about how they 
look and may suffer from significant chronic pain. Corrective jaw 
surgery improves function and provides an improved facial balance and 
appearance.
                   temporomandibular joint disorders
    The temporomandibular joint and its associated muscles are 
frequently the source of chronic pain. Every time a person chews, 
smiles, yawns or talks, this joint is at work. When the joint is not 
functioning properly, a variety of symptoms may occur, including 
headaches, sore jaw muscles, locking of the jaw, clicking and grating 
sounds of the joint, or pain when opening or closing the mouth. Some 
doctors now subscribe to a conservative medical management of these 
symptoms whenever possible. Those who do not respond to medical 
management, may need surgical treatment to treat their problems. It is 
now possible to get surgery to preserve the joint without causing 
scarring in the joint itself.
                           clinical research
    A study published by the Institute of Medicine of the National 
Academy of Sciences, pointed to the need for focused high-quality 
clinical dental research. The recommendations included increased 
funding, educating scientists to explore existing resources, improving 
peer review for clinical research, exploring new career development 
programs for young and seasoned researchers, and addressing structural 
barriers within dental schools that limit the conduct of clinical 
research. NIDCR has implemented a number of steps, including training 
in clinical trial design, and also will explore options proposed by the 
NIH Director's Advisory Committee on Clinical Research which include 
expanded use of the General Clinical Research Centers, collaboration 
with industry and incentive awards for clinical researchers.
                            recommendations
    1. National Institute of Dental and Craniofacial Research.--The 
AADR supports an increase of 22 percent for the fiscal year 2003 NIDCR 
budget, representing a total appropriation of $420,000,000. This 
recommendation will result in a doubling of the NIDCR budget over the 
period 1999-2003, consistent with the congressional commitment to 
double the NIH budget in 5 years. The additional funds will support the 
following initiatives:
  --New saliva based diagnostic tools
  --Restoring health to orofacial tissues and organs using biomimetic 
        tissue engineering and stem cell approaches
  --Temporomandibular joint disorders.
    2. Centers for Disease Control and Prevention, Division of Oral 
Health.--The CDC seeks to improve the nation's oral health status, 
including trends in oral diseases, access to oral health services, and 
health disparities by evaluating prevention and control interventions. 
It also assists states in collecting and utilizing this information to 
improve the oral health of their citizens. Currently, the Division of 
Oral Health is funded at $10,839,000.
    The AADR is recommending $17 million for fiscal year 2003 to 
enhance the CDC's grant program to states and to address oral health 
issues through prevention research.
    3. The Agency for Healthcare Research and Quality (AHRQ).--The lead 
agency for supporting research to improve the quality of health care, 
reduce its costs, and broaden access to essential services. Its 
programs bring practical, science-based information to health 
practitioners, consumers, and health care purchasers.
    The AADR supports an increase in funding to $390,000,000 for AHRQ, 
an amount that would allow the agency to expand its portfolio of 
projects to include those related to bringing the advances of 
biomedical research into cost-effective dental practice. The AHRQ is 
encouraged to continue its dental scholar-in-residence program and to 
promote and conduct oral health services research.
    This concludes my testimony. Thank you for this opportunity to 
testify.
                                 ______
                                 
    Prepared Statement of the Coalition for Health Services Research
    The Coalition for Health Services Research (Coalition) is pleased 
to offer this testimony for the record regarding the role of health 
services research in improving our nation's health. The Coalition is 
the advocacy arm of the Academy for Health Services Research and Health 
Policy (Academy). Through the Academy, the Coalition represents more 
than 3,400 individual researchers, scientists and policy experts as 
well as 115 organizations that produce and use health services research 
information including universities, providers, employers, and health 
plans.
    We are grateful for the funding support the Subcommittee has 
provided for health services research over the past several years. 
Funding increases at the Agency for Healthcare Research and Quality, 
the Centers for Medicare and Medicaid Services, the Centers for Disease 
Control and Prevention, and the National Institutes of Health have 
allowed researchers to:
  --Find that uninsured children often have at least one working 
        parent. The findings, which countered the assumption that 
        parents of uninsured children are not employed, helped pave the 
        way for the development of the State Children's Health 
        Insurance Program (SCHIP), which extended health insurance to 
        many low-income children and their parents. According to the 
        U.S. Department of Health and Human Services, total SCHIP 
        enrollment for fiscal year 2001 was approximately 4.6 million 
        persons.
  --Develop a new technology to help emergency room doctors improve 
        their decision-making about whether to hospitalize or discharge 
        patients with chest pain. It is estimated that 200,000 people 
        per year could be spared an unnecessary hospital stay and that 
        more than 100,000 unnecessary critical care unit admissions 
        could be avoided, resulting in an estimated annual savings of 
        $700 million.
  --Find that newer antidepressant drugs are equally effective as older 
        antidepressants in treating depression. This research led the 
        American Psychiatric Association and American Pharmaceutical 
        Association to develop practice guidelines on the use of 
        antidepressant drugs.
    Yet more questions need to be answered. Increased funding for those 
agencies that support health services research is needed in order to:
  --develop practical approaches to keeping medical inflation in check;
  --promote improvements in clinical practice and patient outcomes;
  --speed clinical discoveries into practice;
  --develop processes to increase patient safety;
  --determine how to increase access to care;
  --find cost effective methods for improving quality especially for 
        those with chronic illnesses; and
  --better prepare the health care system to respond effectively to 
        natural catastrophes and terrorist attacks.
    The demand for health services research information and the need to 
improve our health care system cannot and will not be effectively met 
without the continued leadership of the Subcommittee and the Congress. 
Your support for the health services research being funded by a variety 
of federal agencies will allow millions of Americans to live longer, 
lead improved lives and save health care purchasers, including the 
federal government, hundreds of millions of dollars each year.
               agency for healthcare research and quality
    AHRQ's mission is to promote improvements in clinical practice and 
patient outcomes, in the financing, organization, and delivery of 
health care services, and in access to quality care. AHRQ's health 
services research compliments the biomedical research of the NIH by 
helping clinicians, patients, and health care institutions make choices 
about what treatments work best, for whom, when, and at what costs.
    For fiscal year 2003 the Coalition is requesting that Congress fund 
ARHQ at $390 million. This is $90 million above its fiscal year 2002 
level of $300 million and $139 million above the President's request. 
The President's fiscal year 2003 proposed budget would decrease current 
funding for AHRQ by $48 million, a 16 percent cut that will 
dramatically curtail AHRQ's ability to carry out its mission. The 
proposed cuts are targeted such that research on quality, quality 
measurement, disease management, outcomes, access and financing of 
health care will be most crippled. At the proposed $251 million level, 
AHRQ will be unable to fund any new research or training grants. 
Funding for current, non-patient safety grants will be reduced by 50 
percent, requiring mid-grant renegotiations that will significantly 
reduce our knowledge and understanding of how to cost-effectively 
provide quality health care. This will also mean that AHRQ will be 
unable to fund many of the grants nearing their completion date, 
thereby losing the investment and the benefit which would have been 
derived from prior Congressional appropriations.
    An increase in funding is needed to allow AHRQ to continue its work 
on providing the evidence-based information needed to reduce medical 
errors, improve access to health care services, and more efficiently 
utilize health care resources. An increase in funding is also needed to 
further research in eliminating racial and ethnic disparities, compile 
the first national report on quality and assist in improving emergency 
responsiveness.
    It is important to note, that AHRQ is the only federal health 
research agency that examines the entire health care system with an eye 
towards improving quality and efficiency. AHRQ conducts research that 
cuts across the jurisdictional lines of the other agencies and it 
frequently collaborates with the NIH, CDC, VA and other agencies in 
developing programs and answering critical questions. If AHRQ is forced 
to cut back on the research it conducts, Congress should not assume 
that NIH or any other agency will immediately begin to fund this type 
of research. Foundations are unable to make up the difference and, 
while private firms may choose to conduct some of this research, these 
firms often do not make the results available to the public for 
proprietary reasons. As the largest purchaser of health care services, 
the Federal government has an important role and responsibility in 
ensuring quality services are provided for those citizens relying on 
Federal programs while reducing costs to the American taxpayers.
    The Coalition's fiscal year 2003 budget request of $390 million 
will ensure AHRQ can not only continue its critical health mission, but 
also further fulfill its role in improving the quality of health care 
and the quality of life for all Americans.
               centers for medicare and medicaid systems
Office of Strategic Planning (OSP)
    OSP guides the development and implementation of new health care 
financing policies and evaluates their impact on Medicare and Medicaid 
beneficiaries, participating providers and the States. Congress has 
greatly increased CMS's administrative responsibilities over the past 
several years without providing commensurate funding for research. In 
addition, there have been significant changes in the Medicare and 
Medicaid programs that need to be continually monitored to determine if 
any refinements are necessary. CMS has also been given the 
responsibility of overseeing the SCHIP program. While OSP has received 
funding increases over the past 2 years, these increases have largely 
been for projects directed by Congress.
    Under the Administration's proposal, CMS will see its research 
budget cut almost in half from $55.3 million to $28.4 million. After 
subtracting $12.4 million for the Medicare Beneficiary Survey, and $6 
million for CMS to meet other statutory requirements, CMS will have 
only $10 million in discretionary research funding. However, their 
fiscal year 2003 commitments for funding projects already underway is 
$17 million. This means CMS would have to cut existing research by $7 
million. The Coalition supports a funding level of $60 million to 
ensure that CMS can meet its current obligations and expand research 
into areas such as quality care for those with chronic illnesses; plan 
and beneficiary participation in managed care; approaches to educating 
beneficiaries through use of the Internet (e-health); and the impact of 
technological changes on the Medicare and Medicaid programs and 
beneficiaries.
               centers for disease control and prevention
    A continuing concern is the issue of inadequate research focusing 
on the infrastructure of public health, public health services 
research. While much attention has focused on research on the sickness 
care system, and on improving the public health system's ability to 
respond to a terrorist attack, insufficient resources have been 
allocated for a comparable focus on research to improve the delivery of 
public health services. Of specific concern are:
  --How can the public health infrastructure be improved and made more 
        effective?
  --How do we target critical public health activities to reach 
        individuals and communities that typically encounter barriers 
        in accessing the health system?
  --How cost-effective are public health and prevention programs?
  --How will new advances in understanding disease be applied in public 
        health?
National Center for Health Statistics (NCHS)
    NCHS is the Federal government's principal vital health statistics 
agency. NCHS represents an investment in broad-based, fundamental 
public health and health policy statistics. The data maintained by NCHS 
is critical to the research performed by our members. For example, NCHS 
provides the data for:
  --Quarterly tracking of health insurance and access to care, 
        important to understanding the impact of public policy and the 
        economy on children and families;
  --Measuring the health status of Americans and how it changes, a 
        critical element in evaluating the value we get as a nation 
        from our investment in health;
  --Understanding trends in the use of health care services, including 
        the extent to which new medical technology is adopted, the 
        burden placed on the health care system by different diseases 
        and illnesses, and the ways in which prescription drugs are 
        prescribed and used;
  --Monitoring the capacity and performance of our health care system 
        by, for example, tracking waiting times in emergency 
        departments and measuring unmet health care needs;
  --Focusing policy and health programs on issues of greatest 
        importance by providing a credible, scientific basis for 
        understanding the magnitude of problems, and by helping 
        generate hypotheses for health services and biomedical 
        research; and
  --Measuring and understanding differentials between different groups 
        in the population, including racial and ethnic differences in 
        health, in order to help identify strategies for narrowing 
        these gaps.
    Last year, Congress increased funding for NCHS by $5 million. For 
fiscal year 2003, the President proposes to decrease the budget of the 
NCHS by $1 million. The Coalition believes that NCHS requires at least 
$180 million, an increase of $50 million over current spending levels, 
in order for the agency to be brought up to date technologically, and 
to provide the data needed by both public and private sector 
researchers and policy makers.
Extramural Prevention
    Under the President's budget proposal, CDC's $17 million extramural 
prevention research budget--the only extramural health services 
research program at the CDC--would be eliminated. CDC developed this 
program to move knowledge about effective strategies for preventing 
disease and disability from research to implementation in diverse 
community practices and programs. The program uses a model of 
community-based participatory prevention research, and has supported 
over 50 projects based in states and localities throughout the country. 
Cutting this program will eliminate the second round of projects 
designed and initiated by community-based research collaborations. The 
Coalition urges restoration of the $17 million so that CDC can conduct 
the second round of projects and collaborate with others to accelerate 
the dissemination of research results to professionals and communities 
who can put the results into practice.
                     national institutes of health
    As part of its ongoing research agenda, most of the Institutes of 
the NIH fund health services research. The proportion of NIH funding 
for health services research needs to be maintained and expanded to 
assure that the investments in biomedical research result in improved 
health services for the American people. The Coalition fully supports 
the commitment to double the NIH budget by the end of fiscal year 2003 
with the understanding that appropriate proportions of this investment 
must be targeted to fund health services research.
                        need for federal funding
    The Coalition for Health Services Research is grateful for the 
leadership of this Subcommittee in recognizing the important role of 
health services research. We urge the Subcommittee to continue the 
progress made during the last several years by providing a substantial 
investment in Federal health services research programs in the fiscal 
year 2003 appropriations bill.
    Thank you.
                                 ______
                                 
     Prepared Statement of the North American Brain Tumor Coalition
        the history of the north american brain tumor coalition
    My name is Pam Del Maestro, and I am the Chair of the North 
American Brain Tumor Coalition, or the NABTC. The NABTC is a network of 
charitable organizations that support brain tumor research and provide 
support services and educational materials and services to individuals 
with brain tumors, their families, and their friends. We have formed 
this coalition to raise public awareness and to advocate public 
policies that will enhance and accelerate the development of new brain 
tumor therapies and that will ensure that brain tumor patients have 
access to quality health care.
    I am very pleased to be speaking for the NABTC. I am an oncology 
nurse, and in my professional life I have fought to provide brain tumor 
patients with outstanding health care. The advances in brain tumor 
treatment are coming much too slowly, and the prognosis is dire for 
many who receive a diagnosis of a brain tumor. Our coalition, which 
includes patients, family members, friends, brain tumor researchers, 
and others, is dedicated to improving that prognosis. The NABTC is 
comprised of 12 organizations, 11 of which are located in the United 
States and represent all regions of the country.
    As a Canadian, it is an honor to chair the NABTC and speak for its 
members. I wish to mention our history as a North American coalition 
because we believe that brain tumor research and treatment will improve 
only if there is cooperation and collaboration among all in our 
community--cooperation among researchers from different countries, 
collaboration among those at different research institutions, and 
cooperation among research and advocacy groups.
a brief description of brain tumors and the unique challenges they pose
    Brain tumors have been described as diseases that affect the 
``organ that is the essence of the self.'' Because brain tumors can 
have such devastating effects, we often avoid talking about them. It is 
very important, however, that we all have a better understanding of 
diseases that affect neurological function; only with awareness and 
understanding can we wisely and effectively facilitate the advancement 
of research and treatment.
    Brain tumors are not a single disease; there are at least 126 types 
of central nervous system tumors. Treatment of brain tumors is 
difficult not only because of their diversity, but also because of 
their location. The treatments that are generally effective with 
cancers are significantly less effective with brain tumors. For 
example, the surgical removal of the entire organ or the tumor--a 
treatment option for many cancers--is simply not an option for many 
brain tumors. When surgery is an option, the patient often has 
neurological damage from removal of the tumor, and ``remission'' does 
not have the same meaning as with other cancers. Moreover, radiation 
and chemotherapy--essential weapons for many cancers--pose real 
challenges as brain tumor therapies. A ``curative'' dose of radiation 
may cause serious, if not devastating side effects, and the potential 
benefits of chemotherapy may be blocked by the blood-brain barrier.
    An individual may suffer mental impairment, seizures, and paralysis 
as a result of a brain tumor, and the treatment of an individual's 
brain tumor may have serious and long-term side effects. Children and 
adults who are treated for brain tumors may have permanent neurological 
damage from their treatment, and for both this damage may require life-
long care.
                          hope for the future
    The hope for brain tumor patients today and tomorrow is research, 
and brain tumor research strategies must be innovative, creative, and 
interdisciplinary. Several years ago, the NABTC urged the National 
Cancer Institute (NCI) and the National Institute of Neurological 
Disorders and Stroke (NINDS) to convene a planning meeting to set the 
course for brain tumor research. We believed the time was right for 
such a Brain Tumor Progress Review Group (BT-PRG) meeting; we thought 
that advances in basic science might be translated into improved 
treatments, with the proper investment of funds, the right research 
strategy, and talented researchers dedicated to the task.
    The July 2000 brain tumor research planning meeting, jointly 
sponsored by NCI and NINDS, was a positive experience for the 
researchers, clinicians, and advocates who participated. More 
importantly, however, it produced an outstanding brain tumor research 
plan. The BT-PRG report established scientific priorities in basic 
biology, epidemiology, detection and diagnosis, treatment, and 
outcomes. In order to accomplish the identified research priorities, 
the BT-PRG recommended that the following resources be made available: 
models for use in therapeutic screening, in preclinical trials, or to 
study the basic biology of brain tumors; tissue banks and databases; 
genomics and high-throughput screening; improved communication and 
collaboration among scientists of different disciplines; and improved 
training of brain tumor researchers.
    Unfortunately, the plan to implement the specific recommendations 
of the BT-PRG appears to be stalled. Brain tumor patients are 
understandably impatient when research initiatives are delayed or when 
any bureaucracy negatively influences the research endeavor. The brain 
tumor community wishes to see substantial and meaningful progress 
toward some of the core research proposals in the BT-PRG.
                implementation of bt-prg recommendations
    The NABTC is pleased that NCI has taken critical steps to 
strengthen the NCI-NINDS Neuro-Oncology Branch. This joint venture of 
the two Institutes that are most involved in brain tumor research is 
already providing leadership in brain tumor research and care. However, 
there is much more to be done by this Branch to advance brain tumor 
research, and it cannot be done without the resources to develop a 
long-term plan for the Branch and without the funds to implement such a 
plan.
    The NABTC strongly endorses the Neuro-Oncology Branch because we 
believe it is a model for an interdisciplinary approach to brain tumor 
research and that it can provide leadership to researchers and 
clinicians in institutions across the country. We propose below some 
initiatives to strengthen brain tumor research; these proposals relate 
to the Neuro-Oncology Branch and to the recommendations of the BT-PRG.
            nabtc proposals to enhance brain tumor research
    The BT-PRG had as one of its core goals increased communication, 
cooperation, and collaboration among scientists from different 
disciplines who are involved in brain tumor research. Scientists who 
are involved in cancer biology and genetics, neurobiology, immunology, 
and radiation biology are among those who contribute to brain tumor 
research, and it is imperative that they work collaboratively.
    To advance brain tumor research and realize the potential of the 
BT-PRG, the NABTC recommends a number of actions. Our recommendations 
are quite similar to those we made to the Subcommittee last year. Our 
impatience is matched only by our determination, and we will persist in 
advancing these proposals, which we think are important to the brain 
tumor research effort:
  --NCI should develop a strategic plan and budget for the Neuro-
        Oncology Branch to ensure the smooth functioning of the Branch 
        and to ensure that it is a leader in training brain tumor 
        researchers.--The Neuro-Oncology Branch has already assumed a 
        leadership role in brain tumor research and care. The NABTC 
        believes that the Neuro-Oncology Branch may play an especially 
        important role in the training of brain tumor researchers. 
        Unless brain tumor researchers receive training in 
        translational research and understand the benefits of 
        interdisciplinary approaches to brain tumor research, the 
        development of new therapies will certainly not accelerate and 
        may be threatened. Fulfilling this important training role is a 
        daunting challenge for the Neuro-Oncology Branch, but we 
        believe the NIH should embrace this opportunity.
  --NCI and NINDS should consider a number of initiatives to encourage 
        collaboration and coordination among extramural researchers.--
        Two such approaches are:
    --NCI and NINDS should organize and fund a series of 
            interdisciplinary meetings of researchers that would focus 
            on the subjects of brain tumor biology and etiology.--The 
            BT-PRG stressed that brain tumor research will advance by 
            utilizing interdisciplinary approaches. Experts agree that 
            meetings of researchers from different disciplines can 
            foster new insights on brain tumor research, and they also 
            agree that brain tumor biology and etiology are prime 
            topics for such meetings. We urge NIH to take a leadership 
            role in sponsoring such meetings.
    --The Center for Scientific Review (CSR) should coordinate review 
            of brain tumor research proposals.--Brain tumor researchers 
            believe that brain tumor research proposals will receive a 
            fair and thorough review only if the review panels enjoy 
            the expertise of brain tumor biologists. CSR should 
            guarantee that brain tumor research proposals are reviewed 
            by review panels whose members have brain tumor research 
            experience.
  --NCI and advocacy organizations should cooperate in the education of 
        brain tumor patients and physicians regarding brain tumor 
        treatment options.--The organizations that comprise the NABTC 
        have significant knowledge and experience in providing 
        materials and support to newly-diagnosed brain tumor patients 
        when they are making treatment decisions and throughout their 
        treatment and recovery experience. Nevertheless, the relatively 
        limited enrollment of adult brain tumor patients in clinical 
        trials suggests that these educational initiatives, which focus 
        on all treatment options, including clinical trials enrollment, 
        are not sufficient. NCI has invested significantly in 
        educational materials on clinical trials, and these materials 
        are being utilized by brain tumor organizations and patients. 
        The NABTC believes its own efforts and those of NCI would be 
        strengthened through coordination of public and private sector 
        initiatives. The NABTC recommends that NCI work with patient 
        and advocacy organizations representing those with rare cancers 
        to ensure that its clinical trials education materials and 
        programs meet the needs of those with rare cancers, including 
        brain tumors.
   appreciation for the leadership of the subcommittee on nih issues
    The NABTC would like to express its sincere appreciation for the 
leadership of this Subcommittee in ensuring substantial funding 
increases for NIH over the last 4 years and for your commitment to 
completing the 5-year NIH doubling process in fiscal year 2003. These 
large boosts in funding have allowed NIH to flourish and researchers 
around the country to continue their promising and life-saving work. 
Our recommendations are made in the spirit of seeking to enhance and 
improve the NIH research program and to ensure that the brain tumor 
research program at NIH is as strong as possible. These goals are only 
realistic because of your hard work in building the research 
infrastructure and funding it adequately.
    Thank you again for your leadership. We look forward to working 
with you in the future, and we will do everything we can to create a 
positive environment for NIH funding increases.
    The NABTC appreciates the opportunity to submit this statement. We 
are gratified by the efforts of the federal government in brain tumor 
research. However, the challenges of brain tumors are so great that we 
come to you with a steadfast commitment to achieving a cure through 
research and a sense of impatience about accomplishing that goal.
                                 ______
                                 
           Prepared Statement of the Alzheimer's Association
    Thank you for inviting me back to testify before your Subcommittee. 
As you know, I am a National Board member of the Alzheimer's 
Association. You have heard my personal story before. Both my 
grandfather and my father died of Alzheimer's disease.
    With each year that passes, my fear grows--my fear that the disease 
process that destroyed their memories, and ultimately their lives, has 
begun developing in my own brain. My fear grows not just for myself, 
but also for my generation--the 14 million baby boomers who will get 
Alzheimer's disease if we don't find a way to beat this dreadful 
disease.
    At the same time, my hope grows. Today I testify with more 
enthusiasm, more confidence that scientists are on the verge of a 
breakthrough. My hope is joined with a sense of urgency. In the quest 
to find a breakthrough for Alzheimer's disease, this nation is in a 
race against time.
    In the midst of the enormous challenges you face, I urge you to 
maintain your commitment to medical research funding for Alzheimer's 
disease, and increase funding to $1 billion a year as soon as possible. 
In this race against time, we can't afford to slip.
    Today, the Alzheimer's Association is releasing a national survey 
by Peter D. Hart Research Associates regarding Americans' concerns 
about Alzheimer's disease. I ask that the survey analysis be submitted 
for the record. This survey confirms what I see every day--that 
Americans of every age are terrified by the threat of Alzheimer's 
disease, and that they overwhelmingly support the shared efforts of 
this Subcommittee and the Alzheimer's Association to increase funding 
for Alzheimer research to $1 billion annually. I would like to share 
just a few of the findings from the survey.
    Ninety-five percent of Americans believe that Alzheimer's disease 
is a serious problem facing our nation. Perhaps they know as well as we 
in this room do--our window of time is very short. Perhaps they know 
that this disease can strike anyone, even a President of the United 
States.
    Senator Harkin and Senator Specter, you have led this Congress in 
the effort to double funding for NIH. Our survey shows that Americans 
support your work. In fact, in this election year, voters say medical 
research is one of the most important areas for federal spending, 
ranking second only to education spending, and placing ahead of 
spending on the military.
    More importantly, however, to those of us who sit before you 
today--three fourths of Americans agree with the proposal that Congress 
should increase funding for Alzheimer research to $1 billion per year. 
There is a broad coalition of voters who unite behind this proposal, 
with large majorities of both young (75 percent of 18-34 year olds) and 
old (77 percent 65 years old and older) agreeing that funding for 
Alzheimer research should be increased.
    Half of us in the room already have the time bomb of Alzheimer's 
disease ticking away in our brains, each and every day. Congress must 
find a way to defuse this bomb, before it destroys our brains and 
ultimately our entire selves.
    The American people have every right to be afraid of this horrible 
disease. By the middle of the century, 14 million of today's baby 
boomers will have Alzheimer's disease. For most of them, the process 
that will destroy their memories, their lives, and their savings has 
already begun.
    Mr. Chairman. We know there are many competing priorities before 
this Subcommittee, and we understand the fiscal constraints you face as 
you balance those priorities. But as we look to the future of the 14 
million baby boomers and indeed, the future of each and every American, 
the case for $1 billion investment in Alzheimer research is 
overwhelming. This hearing demonstrates your own concern about the 
looming crisis and your commitment to averting it. On behalf of 
everyone in the Alzheimer's Association, for every family dealing with 
Alzheimer's disease, and for all of us sitting here before you, thank 
you.
                                 ______
                                 
   Prepared Statement of the National Coalition for Osteoporosis and 
                         Related Bone Diseases
    The National Coalition for Osteoporosis and Related Bone Diseases 
(the Coalition) appreciates this opportunity to present our position on 
the need for continued and expanded funding for osteoporosis and 
related bone diseases research at the National Institutes of Health.
    The Coalition is committed to reducing the impact of bone diseases 
through expanded biomedical, clinical, epidemiological, and behavioral 
research. The participants of the Coalition are the National 
Osteoporosis Foundation, the American Society for Bone and Mineral 
Research, the Osteogenesis Imperfecta Foundation, and the Paget 
Foundation for Paget's Disease of Bone and Related Disorders. The bone 
diseases represented by our Coalition affect people of all ages, races 
and ethnic groups and lead to permanent deformity and lifelong 
disability.
           why are we concerned about america's bone health?
    Bone is living, growing tissue that gives us the framework upon 
which all the other systems of our body depend. Bones have a tremendous 
impact on how we live, function, and perform. But, we sometimes forget 
that bones are composed of active cells and are subject to metabolic 
and genetic processes, trauma, and the gradual wear and tear caused by 
aging.
    Bones begin to develop long before birth. When the skeleton first 
forms, it is made of flexible cartilage, but within a few weeks it 
begins the process of ossification, where the cartilage is replaced by 
hard calcium phosphate and stretchy collagen, the two main components 
of bone. This combination of collagen and calcium makes bone strong and 
flexible to withstand stress.
    Bone building continues throughout life. The body constantly renews 
the bone through a process called remodeling. This process consists of 
two stages--resorption and formation. During resorption, old bone 
tissue is broken down and removed by cells called osteoclasts. Once 
this has been done, bone formation begins and new bone tissue is added 
to the skeleton to replace the old bone tissue. Cells called 
osteoblasts perform this task. During childhood and teenage years, new 
bone is added faster than old bone is removed. As we age, the process 
may slow down. If resorption exceeds formation you will begin to loose 
bone mass, which can leave you vulnerable to osteoporosis and related 
fractures. An understanding of bone diseases is critical if there is to 
be hope of preventing people from suffering the numerous diseases 
associated with changes in bone structure and function.
      what are the major diseases of bone and mineral metabolism?
    Osteoporosis is the most prevalent bone disease in this country. It 
is characterized by low bone mass and structural deterioration of bone 
tissue, leading to bone fragility and an increased susceptibility to 
fractures of the hip, spine, and wrist. Men as well as women suffer 
from the disease. Older people, especially women, can develop 
osteoporosis as a result of insufficient exercise and calcium intake, 
in combination with hormonal changes and genetic factors. Building up 
adequate stores of calcium in the bones as a child, teenager, and young 
adult is a key factor in preventing or delaying the development of 
osteoporosis at a later age.
    The National Osteoporosis Foundation's recently published report 
``America's Bone Health: The State of Osteoporosis and Low Bone Mass in 
our Nation'' states that osteoporosis and low bone mass are currently 
estimated to be a major public health threat for almost 44 million U.S. 
women and men aged 50 and over. This represents 55 percent of the 
population aged 50 and older in the United States in 2002. By the year 
2020, it is estimated that over 61 million Americans will be affected 
if additional steps are not taken now to prevent, diagnose, and treat 
this disease.
    Each year approximately 1.5 million fractures are associated with 
osteoporosis. Beginning at age 50, white women have a 40 percent chance 
of fracturing the spine, hip, or distal forearm in their lifetime. This 
figure rises to 50 percent if all fracture sites in the body are 
considered. A woman's risk of a hip fracture is equivalent to her 
combined risk of developing breast, uterine and ovarian cancer.
    The cost to the health care system associated with osteoporotic 
fractures is approximately $17 billion annually. In addition to the 
economic cost of the disease, the human cost of the disease is immense 
but difficult to measure. Depression and anxiety are common following a 
fracture. One-fourth of those who were ambulatory before the hip 
fracture require long term care afterwards. Quality of life is affected 
following a fracture due to fears about additional fractures, limited 
mobility and coping with deformity.
    Scientists have made great strides in the following areas:
  --In recent years, there have been significant advancements in the 
        treatment of osteoporosis as new medications have been 
        developed, including a drug that has promise in building bone.
  --Scientists have made a major breakthrough in understanding the 
        genetics of this complex disease. While many genes may be 
        involved, a single gene has been identified as being 
        responsible for high bone mineral density. Additional genetic 
        research will give insight into the development of new 
        therapeutic agents to increase bone density.
  --Researchers are now beginning to develop an understanding of the 
        risk factors and treatments for osteoporosis in men, which has 
        been under-diagnosed, under-reported, and inadequately 
        researched in the past. This is critically important because 
        there are an estimated 14 million men with osteoporosis in 2002 
        and the prevalence of this disease is expected to increase by 
        approximately 40 percent to well over 20 million in 2020.
  --Research supported by the NIAMS has resulted in the design of a 7-
        month, high intensity jumping regimen that will increase peak 
        bone mass at two clinically critical sites, the hip and the 
        spine. Investigators discovered that children who participated 
        in the jumping program had a significantly greater change in 
        bone mineral content in both the hip and spine compared with a 
        control group, as well as showing positive differences in bone 
        mineral density and bone areas. This regimen, which can easily 
        be incorporated into the regular elementary school curriculum, 
        has potentially important public health implications with 
        respect to optimizing peak bone mass attainment in young 
        people.
  --Scientists have found that minor variations in a gene for the bone 
        protein, collagen, can lead to lower bone density in young 
        girls. These variations, while not causing apparent disease, 
        may define a high susceptibility group for osteoporosis later 
        in life. Identifying and understanding genetic susceptibility 
        to osteoporosis early in life may facilitate the targeting of 
        interventions to those who will most benefit from them.
    Paget's Disease of bone is the second most common bone disease in 
the world. Prevalence in the population over 60 ranges from 1.5 percent 
to 8 percent. Paget's disease is a serious, chronic skeletal disorder 
that may result in large, malformed, and fragile bones in one or more 
regions of the skeleton. In Paget's disease there is excessive bone 
resorption followed by excessive bone formation, resulting in bone that 
is architecturally unsound. Complications may include arthritis, 
fractures, bowing of limbs and hearing loss if Paget's disease affects 
the skull. Pain is the most common symptom.
    Scientists have found that:
  --A virus such as measles virus may in part be responsible for the 
        development of Paget's disease.
  --There is a strong genetic component involved in Paget's disease and 
        several possible sites on three different chromosomes have been 
        identified that may be involved.
  --Paget's is linked to chromosome 18q, and through grant awards from 
        the NIAMS, investigators are exploring the possible involvement 
        of multiple genes in the predisposition to the disease.
    Osteogenesis Imperfecta (OI) is a genetic disorder of the skeleton 
that is typically diagnosed in infancy. It affects between 20,000 to 
50,000 adults, children and infants in the United States. It results in 
brittle bones, causing as many as several hundred broken bones in a 
lifetime, hearing loss, brittle teeth, short stature, skeletal 
deformities and respiratory difficulties. For example, a cough or 
sneeze can break a rib, rolling over can break a leg. The most serious 
form of OI is frequently lethal to newborns.
    Recent research findings include:
  --In a New England Journal of Medicine article published October 1, 
        1998, the results of a 5-year observational study suggested 
        that regular intravenous doses of pamidronate (a 
        bisphosphanate) helped increase bone mineral content, reduce 
        fractures, increase mobility, and decrease bone pain in 
        children with OI. Continued research to determine the long term 
        effects and improve understanding of how the drug is working 
        are needed. Two other drug therapies have proven successful in 
        the test tube and are ready for study in animal models.
  --OI is caused by weakened collagen, or not enough collagen. 
        Recently, researchers have developed a technique to suppress 
        the gene that causes the weakened collagen. This was successful 
        in the test tube and is now being tested in animal models. This 
        technique would effectively make all cases of OI into mild 
        cases.
  --Bone marrow transplantation is being tested in the laboratory. Some 
        researchers are devising techniques to genetically engineer 
        bone precursor cells, which reside in the bone marrow, to 
        correct for the faulty OI gene and still maintain their ability 
        to form bone when transplanted back into the marrow. Other 
        researchers are testing the potential for normal bone marrow 
        stromal cells injected into OI bone marrow to take over 
        synthesis of bone matrix components. If either technique is 
        successful, they would lay the groundwork for transplanting 
        corrected cells into a person's bone marrow so that the cells 
        could repopulate the bone, making it stronger.
    Scientists are on the brink of discoveries that can revolutionize 
health care and the treatment of bone diseases. While remarkable 
advances in research have been made, the cause of many bone diseases 
remains unknown or is poorly understood.
    The National Institute of Arthritis and Musculoskeletal and Skin 
Diseases (NIAMS) leads the Federal research effort on bone diseases. 
However, the need for trans-NIH research is very vital. Bone-related 
diseases cut across many NIH institutes.\1\ Given the breadth and depth 
of these diseases and the enormous cost associated with providing 
medical care, we urge the Committee to instruct NIH to make this one of 
its top trans-NIH priorities.
---------------------------------------------------------------------------
    \1\ Institutes and Centers such as the National Cancer Institute 
(NCI), the National Institute of Child Health and Human Development 
(NICHD), the National Institute on Aging (NIA), the National Heart, 
Lung and Blood Institute (NHLBI), the National Institute of Dental and 
Craniofacial Research (NIDCR), the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK), and the National Center on 
Minority Research and Health Disparities (NCMHD) and the Office of 
Research on Women's Health.
---------------------------------------------------------------------------
    Opportunities for further research include these critical areas 
that need illumination:
  --Large-scale multi-center trials are needed to determine the most 
        effective and least costly way to combine the new treatments 
        for osteoporosis, which can both prevent bone breakdown and 
        build new bone.
  --Large-scale long-term clinical trials are also needed to determine 
        whether agents that prevent bone loss reduce fracture risk in 
        women with low bone mass.
  --Research is needed to apply the remarkable new developments in 
        genomics and proteomics to osteoporosis and related bone 
        diseases. This approach will lead to a better understanding of 
        skeletal aging, and the effects of hormones and local factors; 
        and will result in new approaches for diagnosis and treatment.
  --Research is needed to determine the bioavailability of various 
        calcium supplements, including a comparison of those with the 
        same calcium salt.
  --Research is needed to determine how children, adolescents, and 
        young adults maximize peak bone mass.
  --Determining why bone is a sanctuary for tumors. Once tumors go to 
        bone they are incurable.
  --Determining how the bone microenvironment enhances the growth of 
        tumor cells.
  --Determining the factors involved in normal bone remodeling and how 
        manipulating these factors affect the propensity of tumor to go 
        and grow in bone.
  --Some people with OI may have the same type of weakened collagen, 
        yet exhibit different levels of symptom severity. By studying 
        mice with these variations, researchers may discover modifying 
        genes that are responsible for the variation. These genes, or 
        their products, could then be used to modify the severity of OI 
        in humans.
  --Respiratory failure is the leading cause of death for young adults 
        with OI. Research into respiratory and cardiovascular 
        complications could save lives.
  --Addressing the effects of aging on OI.
  --Research into dentinogenesis imperfecta and orthodontic 
        manipulation in people with OI.
    Mr. Chairman, the Coalition offers our sincere thanks for the 
efforts of this Subcommittee in securing appropriations to double the 
budget for the National Institutes of Health. We are grateful for your 
commitment to this important effort. Without adequate funding of the 
NIH, research progress will be immeasurably slowed.
    We join the Ad Hoc Group for Medical Research Funding in urging the 
Committee to provide an appropriation of $27.3 billion in fiscal year 
2003 for the National Institutes of Health to achieve the bipartisan 
goal of doubling NIH by fiscal year 2003. We also support the NIAMS 
Coalition recommendation of a 15.7 percent increase for the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases, the lead 
bone research institute. In addition, we ask your support for increased 
funding for NIA, NIDCR, NIDDK, NCI, and NICHD, which also fund bone-
related research.
    Mr. Chairman, on behalf of the Coalition, we thank you for the 
opportunity to testify before this Committee.
                                 ______
                                 
Prepared Statement of the American Academy of Otolaryngology--Head and 
                           Neck Surgery, Inc.
    I am K.J. Lee, President of the American Academy of 
Otolaryngology--Head and Neck Surgery representing more than 11,000 
specialists who treat patients with disorders of the ears, nose, throat 
and related structures. Among these disorders are head and neck cancer, 
middle ear infections, deafness and hearing loss, dizziness, sinusitis, 
taste and smell problems, sleep disorders, and voice problems--
disorders which affect millions of Americans and cost our health care 
system billions of dollars each year. I am here today to ask you and 
your Committee to persist in your efforts to double funding for the 
National Institutes of Health, and specifically to identify additional 
funding for the National Institute on Deafness and other Communication 
Disorders (NIDCD).
    Over the last fourteen years, NIDCD has made great progress toward 
realizing its unique mission of understanding the normal and disordered 
processes of hearing, balance, taste, smell, voice, speech, and 
language. The NIDCD has supported researchers who are devoting their 
careers to finding the causes, cure and prevention of such disorders, 
which collectively affect more Americans than cancer, heart disease, 
orthopaedic disorders, or visual problems.
    Mr. Chairman and members of the committee I would like to highlight 
a few areas of research requiring attention and focus from the National 
Institutes of Health:
                              otitis media
    Otitis media is one of the most common bacterial infections in 
children, affecting more than 60 percent of American children during 
the first year of life and up to 95 percent of all children by age 6. 
Parents know that otitis media is the most common pediatric diagnosis 
and the most common reason why children undergo surgery, accounting for 
more than 20 million office visits in this country and costing the U.S. 
health care system up to $5 billion annually. Otitis media can lead to 
life-threatening diseases such as meningitis, and is also associated 
with chronic or fluctuating hearing loss capable of producing speech, 
language, and educational delays in vulnerable children. About 60 
percent of all acute otitis media infections are caused by bacteria.
    Thus, there has been growing interest over the past 10 years in 
developing vaccines. A seven-valent pneumococcal conjugate vaccine 
known as Prevnar has been proven effective in reducing episodes of 
otitis media. A growing body of research has suggested that persistent 
or chronic otitis media with effusion refractory to treatment is 
related to the presence of biofilms in the middle ear. Other diseases 
in which biofilms play a role include cystic fibrosis and Legionnaire's 
disease.
    The vaccines currently being used to control otitis media are not 
targeted at the bacteria that exist as biofilms in the middle ear and 
associated structures. Research is needed to further define the role of 
biofilms in common diseases of the ear and upper aerodigestive tract 
and to determine whether the biofilm forms of bacteria are equally 
susceptible to antibiotics.
                           balance disorders
    In the United States, falls are the leading cause of both fatal and 
non-fatal injuries for persons age 65 and over. Falls and the resulting 
injuries have become one of the most serious health issues for elderly 
individuals today. Over 2 million people in the United States fall and 
sustain serious injury annually and over $20 billion is spent each year 
for the treatment of injuries in the elderly after falls. Falls are the 
number one reason for nursing home admissions, thereby affecting the 
loss of an independent lifestyle for many senior citizens.
    More research is needed on identifying elderly individuals at risk 
for falling and to develop protocols for improving balance and gait 
factors in those individuals, which would account for individual 
differences in the complex multiple sensory and motor systems 
responsible for maintaining balance. While there have been some 
attempts to address this problem through the establishment of 
community-based ``falls clinics'', their results have not been very 
promising.
    We appreciate the support of this committee over the years and I 
can assure you that the investment in research has given many of our 
patients new hope. The following are a few examples of the 
accomplishments in the field of otolaryngology research:
        new therapies for individuals with head and neck cancer
    Over 280,000 Americans suffer partial or complete loss of voice and 
speech as a result of cancer of the head and neck, and 12,000 of these 
individuals die each year. Intramural scientists from NIDCD and the 
National Cancer Institute (NCI) have collaborated to develop new 
therapy alternatives to surgery for patients with head and neck cancer 
which result in remission and preservation of the organs involved in 
voice and speech.
    As part of the collaboration, NIDCD scientists completed a phase 
one clinical trial to determine the tolerance and response of people 
with advanced head and neck cancer to combined treatment with the 
chemotherapy agent Paclitaxel (Taxol) and radiation. It resulted in 70 
percent of the patients with advanced cancers getting a complete 
remission and preserving their voice and speech. Fifty-one percent 
remain in complete remission and 56 percent are alive 3 years after 
treatment. Treatment as an outpatient was well tolerated due to low 
incidence of acute toxicity from chemotherapy, but side effects of the 
combined therapy included a several month delay of recovery of 
swallowing, which was relieved by nutritional supplements. Follow-up 
studies are likely to include the addition of a drug to reduce the side 
effects experienced in this trial.
    There are also studies underway on new drugs that target the 
specific molecular abnormalities that cause cancers involving the vocal 
tract. NIDCD and NCI are collaborating to conduct a 2-year Phase I 
trial of a new drug to be given along with radiation for treatment of 
patients with cancers with the vocal tract. Studies to identify the 
genes activated by a signal known as Nuclear factor kappaB which cause 
these cancers are also being conducted.
  hearing parents of deaf children favor genetic testing for deafness
    Genetic testing is now an option for deaf people and their 
families. However, little attention has been given to the public's 
perception on the value and impact of the testing. Parents with normal 
hearing who have one or more deaf children were recently surveyed about 
their attitudes toward diagnostic and prenatal testing for deafness. 
Ninety-six percent of the respondents were shown to favor genetic 
testing for deafness, including prenatal testing.
    The study shows that genetic testing should be combined with 
genetic counseling to help parents of deaf children make informed 
decisions concerning medical management and necessary intervention 
strategies.
language development in profoundly deaf children with cochlear implants
    A cochlear implant is an electronic device designed to provide 
sound detection as well as improved speech understanding and speech 
production. The cochlear implant is surgically implanted in the ear. It 
bypasses the damaged parts of the ear and sends electrical ``sound'' 
directly to the hearing nerve or the auditory nerve.
    Cochlear implants have proven to be a useful communication tool in 
deaf adults. Many can read lips and some can talk on the phone which is 
difficult without visual cues. Cochlear implantation in children may 
result in the acquisition of spoken language.
    After receiving the implants, deaf children start developing their 
English language skills at a similar rate to that of children who have 
normal hearing. These findings suggest that earlier implantation in 
deaf children would result in shorter delays in language development.
                            recommendations
    In order to expand support for pursuing these and other initiatives 
and the conduct of clinical research, the American Academy of 
Otolaryngology--Head and Neck Surgery recommends a funding level of 
$393,382,000 for NIDCD. This level of funding will double NIDCD's 
budget over 5 years.
    I speak on behalf of all otolaryngologists--head and neck surgeons 
and their colleagues in related scientific disciplines in thanking this 
Subcommittee and the Congress for making progress in biomedical 
research possible through generous appropriations to the NIH and other 
funding agencies. I will gladly answer any questions you might have.
                                 ______
                                 
             Prepared Statement of the Epilepsy Foundation
    The Epilepsy Foundation is the national voluntary organization that 
works for people affected by seizures through research, education, 
advocacy and service. Founded in 1968, its national office is based in 
Landover, Maryland. The national office and its network of 58 
affiliates across the country provide many direct services to 
individuals and families, including: community education; employment 
assistance; recreation; professional education conferences; assisted 
living; and case management and counseling.
    The Epilepsy Foundation supports medical research to find better 
treatment and an eventual cure for epilepsy, and works with federal 
government agencies and Congress to advance the interests of people 
with epilepsy.
    Epilepsy is a neurological condition characterized by recurrent, 
unprovoked seizures. At least 2.3 million people currently have 
epilepsy; the number of people affected by epilepsy, family members, 
teachers, care givers, employers is an exponentially far larger number. 
A recent CDC study in Texas found 1.8 percent of adults had been 
diagnosed with epilepsy or seizures. Approximately 181,000 new cases of 
epilepsy occur each year; 10 percent of all Americans will experience 
seizures in their lifetimes.
                      medical research advancement
    The Epilepsy Foundation actively supports the efforts of Congress 
to double funding for the National Institutes of Health. We are pleased 
that NIH maintains strong bi-partisan support and has enjoyed 
significant increases in funding. These investments in our nation's 
health are paying dividends. In the last decade considerable progress 
has been made in identifying genes associated with epilepsy and in 
developing medications, devices and surgical treatments.
    Two years ago, participants in a historic scientific conference 
predicted that prevention and a cure for epilepsy are only a generation 
away. Now the scientific community is working on next steps and ways to 
measure progress toward those goals. The conference, `` Curing 
Epilepsy: Focus on the Future'', was sponsored by the National 
Institute for Neurological Disorders and Stroke (NINDS), which is the 
primary federal sponsor of epilepsy medical research. The Epilepsy 
Foundation was one of the co-sponsors. NINDS, together with scientific 
experts have developed a set of benchmarks and priorities to guide 
future research.
    Specifically, the conference and the benchmarks look at how 
epilepsy begins, ways of identifying people at risk and how to develop 
treatments that will prevent epilepsy in those people as well as 
continuing the search for new therapies, free of side effects, to 
prevent seizures. Clearly there are significant opportunities for 
advancements in epilepsy research.
                         the impact of seizures
    Despite this progress and hope for the future, epilepsy remains a 
chronic condition that usually requires a lifetime of medical 
treatment. As many as 44 percent of people with epilepsy continue to 
have seizures despite treatment; 56 percent have early or delayed 
seizure control with treatment. Currently, there is no cure for 
epilepsy.
    A recent cost study estimates that the cost of epilepsy, focussed 
on its most narrow measures, the direct medical costs, and the indirect 
costs as identified by the impact on earning and home production, is 
$12.5 billion annually.\1\
---------------------------------------------------------------------------
    \1\ Begley C, Famulari M, Annegers J, et al. The cost of epilepsy 
in the United States: an estimate from population-based clinical and 
survey data. Epilepsia. 2000; 41: 342-351.
---------------------------------------------------------------------------
    The consequences of seizures continue to be severe and life 
altering, even among people with well-controlled seizures. Their impact 
spans employability, income levels, education, marriage, fertility, 
life expectancy and life style. The Texas study showed high levels of 
pain, anxiety, poor health, depression, and fatigue among adults living 
in the community, to the degree that their quality of life was 
negatively affected about 40 percent of the time.\2\
---------------------------------------------------------------------------
    \2\ Centers for Disease Control. Health-related quality of life 
among adults with epilepsy--Behavioral Risk Factor Surveillance System, 
Texas, 1998. MMWR Morb Mortal Wkly Rep. 2001; 50, 2: 24-35.
---------------------------------------------------------------------------
    Twenty-five percent of all people with epilepsy are unemployed; 
among those who are partially or poorly controlled, unemployment 
approaches 50 percent. Marriage and fertility rates are reduced in 
people with epilepsy,\3\ there is an increased risk of brain damage and 
increased mortality \4\ and stigma remains a fact of life for too many 
people \5\ fueling discrimination and isolation from the mainstream of 
life.
---------------------------------------------------------------------------
    \3\ Morrell MJ. Reproductive function in women with epilepsy. 
Presented at the American Academy of Neurology 49th Annual Meeting; 
April 12-19, 1997; Boston, MA.
    \4\ Tomson T. Mortality in epilepsy. J Neurol. 2000; 247: 15-21.
    \5\ Fisher RS, Vickery BBG, Gibson P, et al. The impact of epilepsy 
from the patient's perspective I. Epilepsy Research. 2000; 41: 39-51.
---------------------------------------------------------------------------
    Children with epilepsy are at special risk of learning 
difficulties. Studies have documented deficits in language, visual-
spatial function, problem solving, and adaptive behaviors, even in the 
absence of co-morbidity.\6\ Children with epilepsy have unique 
difficulties when compared to those with other chronic illnesses such 
as asthma and diabetes; achievement scores are lower, there are 
problems with self-concept, depression, and behavior.\7\ These studies 
demonstrate the critical importance of early recognition and treatment, 
as well as the often unanticipated consequences that a diagnosis of 
epilepsy can have.
---------------------------------------------------------------------------
    \6\ Herman BP, Austin J. Psychosocial status of children with 
epilepsy and the effects of epilepsy surgery. In: The Treatment of 
Epilepsy: Principles and Practices. Philadelphia, Penn: Lea & Febiger; 
1993: 1141-1148.
    \7\ Austin JK, Huberty TJ, Huster, GA, et al. Academic achievement 
in children with epilepsy or asthma. Devl Med Child Neurol. 1998; 40: 
248-255.
---------------------------------------------------------------------------
               research and public health recommendations
    The Epilepsy Foundation supports the doubling of the NIH budget. We 
expect that the NINDS will update Congress and the epilepsy community 
on the progress being made to implement the recommendations from the 
conference entitled ``Curing Epilepsy: Focus on the Future.'' 
Continuing to invest in basic and clinical research is crucial to 
meeting our goal of preventing and curing epilepsy. However much more 
needs to be done to address the impact of epilepsy and to improve the 
quality of life of those living with the disorder. Experts agree that 
timely recognition of seizures and effective treatment can reduce the 
risk of subsequent brain damage, as well as disability and mortality 
from injuries incurred during a seizure and from recurring seizures.
    In 1993 Congress recognized this need and directed the Centers for 
Disease Control and Prevention (CDC) to develop an epilepsy program 
within the National Center for Chronic Disease Prevention and Health 
Promotion. As a result, the CDC initiated a number of activities 
including a public health campaign geared toward teen awareness and 
education, a project with the Agency for Healthcare Research and 
Quality to develop provider education materials and surveillance and 
prevention research activities to better analyze trends in access to 
care, levels of care and other demographic variables.
    This agenda is much larger than current resources for the program. 
In fiscal year 2001, Congress appropriated $4 million for the CDC 
epilepsy program. In fiscal year 2002 Congress appropriated $6.5 
million. However, additional resources will be needed in order to 
expand the reach of the program into local communities and to fulfill 
the legislative intent.
    In 2000, Congress expanded the program by passing the Children's 
Health Act of 2000. The goals for this program include progress in 
research, epidemeology and surveillance, early detection, improved 
treatment, public education and expansion of interventions to support 
people with epilepsy and their families in their communities. The 
Children's Health Act of 2000 also authorized a new program within the 
Health Resources and Services Administration. HRSA is directed to 
create grants to improve access to health and other services regarding 
seizures; and to gear projects toward encouraging early detection and 
treatment for those living in medically underserved areas.
                fiscal year 2003 funding recommendations
    Epilepsy research funded by the National Institute of Neurological 
Disorders and Stroke is vital to continuing the fight against epilepsy. 
The promise of future breakthroughs in epilepsy research can only be 
achieved by increased funding for epilepsy research and prevention 
programs. The Foundation urges Congress to increase the federal 
commitment to epilepsy research by allocating sufficient funding for 
the NINDS, the Centers for Disease Control and the Health Resources 
Services Administration.
  --Epilepsy Program at the Centers for Disease Control and 
        Prevention.--The Epilepsy Foundation supports $11 million for 
        the CDC epilepsy program, a $4.5 million increase.
  --Health Resources and Services Administration.--The Epilepsy 
        Foundation supports an initial investment of $3 million in 
        order to create demonstration projects to improve access to 
        health care for people with epilepsy.
  --Doubling the National Institutes of Health Budget.--The Epilepsy 
        Foundation supports the efforts to double the funding for the 
        NIH, particularly the National Institute of Neurological 
        Disorders and Stroke (NINDS). In keeping with this effort, we 
        support a $1.5 billion funding level for NINDS in fiscal year 
        2003.
    Thank you for the opportunity to submit testimony to the 
Subcommittee. We look forward to working with you in the 107th 
Congress.
                                 ______
                                 
  Prepared Statement of the Academic Health Centers Clinical Research 
                                 Forum
     My name is William F. Crowley and I am the Director of Clinical 
Research at Massachusetts General Hospital. I am presenting testimony 
on behalf of the Academic Health Centers Clinical Research Forum, an 
organization comprised of over 20 academic institutions concerned with 
the status of clinical research in this country.
    Mr. Chairman, research supported by the National Institutes of 
Health has produced a wealth of knowledge about the fundamentals of 
human health and disease. Irreversibly diseased organs can now be 
replaced by grafts and transplants; and infections once thought to be 
hopeless can now be treated with antimicrobial medications. In 1900, 
life expectancy was 50 years; today it is 77. Over the past three 
decades, the death rate from heart attacks has dropped 30 percent in 
the past three decades. And for the first time, we have begun to see 
modest declines in cancer death rates.
    While the ultimate goal of medical research is to save lives and 
reduce suffering, we cannot overlook one of its most important by-
products: The investment in NIH yields dividends to the economy of as 
much as 40 percent annually. According to a May 2000 report, entitled 
The Benefits of Medical Research and the Role of NIH, bottom-line 
returns to the economy are enhanced by greater productivity resulting 
from longer lives and better overall health. Research also stimulates 
jobs and other economic benefits that flow from new industries in 
biotechnology, pharmaceuticals and medical technology.
    Indeed, the impact of medical research has proved to be among our 
country's greatest achievements, saving countless lives and improving 
the quality of life. But the full value of research has been realized 
only when it is viewed as a continuum, one that encompasses basic 
research on the fundamental processes underlying biological and 
behavioral as well as clinical research, where knowledge gained in the 
laboratory is translated into cures and effective treatments, or more 
specifically, where it is put in the hands of physicians and health 
care professionals. To emphasize one facet of that continuum over 
another undermines the central tenet of medical research--namely, to 
safeguard and improve the lives of all Americans.
    To achieve that objective, Mr. Chairman, requires a balanced 
investment in research--one that encompasses basic and clinical 
research as well as epidemiological and health services research. And 
to ensure that the research investment is always in balance requires 
constant monitoring, both by NIH and by Congress. Common sense tells us 
that the accumulation of fundamental knowledge for its own sake is of 
little value unless it finds its way to physicians' offices and 
hospitals, where it can be put to use in promoting good health or 
diagnosing, preventing and treating disease. In that regard, clinical 
research can be described as the neck of the scientific bottle, through 
which all scientific developments must flow before they can be of any 
benefit to the public. Advances in genetics, neuroscience and molecular 
biology, for example, will count for little unless clinical researchers 
are able to translate them into new and effective medical practices. 
Nor will the practices be of full benefit to the public without the 
analysis of health services and epidemiological researchers.
    This Subcommittee's leadership has set the stage for unprecedented 
investments in NIH. And for that we are all most grateful. Those 
investments have allowed us to decipher the human genome sooner than 
anticipated, heralding a new era for discoveries about how the body 
works and how to make it work better. Those same investments have also 
led to breakthroughs in basic science that allow us to sharpen our 
focus on the molecular nature of disease.
    What does all that mean? For most Americans, research is research. 
They make no distinction between basic research and clinical research. 
But as Donald E. Stokes wrote in his book, Pasteur's Quadrant, the 
public deeply values science ``not for what it is, but for what it's 
for.''
    And what it's for is the patient. Whether the dividends from 
scientific breakthroughs are ever fully realized hinges upon the 
clinical research enterprise. In a very real sense, it is the very 
linchpin of research. In fact, it is the only way that you and your 
colleagues can truly know that the enormous investment of taxpayer 
dollars has produced results.
    I use the term ``enterprise'' to underscore that clinical research 
embraces a wide spectrum of studies involving interactions with 
patients, diagnostic materials and data, and studies involving disease 
origins and epidemiology, translational research, clinical trials, 
prevention and health promotion, and behavioral and health services 
research.
    That may sound like a laundry list of scientific jargon. But simply 
put, the clinical research enterprise is the mechanism for ensuring 
that new knowledge finds its way into doctor's offices and hospitals, 
where it can be put to use in preventing, diagnosing and treating 
illness and disease. In basic research, the starting point for 
scientists is a desire to understand how organisms behave at their most 
fundamental levels. Clinical researcher are more likely to begin from 
the opposite direction--the patient--and try to determine the cause of 
their misery.
    Mr. Chairman, all sources of research depend on one another. As 
Pasteur himself noted, clinical and basic research are no more 
separable than the tree from its fruit. Because the two are so 
interdependent, a decline in either basic or clinical research can hold 
back progress. And when that happens, all Americans pay in terms of 
health and economic productivity. In order to prevent that from 
occurring, the Academic Health Centers Clinical Research Forum 
recommends the following:
    Accelerate ongoing clinical research training activities.--Moving 
basic research into clinical practice is a complex and time-consuming 
process requiring teams of highly qualified experts. For every grant 
application for clinical research NIH receives, it receives two 
applications for basic research grants. This is due in large part to 
the paucity of physician-scientists equipped to conduct clinical 
studies. In order to keep pace with new scientific discoveries in basic 
science, NIH should redouble its research training efforts, including 
mentored training for new and junior investigators (K23 awards) and 
career support for established clinical investigators (K24 awards).
    Strengthen loan repayment efforts.--The heavy educational loan 
burden for medical students is a significant obstacle for those 
students who might otherwise wish to pursue a career in clinical 
research. A new extramural loan repayment program for clinical 
researchers was launched last year. We recommend that support for that 
program be expanded to stimulate greater interest on the part of young 
investigators.
    Create an Office of Clinical Research.--A Director's Panel on 
Clinical Research was established in 1995, but has not convened since 
December 1997. Although individual institutes and centers may develop 
research priorities that take into account clinical research 
opportunities, there is no single oversight body within the NIH 
Director's office to nurture this important facet of study. We 
recommend that a permanent office be established as soon as possible.
    Establish an NIH advisory panel on clinical research.--Advisory 
committees can play a valuable role in helping to guide public policy. 
We recommend that an advisory panel be established that represents the 
interests of the scientific, physician and patient advocacy 
communities.
    Mr. Chairman, thank you for the opportunity to appear before the 
Subcommittee. I would be happy to answer any questions you may have.
                                 ______
                                 
       Prepared Statement of the National Breast Cancer Coalition
                              introduction
    Thank you, Mr. Chairman and members of the Subcommittee for your 
dedication and leadership in working with the National Breast Cancer 
Coalition (NBCC) to help in our fight to eradicate breast cancer.
    As you know, the National Breast Cancer Coalition is a grassroots 
organization dedicated to ending breast cancer through the power of 
action and advocacy. The Coalition's main goals are to increase federal 
funding for breast cancer research and collaborate with the scientific 
community to design and implement new models of research; improve 
access to high quality health care and breast cancer clinical trials 
for all women, and; expand the influence of breast cancer advocates in 
all aspects of the breast cancer decision making process. Nearly 600 
NBCC advocates will be on Capitol Hill on Tuesday, April 30th, to lobby 
their Senators and Representatives on a legislative agenda that 
reflects these goals. NBCC truly believes that with our extraordinary 
determination and unbelievable spirit, combined with your continued 
support for high quality breast cancer research, this deadly disease 
will someday be eradicated.
        continued funding for breast cancer research is critical
    The Coalition would like to emphasize the advancements in breast 
cancer research that have come about as a result of your longstanding 
support for this issue. Developments in the past few years have begun 
to offer breast cancer researchers fascinating insights into the 
biology of breast cancer and have brought into sharp focus the areas of 
research that hold promise and will build on the knowledge we have 
gained. We are at a point where we are now able to target genes and 
begin to know how to address one woman's breast cancer in a different 
way from another woman's. This knowledge is leading us forward in 
finding the answers to prevention of breast cancer, as well as how to 
detect it earlier, and treat it more effectively. Now is precisely the 
time to continue your support for this important research.
            the breast cancer and environmental research act
    NBCC asks for your support for increased appropriations for breast 
cancer research at the National Institute of Environmental Health 
Sciences (NIEHS). Last year, Senators Chafee, Reid, Hatch and Leahy 
introduced S. 830, the Breast Cancer and Environmental Research Act. 
(Representatives Lowey and Myrick introduced the House companion bill, 
H.R. 1723.) This legislation would establish Breast Cancer and 
Environmental Research Centers at the National Institute of 
Environmental Health Sciences to support research on environmental 
factors that may be related to the etiology of breast cancer.
    It is generally believed that the environment plays some role in 
the development of this disease, but the extent of that role is not yet 
understood. NBCC believes that a strategy must be developed and more 
research done to determine the impact of the environment on breast 
cancer. It is only when we understand what causes this disease that we 
will have a better idea of how to prevent it, how to treat it more 
effectively, and how to cure it.
    Women want to do all they can to reduce their risk of breast cancer 
or a recurrence. However, little is known about how the millions of 
environmental exposures we encounter each day impact the incidence of 
breast cancer. While there have been isolated studies looking at the 
suspected environmental links to breast cancer, overall, the issue of 
what causes breast cancer and the association between the environment 
and breast cancer has been chronically underfunded and understudied.
    The Coalition believes the Breast Cancer and Environmental Research 
Act is the appropriate strategy to examine this question. Many Members 
of Congress from across the political spectrum agree with this approach 
as well. NBCC specifically appreciates this Subcommittee's 
recommendation in CR 107-84 regarding the need for additional research 
in the realm of breast cancer and the environment. We thank the 
Subcommittee for taking these important first steps in endorsing the 
goals set forth in this legislation. The time is right for the 
Committee to move forward in the fight to eradicate this disease by 
providing $30 million to fund up to eight breast cancer and 
environmental research centers, which would make grants using a peer 
review and programmatic review process that involves consumers. NBCC 
urges the Committee to use the tremendously successful Department of 
Defense (DOD) Peer-Reviewed Breast Cancer Research Program (BCRP) as a 
model for the structure of this research program.
                         accountability at nih
    Finally, NBCC believes the issue of accountability at NIH is an 
especially timely one with respect to the completion of doubling the 
NIH budget. We would like to see collaboration among consumer 
advocates, NIH and Congress, to create mechanisms to ensure a higher 
level of accountability for federally funded breast cancer research. 
The National Breast Cancer Coalition understands that the level of 
funding is meaningless unless the funds are allocated appropriately.
    The Coalition believes that the call for increased accountability 
should be a collaborative effort, and wants to work with the Committee 
and with NIH and NCI. The Programmatic Review Group (PRG), which Dr. 
Klausner convened in 1998 to provide an account of NCI's plan to 
eradicate breast cancer, was a good beginning; however, a more 
comprehensive strategy is necessary.
    We know that NIH and NCI are as committed as we are to finding 
prevention and cures for this disease. However, there needs to be 
outside oversight of NIH to monitor this process. NBCC believes that it 
is inappropriate for a government agency to design its own oversight; 
rather, the public must design and participate in a process that can 
review decisions without bias. The time is right for Congress to 
request an independent audit of research funding at NIH--using breast 
cancer research funding as a model. The question of whether changes may 
be needed in the grant mechanism and research structure at these 
Institutes should be explored. This outside evaluation is necessary to 
update processes or to uproot outmoded or duplicative efforts that no 
longer make sense.
    The Coalition also seeks answers to the questions that remain. For 
instance, how is breast cancer research funding currently being spent? 
Who sets priorities and what criteria are applied? And, how can we, as 
consumer advocates, seek to influence how the money is being spent?
    NBCC believes that some of the answers to these questions lie in 
the model of accountability in the Department of Defense (DOD) Army 
Peer-Reviewed Breast Cancer Research Program (BCRP). While the DOD BCRP 
is significantly smaller and more focused than NCI and NIH, it has an 
effective infrastructure of accountability that serves as a good model 
for other research programs to follow.
    The DOD Integration Panel has outside members that include 
advocates on both levels of peer and programmatic review. Also, the DOD 
Breast Cancer Research Program has reported the progress of the program 
to the American people during two public meetings called the ``Era of 
Hope.'' These meetings have been the only times a federally funded 
program reported back to the public in detail not only on the funds 
used, but also with regards to the research undertaken, the knowledge 
gained from that research and future directions to pursue. These 
meetings allowed scientists, consumers and the American public to see 
the exceptional progress made in breast cancer research through the DOD 
Peer-Reviewed Breast Cancer Research Program.
    As we are all aware, these are taxpayer dollars. We owe it to all 
of our constituencies to assure them that this investment is spent 
wisely. The National Breast Cancer Coalition supports increased 
appropriations for breast cancer research so that we can eradicate this 
disease as soon as possible, however, it is vital that the public 
understand how the funds are being spent. NBCC would like to work with 
Members of this Subcommittee on this issue.
                               conclusion
    Chairman Harkin, Senator Specter, and members of the Subcommittee, 
thank you again for the incredible investment you have made in helping 
us work to eradicate breast cancer. NBCC looks forward to continuing to 
work with you to end this disease.
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene
    The American Society of Tropical Medicine and Hygiene (ASTMH) 
greatly appreciates the opportunity to present its views to the 
Subcommittee. The ASTMH is a professional society of 3,500 researchers 
and practitioners dedicated to the prevention and treatment of 
infectious and tropical diseases. The collective expertise of our 
members is in the areas of basic science, medicine, vector control, 
epidemiology, and public health.
    The staggering burden of tropical and infectious diseases confronts 
us on a daily basis. Poor health and the spread of infectious disease 
across borders have profound effects on the social and economic 
development and stability of nations around the globe. With the 
enormous volume of travel and trade today, and with the expanded 
deployment of American troops, infectious diseases can affect 
populations around the globe within 24 hours. The globalization of 
infectious disease has brought an increased realization that infectious 
diseases represent not only a humanitarian concern but also a bona fide 
threat to the health and national security of the United States.
    The tragic events of September 11th have brought new challenges and 
threats that we are forced to confront as a nation and has underscored 
the need to strengthen our efforts and conduct countermeasures to 
global infectious disease with a sharp focus on bioterrorism prevention 
and treatment.
    Now more than ever, we must be vigilant in our efforts to control 
and eradicate infectious diseases. In this new era, we must marshal the 
efforts of government, industry, international organizations and 
private foundations if we are to protect our national security against 
biological and chemical attacks and protect Americans against 
infectious diseases and antimicrobial resistance. Tuberculosis (TB) and 
malaria are renewed threats because they are becoming increasingly drug 
resistant. Monitoring, preventing, and controlling antimicrobial 
resistance requires sustained effort, commitment, and collaboration 
among public and private sectors, with support and leadership from the 
federal government.
                  national institutes of health (nih)
    Mr. Chairman, the Society thanks you and members of the 
Subcommittee for your strong leadership in the area of biomedical 
research. Investments in NIH have led to an explosion of knowledge that 
promises to advance our understanding of the biological basis of 
disease and unlock new strategies for disease prevention, diagnosis, 
treatment, and cures. For example, new rapid methods for detecting 
tuberculosis can detect small amounts of the bacteria in 9 days, 
cutting 2-3 weeks off the current diagnostic standard. New drugs have 
been developed to treat anthrax, which has been hastened following the 
identification of how the anthrax toxin enters and turn off a cell's 
internal switches, giving researchers the ability to construct new 
anti-toxin compounds based on known features of the protein rather than 
by randomly screening large numbers of compounds.
    The ASTMH commends President Bush for proposing a fiscal year 2003 
budget of $27.3 billion for the NIH, the funding level necessary to 
complete the bipartisan national campaign to double the NIH budget by 
2003. We urge you to support an NIH funding level of at least $27.3 
billion in fiscal year 2003. This investment will permit an aggressive 
pursuit of bioterrorism research on prevention and treatment as well as 
the pursuit of promising research avenues, including the development of 
new vaccines and drug therapies for diseases such as malaria, TB, 
dengue fever, cholera and other diarrheal diseases, HIV/AIDS, and a 
myriad of other viral bacterial, fungal, and parasitic disease agents.
    As a result of the increased funding of the NIH, new scientific and 
research opportunities are being pursued that hold the potential to 
prevent and control tropical and infectious diseases around the world. 
Infectious diseases are the second leading cause of death worldwide, 
accounting for over 13 million deaths (25 percent of all deaths 
worldwide in 1999). Twenty well-known diseases--including TB, malaria, 
and cholera--have reemerged or spread geographically since 1973, often 
in more virulent and drug-resistant forms. At least 30 previously 
unknown disease agents have been identified in this period--including 
HIV, Ebola, and hepatitis C--for which no cures are available.
    Additional support for clinical research is needed to take 
advantage of existing opportunities and develop new approaches to 
accelerate efforts to develop vaccines and drug therapies for HIV/AIDS, 
malaria, TB, and hepatitis C. Emerging scientific opportunities and 
recent developments in infectious disease research include sequencing 
the human genome and recombinant DNA technologies for developing new 
vaccines, such as the very successful vaccines against hepatitis B that 
are now given to all children in the United States. Although it will be 
a great challenge, we are optimistic that similar such vaccines can be 
developed against the big three global killers: AIDS, TB, and malaria.
     national institute of allergy and infectious diseases (niaid)
    The ASTMH supports the fiscal year 2003 budget recommendation of 
$3.9 billion for the National Institute of Allergy and Infectious 
Diseases (NIAID).--During the past 15 years three factors have prompted 
NIAID to grow significantly: the emergence of HIV/AIDS in the early 
1980s; results from basic research that are now driving new approaches 
to solving clinical and public health problems; and the realization 
that infectious diseases will continue to emerge unpredictably and at 
times explosively. These factors, coupled with the urgent need to 
undertake an aggressive bioterrorism research agenda, justify a 
significant investment in NIAID activities as proposed by the 
President. There are several important on-going issues relating to 
NIAID's research efforts in tropical and infectious diseases that we 
would like to highlight.
    Malaria.--Malaria has been undergoing a global resurgence in recent 
years, partially related to drug resistance, with 275 million cases 
occurring annually, and a death toll estimated at 1 to 2 million, 
primarily children. It is a disease of staggering importance, 
especially in sub-Saharan Africa, where 90 percent of the cases and 
deaths occur. More than 10 million U.S. citizens travel to areas of the 
world where malaria is transmitted annually, and must take drugs with 
side effects and ever-decreasing efficacy. In every military campaign 
of the past 100 years executed in areas where malaria was transmitted 
U.S. forces have had more casualties from malaria than from hostile 
fire. The malaria parasites rapidly develop resistance to the drugs we 
use, and there is no vaccine on the horizon. NIAID-supported basic 
research has led to the sequencing of the genome of the malaria 
parasite responsible for 99 percent of all deaths, and the Anopheles 
mosquito that transmits the parasite; both of which sequences will be 
published this year. These remarkable accomplishments lay the 
foundation for entirely new generations of drugs to prevent and treat 
infections, anti-mosquito interventions to prevent infection, and most 
importantly the development of malaria vaccines.
    Emerging Infections.--There are numerous emerging infectious agents 
among the viruses, bacteria, protozoa, and fungi that make up the 
microbial world. Because the frequency of world travel makes the United 
States part of a global community, diseases that emerge in foreign 
countries are also health threats in the United States.
    Acquired Immunodeficiency Syndrome (AIDS).--In the United States, 
an estimated 271,000 people are living with HIV, and the rate of the 
new HIV infections, approximately 40,000 per year, continues at an 
unacceptably high level. NIAID-supported basic research identified the 
HIV protease enzyme as a target for antiviral drugs, which led to the 
development of very potent protease inhibitors, that have prolonged and 
improved the quality of life for many HIV-infected people. However, 
effective, low-cost tools for HIV prevention, such as a vaccine and 
affordable drug therapies, are needed urgently to bring the HIV 
epidemic under control.
    HIV Vaccine Research Program.--The ASTMH notes with concern that 
the Administration has proposed the transfer of the Department of 
Defense HIV/AIDS vaccine program to the NIAID. For more than a decade 
the Defense Department HIV Vaccine program has complemented the NIAID 
vaccine programs in a number of ways, largely because it is organized, 
managed, and funded differently. The program's ability to effectively 
and efficiently develop and test preventive HIV vaccines, primarily on 
clades of the virus not found in the United States, plays a significant 
role in our national research effort. The DOD, in large part due to its 
longstanding, well-respected overseas laboratories has collaborations 
and agreements that facilitate execution of of current and planned 
clinical trials to test the efficacy of new vaccine products. The ASTMH 
urges that the important research initiatives undertaken by both the 
Defense Department program and the NIAID continue under the Institute's 
administration because of the unique but complementary role of the two 
programs. We urge that the Defense Department HIV vaccine research 
program leadership and infrastructure administered from the Walter Reed 
Army Institute of Research be retained.
    Tuberculosis (TB).--TB is the eighth leading cause of death 
worldwide. One-third of the world's population has latent TB, 
constituting a huge reservoir from which active TB can surface. 
Moreover, multidrug-resistant TB is an increasing problem.
    Hepatitis.--Hepatitis (liver inflammation) can be caused by several 
viruses. The most common are hepatitis A, a food- and water-borne 
infection that is a particular risk for travelers, and hepatitis B and 
hepatitis C, both of which are blood-borne. We now have excellent 
vaccines for hepatitis A and B, but none for hepatitis C, which kills 
about 9,000 Americans annually.
    The Society commends the NIH and NIAID for their continued 
leadership and focus on tropical and infectious diseases. We urge the 
Subcommittee to strongly support efforts of the NIAID to develop new 
and improved methods for treating illness, controlling outbreaks, and 
preventing epidemics that continue to challenge global health.
    Tropical Medicine Research Centers.--The NIH's tropical disease 
research program is funded primarily by the NIAID. The International 
Centers for Tropical Disease Research network was established by NIAID 
to build new and strengthen established partnerships between U.S. 
scientists and investigators from tropical disease endemic areas and 
bring together NIAID and other government agencies with interests in 
tropical disease research, and academic scientists and private 
industry, to encourage translational and collaborative research. The 
Society strongly urges that the Committee express its continued support 
for these unique research opportunities.
                   fogarty international center (fic)
    The Fogarty International Center (FIC) is a unique component of NIH 
with a mandate to support training in biomedical research on behalf of 
the developing nations of the world. The ASTMH wishes to acknowledge 
the significant contributions of the FIC in overall support of tropical 
disease research, and their efforts to train scientists in molecular 
biology and molecular epidemiology techniques of relevance to 
developing countries in which research collaborations will be 
conducted. The training program in clinical investigation is a 
necessary component of new NIH initiatives such as the HIV Prevention 
and Vaccine Trials Networks and other expanding human research programs 
in the developing world. The Society supports training local 
investigators as an investment in the research itself.
    The Fogarty International Center recently launched the 
International Clinical, Operational, and Health Services Research and 
Training Awards (ICOHRTA) initiative that supports training to 
facilitate collaborative, multidisciplinary, international clinical, 
operational, health services and prevention science research between 
U.S. institutions and those in developing countries, as well as 
emerging democracies of Eastern Europe, Russia, and the Newly 
Independent States. The FIC is partnering with five other NIH Institute 
(NIMH, NIDA, NIA, NCCAM, and NIDCR) in support of this initiative.
    It is just this sort of synergy between research and training, 
between intramural and extramural NIH, among different NIH institutes 
and other government agencies with different mandates, and between 
United States and developing country investigators, that offers the 
best hope of successfully reducing the grim toll taken by diseases like 
malaria not only on African children but on our own citizens. 
Addressing the health disparities of developing nations through 
training and technical assistance will facilitate essential 
communication and cooperation necessary to addressing global infectious 
disease and engendering goodwill. Poor health and poor quality of life 
in developing countries lead to the desperation that causes unrest and 
instability.
    The NIAID and the Fogarty International Center have taken the lead 
with initiatives for training students and young scientists and 
clinicians in tropical medicine and international health. However, 
compared to the need, there remains a shortage of training 
opportunities and especially support for junior researchers at the 
point in their training when they must choose between more mainstream 
careers in clinical medicine or other areas or research, or the 
sometimes more challenging path of tropical medicine and infectious 
disease research.
    The ASTMH urges the Subcommittee to provide the Fogarty 
International Center with the adequate resources to continue ongoing 
activities and program expansion, such as the FIC's ICOHRTA program and 
new initiatives that provide training and career development 
opportunities. The Society requests your support for a fiscal year 2003 
budget of $100 million for the Fogarty International Center.
            centers for disease control and prevention (cdc)
    The ASTMH is disappointed that the President has proposed a $10 
million cut in the CDC Infectious Disease program budget and flat 
funding for the CDC programs addressing HIV/AIDS, sexually transmitted 
diseases and tuberculosis for fiscal year 2003. These recommendations 
appear extremely short-sighted given the growing burden the country 
faces as the result of these new and re-emerging infectious disease 
threats. The Society believes the CDC must receive adequate resources 
to launch a comprehensive, coordinated attack against these killers. A 
strong federal commitment to domestic and international research, 
prevention and treatment activities targeted towards infectious and 
tropical infectious disease, whether naturally occurring or resulting 
from a deliberate terrorist act, is absolutely critical to protecting 
our nation's health and national security interests. The ASTMH 
appreciates the Subcommittee's past support for these critically 
important CDC public health initiatives and hope you will continue to 
provide sufficient resources for these programs in fiscal year 2003. We 
also urge you to continue to fund the CDC's efforts to control global 
malaria.
                               conclusion
    As we enter this new era of immense challenges and opportunities, 
we must aggressively pursue the battle against tropical and infectious 
diseases, which undoubtedly will intensify in the years ahead. We must 
have adequate surveillance systems and modern infrastructure, coupled 
with scientific expertise in both basic and clinical research, if we 
are to develop the tools necessary to rapidly respond to, and control, 
the threats posed by tropical infectious diseases as well as from 
biological and chemical warfare. We stand at the threshold of an 
exciting new era of medical progress, exemplified by the completion of 
the sequencing of the human genome. Opportunities for new treatments, 
diagnostics, cures, and preventive measures have never been greater. We 
must also be prepared to confront the new challenges and threats that 
we face. The path of progress will be different in the coming era, as 
the demand increases for a broader science base, more interdisciplinary 
research, and improved technology.
                                request
    The Society greatly appreciates your support for our nation's 
investment in infectious disease research, control, and prevention 
activities. We urge you to continue your tremendous support for the NIH 
by providing an appropriation of at least $23.7 billion for the NIH in 
fiscal year 2003. We hope you will support the President's request to 
provide $3.9 billion to the NIAID. The Society also urges the 
Subcommittee to take an important step in facilitating greater 
international collaboration and cooperation among public health 
researchers and clinicians by providing the training and career develop 
opportunities we have discussed. In that regard, the Society requests a 
budget of $100 million for the Fogarty International Center. We 
recognize that there are many worthy programs competing for limited 
funds in your appropriations bill, however, we also request that the 
Committee support increased funding for the CDC's infectious disease 
activities.
    The Society of Tropical Medicine and Hygiene appreciates the 
opportunity to express our views and for your consideration of these 
requests.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association
    Thank you for the opportunity to submit testimony on the important 
issue of funding diabetes research at the National Institutes of Health 
(NIH) and diabetes programs at the Centers for Disease Control and 
Prevention (CDC). Our government needs to significantly increase 
diabetes research funding at NIH not only for the millions who 
currently have diabetes, but also for the millions who are developing 
diabetes now and in the future.
    I am R. Stewart Perry, Chair of the American Diabetes Association 
(ADA) Government Relations Committee and member of the National Board 
of Directors. I am a long-time ADA volunteer who is committed--as is 
the Association--to helping all people affected by this serious 
disease. Along with approximately 16 million other Americans, I have 
Type 2 diabetes.
    Diabetes is a serious disease, and is a contributing and underlying 
cause of many of the diseases on which the federal government spends 
the most health care dollars. Diabetes is a significant cause of heart 
disease (which costs our nation $183.1 billion each year), a 
significant cause of stroke ($43.3 billion each year), the leading 
cause of kidney disease ($40.3 billion). Diabetes is also the leading 
cause of adult-onset blindness and lower limb amputations. 
Additionally, aside from all of these related conditions, diabetes 
alone costs our nation $98.2 billion a year.
    Approximately 40,000 people suffering from diabetes live in each 
congressional district. The following illustrates how diabetes affects 
your district in realistic terms:
  --177 of your constituents will develop heart disease this year 
        because of diabetes.
  --154 of your constituents will develop end stage renal disease this 
        year because of diabetes.
  --129 of your constituents will lose a foot or leg this year because 
        of diabetes.
  --55 of your constituents will go blind this year because of 
        diabetes.
    Given the systemic damage diabetes imposes throughout the body, it 
is no surprise that the life expectancy of a person with the disease 
averages 10-15 years less than that of the general population.
    Unfortunately, the spread of diabetes will only get worse in the 
coming years unless we see a significantly larger funding commitment by 
the federal government. Indeed, a CDC report issued in September of 
last year finds that the prevalence of diabetes nationwide increased by 
50 percent between 1990 and 2000. If diabetes keeps increasing at this 
rate, its prevalence will double in just over 15 years.
                        recent funding increases
    The American Diabetes Association appreciates that Congress has 
begun to give greater attention to diabetes research at NIH in recent 
years and that the current Administration has proposed an overall 
increase in the NIH budget. However, during much of the past decade, 
diabetes funding has stagnated even while the burden has grown 
significantly. During one year in the 1990s, diabetes research funding 
grew as little as one-half of 1 percent. Indeed, from 1987-2001, 
appropriated diabetes funding as a share of the overall NIH budget has 
dropped by more than 20 percent (from 3.9 percent to 2.9 percent) while 
the death rate due to diabetes has increased by more than 40 percent. 
Thankfully, the past 4 year have brought larger increases in diabetes 
funding than we had seen over the majority of the decade. Only over 
these years did the growth in diabetes research funding finally keep 
pace with the growth of the overall NIH budget. At a time when diabetes 
is exploding across our nation, it is essential that we dramatically 
increase the research funding levels for diabetes.
              conquering diabetes: a well-thought-out plan
    There is, in our opinion, no way around the fact that diabetes 
research funding at NIH and diabetes control program funding at CDC 
have for many years fallen far short relative to the impact of the 
disease on our nation.
    When we--and the larger diabetes community--ask for increased 
appropriations for diabetes funding at NIH and CDC, we approach with 
the backing of a well thought-out plan. This plan was requested by 
Congress and designed by leading experts in the field of diabetes 
research. As you are aware, in 1997 Congress directed NIH to establish 
a team of national diabetes experts to develop a comprehensive plan 
that could lead to the elimination of diabetes. In the spring of 1999, 
Conquering Diabetes, the final report of the Diabetes Research Working 
Group (DRWG), was presented to Congress.
    The DRWG's Strategic Research Plan is a document that has been 
widely reviewed and supported by the diabetes research community that 
sets forth a comprehensive plan of attack against diabetes. Indeed, in 
questioning before the committee in 2000, NIDDK Director Dr. Allen 
Spiegel expressed his strong support for the DRWG plan and the 
recommendations it puts forward.
    Conquering Diabetes identifies the challenges associated with 
diabetes and provides compelling evidence attesting to the magnitude of 
the problem. It also analyzes the federal government's current 
commitment to diabetes research. Most importantly, Conquering Diabetes 
identifies hundreds of scientific opportunities, which it lays out in a 
realistic 5-year plan, that we believe could lead to better treatments, 
and hopefully, a cure. But in order to implement the plan, funding has 
to be increased in order to capture these otherwise lost research 
opportunities.
                        nih allocation criteria
    Since 1997, the issue of how NIH allocates its multi-billion dollar 
annual budget has been explored internally by NIH, and externally by 
the National Academy of Science's Institute of Medicine and by a 
subcommittee of the Senate Labor and Human Resources Committee.
    During this time, NIH has stated that it uses seven criteria in 
setting research priorities:
  --The number of people who have a particular disease;
  --The number of deaths caused by a disease;
  --The degree of disability produced by a disease;
  --The degree to which a disease cuts short a normal, productive, 
        comfortable lifetime;
  --The economic and social costs of a disease;
  --The need to act rapidly to control the spread of a disease; and
  --The existence of scientific opportunities related to a disease.
    Each year, according to NIH, ``deciding how and where to distribute 
[its] money . . . requires a fresh assessment of the nation's health 
needs and renewed evaluation of scientific opportunity.'' \1\ Based 
upon the findings of the DRWG, diabetes more than fulfills the 
requirements of these criteria. Yet despite meeting them, diabetes 
research has been, and continues to remain, significantly underfunded 
at NIH in light of the many existing scientific opportunities as well 
as the burden diabetes poses on our nation.
---------------------------------------------------------------------------
    \1\ ``Setting Research Priorities at the National Institutes of 
Health.'' Working Group on Priority Setting, NIH. 1997.
---------------------------------------------------------------------------
            why across-the-board increases are not equitable
    Conquering Diabetes outlined a feasible 5-year plan that, as 
requested by Congress, contained a realistic budget to guide its 
implementation. As you may remember, the DRWG's fiscal year 2002 budget 
recommendation called for $1.3 billion across all NIH institutes, more 
than $500 million above the current funding level.
    Mr. Chairman, we appreciate the increases of the last few years. 
Congress should be proud of the bi-partisan support for the effort to 
double the NIH budget. But this should not equate to an automatic 
institute-by-institute doubling.
    Some institute budgets are larger not only due to scientific 
opportunities, but due to special consideration in years past. 
Unfortunately, across-the-board percentage increases make it difficult, 
if not impossible, to address funding shortfalls for diseases that now 
have promising scientific opportunities. Diseases like diabetes that 
have not received funding commensurate with their national burden, as 
well as with existing scientific opportunities, continue to fall behind 
as a result of this funding strategy.
    Across-the-board increases for all institutes simply do not allow 
the Congress, or the nation, to deal with the serious problem of 
diabetes anytime soon. While on the surface across-the-board increases 
appear equitable to everyone, it actually perpetuates inequity in 
absolute dollar terms. In reality, a 15 percent increase means much 
more for diseases and institutes with large budgets, and far less for 
diseases and institutes with small budgets.
    Continuing with an across-the-board approach in this final year of 
the NIH doubling effort means that these discrepancies in funding will 
continue to grow. This is not inherently bad so long as the difference 
accurately reflects the scientific opportunities and health impact of 
disease on the nation. But in the case of diabetes at least, it does 
not.
    The net effect of an across-the-board approach is that past funding 
legacies still affect the funding priorities at NIH to this day. The 
end result is that some diseases do end up ``pitted'' against others 
because of the failure to rigorously apply the criteria supposedly 
embraced by NIH. By not constantly making an honest assessment of the 
health challenges faced by our nation and by not looking harder at the 
scientific opportunities facing the research community, NIH has 
perpetuated an inequality in funding based on decisions made many years 
before.
 increased diabetes funding has strong bi-partisan, bi-cameral support
    Implementing the recommendations of the DRWG has widespread, bi-
partisan support in Congress. Every year for the past several years, 
over 140 Members of Congress have signed a letter arguing for the 
importance of significantly increased diabetes funding--to levels 
approaching those recommended by the DRWG--at NIH.
    Unfortunately, Mr. Chairman, even with such strong Congressional 
support and oversight, implementation of the DRWG recommendations at 
NIH remains a distant reality. As I have stated, we feel that an honest 
application of NIH's own stated criteria of assessing the health burden 
of the nation and the scientific opportunities that are available would 
bring us much closer to realizing the DRWG plan. Perhaps it is time 
that this committee take a more active role in ensuring that NIH's 
allocation criteria are properly used and followed.
               centers for disease control and prevention
    In addition to the importance of diabetes research, the ADA also 
believes strongly in programs that benefit people currently with 
diabetes in directly tangible ways. Indeed, the benefits of basic 
research cannot be fully realized unless the results are translated 
into public health interventions. To this end, we believe strongly in 
the work funded by the Division of Diabetes Translation and the Centers 
for Disease Control and Prevention (CDC). With its fiscal year 2002 
budget of $62 million, the Division of Diabetes Translation provided 
support for state- and territorial-based diabetes control programs to 
reduce the complications associated with diabetes. In fiscal year 2002, 
the Division provided limited support to 34 states, 8 territories, and 
D.C. for core diabetes programs, and more substantive support to 16 
states for comprehensive programs. Although every state and territory 
has at least a core program, unfortunately the core programs do not 
even come close to addressing the needs statewide. Instead, they simply 
serve as a rudimentary framework upon which a comprehensive program can 
be built.
    CDC also conducts other activities to help people currently living 
with diabetes. For example, CDC works with NIH to jointly sponsor the 
National Diabetes Education Program (NDEP), which seeks to improve the 
treatment and outcomes of people with diabetes, promote early 
detection, and prevent the onset of diabetes. In addition, CDC funds 
work at the National Diabetes Laboratory to support scientific studies 
that will improve the lives of people with diabetes.
    Even while the Division of Diabetes Translation conducts a number 
of activities to help people with diabetes, it suffers a similar 
problem as its NIH counterpart, NIDDK. Compared to other diseases, 
diabetes remains significantly underfunded at CDC. If adequately 
funded, the Division would be able to expand its comprehensive programs 
to every state as well as conduct and fund additional projects to 
assist people with diabetes. Without CDC's diabetes programs and 
projects in all parts of the country, it will be exceedingly 
difficult--if not impossible--to control the escalating costs 
associated with diabetic complications and to stem the epidemic rise in 
diabetes rates.
    Chronic diseases, including diabetes, account for nearly 70 percent 
of all health care costs as well as 70 percent of all deaths annually. 
However, less than $l.25 per person is directed toward public health 
interventions focused on preventing the debilitating effects associated 
with chronic diseases, demonstrating that federal investment in chronic 
disease prevention remains grossly inadequate. We cannot ignore those 
Americans who are currently living with diabetes and other diseases.
                               conclusion
    I firmly believe that we could rapidly move toward curing this 
disease and eliminating the $45 billion federal outlay going to 
diabetes treatment and care if the DRWG plan can be fully funded and 
CDC funding be increased. Widespread support exists in Congress to fund 
these scientific research opportunities in diabetes that will result in 
better treatment, care and a cure for the disease. Your leadership can 
help accomplish this goal.
    The American Diabetes Association strongly urges the committee and 
Congress to fully fund trans-NIH diabetes research at the $1.5 billion 
level recommended by the DRWG for fiscal year 2002. Since there are 
several institutes at NIH with a diabetes portfolio, we urge that these 
funds be distributed to such institutes according to the level outlined 
in the DRWG plan. Furthermore, we ask that the committee provide each 
such NIH institute with clear direction from Congress to implement the 
DRWG plan.
    In 2000, the committee report included language urging the Director 
of NIH to take a ``lead role in overseeing implementation of the 
recommendations'' of the DRWG. We would also ask the committee to 
consider making a mid-year request of NIH as to the steps it has taken 
to fulfill the DRWG's recommendations.
    We also ask that the Division of Diabetes Translation at CDC 
receive an fiscal year 2002 appropriation of $100 million. This 
budgetary increase would allow the Division to implement a 
Comprehensive Diabetes Control Program in every state and territory, 
thus moving the government in the direction of truly helping all 
Americans with diabetes.
    Mr. Chairman, as you work through the allocation process with the 
NIH leadership, we strongly urge you to take a new look at across-the-
board increases since they will not meet our nation's need to address 
many diseases, including the epidemic of diabetes.
    Speaking on behalf of the 17 million Americans with diabetes, a 
disease that crosses gender, race, ethnicity and political party; a 
disease that is among the most costly, debilitating, deadly and 
prevalent in our nation; and a disease that is exploding throughout our 
nation; I appreciate the opportunity to submit this testimony. The 
American Diabetes Association is prepared to answer any questions you 
might have on these important issues.
                                 ______
                                 
         Prepared Statement of the Lymphoma Research Foundation
                              introduction
    It is my pleasure to submit this statement on behalf of the 
Lymphoma Research Foundation (LRF). This is an exciting year for those 
of us who are dedicated to finding a cure for lymphoma and providing 
educational and other services to individuals with this disease, their 
families, and their friends. Our organization is the result of a merger 
last fall between the Cure For Lymphoma Foundation and the Lymphoma 
Research Foundation of America where we determined that we could best 
serve the community by joining forces. We come to you as a united 
organization, still dedicated to finding a cure for lymphoma.
    We believe our activities are an important complement to the work 
of the National Cancer Institute (NCI). LRF has limited funds for 
research, but we give serious and creative thought to how we might use 
our resources to advance the field and encourage promising researchers. 
We look forward to opportunities to discuss with NCI our research 
funding philosophy and the ways in which our research portfolio might 
supplement that of NCI.
    In our public policy efforts, we take a very broad view of the 
research process. We believe that federal funding for basic, 
translational, and clinical research must be adequate to support 
promising avenues for basic research and the efficient translation of 
basic findings into new treatments. We also seek to ensure that new 
products are reviewed promptly by the Food and Drug Administration 
(FDA); new therapies are reimbursed promptly and fairly by Medicare, 
Medicaid, and private payers; and individuals with lymphoma are 
guaranteed access to high quality care.
                         the burden of lymphoma
    We are gratified that the incidence of most cancers is declining. 
This improvement is the product of earlier detection of cancer and 
better therapies for many cancers. However, these encouraging numbers 
do not reveal the contrary experience with lymphoma. Since the 1970s, 
incidence rates for non-Hodgkin's lymphoma (NHL) have increased 
dramatically, making it one of the fastest rising cancers in the United 
States. The number of individuals diagnosed with NHL each year has 
doubled since the 1970s, and NHL is the second fastest rising cancer in 
incidence and death rates in the United States.
    In 2002, there will be a total of more than 60,000 cases of 
lymphoma diagnosed in the United States--53,900 cases of non-Hodgkin's 
lymphoma and 7,000 cases of Hodgkin's disease. More than 24,000 
individuals will die from non-Hodgkin's lymphoma in 2002. The 5-year 
survival rate for non-Hodgkin's lymphoma is only 53 percent. These are 
numbers that concern all of us, and our mission is to change them.
    We are pleased that NCI is investing in research that will help us 
understand the increase in incidence of NHL, as well as the increase in 
the death rate. This is an important avenue of research inquiry, and we 
appreciate the active involvement of NCI in this research field.
              lymphoma research advances and opportunities
    Over the last several years, there have been a number of important 
advances in lymphoma research. Some have led to new therapies for 
lymphoma, and others have advanced our basic understanding of lymphoma 
and may result in new treatments. These advances include:
  --The development of a monoclonal antibody for the treatment of 
        indolent B-cell NHL, a therapy that is only the first that uses 
        the body's own immune system to fight cancer.
  --A new therapy that combines a monoclonal antibody and a 
        radioisotope and represents an important new treatment option 
        for individuals who may have failed other treatments.
  --Cancer vaccines that employ immunotherapy to rally the body's 
        defenses against disease. These products are being tested in 
        several trials across the country.
  --Use of genetic analysis techniques to identify subpopulations of 
        lymphoma patients who respond more favorably to chemotherapy. 
        The commercialization of this technology may allow physicians 
        to offer a more specific diagnosis, as well as make predictions 
        regarding an individual's response to chemotherapy. This 
        advance may be an important part of a trend toward the more 
        precise targeting of therapies for individual patients.
        progress review group on leukemia, lymphoma, and myeloma
    In December 2000, NCI convened a meeting of extramural scientists, 
physicians, and advocates in a research planning meeting called the 
Leukemia, Lymphoma, and Myeloma Progress Review Group (LLM-PRG). This 
blue-ribbon group evaluated the NCI blood cancer research portfolio, 
new research opportunities, and obstacles to research progress. Many of 
those who are affiliated with LRF participated in the deliberative 
process of that blue-ribbon panel, and we found the site-specific 
planning process to be one of high quality. NCI has engaged in a series 
of cancer site-specific planning groups, a process that has been hailed 
by most as thoughtful and informed by experts in the field.
    The LLM-PRG report was finalized in June 2001, and NCI has been 
working to develop a plan for implementing the recommendations of that 
plan. Unfortunately, there has been limited progress in this effort. 
The contributions of the leaders in the field of leukemia, lymphoma, 
and myeloma in this strategic planning process should not be ignored. 
Our recommendations for action by Congress relate to ensuring that NCI 
does not ignore the findings of its own cancer research planning 
process.
               fiscal year 2003 recommendations from cfl
    LRF recommends the following actions, to capitalize on important 
basic research advances and accelerate the development of new lymphoma 
therapies:
  --NCI should be encouraged to move forward with implementation of the 
        recommendations that are included in the LLM-PRG report.--In 
        convening the group of experts in the LLM-PRG, the NCI sought 
        and received solid advice regarding the future direction of 
        research on lymphoma and the other blood cancers. LRF 
        recommends that the advice of this panel be heeded. We request 
        that the Subcommittee include in its report specific language 
        directing NCI to respond to the Subcommittee regarding its plan 
        for implementation of the LLM-PRG proposals.
  --NCI should proceed with a development plan for a private-public 
        sector consortium for lymphoma translational research.--During 
        its deliberations, the LLM-PRG developed the concept of a 
        public-private, interdisciplinary research consortium that 
        would focus especially on the translation of basic research 
        findings into new blood cancer treatments. The ambitious goal 
        of this collaborative was to reduce the time for development of 
        new therapies. Many who participated in the LLM-PRG found this 
        concept the single most exciting recommendation of the report 
        and urged that it be a top priority for implementation by NCI. 
        To date, no further plans for action on this proposal have been 
        developed. We request that the Subcommittee include in its 
        report language requiring NCI to present an update regarding 
        its plan for implementation of the translational research 
        consortium during hearings on the fiscal year 2004 spending 
        bill.
  --Congress should fund the programs that are included in the 
        Hematological Cancer Research Investment and Education Act.--
        This legislation was introduced by Senator Kay Bailey Hutchison 
        and Senator Barbara Mikulski (S. 1094) and has passed the 
        Senate; its companion (H.R. 2629) was introduced by 
        Representatives Phil Crane, Marge Roukema, and Vic Snyder and 
        is pending action in the House of Representatives. This 
        legislation is intended to coordinate and strengthen the blood 
        cancer research program, as well as to establish a blood 
        cancers educational initiative for patients and the public. We 
        anticipate passage of this bill and urge the Subcommittee to 
        act on key provisions, including research coordination efforts 
        and a new educational initiative at HHS.
  --Congress should sustain progress toward doubling the NIH budget in 
        the 5-year period from fiscal year 1999 to fiscal year 2003.--
        We would like to take this opportunity to express our sincere 
        appreciation to this Subcommittee for its leadership in 
        doubling the NIH budget over 5 years. We realize that the 
        aggressive research recommendations we have offered are only a 
        realistic possibility because of the work of this Subcommittee 
        and others in the Congress to boost NIH funding substantially 
        over the last 5 years. We salute your work and pledge our 
        assistance in accomplishing the goal of doubling the NIH 
        appropriation. We are gratified that this Subcommittee has 
        already begun a consideration of funding for NIH after the 5-
        year doubling effort is completed.
    LRF would like to thank the Subcommittee for this opportunity to 
submit comments regarding the fiscal year 2003 funding bill for NIH. 
NIH is a jewel among federal research agencies, and we appreciate this 
opportunity to express our strong support and to make recommendations 
for strengthening the programs at NIH.
                                 ______
                                 
          Prepared Statement of the American Heart Association
    It is highly likely that heart disease or stroke will cause your 
death or disability or that of a loved one. Heart disease, stroke and 
other cardiovascular diseases remain America's leading cause of death 
and a major cause of disability. Cardiovascular diseases account for 
more than 40 percent of American deaths.
    The American Heart Association works to reduce disability and death 
from heart attack, stroke and other cardiovascular diseases. We commend 
this Committee for making fiscal year 2002 funding for the National 
Institutes of Health and for the Centers for Disease Control and 
Prevention a priority. But, we are concerned that our government is 
still not devoting sufficient resources for research and prevention to 
America's No. 1 killer--heart disease--and to our country's No. 3 
killer--stroke.
                              still no. 1
    Heart disease, stroke and other cardiovascular diseases have been 
America's No. 1 killer since 1919. Nearly 62 million Americans--1 in 
5--suffer from one or more of these diseases, including both men and 
women and Americans of all ages. Hundreds of millions of Americans have 
major risk factors for these diseases--an estimated 50 million have 
high blood pressure, more than 41 million adults have elevated blood 
cholesterol (240 mg/dL or above), 48 million adults smoke, more than 
108 million adults are overweight or obese and nearly 11 million have 
physician-diagnosed diabetes. As the baby boomers age, the number of 
Americans afflicted by these often lethal and disabling diseases will 
increase substantially. Cardiovascular disease costs Americans more 
than any other disease--an estimated $330 billion in medical expenses 
and lost productivity in 2002. These diseases constitute 3 of the top 5 
hospital costs for all payers, excluding childbirth and its 
complications, and 3 of the top 5 Medicare hospital costs. Heart 
disease is the major cause of premature, permanent disability of 
American workers, accounting for nearly 20 percent of Social Security 
disability payments.
                     how you can make a difference
    Now is the time to capitalize on a century of progress in 
understanding heart disease, stroke and other cardiovascular diseases. 
According to a 1999 expert panel supported by this Committee, America's 
progress in reducing the death rate from cardiovascular disease has 
slowed, suggesting that new strategies against these killers are 
needed. The panel also reported that there are striking differences in 
cardiovascular disease death rates by race/ethnicity, socioeconomic 
status and geography. But promising, cost-effective breakthroughs in 
treatment and prevention are on the horizon. If you complete the 5-year 
bipartisan goal of doubling the NIH budget by fiscal year 2003 and 
appropriate the funds necessary to ensure that the NIH heart disease 
and stroke budget also doubles over the 5-year period, the translation 
of that research into effective clinical and community initiatives will 
cut health care costs and improve the quality of life. For fiscal year 
2003, we urge you to do the following:
  --Appropriate $27.3 billion (a 16 percent increase over fiscal year 
        2002 funding) for the NIH--the fifth and final step toward the 
        bipartisan goal of doubling NIH's budget by fiscal year 2003.
    NIH research provides new treatment and prevention strategies, cuts 
health care costs, creates jobs and maintains America's status as the 
world leader in the biotechnology and pharmaceutical industries.
  --Provide $2.3 billion for NIH heart research and $316 million for 
        NIH stroke research.
    Researchers are on the brink of advances to greatly enhance 
prevention and to provide new treatments so you and your loved ones can 
be spared the pain and suffering of heart disease and stroke.
  --Allot $55 million for the CDC's Cardiovascular Health State Program 
        to expand this activity to 42 states and to initiate research 
        to examine causes of regional disparity of cardiovascular 
        diseases.
    Science must be made applicable through community programs that 
encourage Americans to make healthful lifestyle choices to prevent and 
control heart disease and stroke.
  --Support $12.5 million to continue to help rural communities buy 
        automated external defibrillators (AEDs) and to train rural 
        emergency responders, including police and fire personnel, to 
        use them.
    Rural Access to Emergency Devices Act is part of Public Law 106-
505, Public Health Improvement Act.
            heart and stroke research benefits all americans
    Thanks to advances in addressing risk factors and in treating 
cardiovascular diseases, more Americans are surviving heart attack and 
stroke. Heart disease and stroke research and prevention breakthroughs 
are saving and improving lives. Several examples follow.
  --Stents.--Each year more than 1 million angioplasty procedures are 
        performed to widen narrowed arteries to the heart. But, within 
        6 months, 35 percent of angioplasty procedures must be repeated 
        because the artery narrows again. In a major change in patient 
        care, stents (wire mesh tubes used to prop open an artery) are 
        now used in nearly 80 percent of angioplasty procedures. The 
        use of stents along with angioplasty has significantly reduced 
        the incidence of artery renarrowing within 6 months.
  --Surgery to Reduce Risk for Stroke.--Often surgeons can prevent 
        stroke by removing plaque buildup when one of the main arteries 
        to the brain is severely narrowed. Research has better defined 
        patients for whom this surgery is most helpful. More than 
        130,000 such procedures are performed each year.
  --State-of-the-Art Life-Extending Drugs.--Research has produced 
        amazing new drugs to help prevent and treat heart disease and 
        stroke. Cutting-edge drugs to control blood pressure and 
        cholesterol are more effective than ever in saving lives and 
        enhancing quality of life for millions of Americans. Some of 
        these drugs can prevent both heart attack and stroke. When 
        prevention fails, revolutionary ``clotbuster'' drugs, such as 
        tPA, can reduce disability from heart attack by dissolving 
        blood clots causing the attack. In stroke, the use of tPA, 
        within 3 hours of the onset of symptoms, can restore blood flow 
        and reduce chances of permanent disability by 33 percent, 
        saving health care costs. The drug tPA offers hope for the 
        estimated 1.1 million Americans who will suffer a heart attack 
        and the 450,000 who will have a clot-based stroke this year.
    Congress should complete the 5-year bipartisan effort to double the 
NIH budget by fiscal year 2003 to encourage continued investigation 
into new therapies. We join the Administration and other members of the 
research community in advocating a fiscal year 2003 appropriation of 
$27.3 billion for the NIH, the fifth step in the doubling goal. But, 
the NIH budget for heart disease and stroke has not kept pace with the 
doubling initiative. NIH heart disease and stroke research remains 
disproportionately under funded compared to the enormous burden these 
diseases place on the nation and the numerous promising scientific 
opportunities that could advance the fight against heart disease and 
stroke. The budget for these diseases still receives less than 10 
percent of the NIH budget.
    We have a particular interest in individual NIH components that 
relate directly to our mission of reducing disability and death from 
heart disease, stroke and other cardiovascular diseases. Our funding 
recommendations for these institutes follow.
         heart research challenges and opportunities for nhlbi
    Significant advances have been made possible by more than 50 years 
of American Heart Association-sponsored research and more than a half-
century of investment by Congress in the National Heart, Lung, and 
Blood Institute. However, while more Americans are surviving heart 
disease and stroke, these diseases can cause permanent disability, 
requiring costly medical care and loss of productivity and quality of 
life. Clearly more work is needed if we are to win the fight against 
heart disease and stroke.
    The NHLBI budget has not kept pace with the doubling initiative. We 
urge this Committee to complete the doubling of the NHLBI budget by 
fiscal year 2003 and appropriate the funds to ensure that the budget 
for heart and stroke research and related programs also doubles over 
the 5-year period. As the fifth step toward reaching this goal, we 
advocate a fiscal year 2003 appropriation of $3.2 billion for the 
NHLBI, including $1.9 billion for heart and stroke-research and 
related-activities. A funding level of this amount will allow NHLBI to 
expand existing programs and invest in promising new initiatives. 
Several challenges and opportunities to advance the battle against 
heart disease are highlighted below.
  --Partnership Programs of Excellence in Minority Cardiovascular 
        Health Programs.--Heart disease, stroke and other 
        cardiovascular diseases disproportionately affect minorities. 
        Increased resources are needed to support new partnerships 
        between research-intensive medical centers and health care 
        systems that serve minorities. Such partnerships would 
        facilitate study of complex biological, behavioral and societal 
        factors that contribute to cardiovascular disease health 
        disparities, promote research within the health care systems to 
        improve minority health and reduce health disparities and 
        provide training of investigators to study cardiovascular 
        diseases in minorities. Emphasis would be placed on community 
        involvement in research and outreach strategies for patient 
        recruitment and retention and prompt and effective 
        communication of research findings to health care 
        practitioners.
  --Obesity--Associated Cardiovascular Diseases.--Obesity has reached 
        epidemic proportions, with an estimated 61 percent of American 
        adults being obese or overweight. Also, obesity is becoming 
        increasingly common in children and adolescents. Obesity is a 
        major risk factor for cardiovascular diseases. Its effects on 
        the young, still-developing cardiovascular systems remain 
        unclear. To forestall the cardiovascular complications of 
        obesity, it is necessary to understand the relationship between 
        body weight and cardiovascular health and disease. Increased 
        funding would allow the NHLBI to support studies to explain how 
        excessive body weight contributes to the development of 
        cardiovascular diseases such as atherosclerosis, enlarged 
        hearts, heart failure and irregular heartbeats. Areas needing 
        further research include role of fatty tissue in inflammation, 
        effects of obesity on the growth of the cardiovascular, 
        respiratory and endocrine systems and complex interactions 
        between overweight and conditions such as chronic sleep loss, 
        high blood pressure and diabetes.
  --Heart Attack, Stroke and Other Cardiovascular Diseases in Women.--
        Cardiovascular diseases are a major cause of permanent 
        disability and the No. 1 killer of American women, killing more 
        women than the next 9 causes of death combined. About 1 in 5 
        females live with effects of cardiovascular diseases. The 
        clinical course of cardiovascular disease is different in women 
        than in men and diagnostic capabilities are less accurate in 
        women than in men. After a woman develops cardiovascular 
        disease, she is more likely than a man to have continuing 
        health problems and is more likely to die. But, these diseases 
        are largely unrecognized by both women and their doctors. Extra 
        funding is needed to allow the NHLBI to expand cardiovascular 
        disease research in women and to create more educational 
        programs for patients and health care providers on 
        cardiovascular disease risk factors, as authorized under Public 
        Law 105-340, Women's Health Research and Prevention Amendments.
         stroke research challenges and opportunities for ninds
    A major cause of permanent disability and a key contributor to 
late-life dementia, stroke is America's No. 3 killer. Many of America's 
4.6 million stroke survivors face debilitating physical and mental 
impairment, emotional distress and huge medical costs. About 1 of 4 
stroke survivors is permanently disabled. An estimated 600,000 
Americans will suffer a stroke this year and nearly 170,000 will die. 
Considered a disease of the elderly, stroke also strikes newborns, 
children and young adults.
    The NINDS stroke budget has not kept pace with the doubling 
initiative. We urge a completion of the doubling of the NINDS stroke 
budget by fiscal year 2003. A fiscal year 2003 appropriation of $1.6 
billion for the NINDS, including $174 million for stroke, would be the 
final step toward the goal. This would allow the NINDS to expand 
research and start new initiatives to prevent stroke, protect the brain 
during stroke and enhance rehabilitation. Some challenges and 
opportunities follow.
  --Strategic Stroke Research Plan.--As a result of report language 
        provided by this Committee during the fiscal year 2001 
        appropriations process, the NINDS convened a Stroke Progress 
        Review Group. This Group crafted a report that will serve as a 
        blueprint for a long-range strategic plan on stroke research. 
        They identified five research priorities and seven resource 
        priorities that, once implemented, will stimulate stroke 
        research. Increased resources are needed to implement the first 
        year of this plan.
  --Emerging Stroke Risk Factors.--More Americans are controlling major 
        stroke risk factors, such as high blood pressure and smoking, 
        yet the number of people falling victim to stroke continues to 
        rise. Scientists are defining new stroke risk factors, re-
        examining existing ones and reconsidering the long-held belief 
        that no difference exists in risk between young and older 
        patients with similar risk factors. Researchers are studying 
        heart valve disease, irregular heartbeats, the role of 
        inflammation in clogging of arteries, and the long-term effects 
        of previous high blood pressure. Increased funding to study 
        these areas may lead to new ways to prevent stroke.
  --Therapeutic Strategies for Stroke.--Several major clinical trials 
        have identified new methods for preventing and treating stroke 
        in high-risk populations. However, with the increased number of 
        strokes, and with the disparities evident in the treatment of 
        stroke, new ways to prevent strokes, to raise awareness and to 
        better treat strokes need to be developed and evaluated. 
        Funding for new clinical studies is crucial for developing 
        cutting-edge stroke treatment and prevention.
  --Stroke Education.--Less than 5 percent of patients eligible for 
        tPA--the only FDA approved emergency treatment for clot-based 
        stroke--receive it. As a member of the Brain Attack Coalition, 
        comprised of organizations committed to fighting stroke, we 
        work with the NINDS to increase public awareness of stroke 
        symptoms and to call 9-1-1. Together, we launched a public 
        education campaign, Know Stroke, Know the Signs. Act in Time, 
        and strive to develop systems to make tPA readily available to 
        appropriate patients. When these measures are implemented, 
        stroke treatment will change from supportive care to early 
        brain-saving intervention. More funding is needed to educate 
        the public and health professionals about stroke.
    research in other nih institutes benefit heart disease & stroke
    Critical research seeking to prevent and find better treatments for 
heart disease and stroke is supported in other NIH institutes and 
centers such as the National Institute on Aging, the National Institute 
of Diabetes and Digestive and Kidney Diseases, the National Institute 
of Nursing Research and the National Center for Research Resources. It 
is important to provide sufficient additional resources for these 
entities to continue and expand their critical work.
               agency for healthcare research and quality
    The lead health care quality agency, the AHRQ acts as a ``science 
partner'' with public and private health care sectors in improving 
health care quality, reducing health care costs and broadening access 
to essential services. The AHRQ is an active participant in developing 
evidence-based information needed by consumers, providers, health plans 
and policymakers to improve health care decision making. We join with 
the Friends of AHRQ in advocating an appropriation of $390 million for 
the AHRQ to improve health care quality, reduce medical errors and 
expand the availability of health outcomes information.
               centers for disease control and prevention
    Prevention is the best way to protect Americans' heath and ease the 
huge financial burden of disease. Commitment cannot stop at the 
laboratory door. Resources must be made available to bring research to 
places where heart disease and stroke live--the towns and neighborhoods 
of America.
    The CDC sets the pace on prevention. It builds a bridge between 
what we learn in the lab and how we live in communities. We advocate a 
fiscal year 2003 appropriation of $7.9 billion for the CDC, with a $350 
million increase for chronic disease prevention and health promotion.
    As a result of this Committee's support since fiscal year 1998, the 
CDC's Cardiovascular Health State Program covers 28 states. However 
only 6 states receive ``comprehensive'' funding. This vital program 
allows states to design and/or implement programs to meet specific 
state needs to prevent and control heart disease and stroke. The CDC's 
1997 report Unrealized Prevention Opportunities: Reducing the Health 
and Economic Burden of Chronic Disease states, ``strong chronic disease 
prevention programs should be in place in every state to target the 
leading causes of death and disability . . . and their risk factors.'' 
Since cardiovascular diseases remain the No. 1 killer in every state, 
each state needs a Cardiovascular Health State Program. With fiscal 
year 2002 funding, the CDC plans to add 3 to 4 states to the program 
and may elevate up to 2 more states to a ``comprehensive'' funding 
level. A fiscal year 2003 appropriation of $55 million for the 
Cardiovascular Health State Program would allow the CDC to expand this 
activity to a total of 42 states and to initiate research to examine 
the underlying causes of regional disparity of cardiovascular diseases.
    The Paul Coverdell National Acute Stroke Registry is designed to 
track and improve delivery of care to stroke patients. The CDC is 
developing and testing prototypes for this registry in facilities in 
Georgia, Massachusetts, Michigan and Ohio. In fiscal year 2002, the CDC 
will support activities to develop and test prototypes for this 
registry in 8 sites. An appropriation of $5 million would allow the CDC 
to continue this initiative and to design state intervention networks 
that will develop health care infrastructure for education to further 
improve stroke response time and acute care.
    Also, we recommend the following fiscal year 2003 funding levels 
for the following CDC programs:
  --$210 million for the Preventive Health and Health Services Block 
        Grant;
  --$60 million for the Nutrition, Physical Activity and Obesity 
        program;
  --$83 million for the School Health Education Program; and
  --$130 million for the Office of Smoking and Health to build a 
        national program to prevent tobacco use, including a public 
        education campaign to reduce youth access to tobacco products.
    Coupled with a nationwide comprehensive Cardiovascular Health State 
Program, these initiatives will help the fight against heart disease 
and stroke. We urge you to make heart disease and stroke prevention a 
national priority.
              health resources and services administration
    About 250,000 Americans die each year from sudden cardiac death--
when a heart's electrical rhythms malfunction, causing the heart to 
suddenly stop beating. Less than 5 percent of the victims live. Small, 
easy-to-use devices, AEDs can shock a heart back into normal rhythm and 
restore life. For each minute the heart beat is not restored to its 
normal rhythm, the victim's chance of survival drops as much as 10 
percent. The first responder to a cardiac arrest may not be a medical 
responder, so the Rural Access to Emergency Devices Act, part of Public 
Law 106-505, Public Health Improvement Act, authorizes up to $25 
million to help rural communities buy AEDs and train emergency 
responders. An appropriation of $12.5 million is needed to complete the 
authorization of the rural AED component.
                        department of education
    Physical inactivity is a major risk factor for heart disease and 
stroke. It is especially troubling that our nation's youth has fewer 
opportunities for physical education. Congress has appropriated funds 
for the Physical Education for Progress Act. Under PEP, the Education 
Secretary can award grants to community-based organizations and local 
education agencies to initiate, expand and improve PE programs for 
kindergarten through grade 12 students. We advocate a fiscal year 2003 
appropriation of $70 million for PEP.
                             action needed
    Significantly increasing funding for medical research and 
prevention programs will allow us to continue making strides in the 
battle against heart disease and stroke. Our government's response to 
this challenge will help define the health and well being of Americans 
in this new millennium.
                                 ______
                                 
  Prepared Statement of the Society for Animal Protective Legislation
    On behalf of the Society for Animal Protective Legislation (SAPL) I 
would like to discuss several important issues within the jurisdiction 
of this committee. The first is the National Institutes of Health's 
(NIH) continued failure to address this Subcommittee's concern on 
illegally acquired dogs and cats used in research. Second, providing 
appropriations of $5 million for the operation of the National 
Chimpanzee Sanctuary System as called for in the CHIMP Act. Third, is 
the NIH's improper oversight of The Coulston Foundation, a grossly 
negligent biomedical research facility that has been under the constant 
scrutiny of the U.S. Congress and the American public for years. 
Finally, SAPL endorses the funding request by the Doris Day Animal 
League for $5 million for fiscal year 2003 to implement the National 
Institute of Environmental Health Sciences' (NIEHS) National Toxicology 
Program Interagency Center for the Evaluation of Alternative 
Toxicological Test Methods (NICEATM) for Interagency Coordinating 
Committee for the Validation of Alternative Methods (ICCVAM) activities 
for fiscal year 2003.
 nih fails to address this subcommittees concern on illegally acquired 
                             dogs and cats
    Approximately 90,000 dogs and cats are used for experimentation in 
the United States each year. The vast majority of these animals are 
obtained from breeders who raise the animals under controlled 
conditions and have extensive information on their genetic background 
and health and vaccination status. In addition, some dogs and cats are 
being bred for experimentation at research facilities like the 
University of Texas.
    Despite extensive documentation strongly discouraging the practice, 
some research facilities are foot-dragging by continuing to buy dogs 
and cats from random source dealers. These dealers, with a Class B 
license designation by the U.S. Department of Agriculture (USDA), are 
notorious for selling animals to laboratories that have been acquired 
through theft or fraud and for their widespread failure to comply with 
the minimum requirements under the Animal Welfare Act. Our companion 
organization, the Animal Welfare Institute, published a book, The 
Animal Dealers, which provides detailed data on this subject including 
a confession from a former employee of a Class B dealer and quotes 
directly from USDA inspection report forms.
    Recognizing the severity of the problem, USDA targeted these 
dealers and increased enforcement efforts at their premises. Stronger 
enforcement has driven many dealers out of business, but it has not 
solved the problem. Today, fewer than 25 Class B dealers remain.
    A review of USDA inspection reports for Class B dealers reveals a 
continuing failure to maintain complete and accurate records 
identifying where they are getting the dogs and cats they sell to 
laboratories for hundreds of dollars each. Other apparent violations 
include a failure to provide adequate veterinary care such that animals 
are suffering from injuries and diseases that have been left untreated, 
a failure to euthanize animals as needed and with an approved method, 
and a failure to have a responsible person present to permit USDA 
inspection of the facilities and the records.
    NIH has told this Subcommittee that it is ``committed to ensuring 
the appropriate care and use of animals in research.'' However, NIH has 
left the decision of whether or not to buy dogs and cats from random 
source dealers ``to the local level on the basis of scientific need.'' 
NIH defends the use of Class B dealers arguing that these dealers are 
needed to obtain ``animals that may not be available from other 
sources, such as genetically diverse, older, or larger animals.'' In 
fact, in the rare circumstance that a researcher asserts the need for 
such animals, they can be obtained directly from pounds as noted 
previously.
    The distinction between non-purpose-bred animals from pounds versus 
Class B dealers must be made. By using Class B dealers (middlemen) 
instead of pounds, researchers are contributing to the problem. In 
their search to fill researchers' demands for ``genetically diverse, 
older or larger animals,'' random source dealers and their suppliers 
may be stealing pets from backyards and farms or they are acquiring 
animals through fraud by collecting animals offered ``free to a good 
home.''
All animals used in research should be obtained from legitimate sources
    Taxpayer dollars, in the form of NIH extramural grants, must not 
continue to fund purchase of dogs and cats from dealers whose modus 
operandi are pet theft, acquisition of pets by fraud, payments made 
under the table and other illegal activities. Three years ago this 
Subcommittee raised this serious matter. NIH has refused to address it.
    Proper oversight of NIH's dispersal of extramural grants is 
urgently needed. We respectfully request that this Subcommittee include 
the following language in the HHS appropriations bill: ``None of these 
funds shall be used for research which utilizes dogs and/or cats 
obtained from random source dealers.''
     national institutes of health neglected to close the coulston 
                               foundation
    Possibly the most tragic case of government-sanctioned animal abuse 
in the United States has taking place at The Coulston Foundation, a 
private biomedical research facility located in Alamogordo, New Mexico. 
The Coulston Foundation currently owns over 250 chimpanzees most of 
whom have at one time been financially supported by the National 
Institutes of Health.
    I say government-sanctioned animal abuse because The Coulston 
Foundation is the only research facility to be charged formally four 
times by the U.S. Department of Agriculture (USDA) for violations of 
the Animal Welfare Act (AWA) in the Act's 37-year history. In addition, 
the USDA has officially investigated The Coulston Foundation for 
violations of the AWA eight times in the last 8 years. In August 1999, 
to settle pending formal charges, The Coulston Foundation and the USDA 
reached a settlement agreement in which The Coulston Foundation was 
required to divest itself of approximately 300 chimpanzees by 2002, 
allow external financial monitors to inspect the facility, and to 
``cease and desist'' from further violations of the AWA. In 2000, the 
NIH finally took title of 288 chimpanzees from The Coulston Foundation 
as part of the USDA divestiture agreement and with complete disregard 
for the intent of the divestiture agreement, NIH left the 288 
chimpanzees in the hands of the very facility (The Coulston Foundation) 
that was required to divest them for a year.
    One of the most grotesque stories of a death reported at The 
Coulston Foundation was that of Donna, a 36-year old chimpanzee from 
U.S. Air Force Space Program, who was said to be an ``excellent 
mother'' and ``enjoy[ed] grooming both humans and chimps.'' Donna died 
on November 11, 1999 from a massive infection after carrying a large, 
dead fetus inside her for up to 2 months. Donna had so suffered that 
The Coulston Foundation vets removed one liter of pus from her abdomen 
during a belated C-section and could see her partially decomposed 
fetus's skull through the ruptured wall of her necrotic uterus. Donna's 
death prompted the seventh USDA investigation into The Coulston 
Foundation.
NIH Refused to Act
    The Coulston Foundation is symptomatic of a larger problem: what to 
do with the hundreds of ``surplus'' chimpanzees currently being 
warehoused in laboratories at great annual taxpayer expense. During the 
1980's NIH aggressively bred chimpanzees in an attempt to deal with the 
AIDS crisis. However, it has since been determined that chimpanzees do 
not serve as a universally acceptable model for human diseases. 
Therefore, the government is now faced with caring for the chimpanzees 
that are no longer needed for research.
    For years, NIH has fought this Congress, scientists, primate 
experts, the animal protection community and the American taxpayers' 
attempts to create a national sanctuary for the retirement of 
chimpanzees no longer used in biomedical research. NIH claims that 
science will stop on important research projects if chimpanzees are 
allowed to be retired when the research institution along with the 
Secretary of the Department of Health and Human Services decide that 
the chimpanzee is no longer needed. However, this has consistently been 
proven to be false and reactionary. That is why the idea of providing 
for these sentient beings has been so widely supported by a wide 
collection of diverse interests.
    An important victory for chimpanzees, taxpayers and the U.S. 
Congress was passage of the Chimpanzee Health Improvement, Maintenance 
and Protection (CHIMP) Act (Public Law 106-551) which was signed into 
law 2 years. The CHIMP Act will create a public/private sanctuary 
system to retire chimpanzees formerly used in research permanently. 
NIH, FDA, CDC and other PHS components have, SAPL estimates, spent 
hundreds of millions of taxpayer dollars to breed chimpanzees and 
infect them with HIV, hepatitis, RSV, malaria, etc. Now, due to the 
declining demand for chimps in research, the surplus of chimpanzees is 
growing to crisis proportions.
    We feel strongly that NIH should not be responsible for maintaining 
any ``surplus'' chimpanzees. NIH over breeding and mismanagement are 
primarily responsible for creating this monumental problem the 
government faces today. It is therefore not unreasonable for NIH to 
help pay for the solution from their own increasing taxpayer-funded 
budget. Federal funding for chimpanzee retirement would represent a 
tiny fraction of the federal funds used to breed and experiment on 
chimpanzees over the past few decades.
The Chimpanzee Health Improvement, Maintenance and Protection Act
    The CHIMP Act was signed into law on December 20, 2000, but the NIH 
has acted slowly upon the intent of the law as laid out specifically in 
Public Law 106-551. We urge the Congress to ensure NIH lives up to the 
intent of Congress to create this sanctuary system for the permanent 
retirement of hundreds of chimpanzees as soon as possible.
    We believe it is time to live up to our obligations, first by 
permanently retiring ALL of the chimpanzees at The Coulston Foundation 
into the sanctuary system created by CHIMP Act and to provide the same 
long-term care and permanent, private retirement to the hundreds of 
chimpanzees currently being warehoused in laboratories. The CHIMP Act 
authorizes $30 million for the establishment and operation of the 
sanctuary system. Because there are hundreds of chimpanzees languishing 
in various facilities we therefore respectfully request that Congress 
call on HHS to quickly develop the sanctuary and appropriate $5 million 
for the sanctuary system.
    The CHIMP Act provides a means by which we can finally give a 
little peace and compassion to these amazing creatures that have given 
so much to humanity. Dr. Jane Goodall summed it up perfectly during her 
testimony before Congress on the CHIMP Act when she said, ``These 
chimps can never return to the wild, but free from cages they can live 
in a way that will allow them to socialize, feel the breeze in their 
faces, climb trees, and groom with their friends. That is, surely, the 
least we can do for them, in return for their sacrifice.''
    Thank you for your consideration of this testimony. Please feel 
free to contact us should you require additional information.
                                 ______
                                 
       Prepared Statement of the American Urogynecologic Society
    On behalf of the American Urogynecologic Society (AUGS), I submit 
written testimony for the Senate Appropriations Subcommittee on Labor, 
Health and Human Services (HHS), and Education, outlining AUGS' top 
priorities for fiscal year 2003 for the National Institutes of Health 
(NIH).
    The American Urogynecologic Society is a 22 year-old non-profit 
organization whose more than 1,000 members have a special interest and/
or expertise in the field of urogynecology and reconstructive pelvic 
surgery. Our membership includes gynecologists, urologists, and allied 
health professionals in academic and clinical practices. The mission of 
the Society is to promote research and education in the specialty and 
improve the quality and delivery of health care to women with pelvic 
floor disorders.
    First and foremost, AUGS would like to thank the Committee for it 
commitment to biomedical research at the NIH. Past funding increases to 
the NIH budget have enabled critically important research projects to 
be funded. Without this financial support for research innovation, 
projects such as the Urogynecology Program at the National Institute of 
Children's Health and Human Development (NICHD) and the Urinary 
Incontinence Treatment Network Initiative at the National Institute of 
Diabetes and Digestive and Kidney Diseases (NIDDK), would never have 
been possible. Through the establishment of new research into the 
challenging and little discussed diseases treated by urogynecologists, 
researchers have had the opportunity to greatly improve the quality of 
life for millions of women.
    Currently, nearly half of the female population of the United 
States are diagnosed with urinary incontinence or pelvic floor 
disorders. Urinary incontinence alone afflicts approximately 13 million 
adults in the United States, 85 percent of whom are women. As shocking 
as these numbers seem, they does not accurately reflect all those who 
suffer from these diseases. Due to the stigma attached to such 
diagnoses, many Americans will never seek treatment, and will suffer 
from these debilitating diseases silently their whole lives.
                    relevant urogynecologic diseases
Urinary Incontinence (UI)
    UI is defined as the involuntary leakage of urine. A broad range of 
conditions and disorders can cause incontinence, including smoking, 
genetic connective tissue abnormalities, pelvic surgery, medical 
conditions (diabetes), chronic constipation, neurological diseases such 
as multiple sclerosis, stroke or neurologic injury, and degenerative 
changes associated with aging. It most often occurs as a result of 
vaginal childbirth. One in four women, ages 30-59, have experienced an 
episode of urinary incontinence and 50 percent or more of the elderly 
persons living at home or in long-term facilities are incontinent. 
Urinary incontinence is the 2nd leading cause for institutionalization.
Prolapse
    This refers to the extrusion the pelvic organs or vaginal walls 
through the vaginal opening. This creates discomfort or pressure in the 
vagina as well as urinary and defecatory dysfunction. Prolapse is often 
associated with stretching and/or tearing of the pelvic ligaments and 
muscles from vaginal childbirth. Around the time of menopause, estrogen 
production by the body is reduced and aging changes lead to further 
weakening of the pelvic support tissues thus producing pelvic prolapse.
              current urogynecologic research through nih
NICHD
    Research done through the NIH has helped to expand the knowledge of 
the etiology, and the diagnosis and treatment of both urinary 
incontinence and pelvic floor disorders. The NICHD has led recent 
efforts to research pelvic floor disorders with its three-pronged 
research portfolio, and a terminology workshop to uniformly define 
aspects of research, diagnosis, and treatment. Specifically, the 
Institute has funded grants that look at the basic science aspects of 
pelvic floor disorders. The second component of NICHD's research 
portfolio on pelvic floor disorders focusing on epidemiological 
research was released in May 2000.
    In order to make real progress in preventing and treating prolapse, 
it is necessary to first understand how and why pelvic floor disorders 
develop. Increased funding will enable the Institute to research the 
pathophysiology of pelvic floor disorders. This research is essential 
to improving the quality of life of women who are faced with the 
embarrassing conditions for two-thirds of their lives (i.e. post-
childbearing). Now that initial research has been established at NICHD, 
there needs to be additional funding funneled through the clinical 
trials intervention programs to maintain and expand upon that research.
NIDDK
    The NIDDK has also played an instrumental role in researching 
urinary incontinence. The Institute has collaborated with the NICHD in 
releasing its Urinary Incontinence Treatment Network Initiative. 
Originally released in July 1999, 9 clinical sites were funded and one 
data-coordinating center. Through increased Federal funding, NIDDK may 
be able to add additional clinical sites to this important endeavor. An 
increased commitment of federal funds is needed to keep the networks 
functioning at full capacity and to allow more clinical sites to be 
recruited as the networks become established. This financial investment 
is the only way that researchers and physicians will be able to 
collaborative work together to answer the clinically important 
questions that affect the management of women with pelvic floor 
disorders and urinary incontinence.
    Modeled after the highly successful progress review concept of the 
NCI, NIDDK convened experts to evaluate current research portfolios, 
identify areas where research is lacking, and recommend research 
priorities in the urogynecology/urology area. A report by the Bladder 
Progress Review Group will soon be finalized and released thanks to the 
coordinated efforts of AUGS and the NIDDK. It is AUGS' hope that the 
NIDDK will now be able determine how follow up on research 
recommendations made by the experts, develop a plan to implement new 
initiatives and communicate and appropriately track progress.
                    fiscal year 2003 budgetary needs
    The NICHD has intimated that there will be urogynecologic research 
within the highly anticipated ``Longitudinal,'' otherwise known as 
``National Children's Study.'' This program will be a billion-dollar 
undertaking by the NICHD and other Federal agencies to begin funding 
which begins funding in fiscal year 2003, and will study early child 
care and youth development. The plans are for the study to specifically 
look into the correlation between childbirth and the likelihood for 
mothers to experience urogynecologic problems. This would be in an 
attempt to provide better care during pregnancy to avoid such problems 
for women later in life.
    The AUGS believes that heightened awareness and acceptance of 
urogynecologic diseases can best be achieved through increased 
congressional support, specifically in the form of appropriate funding. 
Here are some specific ways that Congress can help:
  --The AUGS recommends that Congress stay on schedule and double the 
        NIH budget by fiscal year 2003, with $27.3 billion designated 
        for NIH in fiscal year 2003.
  --The AUGS recommends that the committee supports $1.284 billion for 
        the NICHD in fiscal year 2003, to capitalize on emerging 
        discoveries in women's urogynecologic health care and to 
        address urgent public health needs.
  --The AUGS recommends that the Committee support $1.7 billion for 
        NIDDK in fiscal year 2003, so that they will be able to respond 
        proactively to the research needs of our organization and 
        others.
  --The AUGS recommends that the Committee encourage the NICHD to 
        fulfill its commitment of $2 million per year for 5 years to 
        fund new grants for epidemiological research, and $3 million 
        per year for 5 years to fund new clinical sites and a data 
        coordinating center for the urogynecology program.
  --The AUGS recommends that the Committee support the $6 million 
        within the NICHD budget dedicated to the planning stages of the 
        ``National Children's Study.''
  --The AUGS recommends that the committee support $1 billion for the 
        National Institute on Aging (NIA) in fiscal year 2003, to 
        further develop research into the cause and treatment of 
        urogynecologic disorders related to aging.
    The NIH has shown tremendous progress in expanding scientific 
information needed to address the public health challenges caused by 
urinary incontinence and pelvic floor disorders. The historical 
accomplishments of the NIH show a clear record of building upon 
previous knowledge to improve diagnosis and treatment of the disorders 
that tackle every day. Further understanding of the basic science, 
epidemiology, and technological advances lead to better treatments and 
potential cures and, most importantly, possible strategies for 
prevention of these diseases. Challenges remain both in our scientific 
and our need to expand research and understanding, therefore, it is 
crucial that Congress keeps its commitment to doubling the NIH budget 
over 5 year. Thank you for your consideration, and the opportunity to 
share the American Urogynecologic Society's views on research 
priorities for fiscal year 2003.
                                 ______
                                 
      Prepared Statement of the Society of Gynecologic Oncologists
    On behalf of the Society of Gynecologic Oncologists (SGO), I submit 
written testimony to the Senate Appropriations Subcommittee on Labor, 
Health and Human Services and Education, which outlines SGO's top 
priorities for fiscal year 2003 appropriations for gynecologic cancer 
programs.
    SGO is a non-profit, international organization made up of almost 
1000 gynecologists specializing in gynecologic oncology. SGO is 
committed to improving the care of women with gynecologic cancer, to 
raise standards of practice in gynecologic oncology and to encourage 
on-going research. In 2002, cervical, ovarian, and endometrial cancer 
will be diagnosed in approximately 75,600 women, accounting for nearly 
25,000 deaths in the United States. Gynecologic cancer deaths are some 
of the leading causes of cancer deaths in women.
    After receiving certification in general obstetrics and gynecology 
by the American Board of Obstetrics and Gynecology, SGO members must 
train for an additional 3 to 4 years in gynecologic oncology in order 
to qualify for special gynecologic oncology competence. Although the 
majority of the nearly 1,000 SGO members are gynecologic oncologists, 
its membership also includes other related medical specialists, 
including medical oncologists, radiation therapists and pathologists. 
In addition, the Society includes individuals who head academic 
divisions of Gynecologic Oncology in U.S. medical schools, all of the 
directors of fellowship training programs in Gynecologic Oncology and 
all of the participants in the National Cancer Institute (NCI) funded 
collaborative clinical research group--Gynecologic Oncology Group.
    Approximately 23,400 new ovarian cancers will be diagnosed in the 
United States in the year 2002 and about 14,000 women will die from 
this disease. Cancer of the Endometrium (uterus) is currently the most 
common form of cancer of the female reproductive organs. It is 
estimated that 39,300 new cases of endometrial cancer will be 
diagnosed, and 6,600 women will die from this disease in 2002. It is 
also estimated that cervical cancer will be diagnosed in about 13,000 
women, and 4,100 are expected to die from this disease.
    Recent National Cancer Institute (NCI) discoveries have proved 
promising in the development of effective early detection screening 
tools for ovarian cancer, the silent gynecologic cancer killer. In 
order to produce successful gynecologic cancer research, funding for 
Specialized Programs of Research Excellence (SPORES) needs to be 
expanded to create specific SPOREs for cervical and endometrial 
cancers. It is also imperative that the Cancer Care Outcomes Research 
and Surveillance (CanCORS) looks at gynecologic cancer. This project 
could help explain why some groups of cancer patients may not be 
receiving optimal treatment, and identify strategies for improving 
their quality of care. SGO also recognizes the effectiveness of the 
Centers for Disease Control (CDC) Chronic Disease Prevention and Health 
Promotion, in making American women more aware of preventative measures 
and treatments for gynecologic cancers, and hopes that it can expand 
its reach to Americans in the future.
                          overall nih funding
    The SGO commends the President, Congress and this Committee for 
their continued support and commitment to doubling the budget of the 
National Institutes of Health (NIH) by fiscal year 2003. Research holds 
the key to improved prevention, diagnosis, and treatment of cancer. 
Unless NIH funding is increased, progress will slow and promising 
research endeavors may be abandoned. We remain steadfast in our 
commitment to advancing the final stage of doubling of the NIH budget 
by fiscal year 2003, and encourage Congress to make this a reality.
  --Therefore, as we enter the fourth year of this effort, SGO 
        recommends the $27.3 billion necessary for the NIH to meet this 
        goal.
                national cancer institute (nci) funding
    We are equally appreciative of the support Congress has provided to 
the National Cancer Institute (NCI). This Institute is leading efforts 
to develop better screening tools and treatments for gynecologic 
cancers, particularly for endometrial and ovarian cancer. In addition, 
the NCI is funding ground-breaking research to develop a vaccine to 
prevent cervical cancer. This important research may enable us to 
eradicate cervical cancer in our lifetime. However to do so, we must 
continue to make investments in medical research.
  --To ensure that these critically important research endeavors are 
        fully funded, the SGO recommends that Congress provide the NCI 
        with $5.1 billion in fiscal year 2003--the amount requested in 
        the NCI Director's bypass budget.
Cancer Care Outcomes Research and Surveillance Consortium (CanCORS)
    NCI's research programs are providing much of the evidence base for 
the national agenda to improve health care quality. The CanCORS, 
launched in 1999, is a major initiative to study the impact of cutting-
edge interventions on patient-centered outcomes, investigate the 
dissemination of state-of-the-science therapies into community 
practice, and analyze disparities in the delivery of quality cancer 
care. CanCORS multi-center teams will collaborate on large 
observational cohort studies of newly diagnosed cancer patients. 
Initial projects are focusing on lung and colorectal cancer, although 
expansion to other high-prevalence cancer sites is anticipated. These 
analyses will support development of an expanded set of core quality 
and outcome measures that may be collected routinely by tumor 
registries in support of a national data system to monitor cancer care 
quality. CanCORS teams also are examining major methodological issues 
in outcome research conducted in community settings. Expansion of 
CanCORS to gynecologic cancer would explain why some groups of cancer 
patients may not be receiving optimal treatment, and help to identify 
strategies for improving the quality of their care.
    Some specific data in recent American Cancer Society (ACS) studies 
on cancer incidence and mortality in minority populations of the U.S. 
highlights overwhelming disparities. For example, a 2001 ACS study 
found that Hispanic women in the United States have twice the incidence 
of cervical cancer compared with non-Hispanics, and the death rate from 
cervical cancer is 40 percent higher in Hispanic women than in non-
Hispanic women. Inadequate use of Pap screening contributes to later 
diagnosis in these women and poorer survival of cervical cancer with 
Hispanic women. According to a source at NCI, African American women 
have worse survival rates from cervical cancer even though their 
screening rate is higher than that of Caucasian women. These 
disparities are proof that more needs to be studied about cancer in 
minority populations and beyond, if we intend to combat these deadly 
diseases.
  --SGO is concerned about the patterns of care for gynecological 
        cancers and asks Congress to expand CanCORS to gynecologic 
        cancers.
NCI Specialized Program of Research Excellence (SPORE)
    The Ovarian Cancer SPORE program was initiated in 1999 with the 
funding of four sites. Thanks to fiscal year 2002 funding, a general 
gynecologic cancer SPORE is also being created at NCI. These SPOREs 
promote interdisciplinary research and enable the exchange of basic and 
clinical science to move research findings from the laboratory to 
applied settings involving patients and populations. The goal of the 
SPORE program is to bring to clinical care settings novel ideas that 
have the potential to reduce cancer incidence and mortality, to improve 
survival and to improve the quality of life. The concept of the program 
has encouraged a number of Inter-SPORE collaborations aimed at 
developing much needed prognostic, screening, prevention, and 
therapeutic tools for ovarian cancer.
    The SPOREs also work to identify those women who are at increased 
risk for developing ovarian cancer, and to develop new tests unique to 
the ovaries, to help detect ovarian cancer at an early and treatable 
stage. Trials currently underway show promise, but not optimal survival 
rates. Presently it is not possible to detect all women with early 
stage disease. Markers and methods being developed could provide the 
next generation of clinical trials for early detection of ovarian 
cancer. Survival rates of gynecologic cancers are far too low, and 
disparities in care need to be reduced or eliminated.
    Additional SPOREs for both endometrial and cervical cancer will 
enable scientific breakthroughs and help reduce mortality rates. 
Recently, the ovarian SPOREs have made measurable breakthroughs that 
may lead to improved detection of this cancer. Researchers now stand 
ready to develop SPOREs specifically for cervical and endometrial 
cancers, in order to improve detection methods and created more 
successful treatments. Research focused on clarifying symptom 
presentation patterns among ovarian cancer cases may increase the 
proportion of women who are diagnosed at an earlier stage, when 
treatment appears to be more effective.
  --SGO recommends that Congress create separate SPORES specifically 
        for cervical and endometrial cancers.
NCI Gynecologic Cancer Progress Review Group
    SGO is pleased that the NCI recently released a Gynecologic Cancers 
Progress Review Group (PRG) report, and established a research agenda. 
The information compiled in the PRG has great promise for future 
developments.
  --SGO recommends that additional funding be provided to the NCI, 
        ensuring that the important recommendations made by the 
        Gynecologic Cancer PRG are enacted.
   centers for disease control (cdc)--chronic disease prevention and 
                            health promotion
    While cancer research is critical to find a cure, develop better 
treatments and uncover additional ways to prevent cancer, we also know 
that the Centers for Disease Control and Prevention (CDC) have a 
critical role to play. CDC programs to prevent cancer, detect cancer at 
its earliest stages, and educate the public about cancer risks and 
necessary behavioral changes have a direct impact on greatly reducing 
illness and treatment costs. Significant steps have been taken to fund 
several important CDC cancer related programs and the SGO appreciate 
the commitment to advancing the National Program of Cancer Registries. 
However, the Society remains concerned that inadequate funding is 
provided for the several important CDC initiatives.
CDC National Breast and Cervical Cancer Early Detection Program 
        (NBCCEDP)
    The NBCCEDP provides screening, outreach and case management 
services to assist high risk, low-income women in all 50 states. To 
date, one million women have been screened, thousands of breast and 
cervical cancers have been diagnosed, and thousands of women have been 
able to receive treatment for cancer. This unfortunately is not nearly 
enough. Specifically, the NBCCDEP can effectively utilize increased 
funding to ensure that many more of this nation's low-income and 
medically under-served women are screened for breast and cervical 
cancer through programs that have been identified as needing additional 
support and resources.
  --SGO recommends that Congress support $220 million for the CDC 
        National Breast and Cervical Cancer Early Detection Program.
CDC Ovarian Cancer Awareness Program
    This program is relatively new at the CDC, but it is critically 
important to raise awareness of this silent and often deadly disease. 
The CDC intends to develop resources that will ensure patients at-risk 
or diagnosed with ovarian cancer know about appropriate treatment and 
referrals. Additional funding will enable the CDC to continue to put 
the infrastructure behind this much-needed program.
    The SGO also participates in One Voice Against Cancer (OVAC), a 
coalition of over 40 public health organizations representing more than 
15 million Americans impacted by cancer and supports OVAC's priorities 
for fiscal year 2003 appropriations as outlined in its written 
testimony submitted to the Subcommittee. SGO is working with One Voice 
Against Cancer (OVAC) and the Ovarian Cancer National Alliance (OCNA) 
to pursue $8.0 million for ovarian and $220 million for breast and 
cervical cancer.
  --SGO recommends that Congress support $8 million for the CDC Ovarian 
        Cancer Awareness Program.
    The SGO greatly appreciates your consideration of these 
recommendations to improve prevention, diagnosis and treatment for the 
thousands of American women threatened by gynecologic cancers each 
year.
                                 ______
                                 
      Prepared Statement of the American Psychological Association
    The American Psychological Association (APA) represents 155,000 
members and affiliates, and works to advance psychology as a science, a 
profession, and a means of promoting health and human welfare. APA 
members are involved in a broad spectrum of programs within the 
jurisdiction of this Committee--for example, as behavioral scientists 
whose research is funded by the National Institutes of Health, as 
university professors whose students depend on federal education aid, 
or as health service psychologists who provide services in schools or 
in underserved areas. Within each of these programs and others besides, 
psychologists are working to make a difference in the lives of health 
care consumers and within the educational system of this country.
              u.s. department of health and human services
    National Institutes of Health (NIH).--One of the most important 
things this Committee can do to improve the long-term health of our 
nation is to complete the effort to double the NIH budget. To this end, 
the APA strongly recommends an appropriation of $27.3 billion for 
fiscal year 2003.
    Six of the ten leading causes of death in the United States are 
behaviorally based, including HIV/AIDS, smoking, violence, accidents, 
poor diet, and substance abuse. Other behavioral factors are known to 
increase individuals' risk for disease, disability and early death: 
obesity, physical inactivity, inadequate social support, exposure to 
environmental contaminants, anxiety, and traits of anger, hostility or 
depression. As important as individual behavior is to health, NIH must 
also continue to examine social factors--racial/ethnic status, gender, 
age, income, education, cultural orientation, and community--that have 
important effects on health. Behavioral and social science research at 
NIH is making important contributions to health in our nation. Examples 
are:
  --The National Institute on Drug Abuse (NIDA) is making state-of-the-
        art substance abuse treatment regimens available to broader 
        community populations through its expanding Clinical Trials 
        Network. This network makes it possible to test new treatments 
        quickly and thoroughly to see whether they are effective 
        outside laboratory settings. Similarly, NIDA is planning a new 
        National Prevention Research Initiative. By establishing 
        Transdisciplinary Prevention Research Centers, NIDA will bring 
        together psychological scientists and other science 
        professionals to work side by side to provide the necessary 
        linkage between basic research and the development of effective 
        new prevention interventions.
  --The National Institute of Child Health and Human Development 
        (NICHD) is investigating the broad influence of environmental 
        factors on childhood development. Working collaboratively with 
        the Environmental Protection Agency and the Centers for Disease 
        Control and Prevention, it is developing the Longitudinal 
        Cohort Study on Environmental Effects on Child Health and 
        Development that aims to quantify the effects of environmental 
        exposures and biological and social factors on child health and 
        development. Importantly, the research will also measure 
        traditional cognitive, social and emotional developmental 
        outcomes within the framework of this study.
  --The National Heart Lung and Blood Institute (NHLBI) has sponsored 
        important research demonstrating the power of social 
        connectedness in helping speed recovery after heart attacks. 
        Such research helps reveal the pathways through which positive 
        experiences and emotions may enhance health or protect against 
        illness. With adequate resources NHLBI can continue its work in 
        this area and expand initiatives to increase basic behavioral 
        research on the etiology of disease resistance, and examine 
        interventions that may be ready for field testing in community 
        populations.
  --The National Institute on Alcohol Abuse and Alcoholism (NIAAA) has 
        developed important partnerships with college administrators 
        and student organizations to strengthen its research on college 
        drinking. As a result, NIAAA has recently released A Call to 
        Action: Changing the Culture of Drinking at U.S. Colleges, 
        which identifies both successful intervention strategies, as 
        well as gaps in our understanding of the problem. With 
        sufficient resources, NIAAA would spend additional funds on 
        research to prevent and intervene with alcohol abuse in college 
        settings, and to disrupt drinking patterns that might lead to 
        alcohol dependence after college.
  --The National Institute of Mental Health (NIMH) has taken leadership 
        to develop strategies for translating basic research into 
        clinical care practices. Its report, Translating Behavioral 
        Science Into Action, focuses on three areas: understanding 
        basic behavioral processes in mental illness; understanding how 
        mental illnesses and their treatments affect the ability of 
        individuals to function in diverse settings and roles; and 
        understanding how social or other environmental contexts 
        influence the development and prevention of mental illness, and 
        the treatment and care of those suffering from mental illness.
  --National Institute on Aging (NIA) has demonstrated a commitment to 
        furthering research on aging and cognitive function and the 
        many difficult questions involved in long-term maintenance of 
        positive behavior change. But as the aged population expands, 
        so too does the need for these critical areas of research. The 
        Behavioral and Social Research branch conducts 
        multidisciplinary and interdisciplinary behavioral economics 
        research that may address questions of savings and resource 
        allocation in the pre- and post-retirement populations.
  --National Cancer Institute (NCI) has placed recent emphasis on the 
        interactions of genetic, environmental and lifestyle factors 
        that affect cancer risk and the prevention, detection and 
        treatment of cancer. NCI continues to expand its support of 
        work on both risk determination and risk communication. NCI has 
        also supported long term comprehensive research efforts to 
        define the biological, behavioral and social bases of tobacco 
        use and addiction, and continues to refine treatment options 
        for specific groups (e.g., pregnant women or young smokers).
  --National Institute of Diabetes, Digestive and Kidney Diseases 
        (NIDDK) has supported compelling research on the links between 
        depression and diabetes. Diabetics who have co-occurring 
        depressive symptoms have less success managing their illness. 
        Depression has been linked to poorer adherence to medical and 
        behavioral regimens and lower rates of exercise. NIDDK has 
        demonstrated robust results in the Diabetes Prevention Program 
        by demonstrating that diet and exercise can be more successful 
        than medication in preventing the development of diabetes in 
        groups who faced a high risk of diabetes.
  --The Office of Behavioral and Social Sciences Research (OBSSR) 
        exists to help coordinate the behavioral and social science 
        research at NIH, and to enable collaborations on cross-cutting 
        issues that serve the missions of multiple institutes. OBSSR's 
        budget for fiscal year 2002 is $23.4 million. APA supports an 
        appropriation of at least $25.8 million for OBSSR in fiscal 
        year 2003. Such an increase would allow the Office to implement 
        the recommendations in the National Research Council's (NRC) 
        recent report, New Horizons in Health: An Integrative Approach. 
        The report identifies research priorities that cut across 
        Institute domains, underscoring the broad significance of 
        social and behavioral science research for multiple disease 
        outcomes as well as health promotion. The NRC report recommends 
        ten priority areas for research investment: predisease 
        pathways, positive health, gene expression, personal ties, 
        health communities, inequality, population health, 
        interventions, methodology, and infrastructure.
                department of health and human services
Substance Abuse and Mental Health Services Administration (SAMHSA)
            Center for Mental Health Services (CMHS)
  --Mental Health Performance Partnership Grant.--APA urges the 
        Committee to provide $495 million for this block grant, which 
        is the principal federal discretionary program supporting 
        community-based mental health services for adults with serious 
        mental illness and children with serious emotional disturbance.
  --Post Traumatic Stress in Children.--In 2001, Congress authorized an 
        initiative to help children and adolescents who have witnessed 
        or experienced violence. Because of Congress' foresight, about 
        20 projects have now been funded that will help children heal 
        as our nation responds to the tragedies of September 11. APA 
        recommends that this valuable program receive $23 million.
  --Youth Violence Prevention Initiatives.--APA applauds the Committee 
        for creating this coordinated effort among the Departments of 
        Health and Human Services, Justice, Education, and Labor to 
        develop research-based programs to prevent youth violence and 
        to intervene with families, schools, and communities where 
        violence has already occurred. APA recommends that the 
        Committee provide $108 million for youth violence prevention 
        initiatives at CMHS, the majority of which will be devoted to 
        funding the Safe Schools/Healthy Students Initiative. APA also 
        recommends that the Committee provide $110 million for the 
        Comprehensive Community Mental Health Services for Children and 
        their Families Program.
  --Minority Fellowship Program.--The Surgeon General's Report, Mental 
        Health: Culture, Race, and Ethnicity (2001), clearly identifies 
        the existence of racial and ethnic disparities in the mental 
        health system and the related need to increase funding for 
        training minority mental health professionals. Although 
        minorities currently represent 30 percent of our nation's 
        population and are projected to account for 40 percent in 2025, 
        only 7 percent of doctorates awarded in psychology since 1978 
        have been to people of color. The Committee recognizes the 
        urgency of training additional minority mental health 
        professionals and provides $8 million for the Minority 
        Fellowship Program.
  --HIV/AIDS.--The Committee commends SAMHSA on the various HIV/AIDS 
        programs it has initiated in the past 10 years. In fiscal year 
        2001, Congress appropriated $7 million to CMHS for grants to 
        community-based providers in traditional and non-traditional 
        settings who provide direct mental health services to racial 
        and ethnic minorities with HIV/AIDS and associated mental 
        health and related problems (e.g., dementia, depression, and 
        chronic, progressive neurological disabilities). Recent reports 
        indicate that 36 percent of new AIDS cases are directly related 
        to injection drug use. The Committee recognizes that 
        individuals suffering from HIV/AIDS and co-occurring mental 
        health and substance abuse disorders present unique and unmet 
        treatment needs necessitating specialized provider training. 
        Therefore, the Committee provides $3 million for training 
        mental health professionals to provide integrated mental health 
        and substance abuse services for persons suffering from HIV/
        AIDS and co-occurring disorders.
  --HIV/AIDS Adolescent Demonstration Project.--In the 1980s, the 
        number of babies born with HIV increased at a soaring rate. 
        However by the early 90s, HIV births began to drop nationwide, 
        and by the mid-90s, the numbers decreased sharply because of 
        new antiviral medications that prevented transmission of the 
        virus from mother to child. The Committee is concerned with the 
        health of the children who survived this crisis. A recent 
        American Public Health Association Journal article points to a 
        high percentage of children who were born with HIV, and now as 
        adolescents are suffering from severe behavioral and mental 
        health problems and oftentimes rejection by their adopted 
        parents due to these problems. Therefore, the Committee 
        provides $3 million to establish a demonstration program to 
        address the needs of these at-risk adolescents.
Health Resources and Services Administration (HRSA)
    APA recommends that $6 million in the fiscal year 2003 Labor, HHS 
and Education Appropriations bill be allocated for the Graduate 
Psychology Education (GPE) Program in the Bureau of Health Professions 
within the Allied Health and Other Disciplines budget activity of the 
Health Resources and Services Administration (HRSA). This unique 
program was recently established to meet demonstrated mental and 
behavioral health care needs through integrated, interdisciplinary 
health care services for America's underserved populations (i.e., rural 
residents, children, and the chronically ill) and in areas of emerging 
need. Of the $6 million, APA recommends that $3 million be used to fund 
training in geropsychology to meet the mental and behavioral health 
needs of older Americans.
    Psychological services are an essential component of a ``seamless 
system'' of health care for the underserved, one that is comprehensive, 
preventive and cost-effective. There are over 900 Mental Health 
Professional Shortage Areas throughout the nation that need services. 
This shortage of qualified mental and behavioral health professionals 
needs to be addressed. Approximately 20 percent of children and older 
adults experience a mental disorder (e.g., anxiety or depression), of 
which about 60 percent do not receive services. Most of these elderly 
have one or more behavioral problems (e.g., medication compliance or 
incontinence) that can be effectively addressed through psychological 
intervention. There are only 700 identified geropsychologists in the 
nation and significantly larger numbers are needed to meet the 
increasing demands of our growing geriatric population.
    Maternal and Child Health Block Grant.--APA recommends that the 
Committee appropriate the full authorization level of $850 million. The 
only federal program focused solely on improving the health of all 
mothers and children, this block grant supports a wide range of 
activities aimed at reducing infant mortality, preventing injury and 
violence, addressing racial and ethnic health disparities, and 
providing comprehensive care for children and adolescents with special 
health care needs.
Centers for Disease Control and Prevention (CDC)
    National Center for Injury Prevention and Control.--APA recommends 
$5 million for the National Violent Death Reporting System to build 
state capacity to collect and analyze data about violent deaths. This 
system will help provide critical information to shape violence 
prevention strategies at the state and national levels. APA also urges 
the Committee to provide $20 million for child maltreatment initiatives 
to further prevention efforts, state-based surveillance, data 
gathering, program evaluation, and dissemination of effective 
interventions.
    National Institute for Occupational Safety and Health (NIOSH).--
NIOSH is the sole agency responsible for conducting research and making 
recommendations for the prevention of work-related disease and injury. 
In 1996, NIOSH created the National Occupational Research Agenda 
(NORA), the largest stakeholder-based research agenda in the United 
States targeting 21 research priorities. Representatives from over 220 
organizations from both the private and public sectors are working 
together to implement the program's objectives. Every day, about 9,000 
U.S. workers sustain disabling work-related injuries: 16 die from an 
injury and 137 others die from work-related diseases. The annual burden 
for these occupational illnesses and injuries is $171 billion, the same 
as the burden for cancer, yet the total federal investment in 
occupational safety and health research is just five percent of the NIH 
cancer research investment. Therefore, APA recommends that the 
Committee provide a $60 million increase over fiscal year 2002 funding 
to $336.5 million.
    National Center for Chronic Disease Prevention and Health Promotion 
Division of Adolescent and School Health. School-based HIV Education.--
At least half of all new HIV infections in the United States are among 
people under 25, with the majority being infected through unprotected 
sex. In addition, there are excessively high rates of HIV infection and 
other serious public health problems among gay, lesbian, bisexual and 
transgendered, youth, especially youth of color. School health programs 
are one of the most efficient means of preventing HIV infections among 
young people because of the size and accessibility of this population. 
Scientific evaluations of school-based HIV prevention programs have 
shown that these programs are cost-effective and decrease sexual risk 
behaviors without increasing sexual activity among high school 
students. APA commends the CDC for its recently completed 5-year HIV 
Prevention Strategic Plan, which establishes school-based strategies as 
a priority for HIV prevention. APA strongly recommends that the 
Committee provide $100 million to strengthen and implement educational 
strategies to prevent HIV, and to integrate teen pregnancy and STD 
prevention initiatives in at least 25 of the nation's largest school 
districts. Currently, such programs are being funded in 19 of the 
largest school districts most affected by HIV to implement HIV 
prevention strategies alone.
Administration on Children and Families
    Members of the Committee are already aware that most children who 
are victims of violence are victimized in their own homes. For this 
reason, APA urges the Committee to fund the Child Abuse Prevention and 
Treatment Act at its authorized levels, while restoring the $34 million 
provided in fiscal year 2001 for the Child Abuse Discretionary Grants. 
These funds are critical in helping the Office of Child Abuse and 
Neglect sponsor activities aimed at developing research-based models 
for child abuse prevention.
Indian Health Service
    The health disparities that exist for American Indians/Alaska 
Natives (AI/NA) are particularly acute. Inadequate mental health and 
substance abuse services contribute to a suicide rate for this 
population that is 72 percent higher than the rate for all races in the 
United States. The death rate attributed to alcohol for AI/AN is 45.5 
per 100,000, as compared to 6.7 per 100,000 for all races. Studies have 
shown that 70 percent of all suicidal acts (completions and attempts) 
in AI/AN country involved alcohol. The 2000 National Household Survey 
on Drug Abuse found that AI/AN had the highest rate of illicit drug use 
(13 percent) of any major racial and ethnic group, an increase from 
1999 of 11 percent. The Committee is alarmed over these trends and 
provides an additional $10 million each for mental health and substance 
abuse services.
                        department of education
    APA supports strengthening our federal investment in the Elementary 
and Secondary School Counseling Program. In providing funds for this 
program, Congress has recognized its importance to our nation's 
children. APA urges the Committee to maintain a separate funding stream 
for this program at $60 million.
    Individuals with Disabilities Education Act--National Activities 
(IDEA Part D).--Members of the Committee have demonstrated their 
commitment to funding services for children with disabilities. Under 
IDEA Part D, Research and Innovation funds can be used to develop and 
evaluate research-based practices designed to address the needs of 
children in special education and enhance our knowledge and 
implementation of best practices. APA recommends funding IDEA Part D at 
$100 million.
    Personnel Preparation.--These funds are used to train teachers and 
related service providers. APA recommends that the Committee fund 
Personnel Preparation at $100 million, and that the Department be 
directed to increase the emphasis on training of related service 
providers, who extend critical assistance to furthering children's 
educational progress and are in short supply in many schools.
    Thank you for the opportunity to present this statement for the 
record.
                                 ______
                                 
       Prepared Statement of the HIV Medicine Association of IDSA
    The HIV Medicine Association (HIVMA) of IDSA represents 2,300 
physicians who practice on the frontline of the HIV/AIDS pandemic. Our 
members treat people with HIV/AIDS in our communities, develop and 
implement effective prevention interventions and conduct research to 
develop less complex and less toxic treatment regimens both in the 
United States and abroad. HIVMA is comprised of physicians from 49 
states, the District of Columbia, Puerto Rico and more than 130 
countries outside the United States.
    HIVMA is a member of the National Organizations Responding to AIDS 
(NORA) coalition, which is comprised of national organizations 
representing medicine, public health, community-based service 
organizations, and civil rights organizations that have joined together 
to support a comprehensive response to the AIDS pandemic domestically 
and globally. The funding requests reflected in our testimony represent 
the consensus of the coalition regarding the funding levels necessary 
to adequately respond to the pandemic.
    Finally, we would like to take this opportunity to thank the 
subcommittee for their strong support of AIDS programs over the years, 
which has led to rapid advances in the treatment of HIV disease and has 
provided access to this treatment from which many have benefited. We 
are optimistic that if this commitment is sustained that HIV/AIDS 
disease will one day be eradicated.
                     national institutes of health
    We are very supportive of the 5-year commitment made to double 
funding for biomedical research at the National Institutes of Health 
(NIH), which has contributed to, and will continue to contribute to, 
improved understanding and treatment for a number of diseases including 
HIV/AIDS. From this perspective, we recommend a $384 million increase 
in HIV/AIDS research funding through the Office of AIDS Research. This 
funding level will ensure that NIH can adequately implement its fiscal 
year 2003 AIDS research plan. This plan identifies a number of key 
priorities, including prevention research, to reduce HIV transmission 
in the United States and around the world; therapeutic research to 
respond to those already infected; international research priorities; 
and research targeting the disproportionate impact of HIV/AIDS on 
minority populations in the United States. Clearly, it is vital to 
continue our research efforts to identify a safe and effective vaccine. 
We would also like to highlight the value of the research and training 
through NIH that responds to the profound needs in under-resourced 
countries with significant HIV/AIDS epidemics. In particular, the 
Fogarty International Center has made invaluable contributions in 
training clinicians from countries in Africa and Asia where the need 
for clinical care is great and the resources are minimal.
               centers for disease control and prevention
    Until an HIV vaccine becomes available, the key to reducing the 
spread of HIV disease is investing resources in HIV prevention programs 
and epidemiological studies. To reduce the 40,000 new HIV infections 
occurring annually in the United States and the 14,000 new infections 
occurring daily worldwide, we strongly support increasing funding for 
the Centers for Disease Control and Prevention's (CDC) HIV programs by 
$616.2 million. Each of the HIV programs within the CDC's National 
Center for HIV/AIDS, STDs and TB Prevention (NCHSTP) is critical to 
curtailing the spread of HIV disease. Surveillance systems play a 
critical role in identifying trends in new infections in terms of 
geographic location, mode of transmission and other population 
demographics--all factors important to informing the development of 
effective prevention interventions and to accurately targeting 
resources for clinical care and other supportive services. Community-
based prevention programs that target populations at highest risk for 
HIV infection remain a high priority in light of evidence that there 
continue to be 40,000 new HIV infections in the United States each 
year. In addition, it is important that the resources CDC has available 
to fight HIV/AIDS outside of the United States keep pace with resources 
devoted through other avenues such as the Global AIDS Fund. CDC's 
global AIDS program is a vital component of our international response 
to the AIDS pandemic across the world. We support an increase of $143.8 
million for CDC's global AIDS programs.
              health resources and services administration
    The Health Resources and Services Administration (HRSA) administers 
programs that serve a critical role in the healthcare safety nets of 
our communities. HRSA's HIV/AIDS Bureau funds programs to support a 
broad spectrum of services from training for health care providers to 
funding for community health centers. We are particularly concerned 
with funding for the Ryan White CARE Act, which determines whether many 
people with HIV/AIDS receive life-saving prescription drugs and health 
care services. Adequate funding for this program is particularly 
crucial at this time because of severe cutbacks in the services that 
state Medicaid programs are able to provide and the increases in HIV 
infections in low-income communities where many individuals are 
uninsured or underinsured.
    Since 1990, the Ryan White CARE Act has positively affected the 
lives of many people with HIV/AIDS in the United States through annual 
grants to more than 600 community-based programs. These programs 
provide essential funding for primary medical care, dental services, 
prescription drugs, diagnostic tests, mental health and substance abuse 
treatment, as well as enabling social services like case management 
services that help patients attend medical appointments regularly and 
take their medications appropriately. The Ryan White CARE Act also 
funds provider training--a program component that remains essential as 
the standard of care for HIV disease continues to evolve and change.
    Many of our physician members rely on CARE Act funds to provide 
life-saving services to a patient population that is increasingly 
dominated by individuals who are poor, uninsured and unable to benefit 
from treatment advances without public-supported programs. Without Ryan 
White funds, the outpatient clinics where our members treat patients 
with HIV/AIDS are vulnerable to closure, leaving patients with little 
or no access to experienced providers able to offer the complex and 
costly care necessary to keep people with HIV/AIDS healthy and 
functioning. Failure to increase funding for Ryan White programs 
essentially represents a reduction in resources as the number of 
individuals depending on the program grows each year. With this in 
mind, we feel an increase in Ryan White funding is essential to 
maintaining the current level of access to treatment services. 
Specifically, we support an increase in total Ryan White CARE Act funds 
of $303.7 million by:
  --increasing Title I funding available to metropolitan areas 
        disproportionately hit by the epidemic by $43 million
  --increasing the CARE component of Title II by $50 million
  --increasing funding to the AIDS Drug Assistance Programs by $162 
        million (An increase in ADAP is becoming increasingly important 
        as state Medicaid programs continue to cut back on their 
        prescription drug benefits.)
  --increasing Title III primary care funding by $14 million
  --increasing Title IV funding by $19 million
  --increasing Part F funding for the AIDS Education and Training 
        Center by $9.7 million and funding for dental reimbursement by 
        $6 million
    We have come a long way since the advent of AIDS 21 years ago. We 
have learned a great deal about the virus through research, identified 
effective prevention interventions, and have dramatically increased 
life expectancy associated with this disease. We also finally have 
begun to develop and implement a strategy to address the HIV/AIDS 
epidemic in under-resourced countries around the world. With the 
continuing strong support of the Congress for a comprehensive response 
to the AIDS pandemic, we hold the promise of a brighter future for 
those who are infected and those who are at risk of infection in the 
United States and across the world.
                                 ______
                                 
                 Prepared Statement of Illinois NF Inc.
    Thank you for the opportunity to present testimony to the 
Subcommittee on the importance of continued funding for 
Neurofibromatosis (NF), a terrible genetic disorder closely linked to 
cancer, learning disabilities, heart disease, brain tumors, and other 
disorders affecting up to 150 million Americans in this generation 
alone. Thanks in large measure to this Subcommittee's support, 
scientists have made enormous progress since the discovery of the NF1 
gene in 1990. Major advances in just the past year have ushered in an 
exciting era of clinical and translational research in NF with broad 
implications for the general population.
    I am Kim Bischoff, Executive Director of Illinois NF Inc., member 
of a national coalition of NF foundation directors and advocates, and 
mother of an 18-year-old young woman with NF. I have been actively 
involved in creating awareness of NF and promoting scientific research 
in this area since 1986. I appear before you today as an advocate not 
only for my daughter, but also on behalf of the 100,000 Americans who 
suffer from NF and the tens of millions of Americans who have diseases 
related to NF. I also appear before you full of hope and excitement, 
because every day the scientific community is moving us closer to 
treatments and a cure for this terrible disease and its related 
disorders.
                              what is nf?
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and/or death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. It is the most common neurological disorder caused by a 
single gene. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live their lives with the 
uncertainty of not knowing whether they will be seriously affected one 
day because NF is a highly variable and progressive disease.
    Approximately 100,000 Americans have NF, and it appears in 
approximately one in every 3,500 births. It strikes worldwide, without 
regard to gender, race or ethnicity. Approximately 50 percent of new NF 
cases result from a spontaneous mutation in an individual's genes, and 
50 percent are inherited. There are two types of NF--NF1, which is the 
more common of the two, and NF2, which primarily involves acoustic 
neuromas causing deafness and balance problems as well as other types 
of tumors such as schwannomas and meningiomas.
                        link to other illnesses
    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, brain tumors, and other 
disorders. Research on NF therefore stands to benefit 150 million 
Americans:
    Cancer.--Studies have investigated the connection between the ras 
oncogene, which is critical to control growth and development in 
healthy cells (and when mutated contributes to the formation of 
tumors), and the NF1 gene, which produces a protein called 
neurofibromin which acts as a tumor suppressor. Studies have shown that 
ras activity can be inhibited by neurofibromin. Since elevated ras 
activity is involved in 30 percent of all cancer, the inhibition of ras 
by neurofibromin may result in a cure, not only for NF, but for many of 
the most common forms of human cancer.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects 45 million Americans. Researchers believe that further 
understanding how an NF1 deficiency leads to heart disease may help to 
unravel molecular pathways affected in genetic and environmental causes 
of heart disease.
    Learning disabilities.--Learning disabilities are the most common 
neurological complication in children with NF1. Research aimed at 
rescuing learning deficits in children with NF could open the door to 
treatments affecting 35 million Americans and 5 percent of the world's 
population. Indeed, leading researchers have already rescued learning 
deficits in both mice and fruit flies with NF1, which will benefit all 
people with learning disabilities whether or not they have NF.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.
                          scientific advances
    The progress that has been made in NF research has been nothing 
short of phenomenal. In only a dozen years since the discovery of the 
NF1 gene, researchers are now on the threshold of developing a 
treatment and cure for this terrible disease. Scientists who previously 
had been pessimistic are now genuinely excited about engaging in 
therapeutic experimentation and the phase II clinical trials already 
being conducted by NIH. Because of NF's implication with so many other 
diseases, many NF researchers believe that NF should serve as a model 
to study all diseases. Indeed, one leading researcher has stated that 
more is known about NF genetically than any other disease.
    In just the past year alone, scientists have made major 
breakthroughs bringing NF fully into the translational era, with 
treatments close at hand. These recent advances have included:
  --Developing advanced mouse models showing human symptoms;
  --Testing of drug therapies on advanced mouse models;
  --Rescuing learning deficits in mice;
  --Linking NF to hypertension, which affects 45 million Americans, as 
        well as congenital heart disease; and
  --Continuing Phase II clinical trials
    Other advances since 1990 include:
  --The discovery of the NF1 and NF2 genes and gene products.--The NF1 
        gene was discovered in 1990 and the NF2 gene was discovered in 
        1993.
  --Determination and understanding of the functions of the NF1 and NF2 
        genes and gene products, including the discovery of new 
        pathways impacted by the NF genes and gene products.--Most 
        strikingly, researchers have discovered that NF regulates both 
        the c-AMP pathway affecting learning and memory as well as the 
        ras pathway affecting cancer. This discovery, which brought 
        together cancer and neurology through NF's controlling both of 
        these related pathways, holds monumental implications for 
        finding the treatments and cures for many diseases which affect 
        a vast segment of the population.
  --Development of advanced animal models.--Researchers have developed 
        advanced mouse models which exhibit human symptoms, such as 
        malignant tumors, leukemia, and learning disabilities. Such 
        animal models provide a unique method for addressing the 
        fundamental aspects of disease development and for testing 
        therapeutic strategies. NF researchers have also developed the 
        fruit fly as a model animal organism to study not only NF but 
        many other diseases.
  --Commencement of clinical trials at NCI.--As a result of the 
        enormous progress made in NF research, NCI has already 
        commenced two clinical trials with NF1 patients, including a 
        phase II trial involving the use of farnesyl transferase 
        inhibitors in pediatric patients.
  --Development of drug and gene therapies.--Leading NF researchers 
        have been actively engaged in developing both drug and gene 
        therapeutic experimentation in mice and fruit flies. In the 
        case of NF1, these experiments have been directly related to 
        tumor suppression and learning deficits. Researchers also 
        believe that a gene therapy for NF2 can be developed; unlike 
        other genetic forms of deafness, in which a mutation leads to a 
        development or structural abnormality in the ear for which it 
        would be difficult to envisage a treatment in the adult, NF2-
        associated deafness is potentially preventable or curable if 
        tumor growth is halted before damage has been done to the 
        adjacent nerve.
  --Rescuing learning deficits in animal models.--A paper published in 
        the January 30, 2002 edition of Nature demonstrated how 
        researchers were able to rescue learning deficits in mice with 
        the same mutation that causes NF1 in humans disabilities once 
        thought to be irreversible. This discovery has enormous 
        implications for the 35 million Americans suffering from 
        learning disabilities. Studies on fruit flies have also 
        demonstrated that the neurofibromin protein regulates the c-AMP 
        pathway which is known to control learning and memory.
  --Development of Infrastructure.--Researchers, with the help of the 
        government, have been building expanded national and 
        international NF centers, consortia, and other infrastructure 
        for clinical and translational research and treatment.
                           future directions
    NF has fully entered the era of clinical and translational research 
which hold incredible promise for NF patients, as well as for patients 
who suffer from many of the diseases linked to NF. This research is 
costly and will require an increased commitment on the federal level. 
Specifically, future investment in the following areas would continue 
to advance research on NF:
  --Clinical trials;
  --Development of drug and genetic therapies;
  --Further development of advanced animal models;
  --Expansion of biochemical research on the functions of the NF gene 
        and discovery of new targets for drug therapy;
  --Natural history studies and identification of modifier genes 
        studies are already underway to provide a baseline for testing 
        potential therapies and differentiate among different 
        phenotypes of NF; and
  --Development of NF Centers, tissue banks, and patient registries.
                 congressional support for nf research
    The enormous promise of NF research and its potential to benefit 
tens of millions of Americans in this generation alone has gained 
increased recognition from Congress and the NIH. This is evidenced by 
the fact that seven Institutes at NIH are currently supporting NF 
research (NINDS, NCI, NICHD, NCRR, NEI, NIDCD, and NHLBI), and NIH's 
total research portfolio has increased from $3 million in 1990 to $14 
million this year. In May 2000, NINDS sponsored a workshop with NF 
researchers from across the country to define specific priorities in NF 
research. This Subcommittee's report language on NF included in past 
appropriations bills provided an impetus for this workshop which has 
intensified the NF research effort to move us closer to treatments and 
a cure.
    The enormous advances in NF research would not have been possible 
without Congress's continued support of the NIH, and I would like to 
personally thank the members of this Subcommittee for their leadership 
in working towards the goal of doubling the budget of the NIH over 5 
years. We are entering the final year of this effort, and Illinois NF 
Inc. supports the appropriation of $27.3 billion for the NIH in fiscal 
year 2003 to achieve this important goal.
    At the same time, we are concerned that the NF research portfolio 
at NIH has declined in recent years, despite appropriations report 
language recommending a greater investment. Given the potential offered 
by NF research for progress against a range of diseases, we are hopeful 
that completing the doubling of the NIH budget will allow NF research 
funding to resume its upward trend. We appreciate the Subcommittee's 
strong support for NF research dating back to 1990, and will continue 
to work with you to ensure that opportunities for major advances in NF 
research are aggressively pursued.
    This Subcommittee has long recognized that our goal should be to 
translate the promise of scientific discovery into an improved quality 
of life for all Americans. The example of the progress realized in NF 
research demonstrates the success of this vision and commitment.
    Thank you again for the opportunity to tell you of the progress and 
potential of NF research.
                                 ______
                                 
  Prepared Statement of the National Center for Learning Disabilities
    My name is John Gantz and I am the volunteer chairman of the Board 
of Directors of the National Center for Learning Disabilities (NCLD). 
NCLD is a not-for-profit organization founded in 1977 that seeks to 
increase opportunities and improve outcomes for children and adults 
with learning disabilities (LD). As a parent of a child with learning 
disabilities, I am keenly aware of the need for greater access to 
services and increased awareness among parents, early child care 
providers, teachers and other professionals about how early screening 
and educational intervention can lead to greater success for all 
children in school and beyond.
    I am pleased to submit testimony to encourage the committee's 
endorsement of Get Ready to Read!, a national screening program for 
parents of young children and early childhood health, education, and 
child care professionals to promote reading and school success. The 
initiative seeks to ensure that all parents, child care providers, 
teachers, and others have a research-based, easy-to-use screening tool 
to determine whether children aged 4-5 have the skills necessary to 
begin to learn to read and write; provide information, training, and 
support for parents and early childhood professionals to implement 
screening nationwide and engage in effective learning activities; and 
increase public awareness of the early literacy needs of all young 
children.
                               background
    Effective and developmentally appropriate early literacy 
instruction depends on all adults who care for a young child 
understanding where that child is in making progress toward being ready 
to read and write. Parents of young children and early childhood 
professionals need a better understanding of the prerequisite skills 
for reading and other aspects of literacy. They must be able to assess 
children's skills against standard research-based criteria. They also 
need to be able to recognize behaviors that place children at risk for 
reading and other forms of literacy difficulties. In addition, they 
need information and resources to take effective steps to ensure early 
success in learning to read, write, listen, and otherwise communicate 
effectively.
    A variety of assessments are used to measure the reading 
proficiency of America's children by fourth grade. The data show that 
somewhere between 30 and 40 percent of U.S. fourth graders do not know 
how to read at grade level. This is an issue that goes well beyond the 
field of learning disabilities. Early literacy skills, reading 
proficiency, and school success are concerns of all parents and early 
childhood professionals.
    Due in large part to longitudinal studies supported by the National 
Institute of Child Health and Human Development (NICHD) of the National 
Institutes of Health, there is compelling evidence suggesting that 
specific aspects of a young child's physical, cognitive, and social 
behaviors are most predictive of later learning difficulty, 
particularly in the area of early reading and related literacy skills 
(National Reading Panel, 2000). Studies have shown that learning to 
read is a relatively lengthy process that begins very early in 
children's development, well before they start formal schooling 
(Whitehurst & Lonigan, 1998). There is a high correlation between the 
number and quality of early language and literacy interactions and the 
acquisition of linguistic skills necessary for reading (Lyon, 1999).
    Recent research, including a Roper Starch survey released in 2000, 
also indicates that while the recognition of learning problems has 
increased substantially in the last few years, parents continue to wait 
to seek help for their children. Unfortunately, 40 percent of parents 
who suspect their children have learning problems wait a whole year or 
longer before seeking information and help from a teacher, physician or 
other professionals. Most children with learning disabilities and 
related problems are identified in third or fourth grades after they 
have experienced years of frustration and failure. Seventy-five percent 
of children with reading difficulties not identified by age nine will 
still have poor reading skills at the end of high school. Early 
identification and research-based educational intervention dramatically 
increases success in reading and other school subjects.
            need for research-based screening and assessment
    A number of complementary efforts are underway to help the United 
States become a nation of strong readers. In January, the President 
signed the No Child Left Behind Act and in early April the President 
conducted a roundtable with early childhood education experts to 
discuss how to design early childhood development research and to 
integrate scientific research with Head Start and other programs 
focused on preschoolers. Congress has also supported community-based 
literacy programs to improve the ability of children, as well as 
adults, to learn to read throughout our country. While the national 
education goal of having all preschool-age children ready to enter 
school is shared by parents, early childhood professionals and 
policymakers, the use of a research-based screening tool for all 
children in their pre-kindergarten year to determine early literacy 
skill development is not yet the first step in assuring this goal. To 
be effective, such a tool must be based on the results of scientific 
studies that identify and measure the skills young children need to 
become ready to read and write. To date, there has also been no 
coordinated national effort to encourage parents, teachers, child care 
providers, and others to systematically identify preschool-age children 
who show signs of early reading and other literacy difficulties using 
screening tools, and to provide them with related appropriate learning 
and other informational resources. NCLD's Get Ready to Read! initiative 
seeks to address this urgent problem.
                             the initiative
    In 2000, through the leadership of Senator Thad Cochran and 
Representative Anne Northup, and in consultation with NICHD, NCLD 
recruited a team of national early literacy experts to develop the 
screening tool for Get Ready to Read!. The team, under the leadership 
of Grover Whitehurst, Ph.D., who now serves as the Assistant Secretary 
for the Office of Education Research Institute at the U.S. Department 
of Education, and Christopher Lonigan, Ph.D., worked closely with the 
NCLD staff and advisors to develop a 20-item screening tool. This was 
accomplished by identifying potential items for the tool from previous 
longitudinal research. The team assessed these items' predictability of 
later reading achievement in the second grade through secondary 
validation using existing data sets with samples of 4- and 5-year-old 
children from racially diverse, low- and middle-class families. A tool 
was created that is accessible, easy to use, and reliable. A full 
technical report on the tool's development is available.
    The team, with NCLD's staff and other consultants, also has 
identified existing resources and developed new materials for parents 
and early childhood professionals to extend the usefulness of the 
screening program through specific educational activities. The initial 
product is a ``tool kit'' to support screening with orientation, 
instruction, scoring information, and practical follow-up activities.
                           the screening tool
    The 20-item screening tool focuses on the building blocks of 
literacy: linguistic awareness, print knowledge, and emergent writing. 
The tool is derived from the most current research- and practice-based 
knowledge about reliable early predictors of reading and other literacy 
skill success, and early identification of literacy problems in the 
preschool and early elementary grades. It is designed for both print 
and Web dissemination and is prepared in English. A Spanish version 
will be available in 2003. The tool allows for the collection of 
process and outcome evaluative data. It is easily usable by a wide 
audience of parents, child care providers, teachers, and related 
professionals including those who work with children of various 
cultural and socioeconomic backgrounds. Additionally, Get Ready to 
Read! is being widely disseminated through a network of national and 
state organizations, as well as through NCLD and a commercial 
publisher.
    One of the most engaging aspects of this tool is that it is very 
easy to use. Parents, teachers and others can easily determine whether 
children are acquiring the skills they need to be ready to read and 
communicate effectively. The tool leads those most interested in the 
child's future to information and resources that maximize the child's 
development and minimizes his or her frustration and failure.
   disseminating the tool and resources through national partnerships
    Through a national network of 18 national nonprofit partner 
organizations, NCLD is extensively disseminating Get Ready to Read! to 
assure the widespread continuous use of the tool and other resources. 
The target audience includes parents, teachers, child care providers, 
and other professionals. NCLD's intention is to imbed the tool in the 
systematic operations of early childhood service organizations. In 
concert, the partners are assisting NCLD in promoting appropriate use 
of the screening tool for 4-5 year olds, informing the target audience 
about the skills necessary for early literacy, the potential to screen 
for these skills, and the consequences of children not acquiring these 
skills. Through the network of partners, NCLD will distribute up to 
300,000 free print copies of the tool utilizing large membership 
organizations providing direct service to children aged 4-5, and the 
media focused on this audience. NCLD is also conducting a nationwide 
public awareness and marketing campaign.
                      private sector partnerships
    NCLD has a formal relationship with a major multimedia educational 
publisher to disseminate and support Get Ready to Read!. The company 
has assisted NCLD with the design, publishing, and printing of the tool 
and resource materials. NCLD has also established agreements with a 
leading educational Web portal to assure widespread electronic 
dissemination. Through these alliances, NCLD is reaching over 90 
million page viewers per month including 300,000 teachers.
                            federal support
    With federal appropriation dollars and private support, NCLD seeks 
to launch state and local demonstrations to distribute the tool and 
resources extensively in specific geographic areas, and assess their 
effects on parents, early childhood professionals, and communities. At 
the demonstration sites, NCLD will coordinate dissemination of the tool 
to the fullest extent possible through its partner organizations and 
its other contacts.
    The key emphases of the state and demonstrations is showing that 
parents and professionals use the screening tool appropriately and 
accurately interpret information based on the screen; that they have 
positive reactions in terms of increased knowledge and confidence in 
taking needed actions; and that they actually take the necessary next 
steps, including engaging in more literacy-rich activities, obtaining 
more information, and seeking professional services when appropriate.
    Mr. Chairman, by supporting NCLD's Get Ready to Read! program, you 
have the chance to bring our collective investment in research, early 
education, and literacy to the next level, to meet the desired goal of 
school readiness and success. It's an exciting challenge and a 
tremendous opportunity. Together, we can help parents, child care 
providers, teachers, and others vested in our young children's well-
being to have direct access to an easy-to-use screening tool that can 
determine whether a child is acquiring the skills needed to be ready to 
learn to read and write and thus succeed in school. By spending a 
limited amount of time and money early in a child's life, we can help 
prevent spending many times that amount later, as well as extensive 
problems in children's self-esteem and frustration. Let's take action 
with the reliable science available to us and give young children an 
early chance at success in school and in their lives. Thank you for 
your consideration and support.
                                 ______
                                 
       Prepared Statement of the Pancreatic Cancer Action Network
    My name is Paula Kim and I am one of three founding members of the 
Pancreatic Cancer Action Network--fondly known as ``PanCAN.'' I helped 
start this international patient advocacy organization in my home state 
of California after my father died from pancreatic cancer in 1998. It 
took nine active months for him to be diagnosed, and once diagnosed, he 
died within 75 days. This experience left me with many questions, great 
sadness and disappointment, as well as an opportunity to turn this 
experience into action aimed at how this disease can be prevented, 
accurately diagnosed and better treated.
PanCAN's Mission
    My co-founders and I started PanCAN 4 years ago along with a 
handful of enthusiastic volunteers who shared our commitment to 
challenging this disease. PanCAN seeks to focus national attention on 
the need to find the cure for pancreatic cancer. We provide public and 
professional education that embraces the urgent need for more research, 
effective treatments, prevention programs, and early detection methods. 
PanCAN is the first national patient based advocacy organization 
specifically focused on pancreatic cancer. We now have a full time 
staff of seven and thousands of volunteers who comprise our 27 TEAM 
HOPE affiliates all across the country. We even have members from as 
far away as Japan and Australia who have traveled to the United States 
to attend our workshops and learn more about what is being done to 
combat this disease.
Background on Pancreatic Cancer
    Let me begin by telling you a little bit about pancreatic cancer. 
Approximately 30,200 people in the United States will be diagnosed with 
pancreatic cancer this year. Pancreatic cancer's 99 percent mortality 
rate is the highest of any cancer, and the average life expectancy 
after diagnosis with metastatic disease is just three to 6 months. 
Pancreatic cancer is the 4th leading cause of cancer death in the U.S. 
for men and women, and only 4 percent of patients survive beyond 5 
years. Because there is no cure or early detection methods, effective 
treatment options are extremely limited.
    If the outlook were not already bleak, you should also know that 
the Federal government invests less money per fatality in pancreatic 
cancer research than in any other leading cancer. Thus, pancreatic 
cancer--in the words of the National Cancer Institute--is 
``disproportionately underrepresented in both clinical and basic 
research compared with other cancer sites.'' Despite a budget of over 
$4 billion in fiscal year 2002, the NCI--by their estimates--will spend 
only $24.6 million on pancreatic cancer.
    Mr. Chairman, in my work with the pancreatic cancer community and 
talking with loved ones of patients who have died from this disease, I 
have heard countless dreadful stories of patients who pursued their 
symptoms for months or years to finally be diagnosed only to die within 
days, or were told to take over-the-counter medications for indigestion 
that wasn't indigestion--it was pancreatic cancer, or patients who were 
opened up for curative surgery only to be closed up and told to go home 
and get their affairs in order. I have heard from researchers who are 
stifled due to a lack of opportunities, resources, access to critical 
tissue specimens, and increasingly burdensome bureaucratic 
requirements. Unfortunately for all of us, this sad state of affairs 
leaves us with more questions than answers, and more hope than 
progress. I can attest to a few glimmers of hope shared from patients 
who were fortunate to team with highly trained pancreatic cancer 
specialists with proactive attitudes and approaches to dealing with the 
disease. There was the 37-year-old mother of two young boys who 
successfully battled her insurance company to cover her treatments in 
clinical trials only to lose the real battle to the disease at age 40, 
or the 63-year-old man who 6 years ago went to three different 
oncologists who all told him to get his affairs in order, before he 
found a fourth one willing and able to help him in his quest to live. 
These few glimmers are the exception and certainly not the rule as they 
should be.
    Clearly, many steps must be taken to make up for lost time in 
investigating and treating this disease. Pancreatic cancer--the 
deadliest of all cancers--requires stable support, scientific depth and 
diversity to even scratch the surface of need. We must begin with a 
comprehensive plan of action, a critical mass of researchers, maximize 
the valuable resources of the National Institutes of Health (NIH), the 
Centers for Disease Control and Prevention (CDC), other key agencies 
and stakeholders to team up and properly diagnose and treat this 
dreadful disease. PanCAN represents an entire community of survivors 
and loved ones who are counting on you and the scientific world to step 
up to the plate and give this disease and its victims the attention and 
resources that it deserves.
    Here are several areas of urgent concern to the pancreatic cancer 
community:
Pancreatic Cancer Progress Review Group (PRG)
    A few years ago the National Cancer Institute (NCI) established the 
Pancreatic Cancer Progress Review Group or ``PRG.'' As you know, PRGs 
are disease specific groups comprised of leading researchers, 
advocates, experts in cancer charged with identifying and prioritizing 
scientific needs and opportunities to assist the NCI in developing a 
national agenda and strategy for implementation that will expedite 
progress against a specific disease. I was privileged to serve as a 
member of the Pancreatic Cancer PRG and as Co-Chair on the PRG Health 
Services Research Committee. Our Pancreatic Cancer PRG Committee issued 
a report of our recommendations in February 2001. The report notes that 
the NCI is clearly aware that substantial increases in pancreatic 
research must be made to understand, prevent and control this deadly 
disease. The PRG report states ``pancreatic cancer care is complicated, 
requiring a multidisciplinary approach,'' and further notes that 
despite investigators best efforts, ``outcomes are nearly always 
disappointing.'' The Pancreatic Cancer PRG report identified key steps 
to be taken to increase support for this disease. PanCAN wholeheartedly 
endorses the steps outlined by the PRG report, and now it is essential 
that the NCI complete its planned implementation strategy phase of the 
PRG and provide adequate funding and leadership to implement the 
strategy derived from the PRG's recommendations. I would like to bring 
to your attention several specific initiatives that should be 
immediately implemented or expanded in order to expedite research on 
pancreatic cancer.
 increase the number of investigators and specialized research porgram 
                      focused on pancreatic cancer
    The PRG data suggests that there are less than 10 principal 
investigators who have multiple grants or a primary focus on pancreatic 
cancer. The pool of investigators with expertise in pancreatic cancer 
is very small. We must assemble a critical mass of both new and 
established researchers that is deep and diverse in talent and 
expertise. This is the cornerstone and hallmark of significant research 
progress and has been favorably demonstrated in all areas of disease. 
Several factors may contribute to this unnecessary situation. For 
starters, very few researchers are dedicated to pancreatic cancer 
research at any level because beginning and established investigators 
generally focus their careers in cancers that have a plentiful and 
established funding history as well as institutional commitment.
    In addition, low levels of NCI funding have historically resulted 
in low levels of pancreatic cancer research enthusiasm among 
scientists. To rectify this situation, PanCAN urges the NCI to take 
specific steps and develop programs that will provide incentives for 
doctors and Ph.Ds to pursue careers in pancreatic cancer research. 
Pancreatic cancer is a deadly cancer that poses tremendous scientific 
challenges. With more investigators and access to more pancreatic 
cancer patients, the next logical step to combat pancreatic cancer is 
to develop institutional commitment and specialized programs for this 
specific disease. Some immediate suggestions include:
Fund A Minimum of Five Pancreatic Cancer SPORE Grants by Fiscal Year 
        2004
    The NCI has announced that it will fund at least three inaugural 
pancreatic cancer-specific Specialized Program Of Research Excellence 
(SPORE) grants next year, assuming that the applications received 
meritorious scores following peer review. SPORE's were created by the 
NCI in 1992 to bring to clinical care settings novel ideas that have 
the potential to reduce cancer incidence and mortality, improve 
survival, and to improve the quality of life. Laboratory and clinical 
scientists work collaboratively to plan, design and implement research 
programs that impact on cancer prevention, detection, diagnosis, 
treatment and control. Mr. Chairman, since pancreatic cancer patients 
are in such dire need of all of treatments that work, and all these 
programs and services, PanCAN urges the NCI to fund no less than five 
SPORE grant programs by fiscal year 2004, with additional grants in the 
successive funding periods. By immediately establishing five SPORE's 
the NCI will foster and create the institutional commitment and 
individual research focused on pancreatic cancer that helps create the 
critical mass required for research progress.
Continue to Fund Pancreatic Cancer Grants Above the Current Payline
    For fiscal year 2002, the NCI increased the payline for 100 percent 
relevant pancreatic cancer research by 50 percent above the overall 
payline for NCI research grants. (This means that 100 percent relevant 
pancreatic cancer grants will be funded at a payline level that is 50 
percent higher than grants with less than 100 percent or no relevance 
to pancreatic cancer.) This bold initiative implemented by the NCI was 
a clear statement that more research must be undertaken in the area of 
pancreatic cancer. Because pancreatic cancer basic and clinical 
research progress lags significantly, PanCAN urges the NCI to continue 
to fund 100 percent relevant pancreatic cancer grants at a level 50 
percent above the payline for all grant mechanisms in fiscal year 2003.
   develop key resources and infrastructure to better understand and 
    determine how the molecular biology of pancreatic cancer can be 
                     harnessed for therapeutic gain
    Pancreatic cancer is a unique disease that is difficult to study. 
Molecular aspects of normal cell differentiation and development of the 
pancreas are poorly understood. Molecular processes involved in the 
development of benign and malignant pancreatic diseases are known in 
part, although the nature and origin of the precursor cells for 
pancreatic cancer have not been delineated. Developmental biology 
techniques should prove useful for investigating cell lineage 
relationships in various animal models of pancreatic cancer and 
ultimately, in human disease. For example, novel cell labeling 
techniques have been developed for tracing cell lineage (i.e., mapping 
precursor-progeny relationships) in vivo during embryonic development. 
Understanding precursor/progenitor cell biology has greatly aided the 
development of diagnostic and therapeutic tools in leukemias and in 
cancer immunology. It is reasonable to anticipate that this knowledge 
will likewise be valuable for improving pancreatic cancer prevention, 
diagnosis, and treatment.
    Therefore, a high priority of research should be to isolate, 
characterize, and propagate cells that initially differentiate into the 
gland itself.--These cells, or their immediate descendants, are likely 
targets for the various agents that cause pancreatic cancer and may be 
potential targets for chemoprevention. A number of inherited and 
acquired tumor-associated gene alterations present in pancreatic cancer 
have been identified, but significant gaps exist in our understanding 
of how these alterations occur in pancreatic cancer development, affect 
the interaction of signaling proteins in the course of the cancer, and 
influence molecular interactions between tumor and host. It remains a 
challenge to better understand and determine how the molecular biology 
of pancreatic cancer can be harnessed for therapeutic gain.
develop better methods to contact and track pancreatic cancer patients 
                           to develop optimal
    As I have already noted, most pancreatic cancer patients usually 
die quickly--within 3 to 6 months of being diagnosed and some very 
quickly. I recently learned that traditional National Cancer Institute 
research protocols compile a database of patients over several years 
for large studies. This is a problem with pancreatic cancer patients, 
as 99 percent of the patients are no longer alive to provide 
information to the researchers attempting to identify environmental and 
genetic factors, and gene-environment interactions that may have 
contributed to the development of the disease. For this reason, PanCAN 
urges that new ``ultra-rapid methods'' for case ascertainment must be 
developed, tested and implemented so that pancreatic cancer patients 
can be contacted very quickly after their diagnosis. Such methods may 
include immediate electronic reporting from pathology, radiology, and 
laboratory medicine departments, which would provide information on new 
patients in a timely manner.
    increase awareness and educational programs on pancreatic cancer
    There is a great lack of information on pancreatic cancer and its 
symptoms among both medical professionals and the public. Until actual 
screening tests are developed for this disease, awareness programs must 
be developed to educate people about risk factors, symptoms and symptom 
management for pancreatic cancer. PanCAN urges the CDC and the NCI to 
identify and coordinate the public health role in combating pancreatic 
cancer, so that the agencies can provide the public with adequate 
information on understanding the known risk factors, talking to one's 
doctor about this disease, selecting appropriate symptom and pain 
management for pancreatic cancer, and obtaining quality end of life 
care for those with advanced stage terminal disease.
    Mr. Chairman, the Federal research enterprise in the United States 
has made significant advances in combating many devastating diseases 
over the years. Unfortunately, pancreatic cancer has not been one of 
these victories. With your support, we can increase the Federal 
resources dedicated to improving diagnosis and treatment of this 
disease. Our goal is to make inroads against this disease so that in 
the near future the diagnosis of pancreatic cancer will no longer be a 
virtual death sentence for the 30,200 individuals who will be afflicted 
with this disease this year. The rate of incidence is increasing and is 
an alarming fact. Let's replace helplessness with hope.
    Our motto at PanCAN is ``Together, we can make a difference.'' Mr. 
Chairman, working with you and your colleagues, along with the NIH, CDC 
and the scientific community, I know that WE CAN and WILL make a 
difference in the lives of pancreatic patients and their loved ones.
    Thank you for this opportunity to submit testimony on behalf of 
PanCAN.
                                 ______
                                 
    Prepared Statement of the American Society of Clinical Oncology
    The American Society of Clinical Oncology (ASCO) represents more 
than 18,000 physicians and other health care providers involved in 
cancer treatment and research worldwide. Among our highest policy 
priorities is adequate federal funding for biomedical research 
generally and for research specifically into the prevention, diagnosis 
and treatment of cancer. Therefore, ASCO welcomes the opportunity to 
comment on fiscal year 2003 appropriations for the National Institutes 
of Health (NIH) and the National Cancer Institute (NCI).
    At the outset, we commend the Congress as well as the Bush 
Administration for continued commitment to the 5-year plan to double 
the NIH budget. This bipartisan effort represents a model of good 
government dedicated to advancing human health. We are pleased that the 
Administration's fiscal year 2003 budget remains on track to achieve 
the doubling goal and that there appears to be bipartisan support in 
both Houses of Congress.
    In addition, we recommend that funding for NCI be enhanced in 
accordance with the Institute's plan and budget proposal for fiscal 
year 2003 (the ``Bypass Budget''). As directed by Congress in the 
National Cancer Act of 1971, each year the NCI delivers a ``bypass'' 
budget directly to the President. This process was implemented to 
ensure that the President and Congress directly receive NCI's 
scientific recommendations on the best way to appropriate funds to 
build on research successes, support the cancer research workforce, and 
ensure that recent discoveries are translated into improved patient 
care. For fiscal year 2003, the NCI recommends funding of $5.69 
billion, an increase of $1.4 billion over the fiscal year 2002 
appropriation. Funding NCI at this level will allow the Institute to 
fund promising and innovative investigator-initiated research proposals 
and facilitate research that capitalizes on important advances in 
molecular biology. ASCO believes the bypass budget includes a 
persuasive rationale for boosting the NCI budget to $5.69 billion, and 
we urge the Subcommittee to begin the new millennium by implementing 
this carefully considered budget proposal.
    Every 3 years, NCI seeks from the extramural research community 
recommendations for unique funding opportunities in cancer research. 
Once identified, NCI develops specific objectives and plans for each of 
these ``extraordinary opportunities for investment,'' and incorporates 
them in its annual budget planning document. In October 2001, ASCO 
submitted its recommendation that symptom control and palliative care 
research designate as such a research opportunity for a new 3-year 
cycle beginning in 2004. As noted recently by the Institute of Medicine 
report Improving Palliative Care for Cancer, at least half of patients 
dying with cancer experience a spectrum of symptoms that go untreated--
or under-treated--and greatly reduce the quality of their remaining 
days. Symptom control and palliative care research is a broad-based 
frontier of inquiry that holds tremendous potential to reduce the 
burden of cancer for patients and their families. ASCO recommends that 
this area receive heightened focus from the cancer research community, 
particularly NCI.
    While the overall levels of proposed fiscal year 2003 funding for 
biomedical research are highly commendable, we believe there remain 
certain imbalances in the distribution of funding that may inhibit 
rapid diffusion of new technologies into treatment settings for the 
benefit of patients. Discoveries through basic science about how cancer 
develops provide many intriguing targets for translational and clinical 
research. Yet these activities remain underfunded. If we lack the 
ability to translate basic science discoveries into clinical 
applications, then our investment in biomedical research will remain 
unrewarded in terms of patient benefit.
    The status of clinical trials provides a good example. Recognizing 
that the participation rate for cancer clinical trials has remained 
unacceptably low, the cancer community has undertaken a number of 
initiatives to address the shortfall. Communication and public 
education strategies have been implemented, and, in a signal victory, 
patient advocates working together with clinical researchers have 
convinced the Medicare program to cover routine patient care costs for 
beneficiaries enrolled in clinical trials. Overall, participation has 
improved somewhat, but one important rate-limiting step remains the 
significant underpayment to physicians for enrolling patients in 
trials.
    In 1998 ASCO initiated studies designed to determine the activities 
and corresponding costs associated with conducting a well-designed and 
-executed clinical trial. The ASCO studies found that the average per-
patient cost to enroll in a clinical trial is $2,000. Yet the NCI 
reimburses at a rate of $1,500 per patient. Participation in clinical 
research requires substantial infrastructure investment, including 
hiring trained research nurses and data managers and purchasing 
computer equipment. Without adequate payment for the very real costs of 
managing clinical trials, physicians will not be able to offer clinical 
trials as an option for their patients. As a result, not only will 
individual patients' treatment options be limited, but progress against 
the disease will be restrained.
    Aside from adequate funding of ongoing clinical trials, we also 
believe that NCI should be encouraged to devote more resources to 
translational research activities through which the many genetic and 
molecular targets identified by basic science could be developed into 
concrete therapies that could then be tested in clinical trials. There 
is a very strong sense among practicing oncologists and clinical cancer 
researchers that basic science has offered a myriad of such targets, 
and now it may be time to reassess the balance of research funding 
among basic, translational and clinical research.
    Therefore, as the Appropriations Committee deliberates the 
specifics of funding for NCI, we urge that the Committee and the 
Congress consider whether there should be a change in the historical 
focus of the Institute, moving the emphasis toward development and 
implementation of new therapies that utilize the basic science research 
discoveries of the past few decades.
    ASCO appreciates the opportunity to submit its views on NIH funding 
and clinical research. On behalf of oncologists and their patients, we 
urge Congress to continue its strong support of NIH. We also recommend 
that special attention be paid to the clinical research enterprise to 
ensure that basic research findings are promptly brought to the patient 
bedside.
                                 ______
                                 
   Prepared Statement of the National Coalition for Heart and Stroke 
                                Research
    My name is Jack Owen Wood. I solicit your support for more 
aggressive federal funding for research into prevention and treatment 
of the sister diseases, stroke and heart disease. Strokes and heart 
attacks are occurring at an alarming rate.
    I am representing the National Coalition for Heart and Stroke 
Research. The coalition consists of 14 national organizations 
representing more than 5 million volunteers and members united in 
support for increased funding for heart and stroke research. Members of 
the Coalition include:
    American Academy of Neurology; American Academy of Physical 
Medicine and Rehabilitation; American Association of Neurological 
Surgeons; American College of Cardiology American Heart Association; 
Americans for Medical Progress; Congress of Neurological Surgeons; 
American Neurological Association; Association of Black Cardiologists; 
Citizens for Public Action on Blood Pressure and Cholesterol, Inc.; 
Mended Hearts, Inc.; North American Society of Pacing and 
Electrophysiology; Stroke Connection, Inc.; and National Stroke 
Association.
    I will deal primarily with one man's personal experience with 
stroke and its functional and financial costs--my own. I have only the 
use of my right arm.
    I was born in 1937, raised in Vicksburg, Mississippi, earned an 
engineering degree at Mississippi State University and currently reside 
in Port Orchard, Washington. I worked for the Boeing Company in 
Seattle, am a former Director of the Washington State Energy Office, 
served as Director of Cost and Revenue Analysis and as the Forcasting 
Manager for a major Northwest Area Natural Gas Utility until May 1, 
1995.
    On May 1, 1995, at the age of 57, I was stricken and severely 
disabled by my stroke. Two years later I experienced a triple bypass 
heart operation. You might say I've ``been there and done that'' for 
both major cardiovascular diseases. So you see, I am an expert.
    Several years ago I was offered an exciting and rewarding volunteer 
opportunity. I was asked to lead the ``JACK WOOD STROKE VICTOR TOUR'' 
for the American Heart Association.
    The JACK WOOD STROKE VICTOR TOUR was a 5-state lobbying tour. 
Through it I tried to meet personally with every Northwest 
Congressional representative on his or her home turf (in Alaska, Idaho, 
Montana, Oregon and Washington). In each meeting I was joined by local 
people, stroke survivors and their families and medical professionals. 
I told my story and asked them to join the Congressional Heart and 
Stroke Coalition and to support increased federal heart and stroke 
research funding.
    I am proud to say I traveled to 18 communities and met personally 
with 28 members of our delegation or their staff. Nearly half of our 
congressional delegation is now members of the Congressional Heart and 
Stroke Coalition.
    One of the most powerful memories for me was the frequency in which 
Members of Congress or staff members related their personal experience 
with stroke. One member I spoke to lost both parents to stroke. I 
suspect many of you have stories too.
    I realize your interest is greater than the physical impact of my 
stroke. Your concern must include the financial impact, not only to me, 
but also on our country from increased health care costs and lost 
productivity and its many implications.
    I have confronted the difficult and painful task of calculating 
that cost to me. Besides being a man whose stroke took his ability to 
pick up and play with his grandchildren, his livelihood, and marriage, 
I remain a statistician at heart. I couldn't resist calculating and 
telling that part of my story. But please remember my story is not 
dissimilar to that of many of the 4.6 million stroke survivors in the 
United States. Many of whom were stricken in their prime earning years. 
Who in a matter of moments, seemingly without warning, are transformed 
from a contributor and provider to a receiver and patient.
    Allow me to highlight three figures that I feel sum up my data and 
should be important to you. I estimate that my stroke at age 57:
  --Reduced my earnings before retirement age 65 by over $600,000.
  --Subsequently, the cost to the federal government in lost income and 
        other taxes, early Medicare payments and Social Security 
        disability payments is over $320,000.
  --My HMO spent approximately $150,000 to respond to and treat my 
        stroke.
  --One man, over $1 million.
    About 600,000 Americans will suffer a stroke this year costing this 
nation an estimated $50 billion in medical expenses and lost 
productivity.
    Earlier I described a stroke as occurring seemingly without 
warning. All too often as in my case, people either don't know or 
ignore the signs of a stroke, even one in progress. When my stroke hit 
I denied it. It took me two days after my stroke to acknowledge it and 
seek help. Because of research into new treatments, we now have tPA, a 
clot-busting drug, which if administered within 3 hours of the onset of 
stroke symptoms, can dramatically reduce the damage of clot-based 
strokes. Had I recognized and acknowledged my stroke, gone to a 
hospital with a neurologist on staff and had there been tPA, the impact 
of my stroke most certainly would have been lessened.
    What is even more painful to me is that my impending stroke could 
have been detected. Unfortunately, we need to create easier and less 
expensive diagnostic techniques so that effective diagnostics can be 
given routinely as part of regular health exams. And they must be 
covered through insurance.
    I am not asking for your sympathy. Instead, please think of me as 
two of the ghosts in the famous Dickens' story. Please don't 
misunderstand, I'm not casting you as Scrooge. See me as both the 
ghosts of things past and things yet to be. I too am here to tell you, 
the future, which I represent, needs not be. It is largely up to you.
    I hope my story and estimate of the cost of my stroke convinces you 
that taking on stroke and heart disease through increased research, 
leading to better prevention, diagnosis and treatment is fiscally 
responsible. The human and financial costs are astronomical.
    Thank you for your past support of research and recent decision to 
eliminate (at least for now) restrictions on reimbursement for 
rehabilitation services, essential to those who have experienced a 
stroke. Please continue and broaden that support.
                                 ______
                                 
     Prepared Statement of the Digestive Disease National Coalition
              summary of fiscal year 2003 recommendations
  --A 16 percent increase for the National Institutes of Health as well 
        as a 16 percent increase for all institutes and centers, 
        specifically the National Institute of Diabetes and Digestive 
        and Kidney Diseases and the National Institute of Allergy and 
        Infectious Diseases.
  --Increased focus on Digestive Disease Research and Education at NIH, 
        including: Inflammatory bowel disease, endoscopic research, 
        irritable bowel syndrome, hepatitis, pancreatic cancer, 
        colorectal cancer, celiac disease, gluten intolerance, and 
        hemochromatosis.
  --$20 million for the Centers for Disease Control and Prevention's 
        National Colorectal Cancer Screening Awareness Program.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Dr. Maurice Cerulli, a 
practicing gastroenterologist and Chief of Gastroenterology at The 
Brooklyn Hospital Center and president of the Digestive Disease 
National Coalition (DDNC). Founded in 1978, the DDNC is a voluntary 
organization comprised of 28 professional and patient organizations 
concerned with the many diseases of the digestive tract. The Coalition 
has as its goal a desire to improve the health of the millions of 
Americans suffering from both acute and chronic digestive disorders.
    Mr. Chairman, the social and economic impact of digestive disease 
is enormous. Digestive disorders afflict approximately 62 million 
Americans, resulting in 50 million visits to physicians, 10 million 
hospitalization, 230 million days of restricted activity, and nearly 
200 deaths annually. The total cost associated with digestive diseases 
has been conservatively estimated at $60 billion a year.
    On behalf of the DDNC, I would like to thank the subcommittee for 
its past support of digestive disease research and prevention programs 
at the National Institutes of Health (NIH) and the Centers for Disease 
Control and Prevention (CDC). With respect to the coming fiscal year, 
the DDNC joins the Ad Hoc Group for Medical Research Funding in 
recommending a 16 percent increase for the National Institute of 
Diabetes and Digestive and Kidney Disease (NIDDK), the National 
Institute of Allergy and Infectious Diseases (NIAID) and the NIH 
overall.
                       inflammatory bowel disease
    Up to one million people in the United States suffer from Crohn's 
disease and ulcerative colitis, collectively known as inflammatory 
bowel disease (IBD). These are serious diseases that affect the 
gastrointestinal tract causing bleeding, diarrhea, abdominal pain and 
fever. Complications of IBD can include anemia, ulcers of the skin, eye 
disease, colon cancer, liver disease, arthritis, and osteoporosis. 
Crohn's disease and ulcerative colitis are not usually fatal, but they 
can be devastating. We do not know the cause, and we have no cure.
    In recent years we have made significant progress in the fight 
against IBD. In 1998, the FDA approved the first drug ever specifically 
for Crohn's disease. The DDNC encourages the subcommittee to continue 
its support of IBD research at NIDDK and NIAID at a level commensurate 
with the overall increase for each institute.
    Given the recent advancements in treatment for these diseases and 
the increased risk that IBD patients have for developing colorectal 
cancer, the DDNC believes that generating improved epidemiological 
information on the IBD population is essential if we are to provide 
patients with the best possible care. Therefore, the DDNC, and its 
member organization the Crohn's and Colitis Foundation of America, 
encourage the CDC to initiate a nationwide IBD surveillance and 
epidemiological program in fiscal year 2003.
                          endoscopic research
    There continues to be tremendous potential for the development of 
new diagnostic and therapeutic procedures for gastrointestinal 
disorders. Without surgery, using endoscopes, we can find bleeding 
ulcers and stop the bleeding; we can take out stones that are blocking 
the bile duct; and we can cut out colon polyps to prevent colorectal 
cancer. The Clinical Outcomes Research Initiative (CORI) program is 
allowing us to link more than 50 centers around the country to assess 
the outcomes of endoscopic therapies. The gastroenterology community 
looks forward to working with the NIDDK to expand its endoscopic 
research program and we encourage the subcommittee to support this 
important effort.
                hepatitis c: a looming threat to health
    It is estimated that there are over 4 million Americans who have 
been infected with hepatitis C of which over 2.7 million remain 
chronically infected. About 10,000 die each year and the Centers for 
Disease Control and Prevention (CDC) estimates that the death rate will 
triple by 2010 unless there is additional research, education and more 
effective treatments and public health interventions. Moreover, liver 
failure from HCV now accounts for more than half of all the liver 
transplants performed in the United States and is the leading cause of 
liver cancer. Unfortunately, the majority of infected individuals are 
unaware that they have contracted the disease.
    The DDNC joins with the liver disease community in recommending an 
increase of $66 million in fiscal year 2003 for CDC's Hepatitis C 
Prevention Strategy program. This new funding will expand the number of 
states with CDC sponsored hepatitis C prevention coordinators from 16 
to 50. In addition, we recommend an appropriation of $40 million for 
CDC's Prevention Research Centers program.
                           pancreatic cancer
    In 2001, an estimated 28,300 in the United States were found to 
have pancreatic cancer and approximately 28,200 died from the disease. 
Pancreatic cancer is the fourth leading cause of cancer death in men 
and women. Only 2 out of 10 patients will live 1 year after the cancer 
is found and only a very few will survive 5 years. Although we do not 
know exactly what causes pancreatic cancer, several risk factors linked 
to the disease have been identified:
    (1) Age.--Most people are over 60 years old when the cancer is 
found;
    (2) Sex.--Men have pancreatic cancer more often than women;
    (3) Race.--African Americans are more likely to develop pancreatic 
cancer than are white or Asian Americans;
    (4) Smoking;
    (5) Diet.--Increased red meat and fats; and
    (6) Diabetes.
    The National Cancer Institute has established a Pancreatic Cancer 
Progress Review Group charged with developing a detailed research 
agenda for the disease. The DDNC encourages the subcommittee to provide 
an increase for pancreatic cancer research at a level commensurate with 
the overall percentage increase for NCI.
                      colorectal cancer prevention
    Colorectal cancer is the third most commonly diagnosed cancer for 
both men and women in the United States and the second leading cause of 
cancer-related deaths. Colorectal cancer affects men and women equally. 
Although colorectal cancer is preventable and curable when polyps are 
detected early, a General Accounting Office report issued in March 2000 
documented that less than 10 percent of Medicare beneficiaries have 
been screened for colorectal cancer. This report revealed a tremendous 
need to inform the public about the availability and advisability of 
screening and educate health care providers about colorectal cancer 
screening guidelines.
    CDC's National Colorectal Cancer Screening Awareness Program is 
addressing these needs by partnering with organizations like the DDNC 
and its coalition partners (AGA, ASGE, ACG, UOA) to develop an advocacy 
agenda emphasizing the value of early detection. The digestive disease 
community hopes that this program will do for colorectal cancer 
screening rates what the CDC's Breast and Cervical Cancer Screening 
Program has done for mammography and Pap smear screening compliance.
    The DDNC has seen first-hand the ambitious agenda that the CDC and 
its partners have developed to reduce the incidence of colorectal 
cancer. We are convinced that we can make a significant impact on 
screening rates across the country if given adequate resources. 
Therefore, the Coalition encourages the subcommittee to provide CDC 
with $20 million for this important program.
                     irritable bowel syndrome (ibs)
    IBS a disorder that affects an estimated 35 million Americans. The 
medical community has been slow in recognizing IBS as a legitimate 
disease and the burden of illness associated with it. Patients often 
see several doctors before they are given an accurate diagnosis.
    Once a diagnosis of IBS is made, medical management is limited 
because the medical community still does not understand the 
pathophysiology of the underlying conditions. Living with IBS is a 
challenge, patients face a life of learning to manage chronic illness 
that is accompanied by pain and unrelenting gastrointestinal symptoms. 
Trying to learn how to manage the symptoms is not easy.
    There is a loss of spontaneity when symptoms may intrude at any 
time. Plans made often need to be changed. IBS is unpredictable. One 
can wake up in the morning feeling fine and within a short time 
encounter abdominal cramping to the point of being doubled over in pain 
and unable to function.
    The unpredictable bowel symptoms may make it next to impossible to 
leave home. It is difficult to ease pain that may repeatedly occur 
periodically throughout the day. One becomes reluctant to eat for fear 
that just eating a meal will trigger symptoms all over again. IBS has a 
broad and significant impact on a person's quality of life. It strikes 
individuals from all walks of life and results in a significant toll of 
human suffering and disability.
    While there is much we don't understand about the causes and 
treatment of IBS, we do know that IBS is a chronic complex of symptoms 
affecting as many as one in five adults. In addition;
    (1) It is reported more by women than men.
    (2) It is the most common gastrointestinal diagnosis among 
gastroenterology practices in the United States.
    (3) It is a leading cause of worker absenteeism in the United 
States.
    (4) It costs the U.S. health care system an estimated $8 billion 
annually.
    Mr. Chairman, much more can still be done to address the needs of 
the nearly 35 million Americans suffering from irritable bowel syndrome 
and other functional gastrointestinal disorders. We understand the 
challenging budgetary constraints that this subcommittee is operating 
under, yet we hope you will carefully consider the tremendous benefits 
to be gained by supporting a strong research and education program for 
irritable bowel syndrome at NIH and CDC.
    Mr. Chairman, on behalf of the millions of digestive disease 
sufferers, we appreciate your consideration of the views of the 
Digestive Disease National Coalition. We look forward to working with 
you and your staff.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association
                              introduction
    Thank you for the opportunity to submit written testimony regarding 
fiscal year 2002 appropriations for the National Institutes of Health 
(NIH), the Centers for Disease Control (CDC), and for the Health 
Resources and Services Agency (HRSA).
    I am Linda Carr, president of the Pulmonary Hypertension 
Association (PHA). I became active within PHA when my daughter was 
diagnosed with primary pulmonary hypertension. Pulmonary hypertension 
is a rare disorder of the lung, in which the pressure in the pulmonary 
arteries (the blood vessels in the lungs) rises above normal levels and 
may become life threatening. Symptoms of pulmonary hypertension include 
shortness of breath with minimal exertion, fatigue, chest pain, dizzy 
spells and fainting. When pulmonary hypertension occurs in the absence 
of a known cause, it is referred to as primary pulmonary hypertension 
(PPH). This term should not be construed to mean that because it has a 
single name it is a single disease. There are likely many unknown 
causes of PPH.
    Secondary pulmonary hypertension (SPH) means the cause is known. 
Common causes of SPH are the breathing disorders emphysema and 
bronchitis. Other less frequent causes are the inflammatory or collagen 
vascular diseases such as scleroderma, CREST syndrome or systemic lupus 
erythematosus (SLE). Congenital heart diseases that cause shunting of 
extra blood through the lungs like ventricular and atrial septal 
defects, chronic pulmonary thromboembolism (old blood clots in the 
pulmonary artery), HIV infection, liver disease, and diet drugs like 
fenfluramine and dexfenfluramine are also causes of pulmonary 
hypertension.
    Pulmonary hypertension is frequently misdiagnosed and has often 
progressed to late stage by the time it is accurately diagnosed. 
Pulmonary hypertension has been historically chronic and incurable with 
a poor survival rate. However, new treatments are available which have 
significantly improved prognosis. Recent data indicate that the length 
of survival is continuing to improve, with some patients able to manage 
the disorder for 15 to 20 years or longer.
    Ten years ago, when three patients who were searching to end their 
own isolation founded this organization, there were less than 50 
diagnosed cases of this disease. It was virtually unknown among the 
general population and not well known in the medical community. They 
soon realized that this was not enough and as membership began to 
grow--driven by a newsletter distributed by doctors--and a community 
began to form, an 800 number support line was launched, support groups 
were established, a Scientific Advisory Board (SAB) was formed, a 
Patient's Guide to Pulmonary Hypertension was written, and a web site 
was launched.
    Today, PHA includes:
  --Over 3,600 patients, family members, and medical professional
  --An international network of over 50 support groups
  --An active and growing patient hotline
  --A new and fast-growing research fund (A cooperative agreement has 
        been signed with the National Heart, Lung, and Blood Institute 
        to jointly create and fund, 5-year, mentored clinical research 
        grants and PHA awarded it's first four Young Researcher 
        Grants.)
  --A host of numerous electronic and print publications
                key recommendations for fiscal year 2003
Centers for Disease Control and Prevention
    PHA applauds the subcommittee for its leadership in encouraging CDC 
to initiate a professional and public PH awareness campaign. Currently, 
we are working with officials from the CDC to establish this important 
program that will better inform health care professionals and the 
general public about PH, its symptoms, and treatment options. The 
following is a description of the specific initiatives we hope to 
launch in collaboration with CDC.
    (1) Increasing awareness and understanding of PH among primary care 
physicians is critically important, because these practitioners are 
usually the first point of contact for PH patients. If the primary care 
doctor misses the symptoms, then the chance for early diagnosis depends 
upon the intuition and persistence of the patient. They have a chance, 
if they aggressively pursue diagnosis by trained and aware specialists. 
If they are not aggressive, or if they are in a health plan that 
requires their general practitioner to prescribe the referral, they are 
more likely to go undiagnosed until it is too late to control their 
illness. To increases awareness we propose to launch:
  --Written and video diagnostic tools for placement on the Internet.
  --A postcard mailing to be sent to all primary care physicians, 
        medical schools and medical centers in the United States 
        drawing attention to the new web resources.
  --A simplified and visually attractive version of the proper 
        diagnostic procedures, which will be sent in a second mailing 
        to all primary care physicians, medical schools, and medical 
        centers in the United States.
  --Advertising in publications general practitioners are likely to 
        read. The emphasis will be the urgency and ease of early 
        diagnosis and the ease of accessing diagnostic tools via the 
        Internet.
  --A CD-ROM that explains pulmonary hypertension from a variety of 
        angles. We would like to make 100,000 of these available to the 
        medical community and patients through our web site on an as 
        requested basis and at conferences and through targeted 
        mailings.
    (2) Due to the advancements in treatment for PH, it is important 
that we also focus on educating cardiologists and pulmonologists. Our 
strategies for reaching cardiovascular specialists include:
  --Publication of the first Pulmonary Hypertension Journal focused on 
        educating a wider population of doctors on issues related to 
        the diagnosis and treatment of the illness.
  --Placement of additional detailed information on the illness on the 
        web. The PH Journal and other publications will promote this 
        availability.
  --Expansion of PHA's international conference on pulmonary 
        hypertension (the largest PH conference in the world).
  --Expansion of PHA's Pulmonary Hypertension Resource Network. This 
        program is focused on increasing awareness of PH among nurses 
        through peer education.
    (3) Finally, PHA is committed to increasing PH awareness among the 
general public through the development of the following initiatives:
  --A series of 10, 15, and 30 second public service announcements on 
        PH. These PSAs will be in both audio and video form.
  --A PH media relations manual.
  --An organ donation Awareness Campaign (unfortunately, many PH 
        patients die before finding a suitable organ donor).
  --Expansion of PHA's web site.
    We look forward to working with CDC to implement these and other 
initiatives aimed at increasing awareness of PH in the United States 
and throughout the world. For fiscal year 2003, we encourage the 
subcommittee to continue to support the mission of the CDC with an 
overall appropriation of $5 billion (an increase of $800 million over 
fiscal year 2002). Moreover, we urge you to continue support of the PH 
public and professional awareness initiative within CDC's 
Cardiovascular Disease program (a division of CDC's Chronic Disease 
Prevention program).
National Heart, Lung and Blood Institute
    Mr. Chairman, PHA commends the leadership of the National Heart, 
Lung and Blood Institute (NHLBI) for its support of PH research. Two 
years ago, two separate groups of scientists funded by NHLBI 
simultaneously identified a genetic mutation associated with primary 
pulmonary hypertension.
    The two groups independently reported that defects in the BMPR2 
gene, which regulates growth and development of the lung, are 
associated with PPH. The defects in the gene lead to the abnormal 
proliferation of cells in the lung characteristic on PPH.
    Although both studies suggest that only one gene is involved in 
PPH, neither group identified the defects in BMPR2 as the sole cause of 
PPH. In addition, since many people without a known family history of 
PPH get the disease, both groups suggested that other factors may 
interfere with control of the tissue growth. Now that we have 
pinpointed a gene, we can focus on learning how it works. Hopefully, 
that information will enable researchers to devise better treatments 
and perhaps eventually a preventive therapy or cure.
    Mr. Chairman, PHA would like to thank you and the subcommittee for 
your leadership in support of funding for the National Institutes of 
Health. Moreover, we would like to thank the subcommittee for the 
inclusion of committee recommendations on PH research at NHLBI in the 
fiscal year 2003 Senate L-HHS report. For fiscal year 2003, PHA joins 
with the Ad Hoc Group for Medical Research Funding in supporting a 16 
percent increase for NHLBI. Finally, we request that the subcommittee 
provide $25 million in fiscal year 2003 for PH research at the 
institute to enhance basic research, gene therapy and clinical trials 
of promising new therapies.
Gift of Life Donation Initiative at HRSA
    Mr. Chairman, PHA commends the leadership of Secretary Thompson on 
the success of his promise the, ``Gift of Life Donation Initiative.'' 
Currently, there are many drugs that PH patients can choose from to 
help alleviate the effects of PH; however, these drugs are often used 
until a patient can no longer wait for a heart or more often, a lung 
transplant. Immediately following diagnosis, many PH patients sign on 
to a transplant waiting list and continue to take their medication. 
Unfortunately, for many it is too late, and pass away before they can 
receive their much needed transplants. This why PHA has started 
Bonnie's Gift.
    Bonnie's Gift was started in memory of Bonnie Dukart, one of the 
three founding members of PHA, and a PH patient herself. Bonnie battled 
with PH for almost 20 years until her death in 2001 following a double 
lung transplant. Prior to her untimely death, Bonnie expressed an 
interest in the development of a program within PHA related to 
transplant information and awareness. PHA will use Bonnie's Gift as a 
way to disseminate information about PH, the importance of early 
listing, the importance of organ donation to our community and organ 
donation cards.
    Consequently, PHA applauds the administration for its ``Gift of 
Life Donation Initiative,'' which is designed to increase organ 
donation rates throughout the country. We look forward to working with 
the ``Gift of Life Donation Initiative'' to increase awareness of the 
importance of organ donation among the PH community, the medical 
community and the public. Mr. Chairman, PHA supports the president's 
fiscal year 2003 budget proposal of $25 million for HRSA's ``Gift of 
Life Donation Initiative.''
                               conclusion
    Mr. Chairman, once again thank you for the opportunity to present 
the views of the Pulmonary Hypertension Association. We look forward to 
continuing to work with you and the subcommittee to improve the loves 
of pulmonary hypertension patients. If you have any questions or would 
like additional information, please do not hesitate to contact me or 
the PHA National Office in Silver Spring, Maryland (301) 565-3004.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research
    The mission of the American Association for Cancer Research (AACR), 
the world's oldest and largest professional society of basic, 
translational, and clinical cancer researchers, is to accelerate the 
prevention and cure of cancer through research, education, 
communication, and advocacy. With over 18,000 members worldwide the 
AACR is the authoritative voice for the overall continuum of cancer 
research from laboratory discoveries through the development of new 
medicines and technologies to prevent, detect, and treat cancer.
    Cancer is the disease that Americans fear most, and their fears are 
understandable. As we look forward into this new century, at current 
rates, it is projected that one-half of men and one-third of women in 
America today will be diagnosed with cancer in their lifetime, and 25 
percent of our population will die from cancer. Since 1990, there have 
been 12 million new cases of cancer diagnosed, and 5 million Americans 
have died from their disease. Since cancer rates are approximately 2.2 
per 100,000 in people under 65 vs. 22.2 per 100,000 in those over 65 
years of age, we can expect the cancer epidemic to increase 
significantly in the next 10-20 years due to the aging of the ``baby 
boomers'' and the changing demographics of America. In addition, at 
current rates, we also expect cancer incidence and mortality to 
increase in those groups which suffer a disproportionate burden of 
cancer--namely, the poor, medically underserved, and minority 
populations. Cancer cost our nation over $156 billion in 2001 and 
unless we move quickly to impact both incidence and mortality from 
cancer, these costs could more than double on an annual basis by 2010.
    These sobering statistics both drive and inspire the members of the 
AACR to achieve the organization's mission to prevent and cure cancer 
with a real sense of urgency, and have prompted the Administration and 
Congress to make the elimination of cancer one of our highest national 
healthcare priorities. On behalf of all of the members of the AACR, we 
offer our sincere appreciation for your active support for funding the 
4th year of the 5-year strategy to double the budget for the National 
Institutes of Health (NIH), and specifically thank you for the 2002 
budget increase for the National Cancer Institute (NCI). Your 
leadership is especially gratifying in the face of the tough 2002 
budget choices you were required to make following the tragic events of 
September 11, 2001.
    As a result of our past investments, as well as the unified efforts 
of the Administration and Congress with basic and clinical scientists, 
cancer survivors and advocates, and the public, the incidence and 
mortality of several cancers are on the decline for the first time in 
decades. Unfortunately, the incidence of several of the major cancers 
(lung, breast, prostate, and colon) is still increasing or remaining 
stable, and we must do more to conquer these major killers.
    Looking to the future, it is clear that these past investments in 
biomedical and cancer research are providing scientists with an ever-
increasing understanding of the fundamental differences between cancer 
and normal cells. However, it is also clear that developing the 
knowledge needed to understand and control cancer cells at the genetic 
and molecular levels is a ``work in progress.'' As we look forward to 
2003 and beyond, we must strengthen our commitment and redouble our 
support for the basic research required to ``fuel'' the engine of 
discovery. Advancing these laboratory discoveries through the myriad of 
preclinical, clinical, and regulatory steps required to become the new 
commercial products so badly needed to address the current and future 
cancer epidemic is called ``translational research.'' or simply 
``translation.'' We cannot choose to do one or the other; rather we 
must parallel our national efforts in basic research with the 
translational research needed to advance critical scientific 
breakthroughs from the laboratory into new technologies and drugs to 
prevent and cure cancer.
    Fortunately, results from our prior investments in cancer research 
have provided the basis for a ``sea change'' in our understanding of 
the large number of diseases (over 200) that we refer to as cancer. 
Completing the sequence of the human genome and advances in 
complementary areas of biomedical research such as immunology, 
biochemistry, and informatics over the past 25 years has provided us 
with a solid foundation for future progress. For example, our increased 
understanding of the abnormal genes in cancer cells (genomics) and the 
resulting aberrant proteins that they produce (proteomics) provide 
exciting new opportunities to discover, develop, and commercialize 
targeted, non-toxic agents and rational technologies to prevent and 
cure cancer.
    In fact, this past year re-enforced the promise of genetically 
based targeted therapies for cancer by providing the first ``proof of 
concept'' for these new agents. The hope is that through a thorough 
understanding of the abnormal genes (genomics) and proteins 
(proteomics) in cancer cells, cancers can be targeted on the basis of 
specific molecular changes. In 2001, the Food and Drug Administration 
(FDA) approved a new-targeted, non-toxic drug for the treatment of 
chronic myelogenous leukemia (CML), a disease that is diagnosed in 
approximately 4700 people each year. CML accounts for 15-20 percent of 
leukemia in adults, and the prior therapy of choice for this cancer was 
bone marrow transplantation. Several years of fundamental research by 
numerous scientists provided the basis for the discovery of the 
specific molecular pathway in CML patients that is targeted by Gleevec; 
the drug was ultimately developed through a public-private partnership 
between a university (Oregon Health Sciences University) and a 
pharmaceutical company (Novartis). Although it is still early in the 
clinical history of this new drug to measure its potential for long-
term cures, it is the first drug to successfully target and block the 
abnormal protein responsible for uncontrolled production of white cells 
in CML. To date, the results in refractory patients are spectacular and 
unprecedented.
    Although we are poised to make real progress toward realizing our 
vision of preventing and curing cancer, critical problems and barriers 
to progress exist that must be addressed. In addition to supporting new 
innovative research ideas, as previously noted, we must also create the 
national infrastructure and systems required for the ``seamless'' 
transfer of technology required to develop the new medicines and 
technologies that we need to prevent and cure cancer. The following 
represent some examples of critical problems and/or barriers across the 
continuum of cancer research, technology transfer, and 
commercialization that must be addressed through our appropriations for 
the NIH and the NCI in 2003 and beyond:
  --Improve funding for new research ideas by increasing funding for 
        approved NCI grant proposals for individual investigators from 
        the current level of 24 percent to 40 percent.
  --Provide support to train the future cancer workforce, especially 
        the physicians and basic scientists needed to perform 
        translational and clinical research.
  --Build the needed ``infrastructure'', including capabilities in 
        informatics, to support translational research through existing 
        cancer centers and new-dedicated entities.
  --Increase enrollment on clinical trials from the current level of 3 
        percent to evaluate new cancer therapies and preventives.
  --Create responsive public-private partnerships to encourage 
        technology transfer and commercialization of new products to 
        prevent and cure cancer.
  --Address the issue of cancer disparities in poor, medically 
        underserved, and minority populations.
    Addressing these issues and optimizing our opportunity to turn 
recent advances in biomedical and cancer research into revolutionary 
new drugs and technologies to prevent and cure cancer will depend in 
large measure on our willingness to provide appropriate levels of 
federal funding. The tragic events of September 11, 2001, were 
devastating, but Americans have emerged united in our resolve to defeat 
terrorism and defend our way of life, including ensuring the health of 
our citizens. Cancer affects every family in America, and although 
setting funding priorities for 2003 will be difficult, it is clear that 
now is the time to harness the strengths of all of the sectors involved 
in the continuum of cancer research, commercialization, and delivery to 
turn the tide against this tragic disease.
    The AACR requests that you support the President's budget proposal 
to complete the doubling of the NIH in 2003, by providing an increase 
of $3.7 billion (15.7 percent). The AACR also requests you make the 
eradication of cancer one of American's top healthcare priorities by 
providing full funding for the NCI's Bypass Budget at the requested 
level of $5.69 billion for fiscal year 2003. This budget reflects the 
funding that the Director of the NCI deems necessary to fully leverage 
current scientific opportunities and hasten the defeat of cancer. It is 
also important to increase funding for cancer programs at the Centers 
for Disease Control and Prevention (CDC) to ensure that new drugs and 
technologies reach all Americans, especially minority and medically 
underserved populations.
    In addition, we must look forward and develop a rational and 
appropriate strategy for funding the NIH and the NCI in 2004 and 
beyond. It would be catastrophic to drastically reduce funding for the 
NIH and the NCI at what the new Director of the NCI recently described 
as an ``inflection point'' in our nation's long struggle to conquer 
cancer. The steps that we take in the next few years, especially the 
extent to which we provide adequate funding to exploit the fruits of 
this ``age of biology,'' will determine the rate of our future progress 
against cancer and other chronic diseases. To sustain and increase the 
advances in cancer research that are needed to reduce or remove the 
shadow of cancer from our lives and from the lives of future 
generations, the AACR recommends that budget increases for the NIH in 
2004 and beyond be at a minimum of 10 percent per year and that the NCI 
Bypass Budget be funded at the requested level for the foreseeable 
future.
    In summary, the promise of new areas of biomedical research such as 
the genomics and proteomics portend a ``paradigm shift'' in the way 
that we detect, treat, and prevent cancer. Thanks in large measure to 
our strategic investments in cancer and biomedical research, we can now 
envision a future where we will cure more cancer patients, treat cancer 
as a chronic illness, and develop rational and effective cancer 
prevention strategies. The AACR has just completed its Annual 
Scientific Meeting in San Francisco California, where over 15,000 basic 
and clinical cancer researchers presented a stunning array of important 
new laboratory and clinical results in all areas of cancer research. We 
must unite to seize this momentum in cancer research and leverage these 
new opportunities to ensure that progress against cancer is optimized 
for the benefit of all of our citizens. Although the financial costs of 
cancer are staggering, the real tragedy is in the loss of our families 
and friends to a disease that inflicts unimagined pain and suffering on 
its victims. We must deepen our resolve to ``win'' this war against 
cancer and act now to capitalize on what can only be described as 
unimagined opportunities to accelerate progress in all areas of cancer 
research and patient care.
    Thank you for your leadership, and we look forward to achieving the 
magnitude and continuity of resources required to soundly and finally 
defeat cancer for all Americans.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association
                              introduction
    Mr. Chairman, thank you for the opportunity to submit written 
testimony regarding fiscal year 2003 appropriations for the Centers for 
Disease Control (CDC), National Institutes of Health (NIH), and Health 
Resources and Services Agency (HRSA).
    I am Jack Stibbs, Administrative Vice President for Advocacy of the 
Pulmonary Hypertension Association (PHA). I became active in PHA when 
my daughter Emily was diagnosed with pulmonary hypertension (PH).
    PH is a rare disorder of the lung in which the pressure in the 
pulmonary artery (the blood vessel that leads from the heart to the 
lungs) and the hundreds of tiny blood vessels that branch off from it 
rises above normal levels and may become life threatening. Symptoms of 
pulmonary hypertension include shortness of breath with minimal 
exertion, fatigue, chest pain, dizzy spells and fainting.
    When PH occurs in the absence of a known cause, it is referred to 
as primary pulmonary hypertension (PPH). This term should not be 
construed to mean that because it has a single name it is a single 
disease. There are likely many unknown causes of PPH.
    Secondary pulmonary hypertension (SPH) means the cause of the 
disease is known. Common causes of SPH are the breathing disorders 
emphysema and bronchitis. Other less frequent causes are scleroderma, 
CREST syndrome and systemic lupus. In addition, the use of diet drugs 
can lead to the disease.
    Unfortunately, PH is frequently mis-diagnosed and often progresses 
to late stage by the time it is detected. Although PH is chronic and 
incurable with a poor survival rate, new treatments are providing a 
significantly improved quality of life for patients. Recent data 
indicates that the length of survival is continuing to improve, with 
some patients able to manage the disorder for 20 years or longer.
    Ten years ago, when three patients who were searching to end their 
own isolation founded this organization, there were less than 50 
diagnosed cases of this disease. It was virtually unknown among the 
general population and not well known in the medical community. They 
soon realized that this was not enough and as membership began to 
grow--driven by a newsletter distributed by doctors--and a community 
began to form, an 800 number support line was launched, support groups 
were established, a Scientific Advisory Board (SAB) was formed, a 
Patient's Guide to Pulmonary Hypertension was written, and a web site 
was launched.
    Today, PHA includes:
  --Over 3,600 patients, family members, and medical professional
  --An international network of over 50 support groups
  --An active and growing patient hotline
  --A new and fast-growing research fund (A cooperative agreement has 
        been signed with the National Heart, Lung, and Blood Institute 
        to jointly create and fund five, 5-year, mentored clinical 
        research grants and PHA awarded it's first four Young 
        Researcher Grants.)
  --A host of numerous electronic and print publications
                  recommendations for fiscal year 2003
Centers for Disease Control and Prevention
    PHA applauds the subcommittee for its leadership in encouraging CDC 
to initiate a professional and public PH awareness campaign. Currently, 
we are working with officials at the CDC to establish this important 
program that will better inform health care professionals and the 
general public about PH, its symptoms, and treatment options. The 
following is a description of the specific initiatives we hope to 
launch in collaboration with CDC.
    (1) Increasing awareness and understanding of PH among primary care 
physicians is critically important, because these practitioners are 
usually the first point of contact for PH patients. If the primary care 
doctor misses the symptoms, then the chance for early diagnosis depends 
upon the intuition and persistence of the patient. They have a chance, 
if they aggressively pursue diagnosis by trained and aware specialists. 
If they are not aggressive, or if they are in a health plan that 
requires their general practitioner to prescribe the referral, they are 
more likely to go undiagnosed until it is too late to control their 
illness. To increases awareness we propose to launch:
  --Written and video diagnostic tools for placement on the Internet.
  --A postcard mailing to be sent to all primary care physicians, 
        medical schools and medical centers in the United States 
        drawing attention to the new web resources.
  --A simplified and visually attractive version of the proper 
        diagnostic procedures, which will be sent in a second mailing 
        to all primary care physicians, medical schools, and medical 
        centers in the United States.
  --Advertising in publications general practitioners are likely to 
        read. The emphasis will be the urgency and ease of early 
        diagnosis and the ease of accessing diagnostic tools via the 
        Internet.
  --A CD-ROM that explains pulmonary hypertension from a variety of 
        angles. We would like to make 100,000 of these available to the 
        medical community and patients through our web site on an as 
        requested basis and at conferences and through targeted 
        mailings.
    (2) Due to the advancements in treatment for PH, it is important 
that we also focus on educating cardiologists and pulmonologists. Our 
strategies for reaching cardiovascular specialists include:
  --Publication of the first Pulmonary Hypertension Journal focused on 
        educating a wider population of doctors on issues related to 
        the diagnosis and treatment of the illness.
  --Placement of additional detailed information on the illness on the 
        web. The PH Journal and other publications will promote this 
        availability.
  --Expansion of PHA's international conference on pulmonary 
        hypertension (the largest PH conference in the world).
  --Expansion of PHA's Pulmonary Hypertension Resource Network. This 
        program is focused on increasing awareness of PH among nurses 
        through peer education.
    (3) Finally, PHA is committed to increasing PH awareness among the 
general public through the development of the following initiatives:
  --A series of 10, 15, and 30 second public service announcements on 
        PH. These PSAs will be in both audio and video form.
  --A PH media relations manual.
  --An organ donation Awareness Campaign (unfortunately, many PH 
        patients die before finding a suitable organ donor).
  --Expansion of PHA's web site.
    We look forward to working with CDC to implement these and other 
initiatives aimed at increasing awareness of PH in the United States 
and throughout the world. For fiscal year 2003, we encourage the 
subcommittee to continue to support the mission of the CDC with an 
overall appropriation of $5 billion (an increase of $800 million over 
fiscal year 2002). Moreover, we urge you to continue support of the PH 
public and professional awareness initiative within CDC's 
Cardiovascular Disease program (a division of CDC's Chronic Disease 
Prevention program).
National Heart, Lung and Blood Institute
    Mr. Chairman, PHA commends the leadership of the National Heart, 
Lung and Blood Institute (NHLBI) for its support of PH research. Two 
years ago, two separate groups of scientists funded by NHLBI 
simultaneously identified a genetic mutation associated with primary 
pulmonary hypertension.
    The two groups independently reported that defects in the BMPR2 
gene, which regulates growth and development of the lung, are 
associated with PPH. The defects in the gene lead to the abnormal 
proliferation of cells in the lung characteristic on PPH.
    Although both studies suggest that only one gene is involved in 
PPH, neither group identified the defects in BMPR2 as the sole cause of 
PPH. In addition, since many people without a known family history of 
PPH get the disease, both groups suggested that other factors may 
interfere with control of the tissue growth. Now that we have 
pinpointed a gene, we can focus on learning how it works. Hopefully, 
that information will enable researchers to devise better treatments 
and perhaps eventually a preventive therapy or cure.
    Mr. Chairman, PHA would like to thank you and the subcommittee for 
your leadership in support of funding for the National Institutes of 
Health. Moreover, we would like to thank the subcommittee for the 
inclusion of committee recommendations on PH research at NHLBI in the 
fiscal year 2003 Senate L-HHS report. For fiscal year 2003, PHA joins 
with the Ad Hoc Group for Medical Research Funding in supporting a 16 
percent increase for NHLBI. Finally, we request that the subcommittee 
provide $25 million in fiscal year 2003 for PH research at the 
institute to enhance basic research, gene therapy and clinical trials 
of promising new therapies.
Gift of Life Donation Initiative at HRSA
    Mr. Chairman, PHA commends the leadership of Secretary Thompson on 
the success of his promise the, ``Gift of Life Donation Initiative.'' 
Currently, there are many drugs that PH patients can choose from to 
help alleviate the effects of PH; however, these drugs are often used 
until a patient can no longer wait for a heart or more often, a lung 
transplant. Immediately following diagnosis, many PH patients sign on 
to a transplant waiting list and continue to take their medication. 
Unfortunately, for many it is too late, and pass away before they can 
receive their much needed transplants. This why PHA has started 
Bonnie's Gift.
    Bonnie's Gift was started in memory of Bonnie Dukart, one of the 
three founding members of PHA, and a PH patient herself. Bonnie battled 
with PH for almost 20 years until her death in 2001 following a double 
lung transplant. Prior to her untimely death, Bonnie expressed an 
interest in the development of a program within PHA related to 
transplant information and awareness. PHA will use Bonnie's Gift as a 
way to disseminate information about PH, the importance of early 
listing, the importance of organ donation to our community and organ 
donation cards.
    Consequently, PHA applauds the administration for its ``Gift of 
Life Donation Initiative,'' which is designed to increase organ 
donation rates throughout the country. We look forward to working with 
the ``Gift of Life Donation Initiative'' to increase awareness of the 
importance of organ donation among the PH community, the medical 
community and the public. Mr. Chairman, PHA supports the president's 
fiscal year 2003 budget proposal of $25 million for HRSA's ``Gift of 
Life Donation Initiative.''
                               conclusion
    Mr. Chairman, once again thank you for the opportunity to present 
the views of the Pulmonary Hypertension Association. We look forward to 
continuing to work with you and the subcommittee to improve the loves 
of pulmonary hypertension patients. If you have any questions or would 
like additional information, please do not hesitate to contact me or 
the PHA National Office in Silver Spring, Maryland (301) 565-3004.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation
            summary of recommendations for fiscal year 2003
    1. A 16 percent increase for the National Institutes of Health as 
well as a 16 percent increase for all institutes and centers, 
specifically the National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK).
    2. Prioritize Glomerular injury research at NIDDK, raise 
professional and public awareness about Glomerular injury, and 
encourage more aggressive scientific attention to all kidney diseases.
    3. Urge NIDDK to develop programs to attract talented researchers 
to the field of Glomerular injury.
    I am pleased to present testimony on behalf of the NephCure 
Foundation (NCF).
    We are a non-profit organization with a mission of supporting 
research and public awareness on glomerular injury, which is related to 
the filtering mechanism of the kidney. I am the founder of the 
foundation and also serve as treasurer. I have a son, who has had 
glomerular disease since he was 11 months old. Although he is now 25 
years old and in remission, 80 percent of those in his situation lose 
their kidneys or their life by the age of 5.
What is glomerular injury?
    Mr. Chairman, each kidney contains about one million tiny filtering 
units called nephrons. Nephrons are the key to the kidney's filtering 
function, processing a constant flow of waste-laden blood, sorting out 
the vital fluids, from the toxic and unnecessary elements.
    When someone suffers from a glomerular disease, this vital process 
is impaired. In some instances, an individual will lose protein and 
sometimes red blood cells in the urine, have high cholesterol levels, 
and experience severe swelling in the body from too much fluid. 
Incidence of this disruptive Nephrotic Syndrome is increasing, and this 
perplexes physicians who cannot identify the cause or cure.
    Sometimes damage occurs to the nephrons, specifically, scarring of 
the glomeruli, which are microscopic capillaries in the nephron. The 
severe form of this glomerular injury is Focal Segmental 
Glomerularsclerosis (FSGS). Presently, there is no treatment to reverse 
this damage. FSGS can lead to end stage renal disease--total, or near 
total, permanent kidney failure. Costly dialysis treatments become 
necessary and kidney transplants may be required for severe cases.
The Toll of Glomerular Injury
    Glomerular injury affects tens of thousands of patients in the 
nation, most of them young. While it is unclear exactly how many 
Americans are impacted, the incidence of glomerular injury is on the 
rise. Severe forms of glomerular injury are costly to diagnose and 
treat, and at this time the only relief for these patients is with 
heavy medication, usually steroids, which have strong and unpleasant 
side effects.
    Problems of misdiagnosis often occur with glomerular injury. Most 
patients and parents have stories about the unusual length of time 
between the first symptoms and diagnosis. The early signs of glomerular 
injury, swollen eyelids, are often mistaken for allergic reactions. 
Health care professionals do not appear to be fully knowledgeable about 
this disease.
    The pain this disease causes children and young adults from severe 
facial and body distortion, disrupts friendships, school, and family 
life. By committing to more scientific research and increasing public 
and professional awareness, progress can be made towards ending the 
suffering of these children.
There is hope for scientific breakthroughs
    At a meeting co-sponsored by the NephCure Foundation, preeminent 
scientists from around the world have shared their findings about the 
podocyte, a major filtering cell, with tentacle-like feet. The 
relationship between the podocyte and the glomerulus may be a key to 
understanding glomerular injury.
    Recently, researchers have discovered certain molecules that are 
essential to the podocyte's function. As this becomes better 
understood, scientists are hopeful of finding better ways to treat 
glomerular diseases, and prevent their progression to more grave 
conditions.
What needs to be done?
    Respectfully, Mr. Chairman, the NephCure Foundation urges this 
subcommittee to:
    1. Continue the support for doubling the National Institutes of 
Health (NIH) and the National Institute of Diabetes and Digestive and 
Kidney Diseases (NIDDK).
    2. Provide the funding and recommendations for the National 
Institute of Diabetes and Digestive and Kidney Diseases to aggressively 
pursue a scientific program which will advance research into glomerular 
injury, conduct clinical trials, raise public awareness, and recruit 
talented scientists to this field of research.
    Thank you for the opportunity to appear before you today.
    Mr. Chairman, I would like to include a statement from someone who 
has lived with FSGS for more than half of her life. Her name is Melanie 
Stewart.
    My name is Melanie Stewart. I'm 14 years old and have had FSGS 
since I was 6. I have spent most of my life in the hospital or hooked 
up to a dialysis machine for 8 hours every day. My kidneys finally died 
2 years ago, so my dad gave me one of his. I did my best to keep it by 
taking 20 pills a day, fighting off infections, hemorrhages, and a 
blood clot in my heart.
    Unfortunately, my dad's kidney eventually failed. Now I am forced 
to start over again. There are thousands of kids just like me who would 
like a chance at a normal life. For all of us, I'm asking for your help 
in finding a cure for this disease.
    Thank you for listening.
                                 ______
                                 
     Prepared Statement of the Medical Library Association and the 
                   Association of Sciences Libraries
            summary of recommendations for fiscal year 2003
    (1) A 16 percent increase for the National Library of Medicine at 
the National Institutes of Health and Support for NLM's Urgent Facility 
construction needs.
    (2) Continued support for the Medical Library Community's role in 
NLM's Outreach, Telemedicine, and Pubmed Central Programs.
    I am Logan Ludwig, associate dean and director of library and media 
services at Loyola University Stritch School of Medicine in Maywood, 
Illinois.
    Thank you for the opportunity to testify today on behalf of the 
Medical Library Association (MLA) and the Association of Academic 
Health Sciences Libraries (AAHSL) regarding the fiscal year 2003 budget 
for the National Library of Medicine (NLM).
    MLA is a professional organization, headquartered in Chicago, 
representing over 4,000 individuals and 1,200 institutions involved in 
the management and dissemination of biomedical information to support 
patient care, education and research. In 1998, the organization 
celebrated its 100th anniversary.
    AAHSL, is comprised of the directors of libraries of 142 accredited 
United States and Canadian medical schools belonging to the Association 
of American Medical Colleges. Together, MLA and AAHSL address health 
information issues and legislative matters of importance to the medical 
library community through a joint legislative task force.
    Mr. Chairman, the National Library of Medicine, on the campus of 
the National Institutes of Health in Bethesda, Maryland, is the world's 
largest medical library. The Library collects materials in all areas of 
biomedicine and health care, as well as works on biomedical aspects of 
technology, the humanities, and the physical, life, and social 
sciences. The collections stand at 5.8 million items--books, journals, 
technical reports, manuscripts, microfilms, photographs and images. 
Housed within the Library is one of the world's finest medical history 
collections of old and rare medical works. The Library's collection may 
be accessed in the reading room or requested on interlibrary loan. NLM 
is a national resource for all U.S. health science libraries through a 
National Network of Libraries of Medicine.
    On behalf of the medical library community, I would like to thank 
the subcommittee for its leadership in securing a 12.7 percent increase 
for NLM in fiscal year 2002. With respect to the Library's budget for 
the coming fiscal year, I would like to touch briefly on four issues; 
(1) NLM's basic services, (2) NLM's outreach and telemedicine 
activities, (3) NLM's PubMed Central and clinical trials databases, (4) 
and NLM's facilities needs.
                  the growing demand for nlm services
    Mr. Chairman, it is a tribute to NLM that the demand for its 
services continues to steadily increase each year. An average of 250 
million Internet searches (30 percent from the general public) are 
performed annually on NLM's MEDLINE database, which provides access to 
the world's most up to date health care information. Moreover; medical 
libraries, academic health centers, hospitals, community health 
centers, veterans' health care facilities, and private physicians rely 
heavily on NLM and its National Network of Libraries of Medicine to 
delivery quality health care everyday.
    NLM also plays a critical role in maintaining the integrity of the 
world's largest collection of medical books and journals. Increasingly, 
this information is in digital form, and NLM, as a national library 
responsible for preserving the scholarly record of biomedicine, is 
developing a strategy for selecting, organizing, and ensuring permanent 
access to digital information. Regardless of the format in which the 
materials are received, ensuring their availability for future 
generations remains the highest priority of the Library.
    Mr. Chairman, simply stated, NLM is a national treasure. I can tell 
you that without NLM our nation's medical libraries would be unable to 
provide the type of information services that our nation's health care 
providers, educators, researchers and patients have come to expect.
    Recognizing the invaluable role that NLM plays in our health care 
delivery system, the Medical Library Association and the Association of 
Academic Health Sciences Libraries join with the Ad Hoc Group for 
Medical Research Funding in recommending a 16 percent increase for NLM 
in fiscal year 2003.
               nlm's outreach and telemedicine activities
Outreach and education
    NLM's outreach programs are of particular interest to both MLA and 
AAHSL. These activities, designed to educate medical librarians, health 
care professionals and the general public about NLM's services, are an 
essential part of the Library's mission.
    The need for enhanced outreach activities has grown significantly 
in recent years following NLM's decision to make its MEDLINE database 
available for free over the World Wide Web.
    The Library has taken a leadership role in promoting educational 
outreach aimed at public libraries, secondary schools, senior centers 
and other consumer-based settings. We were pleased that the Committee 
again last year recognized the need for NLM to coordinate its outreach 
activities with the medical library community.
    Mr. Chairman, we applaud the success of NLM's outreach initiatives 
and look forward to continuing our work with the Library again in 
fiscal year 2003 on these important programs.
Telemedicine
    Mr. Chairman, telemedicine continues to hold great promise for 
dramatically increasing the delivery of health care to underserved 
communities across the country and throughout the world. NLM has 
sponsored over 50 telemedicine related projects in recent years, 
including 21 multi-year projects located in various rural and urban 
medically underserved communities. These sites serve as models for:
  --Evaluating the impact of telemedicine on cost, quality, and access 
        to health care;
  --Assessing various approaches to ensuring the confidentiality of 
        health data transmitted via electronic networks;
  --Testing emerging health data standards.
    Mr. Chairman, it is clear that telemedicine will play a major role 
in the delivery of health care in the 21st Century. Medical librarians 
and health information specialists have an important role to play in 
supporting this revolutionary approach to health care and we encourage 
Congress and NLM to continue their strong support of telemedicine in 
our nation's medically underserved areas.
                pubmed central/clinical trials database
    The medical library community applauds NLM for its leadership in 
establishing PubMed Central, an online repository for life science 
articles introduced in early 2000. PubMed Central evolved from an 
electronic publishing concept proposed by former NIH Director Dr. 
Harold Varmus. The site houses articles from the Proceedings of the 
National Academy of Sciences, the American Society for Cell Biology's 
journal Molecular Biology of the Cell, and other publications.
    This new online resource will significantly increase access to 
biomedical information by health care professionals, students, 
researchers and the general public. The medical library community 
believes that health sciences librarians have a key role to play in the 
further development of PubMed Central. Because of the high level of 
expertise health information specialists have in the organization, 
collection, and dissemination of medical literature, we believe our 
community can assist NLM in issues related to copyright, fair use, and 
information classification on the PubMed Central site. We look forward 
to collaborating with the Library as this exciting new project 
continues to unfold this year.
    Mr. Chairman, I also want to comment on another relatively new 
service offered by NLM--its clinical trails database 
(ClinicalTrials.gov). This listing of some 5,200 federal and privately 
funded trials for serious or life-threatening diseases was launched in 
February 2000. This free service is currently logging more than 2 
million page hits a month and is an invaluable resource to patients and 
families interested in participating in cutting edge treatments for 
serious illnesses. The medical library community congratulates NLM for 
its leadership in creating ClinicalTrials.gov and looks forward to 
assisting the Library in anyway possible to advance this important 
initiative. This database is a nice compliment to NLM's extremely 
successful consumer web-site MEDLINEplus, which now covers over 450 
health topics.
                         nlm's facilities needs
    Mr. Chairman, over the past two decades NLM has assumed several 
major new responsibilities particularly in the areas of biotechnology, 
health services research, high performance computing, and consumer 
health. As a result, the Library has had tremendous growth in its basic 
functions related to the acquisition, organization, and preservation of 
an ever-expanding body of biomedical literature.
    This increase in the volume of biomedical information as well as 
Library personnel (NLM currently houses over 1,100 people in building 
built to accommodate 650) has resulted in a serious shortage of space 
at the Library. In addition, the National Center for Biotechnology 
Information at NLM builds sophisticated data management tools for 
processing and analyzing enormous amounts of genetic information 
critical to advancing the Human Genome Project.
    In order for NLM to continue its mission as the world's premier 
biomedical library, a new facility is urgently needed. The NLM Board of 
Regents has assigned the highest priority to supporting the acquisition 
of a new facility. The medical library community is pleased that 
Congress last year appropriated the necessary architectural and 
engineering funds for facility expansion at NLM. We encourage the 
subcommittee to continue to provide the resources necessary to acquire 
a new facility and to support the Library's health information 
programs.
                               conclusion
    Mr. Chairman, thank you once again for the opportunity to present 
the views of the medical library community. We look forward to working 
with you and your staff. I would be happy to answer any questions that 
you or your colleagues may have.
                                 ______
                                 
   Prepared Statement of the Infectious Diseases Society of America's
    IDSA appreciates the opportunity to provide testimony to the 
Subcommittee on Labor, Health and Human Services, and Education of the 
Senate Appropriations Committee concerning the fiscal year 2003 budgets 
for the Centers for Disease Control and Prevention (CDC), in particular 
the National Center for Infectious Diseases, National Center for HIV, 
STD and TB Prevention and National Immunization Program; the National 
Institutes of Health (NIH), specifically the National Institute of 
Allergy and Infectious Diseases, Office of AIDS Research, and Fogarty 
International Center; the Health Resources and Services Administration; 
and global infectious diseases programs including the Global Fund to 
Fight AIDS, Tuberculosis and Malaria.
    IDSA represents nearly 7,000 physicians and scientists devoted to 
patient care, education, research, and community health planning in 
infectious diseases. Nested within IDSA is the HIV Medicine Association 
(HIVMA) of IDSA, which represents 2,300 physicians who work on the 
frontline of the HIV/AIDS pandemic by conducting research and 
administering prevention and clinical programs that provide services to 
individuals affected by this pandemic. IDSA is the principal 
organization representing infectious diseases and HIV/AIDS physicians. 
Our members care for patients with serious infections, including 
meningitis, pneumonia, heart valve infections, severe bone, joint or 
wound infections, food poisoning, those with cancer or transplants who 
have life-threatening infections caused by unusual microorganisms, and, 
of course, HIV/AIDS. IDSA members share a common focus on epidemiology, 
diagnosis, prevention, investigation and treatment of infectious 
diseases. They also work with national leaders in public health and 
research to develop and implement infectious diseases policies and 
programs around the globe. IDSA supports its members by advocating for 
comprehensive and appropriate disease prevention efforts, including 
immunization of children and adults; biomedical research; mechanisms to 
control antimicrobial resistance; vaccine and antimicrobial drug 
development and availability; quality clinical microbiology; food 
safety; sufficient bioterrorism preparedness and response activities; 
and global efforts to reduce the incidence and devastating impact of 
infectious diseases worldwide.
    This statement speaks to the value of U.S. public health and 
research activities in the ongoing and evolving global fight against 
infectious diseases and requests sufficient resources in fiscal year 
2003 in order to sustain and improve these important programs.
                     are we sufficiently prepared?
    Last fall's anthrax attacks have reminded all of us of the serious 
threat infectious disease agents pose to the peace and prosperity of 
our nation and people around the world. These attacks have been the 
most shocking and frightening bioterrorism events the United States has 
yet experienced. As devastating as the anthrax events were, however, 
the loss of human life could have been far greater had the attack been 
planned and carried out in a more sophisticated and complex manner, had 
an infectious diseases physician in Florida not quickly detected the 
infectious agent in his patient, or had our public health system not 
responded as rapidly as it did. Undoubtedly, mistakes were made, but 
lessons also were learned. Ultimately, this experience has reminded 
each of us, and most notably those assigned the role of responding to 
such events, the value of being prepared.
    Since last fall, many infectious diseases experts and public health 
officials have asked whether we are sufficiently prepared to handle a 
significant bioterrorism event or infectious diseases outbreak. Many 
believe the answer is no--as a nation we are not prepared. A recent 
survey of 300 U.S. county officials, conducted by the National 
Association of Counties (NAC), clearly illustrates this belief as only 
9.7 percent of those polled believed that their communities were 
prepared to deal with a bioterrorism event.
    Infectious diseases are the second leading cause of death and the 
leading cause of disability-adjusted life years worldwide (one 
disability-adjusted life year is one lost year of healthy life) and the 
third leading cause of death in the United States. The World Health 
Organization estimates that 1,500 people die each hour from an 
infectious disease. Infectious diseases, such as AIDS, hepatitis, 
tuberculosis, malaria and pneumonia, as well as new and emerging 
infectious diseases, continue to cause vast human suffering in this 
country and around the world. The real and potential implications on 
human lives and the escalating costs of health care in this country are 
staggering. In 1999, CDC reported that should an influenza pandemic 
occur in the United States today with the ferocity of the Spanish Flu 
virus outbreak of 1918, it would cause an estimated 89,000 to 207,000 
deaths, 314,000 to 734,000 hospitalizations; and the economic impact 
would range from $71 billion to $167 billion. If past is prologue, and 
we know that it is, many more threats lie ahead. If we are to be 
prepared and respond rapidly and effectively to the emergence of these 
agents and events, we must focus today on the strengths and weaknesses 
of our existing research programs and public health infrastructure and 
make wise investments now for our future and the future of our 
children.
                  national institutes of health (nih)
    NIH is the lead U.S. agency for biomedical research and the most 
distinguished medical research organization in the world. The research 
that is conducted and supported by NIH has offered promising 
breakthroughs in preventing and treating many deadly diseases, both 
within and beyond our borders--breakthroughs that have improved the 
health and quality of life around the globe.
    When it comes to investments in research, opportunities lost can 
have serious costs. We would not be where we are today in terms of 
understanding, preventing and treating infectious diseases had it not 
been for wise, past investments in research. Knowledge is of critical 
value in improving the art and science of infectious diseases medicine. 
Basic and clinical research has facilitated the development of the 
essential tools, i.e. diagnostics, therapeutics and vaccines, needed to 
fight these diseases. Past investments in research and the knowledge 
derived from it has improved the health and extended the lives of many 
Americans. The value of such investments is no less relevant today than 
it has been in the past. The level of our current investment in U.S. 
biomedical and prevention research programs will be of pivotal 
influence to our nation and the world in responding effectively to 
future disease events.
    For this reason, we applaud the Administration's and Congress' 
continued commitment to double NIH's budget over 5 years to the current 
proposed level of $27 billion for fiscal year 2003. We are concerned 
about what the future holds for such funding beyond 2003, however, and 
will work with the Administration and Congress to ensure an ongoing, 
strong investment in research. Continued strong investment is 
imperative so that we may better understand and combat the microbes 
that cause deadly and debilitating infectious diseases. Of particular 
interest to the Society are the proposed budgets for the Office of AIDS 
Research, National Institutes of Allergy and Infectious Diseases, and 
John E. Fogarty International Center.
Office of AIDS Research (OAR)
    Several of NIH's Institutes and Centers conduct and support 
research that targets new treatments for and a better understanding of 
AIDS and HIV-related diseases. OAR is responsible for overseeing all 
aspects of NIH's AIDS research activities. OAR also has been 
instrumental in crafting NIH's annual comprehensive research plan for 
HIV-related diseases, which identifies a number of key priorities 
including prevention research to reduce HIV transmission in the United 
States and around the world; therapeutic research to respond to those 
already infected; international research priorities and research 
targeting the disproportionate impact of AIDS on minority populations 
in the United States. Clearly, it also is vital to continue our 
research efforts to identify a safe and effective vaccine. This 
comprehensive approach has greatly assisted the nation in combating 
this deadly disease and also has prolonged and enhanced the quality of 
life for many HIV-infected people around the globe. As the United 
States' investment in AIDS research reaps greater dividends, 
appropriate resources must be invested to leverage upon and to support 
these efforts. As such, we recommend a $384 million increase in AIDS 
research funding through NIH's Office for AIDS Research for a total 
commitment of $2.9 billion in fiscal year 2003. This amount is $130 
million above what the Administration has proposed for AIDS research in 
fiscal year 2003. We believe that the amount we are recommending will 
ensure that NIH can adequately implement its fiscal year 2003 AIDS 
research plan.
National Institute of Allergy and Infectious Diseases (NIAID)
    NIAID provides substantial support to scientists conducting 
research around that world that will help us to prevent, diagnose, and 
treat infectious diseases. Infectious disease physicians significantly 
depend upon knowledge derived from NIAID-supported research to 
appropriately diagnose and treat infectious diseases in their patients. 
As such, the Society strongly supports the President's proposed budget 
of $3.9 billion for NIAID. We are concerned that the Administration's 
proposed infusion of $1.5 billion for bioterrorism-related research may 
be too inflexible, however, and believe that NIAID should have broad 
discretion in determining how these funds are spent so that the 
universe of infectious diseases research may benefit from the knowledge 
derived from these studies. We are particularly concerned about this 
issue because the President's proposed budget provides a smaller 
increase in funding for NIAID infectious diseases (excluding 
bioterrorism activities) than was expected for fiscal year 2003, given 
previous increases in this area. While we support research that will 
help us better understand bioterrorism agents, we believe that such 
efforts should not come at the expense of other vital infectious 
diseases research activities. Therefore, we recommend that the 
Subcommittee provide the National Institute of Allergy and Infectious 
Disease's scientists with broad discretion to decide how the 
Administration's proposed increase in bioterrorism-related funding 
should be spent so that the wide spectrum of infectious diseases 
research may benefit from this considerable investment.
Fogarty International Center (FIC)
    FIC promotes and supports scientific research and training 
internationally to reduce disparities in global health. Programs 
administered through FIC have provided thousands of health 
professionals from lesser-developed countries the opportunity to 
receive vital medical knowledge from U.S. health professionals, which 
enables them to better treat ailing patients in their home countries. 
An example of the important work FIC has undertaken is demonstrated 
through its AIDS International Training and Research Program (AITRP). 
AITRP has been instrumental in building research capacity and expanding 
technical knowledge in the developing world by providing HIV/AIDS-
related biomedical and behavioral research training to scientists and 
health professionals from developing countries. The program has enabled 
American schools of medicine, public health, and nursing to train more 
than 2,000 scientists from more than 100 countries. Many of these 
trainees have moved into leading positions in laboratories, 
administration and policy positions in their home countries. The 
transfer of knowledge FIC facilitates is extremely valuable in the 
fight against HIV/AIDS and other infectious diseases in sub-Sahara 
Africa and has assisted in the prevention and treatment of deadly 
infectious diseases throughout the world.
    Despite the tremendous benefit of Fogarty programs and the 
contributions the Center has made to global public health efforts, its 
budget remains relatively small at $56 million. Expansion of the Center 
through increased funding would provide more comprehensive and 
extensive training programs at this critical juncture in the AIDS 
pandemic and would benefit efforts to eradicate and control other 
infectious diseases, such as tuberculosis and malaria. Therefore, we 
ask the Subcommittee to work with NIH's scientists to ensure that the 
Fogarty International Center's programs are sufficiently funded in the 
future.
            centers for disease control and prevention (cdc)
    Complementing the vigorous research activities supported by NIH 
through a strong and flexible public health infrastructure is the best 
strategy our nation can undertake to control and contain infectious 
diseases' threats. CDC is the premier public health agency working to 
prevent and control infectious diseases around the globe. CDC has been 
instrumental in achieving many major public health accomplishments, 
including the high vaccination rates for children, and the eradication 
and control of deadly infectious diseases, like smallpox and the soon- 
to-be-achieved eradication of polio. Despite these successes, the 
number of deaths from infectious diseases in the United States and 
around the world continues to rise.
    To adequately prepare for the global health challenges of the 21st 
Century, vital components of the CDC must be strengthened so that the 
United States can respond quickly and appropriately. We are concerned 
that the Administration's proposed budget levels for CDC's infectious 
diseases programs drastically underestimate the many challenges that 
lie before us, and, if not increased, will impose an additional strain 
on an already vulnerable system. Of particular interest to IDSA are the 
proposed funding levels for the National Center for Infectious 
Diseases, National Center for HIV/AIDS, STD and TB Prevention; and 
National Immunization Program.
National Center for Infectious Diseases (NCID)
    IDSA is most concerned with the Administration's proposed budget of 
$344 million for infectious diseases programs at NCID. This amount 
represents a decrease of $10 million below the 2002 level--an amount 
that will undermine vital, ongoing infectious diseases activities. NCID 
is the lead agency in preventing illness, disability, and death caused 
by infectious diseases in the United States and around the world. Among 
NCID's responsibilities is to help the United States prepare for and 
respond to bioterrorism attacks. To carry out all of its 
responsibilities, NCID conducts surveillance, epidemic investigations, 
epidemiological and laboratory research, training, and public education 
programs to track and respond to infectious diseases occurrences.
    The United States has one of the most sophisticated public health 
infrastructures in the world. However, the events of last year have 
revealed some of the deficiencies of our system. During last fall's 
anthrax events, many segments of the nation's health system were 
overwhelmed--most significantly, public health laboratories, which were 
plagued with thousands of requests to rapidly identify potential 
agents--and health care providers, who were bombarded with requests for 
prophylaxis to prevent infection as well as for accurate information on 
anthrax and other bioterrorism agents.
    To prepare adequately for future infectious diseases events, and to 
overcome the deficiencies highlighted by last fall's events, NCID must 
work to achieve several critical goals. One goal must be to increase 
our public health system's surge capacity so that we may respond 
quickly and effectively in crisis situations. To achieve this goal, 
state and local capacities, communication networks, education and 
training opportunities for health care personnel, surveillance, and 
other components of our system must be improved and strengthened. To 
achieve the most benefit, efforts to increase surge capacity must be 
undertaken in a manner that is relevant to and compatible with the 
existing framework for controlling infectious diseases. NCID also must 
move quickly to strengthen and improve existing information delivery 
systems so that essential and accurate information may be made 
available--at a touch of a button--to public health officials and 
professionals at every level. Making such information available more 
rapidly will permit health officials and professionals to respond more 
quickly and effectively during crisis periods and to communicate 
accurate information to an anxious public.
    We applaud Congress' and the Administration's efforts last year to 
provide significant, new resources that will help NCID to achieve these 
goals, and, particularly, for supporting new resources for state and 
local preparedness and response activities. President Bush's proposed 
budget for fiscal year 2003 also will add additional resources to 
improve our nation's surge capacity. We are very supportive of the 
Administration's effort to make additional funds available for this 
purpose, however, these new funds appear to come at the expense of 
existing infectious diseases programs. The President's budget too 
rigidly ties these additional resources to bioterrorism-related 
activities and does not provide NCID the necessary flexibility to 
implement its infectious diseases strategy, including bioterrorism 
activities, in a more holistic and integrated manner. As such, we 
recommend that the Subcommittee provide the National Center for 
Infectious Diseases with sufficient new resources to expand and improve 
both our nation's bioterrorism AND existing infectious diseases 
prevention and control activities as well as permit NCID broad 
discretion to decide how these new resources may be best spent within 
the existing infectious diseases framework.
    New Emerging Infections.--The Administration's proposed budget for 
NCID also is insufficient to address the significant challenges related 
to new and emerging infectious diseases. In 1997, an avian strain of 
influenza that had never before attacked humans began to kill 
previously healthy people in Hong Kong. This crisis raised the specter 
of an influenza pandemic similar to the one that killed 20 million 
people in 1918. NCID must have sufficient resources to investigate 
these significant outbreaks as they have done in the past for HIV/AIDS, 
hantavirus pulmonary syndrome, and drug-resistant re-emerging diseases 
such as malaria, tuberculosis, and bacterial pneumonias.
    To prepare the United States for these types of pandemics, CDC 
scientists have designed a plan, Preventing Emerging Infectious 
Diseases: A Strategy for the 21st Century, to counter the emergence and 
resurgence of microbial threats in the new millennium. This plan 
outlines goals and objectives that will strengthen our nation's 
capability to prevent, protect and respond to outbreaks by focusing on 
surveillance and response activities; applied research; infrastructure 
and training; and prevention and control. NCID has estimated that $260 
million is needed to fully implement this strategy. Under the 
President's proposed budget, $164 million has been proposed, leaving a 
$96 million shortfall. We urge the Subcommittee to fully fund National 
Center for Infectious Diseases's emerging infections strategy by 
appropriating $260 million for its implementation in fiscal year 2003.
    Antimicrobial Resistance.--CDC's emerging infections strategy has 
identified antimicrobial resistance (AR) or drug resistance as a major 
contributor to infectious diseases challenges in the United States. 
Infectious diseases physicians and other health professionals are 
already well aware of the dangers of AR in the United States and around 
the world. Infectious diseases once contained by antimicrobial agents 
are becoming increasingly untreatable over time as microbes mutate, 
adapt and decode these wonder drugs. As a result, AR is a contributing 
factor to many infectious diseases-related deaths and debilitating 
outcomes in the United States.
    The United States must respond to the persistent problem of AR by 
increasing research efforts, creating surveillance systems, and 
developing strategies to ensure that newly developed and existing drugs 
are used effectively and are not misused nor abused. Last year, an 
interagency task force comprised of CDC, NIH, the Food and Drug 
Administration (FDA) and the U.S. Department of Agriculture (USDA) 
officials released A Public Health Action Plan to Combat Antimicrobial 
Resistance. The plan outlines a number of surveillance, prevention and 
control, research, and product development activities to address this 
growing concern. Under the Administration's proposal, CDC will receive 
$25 million for AR activities in fiscal year 2003--the same level of 
funding provided in fiscal year 2002--an inadequate amount if we are to 
better understand and limit the impact of AR. As such, we urge the 
Subcommittee to support a specific increase of $50 million in CDC 
funding for fiscal year 2003 to implement the Public Health Action Plan 
to Combat Antimicrobial Resistance, which is vital to improving patient 
outcomes, and an increase of $25 million for the following 4 years, 
which will bring CDC's total AR budget to $150 million in fiscal year 
2007.
    The relevance of AR to the practice of infectious diseases medicine 
has become increasingly more problematic over the past several years as 
the development of new antimicrobial agents and the availability of 
existing agents have become compromised by vulnerabilities in the 
existing pharmaceutical pipeline. These vulnerabilities include 
manufacturing deficiencies resulting in FDA enforcement actions; 
problems in the supply of bulk materials; roadblocks in FDA's approval 
process, including recent agency debates concerning raising the 
standards for approving new antimicrobial agents; and decisions by 
pharmaceutical manufacturers to remove existing, approved drugs from 
the market due to lack of profits, among other reasons. These 
vulnerabilities raise strong concerns among IDSA's members about the 
future availability of products to treat their patients suffering from 
life-threatening infectious diseases. We all must work together to 
ensure the continued availability of these important products. IDSA 
intends to work with the appropriate Senate and House authorizing 
committees to seek a comprehensive review of how existing regulatory 
and manufacturing approaches may play a role in limiting the 
availability of new and approved antimicrobial agents and to ensure 
that CDC, FDA, and the pharmaceutical industry are taking every 
reasonable measure to minimize vulnerabilities in the system. We 
believe that the Subcommittee should be aware that these shortages of 
antimicrobial agents are occurring and are available to answer any 
questions that the Subcommittee may have regarding this important 
matter.
    Food Safety.--Despite the fact that America's food supply is among 
the safest in the world, food safety remains a major public health 
concern in our nation. Every year in the United States, 76 million 
cases of food-borne illnesses are reported, contaminated foods send an 
estimated 325,000 people to the hospital--and 5,000 of those people 
die. The costs associated with hospital visits are estimated at more 
than $3 billion per year. The recent bioterrorism attacks have added 
another layer of concerns about the security of our food supply. If we 
are to adequately protect our food supply from microbial contamination, 
a higher priority must be given to food safety activities across the 
board. Therefore, we encourage Congress to maintain adequate funding 
for food safety activities at CDC, FDA and USDA.
National Center for HIV/AIDS, STD and TB Prevention (NCHSTP)
    Until an HIV vaccine becomes available, the key to reducing the 
spread of HIV/AIDS is investing resources in HIV prevention programs 
and epidemiological studies. The Administration has proposed no 
increase in funding for NCHSTP in fiscal year 2003, supporting a level 
budget of $1.14321 billion--an approach that is wholly inadequate for 
addressing the increasing challenges caused by the AIDS pandemic. Each 
of the HIV/AIDS programs within CDC's NCHSTP is critical to curtailing 
the spread of HIV. Surveillance systems play a critical role in 
identifying trends in new infections in terms of geographic location, 
mode of transmission and other population demographics--all factors 
important to informing the development of effective prevention 
interventions and to accurately targeting resources for clinical care 
and other supportive services. Community-based prevention programs that 
target populations at highest risk for HIV infection remain a high 
priority in light of evidence that there continues to be 40,000 new HIV 
infections in the United States each year. IDSA also strongly supports 
NCHSTP's Global AIDS Program. This program is a vital component of our 
international response to the AIDS pandemic around the world. To reduce 
the number of new HIV infections occurring annually in the United 
States and the 14,000 new infections occurring daily worldwide, we 
strongly support increasing funding for National Center for HIV/AIDS, 
STD and TB Prevention programs at CDC by $616.2 million to a total 
commitment of $1.759 billion. This amount includes a doubling of CDC's 
Global AIDS Program to $287.6 million.
National Immunization Program (NIP)
    Immunizations are among the greatest public health achievements of 
the 20th Century. Vaccines protect our children and adults against 
serious and potentially fatal diseases and are one of the most cost-
effective tools in preventing disease. For every dollar spent on 
vaccines, we save up to $27 in medical and societal costs. Because of 
vaccines, millions of cases of disease, disability and death have been 
averted, and billions of dollars have been saved.
    Despite this great success, significant challenges remain. For 
instance, 38,000 adults die each year, from complications from 
hepatitis B, flu and pneumococcal infection, despite the availability 
of preventive vaccines. Moreover, many states recently have experienced 
significant difficulty in obtaining 5 of 8 routinely administered 
childhood vaccines--DTaP, MMR, PCV-7, varicella, and Td. In addition, 
the influenza vaccine has been delayed during the past two flu seasons 
due to manufacturing shortages. Vaccine shortages have been so severe 
that some states have dropped, or have considered dropping, 
immunization requirements for daycare and school entry and some 
providers have been forced to turn children away without vaccinating 
them.
    The United States must seek remedies to improve and sustain 
immunization coverage so that this public health success story can be 
maintained and expanded into the 21st Century. To continue this 
success, IDSA--along with several other organizations, including the 
American Academy of Pediatrics and the American Public Health 
Association--is supporting a fiscal year 2003 appropriations level of 
$696 million for CDC's NIP. This represents a $65 million increase 
above the fiscal year 2002 appropriations level, and includes $20 
million for operations/infrastructure grant awards to the states, 
consistent with the Institute of Medicine's recommendation in its June 
2000 report Calling the Shots, and $45 million for the purchase of 
vaccines. The Administration has proposed level funding of $631 million 
for NIP in fiscal year 2003, which is inadequate if we are to meet our 
goal of vaccinating 90 percent of children and adults. We must provide 
additional resources to states and localities to ensure that those in 
need of immunizations receive them.
    IDSA--along with the American Academy of Pediatrics and American 
Public Health Association and others--also supports the creation of a 
6-month stockpile for all childhood vaccines. Although this stockpile 
would require a significant upfront investment, the stockpile will pay 
for itself over time in medical and societal savings.
    NIP has achieved a remarkable record of success. But, our effective 
vaccines can only be as good as our ability to deliver them to children 
and adults in need. By continuing to improve the system, our nation can 
gain the full benefits that vaccines have to offer. Therefore, we urge 
the Subcommittee to provide $696 million for the National Immunization 
Program at CDC in fiscal year 2003 as well as such additional resources 
as may be needed to create a 6-month stockpile for all childhood 
vaccines.
          health resources and services administration (hrsa)
    The Health Resources and Services Administration (HRSA) administers 
programs that serve a critical role in the health care safety nets of 
our communities.
HIV/AIDS Bureau: Ryan White CARE Act
    HRSA's HIV/AIDS Bureau funds programs to support a broad spectrum 
of services from training for health care providers to funding for 
community health centers. We are particularly concerned with the level 
of funding proposed by the Administration in fiscal year 2003 for the 
Ryan White CARE Act (CARE), which determines whether many people with 
HIV/AIDS receive life-saving prescription drugs and health care 
services. Adequate funding for this program is particularly crucial at 
this time because of severe cutbacks in the services that state 
Medicaid programs are able to provide and the increases in HIV 
infections in low-income communities where many individuals are 
uninsured or underinsured.
    Since 1990, CARE programs have positively affected the lives of 
many people with HIV/AIDS in the United States through annual grants to 
more than 600 community-based programs. These programs provide 
essential funding for primary medical care, dental services, 
prescription drugs, diagnostic tests, mental health and substance abuse 
treatment, as well as enabling social services like case management 
services that help patients attend medical appointments regularly and 
take their medications appropriately. CARE programs also funds provider 
training--a program component that remains essential as the standard of 
care for HIV disease continues to evolve and change.
    Many of our physician members rely on CARE funds to provide life-
saving services to a patient population that is increasingly dominated 
by individuals who are poor and uninsured and unable to benefit from 
treatment advances without public-supported programs. Without CARE 
funds, the outpatient clinics where our members treat patients with 
HIV/AIDS are vulnerable to closure, leaving patients with little or no 
access to experienced providers able to offer the complex and costly 
care necessary to keep people with HIV/AIDS healthy and functioning.
    The Administration has proposed no increase for CARE programs over 
the fiscal year 2002 funding level of $1.91 billion. Failure to 
increase funding for CARE programs essentially represents a reduction 
in resources as the number of individuals depending on the program 
grows each year. We believe an increase in CARE funding is essential to 
maintaining the current level of access to treatment services. 
Specifically, we support an increase of $303.7 million for the Ryan 
White CARE Act program at HRSA to a total commitment of $2.2147 billion 
by increasing:
  --Title I funding available to metropolitan areas disproportionately 
        hit by the epidemic by $43 million
  --CARE component of Title II by $50 million
  --AIDS Drug Assistance Programs by $162 million (An increase in ADAP 
        is becoming increasingly important as state Medicaid programs 
        continue to cut back on their prescription drug benefits.)
  --Title III primary care funding by $14 million
  --Title IV funding by $19 million
  --Part F funding for the AIDS Education and Training Center by $9.7 
        million and funding for dental reimbursement by $6 million
National Health Service Corps (NHSC)
    The Society would like to express its support for the 
Administration's proposed increase of $44 million for HRSA's National 
Health Service Corps (NHSC) program, which recruits, prepares, and 
supports health professional students, medical residents, and 
clinicians to deliver health care in underserved communities within the 
United States. The Society also supports the establishment of a similar 
international program that would support U.S. health professionals 
providing direct care and treatment to individuals suffering from 
infectious diseases in resource-limited countries. IDSA intends to work 
with the appropriate Senate and House authorizing committees to 
establish an International Health Service Corps program similar to the 
National Health Service Corps program at HRSA and urges the 
Subcommittee's future support for such a program.
                   additional hhs global id programs
    It is not possible to adequately protect the health of our nation 
without addressing infectious disease problems that occur elsewhere in 
the world. In an age of rapid air travel and international trade, 
infectious pathogens are transported across borders every day, carried 
by infected people, animals, insects, and contained within commercial 
shipments of contaminated food. We are heartened that, in addition to 
the other global programs outlined above, HHS Secretary Thompson 
recently announced several new bilateral HHS infectious diseases 
initiatives intended for implementation in resource-limited countries. 
These new initiatives are important weapons in the fight against 
infectious diseases globally, and IDSA recommends sufficient funding to 
support them. As these new initiatives were announced following the 
release of the Administration's budget, we are concerned that adequate 
funding may not have been requested for them in the fiscal year 2003 
budget. We strongly urge the Subcommittee to support the following new 
HHS programs by appropriating sufficient resources for each:
HRSA's International AIDS Education and Training Center (IAETC)
    HRSA recently announced a 3-year, $1.5 million IAETC to provide 
health care providers in Africa and India with the most up-to-date 
training and education on caring for people with HIV/AIDS. This is an 
important initiative that will involve direct participation by 
infectious diseases experts in the training of health professionals in 
resource-limited countries. We strongly support this approach as one 
way to achieve a sustainable impact in the global fight against AIDS 
and infectious diseases. To create a real and credible impact on AIDS 
in Africa and India, however, a significantly greater investment in 
training and education initiatives is needed. We support at least 
doubling the amount dedicated to HRSA's International AIDS Education 
and Training Center program in Africa and India to $3 million in the 
first year, with substantially greater investments in subsequent years.
CDC's Global Strategy to Fight Infectious Diseases
    CDC recently released a global strategy, Protecting the Nation's 
Health in an Era of Globalization: CDC's Global Infectious Disease 
Strategy, to address infectious diseases around the globe. The strategy 
defines six priority areas developed in consultation with global public 
health partners to enhance the fight against infectious diseases: 
international outbreak assistance, global disease surveillance, applied 
research, application of proven public health tools, global initiatives 
for disease control and public health training and capacity building. 
We support CDC's Global Strategy to Fight Infectious Diseases and urge 
the Subcommittee to provide the highest level of funding to implement 
this global strategy.
Global Fund to Fight HIV/AIDS, Tuberculosis and Malaria
    In addition to the bilateral, HHS-supported infectious diseases 
initiatives listed above, IDSA strongly supports a substantial increase 
in U.S. funding for the Global Fund to Fight HIV/AIDS, Tuberculosis 
(TB) and Malaria. After thoughtfully considering the relative value of 
the multilateral Global Fund to Fight HIV/AIDS, Tuberculosis and 
Malaria in comparison to domestic infectious diseases initiatives as 
well as other U.S.-led international infectious diseases initiatives, 
the Society strongly recommends that the U.S. contribution to the Fund 
be increased to $2.5 billion in fiscal year 2003. To put the Society's 
request into perspective, Congress and President Bush supported nearly 
$3 billion in emergency appropriations for fiscal year 2002 for U.S. 
bioterrorism preparedness and response initiatives, following the 
deaths of 5 people due to anthrax attacks in the United States last 
fall. In fiscal year 2003, President Bush has proposed an additional 
$5.9 billion for bioterrorism preparedness and research. Although we 
support these increases for bioterrorism preparedness and response 
activities, we are convinced that a similar investment must be made to 
fight global AIDS, TB and malaria, which together account for nearly 6 
million deaths per year along with immeasurable suffering and damage to 
families, communities and economies. AIDS kills 8,000 people each day--
that fact alone is staggering. Yes, this is an extremely large 
investment of U.S. resources. However, when considering the 
consequences of what will happen if we don't act immediately, we 
believe that there is simply no other choice.
    Finally, the Society would like to bring to the Chairman's 
attention our concerns about restrictions that have been placed on HHS 
employees' travel over the past year. Given the events of September 
11th and the introduction of new management initiatives under the new 
Administration, some short-term restrictions are understandable. We are 
concerned, however, about the long-term impact that these restrictions 
may be having on U.S. health programs both within and outside the 
United States as well as on information exchanges between government 
and non-government health professionals at scientific and policy 
conferences. We ask the Subcommittee members to consider this concern 
and what impact these restrictions may be having on U.S. public health 
and scientific goals and objectives.
    In closing, we sincerely thank the Chairman and all of the Members 
of the Subcommittee for your continued, energetic support of the 
federal research and public health activities being undertaken to make 
the world safe from infectious diseases. We stand ready at any time to 
assist you in this goal.
                                 ______
                                 
               Prepared Statement of Mended Hearts, Inc.
    I am Robert H. Gelenter, the legal representative for the Mended 
Hearts Inc, a national heart disease patient support group of 25,000 
members across the country. We visit patients in about 450 hospitals 
throughout the United States. I have been appointed by the group to 
assist in this lobbying effort--a volunteer position.
    More than 26 years ago, I was diagnosed with a rare heart disease. 
After having severe chest pains and trouble breathing for more than 2 
years, I was diagnosed with hypertrophic cardiomyopathy, a disease in 
which the heart enlarges. The heart muscle eventually thickens so much 
that it can't pump blood effectively and does not grow in the normal 
parallel patterns. More than 35 percent of young athletes who die 
suddenly die from this disease. But, it affects men and women of all 
ages. It is sudden and one of the things known about this disease is 
sudden cardiac death. There is no cure for this disease. Medication may 
work and there is surgery that may or may not alleviate the pain. If 
that doesn't work a patient may need a heart transplant, yet spare 
organs are scarce. The doctor who made my diagnosis was trained at the 
National Heart, Lung, and Blood Institute of the National Institutes of 
Health.
    Initially, I received several medications which allowed me to 
engage in most activities. But, some activities, such as walking up 
hills, gave me problems like shortness of breath and severe chest 
pains. But, generally I could function normally. However, after about 
10 years, the discomfort was increasing, and it became apparent that I 
was in serious trouble. I could not walk sixty feet without having to 
stop to catch my breath. Sometimes the pain was so great that I would 
almost double over in the middle of the street. My wife told me that my 
face would become gray. The perspiration would pour off by body. If I 
was lucky I could find a chair to sit on. The quality of my life had 
deteriorated so drastically that I knew I needed some treatment.
    Finally in 1988, I went to Georgetown University Medical Center for 
an angiogram--the gold standard for diagnosing heart problems. The 
cardiologist who performed the angiogram told me that he had bad news 
and worse news. The bad news was that I had a 95 percent blockage in my 
left anterior descending heart artery--the so-called ``widow makers 
spot.'' The worse news was that I had a major chance of having a major 
heart attack with a less than a 5 percent chance of surviving that 
heart attack because of the hypertrophic cardiomyopathy. At this point, 
my wife was quietly crying and I was perspiring profusely. Since 
Georgetown University Medical Center did not have the expertise to 
operate on me, they called the NIH to see if they would accept me as a 
patient. I was sent home pending notice from the NIH.
    My parents begged me to go to New York or San Francisco for second 
opinions. But, I knew that I had run out of alternatives. No matter 
what the result, I needed treatment and I needed it immediately.
    I was accepted by the NIH. After entering the National Heart, Lung, 
and Blood Institute on February 6th, I was operated on February 11, 
1988. No matter how trite the expression--that was the first day of the 
rest of my life. The surgery, considered drastic and rare, is still 
considered the gold standard throughout the world for the treatment of 
hypertrophic cardiomyopathy. The Murrow Procedure, in honor of the 
creator, was developed and improved at the NIH.
    Although this surgery is no longer performed at the National Heart, 
Lung, and Blood Institute, there is another experimental ongoing 
protocol in which the same effect is being attempted by using alcohol 
to deaden the excessive heart tissue.
    Now, I am on medication for the rest of my life. My condition is 
progressive. Six years ago, I was fitted with a pacemaker to insure 
that my heart beats at the correct rate. I am 100 percent dependent on 
this pacemaker. Without the pacemaker, there are times when my normal 
heart beat is so slow that I would die.
    I am eternally grateful to the physicians funded by the National 
Heart, Lung, and Blood Institute, particularly to Dr MacIntosh and his 
staff, for the gift of life. Because of this marvelous research 
supported by the NHLBI, I have lived 14 years pain free. I have seen 
two children graduate from college and three grandchildren born, I have 
shared these years with a wonderful wife. I have been able to work at 
my profession--an attorney at law.
    I have had the gift of life restored to me. So to express my 
gratitude for that gift, I visit patients recovering from heart 
episodes at two hospitals, Washington Hospital Center and Washington 
Adventist Hospital.
    I ask for a doubling of the fiscal year 1998 National Heart, Lung, 
and Blood Institute budget by fiscal year 2003. As the fifth increment 
toward reaching that goal, I advocate a fiscal year 2003 appropriation 
of $3.2 billion for the NHLBI, including $1.9 billion for its heart 
disease and stroke-related budget.
    My experience is the proof that the research supported by the 
National Heart, Lung, and Blood Institute benefits not just the 
patients at the NIH Clinical Center, but throughout the United States. 
The benefits go worldwide as well.
    Heart attack, stroke and other cardiovascular diseases remain the 
No. 1 killer and major cause of disability of men and women in the 
United States. More than 41 percent of people who die in the United 
States die from cardiovascular diseases. This year, nearly 960,000 
Americans will die from cardiovascular diseases, including almost 
150,000 under the age of 65.
    Thank you for your support of National Heart, Lung, and Blood 
Institute's heart research.
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science
            summary of recommendations for fiscal year 2003
    1. A 16 PERCENT INCREASE FOR THE NATIONAL INSTITUTES OF HEALTH AS 
WELL AS A 16 PERCENT INCREASE FOR ALL INSTITUTES AND CENTERS, 
SPECIFICALLY THE NATIONAL CENTER FOR RESEARCH RESOURCES (NCRR), THE 
NATIONAL CENTER FOR MINORITY HEALTH AND HEALTH DISPARITIES (NCMHD), AND 
THE NATIONAL CANCER INSTITUTE (NCI).
    INCLUDED IN THE 16 PERCENT, CHARLES R. DREW UNIVERSITY IS SEEKING:
  --$6 MILLION FROM THE NATIONAL CENTER FOR RESEARCH RESOURCES, IN 
        INCREMENTS OF $3 MILLION PER GRANT CYCLE, FOR BUILD-OUT OF 
        RESEARCH FACILITIES AT DREW UNIVERSITY.
  --$8 MILLION FROM THE NATIONAL CENTER FOR MINORITY HEALTH AND HEALTH 
        DISPARITIES FOR A BUILDING SHELL TO HOUSE THE CHARLES R. DREW 
        UNIVERSITY OF MEDICINE AND SCIENCE MINORITY HEALTH 
        COMPREHENSIVE CANCER CENTER.
  --$10 MILLION OVER 5 YEARS FROM THE NATIONAL CANCER INSTITUTE TO 
        ESTABLISH AND SUPPORT RESEARCH AND PATIENT CARE AT THE CHARLES 
        R. DREW UNIVERSITY OF MEDICINE AND SCIENCE MINORITY HEALTH 
        COMPREHENSIVE CANCER CENTER.
    2. URGE NCRR, NCMHD, AND NCI TO COLLABORATE TO SUPPORT THE 
ESTABLISHMENT OF A NATIONAL MINORITY HEALTH COMPREHENSIVE CANCER CENTER 
AT A HISTORICALLY MINORITY INSTITUTION.
    Mr. Chairman and members of the subcommittee, I am Dr. Charles 
Francis, President of Charles R. Drew University of Medicine and 
Science. Charles R. Drew University is one of four historically 
minority medical schools in the country, and the only one located west 
of the Mississippi River.
    Charles R. Drew University of Medicine and Science is located in 
the Watts-section of South Central Los Angeles. Our mission is to 
provide quality medical education to underrepresented minority 
students, and, through our affiliation with the University of 
California Los Angeles (UCLA) at the co-located King-Drew Medical 
Center, we provide valuable health care services to the surrounding, 
medically underserved, community. Through innovative basic science, 
clinical, and health services research programs, Drew University works 
to address the health and social issues that strike hardest and deepest 
among inner city, underserved, and minority populations.
    The population of this medically underserved community is 
predominately African American and Hispanic. The majority of these 
people would be without health care if not for the services provided by 
the King-Drew Medical Center and Charles R. Drew University of Medicine 
and Science. This record of service has led Charles R. Drew University 
(in partnership with UCLA School of Medicine) to be designated as a 
Health Resources and Services Administration (HRSA) Minority Center of 
Excellence
                    a response to health disparities
    Racial and ethnic disparities in health care have long been 
established as a major barrier to successful prevention and treatment 
of a multitude of diseases in minority and underserved communities. The 
recent Institute of Medicine report entitled ``Unequal Treatment: 
Confronting Racial and Ethnic Disparities in Health Care'', articulated 
that this problem is not getting better on its own. For example:
  --African American males develop cancer 15 percent more frequently 
        than white males.
  --African American women are not as likely as white women to develop 
        breast cancer, but are much more likely to die from the disease 
        once it is detected.
  --According to the American Cancer Society, those who are poor, lack 
        health insurance, or otherwise have inadequate access to high-
        quality cancer care, typically experience high cancer incidence 
        and mortality rates.
    Despite these devastating statistics, we are still not doing enough 
to try to combat cancer in our communities.
    In response to these disturbing findings, Charles R. Drew 
University of Medicine and Science recommends that a Minority Health 
Comprehensive Cancer Center be built on its campus. This proposed 
Center would specialize in providing not only medical treatment 
services for the community, but would also serve as a research 
facility, focusing on prevention and the development of new strategies 
in the fight against cancer.
                      support for this initiative
    Mr. Chairman, the support that this subcommittee has given to the 
National Institutes of Health (NIH) and its various Institutes and 
Centers has and continues to be invaluable to our University and our 
community. The dream of a state of the art facility to aid in the fight 
against cancer in our community would be impossible without the 
resources of NIH.
    To help facilitate the establishment of a Minority Health 
Comprehensive Cancer Center at Charles R. Drew University of Medicine 
and Science, the University is seeking support from the National 
Institutes of Health's National Center for Research Resources (NCRR), 
the National Center for Minority Health and Health Disparities (NCMHD), 
and the National Cancer Institute (NCI).
    First, the facility must be constructed. Drew University does meet 
the Public Health Service Act eligibility requirement for facilities 
construction grants which maintains that the institution ``is located 
in a geographic area in which a deficit in health care technology, 
services, or research resources may adversely affect health status of 
the population of the area in the future, and the applicant is carrying 
out activities with respect to protecting the health status of such a 
population.'' Therefore, the university is seeking Extramural 
Facilities Construction grants through NCRR in the amount of $6 million 
($3 million per grant cycle) for build-out of the first floor of the 
research facility, and subsequent build-out of the second floor.
    The University is also seeking $8 million from NCMHD for the 
research building shell to house the Charles R. Drew University of 
Medicine and Science Minority Health Comprehensive Cancer Center.
    In addition, the Minority Health Comprehensive Cancer Center cannot 
become a reality without programmatic funding. Drew University, in 
collaboration with UCLA, is seeking support from NCI in the amount of 
$10 million over 5 years to support the health care and research 
activities conducted by the Center.
                               conclusion
    Despite our knowledge about the disparities in diseases and health 
care, the ``gap'' continues to widen. Not only are minority and 
underserved communities burdened by higher disease rates, they are less 
likely to have access to quality care upon diagnosis. As you are aware, 
in many minority and underserved communities preventive care and/or 
research is completely inaccessible either due to distance or lack of 
facilities and expertise.
    Even though institutions like Drew are ideally situated (by 
location, population, and institutional commitment) to study conditions 
in which health disparities have been well documented, research is 
limited by the lack of appropriate research facilities. With your help, 
this cancer center will facilitate translation of insights gained 
through research into greater understanding of disparities in cancer 
incidence, morbidity and mortality and ultimately to improved outcomes.
    Mr. Chairman, with your support and the financial resources of NIH, 
Charles R. Drew University of Medicine and Science can not only be the 
nation's first Historically Black College or University (HBCU) to have 
a Comprehensive Cancer Center, but also the first minority medical 
school in the country to have a comprehensive cancer center focused 
exclusively on minority health and health disparities.
    We look forward to working with you to lessen the burden of cancer 
for all Americans through greater understanding of cancer, its causes 
and cures.
    Mr. Chairman, thank you for the opportunity to present on behalf of 
Charles R. Drew University of Medicine and Science.
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society
    We appreciate the opportunity to submit written testimony on behalf 
of the National Multiple Sclerosis Society. The Society is the world's 
largest private voluntary health agency devoted to the concerns of all 
those affected by MS. Throughout the Society's 56-year history, our 
number one priority has been research to better understand MS and to 
apply this knowledge to the development of new treatments or a cure. 
The Society awarded its first three research grants in 1947, and by the 
end of 2002, the Society cumulatively will have expended $350 million 
on research. Our current annual research budget is $34 million.
    Multiple sclerosis is a chronic, often disabling disease of the 
central nervous system. Symptoms may be mild, such as numbness in the 
limbs, or severe, such as paralysis or loss of vision. Most people with 
MS are diagnosed between the ages of 20 and 50, but the unpredictable 
physical and emotional effects can be lifelong. The progress, severity 
and specific symptoms of MS in any one person cannot yet be predicted, 
but advances in research and treatment are giving hope to those 
affected by the disease. Today, there are five FDA-approved medications 
in the United States to help control the course of the disease.
    In our testimony of prior years, the National MS Society has 
emphasized the importance of NIH basic and clinical research to all 
people with chronic illnesses and disabilities. We have recognized that 
new discoveries and breakthroughs could come from any area of 
biomedical research and could apply to the primary concern of our 
members: ending the devastating effects of MS. Knowing that a well-
funded federal research enterprise is of great public benefit, we have 
encouraged Congress to focus on NIH as a whole, with equal 
consideration given to the National Institute of Neurological Disorders 
and Stroke (NINDS) and the National Institute of Allergy and Infectious 
Diseases (NIAID). NINDS funds 75 percent of the MS-specific research at 
NIH, while NIAID (the institute primarily responsible for autoimmune 
disease research, including MS) funds about 25 percent.
    We still believe in the need to increase funding for NIH across all 
institutes, and to continue the effort to double NIH funding over 5 
years (fiscal years 1999-2003). However, this year, we wish to bring 
three specific concerns to the Subcommittee's attention:
  --The unresponsiveness to date of the lead NIH institute in MS 
        research to the Society's interest in joint collaborative 
        research projects in MS.
  --The lack of uniformity in each NIH institute's coding system that 
        tracks grant expenditures according to disease categories.
  --The need to balance funding at NIH to assure that our national 
        security needs are met, but still allow research at all 
        institutes to grow in fiscal year 2003 and beyond.
    Collaboration with NIH.--The Society has a substantial, well-run 
and well-respected research enterprise. We come to the table extremely 
well equipped to present and discuss collaborative ventures with NIH 
representatives. Since the inception of NINDS, the Society has had a 
productive relationship with the institute. In prior years, our 
testimony detailed the many positive aspects of this longstanding 
relationship. Nevertheless, over the past several years, NINDS has been 
unresponsive to our proposals to initiate collaborative research 
support ventures, and has not been forthcoming with suggestions of 
other opportunities. After 4 years of substantial funding increases for 
research at NINDS, there should be fresh ideas or new directions that 
could be further explored, and possibly explored collaboratively. Some 
of these were suggested in the Society-sponsored Institute of Medicine 
study entitled, ``Multiple Sclerosis: Current Status and Strategies for 
the Future,'' which was completed in 2001. Recommendations from this 
study were widely distributed in this country and abroad at the time of 
publication. Collaborative activity leverages the resources of all 
parties engaged in the effort, and clearly there is great need and 
great opportunity for improved collaboration in research across 
government agencies, the public and private sectors, and scientific 
disciplines.
    In contrast to our experience with NINDS, we were pleased last year 
to report to the Subcommittee our collaborative agreement with NIAID to 
research ``Sex-based Differences in the Immune Response.'' We expect 
that this collaboration will extend the reach of the Society's own 
targeted research initiative on gender differences in MS by encouraging 
basic and clinical investigation of sex differences in the immune 
response in MS and related diseases; forging new collaborations to 
address existing gaps; providing wider visibility of the problem and 
opportunities; and ensuring increased support for high quality and 
relevant research. Initiated as an effort with the NIAID, other NIH 
institutes have come on board as well. Together, we will co-fund 
research projects relevant to MS, as well as projects related to other 
autoimmune diseases and to the immune function in general. Over the 
course of this agreement, up to $20 million could be spent on this 
initiative, and of this amount, the Society has committed up to $4 
million. We sincerely thank the Subcommittee for including language in 
the Committee Report accompanying the fiscal year 2002 Appropriations 
bill that praised NIAID for its collaborative activity with us.
    However, NINDS is the lead agency with regard to MS-specific 
research, and in order to leverage the institute's finite federal 
research investment, we believe collaborative activity is essential. It 
is time for us to request Congressional intervention in directing NINDS 
to be more open to discussing and negotiating possible collaborative 
projects. In this connection, we will be seeking advice and counsel 
from the members of this Subcommittee and their staff on the best 
approach to this matter.
    Grant Recoding Process.--During our efforts in Fall 2001 to obtain 
a clearer picture of the level of funding for MS-specific research at 
NIH, we discovered that several of the institutes had revised or were 
in the process of revising the coding procedures used to track grants 
and grant expenditures according to disease categories. Due to the new 
coding procedures that were implemented at NINDS starting in fiscal 
year 2000, reported NINDS funding for MS research dropped from $74.5 
million in 1999 to $40.3 million in 2000, a decline of 46 percent. The 
recoding at NINDS caused a corresponding drop in the reported level of 
funding for MS research at NIH overall, from $96.3 million in 1999 to 
$61.9 million in 2000, a decline of 36 percent. It is our understanding 
that NIAID has not yet initiated the recoding process.
    The drop in reported funding is of potential concern to members of 
the Society, and as a result, we requested a full explanation of the 
new coding process and its effect on reported support for MS research 
from the Acting Director of NINDS. We are pleased to report that we 
have now received a reply from NINDS, and we are currently working 
through all the information provided to assure ourselves that the new 
coding procedures and the large drop in reported funding for MS 
research in no way signal a substantive change in the direction and 
intensity of MS research at NIH. We will keep the Subcommittee members 
apprised of our findings.
    At the moment, our larger concern is that each of the institutes at 
NIH appears to be free to change its grant coding procedures without a 
uniform coding standard. The absence of a standard may well defeat the 
purpose the recoding is supposed to achieve. This is especially true 
for complex diseases like MS, where research is conducted by more than 
one institute. However, for ALL diseases, lack of a uniform standard 
creates a scenario where the American public cannot easily understand 
how its primary health research agency is allocating its resources.
    We request that the Subcommittee bring this matter to the attention 
of the new Director of NIH. We would like to see standard coding 
procedures across the institutes, so that everyone can have a clearer 
picture of how NIH funds research. We also request that the 
Subcommittee urge the NIH institutes to consult with interested 
parties, including patient groups, as these coding procedures are 
devised and implemented.
    NIH Funding in fiscal year 2003.--As Americans, we certainly want 
our country to be prepared to respond to biological terrorism, and we 
support increased federal funding for bio-terrorism research at NIH. 
However, we also must remain concerned about the balance of funding at 
NIH. In this, the last year of the widely supported effort to double 
funding for NIH over 5 years (fiscal years 1999-2003), we urge the 
Subcommittee to carefully weigh the funding allocation so that disease-
specific research at all institutes can continue to grow.
    The Society also supports funding to continue construction of the 
John Edward Porter Neuroscience Research Center at NIH. For fiscal year 
2003, we support the President's request for $172 million to complete 
construction of Phases I and II of the center. We expect that this item 
will be incorporated into the Building and Facilities Budget, and not 
compete with research funding. We believe that this center will bring 
together basic and clinical neuroscientists from across NIH to focus on 
important cross cutting research themes, such as neurodegeneration, 
regeneration and repair of neurons, neurogenetics, and pain research.
    We applaud the careful attention the Subcommittee has given to 
advancing the health and well-being of all Americans through 
substantial investment in biomedical research over the past several 
years, and we thank the Subcommittee for this opportunity to comment.
                                 ______
                                 
   Prepared Statement of the Coalition of National Health Education 
                             Organizations
    The Coalition of National Health Education Organizations (CNHEO) is 
pleased to submit this statement to the Senate Labor, Health and Human 
Services, and Education Subcommittee concerning appropriations for 
fiscal year 2003 for the Centers for Disease Control and Prevention 
(CDC). To accomplish its mission in fiscal year 2003, the CNHEO 
strongly recommends that the CDC should be funded at the level of at 
least $7.9 billion to accomplish its mission, including $1.1 billion 
for the National Center for Chronic Disease Prevention and Health 
Promotion.
    The CNHEO is a nonpartisan coalition of nine national professional 
organizations committed to mobilization of the resources of the Health 
Education Profession in order to expand and improve health education. 
Among other activities, the CNHEO serves as a communication and 
advisory resource for agencies, organizations and persons in the public 
and private sectors on health education issues. Coalition member groups 
represent more than 25,000 health education and promotion professionals 
and students in elementary and secondary schools, universities, state 
and local health/education departments, community-based organizations, 
health care facilities, and corporations both nationally and 
internationally. The organizations comprising this coalition are:
  --American Association for Health Education
  --American College Health Association
  --American Public Health Association/Public Health Education and 
        Health Promotion Section and School Health Education and 
        Services Education
  --American School Health Association
  --Association of State & Territorial Directors of Health Promotion 
        and Public Health Education
  --Eta Sigma Gamma
  --Society for Public Health Education
  --Society of State Directors of Health, Physical Education, and 
        Recreation.
    Health education is a social science that draws from the 
psychological, biological, environmental, physical, and medical 
sciences to promote health and prevent disease, disability and 
premature death through education-driven voluntary behavior change 
activities. Health education not only addresses individual behavior 
change but also community and institutional changes that are necessary 
to support healthy behaviors. By focusing on prevention, health 
education reduces the costs (both financial and human) that 
individuals, employers, families, insurance companies, medical 
facilities, communities, states, and the nation would spend on medical 
treatment. More than 250 colleges and universities in the United States 
offer undergraduate and graduate degrees in school or community health 
education, health promotion and other related titles. Voluntary 
credentialing such as a Certified Health Education Specialist (CHES) is 
available from the National Commission for Health Education 
Credentialing, Inc, while school heath educators are licensed by the 
state in which they teach.
    The CNHEO gratefully acknowledges the strong bipartisan support 
that the Senate Subcommittee on Labor, Health and Humans Services and 
Education has provided to CDC in recent years. The steady increased 
funding has enabled many states to improve translation of research in 
disease prevention and health promotion into essential programs and 
services at the state and local levels. Funding since September 11, 
2001 has helped lay the foundation for rebuilding public health 
infrastructure, including risk communication programs to inform the 
public.
    Tragic events of fall 2001 underscored, more than ever, the 
essential role of CDC in protecting public health. CDC is the nation's 
prevention agency. Working in partnership with state and local public 
health providers, CDC translates scientific and behavioral research 
into practice to accomplish our nation's health blueprint, Healthy 
People 2010 Objectives for the Nation. CDC programs improve access to 
quality health promotion and health education services across the broad 
diversity of our nation's communities. Given the unprecedented public 
health challenges now faced by this nation, the CNHEO strongly 
recommends that CDC should be funded at least $7.9 billion in fiscal 
year 2003.
    Of particular importance in fiscal year 2003 is increased funding 
for CDC's National Center for Chronic Disease Prevention and Health 
Promotion (NCCDPHP). Chronic diseases are the nation's leading causes 
of morbidity and mortality and account for more than 70 percent of the 
nation's $1 trillion spent on health care annually.\1\ For example, 
chronic diseases account for 76 percent of all deaths in Pennsylvania 
and Iowa; 75 percent in Hawaii and Wisconsin; and 74 percent in 
Washington and Texas.\2\ Moreover, chronic diseases account for the 
largest part of the health gap between populations. African Americans 
have higher mortality rates for cardiovascular disease, stroke, and 
cancer of the lung, colon/rectum, breast, cervix, and prostate than 
Whites, American Indians/Alaska Natives, Asian/Pacific Islanders, and 
Hispanic Americans.\3\ To address these inequities, the CNHEO requests 
fiscal year 2003 appropriation of $1.1 billion for CDC's NCCDPHP, 
including:
---------------------------------------------------------------------------
    \1\ CDC National Center for Chronic Disease Prevention and Health 
Promotion. Reducing the Health and Economic Burden of Chronic Disease. 
http://www.cdc.gov/nccdphp/upo/intro.htm, April 12, 2002.
    \2\ CDC National Center for Chronic Disease Prevention and Health 
Promotion. Total Deaths and Deaths Due to Chronic Diseases, by State, 
United States, 1998. http://www.cdc.gov/nccdphp/upo/total__deaths.htm. 
April 12, 2002.
    \3\ CDC National Center for Chronic Disease Prevention and Health 
Promotion. ``Death Rates for Major Chronic Diseases, by Race and 
Ethnicity, 1998. http://www.cdc.gov/nccdphp/upo/death__rates.htm
---------------------------------------------------------------------------
  --$220 million for breast and cervical cancer programs
  --$128 million for cancer prevention and control programs
  --$130 million for tobacco prevention and control programs
  --$83 million for comprehensive school health programs
  --$60 million for nutrition and physical activity programs
  --$125 million for the Youth Media Campaign
    According to recent surveys, the public believes preventable 
disease and injuries are a major health problem and that funding should 
be increased for disease prevention and health promotion programs. 
Health behavior is complex, and with the increasing diversity of our 
population, there is no ``one size fits all'' strategy or approach that 
works with all population groups. Simply advising people to stop 
smoking, start exercising, get a mammogram, or lose weight is 
ineffective. But science-based programs in health education that 
combine individual behavior change with community programs, policies 
and practices are effective, thereby saving lives and reducing U.S. 
health care expenditures.
    For example, a new group of studies in Health Promotion Practice 
shows that successful programs to lessen racial and ethnic health 
disparities share common traits of establishing strong ties between 
health providers and the community members they serve.\4\ Areas in 
which innovative programs are having a positive effect are infant 
mortality, cancer screening and management, cardiovascular disease, 
diabetes, HIV/AIDS and immunization. The most successful interventions 
in narrowing the gap build community involvement and trust by enlisting 
the help of community representatives, involve community members in 
prioritizing issues and address fundamental policy changes at the 
neighborhood, organizational and institutional levels.
---------------------------------------------------------------------------
    \4\ Roe, KM, Thomas, S. Eliminating Racial and Ethnic Health 
Disparities: Mapping a Course for Community Action. Health Promotion 
Practice. 3(2): 106-323, April 2002.
---------------------------------------------------------------------------
    Programs that establish healthy behaviors in our youth represent an 
investment for the future health of this nation. Tobacco use, poor 
nutrition, lack of physical activity, alcohol, and other drug use are 
risk behaviors, often established during youth, which contribute 
markedly to heart disease, diabetes, cancer, and injuries. Every day 
nearly 3,000 young people begin smoking; in the past decade obesity has 
doubled among children and adolescents; and daily participation in high 
school physical education classes dropped to 29 percent in 1999.\5\ 
School health programs have the potential to reach 53 million young 
people and are demonstrated to be cost-effective in promoting healthy 
behaviors. Yet 29 states, including Pennsylvania, Iowa, Texas, Nevada, 
New Hampshire, and Ohio, do not have coordinated school health 
programs. The CNHEO requests a fiscal year 2003 appropriation of $35 
million for CDC's Division of Adolescent and School Health (DASH) 
program separate from HIV/AIDS funds. These funds will support 6 to 9 
new state programs, expansion of the 21 existing coordinated school 
health programs, and funding for Physical Activity, Nutrition, and 
Tobacco Evaluation Projects in 2 states.
---------------------------------------------------------------------------
    \5\ CDC National Center for Chronic Disease Prevention and Health 
Promotion. Division of Adolescent and School Health. Healthy Youth: An 
Investment in our Nation's Future. 2002. http://www.cdc.gov/nccdphp/
dash/ataglanc.htm April 10, 2002.
---------------------------------------------------------------------------
    For example, in Maine all teachers in all middle schools were 
offered training and materials for the Life Skills Training curriculum, 
designed to help adolescents develop a wide range of personal and 
social skills. Surveys show that smoking among high school students in 
Maine has decreased more than 20 percent since the Life Skills Training 
Program was established in 1997.\6\ Increases in the state tobacco 
excise tax and the introduction of community-based tobacco control 
programs also contributed to this decrease in smoking rates.
---------------------------------------------------------------------------
    \6\ CDC National Center for Chronic Disease Prevention and Health 
Promotion. Division of Adolescent and School Health. Programs That 
Work--Research to Classroom. http://www.cdc.gov/nccdphp/dash/rtc/
index.htm April 10, 2002.
---------------------------------------------------------------------------
    Obesity is a major concern among children and adults alike. In the 
past 15 years, the prevalence of obesity has increased by more than 50 
percent among adults and 100 percent in children and adolescents.\7\ 
Ten to 15 percent of children and adolescents are overweight and more 
than half of these children have at least one cardiovascular disease 
risk factor, such as elevated cholesterol and hypertension. Obesity 
increases the risk for chronic diseases such as cardiovascular disease, 
diabetes, and cancer. Less that 30 percent of men and women eat five 
servings of fruits and vegetables daily and 60 percent of adults do not 
engage in proper physical activity levels. The overall cost of disease 
associated with obesity is estimated at $100 billion per year. The 
CNHEO requests a fiscal year 2003 appropriation of $60 million for 
CDC's Physical Activity and Nutrition Programs. With these funds the 
CDC will be able to fund Nutrition/Physical Activity programs in all 
states, territories and tribes and support analyses of the cost 
effectiveness of prevention and promote policy initiatives to modify 
diet and physical activity.
---------------------------------------------------------------------------
    \7\ CDC National Center for Chronic Disease Prevention and Health 
Promotion. Division of Nutrition and Physical Activity. Physical 
Activity and Good Nutrition: Essential Elements to Prevent Chronic 
Diseases and Obesity. http://www.cdc.gov/nccdphp/dnpa/dnpaaag.htm April 
11, 2002.
---------------------------------------------------------------------------
    The CNHEO requests the fiscal year 2003 appropriation of $1.67 
million for CDC's Bioterrorism Preparedness and Response Program. This 
request supports CDC's commitment to further define, develop, and 
implement a nationwide set of public health capacities required at the 
local, state, and federal levels to prevent, prepare for, respond to, 
and recover from terrorist acts. With these funds, we request that CDC 
expand the Centers for Public Health Preparedness Program to assure 
nationwide coverage and provide nationwide bioterrorism training for 
health care workers and that states have flexibility to respond to 
local needs. Only 20 percent of local public health agencies have a 
comprehensive bioterrorism response plan in place; 10 percent do not 
have e-mail capabilities; and half lack high-speed data transmission 
capacity. Most consumers agree that the CDC is very important in 
protecting public health against biological and chemical weapons and 
many were supportive of increased funding for preparation and response 
to such terrorism (9). Brought into focus by the September 11 terrorist 
attacks and subsequent anthrax attacks, the best strategy to protect 
civilians against any health threat is a public health infrastructure 
that is prepared at every level. Having a well-prepared workforce that 
can be deployed at the community level to support essential public 
health services will in turn support public health outcomes.
    Through many programs and initiatives, the CDC helps countless 
individuals live healthier, more productive lives. Although research 
has helped to better understand the causes and risk factors for chronic 
diseases, effective measures are not being fully implemented at the 
state and local levels to prevent chronic disease and its devastating 
and costly consequences. Behavioral and clinical research needs to be 
effectively promoted and applied at the community level with the 
guidance of the nation's prevention agency--the CDC. CDC programs need 
full funding to effectively address challenges of the 21st century, 
including the threats of bioterrorism. We appreciate the support of 
this Subcommittee and look forward to working with members of Congress 
to achieve these goals in fiscal year 2003 and into the future.
                                 ______
                                 
    Prepared Statement of the American Urological Association, Inc.
    On behalf of the more than 10,000 members of the AUA and the 
patients they serve, I am pleased to provide the Subcommittee with our 
recommendations for fiscal year 2003 funding for urology research at 
the National Institutes of Health (NIH), in particular the National 
Institute of Diabetes and Digestive and Kidney Diseases (NIDDK) and the 
National Cancer Institute (NCI). We are also recommending that the 
Centers for Disease Control and Prevention (CDC) receive additional 
funds to expand their efforts to promote public awareness about 
prostate cancer. I request that this statement be made part of the 
official hearing record.
    AUA thanks Congress and this Subcommittee for its strong support of 
NIH and CDC. We are on schedule toward doubling the budget for 
biomedical research. This is welcome news for the medical and 
scientific communities, and most importantly, for our citizens who will 
one day benefit from the results of this research. NIH is among our 
best investments, and the nation needs to strengthen its biomedical 
research infrastructure if we are to continue to improve the health of 
our citizens. This Subcommittee has been steadfast in its support for 
biomedical research, and AUA greatly appreciates those efforts. AUA 
supports the recommendation of One Voice Against Cancer for a fiscal 
year 2003 NIH budget of $27.3 billion which would fulfill the 
commitment to double the budget over 5 years.
    The burden of urological diseases can fall on anyone, from young 
children to our most frail elderly. Many urological diseases are age 
related and the incidence and consequences of urologic disease will 
become more profound and a greater burden to individuals and our 
society with the aging of our population. Genito-urinary diseases and 
conditions result in estimated health care expenditures in the United 
States of nearly $50 billion each year. One third of all new cancers in 
2002 will involve a urologic organ. Fifty percent of all new cancers in 
men are urologic in origin.
    The effect of these diseases on minority populations and women is 
significantly greater than the overall effect on the entire population. 
For example, the incidence of prostate cancer among African American 
males is twice that of white men. Women suffer from urinary 
incontinence at twice the rate of men. Unfortunately science cannot 
adequately explain why these differences exist and how to address them.
    In 1990 I had the honor of serving as Deputy Chairman of the 
National Kidney and Urologic Diseases Advisory Board. I helped author 
its long-range plan, ``Window on the 21st Century'', that identified 
areas of need in urology research and made recommendations on how those 
challenges could be met. In the intervening decade there has been 
undoubted progress, but as I reread the report, I am struck by how many 
of the same issues confront urology research today because no steps 
have been taken to address them. If the report's recommendations had 
been followed, I am sure that I could today report on great progress in 
women's urological issues, in the congenital urologic defects that 
affect infants and in male infertility, just to name a few areas that 
badly need the attention of the scientific community. If the advice of 
the Advisory Board had been followed, we would not have the ongoing 
debate over whether early detection of prostate cancer saves men's 
lives. Had we started in 1990 we would know the answer today with 
certainty.
    I view this as a history of lost opportunities, and while I am 
excited about the progress that our scientists have made, I am greatly 
disappointed that so much still remains to be done.
    We knew what the questions were in 1990. They have not changed. We 
simply have not taken the opportunity to answer them. The losers have 
been the American people who still suffer from these diseases.
    The funds available for urologic research remain small when 
compared to those available for other diseases of similar impact. We 
believe that urological diseases and conditions constitute a major 
public health problem in this nation; one that is not being adequately 
met by existing research and public health mechanisms. We hope that the 
commitment of Congress to foster growth in the overall budget at NIH 
will translate into real gains in support for urologic research.
                       national cancer institute
    The American Cancer Society (ACS) estimates that 189,000 new cases 
of prostate cancer will be diagnosed in 2002. This means that prostate 
cancer remains the second most commonly diagnosed cancer among men. ACS 
further projects that 30,200 men will die from this disease this year. 
This represents a further decline in the death rate that is part of a 
sustained trend and strongly suggests the effectiveness of early 
detection. In fact, the change is so statistically significant that it 
is hard to understand why there is any debate over the importance of 
early detection of prostate cancer.
    However, it is imperative that we improve our ability to detect 
prostate cancer more accurately at the earliest stages. We also need to 
be able to determine which cancers will be aggressive and might require 
more aggressive therapies.
    There is no question that we must expand and improve the types of 
treatments that are available for men with prostate cancer, whether in 
the early or later stages of the disease. AUA is pleased with the 
initiatives in prostate cancer that are underway at NCI. If adequate 
funds continue to be available researchers will unlock even more of the 
secrets of this cancer. Because of research funded at NCI, with the 
strong encouragement of this Subcommittee, urologists now have a better 
understanding of the disease's mechanisms. NCI funded research has 
opened new doors that could lead to significant new advances in the 
diagnosis and treatment of this disease.
    In order to meet the needs in prostate cancer research, we join 
with the National Prostate Cancer Coalition and One Voice Against 
Cancer in asking for $5.69 billion, the amount of the NCI bypass 
budget. This amount will assure that NCI will have the $340 million 
necessary to implement fully the 5-year prostate cancer investment 
strategy it submitted to Congress in 1999.
    However, we should not forget that the other urologic cancers, 
including testicular, bladder and kidney cancer, also affect thousands 
of Americans and their families each year. As the budget for NCI 
increases, new funds must be allocated to work in these areas. 
Currently, they are not adequately funded. AUA has previously 
recommended that NCI develop a comprehensive plan showing how these 
other urologic cancers can be addressed. Such a plan, worked out with 
the urologic scientific community, can help Congress and the National 
Institutes of Health determine the appropriate level of funding for 
these cancers and assure that federal funds are spent most effectively 
to combat these diseases. We are pleased that NCI has responded to our 
request and established progress review groups for both kidney and 
bladder cancers. We look forward to their recommendations.
    national institute of diabetes and digestive and kidney diseases
    Two years ago the appropriations conference report contained the 
following commentary on NIDDK, the home of the urology basic science 
program. ``The conferees are concerned that the urology research effort 
is not addressing the large public health impact of urological diseases 
and conditions. NIDDK is strongly urged to enhance its research 
initiatives in urology.'' Unhappily, this situation remains unchanged.
    Congress has provided substantial increases in the budgets of all 
Institutes, and now is the time for NIDDK to show Congress that it 
heard the message in the conference report. This means that existing 
programs must grow along with the overall agency budget. It also means 
that additional efforts are required because some key areas in urology 
research have been neglected in the past. It is critical that NIDDK 
provide this Subcommittee with specific plans for addressing these 
issues. There is no shortage of unmet need or opportunity in urology 
research.
    In addition to providing the needed funds, NIDDK needs to rethink 
the structure of the urology research program. Currently it is housed 
in the Division of Kidney, Urology and Hematology. However, the breadth 
and complexity of urological disease argues strongly for a more 
flexible arrangement, with direct access to the highest levels of NIDDK 
leadership. We believe that a separate urology division, reporting to 
the Director of the Institute, would be such an arrangement and would 
make sure that there is strong and effective leadership for the urology 
program at NIH.
    Prostate diseases affect far too many men, including cancer, 
prostatitis and benign prostatic disease. A key issue for each of these 
conditions is to better understand the factors that regulate prostate 
growth. Prostatitis is a painful condition affecting younger men and it 
has been estimated that the cost of this disease exceeds one half 
billion dollars annually.
    BPH affects more than 12 million men over age 50, and twenty 
percent of them require treatment. Surgical treatment for the symptoms 
of the disease is the most common operation in the male over 65 years 
old in the United States. We also need to focus more attention on the 
bladder and urethral changes in response to the enlarged prostate. 
Bladder dysfunction and urinary obstruction are important problems 
associated with BPH, yet the relationships, causes and mechanisms are 
poorly understood.
    There is a pressing need to increase research into the urologic 
disorders that affect women: urinary incontinence, urinary tract 
infections, interstitial cystitis (IC) and other problems of the 
bladder. These diseases affect millions of women of all ages and result 
in major U.S. health care expenditures. Urinary incontinence is a major 
cause of nursing home admissions for women. Many of those admissions 
might be prevented if the right questions were being asked and 
answered. There is very little funded research that focuses on either 
the prevention or effective treatment of these diseases. NIDDK has been 
slow to respond to Congressional efforts to advance clinical and basic 
research in women's urology.
    Three other areas of research need attention, male infertility and 
impotence, congenital anomalies of the genitourinary tract and kidney 
stone diseases. In the area of male infertility for example, funding is 
extraordinarily limited although it is the cause of at least half of 
infertility in couples. Given the importance we all place on families 
and raising children, it is astounding that NIDDK funds virtually no 
research into a major problem affecting couples who cannot have 
children. Impotence affects as many as 30 million men, yet virtually no 
research is directed to the problem.
    Urology problems that are present at birth result in significant 
physical and psychological stress for both the parents and the child. 
Most of these problems are due to congenital errors in the development 
of the urinary tract. The NIH devotes minimal research dollars to 
investigating either the genetic origin or effective treatment 
strategies for these abnormalities. The reality of genetic intervention 
could provide an entirely new method of understanding the inheritance, 
the cause and the effective treatment of these defects. We recommend 
that the NIDDK collaborate with other interested institutes in 
developing a strategic research plan to address congenital urological 
disorders in the pediatric age group. We need to initiate new, 
innovative research projects in these areas, especially such prevalent 
conditions as ureteral reflux, fetal hydronephrosis, and the effective 
treatment of the bladder dysfunction of spina bifida.
    Urinary stone disease is a common and very painful occurrence for 
many Americans. Although effective treatments are available, almost no 
work is being done to advance this field, particularly in areas such as 
etiology and prevention.
    NIDDK is the home of the George M. O'Brien Kidney and Urology 
Research Centers that have made a significant contribution to progress 
in these disease areas. We urge continued and increased funding for 
their activities. In addition, AUA recommends the creation of new 
urologic centers, which should have a clinical component and a research 
training component. These new centers could address some of the 
challenges in male infertility and pediatric urology, for example, that 
are currently unexamined.
    Congress has provided NIDDK significant amounts of money to study 
diabetes and its complications. Urological complications such as 
impotence and urinary retention are frequent, yet the Institute is 
devoting no funds to examining this aspect of diabetes. AUA believes 
that this is a major oversight and recommends that NIDDK provide the 
Subcommittee with its plan to address this problem.
    NIDDK should also increase research into the effective treatment of 
bladder dysfunction associated with spinal cord injury and neurological 
diseases. Bladder dysfunction associated with these disorders is 
frequently the cause of protracted illness, kidney failure and even 
death from overwhelming infection. We need to make sure that the most 
effective methods of treatment and new and innovative approaches to 
treatment are investigated and utilized.
               centers for disease control and prevention
    Prostate cancer is the second leading cause of cancer death among 
men in this country. Other than skin cancer, it is the most commonly 
diagnosed type of cancer, and has considerably higher incidence and 
mortality rates among African American men. Despite this impact, the 
importance of providing screening, outreach, education and treatment 
for men, especially those at higher risk, is neglected. CDC's prostate 
cancer awareness campaign is an important part of the overall effort. 
Since prostate cancer does strike African American men at a much higher 
rate, it is imperative that we conduct prevention and outreach programs 
within this community to assure early intervention and treatment using 
the best tools available. CDC is a logical place for such an effort 
given its experience with similar programs in breast and cervical 
cancer.
    We are pleased that the efforts of Congress to stimulate such a 
program have succeeded, and a small activity has been developed. This 
program shows great promise, and we ask that $20 million be allocated 
to this effort in order to expand CDC's ability to target high-risk 
populations for this disease. Education, awareness and early detection 
are key to reducing the extremely high prostate cancer rates among 
African American men. Men must be motivated to take advantage of these 
opportunities, and this is an area in which CDC can play a critical 
role. As this targeted effort succeeds, it can be expanded in the 
future to include the broader male population at risk.
    However, we must express one concern about the attitudes among some 
in CDC toward men with prostate cancer and their need for accurate 
information about their disease. In the Public Health Improvement Act 
which reauthorized the CDC in 2000, specific language was included 
directing CDC to seek input from professional societies and other 
private and public entities as it developed materials on prostate 
cancer screening measures and appropriate medical treatment. One of 
CDC's first efforts was to draft a public education brochure on 
prostate cancer screening. While a meeting was held with 
representatives from urology and prostate cancer patient organizations, 
the language that was drafted took in little or none of our 
recommendations. The language was in fact extremely vague and rambling 
about the risks of prostate cancer, negative towards the benefits of 
screening and even questioned whether prostate cancer is a serious 
health problem. While the booklet has not yet been published, efforts 
by AUA and many patient groups to implement changes have fallen on deaf 
ears. I think it is very important to underscore that the groups most 
unhappy with CDC's efforts are the ones that represent prostate cancer 
survivors. We urge the Subcommittee to make sure that CDC does not 
publish such misleading information about a deadly disease.
    AUA urges careful consideration of these recommendations and 
appreciates the opportunity to submit them to the Subcommittee. We urge 
the Subcommittee to maintain its efforts on behalf of NIH and to focus 
greater attention on urologic diseases and conditions in this next 
fiscal year.
    Please direct any questions to AUA's Director of Government 
Relations, Cherie McNett, or Director of Research, Monica Liebert, at 
410-727-1100.
                                 ______
                                 
      Prepared Statement of the Hepatitis Foundation International
              summary of fiscal year 2003 recommendations
  --Continue the effort to double the National Institutes of Health 
        (NIH) budget by providing a 16 percent increase for fiscal year 
        2003. Increase funding for the National Institute for Allergy 
        and Infectious Diseases (NIAID) and the National Institute of 
        Diabetes and Digestive and Kidney Diseases (NIDDK) by 16 
        percent.
  --NIH--$23.7 billion
  --NIAID--$2.9 billion (non-bioterrorism)
  --NIDDK--$1.7 billion
  --Provide $7.9 billion in fiscal year 2003 for the Centers for 
        Disease Control and Prevention (CDC).
  --Provide $41 million in fiscal year 2003 for a hepatitis B 
        vaccination program for high risk adults at CDC as recommended 
        by the National Hepatitis C Prevention Strategy.
  --Provide $40 million in fiscal year 2003 for CDC's Prevention 
        Research Centers.
    Thank you for your continued leadership in promoting better 
research, prevention, and control of diseases affecting the health of 
our nation. I am Thelma King Thiel, Chairman and Chief Executive 
Officer of the Hepatitis Foundation International (HFI), representing 
members of 425 patient support groups across the nation, the majority 
of whom suffer from chronic viral hepatitis.
    Currently, five types of viral hepatitis have been identified, 
ranging from type A to type E. All of these viruses cause acute, or 
short-term, viral hepatitis. Hepatitis B, C, and D viruses can also 
cause chronic hepatitis, in which the infection is prolonged, sometimes 
lifelong. While treatment options are available for all types of 
hepatitis, individuals with chronic viral hepatitis (types B, C, and D) 
represent the majority of liver failure and transplant patients. 
Treatment options and immunizations are available for most types of 
hepatitis (see below), however, we do know how to prevent all types of 
hepatitis.

------------------------------------------------------------------------
                                         Immunization       Treatment
------------------------------------------------------------------------
Hepatitis A..........................  Yes.............  Will Resolve
                                                          Itself
Hepatitis B..........................  Yes.............  Drug Therapy
Hepatitis C..........................  No..............  Drug Therapy
Hepatitis D..........................  Yes.............  Drug Therapy
Hepatitis E..........................  No..............  Will Resolve
                                                          Itself
------------------------------------------------------------------------

                              hepatitis b
    Hepatitis B (HBV) claims 5,000 lives every year in the United 
States, even though we have therapies to both prevent and treat this 
disease. This disease is spread through contact with the blood and body 
fluids of an infected individual. Unfortunately, due to both a lack in 
funding to vaccinate adults at high risk of being infected and the 
absence of an integrated preventive education strategy transmission of 
hepatitis B continues to be problematic.
                              hepatitis c
    Infection rates for hepatitis C (HCV) are in epidemic proportions, 
unfortunately, as many do not become ill with the disease until several 
years after infection, we are dealing with an ``epidemic of 
discovery''. This creates a vicious cycle, as individuals who are 
infected continue to spread the disease unknowingly. Hepatitis C is 
also spread through contact with an infected individual's blood. The 
CDC estimates that there are over 3.9 million Americans who have been 
infected with hepatitis C, of which over 2.7 million remain chronically 
infected, with 10,000 deaths each year. Additionally, the death rate is 
expected to triple by 2010 unless additional steps are taken to improve 
outreach and education on the prevention of hepatitis C, new research 
is undertaken, and more effective treatments are developed. As there is 
no vaccine for HCV, prevention activities serve as the only tool in 
halting the spread of the disease.
                         prevention is the key
    Only a major investment in immunization and preventive education 
will bring these diseases under control today. All newborns, young 
children, young adults, and especially individuals that participate in 
high-risk behaviors must be a priority for immunization and outreach 
initiatives. We recommend that the following activities be undertaken 
to prevent the further spread of all types of hepatitis:
  --Provide effective preventive education in our elementary and 
        secondary schools helping children avoid the ravages of health 
        problems resulting from viral hepatitis infection.
  --Training health care professionals in effective communication and 
        counseling techniques.
  --Public awareness campaigns to alert individuals to assess their own 
        risk behaviors, motivate them to seek medical advice, encourage 
        immunization against hepatitis A and B, and to stop the 
        consumption of any alcohol if they have participated in risky 
        behaviors that may have exposed them to hepatitis C.
  --Expansion of screening, referral services, medical management, 
        counseling, and prevention education for individuals who have 
        HIV/AIDS, many of whom may be co-infected with hepatitis.
    HFI recommends an increase of $41 million in fiscal year 2003 for 
further implementation of CDC's Hepatitis C Prevention Strategy. This 
increase will support and expand the development of state-based 
prevention programs by increasing the number of state health 
departments with CDC funded hepatitis coordinators. The Strategy will 
use the most cost-effective way to implement demonstration projects 
evaluating how to integrate hepatitis C and hepatitis B prevention 
efforts into existing public health programs. Additionally, HFI 
recommends that $10 million be used to train and maintain hepatitis 
coordinators in every state.
    CDC's Prevention Research Centers, an extramural research program, 
plays a critical role in reducing the human and economic costs of 
disease. Currently, CDC funds 26 prevention research centers at schools 
of public health and schools of medicine across the country. HFI 
encourages the Subcommittee to increase core funding for these 
prevention centers, as it has been decreasing since this program was 
first funded in 1986. We recommend the Subcommittee provide $40 million 
for the Prevention Research Centers program in fiscal year 2003.
                        investments in research
    Investment in the National Institutes of Health (NIH) has led to an 
explosion of knowledge that has advanced understanding of the 
biological basis of disease and development of strategies for disease 
prevention, diagnosis, treatment, and cures. Countless medical advances 
have directly benefited the lives of all Americans. NIH-supported 
scientists remain our best hope for sustaining momentum in pursuit of 
scientific opportunities and new health challenges. For example, 
research into why some HCV infected individuals resolve their infection 
spontaneously may prove to be life saving information for others 
currently infected. Other areas that need to be addressed are:
  --Reasons why African Americans do not respond to antiviral agents in 
        the treatment of chronic hepatitis C.
  --Pediatric liver diseases, including viral hepatitis.
  --The outcomes and treatment of renal dialysis patients who are 
        infected with HCV.
  --Co-infections of HIV/HCV positive patients.
  --Hemophilia patients who are co-infected with HIV/HCV.
    The Hepatitis Foundation International supports the final year of 
the NIH doubling effort, which would provide $23.7 billion for NIH in 
fiscal year 2003 representing a 16 percent increase. HFI also 
recommends a comparable increase of 16 percent in hepatitis research 
funding at the National Institute of Diabetes and Digestive and Kidney 
Diseases and the National Institute of Allergy and Infectious Diseases.
    Victims of hepatitis suffer emotionally as well as physically. They 
experience discrimination in employment, strained personal 
relationships and severe depression when treatments fail to control 
their illness as well as during their treatment. We look forward to 
working in collaboration with CDC, NIH, health departments and other 
voluntary organizations to bring viral hepatitis under control.
    Thank you for providing this opportunity to present our testimony.
The Hepatitis Foundation International
    The Hepatitis Foundation International (HFI) is dedicated to the 
eradication of viral hepatitis, a disease affecting over 500 million 
people around the world. We seek to raise awareness of this enormous 
worldwide problem and to motivate people to support this important--and 
winnable--battle.
    Our mission has four distinct parts:
  --Teach the public and hepatitis patients how to prevent, diagnose, 
        and treat viral hepatitis.
  --Prevent viral hepatitis by promoting liver wellness and healthful 
        lifestyles.
  --Serve as advocates for hepatitis patients and the related medical 
        community worldwide.
  --Support research into prevention, treatment, and cures for viral 
        hepatitis.
                                 ______
                                 
             Prepared Statement of One Voice Against Cancer
    On behalf of One Voice Against Cancer (OVAC), a collaboration of 
more than 40 public interest groups representing 15 million Americans 
impacted by cancer, we are writing to urge you to make cancer research 
and its application a priority during consideration of the fiscal year 
2003 Labor, Health and Human Services and Education (LHHS) 
Appropriations bill.
    Congress has shown exemplary leadership in mounting an aggressive 
war on cancer, as demonstrated by Congressional commitment to double 
the National Institutes of Health (NIH) budget by 2003. We have been 
pleased to work with you to secure the necessary funding for NIH, the 
National Cancer Institute (NCI), and the Centers for Disease Control 
and Prevention (CDC) in the past and look forward to doing so again 
this year. Your continued support and leadership is imperative to 
winning the war on cancer.
    The facts are sobering: cancer claimed the lives of more than 
500,000 Americans last year, while another 1.2 millions are newly 
diagnosed with cancer annually. We are aware of the many worthy 
priorities deserving of Congressional support in this difficult fiscal 
environment and hope that you will prioritize the importance of life-
saving cancer research and application programs.
    We encourage you to devote the resources needed to benefit those on 
the front lines battling cancer--the researchers and health 
professionals striving every day to defeat cancer, the person without 
access to adequate cancer screening, the family with a loved-one who 
has been newly diagnosed with the disease. Research holds the key to 
improved prevention, early detection, diagnosis and treatment, late 
effects of treatment and subsequent follow up care. To complement our 
nation's ongoing investment in research, increased funding also is 
needed to enhance vital cancer prevention, awareness, and early 
detection programs at the CDC to ensure that these research 
applications benefit all Americans.
    Therefore, OVAC asks that Congress include the following funding 
levels in the fiscal year 2003 Labor, Health and Human Services and 
Education Appropriations bill (see attached summary):
  --$27.3 billion for the NIH in fiscal year 2003. This will fulfill 
        the commitment to double NIH funding by fiscal year 2003.
  --$5.69 billion for the NCI, the amount the NCI Director is 
        requesting for a comprehensive effort to win the war against 
        cancer. This ``bypass budget'' represents the best chance for 
        Americans who will be newly diagnosed with cancer this year, 
        many of whom will have deadly forms of cancer of which we still 
        know too little and for which we must offer new research 
        opportunities and new hope.
  --$199.6 million for the NIH Center for Minority Health and Health 
        Disparities to enable the Center to fulfill its important 
        mission, particularly as it concerns the disproportionate 
        incidence, morbidity, and mortality that cancer has in many 
        racial and ethnic minority populations. Specifically, we call 
        upon Congress to double the financial commitment to the Center 
        over the course of the next 3 fiscal years. This will be 
        attained through 26 percent increases in each year and will 
        allow the Center to meet emerging priorities made even more 
        apparent by the doubling of the overall NIH budget during the 
        past five years.
  --$348 million for cancer education, outreach, prevention and 
        screening efforts through the CDC which applies the important 
        research done at NIH to those touched by cancer. CDC's Cancer 
        Prevention and Control programs provide vital cancer education, 
        outreach, prevention and screening efforts that have a positive 
        impact on the lives of all Americans. Application of NIH and 
        NCI research conducted by CDC is proving to be particularly 
        critical in saving lives, and we urge Congress to continue this 
        important support.
    Funding for all of these critical programs must be efficiently and 
effectively utilized so that all Americans reap clear and rapid 
benefits from research and its application. To that end, we look 
forward to working with you to ensure that these federal agencies 
responsibly meet their obligations.
    One Voice Against Cancer encourages you to take these vital steps 
to help the nation defeat cancer. Please contact any of the 
organizations listed below if we can be of assistance or provide 
additional information regarding our funding requests. We thank you for 
your continued work on behalf of our nation in these critical days.

American Cancer Society; American Foundation for Urologic Disease; 
        American Society of Hematology; American Urological 
        Association; Asian & Pacific Islander American Health Forum; 
        Association of Community Cancer Centers; Breast Cancer Resource 
        Committee, Inc.; Cancer Research Foundation of America; 
        Candlelighters Childhood Cancer Foundation; Children's Oncology 
        Group; Coalition of National Cancer Cooperative Groups; 
        Colorectal Cancer Network; Intercultural Cancer Council; 
        Intercultural Cancer Council Caucus; Kidney Cancer Association; 
        Leukemia & Lymphoma Society; Men's Health Network; National 
        Alliance for Hispanic Health; National Melanoma Foundationl; 
        Oncology Nursing Society; Ovarian Cancer National Alliance; 
        Pancreatic Cancer Action Network; Society of Gynecologic 
        Oncologists; United Ostomy Association, Inc.; and US TOO 
        International, Inc.
 summary of one voice against cancer funding requests--fiscal year 2003
National Institutes of Health (NIH)--$27.3 billion
    This is the amount necessary to fulfill the commitment to double 
the NIH budget over 5 years.
National Cancer Institute (NCI)--$5.69 billion
    This is the NCI Director's fiscal year 2003 Bypass Budget.
National Center for Minority Health and Health Disparities--$199.6 
        million
    This amount will put the nation on course to double the Center's 
budget over the course of 3 years.
Centers for Disease Control and Prevention (CDC)
    Comprehensive Cancer Control Initiative--$10 million
    National Cancer Registries Program--$55 million
    Colorectal Cancer Screening, Education and Outreach--$25 million
    Prostate Cancer Awareness Campaign--$20 million
    National Breast and Cervical Cancer Early Detection Program--$220 
million
    Ovarian Cancer Program--$8 million
    Skin Cancer Program--$10 million
                                 ______
                                 
   Prepared Statement of the Upper County Branch, Montgomery County, 
                          Maryland Stroke Club
                  a stroke survivor: a personal story
    Hello. My name is Susan Emery. I am the presiding officer of the 
Upper County Branch of the Montgomery County Stroke Club and I'm a 
stroke survivor.
    Our club conducts education and support activities for stroke 
survivors, their family members, and caregivers. We serve people in the 
Maryland suburbs of Washington, DC, and are fortunate to be in the same 
county as the National Institutes of Health. We have benefited on many 
occasions by the participation of NIH staff members in our membership 
meetings. They have been generous in sharing information about their 
research into stroke prevention and treatment with us.
    On December 26, 1965 at the age of nine, I was playing a new game 
with my brother and a few friends at the kitchen table. That's the last 
thing that I remember. I was unconscious for the next two days. My 
mother first learned, incorrectly, that I had spinal meningitis. I was 
transferred to another hospital where my mother was told that I had 
little chance of survival. Yet I'm here, more than 36 years later, and 
I've survived a stroke.
    People seldom associate strokes with children. These strokes are 
rare, but they do happen. There are about three cases of stroke per 
year in every 100,000 children under age 14. One of the difficulties in 
dealing with strokes in children is getting the right diagnosis 
quickly. There are often delays in diagnosis of childhood stroke.
    I spent 2 weeks in the hospital and the following 4 months in 
intensive physical therapy. My tenth birthday was spent in the 
hospital, and I have a picture in my photo album of myself with my 
mother and a new friend. My right eye is turned down, my mouth is 
turned down, but I'm still smiling. During the 4 months in therapy at 
Holy Cross in Detroit, I learned the basics: how to walk, how to talk, 
and how to move the fingers on my right hand. My mother followed the 
doctor's instructions and sent me back to school very quickly, where 
classmates helped me button and unbutton my coat and carry my books, 
and teachers taped papers to the desk so I could learn to write again. 
I survived that 4 months, and would never wish to repeat it.
    I've been in therapy six times in my life. I need to tell you about 
the one time that was the most important to my family. I was 26 years 
old and had just had my first child. I kept her safe, for I knew my 
limitations. I always used my left hand to support her. But when she 
was 6 months old, she got to be a little heavy, and twice, as I was 
putting her on the floor to change her diaper, my right hand slipped 
from under her buttocks. She fell only inches in both cases and didn't 
even notice. But I noticed. I went in for 2 or 3 months of therapy 
close to Denver, Colorado, where I was living at the time. Here for the 
first time, they helped my right hand and arm dexterity through 
occupational therapy. I also learned that I had aphasia--the inability 
to speak, write or understand spoken or written language because of 
brain injury--because I called things like cornucopias, unicorns 
instead of fruit baskets. Instead of the word being the same, I picked 
a word that sounded the same. These therapists in Colorado worked with 
my mind and my body and I will forever be in their debt.
    Close to 14 years ago, I made a new life for myself in Maryland. 
Here, I've been an outpatient at the National Rehabilitation Hospital 
three times: once for my right foot, once for my Achilles tendon and 
once for my right knee. I've seen numerous physiatrists, all of whom 
are excellent in their field. I've also seen my fair share of 
therapists. Since I've had therapy off and on for most of my life, I 
can honestly say that the first few times you go in to see a therapist, 
you'll come out hurting more than when you went in. But in the long 
run, they help tremendously.
    On a work related note, I received a Bachelor of Science in 1978 
from Michigan State University in Computer Science and worked for 12 
years in the field. I started working in the telecommunications 
industry in 1990, and got a Master of Science from the University of 
Maryland, University College in Telecommunications Management. I now 
work for ITT Industries as a senior engineer on a contract supporting 
the Federal Aviation Administration's leased telecommunications 
activities, and have worked there for more than 5 years. I've done more 
than survive. I've become a productive member of society.
    Stroke research has changed my life. Without the research carried 
out 40 to 50 years ago, I would not have benefited from electric shock 
therapy that made me understand the muscles that moved my fingers. 
Without research done 30 years ago, I may not have been able to 
understand how to exercise my hand for dexterity. Without research 
performed 10 years ago, the people around me would not understand that 
they need to get me to the hospital quickly if ever I have another 
stroke. Without current support, researchers may never understand how 
to stop strokes before they happen or how to make current stroke 
survivors live healthier lives.
    Stroke remains America's No. 3 killer and a major cause of 
permanent disability. About 4.6 million Americans live with the 
consequences of stroke and 1 of 4 is permanently disabled. Yet, stroke 
research receives 1 percent of the National Institutes of Health 
budget. I strongly urge you to significantly increase funding for the 
National Institutes of Health-supported stroke research, particularly 
for National Institute of Neurological Disorders and Stroke-supported 
stroke research. NIH stroke research is essential to prevent strokes 
from happening to children and adults in the first place, and to 
advance recovery and rehabilitation of those who survive this 
potentially devastating illness.
                                 ______
                                 
 Prepared Statement of the American Thoracic Society and the American 
                            Lung Association

Summary of Funding Recommendation

                        [In millions of dollars]

National Institutes of Health.................................  27,259.0
    National Heart, Lung, and Blood Institute.................   2,988.7
    National Institute of Allergy and Infectious Disease......   2,943.6
    National Institute of Environmental Health Sciences.......     661.2
    Fogarty International Center..............................      66.3
    National Institute of Nursing Research....................     139.7
Centers for Disease Control and Prevention....................   7,900.0
    National Institute for Occupational Safety and Health.....     336.5
    Office on Smoking and Health..............................     130.0
    Environmental Health: Asthma Activities...................      70.0
    Tuberculosis Control Programs.............................     528.0

    The American Thoracic Society (ATS) and American Lung Association 
(ALA) are pleased to present our recommendations for programs in the 
Labor Health and Human Services and Education Appropriations 
Subcommittee purview.
    The American Thoracic Society, founded in 1905, is an independently 
incorporated, international education and scientific society which 
focuses on respiratory and critical care medicine. The Society's 
members help prevent and fight respiratory disease around the globe 
through research, education, patient care and advocacy. The Society's 
long-range goal is to decrease morbidity and mortality from disorders 
and life-threatening acute illnesses.
    The American Lung Association is the oldest voluntary health 
organization in the United States, with a National Office and 
constituent and affiliate associations around the country. Founded in 
1904 to fight tuberculosis, the American Lung Association today fights 
lung disease in all its forms, with special emphasis on asthma, tobacco 
control and environmental health. The Lung Association is funded by 
contributions from the public, along with gifts and grants from 
corporations, foundations and government agencies. The American Lung 
Association achieves its many successes through the work of thousands 
of committed volunteers and staff.
                       magnitude of lung disease
    Each year, an estimated 341,500 Americans die of lung disease. Lung 
disease is America's number three killer, responsible for one in every 
seven deaths. More than 25 million Americans suffer from a chronic lung 
disease. This year, lung diseases cost the U.S. economy an estimated 
$94.9 billion.
    Lung diseases represent a spectrum of chronic and acute conditions 
that interfere with the lung's ability to extract oxygen from the 
atmosphere, protect against environmental or biological challenges and 
regulate a number of metabolic processes. Lung diseases include: 
chronic obstructive pulmonary disease, lung cancer, tuberculosis, 
pneumonia, influenza, sleep disordered breathing, pediatric lung 
disorders, occupational lung disease, sarcoidosis and asthma.
    The American Thoracic Society and American Lung Association are 
pleased that the Administration has proposed completing the effort to 
double the National Institute of Health (NIH) budget in fiscal year 
2003. We look forward to working with this committee to bring this 
important investment in the health of all Americans to its fruition. 
Mr. Chairman, while our comments today will focus on selected parts of 
the Public Health Service, the American Thoracic Society and American 
Lung Association are firmly committed to appropriate funding for all 
sectors of our nation's public health infrastructure.
                                  copd
    Chronic Obstructive Pulmonary Disease, or COPD, is a growing health 
problem. Yet it remains relatively unknown to most Americans and much 
of the research community. COPD is an umbrella term used to describe 
the airflow obstruction associated mainly with emphysema and chronic 
bronchitis. COPD is the fourth leading cause of death in the United 
States and worldwide.
    While the exact prevalence of COPD is not well defined, it affects 
tens of millions of Americans and can be an extremely debilitating 
condition. It has been estimated that 16 million patients have been 
diagnosed with some form of COPD and as many as 16 million more are 
undiagnosed. New government data based on a 1998 prevalence survey 
suggest that three million Americans have been diagnosed with emphysema 
and nine million are diagnosed with chronic bronchitis. Emphysema 
affects more men than women, while chronic bronchitis affects more 
women than men. In 1999, 119,524 people in the United States died of 
COPD. During the period 1979-1998, the number of deaths from COPD rose 
almost 126 percent. COPD costs the U.S. economy an estimated $30.4 
billion a year.
    Today, COPD is treatable but not curable. Fortunately, promising 
research is on the horizon for COPD patients. Research in the genetic 
susceptibility underlying COPD is making progress. Research is also 
showing promise for reversing the damage to lung tissue caused by COPD.
    Despite these promising research leads, the ATS/ALA feel that 
research resources committed to COPD are not commensurate with the 
impact COPD has on the United States and the world. The ATS/ALA 
strongly recommend that the NIH and other federal research programs 
commit additional resources to COPD research programs.
                                 asthma
    Asthma is a chronic lung disease in which the bronchial tubes of 
the lungs become swollen and narrowed, preventing air from getting into 
or out of the lung. These obstructive spasms of the bronchi are caused 
by a broad range of environmental triggers that vary from one asthma-
sufferer to another.
    Asthma is on the rise.--A 1998 survey found that an estimated 26 
million Americans (including 8.6 million children under the age of 18) 
have at some point in their lifetime been told by their doctor that 
they have asthma. Rates are increasing for all ethnic groups and 
especially for African American and Hispanic children. While some 
children appear to out grow their asthma when they reach adulthood, 75 
percent will require life-long treatment and monitoring of their 
condition.
    Asthma is expensive.--The growth in the prevalence of asthma will 
have a significant impact on our nation's health expenditures, 
especially Medicaid. Currently, asthma costs the United States $12.7 
billion annually, including $8.1 billion in direct medical 
expenditures. Asthma attacks bring nearly two million people to the 
emergency room each year. Asthma also kills. In 1998, 5,438 people in 
the United States died as a result of an asthma attack. That is a 109 
percent increase from 1979. A disproportionate share of these deaths 
occurred in African American families.
Federal Response to Asthma
    The federal response to asthma has three components: research, 
programs and planning. We are pleased to report that, with support from 
the subcommittee, we are making progress on all three fronts.
Federal Response to Asthma--Research
    As the prevalence of asthma has grown, so has asthma research. 
Researchers are developing better ways to treat and manage chronic 
asthma. Research supported by National Heart, Lung and Blood Institute 
(NHLBI) has shown that using corticosteroids to treat children with 
mild to moderate asthma is safe and effective. For several years there 
had been concern that corticosteriods would stunt the growth of 
children who used them. This 5-year study showed that children had a 1-
year small reduction in their growth rate. But they had normal growth 
rates compared with children who did not use corticosteriods for the 
following 4 years. Children who used corticosteroids did suffer fewer 
asthma attacks and made fewer trips to the emergency room.
    Genetic research is also providing insights into asthma. Physicians 
have noticed that while most people respond well to inhaled beta-
agonists--a commonly prescribed drug to treat asthma--some patients do 
not response or have worse asthma using inhaled beta-agonists. 
Researchers in the NHLBI supported Asthma Clinical Research Network 
have discovered that a genetic variation in the beta-adrenegric 
receptor determines how well asthma patients will respond to inhaled 
beta-agonists. This discovery will enable physicians to better target 
the drugs they proscribe to treat asthma.
    Basic research is also learning more about asthma. Researchers 
supported by NHLBI have developed better animal models to allow 
expression of selected asthmatic genetic traits. This will allow 
researchers to develop a greater understanding of how genes and 
environmental triggers influence asthma's onset, severity and long-term 
consequences.
Federal Response to Asthma--Programs
    Last year, Congress provided approximately $35 million for the 
Centers for Disease Control and Prevention (CDC) to conduct asthma 
programs. CDC will use these funds to conduct asthma outreach, 
education and tracking activities. In Ohio, Case Western University and 
Rainbow Babies and Children's Hospital have been awarded funds to 
conduct an asthma intervention program. However, at the current level 
of funding, less than half the states have funds to respond to asthma. 
The ATS/ALA recommend that CDC be provided $70 million in fiscal year 
2003 to expand its asthma programs.
Federal Response to Asthma--Planning
    Last year, Congress enacted legislation that directs the National 
Asthma Education and Prevention Program (NAEPP) at NHBLI to develop a 
plan for the federal government to respond to the growing asthma 
epidemic in the United States. The plan will include recommendations on 
research, public health, tracking, education and treatment activities. 
The ATS/ALA support this planning process and look forward sharing the 
recommendations of the NAEPP Federal Asthma Plan with this subcommittee 
in the near future.
                              tuberculosis
    Mr. Chairman, tuberculosis has been with us since the dawn of time. 
It is an airborne infection caused by a bacterium, Mycobacterium 
tuberculosis (TB). TB primarily affects the lungs but can also affect 
other parts of the body, such as the brain, kidneys or spine.
    TB is spread through coughs, sneezes, speech and close proximity to 
someone with active tuberculosis. People with active tuberculosis are 
most likely to spread TB to others they spend a lot of time with, such 
as family members or coworkers. It cannot be spread by touch or sharing 
utensils used by an infected person.
    There are an estimated 10 million to 15 million Americans who carry 
latent TB infection. Each has the potential to develop active TB in the 
future. About 10 percent of these individuals will develop active TB 
disease at some point in their lives. In 2001, there were 15,991 cases 
of active TB reported in the United States.
    The Institute of Medicine (IOM) recently published a report, 
entitled Ending Neglect: The Elimination of Tuberculosis in the United 
States. The report documents the cycles of attention and progress 
toward TB elimination, the periods of insufficient funding and the re-
emergence of TB. The ATS/ALA are pleased to note that, for the time 
being, TB rates in the United States are declining. From a high in 1992 
of 26,673 new cases, we have seen 9 straight years of decline. However, 
the drop in 2001 was reportedly only 2 percent, indicating a leveling 
off of the overall decline in cases and a cause for concern within the 
public health community. This is no time to lower our defenses in 
funding TB programs.
    While declining overall TB rates is good news, the emergence and 
spread of multi-drug resistant TB poses a significant threat to the 
public health of our nation. Continued support is need if the United 
States is going to continue progress toward the elimination of TB.
    The IOM report provides the United States with a road map of 
recommendations on how to eliminate TB in the United States. The IOM 
report identifies needed detection, treatment, prevention and research 
activities. The ATS/ALA have endorsed the IOM report and its 
recommendations. We estimate it will cost $528 million for the CDC 
Tuberculosis Elimination Program to implement the report 
recommendations.
    The NIH also has a prominent role to play in the elimination of TB. 
Currently there is no highly effective vaccine to prevent TB 
transmission. However, the recent sequencing of the TB genome and other 
research advances has put the goal of an effective TB vaccine within 
reach. The National Institutes of Allergy and Infectious Disease have 
developed a Blueprint for Tuberculosis Vaccine Development. ATS/ALA 
encourage the subcommittee to fully fund the TB vaccine effort.
Fogarty International Center TB Training Programs
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. The goal is to 
develop a cadre of health professionals in the developing world who can 
begin controlling the global AIDS epidemic.
    Because of the link between AIDS and TB infection, FIC has created 
supplemental TB training grants for these institutions to train 
international health care professionals in the area TB treatment and 
research. This supplemental program has been highly successful in 
beginning to create the human infrastructure to treat the nearly two 
billion people who have TB worldwide.
    However, we believe TB training grants should not be offered 
exclusively to institutions that have received AIDS training grants. 
The TB grants program should be expanded and open to competition from 
all institutions. The ATS/ALA recommend Congress provide an additional 
$3 million for FIC to expand the TB training grant program from a 
supplemental grant to an open competition grant.
      niosh--researching and preventing occupational lung disease
    The ATS/ALA are extremely concerned that the president's budget 
proposes to cut the National Institute of Occupational Safety and 
Health (NIOSH) extramural research program. The ATS/ALA strongly 
encourage this subcommittee to reject the Administration's proposed cut 
to the NIOSH research program. Occupational safety and health research 
are valuable and deserve additional funding.
    Protecting the health of our nation's workforce will require 
research, training, tracking and new technologies. The ATS/ALA 
recommend that the subcommittee provide a $60 million increase for the 
NIOSH budget including $25 million for the NIOSH National Occupational 
Research Agenda (NORA). NORA represents a partnership research plan for 
occupational disease. The NORA agenda was developed with input from 
labor, business and the health community.
    The ATS/ALA recommend an additional $10 million for the National 
Personal Protective Technology Laboratory. In addition to improving 
workers safety, investments in protective technology will help our 
nation respond to the growing threat of bioterrorism. The ATS/ALA also 
recommend an additional $10 million for NIOSH-sponsored prevention, 
intervention and information programs. These programs respond to 
existing workplace health programs, conduct prevention education 
programs and work with labor and industry groups to lower the risk of 
workplace injury and illness.
    A recent IOM Report, Safe Work in the 21st Century: Education and 
Training Needs for the Next Decades Occupational Safety and Health 
Personnel, identified a growing shortage of trained occupational health 
professionals in the United States. Unlike the majority of medical 
subspecialties, occupational health professionals do not receive 
Medicare training support. We recommend $5 million to increase training 
opportunities for occupational health professionals at NIOSH-sponsored 
Centers of Excellence. The ATS/ALA believe more funds are needed to 
track the incidence of serious work-related illnesses and injury. We 
recommend $10 million for surveillance data on workplace safety.
                lung-disease opportunities and advances
    Previously, the ATS/ALA reported that NHLBI-supported researchers 
found that retinoic acid can reverse the effects of emphysema in 
laboratory rats. The ATS/ALA are pleased to report that studies have 
gone from rats to non-human primates and that results continue to be 
encouraging. NHLBI is taking steps to test retinoic acid treatment in 
people. We appear to be one step closer to finding a way to reverse the 
effects of emphysema--what has been considered an irreversible, 
debilitating disease.
    Researchers studying black, white and Hispanic groups in a search 
for genetic links to asthma found genes on chromosomes 5, 8, 12, 14, 
and 15 that are associated with asthma, regardless of a patient's 
ethnic background. Therefore, understanding the genetic variations of 
asthma is likely to have a major influence on improving available 
therapeutic options, especially for minority patients.
    LAM is a rare and devastating lung disease that primarily affects 
young women and causes an overgrowth of smooth muscle-like cells in the 
lungs. Researchers have found a link between LAM and another, more 
common, inherited condition known as tuberous sclerosis complex (TSC). 
Many women with TSC also have a mild form of LAM and often develop 
benign kidney tumors containing typical LAM cells. Understanding the 
influences of specific genes in LAM, as well as the roles of specific 
proteins, should aid in identifying new therapeutic targets and 
developing new treatments for this debilitating disease.
    NHLBI is continuing its support for sleep-related research. 
Investigators studying nearly 700 adults found that weight gains of 5 
per cent to 20 percent over 4 years increase the risk of developing 
sleep apnea 2.5- to 37-fold. More important, weight loss was associated 
with reduced sleep apnea severity and decreased likelihood of 
developing moderate to severe sleep apnea. Sleep apnea, a prevalent and 
potentially serious medical condition, is characterized by repeated 
episodes of airway obstruction during sleep and excessive daytime 
sleepiness and may lead to cardiovascular disease.
    In conclusion, Mr. Chairman, lung disease is a growing problem in 
the United States. It is America's number three killer, responsible for 
one in seven deaths. The lung disease death rate continues to climb. 
Overall, lung disease and breathing problems constitute the number one 
killer of babies under the age of 1 year. Worldwide, tuberculosis kills 
3 million people each year, more people than any other single 
infectious agent. Mr. Chairman, the level of support this committee 
approves for lung disease programs should reflect the urgency 
illustrated by these numbers.
                                 ______
                                 
            Prepared Statement of the Public Policy Council
    This statement is submitted on behalf of the Public Policy Council 
(PPC) that represents the Society for Pediatric Research, the American 
Pediatric Society and the Association of Medical School Pediatric 
Department Chairmen. These organizations represent thousands of 
pediatric researchers involved in basic, clinical and health services 
research. Our collective goal is to improve the quality of life for all 
of America's children. The scientists represented by our organizations 
come from medical schools, children's hospitals and other research 
facilities. They are the driving forces behind the biomedical advances 
that benefit children and they also are the mentors for training our 
next generation of pediatric investigators.
    On behalf of the pediatric academic research community, our 
statement speaks about the importance of increasing funding for 
pediatric biomedical, behavioral, clinical and heath services research, 
and for the training of future pediatric bench and clinical 
investigators.
                           pediatric research
    Research funded by the National Institutes of Health (NIH) has had 
a significant impact on the well being of children. As a result of NIH 
funded research, deaths from sudden infant death syndrome (SIDS) have 
been reduced by 38 percent, the development of surfactant for infants 
with respiratory distress syndrome (RDS) has saved the lives of 
premature babies, and infants now receive a vaccine to prevent 
Hemophilus influenza type b (HIB) meningitis, one of the leading causes 
of mental retardation. Infants and children are leading healthier 
lives.
    However, there are still many pediatric diseases that are not 
preventable or for which treatment may not exist, may only be 
palliative or are simply inadequate. Even relatively common pediatric 
diseases, such as cystic fibrosis and juvenile onset diabetes--diseases 
that we do know a great deal about--do not currently have a cure. 
Modern therapy for such diseases is cumbersome, costly and stressful 
for children and their families.
    Improvements in pediatric medicine and research will have far-
reaching implications on the societal and economic costs of disease in 
adults. For example, some families have a genetic tendency to develop 
heart disease. Research indicates that this could be associated with a 
high level of cholesterol in their blood or with high levels of 
triglycerides. Although many children in these families do not suffer 
from heart disease the way that adults do, at what point does 
cholesterol begin obstructing blood flow injuring blood vessels and 
subsequently injuring the heart? Should children be treated with one of 
the new cholesterol lowering drugs? If so, which one and when? What are 
the side effects of these drugs in children? Are they the same as in 
adults, or are they more serious? A strengthened investment in 
pediatric research is clearly needed and necessary.
    Another example is diabetes, which causes tremendous morbidity, 
pain and suffering. There are two types of diabetes that affect adults 
and both types have their origins in childhood. Results of a large, 
multi-center NIH-funded study known as the DCCT (Diabetes Control and 
Complications Trial) demonstrate that by tightening blood sugar 
control, long-term complication rates are reduced. The study did not 
include prepubertal children and thus, we do not know how tightly young 
children with diabetes should be controlled. Since there are also risks 
associated with tight control, this type of study in children must be 
done. The other type of diabetes known as adult onset diabetes is 
associated with environmental factors such as obesity, high fat diets 
and inadequate exercise. We are now seeing this disease in younger and 
younger children. Are the increased incidence of obesity and the 
sedentary lifestyle of our children predisposing us to an adult 
disease? The only way to answer these questions is with further 
research in pediatrics.
                        pediatric investigators
    We are in an age of great technological innovation that has allowed 
for a better understanding of the pathogenesis of disease, enhancing 
diagnostic capabilities and improving the treatment of patients. 
However, the actual practice of medicine is too often based on 
empiricism rather than evidence derived from well-controlled clinical 
trials. Clinical trials when done well can establish the usefulness of 
a particular test or treatment and examine their cost effectiveness 
compared to current practice. Unfortunately, according to a report 
issued by the Government Accounting Office, only 10-20 percent of 
medical practices are based on data from well-controlled studies. Thus, 
when a child is being treated for an illness today there is only about 
a one in five chance that the therapy is based on solid evidence that 
it will be helpful.
    There is a growing concern among our academic colleagues that there 
is a looming crisis for the future of pediatric research. Most 
pediatric research is performed at the nation's medical schools, 
children's hospitals and the intramural programs at NIH. As the focus 
of academic health centers shifts away from the traditional roles of 
research, teaching and patient care, to one focused predominately on 
patient care, the pediatric research community is concerned that the 
quality of training of future generations of pediatric medical 
scientists will be impaired. This will in turn jeopardize the future 
health of our children. There are many reasons for this trend, as 
outlined in the NIH Director's Panel on Clinical Research 1997 Report, 
including the specialized, complex training and role of teacher-
clinician-scientists, student debt after leaving medical school, and 
the changes to the health care system brought about by managed care.
 promoting pediatric research and preserving the training of pediatric 
                             investigators
    The pediatric community applauds the ongoing commitment of 
Congress, through the leadership of this Subcommittee, to increase NIH 
funding. The Public Policy Council supports the $27.3 billion fiscal 
year 2003 recommendation presented by the Ad Hoc Group for Medical 
Research Funding, that calls for an increase in funding for the NIH as 
the final year of doubling the NIH budget.
    This Subcommittee and full Committee has helped make pediatric 
research a priority at the highest level of the NIH by establishing a 
Pediatric Research Initiative in the Children's Health Act of 2000. The 
Public Policy Council encourages the Committee to continue and to 
increase funding for this initiative to at least $10 million in fiscal 
year 2003. The pediatric academic societies endorse the Friends of 
NICHD Coalition's recommendation for the National Institute of Child 
Health and Human Development (NICHD) of $1.284 billion and the overall 
fiscal year 2003 Public Health Service funding recommendations of the 
Coalition for Health Funding. The PPC recognizes the difficulty in 
achieving all of these goals under the current spending limits. 
However, the PPC encourages the Committee to explore all possible 
options to identify the additional resources needed to support this 
recommendation.
    Furthermore, the PPC urges increased funding for training programs 
that will attract minority group students into the medical profession, 
encourage medical students to pursue clinical research, support young 
investigators, and provide opportunities for mentoring by experienced 
clinical investigators as well as enhance the quality of our mentors. 
The PPC also continues to support and urges the expansion of available 
funding for the clinical research and the pediatric research loan 
repayment programs. The Public Policy Council strongly believes that we 
must not shortchange our children from receiving care from well-trained 
and qualified pediatric investigators.
    The Public Policy Council also supports the Agency for HealthCare 
Research and Quality, the primary federal agency charged with 
developing clinically based, policy relevant information for use in 
improving the health care system, providing leadership in health 
services research and providing training for new health services 
researchers, including pediatricians. The PPC joins with the Friends of 
AHQR to recommend funding of $390 million for AHQR in fiscal year 2003.
                inclusion of children in clinical trials
    The Public Policy Council commends this Committee's recognition and 
strong encouragement to the NIH in fiscal year 1996 ``to establish 
guidelines to include children in clinical research trials conducted 
and supported by the NIH.'' Implementation of these guidelines began in 
October 1998. As pediatric investigators, the Public Policy Council 
anticipates that significant advances will be gained in understanding 
the mechanism and improving the treatment of pediatric diseases. This 
policy is an excellent initial step. Moreover, it reflects an important 
partnership and the commitment of the research community to work with 
the NIH in the development of proposals that will increase clinical 
research participation for children without mandating it. However, we 
believe that it should only be viewed as a first step. In order for 
this policy to be effective, it must be followed by other measures. For 
example, a process should be established to assess the efficacy (or 
lack thereof) of the policy in generating data about and therapeutic 
advances for children. The pediatric research community will continue 
to work with the NIH on these and other implementation issues of these 
important guidelines. Moreover, the PPC encourages this Committee to 
maintain its oversight on the assessment of this policy as its 
implementation evolves over time.
    Finally, we all must recognize that the benefits for children and 
society in securing properly studied and dosed medications are 
considerable. This includes: the reduction of medical errors and 
adverse drug effects; the reduction of health care costs through fewer 
hospitalizations and shortened hospital stays; and the availability of 
more child-friendly formulations for infants and children. The PPC 
urges you to provide and ensure the adequacy of funding for the NIH 
that will provide $200 million for the NIH to establish a fund to study 
generic (off-patent) and selected on-patent drugs for pediatric use.
                               conclusion
    As pediatricians and researchers, we know first hand that there are 
many important opportunities for additional pediatric research which 
promise significant return on investment--not only improved health for 
our children today but also economic productivity tomorrow--as these 
children grow into adulthood. The Public Policy Council supports the 
increased investment in research in general and the new pediatric 
initiative in particular.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation
              summary of fiscal year 2002 recommendations
  --Continue to double the budget for the National Institutes of Health 
        (NIH) by providing a 16 percent for fiscal year 2003. Increase 
        funding for the National Institute of Neurological Disorders 
        and Stroke (NINDS) and the National Institute of Deafness and 
        other Communication Disorders (NIDCD) by 16 percent.

Fiscal Year 2003 Recommendations for NIH

                        [In billions of dollars]

NIH...............................................................23.700
NINDS............................................................. 1.540
NIDCD.............................................................  .397

  --Continue to accelerate funding for extramural dystonia research at 
        NINDS.
  --Provide funding for NINDS to conduct an epidemiological study and 
        to increase public and professional awareness of dystonia.
  --Continue to expand NIDCD's intramural and extramural research on 
        dysphonia.
    Chairman Harkin, thank you for the opportunity to describe for the 
Subcommittee how dystonia has affected our lives and our 
recommendations for fiscal year 2003 federal funding of dystonia 
research.
    My name is Rosalie Lewis, president of the Dystonia Medical 
Research Foundation. Three of my four sons have dystonia, and my fourth 
son is a carrier of the DYT1 gene that is responsible for generalized 
dystonia, which begins in childhood. As there is no cure for dystonia, 
and only in the past 30 years has research given way to treatments 
other than brain surgery, my sons have had some benefit from oral 
medication and botulinum toxic injections. Although we are fortunate to 
have these treatments available, the various drugs have significant 
cognitive side-effects.
    Dystonia is a neurological movement disorder characterized by 
involuntary muscle contractions and postures. There are several 
different types of dystonia, including: focal dystonias, affecting 
specific parts of the body, such as the arms, legs, neck, jaw, eyes, 
vocal cords; and generalized dystonia, affecting many parts of the body 
at the same time. Some forms of dystonia are genetic and others are 
caused by injury or illness. Dystonia does not affect a person's 
consciousness or intellect, but is a chronic and progressive physical 
disorder for which, at this time, there is no cure. We estimate that 
some form of dystonia affects about 300,000 people in North America.
    In the past few decades, dystonia researchers have made several 
exciting scientific advancements and have been able to rapidly turn 
laboratory and clinical research into diagnostic examinations and 
treatment procedures, directly benefiting those affected. Genetics, in 
particular, is opening up new understanding into the cause and 
pathophysiology of the disorder. Thus far, 12 dystonia related genes 
have been identified. In 1997, the DYT1 gene for childhood onset 
dystonia was identified, and we now have a genetic test available for 
this particular type of dystonia.
                    research, awareness, and support
    It is an exciting time to be involved in dystonia research and 
awareness. Researchers are becoming more interested in movement 
disorders and dystonia at the National Institutes of Health (NIH), and 
research is yielding promising clues for better understanding and 
management of this disorder.
    One way the Dystonia Foundation has advocated for more research on 
dystonia, is by funding ``seed'' grants to researchers. Thus far, the 
Dystonia Foundation has funded 338 grants, and 3 fellowships, totaling 
more than $17 million. Due to our advocacy there are a growing number 
of talented researchers dedicated to understanding the biochemistry of 
dystonia, genetic causes, new therapeutics and the ramifications of an 
epidemiology study.
    Another primary goal of the Dystonia Foundation is education of 
both lay and medical audiences. Every year the Foundation conducts 
several medical workshops and regional symposiums to present, discuss, 
and disseminate comprehensive medical and research data on dystonia. In 
January 2001, NINDS co-sponsored a genetics and animal models meeting, 
designed to involve not only prominent researchers but inviting junior 
investigators to participate in the discussions. Additionally, in 
October 1996, the NIH was one of our co-sponsors for an international 
medical symposium, which featured 60 papers on dystonia and 125 
representatives from 24 countries
    Since 1995, over 3,000 educational medical videos have been 
distributed to hospitals, medical and nursing schools, and at medical 
conventions. Now, we have a children's video to increase public 
awareness of this devastating disorder. Media awareness is conducted 
throughout the year, and especially during Dystonia Awareness Week, 
observed nationwide from October 14 through 20.
    The Dystonia Foundation has over 200 chapters, support groups, and 
area contacts across North America. In addition, there are 15 
international chairpersons whose mission is to increase awareness, 
children's advocacy, development, extension, the Internet, leadership, 
medical education, an on-line news group, and symposiums. Furthermore, 
patient symposiums are held regionally to provide the latest 
information to dystonia patients and others interested in the disorder. 
Last year we held over eight regional symposiums reaching approximately 
2,000 affected families.
             dystonia and the national institutes of health
    The Dystonia Medical Research Foundation recommends an increase to 
$23.7 billion or 16 percent for NIH overall, and a 16 percent increase 
for NINDS and NIDCD or $1.54 billion and $397 million respectively. 
This increase reflects a request to double the NIH budget in 5 years. 
However, we request that this increase for NIH does not come at the 
expense of other Public Health Service agencies.
    Dystonia is the third most common movement disorder after 
Parkinson's and tremor, and effects six times more people than better 
known disorders such as Huntington's, muscular dystrophy and ALS or Lou 
Gehrig's Disease. We ask that NINDS fund dystonia-specific extramural 
research at the same level that it supports research for other 
neurological movement disorders.
    We urge the Subcommittee to recommend that NINDS provide the 
necessary funding for extramural research and a large scale dystonia 
epidemiological study and increase its efforts to educate the public 
and medical community about dystonia through co-sponsorship of 
workshops and seminars. We also encourage the Subcommittee to support 
NIDCD in its efforts to revamp its strategic planning process by 
implementing a Strategic Planning Group which will help NIDCD as they: 
consider applications for high program priority; develop program 
announcements and requests for applications; and develop new research 
areas in the Intramural Research Program.
    The ultimate goal of the Dystonia Foundation is a cure for 
dystonia. Until that goal is realized, we are hungry for any knowledge 
about the nature of dystonia and for more effective treatments with 
fewer side-effects. We have amassed many exceptional and diligent 
researchers, committed to our goal, and our top priority is funding 
their very important research. But the Foundation cannot do it alone. 
We need federal support though NIH, NINDS, and NIDCD to continue to 
fund good research and eliminate this debilitating disease.
    We ask that you aggressively support medical research, specifically 
for movement disorders and brain research. By doing so, you are doing a 
tremendous service for myself and my family and to the hundreds of 
thousands of people and families affected by dystonia.
    Thank you very much.
                                 ______
                                 
   Prepared Statement of the National Caucus and Center on Black Aged
    The National Caucus and Center on Black Aged (NCBA) appreciates the 
opportunity to present written testimony for the fiscal year 2003 
Labor-HHS-Education Appropriations Act.
    NCBA urges the Subcommittee to approve a $40-million funding level 
for the Older Americans Act Title IV Training, Research, and 
Discretionary Projects program for fiscal year 2003. This is $1.727 
million above the current appropriation: $38.723 million. In addition, 
NCBA calls upon the Subcommittee to approve report language to direct 
the Administration on Aging (AoA) to ``allocate Title IV Training, 
Research and Discretionary Project funds equitably to minority aging 
organizations with a proven track record in delivering services to low-
income minority persons.'' Title IV minority report language should be 
inclusive in the same manner that it has been historically to assure 
that all elderly minority groups benefit from Title IV initiatives, 
rather than a limited number. Older minorities share many common 
problems and challenges. The inclusive report language will help to 
assure that AoA addresses the needs of all major elderly minority 
groups.
    NCBA strongly favors a $2.5-million earmark within the Research, 
Demonstrations, and Evaluation account for the Centers for Medicare and 
Medicaid Services (CMS) to fund a demonstration program to improve the 
minority aged's participation in Medicare and Medicaid, as well as 
their understanding of these vital programs. The Subcommittee should 
include report language to direct CMS ``to utilize national minority 
aging organizations that have a proven track record in serving older 
minorities to carry out these demonstration programs.''
    Recent polls show that there is substantial confusion and 
misunderstanding among older Americans concerning Medicare Plus (+) 
Choice, as well as other changes adopted for Medicare in recent years. 
This situation is compounded for seniors suffering from economic, 
cultural, language, and/or other barriers that hinder their 
participation in or fundamental understanding of these programs. The 
new demonstrations can help CMS to develop innovative best practice 
models to make Medicare and Medicaid more user friendly and more 
responsive to the needs of older Americans.
    NCBA is encouraged that the Fiscal Year 2002 Labor-HHS-Education 
Appropriations Act had report language mandating certain federal 
agencies to improve the coordination of service delivery for older 
Americans, as part of the Harkin aging initiative. Specifically, the 
report directs the Secretary of HHS to establish an Interagency Task 
Force on Aging Programs, comprised of the Departments of HHS, HUD, 
Labor, Agriculture, and Transportation. The primary mission of this 
Task Force is to maximize the impact of existing services, reduce and 
eliminate duplication for both service provision and the process for 
older persons to access the services, and minimize regulatory burdens 
and costs at the local level.
    NCBA is also encouraged that the Fiscal Year 2002 Labor-HHS-
Education Appropriations Act earmarked a significant proportion of 
Title IV funding to support naturally recurring retirement communities. 
However, there was no funding targeted to organizations traditionally 
serving the major aging minority groups: African Americans, Hispanics, 
Asians, Pacific Islanders, and Native Americans. NCBA requests the 
Subcommittee to provide sufficient Title IV funding to broaden the 
scope of this highly promising, innovative, and worthwhile activity to 
serve the needs of the major elderly minority population groups as 
well.
    NCBA supports a 10-percent funding hike for the Older Americans Act 
Title V Senior Community Service Employment Program (SCSEP), to $490 
million in fiscal year 2003 from $445.1 million in fiscal year 2002. 
This increase is necessary for several reasons. First, it will help to 
enable Title V to catch up with inflation for the many years that this 
successful program was level funded. Second, the funding hike will 
increase the number of authorized positions by about 6,275 (in round 
numbers), to more than 68,500 in fiscal year 2003 from the projected 
level of approximately 62,225 for fiscal year 2002. Finally, this 
proposal can provide an effective and dignified means for low-income 
older Americans to escape from poverty. Persons 65 years of age or 
older who worked at some time during 2000 were four times less likely 
to be poor than aged individuals who did not work during the year. 
Older Americans who did not work at all during 2000 had an 11-7-percent 
poverty rate, compared to 2.9 percent for those who worked either part-
time or full-time.
    NCBA understands that the Department of Labor (DoL ) is considering 
a proposal to put out for competition the entire national sponsors' 
share of the funding for the SCSEP. If DoL moves forward with this 
possible proposal, it would run counter to the bipartisan agreement for 
the 2000 OAA Amendments, which reauthorized OAA programs, including the 
Title V SCSEP, for 5 years. The essence of the agreement was that the 
existing national sponsors would continue to administer the SCSEP, 
provided they met the performance standards and other applicable 
requirements to be a suitable grantee. If a national sponsor failed to 
meet these requirements, the national sponsor would have an appropriate 
opportunity to take necessary corrective action after a proper and 
timely notification from the Department of Labor (DoL). If the national 
sponsor performed unsatisfactorily after the notification, then DoL 
could put out for competitive bidding a portion of the national 
sponsor's grant or all of it. A primary reason for this approach was to 
prevent disruption for enrollees. In addition, the existing national 
sponsors had an excellent record in administering the SCSEP.
    Competitive bidding would also create problems for host agencies 
administering SCSEP projects at the local level. For example, 
competition could result in enrollees moving from one host agency to 
another or perhaps out of the entire community if another sponsor 
became a grantee. Members of Congress wanted to avoid the negative 
impact of these potentially disruptive products from competition for 
low-income enrollees, the communities they serve, and the host agencies 
administering the program locally.
    Program performance will almost assuredly decline if competitive 
bidding produces new entrants for administering the SCSEP. This is 
because the new sponsor must focus more attention on launching projects 
and concentrating on administrative matters, rather than programmatic 
objectives.
    New national applicants will quite likely have very limited or no 
expertise in serving older workers. On the other hand, the existing 
national sponsors have a long and respected record in working with 
older workers. In addition, they have considerable expertise concerning 
other programs that may impact SCSEP enrollees, such as Social 
Security, Supplemental Security Income, Medicare, Medicaid, and VA 
(Veterans' Affairs) income maintenance and health programs.
    Competitive bidding could create an administrative nightmare for 
DoL. As a practical matter, the existing DoL staff that administers the 
SCSEP consists of 6 professional staff members and 1 support person. 
This very small staff is stretched very thin in overseeing a $445.1-
million program that operates in all 50 states, the District of 
Columbia, and elsewhere.
    For these reasons, NCBA urges the Labor-HHS-Education 
Appropriations Subcommittee to incorporate language in the report to 
direct DoL to follow the statutory language in the 2000 OAA Amendments 
to comply with the carefully crafted bipartisan agreement to minimize 
disruption for enrollees and host agencies participating in the 
extraordinarily successful SCSEP.
                                 ______
                                 
    Prepared Statement of the Sudden Infant Death Syndrome Alliance
              summary of fiscal year 2003 recommendations
  --Continue the effort to double the National Institutes of Health 
        (NIH) budget by providing a 16 percent increase for fiscal year 
        2002, to $23.7 billion. Within NIH, provide proportional 
        increases of 16 percent to the various institutes and centers, 
        specifically, the National Institute of Child Health and Human 
        Development (NICHD). We request NICHD's budget to be increased 
        by 16 percent to $1.29 billion.
  --Continue to fund the third Sudden Infant Death Syndrome (SIDS) 
        Five-Year Research Plan at NICHD, which focuses on research and 
        educational opportunities on SIDS.
  --Continue to fund the SIDS and Other Infant Death Program Support 
        Center at the Maternal and Child Health Bureau, within the 
        Health Resources and Services Administration.
  --Fund 3 SIDS death scene protocol demonstration projects at the 
        Centers for Disease Control and Prevention (CDC), to provide a 
        nation-wide protocol for dealing with SIDS death scenes.
    Thank you for the opportunity to address this subcommittee and 
explain what Sudden Infant Death Syndrome (SIDS) and the importance of 
federal funding for SIDS programs and research means to me. My wife and 
I lost our son Chandler in 1997, and we are compelled to do everything 
and anything possible to ensure no one has to suffer the loss of a 
child again. Mr. Chairman, we need your help, your commitment, and your 
support to help solve the mystery that is SIDS.
    Despite the fact that SIDS cases have been documented for years, 
organized scientific research into SIDS only began in the mid 1970's. 
Three decades later scientists are now beginning to make significant 
progress in unraveling the enigma of SIDS. For instance, we now know 
that in many SIDS related deaths there is an abnormality in a region of 
the brain which is thought to control heart and lung functions. In 
these cases, this irregularity may have hampered normal respiratory 
activity, and while not the sole cause of SIDS, it may have contributed 
to a larger respiratory problem leading to death.
    As a direct result of SIDS research and the ``Back to Sleep'' 
educational and awareness campaign, SIDS deaths have been reduced by 38 
percent since 1992, concurrent with the increase in awareness regarding 
infants being placed on their backs to sleep--leading to the greatest 
decline in infant mortality rates in over 20 years.
    However, our research and educational campaign is far from 
finished. Each year more than 3,000 infants in the United States die 
from SIDS and it continues to be the number one cause of death for 
children between 1 month and 1 year of age. SIDS is a major component 
of the United States infant mortality rate. In spite of this fact, we 
do not yet understand the causes of SIDS nor do we possess a guaranteed 
method for its prevention.
    The primary federal agency responsible for conducting SIDS research 
and the ``Back to Sleep'' public awareness campaign is the National 
Institute of Child Health and Human Development (NICHD) at the National 
Institutes of Health. In addition to federal funding of SIDS research, 
there are other federal agencies involved in the SIDS effort. Since 
1975, the Maternal and Child Health Bureau (MCHB) within the Health 
Resources and Services Administration (HRSA) has supported specific 
programs for SIDS family counseling and for public and professional 
education about SIDS. The Centers for Disease Control and Prevention 
(CDC) has established a standardized death scene investigation protocol 
for SIDS incidents. Additionally an Interagency Panel on SIDS has been 
established, which includes: NIH, HRSA, CDC, Indian Health Services, 
Food and Drug Administration, U.S. Consumer Products Safety Commission, 
Department of Defense, Administration for Children and Families, and 
the Department of Justice to help coordinate all federally funded SIDS 
activities.
    The SIDS Alliance is grateful for the Subcommittee's past support 
of SIDS activities, especially the support of NICHD. We urge you to 
again provide the additional funding necessary for the second year of 
the third Five Year SIDS Research Plan to ensure that NICHD can 
continue to address critical SIDS research initiatives. Specifically 
the SIDS Alliance is supporting a funding increase to $23.7 billion or 
16 percent for NIH overall, and a 16 percent increase for NICHD to 
$1.29 billion. We ask that the increases for NIH do not come at the 
expense of other Public Health Service Agencies. Further research is 
essential to find the reasons for, and means of preventing the tragedy 
of SIDS.
    I urge the Subcommittee to support SIDS educational, awareness, and 
counseling activities that take place at the MCHB, and the death scene 
investigation protocol demonstration projects at the CDC. These 
programs are a vital ``flip-side'' to the good research that NICHD 
does. Without prevention awareness, counseling and standardized 
investigation procedures, good research does not translate into 
meaningful advances for SIDS victims and their families.
             highlights of federally funded sids activities
National Institute of Child Health and Human Development (NICHD)
    Childcare has become increasingly important in the social fabric of 
the United States, so have child care centers and homes. To address 
this issue the NICHD has initiated the ``Back to Sleep Child Care 
Project,'' sending publications and other ``Back to Sleep'' materials 
to over 280,000 child care centers and licensed homes throughout the 
United States. Response to these mailings has been overwhelming, 
resulting in a 20 percent increase in the volume of requests for Back 
to Sleep materials.
    Studies on the risk factors for SIDS among African American and 
American Indian populations conducted in collaboration with the CDC and 
the Indian Health Service have yielded valuable information for 
targeted interventions to reduce infant mortality in these communities. 
SIDS among minority populations continues to be a top priority for the 
NICHD. Surveys show that the proportion of African Americans placing 
their infants to sleep on their stomachs continues to decrease, 
however, African Americans are still twice as likely to place infants 
on their stomachs as compared to other populations. Discussion groups 
are underway in African American communities across the country to 
assess the ``Back to Sleep'' campaign message, and to improve message 
delivery. In addition, during fiscal year 2001, the NICHD established 
new initiatives on health disparities in minority populations. SIDS and 
related fetal and infant deaths are part of the initiatives targeted at 
eliminating health disparities in infant mortality.
    A new component of the ``Back to Sleep'' campaign focusing on 
reducing SIDS among African American's was launched in late 1999. The 
goal is to develop and implement a community-based initiative. The 
National Black Child Development Institute (NBCDI) joined with the 
NICHD, the campaign sponsors, and several other organizations in the 
outreach initiative. A culturally appropriate resource kit, which 
includes a training guide, has been developed, and the first national 
training workshops have been held.
    The mechanism of SIDS is still unknown; there are no clinical or 
biologic tests to identify a newborn at high risk of succumbing to 
SIDS; and more work is needed to increase the implementation of ``Back 
to Sleep'' among all caregivers and in communities with high rates of 
infant death. To address and focus its efforts on these challenges, the 
NICHD has developed and is implementing its third SIDS Research Five-
Year Plan. The plan is divided into five parts: Introduction, Etiology/
Pathogenesis, Prognostics and Diagnostics, Prevention, and Health 
Disparities.
    Research initiatives in fiscal year 2002 include (1) continued 
research on mechanisms of pathogenesis through studies in animal 
models, postmortem tissue, and high-risk infants. This includes a 
prospective study to define a battery of physiologic and genetic 
markers that will predict SIDS and to determine whether SIDS is part of 
a larger family of autonomic nervous system disorders; (2) analysis of 
epidemiological and physiological data collected during the second five 
year research plan to improve our understanding of environmental and 
intrinsic risk factors; (3) a community-linked health disparities 
initiative to investigate related aspects of mortality from late fetal 
life through early childhood; (4) improve risk reduction and efficacy 
of ``Back to Sleep'' through continued research, monitoring, and 
outreach in at risk communities.
Maternal and Child Health Bureau (MCHB)
    The MCHB supports a number of SIDS and Other Infant Death related 
services and programs, including the following activities:
  --National SIDS Resource Center, a major source of current 
        information about SIDS.
  --Maternal and Child Health Service Block Grant (MCH), which grants 
        funds to states providing a range of services to SIDS families. 
        Block grant funds support activities like: contact families 
        immediately after death, discussion of autopsy results with the 
        family, and support and counseling through the first year of 
        bereavement. Unfortunately, in many jurisdictions across the 
        country, funds for these services have been decreased or 
        eliminated due to budgetary difficulties.
  --Field training and curriculum to health care providers for case 
        management of families who have experienced an infant death, 
        and the development of model programs, particularly for the 
        underserved and minorities. Demonstration grants have been 
        established in four states to target services for specific 
        populations: California, Massachusetts, Missouri, and New York.
  --National SIDS & Infant Death Program Support Center to address SIDS 
        service issues at the federal level on an ongoing basis. The 
        SIDS Alliance was chosen to run this center, which opened in 
        1999, and has experienced notable success.
Centers for Disease Control and Prevention (CDC)
    To develop a better statistical figure on SIDS cases, Congress 
recommended in 1993 the establishment of a standard death scene 
protocol to offset discrepancies on unexplained infant deaths between 
states. It was hoped that this protocol would be adopted by states not 
only for statistical measure, but to help avoid awkward and emotionally 
charged misunderstandings at the death scene. In 1996, CDC published 
the protocol, and since that time several states have adopted the 
standard. It is SIDSA's long term goal to ensure that all states fully 
adopt the protocol. To help realize this goal, SIDSA would like CDC to 
heed Congress' recommendations for the past 2 years and implement 
demonstration projects that follow these guidelines in several 
communities nationwide. We would also encourage CDC to implement a 
nationwide survey to measure how many locales have implemented the 
protocol independently and to analyze the results thus far.
    In conclusion, we are all too painfully aware that SIDS has 
historically been a mystery, leaving in its wake devastated families 
and bewildered physicians. Not only have there been no answers on the 
cause of SIDS, but there have been no answers on how to effectively 
prevent its occurrence. Today we are beginning to find some of the 
answers on cause and prevention, and therefore reduce the risk of SIDS. 
Because of the ``unknown'', however, babies are still vulnerable even 
when parents and care givers take the cautionary steps to prevent SIDS 
deaths. This tragedy will continue if research efforts are stalled or 
halted, especially when we are at the point where so much progress has 
been made. Now is the time for a re-energized effort against this 
tragic syndrome.
    On behalf of the thousands of families who have been devastated by 
the loss of a baby to SIDS, and the millions of concerned and 
frightened parents, we ask for your support, and thank you again for 
allowing us to present this testimony. If you have any questions, 
please do not hesitate to contact us.
               the sudden infant death syndrome alliance
    The SIDS Alliance is an organization of parents and friends of SIDS 
victims along with medical, business, and civic groups who are 
concerned about the health our this nation's children. The Alliance is 
engaged in ongoing efforts to expand its scientific program, strengthen 
services for families, and provide public education and advocacy 
opportunities. An important goal is to improve community understanding 
and elevate SIDS to the level of societal concern appropriate to one of 
our nation's major causes of infant mortality.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders
              summary of fiscal year 2003 recommendations
  --Continue the effort to double the National Institutes of Health 
        (NIH) budget by providing a 16 percent increase for fiscal year 
        2002, to $23.7 billion. Within NIH, provide proportional 
        increases of 16 percent to the various institutes and centers, 
        specifically, the National Institute National Institute of 
        Diabetes and Digestive and Kidney Diseases (NIDDK). We request 
        NIDDK's budget to be increased by 16 percent to $1.7 billion.
  --Continue to accelerate funding for extramural clinical and basic 
        functional gastrointestinal research at NIDDK.
  --Provide funding for NIDDK to conduct a prevalence study on and to 
        increase public and professional awareness of irritable bowel 
        syndrome (IBS).
    Thank you for the opportunity to present this written statement 
regarding the importance of functional gastrointestinal and motility 
research.
    My name is Nancy Norton, and in 1991, I founded the International 
Foundation for Functional Gastrointestinal Disorders (IFFGD), in 
response to my own experiences as a patient. I'm proud to say that 11 
years later my organization serves millions of people in need each 
year, providing information and support to patients and physicians. The 
largest organization of its kind in the United States, IFFGD works with 
consumers, patients, physicians, providers and payers to broaden 
understanding about fecal incontinence, irritable bowel syndrome (IBS), 
gastroesophageal reflux disease (GERD), pediatric disorders and 
numerous other gastrointestinal disorders. Additionally, it has been my 
personal vision and goal to see a greater investment in research on 
functional gastrointestinal and motility disorders, a subject that has 
often been left behind.
    I have lived with IBS most of my adult life and due to an 
obstetrical injury 16 years ago I also live with bowel incontinence. 
Incontinence, in particular, is often thought of as something that 
affects us when we are frail and elderly, perhaps something that is 
part of the aging process. Incontinence is neither part of the ageing 
process nor something that affects only the elderly. Incontinence 
crosses all age groups from the pediatric community to the older adult. 
It also is a symptom that is associated with many different diseases 
that are neurologically based and the aftermath of many cancer 
treatments. Yet we rarely hear about the bowel disorders associated 
with multiple sclerosis, diabetes, colon cancer, uterine cancer, and a 
host of other diseases, let alone as a complication of an episiotomy 
with vaginal delivery. IFFGD has become the resource and hope for 
millions of people as they try to regain as normal a life as possible.
    IFFGD continues to speak about and raise awareness for disorders 
and diseases that many people are uncomfortable and embarrassed to talk 
about. The prevalence of fecal incontinence and irritable bowel 
syndrome is underestimated in the United States. These conditions are 
truly hidden in our society. Not only are they are misunderstood, but 
the burden of illness and human toll has not been fully recognized.
    Given that we have been diligently working for the past 11 years it 
is an exciting time to lead the IFFGD, not only are we serving more and 
more people, but we are beginning to be able to privately fund 
research, with our first grant announcement next year. Additionally, 
more treatment options are being researched and becoming available for 
all types of FGI diseases and disorders, although many more are needed.
    Since its establishment the IFFGD has been dedicated to increasing 
awareness of functional gastrointestinal disorders and motility 
disorders, among the public, health professionals, and researchers. In 
March of 2001 we hosted the Fourth International Symposium on 
Functional Gastrointestinal Disorders, which was a great success in 
bringing scientists from across the world together to discuss the 
current science and opportunities in irritable bowel syndrome and other 
functional gastrointestinal disorders. The Fifth International 
Symposium will be held in April 2003. Additionally, this November, we 
are hosting a conference on fecal and urinary incontinence. The IFFGD 
has become known for our professional symposia. We consistently bring 
together a unique group of international multidisciplinary 
investigators to communicate new knowledge in the field of functional 
gastroenterology.
    The majority of the diseases and disorders we address have no cure. 
We have yet to understand the pathophysiology of the underlying 
conditions. Patients face a life of learning to manage chronic illness 
that is accompanied by pain and an unrelenting myriad of 
gastrointestinal symptoms. The costs associated with these diseases is 
enormous, conservative estimates range between $25-$30 billion 
annually. The human toll is not only on the individual but also on the 
family. Economic costs spill over into the workplace. In essence these 
diseases reflect lost potential for the individual and society.
                           fecal incontinence
    At least 6.5 million Americans suffer from fecal incontinence. This 
disorder affects people of all ages--children as well as adults, but is 
more common among women and in the elderly of both sexes. Fecal 
incontinence is not normal in the aging process, and can be caused by: 
damage to the anal sphincter muscles; damage to the nerves of the anal 
sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction. People who have fecal 
incontinence may feel ashamed, embarrassed, or humiliated. Some don't 
want to leave the house out of fear they might have an accident in 
public. Most try to hide the problem as long as possible, so they 
withdraw from friends and family. The social isolation is unfortunate 
but may be reduced because treatment can improve bowel control and make 
incontinence easier to manage.
                     irritable bowel syndrome (ibs)
    Irritable Bowel Syndrome affects approximately 30 million 
Americans. This chronic, non-life threatening disorder is characterized 
by a group of symptoms, which can include abdominal pain or discomfort 
associated with a change in bowel pattern, such as loose or more 
frequent bowel movements, diarrhea, and/or constipation. Although the 
cause of IBS is unknown, we do know that this disease needs a 
multidisciplinary approach in research and treatment. Currently, 
methods to treat IBS are limited to over-the-counter medications, which 
is problematic due to the overuse and then misuse of the regimen.
    Similar to fecal incontinence and depending on severity, IBS can be 
emotionally and physically debilitating. Because of bowel irregularity 
individuals who suffer from this disorder may distance themselves from 
social events, work, and even may fear leaving their home.
                 gastroesophageal reflux disease (gerd)
    Gastroesophageal reflux disease, or GERD, is a very common 
disorder, which results from the back-flow of acidic stomach contents 
into the esophagus. GERD is often accompanied by persistent symptoms, 
such as chronic heartburn and regurgitation of acid. But sometimes 
there are no apparent symptoms, and the presence of GERD is revealed 
when complications become evident. Symptoms of GERD vary from person to 
person. The majority of people with GERD have mild symptoms, with no 
visible evidence of tissue damage and little risk of developing 
complications. Periodic heartburn is a symptom that many people 
experience. There are several treatment options available for 
individuals suffering from GERD.
                           esophageal cancer
    Approximately 13,000 new cases of esophageal cancer are diagnosed 
every year in this country. This type of cancer is more prevalent in 
individuals who have a specific type of GERD. Diagnosis usually occurs 
when the disease is in an advanced stage, early screening tools are 
currently unavailable, and therefore an estimated 13 percent of whites 
and 9 percent of non-whites survive beyond 5 years.
                  pediatric fgi and motility disorders
    A larger number of children each year are diagnosed with functional 
gastrointestinal disorders and motility disorders. The most common 
disorders found in children are:
Chronic intestinal pseudo-obstruction
Gastroesophageal reflux (GER)
Gastroesophageal reflux disease (GERD)
Hirschsprung's disease
Intestinal neuronal dysplasia (IND)
Cyclic Vomiting Syndrome
Functional dyspepsia
Functional abdominal pain
Functional diarrhea
Irritable Bowel Syndrome (IBS)
Functional bowel disorders
Infant dyschezia
Functional constipation
Functional fecal retention
Non-retentive fecal soiling
    fgi and motility disorders and the national institutes of health
    The International Foundation for Functional Gastrointestional 
Disorders recommends an increase to $23.7 billion or 16 percent for NIH 
overall, and a 16 percent increase for NIDDK, or $1.7 billion. This 
increase reflects a request to double the NIH budget in 5 years. 
However, we request that this increase for NIH does not come at the 
expense of other Public Health Service agencies.
    We urge the subcommittee to provide the necessary funding for the 
expansion of the NIDDK's research program on FGI and motility 
disorders, this increased funding will allow for the growth of new 
research, a prevalence study on IBS, and increased public and 
professional awareness of FGI and motility disorders.
    A primary tenant of IFFGD's mission is to ensure that clinical 
advancements concerning GI disorders result in improvements in the 
quality of life of those affected. By working together, this goal will 
be realized and the suffering and pain millions of people face daily 
will end.
    Thank you.
                                 ______
                                 
      Prepared Statement of the National Mental Health Association
    Thank you for this opportunity to testify before the Subcommittee 
and to address the important issue of mental health. I am the President 
and CEO of NMHA, the country's oldest and largest advocacy organization 
addressing all aspects of mental health and mental illness, 
representing more than 54 million children and adults who have a mental 
disorder. We have a diverse and broad membership--representing over 340 
affiliates throughout the country--and are uniquely positioned to speak 
to the entire mental health and substance abuse portfolio including 
prevention, early intervention, treatment, and research.
    Before I start, I want to thank Chairman Harkin and Senator Specter 
for your leadership and for your strong support in winning increases 
last year for mental health programs. I hope to make the case why we 
need even greater increases for fiscal year 2003. In fact, I believe 
that increased funding for mental health services and general public 
health is consistent with our critical national goals particularly 
those related to Homeland Security. The subcommittee has an especially 
critical role this year given that the public health safety net is 
vanishing before our eyes. Medicaid, for example, is unable to cover 
the mental health service needs in many states and is in a fiscal 
crisis, leading legislatures in many states to look for ways to cut 
benefits. With the prospect of sweeping Medicaid cutbacks, our already 
overburdened mental health system is being set up to fail adults and 
children with mental disorders.
                               background
    In building our case for increased funding, we have a solid science 
base and effective tools to promote mental health and treat mental 
disorders in both adults and young people. And we have effective 
federal programs to bring those tools and services to our communities. 
Thanks to the commitment of this subcommittee, we know what works. We 
know we can be most effective by taking a comprehensive approach that 
recognizes the importance of providing a full continuum of services--
prevention, early intervention and treatment services. We also need to 
acknowledge the stigma long associated with mental illness and the role 
that stigma has played in the relatively limited federal funding 
provided for mental health programs. What we lack is an investment in 
the application of proven services and tools that is commensurate with 
the need.
    The backdrop for our requests is an unprecedented need for mental 
health services. Let me give you a brief snapshot of the mental health 
crisis in this country. Mental illness is the second leading cause of 
disability and premature mortality in the United States. One in five 
adults will experience a mental illness in a given year. About 5 
percent of the population suffers from a severe and persistent mental 
illness such as schizophrenia, bipolar disorder, or major depression. 
Fewer than one-third of adults and only one in five children who need 
mental health services receive treatment. And between 50 to 75 percent 
of incarcerated youth have a diagnosable mental health disorder.
    As Senator Bill Frist recently noted, ``For the last 20 years we've 
neglected public health,'' and have recently been shocked ``into 
realizing how dependent we are on the system.''
                   fiscal year 2003 budget shortfalls
    Given all those considerations, the President's Budget for fiscal 
year 2003 is both disappointing and troubling. In the midst of 
underfunded, severely strained state and local mental health systems, 
the Administration's budget calls for stagnant funding for most mental 
health programs, while cutting $17 million in current funding for 
improved community mental health. Worse, the budget would actually cut, 
without rationale, all federal funding for a number of proven, 
evidence-based mental health programs. Viewed in the larger context of 
tight funding for other key federal programs, the budget leaves people 
with mental health needs in ever greater jeopardy.
    The proposed fiscal year 2003 budget doesn't take into account the 
magnitude of our nation's mental health crisis. Although the budget 
provides for welcome, though isolated increases in mental health and 
substance abuse funding, most mental health programs have been targeted 
for cuts. The Substance Abuse and Mental Health Services Administration 
(SAMHSA) budget, for example, would increase funding for the PATH 
program (Projects for Assistance in Transition from Homelessness) by $7 
million. But funding for priority ``Programs of Regional and National 
Significance'' within the Center for Mental Health Services would 
shrink by $17 million. SAMHSA's Substance Abuse block grant would win 
an additional $60 million and substance abuse treatment funding 
(principally for targeted capacity expansion) would increase by $67 
million. Yet the Center for Substance Abuse Treatment funding for 
``best practices'' would shrink by $43 million, and substance abuse 
prevention funding (through the Center for Substance Abuse Prevention) 
would be cut by $45 million. The budget does propose a substantial $105 
million increase in funding for the National Institute of Mental 
Health, but that increase falls well short of the double-digit increase 
in the overall budget for National Institutes of Health.
                        community mental health
    Among these cuts, the budget would end all funding next year for 
the five centers that provide technical assistance to help mental 
health consumers and family members around the country achieve 
independence through recovery from mental illness. The budget offers 
virtually no explanation for decimating consumer-support programs, 
currently drawing only $2 million, or less than 1 percent of the 
SAMHSA's discretionary funding for ``Programs of Regional and National 
Significance.'' The decision to terminate federal funding for the 
modestly funded centers that assist consumer-run self-help programs and 
support consumers and family members ignores not only the significant 
body of evidence that such programs provide valuable support and 
assistance for people in their recovery from mental illness but also 
the report language in last year's Labor, Health and Human Services 
appropriations bill which highlights the value of these TA centers and 
expresses Congress's confidence in this program.
    Another very disturbing casualty of this budget is the community 
action grant program. These modest grants, ranging from $50,000 to 
$150,000, are a catalyst for local communities to improve mental-health 
service delivery by implementing proven, evidenced-based practices for 
adults and children with mental disorders. Despite the modest $5.5 
million investment currently being made through this program, these 
grants significantly advance the Olmstead process as it relates to 
people with mental illness, since they are designed to implement 
effective community-based services. Yet this budget would eliminate 
this critical source of community grant funding in fiscal year 2003. 
Terminating funding for this program is particularly inexplicable given 
such positive outcomes as reduced hospitalizations and increased 
employment for adults with serious mental illness. I strongly urge you 
to reject the $17 million cut to PRNS at CMHS and the proposed 
termination of funding for such proven CMHS programs as Community 
Action Grants and Consumer Technical Assistance Center funding. We urge 
instead that you provide an increase in funding for these programs.
                            research mission
    One of SAMHSA's core missions is to develop an evidence base on the 
effectiveness of services and service delivery mechanisms. 
Inexplicably, this budget cavalierly abdicates further responsibility 
for fostering the development of knowledge on mental health and 
substance abuse service delivery and programming. While basic medical 
research by the National Institutes of Health has yielded tremendous 
dividends in the area of mental health and substance abuse, SAMHSA 
plays a critical role in developing systems and programs to translate 
those mental health research findings to community practice. The budget 
justification provides no rationale for what amounts to abdication of a 
statutory responsibility. Indeed the budget implicitly acknowledges the 
importance of such research, but simply suggests that NIH institutes 
would fund it. Based on our experience, such research has not been, and 
is not likely to become, an NIH priority. It is critical, therefore, 
that SAMHSA continue to be funded to support such research to develop 
evidence-based ``best practices'' and that this Committee reject 
SAMHSA's proposal that it discontinue needed health services research. 
I urge you to maintain knowledge development as a key component of 
SAMHSA's mission.
                          community-based care
    In areas that were level funded under the fiscal year 2003 spending 
plan for the Center for Mental Health Services, double-digit medical 
inflation effectively transforms ``flat funding'' into real cuts in 
mental health services. These funding levels are not consistent with 
the Administration's support of the New Freedom Initiative to increase 
community-based services under Olmstead v. LC, a Supreme Court case 
brought on behalf of people with mental illnesses. Over the last 
several decades, the public mental health system has appropriately 
shifted its emphasis from institution-based care to community 
integration. However, there has not been a commensurate increase in 
funding for community-based mental health care. That transition can NOT 
happen without an investment of new dollars.
    Without additional federal funding, many state and local 
governments, struggling with budget shortfalls, are likely to consider 
severely cutting services for people with mental illnesses. In many 
areas, including nearby Montgomery County, Maryland--one of the 
wealthiest counties in the country--the situation is already critical. 
Viewed in this context, a budget plan that generally freezes or cuts 
the limited support for an agency whose mission is ``to ensure access 
and availability of quality mental health services to improve the lives 
of all adults and children in this Nation'' is shocking.
                        children's mental health
    Tragically, our mental health system is failing not only adults but 
also our children, who often fall through the cracks of fragmented 
child-serving agencies. With its limited funds, a Children's Mental 
Health Services Program (administered by the Center for Mental Health 
Services at SAMHSA) targeted at youth with serious emotional disorders 
can serve only a very small fraction of communities needing help. We 
strongly urge you to expand funding for the Children's Mental Health 
Services Program (to $140 million) as well for school and community-
based violence prevention initiatives (to $150 million). Programs that 
address the emotional and behavioral needs of youth--and engage 
parents, students, schools and communities to work together--are 
critical to preventing youth violence and promoting more positive youth 
development. We know programs like Safe Schools/Healthy Students (SS/
HS) work, as evidenced by the tragedy averted in Fort Collins, CO when 
plans for a ``Columbine'' event were exposed due to skills learned in 
the SS/HS program.
    While making every effort to provide mental health services for 
children and adolescents in schools, there should be a parallel track 
to make those services as widely available in communities across 
America. Buttressed by a vast network of health providers including 
community maternal and child health clinics, the Human Resources 
Services Administration (HRSA), in collaboration with SAMHSA, is in a 
position to expand the availability of mental health services such as 
mental health screening, referrals, and treatment. We support increased 
funding for HRSA that expands the delivery of prevention, early 
intervention and treatment services to individuals with, or at risk of, 
mental illness.
    Our country is failing children and adolescents by not addressing 
or treating their mental and emotional health. We're failing because we 
are not addressing the issues that keep children and adolescents from 
receiving appropriate care: these include the stigma of mental illness; 
the fragmentation of services; the lack of investment in prevention; 
the shortage of providers with sufficient expertise; the limited access 
to treatment and services; and the failure to engage families and 
children in mental health and substance abuse prevention and treatment 
efforts. Sadly, even the limited research information we possess about 
children's mental health is not being translated into clinical 
practice. If we do not change this trajectory, we will continue to 
foster a cycle of emotional and behavioral problems for our children 
resulting in school failure, substance abuse, violence, imprisonment--
and most tragically, wasted lives that could have been changed.
                   consequences of inadequate funding
    Failure to provide adequate mental health services to children who 
need them can increase risk of school failure, involvement with the 
criminal justice system, dependency on social services and even 
suicide. For example, each year millions of our nation's youth come 
into contact with the juvenile justice system and hundreds of thousands 
of these youth are put into correctional facilities, yet only a very 
small number of them have committed serious offenses. We have gone from 
one institution--psychiatric wards--to another institution--juvenile 
justice facilities. In fact, children and teenagers with mental health 
disorders in New Mexico who were sent to juvenile detention facilities 
last year were detained without access to care for more than 2 weeks on 
average because mental health facilities were unavailable, according to 
a congressional report released this week. The report found that 718 
youths were incarcerated for a collective 31.3 years waiting for 
openings in mental health treatment facilities. That is shameful and 
ought to be unacceptable to this subcommittee.
                            national tragedy
    Our national mental health system could not adequately meet the 
needs we faced before the events of September 11th, and is entirely 
unprepared to address the mental health issues associated with the 
ongoing trauma of threatened domestic terrorism. Our public mental 
health system is also entirely unequipped to address the human toll on 
people whose lives are upended by the strains of unemployment and 
recession. With all these challenges, already overburdened mental 
health systems are further imperiled by state and local budget 
shortfalls.
    Mental health professionals across the country say the 
psychological fallout from the September 11 terrorist attack is 
strikingly pervasive. Many mental health professionals and drug and 
alcohol abuse counselors report that they are seeing more serious 
problems now--and more evidence of a widespread anxiety--than they did 
in the immediate aftermath of the attacks, which they attribute to a 
delayed reaction now that the initial shock of the attacks has worn 
off. In addition, 6 months after the attacks, experts say the struggle 
for hundreds of rescue workers to lift themselves out of depression, 
fear and sorrow has just begun. Based in part on the experience of 
rescue workers after the Oklahoma City bombing, counselors expect 
problems with emotional recovery to rise in the next few months as the 
physical recovery work at the site nears completion and rescue workers 
return to their normal duties. Such difficulties are likely to peak 
around 1 year or 18 months after the event--and to continue more than 5 
years later, the experts say. If Oklahoma City is any indication, we 
can anticipate large numbers to be at risk for post-traumatic stress 
disorder.
    Again, we are particularly concerned that those most affected by 
the tragedy of September 11th may be our nation's children. Children at 
risk include those directly affected by the attacks, as well as those 
who have lost a parent or other loved one in the past; children with 
parents going through a divorce or other domestic instability; those 
who have a history of previous exposures to trauma or who suffered a 
recent loss; those who suffer from chronic physical or emotional 
problems; and those who live under adverse circumstances including 
poverty, discrimination, or the absence of one or both parents. We need 
to do more for these vulnerable children.
                               next steps
    Proposed cuts and frozen funding for mental health programs are 
compounded by proposed reductions in funding for juvenile justice 
prevention, housing supports, Veteran Affairs health care, and school-
based mental health services--including elimination of the Elementary 
and Secondary School Counseling Program. These cuts would simply 
exacerbate the ever-increasing difficulty people have in gaining access 
to effective mental health services. For millions across the country, a 
budget laden with cuts, frozen funding, and termination of effective 
mental health programs is an unwitting formula for despair, 
joblessness, interaction with the justice system, poor academic 
performance, and even suicide.
    More than ever, we need your resolve to counter this grave outlook 
and pledge your commitment to improve the availability, accessibility, 
and quality of mental health services through increased federal 
investment in federal mental health programs. We urge you to reject the 
proposed $17 million cut in SAMHSA funding for CMHS Programs and to 
increase substantially federal support for community-based mental 
health early intervention, prevention and treatment services. And while 
other key federal programs such as juvenile justice reside outside the 
purview of this subcommittee, we urge you, as members of the full 
committee, to take every opportunity to increase funding for those 
programs vital to people with mental health service needs.
    Finally, I would like to thank members of this subcommittee for 
their support of the Mental Health Parity amendment last year and your 
encouraging report language. I encourage all of you to support S. 543, 
parity legislation by Senators Domenici-Wellstone. With your help, we 
can enact parity this year.
    I'll conclude by stating that we concur with the view expressed by 
Secretary Tommy Thompson in a November address in New York that the 
country needs additional resources to fund a vast, well-coordinated 
network of mental health support to battle the anxiety that follows 
tragedies. Thank you for considering our views.
                                 ______
                                 
   Prepared Statement of the Iowa Substance Abuse Program Director's 
                              Association
    My name is Ardis Glace and I am the Executive Director of the Iowa 
Substance Abuse Program Director's Association (ISAPDA), an 
organization that represents the directors of alcohol and drug 
treatment and prevention agencies that serve all of Iowa's 99 counties. 
Thank you for this opportunity to submit testimony in support of 
increased fiscal year 2003 funding for alcohol and drug treatment, 
prevention, education, and research programs in the Department of 
Health and Human Services and the Department of Education. Today I am 
representing the views of ISAPDA, the State Associations of Addiction 
Services (SAAS), composed of 27 state associations of treatment and 
prevention agencies, and the Legal Action Center, a nonprofit law and 
policy organization specializing in alcohol, drug, HIV/AIDS, and 
criminal justice issues and representing the interests of drug and 
alcohol treatment and prevention providers and consumers of those 
services.
    Thank you, Mr. Chairman and members of the subcommittee, for last 
year's increases for alcohol and drug treatment, prevention, education, 
and research programs. However, as I am sure you are aware, the unmet 
need for alcohol and drug treatment and prevention services in America 
is overwhelming, and the tragedies of September 11, 2001 have made this 
situation worse. While between 13 million and 16 million people need 
treatment for alcohol and drug problems in any given year, only 3 
million or 20 percent receive care, and the terrorist attacks in 
September have heightened the need for services. Drug and alcohol 
treatment and prevention providers are reporting increased national 
demand for their services, and disaster research indicates that the 
demand for these services should be expected to increase in the months 
and years to come. For example, a University of Oklahoma study 
examining the health effects of the Oklahoma City bombing found that 
alcohol consumption was three times higher in the metropolitan area as 
compared to a similar control community in the year after the attack. 
Additionally, the study found that the community as a whole was 
affected--not just direct victims. According to reports issued by the 
National Institute on Drug Abuse and the federal Center for Substance 
Abuse Treatment, the widespread trauma and stress associated with 
disasters significantly increases the risk for alcohol and drug use 
that can lead to addiction.
                 treatment and prevention needs in iowa
    Like all states, Iowa has implemented successful treatment and 
prevention programs, but finds that the demand for services outstrips 
the current capacity of providers. In 1999, the last year for which 
data are available, 105,000 Iowans had drug or alcohol dependence. In 
the same year, 32,845 Iowans that needed treatment for drug use were 
unable to receive it, according to estimates by the White House Office 
of National Drug Control Policy (ONDCP). Admissions for methamphetamine 
addiction treatment have dramatically increased in Iowa over the past 
decade, accounting for only 1 percent of admissions in 1992 and 11 
percent of admissions in 2001. Methamphetamine addiction is best 
treated in specialized treatment requiring many resources, and the 
increase in methamphetamine-addicted clients has required some 
providers to shift resources away from the treatment of other addiction 
disorders to meet this pressing need. Increased resources, provided by 
the State of Iowa and the federal government, have been targeted to 
specialized treatment for methamphetamine use. More are needed, 
however, to address this growing problem and to meet the treatment 
needs of people with other forms of drug and alcohol abuse and 
addiction.
             treatment and prevention needs in pennsylvania
    Pennsylvania also offers a picture of the serious public health 
issues that states face as a result of alcohol and drug dependence. In 
1999, 421,000 Pennsylvanians had drug or alcohol dependence, and ONDCP 
estimates that in that year, 160,117 Pennsylvania residents were in 
need of treatment for illicit drug use and were unable to obtain it. 
Additionally, a sampling of news headlines from the past several months 
reveals the public attention and urgency placed on this issue: 
``Luzerne Overdoses Kill More People than [automobile] Crashes,'' 
Patriot-News; ``Last Year, Someone in Allegheny County Died Nearly 
Every Other Day from a Drug Overdose,'' Post-Gazette; and 
``Philadelphia Area has 2nd Most Drug Deaths in Nation,'' Philadelphia 
Inquirer. The availability of less expensive, higher-quality drugs has 
contributed to overdose deaths and increased use of high-risk drugs by 
youth.
         fiscal year 2003 recommendations for federal programs
    For providers to supply these essential services in Iowa, 
Pennsylvania, and throughout the nation we need your support. We urge 
Congress to adopt the following increases in fiscal year 2003 funding 
for alcohol and drug treatment, prevention, education, and research 
programs in the Substance Abuse and Mental Health Services 
Administration (SAMHSA), the Department of Education, and the National 
Institutes of Health. These are wise investments that will provide 
desperately needed services in communities across the country:
  --$2.0 billion for the Substance Abuse Prevention and Treatment Block 
        Grant to continue closing the treatment and prevention services 
        gap.
  --$360 million for the Center for Substance Abuse Treatment (CSAT) 
        and $360 million for the Center for Substance Abuse Prevention 
        (CSAP), to expand Targeted Capacity Expansion (TCE) programs 
        that target services to emerging drug epidemics and underserved 
        populations and to support programs that develop best practices 
        to improve service delivery and effectiveness.
  --$737 million for the Safe and Drug Free Schools and Communities 
        Program, increasing the State Grants portion of this program by 
        $68 million to support local, community-based prevention 
        initiatives.
  --$475 million for research at the National Institute on Alcohol 
        Abuse and Alcoholism (NIAAA) and $1.064 billion for research at 
        the National Institute on Drug Abuse (NIDA).
The Treatment and Prevention Services Gap: The Human and Fiscal Costs
    As mentioned above, while between 13 million and 16 million people 
need treatment for alcohol and drug problems in the United States in 
any given year, only 3 million or 20 percent receive care. In addition, 
young people are widely exposed to alcohol and drugs: a 2001 University 
of Michigan national study of youth drug use found that 54 percent of 
high school seniors reported using an illicit drug by the time they 
left high school and 11 percent indicated that they had used marijuana 
in the last 30 days. To reverse these trends, every adolescent should 
have access to alcohol and drug prevention services, but many 
communities are unable to provide these critical services.
    Additionally, Alcohol and drug problems exact tremendous costs to 
society. According to a 2001 study by the Office of National Drug 
Control Policy, the societal cost of drug abuse in the United States in 
1998 was $143 billion, and was projected to be $161 billion in 2000. 
Costs to society in 1998 included lost productivity in the workplace 
($98.5 billion), healthcare expenses ($12.9 billion), and criminal 
justice and social welfare system costs ($32.1 billion).
Treatment and Prevention Services are Effective and Cost Effective
    Drug and alcohol treatment and prevention services save lives and 
money. Numerous studies have demonstrated the effectiveness of 
treatment and prevention in reducing alcohol and drug addiction and 
use. For example, the National Treatment Improvement Evaluation Study 
(NTIES), a study of 4,411 individuals receiving federally funded 
treatment services throughout the country, found sustained reductions 
in post-treatment drug use. One year after completing treatment, 
overall drug use declined by 52 percent, crack use by 50 percent, 
cocaine use by 45 percent, and heroin use by 54 percent. NTIES also 
found a 78 percent decrease in violent crime, a 19 percent increase in 
employment, and an 11 percent decrease in welfare dependence. The 
treatment effectiveness findings of this comprehensive study are 
similar to the findings of other comprehensive studies. In a 1998 
review of the research literature, the General Accounting Office found 
that several studies of the effectiveness of drug treatment had 
``evaluated the progress of thousands of people'' and ``concluded that 
drug abuse treatment was effective when outcomes were assessed 1 year 
after treatment.''
    Prevention has also been shown to be effective in reducing alcohol 
and drug use and the risk of dependency. CSAP has identified 38 model 
prevention programs backed by research findings of effectiveness. An 
example of one successful program, the Life Skills Training program, 
teaches drug resistance and social skills in the classroom. A study of 
6,000 participating students in 56 schools found that smoking, alcohol 
use, and marijuana use was 44 percent lower 6 years after an initial 
assessment, and the use of multiple drugs was 66 percent lower.
    In addition to reducing drug use, treatment and prevention are 
cost-effective. A 1994 study of state-funded treatment programs in 
California found that each $1 invested in drug and alcohol treatment 
and prevention saves taxpayers $7. A 1995 Operation PAR cost-benefit 
analysis of prevention programs nationwide found a $15 savings on every 
dollar spent on drug abuse prevention. These savings resulted from 
increased productivity and reduced health care, criminal justice, and 
social services costs.
Closing the Gap: Increasing the Investment in Drug and Alcohol 
        Treatment, Prevention, and Education, and Research
    Federal programs provide significant funding for treatment and 
prevention services nationwide. I urge Congress to help improve access 
to and the effectiveness of services by increasing support for the 
Substance Abuse and Mental Health Services Administration (SAMHSA), the 
Safe and Drug Free Schools and Communities Act program, the National 
Institute on Alcohol Abuse and Alcoholism (NIAAA), and the National 
Institute on Drug Abuse (NIDA). We urge Congress to help close the gap 
further by increasing support for a number of programs.
    Substance Abuse Prevention and Treatment Block Grant--SAMHSA/
CSAT.--The Substance Abuse Prevention and Treatment Block Grant is the 
cornerstone of the nation's treatment system. Overall, public funding--
federal, state, and local--accounts for 64.3 percent of the nation's 
annual spending for alcohol and drug treatment. The Substance Abuse 
Prevention and Treatment Block Grant represents the foundation of this 
support, providing about 47 percent of all public funding for treatment 
services. In 1998, it provided treatment for over 300,000 persons 
nationwide. The Block Grant also provides crucial support for the 
states' prevention programs, designating 20 percent of the total 
funding for this purpose. To help meet the pressing need for treatment 
and prevention services, we urge Congress to fund the Block Grant at 
$2.0 billion for an overall increase of $275 million over fiscal year 
2002 funding.
    Targeted Capacity Expansion and Best Practices Development and 
Dissemination--SAMHSA/CSAT & CSAP.--Funding at the Centers for 
Substance Abuse Treatment and Prevention is directed toward two major 
activities: Targeted Capacity Expansion (TCE) and best practices 
development. In the TCE programs, targeted funding allows CSAT and CSAP 
to fill service gaps in underserved communities and to quickly respond 
to emerging drug epidemics. TCE programs have helped states, such as 
Iowa, develop new capacity to address changing treatment needs. CSAT's 
TCE program has responded to Iowa's growing methamphetamine problem by 
supporting a specialized case management program that enhances existing 
services. The program has proven successful in addressing 
methamphetamine use: 6 months after treatment, 71 percent of program 
clients reported being abstinent and only 9 percent reported an arrest 
during the follow up period, as compared to 24 percent reporting an 
arrest among a comparison group of clients who received treatment 
without specialized services.
    Best practices development improves service quality by translating 
the findings of research studies into effective service delivery that 
can be implemented in real-world settings. For example, CSAP's High 
Risk Youth program has helped service providers implement and evaluate 
strategies that research has shown to reduce problem behavior in youth. 
A national cross-site evaluation of more than 10,000 youth at 48 High 
Risk Youth programs found that the programs were successful in reducing 
alcohol and drug use. To help CSAT and CSAP continue their critical 
Targeted Capacity Expansion and best practices development work in 
fiscal year 2003, I urge Congress to appropriate $360 million each for 
CSAT and CSAP, a $68 million increase for CSAT and a $162 million 
increase for CSAP.
    Safe and Drug Free Schools and Communities Act Program (SDFSC)--
Department of Education.--Research has demonstrated that school and 
community-based prevention programs that assist the personal 
development of youth and teach them refusal skills can significantly 
reduce alcohol and drug use. The federal Safe and Drug Free Schools and 
Communities Program is the backbone of prevention efforts in the United 
States, and it is having a significant impact in many states. For 
example, in Kentucky, significant increases in abstinence were reported 
over a 6-month period in 1999 for young people involved in SDFSC 
programs: from 32 percent to 70 percent for marijuana; from 26 percent 
to 56 percent for beer drinking; and from 51 percent to 86 percent for 
liquor drinking. For fiscal year 2003, we urge Congress to appropriate 
$737 million for the Safe and Drug Free Schools and Communities 
Program, including a $68 million increase for the State Grants portion 
of this program to support local, community-based prevention 
initiatives.
    National Institute on Drug Abuse & National Institute on Alcohol 
Abuse and Alcoholism/National Institutes of Health.--Research into the 
causes, costs, treatment, and prevention of alcoholism and drug 
dependence plays an important role in improving the quality of 
services. Over the past several years, NIDA has made extraordinary 
scientific advances in understanding the nature of addiction, such as 
those made through the use of imaging technologies like positron 
emission tomography (PET scans), and addiction has begun to be 
conceptualized as a brain disease. Research on addiction as a disease 
has been useful in the development and testing of new science-based 
therapies. NIAAA also has conducted breakthrough research that has 
improved clinical practice, with much of this research focusing on the 
genetics, neurobiology, and environmental factors that underlie alcohol 
dependence. NIAAA also has sought to use new information about alcohol 
use to promote education and an effective public health response to 
this problem. For example, the NIAAA Task Force on College Drinking 
commissioned and widely disseminated a study that found drinking by 
college students 18-24 years old contributes to an estimated 1,400 
deaths, 500,000 injuries, and 70,000 cases of sexual assault or date 
rape each year. To expand our knowledge of addiction and how best to 
treat and prevent it, we urge Congress to appropriate $475 million for 
NIAAA, a $91 million increase, and $1.064 billion for NIDA, a $176 
million increase.
                               conclusion
    Alcoholism and drug dependence continue to be among our nation's 
most serious and costly public health problems. The programs I have 
discussed this afternoon must be strengthened because they are 
America's first line of defense against alcohol and drug dependence. 
Thank you.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists
    The American Association of Immunologists (AAI), a non-profit 
professional association of more than 6,000 research scientists and 
physicians dedicated to understanding the immune system--resulting in 
the prevention, treatment, and cure of disease--appreciates this 
opportunity to express its views on the President's fiscal year 2003 
Budget Request for the National Institutes of Health (NIH). Before we 
do, we would like to express our deep appreciation to the members of 
this subcommittee, and in particular, to the Chairman and ranking 
member of this subcommittee, Senators Tom Harkin and Arlen Specter, for 
their extraordinary support for biomedical research. Last year, AAI was 
delighted to present Chairman Harkin and Senator Specter with our 2001 
Public Service Award in recognition of their ``outstanding leadership, 
achievements, and advocacy on behalf of Biomedical Research and the 
National Institutes of Health.'' While it comes as no surprise that we 
find ourselves 1 year later witnessing again the leadership and 
commitment of Senators Harkin and Specter, we are no less grateful to 
you both for your continuing dedication and for the depth of 
understanding that you bring to government sponsored biomedical 
research and the scientists this funding supports.
                               immunology
    The study of immunology spans a wide range of diseases and 
conditions which affect the lives of every American. Our scientists use 
grants from the NIH, and in particular from the National Institute of 
Allergy and Infectious Diseases (NIAID),\1\ to understand the workings 
of the immune system. This information allows for delineating the 
causes of disease and discovering treatments and potential cures. 
Immunologists are currently engaged in many such activities, including:
---------------------------------------------------------------------------
    \1\ Many AAI members also receive grants from the National Cancer 
Institute (NCI), the National Institute on Aging (NIA), the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases (NIAMS), 
the National Heart, Lung, and Blood Institute (NHLBI), and other NIH 
institutes and centers.
---------------------------------------------------------------------------
  --developing effective vaccines against HIV/AIDS, influenza, and 
        other infectious and chronic diseases;
  --discovering new defenses against emerging and re-emerging bacteria 
        (such as tuberculosis) and drug resistant bacteria (including 
        antibiotic-resistance);
  --regulating autoimmune diseases such as diabetes, myasthenia gravis, 
        and lupus;
  --discovering the causes of cancer and promising new treatments; and
  --developing treatments to prevent the rejection of transplanted 
        organs and bone marrow.
    With all of this research ongoing, AAI members are poised to 
embrace a new and unexpected research challenge posed by the fiscal 
year 2003 budget: bioterrorism research. AAI members include the 
nation's preeminent immunologists, many of whom will conduct the 
research that will be at the forefront of the nation's urgently needed 
vaccine development and related bioterrorism research efforts. The 
efforts of immunologists will be critical in understanding both the 
mechanism of infectious diseases and recovery from them. As we discuss 
this year's budget, we would also like to discuss the unique role that 
we believe immunologists can play in the national effort to combat 
bioterrorism.
     doubling the budget of the national institutes of health (nih)
    AAI strongly supports the President's budget request for $27.3 
billion for fiscal year 2003 for the NIH--an increase of 15.7 percent 
($3.99 billion) over fiscal year 2002. This request, if funded, would 
complete the doubling of the NIH budget over 5 years--a bipartisan 
effort made by Congress under the leadership of the then--Chairman and 
Ranking Member of this subcommittee, Senators Arlen Specter and Tom 
Harkin, and former Rep. and House Subcommittee on Labor, Health and 
Human Services, and Education Chairman John Porter (R-10th, IL, ret.). 
This doubling effort has been endorsed and fulfilled by President Bush 
in his fiscal year 2002 and fiscal year 2003 budget requests.
    Prior years' funds have already increased the funding of grants to 
about 30 percent of all submitted applications, allowing for more 
quality research and for a greater likelihood of successful grant 
applications. The fiscal year 2003 budget would build on this 
foundation. Most Institutes and Centers would receive an average 
increase of 9 percent, with the NIAID increasing by 52 percent and the 
NCI increasing by 11 percent. NIH expects that the fiscal year 2003 
budget would fund a total of 9,854 new, competing research grants, 
resulting in the highest annual total ever (38,038 awards). In 
addition, intramural research would increase by about 15 percent over 
fiscal year 2002.
    AAI believes that this increase in funding will allow more quality 
research to be funded, leading to more translational opportunities and 
swifter clinical application. It will also help attract young students 
to research careers and help retain young scientists who might 
otherwise leave academia or government for better funding opportunities 
with pharmaceutical or biotech companies.
                          bioterrorism funding
    As the members of this subcommittee know, a significant portion of 
this year's budget increase--$1.75 billion--is devoted to bioterrorism 
research, with $1.5 billion of that total directed to the National 
Institute of Allergy and Infectious Diseases (NIAID). AAI strongly 
supports the President's extraordinary commitment to research evidenced 
by this funding request. And while we as scientists generally oppose 
specific funding earmarks--preferring instead to allow the investigator 
initiated research to lead us to the next scientific discoveries--we 
recognize the responsibility of the President and the Congress to 
address urgent national needs and to direct funding to areas where 
scientists may not currently be focusing their attention or efforts. A 
previous example was the advent of AIDS in the 1980s, when little or 
nothing was known of the disease. During a tumultuous period lasting 
through much of that decade, the scientific community was asked to 
focus on this emerging pandemic. And while we are still a long way from 
curing AIDS, the research that has been done on the cause, 
epidemiology, and prophylaxis has prevented untold numbers of new cases 
of AIDS; and advanced treatments have enabled millions of people with 
AIDS or HIV to live longer, healthier lives. It was the NIAID, under 
the exceptional leadership of Dr. Anthony Fauci, together with 
thousands of scientists who are funded by the NIAID, that changed the 
course of the fight against AIDS/HIV. AAI members firmly believe that 
Dr. Fauci and the NIAID will be able to lead the national research 
effort against bioterrorism as successfully as they did the fight 
against AIDS, and we feel confident--as a significant portion of the 
NIAID's grantees--that we can undertake with purpose and commitment the 
research challenges that Dr. Fauci and the NIAID have laid out for us.
 the roles for immunologists in the national response to bioterrorism.
    Because immunologists study the immune system in health and 
disease, we have both a special interest and expertise in the nature of 
infections. We have a unique ability to study the normal immune 
response to the bacteria and viruses which could be used as weapons of 
bioterrorism. An important aspect of the normal immune response is 
defining the ``targets'' (i.e., antigens or epitopes) the immune system 
uses to recognize and destroy invading pathogens. In immunologic terms, 
this means defining the chemical nature of the epitopes recognized by 
the major defenders of the immune system--T and B lymphocytes. The 
mechanisms of defining epitopes are well known, but have not been 
applied to some pathogens which could be used as weapons of 
bioterrorism; these will need to be defined in the test tube, in animal 
models,\2\ and finally, in humans. Once we understand the human immune 
response, we will be prepared to develop life-saving therapies and 
preventive vaccines. Collaboration between microbiologists, who 
understand the biology of infectious agents, and immunologists, who 
understand how the immune system recognizes and fights infectious 
agents, is critical.
---------------------------------------------------------------------------
    \2\ Immunologists depend heavily on the use of animal models in 
their research. Without the use of animals, theories about immune 
system function and treatments that might cure or prevent disease would 
have to be tested first on human subjects, something our society--and 
our scientists--would never countenance. Despite the clear necessity 
for animal research, people and organizations that oppose such research 
are threatening scientists who use animal models. The legal and extra-
legal methods used by these groups to further an animal-rights/anti-
medical research agenda are diverting precious resources from our work, 
threatening the personal safety and security of scientists, and 
delaying the progress of important research that is already underway.
---------------------------------------------------------------------------
    Many diseases have serious health consequences that can reappear 
years after the primary infection (e.g., some autoimmune syndromes). 
Many of these disorders are related to immune responses to persistent 
infection. It is important to understand these possible negative 
effects of immune system protection. An understanding of the biology of 
these negative effects will allow physicians to predict the likely side 
effects and/or long-term consequences of both vaccination and 
contracting the disease itself. The benefit of these studies includes 
the following:
    1. These studies will lead to the production of safe and effective 
vaccines. This information will allow vaccines to target the correct 
parts of the pathogens and make the vaccine more effective, while at 
the same time less likely to induce side effects.
    2. Immunologists will provide tools for clinicians to aid in the 
rapid diagnosis and prognosis of infected individuals. This could 
include both monoclonal antibody-based tests to detect the presence of 
an infectious agent as well as assessments of immune status to aid in 
the determination of the course of infection.
    3. The course of the disease will itself suggest effective 
treatments. Understanding the disease process will define targets for 
drug therapy that are specific, e.g., antitoxin treatment used for 
tetanus. Once these targets are identified, the real strengths of the 
American pharmaceutical industry (rapid drug screening and development) 
can be utilized.
            research, management and services (rm&s) budget
    AAI applauds the President and the leadership at NIH for 
recommending a budget which recognizes that significant new funding 
requires additional administrative staff to ensure that the money is 
well and properly spent. While the Research, Management and Services 
(RM&S) budget supports the management, monitoring, and oversight of 
intramural and extramural research activities (including ensuring the 
continuation of NIH's excellent and highly regarded peer review 
process), it has not been able to keep pace with the increasing size 
and complexity of the NIH budget. We are particularly pleased, 
therefore, that the RM&S budget receives an overall increase of 17 
percent in fiscal year 2003, with an average 9 percent increase for 
most Institutes and Centers and a larger increase for the NIAID and NCI 
to support their significant funding increases. AAI believes that 
proper stewardship will be the best guarantee the taxpayer and the 
Congress have that the appropriated funds will support the best 
research and lead to the most promising results. We strongly support 
this increase in the RMS budget and hope that hiring procedures can be 
streamlined and if necessary, amended, so that hiring can be 
accomplished in time for the upcoming grant cycles and new funds can be 
awarded expeditiously.
 attracting bright students to biomedical research and retaining young 
                              researchers
    AAI has long been concerned about science's ability to attract 
bright young students to careers in biomedical research to ensure the 
future supply of biomedical researchers. In particular, we have worked 
to advance the plight of post-doctoral fellows who are significantly 
underpaid and under-compensated for their critical work. We were 
delighted, therefore, when the NIH announced in March of 2001 that it 
intended to implement recommendations of the National Academy of 
Sciences' Committee on Science, Engineering, and Public Policy 
(COSEPUP) regarding the need for better compensation and employment 
benefits for post-doctoral fellows. (See NIH NOT-OD-01-027). The final 
NIH plan included increasing the stipends for National Research Service 
Award (NRSA) recipients over a 5 year period by 10 percent per year or 
until entry level post-docs reach $45,000 per year (from its fiscal 
year 2002 level of $31,092). During fiscal year 2002, NIH did raise 
stipends by 10 percent and intended to raise them again during fiscal 
year 2003 by 10 percent. The President's budget, however, permits only 
a 4 percent increase for fiscal year 2003.
    We strongly urge this subcommittee to allow NIH to proceed with its 
plan to increase NRSA post-doctoral stipends and to further explore 
ways to provide important employ ment benefits--including health 
insurance, pensions and Social Security, and vacation/leave time--to 
both NRSAs and the post-doctoral fellows supported by NIH extramural 
grants. While we understand that this may result in the hiring of fewer 
post-docs, we believe that it is essential to provide a living wage and 
basic employment benefits if we are to attract and retain the best and 
brightest students who often encounter multiple job opportunities with 
significantly more attractive compensation packages. NIH and the 
National Science Foundation have both recognized this reality facing 
the nation's scientific community and have attempted to address this 
problem directly--we urge the Congress to enable NIH to move forward 
with its post-doctoral stipend plan.
                         post-doubling budgets
    AAI members are grateful for the extraordinary support for 
biomedical research that the Congress has shown through the successful 
and nearly completed effort to double the NIH budget. While we 
recognize that such generous funding increases are unlikely to continue 
in future years given the many important competing programs and needs, 
we strongly urge the Congress to preserve and build upon the many 
scientific advances that have been--and will continue to be--made 
during the doubling period by ensuring adequate funding increases in 
the post-doubling era. While AAI has not yet formulated a 
recommendation regarding reasonable funding increases for future years, 
we note that NIH Acting Director Ruth Kirschstein, M.D., in testimony 
to this subcommittee on March 21, 2002, indicated that current 
scientific opportunities ``lend themselves to an 8-10 percent [annual] 
increase'' in funding in the post-doubling years. We urge the Congress 
to continue to nurture and support the nation's scientific and 
biomedical research enterprise as a prudent investment in providing 
healthier, better, and safer lives for all Americans.
                               conclusion
    While ongoing hearings in both the Senate and House of 
Representatives continue to explore details of the President's fiscal 
year 2003 biomedical research budget that AAI has not yet studied, we 
regard the President's fiscal year 2003 budget for NIH as evidencing an 
extraordinary commitment to advancing not only our nation's defenses 
against bioterrorism, but also to the fight against the more common 
diseases which afflict every family in America and around the world, 
and wreak havoc--one person--and one family at a time. We look forward 
to embracing the many research areas that will open to our scientists 
and plan to work with the NIAID to help educate bench scientists about 
the scientific needs and opportunities that lie before us. We hope that 
the members and staff of this subcommittee will look to us as a 
resource on any matters involving the immune system, vaccine 
development, or biomedical research in general. We appreciate having 
this opportunity to express our views.
                                 ______
                                 
  Prepared Statement of the Population Association of America and the 
                   Association of Population Centers
    Thank you for this opportunity to present the position of the 
Population Association of America (PAA) and the Association of 
Population Centers (APC) to the Subcommittee on Labor, Health and Human 
Services and Education on fiscal year 2003 funding for the National 
Institutes of Health (NIH), specifically the National Institute on 
Aging (NIA), and the National Institute of Child Health and Human 
Development (NICHD). In addition, our comments focus on the Centers for 
Disease Control's (CDC) National Center for Health Statistics (NCHS).
    PAA is a scientific and educational society of professionals 
working in demographic research. APC is a consortium of 32 leading 
American population research centers. In addition to their academic 
roles, members of both organizations provide federal, state and local 
government agencies, as well as private sector institutions, with data 
and research to guide decision-making. Two population research centers 
are based in Pennsylvania--one in Philadelphia and one in State 
College. In addition, there is a population center on aging located at 
the University of Iowa.
    Demographic research focuses on many of the issues important to our 
nation, such as retirement, health disparities, disability and long 
term care, child care, immigration and migration, labor force 
participation, worker retraining, family formation and dissolution, and 
population forecasting. The United States is undergoing far-reaching 
shifts in its demographic composition and distribution. Such changes 
are not always recognized or understood until they confront society 
with new and immediate needs--often requiring federal and state 
expenditures. By tracking such changes, demographic, social and 
behavioral research provides for more coherent and efficient planning 
and policy implementation.
    The National Institute of Child Health and Human Development 
(NICHD) and the National Institute on Aging (NIA) provide primary 
support for demographic research at NIH. The National Center for Health 
Statistics (NCHS) serves as the federal government's main vital 
statistics agency. We would like to take this opportunity to share 
information concerning research findings and funding levels of all 
three of these programs.
    national institute of child health and human development (nichd)
    NICHD has a well established and successful population research 
program, currently funded at $1.1 billion, with approximately $252.7 
million of that budget dedicated to research funded through the 
Demographic and Behavioral Sciences Branch in fiscal year 2002. Among 
the many areas of demographic research supported by NICHD are families 
and household composition; marriage and family change; fertility and 
family planning; teen pregnancy; mortality; HIV prevention; and 
population movement, distribution and composition. NICHD also funds a 
highly regarded population research centers program. Population 
research centers provide a critical core of professionals who combine 
conceptual innovations, with improvements in data collection, 
measurement, and analysis to address emerging questions, often 
involving cross disciplinary research. In addition, the centers are the 
major training ground for future demographers.
    This testimony relating to NICHD focuses on two main areas of 
research: welfare reform and the National Children's Study.
Welfare Reform Effects on Children and Families
    This year the Welfare Reform Act of 1996 comes up for 
reauthorization. This act marked a major shift in welfare programs and 
remains a national priority. NICHD supports a wide range of research 
that examines how communities, families and children are interrelated 
and adapting to changes in social policy and macroeconomics. One such 
research effort is the Fragile Families and Child-Well Being Study, 
which started collecting data in 2000 and will continue through 2004. 
The study follows a cohort of mostly unwed parents and their children 
for a 4-year period. Initial waves of data will provide the basis for 
research on prenatal care, mother-father relationships, expectations 
about fathers' rights and responsibilities, marriage attitudes, social 
support and knowledge of local policies and community resources and 
networks.
The National Children's Study
    NICHD, along with the National Institute of Environmental Health 
Sciences, CDC and the United States Environmental Protection Agency, is 
participating in a landmark study that will assess how environmental 
factors may affect child health. This study was prompted by a 
recommendation of the Developmental Disabilities Work Group of the 
President's Task Force on Environmental Health Risks and Safety. PAA 
and APC join in supporting this study, as children are particularly 
vulnerable to environmental influences. This is largely because a 
child's immunology system is not yet fully developed. The National 
Children's Study will examine how low level contaminants, such as lead, 
combined with other aspects of their social and built environments, 
such as poverty, affect the well being and health of children. In 
addition to environmental factors, the study will analyze biological 
and social factors that may impede child development.
                   national institute on aging (nia)
    The NIA also has a well established and widely respected 
demographic research program, which provides crucial information on the 
implications of the aging of the American population for our country. 
Currently, the NIA is funded at $893 million, with $221.3 million of 
that budget dedicated to the Behavioral and Social Research Program. 
This figure includes training, career development, and demographic, 
economic and epidemiological research in fiscal year 2002. As the U.S. 
population ages and Congress contemplates sweeping changes in Medicare 
and Social Security, the demography of the elderly is increasingly 
important. The NIA has a strong history of supporting the collection of 
data, which allows demographers to study questions of concern to 
policymakers. Chief among these is the NIA-supported Health and 
Retirement Study (HRS).
Health and Retirement Study (HRS)
    The Health and Retirement Study (HRS) was launched in 1992 with 
baseline interviews for a representative sample of persons born between 
1931 and 1941. These respondents were interviewed again in 1994, 1996, 
1998 and 2000. HRS 2002 is now underway and includes new material on 
how the events of 9/11 affected the overall sense of security of mid 
and late-life Americans as well as their financial resources.
    In 1993, the HRS was augmented by the AHEAD (Asset and Health 
Dynamics of the Oldest-Old) which sampled the cohorts born before 1924, 
individuals who are the oldest-old segment of our population with high 
rates of chronic disease, disability, and health care costs. The older 
AHEAD respondents were interviewed again in 1995, 1998 and 2000. In 
1998, samples of two other cohorts were added, those born between 1924 
and 1930, the so-called children of the Depression, and those born 
between 1942 and 1947, or the ``early baby-boomer cohort''. With the 
addition of these cohorts, HRS becomes nationally representative of the 
U.S. population over age 50. Since 1998, the entire study is referred 
to as the HRS.
    The original HRS focused on mid-life work and health dynamics. 
Biennial data are now available for all respondents on health, 
disability, work, health insurance, pensions and retirement plans, and 
transfers of time and financial help across generations of the family. 
The HRS has been used by NIA-supported researchers to explore issues 
such as the effect of changes in physical and cognitive health on the 
age of retirement, the prospects for late-life financial security, and 
the relationship of the use of health care services and the type of 
private and Medicare insurance coverage. Data provided by very old 
respondents has been useful for studying how families redistribute 
their resources across generations, and whether public benefits drive 
out private, family transfers. These data inform policy decisions on 
initiatives such as Medicare/Medicaid coverage, prescription drug 
benefits, and the redistribution of wealth across three or four 
generations of American families.
Health Status and Health Care
    We have long known that Americans are living longer than ever 
before, and new research shows that older Americans are living better 
as well. A recent NIA funded study showed that while memory problems 
increase with age, fewer seniors were identified as having significant 
memory or cognitive problems in 1998 than in 1993. Men and women 
experienced improvements over the past decade and marked improvements 
were seen in those over 80. These preliminary findings suggest that 
severe cognitive impairment in the senior population has declined over 
time. Numerous factors contribute to this decline, including: 
improvements in physical and cognitive health; greater ability to 
diagnose chronic illness at an earlier stages; innovations in 
preventive medicine, and treatment of disabling illnesses; improved 
diagnoses of mental health disorders; the emergence of a broad 
continuum of living and care arrangements; and expanded elder care 
programs. The decline in disability yields cost benefits as well. These 
benefits can be measured in terms of higher rates of labor force 
participation for caregivers to frail elderly, reduced rates of nursing 
home admissions, and a slow down in the increases in public payments 
for personal care.
              national center for health statistics (nchs)
    Located within CDC, the National Center for Health Statistics 
(NCHS) is the principal source of data on the health of the U.S. 
population. A unique public resource for health information, NCHS 
provides data on current public health challenges and monitors the 
extent to which the country is meeting important public health goals, 
such as closing racial and ethnic health disparities. These data are 
used by policy makers and members of the health care industry to 
recognize emerging health problems and evaluate public health 
initiatives. NCHS is currently funded at $130.7 million. After years of 
small increases, the President's budget proposes to shave over half a 
million dollars off of NCHS' budget for fiscal year 2003.
Data on Families and their Health Status
    NCHS is the source of a wealth of information on family formation, 
reproductive health, adoption, and family planning--essential data for 
understanding demographic and social trends. For example, unintended 
pregnancies and births are declining; adoptions are holding steady even 
though relinquishments are decreasing; contraceptive use is increasing 
for each age group including teens, and infertility appears to be 
holding steady despite the common perception that it is increasing. 
This information on family formation and adoption comes from the 
National Survey of Family Growth, a survey conducted by NCHS in 
partnership with NICHD and others. These data not only provide 
important information to policy-makers, but are widely used by 
population researchers.
    In collaboration with the U.S. Department of Education and other 
federal agencies, NCHS is also participating in a study that will 
provide data on child development, education, health and early life 
care. The Early Childhood Longitudinal Study will track 15,000 children 
from their 9th month of age through first grade. Such studies are 
critical to ensuring that the President's goal of ``leaving no child 
behind'' is monitored and met.
Data on Life Expectancy and Social Trends
    Through data on births and deaths, NCHS is able to track critical 
trends in infant mortality, life expectancy, causes of death, teen 
pregnancy, and out-of-wedlock births. Thus, NCHS has documented recent 
declines in teen pregnancy, the upward trend in births to unmarried 
women, as well as changes in the number of children women would like to 
have, continuing reductions in infant mortality (despite the 2:1 
disparity between white and black populations), record highs in U.S. 
life expectancy, the downward trends in AIDS mortality and in cancer 
mortality (since 1993). This information is crucial for national 
policy--for example, mortality data are essential for projecting the 
health of our Medicare and Social Security Trust funds; birth data are 
used to track the success of programs to reduce teen pregnancy; and 
birth data are used to evaluate the success of state efforts to reduce 
out-of-wedlock births through welfare programs. NCHS collects birth and 
death information through the National Vital Statistics System, which 
serves as a model for the rest of the world. NCHS is the lead agency 
for collecting reliable health data for all aspects of our population 
through flagship programs including the National Health Interview 
Survey and the National Health and Nutrition Examination Survey.
Conclusion
    PAA and APC commend President Bush and Congress for their 
commitment to double the NIH budget by the end of 2003. Not all NIH 
Institutes and programs, however, have benefited equally from the 
substantial NIH budget increases. PAA and APC urge an increase in the 
range of 11 percent to 12 percent to sustain the momentum of 
demographic research at both NICHD and NIA. NICHD efforts, such as the 
National Survey of Family Growth, and NICHD training programs risk 
collapse because of partial funding. A funding increase will also allow 
NICHD to sustain and capitalize on the research programs of the 
Centers. Recently, NICHD suspended funding to three such population 
centers because of inadequate funds. In addition, an 11 percent to 12 
percent increase at NICHD would allow expansion of programs to study 
immigration and population movement programs, including work on how 
immigration policies affect racial and ethnic composition of 
neighborhoods, as well as the residential patterns of legal and illegal 
immigrants in both urban and rural areas. At NIA, additional funding 
would support the expanding program on biodemography and analyses of 
the two major prospective panel studies, the Health and Retirement 
Study and the National Long Term Care Study. These studies have already 
yielded important policy dividends charting changes in the age and 
timing of disability transitions and the increased duration of healthy 
life, even at the extremes of old age.
    PAA and APC urge restoration of the $600,000 funding cuts for NCHS 
that are reflected in President Bush's fiscal year 2003 proposed 
budget.--Without such restoration, combined with a substantial increase 
of 20 percent for NCHS, there will be a major reduction in the data 
generated from NCHS' existing data systems. Timeliness, sample size, 
ability to look at smaller groups within population, will all be 
adversely affected without restored and increased funds for NCHS. Both 
the National Health Nutrition and Examination Survey and the National 
Health Interview Survey will be compromised if not fully funded. In 
addition, a reduction in funds will severely undermine the scientific 
integrity of both. Within NCHS' programs on vital statistics (e.g. 
annual estimates of birth and death rates, and marriage and divorce 
rates), budget cuts are likely to diminish the reliability of data used 
to monitor trends in out of wedlock births, causes of death and health 
disparities. Indeed, one of the major NCHS surveys itself would have to 
be suspended without such increases in funding. Of all developed 
countries over the last decade, only Russia has reduced its investment 
in these most fundamental programs of data collection.
    PAA and APC thank you for the opportunity to present these 
recommendations. Demographic data and research are important tools for 
policymakers that can both save public funds and promote more informed 
decision-making. If this vital program is to continue providing 
reliable and timely data for the country, as a whole and the states, 
adequate funding and Congressional support are needed.
                                 ______
                                 
          Prepared Statement of the American Chemical Society
    The American Chemical Society (ACS) would like to thank Chairman 
Tom Harkin and Ranking Member Arlen Specter for the opportunity to 
submit testimony for the record on the Labor, Health and Human 
Services, and Education Appropriations bill for fiscal year 2003.
    As you may know, ACS is a non-profit scientific and educational 
organization, chartered by Congress, representing more than 163,000 
individual chemical scientists and engineers. The world's largest 
scientific society, ACS advances the chemical enterprise, increases 
public understanding of chemistry, and brings its expertise to bear on 
state and national matters.
    Advances in science and engineering have produced more than half of 
our nation's economic growth in the last 50 years. Each field of 
science contributes to our diversity of strengths and capabilities and 
has given us the flexibility to apply science in unexpected ways. 
Together, science and engineering and the highly trained people who 
work in these fields remain the most important factor in the 
productivity increases responsible for economic growth and rising 
living standards, economists agree. Increased attention to national 
security and counter-terrorism activities and the bipartisan commitment 
to double the budget of the National Institutes of Health over 5 years 
led to record investments in federal research and development (R&D) in 
fiscal year 2002. Nevertheless, the R&D investment in some federal 
agencies is still inadequate for them to achieve their missions. 
Opportunities to perform high-quality research, recruit U.S. students 
to science and engineering fields, and fully utilize world-class 
federally supported research facilities are being missed. U.S. 
intellectual leadership and competitive position in the global economy 
almost certainly will erode in the long term as a result. For fiscal 
year 2003, Congress and the administration will be challenged by the 
costs of the war on terrorism, budget deficits, and an uncertain 
economic outlook. As these challenges are confronted, strength in 
science should remain a key national objective.
                       nih budget recommendations
    The American Chemical Society (ACS) commends Congress and the 
Administration for its continued support of the effort to double NIH's 
budget by fiscal year 2003. ACS urges Congress and the Administration 
to continue this effort by funding NIH at $27.3 billion for fiscal year 
2003, a 15.8 percent increase over fiscal year 2002. As the major 
supporter of biomedical research in the United States, NIH is the 
primary source of new biomedical discoveries that will lead to longer, 
healthier lives due to prevention, early detection, and more effective 
treatment of disease. NIH-supported research contributes to U.S. 
leadership in biomedical research. This research provides training 
opportunities for new scientists and stimulates technological advances 
in the pharmaceutical and biotechnology industries, both of which 
contribute positively to the nation's balance of trade.
    Physical sciences contribute to fundamental advances in biomedical 
research. As the largest source of federal funding for basic research, 
NIH must do more to provide strong support for areas of physical 
science that are critical for sustained advances in biomedicine.
             national institute of general medical sciences
    ACS believes it is essential that the National Institute of General 
Medical Sciences (NIGMS) receive increases that are at least 
proportional to the other NIH institutes. NIGMS supports quality, non-
disease-specific basic research and training that underpins advances in 
other institutes. NIGMS plays a central role in generating basic 
knowledge across science disciplines, strengthening the roots of 
innovation in the biomedical community, and fostering tomorrow's 
breakthrough discoveries. ACS supports NIGMS' promotion of 
interdisciplinary research programs. These programs would allow 
chemists to collaborate with other scientists to study new research 
areas.
                 national center for research resources
    The National Center for Research Resources (NCRR) provides support 
for state-of-the-art research infrastructure, including the expansion, 
remodeling, and construction of extramural research facilities. The 
Center facilitates the development of new technologies and techniques 
for scientific inquiry. NCRR provides grants such as the Shared 
Instrumentation Grants program, which provides a cost-effective 
mechanism for groups of NIH-supported investigators to obtain 
commercially available, technologically sophisticated equipment costing 
more than $100,000. ACS urges that this program be funded at its 
authorized level of $100 million.
    ACS also supports NCRR's High Cost Instrumentation grant program 
for instruments that cost between $750,000 and $2 million. Instruments 
in this category include structural and functional imaging systems, 
high-resolution NMR spectrometers, electron microscopes, and 
supercomputers. Through these contributions, NCRR offers the potential 
for revolutionary approaches to health-related research. This program 
should receive the same proportional increase as other NIH programs.
          national institute of environmental health sciences
    ACS supports the research programs of the National Institute of 
Environmental Health Sciences and the National Toxicology Program. NTP 
is well-suited to encourage and support changes in the synthesis and 
manufacture of pharmaceuticals and their intermediates in ways that are 
more benign to human health and the environment. NIEHS and NTP should 
be encouraged to integrate the emerging area of green chemistry, which 
involves the use of more benign chemicals and technologies, into their 
portfolio of synthetic methods development.
                                 ______
                                 
  Prepared Statement of the National Association of State Alcohol and 
                          Drug Abuse Directors
    Thank you for the opportunity to provide testimony regarding fiscal 
year 2003 appropriations. My name is Dr. Lewis Gallant, and I am the 
Executive Director of the National Association of State Alcohol and 
Drug Abuse Directors (NASADAD).
    NASADAD's members are responsible for administering the Substance 
Abuse Prevention and Treatment Block Grant and assuring the quality and 
effectiveness of substance abuse prevention and treatment services. In 
addition, our members certify substance abuse professionals, accredit 
treatment programs, contract with community based providers, collect, 
manage analyze and report on data, and work to ensure quality 
performance.
          nasadad's fiscal year 2003 appropriations priorities
    I would like to quickly highlight NASADAD's appropriations 
priorities for fiscal year 2003 contained in the bill funding the 
Departments of Labor, Health and Human Services (HHS), and Education. 
NASADAD is joined by other members of the substance abuse community in 
recommending the following:
  --$2 billion for the Substance Abuse Prevention and Treatment Block 
        Grant,
  --$360 million for the Center for Substance Abuse Prevention,
  --$360 million for the Center for Substance Abuse Treatment,
  --$540 million for the State Grants portion of the Safe and Drug Free 
        Schools and Communities Program within the Department of 
        Education,
  --$1.064 billion for the National Institute on Drug Abuse, and
  --$475 million for the National Institute of Alcoholism and Alcohol 
        Abuse.

                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal year
                                                                    --------------------------------------------
                              Program                                                   2003
                                                                          2002       President's   2003  NASADAD
                                                                     appropriation     request    recommendation
----------------------------------------------------------------------------------------------------------------
Substance Abuse Prevention and Treatment Block Grant (SAPT)........          1.725         1.785          2.000
Center for Substance Abuse Treatment (CSAT)........................           .292          .358           .360
Center for Substance Abuse Prevention (CSAP).......................           .198          .153           .360
Safe & Drug Free Schools & Communities Program (SDFSC) \1\.........           .747          .644           .747
State Grants (SDFSC subtotal)......................................           .472          .472           .540
National Institute on Drug Abuse (NIDA)............................           .888          .968          1.064
National Institute on Alcohol Abuse and Alcoholism (NIAAA).........           .384          .418           .475
----------------------------------------------------------------------------------------------------------------
\1\ Includes funds newly authorized under Public Law 107-110, the No Child Left Behind Act of 2001.

  president bush: substance abuse services must be a national priority
    President Bush reminded us all that more must be done to elevate 
substance abuse treatment and prevention issues to the forefront of our 
national agenda. In particular, the President noted, ``In this 
struggle, we know what works. We must aggressively and unabashedly 
teach our children the dangers of drugs. We must aggressively treat 
addiction wherever we find it. And we must aggressively enforce the 
laws against drugs at our borders and in our communitiesa America 
cannot pick and choose between these goals. All are necessary if any 
are to be effective.'' I could not agree more.
    The President issued a call to action--and for good reason. The 
National Household Survey on Drug Abuse (NHSDA) estimates that 14 
million Americans (or 6.3 percent of the U.S. households' population 
age 12 and over) need treatment in any given year. We know that certain 
substances, including the ``club drug'' Ecstasy and the non-medical use 
of Oxycontin, are impacting our communities at alarming rates. Studies 
also show that alcohol and other drug addiction cost the nation as much 
as $400 billion per year. These costs stem lost job productivity, 
health care needs, accidents, crime, welfare and child welfare and 
other factors. But no sterile statistic, or gross dollar estimate, can 
accurately capture the toll substance abuse takes on citizens across 
the country. We all know a friend, family member, co-worker or even 
celebrity impacted by substance abuse. We are all too familiar with the 
havoc addiction wreaks on citizens across the nation. As the President 
noted, substance abuse ``threatens everything that is best about our 
country.''
    In an ambitious move to address substance abuse problems in the 
U.S., President Bush announced last year his commitment to dedicate 
$1.6 billion over 5 years to help erase the treatment gap. In February, 
Mr. John Walters, Director of the Office of National Drug Control 
Policy (ONDCP), announced the release of the Administration's 2002 
National Drug Control Strategy, which set a goal of reducing illegal 
drug use by 25 percent over the next 5 years. More recently, Mr. 
Charles Curie, Administrator of the Substance Abuse and Mental Health 
Services Administration (SAMHSA), unveiled his agency's priorities and 
reiterated his commitment to work collaboratively to improve substance 
abuse services across the country. We applaud each of these leaders, 
and commend them for their vision. We also look forward to working 
closely with the Administration, Congress and others in order to ensure 
that the $1.6 billion in new, cumulative funding will be effectively 
used to help the lives of Americans across the country.
    backbone of state addiction systems: substance abuse block grant
    NASADAD enthusiastically supports the Administration's call to 
increase funding for the Substance Abuse Block Grant. While NASADAD and 
others would prefer a total of $2 billion in fiscal year 2003 funding 
for the Block Grant, we commend the Administration's proposal to 
increase this program by $60 million.
    The Substance Abuse Block Grant is a crucial funding stream that 
assists States in maintaining a foundation for their respective service 
delivery systems. In particular, Block Grant funds help provide 
assistance to vulnerable populations--including youth and pregnant and 
parenting women--who either have, or at risk of having, a substance 
abuse problem. Also, the Substance Abuse Block Grant maintains and 
creates linkages with other public programs to maximize the impact of 
available resources. These linkages are vital due to the many year-to-
year pressures impacting State substance abuse systems. For example, 
States across the country are facing severe budget cuts due to the 
economy and the homeland security costs related to the tragic events of 
September 11. The National Governors Association (NGA) and the National 
Association of State Budget Officers (NASBO) estimate that there is a 
$50 billion State budget gap nationwide.
 transitioning to a performance partnership grant: resources for data 
                                 needed
    As you may know, federal law mandated a shift away from the 
Substance Abuse Prevention and Treatment Block Grant into a Performance 
Partnership Grant. This transition is designed to provide States more 
flexibility in the use of funds while instituting a system of 
accountability based on performance. NASADAD is working closely with 
SAMHSA, led by Administrator Curie, on this complicated transition. We 
share SAMHSA's idea that the Performance Partnership Grant should be 
viewed as a ``quality improvement'' mechanism versus a punitive 
approach that could threaten the flow of much needed resources to our 
already strained substance abuse system.
    As part of the transition, Public law requires the Secretary of 
Health and Human Services (HHS) to submit a plan to Congress by October 
17, 2002, on the details of the switch to a Performance Partnership 
Grant. NASADAD is working with SAMHSA regarding the many details that 
must be contained in this blueprint, including (1) a description of the 
flexibility that would be given to the States under the plan; (2) the 
common set of performance measures that would be used for 
accountability; (3) the definitions for the data elements to be used 
under the plan; (4) the obstacles to implementation of the plan and the 
manner in which such obstacles would be resolved; (5) the resources 
needed to implement the performance partnerships under the plan; and 
(6) an implementation strategy complete with recommendations for any 
necessary legislation.
    It is clear that the transition to a Performance Partnership Grant 
will require substantial resources. Adequate federal funds will be 
needed in order to help each State meet the new requirements set forth 
in the Performance Partnership Grant. One priority that must begin to 
be addressed in fiscal year 2003 and future fiscal years relates to 
data management. Funds are needed, for example, to help States assess 
current data information capacity in view of the transition. Resources 
are also needed to help States build systems that will collect, track, 
refine, manage, analyze and disseminate accurate data in accordance 
with the requirements set forth in the new Performance Partnership 
Grant.
    In a report written in November 2001 by NASADAD for SAMHSA, 
research found that the total State expenditures for the operation and 
maintenance of alcohol and other drug (AOD) systems for 2001 was 
$35,359,000 or $698,000 per State. As a result, we know that 
substantial resources are already being spent on State substance abuse 
data management. The implementation of the Performance Partnership 
Grant, however, mandates a new set of corresponding requirements from 
the States. Without additional federal funds, the timeline for the 
transition away from the Substance Abuse Block Grant would be severely 
delayed. Further, the implementation of the Performance Partnership 
Grant is predicated on the current system of providing adequate and 
baseline funding levels to each State for substance abuse prevention 
and treatment services. Any changes to this system would endanger the 
ability of States to participate successfully in the Performance 
Partnership.
                  center for substance abuse treatment
    NASADAD recommends $360 million for SAMHSA's Center for Substance 
Abuse Treatment (CSAT) for fiscal year 2003. Over the years, tremendous 
gains have been made to help address the treatments needs of our 
nation. We know, for example, that criminal activity decreases by as 
much as 80 percent when treatment is administered. We know that infants 
whose mothers receive substance abuse treatment avoid low birth weight, 
premature delivery and death at rates better than the national average. 
We know that welfare recipients who need addiction treatment, and 
undergo a complete treatment cycle, are more likely to get a job and 
earn more money than those who receive only minimal treatment services. 
Simply put--we know treatment works.
    However, the data also shows that we have many more challenges 
ahead of us. For example, there is an ``invisible epidemic'' taking 
place among our senior citizens, where an estimated 17 percent of our 
seniors have a substance abuse problem. In addition, 70 percent of 
families with a child in protective care struggle with addiction. The 
tragedies of September 11 have heightened the need to expand substance 
abuse services as providers report increased demand for their 
assistance. The events of September 11 also highlight the impact trauma 
has on substance use and abuse.
    We would like to take this opportunity to publicly thank Mr. 
Charles Curie, Dr. H. Westley Clark, Director of CSAT, and Dr. Joseph 
Autry, Deputy SAMHSA Administrator, for their leadership during--and 
immediately after--the terrorist attacks. SAMHSA acted quickly to 
provide a series of emergency grants to States impacted by the events. 
Subsequently, SAMHSA organized a national summit in New York City to 
examine and enhance the local, State and federal role in addressing the 
mental health and substance abuse needs of individuals and communities 
before, during, and after acts and threats of terrorism. We would 
encourage Congress--and SAMHSA--not to lose focus on the link between 
trauma and substance abuse as other related initiatives are developed 
and implemented.
                 center for substance abuse prevention
    NASADAD recommends $360 million for SAMHSA's Center for Substance 
Abuse Prevention (CSAP) for fiscal year 2003. NASADAD and other 
national organizations are extremely concerned with the 
Administration's proposal to reduce funding for CSAP in fiscal year 
2003 by $45 million. CSAP is the sole Federal organization with 
responsibility for improving accessibility and quality of substance 
abuse prevention services. Led by Dr. Ruth Sanchez-Way, CSAP provides 
national leadership in the development of policies, programs, and 
services to prevent the onset of illegal drug use, along with underage 
alcohol and tobacco use.
    There is no doubt that we must remain committed to the prevention 
of substance abuse problems before they occur. Projections in drug 
abuse treatment need made by the NHSDA demonstrate a compelling point: 
The study found that if current initiation rates continue at the same 
levels we are experiencing now, demand for drug treatment will more 
than double (an increase 57 percent) by 2020. Even if we managed to cut 
current initiation rates today by 50 percent, demand for treatment 
would simply remain constant by 2020. The good news is that studies 
also show that federally funded substance abuse programs for ``high-
risk youth'' yield reduced rates of alcohol, tobacco and marijuana use. 
Prevention can and does work--and we must continue to invest federal 
funding in prevention programs in order to avoid more problems in the 
future.
    NASADAD supports CSAP's State Incentive Grant (SIG). The SIG 
program is a successful initiative that links different systems in new 
and exciting ways to help enhance service delivery and capacity. These 
competitive grants (there have been 33 funded to date) flow through the 
Governors' offices, where care is taken to involve other important 
State systems, and are provided to community coalitions in a more 
inclusive and comprehensive manner. The SIG program is an effective 
mechanism designed to ``bridge'' formerly disparate government entities 
(e.g., the State AOD agencies, criminal justice agencies, child welfare 
agencies, education agencies, enforcement agencies, etc.) to provide 
thorough substance abuse prevention services.
    CSAP's Decision Support System--launched less than 2 years ago--has 
already proven to be a remarkable, cutting-edge tool that makes use of 
the World Wide Web platform. This user-friendly interactive system 
enables the individual to access not only the registry of effective 
model programs, but also offers general technical assistance, 
information on State-supported prevention systems (via State 
``portals''), and assessment tools relevant to the measurement of risk 
and protective factors within a target population. In an era of 
increased accountability and performance-based reporting, such an 
interactive Web-based tool becomes invaluable to the substance abuse 
prevention community.
    As previously mentioned, the dissemination of model programs is 
proving to be a useful mechanism in assisting States and communities in 
replicating and adopting evidence-based practices that are specifically 
tailored to various demographic target populations. The database 
created by CSAP, the National Registry of Effective Prevention 
Programs, is the primary national repository for scientifically 
validated prevention programs.
    NASADAD is concerned with the impact the proposed budget will have 
on ``services research''--or knowledge development. Administration 
officials note that SAMHSA and the National Institutes of Health (NIH) 
plan to collaborate to promote the study, dissemination, and 
implementation of research findings that improve the delivery and 
effectiveness of substance abuse and mental health services. This 
collaboration, according to SAMHSA, will involve the National Institute 
on Alcohol Abuse and Alcoholism (NIAAA), the National Institute on Drug 
Abuse (NIDA), and the National Institute of Mental Health (NIMH), and 
seek to produce a comprehensive ``Science to Services'' agenda that is 
responsive to the needs of the field. Over the next year, SAMHSA will 
seek to define and develop a ``Science to Services'' cycle that reduces 
the time between the discovery of an effective treatment or 
intervention and its adoption as part of community-based care. NASADAD 
would like to work with SAMHSA and NIH to ensure that the emerging plan 
for services research is crafted to include a portfolio that directly 
addresses the needs of State systems.
    In looking at the overall budget, NASADAD is extremely concerned 
with the proposed $45 million to CSAP. We believe that more funding is 
needed--not less--and should be directed to the projects outlined above 
and others in order to maintain our strong investment in much needed 
prevention services.
                 underage tobacco use: synar amendment
    As noted by the National Governors Association (NGA), States are 
strongly committed to reducing youth smoking and restricting underage 
access to tobacco. In turn, States have committed substantial resources 
and time for the enforcement of what is known as the ``Synar 
amendment''--requiring States to enact laws prohibiting tobacco sales 
to minors and to achieve an 80 percent compliance rate among tobacco 
vendors. HHS issued regulations for Synar enforcement that established 
baseline annual target rates for each State. Despite good-faith 
efforts, many States have experienced serious challenges to 
implementing, enforcing, achieving and maintaining compliance with the 
Synar statute. The penalty for noncompliance with Synar is a severe 40 
percent cut to the State's Substance Abuse and Prevention Treatment 
Block Grant. NASADAD opposes this punitive penalty that severely 
threatens those who are most vulnerable.
    We agree with NGA in noting that Congress has taken an important 
first step in creating effective Synar enforcement by inserting 
language into the fiscal year 2000, 2001, and 2002 appropriations bills 
that would prevent Sates that commit substantial resources to the goals 
of Synar from suffering severe penalties to their Block Grant. NASADAD 
agrees with NGA in calling for substantial, longterm changes in the 
administration of the law and the statute itself. These changes are 
needed in order to ensure that States and the federal government work 
together to meet their common goal of reducing tobacco sales to minors 
without penalizing populations in need of substance abuse prevention 
and treatment services. In particular, we support NGA's position that 
calls for the establishment of a Synar enforcement structure that does 
not threaten, interrupt or eliminate critical substance abuse 
prevention and treatment services. NASADAD looks forward to working 
with Congress, the Administration, and others on this important issue.
 national institute of drug abuse and national institute on alcoholism 
                           and alcohol abuse
    NASADAD recommends $1.064 billion for NIDA and $475 million in 
fiscal year 2003 for NIAAA. Increased funding for substance abuse 
research is vital, as mentioned above, and should include initiatives 
relevant to our State systems.
           safe and drug free schools and communities program
    NASADAD recommends $540 million in fiscal year 2003 funding for the 
newly reauthorized State Grants portion of the Safe and Drug Free 
Schools and Communities Program within the Department of Education. 
This important program serves as a vital source of funding to States 
for prevention programming.
    Thank you for considering these requests. Should you have any 
questions, or require additional information, please do not hesitate to 
contact me or have your staff contact Robert Morrison, Director of 
Public Policy, at (202) 293-0090 x 106 or email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5527383a27273c263a3b153b3426343134317b3a27327b">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the Facioscapulohumeral Muscular Dystrophy 
                                Society
    Mr. Chairman, it is a great pleasure to submit this testimony to 
you today.
    My name is Daniel Paul Perez, of Lexington, Massachusetts, and I am 
testifying as President & Chief Executive Officer (CEO) of the 
Facioscapulohumeral Muscular Dystrophy Society (FSH Society, Inc.) and 
as an individual who has this devastating disorder.
    Facioscapulohumeral muscular dystrophy (FSHD) is the third most 
prevalent form of muscle disease. FSHD is a neuromuscular disorder that 
is inherited and transmitted genetically by 1/20,000 people affecting 
12,500-37,500 persons in the United States. Additionally, FSHD can 
occur at any time by new mutations in the chromosome and 20-30 percent 
of people affected by FSHD are this type of spontaneous congenital 
mutation. For men and women, the major consequence of inheriting FSHD 
is a clinically unpredictable and progressive and severe loss of 
skeletal muscle, with the usual pattern of initial noticeable weakness 
of facial, scapular and upper arm muscles and subsequent developing 
weaknesses of other skeletal muscles. Retinal and cochlear disease can 
often be associated with FSHD although the pathogenesis and causative 
relationship to FSHD remains unknown. FSHD wastes the skeletal muscles 
and gradually but surely brings weakness and reduced mobility. Many 
with FSHD are severely physically disabled and spend the last 30 years 
of their lives in a wheelchair. The toll and cost of FSHD physically, 
emotionally and financially is enormous. FSHD is a life long disease 
that has an enormous cost-of-disease burden and is a life sentence for 
the innocent patient and involved persons and their children and 
grandchildren as well.
    The FacioScapuloHumeral (FSH) Society, incorporated in 1991, solely 
addresses specific issues and needs regarding facioscapulohumeral 
muscular dystrophy (FSHD). We promote public awareness of FSHD by 
providing research, education, and advocacy on FSHD. The FSH Society 
actively represents more than 10,000 patients with FSHD. The Society to 
date has invested more than $750,000 into new research initiatives for 
this common muscle disease.
    A decade of progress in FSHD has led to the discovery of many novel 
genetic phenomena never seen before in human disease and genomics that 
are of great significance and consequence to medicine and science. 
Genetic and physical mapping of the FSHD chromosome 4q35 region 
identified a DNA rearrangement associated with the disease. A 
polymorphic monomeric 3.3 kilo base pair (kb) repeat array, called 
D4Z4, when shortened to less than 9 repeats in length causes FSHD. The 
``FSHD mutation'' was identified in 1990-1992. Despite having 
identified this molecular defect or mechanism there are no gene(s) that 
have been associated with or linked to FSHD to date. The repeats 
themselves may contain a gene or genes or some transcription mechanism 
that is disrupted. FSHD could be caused by a position effect 
variegation (PEV) mechanism. A PEV is caused by a shortening of the 
repeat array (DNA) causing structural and folding changes in the 
chromosome leading to altered expression of genes nearby or genes on 
other chromosomes. PEV causes DNA in one part of the genome to affect 
DNA in other parts of the genome. In FSHD, DNA at the very end of the 
chromosome (telomere) may interfere with DNA upstream towards the 
center of the chromosome. FSHD may be the first human disease known to 
be caused by a deletion-mutation of a stretch of chromosome causing 
PEV. Incredibly, as well, another level of complexity occurs due to a 
crossover of subtelomeric DNA between chromosomes (4 and 10) in both 
normal individuals and diseased individuals. Researchers know that FSHD 
is a complex human disease entangled in a dynamic molecular genomic 
evolution and many insights are being gleaned about the evolution of 
species. In recent months, researchers have presented preliminary data 
of a potential major breakthrough detailing the molecular switch that 
turns FSHD on and off via the repeats.
    Despite remarkable genetic insight and immense progress by a small 
team of scientists worldwide, the nature of the gene product(s) remain 
enigmatic and the biochemical mechanism and cause of this common muscle 
disease remains absolutely unknown and elusive. The same is true for 
any treatment, therapy or cure--none exist.
    The National Institutes of Health (NIH) spent approximately $19 
million (fiscal year 2000), $21 million (fiscal year 2001), $23.4 
million (fiscal year 2002) and has budgeted $25.4 million (fiscal year 
2003) for research on all nine forms of muscular dystrophy including 
FSHD. Of the 23.4 million (fiscal year 2002) spent on all nine forms of 
muscular dystrophy, conservatively $1.7-$1.9 million (fiscal year 2002) 
is currently being spent on the third most prevalent and third largest 
disease of muscle, FSHD. One one-hundredth of 1 percent of the NIH 
budget will be spent on a very large and significant group of disease. 
Compared to other disease research areas at the NIH, muscular dystrophy 
is drastically under-funded.
    Nearly a decade ago, we appeared before this Committee to testify 
for the first time. The Appropriations Committees have repeatedly 
instructed the NIH to enhance and broaden the portfolio in FSHD. Due to 
the Appropriations Committees' interest, FSHD research has taken a 
number of steps forward this past year. I am pleased to report that 
three major programs to directly accelerate funding and research on 
FSHD have been initiated by the NIH. Admittedly, at first the NIH was 
slow to respond. However, in the past year we have been heartened to 
see the Directors of the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases (NIAMS), the National Institute of 
Neurological Disorders and Stroke (NINDS), the Office of Rare Disease 
(ORD) and the National Institute for Child Health and Human Development 
(NICHD) bring their considerable talents to bear on shaping meaningful 
approaches to solving the puzzle of FSHD.
    To date, the funding is still a fraction of what is needed to 
establish a comprehensive and competent research platform for FSHD. 
$12-18 million is needed for FSHD and $65-85 million is needed for the 
entire class of disease called muscular dystrophy.
    Last year, the United States Congress passed the ``Muscular 
Dystrophy Community Assistance, Research and Education Act'' (The MD-
CARE Act of 2001). The purpose of the MD CARE Act is to develop 
research that will broaden the base of inquiry on muscular dystrophy 
and FSHD and to bring that research to the clinic. The FSH Society has 
worked very hard to make this a reality.
    The NIH is working rapidly to implement the MD CARE Act. This is 
evidenced by the unprecedented partnership between the public agencies 
and patient groups concerned with muscular dystrophy. The closer and 
tighter cooperation between public and private agencies working 
together has led to remarkable progress in understanding the gravity of 
the situation of extreme lack of muscular dystrophy research and in 
particular FSHD research.
    The Congress, the NIH and the volunteer health agencies are to be 
commended for the rapid and efficient progress. We hope that the MD 
CARE Act will yield a solid research strategy among the scientific, 
patient and government agencies.
    However, we are concerned with the actual and estimated research 
funding figures from the NIH. These figures anticipate budgets of $21, 
$23.4, and $25.4 million for fiscal year 2001-2003 respectively on all 
muscular dystrophy. Even with the enormous increases Congress has 
provided to the NIH over the last several years, the muscular dystrophy 
research portfolio at the NIH is only an 8.55 percent increase for next 
year. Surely, the public, patients, volunteer health agencies and the 
Congress envisioned the MD CARE Act as a strong statement to raise the 
level of muscular dystrophy funding from $25 million to $60, $85, or 
even $100 million beginning as early as 2003. The intent was to give 
the NIH much needed resources to move ahead quickly. We need to look at 
the present rate of growth and expansion and more importantly beyond 
the present.
    We are very concerned that the enormous scientific progress on FSHD 
and muscle disease internationally and the unprecedented collaboration 
between the public and private agencies is not reflected in the budget 
as presented by the NIH.
    Thanks to the Appropriations Committees, the NIH and the FSH 
Society held a research planning Conference in May 2000. It developed a 
sound and comprehensive research strategy on FSHD. Now, that plan is 
about 25 percent completed. We urge the Committee to maintain the 
momentum which that effort generated and to continue to express your 
support for the establishment of a broad portfolio of research grants 
in FSHD.
    Mr. Chairman, we trust your judgement on the matter before us. 
Please remember that we need your help to ensure that the sun is rising 
on FSHD and all muscular dystrophy.
    Mr. Chairman, again, thank you for providing this opportunity to 
testify before your Subcommittee.
                                 ______
                                 

                         Public Health Service

         Prepared Statement of the American Medical Association
    As you continue the Committee's hearings on the fiscal year 2003 
Budget for the Department of Health and Human Services, the American 
Medical Association (AMA) would like to share its insights on the 
Administration's fiscal year 2003 Budget Proposal submitted to 
Congress. As the Committee moves forward in considering the 
Administration's requests, we hope you will seriously weigh our 
concerns related to the issues listed below.
    User Fees.--Through its budget proposal, the Administration has 
proposed user fees for physicians who submit claims on behalf of their 
patients. As background, several years ago, Congress enacted 
legislation requiring physicians treating Medicare patients to submit 
these claims to the Medicare program on behalf of their patients. 
Congress has repeatedly rejected the Administration's attempts to shift 
such additional Medicare program costs onto physicians through user 
fees. These user fees are nothing but a tax on the physician community, 
which is currently facing unprecedented payment cuts from the Medicare 
program, and we urge you to again reject these fees.
    The Administration's budget would tax physicians $1.50 for each 
paper claim submission. This has the potential to impact up to 21 
percent of all Part B Medicare claims, and along with the tax cited 
below would impose $130 million in fees on physicians in fiscal year 
2003. This would be an extraordinary cost for physicians to bear simply 
because their offices have not been linked to an electronic network. 
This tax is especially unwarranted since many physicians may feel more 
comfortable submitting hard copies of claims to their carriers given 
the negative experiences that some physicians have had with their 
carriers and the issues surrounding confidentiality of patient records. 
The budget proposal would also penalize physicians by taxing them $1.50 
for each resubmitted claim even when payment was seriously overdue or 
when the contractor has rejected the claim for trivial or inappropriate 
reasons. The AMA objects to requiring a physician to pay to resubmit 
claims to the Medicare program. The AMA strongly urges the Committee to 
reject these user fees.
    Loan Consolidation.--The AMA is adamantly opposed to any proposal 
that would end fixed-rate consolidation of federal student loans. If 
implemented, this proposal would prevent thousands of student loan 
borrowers from consolidating their education loans at significantly 
lower interest rates.
    Physicians enter their residency with an average of $97,750 in 
student loan debt. At 4.5 percent (the projected 2002 fixed rate for 
student loan consolidation), borrowers with a debt of $106,000, and a 
standard 10-year repayment period, pay $1,098 per month or a total of 
$131,828 ($25,828 in interest) over the life of the loan. At a rate of 
6.8 percent, (projected variable rate based on Congressional Budget 
Office projections over the next 10 years) these same borrowers would 
pay $1,220 per month or a total of $146,382 ($40,382 in interest) over 
the life of the loan. This increase would be unjustified and would rest 
squarely on the backs of our nation's students.
    The AMA believes that students should be able to avail themselves 
of the best possible loan terms when seeking to refinance their debt. 
The high level of educational indebtedness serves as a deterrent for 
many medical school graduates considering whether to practice medicine 
in an underserved area, enter the public health service, or start a 
career in medical education or research. We strongly urge the Committee 
to reject this proposal as it would effectively raise the interest on 
education loans for millions of American students.
    Limited English Proficiency Requirements--The previous 
Administration issued guidance stating that since physicians treating 
Medicaid patients receive ``federal financial assistance,'' they are 
required to provide medical interpreters for all of their non-English 
speaking patients. Since the cost of providing interpreter services 
usually exceeds the payment made for the physician visit, many 
physicians may simply opt not to treat the most needy patients because 
of this requirement. The AMA believes that the Center for Medicare and 
Medicaid Services (CMS) should instead fund toll-free interpreter 
services that would be available to patients or physicians needing 
interpreter services. The AMA believes that action on this item is 
imperative to ensure that it does not become an economic disincentive 
for physicians to provide care to non-English speaking patients.
    Bioterrorism and Emergency Preparedness.--The events of September 
11th and the subsequent anthrax attacks have demonstrated that it is 
imperative for our nation to invest in its public health infrastructure 
and disaster response system, including an investment in the readiness 
of our nation's physicians. The AMA has identified the following 
critical steps to ensure that our health care system is prepared to 
respond to any future threat. We urge the Committee to recognize the 
role of organized medicine in:
    (1) The adaptation of existing medical education curricula on 
disaster medicine, the medical response to terrorism, and the 
development of information resources for civilian physicians and other 
health care workers. As curricula teaching the medical response to 
terrorism and other disasters already exist, the need is to adapt 
curricula to physician audiences and then disseminate to target 
audiences, as well as to support the costs of continuing medical 
education (CME) programs. Congress should support this effort by 
ensuring that organized medicine has adequate funding via federal 
education and training grants;
    (2) The development of model plans for community medical response 
to disasters, including terrorism, that incorporate physicians into 
community planning efforts; and
    (3) The development of a national communications infrastructure 
that will address the issues of reliable, timely and adequate sharing 
of information on dangerous diseases by community physicians to public 
health authorities. This effort should rely to the largest extent 
possible on existing systems. Any such system also must take into 
account the burdens placed on physicians and hospitals in reporting 
such information.
    The appropriate level of funding should also be dedicated to 
ensuring that increased stockpiles of vaccines and antibiotics are 
available, that more research occurs, and to support an industrial base 
to insure the production of new antiviral and antibiotic treatments. 
The AMA also requests the Committee to give careful consideration to 
funding mental health services for those affected by terrorism.
    Liability for Physician Volunteers.--In 1996, the Congress wisely 
enacted legislation which promotes free clinics around the country by 
reducing the professional liability exposure of physicians who 
volunteer their time and medical skills. The AMA urges the Committee to 
appropriate the necessary funds for the implementation of Section 194 
of the ``Health Insurance Portability and Accountability Ac of 1996'' 
(HIPAA) as soon as possible. This Section designates physicians who 
work in free clinics without receiving reimbursement as federal Public 
Health Service employees. As such, if a medical malpractice claim 
arises, the physician's legal defense is assumed by the federal 
government. Without this provision, the enormous increases in 
malpractice insurance may force physicians to stop volunteering at 
these free clinics, many of which are in areas with physician 
shortages.
    The AMA believes that it is especially important to encourage 
physician volunteerism in free clinics and in other critical need 
areas, and we hope the Committee will appropriate the funds authorized 
under Section 194 of HIPAA, which are necessary to implement this 
important program and promote free clinics.
    HIPAA Educational Efforts.--Beginning in October of 2002, 
physicians and other covered entities will be required to make major 
changes to their administrative systems to accommodate the provisions 
of the privacy portion of HIPAA and the transaction and code set 
standards established as a result of HIPAA. Significant educational 
efforts will be necessary to ensure effective implementation of the new 
standards. The AMA believes that the Department should devote an 
appropriate level of resources (the level spent on Y2K educational 
efforts may be a suitable guide) to ensure that the health care 
community properly submits and receives payments based on the new HIPAA 
rules.
    Title VII/Title VIII Funding for Physician Training.--Through 
loans, loan guarantees, and scholarships to students, and grants and 
contracts to academic institutions and non-profit organizations, Title 
VII and VIII health professions programs are designed to:
  --meet the nation's needs to increase the supply of primary medical 
        and dental care providers, public health and allied health 
        professionals, and nurses;
  --educate and train more health professionals in fields experiencing 
        shortages, such as the current shortages in nursing, pharmacy, 
        dentistry, public health, and allied health;
  --improve the geographic distribution of health professionals and 
        nurses;
  --increase access to health care for underserved populations; and
  --enhance minority representation in the practicing health 
        professional workforce.
    The AMA strongly urges the Committee to retain or increase fiscal 
year 2002 levels for the Title VII and Title VIII programs. The 
Administration's budget proposal would zero out funding for the Primary 
Care Medicine and Dentistry Program and would cut the Health 
Professions Program by 75 percent (from $378 million to a total of $94 
million). Title VII is the only federal program designed to increase 
the number of primary care physicians and to increase the number of 
individuals providing health care to underserved populations. In fact, 
a study by the Robert Graham Center for Policy Studies shows that 
medical schools receiving Title VII funds produced higher numbers of 
students that practiced family medicine or primary care, practiced in 
rural areas, or practiced in a whole county primary care health 
professions shortage area. We urge the Committee to act to ensure 
continued funding of the Title VII and Title VIII programs.
    Pilot Testing New Evaluation and Management (E&M) Procedure 
Codes.--Payments for E&M codes represent approximately one-third of all 
payments made to the physician community. A private sector workgroup 
has been working with CMS to refine these codes. However, it will be 
necessary to pilot test any new documentation guidelines prior to 
national implementation. We urge the Committee to provide CMS with 
specific funding to pilot test any new E&M documentation guidelines.
    National Health Service Corps.--The AMA has been a long time 
supporter of the National Health Service Corps (NHSC), a program that 
recruits and retains primary care physicians and other healthcare 
providers into underserved rural areas within our great nation. The AMA 
is extremely committed to the continuation of the NHSC and its 
objectives.
    The NHSC recruits, prepares, and supports dedicated students and 
clinicians through a variety of programs and services. In fact, more 
than 2,300 NHSC clinicians provide primary and preventive health care 
to some 3.6 million people in rural and urban communities. The goal is 
not only to recruit physicians and health care professionals to remote 
areas, but to retain them in these areas. To date, more than 50 percent 
of physicians and health care providers remain in underserved areas.
    The AMA strongly supports the Administration's request for a 32 
percent increase in the fiscal year 2003 NHSC budget. This funding 
level is extremely important to the millions of individuals who will be 
well served through the NHSC's preservation and growth.
    Agency for Healthcare Research and Quality (AHRQ)--The AMA is very 
concerned about the Administration's proposal to decrease AHRQ funding 
by $48 million or 16 percent of its fiscal year 2002 budget. AHRQ has 
played a vital role in improving patient safety and reducing medical 
errors, providing health care access for persons with chronic 
disorders, and reducing health care costs. The AMA believes that the 
agency's work is extremely valuable to both patients and to the health 
care system on a larger scale.
    The proposed budget would result in AHRQ not being able to 
undertake any new projects and would mean that non-patient safety 
research spending would be reduced by 50 percent. This reduction in 
research would significantly reduce the knowledge and understanding of 
how to provide cost-effective quality health care. We strongly urge the 
Committee to restore the AHRQ budget to its fiscal year 2002 level to 
ensure the continuation of its essential work.
    Office on Smoking and Health (Centers for Disease Control and 
Prevention (CDC)).--The AMA strongly encourages the Committee to 
increase CDC funding from its fiscal year 2002 level to ensure that it 
has an appropriate level of funds to conduct its tobacco work. The CDC 
would use additional funding to expand the scope of its current 
activities to study the effects of exposure to environmental tobacco 
smoke (ETS) and to educate the public about the benefits of reducing 
ETS exposure. Additional funds would be used by CDC to learn more about 
ETS, educate the public about exposure to ETS, and evaluate which 
programs work to reduce ETS exposure. Additional funds would be used to 
research cessation techniques, establish a ``tobacco quitline,'' and to 
evaluate and expand tobacco cessation programs. We strongly urge the 
Committee to increase CDC funding to ensure the expansion of these 
programs.
    Medicare Contractor Reform Impact Analysis.--In December, the House 
of Representatives passed H.R. 3391, the ``Medicare Regulatory and 
Contracting Reform Act of 2001'' which could significantly alter the 
number of Medicare carriers and intermediaries and how they pay, 
review, and serve physicians and providers of care. The AMA strongly 
supports this legislation, and we believe that the CMS should conduct 
an impact analysis prior to changing the number and responsibilities of 
Medicare contractors. This analysis would aid in avoiding unnecessary 
disruptions in the way the program is administered.
    In addition, we urge the Committee to ensure that local carrier 
advisory committees (CACs) continue to function in each state to ensure 
that local medical review policy reflects the consensus of the local 
physician community. All changes in local medical review policy 
(whether through a change in contractor or through the consolidation of 
existing contractors) should be subjected to the normal review and 
comment process with the local CAC. This would prevent a new contractor 
from simply transporting a new policy from one geographic region to 
another without subjecting that policy to CAC review in the new 
geographic area.
    Immunization Activities.--The AMA supports the CDC's efforts to 
expand the nation's immunization system. The CDC provides technical 
assistance, training, and education for health care practitioners 
providing vaccines. Among its many immunization activities, the Center 
also provides grants to all fifty states, six cities, and eight current 
or former territories to reduce the instances of disability and death 
from vaccine-preventable diseases.
    The AMA believes that vaccines are one of the best methods of 
protecting children and the general population from vaccine-preventable 
diseases. It is inexcusable that 1 million 2-year olds in the United 
States have not received all of the recommended vaccinations. In the 
adult population, more than 38,000 adults die annually from 
complications associated with hepatitis B, influenza, and pneumococcal 
infections--despite the availability of vaccines.
    We urge you to ensure that CDC receives increased funding to 
safeguard its current program activities and to expand its functions so 
as to guarantee that an ever-diminishing proportion of our population 
falls victim to these devastating diseases.
    Antimicrobial Resistance.--The appearance of numerous bacterial and 
viral species resistant to the very treatments that, in the past, 
effectively cured patients, has left physicians with a decreased number 
of options in the battle against diseases caused by organisms such as 
salmonella, staphylococcus, streptococcus, and HIV. The AMA has had a 
longstanding interest in the problem of antimicrobial resistance and 
supported the Public Health Action Plan to Combat Antimicrobial 
Resistance, which coordinated the different federal agencies' efforts 
to combat this important public health problem.
    The AMA believes that antimicrobial resistance can only be solved 
through coordinated, cooperative efforts involving both public and 
private sectors. This activity must receive appropriate funding for the 
Food and Drug Administration (FDA) and the CDC to execute its action 
items under the Action Plan. There is very strong support among the 
medical and public health communities for efforts to combat 
antimicrobial resistance, and we urge you to support CDC funding levels 
and to ensure that such activities occur.
    We appreciate the opportunity to submit this statement to the 
Committee, and we look forward to working with the Committee as this 
process moves forward. Please feel free to contact our Washington DC 
office with any questions you may regarding these or other matters.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), representing over 
40,000 members in the microbiological sciences, supports the 
recommendation of the Centers for Disease Control and Prevention (CDC) 
Coalition to fund the CDC at a level of $7.9 billion in fiscal year 
2003. The Coalition's budget proposal will strengthen CDC's programs in 
infectious disease, surveillance, control and prevention, will help to 
rebuild the nation's public health system, and will improve the role of 
public health in national security.
    The CDC plays a critical role in reducing death, illness and 
disability, both in the United States and globally. Increased funding 
for the CDC is warranted in fiscal year 2003 to sustain and expand the 
CDC's ability to respond promptly and effectively to outbreaks of new 
and emerging diseases, public health threats, national preparedness for 
a potential bioterrorism attack, and a growing international presence 
in combating infectious diseases. New resources are critical to ensure 
that CDC has a well trained, well staffed, fully prepared public health 
work force; expanded laboratory capacity to produce timely and accurate 
results for diagnosis and investigation; strengthened epidemiology and 
surveillance to enable rapid detection of health threats; and improved 
information systems to communicate, analyze and interpret health data 
and to provide timely and accurate public access to health information.
    The United States and other countries face increasing threats and 
challenges from infectious diseases. Infectious diseases persist as the 
third leading cause of death in the United States. Worldwide they cause 
25 to 30 percent of the more than 50 million deaths each year. Chronic 
diseases are linked increasingly to infectious agents, including more 
than 30 microbes to date. The cost to both human health and economic 
resources continues to spiral upward. Infectious disease problems 
around the world are inextricably linked because an infectious microbe 
that emerges in any part of the world has the potential to spread 
across borders, especially because of increased international travel 
and trade. The CDC has an increasing role to play in responding to new, 
highly dangerous, drug-resistant or reemerging diseases detected 
anywhere on the globe. More than 35 newly emerging infectious diseases 
have been identified since 1973. Disease outbreaks endanger U.S. 
citizens at home and abroad, threaten U.S. armed forces and exacerbate 
political instability in nations. CDC must also respond to established 
diseases, such as HIV/AIDS, tuberculosis, and malaria, which continue 
to cause high morbidity and mortality.
    The threat of the use of biological weapons is increasing. The 
CDC's role in national bioterrorism response and preparedness was 
tested in its response to the tragedy of September 11, 2001, and the 
bioterror event caused by anthrax mailed through the postal system. 
Public health workers from CDC, including microbiologists, 
epidemiologists, and others responded with immense dedication, skill 
and sacrifice to addressing a complex, difficult and unprecedented 
situation involving epidemiologic and forensic investigation and a high 
level of public concern. Adequate resources will be needed for CDC to 
further define, develop and implement public health capacities at 
local, state and federal levels to prepare for, respond to and recover 
from a deliberate disease attack on U.S. citizens.
   responding to infectious diseases and emerging infectious diseases
    The ASM recommends that $260 million be allocated in fiscal year 
2003 to implement fully the high priority CDC strategic plan to prevent 
emerging infectious diseases, which is currently funded at a level of 
$164 million. In 1994, the CDC launched the first phase of a nationwide 
program to revitalize the national capacity to protect the public from 
infectious diseases. The second phase of CDC's effort was released in 
1998, with the publication of the strategy for ``Preventing Emerging 
Infectious Diseases: A Strategy for the 21st Century.'' In March, 2002, 
CDC announced its new Global Infectious Disease Strategy, which 
includes specific items to address the need for a more international 
strategy to control infectious diseases. Additional resources will be 
needed for the implementation of the proposed activities.
    CDC's efforts to prevent and control emerging diseases support a 
multi-layered, interconnected approach of disease surveillance, 
epidemic investigations, scientific research and training, and public 
education. Recently the CDC established seven domestic and global 
surveillance networks to detect and monitor various emerging diseases, 
provided epidemiologists to advise the global antimalaria campaign, and 
deployed specialists to nations now faced with outbreaks of Ebola 
hemorrhagic fever, hantavirus pulmonary syndrome, and other emerging 
viral diseases. The agency predicts that an influenza pandemic could 
kill between 90,000 and 210,000 people just in the United States, and 
that of all emerging infections, influenza could be the most serious 
threat to public health. In response, the CDC conducts domestic and 
worldwide surveillance of the disease, in collaboration with the World 
Health Organization, to facilitate early detection and response to 
influenza.
    About 75 percent of CDC funding reaches state and local health 
departments to collect information and to implement health programs. 
More than 3,000 county, city, and tribal health departments and 59 
state and territorial health departments, receive funding through the 
CDC. CDC has significantly expanded state capabilities to monitor new 
pathogens like hepatitis C virus and West Nile virus. In the United 
States, food borne diseases affect an estimated 76 million victims each 
year and cause up to 5,000 deaths. The CDC last year provided training 
to all state health departments in DNA fingerprinting of bacteria 
causing food borne illnesses, especially E. coli O157:H7, Salmonella 
typhimurium, and Listeria monocytogenes, part of the PulseNet network 
that quickly recognizes food borne outbreaks throughout the nation.
                        antimicrobial resistance
    The ASM recommends $25 million in new funding in fiscal year 2003 
for CDC to implement the interagency Public Health Action Plan to 
Combat Antimicrobial Resistance, which was released in 2001. The CDC 
has joined with the FDA and the NIH to lead a new national effort 
against antimicrobial resistance. Antimicrobial resistance is 
increasing and the emergence of antimicrobial resistance among just six 
common bacteria adds about $660 million annually to U.S. 
hospitalization costs. The CDC has established clinical guidelines for 
health professionals on improved antimicrobial use and initiated state-
level surveillance systems to track this growing problem. New 
activities proposed in the Action Plan to increase antimicrobial 
surveillance, prevention and control and extramural research to expand 
the peer-reviewed applied research program depend on an infusion of new 
funding.
       guarding against bioterrorism, building national security
    The ASM endorses the fiscal year 2003 proposed $1.6 billion for the 
CDC's Bioterrorism Preparedness and Response Program. The proposed 
budget includes: $940 million to upgrade state and local capacity, 
including training, laboratory, surveillance and epidemiological 
capacity, and communication and information systems; $300 million to 
enhance the National Pharmaceutical Stockpile; $100 million for efforts 
to counter the effects of smallpox; $18 million for anthrax research 
and evaluation; $120 million for biosecurity improvements and 
facilities; and $159 million to upgrade CDC's emergency response and 
preparedness efforts, including increasing biological and chemical 
laboratory capacity, rapid response teams, Epidemic Intelligence 
Service officers and the Emerging Infectious Diseases Laboratory 
Fellowship Program.
    The deliberate release of pathogenic microorganisms is no longer a 
hypothetical possibility, but a potent and grim reality. The CDC 
already had begun extensive bioterrorism-related research and planning 
before the anthrax release last fall, including expansion of vaccine 
and pharmaceutical stockpiles and research to develop better 
diagnostics and treatments for suspect pathogens. The CDC also 
categorized lists of possible bioterrorism agents based on their 
potential lethality, to better advise local health authorities and 
focus federal resources. Following the attacks, CDC responded by 
initiating a 24-hour Emergency Operations Center, activated nation wide 
information networks for health officials, and deployed an 
unprecedented number of Epidemic Intelligence Service officers and 
other staff to New York City and elsewhere. The ASM applauds the rapid 
and effective reaction by the CDC to these horrendous events, but 
remains concerned about deficiencies identified by the CDC within the 
public health system.
    The fiscal year 2003 budget request will assist with efforts to 
repair weaknesses in public health programs. The nation's ability to 
respond to a bioterrorist attack, which unlike an explosive or chemical 
attack can unfold gradually and silently, depends on the preparedness 
of its public health infrastructure and medical care systems. The 
number of deaths and serious illnesses in a bioterrorist attack is 
directly related to the speed and accuracy with which doctors and 
laboratories can correctly diagnose and report their findings to public 
health authorities. Programs are needed to specifically train medical 
and laboratory personnel. There is also a shortage of laboratories with 
the capability to identify biothreat agents. With new resources, the 
CDC will be able to expand its comprehensive and coordinated emergency 
planning and training program, in support of all states and certain 
cities that could become bioterrorism targets. This program includes 
the Centers for Public Health Preparedness based in schools of public 
health, integration of the CDC's high-tech Epidemic Information 
Exchange network into state and local surveillance plans, the National 
Laboratory System, the Laboratory Response Network, and dozens of other 
specific and science-based efforts to prepare all health agencies for 
possible bioterrorist attack.
    The ASM urges the Congress to recognize that efforts to protect the 
nation against bioterrorism must function within a federal agency that 
also is strong in all other aspects critical to public health. The high 
consequence implications of bioterrorism place it in a special category 
that requires immediate and comprehensive response. At the same time, 
naturally occurring infectious diseases caused by emerging pathogens 
seriously threaten the health and security of the United States and 
other countries on an existing and continuing basis. Building the 
health infrastructure to respond to bioterrorism should also increase 
our ability to respond to naturally occurring and reemerging infections
            tracking potentially dangerous biological agents
    Congress mandated CDC to implement and enforce regulations for 
monitoring the acquisition and transfer of biological agents within the 
United States under authority of the Antiterrorism and Effective Death 
Penalty Act of 1996. Section 511 of the Act, Regulatory Control of 
Biological Agents, is intended to protect the safety of the public 
while not imposing undue restrictions on scientific research needed to 
develop new therapeutics for deadly pathogens.
    The ASM has recommended that the CDC be provided adequate resources 
for implementation of the select agent rule. Congress is presently 
considering legislation that will expand the mandate to track the 
acquisition, transfer and possession of select agents and to now 
register laboratories which possess select agents. The new regulations 
include safeguard and security requirements, the collection of 
information for law enforcement and a process for alerting authorities 
about unauthorized attempts to acquire select agents. The ASM 
recommends that Congress determine the resources that will be needed 
for implementation of an expanded select agent program and provide the 
necessary new funding to ensure proper administration of the program.
                   improving buildings and facilities
    The ASM recommends that Congress appropriate $250 million for CDC 
buildings and facilities in fiscal year 2003, an amount equal to the 
fiscal year 2002 funding. Current research and management facilities 
used by the CDC are very inadequate. Some agency personnel experiment 
with pathogenic microorganisms in laboratories constructed as temporary 
facilities almost 60 years ago. Other structures are neither entirely 
efficient nor completely secure. Modern demands on CDC infrastructure 
grow more urgent and complex, and the agency must be supported in its 
long-range plans for updating old laboratories and constructing new 
buildings. It is critical that CDC research and management activities 
be consolidated into up-to-date and physically secure facilities, and 
that certain projects proceed quickly--such as completion of the new 
Infectious Disease Laboratory, the Scientific Communication Center, the 
Environmental Toxicology Laboratory and a replacement for the aging 
vector-borne infectious disease laboratory in Fort Collins, Colorado, 
where researchers study plague bacteria, West Nile virus, and other 
deadly pathogens.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association
                              introduction
    Thank you for the opportunity to submit written testimony regarding 
fiscal year 2003 appropriations for the Centers for Disease Control 
(CDC), National Institutes of Health (NIH), and Health Resources and 
Services Agency (HRSA).
    I am Jack Stibbs, Administrative Vice President for Advocacy with 
the Pulmonary Hypertension Association (PHA). I became active in PHA 
when my daughter Emily was diagnosed with pulmonary hypertension (PH).
    PH is a rare disorder of the lung in which the pressure in the 
pulmonary artery (the blood vessel that leads from the heart to the 
lungs) and the hundreds of tiny blood vessels that branch off from it 
rises above normal levels and may become life threatening. Symptoms of 
pulmonary hypertension include shortness of breath with minimal 
exertion, fatigue, chest pain, dizzy spells and fainting. When PH 
occurs in the absence of a known cause, it is referred to as primary 
pulmonary hypertension (PPH). This term should not be construed to mean 
that because it has a single name it is a single disease. There are 
likely many unknown causes of PPH.
    Secondary pulmonary hypertension (SPH) means the cause of the 
disease is known. Common causes of SPH are the breathing disorders 
emphysema and bronchitis. Other less frequent causes are scleroderma, 
CREST syndrome and systemic lupus. In addition, the use of diet drugs 
can lead to the disease.
    Unfortunately, PH is frequently mis-diagnosed and often progresses 
to late stage by the time it is detected. Although PH is chronic and 
incurable with a poor survival rate, new treatments are providing a 
significantly improved quality of life for patients. Recent data 
indicates that the length of survival is continuing to improve, with 
some patients able to manage the disorder for 20 years or longer.
    Ten years ago, when three patients who were searching to end their 
own isolation founded this organization, there were less than 50 
diagnosed cases of this disease. It was virtually unknown among the 
general population and not well known in the medical community. They 
soon realized that this was not enough and as membership began to 
grow--driven by a newsletter distributed by doctors--and a community 
began to form, an 800 number support line was launched, support groups 
were established, a Scientific Advisory Board (SAB) was formed, a 
Patient's Guide to Pulmonary Hypertension was written, and a web site 
was launched.
    Today, PHA includes:
  --Over 3,600 patients, family members, and medical professional
  --An international network of over 50 support groups
  --An active and growing patient hotline
  --A new and fast-growing research fund (A cooperative agreement has 
        been signed with the National Heart, Lung, and Blood Institute 
        to jointly create and fund five, 5-year, mentored clinical 
        research grants and PHA awarded it's first four Young 
        Researcher Grants.)
  --A host of numerous electronic and print publications
                  recommendations for fiscal year 2003
PH awareness at the Centers for Disease Control and Prevention
    PHA applauds the subcommittee for its leadership in encouraging CDC 
to initiate a professional and public awareness campaign focused on PH. 
Currently, we are working with the CDC to establish this important 
program that will better inform health care professionals and the 
general public about PH, its symptoms, and treatment options. The 
following is a description of the specific initiatives we hope to 
launch in collaboration with the CDC.
            Awareness among primary care providers
    Increasing awareness and understanding of PH among primary care 
physicians is critically important, because these practitioners are 
usually the first point of contact for PH patients. If the primary care 
doctor misses the symptoms, then the chance for early diagnosis depends 
upon the intuition and persistence of the patient. They have a chance, 
if they aggressively pursue diagnosis by trained and aware specialists. 
If they are not aggressive, or if they are in a health plan that 
requires their general practitioner to prescribe the referral, they are 
more likely to go undiagnosed until it is too late to control their 
illness. To increases awareness among primary care physicians we hope 
to collaborate with the CDC on the following:
  --Written and video diagnostic tools for placement on the Internet.
  --A postcard mailing to be sent to all primary care physicians, 
        medical schools and medical centers in the United States 
        drawing attention to the new web resources.
  --A simplified and visually attractive version of the proper 
        diagnostic procedures, which will be sent in a second mailing 
        to all primary care physicians, medical schools, and medical 
        centers in the United States.
  --Advertising in publications general practitioners are likely to 
        read. The emphasis will be the urgency and ease of early 
        diagnosis and the ease of accessing diagnostic tools via the 
        Internet.
  --A CD-ROM that explains pulmonary hypertension from a variety of 
        angles. We would like to make 100,000 of these available to the 
        medical community and patients through our web site on an as 
        requested basis and at conferences and through targeted 
        mailings.
            Awareness among specialists
    Due to the advancements in treatment for PH, it is important that 
we also focus on educating cardiologists and pulmonologists. Our 
strategies for reaching cardiovascular specialists include:
  --Publication of the first Pulmonary Hypertension Journal focused on 
        educating a wider population of doctors on issues related to 
        the diagnosis and treatment of the illness.
  --Placement of additional detailed information on the illness on the 
        web. The PH Journal and other publications will promote this 
        availability.
  --Expansion of PHA's international conference on pulmonary 
        hypertension (the largest PH conference in the world).
  --Expansion of PHA's Pulmonary Hypertension Resource Network. This 
        program is focused on increasing awareness of PH among nurses 
        through peer education.
            Awareness among the general public
    Finally, PHA is committed to increasing PH awareness among the 
general public through the development of the following initiatives:
  --A series of 10, 15, and 30 second public service announcements on 
        PH. These PSAs will be in both audio and video form.
  --A PH media relations manual.
  --An organ donation Awareness Campaign (unfortunately, many PH 
        patients die before finding a suitable organ donor).
  --Expansion of PHA's web site.
    We look forward to working with CDC to launch these initiatives 
aimed at increasing awareness of PH throughout the United States. For 
fiscal year 2003, we encourage the subcommittee to provide $1 million 
within CDC's Cardiovascular Disease program (a division of CDC's Center 
for Chronic Disease and Health Promotion) for this important 
initiative.
PH research at the National Heart, Lung and Blood Institute
    Mr. Chairman, PHA commends the leadership of the National Heart, 
Lung and Blood Institute (NHLBI) for its support of PH research. Two 
years ago, two separate groups of scientists funded by NHLBI 
simultaneously identified a genetic mutation associated with primary 
pulmonary hypertension.
    The two groups independently reported that defects in the BMPR2 
gene, which regulates growth and development of the lung, are 
associated with PPH. The defects in the gene lead to the abnormal 
proliferation of cells in the lung characteristic on PPH.
    Although both studies suggest that only one gene is involved in 
PPH, neither group identified the defects in BMPR2 as the sole cause of 
PPH. In addition, since many people without a known family history of 
PPH get the disease, both groups suggested that other factors may 
interfere with control of the tissue growth. Now that we have 
pinpointed a gene, we can focus on learning how it works. Hopefully, 
that information will enable researchers to devise better treatments 
and perhaps eventually a preventive therapy or cure.
    Mr. Chairman, we would like to thank the subcommittee for the 
inclusion of important committee recommendations on PH research at 
NHLBI in the fiscal year 2002 Senate Labor-HHS report. For fiscal year 
2003, PHA joins with the Ad Hoc Group for Medical Research Funding in 
supporting a 16 percent increase for NHLBI and NIH overall. Finally, we 
request that the subcommittee provide $25 million in for PH research at 
NHLBI to enhance basic research, gene therapy and clinical trials of 
promising new therapies.
Organ donation at the Health Resources and Services Administration
    Mr. Chairman, one of the difficult realities that PH patients have 
to live with is the knowledge that one day they may need a heart or a 
lung transplant. As you know, there is a critical shortage of organ 
donors in the United States, and consequently many end-stage PH 
patients run out of time while waiting for a transplant. PHA has vowed 
to do to something about this unnacceptable situation through its 
``Bonnie's Gift'' program.
    ``Bonnie's Gift'' was started in memory of Bonnie Dukart, one of 
the three founding members of PHA. Bonnie battled with PH for almost 20 
years until her death in 2001 following a double lung transplant. Prior 
to her untimely death, Bonnie expressed a strong interest in the 
development of a program within PHA related to organ donation and 
transplantation. PHA will use ``Bonnie's Gift'' as a vehicle to 
disseminate information about the importance of organ donation in our 
community, and the importance of early listing on transplant waiting 
lists by PH patients.
    PHA applauds the Department of Health and Human Services for its 
``Gift of Life Donation Initiative.'' This important program within the 
Health Resources and Services Administration (HRSA) is designed to 
increase organ donation rates throughout the country. Last year, PHA 
entered into a partnership with HRSA's Division of Transplantation 
(Public and Professional Education Branch) to promote the goals of the 
Gift of Life program as well as the unique donation and transplantation 
challenges facing the PH community. We look forward to expanding this 
successful collaboration this year and would welcome the support of the 
subcommittee. For fiscal year 2003, PHA encourages the subcommittee to 
provide $30 million (an increase of $10 million over fiscal year 2002) 
for the ``Gift of Life Donation Initiative'' at HRSA.
    Mr. Chairman, once again thank you for the opportunity to present 
the views of the Pulmonary Hypertension Association. I would be pleased 
to respond to any questions that you may have.
                                 ______
                                 
      Prepared Statement of the American Social Health Association
    The American Social Health Association requests an fiscal year 2003 
funding level of 247.4 million, an increase of $80 million, for the STD 
prevention, treatment and surveillance programs of the Centers for 
Disease Control and Prevention. These funds will significantly enhance 
the CDC's ability to reduce STD rates across the country. Funds are 
sought to improve services in the following areas:

                        [In millions of dollars]

Infertility prevention............................................  41.5
Syphilis elimination..............................................  13.0
STD treatment to enhance HIV prevention...........................   5.5
Herpes and human papillomavirus prevention........................   9.5
Prevention among adolescents......................................   7.5
Clinical services.................................................   3.0

    For more than 85 years, the American Social Health Association has 
sought to eliminate sexually transmitted diseases (STDs) and their 
harmful effects on individuals, communities, and families. ASHA greatly 
appreciates the leadership this Committee has shown by consistently 
providing increased resources to our nation's STD prevention efforts. 
We urge the Committee to continue to provide critically needed 
resources to prevent STDs. Protecting our nation from the devastating 
consequences of STDs has been a bipartisan commitment that we hope will 
continue with this Committee.
    ASHA appreciates this opportunity to provide the Subcommittee with 
information about the health crisis caused by the skyrocketing rates of 
STDs in America and about the programs of the Centers for Disease 
Control and Prevention (CDC) that combat these diseases.
    Every year, approximately 15.3 million Americans contract a 
sexually transmitted disease (STD). The United States has the highest 
STD rate in the industrialized world. In 1 year, our nation spends over 
$8.4 billion to treat the symptoms and consequences of STDs. Women and 
adolescents are disproportionately affected by the long-term 
consequences of STDs. By age 24, at least one in three sexually active 
people will have contracted an STD and approximately 1 million women 
will have a severe case of pelvic inflammatory disease due to STDs. 
Hundreds of babies will be born with congenital syphilis, which leads 
to physical deformities, mental retardation and death.
    We will be able to significantly reduce both health care costs and 
illness, particularly among adolescents and women, if the STD epidemic 
is addressed NOW.
    In the past 5 years, the CDC has developed innovative programs that 
have significantly reduced STD rates and the associated costs to 
society. However, without additional funds, the CDC can not establish 
these programs in all 50 states.
    Following are the recommendations of the American Social Health 
Association:
  --Infertility Prevention Program.--Currently, this highly successful 
        prevention program of screening for chlamydia has been 
        differentially implemented in the states. Thirty states have 
        screening coverage for less than 20 percent of the women at 
        risk and 20 of the states cover 45-50 percent of at risk women. 
        These differentials affect primarily women who are marginalized 
        and African American. Where it has been established, the 
        program has reduced chlamydia rates by 66 percent and decreased 
        treatment costs by over 80 percent. The ASHA recommends a $41.5 
        million increase to expand the Infertility Prevention program 
        and provide parity for chlamydia screening at 50 percent of at 
        risk women across the states.
  --Syphilis Elimination.--Prevention efforts have eliminated syphilis 
        from 73 percent of U.S. counties. Since 1998, the CDC has 
        implemented enhanced community-based prevention efforts to 
        eliminate syphilis from all areas of the country. ASHA 
        recommends a $13 million increase to expand the Syphilis 
        Elimination program, which will focus on regions with epidemic 
        rates of syphilis. Syphilis historically has peaked in 10-year 
        cycles, with the last peak occurring in 1990. We have a window 
        of opportunity to eliminate the disease from these areas and we 
        need to act now, before another upsurge of the disease.
  --STD Treatment to Enhance HIV Prevention.--Research has shown that 
        individuals infected with an STD are as much as 500 percent 
        more likely to acquire HIV infection during a single encounter. 
        In addition, states with high syphilis rates have higher HIV 
        infection rates among young women. The ASHA recommends a $5.5 
        million increase to provide STD screening and treatment in HIV 
        clinics and to build connections with community based 
        organizations that serve populations at risk.
  --Human Papillomavirus and Herpes--the Viral STDs.--In a recent 
        study, over 50 percent of college-age women screened were 
        infected with human papillomavirus, an infection that can lead 
        to cervical cancer without appropriate screening and follow-up 
        treatment. Over 45 million Americans are infected with the 
        herpes virus. Because there is not a cure for these diseases, 
        the CDC must expand relevant education and prevention 
        activities. ASHA recommends a $3 million increase to develop 
        demonstration projects, applied research, and educational 
        messages for viral STD infections.
  --Prevention Related to Adolescents.--For numerous reasons, ranging 
        from biological to behavioral, adolescents are at high risk of 
        STDs. ASHA recommends $7.5 million increase to enhance or 
        expand integrated multi-level intervention trails for STD 
        approaches among adolescents, including programs involving 
        families, schools, media and faith communities.
  --Clinic Services.--STD clinics all over the country have been forced 
        to shorten treatment hours and some have even closed their 
        doors. It is critical that state level communications, 
        surveillance and evaluation programs--our nation's STD 
        infrastructure--strong. ASHA recommends a $3 million increase 
        to provide support to the state STD programs so that core STD 
        treatment and prevention activities can be strengthened and 
        services expanded in managed care settings.
    Effective STD screening, diagnostic, and prevention programs will 
benefit the health and well being of all Americans, particularly women, 
adolescents and children. The ASHA urges the Committee to make a 
significant investment in STD prevention to reduce the transmission of 
HIV, to save over $8 billion per year in direct health care costs, and 
to reduce the occurrence of infertility, ectopic pregnancy, cervical 
cancer, and pelvic inflammatory disease.
    ASHA would appreciate an opportunity to discuss these 
recommendations and other issues related to STD prevention, research, 
and treatment. To discuss these issues, please contact: Deborah McNeal 
Arrindell, Senior Director of Health Policy, American Social Health 
Association, 1275 K Street, NW Suite 1000, Washington, DC 20005.
                                 ______
                                 
              Prepared Statement of Research To Prevention
    Research To Prevention is a national coalition committed to 
improving the nation's health through prevention. It is comprised of 
the nation's premier voluntary health organizations, including: 
American Cancer Society, American Diabetes Association, American Heart 
Association, Arthritis Foundation, Association of State and Territorial 
Chronic Disease Program Directors, Epilepsy Foundation and the National 
Health Council. Our entire membership list is included in this 
testimony.
    The mission of Research to Prevention is to make prevention and 
control of chronic diseases and disability a national policy and 
funding priority by educating policymakers and advocating for vital 
funding increases for comprehensive public health programs that address 
the nation's leading causes of death and disability. Research to 
Prevention is seeking a $350 million increase in funding in fiscal year 
2003 for chronic disease prevention and control programs at the Centers 
for Disease Control and Prevention (CDC). We are also supporting a $75 
million increase in the Preventive Health and Health Services Block 
Grant and a $12 million increase in the Racial and Ethnic Approaches to 
Community Health (REACH) initiative. Our total request for increases in 
funding for chronic disease programming is $436 million increase above 
fiscal year 2002, which is included in a chart in this testimony.
    The leading causes of death have changed markedly over the last 
century. In 1900, the leading causes of death were infectious diseases 
and were responsible for one-third of all deaths. In 2000, the leading 
killers and causes of disability are chronic diseases--diseases such as 
arthritis, cancer, diabetes, epilepsy, heart disease and stroke. 
Chronic diseases are responsible for more than 70 percent of all deaths 
and more than 70 percent of all health care expenditures in the United 
States. Recent studies by Johns Hopkins University and the Robert Wood 
Johnson Foundation tell us that 125 million Americans live with some 
form of chronic disease, the most costly and preventable of all health 
problems. Chronic diseases impact almost every American family and 
these families confront the death of a loved one, long-term illness and 
disability, and, in many cases, the heavy economic costs of these 
conditions.
    Chronic diseases are among the most prevalent, costly, and 
preventable of all health problems. Yet as a nation we invest only 
$1.25 per person annually attempting to prevent the number one killers 
and the states lack the money to combat these leading causes of death. 
Chronic diseases and conditions account for more 70 percent of the $1 
trillion spent on health care year in the United States. One-third, or 
approximately $300 billion, of the Nation's health care budget is spent 
on older Americans who often have preventable or controllable chronic 
diseases and conditions. Much of the disability in old age can be 
delayed or prevented altogether, potentially improving quality of life 
and saving the Nation billions of dollars in health care expenditures 
and the costs of long-term care.
    Some of the leading chronic diseases, namely heart disease, cancer, 
stroke, diabetes and arthritis cost the Nation more than $500 billion 
in health care expenditures and lost productivity. Without immediate 
prevention strategies, including nutrition and physical activity 
interventions, we can expect a rapid proliferation in chronic diseases 
associated with obesity. The total costs of obesity in the United 
States in 1995 was estimated to be nearly $100 billion. Similarly, 
tobacco costs the Nation more than $100 billion in direct and indirect 
medical expenses. Each year, nearly 3,000 young people across our 
country will begin smoking regularly. One in three of these young 
people will lose their life prematurely to diseases caused by smoking. 
By the year 2020, chronic disease expenditures will reach $1 TRILLION, 
or 80 percent of health care costs.
    To curb the excessive burden of chronic diseases, both in human and 
economic terms, the Nation must ensure that research advances are 
applied, evaluated and implemented at the state and local level with 
comprehensive, sustainable prevention programs. As the nation's leading 
prevention agency, CDC plays an important role in translating and 
delivering at the community level what is learned from research--
especially ensuring that those populations disproportionately affected 
by chronic disease and disabilities receive the benefits of our 
nation's investment in medical research. Key elements of these programs 
include surveillance, public and provider education, communications 
campaigns, early detection and screening as appropriate, and prevention 
research.
    In addition to prevention programs that address heart disease, 
cancer, stroke, diabetes and arthritis, a better understanding and 
substantial investment in other serious chronic diseases is needed. 
Such diseases include, but are in no way limited to, oral diseases, 
chronic lung and other respiratory diseases (e.g., asthma), chronic 
neurological disorders (e.g., epilepsy, multiple sclerosis, Alzheimer's 
and Parkinson's disease) and musculoskeletal diseases other than 
arthritis (e.g., osteoporosis). Additional, effective interventions 
need to be developed and implemented to reduce diseases and conditions 
with disabling consequences that include blindness, kidney failure, 
paralysis, fractures, joint deterioration and limb loss.
    While states have minimal funding to attack several of these 
conditions, to date:
  --Only 6 states receive comprehensive funding for programs to prevent 
        and control heart disease, stroke and other cardiovascular 
        diseases, the leading killer of Americans.
  --Only 16 states have comprehensive diabetes programs.
  --No state has a comprehensive arthritis program.
  --While only 12 states have core grants for planning, no state has a 
        comprehensive physical activity and nutrition program to 
        prevent chronic disease.
  --While only 12 states have core grants to target preventing tooth 
        decay among children, no state has a comprehensive program to 
        prevent oral cancer, periodontal disease and permanent tooth 
        loss among adults.
  --No state has a comprehensive colorectal cancer program.
  --No state has a comprehensive cancer registry.
  --No state has a comprehensive school health program to address 
        chronic disease.
    Our nation has benefited immensely from our past investment in 
biomedical research at the National Institutes of Health (NIH). 
Research to Prevention's members have actively supported and 
participated in the NIH doubling effort. As a nation, we must ensure 
that the full promise of our research discoveries is realized by 
translating these discoveries into practical medicine and public health 
solutions and interventions for everyone. The member organizations of 
Research to Prevention are committed to ensuring that the comprehensive 
public health programs that address the nation's leading causes of 
death and disability receive the vital funding increases needed to 
lower the burden of these diseases and conditions on our families and 
loved ones.
    Last year, two health reports were released that documented 
successful prevention studies and provided conclusive evidence of the 
need to translate important research findings into prevention 
strategies. The first study, on diabetes risk, outlined findings from 
the first major clinical trial confirming that at least 10 million 
Americans who are at high risk for type 2 diabetes can sharply lower 
their chances of getting the disease with diet and exercise. The 
findings of this multi-year clinical trial, referred to as the 
``Diabetes Prevention Program'', were so definitive and important to 
the health of the American public that the trial was ended a year early 
in an effort to rapidly deliver the news that lifestyle interventions 
can significantly reduce the onset of type 2 diabetes. The study showed 
a greater beneficial effect from a diet-and-exercise regimen than from 
use of drug therapy. Department of Health and Human Services Secretary 
Thompson stated in a NIH news release, ``In view of the rapidly rising 
rates of obesity and diabetes in America, this good news couldn't come 
at a better time. So many of our health problems can be avoided through 
diet, exercise and making sure we take care of ourselves. By promoting 
healthy lifestyles, we can improve the quality of life for all 
Americans, and reduce health care costs dramatically.''
    Results from the second study, ``A Randomized Trial of Physical 
Activity Counseling in Primary Care for Inactive Adult Patients: 
Results for the Activity Counseling Trial,'' found that brief 
counseling by health professionals can improve sedentary adults' 
physical fitness. Lack of physical activity is a major risk factor for 
many chronic diseases. With increased federal support, these strategies 
can be implemented to improve America's public health and reduce the 
burden of these chronic diseases.
    With a $350 million increase in chronic disease prevention and 
control funding at the CDC, we will be ensuring that out biomedical 
investments have paid off. This increase will allow CDC to enhance its 
efforts with states to effectively address these leading killers and 
causes of disability. Some examples include:
  --Enable 42 states to plan or expand their cardiovascular disease.
  --Provide all 50 states with comprehensive diabetes control programs.
  --Enable 10 states to launch comprehensive cancer control programs.
  --For the first time--begin to fund comprehensive arthritis programs 
        in states.
  --Establish model epilepsy demonstration programs.
    The 20th century was a time of amazing public health 
accomplishments, which left a legacy of vastly improved health for 
Americans. The 21st century will be judged by its ability to deliver 
new discoveries and advances in health science and technology to all 
Americans to prevent and control chronic diseases, extending their 
lifespan, while making these added years as healthy and productive as 
possible. Making prevention of disease and disability a national 
funding and policy priority gives all Americans the opportunity to live 
longer, healthier lives and ensures the practical application of the 
Nation's investment in research.
    Research to Prevention stands ready to work with the Members of 
this Subcommittee to help make it possible for every state in the 
nation to develop and deliver programs to address chronic diseases and 
disability. By committing a minimum increase of $350 million, we can 
work to make this a reality. Thank you for your support for the chronic 
disease programs at CDC.

                                             RESEARCH TO PREVENTION
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    2003
                                                              2002       2003    President   2003 R2P  2003  R2P
                                                            enacted   President   v. 2002    targets    v. 2002
----------------------------------------------------------------------------------------------------------------
Chronic Disease Prevention and Health Promotion:
    Arthritis............................................     14,089     14,000        -89     24,500     10,411
    Breast & Cervical Cancer.............................    194,171    203,278      9,107    220,000     25,829
    Cancer Prevention and Control........................     77,207     76,548       -659    128,000     50,793
    Cancer Registries....................................     40,310     39,937       -373     55,000     14,690
    Colorectal Cancer....................................     12,076     11,985        -91     25,000     12,924
    Comp. Cancer Control.................................      4,384      4,352        -32     10,000      5,616
    Ovarian Cancer.......................................      4,618      4,591        -27      8,000      3,382
    Prostate Cancer......................................     14,158     14,042       -116     20,000      5,842
    Skin Cancer..........................................      1,661      1,641        -20     10,000      8,339
    Cardiovascular Diseases..............................     37,728     37,571       -157     60,000     22,272
    Stroke registry......................................      4,500          ?  .........      5,000        500
    Community Health Promotion...........................     15,384     20,318      4,934     38,000     22,616
    Aging................................................      2,800      2,800          0     10,000     10,000
    BRFSS................................................      3,000      2,891       -109     10,000      7,000
    Comm health prom/vision..............................      9,693     14,627      4,934     18,000      8,307
    Diabetes.............................................     62,321     62,062       -259    100,000     37,679
    Epilepsy.............................................      6,527      6,527          0     11,000      4,473
    Iron Overload........................................        477        477          0        500         23
    Nutrition/Physical Activity..........................     27,758     27,642       -116     60,000     32,242
    Global micronutrients................................      5,000      5,000          0      5,000          0
    Oral Health..........................................     10,939     10,893        -46     18,000      7,061
    Prevention Centers...................................     26,423     26,313       -110     40,000     13,577
    Safe Motherhood/Infant Health........................     51,256     51,043       -213     65,000     13,744
    School Health........................................     59,033     58,787       -246     83,000     23,967
    HIV/AIDS.............................................     47,621     47,621          0     47,621          0
    Non HIV/AIDS.........................................     11,412     11,166       -246     35,379  .........
    Tobacco..............................................    101,999    101,576       -423    130,000     28,001
                                                          ------------------------------------------------------
      Subtotal, Chronic base.............................    685,312    697,035     11,723    978,000    292,688
Medial Campaign..........................................     68,400          0    -68,400    125,000     56,600
                                                          ------------------------------------------------------
      Total, Chronic.....................................    753,712    697,035    -56,677  1,103,000    349,288
Preventive Health Block Grant............................    135,000    135,000          0    210,000     75,000
REACH....................................................     37,800     37,800          0     50,000     12,200
                                                          ------------------------------------------------------
      TOTAL..............................................    926,512    869,835    -56,677  1,363,000    436,488
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
            Prepared Statement of Trust for America's Health
    Thank you for the opportunity to submit testimony on the importance 
of investing more resources in our nation's public health system.
    Trust for America's Health (TFAH) is a non-profit public health 
organization whose mission is to protect the health and safety of all 
communities, especially those most at risk of environmental and other 
public health threats.
    In the war on terrorism, our military troops are armed with top-
notch training, state-of-the-art equipment and facilities, and valuable 
intelligence. Leadership is strong, and the chain of command is clear.
    Unfortunately, the same cannot be said about our homeland defenses 
protecting Americans today from health threats. It is no secret: Our 
public health system, which was once the world leader in stamping out 
diseases like polio, typhoid and smallpox, is inadequately prepared for 
today's challenges. After decades of under-investment, our health 
system lacks the resources theyit needs to tackle the full range of 
public health threats, from potential chemical or biological attacks, 
to the serious ongoing challenges like chronic diseases.
  --Our major priority for this appropriations cycle is to increase 
        funding for the Nationwide Health Tracking Network to $100 
        million in the Public Health Improvement line at the Centers 
        for Disease Control and Prevention (CDC).
  --Given the importance of CDC for protecting the public's health, we 
        would also like to be on record in our support for restoring at 
        least fiscal year 2002 funding levels to all programs at the 
        CDC and rebuilding the public health infrastructure at the 
        local, state and federal level.
                   nationwide health tracking network
    As we debate how best to prepare for possible terrorist threats, we 
we must recognize that there is a large gap in our public health 
knowledge. And the September 11 attacks have made this gap more obvious 
and dangerous than ever. Although this Congress has allocated one-time 
funds to track the health of first responders at Ground Zero, the New 
York City firefighter unions are seeking federal funding for ``lifelong 
[health] monitoring'' for firefighters who worked at Ground Zero. The 
firefighter union leaders are calling for federal funding of the 
proposal because they suspect there will be long-term health effects 
from environmental exposures.
    The truth is there should have been a baseline of health 
information in place long before the September 11 attacks. Had we been 
routinely tracking where and when people were getting sick and whether 
there was a relationship to factors in the environment, public health 
officials would not have had to resort to tracking pharmaceutical sales 
such as Kaopectate in New York City to gauge possible illnesses from 
exposures. How much more would we know if we actually tracked people's 
health and their exposures instead of tracking how fast over-the-
counter medicine is sold and monitoring the air in one location that 
may or may not represent actual human exposures?
    The targeted health tracking of the New York City first responders 
is an important and necessary step, but we must do more. This is health 
information that would benefit everyone. Communities have the right to 
know what might be making them sick.
    A Nationwide Health Tracking Network is critical for responding to 
the full spectrum of health concerns: chemical terrorism, biological 
terrorism and chronic disease., we already know the number This 
investment would serve the dual purpose of protecting us from terrorist 
threats and from chronic disease which is the number one killer of 
Americans today.
    Chronic diseases including some cancers, asthma and diabetes are on 
the rise. But we do not know why because we do not perform the most 
fundamental of all public health practices--tracking and monitoring 
where and when diseases occur and their potential links to 
environmental factors. Chronic illnessesThey already affect more than 
100 million men, women and children in the United States, more than 
one-third of our population. These illnesses are responsible for 70 
percent of all deaths in the United States and cost more than $325 
billion a year in health care and lost productivity.
    Most Americans are shocked to learn there is no nationwide network 
to track where and when chronic diseases occur. In fact, our public 
opinion research suggests that almost 90 percent of respondents--in 
every region, age group, and party affiliation--express serious concern 
when told about this. Our research also shows that people are more 
worried about the threat of chronic disease than about terrorist 
threats. And it is not hard to understand why--seven out of 10 
Americans die from these diseases.
    The majority of Americans also support increased spending when it 
comes to public health. In fact, almost no one thinks we should spend 
less on these important activities that protect the public from 
illness. Our budget priorities this year and for the foreseeable future 
should ensure that our public health system has all the tools it needs 
to prevent the full range of health threats, including those posed by 
chronic diseases and potential terrorist threats.
    Health tracking is an essential element of that dual preparedness, 
and we are pleased to see that recognition beginning to take hold in 
Congress and the Administration. We appreciate that almost $30 million 
was appropriated for health tracking in fiscal year 2002, including $12 
million to monitor the health effects of the September 11 attacks on 
emergency responders and $17.5 million for state pilot programs to 
begin health tracking. We are encouraged that the Administration in its 
budget request to Congress called health-tracking a ``major focus'' of 
its environmental health program.
    But these are only first steps. Congress should expand funding to 
provide not just 1 year of health tracking for a few states, but a 
nationwide network would serve as an early warning of disease.
    Every year health agencies receive thousands of requests from the 
public to investigate disease clusters. But those officials lack the 
resources to respond. With health tracking, we could respond and act to 
prevent future illnesses. More than 80 public health, health, 
environmental and consumer groups agree, and have endorsed the concept 
of a nationwide health tracking network. The list of supporters 
includes the American Heart Association, the American Water Works 
Association, the March of Dimes, the Catholic Health Association of the 
United States, and the Association of State and Territorial Health 
Officials.
    The Trust for America's Health estimates that a comprehensive 
nationwide health-tracking system would cost $275 million--about $1 for 
every American and a fraction of the costs these diseases impose on our 
society and families. Recognizing budget limitations and the need to 
ramp up such a system, we are asking Congress and the Administration to 
support $100 million for health tracking in fiscal year 2003.
                       reject budget cuts for cdc
    A health tracking network would build on the good work already 
being done by the Centers for Disease Control and Prevention (CDC). CDC 
is one of the most important players in our public health system and 
the primary federal agency responsible for improving the public's 
health. is the Centers for Disease Control and Prevention (CDC). Yet, 
the Administration has proposed a $1 billion cut in CDC funding in 
fiscal year 2003. Although additional funds are proposed for emergency 
preparedness and response to bioterrorism, the overall budget is 
reduced.
    This comes at a time when our country needs better health 
protection, not less. These funds must be restored. We join with the 
CDC Coalition, a group of more than 100 organizations committed to the 
mission of CDC, in calling for at least $7.9 billion for the CDC in 
fiscal year 2003.
                            the big picture
    Improving the public health system to meet the wide range of 
threats facing the American public requires efforts to build up the 
public health system to respond to all of these threats. The same 
``early warning'' systems that would be used to detect and respond to a 
chemical or biological terrorist act could also help experts identify 
possible links between long-term exposures to factors in the 
environment and local disease clusters.
    Investing in the fundamentals of public health will help us prepare 
for all threats to the public's health whether from criminal acts or 
unexplained chronic diseases.
    We must invest significant resources in four areas: more and 
better-trained public health professionals; better-equipped 
laboratories; state-of-the-art early-warning systems and communication 
networks; and a nationwide health tracking network to track chronic 
diseases like cancer, asthma, Alzheimer's and birth defects, and to 
monitor environmental exposures that might be related to those 
diseases.
    Preparing our country to meet emerging and existing health threats 
will require more than a year's worth of increased appropriations. It 
will require a sizable, multi-year commitment to the foundation of a 
quality public health system.
    The initial funding approved [for fiscal year 2002], $865 million, 
is a good start for improving state and local public health capacity. 
Nonetheless, everyone recognized that this was an initial investment. 
The Trust for America's Health urges a federal commitment of $10 
billion over 10 years to improve the capacity of state and local public 
health systems.
                    the need for stronger leadership
    In addition to increased financial resources, the United States 
needs strong leadership and a clear chain of command in the public 
health domain. Although there are more than 50 federal offices involved 
in protecting the public's health, no single individual or agency is in 
charge. Better coordination and leadership would improve the nation's 
public health preparedness and emergency response, and would strengthen 
our ability to prevent chronic disease.
    At the moment, there are no confirmed leaders in place at the CDC; 
the National Institutes of Health; the Food and Drug Administration; 
and the Office of the Surgeon General. These vacancies mean we are 
without the ``Generals'' we need to safeguard our health on the home 
front. Last month, the Trust for America's Health and 20 other health 
organizations sent a letter to President Bush, urging him to act 
quickly to nominate qualified individuals to fill these vacancies. We 
were pleased when, a few weeks later, the President nominated qualified 
candidates for Surgeon General and director of the NIH.
    However, the underlying fact remains that no one official is in 
charge of federal health protection efforts, and years of budget-
cutting under both Democratic and Republican leadership have weakened 
our public health system, especially the office of the Surgeon General. 
We believe the time has come to reverse years of decline in the power 
and resources of the Surgeon General and give the office the 
assignments and backing it needs to spearhead federal efforts to 
safeguard the health of all Americans.
                                summary
    Investments in our country's public health system will save lives 
and prevent illness for thousands, even millions, of Americans.
    It is more than a one-shot deal, and it requires both a sustained 
financial commitment and strong, clear leadership.
                                 ______
                                 
 Prepared Statement of the Helen Keller National Center for Deaf-Blind 
                           Youths and Adults
                         preliminary statement
    With the help of this Committee and the Congress, the Helen Keller 
National Center for Deaf-Blind Youths and Adults (HKNC) will embark 
upon a new and important initiative in fiscal year 2003. As part of its 
long-range plan, HKNC needs financial support for the establishment of 
a major research, development, and training component. HKNC urges the 
Congress to appropriate a total of $9.492 million for fiscal year 2003, 
an increase of $775,000 over the President's budget. Of the amount of 
increase, $175,000 would enable the Center to offset cost of living 
increases; $100,000 would be used to continue the expansion of the 
nationwide affiliate program and the remaining $500,000 would support 
the research and training initiative.
    HKNC received level funding for fiscal year 2002, and the 
President's budget requests a level funding increase in HKNC's 
appropriations for fiscal year 2003. Within the constraints of funding 
received last year, we are moving to establish a national registry of 
deaf-blind individuals; embark on our capital repair and plant 
improvement program; and to expand our national network to provide more 
services to deaf-blind young people, adults and the elderly. The HKNC 
budget is very small in Federal budgetary terms, but through your 
leadership, it will enable hundreds of deaf-blind Americans to live 
independently, including employment in productive jobs.
                               background
    The Helen Keller National Center was established, and is maintained 
and operated pursuant to its enabling statute, the Helen Keller 
National Center Act, 29 U.S.C. Sec. 1901-1908. It is funded primarily 
through Federal appropriations, and secondarily through State agency 
fee payments and corporate and individual donations. Its mission and 
its services are unique in the Nation and in the world: HKNC provides 
diagnostic evaluation, comprehensive rehabilitation, training, job 
preparation, and placement services for individuals who are both deaf 
and blind. It also provides a national program of technical assistance 
and training to state vocational rehabilitation agencies and other 
service entities. From its headquarters in Sands Point, Long Island, 
New York, the Helen Keller National Center administers a national 
network of 45 affiliate agencies. HKNC provides financial support and 
technical assistance to these agencies to enable deaf-blind children, 
youth, and adults to be served in their own home states.
    The mission and responsibilities of the Helen Keller National 
Center, established by Congress in 1967, have expanded over the years. 
In 1998, the Helen Keller National Center Act was extended and amended. 
Additional responsibilities--and additional costs--have been imposed on 
HKNC. For example, the Center is now required to train family members 
of individuals who are deaf-blind. The definition of deaf-blindness was 
expanded in the 1992 amendments. The result has been the opening up of 
the rehabilitation system to serving additional deaf-blind clients.
                          long-range planning
    HKNC finds itself at a momentous juncture in its capacity to 
provide services to America's deaf-blind population: the number of 
deaf-blind individuals is increasing, but the capacity to serve 
additional people is not. Deficiencies exist which must be corrected in 
the near term, and a number of actions must be taken over the next 5 
years to equip HKNC to do the job the Congress has mandated it to do. 
We need to create a substantial capacity in research, development, and 
training. A critical review of the HKNC nationwide service delivery 
system has determined that our regional representatives are spread too 
thin--ten individuals are now expected to coordinate service delivery 
to all fifty states. Consequently, when deaf-blind individuals trained 
for meaningful employment at HKNC's New York Center return home, the 
infrastructure which is meant to provide continuity of support often 
does not exist, and the value of concentrated training is diminished.
    One objective is to establish a HKNC representative in all 50 
states to strengthen the coordination of essential, individualized 
services. Within 5 years we hope to have established 20 regional 
offices (doubling the current number), each with a professional 
representative responsible for two to three states. At the same time, 
HKNC hopes to be in a position to provide financial incentives for 
improved service coordination through joint grants to state 
rehabilitation agencies and developmental disabilities councils. Such 
grants would be twice the size of the current grants to state VR 
agencies.
       the hknc research, training, and developmental initiative
    Due to chronically limited funding, the Helen Keller National 
Center necessarily has focused its resources upon the development of 
services, and the network to provide them. One undesirable result of 
this attention has been the lack of adequate research, training, and 
development in the field of deaf-blindness. If the preponderance of 
deaf-blind youths and adults is to be served adequately, we must not 
delay in building the infrastructure to make such services more 
effective and efficient.
    HKNC is the world's premier institution serving deaf-blind youths 
and adults. Through the Helen Keller National Center Act, Congress has 
vested in HKNC the research and training authority in this field. It is 
vitally important now to fund the initiative that will make HKNC's 
research capability a reality. The $500,000 we seek for this purpose 
would enable HKNC to address critical deficiencies in professional 
training; to develop new technology for deaf-blind children and adults, 
including assistive listening devices and low vision aids; and to 
conduct research in many other important areas.
    The universe of trained personnel in deaf-blindness is small. Part 
of the reason is the low incidence and population of deaf-blind 
persons. Because of the low incidence of deaf-blindness, this complex 
disability does not receive the level of attention needed. There is a 
critical shortage of trained professionals in all areas of service to 
deaf-blind adults: orientation and mobility instructors, rehabilitation 
teachers, rehabilitation counselors, interpreters, job coaches, 
placement specialists, group home providers, independent living center 
staff, and others. Existing training programs in blindness do not 
address adequately the special requirements of deaf-blind persons.
    In the research and development field, existing Rehabilitation 
Research and Training Centers have neither the resources nor the 
expertise to focus on issues related to deaf-blindness. However, HKNC 
has obtained commitments from a number of universities to collaborate 
on research initiatives if and when a program is developed through 
HKNC. Areas in need of quality research include interpreting for 
individuals who are deaf-blind; placement and supported employment; 
interveners and service support providers for deaf-blind people; needs 
of older blind persons experiencing age-related hearing loss; new 
employment opportunities through application of technology; improved 
communication techniques; specialized orientation and mobility 
techniques; the genetics of Usher's Syndrome; and the late emerging 
manifestations of Congenital Rubella Syndrome. Research results in a 
number of these areas will be translated into training of professionals 
who will utilize the improvements to better serve deaf-blind youths and 
adults.
                               conclusion
    Deaf-blindness is one of the most severe of all disabilities. Most 
of us cannot conceive of living and functioning in a world without 
either sight or hearing. Training for independence, and even 
employment, for people who are deaf-blind, is not only possible but is 
being accomplished, successfully, every day at HKNC. Such 
rehabilitation and training is extraordinarily difficult, time 
consuming, and labor-intensive.
    For more than a quarter century, the Helen Keller National Center 
has operated as the only organization in the United States which 
provides, directly and indirectly, throughout the country, a 
comprehensive program of services and training for this relatively 
small population of our disabled citizens, and it does so with very 
modest funding from this Committee and the Congress. With the 
burgeoning population of deaf-blind children and older Americans, with 
the aging of its physical plant, and with more requirements, it is 
becoming increasingly difficult for HKNC to adequately serve those who 
need our services.
    We respectfully request this Committee to continue its recognition 
of, and support for, the needs of children and youth with the most 
severe combination of disabilities, and their families. We ask that 
Congress preserve the Nation's modest but essential investment in the 
Center and the people it serves by appropriating $9.492 million for the 
Helen Keller National Center for fiscal year 2003.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States
    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to the Labor, Health 
and Human Services, and Education Subcommittee on fiscal year 2003 
funding items of great importance to The Humane Society of the United 
States (HSUS) and its 7 million supporters nationwide:
  --$8 million for the National Center for Research Resources to 
        continue construction of the national chimpanzee sanctuary 
        system authorized by Public Law 106-551;
  --$5 million to expand the work of the Interagency Coordinating 
        Committee on the Validation of Alternative Methods (ICCVAM), 
        authorized by Public Law 106-545, coupled with Committee Report 
        language encouraging federal agencies to avail themselves of 
        ICCVAM's expertise and efficient review process;
  --$2.5 million for the National Center for Research Resources to 
        sponsor research and development focused on identifying and 
        alleviating pain and distress in laboratory animal subjects.
                         chimpanzee sanctuaries
    We are grateful to the Committee for providing $5 million in fiscal 
year 2002 to begin construction of the National Chimpanzee Sanctuary 
System, as authorized by Congress in Public Law 106-551. This statute, 
originally introduced by Senators Bob Smith (R-NH) and Richard Durbin 
(D-IL) and Representative Jim Greenwood (R-PA), earned the bipartisan 
support of 24 cosponsors in the Senate and 143 cosponsors in the House, 
and had the endorsement of more than 100 scientists, many of whom are 
renowned experts in the field of chimpanzee research. It was approved 
by unanimous voice vote in both chambers and signed into law in 
December 2000.
    This common-sense law is designed to help animals who are deemed by 
the Secretary of Health and Human Services to be ``surplus'' for 
medical research, but who are still being warehoused in expensive 
federally-supported laboratory cages. As determined by the 
Congressional Budget Office (CBO), the sanctuaries envisioned by this 
law will provide a much higher quality of life for these animals. They 
will also serve American taxpayers well, by saving millions of dollars 
over the course of the next several years. These savings are primarily 
due to the fact that sanctuary facilities, which offer a more 
naturalistic environment and opportunities for social interaction, can 
be built and operated at significantly lower cost than laboratory 
facilities. Housing chimpanzees in sanctuaries is estimated to cost $8-
$15 per day per animal, compared to the $20-$30 per day per animal that 
the federal government currently spends to house them in lab cages. In 
addition, the statute creates a public-private partnership, requiring 
private sector matching dollars to complement the federal government's 
share (the private match is 10 percent of construction costs and 25 
percent of operating costs).
    The statute follows the recommendations of a National Research 
Council (NRC) report commissioned by the National Institutes of Health 
(NIH) and released in 1997, Chimpanzees in Research: Strategies for 
Their Ethical Care, Management, and Use. In 1986, NIH launched an 
initiative to breed chimpanzees--mistakenly thought to be useful models 
for AIDS research--creating a surplus of several hundred chimpanzees 
who are no longer used in medical research. According to the NRC 
report, the government is spending more than $7 million annually on 
maintenance of chimpanzees. The report recommends a breeding moratorium 
and opposes euthanasia of chimpanzees as a means of population control, 
noting that ``[s]ome of the best and most caring members of the support 
staff, such as veterinarians and technicians would, for personal and 
emotional reasons, find it impossible to function effectively in an 
atmosphere in which euthanasia is a general policy, and might resign.'' 
The report also specifically recommends: ``The concept of sanctuaries 
capable of providing for the long-term care and well-being of 
chimpanzees that are no longer needed for research and breeding should 
become an integral component of the strategic plan to achieve the best 
and most cost-effective solutions to the current dilemma.''
    To continue timely and efficient implementation of this law, we ask 
that the Committee direct NIH to allocate $8 million in fiscal year 
2003 for the next phase of construction of the national chimpanzee 
sanctuary system. The President's budget recommends $5 million for 
fiscal year 2003 toward this goal. While we are pleased to have the 
Administration's support of this program, we respectfully request $8 
million, in order to achieve the cost-benefits of scale as quickly as 
possible. Fiscal year 2002 funds will allow site preparation, 
establishment of infrastructure and installation of utilities in a 200-
acre site, and housing for 50-75 of the estimated 600 chimpanzees that 
the Secretary may identify as no longer needed for research. To 
optimize cost effectiveness, a sanctuary site must house 200-300 
chimpanzees. $8 million in fiscal year 2003 will reduce daily operating 
expenses per chimpanzee by allowing Phase II construction of housing 
for an additional 125-150 chimpanzees.
  interagency coordinating committee on the validation of alternative 
                            methods (iccvam)
    We are also very pleased that Congress enacted Public Law 106-545 
by unanimous voice vote in both chambers. This legislation, introduced 
by Senator Mike DeWine (R-OH) and Representatives Ken Calvert (R-CA) 
and Tom Lantos (D-CA), earned the bipartisan support of 5 Senate 
cosponsors and 73 House cosponsors, and was also signed into law in 
December 2000. This statute strengthens and makes permanent the 
Interagency Coordinating Committee on the Validation of Alternative 
Methods (ICCVAM). We hope the statute will increase acceptance of more 
animal-friendly test methods by streamlining the process by which these 
methods are validated and easing institutional barriers within federal 
agencies that discourage their use.
    ICCVAM performs an invaluable function for regulatory agencies, 
industry, public health, and animal protection organizations by 
assessing the validation of new, revised and alternative toxicological 
test methods that have interagency application--including methods that 
replace, reduce, and refine the use of animals in testing. After 
appropriate independent peer review of a test method, ICCVAM provides 
its assessment of the test to the federal agencies that regulate the 
particular endpoint that the test measures. In turn, the federal 
agencies maintain their authority to incorporate the validated test 
method as appropriate for the agencies' regulatory mandates. This 
streamlined approach to assessment of validation of new, revised and 
alternative test methods has reduced the regulatory burden of 
individual agencies, provided ``one-stop shopping'' for industry, 
animal protection, public health and environmental advocates to 
consider test methods, and set uniform criteria for what constitutes a 
validated test method.
    ICCVAM arose from an initial mandate in the NIH Revitalization Act 
of 1993 for the National Institute of Environmental Health Sciences 
(NIEHS) to ``(a) establish criteria for the validation and regulatory 
acceptance of alternative testing methods, and (b) recommend a process 
through which scientifically validated alternative methods can be 
accepted for regulatory use.'' In 1994, NIEHS established an ad hoc 
ICCVAM to write a report that would recommend criteria and processes 
for validation and regulatory acceptance of toxicological testing 
methods that would be useful to federal agencies and the scientific 
community. Through a series of public meetings, interested stakeholders 
and agency representatives from 14 regulatory and research agencies 
developed NIH Publication No. 97-3981, Validation and Regulatory 
Acceptance of Toxicological Test Methods. This report has become the 
``sound science'' guide for consideration of new, revised and 
alternative test methods by the federal agencies and interested 
stakeholders. After publication of the report, the ad hoc ICCVAM moved 
to standing status under the NIEHS' National Toxicology Program 
Interagency Center for the Evaluation of Alternative Toxicological 
Methods (NICEATM). Representatives from federal regulatory and research 
agencies have continued to meet, with advice from NICEATM's Advisory 
Committee and independent peer review committees, to assess the 
validation of new, revised and alternative toxicological test methods.
    Since then, three methods have undergone rigorous assessment and 
been deemed scientifically valid and acceptable. The first method, 
Corrositex, is a replacement for animal-based dermal corrosivity tests 
for some chemicals. The second, the Local Lymph Node Assay, is a 
reduction and refinement of an animal test for the skin irritation 
endpoint. The third, the Up and Down Method, is a reduction and 
refinement of the LD50 Test for acute oral toxicity.
    The open public comment process, input by interested stakeholders, 
and the continued commitment by various federal agencies have led to 
ICCVAM's success so far. Now, under Public Law 106-545, ICCVAM is 
poised to accomplish even more in terms of streamlining the validation 
of other new, revised and alternative test methods. For the past few 
years, NIEHS has provided approximately $1 million annually to NICEATM 
for ICCVAM activities. In order to ensure that federal regulatory 
agencies and their stakeholders can more fully benefit from the work of 
ICCVAM, we respectfully urge the Committee to direct NIEHS to allocate 
$5 million for ICCVAM activities in fiscal year 2003. Funding at this 
level will cover FTEs, independent peer review assessment of test 
methods, meeting expenses, and other activities as deemed appropriate 
by the Director of the NIEHS. To accomplish this, we respectfully 
request the following Committee report language:

    ``The Committee supports the assessment of scientific validation of 
new, revised and alternative toxicological test methods by ICCVAM. The 
Committee supports the use of ICCVAM to streamline consideration of 
new, revised and alternative toxicological test methods. The Committee 
also urges the incorporation of scientifically validated new, revised 
and alternative test methods into federal regulations, requirements and 
recommendations in an expeditious manner. To this end, the Committee 
has provided $5 million to support ICCVAM's activities.''
                       pain and distress research
    An estimated 40 percent of the National Institutes of Health (NIH) 
budget--or currently more than $8 billion--is devoted to some aspect of 
animal research. At this time, no funding is set aside specifically for 
research into alternatives that replace or reduce the use of vertebrate 
animals in research or that reduce the amount of pain and distress to 
which research animals are subjected. NIH may receive in excess of $27 
billion in fiscal year 2003 if Congress fulfills the President's budget 
request. Out of this funding, we seek $2.5 million (.00925 percent) for 
research and development focused on identifying and alleviating animal 
pain and distress. We recommend that this R&D be conducted under the 
National Center for Research Resources (NCRR, responsible for NIH 
extramural funding). We also urge the Committee to specify in report 
language that NCRR should conduct this research in conjunction with, or 
``piggy-backed'' onto, ongoing research that already causes pain and 
distress. No pain and distress should be inflicted solely for the 
purpose of this research, given the volume of existing research (we 
estimate a minimum of 20-25 percent of all animal research) that 
already involves moderate to significant pain and/or distress.
    In 1987, NIH announced a program to award grants for ``research 
into methods of research that do not use vertebrate animals, use fewer 
vertebrate animals, or produce less pain and distress in vertebrate 
animals used in research.'' Many of the 17 program awards made from 
1987 to 1989, totaling approximately $2.4 million, involved research on 
non-mammalian models, including projects on frogs, mollusks, and 
insects. Other awards included mathematical modeling and computer 
studies. This program, which was managed out of the Division for 
Research Resources (the precursor to NCRR), no longer exists at NIH, 
and it has not been replaced by any similar program.
    A recent survey conducted by an independent polling firm indicates 
that concern about animal pain and distress strongly influences public 
opinion about animal research in general. Public support for animal 
research declines dramatically when pain and distress are involved: 62 
percent support animal research when pain and distress are minimal, 
only 34 percent when moderate, and an even smaller 21 percent when 
animal suffering is severe. Despite this public concern, NIH has not 
continued to sponsor R&D exploring how to minimize animal suffering and 
distress in the laboratory.
    During the past 4 years, The Humane Society of the United States 
has been reviewing institutional policies and practices with respect to 
pain and distress in animal research. We have found that research 
institutions have inconsistent policies due to the lack of information 
on this subject, and that standards vary greatly from one institution 
to another. Painful techniques, such as the use of carbon dioxide to 
euthanize rats and mice, are widely practiced and approved even though 
studies indicate that carbon dioxide exposure for only a few seconds 
causes acute distress to humans. The federal standard for determining 
laboratory animal pain specifies that, if a procedure causes pain or 
distress to humans, it should be assumed to cause pain and distress to 
animals. While human experience can and should provide a useful guide 
in some cases, there are others in which humans are never subjected to 
the conditions facing laboratory animals. Information on pain and 
distress that animals themselves actually experience is important. For 
many accepted laboratory practices there is no scientific data 
regarding the painful or distressing effects on either people or 
animals.
    A lack of data on the recognition, assessment, alleviation, and 
prevention of pain and distress in laboratory animals is commonly cited 
by scientists as a rationale for either not reporting pain and distress 
or not acting to mitigate it. This lack of data is obviously 
detrimental to the welfare of animals used in research, but it is also 
detrimental to the quality of science produced. Uncontrolled, 
undetected, and unalleviated pain, physical distress, or psychological 
distress result in alterations in physiologic and behavioral states, 
and confound the outcome of scientific research. Ultimately, the lack 
of information on pain and distress leads to misinterpretation of 
research results that could result in harmful effects in human beings 
when pre-clinical animal research results are applied to humans in 
clinical trials.
    Our nation takes pride in leading the world in biomedical research, 
yet we lag behind many other countries in our efforts to minimize pain 
and distress in animal subjects. For example, the United Kingdom, 
Sweden, Switzerland, Germany, the Netherlands and the European Union 
all have committed funds specifically for the ``three R's'' (replacing 
the use of animals, reducing their use, and refining research 
techniques to minimize animal suffering). We urge the Committee to make 
this small investment of $2.5 million to promote animal welfare and 
enhance the integrity of scientific research.
    Again, we appreciate the opportunity to share our views and 
priorities for the Labor, Health and Human Services, and Education 
Appropriation Act of fiscal year 2003. We hope the Committee will be 
able to accommodate these three requests affecting animals across the 
United States. Thank you for your consideration.
                                 ______
                                 
           Prepared Statement of Elder Law of Michigan, Inc.
    Elder Law of Michigan, Inc. has operated the Legal Hotline for 
Michigan Seniors for 12 years. In that time, we have found the Hotline 
to be a tremendous resource for the low income and middle income 
seniors who seek out our services. Aging is a complex process with many 
decisions and choices to be made. Providing citizens with the 
opportunity to ask questions to make informed decisions is a 
cornerstone of modern and enlightened democracy.
    The Michigan Hotline served over 4,000 seniors in calendar year 
2001. Help is provided on housing issues, consumer issues, health 
insurance issues, the quality of long term care services, powers of 
attorney, guardianship, and issues relating to personal freedom. 65 
percent of our clients have incomes under 200 percent of the federal 
poverty level. Over 35 percent consider themselves to be disabled in 
some way. Most are highly vulnerable due to poverty, geographic 
isolation, limited education or frailty (mental or physical health 
problem). We receive less than 10 percent of our funding from the State 
of Michigan and currently 35 percent from a federal demonstration 
grant. The rest must raised annual from attorneys, private citizens, 
foundations and corporations. This is no easy task post 9/11 when 
competition for funds from private donors is fierce.
    While we are lucky to have had the Legal Hotline for Michigan 
Seniors in our state, each year it is a struggle to secure the funding 
needed to continue its operation. We ask that Congress provide at least 
$6 million from the Administration on Aging Title IV appropriation for 
aging research, training, and discretionary programs to fund a 
nationwide program of statewide senior legal hotlines. This could be 
done by establishing and maintaining at least one senior legal hotline 
program in each of 50 states, the District of Columbia, and Puerto 
Rico. Existing senior hotlines should be maintained in states that have 
them and new ones added in the states that do not. For the states with 
the largest senior populations, California, Florida, New York, Texas 
and Pennsylvania, it would be prudent for the Administration on Aging 
to award larger grants of $200,000-$250,000 or fund two smaller 
hotlines for a total of $250,000.
                                 ______
                                 
  Prepared Statement of the Association of Public Health Laboratories
                              introduction
    Mr. Chairman and distinguished members of the subcommittee, my name 
is Dr. Mary Gilchrist. I am the Director of the University Hygienic 
Laboratory in Iowa City, IA. I also serve as the president of 
Association of Public Health Laboratories (APHL), representing state 
and local public health laboratories across this nation. This testimony 
is being submitted on behalf of APHL.
    The Association of Public Health Laboratories (APHL) is a 
professional association that represents its member national, state, 
city, and local public health, environmental, and international 
laboratories on issues of public health importance. APHL's mission is 
to promote the role of public health laboratories in support of 
national and global objectives, and to promote policies and programs 
that assure continuous improvement in the quality of laboratory 
practices. As such, APHL is dedicated to protecting and preserving the 
health of our nation, and to promoting technology transfer in 
laboratory practices in order to foster better health globally.
    To fulfill its mission, APHL works collaboratively with a diverse 
array of national, international, public and private sector partners in 
formulating sound public health and environmental policies, offering 
training and fellowship programs designed to prepare future leaders in 
public health laboratory practice, and improving public health 
laboratory practices nationally and internationally. APHL is recognized 
nationally and internationally for its excellence in the provision of 
cost-effective training and continuing education programs offered 
through its National Laboratory Training Network (NLTN).
    APHL is pleased to have the opportunity to outline the critical 
role that public health laboratories play in our nation's public health 
system. From bioterrorism response to emerging infectious diseases to 
responding to environmental health threats, our nation's public health 
laboratories are on the frontlines.
    Today's testimony will concentrate on three important programs that 
are funded through the Centers for Disease Control and Prevention 
(CDC): The Public Health Response to Terrorism/Laboratory 
Infrastructure; Emerging Infectious Diseases; and the Environmental 
Health Laboratory. These three programs each have a strong public 
health laboratory component and funding is urgently needed to ensure 
that state public health laboratories will have the capacity and 
capability to protect the health of our citizens.
   the public health response to terrorism/laboratory infrastructure
    During last year's anthrax attacks the state public health 
laboratories shouldered the lion's share of laboratory testing for 
potential bioterrorism. Many of our labs worked around the clock 
processing specimens to ensure that the public's health would be 
secure. Importantly, the testing that occurred in the state public 
health laboratories controlled panic and fear and reduced excess costs 
to health care and our economy.
    The availability of laboratory testing for packages, powders and 
environmental specimens is essential in a crisis. Laboratories must 
stand ready to identify a broad range of potential agents including 
organisms that could be used to compromise the food supply, water or 
air. APHL is grateful for the attention this subcommittee has given to 
this important topic. Last year a total of $940 million was 
appropriated to upgrade state and local public health capacity. For 
fiscal year 2003, APHL respectfully requests that you continue to fund 
this program at the $940 million level. These funds will help modernize 
the overall public health infrastructure and assist our laboratories to 
be better prepared for bioterrorism. The Department of Health and Human 
Services determined that out of last year's emergency supplemental 
appropriations, 13 percent could be used to enhance the state public 
health laboratories. In fiscal year 2003, APHL urges that state public 
health laboratories be allocated additional funds beyond 13 percent of 
the total for laboratory upgrades.
    In late February 2002 the CDC issued the following document--
``Guidance for Fiscal Year 2002 Supplemental Funds for Public Health 
Preparedness and Response for Bioterrorism Announcement Number 99051--
Emergency Supplemental.'' All of the state public health laboratories 
have worked closely with their governors and state health officers to 
come up with proposals that better prepare state public health systems 
for bioterrorism.
    The funds provided through the ``emergency supplemental'' will 
build a foundation that will develop our nation's public health 
infrastructure. To assist in this process our laboratories are working 
closely with their public health counterparts in the state agencies to 
ensure overall preparedness planning and readiness, improved 
surveillance and epidemiology capacity, improved communications and 
information technology, and better education and training.
    These funds will also enhance the public health laboratories that 
are part of the Laboratory Response Network (LRN) by ensuring safe and 
secure facilities, trained personnel, modern equipment and other 
important components of a well-equipped laboratory. The LRN is composed 
of county, city, state, and federal public health laboratories, and was 
established to help public health laboratories across the nation 
prepare for and respond to acts of terrorism. It is a joint program of 
the CDC and the Association of Public Health Laboratories and was begun 
about 3 years ago. This network of laboratories can accept specimens 
and samples from hospitals, clinics, the Federal Bureau of 
Investigation (FBI) and other law enforcement groups, emergency medical 
services, the military, and other agencies.
    The ``emergency supplemental'' also directed the state public 
health laboratories to develop connectivity with the private clinical 
and hospital laboratories. Both types of laboratories have independent 
yet complementary roles to safeguard public health. Through 
improvements in communication, collaboration, and coordination, the 
public health laboratories are implementing plans to provide links to 
the public and private sectors necessary for an effective response to 
bioterrorism.
    Unfortunately, the ``emergency supplemental'' did not contain a 
substantial section that would allow states to better prepare for 
chemical terrorism and response. The likelihood that chemical agents 
will be used for terrorist purposes is high. Unlike biological agents, 
chemical agents can produce immediate effects; chemical agents are 
cheap, easy to use, stable, and can be precisely delivered; and can be 
easily, efficiently, and rapidly dispersed. Terrorists can use 
thousands of commercially available chemicals. These chemicals can be 
synthesized or purchased throughout the world. These include 
herbicides, blood agents, choking agents, blistering agents, and nerve 
agents.
    To prepare for chemical terrorism our states need containment 
laboratories, trained personnel and equipment to perform rapid 
screening for toxic chemicals. For Chemical Terrorism Preparedness and 
Response, expanding the number of laboratories able to handle chemical 
agents and agents present in environmental samples is essential. It is 
important that this year's appropriations allow states to enhance and 
expand public health laboratories testing human specimens for chemical 
terrorism agents as well as to implement a program of testing for 
environmental samples. Currently there is no program in place to test 
environmental samples and this is a major gap in testing.
    In fiscal year 2002 CDC provided $3.1 million to five state public 
health laboratories (New York, Virginia, New Mexico, California and 
Michigan) for chemical detection in human (blood and urine) samples. In 
addition to funding, these laboratories have received training from the 
CDC, and are beginning to serve as ``surge capacity'' laboratories for 
CDC chemical terrorism analyses of clinical specimens. At present there 
are no official, state based efforts to provide coordinated laboratory 
testing of environmental samples for evidence of terrorist attacks. 
Preparing for chemical terrorism must become a public health priority. 
APHL urges the Committee to ensure that chemical terrorism is a 
priority in the fiscal year 2003 Appropriation.
    Overall, the funds provided by Congress last year are helping 
prepare our nation's public health system for a bioterrorist attack. It 
is important that we sustain the improvements to the public health 
infrastructure that are underway. Many of our state public health 
laboratory directors have expressed concerns that a one-time infusion 
of funds will not allow states to sustain the improvements that they 
are making to their laboratories. For example, personnel that are hired 
will need to be retained, equipment that is purchased and systems that 
are put in place will need to be maintained and updated. Therefore, we 
urge the committee to continue to provide support for this program at 
last year's level.
                      emerging infectious diseases
    Infectious diseases are a continuing threat to all Americans, 
regardless of age, gender, lifestyle, ethnic background, or 
socioeconomic status. Between 1973 and 1999, more than 35 newly 
emerging infectious diseases were identified. Although modern advances, 
such as antibiotics and vaccines have conquered some diseases, new ones 
are constantly emerging (such as HIV/AIDS, Legionnaires' disease, Lyme 
disease, hantavirus pulmonary syndrome and West Nile Virus). Other 
infectious diseases reemerge in drug-resistant forms (such as 
tuberculosis and bacterial pneumonias) or through bioterrorism 
(anthrax). Because we do not know what new diseases will arise, 
laboratories and public health agencies must always be prepared for the 
unexpected.
    Last year a total of $354 million was appropriated for the emerging 
infectious diseases programs at the National Center for Infectious 
Disease (NCID). For fiscal year 2003 APHL requests that this program be 
funded at a $425 million level. This increase will allow states and the 
CDC to expand and improve essential public heath programs that focus on 
infectious diseases.
    In total, infectious diseases cost our society more than $120 
billion each year. An influenza pandemic would cause an estimated 
90,000 to 200,000 deaths in the United States alone; the cost of the 
pandemic could reach as high as $167 billion. NCID has utilized the 
funds you provide to establish domestic and global sentinel 
surveillance sites to facilitate the early detection of influenza virus 
variants that are used each year for vaccine development. Additional 
support would expand the number and improve domestic and international 
surveillance sites for influenza to support vaccine decisions.
    The Epidemiology and Laboratory Capacity program (ELC) at NCID is 
helping to build laboratory capacity in state and local health 
departments by providing funds and technical assistance to all states. 
The funds provided through the ELC have allowed all states to acquire 
pulsed-field gel electrophoresis capability. In 2002 all states are now 
part of a national molecular fingerprinting surveillance network called 
PulseNet that helps prevent kidney failure and/or death by detecting 
contamination in foods before large outbreaks occur. Additional support 
for this program is essential if we are to improve and expand the 
capability of public health laboratories to rapidly diagnose foodborne 
disease outbreaks and communicate laboratory findings.
    The support you provide is also improving the laboratory detection 
of antibiotic resistant microbes. This helps reduce the transmission of 
antimicrobial resistance through improved surveillance and outbreak 
investigations. It also assists in the promotion of the judicious use 
of antimicrobial drugs by physicians and the public
    Additional support for the programs at NCID would allow state and 
local health departments to build further capacity focusing on new 
activities such as surveillance for vCJD and antimicrobial resistance, 
influenza preparedness and response, West Nile Virus surveillance and 
response, hepatitis C prevention and control, and other under funded 
public health priorities. NCID could expand the activities of the 
Emerging Infections Program (EIP) network, which is uniquely designed 
to address new infectious disease problems whenever they arise.
    Improved laboratory capacity and capability for the detection of 
infectious diseases is an extremely important component of our nation's 
public health system. Support for continued development and utilization 
of rapid, sensitive molecular detection assays will be critical to 
surveillance and control of new and reemerging diseases. Therefore, we 
urge this Committee to increase your support of the infectious disease 
programs at CDC.
                    environmental health laboratory
    The CDC Environmental Health Laboratory program is located at the 
National Center for Environmental Health (NCEH). The Environmental 
Health Lab develops and applies laboratory science and works with state 
and local health departments to prevent cancer, birth defects and other 
disease resulting from exposures to toxic substances.
    Last year a total of $157 million was appropriated for the 
environmental health programs at NCEH. For fiscal year 2003 APHL 
respectfully requests a modest increase to fund this program at a $203 
million level. This funding will allow states to begin to implement 
important biomonitoring programs and provide support for state/local 
environmental health investigations, and allow NCEH to respond to 
requests from state health departments regarding chemical emergencies.
    NCEH is nationally and internationally recognized for its expertise 
in biomonitoring, which is the direct assessment of human exposure to 
toxic substances by measuring them in human blood or urine. 
Biomonitoring improves exposure assessment; reduces uncertainty in risk 
assessment; identifies exposures that cause cancer, birth defects and 
other disease; evaluates the effectiveness of interventions to reduce 
human exposure; provides individual exposure information for children 
and persons at risk of dangerous exposures; saves money and needless 
anxiety by recognizing exposures of negligible health consequence; and 
provides essential exposure data needed for medical management of 
persons exposed to toxic substances.
    In 2001 NCEH awarded 25 planning grants totaling $5 million to 33 
states to develop, and expand state-based monitoring programs to help 
prevent disease from exposure to toxic substances. Individual states, 
as well as consortia comprising several states, received funding. 
Grants are designed to help states strengthen their public health 
infrastructure. States will also be able to plan how they will track 
exposure trends and assess effectiveness of efforts to reduce exposure 
to toxic substances. Finally, states will be able to increase their 
capacity to measure many toxic substances in people, including such 
vulnerable groups as children, the elderly, and women of childbearing 
age. Planning for this project is well underway and states are hopeful 
that sufficient funds will be available for the implementation phase.
    State and local health departments regularly investigate clusters 
of diseases and exposures to toxic substances. Each year, NCEH supports 
the investigations of state and local health departments, using its 
biomonitoring capabilities to provide individual exposure information 
for more than 200 toxic substances. This information is essential for 
health officials determine what is the magnitude of the public health 
problem, who has had dangerous exposures, and what are the appropriate 
public health actions to manage the current problem and prevent 
disease. Additional funding for this program is needed to support 
investigations at the state and local level.
    Newborn screening is one of the largest disease prevention programs 
reaching 4 million infants each year. Each year, 3,000 babies with 
severe disorders are detected by newborn screening programs. The 
outcome of a false-negative test can result in injury or death, 
therefore demanding a high level of testing accuracy. The Newborn 
Screening Quality Assurance Program (NSQAP), a voluntary, non-
regulatory program operated by NCEH serves over sixty domestic newborn 
laboratories and forty-five international laboratories by conducting 
research on materials development and quality assurance for dried blood 
spots (DBS) screening tests.
    State health departments test blood spots collected from newborns 
for up to ten metabolic and genetic diseases such as phenylketonuria 
(PKU), hypothyroidism, galactosemia, and sickle cell disease. Health 
departments and laboratories participate in this comprehensive quality 
control (QC) and performance evaluation (PE) program for dried blood 
spot screening tests to receive training on quality assurance 
practices, guidelines and standards for DBS screening tests, technical 
assistance, proficiency testing and reference materials.
    NCEH is also called upon to respond to requests from state and 
local health departments and foreign governments to assess exposure of 
persons affected by chemical emergencies--such as pesticide poisoning, 
mercury food poisoning, or an industrial explosion. Often, the 
laboratory has to develop new methods to assess exposures to toxic 
substances involved in the emergency. For these emergencies, the 
laboratory analyzes toxic substances in blood and urine to determine 
what chemicals are involved, who has been exposed, how much exposure 
each individual has had and what is the likely health risk. This 
information is used to guide the medical management of persons affected 
and determine what public health follow-up is appropriate for exposed 
groups of people.
                            closing remarks
    In closing, I want to thank the members of the Committee for your 
support of the nation's public health infrastructure and for this 
opportunity to testify.
                                 ______
                                 
     Prepared Statement of the National Center for Health Education
    The National Center for Health Education Organizations (NCHE) is 
pleased to present this statement concerning appropriations for fiscal 
year 2003 for the Centers for Disease Control and Prevention (CDC).
    The National Center for Health Education, created by a presidential 
commission under President Richard Nixon in 1975, is a private, non-
profit entity whose sole responsibility is to advance the nation's 
private-sector efforts in health education. Our organization also works 
in conjunction with the Friends of School Health and the Coalition of 
National Health Education Organizations,* a group of 9 professional 
membership organizations that represents approximately 25,000 
professionals who are especially skilled in the use of health promotion 
and disease prevention to advance the nation's Healthy People 2010 
goals and objectives.
---------------------------------------------------------------------------
    * American Association for Health Education, American College 
Health Association, American Public Health Association/Public Health 
Education & Health Promotion Section and School Health Education & 
Services Section, American School Health Association, Association of 
State & Territorial Directors of Health Promotion and Public Health 
Education, Eta Sigma Gamma, National Commission for Health Education 
Credentialing, Society for Public Health Education, and the Society of 
State Directors of Health, Physical Education and Recreation.
---------------------------------------------------------------------------
    I want first to thank you for your past support of programs and 
initiatives that invest in our nation's youth. But, I am submitting 
this statement on behalf of the National Center for Health Education to 
sound a ``wake-up call'' for more substantial Federal investment in 
what are proven, cost-effective coordinated school health programs and 
comprehensive school health education. Specifically, I am here to 
request that the Centers for Disease Control and Prevention (CDC) 
should be funded at $35 million for fiscal year 2003 in order to 
provide the states with infrastructure grants for such programs.
    Perhaps more than at any other time in our nation's history, 
children and adolescents in our society are facing challenges that can 
have a profound impact on health. Data from the CDC Youth Risk Behavior 
Survey \1\ and other studies have shown that:
---------------------------------------------------------------------------
    \1\ U.S. Centers for Disease Control and Prevention. Youth Risk 
Behavior Surveillance--United States, 1999. Morbidity & Mortality 
Weekly Report. June 9, 2000; 49 SS-5): 1-96.
---------------------------------------------------------------------------
  --More than 3,000 young people begin smoking each day.\2\
---------------------------------------------------------------------------
    \2\ U.S. Centers for Disease Control and Prevention. Youth Tobacco 
Surveillance--United States, 2000. Morbidity & Mortality Weekly Report. 
November 2, 2001; 50(SS04):1-84.
---------------------------------------------------------------------------
  --Obesity has doubled among children and adolescents in the last 
        decade, making it now a national epidemic. Ten to 15 percent of 
        children and adolescents are overweight and more than half of 
        these children have at least one cardiovascular disease risk 
        factor, such as elevated cholesterol, hypertension, and risk 
        for Type II diabetes.\3\ Yet, daily participation in high 
        school physical education classes dropped from 42 percent in 
        1991 to 29 percent in 1999.\4\
---------------------------------------------------------------------------
    \3\ U.S. Department of Health and Human Services. The Surgeon 
General's Call to Action to Prevent and Decrease Overweight and Obesity 
2001. [Rockville, MD]: U.S. Department of Health and Human Services, 
Public Health Service, Office of the Surgeon General; [2001]. Available 
from: U.S. GPO, Washington, DC.
    \4\ Simons-Morton B, Eitel P, Small ML. School physical education: 
Secondary analyses of the School Health Policies and Programs Study. 
Journal of Health Education. 1999; 30:558-564.
---------------------------------------------------------------------------
  --Two-thirds of eighth-graders have experimented with alcohol and 28 
        percent have been drunk at least once.
  --Seven percent of ninth-grade students report carrying a weapon to 
        school in the previous month, with 135,000 bringing a gun to 
        school every day; violent homicide is now the second leading 
        cause of death among people 15 to 24.\5\
---------------------------------------------------------------------------
    \5\ Anderson M, Kaufman J, Simon TR, Barrios L, Paulozzi L, et al. 
School-associated violent deaths in the United States, 1994-1999. 
Journal of the American Medical Association. 2001; 286:2695-2702.
---------------------------------------------------------------------------
  --Motor vehicle accidents result in over 30 percent of the deaths 
        among young people ages 1 to 24.\6\
---------------------------------------------------------------------------
    \6\ Everett SA, Shults RA, Barrios LC, Sacks JJ, Lowry R, Oeltmann 
J. Trends and subgroup differences in transportation-related injury 
risk and safety behaviors among high school students, 1991-1997. 
Journal of Adolescent Health. 2001; 28:228-234.
---------------------------------------------------------------------------
    Young people from throughout the United States are among these 
statistics. For example, in Ohio, 73 percent of youth report ever 
having smoked cigarettes, 56 percent drank alcohol during the last 
month, 72 percent did not participate in moderate physical activity, 
and 81 percent ate fewer than 5 servings of fruits and vegetables daily 
during the past 7 days.\7\ Tobacco use, poor nutrition, lack of 
physical activity, alcohol use and other drug use constitute major risk 
behaviors, which when established during youth today, lead to 
tomorrow's adult premature death and disability, including heart 
disease, cancer, diabetes, and injuries.\8\ Our children and 
adolescents fall victim to these chronic diseases when we fail to 
provide them with prevention strategies that we now have in hand and 
know that work. And we are failing them in almost each and every 
community. The cost to the nation of not doing more than we are 
currently doing is intolerable. The cost is measured both in terms of 
lives lost to premature death and unnecessary medical expenses. And the 
burden of these costs is borne disproportionately in communities where 
racial minorities predominate.
---------------------------------------------------------------------------
    \7\ U.S. Centers for Disease Control and Prevention. Division of 
Adolescent and School Health. Youth Risk Factor Behavioral 
Surveillance. Ohio. www.cdc.gov/nccdphp/dash/yrbs.pies99/oh.htm. April 
13, 2002.
    \8\ U.S. Department of Health and Human Services. Healthy People 
2010. Washington, DC: U.S. Government Printing Office, 2000.
---------------------------------------------------------------------------
    What those of us at NCHE and I find so disturbing about these 
statistics is that something can be done. As a national non-profit 
entity whose sole responsibility is to advance the nation's private-
sector efforts in health education, we are already working in 
partnership with CDC's Division of Adolescent and School Health (DASH) 
and other government agencies, as well as health-related voluntary 
associations and national and state-level school organizations in the 
private sector, to address these problems and other health concerns of 
children and their families through the implementation of comprehensive 
health education and other initiatives in schools throughout the United 
States. By comprehensive, I mean curriculum approaches that are 
sequential, age-appropriate, and help young people to apply 
understandings across a broad range of content areas and behaviors that 
influence health.
    For example, NCHE's Growing Healthy<Register>, a comprehensive 
school health education \9\ curriculum for grades K-6, helps young 
people acquire the knowledge and skills they need for good health, 
academic success, and productive adult lives. Over the past 25 years, 
Growing Healthy has reached over 5 million students in 15,000 schools 
in more than 40 states in the United States and Canada. Through a 
Federally-funded cooperative agreement that enables NCHE to work in 
partnership with CDC DASH, we also are currently working with teachers, 
parents, and school leaders across America to coordinate development of 
locally-based school health councils that can contribute to building 
community capacity for healthy schools. These councils allow 
communities to take ownership of their schools and youth, the very 
youth that will comprise the future workforce and community support.
---------------------------------------------------------------------------
    \9\ Lohrmann DK, Wooley SF. Comprehensive school health education. 
In Marx E, Wooley SF, Northrop D, Eds. Health is Academic: A Guide to 
Coordinated School Health Programs. New York: Teachers College Press, 
1998.
---------------------------------------------------------------------------
    Our Growing Healthy curriculum is an interdisciplinary approach 
that has been demonstrated effective at giving young people in 
Kindergarten through 6th grade the understandings and skills they need 
to resist peer pressures to engage in health-risky behavior. We can 
prevent much of the disease burden that is associated with poor health 
behaviors by exposing young people to such understandings and skill 
development. Growing Healthy, which has been recognized as a promising 
program for Safe, Disciplined and Drug-Free Schools by the U.S. 
Department of Education, is especially valuable in this effort because 
it is one of the few school-based programs that can easily be 
integrated into other subject areas, allowing students to create, 
apply, and use knowledge gained in many different situations. In 
addition to meeting all of the National Health Education Standards,\10\ 
our curriculum meets a generous number of performance objectives in 
other major subject areas, including Social Studies, Science, Literacy, 
and Language Arts. Yet, despite the existence of promising and 
effective programs such as NCHE's Growing Healthy, which can not only 
improve students' health and reduce their participation in harmful 
activities, but also improve their language and computational skills, 
health education is often tacked on, taught by teachers with little or 
no background in health, and taught with few or no resources.\11\
---------------------------------------------------------------------------
    \10\ Joint Committee on National Health Education Standards. 
Achieving Health Literacy: An Investment in the Future. Atlanta, GA: 
American Cancer Society, 1995.
    \11\ Kann L, Brener ND, Allensworth DD. Health education: Results 
from the school health policies and programs study 2000. Journal of 
School Health. 2001; 71:266-278.
---------------------------------------------------------------------------
    As the chief executive officer of a non-profit entity, parent, and 
American who has become alarmed by the prevalence of these problems and 
doing something about them, I know that most schools, most educators, 
and most communities in America are woefully unprepared to help young 
people avoid the costly consequences of poor health decisions and 
complex health problems. Schools look to the states for help with 
teacher training, curriculum development and selection, and obtaining 
resources for health education. State-level capacity in the education 
departments to support such local school programming has been seriously 
eroded in recent years. Despite generous tobacco settlements and rising 
rates of obesity and Type II diabetes among youth, fewer than half the 
states support implementation of school health education programs that 
target tobacco and promote physical activity and good nutrition because 
they do not have access to CDC infrastructure funds. This is 
unfortunate because we know that smoking, lack of exercise, and lack of 
a sound diet constitute the three major risk factors for several 
chronic diseases.\12\
---------------------------------------------------------------------------
    \12\ U.S. Centers for Disease Control and Prevention, National 
Center for Chronic Disease Prevention and Health Promotion. Unrealized 
Prevention Opportunities: Reducing the Health and Economic Burden of 
Chronic Disease. Atlanta: U.S. Department of Health and Human Services, 
Public Health Service, March 1997.
---------------------------------------------------------------------------
    Although many Federal and state programs exist to provide basic 
services such as immunization, nutritious meals, and physical education 
programs, most are fragmented and uncoordinated. Funds for such 
programs come from a variety of Federal agencies--Education, 
Agriculture, Health and Human Services. Yet, fewer than half of 
America's schools have the capacity to review, prioritize, and 
coordinate the diverse programs and services that are available. 
Expanded funding authorized by Congress could help states strengthen 
their efforts to establish and replicate local school-community 
partnership with state education departments and state public health 
agencies, as well as organizations in the private sector, to develop 
and sustain coordinated--rather than piecemeal--school health programs. 
Coordinated school health programs provide youth with the information 
and skills, environmental changes, parent and teacher education, and 
other resources to avoid risky behaviors.\13\ In addition, expanded 
funding would enable CDC to continue monitoring risk behaviors among 
youth and thus document progress toward meeting the national health 
promotion and disease prevention objectives for the nation.
---------------------------------------------------------------------------
    \13\ Marx E, Wooley SF, Northrop D, Eds. Health is Academic: A 
Guide to Coordinated School Health Programs. New York: Teachers College 
Press, 1998.
---------------------------------------------------------------------------
    For example, in Rhode Island, the State Department of Education has 
developed a partnership with Kids First, a community-based agency 
dedicated to improving the health and education of children. Together, 
they have provided nutrition education in schools throughout the state, 
and helped to address risk factors related to physical activity and 
obesity. From May 1998 through September 2000, Rhode Island provided 
nutrition services and programs to more than 40,000 children and their 
parents, 2,100 teachers, and 700 school food-service staff in more than 
220 schools. Through its nutrition-education program, Rhode Island is 
helping its young people establish healthy eating habits at an early 
age and thus reducing their risk for devastating chronic diseases both 
now and later in life.\14\
---------------------------------------------------------------------------
    \14\ U.S. Centers for Disease Control and Prevention. Division of 
Adolescent and School Health. Programs that Work. www.ced.gov/nccdphp/
dash/rtc/index.htm. April 13, 2002.
---------------------------------------------------------------------------
    Similarly, in Illinois, the Cook County Department of Public Health 
has utilized a CDC school health program infrastructure grant to fund a 
bold initiative to bring about systemic change in an effort to improve 
child health in an economically depressed African-American community in 
south suburban Cook County. With the support of school superintendents 
and the Illinois Board of Education, two county tax-supported health 
educators with a $30,000 grant from the state human services agency 
created The Healthy Schools Partnership. The first activity was to 
begin implementation of comprehensive, age-appropriate and sequential 
health instruction. The grant paid for teachers in three schools to 
receive training to use NCHE's Growing Healthy, and enough curriculum 
materials for one school year. When the grant ended the following year, 
the curriculum materials were not able to be purchased. Since then, the 
school board has established a line item in their budget to continue 
purchasing the curriculum for all schools, and to maintain teacher 
training. The school nurse became a Fellow of the American Cancer 
Society's National School Health Coordinator Leadership Institute 
Initiative. Empowered by leadership training and with support from the 
superintendent, the school nurse has initiated wellness activities for 
students, their families and staff, and has created an annual event to 
assure that children are immunized prior to the beginning of the school 
year.\15\
---------------------------------------------------------------------------
    \15\ Personal communication with Elaine Ricketts, April 14, 2002.
---------------------------------------------------------------------------
    The framework for efforts like these and others is simple, but 
could not have been put into place without CDC funds. That is why the 
expansion of infrastructure grants to establish school health 
programming that can effectively promote healthy behavior aimed at 
preventing tobacco use, fostering physical activity and improving 
nutrition is so critical. Doing so is especially important if we are to 
expand such programs in the early grades and in economically 
disadvantaged communities. In short, implementation of high-quality, 
comprehensive education by certified health education specialists is 
critical if we want to make a difference.\16\
---------------------------------------------------------------------------
    \16\ U.S. Centers for Disease Control and Prevention, National 
Center for Chronic Disease Prevention and Health Promotion. Coordinated 
school health programs make a difference. Chronic Disease Notes & 
Reports. Winter 2001; 14(1):6-9.
---------------------------------------------------------------------------
    In fiscal year 2002, CDC provided 20 states with support to 
facilitate coordinated school health programs. These programs resulted 
in improvements to the health environment in schools, including 
healthier food choices and tobacco-free schools, delivery of effective 
health education, and opportunities for physical education that promote 
the recommended levels of physical activity. Yet, none of these 20 
states have had sufficient funds to support implementation of effective 
programs such as NCHE's Growing Healthy, and many states receive no 
funding. Moreover, the CDC school health program, which was funded at a 
level of $9.7 million in fiscal year 2002, is virtually unchanged from 
the $9.6 million appropriated in fiscal year 2001, which is about the 
level of funding that has occurred in the last 10 years. Failure to 
provide an increase is tantamount to sliding backwards.
    With increased dollars, CDC would be able to increase funding to 2 
of the currently funded states to establish physical activity, 
nutrition, and tobacco evaluation programs; fully fund the remainder of 
the 18 existing states; and fund an additional 6-9 states to do what 
Illinois and Rhode Island have begun to do. This would result in a 
total of 27-30 states receiving funding. These funds would foster 
critical partnerships between departments of education and health and 
other related agencies in states, allowing high-level, state-directed 
coordination across programs. This would help ensure that students not 
only receive effective health instruction in nutrition, physical 
activity, and prevention of tobacco use, but also the necessary health 
services, quality physical education, nutritious school meals, and 
counseling and social services that, when integrated into a coordinated 
school health program, can contribute to students' overall learning and 
academic success.
    In addition to enabling CDC to provide infrastructure support for 
school health programs in additional states, funding for CDC's 
coordinated school health initiative can serve as a foundation for 
other Federal categorical funding programs as well as state-specific 
funding. For example, in Tennessee, coordinated school health funding 
provided the basis for a $1 million appropriation from the state 
legislature for school health in rural, underserved areas. In states 
that also receive the CDC school health funding, coordination of 
various categorical programs eliminates duplication of services, more 
effectively allows states to leverage resources to fill gaps, and 
maximizes each program's effectiveness by ensuring that students 
receive consistent messages and exposure across programs and services.
    I am not alone in my view that we need to do this. Independent 
surveys have consistently demonstrated that the public supports school 
health programs; a recent Gallup poll found 7 of 10 adults rated health 
information as important for students to learn before graduating from 
high school.\17\ School health programs have the potential to reach 53 
million young people in schools across America and have been 
demonstrated to be cost-effective in promoting healthy behaviors.\18\ 
Thus, we are only scratching the surface of the number of schools in 
America that should be coordinating the implementation of coordinated 
school health programs and comprehensive school health education. That 
is why NCHE supports a fiscal year 2003 appropriation of $35 million 
for the CDC DASH school health program, separate from DASH HIV/AIDS 
funding. In addition to expanding the funding base for coordinated 
school health programs at the state level, this $25 million increase 
would help state and local agencies that receive these monies to 
leverage local tax-based funding to better coordinate the many 
categorical health education programs that are offered in schools and 
by other community agencies.
---------------------------------------------------------------------------
    \17\ Marzane R, Kendall J, Cicchinelli L. What Americans believe 
students should know, a survey of U.S. adults. 1999: Aurora, CO: McREL.
    \18\ Collins J, Robin L, Wooley S, Fenley D, Hunt P, Taylor J, 
Haber D, Kolbe L. Programs-that-work: CDC's guide to effective programs 
that reduce health-risk behavior of youth. Journal of School Health. 
2002; 72:93-99.
---------------------------------------------------------------------------
    This is an investment in our future. Limiting the burden of chronic 
disease for our nation's health care system will pay enormous dividends 
in Federal dollars saved in coming decades. Improving health outcomes 
for children and youth can also improve their educational success as 
students, providing the educational foundation that fosters productive 
citizens. Finally, ensuring a healthy start for our young people 
lessens the eventual physical and emotional burden of chronic disease 
on our citizens and their families.
    In closing, I want to say that I understand the constraints under 
which all of the agencies of our Federal government must operate. But, 
I believe that, when it comes to the health of our children, the 
diagnosis is clear and a treatment is readily at hand. Expanding 
funding of school health programs is an efficacious and cost-effective 
prescription for the health of our children, one that will ensure our 
nation's future.\19\ It is a prescription that this committee should 
write for the American people.
---------------------------------------------------------------------------
    \19\ U.S. Centers for Disease Control and Prevention. Healthy 
Youth: An Investment in Our Nation's Future, 2002 [At-a-Glance]. 
Atlanta: CDC, 2002.
---------------------------------------------------------------------------
                                 ______
                                 
   Prepared Statement of the March of Dimes Birth Defects Foundation
    The March of Dimes is pleased to have the opportunity to submit 
testimony on behalf of its 1,600 staff and over 3 million volunteers, 
and share with you the Foundation's federal funding priorities for 
fiscal year 2003. As you may know, the March of Dimes is a national 
voluntary health agency founded in 1938 by President Franklin D. 
Roosevelt to prevent polio. Today, the Foundation works to improve the 
health of mothers, infants and children by preventing birth defects and 
infant mortality through research, community services, education, and 
advocacy. The March of Dimes is a unique partnership of scientists, 
clinicians, parents, members of the business community, and other 
volunteers affiliated with 55 chapters and 263 divisions in every 
state, the District of Columbia and Puerto Rico.
    The statistics on birth defects and developmental disabilities are 
very disturbing and illustrate a serious health problem facing our 
nation. Of the four million babies born each year in the United States, 
approximately 150,000 are born with one or more serious birth defects. 
Birth defects are the leading cause of infant mortality and responsible 
for about 30 percent of all pediatric hospital admissions. The lifetime 
economic costs of caring for infants born in a single year with a 
serious birth defect have been estimated at $8 billion. To be more 
specific, approximately 12 out of 1,000 school children have some 
discernable level of mental retardation; it has been estimated that as 
many as 2 in 1,000 children under age 15 may have an autism spectrum 
disorder; and as many as 2 in every 1,000 children have a moderate to 
severe hearing impairment in both ears. By adequate funding of the 
programs described below, Congress can take a significant step towards 
improving the health of mothers, infants and children.
            centers for disease control and prevention (cdc)
    The National Center on Birth Defects and Developmental Disabilities 
(NCBDDD) at the CDC began operation a year ago with the mission to 
improve the health of children and adults by preventing the occurrence 
of birth defects and developmental disabilities; and promoting health 
and wellness among children and adults with disabilities. The March of 
Dimes urges this Subcommittee to increase funding for the Center to 
$115 million in fiscal year 2003. This modest increase of $25 million 
will provide the resources necessary to expand the following activities 
supported by the Center.
Regional Centers for Birth Defects Research and Prevention
    NCBDDD currently funds regional ``Centers for Birth Defects 
Research and Prevention'' in Arkansas, California, Iowa, Massachusetts, 
New Jersey, New York, and Texas. Each center receives approximately 
$900,000 per year. The March of Dimes recommends adding $6 million 
($12.3 million total funding) to the budget for these regional centers. 
This increase will allow these centers to expand and intensify their 
groundbreaking research on genetic and environmental causes of birth 
defects. These seven centers and the eighth site at the CDC participate 
in the National Birth Defects Prevention Study, one of the largest 
studies ever conducted on the causes of birth defects. Each center has 
been collecting information about ``cases'' that have a major birth 
defect and ``controls'' which are infants with no birth defects. The 
mothers of both ``case'' and ``control'' infants complete an extensive 
telephone interview about their pregnancy and medical history, 
occupational and environmental exposures, lifestyle, diet, and 
medication use. These centers are also collecting cells from cheek 
swabs which are used to study genetic factors. Now, with 5 years worth 
of information collected, these data are being used in studies that 
will help identify the causes of birth defects. For example, the 
current studies focus on the effectiveness of various methods for the 
primary prevention of birth defects, the teratogenicity of various 
drugs, the environmental causes of birth defects, and the genetic 
factors that make people susceptible to birth defects, the behavioral 
causes of birth defects, and the costs associated with birth defects. 
This is exciting, leading edge research that merits additional support.
State Cooperative Agreements to Improve Birth Defects Tracking
    NCBDDD also funds the development, implementation, and expansion of 
state birth defects tracking systems, programs to prevent birth 
defects, and activities to improve access to health services for 
children with birth defects. CDC is now funding 28 cooperative 
agreements ranging in size from $100,000 and $200,000 a year for each 
of 3 years. The March of Dimes encourages the Subcommittee to add $3.4 
million ($7.5 million total funding) to state-based birth defects 
surveillance activities. As you may be aware, resources have not been 
adequate to fund all the states seeking CDC assistance. These 
additional resources are needed to help all the states seeking CDC 
assistance and to increase the level of assistance to states already 
receiving support.
Folic Acid Education Campaign
    Tracking and research are needed to develop and implement programs 
to prevent birth defects and developmental disabilities. Currently, 
NCBDDD is conducting a national education campaign designed to increase 
the number of women taking folic acid daily. Each year, an estimated 
2,500 babies are born with neural tube defects (NTDs). NTDs are birth 
defects of the brain and spinal cord, including anencephaly and spina 
bifida. CDC estimates that the annual medical care and surgical costs 
for persons with spina bifida in the United States exceed $200 million, 
and that up to 70 percent of NTDs could be prevented if all women of 
childbearing age consume 400 micrograms of folic acid daily, beginning 
before pregnancy. As a result of fortification of the grain supply with 
folic acid and increased educational outreach programs, CDC reports the 
rates of NTDs are down 19 percent since 1996. Increased funding will 
allow CDC to expand its folic acid campaign to reach more women of 
childbearing age and their health care providers. The March of Dimes 
recommends an appropriation of at least $5 million for fiscal year 2003 
to promote this lifesaving intervention.
                        additional cdc programs
National Immunization Program
    CDC's National Immunization Program provides grants to all 50 
states to reduce the incidence of disability and death resulting from 
vaccine preventable diseases. The March of Dimes encourages the 
Subcommittee to approve an fiscal year 2003 appropriation of $696 
million for the National Immunization Program. Increasing the funding 
by $65 million over fiscal year 2002 ($20 million increase for 
operations/infrastructure grants awards to states and $45 million 
increase for the purchase of vaccines) would help ensure that those in 
need of immunizations receive them and we are able to meet our goals of 
vaccinating 90 percent of children and adults.
Polio Eradication
    The March of Dimes was founded to find ways of preventing 
poliomyelitis. Although success in developing the Salk and Sabin 
vaccines enabled the Foundation to take on a new set of challenges, we 
continue to support completing the task of polio eradication worldwide. 
Global polio eradication will save lives and reduce unnecessary health-
related costs. The March of Dimes supports a funding level of $106.4 
million for CDC's fiscal year 2003 global polio eradication activities. 
If approved, the additional $4 million would help cover the costs 
associated with a 33 percent increase in the price of the polio vaccine 
in 2001 that has reduced the amount of doses that CDC has been able to 
procure.
                  national institutes of health (nih)
    In keeping with this Committee's 5-year goal of doubling funding 
for the National Institutes of Health, the March of Dimes supports the 
President's proposed $27.3 billion appropriation for NIH in fiscal year 
2003. However, the Foundation is concerned with some allocations 
recommended by the Administration and suggests the following 
adjustments.
National Institute for Child Health and Human Development (NICHD)
    The mission of NICHD is closely aligned with that of the March of 
Dimes. The Foundation recommends an increase of 16 percent for NICHD, 
bringing total funding for this Institute to $1.296 billion. With this 
increase in funding, NICHD could expand research in several areas that 
are crucial to the health of mothers and children. Additional funds 
would permit expansion of research into the causes of birth defects, 
and also the causes of prematurity. Increased funding would also enable 
NICHD to accelerate the timetable for implementing a much-needed 
analysis of environmental influences on child health and development 
that will be conducted as part of the National Children's Study 
authorized by the Children's Health Act of 2000.
National Human Genome Research Institute
    Finally, the March of Dimes supports the important work of the 
National Human Genome Research Institute. The Human Genome Project has 
identified the sequence of DNA comprising human genes, but this is just 
the beginning; now, researchers are working to identify every gene, 
learn their functions, learn how they contribute to disease and 
determine what can be done to prevent and treat disease more 
effectively. Obviously, with the enormity of the task ahead, additional 
funding would expedite the remaining work associated with this 
proposal. The Foundation supports the President's requested funding 
level for the National Human Genome Research Institute and urges the 
committee's support.
          health resources and services administration (hrsa)
Maternal and Child Health Block Grant
    The Maternal and Child Health (MCH) block grant funds community-
based services such as home visiting and respite care for children with 
special health care needs. MCH complements Medicaid and the State 
Children's Health Insurance Program by providing ``wrap-around'' 
services and by targeting underserved areas. The March of Dimes 
recommends fully funding the block grant at the authorized level of 
$850 million. Additional funding would enable states to expand prenatal 
and infancy home visitation programs, a proven prenatal care strategy 
that helps improve birth outcomes. The 900,000 children with special 
health care needs who use MCH services would also benefit as increased 
resources would enable states to raise spending limits for durable 
medical equipment, home visiting, respite care, physical and 
occupational therapy visits, and other supportive health services.
Newborn Screening
    One of the great advances in preventive medicine has been the 
introduction of newborn screening. Newborn screening is a public health 
activity used to identify certain genetic, metabolic, hormonal and/or 
functional conditions in newborns. As the Committee members know, such 
disorders, if left untreated, can cause death, disability, mental 
retardation and other serious problems. Although nearly all babies born 
in the United States undergo newborn screening tests for genetic birth 
defects, the number and quality of these tests vary from state to 
state. The March of Dimes recommends that every baby born in the United 
States receive, at a minimum, a core set of 10 screening tests.\1\
---------------------------------------------------------------------------
    \1\ The March of Dimes recommends that every baby born receive the 
following ten newborn screening tests: phenylketonuria (PKU); 
congenital hypothyroidism, congenital adrenal hyperplasia (CAH); 
biotinidase deficiency; maple syrup urine disease; galactosemia; 
homocystinuria; sickle cell disease; medium-chain acyl-CoA 
dehydrogenase (MCAD) deficiency; and hearing screening.
---------------------------------------------------------------------------
    The March of Dimes proposes an appropriation of $25 million to 
support HRSA's work with states to implement the heritable disorders 
(newborn screening) program authorized in Title XXVI of the Children's 
Health Act of 2000. This program is designed to strengthen states' 
newborn screening programs; to improve states' ability to develop, 
evaluate, and acquire innovative testing technologies; and to establish 
and improve programs to provide screening, counseling, testing and 
special services for newborns and children at risk for heritable 
disorders.
    In addition, the March of Dimes is deeply concerned that the 
President's fiscal year 2003 budget proposal eliminates funding for the 
Universal Newborn Hearing Screening program at HRSA. There is clear 
evidence that children who are identified early and receive intensive 
early intervention perform as much as 20-40 percentile points higher 
than children who do not receive such intervention on school related 
measures (reading, arithmetic, vocabulary, articulation, percent of the 
child's communication understood by non-family members, social 
adjustment and behavior) than children who do not receive such early 
intervention. This program is funded at a level of $10 million this 
year. The Foundation recommends a $1 million increase to $11 million 
for fiscal year 2003.
Consolidated (Community) Health Centers
    The March of Dimes also supports the Consolidated (Community) 
Health Centers program because these centers are an important source of 
obstetric and pediatric care for nearly 11 million individuals, 4.5 
million of whom are uninsured. The Foundation would like to be on 
record in support of additional funding sufficient to increase both the 
number of Centers and to improve the scope of perinatal services 
offered. Additional funds would be consistent with the President's 5-
year plan to create new or expand health center sites in 1,200 
communities and increase the number of patients served annually to more 
than 16 million.
           agency for healthcare research and quality (ahrq)
    The March of Dimes is deeply concerned by the President's proposed 
$48 million cut in funding for the Agency for Healthcare Research and 
Quality (AHRQ). AHRQ supports research designed to improve the quality 
of healthcare, reduce its cost, improve patient safety, decrease 
medical errors, and broaden access to essential health services. If 
approved, this decrease in funding would endanger the completion of 
many vitally important studies on children's health. Two examples 
specifically related to the mission of the March of Dimes are a study 
focusing on racial/ethnic variations in managing prematurity and infant 
mortality and the development of quality-of-care measurements for high-
risk (very low birthweight) infants. The March of Dimes supports a 
fiscal year 2003 budget allocation of $390 million for the Agency for 
Healthcare Research and Quality, a $90 million increase over fiscal 
year 2002 and a $138 million increase above the President's budget 
request. The research conducted by AHRQ is more relevant and more 
needed than ever.
    Thank you for the opportunity to testify on the programs of highest 
priority to the March of Dimes. The staff and volunteers of the March 
of Dimes look forward to working with members of the Subcommittee to 
improve the health of mothers, infants and children.
                                 ______
                                 
               Prepared Statement of Rotary International
    Rotary International appreciates this opportunity to submit 
testimony in support of the polio eradication activities of the U.S. 
Centers for Disease Control and Prevention (CDC). The effort to 
eradicate polio has been likened to a race--a race to reach the last 
child. As in any race, discipline, commitment, and endurance are 
indispensable elements of success. This race requires the discipline to 
remain focused on the task at hand. We cannot allow ourselves to become 
complacent as we approach the finish line. Though we sense victory is 
near, a single misstep could jeopardize all we have accomplished. This 
race requires the commitment to make the sacrifices necessary to 
achieve success. The major partners in the global polio eradication 
effort have joined with national governments around the world in an 
unprecedented demonstration of commitment to this historic public 
health goal. As the initiative runs its course, total victory can only 
be guaranteed through continued and unwavering commitment to the goal 
of a polio-free world. This race requires the endurance necessary to 
maintain our current activities. We cannot allow the great distance we 
have traveled to diminish our resolve. Though we may be weary from a 
race that has now lasted years, our adversary is weakening. The victory 
over polio is closer than ever!
    Rotary International is extremely grateful for the committee's 
tremendous commitment to this effort. Without your support of the CDC's 
polio eradication activities, the battle against polio would be 
impossible.
    The global eradication strategy is working. In 1985, when Rotary 
began its PolioPlus Program, 125 nations around the world were polio-
endemic. At the end of 2001, only 10 countries remained polio-endemic. 
The Western Hemisphere has now been polio-free since 1991, and the 
Western Pacific region was certified polio-free in October of 2000. The 
European Region is expected to be certified polio-free later this year. 
Today polio is confined only to seven African countries and three 
countries of South Asia (Exhibit A).
    Thanks to polio eradication efforts, more than four million 
children who might have been polio victims are walking and playing 
normally. Tens of thousands of public health workers have been trained 
to investigate cases of acute flaccid paralysis and manage massive 
immunization programs. Cold chain, transport and communications systems 
for immunization have been strengthened. A network of 147 polio 
laboratories has been established to analyze suspected cases of polio 
and monitor transmission of polio. This network will continue to 
support the surveillance of other diseases long after polio has been 
eradicated.
    Although we are running the final miles of the race against polio, 
significant challenges lie before us. Continued political commitment is 
essential in polio endemic countries, to support the acceleration of 
eradication activities, and in donor countries, so that the necessary 
human and financial resources are made available to polio-endemic 
countries. Access to children is needed, particularly in countries 
affected by conflict. Truces must be negotiated if National 
Immunization Days (NIDs) are to proceed in these countries. Polio-free 
countries must maintain high levels of routine polio immunization and 
surveillance. The continued leadership of the United States is critical 
if we are to overcome these challenges.
    Since 1985, Rotary International, a global association of more than 
30,000 Rotary clubs, with a membership of over 1.2 million business and 
professional leaders in over 160 countries, has been committed to 
battling this crippling disease. In the United States today there are 
some 7,500 Rotary clubs with nearly 400,000 members. All of our clubs 
work to promote humanitarian service, high ethical standards in all 
vocations, and international understanding. Rotary International stands 
beside the United States Government and governments around the world to 
fight this disease by providing local volunteer support of National 
Immunization Days, raising awareness about polio eradication, and 
contributing significant financial support for the initiative. In 2002, 
members of Rotary clubs around the world have committed to raising an 
additional U.S. $80 million beyond the over U.S. $460 million already 
committed to ensure the goal of global polio eradication is achieved. 
Rotary International firmly believes that that the vision of a world 
without polio can be realized and that the time for action is now.
    In the United States, Rotary has formed the United States Coalition 
for the Eradication of Polio, a group of committed child health 
advocates that includes Rotary, the March of Dimes Birth Defects 
Foundation, the American Academy of Pediatrics, the Task Force for 
Child Survival and Development, the United Nations Foundation, and the 
U.S. Fund for UNICEF. These organizations join us in expressing our 
gratitude to you for your staunch support of the international program 
to eradicate polio. Over the past several years, you have steadily 
increased your appropriation for the polio eradication activities of 
the Centers for Disease Control and Prevention, and for fiscal year 
2002 you appropriated a total of $102.4 million for the CDC's overseas 
polio eradication efforts. This investment has made the United States 
the leader among donor nations in the drive to eradicate this crippling 
disease.
                    fiscal year 2003 budget request
    For fiscal year 2003, we respectfully request that you provide 
$106.4 million for the targeted polio eradication efforts of the 
Centers for Disease Control and Prevention--a $4 million increase from 
the fiscal year 2002 funding level. This $4 million increase is 
necessary to respond to the rising cost of oral polio vaccine, which 
has increased by about 33 percent since 1999. In addition, we must 
continue to meet the enormous costs of eradicating polio in its final 
stronghold--sub-Saharan Africa. The underdeveloped and conflict-torn 
countries of Africa represent the greatest challenges to the success of 
the global Polio Eradication Initiative. This appropriation will allow 
the CDC to help African nations accelerate polio eradication 
activities, improve surveillance for polio and other diseases, and 
support peace-building cease-fires for National Immunization Days. 
Without the additional $4 million, we may not be able to purchase 
sufficient levels of oral polio vaccine, prolonging the need to 
continue expensive NIDs and routine immunization worldwide. The time 
for the final assault against polio is now.
    In 1998 the Chairman of the House Committee on International 
Relations commissioned the General Accounting Office to investigate the 
soundness of WHO cost estimates for the eradication or elimination of 
seven infectious diseases. The United States was a major force behind 
the successful eradication of the smallpox virus, and the GAO concluded 
that the eradication of smallpox has saved the United States some $17 
billion to date. Although polio-free since 1979, the United States' 
public and private sectors currently spend about $350 million annually 
to protect its newborns against the threat of importation of the 
poliovirus, in addition to its investment in international polio 
eradication. Globally, over $1.5 billion U.S. are spent annually to 
immunize children against polio. This figure does not even include the 
cost of treatment and rehabilitation of polio victims, nor the 
immeasurable toll in human suffering which polio exacts from its 
victims and their families. Once polio is eradicated, the possibility 
of discontinuing polio vaccination and applying the resources elsewhere 
can be considered.
           progress in the global program to eradicate polio
    Thanks to your leadership in appropriating funds, the international 
effort to eradicate polio has made tremendous progress.
  --Since the global initiative began in 1988, more than 4 million 
        children in the developing world, who otherwise would have 
        become paralyzed with polio, are walking because they have been 
        immunized.
  --The number of polio cases has fallen from an estimated 350,000 in 
        1988--of which 35,000 were reported--to less than 1,000 in 2001 
        (Exhibit B). More than 200 countries and territories are polio-
        free, including 4 of the 5 most populous countries in the world 
        (China, United States, Indonesia and Brazil). Bangladesh, the 
        world's eighth most populous country, experienced its first 
        year without polio in 2001.
  --Almost 2 billion children worldwide have been immunized during NIDs 
        in the last 5 years, including 150 million in a single day in 
        India.
  --Less than 1,000 confirmed polio cases were reported to WHO for 
        2001. As a result of routine polio immunization, NIDs and 
        house-to-house mopping-up activities, there has been a 99 
        percent decline in reported polio cases since 1988.
  --Of the three types of wild poliovirus, Type 2 has not been seen 
        since October of 1999, and appears to have been eradicated.
  --All polio-endemic countries in the world have conducted NIDs. The 
        achievement of successful NIDs and implementation of Acute 
        Flaccid Paralysis (AFP) surveillance in Somalia and Sudan shows 
        that polio eradication strategies can be implemented even in 
        countries affected by civil unrest.
    the role of the u.s. centers for disease control and prevention
    Rotary commends the CDC for its leadership in the global polio 
eradication effort, and greatly appreciates the Subcommittee's support 
of the CDC's polio eradication activities. For 2002, the Subcommittee 
appropriated a total of $102.4 million for the CDC's global polio 
eradication activities. Because of Congress' unwavering support, in 
2001 the CDC is:
  --Supporting the international assignment of more than 110 long-term 
        epidemiologists, virologists, and technical officers to assist 
        the World Health Organization and polio-endemic countries to 
        implement polio eradication strategies, and 16 technical staff 
        to assist UNICEF and polio-endemic countries. This includes 30 
        CDC staff on direct assignment to WHO and UNICEF.
  --Providing nearly $60 million to UNICEF for approximately 590 
        million doses of polio vaccine and $9 million for operational 
        costs for NIDs in some 60 countries in Asia, Eastern Europe, 
        the Middle East and Africa. A 33 percent increase in polio 
        vaccine costs in 2001 has reduced the number of doses that can 
        be procured with CDC funds. Many of these NIDs would not take 
        place without the assurance of the CDC's support.
  --Providing over $16 million to WHO for surveillance, technical staff 
        and NIDs' operational costs, primarily in Africa. As successful 
        NIDs take place, surveillance has emerged as a critical need to 
        determine where polio cases continue to occur. Effective 
        surveillance can save resources by eliminating the need for 
        extensive immunization campaigns if it is determined that polio 
        circulation is limited to a specific locale.
  --Training virologists from all over the world in advanced poliovirus 
        research and public health laboratory support. The CDC's 
        Atlanta laboratories serve as a global reference center and 
        training facility.
  --Providing the largest volume of both operational (poliovirus 
        isolation) and technologically sophisticated (genetic 
        sequencing of polio viruses) lab support to the 147 
        laboratories of the global polio laboratory network. CDC has 
        the leading specialized polio reference lab in the world.
  --Serving as the primary technical support agency to WHO on 
        scientific and programmatic issues regarding: (1) laboratory 
        containment of wild poliovirus stocks following polio 
        eradication, and (2) when and how to stop polio vaccination 
        worldwide following global certification of polio eradication 
        in 2005.
                  other benefits of polio eradication
    Increased political and financial support for childhood 
immunization has many documented long-term benefits. Polio eradication 
is helping countries to develop public health and disease surveillance 
systems useful in the control of other vaccine-preventable infectious 
diseases. Already, with the exception of one country (Venezuela), Latin 
America is free of measles, due in part to improvements in the public 
health infrastructure implemented during the war on polio. The disease 
surveillance system--the network of laboratories and trained personnel 
established during the Polio Eradication Initiative--is now being used 
to track measles, rubella, yellow fever, meningitis, and other deadly 
infectious diseases. NIDs for polio have been used as an opportunity to 
give children essential vitamin A, which, like the polio vaccine, is 
administered orally. The campaign to eliminate polio from communities 
has led to increased public awareness of the benefits of immunization, 
creating a ``culture of immunization'' and resulting in increased usage 
of primary health care and higher immunization rates for other 
vaccines. It has improved public health communications and taught 
nations important lessons about vaccine storage and distribution, and 
the logistics of organizing nation-wide health programs. Additionally, 
the unprecedented cooperation between the public and private sectors 
serves as a model for other public health initiatives. Polio 
eradication is the most cost-effective public health investment, as its 
benefits accrue forever.
        resources needed to finish the job of polio eradication
    The World Health Organization estimates that $1 billion is needed 
from donors for the period 2002-2005 to help polio-endemic countries 
complete the polio eradication strategy. Great strides have been made 
in meeting the financial requirements of the polio eradication 
initiative, but it will take the continued political and financial 
commitment of both donor nations and polio-endemic countries to 
overcome the challenges posed in these final years. In the Americas, 
some 80 percent of the cost of polio eradication efforts were borne by 
the national governments themselves. However, as the battle against 
polio is taken to the poorest, least-developed nations on earth, and 
those in the midst of civil conflict, many of the remaining polio-
endemic nations can contribute only a small percentage of the needed 
funds. In some countries, up to 100 percent of the NID and other polio 
eradication costs must be met by external donor sources. We are asking 
that the United States continue to take the leadership role in 
supporting the polio eradication initiative.
    The United States' commitment to polio eradication has stimulated 
other countries to increase their support (Exhibit C). Thanks to the 
leadership of the United States government, the per capita 
contributions to the global polio eradication initiative of several 
countries, including the United Kingdom, The Netherlands, and even the 
tiny country of Luxembourg now exceed $1. Other countries that have 
followed America's lead and made special grants for the global Polio 
Eradication Initiative include Japan, which has expanded its support to 
polio eradication efforts in Africa. Germany has made major grants that 
will help India eradicate polio. In 2001 the United Kingdom announced 
two multi-year grants totaling U.S. $135 million for polio eradication 
efforts in India and have committed to providing an additional U.S. $70 
million in global funds. Since May 2000, the Netherlands has committed 
$110 million for global polio eradication.
    By the time polio has been eradicated, Rotary International expects 
to have expended more than $500 million on the effort--the largest 
private contribution to a public health initiative ever. Of this, $462 
million has already been allocated for polio vaccine, operational 
costs, laboratory surveillance, cold chain, training, and social 
mobilization in 122 countries. More importantly, we have mobilized tens 
of thousands of Rotarians to work together with their national 
ministries of health, UNICEF and WHO, and with health providers at the 
grassroots level in thousands of communities.
    Your discipline, commitment and endurance have brought us to the 
brink of victory in the great race against this ancient scourge. Polio 
cripples and kills. It deprives our children of the capacity to run, 
walk and play. Other great health crises loom on the horizon. The work 
you have done and that which we ask you to continue will ensure that 
today's children possess the strength and vitality to run the race on 
behalf of future generations.
    Thank you for this opportunity to submit testimony. 




    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
     Prepared Statement of the National Coalition of STD Directors
    The National Coalition of STD Directors is a coalition of directors 
of state and local STD programs and is dedicated to reducing the 
incidence of sexually transmitted disease in the United States and 
territories. NCSD provides national leadership in the development of 
responsible public policies to achieve this goal. One of the challenges 
that we in the STD community face when asking for resources is that the 
term STD is almost a misnomer. When we speak about STD, we speak of not 
just one disease, but many--each with its own clinical course, its own 
treatment and its own consequences. Our budget request for $247.4 
million--an $80 million increase--for fiscal year 2003 reflects some of 
the public health fronts of STDs.
    Our two top STD priorities for fiscal year 2003 are infertility/
chlamydia prevention and syphilis elimination. The reasons are 
summarized below and expanded upon in the following pages.
  --Chlamydia is the number one most commonly reported disease in the 
        United States--eople contract chlamydia each year; the annual 
        cost of direct treatment for chlamydia is nearly $400 million.
  --Although preventable and curable, chlamydia is the leading cause of 
        infertility among women.
  --After a decade of decline, rates were on the increase in 2001. This 
        increase can be seen in almost every region of the country.
  --With current programs in place we are reaching only 28 percent of 
        women at risk in our 30 most populous states. In the remaining 
        20 states, we reach 50 percent of women at risk.
  --NCSD is asking for a $13 million increase for syphilis elimination; 
        if this figure is reduced or diluted, then syphilis elimination 
        cannot and will not be achieved and CDC will be forced to 
        abandon the National Plan to Eliminate Syphilis.
  --Syphilis elimination is a time sensitive effort and needs to be 
        done when rates are low and we are right now at a historic low. 
        The current window is closing as we are once again seeing an 
        increase in syphilis outbreaks in a few areas of the country. 
        History teaches us that our next chance to eliminate syphilis 
        will not be for another 10 years. Resources are needed now. 
        Otherwise, next year we will be talking about syphilis control, 
        not syphilis elimination.
                         infertility prevention
    The Infertility Prevention Program (IPP) is a CDC demonstration 
project that has become an STD success story. In the areas where it has 
been implemented, this program has been hugely successful in reducing 
rates of chlamydia--the chief cause of infertility in the United 
States--and has increased the extent of chlamydia screening and 
treatment services available to women who were in need of such but had 
little or no access to it.
    According to the CDC, chlamydia has become the most frequently 
reported infectious disease in the United States and a primary cause of 
infertility among young women. We know with some precision the extent 
to which this effort is cost effective: for $1 spent on screening and 
treatment of chlamydia, we save $12 in complications that result from 
untreated chlamydia. In the northwestern United States, where the 
Infertility Prevention Program began, chlamydia rates have dropped by 
62 percent over 5 years; in the Mid-Atlantic States, the number of new 
cases declined by one-third. However, in the rest of the country, 
current resources only allow for the testing of less than 20 percent of 
women who present at STD and family planning clinics.
    A new generation of laboratory test provides us with a more 
powerful tool to identify more of these infections. New technologies 
allow us to test people at high risk who are less likely or unable to 
come to clinics. Although these new technologies are not cheap, they 
allow us to expand the testing net and identify many cases that would 
previously have gone undetected.
Request for Infertility Prevention--$41.5 million increase
    Expand chlamydia screening to 75 percent of at-risk women in each 
of 65 CDC-funded STD project areas across the United States, conduct 
applied research to enhance chlamydia and gonorrhea screening and 
prevention and enhance gonorrhea screening and surveillance activities 
across the United States.
                          syphilis elimination
    Among the array of unique STDs, syphilis is singular for the 
following reason: with the exception of a few isolated pockets, it is 
now virtually non-existent in most areas of the country and we stand 
poised on the brink of eliminating this scourge. However syphilis 
control is not a success story. Rather, the fact that it still is 
prevalent in a number of areas highlights a glaring failure in the 
American public health system and illustrates the gaps in our capacity 
to control infectious diseases.
    This is not the first time we have been at the brink of syphilis 
elimination. Since the introduction of penicillin and the organization 
of a national STD control program in the 1940s, we have stood on this 
brink not once but several times. Every one of those near-elimination 
moments has been followed by a national syphilis epidemic, each one 
more serious than the one before.
    We are currently at a point in time in which the number of reported 
cases is close to historic lows. These lows signal yet another 
opportunity to eliminate syphilis. But history has taught us that this 
will not last--not without a focused national effort and resources. We 
are beginning to see increased numbers of cases in some cities; use of 
the Internet is one of several factors. We need to address these 
without delay.
    Congress has been very supportive of the CDC's efforts to eliminate 
syphilis transmission in the United States. The current plan to 
eliminate syphilis incorporates the strengths of previous efforts and 
addresses their shortcomings by specifically including affected 
communities in creating local solutions.
Request for Syphilis Elimination Campaign--$13.0 million increase
    Replicate projects based on the success of demonstration sites 
located in Nashville, TN; Indianapolis, IN; and Raleigh, NC, expand 
Rapid Response capabilities and establish enhanced surveillance, 
outbreak response, health promotion, and community involvement to 
address reemerging syphilis and new increases among Hispanics.
                               viral stds
    Viral STDs, like herpes simplex virus (HSV) and human 
papillomavirus (HPV), are truly uncharted territories for STD programs. 
Over 45 million Americans--almost 26 percent of the United State 
population--are infected with herpes simplex virus (HSV), a treatable 
but incurable viral STD. We estimate that HSV costs the United States 
$208 million in direct medical costs alone each year.
    An estimated 20 million Americans are infected with HPV, the cause 
of about 90 percent of all cervical cancer cases. In the United States, 
we see approximately 14,000 cases of cervical cancer each year and 
5,000 deaths. It is estimated that HPV costs the United States $1.6 
billion in direct medical costs alone each year. Thus, primary 
prevention programs for HPV infections can become a new and powerful 
tool for cervical cancer prevention. Improved screening and treatment 
of HSV and HPV is fundamental to reduce the rates of transmission. 
Enhanced funding will increase the availability of new screening tools 
and allow for an increase in public and provider awareness campaigns to 
reduce the spread of HSV and HPV. In 1997, the attendant treatment 
costs of HPV alone were estimated to be nearly $4 billion.
    Development of primary prevention programs for viral STDs is 
critical. We need to improve availability and delivery of screening 
tests; make treatment more available; develop and evaluate model 
educational and prevention messages; and, test new surveillance methods 
that can be used by all STD prevention programs nationally.
Request for Building a Response to non-HIV Viral STDs--$9.5 million 
        increase
    Establish four demonstration projects focusing on health promotion 
and clinical services for HSV prevention, develop HSV surveillance and 
evaluation capacity, and applied research on HSV to inform development 
of national efforts to address non-HIV viral STDs, develop and evaluate 
HPV educational messages and expand HPV sentinel surveillance efforts.
                     std prevention and adolescents
    Adolescents are at an increased risk for STDs due to biology, 
behavior, and social factors. More than half of teenagers aged 15-19 
years are sexually experienced, and more than one quarter of all new 
cases of STDs occur in adolescents. By age 24, at least one in three 
sexually active people will have contracted an STD. There are already 
numerous programs funded through multiple funding streams to conduct 
disease and pregnancy prevention interventions among adolescents across 
parents, medical care providers, schools, media and other domains such 
as community-based organizations and faith communities. The component 
that many of these attempts are lacking is the availability of clinical 
care and laboratory screening services. Promoting health-service-
seeking behaviors through targeted education--education that includes 
abstinence--is not going to be successful unless the services for 
screening and treatment are readily available.
Request for STD Prevention related to Adolescents--$7.5 million 
        increase
    To expand integrated intervention trials for STD approaches among 
adolescents across parents, medical providers, schools, media, and 
faith communities to increase access and utilization of health service 
and facilitate healthier sexual behaviors; increase STD screening of 
adolescents, and strengthen surveillance activities.
                std treatment to enhance hiv prevention
    This component of our budget request focuses on the causal link 
between STD and HIV. A person with a pre-existing STD has a three to 
five fold greater risk of acquiring HIV/AIDS. A recent study has shown 
that testing and treating STDs resulted in a 43 percent reduction in 
HIV rates. Funding earmarked for STD treatment to enhance HIV 
prevention will assist in establishing five demonstration projects to 
provide on-site STD screening, treatment, and related services in 
settings serving HIV infected and at-risk individuals. Without adequate 
funding, program constraints inhibit these critical joint activities.
Request for STD Treatment to Enhance HIV Prevention--$5.5 million 
        increase
    Establish five demonstration projects to provide on-site STD 
screening, treatment, and related services in settings serving HIV 
infected and at-risk individuals; augment HIV Community Planning Groups 
to focus on STD data issues, detection, and treatment in project areas 
with syphilis or gonorrhea rates above the Healthy People 2000 targets; 
expand community-based organization efforts currently focusing 
primarily on HIV; expand STD clinical services in HIV treatment and 
referral facilities to address STD increases among gay men and 
Hispanics.
                      strengthen core std services
    One of our most pressing needs is adequate funding for 
surveillance, treatment and partner referral. While these terms sound 
benign, and do not seem to have the same urgency as the words 
``chlamydia'' or ``herpes'', they incorporate our most essential 
services--testing, treating, training and referrals are cornerstones of 
STD prevention. We have seen a dramatic rise in the number of people 
seeking services from our clinics and a drop in our ability to provide 
them with services. A 1996 CDC survey indicates that less than 50 
percent of local health departments in the U.S. provide clinical 
services for STDs and only 40 percent of existing clinics are able to 
provide services to clients on the same day they seek care. We know how 
to deal with most of these diseases but we are hamstrung by lack of 
funding for our basic services.
Request to Strengthen Core STD Services--$3.0 million increase
    To establish and expand training and partner services capacity as 
it relates to the expansion of STD-related services provided in managed 
care settings. Establish and strengthen health communications, 
surveillance, evaluation, and applied research related to the most 
efficient delivery of partner services in different settings including 
``safety net settings.'' Establish and expand training and partner 
services capacity as it relates to the expansion of STD-related 
services provided in managed care settings.
                                 ______
                                 
      Prepared Statement of the United Cerebral Palsy Associations
    The United Cerebral Palsy Associations (UCP) is one of the nation's 
largest disability organizations, serving more than one million 
Americans annually. UCP appreciates this opportunity to submit our 
recommendations for Fiscal 2003 appropriations for the Departments of 
Labor, Health and Human Services, and Education.
    Our nation must now pay for a war on terrorism. Yet we also must 
invest in our citizens with disabilities so they can attain their full 
potential as citizens and taxpayers. Investing in people with 
disabilities not only increases their economic productivity but also 
saves substantial federal funds by avoiding the high costs of 
institutionalization, welfare dependency, and other inappropriate 
expenses.
    More than 500,000 Americans with CP average $500,000 each in added 
lifetime medical costs, plus $20,000 to $30,000 annually for non-
medical support services such as personal-care attendants (often paid 
by Medicaid and other government programs). Adults with CP are 
estimated to average $300,000 in additional lifetime costs to the 
federal Supplemental Security Income program. Thus, CP research and 
prevention have the potential to return many dollars in federal savings 
for each federal dollar invested.
    To summarize, our Fiscal 2003 recommendations (with comparisons to 
President Bush's Budget and actual Fiscal 2002 funding levels) are:

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                                                                 -----------------------------------------------
                                                                                       2003          2003 UCP
                                                                    2002 actual      President      recommends
----------------------------------------------------------------------------------------------------------------
Technology State Programs.......................................            60.9            30.9            60.9
CDC Birth Defects & Developmental Disab. Center (including CP               90.6            90.0           125.0
 Centers of Excellence).........................................
Child Care & Development Block Grant............................         2,090.0         2,090.0         2,190.0
Individs. w/Disabs. Ed Act (IDEA) Pt. B State Grants............         7,528.5         8,528.5         9,980.0
Maternal & Child Health Block Grant (Title V)...................           731.5           731.5           850.0
Social Services Block Grant (Title XX)..........................         1,700.0         1,700.0         2,800.0
Pres. Bush's Respite Care Demonstrations (NEW)..................  ..............         ( \1\ )         ( \1\ )
Bush's Direct Service Worker (Aide) Demo (NEW)..................  ..............             9.0         ( \2\ )
Parents, Inc. (Alaska) (NEW)....................................  ..............  ..............             3.4
National Health Tracking Network (NEW)..........................  ..............  ..............         ( \3\ )
----------------------------------------------------------------------------------------------------------------
Note.--All figures are in $ Millions of Budget Authority. Budget Authority is used because it allows meaningful
  ``apples to apples'' multi-year comparisons. It may differ from Outlays due to factors including forward
  funding and advance appropriations. Sources: President's and agency budgets.
\1\ $207 million over 5 years but fiscal year 2003 amount not specified.
\2\ See text.
\3\ If authorizing statute is enacted in fiscal year 2003, funding should be a pro-rata partial-year amount
  based on a full first-year authorization of $127.5 million. This may require an fiscal year 2003 supplemental
  appropriation.

    We will now detail the reasons for our recommendations.
                          assistive technology
    The Assistive Technology Act of 1998 (ATA) authorizes funding for 
state programs that make loans to people with disabilities for a 
variety of equipment that helps them be active, productive citizens. 
Such items include specialized computers that synthesize speech for 
people unable to talk, wheelchair lock-in security devices for motor 
vehicles, and special bathroom and kitchen equipment that accommodates 
people with disabilities of the arms and legs.
    ATA phased in states' participation on a multi-year basis. Because 
of this phase-in, nine states (Arkansas, Colorado, Illinois, Kentucky, 
Maine, Maryland, Minnesota, Nebraska and Utah) were scheduled to be 
``phased out'' in fiscal year 2002 and lose all AT funding. The Labor-
HHS-Education subcommittees, in conjunction with congressional 
authorizing committees, continued funding for these states in fiscal 
year 2002. But if ATA is not re-authorized this year, no fiscal year 
2003 AT funding will be provided to those nine states or to fourteen 
other states: Alaska, Indiana, Iowa, Massachusetts, Mississippi, 
Nevada, New Mexico, New York, North Carolina, Oregon, Tennessee, 
Vermont, Virginia, and Wisconsin.
    President Bush's Budget assumes ATA will not be reauthorized; hence 
it includes a $30 million reduction, which would comprise a 49 percent 
cut compared to fiscal year 2002. The unemployment rate is 73.9 percent 
for working-age people with severe disabilities, with consequently high 
federal costs for income-support programs. UCP believes ATA State 
grants support the infrastructure that brings together people with 
disabilities and the assistive technology they need to communicate with 
their families and fellow workers as well as the ability to transport 
themselves to work. Without this infrastructure the loans that enable 
people with disabilities to buy such equipment would go unpublicized. 
This is a small investment with a very large positive result for people 
with disabilities.
  cdc national center on birth defects and developmental disabilities
    This Center, established by the Children's Health Act of 2000, 
became fully operational in fiscal year 2002. It is essential that this 
new Center be financially stable for two reasons. First, financial 
stability is needed to attract highly qualified federal career staff. 
Second, extramural researchers must be assured that funds will be 
available for worthy multi-year projects, or else they will turn to 
non-disability topics.
    President Bush's proposed Budget would cut the Center by $557,000 
(exclusive of inflation) and three full-time positions, which would be 
a step backward. UCP agrees with the Coalition for Children's Health 
recommendation that fiscal year 2003 funding be $125.0 million in order 
to allow the Center to fully implement its missions under the 
Children's Health Act of 2000 and other authorizing statutes.
    Within CDC, we are requesting $8.5 Million for the Centers for 
Disease Control to establish six Cerebral Palsy Research and Prevention 
Centers as extramural research units. This would be a new program. The 
incidence of cerebral palsy (CP) is increasing, and the more than 
500,000 Americans with CP average $500,000 each in added lifetime 
medical costs, plus $20,000 to $30,000 annually for non-medical support 
services such as personal-care attendants (often paid by Medicaid and 
other government programs). Adults with CP are estimated to average 
$300,000 in additional lifetime costs to the federal Supplemental 
Security Income program. Thus, CP research and prevention have the 
potential to return many dollars in federal savings for each federal 
dollar invested.
                 child care and development block grant
    For families with young children and monthly incomes under $1,200, 
childcare typically consumes 25 percent of income. When children have 
disabilities, childcare tends to cost an even larger share of income 
because extra staff training, equipment, and physical accommodations 
are required. Families of those children need even more help to obtain 
quality childcare, both in affording the care and in having access to 
childcare centers that can appropriately serve children with 
disabilities. For all these reasons, UCP strongly endorses H.R. 2787 
which would earmark a percentage of the total CCDBG appropriation for 
services to children with disabilities.
    Authorization for the CCDBG will expire on September 30, and is 
linked to re-authorization of the Temporary Assistance for Needy 
Families (TANF) program. If Congress substantially changes TANF or 
CCDBG, that could affect the appropriate level of CCDBG's fiscal year 
2003 appropriations. It is clear that President Bush's proposed, 
``level funding'' of $2.09 billion would be inadequate. It would not 
keep pace with inflation, let alone address any of the currently unmet 
need. UCP supports an fiscal year 2003 increase of $100 million to keep 
pace with inflation, as proposed in S. 18, S. 1000, H.R 265 and H.R. 
2097. Addressing current unmet needs may best be addressed as part of 
the pending reauthorization.
    Childcare is an essential factor in an individual's ability to 
work. For some parents caring for a child with a disability it may be 
appropriate to exempt them from TANF work requirements. For others, 
however, specialized childcare may be the key to opportunities to 
better the family economically. Childcare is a critical part of that 
success and needs to be adequately supported at the federal level.
 individuals with disabilities education act (idea) part b state grants
    We are pleased that President Bush's Budget increased federal 
funding of Part B of IDEA to 18 percent. The President, however, has 
not fulfilled the promise to federally fund 40 percent of the total 
costs of special education.
    Under IDEA local school districts are required to provide special 
education services to the nation's 6 million children with 
disabilities. Before IDEA, only 50 percent of children with 
disabilities received an appropriate education and 20 percent received 
no schooling. Now almost all children with disabilities receive an 
appropriate education and their high school graduation rate is steadily 
increasing.
    It is improper, however, that the federal government requirement to 
provide education for children with disabilities has been under funded 
by the federal government. This has forced states find billions of 
dollars from other educational programs. This is of particular concern 
this year because many state and local education agencies are facing 
major funding challenges due to both recessionary revenue reductions 
and the growth of special education costs.
    UCP supports fiscal year 2003 funding of $9.98 billion. This 
reflects the $2.45 billion annual increase proposed by the Harkin-Hagel 
Amendment (SA 360), which passed the Senate in 2001, as well as by S. 
466 (which has 30 co-sponsors) and H.R. 1330 (which has 73 co-
sponsors).
                 maternal and child health block grant
    By law, 30 percent of MCHBG funds must be spent for children with 
disabilities and other special needs; MCHBG also funds prenatal care 
for many uninsured pregnant women and other services. President Bush's 
proposed fiscal year 2003 funding level of $739 million, the same 
amount as approved for fiscal year 2002, does not keep pace with 
inflation or population growth.
    When children with ``special health care needs,'' i.e. physical, 
developmental and behavioral disabilities, lack health insurance 
coverage, the Maternal and Child Health Block Grant can pay for their 
required services. In fiscal 2002, approximately 1 million such 
children are being so served, but approximately 1.6 million such 
children will not receive needed services for lack of funding.
    In addition, MCHBG lacks funds to serve all uninsured pregnant 
women. Yet women who do not receive prenatal care have a rate of costly 
low-birthweight babies that is twice that of those who receive regular 
care.
    UCP therefore strongly urges MCHBG be funded at the full 
authorization level of $850 million.
                      social services block grant
    The Social Services Block Grant (Title XX of the Social Security 
Act) funds human services, which, in 38 states, includes services for 
people with disabilities. One example of how these funds are spent is 
in California where SSBG funds are used to provide direct care workers 
to support individuals with disabilities. Direct care workers provide 
people with disabilities assistance in routine matters of daily living, 
such as dressing and eating.
    Since fiscal year 1996, the SSBG program has been cut from $2.8 
billion down to the current $1.7 billion; a reduction that states have 
been unable to make up. President Bush's proposed fiscal year 2003 
level funding of $1.7 billion would exacerbate these problems.
    Increasing SSBG by 65 percent, to its full $2.8 billion authorized 
level, would mean that approximately 369,000 more adults and children 
with disabilities would receive services through this block grant. 
(This is based on the assumption that states and localities would 
continue to allocate their current proportions of SSBG dollars to 
services for people with disabilities; approximately 570,000 people 
with disability currently receive SSBG services, according to the HHS 
Administration on Children and Families.) An increase in SSBG funding 
is advocated by many Members of Congress, as demonstrated by relevant 
provisions of S. 501 (28 co-sponsors), S. 1924 (13 co-sponsors), and 
H.R. 1470 (72 co-sponsors). It also is supported by 80 national 
organizations including the National Conference of State Legislatures, 
the National Association of Counties, the U.S. Conference of Mayors, 
Catholic Charities USA, the United Jewish Communities, and Lutheran 
Services in America.
                      respite care demonstrations
    As a continuation of the President's New Freedom Initiative, HHS is 
proposing three new demonstrations on the mandatory side of the budget 
at a cost of $207 million over 5 years (fiscal year 2003 funding level 
not specified). Two of the demonstrations would provide respite 
services, one for caregivers of adults with disabilities and the other 
for caregivers of children with substantial disabilities. The third 
demonstration would make home and community based waiver services 
available to children residing in psychiatric residential treatment 
facilities. Although details on these demonstrations have not been 
released publicly, we support these demonstrations in principle.
            direct service worker (attendant) demonstration
    Many people with severe disabilities rely on personal attendants to 
help them perform daily activities such as eating, getting dressed, and 
using the bathroom. The bulk of these attendant services are paid for 
by Medicaid, but Medicaid payment rates in most states are very low, 
typically $6 to $10 per hour. And these rates are supposed to pay for 
not only attendant compensation but also provider agency costs such as 
recruitment, training, liability insurance, and required paperwork.
    It is not surprising that attendants' wages are typically $7 to $9 
per hour and that half lack employer-sponsored health insurance. UCP-
affiliated providers report attendant vacancy rates of 25 percent to 35 
percent, and 100 percent annual turnover rates. UCP Affiliates often 
must subsidize attendants' Medicaid payments with charitable 
contributions, and often cannot accept new clients even though the 
Supreme Court's Olmstead decree requires states to provide such 
community-based services to people with disabilities whenever feasible.
    The shortage of community attendants keeps many thousands of people 
with disabilities in institutions where the majority of the $100,000-a-
year per-person costs are paid by the federal share of Medicaid 
spending. Not only is this a costly approach but also it is not in 
keeping with the Olmstead Supreme Court decision.
    We applaud President Bush for proposing a $9 million demonstration 
program with the goal of reducing attendant vacancies and job turnover. 
UCP would, however, strongly urge the Committee to consider a larger 
demonstration currently being supported by a wide coalition of church 
groups, labor unions, nursing homes and disability advocates. That 3-
year demonstration would provide $500 million each year to increase 
wages and benefits for direct support workers and $100 million to study 
and publicize best practices in the recruitment, retention and training 
of direct support workers. The current shortage of direct support 
workers will only increase as the population ages. It is essential that 
the workforce be stabilized so that people with disabilities and aged 
Americans are not vying against each other for an inadequate workforce 
to care for their most basic needs of daily living.
                          parents, inc. alaska
    In conjunction with West Virginia, PARENTS, Inc of Alaska is 
requesting for $3 million to create a model that increases access to 
childhood development and early intervention information among parents 
who are challenged by their abilities and environments. PARENTS, Inc is 
also asking for:
  --$1 million to strengthen post-confinement outcomes for Alaskan 
        Native/Indian youth with disabilities in order to build skills 
        in the juvenile justice system;
  --$1 million for a technology in action program which will use 
        technology to develop and deliver customized training systems 
        to accommodate partnerships among Alaskan parents, special 
        education, general education personnel and related services to 
        improve performance of students with disabilities;
  --$1 million a parent-to-parent mentor and home visitation program 
        expansion; and $400,000 for capital improvement of the 
        Anchorage Statewide Parent Resource Center.
    We thank you for your consideration of our position and look 
forward to working with the Committee.
  national health tracking network for developmental disabilities and 
                             birth defects
    Reliable, timely data on the incidence and prevalence of specific 
diseases and disabilities are essential to determine the extent and 
causes of these problems and whether preventive measures are effective. 
Although the government collects such epidemiological data for many 
infectious diseases, it lacks this information for developmental 
disabilities such as cerebral palsy, collects data on birth defects 
such as spina bifida in only a few states, and has similar data 
limitations for asthma, childhood cancers, neurological diseases, and 
endocrine disorders.
    UCP supports a Nationwide Health Tracking Network to gather 
epidemiological data on disabilities and non-infectious diseases, as 
proposed in S. 2054/H.R. 4061 by Sens. Clinton, Reid and Kennedy and 
Reps. Pelosi and 36 co-sponsors. This legislation would provide state 
grants to increase tracking of on birth defects, developmental 
disabilities, asthma, children's cancers, neurological diseases, and 
endocrine disorders, as well as related financial assistance to CDC and 
university-based epidemiology programs. The bill would provide an 
annual authorization level totaling $127.5 million and has been 
endorsed by more than 85 groups including Aetna USHealthcare, American 
Heart Association, American Lung Association, March of Dimes, Breast 
Cancer Fund, and the United Steelworkers of America.
    Although this legislation has not yet been enacted, UCP believes 
that the need for it is so critical that, if it is enacted this year, 
the Subcommittee should consider either funding the full authorized 
amount as part of a supplemental appropriation or by adding an 
appropriations amendment to the bill itself.
    United Cerebral Palsy Associations, Inc. (``UCP'') is a Washington 
D.C.-based not-for-profit corporation incorporated in 1948. The mission 
of UCP is to advance the independence, productivity and full 
citizenship of people with cerebral palsy and other disabilities, 
through its commitment to the principles of independence, inclusion and 
self-determination. UCP is the leading source of information on 
cerebral palsy and is a pivotal advocate for the rights of all people 
with disabilities. UCP and its nationwide network of over 100 
affiliates in 40 states strive to ensure the inclusion of persons with 
disabilities in every facet of society.
                                 5_____
                                 
 Prepared Statement of the National Alliance of State and Territorial 
                             AIDS Directors
    The National Alliance of State and Territorial AIDS Directors 
(NASTAD), whose members are responsible for administering state HIV/
AIDS prevention and care programs nationwide, respectfully submits 
testimony for the record regarding federal funding for HIV/AIDS 
programs in the fiscal year 2003 Labor, HHS and Education 
Appropriations legislation. NASTAD appreciates the past support the 
Committee has given to these programs that are of the utmost importance 
to Americans living with HIV/AIDS.
    NASTAD believes that if we are going to reduce the number of 
persons being infected with HIV in the coming years and improve access 
to care and treatment for those Americans suffering with HIV/AIDS, we 
need to employ a mutli-faceted approach which relies on increased 
funding for the Title II programs of the Ryan White CARE Act and HIV/
AIDS prevention and surveillance programs at the Centers for Disease 
Control and Prevention (CDC). The deterioration of states' fiscal 
positions have left numerous state HIV prevention and care programs 
subject to state spending cuts. Currently, the cumulative state revenue 
shortfall is $40 billion and growing, leaving these important programs 
increasingly vulnerable to significant state funding cuts. NASTAD 
respectfully requests that the Labor, HHS, and Education Subcommittee 
ensure the financial vitality of these programs that are integral to 
reducing the number of new HIV infections and to the provision of 
prevention, care and treatment for response to the growing number of 
people living with HIV/AIDS.
    NASTAD respectfully requests an increase of $100 million in fiscal 
year 2003 for HIV prevention and surveillance cooperative agreements 
with state and local health departments and an increase of $212 million 
for state Ryan White CARE Act Title II grants for care and AIDS Drug 
Assistance Programs (ADAPs).
         hiv/aids prevention, surveillance and related programs
    The President's goal, as articulated in his fiscal year 2003 
budget, of reducing the number of new infections 50 percent by 2005, 
cannot be achieved without a sufficient funding commitment on the part 
of the federal government.meeting the growing needs of our communities 
to respond effectively to the increased numbers of new infections each 
year. State and local health departments play an integral role in not 
only reducing the number of new infections, but also increasing the 
number of people who know their HIV status and linking infected 
individuals to prevention, care and treatment services--all of which 
are goals of the CDC strategic plan. State and local health departments 
have shifted resources to better meet the changing face of the epidemic 
by working closely with affected communities through the HIV prevention 
community planning process and by building capacity and support for 
community-based organizations responding to the epidemic in their 
communities. To build on these successes and achieve the President's 
and CDC's goals, state and local health departments need more 
resources. As it stands, state and local HIV prevention programs funded 
by CDC receive less than half of the funds Congress allocates for HIV 
prevention programs.
    NASTAD respectfully requests a funding increase of $70 million for 
HIV prevention cooperative agreements with state and local health 
departments. We strongly believe this is a sound investment for the 
Subcommittee, as the reduction in new infections will save lifetime 
treatment costs. The increased resources will allow states to 
strengthen their science-based programs to target prevention 
interventions to HIV-infected persons to promote the adoption of 
behavior change to avoid further transmission; to expand faith-based 
initiatives; to reach partners of HIV-infected individuals and refer 
them into care; to provide capacity building and technical assistance, 
especially for administrative management, to community-based 
organizations; and to target outreach and HIV counseling and testing 
efforts that focus on populations at high-risk of infection including 
highly-impacted racial and ethnic minority communities, young gay men 
of color, substance abusers, women and youth in high-risk situations.
    NASTAD also respectfully requests an increase of $30 million in 
fiscal year 2003 for HIV/AIDS surveillance cooperative agreements with 
state and local health departments to strengthen HIV and AIDS case 
reporting, supplemental surveillance activities, seroepidemiology, 
behavioral surveillance, incidence modeling, and evaluation.
    NASTAD also respectfully requests an increase of $159 million for 
the Minority HIV/AIDS Initiative (MHAI) in fiscal year 2003. The MHAI 
provides targeted resources to address the growing HIV/AIDS epidemic 
and its disproportionate impact upon communities of color. State and 
local health departments view these additional resources as essential 
to reducing new infections in communities of color, by building the 
capacity of minority community-based organizations to tailor strategies 
that most effectively meet the needs of their communities.
    NASTAD respectfully requests an increase of $64 million in fiscal 
year 2003 for viral hepatitis programs at CDC in order to increase the 
ability of state and local health departments to integrate, as 
appropriate, hepatitis prevention, counseling, testing and medical 
referral services with HIV/AIDS prevention programs and to provide 
vaccines hepatitis A and B to high-risk adults.
    NASTAD respectfully requests an increase of $80 million in fiscal 
year 2003 for STD prevention, treatment and surveillance activities 
undertaken by state and local health departments.
                  hiv/aids care and treatment programs
    The federal government and states have a proven track record of 
working in partnership to respond to the unmet needs of low-income 
people living with HIV/AIDS, particularly through the Ryan White CARE 
Act (RWCA). Although funding for the RWCA has grown substantially over 
the past 10 years, federal and state funding have not kept up with the 
growth in demand for services, including the need for HIV/AIDS 
treatments through the state AIDS Drug Assistance Programs (ADAPs). The 
RWCA Title II Core program is the only federal funding stream that 
provides support for comprehensive primary care and essential 
supportive services for uninsured and underinsured people living with 
HIV/AIDS whether they reside in urban, suburban or rural communities. 
The states' RWCA care and treatment programs are safety net programs, 
being the payer of last resort and providing services to those most in 
need. With unemployment on the rise, increasing the ranks of the 
uninsured, states' RWCA programs, particularly ADAPs, are experiencing 
an increase in those seeking treatment with no other options in health 
care coverage. Without an infusion of new resources, states will be 
unable to maintain their existing programs, much less, enroll new 
clients.
    Title II Core programs provide an array of essential services 
including diagnostic, viral load testing and viral resistance 
monitoring, HIV care and treatment for vulnerable at-risk populations, 
and primary care networks that improve the overall HIV/AIDS care 
systems in states. Yet these programs continue to experience inadequate 
funding increases to match the pace of service demand. To sustain 
existing state HIV/AIDS care and treatment programs and to address the 
increase in demand for these services, NASTAD respectfully requests a 
total of $1.2 billion in fiscal year 2003 for state Ryan White CARE Act 
Title II grants. This reflects a proposed increase of $212 million over 
fiscal year 2002 funding, including an increase of $50 million for 
Title II Core programs and a $162 million increase for ADAPs.
    The federal/state partnership on ADAPs has significantly 
contributed to the decline in AIDS deaths since 1995. However, the 
number of people living with HIV is growing, therefore increasing the 
number of individuals to be served by state ADAPs. This growth is 
expected to continue due to states' intensive outreach and referral 
efforts to specifically target communities of color and the 
underserved. NASTAD's annual assessment of state ADAPs chart continuing 
growth in the number of clients served by ADAPs and the per client 
average costs of therapies used by ADAP clients nationwide. 
Specifically, as of January 2002, ADAPs are serving over 85,000 HIV 
infected individuals per month nationwide, with an average of 670 new 
clients per month. NASTAD's request of $162 million reflects client 
utilization and program expenditure projections for fiscal year 2003 
based on trend data collected over the past 6 years. Of the needed $162 
million increase, $30 million is necessary just to cover the jump in 
drug prices due to inflation. We also note that ADAPs have been 
underfunded for the past two fiscal years and continue to be unable to 
meet the needs of all those eligible. Several states have been forced 
to cap or restrict access to drug treatments. In addition, ADAPs 
continue to use every means necessary to reduce pharmaceutical costs, 
including participation in the federal 340B drug discount program and 
the development of innovative cost-saving alternatives such as 
insurance purchasing programs.
    Using cost estimates published in the literature, it has been 
projected that to turn the corner on the HIV/AIDS epidemic in this 
country, an additional investment of $1.5 billion in HIV prevention 
funding is needed. Funding of this magnitude would enable our 
prevention efforts to reach the 5 million individuals in this country 
estimated to be at serious risk of infection and in need of proven 
prevention interventions. It has also been estimated that to reach the 
300,000 individuals in this country who are HIV infected and unaware of 
their serostatus through targeted outreach, counseling and testing 
programs, an additional, sustained investment of $300 million per year 
is needed.
    As you craft the Labor, HHS, and Education Appropriations 
legislation for fiscal year 2003, NASTAD respectfully requests that you 
strongly consider all of these critical funding needs. It is essential 
that the United States continue to demonstrate its commitment to 
fighting the ongoing HIV/AIDS epidemic on the homefront and work to 
ensure that additional resources are available to meet the growing 
needs of the global HIV/AIDS pandemic. The National Alliance of State 
and Territorial AIDS Directors thanks the Chairman, Ranking Member and 
members of the Subcommittee, for their thoughtful consideration of our 
recommendations.
                                 ______
                                 
               Prepared Statement of Gallaudet University
    Congress has played a vital role in the higher education of deaf 
people in the United States through 138 years of continuous support for 
Gallaudet University. Congressional support of Gallaudet represents a 
commitment to and confidence in the aspirations of individuals with 
disabilities that is unique in the world. Each year I am grateful to 
have the chance to discuss with you the opportunities that have been 
opened to deaf Americans because of Gallaudet University.
    I would first like to express my profound appreciation to the 
Congress for its generous allocation of funding in fiscal year 2002 to 
support our efforts to upgrade security on the Gallaudet campus. As you 
know, during the previous year two of our students were tragically 
murdered and a third was arrested for these horrifying crimes. Because 
of these terrible events, we did a painstaking review of our campus 
security systems. We determined that, although our campus was very safe 
and our crime rate was quite low, we needed do everything in our power 
to ensure that events like this never happen again. If Gallaudet 
University is to flourish, we must be able to demonstrate to current 
and prospective students and their families that our campus is safe and 
secure, and this means that there had to be a substantial increase in 
the resources devoted to safety and security. Because of Congress's 
generosity, we have been able to implement the plans that we feel are 
needed to ensure the continuing safety of our students and employees. 
The need for continued attention to campus security has increased 
because of the tragic events of September 11, 2001. Paradoxically 
though, the negative impact of this event on the economy, including the 
stock market, has affected the availability of resources to support a 
continued commitment to security related improvements in addition to 
all of our other programmatic needs. Nevertheless, our campus is a much 
safer place today because of the generosity of Congress.
    For the past several years, Gallaudet has been engaged in the 
refinement of our strategic plan and in the process of working with the 
Department of Education to ensure that our plan fulfills the 
requirements of the Government Performance and Results Act (GPRA). 
Assessment of progress toward our goals, as tracked by GPRA indicators, 
is now an explicit part of the budget process. Gallaudet has made 
progress in achieving all three of its strategic objectives which focus 
on: student academic and career achievement, setting the standard for 
best educational practices for individuals who are deaf or hard of 
hearing, and establishing a sustainable resource base.
    In July of 2001, in a highly favorable report, Gallaudet University 
received reaffirmation of its accreditation by the Middle States 
Association of Colleges and Schools, Commission on Higher Education. 
The Middle States Association Accreditation Report recognized the 
successful integration of technology into instruction at Gallaudet. 
More than 65 percent of students and 45 percent of faculty use 
Gallaudet's online learning system (Gallaudet Dynamic Online 
Collaboration). The Middles States report concluded with this 
outstanding affirmation of Gallaudet's role in American higher 
education:

    ``Many American universities these days spend a great deal of time 
fabricating reasons to declare themselves unique. Gallaudet University, 
the MSA team is convinced, truly is unique. Gallaudet is unique in its 
student body of deaf and hard-of-hearing students, unique in the 
daunting challenges with which those students present the 
administrative staff and faculty, and unique in the very real diversity 
those students bring to the institution. Gallaudet's achievement of a 
minority population of 24 percent is an extraordinary accomplishment, 
one your visiting colleagues, from the vantage points of our various 
institutions can only envy. We envy as well the very substantial 
contribution the University is making to improve the lives and futures 
of deaf and hard-of-hearing individuals in America and throughout the 
world. Every college these days has a mission statement; Gallaudet 
actually has a mission.''

    In order for Gallaudet to continue to serve a critical function for 
people who are deaf in the United States and the world, it is vital 
that we increase the number of students who graduate. To that end, we 
are using different but interrelated approaches. We have continued to 
upgrade our technological infrastructure and infuse the most advanced 
technology into all of our programs of instruction and research, as 
well as into our administrative and student assessment functions. As 
technology redefines the landscape of education and the workplace, 
Gallaudet is re-examining how it can ensure that our students are 
prepared to become effective users, consumers, and producers of 
technology. The University is employing technologies that support all 
types of learning--including traditional face-to-face instruction, 
self-paced instruction, and online learning. Gallaudet students, 
faculty, teachers, and staff are eagerly exploring applications of 
technologies such as web-enhanced and web-based courses, video 
conferencing, and real-time captioning. We are currently developing a 
web-based student tracking system that supports more timely 
intervention with students who are most at risk of leaving before 
graduation. During fiscal year 2001, Gallaudet committed more than $5 
million to improvements in its technological base, and during fiscal 
year 2002, we also anticipate spending more than $5 million for this 
purpose. We project that our need will continue in fiscal year 2003, 
although it will be extremely difficult for us to maintain this level 
of commitment during a time of limited financial resources. If our 
University and the students who graduate from it are to continue to be 
competitive in the market place, we must continue to enhance our 
investment in this area. As important as technological expertise is to 
students generally, it is even more important for deaf students, as it 
truly has leveled the playing field for deaf people in many 
occupations.
    We are particularly motivated to increase the graduation rate of 
our students, because of the excellent prospects that Gallaudet 
graduates enjoy. Data about our alumni, collected over the past several 
decades, indicate that they have a high rate of success in obtaining 
productive employment and in earning advanced degrees. Researchers at 
the University have completed a comprehensive study that provides 
further information about the success of our deaf graduates. In this 
study, information was gathered on all alumni who either graduated from 
or left the University prior to 1998. Consistent with information 
collected during the past 20 years, more than 60 percent of our former 
undergraduates went on to graduate school and more than 40 percent 
earned advanced degrees. This is about twice the rate for a comparison 
group of undergraduate programs for hearing students. Also consistent 
with previous surveys is the finding that only 4 percent of bachelor's 
level respondents were unemployed and looking for work--for graduate 
degree holders, the corresponding figure was an even more impressive 2 
percent. Moreover, in a placement survey of recent graduates conducted 
last year, we found that 100 percent of respondents who graduated in 
2000 were either employed or in graduate school.
    A further indication of our long term commitment to investment in 
technology is the completion of our new Student Academic Center, the 
second building on the Gallaudet campus to be constructed without 
Federally appropriated funds. This state of the art high-tech facility 
will be completed during the summer of 2002, in time to be used by deaf 
people from all over the world who will be coming to Gallaudet for the 
second Deaf Way celebration of deaf arts and culture. We were able to 
construct this building because of the success of our first-ever 
capital campaign which just concluded after surpassing its goal of $30 
million by almost $10 million.
    During fiscal year 2001 and 2002, we have focussed on meeting the 
need for enhancements to our security systems and personnel and have 
deferred development of much needed programs. At the budget level we 
are proposing, we will again be able to focus on developing the 
programs that are needed by the deaf people of the nation. Program 
development in fiscal year 2003 will focus on the following areas: 
Honors programs for the most talented of our undergraduate students and 
developmental programs for those most at risk, interpreter training at 
the bachelor's level, leadership training for the next generation of 
deaf leaders, and increased support for undergraduate science and 
computer training programs.
    Gallaudet also prides itself on the programs we provide for younger 
learners. The Laurent Clerc National Deaf Education Center is comprised 
of the Kendall Demonstration Elementary School (KDES), the Model 
Secondary School for the Deaf (MSSD), and related research, 
demonstration, and outreach activities designed to improve educational 
programs for deaf children throughout the United States. The Clerc 
Center is playing a vital role in serving the extended deaf community 
by continuing to implement its three priorities for research, 
development, and dissemination that were established through a process 
involving public input: 1. Literacy; 2. Family involvement; and 3. 
Transition to work or higher education. A new programmatic goal is to 
find effective ways to work with and educate children with cochlear 
implants, as these children represent a growing proportion of the deaf 
and hard of hearing school population. To this end, our new cochlear 
implant center is now in operation at the Kendall School.
    In 2001, MSSD implemented a revised curriculum based on five major 
student outcomes related to: (1) essential knowledge/academics, (2) 
communication, (3) critical/creative thinking, (4) emotional 
intelligence, (5) life planning. The new graduation requirements 
include milestones to be achieved beyond course requirements, such as a 
portfolio reflecting students' work in the five outcome areas, a senior 
project and presentation, work experience, and community service.
    In keeping with its mandate to serve the nation's deaf students, 
the Laurent Clerc Center has been greatly expanding its work with a 
variety of educational programs throughout the country. The Center is 
currently cooperating with programs in the following locations: 
Arizona--Tucson; California--Burbank, Encino, Fremont, Lakewood, Lodi, 
Modesto, Oakland, Rancho Cordova, Redding, Riverside, San Bernardino, 
San Diego, West Covina; Colorado--Colorado Springs; Connecticut--West 
Hartford; Florida--Miami, Port Richey, Port St. Lucie; Georgia--
Clarkston; Hawaii--Honolulu; Illinois--Chicago, Jacksonville; 
Kentucky--Louisville; Massachusetts--Middleboro; Michigan--Bloomfield 
Hills; Montana--Billings; Nebraska--Lincoln; Nevada--Carson City, Reno; 
New Jersey--Newark; New Mexico--Santa Fe; New York--Ithaca, Jackson 
Heights; Ohio--Cincinnati; Oregon--Medford; Pennsylvania--Pittsburgh, 
Scranton; Tennessee--Knoxville; Texas--Kerrville; Utah--Logan, Salt 
Lake City; Virginia--Charlottesville, Fairfax, Yorktown; Washington--
Seattle; Wisconsin--Milwaukee.
    In addition to the legally mandated national mission of the Clerc 
Center, through which Gallaudet provided direct service to more than 
150,000 individuals and distributed more than 200,000 professional 
publications and other products in fiscal year 2001, the University 
provides other services to large numbers of people in the United 
States. In fiscal year 2001 more than 30,000 people attended 
conferences and other events for professional training sponsored by 
Gallaudet through its University level continuing education programs. 
Through these activities and its many research programs, the University 
is able to provide information about the educational and other needs of 
America's deaf citizens at a level that is unprecedented in our 
history.
                    fiscal year 2003 budget request
    The budget request for Gallaudet University for fiscal year 2003 is 
$99,700,000, $2,762,000 more than the amount that was appropriated in 
fiscal year 2002, and $5,254,000 more than the amount in the 
President's fiscal year 2003 request for Gallaudet.
    At this level of funding, we will be able to fund needed salary 
increases for our dedicated faculty and staff, we will be able to 
support improvements in our technological infrastructure so that our 
students and employees can work with the latest equipment and software, 
and, having completed the funding for enhancements of our security 
systems in fiscal year 2002, we will be able to support programmatic 
growth in a number of areas, including: Honors programs for the most 
talented of our undergraduate students and developmental programs for 
those most at risk, interpreter training at the bachelor's level, 
leadership training for the next generation of deaf leaders, and 
increased support for undergraduate science and computer training 
programs. Finally, we will be able to continue to contribute to the 
Federal endowment matching program. This program has been the engine 
driving our extremely successful private fund raising efforts in recent 
years.
    Thank you for the opportunity to provide you with this statement. I 
would be very pleased to respond to any questions you may have or 
provide any additional information you may need.
    Thank you for your continuing support of Gallaudet University.
                                 ______
                                 

  Health Resources and Services Administration/Agency for Healthcare 
                          Research and Quality

                Prepared Statement of RTI International
     funding for research on medical quality, safety, and outcomes
    Agencies:
  --Agency for Healthcare Research and Quality
  --Centers for Medicare and Medicaid Systems
  --Centers for Disease Control and Prevention
    The Agency for Healthcare Research and Quality (AHRQ) is the lead 
agency for research on topics such as healthcare quality, costs, 
patient safety, and medical errors. We are concerned not only about the 
cuts proposed for that agency, the principal agency established by 
Congress to support health services research, but also for cuts being 
proposed in the research budgets for the Centers for Medicare and 
Medicaid Systems, and the Centers for Disease Control and Prevention.
    In a time of rising healthcare costs, increasing numbers of 
uninsured, and concern over access to treatment and prevention, we 
should be increasing the Federal government's investment in the 
research that the public and private sectors will need to address these 
challenging health system problems.
  --The Administration has proposed to cut AHRQ's budget by $49 
        million, or 16 percent, with the cut falling entirely on 
        research activities. RTI supports a total budget for this 
        agency of $390 million. AHRQ funds research that helps decision 
        makers at all levels, from Federal and State policy makers, 
        through those who run health care systems, to patients and 
        doctors who use their tools every day. Examples of the benefits 
        include definitive guidelines for clinical practice (http://
        guideline.gov), preventive care guidelines (http://
        www.ahrq.gov/clinic/uspstfix.htm), and hospital statistics that 
        will be valuable for needs such as preparing for emergency 
        response (http://www.ahrq.gov/data/hcup/hcupnet.htm). The 
        Agency operates with the same rigorous peer review system as 
        NIH to evaluate grants and contracts, it addresses critical 
        needs in patient care, yet it has only one seventy-fifth of 
        NIH's budget. The result of the proposed cut would be no new 
        research projects in fiscal year 2003, a 46 percent reduction 
        in grants related to quality and costs, and a 31 percent 
        reduction in applied research such as evidence-based practice.
  --The Centers for Medicare and Medicaid Systems (CMS) will see their 
        research budget cut almost in half from $55.3 million to $28.4 
        million. After subtracting $12.4 million for the Medicare 
        Beneficiary survey, and $6 million for CMS to meet other 
        statutory requirements, CMS will have only $10 million in 
        discretionary research funding. However, their fiscal year 2003 
        commitments for funding projects already underway is $17 
        million. This means CMS would have to cut existing research by 
        $7 million. RTI supports a funding level of $60 million to 
        ensure that CMS can meet its current obligations and expand 
        research into areas such as quality care for those with chronic 
        illnesses; plan and beneficiary participation in managed care; 
        approaches to educating beneficiaries through use of the 
        Internet (e-health); and the impact of technological changes on 
        Medicare and Medicaid.
  --The Centers for Disease Control and Prevention (CDC) $17 million 
        extramural prevention research budget--the only extramural 
        health services research program at the CDC--would be 
        eliminated. CDC developed this program to move knowledge about 
        effective strategies for preventing disease and disability from 
        research to implementation in diverse community practices and 
        programs. The program uses a model of community-based 
        participatory prevention research, and has supported over 50 
        projects based in states and localities throughout the country. 
        Cutting this program will eliminate the second round of 
        projects designed and initiated by community-based research 
        collaborations. RTI urges restoration of the $17 million so 
        that CDC can conduct the second round of projects and 
        collaborate with others to accelerate the dissemination of 
        research results to professionals and communities who can put 
        the results into practice.
    Thank you for your consideration of this matter, which is of 
critical importance to protecting the health of the public.
                                 ______
                                 
    Prepared Statement of the Amercian Dental Education Association
    My name is Dr. David Johnsen. I am the Dean of the University of 
Iowa College of Dentistry. Today, I am pleased to represent the 
American Dental Education Association (ADEA) as its President and to 
offer recommendations for fiscal year 2003 appropriations for dental 
education and research.
    ADEA is the premier national organization that speaks for dental 
education. It is dedicated to serving the needs of all 55 U.S. dental 
schools, as well as hospital-based dental and advanced dental education 
programs, dental research institutions, and the faculty and students in 
these institutions. It is within these institutions that future 
practitioners and researchers are educated; the majority of dental 
research is conducted; and significant dental care is provided to many 
underserved low-income populations, including individuals covered by 
Medicaid and the State Children's Health Insurance Program (SCHIP).
    ADEA concurs with the Surgeon General's report, Oral Health in 
America, released in 2000, which alerts Congress and the nation to the 
full meaning of oral health and its importance to general health and 
well-being. It makes clear too that there are profound disparities in 
the oral health of Americans, amounting to a ``silent epidemic'' of 
dental and oral diseases affecting our most vulnerable populations, 
i.e., low-income persons of all ages, but especially low-income 
children and seniors. The long-term consequences of this disparity 
deleteriously affect the school, work, and home activities of these 
individuals and, ultimately, their quality of life.
    In addition to these alarming disparities, other significant 
challenges exist with regard to the infrastructure of dental education 
and the oral health delivery system. For instance:
  --The dentist-to-population ratio is declining, creating concern as 
        to the capability of the dental workforce to meet emerging 
        demands of society and provide required services efficiently. 
        In one-third of the counties in Iowa, 20 percent of the 
        dentists are age 60 or more. Once these dentists retire, who 
        will take their places? The need for dentists in Iowa may soon 
        become urgent.
      One indicator to measure the potential need for dentists is an 
        increase in the designated dental health professions shortage 
        areas (HPSAs). The number of dental HPSA's in the United States 
        in December 2000 was 1,233; in December 2001, there were 1,853. 
        The population in these geographic areas is 38.5 million. In 
        Iowa, the number of dental HPSAs jumped from 3 in December 2000 
        to 73 in June 2001, encompassing a population of 500,000. To 
        meet the target ratio of dentists to patients, according to the 
        Health Resources and Services Administration (HRSA) guidelines, 
        Iowa would need an additional 131 dentists.
  --Dental education debt has increased, affecting both career choices 
        and practice locations. In 2000, 45 percent of individuals who 
        had debt graduated with debt over $100,000 and 21 percent had 
        debt greater than $150,000. The average debt was $106,000.
  --Current and projected demand for dental school faculty positions 
        and research scientists is not being met. Presently, there are 
        400 budgeted, but vacant, faculty positions in the 55 U.S. 
        dental schools. The issue of access to care cannot be addressed 
        successfully without first addressing (and increasing) the 
        number of dentists entering academia and research. ADEA's 
        survey of dental students graduating in 2000 found that only 
        0.5 percent plan to seek careers in academia and research.
  --A crisis in the number of faculty and researchers threatens the 
        quality of dental education, oral, dental, and craniofacial 
        research, and, ultimately, access to necessary oral health 
        care. Access to care and faculty shortages are inextricably 
        linked. And,
  --Lack of diversity and the number of under-represented minorities in 
        the oral health professions is disproportionate to their 
        distribution in the population at large. Their low rate of 
        enrollment in dental schools forebodes their continued under-
        representation in academia, research, and the dental workforce.
    Mr. Chairman, ADEA's funding requests for fiscal year 2003 take 
into account many of the challenges I have just mentioned. Indeed, the 
federal programs being considered by this Subcommittee are playing a 
significant role in responding positively to the challenges of oral 
health disparities, dental education, and diversity in the workforce. 
Consequently, it is imperative that Congress appropriate adequate 
funding for the continuation and enhancement of these programs.
    In particular, the American Dental Education Association urges the 
Subcommittee's positive consideration for the following five programs 
that are of critical importance to dental education and research:
    (1) For General Dentistry and Pediatric Dentistry Residency 
Training programs, the American Dental Education Association recommends 
that the Subcommittee adequately fund the Primary Care Cluster to 
ensure an appropriation of $15 million for these two primary care 
dental programs.
    These two programs provide dentists with the skills and clinical 
experiences needed to deliver a broad array of oral health services to 
the full community of patients. They are highly effective in improving 
access and availability to primary care dental services. The Bureau of 
Health Professions acknowledged the value of the General Dentistry 
Residency Training program in this way: ``Considering the relatively 
modest investment of funds by the federal government, the impact on the 
growth and scope of General Dentistry programs and the subsequent 
effect on dental care has been substantial.''
    A 2001 HRSA-funded study found that postdoctoral general dentistry 
training programs, because they are typically either dental school- or 
hospital-based, generally serve as safety net providers to underserved 
populations. General dentistry programs are important because they 
increase access to care while training dental residents to become 
competent in treating diverse populations, including economically 
disadvantaged and aged patients as well as those needing specialized 
care, i.e., mentally disabled, heart, hypertension, cancer and diabetes 
patients. According to the study, the Title VII, Section 747 grant 
program for general dentistry has been the dominant force for the 
creation and expansion of new programs and training positions. Between 
1995 and 1999, first-year training positions in general dentistry 
programs increased by 169, while first-year training positions in 
pediatric dentistry programs increased by 24. Pediatric dentistry is 
the dental counterpart to general medical pediatrics. Only recently has 
the program begun to expand after 20 years of little change, despite 
increased societal needs. Many applicants to pediatric dentistry 
residency training programs are turned away due to lack of positions. 
In 1999-2000, there were 3,528 applications for only 205 first-year 
positions. In the first 2 years of funding, fiscal year 2000 and fiscal 
year 2001, approximately $2.7 million was awarded to 14 dental 
education institutions to fund general and pediatric dental 
residencies. However, eight additional programs in fiscal year 2000 and 
three programs in fiscal year 2001 were approved, but un-funded. While 
preventive oral health care for children is one of the great successes 
in public health, there remains significant unmet need. For example, 25 
percent of the pediatric population experiences 80 percent of the 
dental cavities, and these are concentrated in low-income and minority 
populations. Two-thirds of patients seen in pediatric dentistry 
programs are Medicaid recipients. Almost 52 million school hours, 
equivalent to more than 850,00 school days, are missed each year by 
children because of dental problems.
    Residents trained in general dentistry and pediatric dentistry 
programs are necessary to meet the needs of Medicaid and SCHIP 
populations. These primary care training programs are requisite 
components of the Health Resources and Services Administration's (HRSA) 
oral health initiative to improve access to oral health care.
    (2) For the Health Professions Education and Training Programs for 
Minority and Disadvantaged Students, the American Dental Education 
Association recommends $135 million, including $3 million for the 
Faculty Loan Repayment Program.
    The Health Professions Education Training (Title VII) programs have 
been successful in creating the basic infrastructure for educating a 
primary care workforce to care for vulnerable populations. However, 
that infrastructure requires sustained and increased federal support to 
meet the challenges of diversifying the workforce, addressing student 
indebtedness, eliminating faculty shortages, and eliminating oral 
health care disparities in underserved communities.
    Two federal programs, the Centers of Excellence (COE) and the 
Health Careers Opportunity Program (HCOP), play critical roles in 
preparing, recruiting and retaining disadvantaged students in 
predoctoral health professions schools. Recruiting and retaining under-
represented minorities (Black/African Americans, Native Americans/
Alaska Natives, and Hispanic) in dental education remains a serious 
challenge. As the U.S. population becomes increasingly multicultural, 
so must the faculties and students in academic dental institutions. The 
federally funded COE and HCOP programs are key in assisting health 
professions schools to prepare disadvantaged and minority students for 
entry into dental, medical, pharmacy, and other health professions. The 
federal government has a responsibility to help to develop a culturally 
competent workforce that will reduce health care disparities related to 
cultural factors.
    Another Title VII diversity program, the Faculty Loan Repayment 
Program (FLRP), assists dentists and other qualified clinicians to 
enter academia. It is the only federal program that endeavors to 
increase the number of economically disadvantaged faculty members. The 
program takes on additional significance in light of current and 
predicated faculty shortages. As I have said previously, the issue of 
access to care cannot be addressed successfully without first 
addressing (and increasing) the number of dentists entering academia 
and research. In 2002, the Faculty Loan Repayment Program was funded at 
$1.3 million. While dentistry alone could use the entire appropriation, 
I should note that graduates from 23 different health care disciplines 
competed for this limited pool.
    Unless Congress and the dental education community itself take 
action to develop, recruit, and retain faculty, access problems will 
surely worsen. Congress should increase funding and broaden eligibility 
for the Faculty Loan Repayment Program to faculty members with 
qualifying student loan debt, regardless of their background. And 
Congress should create a separate program directed at eliminating 
faculty shortages in the nation's 55 dental schools. Furthermore, 
general and pediatric dentistry residents who are committed to academic 
careers should be eligible for FLRP awards.
    ADEA strongly recommends that you reject the Administration's 
decision to zero fund all of these critical Title VII diversity 
programs. On the contrary, this Subcommittee should expand the 
programs.
    (3) For the Ryan White HIV/AIDS Dental Reimbursement Program of the 
Ryan White CARE Act, the American Dental Education Association 
recommends an appropriation of $19 million, a modest increase of $6 
million over the fiscal year 2002 level.
    Federal support for this program increases access to oral health 
services for HIV/AIDS patients, while, at the same time, providing 
dental students and residents the education and training necessary to 
deliver oral health care to this population. Thus, two major and 
appropriate objectives of the federal government, that is, service to 
patients of limited means and education of future practitioners, are 
accomplished by this important, but very modest, federal program.
    As a result of immune system breakdown, HIV/AIDS patients are more 
susceptible to oral diseases, such as oral lesions that cause 
significant pain and oral infection leading to fevers, weight loss, and 
difficulty in eating, speaking, or taking medication. In fact, many of 
the first physical manifestations of HIV infection are found in the 
oral cavity. A dentist is often the first health care professional to 
diagnose these patients.
    Private insurance and Medicaid coverage for dental services is very 
limited or simply unavailable for adults. This lack of adequate 
reimbursement particularly affects those dental education clinics that 
serve as the safety net for a significant number of Medicaid and HIV/
AIDS individuals. The Ryan White HIV/AIDS Dental Reimbursement Program 
encourages treatment of patients by alleviating some of the financial 
burden incurred by the dental education institutions that serve them.
    In 2001, the program provided retrospective reimbursement to 85 
dental education programs that treated more than 66,000 patients who 
could not pay for services rendered. The $10 million paid to these 
institutions represented approximately 64 percent of the direct costs 
incurred from providing dental services to low-income HIV and AIDS 
patients.
    (4) For the National Health Service Corps (NHSC) Scholarship and 
Loan Repayment Programs, the American Dental Education Association 
supports the President's recommended funding level of $191 million and 
requests that the Subcommittee encourage the Corps to increase dental 
participation in these programs.
    ADEA strongly supports the National Health Service Corps (NHSC) 
Scholarship and Loan Repayment Programs that assist students with the 
rising costs of financing their health professions education, while 
promoting primary care access to underserved areas. Over the last 
several years and, particularly in the fiscal year 1999 appropriations 
report language, Congress instructed the Corps to increase dental 
participation in the loan repayment and scholarship awards programs. 
NHSC should open the scholarship program to dental students in all 4 
years of dental school and increase the number of dental hygiene 
students receiving both scholarships and loan repayment. Currently, the 
dental scholarship program is open only to third- and 4-year dental 
students.
    It is critical that the National Health Service Corps' commitment 
to dentistry be strengthened as the need for dental providers in 
underserved areas throughout the nation becomes more pronounced. Also, 
NHSC should continue to work with dental education institutions, dental 
organizations, and state and local public health departments to 
determine dental site readiness, especially in rural and border areas.
    (5) For the National Institute for Dental and Craniofacial Research 
(NIDCR), the American Dental Education Association endorses the 
recommendations of the American Association for Dental Research (AADR) 
regarding research priorities and joins AADR in requesting an 
appropriation of $420 million for NIDCR. Likewise, ADEA recommends that 
the Subcommittee encourage NIDCR to expand loan forgiveness programs 
for researchers and the National Institutes of Health (NIH) to 
collaborate with the Health Resources and Services Administration 
(HRSA) to integrate oral health care fully into the multidisciplinary 
research component of the Centers of Excellence in Women's Health.
    ADEA commends the Subcommittee for its leadership in the area of 
biomedical research, appropriately demonstrated by significant 
increases in NIH funding. The National Institute for Dental and 
Craniofacial Research also is deserving of enhanced federal funding. 
Past support has yielded significant results applicable not only to 
oral health, but to health in general. Through collaborative efforts 
with NIDCR, oral health researchers in U.S. dental schools have built a 
base of scientific and clinical knowledge that has been widely 
communicated and used to improve oral health. Research is advancing 
investigations in bone formation and craniofacial development, 
treatment of facial pain, salivary gland disorders, the link between 
periodontal diseases and pre-term low birth weight and 
arteriosclerosis, to name just a few.
    In conclusion, Mr. Chairman, I thank you again, on behalf of ADEA 
and its membership, for the opportunity to present our views and budget 
requests for dental education and research programs in fiscal year 
2003. Continuing the federal investment in these programs is vital. So 
too is the development of a partnership between the federal government 
and dental education programs to implement a national oral health plan 
that guarantees access to dental care for everyone, ensures continued 
dental health research, eliminates disparities, and eliminates 
workforce shortages. In addition to being good public policy, such a 
plan is absolutely necessary for maintaining the oral health of our 
nation.
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition
    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
in support of the health professions education programs authorized 
under Titles VII and VIII of the Public Health Service Act.
    HPNEC is an informal alliance of over 40 organizations representing 
a variety of schools, programs, and individuals dedicated to ensuring 
that Title VII and VIII programs continue to help educate the nation's 
health care and public health personnel. HPNEC members are thankful for 
the support the Subcommittee has provided to the programs, which are 
essential to building a well-educated, diverse health care workforce.
    The health professions and nursing education programs provide 
support to students, programs, departments, and institutions to improve 
the racial and ethnic diversity, accessibility, and quality of the 
health care workforce. These programs are designed to accomplish the 
following objectives:
  --Meet the nation's needs to increase the supply of primary medical 
        and dental care providers, mental and behavioral health 
        professionals, public health and allied health professionals, 
        and nurses;
  --Educate and train more health professionals in fields experiencing 
        shortages, such as the current shortages in nursing, pharmacy, 
        pediatric dentistry, mental and behavioral health 
        professionals, public health, and allied health, such as 
        radiology and clinical laboratory;
  --Improve the geographic distribution of health professionals;
  --Increase access to health care for underserved populations; and
  --Enhance minority representation in the practicing health 
        professional workforce.
    In particular, the providers trained through these programs help 
meet the health care delivery needs of the over 3,800 Health 
Professions Shortage Areas (HPSAs) in this country, at times serving as 
the only source of health care in many rural and disadvantaged 
communities. These programs provide an essential and stable 
infrastructure for the training and education of health professionals, 
with a needed emphasis on primary care and preventive medicine across 
the life span, from pediatrics to geriatrics.
    A November 2001 report by the Advisory Committee on Training in 
Primary Care Medicine and Dentistry emphasizes the essential role of 
the Title VII programs in enhancing the quality and quantity of the 
primary care health workforce. The report quotes a study in the Journal 
of Rural Health: ``In 1997, Title VII funded programs increased the 
rates of graduates entering health profession shortage areas (HPSAs), 
resulting in 1,357 providers. . . . Doubling the funding of these 
programs . . . could decrease the time for HPSAs elimination to as 
little as 6 years.'' The Advisory Committee recommends increased budget 
authority for Title VII, as it supports, ``innovative approaches aimed 
at improving quality of care and basic access to care, and has been 
used to great effect by programs to leverage other sources of 
funding.'' The federal investment in the health professions programs is 
valuable, because it fosters state-federal partnerships to enhance the 
nation's health care system.
    The Institute of Medicine report released March 20, 2002, ``Unequal 
Treatment: Confronting Racial and Ethnic Disparities in Health Care,'' 
targets the severe health care gap between racial and ethnic groups in 
the United States and focuses on strategies for eliminating health care 
disparities in the system. It calls for increased representation of 
racial and ethnic diversity in the health professions, as ``racial and 
ethnic minorities are more likely than their non-minority colleagues to 
serve in minority and medically underserved communities.'' Title VII 
and VIII programs, such as Centers of Excellence, Health Careers 
Opportunities Programs, Scholarships for Disadvantaged Students, and 
the Nurse Workforce Diversity programs, are designed to meet this need 
by bringing more underrepresented minorities into the health workforce.
    Considering the life-altering and dramatic events in the country 
last year, an appropriate supply and distribution of health 
professionals has never been more essential to the public's health. 
During their 40-year existence, the Title VII and VIII programs have 
created a network of initiatives across the country that supports the 
training of many disciplines of health providers. These are the only 
federal programs designed to create infrastructures at our schools and 
in our communities that facilitate customized training designed to 
bring the latest emerging national priorities to the populations at 
large and meet the health care needs of special, underserved 
populations.
    HPNEC members recommend that the Title VII and VIII programs 
receive an appropriation of at least $550 million for fiscal year 
2002.--This recommendation is the second stage of a 2-year effort to 
increase funding by 50 percent, which HPNEC members have determined to 
be needed by the programs to fulfill the aforementioned missions.
    HPNEC members urge the subcommittee to consider the vital need for 
these health professions education programs as demonstrated by the 
passage of the Health Professions Education Partnerships Act of 1998 
(Public Law 105-392), which reauthorized these programs. The 
reauthorization provided additional flexibility in the administration 
of these programs and consolidated them into seven general categories: 
Minority and Disadvantaged Health Professions Training; Primary Care 
Training; Interdisciplinary, Community-Based Linkages; Health 
Professions Workforce and Analysis; Public Health Workforce 
Development; Nursing Workforce Development; and Student Financial 
Assistance.
  --The purpose of the Minority and Disadvantaged Health Professionals 
        Training programs is to improve health care access in 
        underserved areas and the representation of minority and 
        disadvantaged health care providers in the health professions. 
        Minority Centers of Excellence support programs that seek to 
        increase the number of minority health professionals through 
        increased research on minority health issues, establishment of 
        an educational pipeline, and the provision of clinical 
        opportunities in community-based health facilities. The Health 
        Career Opportunity Program seeks to improve the development of 
        a competitive applicant pool through partnerships with local 
        educational and community organizations. The Faculty Loan 
        Repayment and Faculty Fellowship programs provide incentives 
        for schools to recruit underrepresented minority faculty. The 
        Scholarships for Disadvantaged Students (SDS) make funds 
        available to eligible students from disadvantaged backgrounds 
        who are enrolled as full-time health professions students 
        Nursing students receive 16 percent of the funds appropriated 
        for SDS.
  --The Primary Care Training category, including General Pediatrics, 
        General Internal Medicine, Family Medicine, General Dentistry, 
        Pediatric Dentistry, and Physician Assistants, provides for the 
        education and training of primary care physicians, dentists, 
        and physician assistants to improve access and quality of 
        health care in underserved areas. As noted in the November 2001 
        Advisory Committee report, two-thirds of all Americans interact 
        with a primary care provider every year, and approximately one 
        half of primary care providers trained through these programs 
        go on to work in underserved areas, compared to 10 percent of 
        those not trained through these programs. The General 
        Pediatrics and General Internal Medicine programs provide 
        critical funding for primary care training in community-based 
        settings and have been successful in directing more primary 
        care physicians to work in underserved areas. They support a 
        range of initiatives, including medical student training, 
        residency training, faculty development and the development of 
        academic administrative units. Title VII is the only federal 
        program that provides funding for family medicine residency 
        training, academic departments, predoctoral programs, and 
        faculty development. The General Dentistry and Pediatric 
        Dentistry programs provide grants to dental schools and 
        hospitals to create or expand primary care dental residency 
        training programs. Recognizing that all primary care is not 
        only provided by physicians, the primary care cluster also 
        provides grants for physician assistant programs to encourage 
        and prepare students for primary care practice in rural and 
        urban Health Professional Shortage Areas. Additionally, these 
        programs enhance the efforts of osteopathic medical schools to 
        continue to emphasize primary care medicine, health promotion, 
        and disease prevention, and the practice of ambulatory medicine 
        in community-based settings.
  --Because much of the nation's health care is delivered in areas far 
        removed from health professions schools, the Interdisciplinary, 
        Community-Based Linkages cluster provides support for 
        community-based training of various health professionals. These 
        programs are designed to provide greater flexibility in 
        training and encourage collaboration between two or more 
        disciplines. These training programs also serve to encourage 
        health professionals to return to such settings after 
        completing their training. The Area Health Education Centers 
        (AHECs) provide clinical training opportunities to health 
        professions and nursing students in rural and other underserved 
        communities by extending the resources of academic health 
        centers to these areas. AHECs, which have substantial state and 
        local matching funds, form networks of health-related 
        institutions to provide education services to students, faculty 
        and practitioners. Health Education and Training Centers 
        (HETCs) were created to improve the supply of health 
        professionals along the U.S.-Mexico border. They incorporate a 
        strong emphasis on wellness through public health education 
        activities for disadvantaged populations. Given America's 
        burgeoning aging population, there is a need for specialized 
        training in the diagnosis, treatment, and prevention of disease 
        and other health concerns of the elderly. Geriatric Health 
        Professions programs support geriatric faculty fellowships, the 
        Geriatric Academic Career Award, and Geriatric Education 
        Centers, which are all designed to bolster the number and 
        quality of health care providers caring for our older 
        generations. The Quentin N. Burdick Program for Rural Health 
        Interdisciplinary Training places an emphasis on long-term 
        collaboration between academic institutions, rural health care 
        agencies and providers to improve the recruitment and retention 
        of health professionals in rural areas. The Allied Health 
        Training programs help health profession schools, state and 
        local governments and other entities to establish or expand 
        allied health training programs. Secretary Thompson, on a 
        number of occasions, has expressed alarm and concern about the 
        shortage in clinical and public health laboratory specialists, 
        particularly given the past and anticipated bioterrorism 
        events. In fact, studies have shown that at least 9,300 new 
        laboratory lab practitioners are needed every year, but only 
        4,900 are being produced. This funding enables schools to train 
        more needed allied health disciplines.
  --The Health Professions Workforce and Analysis program provides 
        grants to institutions to collect and analyze data on the 
        health professions workforce to advise future decision-making 
        on the direction of health professions and nursing programs. 
        The Health Professions Research and Health Professions Data 
        programs have developed a number of valuable studies on the 
        distribution and training of health professionals, including 
        the Seventh National Sample Nursing Survey, finalized in 
        February 2002.
  --The Public Health Workforce Development programs are designed to 
        increase the number of individuals trained in public health, to 
        identify the causes of health problems, and respond to such 
        issues as managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies are 
        traditionally underfunded through Medicare GME, and this 
        program seek to provide training to the only medical specialty 
        that provides extensive training in both clinical medicine and 
        community health to improve the country's prevention efforts. 
        Dental Public Health Residency programs are vital to the 
        nation's dental public health infrastructure. The Health 
        Administration Traineeships and Special Projects grants are the 
        only federal funding provided to train the managers of our 
        health care system, with a special emphasis on those who serve 
        in underserved areas.
  --The Nursing Workforce Development programs provide training for 
        basic and advanced degree nurses to improve the access to, and 
        quality of, health care in underserved areas. Health care 
        entities across the nation are experiencing a crisis in nurse 
        staffing, caused in part by an aging workforce and lack of 
        young people entering the profession. At the same time, the 
        need for nursing services is expected to continue to increase 
        over the next 20 years. The Advanced Nurse Education program 
        awards grants to train a variety of advanced practice nurses, 
        including nurse practitioners, certified nurse midwifes, nurse 
        anesthetists, public health nurses, and nurse administrators. 
        Workforce Diversity grants support opportunities for nursing 
        education for disadvantaged students through scholarships, 
        stipends, and retention activities. Basic Nurse Education and 
        Practice grants are awarded to schools of nursing to strengthen 
        basic nurse education and practice through program and student 
        support. The Nurse Education Loan Repayment Program repays up 
        to 85 percent of nursing student loans in return for at least 2 
        years of practice in a designated nursing shortage area. The 
        Title VIII nursing programs also support the National Advisory 
        Council on Nurse Education and Practice, which is charged with 
        advising the Secretary of Health and Human Services and 
        Congress on nursing workforce, education, and practice 
        improvement issues.
  --The loan programs in the Student Financial Assistance assist needy 
        and disadvantaged medical and nursing school students in 
        covering the costs of their education. The Nursing Student Loan 
        (NSL) program provides loans to undergraduate and graduate 
        nursing students with a preference for those with the greatest 
        financial need. The Primary Care Loan (PCL) program provides 
        loans covering the cost of attendance in return for dedicated 
        service in primary care. The Health Professional Student Loan 
        (HPSL) program provides loans covering the cost of attendance 
        for financially needy health professions students based on 
        institutional determination. The NSL, PCL, and HPSL programs 
        are funded out of each institution's revolving fund and do not 
        receive federal appropriations. The Loans for Disadvantaged 
        Students (LDS) program provides grants to health professions 
        institutions to make loans to health professions students from 
        disadvantaged backgrounds.
  --HPNEC members respectfully urge support for funding of at least 
        $550 million for the Title VII and VIII programs, an investment 
        essential not only to the development and training of 
        tomorrow's health care professions but also to our nation's 
        efforts to provide needed health care services to underserved 
        and minority communities. We appreciate the support of the 
        Subcommittee and look forward to working with members of 
        Congress to achieve these goals in fiscal year 2003 and into 
        the future.
     the health professions and nursing education coalition (hpnec)
    Administrators of Internal Medicine; Ambulatory Pediatric 
Association; American Academy of Family Physicians; American Academy of 
Pediatric Dentistry; American Academy of Pediatrics; American Academy 
of Physician Assistants; American Association of Colleges of Nursing; 
American Association of Colleges of Osteopathic Medicine; American 
Association of Colleges Pharmacy; American College of Nurse-Midwives; 
American College of Physicians-American Society of Internal Medicine; 
American College of Preventive Medicine; American Dental Association; 
American Dental Education Association; American Geriatrics Society; 
American Nurses Association; American Occupational Therapy Association; 
American Pediatric Society; American Psychiatric Nurses Association; 
American Psychological Association; American Society of Clinical 
Laboratory Science; Association of American Medical Colleges; 
Association of Departments of Family Medicine; Association of Family 
Practice Residency Directors; Association of Medical School Pediatric 
Chairs; Association of Minority Health Profession Schools; Association 
of Professors of Medicine; Association of Schools of Allied Health 
Professions; Association of Schools of Public Health; Association of 
Subspecialty Professors; Association of Women's Health, Obstetric, and 
Neonatal Nurses; California Area Health Education Center; Clerkship 
Directors in Internal Medicine; National Area Health Education Center 
Organization; National Association of Geriatric Education Centers; 
North American Primary Care Research Group; Society for Pediatric 
Research; Society of General Internal Medicine; and Society of Teachers 
of Family Medicine.
                                 ______
                                 
              Prepared Statement of the City of Newark, NJ
    The City of Newark, NJ hereby submits for the record, testimony 
regarding two innovative projects that are of great importance to the 
State of New Jersey's largest City. The projects described below each 
address an aspect of the critical health needs of Newark's low-income 
population. They are (1) the Emergency Medical Services Demonstration 
Project, and (2) the Inner City Hepatitis C Initiative. A brief summary 
of each proposal is presented below, followed by details of both 
projects.
  newark coordinated emergency medical services demonstration project
    The objective of Newark's Coordinated EMS Demonstration Project is 
to develop a coordinated model for a City-wide system for efficient 
patient transportation and emergency services utilization, tracking and 
billing. Funding is requested to assist in the design and 
implementation of a system that will assure transportation of patients 
to the appropriate specialty hospital or other medical facility. The 
system will include a billing and service allocation component to 
reduce inefficiencies and deter fraud, waste and abuse. The system will 
be coordinated with the City's 911 integrated dispatch, to insure the 
timely transfer of calls and delivery of services. The City's dispatch 
center handles over 300,000 calls for service per year, and must 
efficiently channel calls for medical service to the EMS system in a 
manner that allows for tracking of services while transferring 
operational responsibility.
    An allocation of $5 million is requested to establish the Newark 
Coordinated Emergency Medical Services demonstration project.
                   inner city hepatitis c initiative
    The objective of the City of Newark's Inner City Hepatitis C 
Initiative is to accelerate the detection, counseling, evaluation and 
treatment of chronic hepatitis C in inner city residents. It is 
estimated that more than 7,000 Newark residents have highly contagious 
chronic Hepatitis C (HCV), but less than 1,000 are enrolled in 
treatment programs. HCV is highly contagious, with approximately 40,000 
new cases nationally per year, with over 85 percent developing chronic 
disease.
    Newark's program will provide education, counseling, medical 
evaluation and treatment, and will include testing and treatment for 
HIV and Hepatitis B. Program goals are to reduce morbidity and 
mortality from Hepatitis C, and at the same time decrease its 
transmission to others in the community. Program will provide 
education, counseling, medical evaluation and treatment, and will 
include testing and treatment for HIV and Hepatitis B. The program will 
greatly increase the diagnosis and treatment of both HCV and HIV.
    An allocation of $7 million is requested to establish the Inner 
City Hepatitis C Initiative.
  newark coordinated emergency medical services demonstration project
    The objective of Newark's Coordinated EMS Demonstration Project is 
to develop a coordinated model for a City-wide system for efficient 
patient transportation and emergency services utilization, tracking and 
billing. Funding is requested to assist in the design and 
implementation of a system which will assure transportation of patients 
to the appropriate specialty hospital or other medical facility. The 
system will include a billing and service allocation component to 
reduce inefficiencies and deter fraud, waste and abuse. The system will 
be coordinated with the City's 911 integrated dispatch, to insure the 
timely transfer of calls and delivery of services. The City's dispatch 
center handles over 300,000 calls for service per year, and must 
efficiently channel calls for medical service to the EMS system in a 
manner that allows for tracking of services while transferring 
operational responsibility. Over 100,000 calls for service per year go 
to the Emergency Medical Services system in Newark.
    Currently, the City of Newark contracts with the University of 
Medicine and Dentistry of New Jersey (UMDNJ), through University 
Hospital, to provide a complete system of dedicated 9-1-1 emergency 
medical services. These services include: basic life support units 
integrated with advanced life support services, emergency treatment and 
transportation to local area hospitals as defined in an Approved. 
Hospitals for Patient Transport policy, heavy rescue and vehicle 
extrication, and service as the lead agency in response to mass 
casualty incidents within the City. UMDNJ provides centralized medical 
dispatch communications per NJ State requirements, and the interface 
with City E911 services is crucial to both efficient and effective 
dispatching, as well as to securing appropriate and adequate 
reimbursement for services.
    The combination of an increase in the number of calls for service, 
tremendous advances in available technology, and pressures on the 
billing system present both a challenge and an opportunity for a unique 
demonstration project. The City of Newark's Police Computer Aided 
Dispatch system is the central point for 911 emergency calls, and calls 
to it for medical assistance are transferred to UMDNJ. However, calls 
for assistance can also be placed directly to the emergency medical 
assistance provider. There is no integrated system which can track all 
calls, the disposition of them, and ultimately, the payment for them. 
The reimbursements paid by the City, Medicaid, Medicare, the State's 
Charity Care system, and managed care providers do not cover the cost 
of capital expenditure for system upgrades. Further, the integration of 
the City's E9-1-1 system with the UMDNJ system cannot currently be 
funded through municipal sources, due to other needs and demands. The 
City is now unable to track and verify EMS services and billing to 
residents and/or third parties for which it is responsible. Therefore, 
an fiscal year 2003 allocation of $5 million is requested to establish 
a much needed demonstration project for an integrated system for 
coordinated delivery of emergency medical services.
                   inner city hepatitis c initiative
    The Hepatitis C virus (HCV) is currently the most common cause of 
hepatitis, cirrhosis and liver cancer. Highly contagious, it affects 
170 million people worldwide and over 4 million residents of the United 
States. Over 85 percent of infected persons develop chronic disease, 
with progression to end-stage disease in 20 percent of them. HCV is 
highly contagious, with approximately 40,000 new cases nationally per 
year, and an increasing number of deaths per year, now at 8,000 to 
10,000. It is estimated that its mortality will double or triple over 
the next two decades, unless there is a significant change in 
prevention and treatment. A higher proportion of African Americans than 
other populations had been affected, and there is a growing burden of 
chronic liver disease in this community due to HCV infection. Further, 
the risk factor for HIV and HCV are similar, so there is often co-
infection.
    The current epidemic of Hepatitis C has not been adequately 
addressed for residents in Newark, NJ, or the nation. It is estimated 
that more than 7,000 Newark residents have highly contagious chronic 
Hepatitis C (HCV), but well under 1,000 are enrolled in treatment 
programs. Many of those with end-stage disease are not eligible for 
medical therapy or transplantation because of their economic status.
    The proposed program will provide education, counseling, medical 
evaluation and treatment, and will include testing and treatment for 
HIV, increasing recognition of both viruses. Goals are to reduce 
morbidity and mortality from Hepatitis C, and at the same time decrease 
its transmission to others in the community. The program will greatly 
increase the detection, diagnosis and treatment of both HCV and HIV, 
hopefully serving as a national model. Patient education will be 
emphasized and needed data collected for a computerized system on 
chronic HCV and its relationship to other conditions.
    A first step in control of HCV is an educational program for 
residents who are not aware that they have the disease, and then move 
to screen the entire population, including inner city residents, at 
risk for the development of HCV. Although the local government 
treatment budget for HIV and STDs encompasses Hepatitis, and some 
services are provided by local medical facilities, there is no 
comprehensive, ongoing coordinated effort. Requested funds would be 
utilized to expand and coordinate detection, counseling, evaluation and 
treatment of Chronic Hepatitis C in inner city Newark residents. An 
fiscal year 2003 allocation of $7 million is requested to establish 
this much needed demonstration project to provide vital services to 
some of Newark's most vulnerable population.
    The City of Newark wishes to express its deep appreciation to this 
Committee for permitting the presentation of these important projects. 
Your positive response for Newark's request for support will have a 
positive impact on the health and well-being of Newark's citizens.
                                 ______
                                 
            Prepared Statement of the Heart of Hospice Music
                                summary
    Heart of Hospice Music (HHM) requests startup capital in the amount 
of $469,000 to fund its first 2 years' operations. HHM has been an 
individual effort to gift a two-CD set of thoughtfully compiled, 
spirit-filled music to individuals facing end-of-life care. Our vision 
is to make this music available to any person who is in hospice care or 
otherwise experiencing the journey and challenge of terminal illness. 
End-of-life-care professionals and others serving in this field confirm 
the benefits music therapy can provide for the terminally ill and their 
friends, family, and caregivers. It is our hope that this music will 
offer comfort and solace and allow for a more calm and tranquil 
passage.
                                  who
    Heart of Hospice Music (HHM), presently applying for 501(c)(3) 
status to operate as an Iowa nonprofit corporation.
    Comprised of.--Chris Bischof, Los Gatos, California; Keith Bischof, 
Clarinda, Iowa; James Morrow, Kansas City, Missouri; William Davidson, 
Islamorada, Florida; and Brian Auger, San Rafael, California.
                                  what
    Purpose.--To gift a Heart of Hospice Music two-CD set to any person 
under hospice care, whether they are receiving care at home or in a 
healthcare institution. In the future, we plan to include a listening 
device with headphones for those who cannot afford one.
                               background
Origin: Personal Experience with Mother's Alzheimer's
    This project originated as a result of my family's heartfelt 
experience of caring for our mother, Marilyn Bischof, in her final 
years with Alzheimer's disease.
Music Therapy Recommended
    Many end-of-life care organizations suggest the use of ``music 
therapy'' as part of the caregiving effort for the dying person. Our 
family received this recommendation as a single sentence in an 
information packet. Little more was said, and as caregivers, we were 
left to interpret this advice and gather music selections on our own.
Our Family Incorporates Music Therapy
    Because of the length of mom's illness, our family was able to 
incorporate this element of music into her experience, adding to the 
collection over time. In the early years of Mom's Alzheimer's, she 
continued to enjoy her favorite music, including contemporary, popular, 
and classical music, operas, and musicals. As her disease progressed, 
and she became more and more withdrawn, I was moved to include healing 
and soothing music--pieces with spiritual messages and/or angelic 
melodies, Gregorian chants, Eastern devotional songs, Native American 
selections, sacred compositions from early Christian mystics, and 
meditative and inspirational songs.
Results
    In my personal experience, the use of carefully chosen, sacred, and 
spirit-filled song selections provided comfort and solace, and perhaps 
eased the tension and assisted in our mother's letting-go process.
Delivery Method Is Key
    Intuitively, as our mother's caregivers, we were guided over time 
to adjust the manner in which music was played in her presence. In the 
early years, we played music through an audio player on a dresser 
several feet away from her bed. But as she became more withdrawn and 
her time was ending, we perceived that she was no longer connecting 
with music projected from the middle of the room. We purchased a set of 
high-quality, lightweight headphones through which she listened to 
music each day for a few hours. We sensed a peacefulness in her being 
and an easing of her breath, which we partially attribute to the soft, 
gentle music she received in this manner.
                                  why
Patient Benefits
    It is said that the two most important issues at the time of death 
are (1) how you have lived your life and (2) your state of mind. The 
first cannot be changed; it is complete. We can, however, have an 
influence on the second (state of mind) for our loved ones, through our 
compassionate caregiving efforts, which may include ``music therapy.''
    We named this project ``Heart of Hospice Music'' out of our 
intention to use the universal language of music to open the hearts of 
dying patients as they approach the end of their lives. It is our hope 
that this music will allow for a more conscious, calm, and harmonious 
life completion, offering the patient courage, love, and a tranquil 
passage.
    We wish to emphasize the distinction between ``feel-good'' music or 
a patient's ``favorite'' music and the special type of healing and 
comforting selections that we were moved to share with our mother 
during her final years. The benefits we observed in her, and that I 
believe in my heart of hearts the music provided, are widely confirmed 
by end-of-life-care professionals and others who study and care for the 
terminally ill.
Others Who Benefit
    In addition to nurturing the soul of the dying person, Heart of 
Hospice Music is designed to open a pathway of compassion in the hearts 
of all involved with the sacred experience of death and dying.
  --Family members, friends, and hospice/medical staff and volunteers 
        have already expressed their heartfelt appreciation for the 
        tranquility and comfort they receive from listening to our CDs.
  --Many people feel apprehensive, even helpless, as they consider 
        visiting a loved one in hospice care. We foresee that Heart of 
        Hospice CDs will provide an opportunity for such individuals to 
        bring a meaningful gift, thus easing their fear of stepping 
        into the room of the dying person.
  --Those who choose to contribute their time, talent, and/or treasure 
        to this project receive the unquantifiable benefits of pure and 
        heartfelt giving.
  --Even musicians benefit as they choose to share their songs on Heart 
        of Hospice Music's compilation CDs. Though they may never 
        become personally involved with the dying, they are humbled to 
        share their creative gifts of the heart for this worthy cause.
Why Hospice Care?
    Modern medicine tends primarily to address the physical and 
biological aspects of a dying patient's care. By their nature, hospice 
care organizations--and especially their volunteers--bring forth an 
element of open-hearted compassion, bridging the gap between the 
patient's physical and emotional/spiritual needs. Therefore, Heart of 
Hospice Music has chosen to focus its initial distribution efforts 
toward U.S. hospice facilities and their patients receiving in-home 
care. Over time, we intend to expand this project to include nursing 
homes, hospitals, assisted living facilities, and the like.
Few Are Able to Provide This Loving Gift
    Now we arrive at the core of this Heart of Hospice Music project, 
where we see its true merit and the beautiful need that it fulfills.
    Looking back, my brother, sister, and I recognize both the profound 
blessing and the significant challenge that music therapy presents for 
a person charged with the care of a dying loved one. For the family 
member(s) or caregiver(s) of the terminally ill person, this suggestion 
generally remains little more than a sentence on a piece of paper, low 
on the priority list among the seemingly endless and overwhelming 
matters demanding daily attention. In the midst of their myriad 
responsibilities and heartrending feelings, little time or emotional 
energy are available to take on such a task.
    Individuals or families tending to the needs of a loved one in 
their last days often experience great strain on many levels. During 
the course of days, weeks, and months of caregiving efforts, they can 
be physically burdened, emotionally taxed, and spiritually drained as 
they hold down jobs and juggle the affairs of their own family lives. 
In addition, family members are often at odds, as this time often 
brings up unresolved family issues.
    Unless family or friends already own CDs or tapes that can be 
shared with their loved one in this tender stage, caregivers are 
unlikely to undertake the effort to search music stores for suitable 
selections. After my mother's death, as I began collecting material for 
this project, I was often disappointed to find only one or two 
appropriate selections on CDs whose cover art and written descriptions 
appeared to be fitting for my purpose. In addition, many inspirational 
vocal pieces contained life-engaging lyrics, and instrumental pieces 
were more uplifting or upbeat than was desired for this project.
    In addition, we have learned from hospice care professionals that 
hospitals frequently release dying patients to hospice facilities just 
days before their passing, leaving relatives little time to attend to 
this meaningful but nonessential detail.
                                request
    Heart of Hospice Music requests startup capital in the amount of 
$469,000, to fund the first 2 years' operations. Projected costs are as 
follows:

Minimal staff salary: One full-time administrator ($35K per 
    year for 2 years) and two part-time assistants ($5K each 
    per year for 2
    years)....................................................   $90,000
Grant writing and fund-raising, public relations materials....     5,000
Legal setup...................................................     2,500
Office equipment and supplies.................................    10,000
Web site design and content development.......................     4,500
Cost of CDs: materials and production: $3.75 per CD (Initially 
    targeted toward 35,000 recipients per year for 2 years. 
    This is a conservative 5 percent of the estimated 700,000 
    patients currently in U.S. hospice care.).................   262,500
Postage/shipping ($1.35 per CD <greek-e> 35,000 CDs per year 
    for 2 years)..............................................    94,500
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   469,000
                           on a personal note
    Those of us involved in Heart of Hospice Music wish no profit from 
this project. For us, this is a fully unconditional act of giving, with 
no strings attached and no reward sought.
    Our desire is to make this very special hand-selected music 
available to all in need, regardless of their circumstances or personal 
background. It is truly our gift to others, a way to carry forward the 
spiritual rewards we received from our personal experience with the 
passing journey of our loving parents.
    ``Some things you do to feed your pocketbook; others you do to feed 
your soul.''
                                 ______
                                 
          Prepared Statement of the National AHEC Organization
    I am pleased to present testimony on behalf of the National AHEC 
Organization.
    I am director of the Ohio Statewide AHEC Program, director of the 
Medical College of Ohio AHEC program, and a member of the National AHEC 
Organization. We are the professional organization representing the 
Area Health Education Centers (AHECs) and Health Education Training 
Centers (HETCs). Together, we seek to enhance access to quality health 
care, particularly primary care and preventative care, by improving the 
supply and distribution of health care professionals through 
community--academic partnerships. HETCs have a similar mission to 
AHECs, but are unique in their focus on public health matters 
associated with extremely underserved areas within our country, 
especially areas found along the border with Mexico.
                     persistent workforce shortages
    Mr. Chairman, contrary to what may be commonly understood, 
persistent and severe shortages exist in a number of health 
professions. Chronic shortages exist for all health professions in many 
of our nation's underserved communities, and substantial shortages 
exist in all communities for some professions such as nursing, 
pharmacy, and certain allied health fields. While the supply of 
physicians in the non-primary care specialties may well be adequate, 
supply and distribution problems for primary care physicians, nurses, 
and many allied health professionals are undermining access and quality 
in many of our nation's communities.
    Historically, the supply of and demand for health care 
professionals has waxed and waned in a manner that produced cycles of 
shortage and excess. However, it is reasonable to believe that the 
current shortages are of a different and more persistent nature. First, 
the breadth and depth of shortages are greater than at any time in the 
past. More disciplines are in short supply, more sites of care 
(hospitals, nursing homes, home care agencies, and clinics) are 
experiencing shortages, and the duration of vacancies is longer. 
Second, the demand for health care services is steadily and inexorably 
increasing due to the aging population and the advances in medical 
technology. Third, the health care provider population is aging itself. 
A high proportion of the current health care workforce is approaching 
retirement age. Fourth, the resources with which the health care 
industry might respond to shortages are inadequate to the challenges. 
Due to the squeeze of managed care, provider institutions are unable to 
increase salaries, and due to cuts in government funding, educational 
institutions are unable to expand class sizes. Finally, the career 
opportunities available to women, who dominate the health care 
professions, have expanded greatly. The well-advertised degradation in 
the working conditions for nurses and other health care professionals 
is occurring at a time when alternative career choices abound.
    Health care workforce shortages are occurring in a context of an 
increasingly aged population with greater needs for health care 
services, both in terms of a greater number of patients and a higher 
level of acuity. In addition, health technology steadily produces 
advances that require a higher level of training and sophistication on 
the part of health care providers. These trends are occurring at time 
when the number and the level of academic preparedness of students 
entering the health professions are decreasing. It is difficult for 
health care professionals to keep up with rapid technological advances. 
Practitioners, especially older practitioners, are leaving their fields 
due to the increased technological demands.
                             what ahecs do
    Mr. Chairman, the AHEC/HETC network is the federal government's 
most flexible and efficient mechanism for addressing a wide and 
evolving variety of health care issues on a local level. Through AHECs 
and HETCs, national initiatives can be targeted to the areas of 
greatest need and molded to the particular issues confronting 
individual communities. Whether the issue is the nursing shortage, 
bioterrorism preparedness, or access for the uninsured, AHECs and 
HETCs, where they exist, can assemble the appropriate local 
collaboration and apply federal, state, and local resources in a 
precise and cost-effective manner.
    Since our inception almost 30 years ago, AHECs have partnered with 
local, state, and federal initiatives and educational institutions in 
providing clinical training opportunities to health professions and 
nursing students in rural and underserved communities. We bring the 
resources of academic health centers to bear in addressing the health 
care needs of these communities. Currently, there are 45 AHEC programs 
and 170 centers located in 43 states. AHEC programs are based at 
schools of medicine, which are the federal AHEC grant recipients, and 
are implemented through the regional offices (centers), each of which 
serves a defined geographic area.
    AHEC programs perform four basic functions:
    1. They develop and support the community based training of health 
professions students, particularly in underserved rural and urban 
areas. Exposing health professions students to underserved communities 
increases the likelihood that they will return to these communities to 
practice.
    2. They provide continuing education and other services that 
improve the quality of community-based health care. Improving the 
quality of care also enhances the retention of providers in underserved 
communities, particularly community health centers.
    3. They recruit under-represented minority students into the health 
professions through a wide variety of programs targeted at elementary 
through high schools. Minority students are grossly under-represented 
in the health professions and are more likely to practice in 
underserved communities.
    4. They facilitate and support practitioners, facilities, and 
community based organizations in addressing critical local health 
issues in a timely and efficient manner.
                           the role of hetcs
    The HETC programs were created to address the public health needs 
of severely underserved populations in border and non-border areas. 
Currently, HETC programs exist in 9 states and are also supported by a 
combination of federal, state, and local funding, the majority of which 
comes from non-federal sources.
    Because the majority of preventable health problems are due to 
health behaviors and the environment, HETCs focus on community health 
education and health provider training programs in areas with severely 
underserved populations. HETCs target minority groups, disadvantaged 
communities, and communities with diverse culture and languages.
    Virtually all AHEC and HETC programs are collaborative in nature. 
They routinely partner with a wide variety of federal, state, and 
locally funded programs. Examples of these collaborations include 
health professions schools, primary care residency programs, community 
health centers, primary care associations, geriatric education centers, 
the National Health Service Corps, public health departments, health 
career opportunity programs, school districts, and foundations.
    Additionally, AHECs and HETCs often go beyond their core functions 
to undertake a wide variety of innovative programs that are tailored to 
specific health issues affecting the communities they serve. Because 
health issues vary from community to community and over time, the 
programs of each AHEC and HETC also vary considerably. AHECs and HETCs 
respond to changing health and health workforce needs in a flexible and 
timely manner. Examples of current issues for which we are directing 
our resources are:
    1. The nursing shortage.--Currently, AHECs and HETCs are working 
with schools of nursing, state nursing associations, and others to 
increase the number of qualified applicants to nursing schools, 
increase minority enrollment in nursing schools, expand the number of 
community-based nursing training sites, and retrain nurses who wish to 
re-enter the profession.
    2. Bioterrorism education.--Currently, AHECs and HETCs are working 
with public health departments to educate health and public health 
professionals on surveillance, reporting, risk communication, 
treatment, and other responses to the threat of bioterrorism.
    3. The National Health Service Corps (NHSC).--AHECs and HETCs 
undertake a variety of programs related to the placement and support of 
NHSC scholars and loan repayment recipients.
               justification for funding recommendations:
    Mr. Chairman, I respectfully ask the Subcommittee to support our 
recommendations to increase funding for the health professions and 
nursing education programs under Title VII and Title VIII of the Public 
Health Service Act to at least $550 million. Our recommendations are 
consistent with those of the Health Professions and Nursing Education 
Coalition (HPNEC).
    The AHEC and HETC programs improve access to primary and 
preventative care through community partnerships, linking the resources 
of academic health centers with local communities. AHECs and HETCs have 
proven to be responsive and efficient models for addressing an ever-
changing variety of community health issues.
    However, AHECs and HETCs have not yet fully realized their 
potential to be a nationwide infrastructure for local training and 
information dissemination. In order to realize that potential 
additional federal investment is required. That is why we are 
requesting an increase in funding to $40 million in fiscal year 2003 
from $33.4 million in fiscal year 2002 for AHECs and $10 million in 
fiscal year 2003 from $4.4 million in fiscal year 2002 for HETCs.
    Mr. Chairman, thank you for the opportunity to present the views of 
the National AHEC Organization. We look forward to working with you and 
your staff. I would be happy to answer any questions that you or your 
colleagues may have.
                                 ______
                                 
      Prepared Statement of the National Rural Health Association
    The National Rural Health Association (NRHA) thanks Chairman 
Harkin, Ranking Member Specter and members of the Subcommittee for the 
opportunity to submit this testimony for the record regarding fiscal 
year 2003 appropriations for programs important to our nation's rural 
health care delivery system. We believe we can offer you an insightful 
look at the unique health care needs of rural and frontier Americans.
    The NRHA and its membership are grateful for the funding provided 
to rural health programs in fiscal year 2002 and the support shown for 
rural health by Congressional leaders. In fiscal year 2002 the 
Community Health Centers program, the National Health Service Corps, 
State Offices of Rural Health and Rural Health Policy Development 
(Research) received increased funding. In addition, $15 million was 
added to the Rural Hospital Flexibility Grant Program to help small 
hospitals respond to the requirements of HIPAA, upgrade billing systems 
and implement quality improvement.
    Over 22 million Americans live in rural and frontier areas. More 
than 8 million rural residents are uninsured and another 4.5 million 
are underinsured. The federal programs profiled below have a proven 
track record of expanding access to health care services in rural 
areas, thereby ensuring that the benefits of health care are available 
to all Americans, regardless of where they live.
    The NRHA is a national nonprofit membership organization that 
provides leadership on rural health issues. The association's mission 
is to improve the health of rural Americans and to provide leadership 
on rural health issues through grassroots advocacy, communications, 
education and research. The membership of the NRHA is a diverse 
collection of individuals and organizations, all of whom share the 
common bond of an interest in rural health. Individual members come 
from all disciplines and include hospital and rural health clinic 
administrators, physicians, nurses, dentists, non-physician providers, 
health planners, researchers and educators, state offices of rural 
health and policy-makers. Organization and supporting members include 
hospitals, community and migrant health centers, state health 
departments and university programs.
    One of the NRHA's top priorities is the National Health Service 
Corps program. The National Health Service Corps (NHSC) is a federal 
program aimed at encouraging health care professionals to practice in 
underserved rural and urban areas. Since 1972, 20,000 NHSC clinicians 
have fulfilled a pledge to serve rural and urban underserved 
communities in exchange for scholarships or loan repayment. Today 4.6 
million people who would otherwise lack access to health care are 
served by over 2,400 NHSC professionals. 60 percent of these provide 
health care services to rural and frontier Americans. The NHSC 
currently meets only 11.3 percent of overall need in Health 
Professional Shortage Areas (HPSAs). The NRHA believes that the 
National Health Service Corps deserves funding in fiscal year 2003 of 
$250 million to allow the program to provide access to health care to 
many more underserved rural and frontier communities.
    State offices of rural health coordinate rural activities and 
interests across the state, provide information and technical 
assistance to rural communities and help to improve recruitment and 
retention of health professionals. State offices of rural health also 
serve as coordinators for national programs such as the Rural Hospital 
Flexibility Program and the State Children's Health Insurance Program. 
State offices of rural health are funded by a 3:1 state to federal 
match, with states providing three times the contribution of the 
federal government. The NRHA is appreciative of the increase in fiscal 
year 2002 to $8 million for State Offices of Rural Health, and supports 
level funding at $8 million in fiscal year 2003.
    The Consolidated Health Centers Program is comprised of four parts: 
Community Health Centers, Migrant Health Centers, Health Care for the 
Homeless Programs and Public Housing Primary Care Programs. Currently 
over 1,000 health centers serve more than 11 million patients across 
the nation. Community health centers are an important part of the rural 
safety net, providing care to the uninsured and underinsured who would 
otherwise lack access to health care, including 5.4 million rural 
residents (1 out of 10). Community health centers focus on wellness and 
prevention in addition to primary care services and foster community 
bonds through consumer boards governing each center. The Bush 
administration has pledged to increase the number of community health 
centers to 1,200 nationwide, doubling the number of people served by 
these facilities. To adequately meet this goal and ensure new community 
health centers are added in rural areas, increased funding is 
necessary. The NRHA supports the expansion of the community health 
center program and advocates fiscal year 2003 funding of $1.544 
billion.
    Authorized under the Consolidated Health Centers Program, the Rural 
Health Outreach and Network Development Grant Program serves to support 
innovative health care delivery systems as well as vertically 
integrated health care networks in rural America. Rural Health Outreach 
and Network Development Grants help establish new partnerships between 
health organizations and other community institutions to improve the 
delivery of clinical care and enable health care providers to be more 
efficient by sharing resources. Since 1991, 3.2 million people in all 
but 4 states have been served by the Outreach and Network Development 
Grant Program through grants totaling $228 million. The grants provide 
up to $200,000 a year for 3 years to each grantee. About 60 percent of 
grantees have continued to provide services beyond their federal grant 
period.
    One Outreach grantee in rural eastern Iowa is the Maquoketa 
Community School District Health Access Project, which aims to increase 
access to health care for every school-aged child in their region. The 
project has four major goals: utilizing a community-wide planning group 
to determine local health care needs and strategies to meet these 
needs, conducting a yearly health assessment of every school-aged 
child, providing accessible medical services for students, and 
implementing monthly training and information sessions for parents and 
community members.
    A new Outreach grantee for fiscal year 2002 is the Pennsylvania 
Mountains Healthcare Alliance, a network of seven community based 
hospitals. The Rural Health Outreach grant funded by the federal 
government will allow this network of rural hospitals to install an 
integrated information management system, train personnel on this 
system, and implement a comprehensive data management program. This 
data management program has the potential to increase access to quality 
care for rural residents in underserved areas of Pennsylvania, 
providing a model for rural hospitals to follow in reducing costs, 
analyzing services provided and identifying and adopting best 
practices. Ultimately, the grant provided through the Rural Health 
Outreach Grant Program will help to improve health care for the 
population served by this network of health care providers.
    The NRHA advocates $60 million in fiscal year 2003 for the Rural 
Health Outreach and Network Development Grant Program. In adding 
special project earmarks to this line item, the NRHA strongly urges 
Congress not to let the base funding for Outreach and Network 
Development Grants to fall below the fiscal year 2002 level of $38.3 
million.
    Rural Health Policy Development (Research) funds health policy 
research focusing on the implications for rural Americans of decisions 
made by policymakers in Washington. The rural health research centers 
provide data on issues such as Medicare reimbursement, workforce and 
managed care in rural areas. The NRHA advocates $20 million in fiscal 
year 2003 for Rural Health Policy Development (Research). In adding 
special project earmarks to this line item, the NRHA strongly urges the 
Administration not to let the base funding for Rural Health Policy 
Development to fall below the fiscal year 2002 level of $10 million.
    The Rural Hospital Flexibility Grant Program allows small, low-
volume hospitals to convert to Critical Access Hospitals (CAHs), which 
provide needed emergency, outpatient and short-stay inpatient services. 
CAHs are encouraged to develop a network with other full-service 
hospitals in their region in order to provide a full range of needed 
services. It also helps communities to ensure that needed services, 
such as emergency medical services, will be available to their 
citizens. The Flex Program has been a lifeline to many communities, 
allowing them to keep their hospital open while networking different 
types of providers to ensure a continuum of care is available to rural 
residents. The NRHA advocates $40 million in fiscal year 2003 for the 
Rural Hospital Flexibility Grant Program.
    The NRHA is very concerned about the shortage of health 
professionals in rural areas and supports health professions programs 
that train the future workforce for the rural health care 
infrastructure. Many health professions grant programs funded by the 
Department of Health and Human Services have a rural focus or 
component. Graduates of training programs with a rural component are 
more likely to practice in rural areas, therefore funding of these 
programs is critical to ensuring access to health care for rural 
residents.
    Included in the Bureau of Health Professions (BHPr) are several 
programs that help to support the delivery of health care services in 
rural areas. The Primary Care Training cluster includes General 
Pediatrics, General Internal Medicine, Family Medicine, General 
Dentistry, Pediatric Dentistry, and Physician Assistants, provides for 
the education and training of primary care physicians, dentists, and 
physician assistants to improve access and quality of health care in 
underserved areas.
    In the Interdisciplinary, Community-Based Linkages cluster of BHPr, 
the Area Health Education Centers have been a critical part of 
delivering the resources of academic health centers to students and 
clinicians in more remote rural and frontier areas. The Quentin N. 
Burdick Program for Rural Health Interdisciplinary Training facilitates 
collaboration between academic institutions and rural health care 
providers to improve the recruitment and retention of health 
professionals to serve rural areas.
    The Public Health Workforce Development programs in BHPr are 
designed to increase the number of individuals trained in public health 
as well as to update the training of current public health 
professionals. Recent bioterrorism challenges and threats have 
highlighted the extent to which the public health infrastructure in the 
United States is uneven in its ability to respond to these challenges. 
Data compiled by the U.S. Department of Health and Human Services shows 
that less than half of the nation's public health agencies have the 
capacity to provide essential public health services. At this time when 
public health professionals are being asked to take on a critical role 
in surveillance and responding to bioterrorist attacks and threats, the 
public health workforce development deserves continued support by the 
federal government.
    The Nursing Workforce Development programs provide training for 
basic and advanced degree nurses to improve the access to, and quality 
of, health care in underserved areas. Health care entities across the 
nation are experiencing a crisis in nurse staffing, caused in part by 
an aging workforce and lack of young people entering the profession. 
This crisis is felt more acutely in rural and frontier areas, which 
have a harder time recruiting staff and have trouble competing with the 
higher salaries and benefits offered in suburban areas. The Nursing 
Workforce Development programs are critical to making sure that health 
care professionals are available to provide services in underserved 
areas.
    The NRHA is concerned that the President's proposed budget includes 
a drastic cut in funding for Health Professions programs and advocates 
funding of $690 million (including $250 million for National Health 
Service Corps) in fiscal year 2003 for these programs.
    Telehealth services address essential access to health care needs 
for rural Americans. These innovative programs currently provide 
medical care, technical assistance, distance learning and training 
programs to rural Americans in more than 30 states. The NRHA advocates 
$40 million for this program in fiscal year 2003. In adding special 
project earmarks to this line item, the NRHA strongly urges Congress 
not to let the base funding for Telehealth to fall below the fiscal 
year 2002 level of $6.1 million.
    The Community Access Program (CAP) provides grants to health care 
providers to build integrated health care networks to serve uninsured 
and underinsured local residents. Because rural communities have a high 
rate of uninsured, CAP has been an essential program in various rural 
communities throughout the nation. The NRHA urges Congress to continue 
funding for this program, and advocates funding of $125 million in 
fiscal year 2003 for CAP.
    The NRHA thanks Chairman Harkin and the members of the subcommittee 
for the opportunity to submit testimony for the record on vital rural 
health programs supported by the federal government. We look forward to 
working with you as the annual appropriations process moves forward, 
and stand ready to help the Subcommittee and the Congress to ensure 
access to quality health care services for rural and frontier 
Americans.
                                 ______
                                 
          Prepared Statement of the Kennedy Krieger Institute
    The Kennedy Krieger Institute in Baltimore, Maryland, appreciates 
the opportunity to present its views on a number of important fiscal 
year 2003 budget priorities. We seek your support for a $1.5 million 
facilities construction request and we also would like to highlight the 
efforts of three federal agencies under your jurisdiction and the 
important work that they do to strengthen the capacity of programs, 
such as the Kennedy Krieger Institute, to make progress in the 
important areas of education and health.
                     the kennedy krieger institute
    The Kennedy Krieger Institute is an independent research 
institution located adjacent to Johns Hopkins University. The mission 
of the Institute is to focus solely on disorders related to the brain 
and central nervous system. Brain related disorders effect one in four 
adults and one in ten children at a cost to society of $400 billion per 
year. The overall goal of research at the Kennedy Krieger Institute is 
to understand the developing central nervous system through the study 
of relationships between genes, the brain and human behavior. Although 
the Institute has special expertise with regard to children, the 
research scope includes studies of changes in the brain and the central 
nervous system across the lifespan.
    The Kennedy Krieger Institute is a comprehensive resource for 
children with disabilities, recognized as a research facility and 
training center for health care professionals from around the world. 
The Institute treats a wide array of children with neurological 
diseases including, but not limited to, Down syndrome; attention 
deficit hyperactivity disorder; lead poisoning, autism; cerebral palsy; 
genetic and metabolic disorders, like fragile X syndrome, 
neurofibromatosis, tay sachs disease, tourette syndrome; spina bifida; 
degenerative brain disorders; mental retardation; and many others. The 
Institute is well-known for its strong interdisciplinary research and 
care in many fields including medicine, psychology, education, physical 
and occupational therapy, audiology, speech and language therapy, 
social work, child development, nutrition and nursing.
    the kennedy krieger institute community behavioral health center
    The Kennedy Krieger Institute's inpatient neurobehavioral unit is 
specifically designed to work with multi-disabled children with severe 
behavioral problems. Intensive, individualized programs are designed, 
implemented and taught to parents and other caregivers. The most 
rewarding aspect of this program is that it allows many children to 
avoid life-long institutionalization and return to their homes. The 
Institute integrates cutting edge neurobiological and behavioral 
research efforts into a comprehensive program which also includes day 
treatment services; outpatient services; home and community services; 
and school programs for children with disorders of the brain. 
Interdisciplinary teams at the Institute devise innovative approaches 
to meet the total needs of their young patients. Because pediatric 
brain disorders are difficult to diagnose, one of the Institute's most 
important services is assessment. Parents from around the country and 
around the world bring their children to Kennedy Krieger to obtain 
accurate diagnoses and comprehensive treatment, all in one place.
    The Kennedy Krieger Institute is seeking federal support through 
the Health Resources and Services Administration (HRSA) facilities 
construction account to assist in the construction of a four-story, 
80,000 square foot, Community Behavioral Health Center in East 
Baltimore. The Center will provide a comprehensive, multi-dimensional, 
interdisciplinary environment in which to evaluate, diagnose, treat, 
and recommend and offer behavioral management services to children and 
adolescents with developmental or acquired disabilities and those with 
severe and challenging behaviors. The Center will include new bedrooms, 
classrooms and living area, as well as treatment and observation rooms.
    Over the past 10 years, the Kennedy Krieger Institute has grown 
such that it occupies space in multiple locations in Baltimore City. 
Behavioral management programs are currently housed at several 
different Kennedy Krieger sites (the Broadway facility, Fairmount 
School, Biddle Street Complex and Hopkins Bayview Campus) because of a 
lack of space to consolidate these programs at any one site. By uniting 
and expanding the scope of services already offered by Kennedy Krieger 
Institute, the Center will foster greater interdisciplinary 
collaboration that will ultimately benefit the patients, family and 
staff of KKI--as well as address the outstanding need for additional 
behavioral health services.
    Request: The Kennedy Krieger Institute seeks $1.5 million from the 
U.S. Department of Health and Human Services Health Resources and 
Services Administration (HRSA) facilities construction account in the 
fiscal year 2003 Labor-HHS-Education Appropriations bill. This funding 
will contribute to the support received from foundation and private 
sources, and federal, state, and local agencies for the construction of 
the Kennedy Krieger Institute Community Behavioral Health Center.
                      basic and clinical research
    The Board of Directors, the researchers, health professionals and 
patients and families at the Kennedy Krieger Institute are all very 
grateful for the support that this Committee has provided to the 
National Institutes of Health (NIH) over the past several years. The 
resources that Congress has appropriated have enabled the research 
community to grasp research opportunities that a decade ago we could 
not even have dreamed possible. This is making an incredible difference 
in the lives of the children that we treat.
    We are currently experiencing an unprecedented appreciation of the 
benefits to health and life quality that can result from biomedical and 
behavioral research. Of particular note is the most welcome present and 
predicted increase in public sector funding for basic research and the 
dramatic, if not explosive, private sector investment in biology. With 
such appreciation and tangible support comes the responsibility to 
organize the scientific enterprise so as to produce effective 
interventions. And, our challenges are many.
    Many children with developmental disabilities and neurological 
diseases display severe behavior problems. The mission of our basic and 
clinical research, clinical care, and educational programs is to 
improve the quality of life for these children and their families 
through a variety of mechanisms including:
  --providing advanced and comprehensive treatment services;
  --promoting the widespread dissemination of effective interventions; 
        and
  --improving treatment technologies through basic and clinical 
        research.
    With that said, we support treatment and research initiatives 
including but not limited to behavior programs, pediatric feeding 
disorders, neuroimaging, basic and clinical research efforts and 
training.
    The National Institute of Child Health and Human Development 
(NICHD) and the National Institute of Neurological Diseases and Stroke 
(NINDS) support a number of important initiatives with regard to brain 
biology; neurobehavioral assessment and protocol development; 
translation studies related to cognition pathways of learning disorders 
from a developmental perspective; molecular sciences to further 
understand the molecular basis of many developmental disabilities; 
brain mapping; and other basic and clinical programs which are at the 
core of the programs conducted at the Kennedy Krieger Institute. 
Further, the National Center for Research Resources (NCRR) supports 
important neuroimaging studies for neuroscience, metabolic, behavioral, 
and other research. The Kennedy Krieger Institute receives funding from 
the NCRR for our neurobehavior research unit through a subcontract from 
the Johns Hopkins University General Clinical Research Center (GCRC). 
The support we receive is used to conduct studies related to functional 
imaging. We believe it is important for the Committee to consider an 
NIH National Imaging Network for Clinical Research that will enable 
NCRR to provide the resources to create links between the GCRC to the 
imaging center. This sort of infrastructure would be vitally important 
to facilitate and integrate research networks.
    Clearly, multiple programs supported by the NIH enrich our capacity 
to address important basic and clinical research issues in the 
population that we serve. The work of this Committee ensuring a 
sustained commitment to these programs has enabled institutions, such 
as ours, to move forward at unprecedented speed. To that end, we also 
urge the Committee to continue its efforts in support of the NIH.
    Request: The Kennedy Krieger Institute endorses the recommendation 
of the Ad Hoc Group for Medical Research Funding calling for a $3.7 
billion increase for NIH, resulting in a total NIH budget of $27.3 
billion in fiscal year 2003. The Kennedy Krieger Institute commends the 
President for proposing a $27.3 billion budget for NIH, which if 
approved, will complete the national bipartisan campaign to double the 
NIH budget over 5 years.
    We thank the Committee for its past support and we greatly 
appreciate the opportunity for the Kennedy Krieger Institute to present 
it views relative to fiscal year 2003 program priorities.
                                 ______
                                 
Prepared Statement of the National Assembly on School-Based Health Care
  --Every day over 52 million of America's children go to school--many 
        needing health care services to be successful in school.
  --But in only 1400 schools nationwide, parents have a solution: 
        school-based health centers.
  --In these centers, through community, health and school 
        partnerships, students can get regular check ups, 
        immunizations, asthma care, mental health counseling, and other 
        essential services.
  --Federal support is needed so that communities and families can 
        organize school-based health centers.
    Federal public health and primary care appropriations play a 
critical role in supporting the delivery of medical and mental health 
services in school settings. The National Assembly on School-Based 
Health Care (NASBHC) urges the Committee's support for programs that 
emphasize the coordination of public health, primary care, mental 
health and pupil support services in school settings where students can 
access on-site services that promote good health and academic success.
    The Maternal and Child Health Block (Title V of the Social Security 
Act) is used by many state and local health departments to fund health 
and mental health services in schools. Despite great demand and 
competition from communities to create school-based health programs, 
these dollars are limited. As states seek to balance budgets through 
difficult program cuts, federal public health funding will be even more 
critical. We urge Congress to fully fund the authorized level of the 
maternal and child health block grant.
    Healthy Schools, Healthy Communities is the first program in the 
Health Resources and Services Administration to receive funding solely 
for promoting and establishing school-based health centers. Created in 
fiscal year 1994 under Section 330 of the Public Health Service Act and 
administered by the Bureau of Primary Health Care, Healthy Schools, 
Healthy Communities provides direct service funding to community health 
care organizations for the purpose of delivering comprehensive 
interdisciplinary primary care (including nutrition, mental health, 
dental care, and social services) to at-risk children and adolescents 
where they are most accessible: in their schools. School-based health 
centers are considered a significant vehicle for achieving 100 percent 
access and zero health disparities for at-risk school-age children.
    The National Assembly on School-Based Health Care seeks $25 million 
to fund the existing 75 Healthy Schools Healthy Communities grantees 
and to add 25 additional sites to the program.
    State School-Based Health Care Organizations.--An amendment to the 
Senate's 2001 Health Care Safety Net legislation (not yet passed out of 
the full Senate as of this writing) includes a $5 million authorization 
for state school-based health center networks to coordinate federal, 
State, and local health care services that contribute to the delivery 
of school-based health care; provide technical support training; and 
conduct operational and administrative support activities for statewide 
SBHC networks.
    Why is this important?
  --With states facing revenue shortages, publicly funded school-based 
        health centers are in great danger of being crippled by 
        difficult budget decisions.
  --The legislation would create statewide support organizations to 
        ensure that the centers are able to access the myriad public 
        health, mental health, Medicaid and pupil support dollars that 
        ensure the delivery of quality, comprehensive health and mental 
        health services to school-aged children and youth.
  --It would help centers maximize operational effectiveness and 
        efficiency by providing technical support training
  --State organizations could provide technical assistance for 
        communities interested in planning and implementing school-
        based health centers.
    Thank you for your consideration of these critical services. With 
your support, more families can send their kids to school confident in 
the knowledge that the school and community are protecting and 
promoting their children's health and well-being.
                                 ______
                                 
        Prepared Statement of the American Academy of Pediatrics
    This statement is submitted on behalf of the American Academy of 
Pediatrics and the endorsing organizations, the Society for Adolescent 
Medicine and the Ambulatory Pediatric Association. The American Academy 
of Pediatrics of Pediatrics is an organization of 55,000 primary care 
pediatricians, pediatric medical subspecialists and pediatric surgical 
subspecialists dedicated to the health of all children. The Ambulatory 
Pediatric Association is an organization of over 2,000 members who are 
academic general pediatricians and child health professionals. The 
Society for Adolescent Medicine includes over 1,400 physicians, nurses, 
psychologists, social workers, nutritionists and others involved in 
service delivery, teaching or research on the health and welfare of 
adolescents.
    America's children are generally healthier now than they were only 
half a generation ago. National infant mortality and child death rates 
have dropped significantly over the last decade, and today nearly 81 
percent of 2-year-olds have received their immunizations. However, 
despite these significant improvements, 12.3 million children and 
adolescents through age 21 remain uninsured. Moreover, racial and 
ethnic health disparities for many children and adolescents continue to 
exist. Clearly, we have much work to do. As clinicians we must not only 
diagnosis and treat our patients but also promote strong preventive 
interventions to improve the overall health and well-being of all 
infants, children, adolescents and young adults. Likewise as policy-
makers, you have an integral role to play in improving the health of 
the next generation through sustained and adequate funding of vital 
federal programs.
    Last year the American Academy of Pediatrics had identified four 
key priorities to improve the health and well being of America's 
children and adolescents: access to health care, quality of health 
care, immunizations and physician payment. However, recent events have 
identified a fifth and critical priority--terrorism and emergency 
preparedness. Our statement will focus on those issues that most 
immediately fall under the jurisdiction of this committee--access, 
quality, immunizations and terrorism and emergency preparedness.
                                 access
    We believe that all children and adolescents should have full 
access to health care. From the ability to receive primary care from a 
pediatrician trained in the unique needs of children to timely access 
to pediatric medical subspecialists and pediatric surgical specialists, 
America's children deserve access to quality pediatric care.
    Maternal and Child Health.--The Maternal and Child Health (MCH) 
Block Grant Program is the only federal program exclusively dedicated 
to improving the health of all mothers and children. In addition to 
directly providing preventive and primary care services to more than 27 
million women, children and adolescents nationwide, the MCH Block Grant 
Program supports community programs around the country in their efforts 
to reduce infant mortality, prevent injury and violence, expand access 
to oral health care, address racial and ethnic health disparities and 
provide comprehensive care for children with special health care needs. 
The MCH Block Grant Program also plays a significant role in the 
implementation of the State Child Health Insurance Program (SCHIP).
    One of the many successful MCH Block Grant programs is the Healthy 
Tomorrows Partnership for Children Program, a public/private 
collaboration between the MCH Bureau and the American Academy of 
Pediatrics. In its 14th year, Healthy Tomorrows supports family-
centered, community-based initiatives in over 120 communities, 
including Ohio, Wisconsin, Texas, and Maryland, that work to address 
such issues as access to care, preventive health care and comprehensive 
service coordination. To continue to foster these and other community-
based solutions for local health problems, in fiscal year 2003 we 
strongly support an increase in funding for the MCH Block Grant Program 
to $850 million, the full authorization level.
    Adolescent Health.--Many of today's adolescent health care needs 
are addressed through a network of public and private services. For 
example, the MCH Block Grant Program includes efforts dedicated to 
addressing interdisciplinary adolescent training and services and 
research for adolescents' physical and mental health care needs. HRSA's 
Office of Adolescent Health also supports programs for vulnerable 
populations, including health care initiatives for incarcerated and 
minority group adolescents, and violence and suicide prevention. The 
family planning program, Title X of the Public Health Services Act, 
ensures that all teens have access to valuable family planning 
resources. Title X does not include funding for abortion services. 
Continued vigilance is needed, however, if the myriad of health care 
needs of America's teens is to be met. In particular, the consequence 
of adolescent pregnancy, sexually transmitted diseases (STDs), and HIV/
AIDS demands that adolescents be able to make informed, responsible 
sexual decisions. While a report by Child Trends suggests the 
percentage of teenagers having sexual experiences is declining, 
research also indicates that those teens who are engaging in sexual 
activity are inconsistently using contraception and therefore still at 
great risk. Responsible sexual decision-making, beginning with 
abstinence, is the surest way to protect against sexually transmitted 
diseases and pregnancy. However, for adolescent patients who are 
already sexually active, confidential contraceptive services, screening 
and prevention strategies should be available. We therefore support a 
funding level in fiscal year 2003 of $325 million for Title X of the 
Public Health Service Act.
    Mental Health.--It is estimated that 13.7 million children and 
adolescents have a diagnosable mental or emotional disorder and that 
approximately 7.5 million of those children and adolescents under the 
age of 18 require mental health services. Unfortunately, these numbers 
could increase as children and adolescents continue to adjust to the 
new stressors introduced in the aftermath of the events of September 
11. Despite these startling statistics, the National Institute of 
Mental Health (NIMH) estimates that fewer than one in five of these 
children receive the help they need. One key point of access for 
helping these children receive the mental health care they need is the 
inclusion of mental health services--provided by qualified counselors, 
psychologists, and social workers--in this nation's schools. The Safe 
and Drug Free Schools and Communities Program recognized the importance 
of these services, which provide critical interventions, deter students 
from delinquent activity and help all children focus on learning. To 
ensure the continued and growing success of this program and others 
focusing on children and adolescents suffering from mental health 
problems, the American Academy of Pediatrics and the endorsing 
organizations recommend that $140 million be allocated in fiscal year 
2003 for the Mental Health Services for Children program.
    Health Professions Education and Training.--Critical to building a 
pediatric workforce to care for tomorrow's children and adolescents are 
the Training Grants in Primary Care Medicine and Dentistry, found in 
Title VII of the Public Health Service Act. These grants are the only 
federal support targeted to the training of primary care professionals. 
They provide funding for innovative pediatric residency training, 
faculty development and post-doctoral programs throughout the country. 
For example, the University of Maryland-Baltimore has used Title VII 
funds to establish an innovative pediatric residency training and 
education program that helps pediatricians provide better care to 
underserved communities. Located in a federally-designated 
``empowerment zone,'' the program combines workshops and clinical 
experiences to improve pediatric residents' understanding of the impact 
of cultural diversity on the practice of medicine and the primary 
skills needed to care for underserved patients. The program also allows 
residents to gain insight into the basic principles of managed care 
through a 1-month rotation focusing on the administrative aspects of 
managed care practice.
    Through the enduring support of Congress, the Title VII program has 
continued to finance exciting educational opportunities in a variety of 
settings to educate and train tomorrow's generalist pediatricians to be 
culturally competent and to meet the health care needs of their 
communities. We recommend fiscal year 2003 funding of at least $40 
million for General Internal Medicine/General Pediatrics. We also join 
with the Health Professions and Nursing Education Coalition in 
supporting an appropriation of at least $550 million in total funding 
for Titles VII and VIII. We further recommend an increase in funds in 
fiscal year 2003 for the National Health Service Corps, a key component 
to ensuring an adequate distribution of health care providers across 
the country, but emphasize the need for continued support of training 
and education opportunities for health care professionals who will work 
in these areas.
    Independent Children's Teaching Hospitals.--Equally important to 
the future of pediatric education and research is the dilemma faced by 
independent children's teaching hospitals. Children's hospitals across 
the country are critical to the care of the nation's children and play 
a significant role in training tomorrow's pediatricians and pediatric 
subspecialists. However, these hospitals qualify for very limited 
Medicare support, the primary source of funding for graduate medical 
education in other inpatient environments. As a bipartisan Congress has 
recognized in the last few years, funding is needed to continue the 
education and research programs in these child- and adolescent-centered 
settings. We therefore join with the National Association of Children's 
Hospitals to recommend ongoing funding of this program plus an 
adjustment for nominal inflation as permitted under the law, for $292 
million. The support for independent children's hospitals should not 
come, however, at the expense of valuable Title VII and VIII programs, 
including grant support for primary care training.
                                quality
    Access to health care is only the first step in protecting the 
health of all children and adolescents. We must ensure that the care 
provided is of the highest quality. Robust federal support for the wide 
array of quality improvement initiatives is needed if this goal is to 
be achieved.
    Research.--Quality of care rests on quality research--for new 
detection methods, new treatments, new technology and new applications 
of science. As the lead federal agency on quality of care research, the 
Agency for Healthcare Research and Quality (AHRQ) provides the 
scientific basis to improve the quality of care, supports emerging 
critical issues in health care delivery and addresses the particular 
needs of priority populations, such as children. Substantial gaps still 
remain in what we know about health care needs for children and 
adolescents and how we can best address those needs. Children are often 
excluded from research that could address these issues. The AAP 
strongly supports AHRQ's objective to encourage researchers to include 
children as part of their research populations. We also support 
increasing AHRQ's efforts to build pediatric health services research 
capacity through career and faculty development awards and practice-
based research networks. As AHRQ's research agenda moves forward it is 
important to continue to provide policymakers, health care providers, 
and patients with the information to continuously improve health care 
therefore, we join with the Friends of AHRQ to recommend funding of 
$390 million for AHRQ in fiscal year 2003.
    Since its inception, the National Institutes of Health (NIH) is an 
integral part of the public health continuum. NIH has served as a vital 
component in improving the nation's health through research, both on 
and off the NIH campus, and in the training of research investigators. 
Over the years, NIH has made dramatic strides that directly impact the 
quality of life for infants, children and adolescents through 
biomedical and behavioral research. For example, even with existing 
racial and ethnic health disparities, the overall life expectancy of a 
baby born today is almost 30 years greater then a child born at the 
beginning of the 20th century. One reason is due to the development of 
a substance to prevent the lungs of an infant from collapsing when he/
she is born with respiratory distress syndrome, an immaturity of the 
lungs. Another reason is development of vaccines to protect against 
infectious diseases that once killed or disabled millions of children 
and adults. The pediatric community applauds the ongoing commitment of 
Congress, through the leadership of this subcommittee, to increase NIH 
funding. We join with the Ad Hoc Group for Medical Research Funding in 
recommending an appropriation of $27.3 billion for NIH to achieve the 
bipartisan goal of doubling the NIH by 2003. In addition, to ensure 
ongoing child and adolescent focused research, such as the National 
Longitudinal Study of Adolescent Health and the National Children's 
Study conducted at the NICHD; we join with the Friends of NICHD 
Coalition in requesting $1.284 billion in fiscal year 2003.
    We commend this committee's ongoing efforts to make pediatric 
research a priority at the highest level of the NIH. We urge continued 
federal support of NIH efforts to increase pediatric biomedical and 
behavioral research, including such proven programs as targeted 
training and education opportunities and loan repayment. We recommend 
an appropriation of at least $10 million for ongoing support for the 
Pediatric Research Initiative in the Office of the NIH Director and 
sufficient funding to continue the new pediatric training grant and 
pediatric loan repayment programs enacted in the Children's Health Act 
of 2000 to ensure that we have adequately trained pediatric researchers 
in multiple disciplines that will not come at the expense of other 
important programs.
    Finally, as clinicians, we know first hand the considerable 
benefits for children and society in securing properly studied and 
dosed medications. These benefits include reduced medical errors and 
adverse drug effects; reduced health care costs through fewer 
hospitalizations and shortened hospital stays; and availability of more 
child-friendly formulations for infants and children. But until now 
there has been little incentive for drug companies to study off-patent 
drugs--drugs that are critically needed therapies for children. 
Therefore, we urge your support to provide the NIH with sufficient 
funding--$200 million--to establish a fund to study generic (off-
patent) and selected on-patent drugs for pediatric use.
    We believe that these requests represent the best and most reliable 
estimate of the level of funding needed to sustain the high standard of 
scientific achievement embodied by the NIH. However, we continue to 
encourage Congress to explore all possible options to identify 
additional sources of funding needed to support these increases if we 
are to reach this goal and not weaken any other valuable component of 
the Public Health Service.
                             immunizations
    Since the advent of the polio vaccine in 1955, the United States 
has invested in a national immunization campaign to prevent the 
population from contracting devastating diseases such as smallpox, 
polio, diphtheria, pertussis, measles and meningitis. For example, 
measles, a disease so close to elimination in the western-hemisphere 
that today many parents as well as most of our pediatric residents in 
training have never seen a case of measles. In 2000, there were 
approximately 81 cases of measles resulting in 19 hospitalizations for 
a total of 77 days. Before the vaccine became available, measles killed 
3,000 children a year in the United States and also caused 48,000 
children to be hospitalized each year. We have to be sure to keep 
vaccinating our children against illnesses. The fact that we do not see 
those diseases anymore simply means the vaccines are working, and they 
will only continue to work if we continue to immunize our children.
    Pediatricians, working alongside public health professionals and 
other partners, have brought the United States its highest immunization 
coverage levels in history. As a result, disease levels are at, or 
near, record low levels. We attribute this, in part, to the Vaccines 
for Children (VFC) Program and encourage Congress to maintain its 
commitment to ensuring the program's viability. The VFC program 
combines the efforts of public health and private pediatricians and 
other health care professionals to accomplish and sustain vaccine 
coverage goals for both today's and tomorrow's vaccines. It removes 
vaccine cost as a barrier to immunization for some and reinforces the 
concept of a ``medical home.''
    The public health infrastructure that now supports our national 
immunization efforts must not be jeopardized with insufficient funding. 
One of the conclusions of the Institute of Medicine report, Calling the 
Shots, was that unstable funding for state immunization programs 
threatens coverage levels for specific populations and age-groups and 
vaccine safety. Here are three examples that reinforce the need for a 
strong and sufficient infrastructure. First, adolescents continue to be 
adversely affected by vaccine preventable diseases (e.g., chicken pox, 
hepatitis B, measles and rubella, also known as German measles). 
Comprehensive adolescent immunization activities at the national, state 
and local level are needed to achieve national disease elimination 
goals. Second, adequate funding is needed for the implementation of the 
December 2000 Executive Memorandum to improve immunization rates for 
children at risk, through the Special Supplemental Nutrition Program 
for Women, Infants, and Children (WIC). Estimates are that in 41 
states, the immunization rates for children enrolled in WIC are lower 
than the rates for other children in their age group--in some cases by 
as much as 20 percent. Lastly, continued investment in CDC efforts to 
assist states in developing immunization information systems will serve 
to maintain high immunization levels by reminding parents when 
immunizations are due or overdue. It also helps pediatricians and other 
health care professionals know the immunization status of the children 
they serve in general and specifically when on the very rare occasion 
there is an adverse event or a recall notice of a particular vaccine 
lot.
    While the ultimate goal of immunizations clearly is eradication of 
disease, the immediate goal must be prevention of disease in 
individuals or groups. To this end, we strongly believe that continued 
investment in CDC efforts must be sustained. In fiscal year 2003, we 
recommend at least $696 million for CDC's immunization program and 
sufficient funding for CDC's global immunization initiatives that 
includes funding for polio eradication and the elimination of measles 
and rubella.
                  terrorism and emergency preparedness
    As with many other aspects of health care research and delivery, 
children's unique health and mental health needs require special 
consideration when it comes to terrorism and emergency preparedness. 
Children are not little adults--they require different equipment and 
supplies, as well as different drugs and drug dosages, if they are to 
survive a terrorist attack or other disaster.
    One specific program that assists local communities in providing 
quality care to children in such situations is the Emergency Medical 
Services for Children (EMSC) grant program. While children currently 
account for up to 30 percent of all emergency department visits and 10 
percent of ambulance runs annually, many facilities lack the 
specialized equipment needed to care for children. Moreover, many 
emergency personnel do not have the necessary education or training to 
provide optimal care to children. In order to assist local communities 
in providing the best emergency care to children, we urge that the EMSC 
program be funded at $25 million in fiscal year 2003.
    Beyond the EMSC program, we know that the broader public health 
infrastructure must be strengthened if children and their families are 
to receive quality care following a terrorist attack or other disaster. 
Local pediatricians and pediatric specialists, children's hospitals, 
poison control centers, schools and other child care facilities must be 
active partners in the public health system, working together with 
first responders, public health offices and public health laboratories. 
To that end, the Academy joins the broader public health community in 
recommending at least $940 million for upgrading state and local health 
capacities in fiscal year 2003.
                               conclusion
    We appreciate the opportunity to provide our recommendations for 
the coming fiscal year. As this Subcommittee is once again faced with 
difficult choices and multiple priorities we know that as in the past 
years, you will not forget America's children.
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine
    As Vice President for Health Services and Medical Affairs of the 
New York Institute of Technology and Chair of the Board of Governors of 
the American Association of Colleges of Osteopathic Medicine (AACOM), I 
am pleased to present the views of our nineteen colleges on fiscal year 
2003 appropriations for health professions education assistance 
programs under Titles VII and VIII of the Public Health Service Act. 
First, I would like to express AACOM's appreciation for the continued 
efforts of this Subcommittee to maintain a commitment to health 
professions education. The Subcommittee's vision has enabled colleges 
of osteopathic medicine in particular to address the physician 
workforce needs dictated by a rapidly changing health care delivery 
system.
    However, we are not yet able to say that we are in a position to 
meet these workforce needs completely. Healthy People 2010, a document 
that serves as a blueprint for health care delivery, has articulated 
two overarching goals: Increase the Quality and Years of Healthy Life; 
and Eliminate Health Disparities. To achieve these goals by 2010, we 
must begin now to train health professionals who have the necessary 
skills and commitment. More than ever, institutions need the support of 
Title VII and Title VIII programs to develop a workforce consistent 
with Healthy People 2010.
    The principal vehicle for addressing the specialty and geographic 
maldistribution of physicians has been through primary care education 
and training. The AACOM member schools have a long history of 
dedication to training primary care physicians to work in America's 
smaller communities, rural areas and underserved urban areas. 
Osteopathic physicians represent 5.5 percent of the U.S. physician 
workforce, but constitute 15 percent of the physicians practicing in 
communities of fewer than 2,500 in population. This commitment is 
reflected in our institutions' missions and in the profile of our 
medical students. Our latest data show that over 40 percent of our 
entering students come from small towns and rural areas (i.e., towns of 
fewer than 50,000).
    In addition, the Senate Special Committee on Aging recently 
conducted a hearing focusing on the ``crisis in the shortage of 
geriatric-trained health care professionals.'' Senator John Breaux, 
Chairman of the Committee stated that, ``These shortages are not only a 
threat to an increasing number of elderly Americans, but also to the 
economic health of our country.''
    Similarly, the osteopathic medical education community is sensitive 
to the increasing gap between the number of elderly patients and the 
number of physicians trained specifically to serve this growing 
population. Several colleges of osteopathic medicine have established 
geriatric centers, utilizing Title VII funding.
    The health professions assistance programs under Title VII of the 
Public Health Service Act have been valuable in our efforts to ensure 
these commitments. Support under these programs include: training of 
underrepresented minority and disadvantaged students; general internal 
medicine residencies; general pediatric residencies; family medicine 
training; preventive medicine residencies; Area Health Education 
Centers; Health Education and Training Centers; Health Career 
Opportunities Programs; Centers of Excellence Programs; and geriatric 
training authority.
    Title VII also authorizes student assistance programs that are 
especially important to osteopathic medical students. Our students have 
the highest average debt upon graduation among the health professions 
($128,000). Congress should be concerned with minimizing the debt load 
of graduates of health professions schools, if they, in turn, can be 
expected to hold down medical costs, practice in primary care, and 
locate in underserved areas.
    Accordingly, Mr. Chairman, AACOM recommends that the fiscal year 
2003 funding level for Titles VII and VIII of the Public Health Service 
Act be increased to $550 million. These figures do not include funding 
for children's hospitals graduate medical education programs or for the 
National Health Service Corps which are amounts separate from Titles 
VII and VIII funding. This funding level would provide a much needed 
boost toward ensuring that training of a workforce who will be 
delivering the types of services and providing the full access to these 
services identified in Healthy People 2010.
    Again, I appreciate the opportunity to present our views to the 
Subcommittee. If I can provide you with any additional information, you 
may contact either me at the New York Institute of Technology or 
Michael Dyer, Vice President for Government Relations at AACOM at (301) 
968-4151.
                                 ______
                                 
  Prepared Statement of the Lovelace Respiratory Research Institute, 
                            Albuquerque, NM
    It is proposed that the Department of Health and Human Services 
through Office of the Secretary--Minority Health Account support the 
development of the Minority Respiratory Health Center. This Center will 
address the crises affecting minority populations experiencing a much 
higher and more severe level of respiratory disease, especially those 
located in major metropolitan areas. Diseases like asthma, and smoking 
related diseases like lung cancer and emphysema, are rising at 
unprecedented rates. The Lovelace Initiative seeks a partnership with 
the HHS to address the acute need to attack those most severely 
impacted by the respiratory epidemic.
    We respectfully request $4 million. The appropriate Federal agency 
is the Department of Human and Health Services, Office of the 
Secretary--Minority Health Account.
                              the problem
    Vulnerable populations in the United States, especially those 
located in major metropolitan areas, are experiencing a much higher and 
more severe level of respiratory disease. Diseases like asthma, and 
smoking related diseases like lung cancer and emphysema, are rising at 
unprecedented rates.
  --The number of asthma sufferers has more than doubled between 1980 
        and 1998.
  --Of this group, children make up more than half.
  --Asthma disproportionately affects inter-city dwellers mostly in 
        Hispanic and African American families.
  --The rate is of asthma in these populations is 2\1/2\ times higher 
        than the asthma rate in whites.
  --The hardest hit are children of Puerto Rican descent who are 2 to 3 
        times more likely to have asthma than any other ethnic group. 
        20 percent to 30 percent of these kids from 6 months to 11 
        years old have asthma.
  --African-American children must face a death rate from asthma of 3 
        times that of the general population as a whole.
  --The NY Department of Health reports that up to 30 percent of the 
        children in its minority populations have asthma.
                              the solution
The Minority Respiratory Health Center--attacking the disproportional 
        impact of respiratory disease on our minority populations
    The Lovelace Respiratory Research Institute founded the Minority 
Respiratory Health Center to address this national crisis.
  --The Minority Center will provide a focused research plan that 
        addresses the creation of treatments and preventions to address 
        this disparate impact of respiratory disease.
  --The Center is pursuing treatments that are particularly effective 
        in addressing the needs of these vulnerable populations, 
        including: developing an aerosol vaccine for the asthma, 
        developing preventative treatments that take advantage of the 
        genetic tools developed in recent years, and providing more 
        systemic and clinical treatment protocols that are more 
        tailored to the lifestyle needs of these populations.
  --The Center will provide opportunity for the development of minority 
        researchers and technical workers.
  --The Center will also develop a communication network for 
        distributing, receiving and linking to these targeted 
        populations. It will also serve as an advocacy center for 
        gaining national support to continue the attack until this 
        epidemic is wiped out.
                            research agenda
    Through several key lines of research, the scientists at LRRI in 
conjunction with the Minority Center are evolving a comprehensive 
program to understand the mechanisms by which minority populations are 
at greater risk for respiratory disease and to try to design 
inexpensive, non-labor intensive new approaches to treatment and 
prevention. The areas of focus for these scientists will be Asthma, 
COPD/emphysema, lung cancer, environmental respiratory health and 
tobacco product use.
Asthma
    Asthma and other allergic diseases of the respiratory system 
represent one of the largest public health problems in the world. It is 
estimated that over $7.5 billion a year are spent for asthma treatment 
in the United States alone. If rhinitis and other related allergic 
conditions are included, this figure increases significantly. Asthma 
has doubled in children and increased by 50 percent in the general 
population of the United States within the past 10 years with no 
accepted explanation.
    Allergic diseases are caused by immune responses to allergens 
(e.g., pollen, cat allergen, dust mites). All current treatments for 
these maladies involve the application of medicinal products that 
interfere with the production or action of mediators from immune cells 
stimulated by allergens. Three classes of drugs are used:
  --Glucocorticoids that reduce inflammation when given systemically or 
        by inhalation;
  --Beta blockers that reduce the smooth muscle responses in the 
        airways; and
  --Mast cell function inhibitors that reduce histamine release.
    None of these approaches cures allergic diseases or attacks the 
underlying, immunological cause of allergies. The prevention or 
elimination of allergic immune responses would alleviate the need for 
the toxic drugs presently used to treat allergic diseases.
    The Minority Center through its relationship with LRRI is 
developing an entirely new and unique approach to cure allergic disease 
by preventing allergic immune responses in susceptible children and by 
suppressing allergic immunity in individuals who already have 
allergies. Data developed at LRRI and elsewhere indicate the real 
possibility that immunizing people with selective antigens can prevent 
the onset of, or reverse existing allergic immune responses.
    LRRI has the staff and facilities to determine whether or not this 
new therapeutic approach for the treatment of allergic diseases will be 
effective. This therapeutic approach will be evaluated in three stages.
  --Determine efficacy in animals.
  --Evaluate safety in animals and humans.
  --Demonstrate efficacy in humans.
    1. LRRI's Approach.--The impetus for this approach is centered on 
the cost of treatment for the 44 million Americans not covered by 
health insurance, and the hundreds of millions of people worldwide who 
cannot afford life-long expensive medical treatment. This is obviously 
even more relevant to the many tens of millions of asthmatics in Third 
World countries, in Africa and Asia, and South and Central America 
where follow-up respiratory treatment is nonexistent. A simply 
administered, inhaled asthma vaccine administered to very young 
children would offer a real opportunity to eliminate this grave 
worldwide public health crisis.
    2. Who Would Pay for an Effective Preventive?--The proposed 
treatment would inevitably come as an inhaled nontoxic antigen. Studies 
will be required to determine if a single treatment would provide 
permanent protection, or if repeated treatments will be required to 
maintain protection. Accurate data are unavailable on the numbers of 
asthma sufferers in Third World countries. Using as an example the U.S. 
statistics such as those quoted earlier in Individuals Who Will 
Benefit, it seems safe to suggest that managed care delivery systems 
and major insurers in developed countries would demand this vaccine as 
being the most cost-effective way to prevent asthma. Similarly, in 
underdeveloped countries public health officials and government and 
private funding sources would see the long-term benefits of making the 
vaccine widely available. As many as 40 percent of children, 1 year or 
younger, may benefit from treatments that prevent asthma and other 
allergic diseases. The resulting health care savings would dwarf the 
direct pharmaceutical costs.
    3. Short-term Goals.--The Minority Center seeks funding for the 
initial research and development necessary to complete ongoing studies 
that prove the efficacy of the technology in animal models and then 
commence clinical trials. We have an international reputation in the 
field of extrapolation of respiratory system animal studies to humans 
through its former DOE laboratory, the Inhalation Toxicology Research 
Institute, now privatized by LRRI. This group of 150 internationally 
recognized scientists and technicians include inhalation toxicologists, 
veterinary pathologists, respiratory immunologists, and aerosol 
specialists.
COPD/Emphysema
    Hispanics in the United States represent the only major group of 
people for whom the use of tobacco products is on the rise. African-
American populations have a disproportionately high rate of use 
(especially urban African-American men). In both cases, Chronic 
Obstructive Pulmonary Disease (COPD) and related fibrotic and 
inflammatory airway and lung disease are expected to rise substantially 
as the populations' age. As in the case of asthma, the Minority Center 
will concentrate on low technology, cost-effective methods of 
mitigating the growing public health burden by identifying the genetic 
causes of the susceptibility to COPD among minority people at risk.
    COPD, which includes chronic bronchitis and emphysema, is 
associated with cigarette smoking. Therefore, environmental factors are 
clearly very important in the development of this disease. However, 
COPD develops in only 20-35 percent of smokers, indicating that genetic 
factors are critical in determining which cigarette smokers are at risk 
of developing airflow obstruction. Therefore, it is likely that persons 
with COPD have polymorphisms (genetic changes or ``mutations'') in one 
or more of these genes resulting in altered gene function. In support 
of this hypothesis, sequence analysis of the MMP-9 gene has revealed 
three functional variable sites, one of which alters an amino acid 
encoded in the active site, and two in the promoter region, which 
modulate promoter activity. Our preliminary results show a significant 
association of the CA repeat polymorphism in the promoter region of 
MMP-9 with the development of COPD. The results from a study LRRI has 
undertaken could lead to the identification of subjects who should 
receive corrective treatments proactively to delay disease development 
and progression.
    A second approach is a new treatment paradigm. Our scientists have 
recently discovered some of the mechanisms that cause excess mucus 
production in affected individuals, and a preliminary inexpensive 
inhalation therapy is being developed. Excess mucus production is one 
of the primary symptoms of COPD and its reduction or termination by an 
easy-to-apply means would dramatically reduce the public health burden 
of inflammatory respiratory disease in general and COPD in particular.
Lung Cancer
    The disproportionate burden of this devastating usually fatal 
disease on African-American populations is directly related to the high 
rates of tobacco use in their urban populations. These rates, although 
stable for this group of people, continue to increase for Hispanic 
populations. Early inexpensive detection methodologies offer the 
greatest hope for a positive impact on the dismal statistics (for 
example, mortality in African-Americans is running 150 percent higher 
than the populations as a whole). LRRI has developed a rapid and 
potentially inexpensive detection methodology that appears to detect 
the presence of lung cancer up to 3 years ahead of current standard of 
care methods. This cancer can be cured if detected early, but it seldom 
is detected early enough.
    LRRI scientists have developed a method of amplifying absent DNA 
mutational events, which when applied to smokers at high risk predicts 
the presence of lung cancer cells. The use of enhanced polymerase chain 
reaction technology is 50 times more sensitive than previous methods 
and detects the presence of lung cancer in 100 percent of the research 
subjects. This test with further work can be developed into a quick 
outpatient, non-invasive test that could be undertaken for a few 
dollars per test. Using sputum, the samples themselves can be obtained 
in almost any community setting.
    LRRI scientists believe that it will be possible to mitigate lung 
cancer rates in inner city populations via a technique called 
chemoprevention. This is an approach designed to interrupt the cellular 
malignant transformation process by the injection of minute quantities 
of agents known to have this effect. The most likely initial candidate 
is dietary selenium, which appears to play a role (when present at 
unusually low levels in the diet) in lung cancer. A national study is 
now underway to prove the efficacy of adding selenium to the diets (or 
as a pill) to populations of smokers a highest risk in urban 
populations.
    Education alone appears ineffective in mitigating smoking behaviors 
in minority populations, and some other approach must be tried. This 
extremely low-cost, easily applied approach could greatly improve the 
respiratory health of these people at risk. Details of this large, 
multi-center clinical trial are available on request. Administrative 
and facilities (equipment and technical) staff will be required to 
support this work.
Environmental Respiratory Health
    LRRI currently operates the EPA National Environmental Respiratory 
Center (NERC). The mission of this group of scientists is to define the 
causes of health effects from breathing the complex mixtures of air 
pollution. This Center will integrate its program into the Minority 
Center via the public policy function as individual pollutants are 
identified and their role in asthma, COPD, and lung cancer becomes 
better defined. This Center is funded via a variety of sources other 
than significant administrative support and would not require new 
incremental funding. The role of secondary environmental smoke is also 
being investigated by the Center, and the behavioral aspects of this 
increasingly recognized problem would evolve as a joint NERC-MRHC 
project to be funded outside the scope of this proposal.
                              bottom line
    We don't exactly know why the rates of asthma and minority 
population tobacco use are growing, and we don't know why they are 
disproportionately affecting minority communities, primarily in urban 
centers. We do know that this epidemic is severely impacting many of 
our nation's citizens by bringing untold emotional stress on those who 
are sick and those that must take care of them. That stress is even 
more significantly impacting the growth of our country, by keeping 
these people away from school and their work. It is time to support the 
Minority Center that is targeting practical and real scientific 
solutions. The great news is the Lovelace scientists who are pioneering 
an asthma vaccine report that their experiments are indicating positive 
results. We need funding to make these human cures. There is light at 
the end of the tunnel.
                                 ______
                                 
 Prepared Statement of the Society of Teachers of Family Medicine, the 
  Associations of Departments of Family Medicine, the Association of 
  Family Practice Residency Directors, and the North American Primary 
                          Care Research Group
    On behalf of the Society of Teachers of Family Medicine, the 
Associations of Departments of Family Medicine, the Association of 
Family Practice Residency Directors, and the North American Primary 
Care Research Group, we of would like to thank you for the opportunity 
to provide this statement for the record on behalf of funding for 
family medicine training, and the Agency for Health Care Research and 
Quality (AHRQ).
  health professions: the primary care medicine and dentistry cluster
    Mr. Chairman, the Organizations of Academic Family Medicine would 
like to thank you for this committee's commitment to these programs. We 
appreciate the increased funding included in the fiscal year 2002 
appropriations funding bill. Family medicine training programs are 
funded under Section 747, the Primary Care Medicine and Dentistry 
cluster, of Title VII of the Public Health Service Act. We ask that you 
continue your support for family medicine training, and bring the 
appropriations level for section 747, the Primary Care Medicine and 
Dentistry Cluster, up to $169 million for fiscal year 2003, of which 
$96 million is needed for family medicine.
    This statement is designed to show the committee how its investment 
is paying off. This statement will discuss the success of these 
programs and include recommendations about what still needs to be done. 
As you look at all the opportunities you have to fund domestic health 
programs you need to be able to make judgments about the value and 
utility of these programs. We have been asked in various venues to show 
proof that these funds actually do what they are designed to do. We 
must show that this money makes a difference. In this statement we 
intend to do just that. In addition, we believe Congress also needs to 
understand the unmet needs that exist in our nation needs Health 
Professions programs can successfully help address.
    President's Budget Request for fiscal year 2003 Zeros Out Primary 
Care Funding The President's budget zeroes out funding for the Primary 
Care Medicine and Dentistry cluster. In addition, the proposal includes 
only $94 million for all of the Health Professions programs, a sharp 
cut of 75 percent from the fiscal year 2002 level of $378 million. The 
proposal emphasizes that the grant program was developed in response to 
a physician shortage, as it did last year, although the document 
acknowledges a geographic maldistribution of doctors. The budget also 
claims, ``most of the health professions grants have not proven 
effective because they do not accurately address current health 
professions problems.'' According to several studies (see below), Title 
VII dollars have proven effective in addressing several major health 
professions problems.
Family Medicine Training Programs Are A Success
    First, let's take a look at health professions training 
specifically family medicine training. These programs are producing the 
outcomes that Congress has requested. In a current study (currently 
submitted for peer reviewed publication), the Robert Graham Center For 
Policy Studies In Family Practice and Primary Care has shown that 
federal funding through Title VII of family medicine departments, 
predoctoral programs, and faculty development has made a difference. 
The study shows that:
  --All three types of grants made a difference in producing more 
        family physicians, and more primary care doctors. Predoctoral 
        and department development grants made a difference in 
        producing more primary care doctors serving in rural areas, and 
        more primary care doctors serving in primary care health 
        professional shortage areas.
  --Sustained funding during the years of medical school training had 
        more positive impact than intermittent funding.
  --We must conclude from this data that this funding means that 
        thousands of physicians are making different career choices, 
        choices that positively affect millions of patients in 
        underserved areas and in primary care. Moreover, if this money 
        were to ``go away'' fewer students would be making these career 
        choices.
Other Indicators Of Success
    The federal government's independent General Accounting Office 
(GAO) has also shown that this money works. The GAO, in two reports in 
1994, addressed the question of how do we know Title VII money is well 
spent? A July 1994 report, states that ``the programs were important 
for funding innovative projects and providing seed money' for starting 
new programs. For example, Title VII was considered important in the 
creation and maintenance [emphasis added] of family medicine 
departments and divisions in medical schools.''
    In another report, the GAO states in October 1994 that ``students 
who attended schools with family practice departments were 57 percent 
more likely to pursue primary care.'' In addition, the report goes on 
to say that ``students attending medical schools with more highly 
funded family practice departments were 18 percent more likely to 
pursue primary care and students attending schools requiring a third-
year family practice clerkship were [also] 18 percent more likely to 
pursue primary care.'' The money spent on Section 747 of Title VII is 
directly targeted in these areas.
    Loss of funding for family medicine training would cause tremendous 
impact on service to the underserved Data show that if production of 
family physicians was to fall, the impact on the nation's underserved 
would be great. The fewer the number of family physicians produced, the 
greater the number of new health professional shortage areas, or HPSAs. 
This holds true even in comparison with the combined loss of 
internists, pediatricians and obstetrician/gynecologists. The United 
States relies on family physicians unlike any other specialty. Without 
family physicians an additional 1332 of the United States' 3082 urban 
and rural counties would qualify for designation as primary care HPSAs. 
This contrasts with an additional 176 counties that would meet the 
criteria if all internists, pediatricians, and ob/gyns in aggregate 
were withdrawn.
    The bottom line is that without family physicians 1332 counties 
would qualify for primary care HPSA designation vs. 176 counties if 
other primary care specialists were withdrawn.
What Is The Unmet Need?
    Why Must We Continue To Fund And Grow These Programs? According to 
a study by Politzer, et al (The Journal of Rural Health,Winter, 1999) 
Title VII funding is key to ending HPSAs. This funding has led to the 
time needed for HPSA elimination to decrease to 15 years. Doubling the 
funding for these programs would decrease the time for HPSA elimination 
to as little as 6 years.
    According to the study, without this funding, not only would HPSAs 
not be eliminated, but the number of shortage areas would continue to 
grow. Moreover, success has been attained by an allocation of funds 
more favorable to family medicine than the other two primary care 
specialties.
    Title VII funding has indeed accomplished many of the objectives 
for which it was designed:
  --Funding of innovative projects Providing ``seed money'' for the 
        start-up of new projects;
  --The creation and maintenance of departments of family medicine in 
        the nation's medical schools;
  --The development of 3rd year clerkships in family medicine The 
        increase in students selecting primary care residencies from 
        those schools with funded family medicine departments and 3rd 
        year clerkships;
  --The increase in students selecting primary care residencies from 
        those schools with funded family medicine departments and 3rd 
        year clerkships;
  --The increased rate of graduates from Title VII funded projects 
        entering practice in medically underserved areas (MUAs), with a 
        resultant reduction in the time required for Health Professions 
        Shortage Area (HPSA) elimination.
Section 747 Advisory Committee Recommends Higher Funding
    In 1998, Congress established an Advisory Committee to review and 
make recommendations on Section 747. The Advisory Committee on Training 
in Primary Care Medicine and Dentistry (ACTPCMD) recently released its 
recommendations to Congress and the Secretary of the Department of 
Health and Human Services. The first of six recommendations urges 
greatly expanding federal support for Section 747 to $198 million. The 
Committee notes the growing need for primary care providers, as well as 
the success of Title VII funded programs.
    The training enterprise that does not value primary care either 
financially or otherwise is a key part of the problem. Title VII funds 
that support the infrastructure and stability of family medicine 
departments in medical schools have to be sustained in order to keep 
producing the current levels of primary care physicians and, more 
specifically, those who will practice in rural and other underserved 
areas. Clearly, the programs of Title VII are on the right track toward 
meeting the health care challenges of the 21st century. So, while we 
believe that current funding must be maintained, more needs to be done.
Future Funding Priorities
    ACTPCMD's report to Congress lays out priorities for training 
primary care providers. If additional funds are made available, Title 
VII dollars could enhance current training, allowing it to be even more 
effective at providing: high-quality health care for underserved 
populations culturally competent care continued demonstration authority 
to address emerging health initiatives additional interdisciplinary 
learning opportunities better quality of health care, eliminating 
health disparities, and improving patient safety Primary Care Training 
Programs React Quickly to Emerging Health Challenges Title VII dollars 
have created an infrastructure that allows educational programs to 
respond to contemporary health care issues. Specifically, the ACTPCMD 
report states that:
    Investment in education to provide primary care has effects that 
touch the largest number of people in the country. No other group of 
health care providers can exert such a broad influence on the kind and 
quality of health care in the United States. Primary care training 
programs are ideally positioned to react quickly to meet ever-changing 
health care needs and issues, whether they are related to HIV/AIDS, 
growing numbers of elderly with chronic illnesses, implications of the 
modern genetics revolution, the threat of bioterrorism, or other issues 
that will continue to emerge and demand rapid educational intervention. 
Thus, this infrastructure is uniquely able to play a pivotal role in 
bringing emerging issues in health care to the population at large.
    Mr. Chairman, we know that this committee has to weigh the value of 
funding various programs against each other. We hope that the evidence 
we have presented here will bring the committee to the conclusion that 
funding spent on these programs would bring value for the money and 
would be money exceptionally well spent.
   funding for the agency for health care research and quality (ahrq)
    Mr. Chairman, once again, we thank you and this committee for 
increasing funding for this important agency. It is apparent that the 
key federal agency available to fund primary care research is the 
Agency for Healthcare Research and Quality (AHRQ). In it's recent 
reauthorization, Congress established within the Agency a Center for 
Primary Care Research to ``serve as the principal source of funding for 
primary care practice research in the Department of Health and Human 
Services.'' The statute defined primary care research as research that 
``focuses on the first contact when illness or health concerns arise, 
the diagnosis, treatment or referral to specialty care, preventive 
care, and the relationship between the clinician and the patient in the 
context of the family and community.
Funding Request For AHRQ
    We recommend appropriations of $390 million for the Agency for 
Healthcare Research and Quality (AHRQ) in fiscal year 2003. AHRQ 
conducts primary care and health services research geared to physician 
practices, health plans and policymakers that helps the American 
population as a whole.
President's Budget Request for fiscal year 2003 Cuts AHRQ Funding
    The President's budget includes $251 million for AHRQ, a cut of $49 
million, or 16 percent, from the current funding level of $300 million. 
One unfortunate consequence of earlier earmarking of funds for the 
agency is that a cut of $50 million is felt disproportionately 
throughout the agency. A cut of this magnitude would result not only in 
the inability to provide new grants or contracts in fiscal year 2003, 
but would also mean a 46 percent cut in existing grants and a 31 
percent cut in existing contracts. The budget also makes funding for 
the agency completely dependent on transfers from other agencies, 
rather than on a Congressional appropriation. This is a less secure 
funding method for this important agency.
What Does AHRQ Do?
    AHRQ's three goals are to:
    (1) improve physician practice and Americans' health outcomes,
    (2) improve the quality of health care (e.g., patient safety), and
    (3) improve the health care system (e.g., increase access and 
reduce costs). In brief, AHRQ ``helps to improve the health and health 
care of the American people''----(AHRQ report, March, 2001).
How Does AHRQ Meet Its Goals?
    AHRQ translates research findings from basic science entities like 
the National Institutes of Health into information that doctors can use 
every day in their practice with their patients. Another key function 
of the agency is to support research on the conditions that affect most 
Americans.
AHRQ Translates Research into Everyday Practice
    Congress has provided billions of dollars to the National 
Institutes of Health, which has resulted in important insights in 
preventing and curing major diseases. AHRQ takes this basic science and 
produces information that physicians can use every day in their 
practices. AHRQ also distributes this information throughout the health 
care system. In short, AHRQ is the link between research and the 
patient care that Americans receive. An example of this link is basic 
science research showing that beta blockers reduce mortality. AHRQ 
supported research to help physicians determine which patients with 
heart attacks would benefit from this medication.
AHRQ Supports Research on Conditions Affecting Most Americans
    Most Americans get their medical care in doctors' offices and 
clinics. However, most medical research comes from the study of 
extremely ill patients in hospitals. AHRQ studies and supports research 
on the types of illness that trouble most people. AHRQ looks at the 
problems that bring people to their doctors every day not the problems 
that send them to the hospital. For example, AHRQ supported research 
that found older antidepressant drugs are as effective as new 
antidepressant medications in treating depression, a condition that 
affects millions of Americans.
Institute of Medicine Recommends $1 Billion for AHRQ
    The Institute of Medicine's report, Crossing the Quality Chasm: A 
New Health System for the 21st Century (2001), recommended $1 billion a 
year for AHRQ to ``develop strategies, goals, and actions plans for 
achieving substantial improvements in quality in the next 5 years.'' 
The report looked at redesigning health care delivery in the United 
States. AHRQ is a linchpin in retooling the American health care 
system.
       recommendations for family medicine training and research
    The Organizations of Academic Family Medicine have two main 
recommendations for the fiscal year 2002 Labor/HHS Appropriations bill. 
They are as follows:
    We ask that you continue your support for family medicine training, 
and bring the appropriations level for section 747, the Primary Care 
Medicine and Dentistry Cluster, up to $169 million for fiscal year 
2003, of which $96 million is needed for family medicine.
    In order to support critical practice-oriented primary care 
research, and to ensure that existing grants and contracts will not be 
cut, we are asking that the Agency for Healthcare Research and Quality 
be funded at $390 million.
                                 ______
                                 
     Prepared Statement of the Society of General Internal Medicine
    The Society of General Internal Medicine (SGIM) appreciates the 
opportunity to provide testimony to the Senate Labor, Health and Human 
Services and Education Subcommittee regarding fiscal year 2003 
appropriations to key programs within the Department of Health and 
Human Services.
    SGIM is an international association of 3,000 physicians and other 
health professionals who combine treating patients with teaching and 
conducting research. SGIM is dedicated to improving patient care, 
medical education, and research in primary care and general internal 
medicine. As such, SGIM believes it is uniquely positioned to recommend 
appropriate funding levels to continue and expand the critical work of 
the Agency for Healthcare Research and Quality (AHRQ) and the Title VII 
and VIII Health Professions Programs.
    SGIM would like to thank the subcommittee for its support of AHRQ 
and the Title VII and VIII programs in recent years, and encourages the 
subcommittee to provide a strong investment in these programs for 
fiscal year 2003.
           agency for healthcare research and quality (ahrq)
    SGIM strongly supports AHRQ's mission and work to support, conduct, 
and disseminate research that improves access to and outcomes and 
quality of health care services. AHRQ's health services research 
complements the biomedical research of the NIH by helping clinicians, 
patients, and health care institutions make choices about what 
treatments work best, for whom, when, and at what costs.
    AHRQ is the only federal agency performing health care related 
cost-effectiveness research. AHRQ's research often addresses the cost-
efficiency of new modalities or interventions and the appropriateness 
of their application for large patient sub-populations such as those 
served by Medicare and Medicaid. For instance, AHRQ supported research 
that led to the development of new technology to help emergency room 
doctors improve their decision making about whether to hospitalize or 
discharge patients with chest pain. It is estimated that 200,000 people 
a year could be spared a hospital stay they did not need, and that more 
than 100,000 individuals could be spared an unnecessary admission to a 
critical care unit. The potential savings to the health system because 
of this instrument is estimated to be $700 million a year.
    An AHRQ Evidence-based Practice Center found that children 
suffering from uncomplicated acute otitis media (AOM), a middle ear 
infection, and treated with amoxicillin fared just as well as those 
treated with more expensive antibiotics. This research represents large 
cost savings to the Medicaid program since pediatricians can prescribe 
the less expensive medication and achieve the same result.
    AHRQ often collaborates with other Department of Health and Human 
Services (HHS) agencies, particularly the National Institutes of Health 
(NIH) and the Centers for Disease Control and Prevention (CDC).
    The private sector cannot replace the work of AHRQ. The private 
sector puts a relatively small amount of financial resources toward 
initiatives similar to AHRQ research, focused primarily on products 
developed by the specific company. As a result, the objectivity of the 
research could be threatened. In comparison, AHRQ research is evidence-
based and is able to withstand scientific scrutiny and has a high 
degree of credibility.
    SGIM believes a fiscal year 2003 budget of $390 million is 
necessary for AHRQ to fully carry out its congressional mandate to 
improve health care quality, including reducing errors in medicine and 
advancing health outcomes information. Consistent, stable funding for 
investigator-initiated research is essential. Investigator-initiated 
research has proven to result in clinical innovations that translate 
into improved patient outcomes. Modest grant levels provided to 
clinical investigators often result in advancements with positive 
economic implications far outweighing the initial investment. Congress 
must sustain ample funding for investigator-initiated research to 
encourage sufficient numbers of researchers to enter and remain in this 
field.
    SGIM is concerned with the President's proposed budget of $251 
million for AHRQ, a cut of $48 million or 16 percent. Under this 
budget, AHRQ would be unable to fund any new research or training 
grants. Funding for current grants (except for protected areas such as 
patient safety research) would be reduced by 50 percent, requiring 
grant and contract renegotiations that will significantly reduce our 
knowledge and understanding of how to cost-effectively provide quality 
health care. Reductions in the AHRQ funding stream will result in lost 
opportunities for research projects currently in the middle of a two- 
or 3-year grant cycle. Mid-course interruptions will halt some projects 
just as these initiatives are about to bear fruit in the form of 
improved patient health outcomes and reductions in healthcare 
expenditures. Such reductions will also have a chilling effect on 
individual, investigator-initiated research, an ``All-American'', 
competitive process through which applicants that have received modest 
levels of grant funding have developed initiatives with financial 
implications far beyond the original investment.
             title vii and viii health professions programs
    The health professions and nursing education programs under Title 
VII and VIII of the Public Health Service Act provide support to 
students, programs, departments, and institutions to improve the 
accessibility, quality, and racial and ethnic diversity of the health 
care workforce. In addition to providing essential training and 
education opportunities, these programs were designed to combat health 
professional shortages in rural and underserved areas by educating and 
training primary care providers with the goal that they return to serve 
in such areas. Graduates of these programs are three to ten times more 
likely to practice in medically underserved areas than graduates of 
non-funded programs. They help meet the health care delivery needs of 
the over 3,000 Health Professions Shortage Areas in this country, and 
at times, they serve as the only source of health care in many 
disadvantaged communities.
    In November 2001, the Advisory Committee on Training in Primary 
Care Medicine and Dentistry released its first congressionally mandated 
report, which emphasizes the essential role of the Title VII programs 
in enhancing the quality and quantity of the primary care health 
workforce. The report states:

    ``Investment in education to provide primary care has effects that 
touch the largest number of people in the country. No other group of 
health care providers can exert such broad influences on the kind and 
quality of health care in the United States. Primary care training 
programs are ideally positioned to react quickly to meet ever-changing 
health care needs and issues, whether they are related to HIV/AIDS, 
growing numbers of elderly with chronic illnesses, implications of the 
modern genetic revolution, the threat of bioterrorism, or other issues 
that will continue to emerge and demand educational intervention.''

    These funds provide training for faculty and residents in training 
hospitals, ensuring that there is an adequate supply of physicians and 
professors of primary care. One half of primary care providers trained 
through these programs go on to work in underserved areas, compared to 
10 percent of those not training through a program funded by this 
cluster.
    Under the Title VII grants for primary care medicine and dentistry, 
funding for general internal medicine and general pediatrics training 
supports four initiatives: medical student training, residency 
training, faculty development, and development of academic 
administrative units. Over the past 15 years, these programs have 
supported the training of approximately 16,000 primary care internists. 
As the only federal funding dedicated to the education and training of 
the general internal medicine workforce, Title VII support is crucial 
to increasing access to health care for underserved populations. More 
than 69 percent of graduates from general internal medicine residencies 
funded by Title VII practice primary care after graduation. This rate 
is nearly twice that of residency programs that do not receive such 
support. General internal medicine Title VII residency programs 
graduate two to five times more minority and disadvantaged students 
than programs that do not receive such support.
    SGIM believes the Title VII and VIII health professions programs 
should receive a fiscal year 2003 budget of $550 million, including at 
least $40 million directed to general internal medicine/general 
pediatrics training. By providing a targeted funding stream for primary 
care training in general internal medicine, Title VII continues to be 
essential to the education and distribution of general internists in 
rural medically underserved communities.
    SGIM is disappointed that the President's fiscal year 2003 budget 
plan decreases funding for these programs by 75 percent, for a total of 
$94.5 million. SGIM commends the Senate Budget Committee for including 
in its budget resolution a 2 percent increase for the Health Resources 
and Services Administration, which administers the Title VII and VIII 
programs, and for specifically stating that this increase will restore 
the President's proposed virtual elimination of the health professions 
programs. SGIM, however, urges Congress to significantly increase 
funding to these programs, not maintain the fiscal year 2002 level due 
to the vital need for these health professions education programs.
                                 ______
                                 
               Prepared Statement of the Marcus Institute
    The marcus institute is pleased to have the opportunity to present 
its request for federal funding in fiscal year 2003 to the Committee. 
The Marcus Institute seeks $4.2 million from the Health Resources and 
Services Administration facilities construction account to assist with 
the construction of new, state-of-the-art facilities.
                   marcus institute, atlanta georgia
    The Marcus Institute, located in Atlanta, Georgia, is named after 
Home Depot co-founder Bernie Marcus, who provided a $5 million grant to 
establish the Institute. The Institute is known as a nationally 
recognized center for excellence for the provision of coordinated and 
comprehensive services for children and adolescents with developmental 
disabilities and severe and challenging behaviors. Since 1993, the 
Marcus Institute has provided clinical services to more than 16,000 
individuals, conducted research, and provided education and training 
programs. The foremost goal of the Marcus Institute is to improve the 
quality of life for its patients to facilitate the greatest 
participation possible in family, school, and community life.
    The Institute provides community-based treatment for children who 
display the most severe forms of behavior disorders, including 
aggression, self-injurious behavior, and pediatric feeding disorders. 
Without appropriate treatment, these children are at substantial risk 
for health problems and lifelong placement in residential programs that 
often costs more than $100,000 per year and millions of dollars over 
the individual's lifetime. More than 80 percent of the children 
receiving treatment at the Marcus Institute meet their primary 
discharge goals, compared to 2 percent for traditional outpatient 
mental health services.
    The Marcus Behavior Center currently provides a continuum of 
consultative, outpatient, educational, and day treatment services for 
children with severe behavior disorders. Those with the most severe 
problems are seen in our intensive day treatment programs. Young 
children (usually below age 6) are admitted to the Feeding Day 
Treatment Program if they display behaviors such as food refusal or 
food selectivity (eating one or only a few foods) that necessitate 
medical interventions (e.g., gastrostomy tubes) to prevent malnutrition 
or death. School-aged children (ages 3 to 21) are admitted to the 
Severe Behavior Day Treatment Program if they have developmental 
disabilities and display severe self-injurious behavior (SIB), 
aggression, or property destruction that poses a significant risk to 
self, others, or the environment, which cannot be safely managed or 
effectively treated in a less intensive program.
    Less severe cases are served through our outpatient and 
consultative programs, whereas the most severe cases are served through 
our day treatment programs. For example, SIB consists of repetitive 
motor responses that produce physical harm to the individual who 
displays the behavior. Typical forms of SIB include head banging, self-
biting, head hitting, body hitting, scratching, eye poking, and ear 
poking. SIB is extremely rare among individuals of normal intellectual 
functioning. It is seen in approximately 6 percent to 16 percent of 
individuals with mental retardation and autism.
    The Marcus Institute seeks federal facility construction assistance 
towards the construction of new, state-of-the-art facilities for the 
Marcus Institute. The creation of the new facilities will greatly 
enhance the capacity of the Marcus Institute to provide services to the 
community. The Institute is currently operating in 29,000 square feet 
of leased space in a commercial office park. The new facility will have 
80,000 square feet, including 10 classrooms, a vocational life skills 
center, and a center for parents to practice feeding their children 
suffering from eating disorders. In addition, the new facility will 
have expanded clinical medical areas for children with Fetal Alcohol 
Syndrome/Effect and other neurological and genetically derived 
problems, medical research and training facilities that are not 
possible in the current leased space.
    The new facilities will also include a distance learning facility, 
allowing families to stay closer to home for treatment and follow-up, 
Marcus Institute practitioners to increase their productivity and treat 
additional children, and an improvement to the knowledge base among 
local community providers who work with these children at home. Also, 
the Marcus Institute staff will rise from 100 to 300, providing jobs 
with entry salaries of $25,000 and higher.
    The services available through the Marcus Behavior Center at the 
Marcus Institute are the only services of their kind in the 
Southeastern United States. These services are so incredibly absent 
that the Marcus Institute has a 2-year waiting list. The completion of 
the Marcus facility will significantly reduce the waiting period for 
children and their families.
    The total cost of the new project is $25 million. In addition to 
the $5 million grant from Mr. Marcus, the Woodruff Foundation has 
committed $3 million, and individual donors have pledged $2.5 million. 
The State of Georgia has provided $1.5 million to date for start up 
costs. The Institute is seeking additional support through foundation 
grants, individual donors and agencies for the project. In fiscal year 
2002 the Marcus Institute initiated a request for $5 million from the 
HRSA construction account. The Institute is extremely grateful for the 
$800,000 targeted appropriation it received from this account in fiscal 
year 2002. Our request for $4.2 million in fiscal year 2003 represents 
the unmet need for construction of the new facilities.
    Request: We respectfully request $4.2 million in fiscal year 2003 
funding through the Health Resources and Services Administration (HRSA) 
Construction account to provide assistance with the construction of 
new, state-of-the-art health facilities for the Marcus Institute. The 
Marcus Institute was created as a result of a generous donation by 
Bernie and Billie Marcus. It is known as a nationally recognized center 
for excellence for the provision of coordinated and comprehensive 
services for children and adolescents with developmental disabilities 
and severe and challenging behaviors.
    Thank you for the opportunity to present this request and for your 
consideration.
                                 ______
                                 
 Prepared Statement of the Association for Professionals in Infection 
                        Control and Epidemiology
    Thank you for this opportunity to provide testimony to the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies. The Association for Professionals in 
Infection Control and Epidemiology (APIC) is a nonprofit, voluntary 
international organization comprised of individuals whose chief 
responsibility is preventing and controlling infections that occur in 
the health care setting. Infection control professionals come from a 
wide range of clinical backgrounds such as medicine, nursing, medical 
technology and microbiology.
                                summary
    Among our requests for fiscal year 2003 are (1) $7.9 billion for 
the Centers for Disease Control and Prevention (CDC); (2) $390 million 
for the Agency for Healthcare Research and Quality; (3) ensuring sound 
science in regulatory agencies, particularly within the Occupational 
Safety and Health Administration (OSHA); and (4) enhancing patient 
safety. Most importantly, we hope to draw your attention to the issue 
of unnecessary regulation as it relates to a dilution of our health 
care resources and, by extension, the ultimate safety of our patients.
                              cdc funding
    As you realize, a major element of CDC's mission is to protect our 
nation's citizens against the threat of infectious disease. Today our 
CDC officials face the particularly challenging issues of increasing 
antimicrobial resistance and threats of bioterrorist activity. As a 
member of the CDC Coalition, we are advocating a funding level of $7.9 
billion for CDC for fiscal year 2003. Since bioterrorism preparedness 
is a top priority of the Bush Administration, we have identified three 
areas that require immediate attention in fiscal year 2003. Providing 
support to these areas is crucial in order to maximize the impact of 
our response efforts.
    (1) Providing health care facilities, physicians, first responders, 
laboratory technicians and others with accurate information and 
training on detection, treatment, management, and exposure management 
of biological pathogens;
    (2) Supporting and providing a comprehensive uniform protocol for 
response, to be distributed and implemented nationwide;
    (3) Facilitating better public health infrastructure, coordinating 
both internal and external state activities, and providing a holistic 
nationwide public health safety net.
                             patient safety
    The CDC, AHRQ and the public health community share responsibility 
for ensuring the safety of patients in health care facilities. The 
ever-present threat of hospital-acquired infections requires constant 
vigilance on the part of our health care providers, particularly 
infection control professionals. Policy makers are well aware that our 
nation's health care facilities are facing continual cost containment 
pressures and are expected to provide top-notch health care despite a 
continual dwindling of resources. What may be lesser known is the 
direct impact of these expectations on our ability to provide optimal 
patient care. We are performing a balancing act--providing acute care 
services, and protecting our patients and workers from adverse 
outcomes--all while endeavoring to comply with regulatory requirements 
and cost containment pressures.
    Of paramount concern to us is the promulgation of unnecessary 
regulations, such as those put forth by the Occupational Safety and 
Health Administration (OSHA). We in health care know what needs to be 
done to protect our workers and patients. Clinical guidelines as well 
as Federal guidelines (such as those issued by the CDC) offer the 
information necessary to do this effectively.
    Unless regulatory requirements are based in science and are deemed 
absolutely necessary, we simply cannot spare the resources required to 
comply. This is more than a resource management issue--it is a patient 
safety issue, plain and simple. We cannot be expected to provide 
optimal protection to our patients and health care workers when we must 
squander limited resources to comply with unnecessary, burdensome 
regulatory requirements.
    We are heartened by the approach to regulation touted by Labor 
Secretary Elaine Chao and OSHA Administrator John Henshaw. Both 
individuals have advocated the notion of voluntary standards and have 
articulated a desire to ensure efficacy in any regulatory requirements. 
This is absolutely critical to the health care community. We hope you 
will consider inserting strong language into the fiscal year 2003 
appropriations bill requiring science-based policy at OSHA. One step 
toward achieving this goal would be to establish an Office of Science 
Policy at OSHA, similar to that established within the Environmental 
Protection Agency (EPA).
    We need strong Congressional support in order to continue providing 
the best quality patient care and we thank you for your attention to 
our concerns. If you should have any questions or require additional 
information, please contact Jennifer Thomas at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c16081413111d0f3c1d0c151f52130e1b">[email&#160;protected]</a> or 
Staci Dennison at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89edece7e7e0fae6e7c9e1e4eafea7e6fbee">[email&#160;protected]</a> (tel: 202-544-7499).
                                 ______
                                 
 Prepared Statement of the National Association of Children's Hospitals
    The National Association of Children's Hospitals (N.A.C.H.) is 
pleased to have the opportunity to submit the following statement for 
the hearing record in support of the Children's Hospitals' Graduate 
Medical Education (CHGME) program in the Health Resources and Services 
Administration (HRSA).
    On behalf of the nation's nearly 60 independent children's teaching 
hospitals, we thank the Subcommittee for the remarkable achievement 
that Congress made last year in providing full, equitable GME funding 
for these hospitals, giving them for the first time the same level of 
federal support for their teaching programs that all other teaching 
hospitals receive through Medicare. We urge the Subcommittee to 
continue to provide equitable funding for Children's Hospitals GME in 
fiscal year 2003 so that these institutions will have the resources to 
train and educate the nation's pediatric workforce.
    N.A.C.H. is a not-for-profit trade association, representing more 
than 100 children's hospitals across the country. Its members include 
independent acute care children's hospitals, acute care children's 
hospitals organized within larger medical centers, and independent 
children's specialty and rehabilitation hospitals.
    N.A.C.H. seeks to serve its member hospitals' ability to fulfill 
their four-fold missions of clinical care, education, research, and 
advocacy devoted to the health and well being of all of the children in 
their communities. Children's hospitals are regional and national 
centers of excellence for children with serious and complex conditions. 
They are centers of biomedical and health services research for 
children, and they serve as the major training centers for future 
pediatric researchers, as well as a significant number of our 
children's doctors. These institutions are major safety net providers, 
serving a disproportionate share of children of low-income families, 
and they are also advocates for the public health of all children.
           background: the need for children's hospitals gme
    While they account for less than 1 percent of all hospitals, the 
independent children's hospitals train nearly 30 percent of all 
pediatricians, half of all pediatric specialists, and a majority of 
future pediatric researchers. They also provide required pediatric 
rotations for many other residents. They train about 4,000 residents 
annually, and the need for these programs is even more heightened by 
the growing evidence of shortages of pediatric specialists around the 
country.
    Prior to initial funding of the CHGME program for fiscal year 2000, 
these hospitals were facing enormous challenges to their ability to 
maintain their training programs. The increasingly price competitive 
medical marketplace was resulting in more and more payers not covering 
the costs of care, including the costs associated with teaching. The 
independent children's hospitals were essentially left out of what had 
become the one major source of GME financing for other teaching 
hospitals--Medicare--because they see few if any Medicare patients. 
They received only \1/200\ (or less than 0.5 percent) of the federal 
support that all other teaching hospitals received under Medicare. This 
lack of GME financing, combined with the financial challenges stemming 
from their other missions, was threatening their teaching programs, as 
well as other important services.
    In addition to their teaching missions, the independent children's 
hospitals are a significant part of the health care safety net for low-
income children. On average, they devote nearly half of their patient 
care to children who are assisted by Medicaid or are uninsured. More 
than 40 percent of their care is for children assisted by Medicaid, and 
Medicaid covers only about 84 percent of the cost of that care. Without 
the Medicaid disproportionate share hospital (DSH) payments, Medicaid 
would cover less than 70 percent of children's hospitals' patient care 
costs. Further, these hospitals provide many important services from 
dental care to child abuse programs that are either uncovered or very 
underpaid.
    The independent children's hospitals also are essential to the 
provision of care for seriously and chronically ill children in this 
country. They devote more than 75 percent of their care for children 
with one or more chronic or congenital conditions. They provide more 
than 40 percent to 75 percent of the inpatient care to children with 
many serious illnesses--from children with cancer or cerebral palsy, 
for example, to children needing heart surgery or organ transplants. In 
some regions, they are the only source of pediatric specialty care. The 
severity and complexity of illness and the services and resources that 
these institutions must maintain to assure access to this quality care 
for all children are also often inadequately reimbursed.
    The CHGME program, and its relatively quick progress to full 
funding in fiscal year 2002, came at a critical time. Between 1997 and 
2000, independent children's hospitals on average experienced declining 
operating margins and total margins. By fiscal year 2000 more than a 
quarter of the hospitals were not able to cover their operating costs 
with operating revenues, and nearly 20 percent were not able to cover 
their total costs with total revenues.
    Continuing this critical CHGME funding is more important for these 
hospitals than ever in light of serious state budget shortfalls in many 
states and the resulting pressures for significant reductions in state 
Medicaid programs. Further, unless Congress intervenes, cuts in the 
Medicaid DSH program will take effect this fall, with devastating 
results for these and other safety net hospitals in many states.
    The pediatric community, including the American Academy of 
Pediatrics, Association of Medical School Pediatric Department Chairs, 
and others, has recognized the critical importance of the GME programs 
of the independent children's teaching hospitals, not only to the 
future of the individual hospitals and their essential services but 
also to the future of the nation's pediatric workforce and the 
provision of children's health care and advancements in pediatric 
medicine overall.
    Lastly, many of the independent children's hospitals are a vital 
part of the emergency and critical care services in their communities 
and regions. They are part of the emergency response system that must 
be in place for bioterrorism other public health emergencies. Expenses 
associated with preparedness will add to their continuing costs in 
meeting children's needs
                         congressional response
    In the absence of any movement towards broader GME financing 
reform, Congress in 1999 authorized the Children's Hospitals' GME 
discretionary grant program to address the existing inequity in GME 
financing for the independent children's hospitals and ensure that 
these institutions could receive equitable federal support to sustain 
their teaching programs. The legislation was reauthorized in 2000 
through fiscal year 2005 and provided for $285 million through fiscal 
year 2001 and such sums as may be necessary in the years beyond.\1\ 
Congress passed both the initial authorization (as part of the 
``Healthcare Research and Quality Act of 1999'') and the 
reauthorization (as part of the ``Children's Health Act of 2000'').
---------------------------------------------------------------------------
    \1\ The Lewin Group, an independent health policy analysis firm 
calculated in 1998 that independent children's teaching hospitals 
should receive approximately $285 million in federal GME support for 
nearly 60 institutions to achieve parity with the financial 
compensation provided through Medicare for GME support to other 
teaching hospitals.
---------------------------------------------------------------------------
    With the support of this Subcommittee, Congress appropriated 
initial funding for the program in fiscal year 2000, before the 
enactment of its authorization. Following that enactment, Congress 
moved substantially toward full funding for the program in fiscal year 
2001 and completed that goal in fiscal year 2002, providing $285 
million for the program within the Health Resources and Services 
Administration (HRSA). This represents an extraordinary achievement for 
the future of children's health care as well as for the nation's 
independent children's teaching hospitals.
    The $235 million appropriated in fiscal year 2001 was distributed 
at the end of the fiscal year through HRSA to 57 children's hospitals 
according to a formula based on the number and type of full-time 
equivalent (FTE) residents trained, in accordance with Medicare rules 
as well as the complexity of care and intensity of teaching the 
hospitals provide. Consistent with the authorizing legislation, HRSA 
has begun to allocate the $285 million in fiscal year 2002 funding in 
bi-weekly periodic payments to eligible independent children's 
hospitals.
                          fiscal 2003 request
    We respectfully request that the Subcommittee continue equitable 
GME funding for the independent children's hospitals by providing $292 
million for the program in fiscal year 2003. This would continue the 
fiscal year 2002 appropriation of $285 million and provide for an 
adjustment for inflation by the consumer price index to recognize 
higher wages and costs. The authorization, providing for such sums as 
may be necessary in fiscal year 2002 and beyond, would allow for such 
an adjustment, and it would be in keeping with the provision of such 
adjustments in Medicare.
    Adequate, equitable funding for Children's Hospitals' GME is an 
ongoing need. Our institutions continue to train new pediatric 
residents and researchers every year. We have appreciated very much the 
congressional support we have received and the attainment of the 
program's authorization in fiscal year 2002. Now, we ask Congress to 
maintain this progress in fiscal year 2003.
    Support for a strong investment in GME at independent children's 
teaching hospitals is consistent with the repeated concern the 
Subcommittee has expressed for the health and well being of our 
nation's children--through education, health, and social welfare 
programs. It also is consistent with the Subcommittee's repeated 
emphasis on the importance of enhanced investment in the National 
Institutes of Health (NIH) overall, and in NIH support for pediatric 
research in particular, for which we are very grateful
    The CHGME funding has been essential to the ability of the 
independent children's hospitals to sustain their GME programs. At the 
same time, it has enabled them to do so without sacrificing support for 
other critically important services that also rely on hospital subsidy, 
such as many specialty and critical care services, child abuse 
prevention and treatment services, poison control centers, services to 
low-income children who have inadequate or no coverage, mental health 
and dental services, and community advocacy, such as immunization and 
motor vehicle safety campaigns.
    In conclusion, the Children's Hospitals GME program is an important 
investment in children's health. The future of the pediatric workforce 
and children's access to quality pediatric care, including specialty 
and critical care services, could not be assured without it. Again, 
N.A.C.H. thanks this Subcommittee and Congress for its continuing 
support.
    For further information, please contact Peters D. Willson, vice 
president for public policy, N.A.C.H., at 703/797-6006 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0b0b7a9acacb3afae80aea1a3a8b2a9eeafb2a7ee">[email&#160;protected]</a>
                                 ______
                                 
          Prepared Statement of Babyland Family Sevices, Inc.
    We would like to take this opportunity to thank you for allowing 
Babyland Family Services, Inc. to submit testimony today on two 
extremely important projects: (1) The Babyland Peditric Health Center; 
and (2) an Education Technology Project.
the babyland pediatric health center: where healthy beginnings lead to 
                            brighter futures
    Amount Requested.--$1 million capital request through the 
Department of Health and Human Services Health Resources and Services 
Administration (HRSA) and/or the Department of Housing and Urban 
Development EDI Fund.
    Background.--Babyland provides child care and early childhood 
education services for 750 children (0 to 5 years old) at eight child 
care centers and provides emergency shelter and family support services 
to 750 other at-risk and low-income children and families. Babyland is 
currently Newark's Early Head Start grantee (serving children 0 to 3 
years old, pregnant teenagers, young fathers and families living with 
HIV/AIDS) and has a partnership with the Newark Public Schools to 
provide Abbott preschool services to over 250 children. The agency has 
an extensive partnership with the New Jersey Department of Human 
Services for the provision of child welfare, family violence and child 
care services.
    Babyland is a lead agency for the United Way's Success By 6 
Initiative and the State's Family and Children Early Education Services 
(FACES) Initiative which, combined, provides early childhood support 
services to 2,000 children and over 30 other child care agencies and 
schools. The agency provides employment training and placements in the 
areas of child care and medical day care for TANF recipients as well as 
accreditation support for local teachers and child care centers. 
Babyland is implementing the Open Airways Asthma Education Program at 
eight elementary schools through a grant from the Centers for Disease 
Control. Finally, the agency's newly established Technology Initiative 
is providing early computer education to preschool children, a 
Technology Center for computer-related employment skills to local 
residents and an agency intranet that will develop an outcome and 
service-based model for family support services.
                          project description
    Babyland is in a unique position, as the lead agency for several 
collaborative initiatives that promote the development of young 
children under 6 years old, to launch a pediatric health initiative 
that will prevent and manage childhood illnesses in Newark. In 
partnership with over 20 child care agencies, elementary schools and 
local health care providers, Babyland will develop a coordinated 
community-based approach for residents to gain access to health care 
services. As part of the agency's new multipurpose building, this grant 
will enable the agency to include a pediatric and family health center 
that will directly provide basic health services to over 1,000 families 
and provide health education, assessments, screening and follow-up 
services to 2,000 families with children under 6 years old.
    In addition to the pediatric and family health center, the new 
multipurpose building will include a child care center for 198 children 
(0 to 5 years old), a computer technology center, an employment 
training and placement center and family resource center. The new 
health center will particularly focus on increasing immunizations, 
screening for lead poisoning, asthma management, preventive dental care 
services, nutrition, prenatal care, home safety, parent education and 
child development, HIV/AIDS prevention and other preventive health 
education.
    Increased access to health care services will be achieved through 
the following methods: training and placing 45 low income residents in 
the medical day care/special needs field; training for over 50 Abbott 
Family Workers who provide case management services for 2,000 
preschoolers; parent-to-parent workshops that will be part of a series 
of parent and health education workshops; and creative grass-roots 
efforts that will encourage families to utilize the health center's 
resources. Community outreach workers, parents, nurses and a team of 
other health professionals will provide health outreach, education and 
services. Services will be coordinated with existing partners that 
include the Newark Department of Health, the Newark Public Schools, 
child care agencies and other local health care service providers.
    Matching Funds.--$1 million capital funding from the following: The 
Annie E. Casey Foundation ($166,000 unrestricted award) and $500,000 
from a lender. Operating funds will come from the United Way, Essex 
County and the State of New Jersey. Other potential funders could 
include previous health-related supporters such as the Robert Wood 
Johnson Foundation, the Johnson and Johnson Company and the Healthcare 
Foundation of New Jersey.
   the newark project: a solution to the digital divide among urban 
                                families
    Request.--$1.6 million from the Department of Education, Fund for 
the Improvement of Education.
    The purpose of this initiative is to serve as a model educational 
program that closes the ``digital divide'' among minority inner city 
children and families. This technological network links center and 
home-based child care centers and schools; community resources and 
service providers; educational, economic and resource information 
sources; training centers and administrative offices. The establishment 
of this network will be a model for educating urban children and serve 
as a conduit for comprehensive family support services.
    The focus of this initiative is to establish the telecommunications 
linkages necessary for the educational development of 1,000 preschool 
and school-age children and to provide computer and technology training 
for 2,000 parents, teachers, family service workers and entry-level 
employees. As a result, this initiative will strengthen children's 
educational skills; promote the self-sufficiency of and enhance the 
educational skills of parents; enable the agency to better track child 
and family needs in order to enhance client services; and link the 
community to local and national resource centers.
    Background.--Computer technology is transforming the economic and 
social landscape of this country by offering information and 
educational opportunities for individual growth and community 
development. Inner-city children and residents are inadequately 
prepared to take advantage of these growth opportunities. If the gap in 
information technology--the digital divide--is not bridged, a large 
segment of society will be further polarized and left without the tools 
needed for full participation in society.
    We are making substantial progress in the implementation of our 
Technology Initiative this year by installing computer workstations in 
our preschool classrooms; by developing our agency's intranet 
capabilities and outcomes evaluation software; and by acquiring and 
developing the layout of our new Computer Technology Center, which is 
scheduled to open in May 2002. These efforts have been made possible 
through our fiscal year 2001 grant.
    Babyland has been a major non-profit child and family service 
organization in Newark, New Jersey for over 33 years and currently 
provides comprehensive child and family development services to 1,500 
at-risk children and their families each year. BFS programs provide a 
continuum of educational services to individual children from infancy 
to 18 years old (including teenage mothers and young fathers) as well 
as multiple support services for family members. The agency is able to 
build extensive relationships with families and to provide follow-up 
care. As a result, Babyland is in a unique position to launch and 
oversee a major computer and technology initiative that will provide 
extensive training and technology support for individual families. This 
technology initiative will assist clients who have no other tangible 
means of becoming computer literate and of acquiring the requisite 
skills necessary to be informed and self-sufficient.
Specific Provisions
    Technology Center, as part of a new multi-purpose community 
resource and education center, that will provide distance learning, 
online and network linkages to educational institutions and community 
resources, professional development and training in basic and advanced 
computer and technology skills for low-income parents, neighborhood 
residents and entry-level employees.
    Technology hardware and software (technical assistance, network 
installation and expansion, wiring, modems, printers etc.) for 
children, parents and residents, and teaching/social service staff in 
classrooms, homes, family resource centers and safe havens.
    Technology Training, Curriculum Development and Professional 
Development for children, parents and residents, educational and social 
services staff, as well as local, State, national and international 
community-based family service providers.
The initiative will benefit the following
    Children at nine child care centers (850 preschoolers) and support 
shelters (200 school-age children).
    Parents and family members (2,000) at 14 Babyland sites with links 
to community resources.
    Agency Staff (350), including teachers and family service workers, 
for client tracking purposes; training and professional development; 
and access to community resources to be provided through workstations, 
wireless technology and/or palm pilots.
    Parents and children in the home for educational instruction and 
support, economic and resource information, links to other parents and 
teachers, parenting education (child and family health, child behavior 
and development, cultural sensitivity, etc) and professional education 
(ex. Certifications, GED, etc.).
    Family day care homes with links to community resources, 
professional education, BFS child care centers and other child and 
family resource centers.
    Child and family service providers, throughout Newark, New Jersey, 
the nation and South Africa, who will receive training in child, family 
and community development.
Key Outcomes
    Enhanced early childhood development and education for children 
(three to 13 years old).
    Enhanced ability of inner city residents, especially low-income 
parents and teenagers, to learn computer and technology skills.
    Enhanced tracking of 1,500 children in center- and home-based child 
care facilities; teenage parents; victims of domestic violence; 
homeless families; and children in foster care.
    Enhanced delivery of professional development of teaching and 
family service staff.
    Enhance the provision and delivery of parent education programs.
    Enhanced delivery of clinical and therapeutic services to parents 
and children.
    Enhanced ability to fulfill State and Federal reporting 
requirements and to provide community development consultation to 
local, State, national and international family service providers.
    This project received a total of $923,000 (fiscal year 2002--
$200,000 and fiscal year 2001--$723,000) in federal appropriations so 
far. But in order for the system to be fully operational and 
implemented for the entire target clientele population, an additional 
allocation of $1.6 million is being sought.
    We hope you find these two projects worthy of your support.
    Thank you for your consideration.
                                 ______
                                 
   Prepared Statement of the American Society for Clinical Pathology
    There is a serious shortage of medical laboratory personnel in the 
United States. This statement will attest to the shortage, provide 
national data on the subject as well as an explanation for this 
workforce shortage problem, and discuss a proven solution to the 
problem--the Allied Health Project Grants program, under Title VII of 
the Public Health Service Act. We respectfully request $21 million to 
fund the Allied Health Project Grants program for fiscal year 2003.
    The American Society for Clinical Pathology (ASCP) is a nonprofit 
medical specialty society representing 151,000 board certified 
pathologists, other physicians, clinical scientists (PhDs), medical 
technologists and technicians. It is the world's largest organization 
representing pathology and laboratory medicine. As the leading provider 
of continuing education for medical laboratory personnel, the ASCP 
enhances the quality of the profession through comprehensive 
educational programs and materials.
                              the problem
    The United States has a serious shortage of laboratory medical 
personnel with vacancy rates for seven of ten key laboratory medicine 
positions at an all time high. Vacancy rates for cytotechnologists, the 
professionals who evaluate Pap smears and other cellular material, and 
histotechnologists, the individuals who prepare tissue specimens for 
cancer biopsies, are at an alarming high of over 20 percent.
    The American Society for Clinical Pathology's Board of Registry, in 
conjunction with MORPACE International, Inc., Detroit, conducts a 
biennial wage and vacancy survey of 2,500 medical laboratory managers. 
The survey measures the vacancy rates for 10 medical laboratory 
positions, and compares and contrasts these data with that from 1988, 
1990, 1992, 1994, 1996, and 1998 studies. The data for 2000 was 
published in March 2001; some specifics from the survey are outlined 
below.
    Vacancy rates for cytotechnologists in the northeast average 45 
percent, 16.7 percent for the east north central, and 33.3 percent for 
the far west. Rural areas average a 20 percent vacancy rate for 
cytotechnologists, and large cities a rather surprising 28.3 percent 
rate.
    Private reference laboratories have an average vacancy rate of 20 
percent for histotechnologists, and hospitals have a 37.7 percent 
shortage of the same profession. The west south central region of the 
country has a 73.7 percent vacancy rate for histotechnologists, and the 
south central Atlantic states have an average vacancy rate of 16.7 
percent.
    By comparison, the vacancy rate for medical technologists will not 
appear to be a problem, but it too is reason for concern. Medical 
technologist vacancy rate averages 11.1 percent, but rural areas show 
21.1 percent vacancy and hospitals with 100-299 beds have a rate of 
17.6 percent.
    While the supply of laboratory personnel is dwindling, the demand 
for these professionals is increasing--as evidenced, in part, by the 
rise in wages.
    Beginning wage increases from 1998 to 2000 were the largest 
experienced since comparisons from the 1990 to 1992 studies. Pay for 
nine of the 10 employee positions increased at least 6.9 percent from 
1998 to 2000, with histotechnologist pay increasing 15.8 percent. 
Median average pay rate increases from 1998 to 2000 were larger than 
comparisons for any other time period. Only medical technologist 
supervisors (at 8.6 percent) and medical laboratory technician staff 
(at 8.5 percent) had wage increases of less than 10 percent. Histologic 
technicians (at 13.3 percent) and histotechnologists (at 15.4 percent) 
experienced the largest increases.
                      medical laboratory programs
    One of the logical solutions to this vacancy rate problem is to 
train more students; however, the number of programs are decreasing. 
For example, in Michigan, we have seen the number of programs plummet 
from 27 to 8 in less than two decades. In California, there are no 
programs available for histologic technicians or specialists in blood 
banking. There are only two programs for cytotechnologists, one program 
for medical laboratory technicians, and one for phlebotomists in that 
entire state.
    It is important to note that education programs for training 
medical laboratory personnel are sponsored by a variety of 
organizations and institutions, ranging from hospitals to degree-
granting colleges and universities.
    According to the Health Professions Education Directory published 
by the American Medical Association, the number of medical technology 
programs decreased from 383 in 1994 to 273 in 1999. The number of 
graduates in medical technology has similarly decreased from 3,563 in 
1994 to 2,491 in 1999, a 30 percent decline in 5 years.
                               assessment
    There are several reasons why the vacancy rate is increasing and 
the number of program enrollees is decreasing. A number of available 
positions are outside the traditional clinical laboratory. Some program 
directors have reported that graduates are gaining employment in 
laboratory information systems companies, ``dot.coms,'' and 
corporations that manufacture or distribute diagnostic reagents, 
supplies or equipment. With limited resources, hospitals have merged, 
thus decreasing the availability of training sites for medical 
laboratory programs. Some programs have responded by increasing access 
to other laboratory training sites, such as forensics laboratories, 
blood centers, physician offices, and outpatient clinics. Yet, with 
these shifts, the continued demand for laboratory services is real and 
is expected to grow.
    In Iowa, according to the Bureau of the Census, the population is 
projected to grow by 4 percent by 2020, and the population over age 65 
is projected to grow by 37 percent in the same time period. In 
Pennsylvania, the population is projected to grow by 3 percent by 2020, 
and the population over age 65 is projected to grow by 24 percent in 
the same time period.
    Given the country's aging population, the number and complexity of 
biopsy specimens and the use of molecular techniques will likely 
increase during the next decade. Laboratory professionals who entered 
the workforce in the 1960s and 1970s will be retiring soon as the 
average age for a medical technologist now is 45 years old. The threat 
of bioterrorism calls for trained laboratory professionals to respond. 
The laboratory-allied health workforce will need to be able to react 
accordingly with appropriate numbers of trained and educated personnel.
                       current working solutions
    There are solutions to these problems. As a professional 
organization, ASCP believes it holds a responsibility to address the 
workforce shortage. As such, ASCP offers scholarships to medical 
laboratory technology students each year to relieve some of the 
financial burden of higher education, but this does not come close to 
fulfilling the need. We produce career brochures and audiovisual 
materials for high school students and younger children to learn about 
opportunities in the laboratory. ASCP also exhibits and advertises at 
the annual conference for the National Association of Biology Teachers 
in an attempt to help these educators guide interested students to 
careers in the laboratory.
    On the public side, there are grants available to help attract 
laboratory professionals to the field, especially minorities and 
individuals in rural and underserved communities. The Allied Health 
Project Grants program, administered by the Health Resources and 
Services Administration, has been successful in effectively attracting 
new allied health professionals into the laboratory field.
    For example, the University of Nebraska Medical Center established 
medical technology education sites in four communities in rural 
Nebraska, including a student laboratory in central Nebraska, under an 
Allied Health Project Grant. As of 2001, of 89 rural program graduates, 
97 percent took their first job in a rural community, and 74 percent 
took their first job in rural Nebraska.
    The grants are also designed to create successful minority 
recruiting and retention programs for medical technologists. This was 
the focus of a University of Maryland, Baltimore project initiated by 
allied health grant funding in 1991. Through utilizing a four phase 
design, which begins with career awareness activities for elementary 
and middle school students, this model provides a continuum of 
activities that progressively focuses on identifying, retaining, and 
advancing interested students to the completion of a baccalaureate 
degree. The University of Maryland, Baltimore has created a successful 
minority recruiting and retention program for medical technologists 
with Allied Health Project Grant funding with an average 89 percent 
student retention rate. As a direct result of this federal support, the 
medical technology program has, as of fall 2000, reached a 64 percent 
minority student enrollment at a majority institution, one of the 
highest in the country.
    While allied health professionals comprise more than 60 percent of 
the entire health care work force, and number more than 3 million 
individuals, the attention paid to these health professionals is rather 
small. Allied health professionals are involved in the prevention, 
identification, monitoring, and evaluation of diseases, disabilities 
and disorders. The Allied Health Project Grants program is a relatively 
small step in assuring that funding is available to attract allied 
health professionals to the professions and to underserved communities. 
Given the critical shortages mentioned, it needs to be taken quite 
seriously.
    We respectfully request funding for the Allied Health Project 
Grants in the amount of $21 million.
    Thank you for the opportunity to provide this statement for the 
hearing record.
                                 ______
                                 
      Prepared Statement of the Coalition for American Trauma Care
    The Coalition for American Trauma Care is pleased to provide the 
Subcommittee with its recommendations for fiscal year 2003 
appropriations for public health programs that support trauma care, 
trauma care research, and injury prevention.
    The Coalition for American Trauma Care is a nonprofit association 
of national health and professional organizations that seeks to improve 
care for the seriously injured patient through improved delivery of 
trauma care services, research and rehabilitation activities. The 
Coalition also supports efforts to prevent injury from occurring.
    Injury is one of the most important public health problems facing 
the United States today. It is the leading cause of death for Americans 
from age 1 through age 44. More than 145,000 people die each year from 
injury, 88,000 from unintentional injury such as car crashes, fires, 
and falls, and 56,000 from violence-related causes. Over 85 children 
and young adults die from injuries in the United States every day 
translating into 30,000 deaths annually. Injury is also the most 
frequent cause of disability. Millions of Americans are non-fatally 
injured each year leaving many temporarily disabled and some 
permanently disabled with severe head, spinal cord, and extremity 
injuries. Because injury so often strikes the young, injury is also the 
leading cause of years of lost work productivity and, at an estimated 
$224 billion in lifetime costs each year, trauma is our nation's most 
costly disease.
    Attention to injury was never more important in the wake of the 9/
11 attacks. Particularly concerning is our failure, as a nation, to 
fully implement organized systems of trauma care in every state and 
region. The Health Resources and Services Administration is completing 
a survey of the states that is expected to show that only half have 
critical elements of an organized system of trauma care.
    Trauma Care Systems.--The Coalition supports $6 million in fiscal 
year 2003 for the HRSA trauma care systems program. This is the amount 
Congress has authorized for the program. Last year, Congress provided 
$3.5 million which permitted HRSA to conduct an assessment of each 
state's trauma care system and to establish a new National Trauma 
Systems/EMS Program within the Maternal and Child Health Bureau. As the 
1999 IOM report, Reducing the Burden of Injury: Advancing Prevention 
and Treatment, notes, federal leadership and resources for trauma care 
systems is important since trauma and EMS systems provide critical 
life-saving services. Many studies documented in the report show that 
even in the first year of implementation, trauma systems reduce 
preventable death rates by 50 percent or more. The Coalition for 
American Trauma Care sincerely hopes the Subcommittee will consider 
providing a modest amount of funding to re-establish a critical life-
saving program that also prevents costly, life-long disability.
    National Center for Injury Prevention and Control.--The Coalition 
supports $160 million in funding in fiscal year 2003 for the National 
Center for Injury Prevention and Control which is currently funded at 
$150.6 million. While the Coalition remains a strong supporter of the 
National Center for Injury Prevention and Control, members would like 
to see more balance in support for unintentional injuries. Significant 
increases in the NCIPC in recent years have largely been earmarked for 
violence prevention--an important focus for NCIPC after disturbing 
incidents in public schools around the country. However, unintentional 
injury remains the leading killer of children and young adults and 
NCIPC's efforts to translate what works into communities should receive 
increased funding. These efforts help prevent, for example, the 20,000 
head injuries that occur every year by encouraging the use of bicycle 
helmets, and reduce burn-related injuries through smoke detector 
implementation programs. The Coalition is also disappointed that as the 
funding base for the National Center for Injury Control and Prevention 
has grown, the relative amount of funding for acute care research and 
demonstration has diminished.
    The Agency for Healthcare Research and Quality (AHRQ).--The 
Coalition supports an fiscal year 2003 funding level of $390 million. 
Current funding is $300 million for the agency. AHRQ provides the 
evidence-based information needed to improve health care quality, 
enhance access to health care services, and more efficiently utilize 
health care resources. AHRQ is an important source of funding to assess 
trauma services research so that emergency response and treatment 
approaches to the very costly problem of serious injury are as 
efficient and cost-effective as possible. Trauma clinicians are 
constantly challenged to find ways to cut costs in the current managed 
care environment, but want to do it correctly by maintaining, or 
improving, quality of care and patient outcomes. Accomplishing this 
goal requires a specific research investment that can only be 
undertaken by the AHRQ with an increase in funding for this essential 
agency.
    Traumatic Brain Injury (TBI).--Traumatic brain injury is a leading 
cause of trauma-related disability. Brain injury is a silent epidemic 
that compounds every year, but about which still little is known. The 
Coalition urges you to provide $36.8 million in fiscal year 2003 
appropriation--$16.3 million above the current level of $20.5 million--
to fully fund the reauthorized Traumatic Brain Injury Act as follows: 
$7 million for CDC for surveillance so that we can learn the incidence 
and prevalence of brain injury in the U.S. population; $9.8 million for 
HRSA grants to states for demonstration projects to improve access to 
health care and other services; $5 million for HRSA Protection and 
Advocacy Services for persons with TBI; $15 million for NIH research 
with $5 million for a TBI Clinical Trials Network at the National 
Center for Medical Rehabilitation Research (NCMRR) and $10 million for 
five research centers at the National Institute for Neurological 
Disorders and Stroke (NINDS).
    Children's Emergency Medical Services.--Injury is the leading cause 
of death for children in the United States. The Children's EMSC program 
at the Health Resources and Services Administration is designed to 
improve the emergency response to children who are critically injured 
or ill. The Coalition urges you to provide at least $22 million in 
fiscal year 2003 appropriations for this vital program.
    Preventive Health/Health Services Block Grant (PHHS).--The 
Coalition supports an fiscal year 2003 funding level of $210 million, 
which is currently funded at $135 million. This program provides 
flexible funding to states to allow them to address specific health 
problems identified under the Healthy People 2010 assessment process. 
This amount is the level that states have estimated they need to meet 
the minimum of what they need to address under the Block Grant. The 
PHHS Block Grant is the largest single source of federal funding for 
state Emergency Medical Services (EMS)--the first line of defense 
against death and disability resulting from severe injury. Every time 
the block grant has been reduced EMS funding has dropped precipitously. 
In 1981 EMS funding was $30 million; it is now well under $10 million 
for the fifty states.
    The Coalition for American Trauma Care appreciates the support the 
Subcommittee has provided to many trauma and related programs in the 
past. However, much remains to be done to address this leading public 
health problem so that we can achieve the substantial health and social 
welfare cost savings addressing increased research, timely treatment 
and rehabilitative interventions, and prevention will provide the 
citizens of the United States. Much also remains to be done, 
specifically, to extend organized systems of trauma care to all states 
and regions so that the nation is prepared for terrorist attacks that 
could result in a multitude of seriously injured individuals. The 
Coalition looks forward to working with the Subcommittee to achieve 
these goals.
                                 ______
                                 
   Prepared Statement of the American Academy of Physician Assistants
    On behalf of the nearly 43,000 clinically practicing physician 
assistants in the United States, the American Academy of Physician 
Assistants (AAPA) is pleased to submit comments on fiscal year 2003 
appropriations for Physician Assistant (PA) education programs that are 
authorized through Title VII of the Public Health Service Act.
    A member of the Coalition for Health Funding (CHF), the American 
Academy of Physician Assistants supports the CHF recommendation to 
appropriate $51.8 billion for the Public Health Service in fiscal year 
2003. The Academy is also a member of the Health Professions and 
Nursing Coalition (HPNEC) and supports the HPNEC recommendation to 
provide at least $550 million to support the Titles VII and VIII 
programs in fiscal year 2003. The Academy believes that the recommended 
increase in funding for the Title VII health professions programs is 
well justified. The programs are essential to the development and 
training of primary health care professionals and contribute to the 
nation's overall efforts to increase access to care by promoting health 
care delivery in medically underserved communities.
    The Academy is very concerned with the Administration's proposal to 
eliminate funding for most Title VII programs, including training for 
primary care medicine and dentistry, and cut health professions 
programs funding overall by 75 percent. As Members of the Subcommittee 
are aware, these programs are designed to help meet the health care 
delivery needs of the nation's Health Professional Shortage Areas 
(HPSAs). By definition, the nation's 3,800 HPSAs experience shortages 
in the primary care workforce that the market alone can't address. We 
wish to thank the Members of this Subcommittee for your historical role 
in supporting funding for the health professions programs, and we hope 
that we can count on your support for these important programs in 
fiscal year 2003.
             overview of physician assistant (pa) education
    PA programs provide students with a primary care education that 
prepares them to practice medicine with physician supervision. 
Physician assistant programs are located at schools of medicine or 
health sciences, universities, teaching hospitals, and the Armed 
Services. All PA educational programs are intensive education programs 
that are accredited by the Accreditation Review Commission on Education 
for the Physician Assistant.
    The typical PA program consists of 111 weeks of instruction. The 
first phase of the program consists of intensive classroom and 
laboratory study, providing students with an in-depth understanding of 
the medical sciences. More than 400 hours in classroom and laboratory 
instruction are devoted to the basic sciences, with over 70 hours in 
pharmacology, more than 149 hours hours in behavioral sciences, and 
more than 535 hours of clinical medicine.
    The second year of PA education consists of clinical rotations. On 
average, students devote more than 2,000 hours or 50-55 weeks to 
clinical education, divided between primary care medicine and various 
specialties, including family medicine, internal medicine, pediatrics, 
obstetrics and gynecology, surgery and surgical specialties, internal 
medicine subspecialties, emergency medicine, and psychiatry. During 
clinical rotations, PA students work directly under the supervision of 
physician preceptors, participating in the full range of patient care 
activities, including patient assessment and diagnosis, development of 
treatment plans, patient education, and counseling.
    Physician assistant education is competency based. After graduation 
from an accredited PA program, the physician assistant must pass a 
national certifying examination jointly developed by the National Board 
of Medical Examiners and the independent National Commission on 
Certification of Physician Assistants. To maintain certification, PAs 
must log 100 continuing medical education credits over a 2-year cycle 
and reregister every two years. Also to maintain certification, PAs 
must take a recertification exam every 6 years.
                      physician assistant practice
    Physician assistants are licensed health care professionals 
educated to practice medicine as delegated by and with the supervision 
of a physician. In all states, physicians may delegate to PAs those 
medical duties that are within the physician's scope of practice and 
the PA's training and experience, and are allowed by law. Forty-seven 
states, the District of Columbia, and Guam authorize physicians to 
delegate prescriptive rivileges to the PAs they supervise.
    PAs are located in almost all health care settings and in every 
medical and surgical specialty. Fourteen percent of all PAs practice in 
rural areas where they may be the only full-time providers of care 
(state laws stipulate the conditions for remote supervision by a 
physician). Approximately 20 percent of PAs work in urban and inner 
city areas. The majority of PAs are in primary care. Nearly one-quarter 
practice in surgical specialties. Seventy percent of PAs practice in 
outpatient settings. In 2001, an estimated 170 million patient visits 
were made to PAs and approximately 213 million medications were 
prescribed or recommended by PAs.
  critical role of the title vii, public health service act, programs
    A growing number of Americans lack access to primary care, either 
because hey are uninsured, underinsured, or they live in a community 
with an inadequate supply or distribution of providers. The growth in 
the uninsured U.S. population increased from approximately 32 million 
in the early 1990s to nearly 43 million today. Simultaneously, the 
number of medically underserved communities continues to rise, from 
1,949 in 1986 to 3,800 today.
    The role of the Title VII programs is to alleviate these problems 
by supporting access to quality, affordable, and cost-effective care in 
areas of our country that are most in need of health care services, 
specifically rural and urban underserved communities. This is 
accomplished through the support of educational programs that train 
more health professionals in fields experiencing shortages, improve the 
geographic distribution of health professionals, and increase access to 
care in underserved communities.
    The Title VII programs are the only federal education programs that 
are designed to address the supply and distribution imbalances in the 
health professions. Since the establishment of Medicare, the costs of 
physician residencies, nurses and some allied health professions 
training has been paid through Graduate Medical Education (GME) 
funding. However, GME has never been available to support PA education. 
More importantly, GME was not intended to generate a supply of 
providers who are willing to work in the nation's medically underserved 
communities. That is the purpose of the Title VII Public Health Service 
Act Programs, which support such initiatives as loans and scholarships 
for disadvantaged students, scholarships for students with exceptional 
financial need, centers of excellence to recruit and train minority and 
disadvantaged students, and interdisciplinary initiatives in geriatric 
care and rural health care.
    Furthermore, now that there is compelling evidence that race and 
ethnicity correlate with persistent, and often increasing, health 
disparities among U.S. populations, increasing the diversity of health 
care professionals is essential. Title VII programs are unique in that 
they seek to recruit providers from a variety of backgrounds. This is 
particularly important, as studies have shown that those from 
disadvantaged regions of the country are 3 to 5 times more likely to 
return to those areas to provide care.
               title vii support of pa education programs
    Targeted federal support for PA education programs is currently 
authorized through section 747 of the Public Health Service Act. The 
program was reauthorized in the 105th Congress through the Health 
Professions Education Partnerships Act of 1998, Public Law 105-392, 
which streamlined and consolidated the federal health professions 
education programs. Support for PA education is now considered within 
the broader context of training in primary care medicine and dentistry.
    Public Law 105-392 reauthorized awards and grants to schools of 
medicine and osteopathic medicine, as well as colleges and 
universities, to plan, develop, and operate accredited programs for the 
education of physician assistants and faculty, with priority given to 
training individuals from disadvantaged communities. The funds ensure 
that PA students from all backgrounds have continued access to an 
affordable education and encourage PAs, upon graduation, to practice in 
underserved communities. These goals are accomplished by funding PA 
education programs that have a demonstrated track record of: (1) 
placing PA students in health professional shortage areas; (2) exposing 
PA students to medically underserved communities during the clinical 
rotation portion of their training; and (3) recruiting and retaining 
students who are indigenous to communities with unmet health care 
needs.
    The program works. A review of PA graduates from 1991-1999 reveals 
that 16.5 percent of students graduating from PA programs supported by 
Title VII are from underrepresented minorities, compared to 7.7 percent 
of graduates from programs that did not receive Title VII support. 
Similarly, 13.5 percent of the graduates who attended PA programs 
receiving Title VII support during the 8-year period practice in 
underserved communities, compared to 10.1 percent of graduates of 
programs not receiving such support during the same period.
    The PA programs' success in recruiting and retaining 
underrepresented minority and disadvantaged students is linked to their 
ability to creatively use Title VII funds to enhance existing 
educational programs. For example, a PA educational program in Iowa 
uses Title VII funds to target recruitment efforts to disadvantaged 
students, providing shadowing and mentoring opportunities for 
prospective students, increasing training in cultural competency, and 
identifying new family medicine preceptors in underserved areas. PA 
programs in Texas use Title VII funds to create new clinical rotation 
sites in rural and underserved areas, including new sites in border 
communities, and to establish non-clinical rural rotations to help 
students understand the challenges faced by rural communities. A PA 
program in Kansas has used Title VII funds to provide a significant 
portion of the training for 500 PA students in remote, medically 
underserved communities in the state. Several other PA programs have 
been able to use Title VII grants to leverage additional resources to 
assist students with the added costs of housing and travel that occur 
during relocation to rural areas for clinical training.
    Without Title VII funding, many of these special PA training 
initiatives would not be possible. Institutional budgets and student 
tuition fees simply do not provide sufficient funding to meet the 
special, unmet needs of medically underserved areas or disadvantaged 
students. Nevertheless, the need is very real, and Title VII is 
critical in meeting it.
     need for increased title vii support for pa education programs
    Increased Title VII support for educating PAs to practice in 
underserved communities is particularly important given the market 
demand for physician assistants. Without the Title VII funding to 
expose students to underserved sites during their training, PA students 
are far more likely to practice in the communities where they were 
raised or the communities in which they attended school. Title VII 
funding is a critical link in addressing the natural geographic 
maldistribution of health care providers by exposing students to 
underserved sites during their training, where they frequently choose 
to practice following graduation.
    The supply of physician assistants is inadequate to meet the needs 
of society, and the demand for PAs is expected to increase. A 1994 
report of a workgroup of the Council on Graduate Medical Education 
(COGME), ``Physician Assistants in the Health Workforce,'' estimated 
that the anticipated medical market demand and the estimated workforce 
requirements for PAs would exceed demand. Additionally, the Bureau of 
Labor Statistics projects that the number of available PA jobs will 
increase 53 percent between 2000 and 2010.
    Despite the increased demand for PAs, funding has not 
proportionately increased for the Title VII programs that are designed 
to educate and place physician assistants in underserved communities. 
Nor has the Title VII support for PA education kept pace with increases 
in the cost of educating PAs. A review of PA program budgets from 1984 
through 1999 indicates an average annual increase of 7.2 percent, a 
total increase of 173 percent over the past 16 years; yet, federal 
support has remained relatively static.
              recommendations on fiscal year 2003 funding
    The American Academy of Physician Assistants urges members of the 
Appropriations Committee to consider the inter-dependency of all the 
public health agencies and programs when determining funding for fiscal 
year 2003. For instance, while it is important to fund clinical 
research at the National Institutes of Health (NIH) and to have an 
infrastructure at the Centers for Disease Control (CDC) that ensures a 
prompt response to an infectious disease outbreak or bioterrorist 
attack, the good work of both of these agencies will go unrealized if 
the Health Resources and Services Administration (HRSA) is inadequately 
funded. HRSA administers the ``people'' programs, such as Title VII, 
that bring the cutting edge research discovered at NIH to the 
patients--through providers such as PAs who have been reducated in 
Title VII-funded programs. Likewise, CDC is heavily dependent upon an 
adequate supply of health care providers to be sure that disease 
outbreaks are reported, tracked, and contained.
    The critically important programs administered by NIH, HRSA, and 
CDC are integral components within the nation's public health 
continuum. One component is not more important than another, and no one 
component can succeed without adequate support from each of the other 
elements.
    Furthermore, while the Academy applauds the Administration's 
proposal to strengthen the safety net by increasing support for 
Community Health Centers, it should not do so at the expense of Title 
VII programs. These programs are the infrastructure that provides the 
pipeline of trained health professionals to these facilities. 
Eliminating funding for most Title VII programs will effectively 
destroy a network of initiatives across the country that supports the 
training of providers to meet the needs of special, underserved 
populations. Eliminating this resource would be devastating to the 
country's neediest communities and certainly will not improve access to 
health care for individuals in these areas.
    A recent report by the Advisory Committee on Training in Primary 
Care Medicine and Dentistry quotes a study in the Journal of Rural 
Health: ``In 1997, Title VII funded programs increased the rates of 
graduates entering health profession shortage areas (HPSAs), resulting 
in 1357 providers . . . Doubling the funding of these programs . . . 
could decrease the time for HPSAs elimination to as little as 6 
years.'' The Advisory Committee concluded that ``. . . Title VII 
remains a modest investment, but, as has been demonstrated, one with 
substantial future payoffs in terms of system quality, access to care, 
and a culturally competent system of care for the entire population.''
    The American Academy of Physician Assistants is particularly 
appreciative of the increase in funding for PA education programs that 
was appropriated for fiscal year 2002. Yet, funding must increase 
further to meet the increasing demand for PA graduates in the growing 
number of medically underserved communities. Accordingly, the Academy 
respectfully requests that the Title VII and VIII health professions 
programs receive $550 million in funding for fiscal year 2003, 
including $18 million to support PA educational programs, as 
recommended by the Advisory Committee on Primary Care Medicine and 
Dentistry.
    Thank you for the opportunity to present the American Academy of 
Physician Assistants' views on fiscal year 2003 appropriations.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians
    The 93,500 member American Academy of Family Physician submits the 
following statement for the record on three issues of critical 
importance to family physicians in the United States: (1) funding for 
family medicine training in Section 747 of the Public Health Service 
Act; (2) funding for the Agency for Healthcare Research and Quality 
(AHRQ); and (3) funding for rural health programs.
                   family medicine training programs
Recommendation
    The Academy supports appropriations of $169 million for Section 747 
of Title VII of the Public Health Service Act for fiscal year 2003.--
Section 747 authorizes the Primary Care and Dentistry cluster, which 
includes support for family medicine, general internal medicine and 
general pediatrics, physician assistants and general and pediatric 
dentistry. This figure includes $96 million for family medicine 
programs.
Section 747 Advisory Committee Recommends Higher Funding
    In 1998, Congress established an Advisory Committee to review and 
make recommendations on Section 747. The Advisory Committee on Training 
in Primary Care Medicine and Dentistry (ACTPCMD) recently released 
their recommendations to Congress and the Secretary of the Department 
of Health and Human Services. The first of six recommendations urges 
greatly expanding federal support for Section 747 to $198 million. The 
Committee notes the growing need for primary care providers, as well as 
the success of Title VII funded programs.
President's Budget Request for Fiscal Year 2003 Zeros Out Primary Care 
        Funding
    As you know, the President's budget once again zeroes out funding 
for the Primary Care Medicine and Dentistry cluster. In addition, the 
Administration includes only $94 million for all of the Health 
Professions programs, a sharp cut of 75 percent from the fiscal year 
2002 level of $378 million. The proposed budget emphasizes that the 
grants were developed in response to a physician shortage, as it did 
last year, although this year the budget document acknowledges a 
geographic maldistribution of doctors. The budget also claims, ``most 
of the health professions grants have not proven effective because they 
do not accurately address current health professions problems.'' In 
fact, according to several studies (see below), Title VII dollars have 
proven effective in addressing several major health professions 
problems.
What Does Title VII Do?
    Section 747 is the only program at the federal level that supports 
family medicine training programs at both the undergraduate and 
graduate level. It is designed to increase both the number of primary 
care physicians and the number of individuals who will provide health 
care to the underserved. The program has succeeded in achieving its 
goals and Congress should support it at higher funding levels.
Title VII Meets Its Goals: Grants Increase the Number of Primary Care 
        Physicians
    Due to Section 747 funding, thousands of physicians are making 
career choices to go into primary care and family medicine and to serve 
millions of patients.
    A study by the Robert Graham Center for Policy Studies showed that 
medical schools that received Section 747 family medicine funds 
produced more medical students who practiced ultimately:
  --in family medicine or primary care (family physicians, general 
        practitioners, general internists or general pediatricians);
  --in a rural area; or
  --in a whole county Primary Care Health Professions Shortage Area 
        (those counties with inadequate numbers of family physicians, 
        general pediatricians, general internists or obstetrician/
        gynecologists).
    Sustained funding during the years of medical school training had 
more positive impact than intermittent funding.
Title VII Meets Its Goals--Grants Put Physicians in the Right Places--
        Loss of Funding Would Hurt the Underserved
    Without family physicians, counties around the United States would 
not receive essential primary care services.--Another study by the 
Robert Graham Center showed that the United States relies on family 
physicians more than any other physician specialty. Specifically, the 
study looked at counties designated as Primary Care Health Professions 
Shortage Areas (HPSAs). Right now, there are 3,082 counties in the 
United States; 784 qualify as Primary Care HPSAs. The study found that 
if family physicians were to be withdrawn from all 3,082 counties, an 
additional 1,332 counties would become Primary Care HPSAs--a 43 percent 
increase. In contrast, if all internists, pediatricians and 
obstetrician-gynecologists were to be taken out of the nation's 
counties, only another 176 would become shortage areas--a 6 percent 
increase.
    Finally, a recent article in The Journal of Rural Health found that 
Title VII funding is key to ending HPSAs. According to the study, 
without this funding, not only would HPSAs not be eliminated, but the 
number of shortage areas would continue to grow. In addition, the 
article states that Title VII funding has cut to 15 years the time 
needed to eliminate all HPSAs. Doubling the funding for these programs 
would decrease the time for HPSA elimination to as little as 6 years 
(Robert M. Politzer, ScD, et. al. Winter, 1999) It is clear that 
underseved populations, particularly in rural areas, depend on the care 
that family physicians provide.
Future Funding Priorities
    ACTPCMD's report to Congress lays out priorities for training 
primary care providers. If additional funds are made available, Title 
VII dollars could enhance current training, allowing it to be even more 
effective at providing:
  --high-quality health care for underserved populations
  --culturally competent care
  --continued demonstration authority to address emerging health 
        initiatives
  --additional interdisciplinary learning opportunities
  --better quality of health care, eliminating health disparities, and 
        improving patient safety
Primary Care Training Programs React Quickly to Emerging Health 
        Challenges
    Title VII dollars have created an infrastructure that allows 
educational programs to respond to contemporary health care issues. 
Specifically, the ACTPCMD report states that:
    Investment in education to provide primary care has effects that 
touch the largest number of people in the country. No other group of 
health care providers can exert such a broad influence on the kind and 
quality of health care in the United States. Primary care training 
programs are ideally positioned to react quickly to meet ever-changing 
health care needs and issues, whether they are related to HIV/AIDS, 
growing numbers of elderly with chronic illnesses, implications of the 
modern genetics revolution, the threat of bioterrorism, or other issues 
that will continue to emerge and demand rapid educational intervention. 
Thus, this infrastructure is uniquely able to play a pivotal role in 
bringing emerging issues in health care to the population at large.
               agency for healthcare research and quality
Recommendation
    We recommend appropriations of $390 million for the Agency for 
Healthcare, Research and Quality (AHRQ) in fiscal year 2003.--AHRQ 
conducts primary care and health services research geared to physician 
practices, health plans and policymakers that helps the American 
population as a whole.
What Does AHRQ Do?
    AHRQ has the following three goals:
    1. Improve physician practice and Americans' health outcomes;
    2. Improve the quality of health care (e.g., patient safety);
    3. Improve the health care system (e.g., increase access and reduce 
costs).
    In brief, AHRQ ``helps to improve the health and health care of the 
American people . . . ''----(AHRQ report, March, 2001).
President's Budget Request for Fiscal Year 2003 Cuts AHRQ Funding
    As you know, the President's budget includes $251 million for AHRQ, 
a cut of $49 million, or 16 percent, from the current funding level of 
$299 million.--This would mean cuts of 46 percent from existing grants 
to absolutely no new grants or contracts in 2003. The budget also makes 
funding for the agency completely dependent on transfers from other 
agencies, rather than on a Congressional appropriation. This is a less 
secure funding method for this important agency.
How Does AHRQ Meet Its Goals?
    AHRQ translates basic science research findings like those of the 
National Institutes of Health into information that doctors can use 
every day in their practice. Another key function of the agency is to 
support research on the conditions that affect most Americans.
    1. AHRQ Translates Research into Everyday Practice.--Congress has 
provided billions of dollars to the National Institutes of Health, 
which has resulted in important insights in preventing and curing major 
diseases. AHRQ takes this basic science and produces information that 
physicians can use every day in their practices. AHRQ also distributes 
this information throughout the health care system. In short, AHRQ is 
the link between research and the patient care that Americans receive.
    For example, research shows that beta blockers reduce mortality. 
AHRQ supported research to help physicians determine which patients 
with heart attacks would benefit from this medication.
    2. AHRQ Supports Research on Conditions Affecting Most Americans.--
Most typical Americans get their medical care in doctors' offices and 
clinics. However, most medical research comes from the study of 
extremely ill patients in hospitals. AHRQ studies and supports research 
on the types of illness that trouble most people. In brief, AHRQ looks 
at the problems that bring people to their doctors--not the problems 
that send them to the hospital.
    For example, AHRQ supported research that found older, cheaper 
antidepressant drugs are as effective as new antidepressant medications 
in treating depression, a condition that affects millions of Americans.
Institute of Medicine Recommends $1 Billion for AHRQ
    The Institute of Medicine's report, Crossing the Quality Chasm: A 
New Health System for the 21st Century (2001) recommended $1 billion 
for AHRQ to ``develop strategies, goals, and actions plans for 
achieving substantial improvements in quality in the next 5 years. . . 
.'' The report looked at redesigning health care delivery in the United 
States. AHRQ is a linchpin in retooling the American health care 
system.
                         rural health programs
    Finally, the Academy supports continued funding for several rural 
health programs. In particular, we support the programs of the Federal 
Office of Rural Health Policy; Area Health Education Centers, two 
programs that are equally important to health care in rural areas and 
in our inner cities; the Community and Migrant Health Center Program 
and the National Health Services Corps. State rural health offices, 
funded through the National Health Services Corps budget, help states 
implement such programs so that they benefit rural residents as much as 
urban dwellers. Continued funding for these rural programs is vital if 
we wish to provide adequate health care services to America's rural 
citizens.
                               conclusion
    Thank you for your consideration of these important requests.
                                 ______
                                 
Prepared Statement of the Association of Women's Health, Obstetric and 
                            Neonatal Nurses
    The Association of Women's Health, Obstetric and Neonatal Nurses 
(AWHONN) appreciates the opportunity to comment on the fiscal year 2003 
appropriations for nursing education, research, and workforce programs, 
as well as programs designed to improve maternal and child health. 
AWHONN is a membership organization of 22,000 nurses whose mission is 
to promote the health of women and newborns. AWHONN members are 
registered nurses, nurse practitioners, certified nurse midwives, and 
clinical nurse specialists who work in hospitals, physicians' offices, 
universities and community clinics across North America as well as in 
the Armed Forces around the world.
    AWHONN appreciates the support that this Subcommittee has provided 
for nursing education, research and workforce programs, as well as 
maternal and child health programs in the past. We realize that there 
are many competing priorities for the Subcommittee members, and we 
appreciate your consistent support.
                       impending nursing shortage
    AWHONN supports the advancement of quality care through an adequate 
nurse workforce. The release of data from the Bureau of Health 
Professions, Division of Nursing's National Sample Survey of Registered 
Nurses--February 2002, confirmed that of the approximate 2.7 million 
nurses in the nation, only about 82 percent of these nurses were 
working full-time or part-time in nursing. The increase in the number 
of licensed RNs that was reported from 1996-2000 was the lowest 
increase reported in previous national surveys. When other key factors 
are considered, such as retirements of RNs and the aging of the baby 
boomer population, it is clear that the demand for nursing services 
will dramatically increase as the supply of nurses dips greatly below 
previous levels.
    Workforce demand models are indicating that the nation will suffer 
a dramatic nursing shortage that peaks in 2010. This shortage is unlike 
any other nurse shortages in the past. In the past, it was often an 
issue of supply and demand. With modest federal support of programs 
that increased the pipeline of nursing students and employer salary 
increases, the nursing supply would gain momentum and close the supply-
demand gap. These solutions will not alone make the difference in this 
nursing shortage. The predominate factor in this shortage is the 
impending retirement of up to 40 percent of the workforce by 2010 or 
soon thereafter. This will occur at the same time that demand for 
health care services as well as the services of registered nurses is 
increasing to meet the needs of the aging baby boomer population. As a 
result, it will take long term planning and innovative initiatives at 
the local, state and federal level to assure the adequate supply of a 
qualified nurse workforce for the nation.
                department of health and human services
Health Professions Education Partnerships Act of 1998--Title VIII of 
        the Public Health Service Act (formerly the Nurse Education 
        Act)
    AWHONN is requesting an increase by at least $40 million over 
fiscal year 2001 to fund the NEA at approximately $120 million. In 
addition, AWHONN is requesting at least an additional $10 million in 
appropriations for fiscal year 2003 for the nursing education loan 
repayment program for nurses (Sec. 846 of the Public Health Service 
Act).
    The shortage of registered nurses and the effect of the shortage on 
nurse staffing and patient safety demand a significant increase in 
funding for these Title VIII programs. Nursing is the largest health 
profession with over 2.7 million nurses, yet only one-tenth of 1 
percent of the federal health funding of the nation is directed to 
nursing education.
    Title VIII programs provide valuable resources to support the 
nursing community in its efforts to provide quality patient care. A 
significant increase in Title VIII would lay the groundwork to expand 
the nursing workforce and faculty, through education and clinical 
training, in order to address some of the serious nursing shortage 
issues.
    The Nurse Education Act (Public Health Service Act Title VIII), 
enacted in 1964, represents the only comprehensive federal legislation 
to provide funds for nursing education. The programs authorized in this 
portion of Public Law 105-392 help schools of nursing and nursing 
students prepare to meet patient needs in a changing health care 
delivery system, favoring programs in institutions that train nurses 
for practice in medically underserved communities and Health 
Professional Shortage Areas. Reauthorized as the Nursing Workforce 
Development section in 1998, the new NEA gives the Department of Health 
and Human Services more discretion over the focus of federal spending, 
while keeping with previous goals.
    Minorities account for only 12 percent of the total population of 
nurses in the United States. Funds from the Nurse Education Act support 
projects that would increase the number and educational opportunities 
for minority nurses who would then be able to provide culturally 
competent, linguistically appropriate health care services to 
underserved communities.
    The nursing shortage is not confined solely to care providers; 
there is also a growing, significant shortage of nurse faculty. The 
American Association of Colleges of Nursing (AACN) reports that the 
average age of nursing professors is 52, and for associate professors 
the average age is 49. The impending retirement of these seasoned 
educators will impact the ability of our schools and universities to 
meet the educational health care needs of the nation. While the 
capacity to implement faculty development is currently available 
through Section 811 and Section 831, adequate funding and direction is 
needed to ensure that these programs are fully operational. In 
addition, options to provide support for full-time doctoral study are 
essential to rapidly prepare the nurse educators of the future. AWHONN 
suggests that funds be directed to faculty development and mentoring. 
In anticipation of the pending nursing shortage, the nursing community 
will continue to seek a broad range of legislative initiatives that 
will bolster the supply of nurses in the nation. Additional 
appropriations will be requested to implement these initiatives upon 
passage of this legislation.
                  national institutes of health (nih)
AWHONN joins many others in supporting the professional judgement 
        budget amount of $25 million for the fiscal year 2003 
        appropriations. This would bring NINR to a total funding level 
        of $145 million
    AWHONN supports continued and increased funding to the National 
Institute of Nursing Research to support nurse research on the cost 
effectiveness of different nursing practices on patient outcomes. This 
research will allow us to refine the practice and provide quality 
patient care in its current challenging environment.
    NINR engages in significant research affecting areas such as: 
research on health disparities in ethnic groups, training opportunities 
in genetic research and in health disparities, and studying telehealth 
interventions in rural/underserved populations. These research programs 
directly affect patients and families and contribute to decreased 
medical costs and increased quality of patient care.
    In addition, NINR research improves outcomes for women and 
children. A report by the U.S. Agency for Healthcare Research and 
Quality states that the most common reason for hospital admission in 
the United States is childbirth. This accounts for 3.8 million annual 
hospital admissions. This is a joyous event in most women's lives, but 
complications of pregnancy such as pre-term birth and low birthweight 
infants are some of the more expensive reasons for hospitalization. 
Nurse research has helped redesign care delivery models that optimize 
pregnancy outcomes and shorten hospital stays for vulnerable low 
birthweight babies.
    For example, NINR-funded projects have contributed to breakthroughs 
in nursing that have improved infant health after hospital discharge 
for at-risk mothers and babies. One model utilized home follow-up 
assessment and care by an advanced practice nurse and showed decreased 
health system costs by shortening the length of stay of the infant and 
avoiding subsequent re-hospitalization.
    Because of the emphasis on biomedical research in this country, 
there are few sources of funds for high-quality behavioral research for 
nursing other than NINR. It is critical that we increase funding in 
this area in an effort to improve the consumer's experience with the 
health care system, optimize patient outcomes and decrease the need for 
extended hospitalization.
       national institute of child and human development (nichd)
AWHONN supports the professional judgment budget, which includes an 
        increase of $170.4 million, bringing the appropriation for 
        NICHD to just over $1.284 billion
    NICHD seeks to ensure that every baby is born healthy, that women 
suffer no adverse consequences from pregnancy, and that all children 
have the opportunity to fulfill their potential for a healthy and 
productive life unhampered by disease or disability. With increased 
funding NICHD could expand its use of the NICHD Maternal-Fetal Medicine 
Network to study ways to reduce the incidence of low birth weight. 
Prematurity/low birthweight is the second leading cause of infant 
mortality in the United States and the leading cause of death among 
African American infants. AWHONN, like many organizations directly 
involved in initiates to improve the health of women and newborns, 
looks to NICHD to provide national initiatives, such as the Maternal-
Fetal Medicine Network to assist with the care of pregnant women and 
babies.
    One specific example of the important research that evolves from 
NICHD is research that led to the finding that the hormones that 
control the body's response to stress are involved in the process that 
prevents a mother's immune system from destroying an embryo that has 
implanted in her uterus. This finding opens up promising new ground in 
the quest to treat recurrent miscarriage, preventing and treating 
preeclampsia, and determining the causes of unexplained infertility.
                 maternal and child health block grant
AWHONN recommends funding at the full authorization level of $850 
        million for the Maternal Child Health Block Grant for fiscal 
        year 2003
    This program provides comprehensive, preventive care for mothers 
and young children, as well as an array of coordinated services for 
children with special needs. In fact, the Maternal Child Health Block 
Grant (MCH) serves over 80 percent of all infants in the United States, 
half of all pregnant women, and 20 percent of all children. MCH 
programs are facing increased demands for services due to continued 
growth in the Children's Health Insurance Program, which in turn 
identifies more children who are eligible for other MCH Services. Title 
V complements Medicaid and the State Children's Health Insurance 
Program by providing ``wrap-around'' services and enhanced access to 
care in underserved areas.
    Additional funding would give states the resources they need to 
expand prenatal and infancy home visitation programs, an approach that 
has been shown, in NINR research, to improve the prenatal health-
related behavior of women and reduce rates of child abuse and neglect 
as well as maternal welfare dependence. Postpartum home visits can also 
increase the percentage of mothers who choose to breastfeed. Many new 
mothers can get frustrated and stop breastfeeding in the first few 
days; a visit from a qualified health care provider can greatly 
encourage women to continue breastfeeding. This can also positively 
impact the goals of the Healthy People 2010 initiative to raise the 
rate of initiation of breastfeeding to 75 percent and the 6-month rate 
of breastfeeding to 50 percent.
    The MCH funds assure that women, children and youth have access to 
such basic but critical services regardless of whether they have 
insurance or whether their insurance covers the service. Particularly 
in underserved areas of the country where health care providers, 
including community health centers, are in short supply, MCH funds can 
help assure that women and children get the services they need.
               centers for disease control and prevention
AWHONN supports the Friends of CDC's recommended fiscal year 2003 
        appropriation of $7.9 billion for the Centers for Disease 
        Control and Prevention. This figure represents a near doubling 
        of the CDC fiscal year 2002 budget
    For nearly 60 years, the Centers for Disease Control and Prevention 
(CDC) has evolved to assume responsibility for programs in infectious 
disease surveillance, control and prevention, injury control, health in 
the workplace, prevention of heart disease, cancer, stroke, obesity and 
other chronic diseases, improvements in nutrition and immunization, 
environmental effects on health, prevention of birth defects, 
laboratory analyses, outbreak investigation and epidemiology training, 
and data collection and analysis on a host of vital statistics and 
other health indicators. Now more than ever, CDC's role in protecting 
the nation's health through prevention has become evident as we address 
issues of terrorism, emergency preparedness and health system capacity 
and infrastructure. Increased funding for CDC is critical.
    For over 30 years, CDC has been deeply involved in the prevention 
of birth defects through programs like the Folic Acid Education 
Campaign and the new National Center on Birth Defects and Developmental 
Disabilities (NCBDDD). The public health impact of birth defects is 
tremendous. Of the four million babies born each year in the United 
States, approximately 150,000 are born with a serious birth defect. 
According to CDC, the lifetime costs of caring for infants born in 
1992, with at least one birth defect \1\ or cerebral palsy was about $8 
billion. The emotional and financial burden for the families with 
affected children is devastating. CDC funds several programs critical 
to reducing the number of children born with birth defects. The fiscal 
year 2002 funding level of $91 million is inadequate to continue CDC's 
work reduce the incidence of costly birth defects. We respectfully 
request that you provide the NCBDDD $115 million in funding in fiscal 
year 2003 to prevent these serious birth defects through programs like 
the Folic Acid Education Campaign.
---------------------------------------------------------------------------
    \1\ These birth defects include: Spina bifida, truncus arteriosus, 
single ventricle, transposition/double outlet right ventricle, 
Tetralogy of Fallot, tracheo-esophageal fistula, colorectal atresia, 
cleft lip or palate, atresia/stenosis of small intestine, renal 
agenesis, urinary obstruction, lower-limb reduction, upper-limb 
reduction, omphalocele, gastroschisis, Down syndrome, and diaphragmatic 
hernia.
---------------------------------------------------------------------------
    Under the President's proposed fiscal year 2003 budget, CDC 
programming for chronic disease prevention would be cut by nearly $51 
million. This proposed cuts is troubling when statistics are reviewed. 
Heart disease and stroke are the first and third leading causes of 
death in the United States, causing one death every 33 seconds and $298 
billion a year in healthcare costs and lost productivity, according to 
CDC estimates. Women are most commonly misdiagnosed for cardiovascular 
disease and nearly 8 million women are currently living with 
cardiovascular disease. Cardiovascular disease kills nearly half of all 
American women.
    Sixty-one percent of American adults are overweight or obese and 
nearly 14 percent of children and adolescents are overweight. Obesity 
is considered a major public health problem because it serves as the 
gateway disease for many other illnesses including but not limited to: 
depression, type 2 diabetes, hypertension, congestive heart failure, 
stroke, poor female reproductive health and pregnancy complications. 
These are but two examples of illnesses with programmatic public health 
funding through CDC. Cuts to these programs will potentially leave 
millions of Americans without primary prevention programs that 
ultimately save lives and money. We respectfully request that you 
provide CDC chronic disease prevention and health promotion programs 
with $1.1 billion to ensure that these programs have the resources 
necessary to translate preventive health research into practice. This 
investment will save lives and billions in health care costs and 
productivity.
    Thank you for the opportunity to submit testimony on these critical 
areas of funding.
                                 ______
                                 
                Administration for Children and Families
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide testimony for the record to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies as it considers fiscal year 2003 appropriations for the Low 
Income Home Energy Assistance Program (LIHEAP). The CONEG Governors 
commend the Subcommittee for its past support of this important 
program; and appreciate the increased funding provided in fiscal year 
2002. While we recognize the difficult decisions facing the 
Subcommittee this fiscal year, we request that the Subcommittee 
appropriate $3 billion in regular fiscal year 2003 LIHEAP funding and 
provide advance appropriations for fiscal year 2004. In addition, we 
request that the full authorized funding authority be provided for each 
year to allow for the release of emergency funds for unforeseen 
circumstances, such as price spikes in natural gas or heating oil, 
severe weather and other potential emergencies.
    LIHEAP plays an essential role in making home energy affordable for 
the region's very low-income households--the elderly and disabled on 
fixed incomes, families with young children, and those making the 
difficult transition from welfare to work. Two-thirds of the region's 
LIHEAP recipients have annual incomes of less than $8,000 per year. For 
many of these households, annual income is not sufficient to pay winter 
heating bills, even in periods of economic growth or stable energy 
prices. Many low-income residents are forced to choose between heating 
their homes or purchasing food or vital medications.
    Despite the increase in LIHEAP funding, a mild winter and stable 
energy prices, the demand for LIHEAP assistance continued to be strong 
this year, as many households still struggle to pay down the 
outstanding heating bills of the previous winter season. Regular LIHEAP 
program funds were rapidly obligated, and several states depleted their 
available LIHEAP resources, including emergency assistance--putting 
thousands of our most vulnerable families at risk. Even with the 
increased LIHEAP funding, the program currently serves less than 20 
percent of the eligible families. Confronted with depleted LIHEAP 
program funds and pressures on state budgets, states now face the 
prospect of having limited resources to assist families facing the 
shut-off of utilities, or to take advantage of cost-efficient measures 
to prepare for the next heating season. In addition, some states may 
lack the resources to take advantage of cost-efficient measures to 
prepare for the next heating season.
    An increase in the regular LIHEAP appropriation to $3 billion for 
fiscal years 2003 and 2004 will enable states across the nation to more 
fully implement cost-effective measures to meet the continuing energy 
needs of our most vulnerable citizens. State LIHEAP programs could 
stabilize heating fuel prices for low-income households and expand the 
reach of limited program funds if an agency could achieve some form of 
price protection through contracting with retailers on a fixed or 
ceiling price basis when heating oil prices are most attractive--
generally in the summer months. Today, these ``prebuys'' are difficult 
to do, since the programs face the constraints of limited or no funds 
to carry forward to a new heating season, and the new appropriation is 
not available until October 1 of each year. An increased federal 
appropriation, and advance funding, would allow states to manage the 
program resources in a manner to better take advantage of retail 
contracts.
    Enactment of advance funding is vital to the states' program 
planning activities for the coming heating season. In the Northeast, 
where the heating season begins in early October, states generally 
spend up to 70 percent of the LIHEAP funds during the first two 
quarters of the fiscal year. States must be prepared to begin their 
LIHEAP program as soon as the new fiscal year starts. Advance funding 
permits them to do this, even when--as occurred last fall--Congress has 
not yet enacted the Labor, HHS and Education appropriations bill for 
the new fiscal year.
    The current uncertainty of world energy markets underscores the 
importance of states being able to prepare for the potential of 
volatile energy prices. These preparedness activities, while critical, 
cannot fully shield our lowest-income citizens from the impacts of 
higher heating fuel prices. Your support for fiscal year 2003 LIHEAP 
appropriations at the $3 billion level and the enactment of advance 
fiscal year 2004 appropriations is urgently needed to enable our states 
to help mitigate the potential life-threatening emergencies and 
economic hardship that confront the region's most vulnerable citizens.
    We thank the Subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Low Income Home Energy Assistance Program to the Northeast.
                                 ______
                                 
          Prepared Statement of the National Network for Youth
                              introduction
    The National Network for Youth, founded in 1975, is a membership 
organization of youth-serving agencies, young people, youth workers, 
and youth advocates who seek to ensure that all young people can be 
safe and lead healthy and productive lives. The National Network 
focuses its work with and for youth, especially those who, because of 
life circumstance, disadvantage, past abuse, or prejudice, need greater 
opportunities and supports to become contributing members of their 
communities.
    The National Network thanks the Senate Appropriations Subcommittee 
on Labor, Health and Human Services, Education, and Related Agencies 
for the opportunity to testify on fiscal year 2003 appropriations for 
the U.S. Departments of Labor, Health and Human Services, and 
Education. While we are supportive of the dozens of programs in each of 
these departments that reach young people--and seek full funding for 
each of them--we focus our statement on several programs that are 
priorities for the National Network.
              u.s. department of health and human services
Appropriations for Runaway and Homeless Youth Act Programs
    Runaway and Homeless Youth Act (RHYA) programs ensure safety and 
support in community-based settings to thousands of youth who would 
otherwise risk death, illness, sexual exploitation, educational 
failure, unemployment, and contact with the child welfare and juvenile 
systems.
    We can not emphasize enough how important RHYA programs are to the 
safety and well-being of youth facing the direst circumstances 
imaginable--and how under-resourced these programs are compared to 
their need. The National Network for Youth urges Congress and the 
Administration to appropriate $150 million in fiscal year 2003 for RHYA 
programs. Of the total, $130 million should be directed to the Runaway 
and Homeless Youth consolidated account, which funds the Basic Center 
Program (BCP), Transitional Living Program (TLP), and Runaway and 
Homeless Youth Act support activities. The remaining $20 million should 
be directed to the Runaway Prevention account, which funds the Street 
Outreach Program (SOP).
    Basic Center Program.--The BCP provides grants to community-based, 
faith-based, and local public organizations to provide emergency 
shelter for youth under age 18, and counseling for youth and their 
families to assist them in reuniting with their families or connecting 
to alternative guardians.
    Although Congress appropriated a generous increase for the RHYA 
consolidated account last year, the total increase was applied to the 
TLP portion of the account; the BCP and support portions of the account 
were actually decreased by $2.1 million. There is some danger that this 
reduction could result in the loss of basic centers in some of the 
states that have centers with grants expiring in fiscal year 2002. 
States that could be affected by the BCP shortfall are Alaska, 
Colorado, Florida, North Dakota, Oklahoma, Oregon, South Dakota, and 
Wisconsin. Also at risk of reductions are vital RHY support activities. 
We understand that the Family and Youth Services Bureau is attempting 
to reprogram fiscal year 2002 funds in order to prevent the loss of any 
services to young people. However, it is essential that Congress 
increase the consolidated account in fiscal year 2003 in order to 
reclaim ground lost in fiscal year 2002 in terms of emergency supports 
for our nation's runaway youth, and to ensure that this situation is 
not repeated in the fiscal year 2003 grant cycle.
    Transitional Living Program.--The TLP provides grants to community-
based, faith-based and local public organizations to provide longer-
term residential supports as well as independent living opportunities 
to youth ages 16-21 who are unable to return home safely, in order to 
promote their successful transition to adulthood and self-sufficiency. 
We are grateful to Congress for providing a generous $19 million 
increase to the TLP program last year, in response to the 
Administration's desire to increase housing opportunities for homeless 
parenting youth. We are also appreciative of the Administration for 
building on this momentum and recommending an additional $10 million in 
fiscal year 2003 for residential supports for homeless young parents 
through a maternity group home program. Since this program has yet to 
be authorized, the National Network for Youth suggests that Congress 
consider satisfying the intent of the President's request by adding the 
requested additional resources to the TLP, as was done in fiscal year 
2002. The TLP has an excellent track record in reaching homeless 
parenting youth.
    Street Outreach Program.--The SOP provides grants to support 
street-based outreach and education to runaway, homeless, and street 
youth who have been sexually abused or are at-risk of sexual abuse, in 
order to connect these young people with services and a chance for a 
safe and healthy future. The SOP ensures rapid engagement with young 
people in an effort to prevent the most terrible situations that take 
place when they are subjected to life on the streets--physical and 
sexual abuse, assault, commercial sexual exploitation, disease, long-
term homelessness, and even death. Congress has not increased SOP 
funding since fiscal year 1998. The runaway prevention account must be 
increased this year in order to reverse the funding stagnation that has 
beset the SOP for four years.
    Runaway and Homeless Youth Support Activities.--The Runaway and 
Homeless Youth Act authorizes a number of activities designed to 
support young people in high-risk situations and assist RHYA-funded 
service providers and prospective grant applicants. These include the 
National Runaway Switchboard (a toll-free telephone system that enables 
youth to receive crisis counseling, be referred to services, and 
communicate with their families), an information clearinghouse, and a 
network or regional training and technical assistance providers. Young 
people, parents and caregivers, grantees, applicants, and the public 
rely on these services in numerous ways. For example, public, 
community-based and faith-based organizations depend on T&TA providers 
to facilitate collaboration among youth-serving systems and programs, 
foster the establishment of cost-effective and comprehensive continuums 
of services for youth, and disseminate effective practices. Full 
funding of the RHYA consolidated account will enable these support 
entities to expand existing services and develop new programs.
               appropriations for child welfare programs
    John H. Chafee Foster Care Independence Program.--Young people 
transitioning from foster care are at great risk of homelessness, 
educational failure, unemployment and inability to form and sustain 
relationships because basic needs and emotional supports have not been 
arranged with them prior to the termination of state custody. The John 
H. Chafee Foster Care Independence program (CFCIP) provides grants to 
states to assist current and former foster care youth to support their 
successful transition to adulthood. The National Network for Youth 
urges Congress and the Administration to appropriate at least $200 
million in fiscal year 2003 for the CFCIP ($140 million in guaranteed 
funds and $60 million in discretionary funds for education and training 
vouchers). New discretionary funds for education opportunities and 
training vouchers through CFCIP would expand access to critical 
academic achievement and employment readiness opportunities to youth 
transitioning from foster care, who are not reached by many other 
educational or employment programs.
    Child Abuse Prevention and Treatment Act Programs.--Nearly three 
million reports of suspected child abuse and neglect were filed in 
1999, leading to screening of nearly 1.8 million children and services 
to 826,000 young victims. The Child Abuse Prevention and Treatment Act 
(CAPTA) provides grants to states and community-based family resource 
and support programs to aid in the prevention, assessment, 
investigation, prosecution, and treatment of child abuse and neglect. 
CAPTA also provides grants to state child protective service offices 
for program innovation and improvement. The National Network for Youth 
urges Congress and the Administration to appropriate at least $166 
million in fiscal year 2003 for CAPTA programs. Additional funds for 
CAPTA programs would enable states and community-based organizations to 
serve a greater number of children, youth, and families in high-risk 
situations.
    Promoting Safe and Stable Families.--Severe family conflict, 
physical and sexual abuse, and parental alcohol and drug addiction 
remain the key causal factors for runaway behavior. The Promoting Safe 
and Stable Families (PSSF) program provides grants to states to develop 
and support services for children and families, including extended or 
adopted families, who are in high- risk situations or in crisis. The 
National Network for Youth urges Congress and the Administration to 
appropriate at least $505 million in fiscal year 2003 for the PSSF 
program ($305 million in guaranteed funds and $200 million in 
discretionary funds). Additional funds for the PSSF program would 
enable states, localities, and community-based organizations to support 
families in high-risk situations, assure families are kept intact, and 
facilitate family reunification.
                  appropriations for hiv/aids programs
    CDC HIV Prevention Program.--The National Center for HIV, STD, and 
TB Prevention (NCHSTP) of the Centers for Disease Control and 
Prevention is responsible for public health surveillance, prevention 
research, and programs to prevent and control human immunodeficiency 
virus (HIV) infection and acquired immunodeficiency syndrome (AIDS), 
other sexually transmitted diseases (STDs), and tuberculosis (TB). 
NCHSTP provides grants to states, local communities, and community-
based organizations to support prevention efforts. Half of new HIV 
infections each year occur in individuals under the age of 25. Over 
half of adolescents who engage in sexual intercourse do so unprotected, 
putting them at higher risk for contracting STDs and HIV/AIDS. We urge 
Congress and the Administration to appropriate at least $1.5 billion in 
fiscal year 2003 for NCHSTP. Additional funds for NCHSTP would ensure 
that states and communities are able to provide science-based disease 
prevention services to a greater number of people, including youth.
    Ryan White CARE Act Title IV Program.--Title IV of the Ryan White 
Comprehensive AIDS Resources Emergency (CARE) Act authorizes grants to 
public and nonprofit agencies to develop comprehensive systems of care 
for children, youth, women and families with HIV disease, including 
medical treatment, health care, social services, and access to clinical 
research. Community-based entities receiving Ryan White Title IV funds 
are leaders in the national effort to include young people in HIV/AIDS 
research and to engage and retain HIV-positive youth in care. Only a 
very small portion of federal HIV/AIDS treatment and care resources 
reach young people. We urge Congress and the Administration to 
appropriate at least $81 million in fiscal year 2003 for the Ryan White 
Title IV program. Additional funds for the Ryan White Title IV program 
would ensure access to HIV/AIDS treatment and care services for a 
greater number of young people, while also allowing Title IV programs 
to fulfill their responsibilities to the other population groups 
(children, women, and families) who are also the focus of Title IV.
                        u.s. department of labor
Appropriations for Youth Employment Programs
    Youth have been hard hit by the current economic recession. Many 
businesses face severe skills gaps and are seeking help finding and 
preparing qualified workers. Many young people, even those who may be 
employed, do not possess the academic, work-readiness, or vocational 
competencies sought by employers. In October 1999, 11.2 percent of the 
34.2 million 16-24 year olds in the United States were not in a high 
school program and had not completed high school. Further, despite a 
low unemployment rate of 4.2 percent, only 54 percent of young 
individuals who did not complete high school were employed, while 
nearly 90 percent of college graduates and 75 percent of high school 
graduates in that age range were employed. The conditions for minority 
youth are even less encouraging. In 1999, on average, 75 percent of 
white youth were employed compared to 66 percent of Hispanic youth and 
only 59 percent of black youth. Rates in urban and isolated rural areas 
are often lower.
    Workforce Investment Act Youth Training.--Workforce Investment Act 
(WIA) youth training programs provide improved comprehensive services 
to eligible youth, ages 14 to 21, in local communities. WIA grantees 
provide assistance in achieving academic and employment success, 
training opportunities, mentoring opportunities, support services, and 
incentives for recognition and achievement. The National Network for 
Youth urges Congress and the Administration to appropriate at least 
$1.8 billion in fiscal year 2003 for WIA youth training programs. We 
strongly oppose the Administration's proposed reductions to WIA youth 
employment programs.
    Youth Opportunity Grants.--The Youth Opportunity Grants (YOG) 
program provides grants to local workforce boards for programs aiming 
to increase the long-term employment of youth, ages 14-21, living in 
high-poverty areas. The grants respond to community-wide issues 
including dropout rates, skills development, and unemployment. The 
National Network for Youth urges Congress and the Administration to 
appropriate at least $275 million in fiscal year 2003 for the YOG 
program. We strongly oppose the Administration's proposal to 
essentially eliminate this effective program.
    Job Corps Program.--The Job Corps program provides grants to states 
and communities to develop comprehensive residential education and job 
training program for youth in high-risk situations, ages 16-24. Job 
Corps programs provide youth with the academic, vocational and social 
skills training they need to gain independence and get quality, long-
term jobs or further their education. We urge Congress and the 
Administration to appropriate at least $1.5 billion in fiscal year 2003 
for the Job Corps Program. We welcome the Administration's proposal to 
substantially increase funding for the Job Corps program.
                      u.s. department of education
Appropriations for Education for Homeless Children and Youth Program
    The Education for Homeless Children and Youth program provides 
grants to states to assist them in assuring that homeless children and 
youth enroll, attend, and succeed in school. State educational agencies 
(SEAs) use EHCY funds to review and revise laws, regulations, 
practices, and policies that may act as a barrier to enrollment, 
attendance, and success. The program also supports a Coordinator of 
Education for Homeless Children and Youth in each state who gathers 
comprehensive information about homeless children and youth and 
barriers to their regular attendance at school. States also make 
subgrants to selected local educational agencies (LEAs) to addressing 
enrollment, attendance, and achievement problems caused by 
transportation issues, immunization and residency requirements, lack of 
birth certificates and school records, and guardianship issues.
    Vigorous implementation of the educational rights and protections 
for homeless youth and children is largely dependent on resources to 
SEAs and LEAs to implement federal mandates. States are able to ensure 
direct services to only 28 percent of the children and youth that they 
identify being in homeless situations. As a result, many school 
districts have difficulty implementing EHCY provisions. The National 
Network for Youth urges Congress and the Administration to appropriate 
at least $70 million in fiscal year 2003 for the EHCY program.
Appropriations for 21st Century Community Learning Centers Program
    The 21st Century Community Learning Centers (21st CCLC) program 
provides grants to states, local educational agencies, and nonprofit 
organizations to develop and expand opportunities for children and 
youth and their families to continue to learn new skills and discover 
new abilities after the school day has ended.
    The number of youth who are unsupervised by an adult during the 
after-school hours is increasing. The demand for afterschool activities 
for young people far outpaces the availability of positive programming 
for them. The National Network for Youth urges Congress and the 
Administration to appropriate at least $1.5 billion in fiscal year 2003 
for the 21st CCLC program. Additional funds for the 21st CCLC program 
would ensure access to supervised and productive afterschool activities 
for a greater number of children and youth.
                                 ______
                                 
   Prepared Statement of the National Youth Sports Program Fund, Inc.
    Mr. Chairman and Members of the Subcommittee, my name is Edward 
Thiebe and I am president of the National Youth Sports Program Fund, 
Inc. (NYSPF). I appreciate this opportunity to testify on behalf of the 
National Youth Sports Program Fund, Inc. Board of Directors in support 
of the fiscal year 2003 national youth sports program appropriation, 
which falls under the office of community services at the Department of 
Heath and Human Services (HHS).
    The NYSPF has been competitively awarded a grant under Section 682 
of the Community Services Block Grant Act, as amended 42 U.S.C. 9923.
    As the Labor, Health and Human Services and Education Subcommittee 
reviews the hundreds of programs under its jurisdiction this funding 
cycle, it is my hope that you will give careful consideration to the 
merits of the national youth sports program. The Subcommittee 
generously funded the program at $17 million last year. We are grateful 
for your continued support for this program that provides so many youth 
from disadvantaged backgrounds with a positive and enriching summer 
experience.
    The NYSPF is a successful public/private partnership that leverages 
community and private resources to support 203 campus-based youth 
programs. The resources provided by the federal government are matched 
by the participating colleges and universities, local public and 
private businesses, the National Collegiate Athletic Association 
(NCAA), the NYSPF and other National Governing Bodies of amateur sport. 
These partners match every federal dollar two to one.
    The mission of each of the 203 National Youth Sports Program (NYSP) 
sites is to provide young people from disadvantaged backgrounds with a 
wholesome summer experience that combines sport and physical fitness 
with academic enrichment and character development on a college campus. 
An average of 375 boys and girls participate at each NYSP site and are 
served at a daily cost of $8.60 per student. The NYSPF utilizes the 
best resources our nation's colleges and universities have to offer and 
the participating youth are made to feel that they belong in that 
setting. In addition, students receive health education, a medical 
screening at no cost to the student or their family and a hot, well-
balanced USDA approved meal each day.
public/private partnership results in shared resources and high quality 
                                programs
    The NYSPF, in collaboration with the Department of Health and Human 
Services, develops rigid criteria for participation, carefully selects 
and evaluates sites, and distributes the funds to NYSP sites to operate 
programs. Colleges and universities host the programs, provide staff 
and facilities in addition to cash and other in-kind services. The 
NYSPF provides administrative support and through NCAA licensee 
agreements obtains sports equipment and apparel to ensure that federal 
dollars can be applied to direct expenses to support the community-
based programs. Through this team effort, the NYSP has developed into a 
program that serves 73,204 youth in high quality summer programs and 
has grown from two institutions in its first year to 203 in the summer 
of 2002.
    The effectiveness of each NYSP site is further ensured by the 
hands-on leadership of local community leaders through an advisory 
committee and the involvement of the mayor or city manager. Each NYSP 
site and participating institution coordinate the program through the 
NYSP advisory committee, comprised of representatives from local 
agencies (such as the housing authority and mayor's office), private 
industry and state government. Each NYSP advisory committee reviews 
program components, plans curricula, develops recruitment strategies 
and identifies resources to support the program.
    To ensure that every program site strives to attain the highest 
level of services to its participants and that federal dollars are used 
appropriately to achieve maximum benefit, an annual evaluation of each 
program site is conducted by the NYSPF. The evaluation reviews 
compliance with the criteria established by HHS and the NYSPF and 
determines if each program meets or exceeds the high expectations 
required of an NYSP site. Programs found to be in noncompliance are 
provided technical assistance and professional development.
    To enhance the quality of instruction, the NYSPF also has developed 
a partnership with many of sports' National Governing Bodies, such as 
U.S. Tennis Association (USTA) and Professional Golfers Association 
(PGA). These governing bodies provide highly qualified instructors who 
administer innovative developmental programming that encourages 
children of sport to engage in non-traditional activities.
  building healthy bodies and minds--nysp offers disadvantaged youth 
     physical education and academic enrichment on a college campus
    Young people from economically disadvantaged homes face many 
obstacles that sometimes prevent them from cracking the lines of 
poverty. Today 1 in 5 children lives in poverty and 1 in 6 has no 
health insurance. These children are surrounded by risk factors of 
broken families, domestic violence and substance abuse. They are 
searching for a sense of family and a sense of community. These 
children are also in search of an experience that includes adults who 
serve as mentors and role models. Attaining a higher education is the 
solution but it is one of the most difficult for some of these 
youngsters to attain or even dream about.
    In addition to health and economic factors, children are facing 
over-whelming obstacles in reaching basic education achievement levels. 
As reported in the Children's Defense Fund, Yearbook 2001, 2,911 
students drop out of high school each day. Our country's economy 
demands post-secondary degrees, but of every five children only two go 
on to complete 4-year degree programs. Offering enrichment 
opportunities, providing encouragement and exposing youth to the 
possibilities of higher education are ways that we can break down 
educational barriers for today's children, especially those also 
struggling with poverty.
    In the Surgeon General's Report to the President, Promoting Better 
Health for Young People through Physical Activity and Sports, in Fall 
2000, he reported that the percentage of young people who are 
overweight has doubled in the last 20 years. This increase has led to 
more risk factors for cardiovascular disease and increased cases of 
type 2 diabetes (commonly know as ``adult-onset diabetes'') among 
adolescents. The impact of obesity in adolescence is not limited to the 
physical and emotional well being of teenagers, but the national health 
care budget. The Surgeon General reported that $100 billion, 8 percent 
of the total health care budget, is spent on diseases associated with 
obesity.
    In his report, the Surgeon General listed several strategies to 
combat physical inactivity in America's youth. One of the strategies 
includes supporting community-based youth sports and recreation 
programs. NYSP is one solution to this strategy.
    NYSP has also evaluated the special needs of its older 
participants, those from ages 13-16 years old. The senior program began 
in 1997 at four locations. The senior component places an emphasis on 
character development, higher education achievement and test taking 
skills. Each senior program incorporates the theme ``Focus on Respect'' 
in their program. In recent remarks to a Joint Session of Congress, 
President Bush stressed the importance of teaching ``our children not 
only reading and writing, but right from wrong.'' Through the senior 
program, NYSP can help prepare students for the rigors of standardized 
testing (including ACT or SAT preparation), reinforce reading and 
writing skills for future use and enhance computer skills, and offer 
mentoring opportunities to younger participants. Senior programming for 
25 sites is scheduled for 2001.

                               nysp creed

                           [Practiced daily]

    I am a good sport at all times and conduct myself with decency and 
honesty.
    I do my best to get along with others and have pride in myself.
    I put forth my best effort in all competition and always compete 
fairly.

    Furthering the educational commitment of the NYSP, selected 
programs across the country have been enhanced to include special 
emphasis on math and science skills. The reinforcement of classroom 
learning with hands-on experiments and creative teaching methods 
challenge students to raise their expectation for academic success. 
This component was offered in 125 sites in 2001.
    A sense of urgency is needed to face the challenge of preparing a 
new generation of children for the future. The NYSP agenda puts 
children first in education by insisting that programs invest in 
quality teaching; provide access to facilities that support learning; 
to make sure that every child gets a healthy start in life. Secretary 
of State Colin Powell addressing the Republican National Convention in 
July 2000, stated, ``we are obligated to involve the entire community 
and use resources efficiently.''
    The NYSP program teaches its students the value of an active 
lifestyle by offering innovative and age appropriate teaching methods 
in sport specific areas. Every NYSP program offers at least three of 
the following sports: badminton, basketball, dance, football, 
gymnastics, physical fitness, soccer, softball, swimming, tennis, track 
and field, volleyball and wrestling. Other sports of local interest may 
also be included. This variety of sport activity allows participants to 
be exposed to non-competitive fitness activities that they can 
participate in their entire life.
    NYSP targets areas where the local communities alone could not 
support this level of youth sports programming. Rural areas, public 
housing and inner city neighborhoods are prime locations to reach these 
at-risk youth. NYSP is pleased to be working in collaboration with the 
Surgeon General and HHS to improve the physical well being of youth.
    Healthy individuals contribute to healthy communities. Both are 
essential to a healthy and productive economy and to the pursuit of 
individual happiness and independence. An essential component of the 
NYSP is to ensure that the students who participate receive appropriate 
medical services. With the help of the local medical community, each of 
the programs' participants receives a free medical screening before the 
program session begins. In 2001, over 76,917 medical examinations were 
administered. If a health problem is found, the child is referred for 
adequate follow-up treatment. During the summer session, children who 
are injured or become ill during NYSP activities are covered by health 
insurance and treated by a certified medical professional.
    NYSP students are also taught about nutrition and the value of 
eating healthy, well-balanced meals. Each NYSP provides at least one 
hot U.S. Department of Agriculture approved meal each day of the 
program.
    Perhaps the most distinguishing feature of NYSP is its location on 
college and university campuses. Using the personnel and facilities of 
higher education, NYSP introduces students to a different environment, 
one comprised of high quality resources and apart from the threats and 
dangers of the street. Participants have the opportunity to see the 
institution from the inside, to walk the halls and engage in activities 
in the classrooms. They also interact with college students and faculty 
who work with the program and value college life. This experience in 
the world of post secondary education is part of the NYSP strategy to 
encourage youth to aspire beyond their current school life.
    Each NYSP program is led by a full time employee of the university, 
who supervises the administrative, instructional, and support staff. 
The program employs a local staff of instructors and support personnel 
to maintain an instructional participant-to-staff ratio between 15 and 
20 to 1. NYSP puts thousands of people in positions to help themselves 
and the community. These worthwhile summer jobs offer training to local 
community members. The staff includes physical education teachers, 
coaches, elementary and secondary educators, college students and 
administrators who make up an administrative, instructional and support 
staff. In 2001, this national program created over 5,370 summer jobs.
        fiscal year 2003 appropriation request to expand program
    The demand for NYSP programs in both rural and urban settings has 
never been greater. The NYSP is under constant demand to expand its 
programs. We are aware of the priority the Administration and Congress 
are placing on cost-effective programs that serve disadvantaged youth 
during the summer and after school. President Bush in his inaugural 
address stated that, ``persistent poverty is unworthy of our nation's 
promise, and whatever our views of its cause, we can agree that 
children at risk are not at fault.''
    This year the National Youth Sports Program is requesting a $3 
million increase in the appropriation. This increase will allow 3,375 
participants to be added to the rosters nine new program sites to have 
an impact in communities where young children need athletic, health and 
educational programming. In addition, additional funds may be applied 
to expand the math/science component to 81 new sites and increase the 
senior leadership component to all 203 programs.
                               conclusion
    NYSP keeps children and their achievement at the center of each 
education goal and maintains a sense of urgency, believing in children 
and expecting every child to learn. The fundamentals of education, 
sport and community participation stand as true today as they did when 
the program began in 1969. Legendary basketball coach, John Wooden 
embodies the balance between excelling in athletics and developing good 
character. One of his maxims goes straight to the heart of what NYSP is 
working to accomplish: ``Ability may get you to the top, but it takes 
character to keep you there.'' We remain convinced that the fundamental 
values of honesty, trust, respect, fairness and responsibility offer an 
important foundation and model for the over 1.6 million participants 
that have passed through the program and for the thousands of children 
who will be served by the NYSP in the 21st century.
    This year you will be faced with many choices about how to allocate 
federal dollars. NYSP continues to provide positive opportunities for 
children during the hours when they are not in school and their 
parents/guardians are at work. We believe that the National Youth 
Sports Program is one of those better choices for America's children 
and we ask for your favorable consideration for increased funding for 
this program to enable more children to participate.

NYSP Facts At A Glance

                           [Program year 2001]

Number of participants ages 10-16.............................    73,204
Number of institutions........................................       196
Number of states, including the District of Columbia and 
    Puerto Rico...............................................        48
Number of communities.........................................       177
Number of medical examinations administered...................    77,106
Number of jobs created........................................     5,370
Number of volunteers..........................................     1,326
Federal grant cost per child/day..............................     $8.60
Federal cost per participant per child for a 5-week program...   $215.00
                                 ______
                                 
      Prepared Statement of the Blue Cross Blue Shield Association
    The Blue Cross and Blue Shield Association (BCBSA), which 
represents 43 independent, locally operated Blue Cross and Blue Shield 
Plans throughout the nation, is pleased to submit written testimony to 
the subcommittee on fiscal year 2003 funding for Medicare contractors.
    Blue Cross and Blue Shield Plans play a leading role in 
administering the Medicare program. Many Plans contract with the 
federal government to handle much of the day-to-day work of paying 
Medicare claims accurately and in a timely manner. Blue Cross and Blue 
Shield Plans serve as Part A Fiscal Intermediaries (FIs) and/or Part B 
carriers and collectively process most Medicare claims.
    This testimony focuses on three areas:
  --Background, including a description of Medicare contractor 
        functions;
  --Current financial challenges facing Medicare contractors; and
  --BCBSA recommendations for Medicare contractor fiscal year 2003 
        funding.
                               background
    Blue Cross and Blue Shield Medicare contractors are proud of their 
role as Medicare administrators. While workloads have soared, operating 
costs--on a unit cost basis--have declined about two-thirds from 1975 
to 2001. In fact, contractors' administrative costs represent less than 
1 percent of total Medicare benefits.
    Medicare contractors have four major areas of responsibility:
    1. Paying Claims.--Medicare contractors process all the bills for 
the traditional Medicare fee-for-service program. In fiscal year 2003, 
it is estimated that contractors will process over one billion claims, 
more than 3.8 million every working day.
    2. Providing Beneficiary and Provider Customer Services.--
Contractors are the main points of routine contact with Medicare for 
both beneficiaries and providers. Contractors educate beneficiaries and 
providers about Medicare and respond to over 40 million inquiries 
annually.
    3. Handling Hearings and Appeals.--Beneficiaries and providers are 
entitled by law to appeal the initial payment determination made by 
carriers and FIs. These contractors handle over 7.4 million annual 
hearings and appeals.
    4. Special Initiatives to Fight Medicare Fraud, Waste, and Abuse.--
All contractors have separate fraud and abuse departments dedicated to 
assuring that Medicare payments are made properly. Few government 
expenditures produce the documented, tangible savings of taxpayers' 
dollars generated by Medicare anti-fraud and abuse activities. For 
every $1 spent fighting fraud and abuse, Medicare contractors save the 
government $16.
                      current financial challenges
    Of utmost importance to attaining outstanding performance is an 
adequate budget. However, Medicare contractors have been severely 
underfunded since the early 1990's. Reductions in funding concurrent 
with increases in workload have seriously eroded contractors' ability 
to fight fraud and abuse. Between 1989 and 2000, the number of Medicare 
claims climbed almost 70 percent to over 800 million, while payment 
review resources grew less than 11 percent. As a result, the amount 
allocated to contractors to review claims shrank from 74 cents to 48 
cents per claim. Because of the significant cost of reviewing claims, 
this decline in funding resulted in CMS directing contractors to reduce 
the percentage of claims that were scrutinized and investigated. 
Similarly, the percentage of cost reports audited declined--between 
1991 and 1996, the chances that any institutional provider's cost 
report would be reviewed in detail fell from about 1 in 6 to about 1 in 
13.
    The Medicare Integrity Program (MIP) created by Congress in 1996 as 
part of the Health Insurance Portability and Accountability Act (HIPAA) 
provided a permanent, stable funding authority for the portion of the 
Medicare contractor budget that is explicitly designated as fraud and 
abuse detection activities. MIP funding was set at $500 million in 1998 
and is authorized to rise to $720 million in fiscal year 2003. After 
fiscal year 2003, the permanent authorization is capped at $720 million 
despite continuing projected increases in claims volume.
    BCBSA supports the authorized funding level of $720 million for MIP 
in fiscal year 2003 and urges Congress to consider extending funding 
increases beyond fiscal year 2003 so that Medicare contractors can 
continue important activities to reduce the amount of fraud, waste, and 
abuse in the Medicare program.
    Contractors' enhanced anti-fraud and abuse efforts due to MIP 
funding contributed to the significant decline in improper claims and 
documentation submitted by providers. The OIG audit of fiscal year 2001 
claims estimated that improper Medicare payments had dropped to $12.1 
billion, or about 6.3 percent of the $191.8 billion in Medicare 
payments. The fiscal year 2001 improper payment rate is the lowest to 
date and less than half of the 13.8 percent reported in fiscal year 
1996.
    But, the creation of MIP did not solve the budget problems for the 
remainder of the contractor budget. The largest portion of the 
contractor budget--program management--continues to face severe funding 
pressures. Program management activities include claims processing, 
beneficiary and provider education and communications, and hearings and 
appeals of claims initially denied.
    Between 1989 and 1998, funding for program management activities 
(adjusted for inflation) declined by 18 percent. During this period, 
the volume of Medicare claims increased by 84 percent; Medicare outlays 
(in real dollars), by 65 percent. Whenever possible, contractors 
responded to reduced funding by achieving significant efficiencies in 
claims processing, lowering program management costs per claim by 56 
percent in real dollars over this period. But even these efficiencies 
have not been enough to keep pace with rising Medicare claims volume 
and diminishing funding levels. For example, this year, contractors 
have been instructed to cut back on customer service plans, responding 
to inquiries, Medicare secondary payer activities, provider training 
and other provider services in order to live within the fiscal year 
2002 budget. It should be noted that Medicare contractors have had to 
cut back on important provider and beneficiary services in past years 
as well due to funding shortfalls, even though these services were 
critically important and contractors had wanted to enhance these 
programs.
    Inadequate budgets for program management also impact Medicare's 
fight against fraud and abuse. While many think of program management 
activities as simply paying claims, these activities are Medicare's 
first line of defense against fraud and abuse and are critically linked 
to MIP activities. As an example, many of the front-end computer edits 
(e.g., preventing duplicate payments and detecting suspicious claims) 
are funded through program management. Inadequate funding impacts 
different functions at different times, but always disrupts the 
integration of all the functional components needed to ``get things 
right the first time.'' It thus results in inefficiency and higher 
costs.
bcbsa fiscal year 2003 funding recommendations for medicare contractors
    BCBSA is pleased that Secretary Thompson and many Members of this 
subcommittee have recognized the need for additional administrative 
resources at CMS. However, we are concerned the Administration's fiscal 
year 2003 budget relies on a proposal for $130 million in new user fees 
from providers and it does not appropriately reflect the expected 
increase in claims volume.
    BCBSA urges Congress to take the following steps to allow Medicare 
Contractors to meet increased workloads as well as beneficiary and 
provider needs:
Increase Medicare Contractor Program Management Funding to $1.72 
        Billion for Fiscal Year 2003
    Medicare contractors are facing significant increases in Medicare 
claims volume. Blue Cross and Blue Shield Medicare contractor data for 
the first quarter of fiscal year 2002 shows an approximate 11 percent 
increase in both Part A and B claims over the fiscal year 2001 level. 
While this rise is not expected to continue at this level, current 
projections suggest Medicare fee-for-service claims volume in fiscal 
year 2003 will be 6 percent higher than the fiscal year 2002 level. 
However, the President's budget only assumes an unrealistic 2 percent 
increase in claims volume.
  --Additional funding is necessary to ensure that contractors have the 
        resources needed to fulfill important responsibilities to 
        beneficiaries, providers, and the government and to keep up 
        with expected increases in claims volume, inquiries and 
        appeals.
  --The President's budget for fiscal year 2003 requests a total 
        funding level of $1.67 billion for Medicare contractors, an 
        increase of $141 million over fiscal year 2002 appropriations 
        (however, this amount proposes using $130 million in new user 
        fees).
  --BCBSA recommends an additional $47 million over the President's 
        budget request to address the expected 6 percent rise in both 
        Part A and B claims volume, for a total of $1.72 billion in 
        fiscal year 2003.
Reject New User Fees Financing Mechanism
    While BCBSA appreciates the President's willingness to increase 
overall funding levels for Medicare contractors, the Association is 
very concerned that CMS recommends a new financing mechanism be adopted 
to collect $130 million in new user fees from doctors, hospitals and 
other providers by charging a $1.50 fee per claim fee for paper or 
duplicate claims.
  --History has shown user fees to be an unpredictable stream of 
        funding. In order for contractors to maintain performance, 
        funds must be consistent and reliable.
  --Congress has consistently rejected user fees similar to those 
        recommended in the Administration's budget. Congress should 
        reject them again and provide $1.72 billion in appropriated 
        funds for Medicare contractors.
Address Rising Workloads so Beneficiaries and Providers Receive the 
        Best Services
    BSBSA strongly believes that the first priority in Medicare should 
be the beneficiaries and the providers who care for them. Therefore, 
adequate funding is needed to address contractor workloads. CMS 
estimates that Medicare contractors will pay 987 million claims in 
fiscal year 2003--a 2 percent increase over the fiscal year 2002 level. 
However, actual Medicare contractor data suggests claims will rise to 
over 1 billion in fiscal year 2003. Claims volume is increasing for 
several reasons:
  --More beneficiaries are enrolling in traditional Medicare fee-for-
        service as private plans exit the M+C program;
  --Beneficiaries have more covered services than in past years--recent 
        legislation has provided coverage for prostate/colorectal 
        cancer screening, clinical trial services, glaucoma screening, 
        nutrition therapy, more frequent pap and pelvic exams, to name 
        a few; and
  --There are simply more eligible Medicare beneficiaries.
    It is important to note that neither the Administration's budget 
nor the BCBSA request account for two critical issues that could 
require additional funding: implementation of the coverage and appeals 
reform provisions of the Benefits Improvement and Protection Act of 
2000, if it is not delayed; and an approximate 8 percent postal 
increase expected June 30, 2002. Additional funding will be necessary 
to account for these changes.
    BCBSA would also like to point out that the President's budget only 
provides for an inflation rate increase of 1 percent. While BCBSA 
believes a Cost of Living Adjustment (COLA) is necessary, we are 
concerned that a 1 percent increase underestimates the level of actual 
increase contractors expect to incur. However, BCBSA understands the 
tight budget constraints the Committee faces. Therefore, we have not 
recommended an additional increase in the COLA.
    As the fiscal year 2003 Labor/HHS/Education appropriations process 
begins, we urge Congress to fund Medicare contractor program management 
at $1.72 billion.

                                           MEDICARE CONTRACTOR BUDGET
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                              Administration   BCBSA fiscal year
                                                          Fiscal year 2002   fiscal year 2003         2003
                                                                              recommendation     recommendation
----------------------------------------------------------------------------------------------------------------
Program Management.....................................             1,534              1,675              1,722
(ongoing contractor ops)...............................            (1,081)            (1,128)            (1,175)
Medicare Integrity Program.............................               700                720                720
                                                        --------------------------------------------------------
      Total Contractor Budget..........................             2,234              2,395              2,442
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

                        DEPARTMENT OF EDUCATION

             Prepared Statement of the Close Up Foundation
    My name is Stephen A. Janger, and I am president of the Close Up 
Foundation. I appreciate the opportunity to submit testimony in support 
of the Close Up Fellowship Program administered by the Close Up 
Foundation. These fellowships, as you know Mr. Chairman, support the 
participation of low-income students and their participating teachers 
in our Close Up Washington civic education program. Before beginning, I 
want to express, on behalf of everyone at the Foundation, our deep 
appreciation for the Subcommittee's past support when these fellowships 
were known as the Allen J. Ellender Fellowships.
    Who could have imagined the travail this country has suffered since 
Close Up was last before you to request fellowship funding? The tragic 
events of September 11 and their aftermath have affected the American 
psyche and society in ways we don't yet fully understand. We do know 
about many of the economic repercussions that continue to be felt 
across a wide spectrum of businesses and industry. The Close Up 
Foundation has been among those organizations most profoundly affected.
    Out of an understandable concern for the safety of students, many 
school districts across the country imposed immediate travel bans for 
school-sanctioned activities. These travel bans, coupled with parental 
concerns in districts that did not embargo travel have cut Close Up's 
enrollments by about 40 percent for the current academic year. 
Unfortunately, as is most often the case, students from low-income 
families lost more opportunities than did their peers of more affluent 
families. With travel bans easing a bit recently, it is much more 
difficult for students of need, who often require community support 
beyond the Close Up Fellowships to generate that support for this 
academic year.
    The abrupt curtailment of our enrollments during this academic year 
has caused Close Up to focus on survival and maintaining a quality 
program. Feedback about our Washington program from our participating 
students and teachers has been steadily positive, so we know we have 
succeeded in maintaining quality programming. To survive, we have 
undergone significant staff and budget reductions.
    But we are pushing ahead vigorously, believing that our work is 
more important than ever. Teachers across the country share our belief 
that this is the time to expand civic learning opportunities for 
students of every background--so that young people from every walk of 
life, irrespective of family affluence, can understand better and 
appreciate more their legacies as Americans. Our mission at Close Up is 
to teach the legacies of this great nation and to help young people 
understand the responsibilities necessary to sustain the blessings of 
those legacies.
    Just as athletes need opportunities to participate in sports to 
hone their skills, young people learning citizenship skills need 
similar opportunities to acquire and practice the skills of 
citizenship. Mastering French comes through opportunity to practice, 
learning to cook comes about in a kitchen, athletic prowess is acquired 
on the athletic field. Skills of democratic citizenship similarly need 
encouragement and honing in appropriate arenas and venues. There is no 
substitute for the excitement generated and the learning acquired by 
using the nation's capital as a ``living classroom.'' Our mission 
brings every kind of player, every kind of student into our classroom.
    American democracy has always been dependent upon an informed and 
involved citizenry. Throughout the past several decades, numerous 
studies have documented an alarming decrease in civic participation 
among young people, accompanied by an increasing distrust of public 
officials. It is still too soon to tell how such attitudes and 
behaviors will be affected by the events of September 11. While surveys 
show that Americans are demonstrating unprecedented support for our 
government leaders, including record-high levels of trust, this may 
change depending on the short- and long-term outcome of the nation's 
military and political responses to the attacks.
    What we do know, Mr. Chairman, is that America will always need 
citizens who understand the crucial role they play in our democracy. 
National education goals call for all young people to be prepared for 
responsible citizenship, yet nearly three-quarters of high school 
seniors are not proficient in civics (National Assessment of 
Educational Progress, United States Department of Education, 1999). In 
American democracy, responsible citizenship requires both knowledge and 
action. Civic education can address this need by giving young people an 
understanding of how government works, the skills to get involved, the 
confidence that their voice counts, and that they can make a 
difference.
    Close Up's work was launched more than three decades ago in another 
era of conflict to help address the disaffection and disillusionment so 
many young Americans felt during the Vietnam War. Our work has remained 
relevant and effective, and is needed now more than ever. By bringing 
young people ``close up'' to government and public officials, the 
Washington program demonstrates how each individual can be part of the 
development of public policy in America. We give young people a chance 
to interact with leaders, opinion makers, and peers from across the 
nation. They share opinions and ideas. They learn to speak out, and 
they learn to listen to other thoughts and ideas. Of paramount 
importance is that our young people who listen, absorb, and share ideas 
are a mirror reflection of the rich diversity of our country. Your 
support of the Close Up Fellowships makes this diversity possible.
    A key component of the Close Up week in Washington is Capitol Hill 
day. Close Up participants have an opportunity to view Congressional 
committees at work, to watch House and Senate floor action, and, most 
importantly, to meet when possible with their elected representatives 
or their staffs. Again and again, participants tell us what a profound 
change in attitude they experience after meeting with their 
Representative or Senator or their staffs. Our students and teachers 
relish face-to-face meetings with questions and answers. These 
``simple'' meetings do more than any textbook, lecture, or news report 
could ever hope to accomplish in connecting students to their elected 
representatives and instilling a feeling of belonging to the system and 
a receptivity to the whole idea of civic responsibility. The axiom of 
``one person can make a difference'' is significantly reinforced in 
these Capitol Hill meetings.
    Since 1971, Close Up has brought nearly 600,000 students, teachers, 
and other Americans to the nation's capital for in-depth experiences 
with government in action. We could not be more proud that some 140,000 
of these participants have come through fellowship support provided by 
the Congress in conjunction with Close Up generated support from the 
private and philanthropic sectors. Beyond our Washington Program, many 
thousands more take part each year in Close Up community and state-
level civic education programs. Additionally, textbooks and national 
television programming on Close Up on C-SPAN expand Close Up's outreach 
into thousands of classrooms and millions of living rooms nationwide. 
These local and state Close Up programs, this textbook distribution, 
and our television programming are a ``no cost'' multiplier to the 
federal government. They are made possible by the widespread success of 
the Washington Program and the important seed role of the Close Up 
Fellowships.
    Close Up differs from other government studies programs in its 
commitment to providing civic education opportunities to interested 
young people from every background. There is no national academic 
requirement for participation in our Washington Program; fellowship 
recipients are selected by each individual school based upon need and 
program interest. Outreach to disadvantaged young people is at the core 
of our work, and the Close Up fellowships support students who are 
recent immigrants, migrants, American Indians, Native Alaskans, and 
students who are hearing and visually impaired and physically 
challenged. We have a significant outreach to young people in Puerto 
Rico, and for the second year in a row, have had a group of students 
who are long-term cancer and leukemia survivors. Outreach to public, 
private, and parochial schools in urban, rural, and suburban areas has 
helped Close Up achieve this broad range of participation that reflects 
America's diversity. This diversity would not be possible were it not 
for the seed funding provided by the U.S. Congress as part of the Close 
Up Fellowship Program.
    Close Up is also distinct from other civic education organizations 
in that teachers accompany their students to Washington and participate 
in a teacher program conducted concurrently with, but apart from, the 
student program. This special program presents educators with new ideas 
and teaching methodologies and promotes interaction with their peers. 
These educators swap teaching strategies and ideas that have worked in 
their own classrooms. This inspiring exchange of ideas and teaching 
methods, this experiential ``civic education teaching laboratory,'' 
simply cannot be equaled by the textbook alone. It is food for renewal, 
and our teachers tell us that they return to their schools 
reinvigorated. This reinvigoration goes back to the classroom as a 
great multiplier for all their students--far beyond those who come to 
Washington.
    Additionally, a good portion of these teachers is from schools that 
are considered ``at-risk,'' with large pockets of students most in need 
of assistance and/or motivation.
    Thus, Close Up Fellowships create an impressive multiplier of 
federal funds. The fellowships are utilized by teachers as ``seed'' 
funding to stimulate local interest and participation in the Close Up 
Washington program. For example, teachers often divide a full 
fellowship among several deserving students who meet the income 
eligibility requirement. These students, in turn, demonstrate their 
desire to participate in the program through local fundraising 
activities--often taking an entire year--and creating broad community 
support to supplement the Close Up Fellowships. The Close Up Fellowship 
recipients are most often the core around which teachers build the 
Washington high school program and the local and state Close Up 
government study programs.
    The impact that the Close Up program makes on students is always 
more powerfully stated through the words of participants themselves. 
Five of the quotes below are from students who received fellowships to 
attend Close Up. All quotes are used with permission but, to protect 
privacy, we have not identified which students participated using 
fellowships, unless mentioned by the individual in the quote. The 
quotes are presented chronologically by year of participation, starting 
with the oldest. These alumni, however, have made these statements in 
the recent past (since October 2001) as they registered as Close Up 
alumni on our web site.

    ``I'm a veteran actor with leading roles in over 20 films and I'm 
also a national spokesperson for the National Network To End Domestic 
Violence, which is based in DC. I came to Close Up in 1972 with a few 
students from my high school. We were chaperoned by my homeroom 
teacher, Susi Baldwin. . . . I was a runaway who had endured years of 
abuse at the hands of my father. My high school took me in like a 
foster child and Miss Baldwin watched over me like an angel. She had to 
convince the administration at our school to give me one of the 
scholarships to attend Close Up. I was a former gang member and very 
angry young man, but my high school, Miss Baldwin and your program gave 
my life new meaning and direction. I ended up becoming senior class 
president and going on to college on a full scholarship. I just wanted 
to let you know that your program not only gave my life new direction, 
but probably helped to save it . . .''----Victor Rivers, student, 1972 
Miami Coral Park High School, Miami, Florida
    ``I am a mechanical designer in the automotive business. While my 
experience with Close Up did not lead to a career in government or 
politics, it made Washington real. It was a fantastic opportunity for 
me. I went on a fellowship. I never would have had the opportunity 
otherwise. Probably the biggest thing I took away from my experience is 
a lifelong love of politics, history, and the desire to stay 
involved.''----Rod Clouse, student, 1978 Riverdale Senior High School, 
Port Byron, Illinois
    ``I am currently in my 13th year of public service as a Deputy 
Sheriff. I was promoted in 1995 to the rank of Sergeant and am 
currently working in the Administrative Offices of the Sheriff. I was 
surfing the net to find that Close Up is still a viable program after 
all of these years . . .
    ``My Close Up experience, in March 1981, was very fulfilling. It 
was the first time that I ever traveled away from home. In the week 
that I spent in D.C., I learned so much about our government. I would 
recommend the experience to any student.''----Arlene Brooks, student, 
1981 Sylvan Hills High School, Georgia
    ``I am serving in the U.S. Navy, and planning on going into 
politics once I retire from the service. I enjoyed my experience with 
the Close Up Foundation. Discussing the different political issues of 
the time with students from different parts of the United States was 
enlightening. I also enjoyed the opportunity to visit the Embassy of 
the former Soviet Union. The biggest thing that I got from my 
experience with the Foundation was a greater respect for our political 
institutions in this country, as well as becoming more interested in 
how they work.''----James Floyd, Sr., student, 1989 Jasper County High 
School, Ridgeland, South Carolina
    ``I have just recently graduated from The Ohio State University, 
where I received a BA in Political Science. Close Up was an amazing 
experience that I will never forget. It let me see the exciting world 
of politics and in a way opened up my eyes to my future. Thank 
You!!!!''----Megan McFadden, student, 1993 Chagrin Falls High School, 
Chagrin Falls, Ohio
    ``I loved my experience with the Close Up Program!! It continues to 
be one of the most vivid memories I have and has IMMENSELY influenced 
my life. I am graduating next year from the University of Arizona with 
a Bachelor's degree in Political Science (thanks to my great Close Up 
experience!). Currently, I am in London, doing a semester-long 
political internship with a lobbying company associated with the 
Conservative Party. My intense interest in Politics is without a doubt 
linked to my amazing trip with your Foundation. Even in light of the 
many career paths that lie ahead of me, my first choice will always be 
to work with Close Up. I developed such an excellent rapport with my 
group leaders, and their influence helped to shape my future. I should 
only hope to make such a difference in others' lives! Thank 
you!!!!!!!!!!''----Lauren McInerney, student, 1997 Woodbridge High 
School, Irvine, California
    ``I am currently a student at the University of Michigan. Close Up 
was the greatest experience of my life--I think about it daily. It was 
a turning point for me. Since then, I have become a better, more 
intelligent citizen, as well as a better person.''----Adam Burns, 
student, 2000 Grosse Pointe North, Grosse Point Woods, Michigan
    ``Close Up was a life-changing experience for me. Although I didn't 
actually think that rural eastern Kentucky was all that existed, I 
didn't grasp the concept until meeting all those wonderful people 
nationwide at Close Up. When we all met, I got the feeling that we had 
known each other our whole lives, and I felt an immediate bond. I 
learned to respect differing views because people actually ARE coming 
from different places with different priorities. The bond was amazing 
among us . . . Close Up was great, and is something I will never 
forget.''----Rachael Whitley, student, 2002 Boyd County High School, 
Ashland, Kentucky

    Mr. Chairman, every generation faces a different challenge, and in 
the wake of September 11, Close Up has had to confront a devastating 
reduction in enrollments for this academic year. Our operating loss 
will be severe, but through substantial staff and budget reductions, we 
have moved ahead with our mission with enthusiasm and determination. As 
we rebuild our work, the Close Up Fellowships are even more crucial 
than in years past. Certainly, the need to understand the world around 
us and the political forces that shape our lives is more critical than 
ever before. Only through the commitment of informed and involved 
individual citizens can the dream of self-government survive and thrive 
in this country and elsewhere. And every student, regardless of 
economic status, must have the opportunity to develop as an informed 
and active citizen.
    We are proud of our role in civic education in this country, and we 
are very grateful for the support of this Subcommittee through the 
years. That support, combined with support from parents, schools, small 
community businesses, national corporations and foundations, and the 
dedication of the participating students and teachers makes the Close 
Up program into an activity of broad-based community participation. The 
key to this positive chain of activity is the Close Up Fellowships. We 
respectfully request that this Subcommittee increase the Close Up 
Fellowships to a level of $6.0 million so that we may build the 
increase into an even more effective multiplier, serving and inspiring 
thousands of additional students who would never otherwise have the 
opportunity to participate.
    Mr. Chairman, thank you for your consideration of our request.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    Mathematics and science are constantly growing and changing. In 
order to teach these subjects effectively teachers, themselves, must 
constantly grow and change. Public Law 107-110 recognizes the need for 
on-going professional development programs for teachers. At the 
American Geophysical Union we are especially determined to provide 
opportunities for science teachers to participate regularly in 
scientific research. The Mathematics and Science Partnerships provision 
of Public Law 107-110 (Part B) establishes a national program to 
provide such opportunities. If adequate funding is provided to support 
Mathematics and Science Partnerships throughout the United States the 
quality of K-12 mathematics and science education will improve. If 
adequate funding is not provided the inspired language of Public law 
107-110 will mock us all as this and subsequent generations of American 
children are left behind.
                                 ______
                                 
  Prepared Statement of the National Society of Professional Engineers
    As part of the No Child Left Behind Act, Congress established Math 
and Science Partnerships to improve math and science education. The 
Partnerships initiative provides funds for local school districts to 
join with university mathematics, science and engineering departments, 
the business community and educational organizations, to improve 
teacher quality and student achievement. The partnerships can address a 
variety of issues, including teacher training and professional 
development, curriculum development, distance learning and exchange 
programs. Congress authorized $450 million for the program. 
Unfortunately, it received only $12.5 million in fiscal year 2002 and 
the proposed budget requests the same.
    The National Society of Professional Engineers (NSPE) urges 
Congress to fund the Math and Science Partnerships at the level 
authorized--$450 million.
    According to the 2000 National Assessment of Educational Progress, 
student science scores for grades 4 and 8 are flat and there has been a 
slight decline in scores for grade 12 since the assessment was last 
administered in 1996. This further underscores the need for reform and 
investment in math and science education, particularly at a time when 
our economy, national security and technological advances are heavily 
dependent upon the quality of our future workforce.
    NSPE has long been concerned about the state of K-12 science, math, 
engineering and technology education. To increase student learning in 
these areas and ensure that the United States remains competitive 
globally, we need to commit a significant amount of resources now.
    Full funding for the Math and Science Partnerships will better 
prepare our students--America's future scientists and engineers--to 
meet the challenges of the 21st century.
                                 ______
                                 
 Prepared Statement of the Pennsylvania Educational Telecommunications 
   Exchange Network and the Community of Agile Partners in Education
     preparing the new american workforce through distance learning
    It is my privilege to submit testimony for inclusion into the 
hearing record on behalf of the Pennsylvania Educational 
Telecommunications Exchange Network (PETE Net), and its allied non-
profit organization, a Community of Agile Partners in Education (CAPE). 
Created in 1994, these organizations represent a consortium membership 
of 116 educational institutions. We would like to first thank the 
Committee for providing approximately $3\1/2\ million between 1996 and 
the current year from the Education account to support the development 
of CAPE/PETE Net. These funds have enabled us to make tremendous 
progress in expanding our capabilities as institutions and in enhancing 
the quality of education in the Commonwealth of Pennsylvania. Allow me 
to describe PETE Net's ambitious federal/state/local partnership to 
promote economic and community development by using technology to 
prepare the new American workforce. CAPE's vision, mission, and 
services will play a key role in improving the ability of our 
institutions to thrive in the globalizing environment of the 21st 
century.
    CAPE/PETE Net is a state-wide educational telecommunications 
network: it currently is comprised of 116 educational institutions, 
that serve approximately one-half million students. Members include: 
community colleges; public and private colleges and universities; K-12 
school districts and intermediate units; medical schools and hospitals; 
public libraries and cultural organizations; and community-based 
training organizations. We are pursuing a state-of-the-art model 
project to demonstrate the power of interactive resource-sharing 
networks to help our member institutions prepare ``global-ready'' 
graduates and to strengthen the workplace skills of economically-
displaced and other workers. CAPE/PETE Net is expanding its membership 
to include public libraries and cultural institutions. Each of these 
collegiate and cultural institutions brings its own group of K-12 
school districts with which they collaborate in a variety of ways, 
e.g., Drexel University works with the financially and academically 
distressed Chester Uplands School District, as well as an innovative 
charter school in Philadelphia.
    CAPE/PETE Net is designed to aid the educational institutions of 
our state by reducing duplication, sharing academic resources, 
containing costs, and facilitating the systemic changes in vision, 
mission, market, structure, strategy, pedagogy, and programs necessary 
for our schools and colleges to thrive in the emerging globalized 
educational environment. It helps the students of our state by making 
intellectual resources accessible to them regardless of geography. In 
addition to linking member institutions to one another, this network 
connects its members to foreign educational institutions.
    CAPE/PETE Net plays an important role in enhancing the 
competitiveness of our members, our state, and our nation by 
integrating new technology into the educational system, and by helping 
members use that technology to prepare global-ready graduates. The fate 
of states and countries is increasingly a function of their human and 
relationship capital; therefore, the technological and human 
infrastructure that CAPE provides is a powerful, long-term economic 
benefit to the Commonwealth and to the nation.
    CAPE/PETE Net is demonstrating how educators and students can 
effectively eliminate the geographic constraints and sectoral and 
institutional boundaries which historically have prevented massive 
resource sharing in education: the day of the stand-alone organization 
is over, given technology's capacity to help learners and institutions 
increase their geographical reach, educational quality, and 
competitiveness through cooperation.
    CAPE has accomplished much in the past 8 years:
  --built a highly-diverse, educationally-versatile membership of over 
        one hundred K-12, postsecondary, and cultural institutions;
  --raised approximately $20M from private and public sources to 
        financially seed and help create an informal distance-learning 
        network of approximately 200 classrooms;
  --helped members design their distance-learning classrooms and 
        trained technical staff;
  --secured advantageous pricing agreements for relevant hardware, 
        software, and telecommunications rates;
  --organized numerous faculty colloquia via multi-point 
        videoconference;
  --promoted the use of technology for the delivery of college courses 
        to high school students;
  --created an on-line, searchable registry of approximately 2,100 
        faculty who are willing to share their expertise via 
        technology;
  --trained approximately 2,000 K-12 and postsecondary faculty in the 
        educational implications and applications of the web and 
        videoconference technologies;
  --trained hundreds of non-member professionals from the U.S. Navy, 
        U.S. Census Bureau, Ohio Corrections Department, public 
        utilities, a major subcontractor to the U.S. Department of 
        Energy, et al;
  --orchestrated approximately 25 major collaborative faculty projects, 
        several of which were inter-sectoral, and many of which 
        involved multiple technologies;
  --facilitated entirely on-line successful grant proposals involving 
        multiple institutions;
  --initiated a series of workshops on organizational agility and 
        systemic change in a globalizing world to show the wider, 
        strategic implications of technology;
  --supported the development of survey instruments to determine the 
        relative agility of schools and colleges and their readiness 
        for change; and
  --assisted member colleges in planning and delivering courses and 
        certificate degree programs on-line.
    We now seek funds to complete the task of building resource-sharing 
networks to create a virtual organization, serving both rural and urban 
communities throughout the Commonwealth, while providing a model for 
workforce development and institutional change to capitalize on the 
educational and market opportunities of a globalizing world. With the 
requested $2.0M federal funds, CAPE/PETE Net will strengthen the 
technological infrastructure of new members, especially public 
libraries, and assist in the upgrading of in-place infrastructure at 
other CAPE institutions. Further, CAPE/PETE Net will train K-12 and 
postsecondary teachers and other workforce trainers how to teach in a 
distance-learning environment.
    Third, CAPE/PETE Net will work with local governments, businesses, 
and educational institutions to identify the educational and training 
needs of regional workforces, and coordinate the educational resources 
of member institutions to meet those needs. Finally, CAPE/PETE Net will 
promote the rapid dissemination of the highly effective Integrated 
Product Development (IPD) team approach to building creativity and 
entrepreneurship--essential elements of a 21st century workforce--
throughout American K-12 and post-secondary education.
    The latter part of the 20th century saw the emergence and 
acceleration of global strategies for economic production and 
commercial activity. Work is increasingly:
    (1) geographically-distributed;
    (2) technologically-mediated;
    (3) inter-organizational and collaborative;
    (4) team-based, with decentralized decision-making;
    (5) problem/product/project-focused; and
    (6) multi-cultural/international.
    This paradigm applies to the work of non-profit and governmental 
sectors as well as manufacturing and commerce. The end of the Cold War, 
radical improvements and cost-decreases in technology, and changes in 
governmental policies to permit the rapid movement of ideas, capital, 
and people were critical to the creation of what Tom Friedman, author 
of The Lexus and the Olive Tree, has termed ``the globalization 
system.'' According to Jean Lipman-Blumen in The Connective Edge, the 
future success of organizations will depend upon their capacity to make 
the two major world trends--interdependence and diversity--work for 
them, not against them.
    Two of CAPE/PETE Net's fundamental assumptions are:
    (1) despite the ``clash of civilizations'' described in Samuel 
Huntington's book of that title, globalization, as the operating 
environment for organizations, in the non-profit as well as the for-
profit sector, will grow stronger and more pervasive in the future, and
    (2) over time, all sectors of society--including education--will be 
profoundly influenced by this system, and its implicit demand for life-
long learning and the continuous upgrading of the workforce.
    To function successfully in a globalizing world, organizations need 
to increase their agility. Agile organizations are fast, flexible, 
collaborative, and customizing; they have moved beyond stand-alone 
models of staff behavior and organizational relationships to 
technologically-mediated collaboration as a first-choice strategy. 
Achieving agility will require systemic, as opposed to incremental, 
change for most organizations.
    A further fundamental assumption of CAPE/PETE Net's is that the 
processes by which people are educated need to be broadly consistent 
with the way in which organizations operate in a globalizing 
environment. It is not enough for schools and colleges to deliver 
content aimed at preparing students for global involvement; students 
and faculty must learn and work in ways that model the globalizing 
reality of organizational behavior. Education must now be restructured 
and reanimated for a world of mass customization, agility, and routine 
international interaction, whether the interaction serves cultural, 
intellectual, or commercial goals.
    As educational missions, markets, and programs globalize, CAPE's 
membership of small-and medium-sized organizations face special 
challenges that will require highly agile responses.
    The importance of K-12 education becomes critical as competition 
and work extrapolates globally, and the relationship between K-12 and 
postsecondary education becomes more important as well. We need to use 
technology to integrate the cultural and intellectual resources of 
colleges and universities into a ``K-16'' system.
    CAPE's higher education members face important challenges, too. 
Regarding the export of education and training via technology and other 
means, there is little question that large public and private research 
universities can expand their roles nationally and overseas. There is, 
however, a question as to whether, and if so, how, small-and medium-
sized institutions, acting alone, can be effective in such an arena.
    K-12 and postsecondary institutions, and their allies in cultural 
institutions dedicated to informal learning, must reflect the 
requirements of globalization and agility in their strategic and 
developmental behavior. They need the capacity to build quality and 
scale rapidly through collaboration in order to nourish each other's 
educational programs and develop business opportunities by serving 
corporate, governmental, and non-governmental organization (NGO) 
clients. They need each other's help to customize teaching and learning 
experiences to young residential students, corporate employees, and 
those transitioning from welfare or incarceration to work. CAPE's 
raison d'etre is to create the human infrastructure and trust essential 
for effective collaboration in the emerging integrated world.
    By establishing a truly interactive, agile communications network, 
CAPE/PETE Net consortium members are expanding resources and 
capabilities greatly while containing costs. CAPE/PETE Net is a viable 
initiative to help members generate revenue and manage the cost of 
innovation, while extending quality education to more citizens. It is 
ideally suited to play a key role in worker-retention activities 
associated with changes in America's defense industrial base, 
information technology, and changes in the workplace.
    The building blocks for CAPE/PETE Net are in place and a strong 
foundation has been laid. One hundred sixteen CAPE/PETE Net members 
have committed their resources to building an interactive network by 
which we create an educational model of agile organization. These 
institutions pay annual dues ranging from $500 to $5,000 depending on 
size and type of membership. Please see our website (www.acape.org) for 
a list of members and other information. However, a further federal 
role is indispensable. We therefore respectfully request, with the 
strong support of our Pennsylvania delegation, that the Labor, HHS, and 
Education Subcommittee set aside $2.0 million for fiscal year 2003 to 
assist in the continued development and expansion of CAPE/PETE Net. Our 
national demonstration of organizational agility in education permits 
not only resource sharing among K-12, 2-year colleges, 4-year colleges 
and graduate institutions, medical, and cultural organizations, but the 
effective orchestration of workforce development programs. CAPE/PETE 
Net will become even more valuable to both the citizens of the 
Commonwealth, and all Americans as we strive to enhance our 
competitiveness for the challenges and opportunities of the 21st 
century.
    Thank you very much for the opportunity to submit this testimony on 
behalf of CAPE/PETE Net's 116 member institutions, and for considering 
our request for continued investment in our mission.
                                 ______
                                 
      Prepared Statement of the Math/Science Partnership Coalition
    We, the undersigned groups, urge you to fulfill our nation's 
commitment to math and science education in H.R. 1, the No Child Left 
Behind Act, and fully fund the Department of Education's Math and 
Science Partnership Initiative at $450 million for fiscal year 2003.
    During the next decade, the United States demand for scientists and 
engineers is expected to increase at more than double the rate for all 
other occupations, according to the National Science Board. The need 
for a scientifically literate population is essential for our economy 
and our national security. Moreover, technology and the innovations it 
has spawned drive productivity gains and economic growth.
    But today's high school students are not performing well in math 
and science overall, and a decreasing number of American students are 
pursuing degrees in technical fields. America's K-12 students score far 
below the best in the world on domestic and international tests.
    We applaud Congress for tackling this problem head-on by 
establishing the Math and Science Partnerships as part of the No Child 
Left Behind Act. These merit-based partnerships between school 
districts, university science, engineering, and math departments, 
businesses, and educational organizations seek to improve teacher 
quality and student achievement in K-12 math and science.
    H.R. 1 contains an authorization of $450 million for the 
partnerships. Unfortunately, the funding for fiscal year 2002 was a 
mere $12.5 million, amounting, in effect, to a 95 percent cut of 
dedicated funding for math and science education at the Department of 
Education. This decrease leaves most states and school districts 
without dedicated funding to improve education in math and science. 
Providing strong funding for these key areas through the Department of 
Education is critical, because the department is the only federal 
agency charged with improving teacher quality and student achievement 
across all states and school districts.
    We urge Congress to fulfill its commitment to math and science 
education by supporting a $450 million appropriation in fiscal year 
2003 for the Math and Science Partnerships in the Labor-HHS-Education 
bill. If you have any questions, please feel free to contact Laura Geer 
Kolton at (202) 872-4384.
    American Association of Physics Teachers; American Association of 
Engineering Societies; American Astronomical Society; American Chemical 
Society American Geological Institute; American Geophysical Union; 
American Institute of Physics; American Physical Society; ASEE 
Engineering Deans Council; ASME International, Council on Education; 
Citizens for the Advancement of Science Education; Council of State 
Science Supervisors; International Technology Education Association; 
Institute of Electrical and Electronics Engineers, USA; JETS, The 
Junior Engineering Technical Society; National Alliance of State 
Science and Mathematics Coalitions; National Council of Teachers of 
Mathematics; National Science Teachers Association; National Society of 
Professional Engineers; Society of Women Engineers; and Triangle 
Coalition for Science and Technology Education.
                                 ______
                                 
    Prepared Statement of the Association of University Centers on 
                               Disability
    Mr. Chairman, on behalf of the Association of University Centers on 
Disability (AUCD), formerly the American Association of University 
Affiliated Programs for Persons with Developmental Disabilities 
(AAUAP), I am pleased to submit this written testimony for the record 
as a way of sharing with you information on the current status of the 
network of University Centers for Excellence in Developmental 
Disabilities, Education, Research, and Services (UCEs). I am Robert 
Stodden, Director of the Center on Disability Studies at the University 
of Hawaii at Manoa, Hawaii's UCE, and President of the Association of 
University Centers on Disabilities.
    The UCEs comprise a network of interdisciplinary Centers, which 
advance policy and practice, for and with people with developmental and 
other disabilities, their families, and communities. Authorized by the 
Developmental Disabilities (DD) Assistance and Bill of Rights Act 
(Public Law 106-402), UCEs are established in every State and Territory 
of the United States as part of major research universities. 
Nationwide, UCEs are working together to accomplish a shared vision 
where all people, including people with disabilities, participate fully 
in their communities.
    As the national network of 61 Centers has grown, so have the 
expectations of what it means to be a national resource. Over the 
years, each University Center has developed its own areas of expertise, 
based on the needs of their local community, state, and the evolving 
expectations of people with disabilities nationwide to be more included 
in community life. Since the reauthorization of the DD Act in 2000, the 
goal for the network of UCEs has been to pool together the individual 
expertise of each University Center to be a national resource to all 
people.
    One example is the network's involvement in the Children's 
Supplemental Security Income (SSI) Project, a collaborative effort 
between the UCEs/Leadership Education in Neurodevelopmental 
Disabilities (LEND) Programs and the Social Security Administration. In 
the project's first 3 years, 28 UCE/LEND programs conducted 
interdisciplinary assessment on over 500 children in 23 States. The 
children seen by the University Centers were applying for benefits, had 
their continuing eligibility called into question, or at age 18, were 
undergoing review for continuing eligibility. While many of these 
children retain SSI benefits as a result of the Centers' work, more 
importantly, SSA has used the findings from the project to make policy 
and procedural changes at a national level. Adjudication processes have 
been improved, individuals who were still denied eligibility received 
services, and new resources and information on systems were identified 
for local Social Security offices, as a direct result of the Centers' 
work.
    Background.--The DD Act was originally passed by the 88th Congress 
to establish, a three-pronged federal system of supports, services and 
rights protections for people with disabilities, many of whom were 
warehoused in large institutions and subject to inhumane conditions. 
UCEs have played a critical role over the years in building the 
capacity of states and communities to include all their citizens. Since 
inception, the network has been successfully training professionals for 
leadership positions and direct care workers for community services; 
working to provide people with developmental disabilities access to 
needed services and supports; conducting research and validating 
emerging state of the art practices; providing technical assistance; 
and disseminating information to individuals with disabilities, 
families, public and private agencies, and policy makers. UCEs work in 
concert with their sister systems, the Developmental Disabilities 
Councils and the Protection and Advocacy Systems.
    The DD Act continues to meet a significant societal need in the 
beginning of the twenty-first century as new science, policies and 
attitudes evolve for including and supporting individuals with 
disabilities in the main stream of American Society. In addition, the 
recent Olmstead decision of the U.S. Supreme Court has reaffirmed the 
right of individuals with disabilities to live in their communities. 
The Bush Administration has actively mobilized federal agencies to 
implement this decree through Executive Order 13217, ``Community-Based 
Alternatives for Individuals with Disabilities.'' The Bush 
Administration's New Freedom initiative further promotes this goal. The 
country has come a long way in building community systems, but we are 
far from done. The UCE network can play a pivotal role in the 
implementation of the Olmstead decision, but adequate resources are 
needed to do so.
    Each University Center competes for funding from the Administration 
on Developmental Disabilities (ADD) every 5 years. In fiscal year 2002 
we received an increase of $2.2 million for the network. We are 
extremely grateful for the fiscal year 2002 increase, which raised 
funding for each Center by about $36,000 to approximately $382,000. In 
passing Public Law 106-402, Congress recognized that in order to 
fulfill our mission, greater resources are needed and so the 
authorization level for Centers was raised to $500,000 (a total of 
$31.0 million network-wide). As you see, we still have a ways to go.
    State and Local Impact.--University Centers are true examples of 
state-federal partnerships that work. More than one-quarter of their 
funds come from the states and local communities. Additional resources 
are leveraged from other grants and contracts, private foundations, 
fees for services and the host university. The federal funds provide a 
stable base for the Centers, but more is needed so that UCEs can 
respond to local and national needs such as developing cutting edge 
approaches in welfare-to-work, promoting children's health, state of 
the art interventions for disabilities such as autism and providing 
services and support to assist individuals in being safe from abuse and 
neglect. The significance of the University Centers in every state will 
continue to increase as federal policies need to be translated into 
local goals and procedures, trained personnel, and service systems 
designed to efficiently and safely meet the needs of individuals with 
developmental disabilities and their families.
    According to the DD Act, UCEs must adhere to four core functions: 
preparation of personnel through preservice and continuing education, 
provision of community services and technical assistance, conduct of 
research, and dissemination of information. Following are examples of 
how UCEs work to accomplish these goals.
    Preparing Personnel for the Future: Preservice Training.--A 
successful quality of life in the community for individuals with 
developmental disabilities begins with well-trained professionals. 
Centers have the unique ability to deliver high quality local and 
statewide personnel training in a collaborative, coordinated, 
interdisciplinary fashion and to address issues that are lifespan 
appropriate from infants to the elderly, and across health, education, 
and social service systems.
    UCEs are preparing teachers to teach all children, including those 
with disabilities or diverse learning needs. UCEs work with education 
professionals providing them research-based instructional strategies 
and model approaches to effective teaching.
    The Center on Human Development at the University of Oregon, has 
developed a Center on Positive Behavioral Interventions and Support. 
The Center assists local schools in identifying, adapting, and 
sustaining effective behavioral practices, including school-wide 
discipline programs. Results from their replication efforts in over 400 
schools nationwide indicate that this technical assistance and research 
has enhanced schools' capacity to address behavioral challenges, 
diminish disruptions, reclaim instructional time, and enhance quality 
and effectiveness of instruction.
    Direct Services and Supports Using Community Training and Technical 
Assistance.--Centers provide quality services directly to families and 
individuals. These services include clinical, health, prevention, 
educational, vocational, and, diagnostic services, as well as supported 
employment, and person centered planning.
    In Ohio, the Nisonger Center of the Ohio State University, is 
working with families living in rural counties of Ohio who encounter 
many barriers to accessing quality care for their children. Because 
most services for children with disabilities are in urban areas, 
families in Appalachia were traveling 50-100 miles to the city for 
multiple evaluations by individual disciplines. This resulted in a 
fractured process as well as a great expense in time and money for the 
family. The Nisonger Center now sends teams of providers to rural areas 
to provide interdisciplinary care to families. They provide evaluations 
of children, training for local healthcare providers, and support for 
the families through a system of 38 rural clinics. These clinics are 
improving access of needed services to families and providers and help 
local providers to better diagnose developmental disabilities such as 
cerebral palsy, fetal alcohol syndrome, autism and other genetic 
disorders.
    For many University Centers, it is the community training and 
technical assistance, as opposed to direct services, that has had the 
greatest impact on the ability of state and local service delivery 
systems to adequately meet the needs of people with developmental 
disabilities. Much of the training material for such new initiatives 
has been developed in the Centers and becomes available to service 
agencies nationwide.
    The Mailman Center for Child Development in Florida is providing 
such assistance by developing model curricula for training programs. 
They have developed a 60-hour on-line course, which provides training 
for professionals and students in the use of assistive technology to 
aid individuals with developmental disabilities to achieve maximum 
independence in functioning.
    One unique feature of the UCEs is the synergistic affect of 
combining research, training, AND direct services, providing the 
opportunity for invaluable interactions between those who investigate 
effectiveness, those who train service providers and those who actually 
put the strategies and practices into use.
    An intensive Early Intervention Program at the Alaska Center 
provides a nationally recognized, intensive, in-home program for pre-
school children with autism. The program focuses on training volunteers 
who provide daily intervention services for families. Results show that 
upon completion of the program, most of the children begin functioning 
in typical settings such as schools and playgroups.
    Research and Dissemination of Information.--Findings from 
University Centers' research is used to better understand and guide 
policy and practice at the local, state, and federal agency level and 
results in increased effectiveness and speeds the conversion of 
research to best practices implementation. UCEs are collecting 
information and measuring outcomes relative to our Nation's success at 
providing care for its citizens with developmental disabilities. 
Governors and State Legislators use the data collected as a guide to 
evaluate plans and implement policy.
    The State of the States in Developmental Disabilities, authored by 
the UCE in Chicago, provides information to governors and state 
legislators on how state dollars are spent for care and services for 
persons with developmental disabilities and provides historical trends 
on those expenditures.
    University Centers also use cutting edge technology, such as the 
Internet, webcasting, and distance learning to provide individuals with 
disabilities, their families, and professionals access to new 
information and networking opportunities with other families.
    The Family Village project at the Wisconsin Center is an Internet 
system designed to help families with disabilities network with other 
families around the world. In addition, the system provides families 
validated disability specific information and organized listings of 
exiting health and community services.
    Leading Through Collaboration.--Collaboration occurs at many 
levels. Centers work locally and nationally with other programs to 
ensure that people have access to a full spectrum of legal rights and 
quality care. UCEs also collaborate with federal agencies to bring 
developmental disabilities expertise to their ongoing work.
    In Pennsylvania, the Equal Justice project is working extensively 
with the criminal justice system to see that professionals in the 
criminal justice field are trained in developmental disabilities and 
are working together with the disability community.
    UCEs are constantly seeking creative solutions to emerging issues 
and to respond to national needs. This year, the tragedy of September 
11 brought forward a new need. In addition to the outpouring of concern 
for victims, their families, rescue workers, and others who were 
affected, there was also a concerted effort by parents, educators, and 
mental health professionals to assist children to cope with and recover 
from the trauma. The Westchester Institute on Health and Development, 
one of New York's UCEs developed Project Cope, a national clearinghouse 
for resources, services and supports in the aftermath of disaster. 
Their coping guides focused on the needs of both children and adults 
with disabilities were disseminated nationally via the World Wide Web 
and excerpted in dozens of newspapers, magazines, and newsletters.
    Fiscal year 2002 funding request.--Again, Mr. Chairman, we believe 
that Congress was right in authorizing the UCEs at $500,000 per Center, 
or a total of $31.0 million. While the network of University Centers 
recognizes that budgets are tight, we believe that the legislation 
takes into careful account the appropriate amount of funding it takes 
to get the job done right. Without an infusion of additional funding, 
the Center network is in danger of deteriorating at a time when it is 
sorely needed to continue the drive of people with disabilities toward 
increased independence, productivity and integration into American 
society. The benefit of having a national network is that it can be 
used to help implement priorities nation-wide. As resources become even 
more precious in light of September 11, it is a waste not to fully tap 
the potential of the UCE network.
    Additionally, the DD Act of 2000 contains a program of Family 
Support and other Projects of National Significance (PNS) that provide 
opportunities for UCEs and others to develop models of empowerment and 
responsibility for individuals with developmental disabilities. 
Projects of National Significance aid state governors and lawmakers as 
well as Congress in responding to urgent needs and collecting valuable 
data to make informed policy decisions. Projects like the Home of Your 
Own (HOYO) project, established in New Hampshire, helps individuals 
with developmental disabilities buy and maintain their own homes, and 
the Transcen, Inc. program, established in Maryland, assists youth with 
developmental disabilities to move successfully from school to the 
workplace. With additional funding, more creative programs like these 
can be developed, established, and duplicated in cities and states 
across the country.
    Finally, the AUCD network also supports a unique network of 35 
Leadership Education in Neurodevelopmental Disabilities (LEND) 
programs. These programs, funded through the Maternal and Child Health 
Block Grant (Title V), do a remarkable job in preparing highly skilled 
professional leaders to both provide care to individuals with special 
health care needs/severe disabilities and improve the systems of care 
needed by these individuals and their families. While authorized at 
$850 million, the Title V Block grant is funded at only $732 million. 
Without additional funding, the impact of the existing LEND network is 
reduced and there is no possibility for expansion to meet the needs of 
unserved areas.
    We conclude with respectfully requesting the following funding 
allocations:
  --For the University Centers for Excellence in Developmental 
        Disabilities Education, $31.0 million
  --For the Projects of National Significance, part of the DD Act, we 
        recommend funding at $22 million which includes $15 million for 
        Family Support, and
  --For the Maternal and Child Health Block Grant we ask that it be 
        funded at $850 million.
    Thank you for the opportunity to share this information about the 
UCEs. Your careful consideration of our appropriations requests are 
appreciated and we are happy to share more detailed information with 
you at your request.
                                 1_____
                                 
         Prepared Statement of the American Nurses Association
    The American Nurses Association (ANA) appreciates this opportunity 
to comment on fiscal year 2003 appropriations for nursing education, 
nursing research and workforce programs. ANA is the only full-service 
professional organization representing the nation's 2.7 million 
registered nurses, including staff nurses, nurse practitioners, 
clinical nurse specialists, certified nurse midwives and certified 
registered nurse anesthetists through its 54 state and territorial 
nurses associations.
    ANA gratefully acknowledges this Subcommittee's support for nursing 
education and research. We appreciate your continued recognition of the 
important role nurses play in the delivery of health care services and 
the increased need to fund nursing education programs and innovative 
practice models. Today, the changing demographics of American society 
and the health care delivery system demand a nursing workforce that has 
a sound foundation in a broad range of basic sciences, as well as a 
unique set of critical thinking and problem solving skills.
    Unfortunately, the nursing community at large is starting to 
observe a shortage of nurses with competence, skills and experience to 
meet the current demand for more complex patient care. New admissions 
into nursing schools have been dropping. This lack of young people 
entering the profession has caused the average age of resident nurses 
to rise to 43 years. This disturbing trend will continue to increase: 
The average is projected to continue to increase to 46 years old in 
2010. And, as the average age of nurses increases, America's demand for 
nursing care is expected to balloon over the next 20 years due to the 
aging population. A study published in the Journal of the American 
Medical Association projects that by 2020, the demand for nurses will 
exceed supply by 20 percent. Therefore, we believe that our shared goal 
of ensuring the nation of an adequate supply of well-educated nurses, 
to meet the increasing demands of our rapidly changing health care 
system, will reaffirm the need for increased funding of these programs. 
Today, ANA offers our professional recommendations for federal funding 
of nursing education, research and workforce programs.
            department of health and human services programs
Nurse Education Act
    Federal support for nursing education in Title VIII of the Public 
Health Service Act (PHSA) is unduplicated and essential to achieve 
future goals for the public's health. When Congress reauthorized these 
programs by enacting the Health Professions Partnership Act of 1998 
(Public Law 105-392), it provided the Secretary of Health and Human 
Services (HHS) broad discretion to determine which projects to fund, 
with priority given to projects which would substantially benefit rural 
or underserved populations, including public health departments. Under 
the improved Nurse Education Act (NEA) included in Public Law 105-392, 
the Division of Nursing, the agency that administers the NEA at HHS, 
has the needed flexibility to focus on curriculum development and other 
programs to address the changing health care environment and assist in 
the preparation of more nurses who are able to function where there is 
a greater demand. The NEA is able to better address the need for 
increasing the numbers of minority nurses available to provide 
culturally competent, linguistically appropriate health care services 
to underserved communities by providing funding to support projects 
that would increase nursing education opportunities for individuals 
from disadvantaged backgrounds. These nurses would then be better 
prepared to assist these populations in changing the way they access 
our health care system, and in helping these patients understand the 
advantages of developing relationships with primary providers. By 
itself, the behavior change from accessing health care services through 
emergency departments, to one in which the consumer routinely seeks 
care through a primary provider, decreases health care costs 
exponentially.
    For fiscal year 2002, due to the work of this Subcommittee, the 
Nurse Education Act was funded at $82.5 million. For fiscal year 2003, 
we propose to increase funding for the activities of the NEA by at 
least $40 million to $122.5 million. Although this recommended increase 
is substantial, the ANA believes this additional funding is needed to 
help alleviate the nursing shortage, because NEA programs provide 
incentives for people to enter the nursing profession.
    The NEA authorities are as follows:
    Programs to provide advanced education to nurses.--Advanced 
education nurses are registered nurses trained in advanced degree 
programs, generally at a master's degree level. They provide primary 
care in lieu of physicians or provide an expanded type of primary care. 
This category includes nurse practitioners, nurse midwives, nurse 
anesthetists, clinical nurse specialists, nurse administrators, public 
health nurses and other nurses as determined by the Secretary of the 
Department of Health and Human Services. Traineeships for advanced 
nursing education is provided under this category. Title VIII funds 
have supported the development of virtually all initial state and 
regional outreach models which first demonstrated the delivery of part 
or all of a graduate program to students at sites using distance 
learning methodologies from university settings thereby providing 
advanced study opportunities for nurses in rural and remote areas.
    Due to the continued changes in our health care delivery system and 
the changing demographics and complexity of care, nurse practitioners 
will be in increasing demand and the nurse education system will be 
stretched to provide first-quality training for them. These changes 
call for the fullest utilization possible of the multi-disciplinary 
providers who care for patients and families in an ever-increasing 
array of settings: hospitals, subacute care facilities, rehabilitation 
facilities, long term care facilities, schools and universities, 
workplaces and communities.
    Programs to increase workforce diversity.--Both overutilization of 
costly emergency services and decreased access to primary care have 
been associated with a low representation of minority health care 
providers. This legislation provides for increased flexibility in the 
use of funds to enhance diversity in nursing education and practice. It 
supports projects to increase nursing education opportunities for 
individuals from disadvantaged backgrounds--including racial and ethnic 
minorities. Some support will be provided through student scholarships 
or stipends and can be used for pre-entry preparation and retention 
activities. Continued funding for programs that access this type of 
funding is dependent on demonstrated outcomes.
    Projects to strengthen the capacity of basic nursing education.--
Funding under this category assists toward expanding basic nurse 
education, thereby enhancing the basic nursing workforce. Priority 
areas identified include: skills development for practice in organized 
health care systems; nursing practice arrangements, care for 
underserved populations and other high risk groups; cultural 
competency; baccalaureate enrollment; career mobility; informatics 
education, including distance learning methodologies and other areas as 
needed. Nurse managed clinics are included under this category. During 
the past several years, data show that nurse-managed centers provide an 
average of 130,000 primary care encounters per year to individuals from 
vulnerable and underserved populations.
Nurse Education Loan Repayment Program
    The Nurse Education Loan Repayment Program (NELRP) repays up to 85 
percent of nursing student loans in return for at least 2 years of 
practice in a designated nursing shortage area. For the first 2 years 
of service, the NELRP will pay 60 percent of the RN's student loan 
balance, up to $30,000. If the participant elects to stay for another 
year, an additional 25 percent of the loan will be repaid, up to an 
additional $7,500. Within 3 years, a nurse can pay off approximately 85 
percent of his/her student loans. More than 400 awards were distributed 
last year.
    Due to the determined efforts of this subcommittee, the Nurse 
Education Loan Repayment Program enjoyed record increases last year. 
This program was funded at $10 million for fiscal year 2002. The 
President's budget recommends $15 million in funding for the program, a 
50 percent increase above last year's allocation. Although the ANA 
appreciates the strong support for this program from the Bush 
Administration, we believe that $20 million in funding is necessary to 
help address the nation's growing need for nursing professionals.
Nurse Reinvestment Act
    On December 20, 2001 both the House of Representatives and the 
Senate passed the Nurse Reinvestment Act (H.R. 3487, S. 1864, 
respectively). Although the bills differ in some respects, both would 
expand and issue new authority for loan repayment programs and 
scholarships for nursing students, in addition to providing new public 
service announcements to encourage more people to enter the nursing 
profession. ANA asks that the Subcommittee include the amount 
recommended in the Senate bill of $136 million to fund programs 
included in this legislation. Although the bill is still in conference, 
progress is advancing and a conference report is likely to be submitted 
soon.
National Institute of Nursing Research (NINR)
    The second funding priority for nursing is funding for the NINR, 
one of the institutes at the National Institutes of Health (NIH). Again 
we applaud this Subcommittee's commitment to advancing behavioral 
science research. Nursing research is an integral part of the 
effectiveness of nursing care. Advances in nursing care arising from 
nursing and other biomedical research improves the quality of patient 
care and has shown excellent progress in reducing health care costs and 
health care demands. Research programs supported by the NINR address a 
number of critical public health and patient care questions. The 
research is driven by real and immediate problems encountered by 
patients and families. Study results offer the clear prospect of 
improving health, reducing morbidity and mortality, and lowering costs 
and demand for health care.
    Recent studies have included looking at the effects of hospital 
restructuring, such as changes in nurse staffing, on patient care; 
looking at the success of early intervention programs in helping young 
disadvantaged mothers care for themselves and their infants; and 
examining training programs that assist nurse aides in detecting 
agitation and aggression in patients with dementia. The NINR is the 
second-lowest funded institute at NIH and provides vital health care 
research for the nursing community. The Bush Administration recommends 
funding the NINR at $128 million. ANA, however, recommends increasing 
funding for the NINR by $25 million--from $120 million for fiscal year 
2002 to $145 million for fiscal year 2003.
Substance Abuse and Mental Health Services Administration (SAMHSA) 
        Clinical Training Program
    The SAMHSA Clinical Training Program has been a major source of the 
nation's mental health clinical training funds, and it is a source of 
funding for ANA's Ethnic Minority Fellowship Project (EMFP). The 
funding is allocated through SAMHSA to the minority mental health 
training programs in nursing, psychology, social work and psychiatry. 
The EMFP graduates have an outstanding record of public service to 
minority and indigent communities.
    EMFP graduates receive doctoral degrees and, as clinicians, work in 
high risk urban and rural areas providing care to children and families 
who are victims of violence, HIV/AIDS, and substance abuse as well as 
the mentally ill. These nurses work in community-based clinics and 
outreach programs and often are the primary care providers for indigent 
clients who might otherwise go without needed mental health services. 
In addition, EMFP graduates generate research on minority mental health 
services, treatments and client outcomes. Culturally appropriate 
research helps us to identify ways to provide services faster and to 
more people, ultimately improving health care outcomes and reducing 
health care costs. This works to change the poor health outcomes and 
high risk health status that continues to plague minority communities. 
These graduates also work as teachers in schools of nursing that serve 
minority students, serving as role models and providing leadership to 
future nurses. We believe this program is a good investment in reducing 
mental health care costs and recommend funding of $5 million for fiscal 
year 2003 for the SAMHSA Clinical Training program.
The National Institutes for Occupational Safety and Health (NIOSH)
    NIOSH is the only federal agency with the mission to conduct 
research and develop practical solutions to prevent work injury and 
illness. NIOSH played a key scientific role in the development of the 
blood borne pathogens standard which provides significant protection to 
front-line health care providers from possible exposure to blood borne 
pathogens, such as HIV, Hepatitis-B and Hepatitis-C. In addition, NIOSH 
funds Educational Resource Centers. These multi-disciplinary, 
university-based occupational health and safety training and research 
centers are the primary vehicle for the development and training of a 
corps of trained occupational health nurses and other safety 
professionals. Fiscal year 2002 funding was $276 million, but the 
President's budget recommends a decrease in funding to $258 million. 
ANA recommends an increase to $304 million in program for fiscal year 
2003.
                other workforce funding recommendations:
    As an advocate for the economic and general welfare of registered 
nurses, the American Nurses Association also recommends appropriate 
funding for the Department of Labor and related agencies that serve to 
ensure a safe and fair workplace. ANA believes the work done by the 
Bureau of Labor Statistics, with respect to the ongoing collection and 
analysis of employment and economic data, is necessary for tracking 
changing economic conditions and essential to making workforce 
projections. We urge your support of the Bureau.
National Labor Relations Board
    ANA is concerned about the ability of the National Labor Relations 
Board (NLRB) to meet its statutory responsibility of enforcing and 
interpreting the National Labor Relations Act (NLRA). Potential delays 
in the processing of complaints and holding representation elections 
may jeopardize the progress in employee and employer relations. ANA 
considers this a core independent agency function that must be 
preserved. The President recommends a funding level of $246 million--a 
$20 million increase in funding from fiscal year 2002. ANA supports his 
request.
Occupational Safety and Health Administration (OSHA)
    The rapid restructuring of the health industry has increased, and 
in some cases exacerbated, the risk of exposure to illness and injury 
for nurses and other health care workers. Hospitals and HMOs are 
downsizing both to cut costs and to be competitive in the health care 
marketplace. These economic pressures have led to a reduction in the 
number of registered nurses providing care at the bedside. The 
remaining nurses in these acute care settings have to work harder and 
take care of more and sicker patients than ever before. The nurses 
themselves are sustaining more frequent incidences of injury and 
illness. According to the Bureau of Labor Statistics, in 1993, back and 
shoulder injuries accounted for 50 percent of the 31,422 injuries and 
illnesses that kept registered nurses away from work. Overall, lifting 
was specified as the cause of 26 percent of all registered nurse 
injuries. ANA is concerned about the increased occupational risks in 
nursing and their negative effect on nurses today and the future of 
this profession.
    ANA continues to be concerned about the strength of the Office of 
Occupational Health Nursing and its parity with similar offices. 
Occupational health nurses are the largest group of health care 
providers at the nation's work sites. As such, they are uniquely 
qualified to assess the practical realities of work sites and related 
regulatory activities. This office must be fully staffed in order to 
accomplish its critical task of linking the ongoing work of 
occupational safety and health nurses to OSHA. Unfortunately, the Bush 
Administration recommends only $437 million for OSHA--a decrease from 
fiscal year 2002 funding. We recommend fiscal year 2003 funding of $488 
million for OSHA--an increase of $44 million more than the previous 
allocation.
    We appreciate the opportunity to comment on funding for nursing 
education, research and workforce programs. We thank you for your 
continued support and look forward to working with you as you proceed 
through the appropriations process.
                                 ______
                                 
             Prepared Statement of Florida State University
                                summary
    Florida State University is pursuing one project this year through 
this subcommittee. A multi-university K-16 Reading, Math, Science 
Initiative through the Fund for the Improvement of Education--request 
total is $6M.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research and top quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities and have a 
strong commitment to public service. Among the faculty are numerous 
recipients of national and international honors, including Nobel 
laureates, Pulitzer Prize winners as well as several members of the 
National Academy of Sciences. Our scientists and engineers do excellent 
research, have strong interdisciplinary interests, and often work 
closely with industrial partners in the commercialization of the 
results of their research. Having been designated as a Carnegie 
Research I University several years ago, Florida State University will 
approach $150 million this year in research awards.
    FSU has initiated a new medical school, the first in the United 
States in over two decades. Our emphasis is on training students to 
become primary care physicians, with a particular focus on geriatric 
medicine--consistent with the demographics of our state.
    Florida State attracts students from every county in Florida, every 
state in the nation, and more than 100 foreign countries. The 
University is committed to high admission standards that ensure quality 
in its student body, which currently includes some 345 National Merit 
and National Achievement Scholars, as well as students with superior 
creative talent. We consistently rank in the top 25 among U.S. colleges 
and universities in attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
universities.
    Mr. Chairman, let me tell you about a project we are pursuing this 
year through the Department of Education. One of the greatest problems 
facing the State of Florida and the Nation as a whole is how to improve 
the quality of K-16 education in our public schools. Governor Jeb Bush 
has put education improvement as his Administration's top priority. 
Florida State University (FSU), with support from the State of Florida 
and the Governor, have strong support to initiate a state-wide 
partnership effort between the state's universities, local schools, 
teachers, principals, and other educational leaders to address this 
important issue. This effort is designed to improve student performance 
across the state of Florida as assessed by the Florida Comprehensive 
Assessment Test (FCAT) and other accountability measures.
    In the last 2 years, FSU has engaged in a number of new initiatives 
designed to strengthen the ties between the public school system and 
the university with a renewed focus on improved student performance. 
FCAT and other test scores, as well as school grades based on Florida's 
A+ Plan, provide outcome measures of success. Other institutions among 
the state's universities have also undertaken efforts with local 
schools, boards of education, teachers, administrators, and other 
groups. At FSU, the various partnerships that came out of these efforts 
have enjoyed success as demonstrated by these results:
  --Improved FCAT scores over the past 2 years moved six of the twelve 
        local schools served from an overall state ranking of ``D'' to 
        ``C''. Two of Tallahassee's southside schools showed an even 
        greater improvement in FCAT scores and a concomitant increase 
        from a ``C'' to an ``A''. This places them among a very small 
        percentage of Title I schools (schools with more than half the 
        students living in poverty based on free and reduced lunch 
        data) earning the state's top grade.
  --First grade students' scores on three reading measures indicate the 
        Leon County FLARE Reading Grant project and the supporting 
        mentor project are successful in ``catching up'' students who 
        enter school with gaps in reading readiness skills. Both are 
        demonstration projects that are currently supported by the 
        National Institute of Child Health and Human Development. The 
        projects are being led by Professor Joe Torgesen and others in 
        the FSU's Department of Psychology.
  --Collaborative relationships have been established with the Florida 
        Association of District School Superintendents and the North 
        East Florida Education Consortium to provide statewide 
        opportunities for the application of research findings and 
        professional development for practicing teachers, principals 
        and other educators.
    Properly crafted research on priority issues can have an immense 
impact on future educational achievements. To serve this highly 
critical K-16 knowledge management function, FSU proposes coordinating 
these and additional efforts among a number of the state universities 
who wish to be involved in such K-16 efforts. By coordinating 
priorities, each university can focus on its areas of expertise to 
accomplish the research, development, evaluation, and dissemination 
functions essential to support improved student performance in reading, 
mathematics and science. This work would include:
    1. Assisting educational leaders and decision-makers in developing 
a strategically-planned research agenda targeting high-priority 
problems in reading, mathematics, and science achievement;
    2. Initiating, conducting and completing priority research projects 
(collaboratively and within each university) clearly responsive to 
critical national education needs using a data based, systems oriented 
model. These projects include Reading First; Early Reading First; TRIO; 
NICHHD Literacy and Preventive Interventions; Mathematics Skills 
Improvement; Reading Development; Healthy Start Initiative; and NSFs 
Math and Science Partnership Initiative;
    3. Evaluating the impact of K-16 initiatives designed to improve 
student performance and disseminating results;
    4. Designing and recommending specific applications in school 
districts; and
    5. Providing teacher professional development, especially in the 
content areas, as teachers broaden and deepen their knowledge in 
response to changing educational and/or technological needs.
    The proposed activities require new collaborative relationships 
among researchers, educators, and legislators that will connect 
research to practice. It is making the critical connections among 
research, preparation and practice that will dramatically improve 
teaching and learning.
    We are aware of substantial and complementary activities at USF, 
UCF, UNF, and UF; we are confident that other institutions will become 
involved in this initiative. For example, a major proposal is being 
jointly developed with faculty at FSU and USF that focuses on math/
science teacher training activities and will be submitted to the 
National Science Foundation. Substantial federal support for research 
in learning and cognition is now provided to Professors Torgesen, 
Wagner and Lonigan, all in FSU's Department of Psychology, from the 
Institute for Child Health and Human Development (NICHHD) and that 
support will continue to be the foundation for this state-wide effort. 
We expect that additional State of Florida funding will be made 
available to match the federal funding sought.
    FSU, as project coordinator, is seeking $6 million, available for 
implementing a well-developed and coordinated plan for research and 
training among the participating institutions. These funds would be 
required in the first year of this effort. As these improvements 
require a multi-year effort, additional funding would be sought in the 
out-years, based on specific proposals developed by the participating 
FL institutions.
    Mr. Chairman, this is just one of the many exciting activities 
going on at Florida State University that will make important 
contributions to solving some key problems and concerns our Nation 
faces today. Your support would be appreciated, and, again, thank you 
for an opportunity to present these views for your consideration.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History
              about the american museum of natural history
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million specimens and cultural artifacts. 
With nearly five million annual visitors--approximately half of them 
children--its audience is one of the largest, fastest growing, and most 
diverse of any museum in the country. Museum scientists conduct 
groundbreaking research in fields ranging from all branches of zoology, 
comparative genomics, and informatics to earth, space, and 
environmental sciences and biodiversity conservation. Their work forms 
the basis for all the Museum's activities that seek to explain complex 
issues and help people to understand the events and processes that 
created and continue to shape the Earth, life and civilization on this 
planet, and the universe beyond.
    Today more than 200 Museum scientists with internationally 
recognized expertise, led by 47 curators, conduct laboratory and 
collections-based research programs as well as fieldwork and training. 
Scientists in five divisions (Anthropology; Earth, Planetary, and Space 
Sciences; Invertebrate Zoology; Paleontology; and Vertebrate Zoology) 
are documenting changes in the environment, making new discoveries in 
the fossil record, and describing human culture in all its variety. 
Researchers in the Museum's Institute for Comparative Genomics, 
established in 2001, are mapping the genomes of non-human organisms as 
well as creating new computational tools to retrace the evolutionary 
tree. The Museum also conducts graduate training programs in 
conjunction with a host of distinguished universities, supports 
doctoral and postdoctoral scientists with highly competitive research 
fellowships, and offers talented undergraduates an opportunity to work 
with Museum scientists.
    The AMNH collections of some 32 million natural specimens and 
cultural artifacts are a major scientific resource, providing the 
foundation for the Museum's interrelated research, education, and 
exhibition missions. They often include endangered and extinct species 
as well as many of the only known ``type specimens,'' or examples of 
species by which all other finds are compared. Within the collections 
are many spectacular individual collections, including the world's most 
comprehensive collections of dinosaurs, fossil mammals, Northwest Coast 
and Siberian cultural artifacts, North American butterflies, spiders, 
Australian and Chinese amphibians, reptiles, fishes, and one of the 
world's most important bird collections. The Museum has also 
established a super-cold storage facility, described below, for 
collection of tissue samples with preserved DNA for genomics research 
on the Earth's biodiversity. Collections such as these are historical 
libraries of expertly identified and documented examples of species and 
artifacts, providing an irreplaceable record of life on earth. They 
provide vital data for Museum scientists as well as for more than 250 
national and international visiting scientists each year.
    Permanent and temporary exhibits--from the Rose Center for Earth 
and Space to The Genomic Revolution, discussed below--are among the 
Museum's most potent educational tools, interpreting the work of Museum 
scientists, highlighting its collections, addressing relevant 
scientific and cultural issues, and presenting cutting edge content in 
a way that is accessible to all ages, learning levels, and backgrounds. 
Science Bulletins--high definition video wall displays--present 
breaking science news, images, and data in the Museum's new Halls of 
Biodiversity, Planet Earth, and the Universe. The Education Department 
builds these exhibitions, as well as the Museum's unique resources, to 
offer rich programming dedicated to increasing scientific literacy, to 
encouraging students to pursue science and museum careers, and to 
providing a forum for exploring the world's cultures. These programs 
attract more than 500,000 students and teachers on school visits and 
nearly 5,000 teachers for special professional development 
opportunities. The Museum is also reaching beyond its walls: through 
its National Center for Science Literacy, Education, and Technology, 
launched in 1997 in partnership with NASA, it is exploiting new 
technologies to bring materials and programs into homes, schools, 
museums, and community organizations around the nation.
a museum partnership with departments of health and human services and 
                               education
    The American Museum shares with DHHS and the Department of 
Education a fundamental commitment to improving the nation's health and 
education and advancing the research, training, facilities, and 
technology that support them. The Museum seeks to partner with these 
agencies in order to leverage our complementary resources and advance 
critical shared goals. In partnership with DHHS and the Department of 
Education, the Museum will be poised to contribute its unique resources 
to the nation's health research and education missions: to advancing 
basic research in genomics and its potential applications in medicine, 
biomedical research, and clinical treatment; to education, and to 
promoting science education and science literacy in this, the era of 
genomics.
Genomic Science and Education
    The U.S. Department of Education, in order to promote educational 
excellence for all Americans, is committed to assuring equal access to 
quality education opportunity and improving student achievement through 
scientifically-based teaching methods, professional development for 
teachers, academic enrichment opportunities for students, and 
integration of technology into classroom instruction. As both a science 
and a public education institution, the American Museum shares the 
Department of Education's commitment to national educational 
excellence, to improving the nation's education through quality 
teaching, educational opportunities outside of the classroom, and new 
educational technologies.
    The Museum seeks to bring its extensive educational, as well as 
scientific, resources to bear in promoting the nation's teaching and 
learning about genome sciences: The Museum's website (www.amnh.org) 
serves as a vehicle for taking the institution's resources to millions 
beyond its walls. It offers in-depth virtual ``tours'' of exhibitions; 
features on curators, expeditions, and current research; access to 
collections; and links to the AMNH digital library. The site also 
features webcasts from Museum conferences and offers award-winning 
interactive materials for children, teachers, and families developed by 
its National Center for Science Literacy, Education, and Technology. 
The Museum's professional development program serves thousands of 
certified teachers and teachers-in-training each year, providing 
customized programs focused both on science content and ways to 
incorporate Museum resources into classroom curricula. The Museum has 
also developed an award-winning online professional development program 
called Seminars on Science, which allows hundreds of teachers across 
the country to work with Museum scientists on individual research 
projects and to discuss results and classroom applications with other 
participants.
    DHHS leads the nation's health-related research and genome science, 
advanced sequencing technologies, instrumentation, and facilities. The 
American Museum, in turn, is home to a preeminent molecular research 
effort and a leading science education and outreach program. Indeed, 
natural history and genomic science are intricately related. The AMNH 
molecular systematics program is at the forefront of comparative 
genomics and the analysis of DNA sequences for evolutionary research 
that are of critical importance to biomedical research and the 
application of genome science to health treatments. In the Museum's 
molecular laboratories, in operation now for 10 years, more than 40 
researchers in molecular systematics, conservation genetics, and 
developmental biology conduct genetic research on a variety of study 
organisms. Their work contributes to understanding the rate and extent 
of evolution, which is essential for using genomic research to improve 
medical treatment and predictive capabilities.
Frozen Tissue Collection
    The Museum is also expanding its collections to include preserved 
biological tissues and isolated DNA in its new super-cold storage 
facility. This collection is an invaluable resource for research in 
many fields including genetics, comparative genomics, and biomedicine 
because it preserves genetic material and gene products from rare and 
endangered organisms that may become extinct before science fully 
exploits their potential. Capable of housing one million specimens, it 
will be the largest super-cold tissue collection of its kind. Already, 
more than 5,500 specimens have been accessioned. To maximize use and 
utility of the facility for researchers worldwide, the Museum is 
developing a sophisticated website and online database that includes 
collection information and digitized images.
Bioinformatics Capability and Cluster Computing
    The Museum has exceptional capacity in parallel computing--an 
essential enabling technology for phylogenetic (evolutionary) analysis 
and intensive, efficient sampling of a wide array of study organisms. A 
560-processor cluster, constructed in-house from scratch by Museum 
scientists, is the fastest parallel computing cluster in an 
evolutionary biology laboratory and one of the fastest installed in a 
non-defense environment.
    Over the past 8 years, Museum scientists have taken a leadership 
role in developing and applying new computational approaches to 
deciphering evolutionary relationships through time and across species; 
their pioneering efforts in cluster computing, algorithm development, 
and evolutionary theory have been widely recognized and commended for 
their broad applicability for biology as a whole. Indeed, the 
bioinformatics tools Museum scientists are creating will not only help 
to generate evolutionary scenarios, but also will inform and make more 
efficient large genome sequencing efforts. Many of the parallel 
algorithms and implementations (especially cluster-based) will be 
applicable in other informatics contexts such as annotation and 
assembly, breakpoint analysis, and non-genomic areas of evolutionary 
biology, with invaluable biomedical applications possible in the 
identification and treatment of disease.
                   institute of comparative genomics
Research
    Building on its strengths in comparative genomics, and in concert 
with the health and education goals of DHHS and the Department of 
Education, the Museum established in 2001 an Institute for Comparative 
Genomics so as to contribute its unique resources and expertise to the 
nation's genomic research and education enterprises. The importance of 
comparative genomics to the nation's overall genomics research 
undertakings cannot be overstated. Conducting this type of research 
with a natural history perspective greatly enhances our understanding 
of the impacts of the knowledge we have gained from genomics and 
molecular biology.
    With the advent of DNA sequencing, museum collections have become 
critical baseline resources for the assessment of the genetic diversity 
of natural populations as well as for the pursuit of research questions 
pertinent to DHHS interests. Genomes, especially those of the simplest 
organisms, provide a window into the fundamental mechanics of life. One 
of the goals of the nation's genomic science research programs is to 
learn about the relevance to humans of nonhuman organisms' DNA 
sequences. This research can yield information that can be applied in 
solving critical challenges in health care. In short, work in 
comparative genomics will enrich our knowledge not only of 
biodiversity, but also of humans, medicine, and life itself. The AMNH 
comparative genomics program expects to provide vital contributions in 
these endeavors.
    Equipped with the parallel computing facility, molecular labs with 
DNA sequencers, ultra-cold storage units, vast biological collections, 
and researchers with expertise in the methods of comparative biology, 
the Institute is positioned to be one of the world's premier research 
facilities for mapping the genome across a comprehensive spectrum of 
life forms. Complemented by the Museum's extraordinary education and 
outreach capacity, the Institute will constitute a national resource of 
unique scope and range.
    Working cooperatively with New York's outstanding biomedical 
research and educational institutions, the Institute will focus on 
molecular and microbial systematics, expanding our understanding of the 
evolution of life on earth through analysis of the genomes of selected 
microbes and other non-human organisms, and constructing large genomic 
databases for a range of applications, including conservation biology. 
Research programs may include the evolution of critical organismal form 
and function based on genomic information, microbial systematics, and 
the use of broad scale comparative genomic studies to understand the 
function of important biomolecules.
    The Institute's scope of activities will include: an expansion of 
the molecular laboratory program that now trains dozens of graduate 
students every year; the utilization of the latest sequencing 
technologies; employment of parallel computing applications that allow 
scientists to solve combinatorially complex problems involving large 
real world datasets; and development of technology-based K-12 
curriculum materials, scientific conferences, and public exhibits.
    In developing the Institute, the Museum plans to expand its 
curatorial range in microbial work; grow the super-cold tissue 
collection; and draw on our exhibition and educational expertise to 
offer enhanced public education and outreach. Plans entail expanding 
and renovating lab space and facilities to accommodate additional 
curators and students. By renovating an area adjacent to one of the 
existing molecular labs and possibly building new space, the Museum 
will add lab and associated office and maintenance space to accommodate 
the growing Institute's needs.
Education Technology and Distance Education
    The Museum is committed to using its unique education and 
technology resources in innovative ways that help to promote the 
nation's education and understanding of genomics. It has already 
launched an ambitious agenda of genomics-related exhibition, 
conference, and public education programming, including the landmark 
exhibition, The Genomic Revolution, open from June through December 
2001. The exhibition, attended by approximately 500,000 visitors, 
examined the revolution taking place in molecular biology and its 
impact on modern science and technology, natural history, biodiversity, 
and our everyday lives. The exhibition will travel to several other 
venues throughout the United States. We have also hosted several 
conferences on important topics related to genomics: Sequencing the 
Human Genome: New Frontiers in Science and Technology, an international 
conference featuring leading scientists and policymakers in Fall 2000; 
Conservation Genetics in the Age of Genomics in Spring 2001; and New 
Directions in Cluster Computing in June 2001, which explored how 
parallel computing enables genomic science and other fields.
    Through cutting-edge education and exhibition technologies and 
distance learning applications, we propose to expand and diversify the 
reach of our genomics related professional development, educational 
materials, and exhibition-related programming throughout New York City, 
the region, and the country. Specifically, we plan to develop a suite 
of standards-based curricular materials and programs related to genome 
science for online distribution to educators nationwide; to adapt and 
extend our successful Seminars on Science model of online professional 
development courses for K-12 teachers nationwide in subjects related to 
genomics; to enhance exhibition technologies and include a focus on 
genomics in our Science Bulletins; and to pilot a distance education 
initiative live from the Museum's halls and classrooms that will 
include a selection of regular interactive classes, professional 
development mini-series, and special live events, all designed to 
promote genomics teaching and learning in New York City, the region, 
and the country.
    We seek $7 million in fiscal year 2003 to partner with DHHS and the 
Department of Education in furthering this important genomics research 
and education initiative--the Museum's Institute for Comparative 
Genomics.--In so doing, the Museum will contribute its participatory 
share with funds from nonfederal as well as federal sources, including 
funds raised through the Museum's own efforts from the City and State 
of New York as well as private contributions and foundations. As a 
federal partnership, we propose two interrelated approaches:
  --$5 million as a facilities/instrumentation and bioinformatics 
        program, building on our already extensive investments
  --$2 million as an education technology initiative to expand 
        professional development, create K-12 curriculum materials, and 
        launch online learning resources to promote teaching and 
        learning nationwide about genomic science.
    In partnership, the American Museum of Natural History and the 
Departments of Health and Human Services and Education will be 
positioned to leverage their unparalleled resources to advance shared 
goals for improving the nation's health and welfare and promoting its 
research and education in the genomics era.
                                 ______
                                 
    Prepared Statement of the National Association of Developmental 
Disabilities Councils (NADDC), Consortium of Developmental Disabilities 
     Councils (CDDC), and the Council on Developmental Disabilities
    When the 106th Congress reauthorized the Developmental Disabilities 
Assistance and Bill of Rights Act (Public Law 106-402), the authority 
for State Councils on Developmental Disabilities was increased to $76 
million in recognition of the significance of the work of these 
entities in each State and Territory. While Congress slightly increased 
the DD Council funding for fiscal year 2002, the current level of $69.8 
still falls far short of the needs. NADDC and CDDC urge the Congress to 
recognize the importance of this change with a commensurate increase in 
the fiscal year 2003 to $76 million for the State Councils on 
Developmental Disabilities.
                               background
    There are an estimated 4.5 million people with developmental 
disabilities in the United States, compared with the 1993 figure of 
more than 3 million individuals. These individuals are expected to need 
a combination and sequence of individually planned, special, 
interdisciplinary, or generic services, supports, or other assistance 
that is of lifelong or extended duration. By definition, the age of 
onset for a developmental disability is before the individual attains 
age twenty-two.
    The Developmental Disabilities Assistance and Bill of Rights Act 
was first enacted in 1963 as the Mental Retardation Facilities and 
Construction Act in response to the need for alternatives to large 
institutions. It has been expanded to meet the growing needs for 
community supports with each subsequent reauthorization. The Act 
provides the authority for funding in each State and Territory for a 
Council on Developmental Disabilities, a statewide Protection and 
Advocacy System and a University Center for Excellence in Developmental 
Disabilities Education, Research and Service (formerly the University 
Affiliated Programs).
    The Councils on Developmental Disabilities (Part B of the Act) are 
advocacy, capacity building, and systems change entities appointed by 
the Governor in each State and Territory. The Councils are charged with 
the responsibility of promoting the development of a comprehensive 
system of services and supports in each State and Territory, with the 
goal of increasing the independence, productivity, inclusion, 
integration and self-determination for individuals with developmental 
disabilities. The Act lists a number of optional areas of emphasis for 
Council activities. Councils can choose to work on issues related to 
quality assurance, child care, housing, transportation, recreation, 
education, employment, and health. They are required to strengthen, 
support and expand opportunities for individuals with developmental 
disabilities to receive and provide leadership training and to work in 
coalitions. They are also free to establish priorities outside of those 
prescribed in the Act to meet the unique needs of individuals with 
developmental disabilities in their own State or Territory.
    There are fifty-five Councils on Developmental Disabilities are not 
direct service providers. Rather, their charge is to encourage the 
creation of (1) a system of providers that deliver quality services and 
supports and (2) communities that are welcoming of individuals with 
disabilities throughout the State. Federal funding for these activities 
is administered by an agency also designated by the Governor. Sixty 
percent of the Council must be people with significant disabilities and 
their family members. The rest are state agency administrators, private 
providers, and members of the community. Together, this group develops 
and implements a statewide plan which lays out activities to enhance 
the lives of people with developmental disabilities through a variety 
of systemic change, capacity building and advocacy activities.
                           council activities
    The Councils are viewed as invaluable change agents in the States 
and have made a significant difference in the lives of individuals and 
their families across the nation. Best practices promoted by Councils 
have resulted in, among other accomplishments, strong early childhood 
programs; improvements in school services; access to real, inclusive 
jobs through supported employment; small business ownership; training 
and empowerment of self-advocates; addressing the crisis in the 
shortage of qualified direct care professionals; home ownership; 
accessible transportation systems; appropriate community activities for 
individuals with developmental disabilities as they become older; and 
tremendously important supports for families so they can remain healthy 
and intact.
    Councils must always remain abreast of changing times. Most 
recently, Councils across the country have been called on to address 
burgeoning community waiting lists; to plan for the huge demands that 
will be placed on the services by the aging baby boom generation--
including the loss of a large percentage of the service provider 
population as they reach retirement; and to face the challenges of 
abuse and neglect in a wide range of settings. In addition, Councils 
are attempting to assist States in their response to the Supreme 
Court's Olmstead decision, which mandates a substantial increase in 
community-based services and supports.
                                funding
    Table 1 reflects a 7-year funding history for the DD Councils. It 
is notable that this funding level has yet to return to the fiscal year 
1995 level, which was even then insufficient. Missing from this history 
are increases to keep pace with the growing needs in every State. With 
the fiscal year 2002 Federal investment in Council activities of $69.8 
million, the smallest 13 states receive just under $450,000 and the 
largest States receive $4 to $6 million, far less than needed to 
fulfill the promises of the DD Act. While Councils make impressive in-
roads with the small amount of funding they receive, there are many 
more critically-needed activities to advance the independence and 
inclusion of individuals with significant disabilities in every State.
                             recommendation
    In order to deliver these and the other activities that make such a 
difference in the lives of individuals with disabilities and their 
families, funding at $76 million for fiscal year 2003 is recommended.
    For additional information, contact:
    Mary Kelley (NADDC) 202-347-1234; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="274a4c424b4b425e67494643434409485540">[email&#160;protected]</a>; Ed Burke 
(CDDC) 540-428-1096; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d180d1f1e19191e3d1c1211531e1210">[email&#160;protected]</a>
 TABLE 1.--8-YEAR FUNDING HISTORY FOR STATE COUNCILS ON DEVELOPMENTAL 
                             DISABILITIES 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Prepared Statement of the Iowa Talented and Gifted Association
    Thank you for providing an opportunity for us to communicate to 
members of the Senate on the issues facing gifted students in the 
United States. The Iowa Talented and Gifted Association (ITAG) 
represents more than 10,000 students, their families, and teachers in 
the state of Iowa. As the Legislative Chair for ITAG and the Supervisor 
for the Des Moines Public Schools Gifted and Talented Education, (which 
includes half of the gifted students in the state of Iowa), I urge you 
as the Chairman of the Senate Appropriations Subcommittee on Labor, 
Health and Human Services, and Education to appropriate $25 million for 
the Javits Gifted and Talented Students Education Act in fiscal year 
2003. The increase in funds would go directly to the new grants for 
statewide activities, allowing additional states, such as Iowa, to 
receive desperately needed federal funds for teacher preparation, pre-
service education, programs specifically designed for under served 
populations and at risk youth, and other programs that the support the 
educational and social and emotional needs of gifted and talented 
students.
    Iowa has a history of excellence in education. We routinely produce 
top scholars in the nation. We also have a strong reputation as a state 
that welcomes refugees when they settle in the United States. The Iowa 
economy has not recovered from the recession; we have more students 
living in poverty in both rural and urban areas. The achievement gap 
that exists in Iowa is undeniable; the face of Iowa continues to 
change. All of these factors complicate gifted education except for the 
common denominator: we have a responsibility to meet the needs of the 
learners. As educators, we recognize the need for special funding for 
special programs for students with special needs. Students with unique 
and compelling circumstances cannot have their educational needs met 
without appropriately trained teachers and without opportunities to 
excel. There is a clear need for gifted education and talent 
development.
    An area in gifted education that is receiving attention pertains to 
the twice exceptional child. Gifted students who also have a learning 
disability or who are faced with other challenges equally deserve to 
have appropriate educational opportunities. Most teachers are required 
to take one class in special education before they become 
professionals. Gifted students and especially the twice exceptional 
children are often relegated to one chapter in a book. The very unique 
learning needs that this special population has demands that we offer 
better teacher preparation programs. In addition, the learning 
experiences of twice exceptional children must be very carefully 
tailored. A curriculum that allows high potential to develop is 
different for each gifted child.
    Increasing the funding for Javits will make a difference in the 
lives of children. Thank you for your strong support of gifted 
students.
                                 ______
                                 
       Prepared Statement of the National Head Start Association
    On behalf of the National Head Start Association, I am pleased to 
testify in support of fiscal year 2003 appropriations for the Head 
Start program, administered by the Department of Health and Human 
Services under the Subcommittee's jurisdiction.
    At the outset, let me share with you my concern over the recent 
action in Congress which threatens to allot to the annual 
appropriations process resources far short of those appropriate to 
expand our investment in answers to some of the nation's most critical 
needs--or to even maintain vital existing services at current levels.
    The National Head Start Association is a private nonprofit 
membership organization representing over 900,000 children and their 
families, 168,000 staff, in nearly 2,400 Head Start programs across the 
country, including over 550 Early Head Start programs and the more than 
40,000 children and families they currently serve.
     In this, the 37th year of Head Start, NHSA stands by the goal 
established by the Congress several years ago to enroll one million 
children in the Head Start program by the end of the coming fiscal year 
and doubling the number of infants and toddlers and their families 
enrolled in the Early Head Start initiative within that same time 
frame. At the same time, NHSA remains committed to keeping the promise 
made to low-income children and families by Presidents George H.W. Bush 
and Bill Clinton and by both Democratic- and Republican-controlled 
Congresses--namely, full funding of Head Start. Accordingly, NHSA 
requests the Subcommittee's favorable action on a fiscal year 2003 
appropriation for Head Start of $7.6 billion--an increase of $1.0 
billion over the fiscal year 2002 program funding level.
    This moment in our nation's history presents unique opportunities. 
Although our country is fighting a war against terrorism on foreign 
lands, we may be stronger at home than at any point in recent history. 
On September 11, Americans came to together as firemen, police 
officers, and rescue workers rushed to the scene to aid people trapped 
in the debris. In the following months, citizens from across the 
country volunteered their time and resources to help those in need. 
Head Start was borne from these same ideals--that the government 
working in partnership with citizens and their local communities could 
improve the quality of life for children and families. If there was 
ever a time in which the need for Head Start and for what it represents 
should be supported it is now. Now is the time to invest in our future. 
Now is the time to answer a need that has been long placed on hold. Now 
is the time to fill the gap for low-income children and families. No 
longer should we tolerate waiting lists for Head Start and quality 
early care and education programs. No longer need we put on hold the 
delivery of the American dream to infants and toddlers born to poverty.
    The 1998 reauthorization of Head Start called for marked 
improvements in the quality of professional development for the Head 
Start teaching staff, the quality of services provided to children and 
families, and working toward quantifiable goals--goals which recognized 
the primary importance of education at the forefront of the Head Start 
mission.
    We have improved the quality of our programs, assisting those local 
projects in need of guidance and training and defunding those that 
could not meet our high standards. We have moved toward improving the 
training and professional competency of our classroom and program 
staff. We have secured, improved, and built facilities appropriate for 
young children and families. And we have increased the educational 
attainment of Head Start graduates.
    This is not the time to retreat from our commitment to the full 
funding of Head Start--from the goal of providing every eligible low-
income child access to the type of services which will give them the 
opportunity to gain access to the American dream. And, this is not a 
time to be treading water. If the nation cannot rise to the occasion, 
investing our resources in our children, we will have failed ourselves 
as well as future generations. Our richness lies in our people. It 
always has.
    An increase of only a $130 million over the fiscal year 2001 
funding level, would force the abandonment of a number of important 
plans in Head Start--including the scheduled expansion of the Early 
Head Start program; training of teachers toward the goal of increasing 
credentials and college degrees such that at least one-half of all Head 
Start classrooms have a teacher with an Associate's, Bachelor's, or 
Master's degree by 2003; and bolstering our commitment to achieving 
education outcomes through the institution of research-based early 
childhood educational interventions.
    The funding levels NHSA endorses will ensure that services to 
infants and toddlers might expand without jeopardizing scheduled 
increases in Head Start preschool enrollment. In fact, we support 
efforts to permit current Head Start grantees to expand to serve the 
needs of infants and toddlers so long as such expansion does not deny 
services to qualifying preschoolers.
    Consistent with changes in public policy and growing needs in 
communities across the country, members of the National Head Start 
Association have expressed an interest in expanding services within 
their communities, when funds become available through annual 
appropriations, to serve infants and toddlers within the context of 
authority under the Head Start Act (other than the Early Head Start 
program authorized separately in the law).
    For many years, we have supported a seamless program of services to 
low-income families with children from birth through compulsory school 
age. This has become increasingly important with the advent of specific 
funding set-aside for Early Head Start, the move toward state-funded 
preschool, and recent publicity over the importance of earlier 
intervention in order to improve the lives of younger children and 
their low-income families.
    It is our belief that no legal impediment exists to permitting the 
program expansion we envision. Rather, we contend the only thing 
missing to permit this policy direction is the political will to make 
it happen. The expanded services we urge you to embrace presume 
compliance with program performance standards specific to the service 
of infants and toddlers, established local community needs, and 
approval by the Secretary.
    When combined with the new grant authority incorporated in the 1998 
reauthorization of Head Start for Early Head Start, expansion of 
existing Head Start programs to serve the needs of younger children is 
responsive to recent research emphasizing the developmental needs of 
younger children--and the needs of parents with infants and toddlers 
who are working part-and full-time in accordance with welfare reform. 
Needs that can be ably addressed through the Head Start model of 
comprehensive services.
    Another issue of concern to Head Start programs across the country 
is the need to extend services full day, full-year in response to the 
needs of parents who are working full-time as well as unconventional 
hours because of welfare reform. For example, many centers are 
currently open from 8:30 a.m to 2:30 p.m. Ideally, in order to respond 
to their working parents, they would like to expand hours from 7 a.m. 
to 7 p.m.
    Finally, the National Head Start Association urges the committee 
and your colleagues to help us to further respond to a changing world 
in light of welfare reform by working with us to encourage the 
Secretary of Health and Human Services to exercise his discretionary 
powers to relax limitations on the enrollment of over-income families 
in Head Start.
    Current law defines as eligible a family whose income is at or 
below the national poverty level, or who is receiving public assistance 
defined as regular support services provided under Temporary Assistance 
for Needy Families. Again, while NHSA is appreciative of the effort to 
clearly define public assistance, NHSA would like to see a uniform, 
nationwide approach to enrolling families and children who are in 
critical need of comprehensive services but whose state or county's 
criteria set for TANF eligibility still renders them ineligible for 
Head Start. These families' incomes may only be $500 over income 
guidelines but they have at-risk factors for remaining in poverty such 
as illiteracy, no job skills, little to no parenting skills, drug and/
or spousal abuse, and high-risk factors.
    The law permits the enrollment of a ``reasonable number'' of over-
income families to accommodate the working poor and near poor who 
desperately need Head Start services to maintain employability and 
self-sufficiency. During the last administration, Secretary Shalala 
interpreted ``reasonable number'' to permit over-income enrollment of 
up to 10 percent of total program enrollment. NHSA would like to see 
this flexibility expanded to as much as 25 percent of enrollment. This 
would solve a major problem as it relates to welfare reform. Under this 
arrangement, the working poor would still be eligible for Head Start 
and would have more time to become self-sufficient.
     The National Head Start Association appreciates this opportunity 
to reinforce the critical national interest served by supporting 
expanded Head Start funding. With your assistance, we can continue to 
make a difference in the lives of our most vulnerable children, 
families, and communities.
    In summary, we request:
  --Fiscal year 2003 appropriation of $7.6 billion--an increase of $1 
        billion over the fiscal year 2002 appropriation level;
  --Permitting the use of grant dollars for preschool grantees to 
        expand to meet the needs of families with infants and toddlers, 
        so long as qualified preschools are not denied services;
  --Supporting the use of grant dollars for full-day, full-year 
        services for currently enrolled children; and
  --Enhanced flexibility to allow for the participation of a larger 
        proportion of over-income children and families where needs 
        exist and extending services to these families in a community 
        would not deny services to income-qualified children and 
        families.
    Thank you for allowing NHSA to present issues of importance to the 
Head Start community before the committee.
                                 ______
                                 
    Prepared Statement of the National Science Teachers Association
    On behalf of the National Science Teachers Association (NSTA) and 
the Triangle Coalition for Science and Technology Education, we urge 
you to support full funding of $450 million for the Title II, Part B, 
Mathematics and Science Partnerships Program in the fiscal year 2003 
appropriations bill for the Department of Education.
    The new Mathematics and Science Partnerships program created in the 
No Child Left Behind Act will allow higher education institutions and 
K-12 school districts to create programs targeted specifically to 
address the needs of local science and mathematics educators. These 
merit-based partnerships among school districts; university science, 
engineering, and math departments; businesses; and educational 
organizations seek to improve teacher quality and student achievement. 
The partnerships will provide an opportunity to significantly improve 
the content knowledge and teaching skills of the nation's K-12 
mathematics and science teachers.
    This past year, Congress appropriated $12.5 million to begin the 
new Math and Science Partnerships program. However, H.R. 1 contains an 
authorization of $450 million for the partnerships. Until the program 
reaches a $100 million appropriation, it will continue to be a national 
grant program, which means that many states and local districts will 
never receive any funds. When the $100 million funding level is 
reached, the program becomes a formula grant program, and every state 
will receive Math and Science Partnership funds.
    Math and science education is in crisis and in critical need of 
improvements and continued reforms. If we do not invest heavily and 
wisely in rebuilding these two core strengths, America will be 
incapable of maintaining its global position long into the 21st 
century. Providing strong funding for math and science education 
through the Department of Education is critical because the department 
is the only federal agency charged with improving teacher quality and 
student achievement across all states and school districts.
    We urge Congress to fulfill its commitment to math and science 
education by supporting a $450 million appropriation in fiscal year 
2003 for the Math and Science Partnerships program (Title II, Part B) 
in the Labor-HHS-Education bill. Thank you for your consideration of 
our request and for your past support.
    Founded in 1944, the National Science Teachers Association is the 
largest organization in the world committed to promoting excellence and 
innovation in science teaching and learning for all. NSTA's current 
membership of more than 53,000 includes science teachers, science 
supervisors, administrators, scientists, business and industry 
representatives, and others involved in and committed to science 
education.
    The Triangle Coalition for Science and Technology Education 
represents more than 100 member organizations from three key 
stakeholders: business, education, and scientific and engineering 
societies. The Coalition provides a forum for these three sectors to 
work together to promote the improvement of science, mathematics, and 
technology education.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
    On behalf of the Quinaullt Indian Nation, we seek funding for a 
school construction project in the fiscal year 2003 Appropriations Bill 
for the Department of Education, Office of Impact Aid School 
Construction Account in the amount of $14.2 million.
    The Quinault Reservation, home of the Quinault Indian Nation (QIN), 
is located in Grays Harbor County in Washington State; a rural, 
isolated and economically deprived area. This is an area that shows 
persistently low-income levels and the demographics for the QIN are 
staggering. In 1999, 25 percent of the population was unemployed and 57 
percent of those working had incomes less that $25,000 per the Housing 
Needs Study for the Quinault Indian Nation conducted by Tom Phillips 
and Associates.
    Housing on our reservation is described as unhealthy and unsafe and 
is attributable to deteriorating conditions. In addition, many of the 
homes are too small for the size of the families. This coupled with 
high unemployment and low wages, translates into a very low tax base 
for federal dollars because of the tax-free status on most of the land 
in the Taholah District.
    In 1920 the Quinault Indian Nation decided to make a difference in 
the lives of our members for generations to come. That decision was to 
build and operate a public school on the Quinault Indian Reservation. 
In our vision, this school would provide quality, culturally relevant 
educational programs, services, resources and opportunities to members 
of our Nation.
    Today, the Taholah School District #77 symbolizes the legacy of 
that vision. The current enrollment at the Taholah School is 224 
students in grades K-12, as reported by the Grays Harbor Council of 
Governments 2000 Census Data.
    The village of Taholah lies in a tsunami danger zone. A ``tsunami'' 
is an unusually large sea wave produced by a seaquake or undersea 
volcanic eruption, generally referred to as a ``seismic sea wave''. The 
site of the village is barely above sea level. Experts have determined 
that sea level is rising because of global warming patterns. For the 
village of Taholah, tsunami is a health and safety risk factor that we 
must live with everyday.
    In 2001, the School building sustained structural damage from the 
February 28, 2001 Western Washington earthquake. The Taholah School 
Board of Education commissioned an assessment of the damages, which 
documented that the impact attributable to the earthquake included 
everything from damaged ceiling beams to cracks in the walls and floor 
surfaces.
    Latent construction defects in the 1991 addition have also been 
identified. The overall condition of the main building is poor and the 
other two connecting facilities are rated as fair to poor. While none 
of the damage warrants restrictions in building use at the present 
time, there are imminent health and safety concerns overshadowing the 
continued use of these structures.
    The locker/shower rooms, in the gymnasium, are unsatisfactory and 
fail to meet the State of Washington Health and Safety standards. The 
boiler has recently been repaired but is in need of being replaced.
    The K-8 section of the school has inadequate heating and cooling 
systems to allow for fresh air and adequate ventilation throughout the 
building. Again, the ventilation in this area does not meet State of 
Washington Health and Safety Standards. Flat roofing has failed and is 
in need of immediate replacement. Sloped, metal roofing is severely 
damaged due to leakage and has been a constant drain on maintenance 
staff and budget resources.
    This building poses a threat of endangerment to our students, 
faculty and our general tribal population. It has served as a multi-
functional facility spanning over several decades. And, as with any 
checkerboard, piece-meal structure, each time an addition has been 
made, the original structure has weakened with the construction of the 
add-ons.
       the reservation is in need of a new school: $14.2 million
    A long-term solution to the facility needs of this school district 
is what the Taholah School District is requesting from Congress.
    The Taholah School District is an impacted area and would normally 
be able to apply for federal impact aid funds from the Department of 
Education. Unfortunately, because of budgetary restraints, there have 
not been any additions to the list of priority sites for the past 7 
years. The existing list consists of some 200 applications that have 
been in abeyance during this period of time. According to staff at the 
impact aid office, they are in the process of developing a new 
application package that is not expected to be available until mid-
summer of 2002.
    In the State of Washington, a school district must be able to raise 
a predetermined amount of local funds to qualify for construction 
funding. It has been determined that the Taholah School District lacks 
the legal bonding capacity. The ability of the Taholah School District 
to provide capital funds from local efforts is hindered due to the 
limited assessed valuation. The assessed valuation is significantly low 
within the Quinault Indian Reservation because a very large portion of 
the land is in federal trust status and therefore not taxable. As you 
can see in Exhibit A, the Taholah School District is legally limited to 
raising only $1,444,802 via bonded indebtedness. And, as shown in 
Exhibit B, the legal bonding capacity of the Taholah School District is 
insufficient to meet the costs of the two main alternatives explored.
    It is important to note that should the patrons of the community 
approve a bond indebtedness at this level, such a burden will cost in 
excess of $11 per $1,000 assessed valuation over 30 years. Considering 
the economic status of this community, that burden is excessive and 
unfair.
    The Taholah School District is located on a site where the soil is 
unstable and not conducive to long-term structural support. Without 
outside financial assistance, the District lacks the legal financing 
capacity to build a new school at a new location.
    The Quinault Indian Nation is prepared to assist the Taholah School 
District by designating land on which a new school can be built.
    The health and safety of the Quinault children cannot be 
compromised. To abide time and to continue to put bandages where new 
brick and mortar should be is doing just that. The Taholah School 
District is dependent upon State and Federal support to operate our 
school and to maintain the quality of these facilities.
    We have no place to turn to but to you. Please help us to empower 
the current and future generations of young Quinaults with the 
knowledge they will need in order to be responsible adults. Help us to 
provide them with the tools they will need to get good jobs wherever 
they may choose.
    We would like to take this opportunity to thank you for considering 
this request.

Exhibit A.--The following is an analysis of the Taholah School District 
bonding capacity

Current Assessed Valuation of District..................     $28,896,032
Five Percent Maximum Bonded Indebtedness................       1,444,802
Current Indebtedness....................................................
                    --------------------------------------------------------
                    ____________________________________________________
      Total bonding capacity (2001).....................       1,444,802


           EXHIBIT B.--BONDING CAPACITY IS INSUFFICIENT TO MEET THE COSTS OF THE ALTERNATIVES EXPLORED
----------------------------------------------------------------------------------------------------------------
                                                                    Local cost
                                    Total cost      State match    (Total-State)  Bond  capacity    Difference
----------------------------------------------------------------------------------------------------------------
Renovation......................      $5,432,584      $1,351,563      $4,081,071      $1,444,802    <$2,636,269>
Replacement.....................      14,148,193       2,056,092      12,092,101       1,444,802    <10,647,299>
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                          summary of requests
    Summarized below are the fiscal year 2003 (fiscal year 2003) 
requests for the nation's 32 Tribal Colleges and Universities, which 
encompass three areas within the Department of Education and one in the 
Department of Health and Human Services, Administration for Children 
and Families' Head Start Program.
                     higher education act programs
    Strengthening Developing Institutions.--Section 316 under Title 
III, Part A, specifically supports Tribal Colleges and Universities. 
Within Section 316 there are two separate competitive grants programs: 
a) the basic program, and b) a program designed specifically to address 
the critical facilities and infrastructure needs at tribal colleges. We 
request that the section 316 programs be funded at $24 million, with 
$12 million designated for the facilities grants program.
    Additionally, under Title IV, we urge Congress to fund the Pell 
Grant Program at the highest possible level.
                    perkins vocational education act
    We support $7 million for the Tribally-Controlled Postsecondary 
Vocational Institutions under Section 117 and request report language 
reaffirming that this funding remain specific to the two Tribally 
Controlled Postsecondary Vocational Institutions: United Tribes 
Technical College and Crownpoint Institute of Technology. We also 
request that the language included in fiscal year 2002 be repeated, 
which states that Section 117 Perkins Grantees need not utilize 
restricted indirect cost rate.
    relevant title ix elementary and secondary education act (esea) 
                                programs
    American Indian Adult and Basic Education.--This title includes 
funding for much-needed adult education for American Indians, offered 
by tribal colleges, Indian tribes, institutions, state and local 
education agencies, and other agencies. We request the Subcommittee 
fund this program for Indian Adult and Basic Education at a minimum of 
$5 million.
    American Indian Teacher and Administrator Corps.--American Indian 
Teacher Corps and the American Indian Administrator Corps offer 
professional development grants designed to improve the quality of 
teachers and administrators serving American Indian communities. We 
request Congress support these programs at $10 and $5 million, 
respectively.
    Tribal Colleges and Universities Head Start Partnership Program 
(DHHS-ACF).--Tribal Colleges and Universities (TCUs) are an ideal 
partner to help Head Start achieve its goals in Indian Country. The 
TCUs are working hard to meet the Congressional mandate that 50 percent 
of Head Start teachers earn an associate degree in Early Childhood 
Development or a related discipline. We request $5 million be 
designated for the TCU-Head Start partnership program, to ensure the 
continuation of current programs and the resources necessary to fund 
additional tribal colleges partnership programs.
    Mr. Chairman and Members of the Subcommittee, on behalf of this 
nation's 32 Tribal Colleges and Universities, which comprise the 
American Indian Higher Education Consortium (AIHEC), we thank you for 
the opportunity to share our fiscal year 2003 (fiscal year 2003) 
funding requests for programs within the Department of Education, and 
The Department of Health and Human Services Head Start program.
    This statement will cover two areas (a) background on the tribal 
colleges, and (b) justifications for our funding requests.
                     background on tribal colleges
    The Tribal College Movement began in 1968 with the establishment of 
Navajo Community College, now Dine College, in Tsaile, Arizona. A 
succession of tribal colleges soon followed, primarily in the Northern 
Plains region. In 1972, the first six tribally controlled colleges 
established AIHEC to provide a support network for member institutions. 
Today, AIHEC represents 32 Tribal Colleges and Universities located in 
12 states, begun specifically to serve the higher education needs of 
American Indian students. Collectively, these institutions of higher 
education serve approximately 30,000 full-and part-time students from 
over 250 Federally recognized tribes.
    All tribal colleges offer 2-year degrees, and several institutions 
offer baccalaureate and graduate-level degrees. The majority of the 
tribal colleges are fully accredited by independent, regional 
accreditation agencies.\1\ In addition to college level programming, 
TCUs provide much needed high school completion (GED), basic 
remediation, job training, college preparatory courses, and adult 
education. Tribal colleges fulfill additional roles within their 
respective communities functioning as community centers, libraries, 
tribal archives, career and business centers, economic development 
centers, public-meeting places, and child care centers. Each TCU is 
committed to improving the lives of students through higher education 
and to moving American Indians toward self-sufficiency.
---------------------------------------------------------------------------
    \1\ The Tribal Colleges and Universities are accredited by regional 
accreditation agencies and must undergo stringent performance review on 
a periodic basis. The higher education division of the respective 
regional accreditation agency accredits twenty-seven of the TCUs. Two 
TCUs are at the Pre-candidate stage as they complete work to attain 
Candidate status; one TCU is at Candidate status. Two TCUs are 
accredited as ``Vocational/Adult Schools'' by the ``schools'' division 
of the respective regional accreditation agency.
---------------------------------------------------------------------------
    Tribal colleges provide needed access to higher education for 
American Indians and others living in some of this nation's most rural 
and economically depressed areas. These institutions, chartered by 
their respective tribal governments, were established in response to 
the recognition by tribal leaders that local, culturally-based 
education institutions are best suited to help American Indians succeed 
in higher education. TCUs combine traditional teachings with 
conventional postsecondary courses and curricula. They have developed 
innovative means to address the needs of tribal populations and are 
successful in overcoming long-standing barriers to higher education for 
American Indians. Since the first tribal college was established on the 
Navajo reservation, these vital institutions have come to represent the 
most significant development in the history of American Indian higher 
education, providing access to under-represented students and promoting 
achievement among students who may otherwise never have known 
postsecondary education success.
    Despite their remarkable accomplishments, tribal colleges are the 
most poorly funded institutions of higher education in the country. 
Grossly inadequate funding levels remain the most significant barrier 
to their success. Funding for basic institutional operations for 25 
reservation-based colleges is provided through the Tribally Controlled 
College or University Assistance Act (TCCUAA), Public Law 95-471. 
Funding was first appropriated through the Act in 1981, and is still 
less than two-thirds of its authorized level of $6,000 per full-time 
Indian student. In fiscal year 2002, these colleges receive $3,916 per 
full-time Indian student. While mainstream institutions have a 
foundation of stable state tax support, TCUs must rely on annual 
appropriations from the Federal government for their institutional 
operating funds. Because tribal colleges are located on federal trust 
territories, states have no obligation to fund them. In fact, most 
states do not even pay our colleges for the non-Indian state-resident 
students who account for approximately 20 percent of TCU enrollments.
    Inadequate funding has left many of our colleges with no choice but 
to operate under severely distressed conditions. Many colleges operate 
in surplus trailers; cast-off buildings; and facilities with crumbling 
foundations, faulty wiring, and leaking roofs. Sustaining quality 
academic programs is a challenge without a reliable source of 
facilities maintenance and construction funding.
    Today, one in five American Indians live on reservations. As a 
result of more than 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in abject poverty comparable to that found in Third 
World nations. Through the efforts of tribal colleges, American Indian 
communities receive services they need to reestablish themselves as 
responsible, productive, and self-reliant.
                             justifications
    Higher Education Act requests.--The Higher Education Act Amendments 
of 1998 created a separate section within Title III, Part A, 
specifically for the nation's tribal colleges (Section 316). The Aid 
for Institutional Development programs, commonly known as the Title III 
programs, support minority institutions and other institutions that 
enroll large proportions of financially disadvantaged students and have 
low per-student expenditures. Tribal colleges clearly fit this 
definition. Tribal colleges are among the most poorly funded 
institutions in America, yet they serve some of the most impoverished 
areas of the country. They fulfill a vital role providing access to 
quality higher education programs, which are specifically designed to 
focus on the critical, unmet needs of their American Indian students 
and communities. This funding will help the tribal colleges effectively 
prepare their students for the workforce of the 21st Century in a safe 
environment. We strongly urge the Subcommittee to correct this 
oversight and fund section 316--which is critical to the tribal 
colleges--at $24 million. We ask that $12 million of these funds be 
specifically designated for the competitive facilities and 
infrastructure improvement program, also administered under this 
section.
    The importance of Pell grants to our students cannot be overstated. 
Department of Education figures show that at least half of all Tribal 
College students receive Pell grants, primarily because student income 
levels are so low and our students have far less access to other 
sources of aid than students at mainstream institutions. Within the 
Tribal College system, Pell grants are doing exactly what they were 
intended to do--they are serving the needs of the lowest income 
students by helping people gain access to higher education and become 
active, productive members of the workforce. We urge you to fund this 
critical program at the highest possible level.
    Perkins Vocational Education Act.--Section 117 (addressing 
Tribally-Controlled Postsecondary Vocational Institutions) of the Carl 
D. Perkins Vocational and Applied Technology Education Act provides 
core funding for two of our member institutions: United Tribes 
Technical College in Bismarck, North Dakota, and Crownpoint Institute 
of Technology in Crownpoint, New Mexico. We support our member 
institutions' request of $7 million for the Tribally-Controlled 
Postsecondary Vocational Institutions under Section 117 and that the 
language included in fiscal year 2002 be repeated, stating that Section 
117 Perkins Grantees need not utilize restricted indirect cost rate.
        greater support of indian education programs under esea
    American Indian Adult and Basic Education.--This section supports 
adult education programs for American Indians that are offered by 
tribal colleges, state and local education agencies, Indian tribes, 
institutions, and agencies. The Tribal College Act only supports Indian 
students enrolled in postsecondary programs and therefore does not 
include funding for remediation and adult basic education. Yet, the 
tribal colleges must continue to provide basic adult education classes 
for their communities. Before many individuals can even begin the 
course work needed to learn a productive skill, they first must earn a 
GED or, in some cases, learn to read. According to a 1995 survey 
conducted by the Carnegie Foundation for the Advancement of Teaching, 
20 percent of the participating students had completed a tribal college 
GED program before beginning higher education classes at the tribal 
college. At some schools, the percentage is even higher. Lac Courte 
Oreilles Ojibwa Community College in Hayward, Wisconsin, for example, 
reports that nearly one-third of its students earned a GED through its 
tutoring and testing center. Clearly, the need for basic educational 
programs is tremendous, and tribal colleges need funding to support 
these crucial activities. Tribal colleges respectfully request that 
Congress appropriate $5 million in fiscal year 2003 to meet the ever-
increasing demand for basic adult education services.
    American Indian Teacher Corps.--American Indians are severely 
under-represented in the teaching and school administrator ranks 
nationally. These programs, aimed at producing new teachers and school 
administrators for schools serving American Indian students, support 
the recruitment, training, and in-service professional development 
programs of American Indians to become effective teachers and school 
administrators. We believe that the tribal colleges are the ideal 
catalysts for these initiatives because of our current work in this 
area and the existing articulation agreements TCUs hold with 4-year 
degree awarding institutions. We request Congress support these 
programs at $10 million and $5 million, respectively, to increase the 
number of qualified American Indian teachers and school administrators 
in Indian Country.
department of health and human services/administration for child, youth 
                        and families/head start
    Tribal Colleges and Universities (TCU) Head Start Partnership 
Program.--The TCU/Head Start partnership has made a lasting investment 
in our Indian communities by creating associate degree programs in 
Early Childhood Development and related fields. New graduates of these 
programs can help meet the Congressional mandate that 50 percent of all 
program teachers earn an Associate Degree in Early Childhood 
Development or a related discipline, by 2003. One clear impediment to 
the on-going success of this partnership program is the decrease in 
discretionary funding being targeted for the TCU/Head Start 
partnership. In fiscal year 1999, the first year of the program six 
TCUs received awards; in fiscal year 2000, $1 million was designated 
annually for each of the 3-years of the seven grants awarded (the total 
amount requested from 14 TCUs equaled $2,080,827). In fiscal year 2001, 
the duration of new grants was extended to 5-years but only $500,000 
was made available for the program. Only three additional TCUs were 
able to receive grants. The extension of the duration for new grants 
was a welcome change. We are hopeful that the current (1999 and 2000 
grantees) will be able to extend their existing grants to a total of 60 
months. The President's budget includes a request of $6,667,553,000 for 
Head Start Programs. We request Congress direct the Head Start Bureau 
to designate a minimum of $5 million for the TCU/Head Start Partnership 
program, to allow current grantees to extend their programs for 2 
additional years and to ensure that this vital program can continue and 
be expanded to serve all of our tribal college communities.
                               conclusion
    Fulfillment of AIHEC's fiscal year 2003 request will strengthen the 
mission of the Tribal Colleges and Universities, and contribute to the 
enormous, positive impact they have on their respective communities. 
Tribal colleges have been extremely responsible with the Federal 
support they have received over the last 21 years, and have proven 
themselves to be a sound Federal investment.
    Thank you again for this opportunity to present our funding 
requests. We respectfully ask the Members of this Subcommittee for 
their continued support and full consideration of our fiscal year 2003 
appropriations request.
                                 ______
                                 
    Prepared Statement of the National Indian Education Association
    The National Indian Education Association (NIEA) is the oldest and 
largest national organization representing the education concerns of 
over 3,000 American Indian, Alaska Native and Native Hawaiian 
educators, tribal leaders, school administrators, teachers, parents, 
and student members. NIEA would like to submit this statement on the 
President's fiscal year 2003 budget as it affects American Indian, 
Alaska Native and Native Hawaiian education.
    The federal government is responsible for only two school systems 
in this country--the schools of the Department of Defense (DOD) and 
those operated by the Department of Interior's Bureau of Indian Affairs 
(BIA). Ideally, these schools should be the state of the art' when it 
comes to education as federal policy, especially when major educational 
mandates are approved by Congress and the Administration. In terms of 
funding, DOD schools compare with BIA schools on a per pupil basis. In 
terms of academic success, however, BIA schools lag behind their 
counterpart. If you were to look at the education levels of American 
Indians thirty to 50 years earlier, you would find dropout rates 
approaching 100 percent in some areas and few graduates exiting high 
school. Even fewer still were attending college. The legacy of the 
boarding school era was still a factor and children who were removed 
from their parents were becoming parents themselves. All of these 
factors and the insistence of Indian people to retain their culture 
effectively countered termination and assimilation efforts, including 
those carried out by the Bureau of Indian Affairs.
    When you look at what has been the history of Indian education, 
Indian people have indeed come a long way over the last half century. 
All of the impediments that are now affecting academic achievement 
among American Indian students all have their history in the 
inconsistency of Indian education policy. Today is no different as in 
the signing of the recently passed No Child Left Behind Act (NCLB) 
which promises to up the ante and require higher levels of academic 
achievement among all students. How will Indian students fare under 
this scenario? For starters, Indian students are already being 
identified as being the lowest performers among all students. The 
Administration has made plans to privatize the lowest performing 
schools which equates to one third of the schools in the BIA system. 
How this initiative was conceived, the cost, and how Indian country was 
involved in the planning, are all factors into whether this plan will 
get off the ground. The legality of such a proposal is also in 
question. Indeed, in the long term, the administration is trying to 
help Indian communities, but is removing school governance the best 
way?
    According to the 1990 Census, there are 600,000 American Indian 
students in grades K through 12. Approximately eight percent (50,000) 
are educated through BIA schools on primarily Indian reservations. The 
majority of Indian students, however, attend public schools and are 
eligible for a number of education programs that are funded by the 
Department of Education. Specific programs for Indian students include 
those administered the department's Office of Indian Education. In 
terms of funding priorities, NIEA recommends targeted increases to the 
following programs with summaries on all programs benefitting Indian 
students.

           DEPARTMENT OF EDUCATION, OFFICE OF INDIAN EDUCATION
------------------------------------------------------------------------
                                       President's
                                         request          NIEA request
------------------------------------------------------------------------
Subpart 1, Grants to Local                $97,133,000        $97,133,000
 Education Agencies: LEAs.........
Subpart 2, Special Programs for
 Indian Children:
    Educational Services for               12,320,000         12,320,000
     Indian Children..............
    Indian Fellowships \1\........  .................          5,000,000
    Professional Development......  .................  .................
    Gifted and Talented Programs    .................          3,000,000
     \1\..........................
    Grants for Tribes for           .................          3,000,000
     Education Admin/Plan/Dev \1\.
    American Indian Teacher                 7,220,000          7,220,000
     Training.....................
    American Indian Administrator             360,000          3,000,000
     Initiative \1\...............
    Peer Review...................            100,000            100,000
                                   -------------------------------------
      Subpart 2, Subtotal.........         20,000,000         33,640,000
                                   =====================================
Subpart 2, Special Programs for     .................          5,000,000
 Indian Adults: Adult Education
 \1\..............................
National Activities: Statistics             5,200,000          5,200,000
 and Assessment...................
Subpart 3, Administration:
    Office of Indian Education....              (\2\)              (\2\)
    National Advisory Council on               50,000            600,000
     Indian Education (Est) \1\...
                                   -------------------------------------
      Office of Indian Education          122,333,000       141,573,000
       Total......................
------------------------------------------------------------------------
\1\ Programs NIEA is requesting increases for.
\2\ General Administration.

   department of education, office of indian education (oie) programs
    Formula Grants to LEAs. $97.1 million.--The Department estimates 
that this funding assists 421,000 Indian students attending public and 
42,000 students attending Bureau of Indian Affairs (BIA) schools for a 
total of 463,000.
    Special Programs for Indian Children. Increase from $20 million to 
$33.6 million.--The Special Programs category includes the following 
authorizations:
    (1) Improvement of Educational Opportunities for Indian Children--
$12.3 million;
    (2) Professional Development;
    (3) Fellowships for Indian Students (not currently funded)--NIEA 
recommends $5 million;
    (4) Gifted and Talented Education (not currently funded)--NIEA 
recommends $3 million;
    (5) Grants to Tribes for Education Administration Planning and 
Development (not currently funded)--NIEA recommends $3 million;
    (6) American Indian Teacher Training--$7,220,000; and
    (7) American Indian Administrator Initiative--Increase from 
$360,000 to $3,000,000.
    Special Programs for Indian Adults (Section 9131). Fund at $5 
million.--This program was last funded in 1995 when it received $5.4 
million for 30 projects to carry out educational programs specifically 
for Indian adults.
    National Activities. $5.2 million.-- This request would provide for 
research to augment the Year 2000 National Center for Education 
Statistics (NCES) Schools and Staffing Survey (SASS) and other data 
collection efforts. NIEA supports funding this activity through the 
Department's statistical agency, the National Center for Educational 
Statistics.
    National Advisory Council on Indian Education (NACIE). Increase 
from $50,000 to $600,000.--NACIE has been without an office since 1996. 
The fifteen-member Presidential council is authorized under the 1972 
Indian Education Act to advise the Congress and the Secretary of 
Education on the needs in Indian education. Given the recently approved 
consultation policy approved by Secretary Paige, reinstating the NACIE 
office would be appropriate.
 other department of education programs benefitting american indians, 
                  alaska natives and native hawaiians
    Amounts listed next to program are amounts expected to be received 
by BIA or non-BIA schools serving Indian students.
Title I Grants to LEAs
    Title I. $76 million.--The Title I program is designed with the 
recently passed No Child Left Behind Act in mind. Higher accountability 
standards are an integral part of the new law and will include Indian 
students attending BIA Schools. BIA and outlying regions receive one 
percent of the Title I grants to LEAs. Approximately all 50,000 Indian 
students in the Bureau system will benefit from Title I services. The 
administration is requesting $11.4 billion for Title I.
    Reading First State Grants. $5 million.--The Reading First State 
Grants Program is new under the No Child Left Behind Act. BIA receives 
0.5 percent of the State Grants funding. The Administration request for 
Reading First State Grants is $1 billion.
    Comprehensive School Reform. $1.6 million.--The Comprehensive 
School Reform programs funding for scientifically based research to 
help schools meet challenging State standards. One percent of the 
Department's $235 million request will assist BIA schools with school 
reform activities.
    Event Start. $3 million.--The Department is requesting $200 million 
for the Even Start program. The program incorporates early childhood 
education, adult literacy, parenting education, and parent/child 
literacy activities.
    Literacy Through School Libraries. $62,500.--This is a new program 
under the No Child Left Behind Act and is being requested at $12.5 
million. The program will help high-poverty school districts provide 
students with high-quality library services.
    Improving Teacher Quality State Grants. $14.2 million.--Funds are 
sued to strengthen the skills and knowledge of teachers and 
administrators to enable them to improve student achievement, 
development, and retention. The program consolidates the former 
Eisenhower Professional Development and Class-Size Reduction programs. 
The BIA will receive 0.5 percent of the $2.85 billion request.
    Safe and Drug-Free School and Communities. $4.75 million.--BIA 
schools will receive 1 percent of the State grants funding under this 
program to create and maintain drug-free, safe, and orderly 
environments to drug and violence prevention. The 2003 request is $4.75 
million. Native Hawaiians receive 0.2 percent of the program dollars 
for an approximate total of $994,000.
    Impact Aid. $519 million.--The Impact Aid program provides funding 
to LEAs under three separate categories including Basic Support, 
Payments for Children with Disabilities, and Construction. Fund are 
intended to help LEAs educate American Indian students attending their 
schools. Guidelines for parental involvement are an integral part of 
the program. Indian children generate 46 percent of the $1.140 billion 
Impact Aid request for fiscal year 2003.
  --Basic Support Payments ($462 million).--Basic Support Payment 
        provide the payments to LEAs in lieu of taxes for Indian 
        children residing on Indian lands or other federally- connected 
        lands which can't be taxed. Approximately 128,000 Indian 
        children living on Indian lands generate 40 percent of the 
        total Impact Aid allocation.
  --Payments for Children with Disabilities ($21 million).--Impact Aid 
        provides funding for special education-related services for 
        approximately 18,700 Indian children living on Indian lands 
        attending public schools. The Administration is requesting $50 
        million under this program.
  --Construction ($36 million).--Construction funds are included under 
        Impact Aid and provide $9 million in formula funds to districts 
        on behalf on students residing on Indian lands. An additional 
        $27 million is provided for competitive construction grants. 
        The administration request for construction is $45 million.
    English Language Acquisition $55 million.--This program is the same 
at the former Bilingual Education program and supports the education of 
limited English proficient students. A 0.5 percent set-aside is allowed 
for American Indian and Alaska Native children and equals approximately 
$5 million. An additional $50 million is estimated to serve Indian 
students enrolled in public schools.
    21st Century Community Learning Centers $7 million.--The No Child 
Left Behind Act converted this program from a national competition to a 
State formula grant program with State educational agencies. One 
percent is reserved for the BIA and outlying areas. The fiscal year 
2003 request of $1 billion would provide $7 million to the BIA.
    Education Technology State Grants $5.1 million.--The Education 
Technology State Grants program supports efforts to integrate 
technology into curricula to improve teaching and learning. One percent 
is available for the BIA and would equal approximately $5.1 million for 
BIA schools. The fiscal year 2003 request is $700 million.
    Grants for State Assessments $1.85 million.--The grants for State 
Assessments program helps states develop and implement the additional 
assessments required by the No Child Left Behind Act. With a 0.5 
percent set-aside, the BIA would receive approximately $1.85 million of 
the $387 million request.
    Education for Native Hawaiians $18.3 million NIEA recommends the 
fiscal year 2002 amount of $30.5 million).--Programs under this 
authority include curriculum development, teacher training and 
recruitment, higher education, special education, community-based 
learning centers, family-based education and gifted and talented 
programs.
    Alaska Native Education Equity $14.2 million NIEA recommends the 
fiscal year 2002 amount of $24 million).--Funding under this authority 
provide for student enrichment, preschool programs, teacher training 
and recruitment, and curriculum development.
    Education for Homeless Children and Youth $500,000.--The BIA 
received 1 percent of the $50 million request for educational services 
for homeless youth.
    Vocational Education $14.75 million for Indian And Alaska Native 
tribes and organizations, $2.95 million for Native Hawaiian 
organizations.--The BIA receives 1.25 percent of the State Grants under 
the Vocational Education program. The program supports academic, 
vocational, and technical skills of students in high schools and 
community colleges.
    Tribally Controlled Postsecondary Vocational and Technical 
Institutions $6.5 million.--Provides competitive grants for the 
operation and improvement of tribally controlled postsecondary 
vocational and technical institutions.
    Higher Education Aid for Institutional Development $24.7 million:
  --Strengthening Tribally Controlled Colleges and Universities ($18.1 
        million).--Authorized under this program are 1-year planning 
        and 5-year development grants that enable institutions to 
        improve and expand their capacity to serve American Indians 
        students.
  --Strengthening Alaska Native and Native Hawaiian-Serving 
        Institutions ($6.7 million).--Authorized under this program are 
        1-year planning and 5-year development grants that enable 
        institutions to improve and expand their capacity to serve 
        Alaska Native and Native Hawaiian students.
    Special Education $86.6 million:
  --Grants to States ($81.2 million).--The BIA is expected to receive 
        1.226 percent of the $8.5 billion Special Education Grants to 
        States appropriation. Approximately 8,500 Indian students in 
        the BIA system would be served with disability education 
        services.
  --Grants for Infants and Families ($5.4 million).--The BIA will 
        receive funding under the Grants for Infants and Families 
        authorization under the Special Education program.
    Vocational Rehabilitation ($26.8 million).--The Rehabilitation Act 
requires that between 1.0 percent and 1.5 percent of the funds 
appropriated under the State Grants program be set-aside for Indian 
tribes to provide vocational rehabilitation services to American 
Indians with disabilities living on reservations. The fiscal year 2003 
request for this program is $2.6 billion.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    The National Association for State Community Services Programs 
(NASCSP) thanks this committee for its continued support of the 
Community Services Block Grant (CSBG) and seeks an appropriation of 
$650 million for the state grant portion of the CSBG. The amount 
appropriated for the state grant portion in fiscal year 2002 was $650 
million. We are requesting flat funding this year in order to continue 
the efforts of the Community Services Network in assisting those 
families remaining on welfare with the intensive services they need to 
transition to work and to assist low-income workers in remaining at 
work through supportive services such as transportation and child care. 
These funds will continue to assist states in developing services in 
the 4 percent of counties that are not currently served by the CSBG.
    The fiscal year 2002 appropriation of CSBG included language 
regarding the distribution of the block grant at the state level. Each 
state had already employed an equitable funding formula that addressed 
the unique circumstances of the particular state. Many of the state 
funding formulas were state legislated. Passing national legislation 
regarding the distributions of the block grant at the state level 
preempts the prerogative of states to distribute the funds. NASCSP 
urges the committee to discourage the incorporation of authorization 
language in the appropriations act.
    NASCSP is the national association that represents state 
administrators of the Community Services Block Grant (CSBG), and state 
directors of the Department of Energy's Low-Income Weatherization 
Assistance Program.
                               background
    The states believe the Community Services Block Grant (CSBG) is a 
unique block grant that has successfully devolved decision making to 
the local level. Federally funded with oversight at the state level, 
the CSBG has maintained a local network of over 1,120 agencies which 
coordinate over $7 billion in federal, state, local and private 
resources each year. Operating in more than 96 percent of counties in 
the nation and serving over 9 million low-income persons, local 
agencies, known as Community Action Agencies (CAAs), provide services 
based on the characteristics of poverty in their communities. For one 
town this might mean providing job placement and retention services, 
for another developing affordable housing. In rural areas it might mean 
providing access to health services or developing a rural 
transportation system.
    Since its inception, the CSBG has shown how partnerships between 
states and local agencies benefit citizens in each state. We believe it 
should be looked to as a model of how the federal government can best 
promote self-sufficiency for low-income persons in a flexible, 
decentralized, non-bureaucratic and accountable way.
    Long before the creation of the Temporary Assistance for Needy 
Families (TANF) block grant, the CSBG was setting the standard for 
private-public partnerships that could work to the betterment of local 
communities and low-income residents. Family oriented, while promoting 
economic development and individual self-sufficiency, the CSBG relies 
on an existing and experienced community-based service delivery system 
of CAAs and other non-profit organizations to produce results for its 
clients.
        major characteristics of the community services network
    Locally directed.--Tri-partite boards of directors guide CAAs. 
These boards consist of one-third elected officials, one-third low-
income persons and one-third representatives from the private sector. 
The boards are responsible for establishing policy and approving 
business plans of the local agencies. Since these boards represent a 
cross-section of the local community, they guarantee that CAAs will be 
responsive to the needs of their community.
    Adaptability.--CAAs have demonstrated success in moving persons 
from welfare to work and in assisting low-income families in achieving 
self-sufficiency. CAAs provide a flexible local presence that governors 
have mobilized to deal with emerging poverty issues.
    Leveraging capacity.--For every CSBG dollar they receive, CAAs 
leverage $4.32 in non-federal resources (state, local, and private) to 
coordinate efforts that improve the self-sufficiency of low-income 
persons and lead to the development of thriving communities.
    Volunteer mobilization.--CAAs mobilize volunteers in large numbers. 
In fiscal year 1999, the most recent year for which data are available, 
the CAAs elicited more than 27 million hours of volunteer efforts, the 
equivalent of almost 13,000 full-time employees. Using the minimum 
wage, these volunteer hours are valued at more than $141 million.
    Emergency response.--CAAs are utilized by federal and state 
emergency personnel as a front line resource to deal with emergency 
situations such as floods, hurricanes and economic downturns. They are 
also relied on by citizens in their community to deal with individual 
family hardships, such as house fires or other emergencies.
    Accountable.--The federal Office of Community Services, state CSBG 
offices and CAAs have worked closely to develop a results-oriented 
management and accountability (ROMA) system. Through this system, 
individual agencies determine local priorities within six common 
national goals for CSBG and report on the outcomes that they achieved 
in their communities.
    The statutory goal of the CSBG is to ameliorate the effects of 
poverty while at the same time working within the community to 
eliminate the causes of poverty. The primary goal of every CAA is self-
sufficiency for its clients. Helping families become self-sufficient is 
a long-term process that requires multiple resources. This is why the 
partnership of federal, state, local and private enterprise has been so 
vital to the successes of the CAAs.
                        who does the csbg serve?
    National data compiled by NASCSP show that the CSBG serves a broad 
segment of low-income persons, particularly those who are not being 
reached by other programs and are not being served by welfare programs. 
Based on the most recently reported data, from fiscal year 1999:
  --70 percent have incomes at or below the poverty level; 47 percent 
        have incomes below 75 percent of the poverty guidelines. In 
        1999, the poverty level for a family of three was $13,880.
  --Only 48 percent of adults have a high school diploma.
  --31 percent of all client families are ``working poor'' and have 
        wages or unemployment benefits as income.
  --23 percent depend on pensions and Social Security and are therefore 
        poor, former workers.
  --Fewer than 15 percent receive cash assistance from TANF.
  --59 percent of families assisted have children under 18 years of 
        age.
                    what do local csbg agencies do?
    Since Community Action Agencies operate in rural areas as well as 
in urban areas, it is difficult to describe a typical Community Action 
Agency. However, one thing that is common to all is the goal of self-
sufficiency for all of their clients. Reaching this goal may mean 
providing daycare for a struggling single mother as she completes her 
General Educational Development (GED) certificate, moves through a 
community college course and finally is on her own supporting her 
family without federal assistance. It may mean assisting a recovering 
substance abuser as he seeks employment. Many of the Community Action 
Agencies' clients are persons who are experiencing a one-time 
emergency. Others have lives of chaos brought about by many overlapping 
forces--a divorce, sudden death of a wage earner, illness, lack of a 
high school education, closing of a local factory or the loss of family 
farms.
    CAAs provide access to a variety of opportunities for their 
clients. Although they are not identical, most will provide some if not 
all of the services listed below:
  --employment and training programs
  --transportation and child care for low-income workers
  --individual development accounts
  --micro business development help for low-income entrepreneurs
  --a variety of crisis and emergency safety net services
  --local community and economic development projects
  --housing and weatherization services
  --Head Start
  --nutrition programs
  --family development programs
    CSBG funds many of these services directly. Even more importantly, 
CSBG is the core funding which holds together a local delivery system 
able to respond effectively and efficiently, without a lot of red tape, 
to the needs of individual low-income households as well as to broader 
community needs. Without the CSBG, local agencies would not have the 
capacity to work in their communities developing local funding, private 
donations and volunteer services and running programs of far greater 
size and value than the actual CSBG dollars they receive.
    CAAs manage a host of other federal, state and local programs which 
makes it possible to provide a one-stop location for persons whose 
problems are usually multi-faceted. 60 percent of the CAAs manage the 
Head Start program in their community. Using their unique position in 
the community, CAAs recruit additional volunteers, bring in local 
school department personnel, tap into religious groups for additional 
help, coordinate child care and bring needed health care services to 
Head Start centers. In many states they also manage the Low Income Home 
Energy Assistance Program (LIHEAP), raising additional funds from 
utilities for this vital program. CAAs often administer the 
Weatherization Assistance Program and are able to mobilize funds for 
additional work on residences not directly related to energy savings 
that may keep a low-income elderly couple in their home. CAAs also 
coordinate the Weatherization Assistance Program with the Community 
Development Block Grant program to stretch federal dollars and provide 
a greater return for tax dollars invested. They also administer the 
Women, Infants and Children (WIC) nutrition program as well as job 
training programs, substance abuse programs, transportation programs, 
domestic violence and homeless shelters, food pantries, as well as 
gardening and canning programs.
                        examples of csbg at work
    CAAs and state CSBG offices work diligently to support families 
transitioning off of the Temporary Assistance for Needy Families (TANF) 
block grant. Since 1994 CSBG has implemented Results Oriented 
Management and Accountability practices whereby the effectiveness of 
programs is captured through the use of goals and outcomes measures. 
Below you will find positive outcomes achieved by individuals, families 
and communities as a result of their participation in innovative CSBG 
programs.
  --Of the 442 homeless households served at a community action agency 
        in Oregon, 80 received temporary housing to meet their 
        immediate needs and 212 obtained permanent housing in fiscal 
        year 2000.
  --98 percent of all individuals participating in a community action 
        income management program in Montana obtained and maintained 
        employment for 90 days in fiscal year 2000.
  --In Tulsa, Oklahoma the Individual Development Account (IDA) Matched 
        Savings Program at Community Action Project of Tulsa County 
        helped low-income people become more self-sufficient by 
        providing over 150 clients with the knowledge and means to 
        begin to accrue assets such as homes, small businesses or 
        capitalization, education or retirement.
  --As a response to the community's need the Fayette County Community 
        Action Agency in Pennsylvania established the Community Medical 
        Services clinic in 1997. This primary care center improves the 
        conditions in which low-income people live by providing a full 
        range of medical services including immunization, regular 
        exams, treatment of chronic conditions, and blood tests to 
        patients without health insurance.
  --A community action agency in Nebraska helped low-income families 
        maintain stable housing by improving the physical condition of 
        housing through the weatherization of 168 units in fiscal year 
        2000.
  --Since 1988 CAP Services, Inc. has helped over 130 low-income 
        clients own a stake in their own community and work toward 
        greater self-sufficiency by providing services which allow them 
        to start up and maintain micro-enterprises through the use of a 
        Virtual Business Incubator in the counties of Marquette, 
        Outagamie, Portage, Waupaca, and Waushara in Wisconsin.
  --Low-income clients in over 114 counties in Missouri received free 
        Earned Income Tax Credit (EITC) assistance through local 
        community action agencies. This resulted in over 1,500 low-
        income families with children receiving over $2.5 million in 
        refunds last year alone.
    NASCSP therefore urges this committee to maintain funding the CSBG 
grant to the states at $650 million.
                                 ______
                                 
           Prepared Statement of Fight Crime: Invest in Kids
    My name is Miriam Rollin, and I am the Federal Policy Director for 
the anti-crime group Fight Crime: Invest in Kids, which is made up of 
more than 1,500 police chiefs, sheriffs, prosecutors and victims of 
violence from across the country who have come together to take a hard-
nosed look at the research about what really works to keep kids from 
becoming criminals. I am also a former prosecutor.
    Government's most fundamental responsibility is to protect the 
public safety. In many cases, this requires capturing, trying and 
imprisoning those who have committed a crime. There is no substitute 
for tough law enforcement. But once a crime has been committed, lives 
have already been shattered. Those on the front lines in the fight 
against crime understand that we'll never be able to just arrest, try 
and imprison our way out of the crime problem. We can save lives, 
hardship and money by investing in programs that can keep children from 
growing up to become criminals in the first place.
    The members of Fight Crime: Invest in Kids have come together to 
issue a ``School and Youth Violence Prevention Plan'' that lays out 
four types of programs that research proves and law enforcement knows 
can greatly reduce crime. The plan calls for more investments in after- 
school programs, quality educational child care programs, services that 
can treat and prevent child abuse and neglect, and activities that get 
troubled kids back on track before it's too late.
    These investments are overwhelmingly supported by law enforcement. 
A poll of police chiefs nationwide conducted by George Mason University 
professors showed that 86 percent of chiefs believed that expanding 
after-school programs and educational child care would greatly reduce 
youth crime and violence. When asked to rate the value on a scale of 1 
to 5 of parent coaching programs for high-risk families, which are 
proven to reduce child abuse and neglect, 79 percent gave such programs 
a 1 or a 2 (with 1 being ``very valuable'' and 3 being ``valuable'').
    The chiefs were also asked which of the following strategies they 
thought was most effective in reducing youth violence: (1) providing 
more after-school programs and educational child care; (2) prosecuting 
more juveniles as adults; (3) hiring more police officers to 
investigate juvenile crime; or (4) installing more metal detectors and 
surveillance cameras in schools.
    Expanding after-school and educational child care was picked as the 
top choice by more than four to one over any other option. In fact, 
more chiefs chose ``expanding after-school programs and educational 
child care'' as ``most effective'' in reducing crime than chose the 
other three strategies combined. These chiefs are not alone. Dozens of 
state and national law enforcement associations have adopted 
resolutions highlighting the crime-fighting importance of quality child 
care, after-school programs, and programs that prevent abuse and 
neglect, including the Fraternal Order of Police, the Major Cities 
Chiefs organization, the National District Attorneys Association, the 
National Sheriffs Association, the Police Executive Research Forum, and 
in my own state, the Ohio Prosecuting Attorneys Association.
    Now I'd like to share with you specifically how this subcommittee 
can help prevent crime and violence.
                      expand after-school programs
    In the hour after the school bell rings, violent juvenile crime 
soars and the prime time for juvenile crime begins. The peak hours for 
such crime are from 3:00 to 6:00 PM. These are also the hours when 
children are most likely to become victims of crime, be in an 
automobile accident, have sex, smoke, drink alcohol, or use drugs.
    After-school programs can cut crime immediately by keeping kids 
safe and out of trouble during these dangerous hours. They can also cut 
later crime by helping participants develop the values and skills they 
need to become good, contributing citizens. In one study, students 
whose families were on welfare were randomly divided into two groups 
when they started high school. One group was enrolled in the Quantum 
Opportunities after-school program, which provided tutoring, mentoring, 
recreation, and community service programs and some monetary incentives 
to keep attendance up. The second group was left out of the program. 
When studied 2 years after the 4-year program ended, the group of boys 
left out of the program had six times more convictions for crimes than 
those boys provided with the program.
    In addition to saving lives, after-school programs save money. The 
Quantum Opportunities Program produced benefits to the public of more 
than $3 for every $1 spent on it, without even counting the savings 
from reductions in crime. Unfortunately, many communities do not have 
the resources to offer after-school programs. More than 10 million 
children lack adult supervision after-school. Our choice is simple: we 
can either send our children to after-school programs that will teach 
them good values and skills, or we can entrust them to the after-school 
teachings of Jerry Springer, violent video games or the streets.
    The 21st Century Community Learning Centers program (21st CCLC) 
awards grants to communities to establish and run after-school programs 
that provide educational enrichment opportunities for children and 
their families. This committee has recognized the importance of this 
program, and increased funding significantly in recent years. But 
demand for 21st CCLC is so great that thousands of quality grant 
applications have been turned down over the last few years due to a 
lack of funding. Congress and President Bush recently increased the 
authorization of 21st CCLC to $1.5 billion, and I hope you can fully-
fund that level for fiscal year 2003.
       expand and improve quality educational child care programs
    According to figures from the President's Administration, 62 
percent of young children are in the care of someone other than their 
parents during the workday. The question is: will it be stimulating, 
nurturing care that helps kids develop, or ``child storage'' with too 
few adults who have too little training and too many kids? To quote 
President Bush's new early childhood initiative, ``early childhood is a 
critical time for children to develop the physical, emotional, social, 
and cognitive skills they will need for the rest of their lives.'' The 
good news is that numerous studies of quality early childhood programs 
have shown that participants have better self-esteem, achievement 
motivation, social behavior, academic achievements, cognitive 
development, and grade retention than similar children who did not 
participate in such programs.
    What is equally important but less well-known is that quality 
educational child care programs can also significantly reduce the 
chances of a child growing up to become a criminal. A study published 
in the Journal of the American Medical Association last year 
demonstrated this. Over the last 30 years, Child-Parent Centers have 
provided school readiness child care to 100,000 3- and 4-year-olds in 
Chicago's toughest neighborhoods. The study examined outcomes at age 18 
for 1,000 of these children, and a matched group of 500 similar 
children who had not been enrolled in the Child-Parent Centers. The 
study showed that kids who did not receive the Child- Parent Centers' 
quality child care were 70 percent more likely to have been arrested 
for a violent crime by the time they reached adulthood. Kids left out 
of the program were also more likely to be held back in school, more 
likely to drop out, and less likely to graduate which are risk factors 
for later violence.
    The researchers estimated that the program will have prevented 
33,000 crimes including 13,000 violent crimes by the time all 100,000 
participants reach age 18. Clearly hundreds of thousands of crimes 
would be prevented each year if all families nationwide had access to 
programs like this. When our fight against crime starts in the high 
chair, it won't end in the electric chair. In addition to saving lives, 
these programs also save money. Counting only savings to government, 
the Chicago Child-Parent Centers returned almost $3 for every $1 
invested. Counting those government savings, savings to crime victims, 
and benefits to the participants in the program, the results are $7 
saved for every $1 invested.
    Unfortunately, millions of children are being left out of these 
types of programs. Without government help, such programs are just too 
expensive for low- and moderate-income families. In every state, the 
cost for an infant to attend a good child care center is higher than 
the cost of tuition at a public university. Adequate care for two 
children in a child care center can easily cost over $12,000 a year 
about $2,000 more than a full-time minimum-wage worker earns.
    Many working parents can't possibly pay these costs, any more than 
they could pay private school tuition if public schools were 
eliminated. Unfortunately, the crime-reduction and other benefits I 
described earlier only occur when children are able to participate in 
quality programs not programs that are simply ``child storage.'' We can 
no more afford to accept child care that is merely ``custodial'' than 
we could accept assigning some children to public schools that are 
``custodial'' rather than ``instructional.'' Clearly that is not what 
Congress or the President desires, given the recent enactment of the No 
Child Left Behind Act. This committee can make sure our children get a 
good start in life by increasing funding for the following programs.
    Head Start and Early Head Start provide comprehensive services to 
infants and young children from poor families. Head Start is so 
underfunded that it cannot serve more than 40 percent of the 3- and 4-
year-olds eligible for the program, while Early Head Start can serve 
less than 2 percent of those eligible. In addition, four in ten Head 
Start families need full-day, full-year services, but less than one in 
ten attend year-round programs, and only one in eight centers run full-
day programs. Few centers even operate after 5 p.m., which is 
problematic because about 25 percent of low-income workers have evening 
or over-night jobs. An increase of $1.0 billion in fiscal year 2003 
funding for this critical program is necessary to help send more 
children to school ready to learn.
    The Child Care and Development Block Grant (CCDBG) provides states 
with funds to help low-income working families afford child care. This 
program allows parents the flexibility to arrange child care that fits 
the needs of the family and can also be used for after-school 
activities. Unfortunately, this program is so underfunded that, 
according to estimates from the President's Administration, 70 percent 
of children eligible for child care benefits do not receive them. More 
funds are also needed to help increase the quality of child care 
programs in order to achieve crime-prevention results comparable to the 
ones I discussed earlier. An increase in funding of at least $1 billion 
for fiscal year 2003 is badly needed for this program.
    The Early Reading First program helps communities support preschool 
literacy activities and related professional development instructional 
materials and assessments. I'd like to commend President Bush for his 
leadership in creating this program last year, and I urge the committee 
to approve the President's request of $75 million for fiscal year 2003.
    The Early Learning Opportunities Act (ELOA) helps communities fund 
parenting-education programs and quality child development services to 
children under five. A fiscal year 2003 funding level of $125 million 
would help this young program grow, and bring its funding to a level 
that is still only a fraction of its authorization level.
           expand efforts to prevent child abuse and neglect
    Child abuse and neglect is a crime that keeps on hurting. It hurts 
innocent kids immediately. And too often, it starts a cycle of violence 
that leads to more crime, and sometimes more child abuse. Most kids who 
are abused or neglected grow up to become law-abiding citizens despite 
what they have gone through. But too many don't. Being abused or 
neglected multiplies the risk that a child will grow up to become a 
criminal a tragedy for the child, and also a tragedy for us all. The 
abuse inflicted in 1 year alone will ultimately result in tens of 
thousands of extra arrests for violence and hundreds of future 
homicides.
    The good news is that quality programs really work to prevent abuse 
and neglect. For example, the Nurse Family Partnership program randomly 
assigned half a group of at-risk mothers to receive visits by 
specially-trained nurses who provided coaching in parenting skills and 
other advice. Rigorous studies published in the Journal of the American 
Medical Association show the program cut abuse and neglect by 80 
percent in the first 2 years. Fifteen years after services ended, the 
mothers had only one-third as many arrests, and their children were 
only half as likely to be delinquent (compared to those who got no 
services).
    In nearly every state, child protective, foster care and adoption 
services lack adequate staff and training to prevent abuse, protect 
children and help those who have been maltreated get the nurturing care 
and treatment needed to help them heal. Agencies are so under-funded 
that many abuse and neglect reports can't even be investigated. 
Congress has the opportunity to help communities with these efforts 
through a number of different programs this committee oversees.
    The Social Services Block Grant (SSBG) is the federal government's 
single largest support for child abuse and neglect-related services. 
Its helps states fund a variety of activities including foster care, 
adoption and child protective services. Unfortunately, funding for this 
program has been cut by almost 40 percent from what was promised in 
1996. Bipartisan legislation in the Senate, endorsed by President Bush, 
would restore SSBG to its previously-authorized level of $2.8 billion. 
I hope this committee will support this level for fiscal year 2003.
    The Promoting Safe and Stable Families program (PSSF) funds 
community-based services that prevent child abuse and neglect through 
parenting-education activities, family strengthening services for 
troubled families, adoption services, and other preventive programs. 
Just this winter, Congress approved a new authorization for this 
program of $200 million in discretionary spending, and President Bush 
has requested this amount in his budget. I hope you can make good on 
that promise and appropriate the fully authorized amount for fiscal 
year 2003.
    The Chafee Independent Living program was amended with the 
reauthorization of PSSF to create a new education and training voucher 
program for youth aging out of foster care, at a level of $60 million a 
year. President Bush has requested full funding of this program for 
fiscal year 2003, and I hope you will support that amount.
    The Child Abuse Prevention and Treatment Act provides funds to 
states to support prevention, assessment, investigation, prosecution, 
and treatment. Unfortunately, it is currently funded at only half of 
its authorized level. That doesn't even take into account the 
authorization increases recently passed by the House. Please fully fund 
this program at $166 million for fiscal year 2003.
                  help troubled kids get back on track
    When children are disruptive or troubled, it is a warning signal 
that it is time to start looking for causes, and to provide the proven 
social skills training, counseling or other services that can lead the 
children back to a healthier path. One of the best ways to reach 
troubled kids before its too late is through drop-out prevention 
programs. Research demonstrates that drop-outs are more likely to 
commit crimes than high school graduates. In one study, males who 
dropped out before age 15 had their odds of becoming involved in 
violence more than triple. This is not surprising, since dropping out 
has the short-term effect of leaving youngsters unsupervised on the 
streets, and the long-term impact of leaving teens and adults without 
the skills they need to make an honest living. In fact, drop-outs 
comprise a disproportionate percentage of the nation's prison and death 
row inmates.
    The Drop-out Prevention program recently created by Congress as 
part of the new education law supports effective, sustainable and 
coordinated drop-out prevention and reentry programs that include 
remedial education, counseling and mentoring for at-risk students. This 
program is authorized to receive $125 million in fiscal year 2003. I 
hope you can appropriate this full amount.
    In conclusion: every day that we fail to invest adequately in 
quality early childhood education and care, after-school activities, 
programs that prevent child abuse and neglect, and efforts to get 
troubled kids back on track, we increase the risk that you or someone 
you love will fall victim to violence.
    I'm here to ask you to pay attention to this plea from the people 
on the front lines in the fight against crime: Invest in America's most 
vulnerable kids now, so they won't become America's Most Wanted adults 
later.
    Thank you for this opportunity to provide written testimony to your 
Subcommittee.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI) and 
its more than 200 member tribal nations, we are pleased to have the 
opportunity to present written testimony on fiscal year 2003 
appropriations for the Departments of Labor, Health and Human Services, 
and Education.
    The tragic events of September 11 brought forth the strength and 
the determination of our nation to survive in the face of adversity. It 
is this same spirit that has carried Indian Country through years of 
annihilation and termination. It is this same spirit that has propelled 
Indian Nations forward into an era of self-determination. And it is in 
this same spirit of resolve that Indian Nations come before Congress to 
talk about honoring the federal government's treaty obligations and 
trust responsibilities throughout the fiscal year 2003 budget process.
    The federal trust responsibility represents the legal obligation 
made by the U.S. government to Indian tribes when their lands were 
ceded to the United States. This obligation is codified in numerous 
treaties, statutes, Presidential directives, judicial opinions, and 
international doctrines. It can be divided into three general areas--
protection of Indian trust lands; protection of tribal self-governance; 
and provision of basic social, medical, and educational services for 
tribal members.
    NCAI realizes that Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that members of Congress must weigh over the 
coming months. However, the fact that the federal government has a 
solemn responsibility to address the serious needs facing Indian 
Country remains unchanged, whatever the economic or political climate 
may be. We at NCAI urge you to make a strong commitment to meeting the 
federal trust obligation by fully funding those programs that are vital 
to the creation of vibrant Indian Nations. Such a commitment, coupled 
with continued efforts to strengthen tribal governments and to uphold 
the government-to-government relationship, will truly make a difference 
in helping us to create stable, diversified, and healthy economies in 
Indian Country.
    NCAI's statement focuses on our key areas of concern surrounding 
the President's budget request. Of course, there are numerous other 
programs and initiatives within the Labor-HHS-Education appropriations 
bill that are important to American Indians and Alaska Natives. 
Attached to this testimony is a breakdown of key programs for which we 
urge your support at the highest possible funding level as the 
appropriations process moves forward.
                          department of labor
    The Census Bureau's Poverty in the United States for 2000 showed 
that American Indians and Alaska Natives remain at the bottom of the 
economic ladder--with 25.9 percent of our population falling below the 
poverty line. This compares to an 11.9 percent poverty rate for all 
races combined. Today, unemployment rates in Indian Country are the 
highest in the nation, sometimes topping 50 percent.
    In the face of the demonstrated need to support effective 
employment and training programs in Indian Country, NCAI is extremely 
concerned about the effects of the proposed $1.1 billion cut to 
discretionary programs within the Department of Labor. Specifically, we 
call upon Congress to reject the following programmatic reductions:
  --Workforce Investment Act (WIA).--The WIA was signed into law in 
        August 1998, replacing the former Job Training Partnership Act 
        (JTPA). The President has proposed a $2 million cut to the $57 
        million currently provided for the Indian comprehensive 
        services program, which funds tribes and off-reservation 
        organizations to provide services to Native American youth and 
        adults.
  --Youth Opportunity Grants.--The budget would slash funding for the 
        Youth Opportunity Grant (YOG) program from $225 million to $44 
        million. Native American grantees serving reservation areas and 
        Alaska Natives are eligible to apply for funding under this 
        competitive program. The YOG program brings together the 
        knowledge and resources of government, community and faith-
        based organizations to solve the problems of some of the 
        nation's most deeply disadvantaged communities, helping them to 
        build a more promising future for their young people. Thirty-
        six communities across the county received YOG awards in 
        February 2000, including six Native American communities.
                department of health and human services
Administration for Native Americans
    The ANA is playing a key role in helping to move numerous tribal 
programs from federal dependency to developing and implementing their 
own locally-driven projects. ANA continues to serve a large and diverse 
base of Native American communities and organizations, many of which 
have little in the way of resources and lack sustainable economic 
development opportunities.
    ANA administers its basic grant program in four distinct 
categories--social and economic development strategies (SEDS), Alaska-
Specific SEDS, environmental regulatory enhancement, and Native 
language preservation and revitalization.
    The SEDS program includes a wide range of governance projects 
allowing for tribal constitution revisions and codes/ordinance 
development, social projects that are based on maintaining and 
fostering cultural traditions, and economic development projects 
covering a wide range of areas. These economic development projects 
include not only the development of new enterprises but also the 
expansion of existing successful businesses. The majority of economic 
development projects are planning grants for architectural and 
engineering costs or grants that provide for economic development 
infrastructure.
    The President's budget has proposed a $1 million cut to the ANA, 
from $46 million to $45 million. We urge you to reject this cut and to 
increase funding to the ANA so that it may assist even more tribal 
governments in building their administrative capacities and 
infrastructures.
Administration on Aging
    Without exception, our tribal cultures teach us to honor and 
respect Indian elders so that our elders--the living expression of our 
heritage and highest values--can be teachers to us and to our children.
    Aging Grants for Native Americans promote the delivery of 
supportive services, including nutrition services, to older American 
Indians, Alaska Natives, and Native Hawaiians. Funding for this program 
provides key ``front-line'' services for over 200 programs serving 
reservation elders, including congregate and home-delivered meals, 
transportation, and a wide variety of other services. In recognition of 
the fact that grantees report significant increases in the number of 
elders eligible for the service, the Administration has proposed a $2 
million increase for this program, to $27.7 million. We are in strong 
support of this request, which is long overdue in light of the growing 
population of Native elders, and further urge that at least $30 million 
be appropriated for fiscal year 2003.
    We also are pleased that the Administration has proposed 
continuation of the current $5.5 million for Native Americans under the 
Family Caregivers program, which will provide information, respite 
care, and other support services to 250,000 families caring for loved 
ones who are ill or disabled.
Homeland Security
    Tribes are very concerned about their exclusion from homeland 
security planning and appropriations. Tribal lands are adjacent to 
hundreds of miles of international border, and many reservations are 
home to energy generation plants and other sensitive areas that require 
special protection. Tribal sovereignty requires that issues of mutual 
security between the federal government and tribes be handled directly 
between these two levels of government. We support a direct 
appropriation to tribes of homeland security resources funded through 
the Department of Health and Human Services, including those provided 
to HRSA, CDC, and SAMHSA.
                        department of education
    Most Indian students attend public schools and are eligible for a 
number of education programs that are funded by the Department of 
Education, including those administered the Department's Office of 
Indian Education. In light of the Administration's pledge to ``Leave No 
Child Behind,'' NCAI is disappointed that the Administration has level-
funded most of the programs within the Office of Indian Education, and 
joins the National Indian Education Association in recommending the 
following funding levels for Office of Indian Education programs:
  --Formula Grants to LEAs ($97.1 million).--The Department estimates 
        that this funding assists 421,000 Indian students attending 
        public and 42,000 students attending Bureau of Indian Affairs 
        (BIA) schools for a total of 463,000.
  --Special Programs for Indian Children ($33.6 million).--Funds should 
        be allocated as follows: Improvement of Educational 
        Opportunities for Indian Children/Professional Development 
        ($12.3 million); Fellowships for Indian Students ($5 million); 
        Gifted and Talented Education ($3 million); Grants to Tribes 
        for Education Administration Planning and Development ($3 
        million); American Indian Teacher Training ($7.2 million); 
        American Indian Administrator Initiative ($3 million).
  --Special Programs for Indian Adults ($5 million).--This program was 
        last funded in 1995 when it received $5.4 million for 30 
        projects to carry out educational programs specifically for 
        Indian adults.
  --National Activities ($5.2 million).--This request would provide for 
        research to augment the Year 2000 National Center for Education 
        Statistics (NCES) Schools and Staffing Survey (SASS) and other 
        data collection efforts. NCAI supports funding this activity 
        through the Department's statistical agency, the National 
        Center for Educational Statistics.
  --National Advisory Council on Indian Education ($600,000).--NACIE 
        has been without an office since 1996 and is currently funded 
        at $50,000. The fifteen-member Presidential council is 
        authorized under the 1972 Indian Education Act to advise the 
        Congress and the Secretary of Education on the needs in Indian 
        education. Given the recently approved consultation policy 
        approved by Secretary Paige, reinstating the NACIE office would 
        be appropriate.
                               conclusion
    Thank you for this opportunity to present written testimony 
regarding Labor-HHS-Education programs that benefit Indian Country. The 
National Congress of American Indians calls upon Congress to fulfill 
the federal government's fiduciary duty to American Indians and Alaska 
Native people. This responsibility should never be compromised or 
diminished because of any political agenda or budget cut scenario. 
Tribes throughout the nation relinquished their lands and in return 
received a trust obligation, and we ask that Congress maintain this 
solemn obligation to Indian Country and continue to assist tribal 
governments as we build strong, diverse, and healthy nations for our 
people.
                                 ______
                                 
           Prepared Statement of the City of Miami Beach, FL
    On behalf of the City of Miami Beach, FL, I appreciate the 
opportunity to submit this written testimony to you today on two 
extremely important initiatives, currently underway within our city. We 
respectfully request your consideration of these projects for funding 
from your fiscal year 2003 appropriations legislation.
  --Miami Beach Cultural Arts Initiative.--The City of Miami Beach is 
        requesting assistance in the amount of $1 million from the IMLS 
        program to continue the City's efforts to support programming 
        and training opportunities for performing and visual arts 
        organizations in Miami Beach, and to support local museum and 
        educational initiatives.
    The City Miami Beach is the region's most powerful generator of 
tourism, culture, and recreation, and internationally regarded as 
Florida's preeminent cultural city. The arts in Miami-Dade County have 
an estimated annual impact of $538 million. In 2000, Miami Beach became 
a self-designated arts city; sign at major City entrances welcome 
visitors to our ``ArtsBeach.'' Perhaps only Rio de Janeiro surpasses 
Miami Beach as a culturally sophisticated, tropical seaside resort. The 
arts are thriving in Miami Beach and are generating significant 
benefits in economic development, cultural tourism, and quality-of-life 
for the community.
    Many of Florida's major cultural institutions are based in Miami 
Beach, among them the Wolfsonian-FIU (recently cited as one of the 
world's ten best small museums), New World Symphony (America's 
orchestral academy directed by Michael Tilson Thomas, conductor of the 
San Francisco Symphony), Miami City Ballet, ArtCenter/South Florida, 
Jewish Museum of Florida, and Bass Museum of Art. The City owns several 
performance venues, including the Jackie Gleason Theater of the 
Performing Arts, and Colony Theater, the latter of which was recognized 
by Congress as one of America's Treasures. Major performances are 
mounted in these venues and on the beach itself by cultural groups 
supported by the City of Miami Beach, including Miami Light Project, 
Concert Association of Florida, Rhythm Foundation, Tigertail 
Productions, Florida Grand Opera, and six annual film festivals. In the 
historic district of South Beach, the City is developing the Collins 
Park Cultural Center, home to the Miami City Ballet, Bass Museum of Art 
(with its recent $8 million expansion), and the future Miami Beach 
Regional Library. Art Basel, the Swiss-based ``Superbowl of 
contemporary art shows'' (New York Times), has selected Miami Beach for 
its first annual fair outside Switzerland. Art Basel Miami Beach is 
expected to become the dominant contemporary art fair of North and 
South America when it debuts in December 2002.
    The Miami Beach Cultural Arts Council was created in 1997 to 
develop, coordinate, and promote the performing and visual arts groups. 
It accomplishes this mission by serving as arts advocates before 
governmental bodies, by coordinating marketing programs, by funding 
not-for-profit arts organizations, by promoting international cultural 
tourism to the City, and more. Since 1997, the Council has awarded 
nearly $3 million to some eighty not-for-profit arts groups, and joined 
economic forces with the Miami Beach Visitor and Convention Authority 
(VCA) and the Miami-Dade Department of Cultural Affairs to award grants 
for Beach-based cultural events and to help promising local arts groups 
develop. The Council is comprised of eleven spirited and knowledgeable 
Beach residents who express their commitment to the community through 
their involvement with the Council. All are volunteers appointed though 
a highly competitive process by the Mayor and City Commission for 3-
year terms with limits of 6 consecutive years. Its two full-time staff 
are City employees. The Council regularly meets with hundreds of 
community advisers and grants panelists who serve on its various 
committees, as well as with its constituents.
    Cultural arts grants are awarded through an annual competitive 
process involving peer review to eligible organizations, i.e., local, 
not-for-profit corporations producing or presenting visual or 
performing arts in the City of Miami Beach. Since its inception, the 
Miami Beach Cultural Arts Council has awarded the following grants:

1998-1999--awarded to 55 groups...............................  $509,000
1999-2000--awarded to 56 groups...............................   585,000
2000-2001--awarded to 58 groups...............................   958,000
2002-2003--awarded to 71 groups...............................   672,000

    Another key component of the Miami Beach cultural scene is the 
Miami Beach Arts Trust, a not-for-profit corporation created by the 
Miami Beach Cultural Arts Council in 1999. The Arts Trust supports the 
work of the Arts Council by working to build a financial endowment for 
the arts in Miami Beach. The City recently purchased vacant movie 
theater in North Beach for a multi-million dollar renovation project 
that will transform it into the Byron-Carlyle Arts Center/North Beach 
Cultural Facility. Four not-for-profit groups recently relocated to the 
reconfigured lobby, as work continues in the remainder of the facility.
    In 2000, the Cultural Arts Council launched a free, monthly 
citywide cultural arts night called ``ArtsBeach Second Thursdays.'' 
This is a free celebration of the arts on the second Thursday of every 
month from 6 to 9 p.m. in many different locations throughout Miami 
Beach. All cultural groups supported by the City participate throughout 
the year. The series attracts thousands of participants, with the first 
hour featuring events for children.
    Because of the high demand for information about cultural 
activities in Miami Beach, the City created two popular non-commercial 
websites under the aegis of the Arts Council: ArtsBeach.com and 
2ndThursdays.com. These sites have global reach and response, with tens 
of thousands of hits a month.
    Educational institutions are also an important part of the City's 
cultural scene, as illustrated by Florida International University's 
partnership with the Wolfsonian Museum. The City of Miami Beach has 
placed high priority on development of the arts through educational 
institutions, not only at the university level, but in primary and 
secondary education as well.
    The cultural arts played a key role in the development of Miami 
Beach's South Beach area into an international economic phenomenon. The 
creative atmosphere the arts established in the City made Miami Beach 
the ideal location for film and fashion production which ultimately 
brought multi-national entertainment companies to Miami Beach when they 
looked to expand their operations into the Americas. The City is now 
houses over 135 entertainment industry firms, including the Latin 
American headquarters of companies such as Sony, MCA, MTV, Nickelodeon, 
Elite Models, ASCAP, and LARAS, the Latin American operations of the 
NARAS, the National Academy of Recording Arts and Sciences. Along with 
the renourishment of the City's beaches and the redevelopment of the 
Art Deco Historic District, the development of the arts remains one of 
the most important ingredients behind South Beach's re-emergence as one 
of the world's most important tourist destinations.
    A recent study conducted by the Economics Department of Florida 
International University established that the performing arts provide 
Miami Beach with the highest economic impact multiplier of all sectors 
studied, meaning that dollar for dollar, more impact is generated in 
the local economy per dollar invested in performing arts than any other 
sector. The challenge for cities such as Miami Beach is providing a 
large enough investment from which the local economy can receive the 
biggest ``bang for the buck.''
    Miami Beach is a leader in the continued role that the State of 
Florida plays to ensure that the United States remains competitive in 
the international economy, not only in the arts and tourism, but in all 
sectors, especially as South Florida, with Miami Beach at its 
epicenter, emerges as the Capital of the Americas. In order to help 
maintain Miami Beach's role in the 21st Century, the continued 
investment in quality cultural activities is necessary. To this end, 
the City of Miami Beach is requesting a commitment of $1 million to the 
City's efforts to support programming and training opportunities for 
performing and visual arts organizations in Miami Beach, and to support 
local museum and educational initiatives.
                                 ______
                                 
 Prepared Statement of Crownpoint Institute of Technology, Crownpoint, 
                                   NM
    This testimony addresses appropriations under The Carl D. Perkins 
Vocational Education Act, Section 117 ``Tribally Controlled Vocational 
and Technical Institutions.''
    On behalf of the Crownpoint Institute of Technology, (CIT), I thank 
this Subcommittee for appropriating operational funds to Section 117 on 
the amount of $6.5 Million for fiscal year 2002, which is forward 
funded and will be awarded among eligible institutions by the 
Department of Education for the upcoming academic year (2002-2003). 
Most importantly, on behalf of all of CIT's current and future 
students, I thank the Subcommittee for its technical amendments in 2001 
through the Emergency Supplemental Appropriations process. These 
critical Subcommittee interventions clarified the intent of the 
Congress to the Department, and in so doing, enabled CIT to remain in 
operation. It has been CIT understands from the Congress that this 
amendment provided a solution that would be effective for the duration 
of the Carl Perkins authorization. However, the Department advises CIT 
that the Department interprets this amendment to be for the current 
year only. We ask this Subcommittee's assistance in providing the 
necessary clarification to the Department.
    Because the division within the Department of Education that 
administers Section 117 primarily administers competitive supplemental 
grants, such as Section 116 for tribes and tribal colleges, we believe 
that the Department does not fully understand the intent of the 
Congress in creating Section 117. This provision, Tribally Controlled 
Postsecondary Vocational Institutions, was crafted by the Congress to 
provide operational support for all tribal colleges which are not 
eligible for the ``Tribally-Controlled Community Colleges and 
Universities Assistance Act,'' Public Law 95-471. Because the Tribal 
Colleges Act is funded by Interior Appropriations through U.S. 
Department of Interior, the Department of Education does not see the 
entire picture of Congressional appropriations to the nation's tribal 
colleges. The Tribal Colleges Act limits funding to only one college 
per tribe. During the original 1990 enactment of what is now Section 
117 of the Carl Perkins Vocational Education Act; there were only two 
tribal colleges in the nation which were not eligible under Public Law 
95-471. Although the Department does not disclose additional eligible 
institutions in advance of awards, to the best of our knowledge there 
are still only two tribal colleges in the nation that do not qualify 
under Public Law 95-471 and are therefore eligible for Section 117. 
More than two decades after their founding, there remain only two 
tribal vocational colleges in the nation, although during these same 
years several new tribal community colleges have been added under the 
Tribal Colleges Act. Each of those colleges is the only college that 
the sponsoring tribe has chartered. The vast majority of Indian tribes 
have never founded a first tribal college. Due to the small populations 
of most tribes, it is highly unlikely that tribes other than the Navajo 
will need to found second tribal colleges.
    Section 117 was intentionally patterned after Public Law 95-471. 
The most consequential provision replicated by Section 117 from the 
Tribal Colleges Act is the Indian Student Count funding formula, which 
provides for equitable funding at each eligible institution based on 
full-time equivalency enrollment. This enrollment-driven, legislative 
safeguard intends to guarantee an equitable distribution of any 
appropriation on an equal level per student regardless of which 
eligible institution they attend, just as the Tribal Colleges Act does 
for the nation's other tribal colleges.
    The average population of tribes chartering tribal colleges ranges 
between 3,000 and 10,000 members. The Navajo tribe is a population 
anomaly among Indian tribes with 225,298 members living on and near the 
reservation (U.S. Census). Dine College, Tsaile, Arizona, is the Navajo 
Tribal College funded under Interior's Tribal Colleges Act. Founded in 
1968, Dine is the first of the nation's tribal colleges. CIT was 
founded in 1979 as a job-skills training center. Over the first 7 years 
of operation, CIT evolved from a job-training center to a full-fledged 
vocational technical college. Skilled employment opportunities expanded 
for students graduating with credentialed degrees or certificates, and 
CIT earned full institutional accreditation from North Central 
Association of Colleges and Schools in 1986. CIT's outstanding success 
at providing its students with highly marketable career skills has 
enabled graduates to enter high-demand employment fields with lifelong 
marketable job skills.
    The size of the Navajo population warrants a second college. 
Geographic access to postsecondary education is another reason tribal 
colleges were founded. These factors are even more compelling for the 
Navajo Nation which is comprised of a vast and remote 26,897 square 
mile reservation extending into three States: Arizona, New Mexico and 
Utah. The Navajo Nation reservation is 2,810 square miles larger than 
the State of West Virginia and only slightly smaller than the five New 
England States of Vermont, New Hampshire, Massachusetts, Connecticut 
and Rhode Island combined. The driving distance across this reservation 
is approximately nine hours. In the situation of the Navajo people, 
geography, isolation and population uniquely combine to predicate this 
unusual need for a second college.
    In hindsight, the Tribal Colleges Act should have allowed for this 
unusual situation. CIT was founded a year after the Tribal Colleges Act 
was passed. However, tribal colleges remained unanimously and, not 
surprisingly, unwilling to dilute their enrollment-driven Act to allow 
a second college in a situation where an unusually large tribal 
population existed. There are sixteen Indian tribes in the three States 
of Montana, North Dakota and South Dakota. Each of these tribes has a 
tribal college supported by the Tribal College Act. Yet the combined 
population of on-reservation, all-ages of these sixteen tribes is 
72,835. The Navajo's one tribe population of over 225,000 exceeds this 
by more than three-fold.
    Enactment of Section 117, ``Tribally Controlled Vocational 
Postsecondary Educational Institutions,'' was Congress's solution to 
this gross inequity. Section 117 would be a fair and effective solution 
if the Department would adhere to the student funding formula in the 
law. However, the Department continues to override adherence to this 
provision of the law with their regulations. Section 117 remains the 
only legislation for tribal educational institutions in existence that 
is not administered on a per student basis. Nearly three decades ago, 
Congress began equalizing funding to all tribal educational 
institutions, from K-12 through postsecondary levels. This policy has 
been largely successful and was achieved by enacting laws that require 
funding to be based on enrollment in instances where more than one 
institution is funded under any law. However, because Section 117 is 
administered within the Department where its other programs are 
supplemental to the institutions basic operational funding from another 
source, it seems difficult for the Department to recognize Section 117 
as the basic operational institutional funding that Congress intended. 
The law seems to give clear direction, but the Department continues to 
find alternate interpretations that reduce the awards to competitions. 
From any perspective, this is unfair to the students. It is CIT's 
observation that in implementation of Section 117, the Department's 
regulations supercede the requirements of the law. The Department's 
imposition of regulations that disallow costs that are allowed in the 
law eliminates many necessary activities from CIT's applications for 
funding. This results in CIT not being able to conduct activities that 
are specified in the law. It also results in CIT with the largest 
enrollment receiving the smallest allocation. This is the exact 
opposite of both the intent of the Congress as well as the letter of 
the law.
    CIT experiences particular hardship under the Department's method 
of interpreting Section 117 because CIT is experiencing a steadily 
increasing enrollment. The decennial tribal population increase is 14 
percent, as compared to only 8 percent for mainstream America. Median 
Native American population age is now 27.4 years, 8 years younger than 
the median age for mainstream America. Over 10,000 students graduate 
from Navajo area high schools every year. Less than 6 percent of these 
high school graduates are bound for off reservation colleges. To 
accommodate the increasing demand from applicants, CIT has continued to 
increase its student housing capacity with assistance from the Navajo 
Nation and HUD funding. This year, another 16 married student units 
toward a 3 year total of 32. This year's residential additions will be 
completed by fall 2002 for students with dependant children. Students 
with dependant families are among those most in need of employment 
skills. Each year, CIT has averaged a waiting list of approximately 200 
otherwise qualified students due to residential housing limitations. 
The town of Crownpoint offers little in the way of available rental 
housing and the majority students must rely on CIT's residential 
offerings. Daily commuting from most parts of the reservation is out of 
the question due to poor roads, harsh winters and incredible distances. 
With the ability to accommodate additional students, CIT relies even 
more on the Department of Education to adhere to per student funding 
allocation mandated by Section 117.
    CIT believes it has established its merit as a tribal institution 
worthy of federal assistance. CIT has an 8-year average student 
retention rate of 95 percent, and an average job placement rate of 86 
percent over the same period. CIT's current enrollment is 526 Full Time 
Equivalency/Indian Student Count.
    CIT offers fully-accredited 2 year Associate of Applied Science 
degrees and/or 1 year certificates in high employment demand fields 
including: Accounting, Administrative Assistant, Applied Computer 
Technology, Automotive Technology, Building Maintenance, Carpentry, 
Culinary Arts, Electrical Trades, Environmental Technology and Natural 
Resources, Law Advocate, Legal Assistant, Nursing Assistant and 
Veterinary Assistant. CIT plans to offer Dental Assistant and Health 
Technician in response to high employment opportunities in the area and 
shortages of skilled workers in these fields. CIT has already secured 
donated and federal surplus property dental training equipment, 
minimizing its reliance on federal resources to achieve successful 
programs. If the Department does not make awards based on student 
count, CIT will be hampered in its ability to offer these programs. 
While the high demand for employees in these skilled fields will still 
exist, employers will recruit from outside the area, while Navajo 
people who could have been trained to fill these positions will remain 
jobless.
    CIT's average student age is 26, although the actual range has been 
18-64. CIT is open to and welcomes all qualified Indian and non-Indian 
applicants, and as just one example has retrained displaced non-Indian 
uranium workers from neighboring towns. However, the primary mission 
for this institution is to rectify the joblessness and hopelessness so 
prevalent among too many of the more than 200,000 reservation people. 
CIT graduates earn an average $17,160 entry-level annual wage, although 
some fields pay as high as $23,920 at entry level (Veterinary 
Assistant). CIT's lucrative but limited Commercial Drivers License 
graduates pays $16 to $18 an hour at entry level. Each employed 
graduate pays an average of $2,576 of their earnings to federal taxes 
in the first year of employment alone. While taxes vary according to 
number of dependants and other factors, wage earnings and tax 
contributions will generally continue over an at least 30 years of 
employment. CIT lacks institutional resources to track all of its 
graduates over the past two decades, but of those tracked, 61 percent 
are employed in private industry and do not rely directly or indirectly 
on federal appropriations for jobs. In an average lifetime of 
employment, CIT graduates will return to the federal government the 
cost of its investment many times over.
    Section 117 is authorized through 2003. It must be corrected before 
that date. We urge this Subcommittee to intervene in rectifying the 
misinterpretations of the law, and the misallocation of its generous 
appropriations at the Department level.
                                 ______
                                 
  Prepared Statement of the Association of Public Television Stations
    This testimony is submitted to the Labor, Health and Human 
Services, Education and Related Agencies Appropriations Subcommittee on 
behalf of the Association of Public Television Stations (APTS) and its 
members, who are the nation's local public television stations, and the 
Public Broadcasting Service (PBS) in support of funding for the Ready 
to Learn and Ready to Teach Programs at the U.S. Department of 
Education.
    Public television requests that the Subcommittee provide funding 
for the Ready To Learn program at $24 million and the Ready to Teach 
program at $15 million. Both of these programs are administered through 
the Department of Education. The Ready To Learn program provides 
funding for the development and production of the highest quality 
children's educational television programming. It also assists local 
stations in their outreach efforts to provide family literacy training 
to teachers, parents and child care providers to effectively use these 
programs to prepare young children for academic success when they enter 
school. Ready to Teach continues the Ready To Learn theme by focusing 
on educational excellence throughout a child's life. The Ready to Teach 
program is premised upon three core objectives: teacher quality, 
student achievement, and innovative classroom materials and teaching 
tools.
    Public television's Ready To Learn and Ready To Teach programs are 
authorized and in-place resources to ensure effective nationwide 
implementation of the ``No Child Left Behind Act of 2001.''
                    ready to learn for all children
    Ready To Learn is public television's contribution toward our 
nation's most urgent goal for our children--ensuring that they begin 
school Ready To Learn. In essence, the Ready To Learn service is the 
nation's largest classroom. Through the use of the nation's public 
television stations, 99 percent of the nation's population can be 
reached with free, over-the-air children's educational programming. The 
President's Budget requested $22 million for the program for fiscal 
year 2003, the same amount provided by Congress in fiscal year 2002.
    Ready To Learn provides the seed money for the production of award-
winning, educational, and commercial-free children's programs, which 
actively foster literacy, math and other cognitive skills. To extend 
the educational impact of Ready To Learn's programs ``beyond the 
screen,'' local public television stations put additional Ready To 
Learn funds to work by providing community-based outreach services. 
This national-local approach is one of the keys to the program's 
effectiveness. The local outreach component helps to ensure that the 
special needs of each community are addressed, one of the tenets of the 
``No Child Left Behind Act.'' Ready To Learn services are targeted to 
families with low literacy and English proficiency, children with 
disabilities, and other disadvantaged populations such as those in 
rural areas.
    To be a qualified Ready to Learn member, a local public television 
station must broadcast at least 6.5 hours of educational children's 
programming each weekday; conduct at least 20 workshops annually for 
parents and early childhood professionals; distribute at least 300 free 
books to children every month; widely distribute the PBS Families 
publication in English and Spanish and other bilingual and free 
resources on encouraging children to read and learn. Ready To Learn 
stations must also partner with local Head Start centers, Even Start 
programs, 21st Century Community Learning Centers, libraries, childcare 
providers, schools and other children and family oriented 
organizations.
    Ready To Learn programs are always customized to address local 
needs. For example, in Carbondale, Illinois, public television station 
WSIU, Even Start, and a local public school joined forces to bring 
Ready To Learn resources to children and parents. The children's 
program Between the Lions is the centerpiece of this school project 
where 70 percent of the second grade students are reading below grade 
level. The students watch the series regularly, and older students read 
with them. Based on student evaluations, many of the students 
demonstrated an average increase of 1.5 grade levels in their reading 
scores in just 10 weeks.
    In Mississippi, Ready To Learn is being used in every Head Start 
center, child care program, and K-1 classroom in two communities, 
involving 1,000 children overall. The two communities are Pearl River 
on the Choctaw Indian Reservation, and Indianola, located in the Delta 
region, whose population is primarily low-income, African-American 
(nearly all students qualify for free or reduced lunch). Key partners 
are PBS stations WGBH (producer of Between the Lions), Mississippi ETV 
and Mississippi State University, which is conducting a year-long 
research project funded by Ready To Learn to assess the impact of this 
targeted literacy outreach effort.
                      the impact of ready to learn
    Ready To Learn gets results. Close to 7 million children have been 
impacted by Ready To Learn, with nearly 650,000 parents and early 
childhood educators participating in more than 20,000 workshops held 
across the country. Based on a national evaluation conducted by the 
University of Alabama, findings indicated that parents who attend Ready 
To Learn workshops read aloud to their preschool children more often 
and for longer periods, and visit libraries and bookstores more often. 
Moreover, their children watch less television, and what they do watch 
is more educational.
                   ready to teach through technology
    The nation has come to recognize how technology is touching lives 
at the very early stages, both with learners and teachers. Computers 
and the Internet afford learners of all ages the chance to find 
information, resources, and learning tools anytime, anywhere. Public 
television offers these resources to teachers and parents as well. The 
U.S. Department of Education has called upon public television to 
implement Ready to Teach, a national telecommunications-based 
initiative that sets out to level the playing field in education by 
meeting three core objectives through the use of state-of-the-art 
technology: teacher quality, student achievement, and the development 
of innovative content.
    The Ready to Teach program takes a two-pronged through two 
technology-based projects--Teacherline and Digital Educational 
Programming grants. Public television is seeking $15 million for this 
initiative, the same as the Senate recommendation last year. The funds 
will be divided so that $9 million would be used to support the 
expansion of Teacherline and the remaining $6 would be used to launch 
the digital programming grants.
                       improving teacher quality
    The key finding of the Glenn Commission (established by the U.S. 
Department of Education to consider ways to improving the quality of 
math and science teachers) was that nearly one in four of our high 
school math teachers and one in five high school science teachers lack 
even a minor in their main teaching field. Many teachers are doing 
their jobs without the support they need, and students are not learning 
what they need to know to compete in this global economy. Teacherline 
has responded to this crisis. A major component of Teacherline is an 
on-line service that affords teachers, especially those in 
disadvantaged communities, professional development tools to improve 
their teaching skills in the subject of mathematics. Increased funds 
for this account would expand this project to include the teaching of 
science and other core educational content areas.
    Currently, 29 local public television stations participate in the 
Teacherline program. Each participating station partners with a local 
school district to tailor the core curriculum to local and state 
standards. For example, KLVX in Las Vegas, Nevada, and the entire Clark 
County school system, which is one of the country's fastest growing 
school districts, have partnered to provide professional development 
and in-service support for their teachers. Teacherline is helping Clark 
County ensure that their rapidly increasing teacher force is fully 
qualified to meet state and local standards. Teachers can earn graduate 
credit, professional development points, and continuing education 
credit through Teacherline's certification series.
    Many teachers struggle with methods to present specific math 
concepts. Teacherline provides not only a virtual academy of model 
lesson plans, but also provides a mentor at each participating station 
who is available for mentoring as well. The program also provides 
interactive models and internet support. Teachers have 24-hour access 
to free resources such as local standards-based materials. Educators 
also can tap into a rich source of professional support and development 
by communicating with teachers in their fields about effective and 
innovative teaching techniques. Increased funding for Teacherline will 
allow the project to be present in all 50 states within the next year.
                      education in a digital world
    The Digital Educational Programming Grants are a newly authorized 
activity under the ``No Child Left Behind Act.'' These U.S. Department 
of Education grants are intended for local public television stations 
in partnerships with school, or other learning institutions, to develop 
digital content for classroom instruction. The use of digital 
technology in the classroom is imperative for the future of our 
children in the new millennium. In fact, the Web-Based Education 
Commission's main recommendation is to enhance broadband access as a 
way to improve academic achievement in our country.
    Public broadcasters have been aggressively raising the needed funds 
for the federally mandated digital transition because we 
enthusiastically embrace the promise of digital technology. When not 
broadcasting a high definition signal (HDTV) the digital broadcasting 
signal is able to transmit several content streams simultaneously, 
known within the industry as ``multicasting.'' With our deepest roots 
in education, public television stations have committed the equivalent 
of at least one multicast channel--or 4.5 megabits per second--for 
formal education, pre school through post secondary and workforce 
training. In addition, public stations are planning a variety of other 
multicast services including separate channels devoted to children, 
public affairs, the adult learner and multicultural audiences.
    Digital technology allows broadcasters to transmit not only 
multiple audio and video signals commonly associated with television, 
and additionally large streams of data. The combination of the two into 
a single program is known as ``enhanced television.'' Using enhanced 
television signals, viewers can explore content addressed in the 
program in greater detail, providing for a more meaningful viewing 
experience. Data accompanying enhanced television programs is likely to 
include Web links, bibliographies, transcripts, and detailed background 
on a show's subject.
    In an educational setting these enhancements can be directly tied 
to a specific lesson. Using our digital signal, these services can be 
delivered to schools 80 times faster than a 56K dial up modem and 15 
times faster than a DSL connection. Today, schools and homes only need 
a simple antenna and a DTV tuner card installed in a computer to access 
these signals. Tomorrow, this capability will be installed in cable 
boxes and digital television receivers. The value of this technology is 
conservatively valued at $2.4 billion per year.
    The Digital Education Programming grants will provide local 
stations and their partners with the seed money needed to develop 
enhanced digital classroom materials. Grantees will be required to 
match funding with non-federal sources. The integration of this 
technology will help to engage students of the 21st century, and 
leverage their ability to gain and retain knowledge through various and 
fast-paced mediums. Public television will compete for this newly 
available funding source this year.
                                 ______
                                 
         Prepared Statement of United Tribes Technical College
                           summary of request
    For 33 years United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from throughout the nation. Our request for 
fiscal year 2003 funding for tribally controlled postsecondary 
vocational institutions as authorized under Carl Perkins Vocational and 
Applied Technology Act is:
  --$7 million under Section 117 of the Perkins Act, which is $500,000 
        over the fiscal year 2002 enacted level. This funding is 
        essential to our survival, as we receive no state-appropriated 
        vocational education monies.
  --Ensure that the provision in the Fiscal Year 2002 Labor-HHS-
        Education Appropriations Act that waived the regulatory 
        requirement that we utilize a restricted indirect cost rate is 
        considered a continuing directive.
  --Funding for renovation of our facilities, many of which are 
        original to the Fort Abraham Lincoln army installation. A 
        recent study commissioned by the Department of Education shows 
        a facility need for UTTC of $49 million.
    Restricted Indirect Cost Issue.--The Fiscal Year 2002 Labor-HHS-
Education Appropriations Act (PL 107-116) provides that notwithstanding 
any law or regulation, that Section 117 Perkins grantees are not 
required to utilize a restricted indirect cost rate. We thank you for 
taking this action. Unfortunately, the Department has interpreted this 
provision to apply only to our fiscal year 2002 Perkins funds. While we 
believe that the provision should be considered permanent law, it 
appears we need to fix the problem again and ask your assistance. The 
provision in the fiscal year 2002 Act reads:

    ``Provided further, That notwithstanding any other provision of law 
or any regulation, the Secretary of Education shall not require the use 
of a restricted indirect cost rate for grants issued pursuant to 
section 117 of the Carl D. Perkins Vocational and Applied Technology 
Education Act.''

    There is no mention of limiting this provision to fiscal year 2002 
only. Nor does the conference report language (H. Rpt. 107-342) mention 
restricting the bill language. It reads:

    ``The conference agreement includes bill language allowing grantees 
under section 117 of the Perkins Act to be exempt from indirect cost 
rate requirements imposed by this program. The conferees have included 
this bill language because they recognize there are certain 
circumstances in which grantees might require additional flexibility 
not provided under current law or regulation. However, the conferees 
remain committed to maximizing federal resources for direct educational 
services, as opposed to paying for administrative and other indirect 
costs that do not increase access to high quality vocational and 
technical post secondary education programs for students served through 
this program. Therefore, the conferees urge the Secretary to report to 
the Committees on Appropriations and Education and the Workforce of the 
House and the Committees on Appropriations and Health, Education, Labor 
and Pensions of the Senate on the indirect cost rates of grantees 
participating in this program, including a justification for any 
grantee that has an indirect cost rate considerably greater than those 
allowed under current law and regulation.''

    In 2001, the Department of Education, for the first time, directed 
Indian grantees (both Sec. 116 and 117 grantees) to apply a 
``restricted indirect cost rate'' to their grants. This means each 
tribal grantee must obtain another indirect cost rate--exclusively for 
its Perkins Act grant--from its cognizant federal agency (which in most 
cases is the Inspector General for the Department of the Interior.)
    The Department gave two reasons for applying a restricted rate to 
these Perkins Act Indian programs: (1) The 1998 Amendments to the 
Perkins Act (Sec. 311(a)) prohibits the use of Perkins Act grant funds 
to supplant non-federal funds expended for vocational/technical 
programs. This ``supplement, not supplant'' limitation previously 
applied to State grants, only; and (2) A long-standing DoEd regulation 
(promulgated years before the 1998 Perkins Amendments) automatically 
applies the restricted indirect cost rate requirement to any DoEd grant 
program with a ``supplement, not supplant'' provision.
    UTTC has no quarrel with the bases and objectives of the 
``supplement, not supplant'' rule and seeks no change to this statutory 
provision. The primary targets of this rule are States and possibly 
local government entities that run vocational education programs with 
State or local funds.
    By contrast, however, UTTC has little or no ability to violate this 
rule, as we have no source of non-federal funds to operate vocational 
education programs. Unlike States, we have no tax base and no source of 
non-federal funds to maintain a vocational education program. We depend 
on federal funding for our vocational/technical education program 
operations. Despite our inability to violate the supplanting 
prohibition, we are, nonetheless, being disadvantaged by a DoEd 
regulation intended to enforce the prohibition against States who do 
have the ability to supplant.
  --Impact of new requirement on grantees.--Under DoEd regulations, a 
        ``restricted indirect cost rate'' makes unallowable certain 
        indirect costs that are considered allowable by other federal 
        programs. Primarily, these are costs that DoEd believes the 
        grantee would otherwise incur if it did not receive a Perkins 
        grant, such as the cost of the grantee's chief officer and 
        heads of departments who report to the CEO, as well as the 
        costs of maintaining offices for these personnel.
    Prohibiting the Perkins grant from contributing its appropriate 
share to the grantee's indirect cost pool will most likely mean that 
other federal programs operated by the grantee would be expected to 
pick up a great share of the indirect cost pool. This outcome may well 
result in objections from the other program agencies that do not want 
to bear costs properly attributable to the Perkins grant.
    We are caught between conflicting federal agency requirements and 
will find ourselves unable to recover the necessary share of indirect 
cost attributable to each of the federal programs we operate.
    UTTC's Funding Authority.--Section 117 of the Perkins Act 
authorizes funding for tribally controlled postsecondary vocational 
technical institutions. Under this authority funding is provided to 
UTTC and one other tribally controlled postsecondary vocational 
institution, the Crownpoint Institute of Technology. We do not receive 
funding through the Tribally Controlled Community Colleges Act.
    United Tribes Technical College: Unique Inter-tribal Educational 
Organization.--Incorporated in 1969, United Tribes Technical College is 
the only inter-tribally controlled campus-based, postsecondary 
vocational institution for Indian people. We are chartered by the five 
tribes in North Dakota and operate under an Indian Self-Determination 
contract with the BIA. Last year we enrolled 490 students from 44 
tribes and 17 states.
    The majority of our students are from the Great Plains states that, 
according to the 1999 BIA Labor Force Report, has an Indian reservation 
jobless rate of 71 percent. UTTC is proud that we have an annual 
placement rate (placement in jobs or in higher education) between 85-90 
percent. In addition, we serve 155 children in our pre-school programs 
and 175 children in our Theodore Jamerson elementary school, bringing 
the population for whom we provide direct services to 820.
    UTTC Course Offerings.--We offer 14 vocational/technical programs 
and award a total of 24 two-year degree and one-year certificates. We 
are accredited by the North Central Association of Colleges and Schools 
and we were re-accredited in 2001 for the longest time--10 years-- and 
with no major stipulations.
    We are very excited about the recent additions to our course 
offerings, and the relevance they hold for Indian communities. These 
new programs are: Injury Prevention; Technology Distance Learning; 
Nutrition and Dietary Management; Tribal Government Management, and 
Tourism.
  --Injury Prevention.--Through our Injury Prevention Program we are 
        addressing the injury death rate among Indians, which is 2.8 
        times that of the total U.S. population. We received assistance 
        through the IHS to establish the only degree granting Injury 
        Prevention program in the nation.
  --Technology and Distance Learning.--We are bridging the ``digital 
        divide'' by providing web-based education and Interactive Video 
        Network courses from our North Dakota campus to American 
        Indians residing at other remote sites, including the Denver 
        Indian community. Training is currently provided in the areas 
        of Early Childhood Education and Computer Literacy. By the year 
        2005, students will be able to access full degree programs in 
        Computer Technology, Injury Prevention, Health Information 
        Technology, Early Childhood Education, and Office Technology, 
        and others from these remote sites.
    High demand exists for computer technicians. In the first year of 
implementation, the Computer Support Technician program is at maximum 
student capacity. In order to keep up with student demand, UTTC will 
need more classroom space, computers and associated equipment, and 
instructors. Our program includes all of the Microsoft Systems 
certifications which translates into high income potential.
  --Nutrition and Dietary Management.--UTTC will meet the challenge of 
        fighting diabetes in Indian Country through education. As this 
        Subcommittee knows, the rate of diabetes is very high in Indian 
        country, with some tribal areas experiencing the highest 
        incidence of diabetes in the world. About half of Indian adults 
        have diabetes (Diabetes in American Indians and Alaska Natives, 
        NIH Publication 99-4567, October, 1999).
    We offer a Nutrition and Dietary Management Associate of Applied 
Science degree to increase the number of American Indians with 
expertise in human nutrition and dietetics. Currently, there are only a 
handful of Indian professionals in the country with training in these 
areas. Future improvement plans include offering a Nutrition and 
Dietary Management degree with a strong emphasis on diabetes education 
and traditional food preparation.
    We have also established the United Tribes Diabetes Education 
Center to assist local Tribal communities and UTTC students and staff 
in decreasing the prevalence of diabetes by providing educational 
programs, materials, and training.
  --Tribal Government Management/Tourism.--Another of our new program 
        is tribal government management designed to help tribal leaders 
        be more effective administrators. We continue to refine our 
        curricula for this program.
    A newly established education program is tribal tourism management. 
UTTC has researched and developed core curricula for the tourism 
program, and five other tribal colleges will begin using our curricula 
(with modifications to suit their specific needs) this fall. The 
development of the tribal tourism program is well timed to coincide 
with the national Lewis and Clark Bicentennial in 2003. As you may 
know, Lewis and Clark and their party spent one quarter of their 
journey in North Dakota. Last year, UTTC art students were commissioned 
by the Thomas Jefferson Foundation to create historically accurate 
reproductions of Lewis and Clark-era Indian objects using traditional 
methods and natural materials. Our students had partners in this 
project including the National Park Service and the Peabody Museum at 
Harvard University. The objects will be part of a major exhibition 
about the Lewis and Clark expedition.
  --Job Training and Economic Development.--UTTC is a designated 
        Minority Business Center serving Montana and the Dakotas. We 
        also administer a Workforce Investment Act program and an 
        internship program with private employers.
    We are excited by the recent receipt of an Economic Development 
Administration grant that will allow UTTC to develop a Center for 
Economic Excellence. The UTTC Center for Economic Excellence is 
expected to evolve into a regional ``University Center'' for Economic 
Development. Most states have such centers, and ours would be the first 
such tribal center.
    Department of Education Study Documents our Facility/Housing 
Needs.--The 1998 Vocational Education and Applied Technology Act 
required the U.S. Department of Education to study the facilities, 
housing and training needs of our institution. That report, conducted 
for the Department by the American Institutes for Research, was 
published in November 2000 (``Assessment of Training and Housing needs 
within Tribally Controlled Postsecondary Vocational Institutions, 
November 2000, American Institue of Research''). The report identified 
the need for $16,575,300 for the renovation of existing housing and 
instructional buildings ($8 million if some existing facilities are 
converted to student housing) and $30,475,000 for the construction of 
housing and instructional facilities.
    UTTC continues to identify housing as its greatest need. We have a 
huge waiting list of students some who wait from 1 to 3 years for 
admittance. New housing must be built to accommodate those on the 
waiting list as well as to increase enrollment. Existing housing must 
be renovated to meet local, state, and federal safety codes. In the 
very near future, some homes will have to be condemned which will mean 
lower enrollments and fewer opportunities for those seeking a quality 
education. Single student housing must also be built and expanded to 
meet the College's needs.
    Classroom and office space is at a premium. The College has 
literally run out of space. This means that the UTTC cannot expand its 
course offerings to keep up with job market demands. Most offices and 
classrooms that are being used are quite old and are not adequate for 
student learning and success. We were able to piece together three 
sources of funds to raise $1 million to renovate a building to create a 
new student life and technology center. Funds came from the Economic 
Development Administration, and the USDA's Rural Development and the 
Department of Education's Title III programs.
    Thank you for your consideration of our request. We cannot survive 
without he basic vocational education funds that come through the 
Department of Education.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing
    The American Association of Colleges of Nursing (AACN) respectfully 
submits this testimony to the Subcommittee with our requested funding 
priorities for nursing research and education programs. This federal 
support will play a critical role in the nation's effort to overcome 
the nursing shortage. AACN represents over 560 baccalaureate and 
graduate nursing education programs in senior colleges and universities 
across the United States.
    The country is in the midst of an emerging nursing shortage unlike 
any that the nation has experienced over the past 30 years. Since 1995, 
AACN noted declining enrollments in baccalaureate nursing programs that 
reached a low point of 21.1 percent in 2000. In the fall of 2001 
enrollments increased by 3.7 percent. This slight increase is 
attributed to intensive marketing by health care facilities in high 
schools and colleges, public-private partnerships creating additional 
faculty positions to expand capacity of nursing programs, and state 
legislation targeting funds to scholarships and nursing loan repayment 
programs. Potentially the start of a hopeful trend, this increase is 
inadequate to provide over one million new and replacement nurses that 
will be needed by 2010, according to the Bureau of Labor Statistics.
    Still, employers are reporting crisis level shortages of nurses in 
all health care settings including long-term care, home care, and 
public health. An aging workforce, with the average age of RNs up to 
45.2 years, compounds the shortage. Clearly the lack of appropriately 
educated and skilled registered nurses (RNs) is adversely changing the 
face of the health care delivery system.
    Despite the need to expand the nursing workforce, a lack of nursing 
faculty has had an impact on the shortage. The majority of AACN member 
schools report great difficulty filling budgeted faculty positions. The 
small percentage of doctorally prepared nurses in this country and the 
lengthy completion time of a doctoral degree have limited the 
availability of nurses prepared to function in a faculty role. Doctoral 
nursing students usually attend classes while maintaining a full-time 
clinical position. Expanding the number of full-time doctoral students 
would greatly facilitate the production of available faculty. AACN 
members also report difficulty recruiting master's prepared nursing 
personnel for faculty roles because of the great disparity between 
clinical and faculty salaries. Schools would benefit from initiatives 
that provide resources to augment salaries for specialized faculty 
needed to support the entire program.
    AACN recognizes that strategies to meet the growing nursing 
shortage must encompass state legislation, increased federal support, 
and private and public sector initiatives. We are asking the 
Subcommittee to graciously consider these requests and the effect that 
an unresolved RN shortage of this magnitude will have on the future of 
health care in America.
             national institute of nursing research (ninr)
    We thank you for your support of the National Institute for Nursing 
Research (NINR). AACN respectfully request a fiscal year 2003 funding 
level of $145.45 million, which reflects an increase of $24 million for 
NINR. At this funding level, NINR will support significant new research 
findings for the nation's largest profession of health care providers--
registered nurses. This new funding will support the following new 
research:
  --Enhance adolescent health promotion by addressing risk behaviors 
        such as smoking, substance abuse, unsafe sexual activity, and 
        nutrition. Culturally appropriate interventions for ethnic 
        minorities are needed for this population.
  --Improve the care of more than 1.6 million residents of nursing 
        homes and many others in assisted living facilities and board-
        and-care homes. NINR hopes to fund studies that focus on 
        residents' functional mobility, their adjustment to loss of 
        independent living, and prevention of falls and depression.
  --Partner with communities to design ways to eliminate health 
        disparities in those communities.
  --Focus on end-of-life care and research to address the public's 
        concern with issues at the end-of-life, including symptom 
        management, family burden, and decision-making. Directions for 
        this research include palliative care models and, timed to the 
        release of an upcoming Institute of Medicine report, pediatric 
        end-of-life care.
  --Increase the pool of investigators to conduct nursing research and 
        direct special emphasis toward facilitating early entry into 
        doctoral and career development programs.
    As the primary sponsor of nursing research in the country, NINR 
attracts new students to the profession by providing opportunities for 
nurse-researchers to solve important clinical problems and make a 
difference in patients' lives. The Institute initiates studies on the 
relationship between staffing mix and patient outcomes, which is vital 
to understanding patient safety and the skill set required of health 
care providers to reach optimal patient outcomes.
    Nursing research makes a difference in quality of life and patient 
outcomes. Nursing research helps people make wise health choices that 
prevent disease and promote health, and provides the scientific base 
for the nation's 2.7 million registered nurses and others who provide 
patient care. The NINR supports investigators who are conducting a 
broad range of clinical research, developing and testing interventions 
to improve patient care, treating disease, managing chronic conditions, 
and addressing the physical and emotional concerns that are important 
to a diverse American public.
    Nursing research increases the numbers of nursing faculty and 
researchers. In an effort to develop the pool of nurse faculty and 
researchers, NINR directs 9 percent of its budget to research training. 
Research training dollars will support approximately 280 pre-doctoral 
nurse researchers and 103 post-doctoral researchers this year and the 
same number under the Administration's proposed budget for fiscal year 
2003. These numbers must be increased in the future to meet recent 
recommendations of the National Research Council to recruit nurses into 
the research track early in their careers. Additionally, AACN's 2001-
2002 Report on Enrollments and Graduations shows that 3,312 nurses are 
enrolled in doctoral programs. Through the NINR, the National 
Institutes of Health will continue to expand its emphasis in fiscal 
year 2003 on clinical research, the means by which basic findings 
relating to behavior, molecules, and genes can be tested and translated 
into medical practice and improvements in public health. NINR will 
extend its clinical trial networks nationwide in an effort to evaluate 
new prevention strategies, drugs, and vaccines in large numbers of 
patients.
    The Subcommittee investment in NINR is well justified as nursing 
research contributes extensively to wellness and health choices that 
prevent disease. There is growing evidence of advances made possible by 
NINR research, but we will highlight just four recent success stories. 
AACN believes that based on these and numerous other examples, it is 
clear that nursing research is making a difference in health outcomes. 
For example, NINR research has made a difference by identifying 
interventions or other studies to:
    Cesarean deliveries increase the risk of uterine rupture in future 
pregnancies. Labor and delivery records of nearly 20,000 women who gave 
birth to a second single child after an earlier cesarean delivery were 
analyzed to assess the risk of uterine rupture. Compared to the very 
low risk of rupture during a scheduled repeat c-section, the risk 
during uninduced labor increased three-fold, and the risk during labor 
induced using prostaglandins increased fifteen-fold. Though more 
research is needed to establish cause-and-effect, since 60 percent of 
women with prior cesarean deliveries attempt labor with the next 
pregnancy, these women need to be aware of the risk of uterine rupture.
    Childrens' learning deficits after aggressive treatment for acute 
lymphoblastic leukemia. Today many more children survive after 
treatment for acute lymphobolastic leukemia and are declared disease 
free. However, long-term consequences of the aggressive treatments 
(whole brain irradiation and high dose chemotherapy) used to treat the 
disease include learning difficulties that impair academic performance. 
Diminished arithmetic skills, verbal fluency, and visual and motor-
related skills are observed for up to 4 years after treatment is ended. 
An early intervention with remedial math has shown positive results, 
and a larger study to test the intervention is now in progress.
    Reducing risk of a second cardiac arrest. Nursing research also 
examines ways to lower the risks that may precede disease. Preliminary 
results of a biobehavioral intervention on patients who had cardiac 
arrest showed that there was an 86 percent reduction of risk of 
mortality from subsequent cardiac arrest in these patients for up to 2 
years. The intervention consisted of training in physiological 
relaxation using biofeedback; coping skills for depression, anxiety, 
and anger; and health education about cardiovascular risks. Further 
study is needed to affirm that decreases in psychological distress 
subsequently improve the prognosis of those with cardiac disease. The 
study underscores the importance of biobehavioral approaches for 
survivors of cardiac arrest.
    Hospital restructuring makes a difference. Hospital restructuring 
has taken place across the nation, typically concurrent with reduced 
numbers of nurses providing care for patients. Within 29 academic 
health centers, patient outcomes were measured before and after 
restructuring. Many health outcomes were affected by the reduction in 
registered nurse hours: more RNs lead to diminished numbers of patient 
falls and urinary tract infections and higher satisfaction with pain 
control. Research such as this helps validate the concerns expressed by 
nurses across the country and helps the health care system measure its 
effectiveness in terms of patient safety and health promotion.
                     the nurse education act (nea)
    AACN recommends an increase in the NEA for fiscal year 2003 to $122 
million. This increase is $40 million over current funding. NEA 
appropriations for fiscal year 2002 were $82.05 million. Central to 
increasing the availability of a well-trained nursing workforce is the 
availability of educational grants and scholarships. Current demand for 
nursing student loan support significantly exceeds the resources 
available. In addition, scholarship support is a major incentive to 
enter the profession and facilitates full-time study.
    Title VIII of the Public Health Service Act (PHSA), the NEA, is the 
major federal statute providing authority for the Department of Health 
and Human Services to fund initiatives to expand or improve nursing 
education. Authorities under Title VIII provide for support of advanced 
practice nursing education, special initiatives for nursing clinics, 
support of innovations in the delivery of nursing care, expansion of 
enrollments in baccalaureate nursing programs, and development of 
initiatives to expand minority nursing enrollments. Several of the 
programs assist schools with their efforts to bring more students into 
baccalaureate nursing programs. In addition, the program for loans to 
nursing students allows students to acquire low interest rate loans 
that can be repaid through service in high need areas.
    Advanced Education Nursing Grants (Sec. 811).--The initiative 
provides grants to schools to train advanced practice primary care 
nurse practitioners and nurse midwives. It also provides grants to 
educate master's and doctoral students as clinical nurse specialists, 
public health nurses, nurse administrators, faculty, nurse 
anesthetists, and non-primary care nurse practitioners. It includes 
traineeships for master's and doctoral students with a limit of 10 
percent of appropriations for doctoral traineeships.
    Nursing Workforce Diversity Grants (Sec. 821).--To increase 
opportunities for nursing education for disadvantaged students, 
including underrepresented minorities, this initiative furnishes 
scholarships, stipends, pre-entry preparation, and retention 
activities. Grantees are responsible for accomplishing the objectives 
of their grants.
    Basic Nurse Education and Practice Grants (Sec. 831).--This 
initiative disseminates grants to schools of nursing to strengthen 
basic nurse education and practice with seven priority areas. The areas 
are: expanding nursing practice in non-institutional settings to 
increase access to primary health care, training for care of 
underserved and high risk populations, education for managed care, 
developing cultural competency, expanding baccalaureate enrollments, 
increasing nursing career mobility, and nursing education in 
informatics and use of distance learning.
    Nursing Student Loan Program (NSLP) (Sec. 836).--AACN recommends an 
appropriation of $10.24 million for the NSLP for fiscal year 2003. 
Administered by the Division of Student Assistance, this program was 
created to address nursing workforce shortages. Academic institutions 
select students enrolled in nursing programs for participation in the 
program based on financial need. The program operates on revolving 
funds received through student loan paybacks and returned funding 
received from nursing schools that close down. In fiscal year 2001, 
only 291 out of 1,500 eligible collegiate schools of nursing 
participate in the program because of reluctance to compete for the 
limited funding. This loan program has received no new funding since 
1983.
    Nursing Education Loan Repayment Program (NELRP) (Sec. 846).--AACN 
requests an additional $10 million for this program in fiscal year 
2003. The NELRP, administered by the Bureau of Primary Health Care, 
provides loans to registered nurses, nurse anesthetists, and nurse 
practitioners in exchange for practicing in designated Health 
Profession Shortage Areas. The NELRP has $10.24 million in fiscal year 
2002 funding and on July 2001, Secretary Thompson allocated an 
additional $5 million that was part of a ``tap.''
    Scholarships for Disadvantaged Students (SDS).--AACN recommends 
that SDS be funded at $52 million for fiscal year 2003, a $6 million 
increase. Current fiscal year 2002 funding is at $46.20 million. 
Scholarships for Disadvantaged Students is a PHSA Title VII Program 
(Sec. 737) that provides funds to disadvantaged and minority health 
professions students. The statute directs 16 percent of the funds 
appropriated to nursing students. This program is the major federal 
scholarship source for undergraduate nursing students and eliminates or 
reduces the financial barriers that may prevent these students from 
enrolling. The majority of SDS recipients are minority students.
    National Health Service Corps (NHSC).--AACN recommends increasing 
funds for the NHSC to $203.5 million for fiscal year 2003. The National 
Health Service Corps Scholarship and Loan Repayment programs (PHSA 
Title III) seek to attract health professionals to practice in Health 
Professional Shortage Areas that lack such providers. Many of those 
areas are rural, and have difficulty attracting and retaining 
caregivers. Nursing has a 10 percent set aside that provides funding 
for certified nurse midwives, nurse practitioners, and psychiatric 
clinical nurses specialists.
    In summary, AACN respectfully recommends the following 
appropriations for fiscal year 2003:

                        [In millions of dollars]

National Institute of Nursing Research........................    145.45
Nurse Education Act...........................................    122.00
Nursing Student Loan Program..................................     10.24
Nursing Education Loan Repayment Program......................     20.24
Scholarships for Disadvantaged Students.......................     52.00
National Health Service Corps Scholarship/Loan................    203.50

                                 ______
                                 
  Prepared Statement of the American Society of Mechanical Engineers' 
               (ASME International) Council on Education
    The American Society of Mechanical Engineers' Council on Education 
strongly urges you to fully funding the Math and Science Partnerships 
at the Department of Education at the $450 authorized level. These 
programs will draw relevant stakeholders together to better prepare our 
teachers and students to meet the challenges of the 21st century.
    The engineering community has long been concerned with the state of 
K-12 science, math, engineering, and technology (SMET) education. To 
increase student learning in these areas, and enable the United States 
to compete globally with a strong, technologically literate workforce, 
we need to commit a significant amount of resources for SMET education 
now.
    The U.S. Commission on National Security for the 21st Century 
warns, ``The harsh fact is that the United States need for the highest 
quality human capital in science, mathematics, and engineering is not 
being met. . . . We lack not only the homegrown science, technology, 
and engineering professionals necessary to ensure national prosperity 
and security, but also the next generation of teachers of science and 
math at the K-12 level. . . . The nation is on the verge of a downward 
spiral in which current shortages will beget even more acute future 
shortages of high-quality professionals and competent teachers.''
    According to the 2000 National Assessment of Educational Progress 
(NAEP), student science scores for grades 4 and 8 are flat and there 
has been a slight decline in scores for grade 12 since the assessment 
was last administered in 1996. Furthermore, 84 percent of science 
teachers and 86 percent of mathematics teachers in grades 5-8 did not 
major in science or mathematics. This report further underscores the 
need for reform and investment in math and science education, 
particularly at a time when our economy, national security and 
technological advances are heavily dependent on the quality of our 
future workforce.
    The Math and Science Partnerships are consistent with ASME's pre-
college science, math, engineering and technology (SMET) education 
policy, which seeks to increase greater numbers of qualified SMET 
workers. Specifically, ASME supports programs that:
  --Increase federally-funded research focused on SMET teaching and 
        learning to cultivate the most effective teaching methods.
  --Recruit, train, and retain qualified SMET teachers to meet demand.
  --Foster partnerships among educational institutions, industry, and 
        non-profit organizations.
  --Encourage the adoption of curriculum standards that cultivate high 
        student performance; the development of curricula that foster 
        creativity, experiential problem-solving and critical thinking; 
        and, the development of assessments aligned with these 
        standards and curricula.
  --Encourage women and minorities to pursue SMET coursework and 
        careers.
    For these, and many other reasons, we strongly urge you to fully 
fund the Math and Science Partnerships in Title II, Part B of the ``No 
Child Left Behind Act'' at the $450 million authorization.
    Thank you for considering our recommendations.
                                 ______
                                 

                            RELATED AGENCIES

                        U.S. Institute of Peace

            Prepared Statement of Howard K. Ammerman, Ph.D.
    I am submitting this testimony as one who has observed and 
supported the actions of the Congressionally-created United States 
Institute of Peace since its inception. Furthermore, with a background 
in Economics, I find the relative expenditures for measures of violence 
for dealing with matters of conflict, as contrasted with efforts to get 
at and to remedy underlying causes, to be absurd. One element providing 
some credibility to this extreme imbalance in expenditures, in my 
opinion, is the role as characterized by President Eisenhower, of the 
``Military-Industrial Complex''.
    On September 12, 2001 the United States Institute of Peace issued a 
press release offering the advisory services for dealing with terrorism 
of three individuals competent to analyze aspects of this problem. The 
Institute, in cooperation with the British-based Airey Neave Trust, had 
done a study of terrorism which lead to publication of the Special 
Report ``How Terrorism Ends'' in May 1999.
    Another Institute report concerning terrorism was in a draft stage 
on September 11 and has now been revised and completed. An 
International Research Group on Political Violence, convened at the 
Institute, produced this report issued on January 14, 2002 and entitled 
``The Diplomacy of Counterterrorism: Lessons Learned, Ignored, and 
Disputed''
    A few days after the horrible events of September 11, the President 
of the Institute, at a meeting of the Institute Board, cited the many 
messages of condolence received by the Institute directly from abroad. 
And then he added that the Institute was being looked to from abroad 
for leadership and for information. ``A time of great danger and of 
great opportunity'' was his characterization of the situation.
    The Institute was anxious to intensify its actions. The working 
group with the Airey Neave Trust was reactivated. Budget-wise, the 
Institute wished to get a supplemental appropriation of $4 million for 
the current fiscal year. This would have made its total appropriation 
for fiscal year 2002 about $19 million. When this idea was broached to 
Congressional committees, suggestions were made that the Institute make 
changes within its current budget allocations instead. In the end the 
Institute is slated to get an additional $100,000.
    To me this makes no sense. If one were to try to depict graphically 
the relative expenditures for armaments and other preparations for war 
as compared to alternative approaches, including those for the 
Department of State, it would be difficult to make the latter appear as 
numerically significant. Somehow the characterization as ``grossly 
underrated'' seems an unavoidable conclusion.
    The Institute, after Sept. 11, initially was directing its efforts 
to mobilize resources for support of humanitarian assistance and 
reconstruction efforts in Afghanistan. The Institute ``Rule of Law 
Program'' and its ``Initiative on Religion and Peacemaking'' are being 
brought to bear on the situation. This is being done by working with 
the Agency for International Development and the State Department. The 
objectives are to support the Afghanistan Government in reestablishing 
law and order, accounting for human rights violators, and promoting 
dialogue with Muslim clerics.
    These activities are now being done in addition to, if not at the 
expense of, an already full program which has included the Institute's 
Korea Working Group now in its 8th year, workshops in Kosovo on 
multiethnic coexistence for Albanian and Serb communities, and an 
annual peace essay contest for high school students to make them more 
aware of the problems of international relations which they must face 
some day. These are just a few of the many programs of the Institute of 
which your Committee must have been made aware.
    Actually the Institute has for years made studies of ``hot spots'' 
all over the world and has published special reports concerning them. 
Or through fellowships authors have been able to complete books and 
have them published on these areas of special political and diplomatic 
concern. Either way, when an international crisis develops, the 
Institute is in a good position to provide useful information and 
analyses for the benefit of the policy-determining group.
    When the tragic events of September 11 occurred, immediate general 
reactions seemed to be who promoted these acts, where can we find these 
promoters, and violence should be met with violence--hardly a new 
approach but shall we say the pattern of centuries? To what degree did 
the question as to why these horrible acts were committed arise? 
Granted that ``extremists'' and ``fanatics'' may be applicable terms, 
there are genuine grievances that warrant our attention. Or do we 
choose to ignore such? And doesn't the situation become more 
complicated when those who would never resort to such extreme measures 
nevertheless sense a degree of validity in the grievances of those who 
do? Furthermore, can it be said that hatred, no matter by whom against 
whom, is not conducive to good judgment?
    At best violent reactions are negative and, even if generally 
accepted as necessary, alone would hardly seem to provide solutions to 
the underlying problems. But emphasis on the positive has all too often 
been neglected--the ``triumph'' of violence over the initial outbreak 
has been treated as if it were the end of the matter. True, the 
announced intention of remaining in Afghanistan to help in its 
reconstruction is a hopeful sign, even if the problem is an awesome 
one. But by and large to my way of thinking, there has been over the 
decades if not centuries an overall lack of adequate attention to the 
positive approach to international, as well as intranational, problems 
of human behavior.
    But it seems to me that the United States as the global preeminent 
power is in a good position to enlist many of the generally sympathetic 
nations of the world in an accentuated emphasis on the positive. And 
isn't it possible that the ``fallout'' from such a program to get at 
and remedy underlying causes of world problems could overwhelm the 
terrorist elements in the appeal of a positive approach to the 
dissatisfied? Presumably a climate of hope could be generated. At least 
as the world's only superpower with the vulnerability this brings can 
we afford to pass up such an opportunities?
    Within this framework I wish to return to the matter of the United 
States Institute of Peace. For fiscal year 2003 the Institute is 
requesting an appropriation of $16.2 million after being chastised, in 
my opinion, for its temerity in requesting an addition to its fiscal 
year 2002 budget subsequent to the events of September 11. What I am 
pleading for is an increase of its appropriation to at least $20 
million. I don't know specifically what the Institute has in mind, but 
having followed its progress since its beginning, I am convinced that 
its emphasis on the positive offers results that violence can never 
bring.
    It is with a background in economics that I approach this problem. 
As you must well know, the amount of $20 million is trivial in 
comparison to the expenditures for armaments, yet the possibilities for 
favorable results are great. These are an alternative to what strikes 
me as a rather blind faith in technology. On the other hand I think the 
word ``technology'' is too narrowly defined but won't pursue the matter 
any further here. Actually the ``weapons'' used on September 11 can be 
considered rather crude. I shudder to think what the fatalities could 
have been had weapons of mass destruction been used.
    I have returned to what has been said in previous communications to 
your Committee about appropriations over the years for the United 
States Institute of Peace. Thus far there has been little, if any, 
direct acknowledgement of the receipt of such. But back to what I think 
are misplaced emphases in our society. The combined intellectual 
capacities of the inhabitants of this planet must be awesome and of 
which the United States has its share. And beginning with our own 
country as the leader we have mobilized some of this capacity with 
remarkable results. At the moment examples of such are the development 
of nuclear weapons and sending a man to the moon. Both of these 
accomplishments required intensive efforts directed from the national 
level.
    A basic element of the entire field of Economics is ``the 
allocation of scarce resources among alternative ends''. Here we have 
examples of an unusual degree of governmental allocation of the 
resources for these two projects. And yet, irrespective of the merits 
of either project, we can raise the question of what seems to me to 
have been a serious imbalance of allocations over many years if not 
centuries. In a nutshell while we have pursued a weapons route as an 
assumed path to national security we have been extremely reluctant to 
develop methods of conflict resolution by nonviolent means. Yet the 
great benefits from all the other technological developments that have 
bettered the lot of humanity could be nullified by violence among and 
within nations.
    The question has been raised as to why we don't apply our strongest 
method, science, to our greatest problem, the achievement of peace? And 
I would include in this peace designation the attainment of more 
harmonious relations both within and among nations. It must be said 
that, in a sense, science has been applied to these problems in human 
relations. However, to reiterate, the extent of such application has 
been grossly inadequate. And the proposal for application of 
``science'' in a rigorous fashion would include many more academic 
disciplines than the usual Political Science, History, International 
Relations, Military Science, Economics and possibly another or two. 
Certainly the increasing role of Nongovernmental Organizations (NGO's) 
should not be overlooked for their contributions in many cases have 
been very significant. And the Institute can and does work with them at 
times. In the area of Economics there is the ever-present problem as to 
the role of government versus the role of free enterprise. But in the 
matter of international relations, as well as matters of domestic crime 
and punishment, there is little argument about the necessity of 
governmental action. Furthermore, from the standpoint of economics, it 
is encouraging that costs for positive approaches to terrorism tend to 
be much less than that for the instruments of war. However, my concern 
here is with what I see as unrealistic imbalances between the two.
    Were these imbalances to be more seriously addressed, the results 
have great potential and a greater movement in this direction in view 
of the violence throughout history seems long overdue. Apparently wars 
have in some cases brought what was widely accepted as better 
conditions and which have endured over considerable periods of time. 
Yet if during these periods of peace intense efforts have been directed 
toward preparation for the next war, it would seem that over the long 
run war itself has been a failure. Yet resource-wise the underlying 
causes of resort to violence have competed unfavorably with 
preparations for further efforts to counter violence with violence. 
Don't we human beings have the potential for doing much better than 
this? And if so, are we not gravely remiss in not having done so?
                                 ______
                                 

                  Corporation for Public Broadcasting

Prepared Statement of the National Federation of Community Broadcasters
    Thank you for the opportunity to submit testimony to this 
Subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of 200 community radio 
stations and related organizations across the country. NFCB is the sole 
national organization representing this group of stations which provide 
service in the smallest communities of this country as well as the 
largest metropolitan areas. Nearly half of our members are rural 
stations and half are minority controlled stations.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Requests $395 million CPB for fiscal year 2005, a $15 million 
        increase over fiscal year 2004 advance appropriation;
  --Requests $137 million in fiscal year 2003 for conversion of public 
        radio and television to digital broadcasting.
  --Requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Requests report language to ensure that CPB utilizes digital funds 
        it receives for radio as well as television needs;
  --Supports CPB activities in facilitating programming services to 
        Latino and Native American radio stations;
  --Supports CPB's efforts to help public radio stations utilize new 
        distribution technologies and requests that the Subcommittee 
        ensure that these technologies are available to all public 
        radio services and not just the ones with the greatest 
        resources.
    Community radio fully supports $395 million for the Corporation for 
Public Broadcasting in fiscal year 2005.--Federal support distributed 
through the CPB is an essential resource for rural stations and for 
those stations serving minority communities. These stations provide 
critical, life-saving information to their listeners. Yet they are 
often in communities with very small populations and limited economic 
bases so that the ability of the community to financially support the 
station is insufficient without federal funds.
    In larger towns and cities, sustaining grants from CPB enable 
community radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a nation that is dominated by national 
program services and concentrated ownership of the media.
    For the past 25 years, CPB appropriations have been enacted 2 years 
in advance. This insulation has allowed pubic broadcasting to grow into 
a respected, independent, national resource that leverages its federal 
support with significant local funds. Knowing what funding will be 
available in advance has allowed local stations to plan for programming 
and community service and to explore additional non-governmental 
support to augment the federal funds. Most importantly, the insulation 
that forward-funding provides ``go[es] a long way toward eliminating 
both the risk of and the appearance of undue interference with and 
control of public broadcasting.''----House Report 94-245.
    In the last 2 years, CPB has increased support to rural stations 
and committed resources to helping public radio take advantage of new 
technologies such as the internet and satellite radio. We commend these 
activities which we feel provide better service to the American people, 
but want to be sure that the smaller stations with more limited 
resources are not left out of this technological transition. We ask 
that the Subcommittee include language in the appropriation that will 
ensure that funds are available to help the entire public radio system 
utilize the new technologies, particularly rural and minority stations.
    NFCB commends CPB for the leadership it has shown in supporting and 
fostering the programming services to Latino stations and to Native 
American stations. Satelite Radio Bilingue provides 24 hours of 
programming to stations across the United States and Puerto Rico 
addressing issues of particular interest to the Latino population. In 
the same way, American Indian Radio on Satellite (AIROS) is 
distributing programming for the Native American stations, arguably the 
fastest growing groups of stations. There are now over 30 stations 
controlled by and serving Native Americans, primarily on Indian 
reservations.
    This past June CPB funded an historic Summit of Native American 
Radio in Warm Springs, Oregon. It was an extremely important 
opportunity for Native American stations and producers to strategize 
with each other and colleagues from Public Radio and Native America on 
ways to improve the radio service to all Native Americans. CPB has 
funded a similar Summit for Latino Public Radio which will take place 
this coming September in Rohnert Park, California, home of the first 
Latino Public Radio station.
    CPB plays a very important role for the public and community radio 
system. They are the convener of discussions on critical issues facing 
us as a system. They support research so that we have a better 
understanding of how we are serving listeners. And they provide funding 
to programming, new ventures, expansion to new listeners, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with new distribution technologies and media 
consolidation. An example of this support is the grant that NFCB 
received to update and put our Public Radio Legal Handbook online. This 
provides easy to read information to stations about complying with 
governmental regulations so that stations can function legally and use 
their precious resources for programming instead of legal fees.
    Finally, community radio supports $137 million in fiscal year 2003 
for conversion to digital broadcasting by public radio and 
television.--While public television's needs are more immediate, the 
Federal Communications Commission is now in the process of identifying 
a standard for digital radio transmission. We expect that there will be 
funds available for radio conversion as well as television conversion. 
More immediately, the television conversion process is already having 
an impact on public radio stations. As television stations increase the 
space they need on their towers to accommodate both analog and digital 
signals, radio stations that rent space on TV towers are losing their 
leases and being forced to move to other towers--sometimes with very 
short notice. This situation will only get worse over the next year as 
we approach the FCC deadline for television conversion. We would like 
to see emergency funding to help public radio stations who lose their 
tower space do the necessary engineering studies and move to new tower 
locations.
    Federal funds distributed by the CPB should be available to all 
public radio stations eligible for Federal equipment support through 
the Public Telecommunications Facilities Program (PTFP) of the National 
Telecommunications and Information Agency of the Department of 
Commerce. In previous years, Federal support for public radio has been 
distributed through the PTFP grant program. The PTFP criteria for 
funding are exacting, but allow for wider participation among public 
stations. Stations eligible for PTFP funding and not for CPB funding 
include small-budget, rural and minority controlled stations.
    We appreciate Congress' direction to CPB that it utilize its 
digital conversion fund for both radio and television and ask that you 
ensure that the funds are used for both media. Congress stated, with 
regard to fiscal year 2000 digital conversion funds:

    ``The required (digital) conversion will impose enormous costs on 
both individual stations and the public broadcasting system as a whole. 
Because television and radio infrastructures are closely linked, the 
conversion of television to digital will create immediate costs not 
only for television, but also for public radio stations (emphasis 
added). Therefore, the Committee has included $15,000,000 to assist 
radio stations and television stations in the conversion to 
digitalization. . . .''----(S. Rpt. 105-300)

    This is a period of tremendous change. Digital is transforming the 
way we do things; new distribution avenues like digital satellite 
broadcasting and the Internet are changing how we define the business 
we are in; the concentration of ownership in commercial radio makes 
public radio in general and community radio in particular, more unique 
and more important as a local voice than we have ever been. During this 
time, the role of CPB as a convener of the system becomes even more 
important. And the funding that it provides will allow the smaller 
stations to participate along with the larger stations which have more 
resources, as we move into a new era of communications.
    Thank you for your consideration of our testimony. If the 
Subcommittee has any questions or needs to follow-up on any of the 
points expressed above, please contact: Carol Pierson, President and 
CEO, National Federation of Community Broadcasters, Telephone: 415 771-
1160, Fax: 415-771-4343, E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea899a848c8988aa8b8586c4898587">[email&#160;protected]</a>
    The NFCB is a 27 year old grassroots organization which was 
established by, and continues to be supported by our member stations. 
Large and small, rural and urban, the NFCB member stations are 
distinguished by their commitment to local programming, community 
participation and support. NFCB's 100 Participant members and 100 
Associates come from across the United States, from Alaska to Florida; 
from every major market to the smallest Native American reservation. 
While the urban member stations provide alternative programming to 
communities that include New York, Minneapolis, San Francisco and other 
major markets, the rural members are often the sole source of local and 
national daily news and information in their communities. NFCB's 
membership reflects the true diversity of the American population: 41 
percent of the members serve rural communities and 46 percent are 
minority radio services.
    On community radio stations' airwaves examples of localism abound: 
on KILI in Porcupine, South Dakota you will hear morning drive programs 
in their Native language; throughout the California farming areas 
around Fresno, Radio Bilingue programs five stations targeting low-
income farm workers; in Barrow, Alaska, on KBRW you will hear the local 
news and fishing reports in English and Yupik Eskimo; in Dunmore, West 
Virginia, you will hear coverage of the local school board and county 
commission meetings; KABR in Alamo, New Mexico serves its small 
isolated Native American population with programming almost exclusively 
in Navajo; and on WWOZ you can hear the sounds and culture of New 
Orleans throughout the day and night.
    In 1949 the first community radio station went on the air. From 
that day forward, community radio stations have been reliant on their 
local community for support through listener contributions. Today, many 
stations are partially funded through the Corporation for Public 
Broadcasting grant programs. CPB funds represent under 10 percent of 
the larger stations' budgets, but can represent up to 50 percent of the 
budget of the smallest rural stations.
                                 ______
                                 
    Prepared Statement of the National Minority Public Broadcasting 
                               Consortia
    The National Minority Public Broadcasting Consortia (Minority 
Consortia) submits this statement on the fiscal year 2005 appropriation 
for the Corporation for Public Broadcasting (CPB). Our primary missions 
are to bring a significant amount of programming from our communities 
into the mainstream of PBS and public broadcasting. In summary, we ask 
the Committee to:
  --Reject the Administration's proposal to end forward funding of the 
        Corporation for Public Broadcasting
  --Recommend at least $395 million for CPB for fiscal year 2005, a $15 
        million increase over fiscal year 2004
  --Encourage CPB to increase its efforts for diverse programming with 
        commensurate increases for minority programming and the 
        Minority Consortia
  --Support CPB's request of $137 million for digital conversion, but 
        require that some of it be made available to independent 
        producers, not only to stations
    The National Minority Public Broadcasting Consortia consists of the 
National Asian American Telecommunications Association, the National 
Black Programming Consortium, Native American Public 
Telecommunications, Pacific Islanders in Communications and the Latino 
Public Broadcasting Project.
    Forward Funding.--We strongly oppose the Administration's proposal 
that the advance funding for CPB be eliminated, a proposal that would 
stop CPB funding for 2 years. We appreciate that Congress rejected this 
proposal last year and are hopeful that you will do the same this year. 
Reasons to continue forward funding for CPB include:
  --The production of programming for public broadcasting usually takes 
        several years and substantial lead time is needed for planning.
  --Public broadcasting programs are supported by multiple funding 
        sources, and 2 years advance knowledge of the amount of federal 
        funding allows CPB to better leverage its federal funds to 
        bring in other sources of revenue.
  --The Minority Consortia administers a significant amount of CPB 
        programming monies, and elimination of forward funding would 
        negatively affect our organizations' planning and fundraising 
        activities.
    CPB Appropriation.--We support a fiscal year 2005 federal 
appropriation for CPB of at least $395 million. This would be a 
reasonable, albeit modest, contribution toward our national treasure of 
public broadcasting. The debate of the past several years regarding 
public television and public radio has highlighted the great esteem in 
which they are held.
    Public broadcasting, including PBS and NPR, is particularly 
important for our nation's growing minority and ethnic communities. 
While there is a niche in the commercial broadcast and cable world for 
quality programming about our communities and our concerns, it is in 
the public broadcasting industry where minority communities and 
producers are more able to bring quality programming for national 
audiences. Additionally, public television and radio is universally 
available.
    Digital Conversion Assistance.--We support the Administration's 
request for $137 million for digital conversion funding for CPB.
    With stations able to broadcast on multiple channels, there will be 
a need for a tremendous amount of new, quality public broadcasting 
programming. There are costs involved in the conversion which go beyond 
the significant equipment and hardware needs of stations. It will also 
take additional money to produce programming for digital broadcast. All 
producers will face these new, higher costs.
    Part of the equation in bringing more high quality diverse 
programming to public broadcasting is that independent producers be 
able to transition to digital production. Federal funding for digital 
conversion should include assistance for independent producers.
    The Minority Consortia works closely with CPB. We value our 
relationship with President Coonrod and the CPB staff and appreciate 
the financial and technical assistance provided to us by that 
organization. We do not doubt CPB's commitment to increasing the 
diversity of programming on public television and radio but also 
believe they can do more with the resources at hand. The oft-stated 
commitment of CPB and Congress for increased multicultural programming 
combined with 5 years of funding increases make this an ideal time for 
significant progress.
    Thank you for your consideration of our recommendations. We see new 
opportunities to increase diversity in programming, production, 
audience, and employment in the new media environment, and thank you 
for your long time support of our work on behalf of our communities.
                                 ______
                                 
              Prepared Statement of National Public Radio
                              introduction
    Thank you, Chairman Harkin and Senator Specter, for providing 
National Public Radio and its hundreds of member stations with the 
opportunity to submit written testimony for the record in support of 
the Corporation for Public Broadcasting (CPB) and its fiscal year 2005 
appropriation. This year, public broadcasting is requesting that $395 
million be allocated to CPB and $137 million be allocated for the 
digital conversion. These levels of funding will ensure that there is 
sufficient money available to help public broadcasters in their 
conversion to digital audio broadcasting and to produce and acquire 
quality educational and cultural programming. In addition, public 
broadcasters urge the Subcommittee to maintain advance appropriations 
for CPB. This long-standing practice preserves freedom of expression, 
affords program managers more lead time to plan and organize 
activities, and provides seed money for raising non-federal money.
                  corporation for public broadcasting
    CPB helps public broadcast stations produce, purchase, and improve 
programming. Local public radio stations nationwide receive the 
majority of federal funds allocated for radio (93 percent). This money 
is combined with the financial support of listeners, businesses, and 
foundations. The remaining 7 percent of the federal radio funds remain 
at CPB to support national radio programming, which is awarded on a 
competitive basis.
    In the terms of stations, federal money accounts for roughly 13 
percent of public radio station funding on average, and less than 2 
percent of NPRs budget. The money allows stations to air and produce 
programming which attracts other private funding sources. CPB grants 
also encourage high standards of program quality while decision-making 
and accountability are maintained at the local level. The result of 
this public-private partnership is unrivaled programming that serves 
the public interest.
                          cpb funded programs
    The vast majority of federal radio dollars go to local stations to 
help sponsor community outreach activities, create local programming, 
and purchase national programming from a diverse set of content 
providers. The following are a few of the many examples of the 
programming supported in part by federal funding:
  --The WOI Radio Iowa St. University in Ames, IA--Talk of Iowa.--A 
        daily one-hour audience participation program which features 
        regular and special guests who discuss and field questions on a 
        wide variety of topics, such as horticulture, politics, and 
        health and family matters.
  --WDUQ in Pittsburgh, PA--The Anderson Little Report.--A weekly 
        program that provides extensive coverage of activities in the 
        African-American Community.
  --WUWM in Milwaukee, WI--At Ten This Week.--An award-winning daily 
        news interview program that airs at 10:00 a.m. and 10:00 p.m., 
        which focuses on the issues affecting the greater Milwaukee 
        area. The program presents in-depth exploration and detailed 
        discussion of issues and concerns within such areas as the 
        arts, government and politics, the economy, money and 
        investing, education, health, and technology.
  --WKSU in Kent, OH.--In February of this year WKSU launched the 
        Stark/Wayne Bureau to provide additional public service to the 
        residents of Stark and Wayne counties in northeast Ohio. The 
        bureau, located at the Canton Cultural Center, covers local 
        news on a wide range of issues such as the environment and 
        cultural affairs. Recently, the bureau produced a three-part 
        series on the controversy surrounding the possible development 
        of the Industrial Excess landfill in Unionville.
  --KQED in San Francisco, CA--Pacific Time.--A weekly half-hour 
        program that covers ideas, trends, events, and cultural 
        patterns for Asian Americans interested in learning more about 
        current affairs in their countries of origin and for general 
        audiences who wish to be better informed about daily life in 
        Asia.
  --WCLK-FM in Atlanta, GA--Powerpoint.--A weekly two-hour national 
        call-in and interview program produced at Clark Atlanta 
        University featuring news and cultural discussion topics that 
        are of special interest to the growing African-American public 
        radio audience.
  --KUOW in Seattle, WA--Rewind.--A nationally distributed weekly half-
        hour program that examines current news and events through 
        humorous and/or satirical sketches. Rewind's elements are 
        pulled from themes embedded in the producing station's daily 
        local and national programs and are given a new, lighthearted 
        and whimsical perspective.
  --NPR in partnership with six African-American public radio stations 
        (WBGO in Newark, NJ; WCLK in Atlanta, GA; WJSU in Jackson, MS; 
        WNCU in Durham, NC; WEAA in Baltimore, MD; and KTSU in Houston, 
        TX)--The Tavis Smiley Show.--A daily newsmagazine hosted by 
        Tavis Smiley to report news and information from and about 
        African-American experiences.
                         advance appropriations
    The President's Office of Management and Budget has targeted for 
elimination the practice of advance funding. For the past 25 years, CPB 
appropriations have been enacted 2 years in advance, mainly to preserve 
freedom of expression by insulating public broadcasting from reactions 
to programming decisions and the uncertainties surrounding the annual 
appropriations process, such as delays in enacting appropriations.
    Advance funding is extremely important to public broadcasters for 
other reasons as well. It provides seed money for raising non-federal 
funding and enhances a tremendously effective public-private 
partnership for public broadcasting. Since public broadcasting matches 
federal appropriations with private contributions, stations are able to 
attract the additional money that is needed so developing projects are 
assured of completion. Advance funding also provides the necessary 
lead-time to produce large scale, high quality programming. Uncertainty 
as to funding levels precludes long-term commitments to quality 
projects.
    Fortunately, the House of Representatives rejected the policy of 
eliminating advance funding for CPB in its fiscal year 2003 budget 
resolution, which was passed on March 20, 2002. Section 301(b)(2) of H. 
Con. Res. 353 explicitly states that CPB may be provided an advance 
appropriation. NPR and its member stations strongly support this 
language and respectfully request that the Senate incorporate it into 
its budget resolution.
                        digital radio conversion
    Public radio will soon begin the process of converting to digital 
audio broadcasting. Stations are preparing to upgrade their equipment 
and digitize their programming in anticipation of the Federal 
Communication Commission's impending decision on the creation of a 
digital FM radio standard.\1\ Once the Commission issues its final rule 
later this summer, public radio broadcasters will begin the expensive 
process of converting to a digital format, which is currently estimated 
to cost about $116 million. That amount is solely for the cost of 
transmission and does not include the cost of digitizing production.
---------------------------------------------------------------------------
    \1\ Industry testing is currently occurring on AM-IBOC technology.
---------------------------------------------------------------------------
    Digital radio is expected to transform the radio industry and allow 
it to compete on equal footing with other digitized media. Digital 
technology will allow stations to broadcast near CD quality sound free 
of interference to listeners, as well as help utilize spectrum more 
efficiently. Developed by the industry, In-Band, On-Channel (IBOC) 
technology will allow stations to simultaneously broadcast their analog 
and digital signals using their existing analog AM and FM frequency. 
Unlike television stations, radio stations will not require additional 
spectrum to convert to a digital format.
    In addition to providing near CD quality sound and the efficient 
use of spectrum, digital radio will afford new service opportunities. 
IBOC technology has the potential to provide important new public 
interest programming such as:
  --Assisted-living services, such as radio reading services for the 
        print-impaired and radio captioning;
  --Public safety services such as weather alerts, traffic safety, and 
        national security notifications;
  --Foreign language programming; and
  --Audio-on-demand
    Digital radio will also enable new functions such as the ability to 
search program formats, scan selective programming, and read music 
lyrics and song titles.
    CPB digital funds will play an important role in the public radio 
system's conversion to digital radio technology. Once a FM IBOC 
standard is adopted, many stations will quickly begin the process of 
converting, which will involve high capital costs. This funding will 
help public radio stations finance their projects as well as leverage 
vital funding from other sources.
                               conclusion
    Through the assistance federal grants provide, public radio has 
grown considerably. The small, but vital funding CPB allocates to 
stations provides Americans with high quality, low cost community 
oriented educational and cultural programming. An appropriation of $395 
million for CPB in fiscal year 2005 and $137 for the digital conversion 
in fiscal year 2003 will ensure that public broadcasters can continue 
to serve their communities with high quality programming as well as 
help them begin the expensive conversion to digital audio broadcasting.
    NPR thanks the Subcommittee for allowing written statements to be 
submitted for the record, and for its long-standing support of public 
broadcasting.
    NPR is a private, nonprofit corporation that produces and 
distributes award-winning programming such as Morning Edition, All 
Things Considered, Performance Today, and Car Talk. NPR is also a 
membership organization. NPR member stations are independent entities 
licensed to a variety of nonprofit organizations, local communities, 
colleges, universities, and other institutions. Public radio stations 
independently select and produce community appropriate programming that 
best serve their listening areas.
                                 ______
                                 
  Prepared Statement of the Association of Public Television Stations
    This testimony is submitted to the Labor, Health and Human Service, 
Education and Related Agencies Appropriations Subcommittee on behalf of 
the Association of Public Television Stations and its members, who are 
the nation's local public television stations, in support of funding 
for the Corporation for Public Broadcasting (CPB) in fiscal year 2005 
and for the digital account at CPB in fiscal year 2003.
                            digital mandate
    In this next fiscal year--May 2003--public television stations must 
be on the air with a digital signal that is mandated by law. For the 
past four funding cycles, we have sought supplementary funding through 
CPB to assist public television stations in their transition to digital 
facilities. APTS thanks the subcommittee for their generosity in that 
regard. The President's budget request seeks level funding for digital 
funds at CPB in fiscal year 2003. While last year's appropriation of 
$25 million was generous, it will not be adequate for fiscal year 2003.
    Public broadcasters have carefully researched digital conversion 
costs and have estimated the total digital conversion cost to the 
system to be $1.7 billion. Over the last 4 years, the industry has 
sought a federal contribution of $699 million, or 40 percent of the 
total estimated cost. To date, public television stations have raised 
$748 million, or 44 percent, through state appropriations and private 
funding sources. However, much of the state funds are contingent upon a 
federal match.
    While the federal contribution of $158 million through fiscal year 
2002 has been significant, it has also been inadequate. Public 
television stations are very grateful to this subcommittee for the $45 
million that has been appropriated for the digital fund at the 
Corporation for Public Broadcasting. The remaining $113 million has 
been in the form of digital grants through the PTFP (the Public 
Telecommunication Facilities Program) within NTIA at the Department of 
Commerce.
    In order to meet the by FCC mandate to be on the air by May 2003, 
public televison still needs $247 million in federal funding.
    Public television urges the subcommittee to fund the digital 
account at CPB in fiscal year 2003 at $137 million. Public television 
stations are also seeking $110 million in fiscal year 2003 through the 
Public Telecommunications Program to assist in the transition to 
digital broadcast. Digital funds made available through the PTFP would 
be made available for station matching grants for the purchase of 
equipment that would enable stations to broadcast a basic pass-through 
digital signal and meet the federal mandate. Digital funds at CPB will 
be used for necessary investments in digital transmission and 
production facilities that PTFP cannot cover and for essential digital 
program development. It is critical to a successful transition of 
digital broadcasting that those funds be made available now. There is 
no leeway left on in the conversion schedule, although the FCC may 
provide 6 month extensions in limited cases.
                            ongoing support
    The President's budget did not include a request for CPB in fiscal 
year 2005 as the administration has sought to eliminate the practice of 
advanced appropriations for most programs. (The President's budget does 
support the already appropriated funding level for fiscal year 2003.) 
Public television stations are grateful that both the House and Senate 
Budget Resolutions included language that specifically excludes CPB 
from the prohibition for advance appropriations. APTS urges the 
subcommittee to fund the general account at CPB in fiscal year 2005 at 
$395 million.
    Most of the funds made available to the general account at CPB go 
to public broadcasting stations in the form of Community Service 
Grants. Stations use their CSGs for general support. By fiscal year 
2005, public television stations will be in the midst of a dual 
operations period where they must broadcasting in both analog and 
digital formats. This modest increase in funding from the fiscal year 
2004 level of $380 million to the requested $395 million will help 
stations with the increased operating expenses associated with dual 
transmission.
                               the vision
    Public broadcasters have been aggressively raising the needed funds 
for the digital transition because we enthusiastically embrace the 
promise of digital technology. When not broadcasting a high definition 
signal (HDTV) the digital broadcasting signal is able to transmit 
several content streams simultaneously, known within the industry as 
``multicasting.'' With our deepest roots in education, public 
television stations have committed the equivalent of at least one 
multicast channel--or 4.5 megabits per second for formal education--pre 
school through post secondary and workforce training. In addition, 
public stations are planning a variety of other multicast services 
including separate channels devoted to children, public affairs, the 
adult learner and multicultural audiences.
    Digital technology allows broadcasters to transmit not only 
multiple audio and video signals commonly associated with television, 
and additionally large streams of data. The combination of the two into 
a single program is known as ``enhanced television.'' Using enhanced 
television signals, viewers can explore content addressed in the 
program in greater detail, providing for a more meaningful viewing 
experience. Data accompanying enhanced television programs is likely to 
include Web links, bibliographies, transcripts, and detailed background 
on a show's subject.
    In an educational setting these enhancements can be directly tied 
to a specific lesson. Using our digital signal, these services can be 
delivered to schools 80 times faster than a 56K dial up modem and 15 
times faster than a DSL connection. Today, schools and homes only need 
a simple antenna and a DTV tuner card installed in a computer to access 
these signals. Tomorrow, this capability will be installed in cable 
boxes and digital television receivers. The value of this technology is 
conservatively valued at $2.4 billion per year. Public stations have 
also developed the software to use a small portion of their digital 
capacity to delivery critical weather and public safety information in 
a fraction of the time it currently takes.
    In Iowa, there are currently over 550 schools without Internet or 
high-speed access. Iowa's public television stations can send 
broadband-like rich media educational content to these rural schools 
that is roughly valued at $13.9 million per year. In Pennsylvania, the 
number of schools without Internet or high-speed access is over 2,500. 
The value of public digital television services to that state is over 
$67 million per year.
    Even in the digital age, however, public televison will not rely 
just on technology to serve our viewers. Local public television 
stations will continue to meet the needs of their communities through 
partnerships and outreach efforts that extend the use of our quality 
programming.
                     preschool and early childhood
    Public television remains committed to bringing the highest quality 
children's educational programs to our nation's preschool audience. The 
industry has received strong federal support in this area through the 
Department of Education's Ready to Learn grant (which is addressed in 
separate testimony.) Earlier this month public television was 
recognized by the President and First Lady at a White House event as an 
important contributor to early childhood literacy. In the digital age, 
stations will be able to dedicate one of their multi-channels to 
preschool and early childhood programs such as Between the Lions and 
Sesame Street. This means that parents and caregivers will always be 
able to find a safe harbor on televison for their children.
    With current technology, parents and caregivers can access 
supplementary information for our children's programs on the Internet. 
In the digital age, the amount of information will dramatically 
increase and this information will be immediately available through a 
television set with only a simple antenna to access the signal.
                             k-12 services
    PBS programs remain the number one choice of teachers for classroom 
use. As mentioned above, in the digital age, teachers will be able to 
immediately access support and supplementary materials over the air. 
This enhanced technology will be of enormous benefit to all schools, 
teachers and parents, but especially those without access to high-speed 
Internet connections.
    West Virginia Public Broadcasting is one of many stations 
broadcasting a live program with a web component to serve students. 
Homework Hotline is broadcast during the school year and focuses on 
science and math. Public digital television's ability to deliver 
enhanced educational materials, such as problems from a workbook or 
textbook, will dramatically increase the educational value of this 
program. Allowing students to choose among the data and text streams 
for additional information will tailor the experience to their 
individual needs.
                           diverse audiences
    A major part of public television's mission is to serve those whose 
needs, for a variety of reasons, are not adequately addressed by 
commercial televison.
    In culturally diverse northern Virginia, MhzNetwork (WNVC and WNVT) 
offers programming from over 20 countries each week and appeals to the 
areas more than 250,000 Hispanics, 43,000 French speaking and 26,000 
German speaking residents, and to the nearly 100,000 Southeast Asian 
residents. Public digital television's technology would allow for 
greater diversity of this programming. Looking to use the increased 
capacity inherent with digital broadcasting, WNVC World View TV--the 
country's only noncommercial, independent television station with an 
international format--plans to reach the Washington, DC area globally 
minded audience through foreign language, yet English accessible 
programming.
    Every year, WHUT in Washington, DC, broadcasts over 2000 hours of 
public affairs and educational programming targeting ethnic minorities. 
The station also produces a nationally syndicated series, The Reading 
Club, a roundtable talk show focused exclusively on books. In a digital 
environment, this program would be available at various times 
throughout the day.
                 adult education and lifelong learning
    Public television is extremely proud of its leadership and 
accomplishments in the areas of adult education and lifelong learning. 
Many public televison stations licenses are held by higher education 
institutions, and have pioneered the practice of telecourses and 
distance learning. Every year distance-learning telecourses are 
broadcast by public TV stations for two-thirds of the colleges and 
universities in the United States. Over 500,000 adult degree candidates 
participate in those courses, a valuable use of technology on a scale 
unimaginable only a few years ago. Since 1981 more than five million 
adults have earned college credit using public television's Adult 
Learning Service telecourses. With digital television, entire channels 
can be devoted to adult learning.
    The New Jersey Workplace Literacy Program was created in 
partnership with the New Jersey Department of Labor and the New Jersey 
Network (NJN) to deliver workforce training programs and series 
directly to welfare registrants, dislocated workers and other job 
seekers. Using digital television technology, the Internet and print 
materials, NJN provides interactive training services that allow 
participants to address individual employment-related issues at their 
own pace.
    In West Virginia, 1,500 students receive college credit at home 
through West Virginia Public Broadcasting. Telecourse instruction is so 
successful that demand is increasing, yet the distribution system 
remains the same. There are not enough analog channels, nor enough 
airtime, to schedule all the desired courses. With digital technology, 
West Virginia Public Broadcasting can offer multiple college 
telecourses, from remediation to college level.
    Kentucky Educational Television produces a variety of adult 
education programs that are used throughout the public television 
system. Two flagship literacy programs for adults produced by KET are 
Learn to Read, and GED on TV. GED on TV has helped over 1.2 million 
adults successfully obtain their GED certificate with an estimated 
economic impact of $2.9 billion.
    In Tacoma, Washington, KBTC works with many community and technical 
colleges to offer credit for televised college courses. This year's 
enrollment is 2,500. To further the program, KBTC is coordinating the 
launch of an educational access channel for four colleges in the area 
to provide more resources.
    In Iowa, to help teachers and parents who are unaware of the 
state's career opportunities, Iowa Public Television created the School 
to Career Project. IPTV identifies career professional and videos them 
at work. Later, the professionals participate in videoconferences with 
schools.
                             public safety
    Public televisions stations, with their universal reach, are 
perfect partners for state and federal public safety and homeland 
security efforts.
    WNYE in New York City worked with the Federal Emergency Management 
Agency (FEMA) and Skystream Networks, Sinclair Broadcast Group, Hicks & 
Associates, Acrodyne Industries, Inc. to develop and successfully test 
a new digital emergency broadcast data system in October 2001. The 
system could enable the fast, efficient and reliable delivery of 
critical information over the digital TV airwaves in a time of crisis 
when other communication systems may be disabled.
    Last fall, KET (Kentucky Educational Television) demonstrated a new 
``datacasting'' technology to leaders from across the commonwealth of 
Kentucky. This new technology uses a fraction of the digital channel to 
deliver weather and public safety information that can be targeted to 
the community at large or designated public safety officials. This 
technology has the ability to ``push'' severe weather alerts, complete 
with high-end weather imagery, to desktop PCs. The demonstration 
documented a potentially life saving reduction in response time.
    Using this technology, KET can pick up weather alerts distributed 
by satellite by the National Weather Service and then rebroadcast this 
data in seconds through its 15 statewide digital transmitters to homes, 
schools and public safety officials. Equally important, this 
information, through a TV broadcast signal, can be encrypted and 
targeted for a chosen audience. While this security feature is 
particularly important for law enforcement, it holds tremendous promise 
for a wide variety of applications for state agencies and other 
government organizations (e.g. training, videoconferences, computer 
file and software transfers, videostreaming, etc.)
                               conclusion
    Public broadcasting is composed of local boards of trustees, 
hundreds of thousands of local volunteers, local staffs and local 
nonprofit and business partners, and local members, all of whom ensure 
that public television programs and services reflect diverse local 
needs and interests. The digital transition will only enhance public 
television's role as the ``town square'' in the digital age, with local 
public television stations serving as the increasingly essential link 
in connecting homes, offices, workplaces, libraries, schools, colleges 
and local civic entities.
    Public broadcasters do not create television programming and 
multimedia content in order to make money for shareholders. We do it to 
improve the quality of life for all Americans. We set out to use 
satellites, video and computer technology, and now digital television, 
to enhance primary, secondary and higher education; to broaden access 
to lifelong learning; to provide a safe harbor for children, free from 
violence; and to bring the best of arts and culture into American 
homes. As modern-day broadcasters over the air with digital television 
and as ``narrow-casters'' over the web, we are can use the influence 
and power of the media: to sow seeds that will help people of all ages 
and backgrounds lead better, fuller, more productive lives. Funding 
through the Corporation for Public Broadcasting's general account and 
the digital fund will ensure that public digital television will 
achieve these public service goals in a digital age.
    APTS is a nonprofit corporation whose members are the nation's 
public television stations.
                                 ______
                                 

             Corporation for National and Community Service

  Prepared Statement of the National Association of Senior Companion 
 Project Directors and the National Association of Retired and Senior 
                      Volunteer Program Directors
             corporation for national and community service
    We are pleased to testify in support of fiscal year 2003 
appropriations for the Senior Companion Program (SCP), and Retired and 
Senior Volunteer Program (RSVP), both part of the National Senior 
Service Corps (NSSC) authorized by the Domestic Volunteer Service Act 
and administered by the Corporation for National and Community Service.
    The National Directors Associations are membership-supported 
professional organizations whose rosters include the majority of more 
than 1,000 directors who administer Senior Companion and RSVP projects 
across the nation, as well as local sponsoring agencies and others who 
value and support the work of NSSC programs.
    We laud President Bush on his proposal to expand volunteer 
opportunities for all Americans, and particularly for the nation's 
senior population. Consistent with his proposal, we support a fiscal 
year 2003 funding level consistent with the goal of eventually 
enrolling one million older Americans in the Senior Corps. In pursuit 
of this goal, we rise in support of increasing funding for the Retired 
and Senior Volunteer Program (RSVP) by $6 million and the Senior 
Companion Program (SCP) by $5 million.
    For the Senior Companion Program, the National Association of 
Senior Companion Project Directors supports a $5 million increase in 
the program's funding level to be allocated as follows: a 4 percent 
administrative cost increase to support program infrastructure to meet 
the new grant requirements of Programming for Impact (roughly $2 
million); one-third of the increase ($1.7 million) dedicated to 
Programs of National Significance as required by law to expand the 
capacity of existing grantees and enroll more seniors wishing to 
volunteer; and $1.3 million for new programs at least one in each 
geographic cluster administered by the Corporation for National and 
Community Service.
    For the Retired and Senior Volunteer Program, the National 
Association of RSVP Directors supports a $6 million increase in the 
program's fiscal year 2002 funding level to be allocated as follow: 
one-third of the increase ($2 million) dedicated to Programs of 
National Significance as required by law as augmentations to existing 
grants to enroll a cadre of new volunteers and $4 million for existing 
CNCS-funded projects for staffing and other infrastructure support 
required to continue the shift to outcome-based programming and 
reporting, and technology needs.
    In each instance, infrastructure funding will also go far toward 
supporting the national goal of making it easier for more Americans to 
service. As one example, the advent of a new web-based recruitment 
system for senior service and participation by every grantee in making 
that system work has the potential for generating service opportunities 
in ways never before available. At this unique time in our nation's 
history with the rebirth of patriotism and rekindling of the national 
spirit of citizen responsibility, we know the desire is there and must 
rise to tap those critical resources for the nation.
    In addition, the National Association of RSVP Directors and the 
National Association of Senior Companion Project Directors supports 
providing $20 million for a new Silver Scholarship Program to award 
seniors with a $1,000 transferable education award which could be used 
by their children and grandchildren in exchange for a significant 
contribution of time--at least 500 hours per year in volunteer 
activity.
    While we appreciate the President's proposal to increase funding 
for ``Special Volunteer Programs'' under DVSA by $50 million, we feel a 
more appropriate allocation of resources would place these funds in the 
existing and established framework of the Senior Corps program 
structure, with modifications and improvements that will likely be 
enacted before the conclusion of this year's appropriations cycle. In 
our considered opinion, use of an open-ended authority like Special 
Volunteer Programs ignores the strengths, needs, and innovative 
potential for our existing programs to meet homeland security, public 
safety, and other still unmet community needs. We are concerned that 
allocating funds under the Special Volunteer Programs authority at this 
time prejudges the outcome of legislation intended to reauthorization 
and reform national service programs beginning fiscal year 2003 
legislation that is slated by the House and Senate authorizing 
committees to be considered expeditiously.
    The current status of the federal budget even more critically 
dictates that we be cost-conscious with our tax dollars--drawing the 
best return on our investments in Federal programs. Since 1965, FGP, 
SCP, and RSVP have represented the best in the Federal partnership with 
local communities, with federal dollars flowing directly to local 
sponsoring agencies, which in turn determine how the funds are used.
    In fiscal year 2001, RSVP volunteers provided over 78 million hours 
of service in a variety of settings throughout their communities across 
the country. The total cost of fielding one RSVP volunteer is far less 
than $1 per hour of service. All told, over 470,000 RSVP volunteers 
serve annually through more than 70,000 public and non-profit local 
volunteer stations. Sixty-nine percent of RSVP volunteers are over age 
70. Volunteers serve through 766 projects sponsored and managed by 
local non-profit agencies in all 50 states, the District of Columbia, 
Puerto Rico, and the Virgin Islands. RSVP volunteers provide services 
that utilize their own talents and interests; they present their 
communities with a rich array of options for addressing the full 
spectrum of community needs.
    As but one example of RSVP, the Senior for Schools program in 
Forest City, Iowa has served to improve reading skills for fourth 
graders. In North Central Iowa, 48 percent of fourth graders are 
reading below grade level. By April 2002, the program had grown to six 
school districts, 11 classrooms, and 40 volunteers and the improved 
reading skills of 220 children.
    In fiscal year 2001, over 17,000 Federal and non-federally funded 
Senior Companions served over 55,000 older adults through 219 projects. 
Senior Companion volunteers contributed over 11 million hours of 
service to their frail older clients--giving assistance to other adults 
with physical, mental, or emotional impairments. SCP volunteers serve 
through programs sponsored and managed by local non-profit agencies in 
all 50 states, the District of Columbia, Puerto Rico, and the Virgin 
Islands. Senior Companions help frail older people achieve and maintain 
the highest possible level of independent living and avoid 
institutionalization. The average annual cost of nursing home care in 
the United States exceeds $47,000. The annual federal cost for one 
Senior Companion is less than $4,000.
    For more than three decades, Federally-supported senior volunteers 
have been touching lives and helping communities in a variety of ways.
    Statistics show that RSVP and SCP focus their resources where they 
will have the largest impact: SCP on in- home assignments with frail 
older people at risk of institutionalization, and RSVP on helping their 
peers, children, and their communities in significant ways.
    Twenty-six thousand of the clients served by SCP are 75 or older, 
and 74 percent of SCP volunteers serve in the homes of clients. It is 
the 75+ elder population which most often experiences health problems 
which require institutionalization; SCP prevents institutionalization 
for these people by focusing on providing one-to-one in-home daily 
service and companionship to this population. Thirty percent of SCP 
volunteers provide respite care to families serving as primary care-
givers for an elder loved one. Fifty percent of volunteers address 
chronic care disabilities.
    Over 10 percent of RSVP volunteers serve in sites which focus on 
school-age and pre-school age literacy activities, as well as adult 
literacy. Sixty-four percent of RSVP volunteers provide service to 
their fellow seniors through congregate meal programs, food banks and 
kitchens, senior centers, and long term care residential facilities.
    We appreciate the goals of the Subcommittee in exercising its best 
judgment to effect the best use of scarce Federal resources, and as 
American taxpayers, we endorse your efforts to ensure that tax dollars 
yield significant impact. We have much evidence that SCP and RSVP 
produce results: the Corporation's studies as well as numerous 
anecdotal stories of lives changed, dollars saved, and lasting good 
works accomplished in communities across the country.
    This evidence is compelling, but we believe that much more is 
necessary to show that investing federal dollars in SCP and RSVP 
volunteers produces quantifiable, concrete results that significantly 
impact communities in measurable ways. That is why project directors 
nationwide, in cooperation with NSSC staff from the Corporation for 
National and Community Service and with the wholehearted support of the 
three national Directors Associations, have moved to outcome-based 
activity: Programming for Impact (PFI).
    Through PFI, projects and sites where volunteers serve are 
cooperating to collect and report data to support the impact our 
volunteers are having in addressing pressing local community needs. We 
hope that you will agree that the impact data now coming in truly does 
document the incredible effect our volunteers are having on 
communities, and supports your current federal investment in our 
programs as well as our request for increased funds for fiscal year 
2003.
    As baby boomers age, the ``graying of America'' is progressing at a 
phenomenal rate. Yet, only 5 percent of those over 65 years of age live 
in institutions, and a full 81 percent of the non-institutionalized 65+ 
population has no limitation in their activities of daily living. 
According to a U.S. Administration on Aging/Marriott Senior Living 
Services volunteerism survey, over 41 percent (15.1 million) of the 
37.7 million Americans 60 years of age and older performed some sort of 
volunteer work in the previous year. An additional 37.5 percent (14 
million) indicated they would volunteer if they were asked. The message 
is clear: in spite of the general public's conception of older people 
as frail and dependent, the aging process is, for most people, a time 
of wellness when they have both the time and the desire to serve 
others.
    We need more funds to engage more seniors in meeting the pressing 
needs being expressed by our communities. Your enhanced investment in 
all three senior volunteer programs now will pay off in the short and 
long term--savings realized by the value of service rendered to 
communities across America by senior volunteers; savings realized as 
additional avenues are provided for more older Americans to be involved 
in meaningful service opportunities; and savings realized as that 
involvement keeps older people healthy and independent. Our goal is to 
expand the Senior Companion Program and the Retired and Senior 
Volunteer Program so that they can provide the opportunity for one 
million Americans to serve by the turn of the century.
    Please help us to tap the nation's fastest growing natural 
resource--our seniors, by supporting a fiscal year 2003 funding level 
of $61 million for the Retired and Senior Volunteer Program (RSVP) and 
$50 million for the Senior Companion Program.














       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Academic Health Centers Clinical Research Forum, prepared 
  statement......................................................   432
Alexander, Hon. Duane, M.D., Director, National Institute of 
  Child Health and Human Development, National Institutes of 
  Health, Department of Health and Human Services................   111
    Prepared statement...........................................   138
Alzheimer's Association, prepared statement......................   424
Amercian:
    Academy of:
        Family Physicians, prepared statement....................   642
        Otolaryngology--Head and Neck Surgery, Inc., prepared 
          statement..............................................   428
        Pediatrics, prepared statement...........................   614
        Physician Assistants, prepared statement.................   639
    Association for:
        Cancer Research, prepared statement......................   478
        Dental Research, prepared statement......................   416
        Geriatric Psychiatry, prepared statement.................   380
    Association of:
        Colleges of Nursing, prepared statement..................   711
        Colleges of Osteopathic Medicine, prepared statement.....   618
        Immunologists, prepared statement........................   531
    Cancer Society, prepared statement...........................   403
    Chemical Society, prepared statement.........................   538
    College of Rheumatology, prepared statement..................   411
    Dental Education Association, prepared statement.............   595
    Diabetes Association, prepared statement.....................   439
    Gastroenterological Association, prepared statement..........   389
    Geophysical Union, prepared statement........................   662
    Heart Association, prepared statement........................   444
    Indian Higher Education Consortium, prepared statement.......   686
    Legion, prepared statement...................................   368
    Lung Association, prepared statement.........................   509
    Medical Association, prepared statement......................   545
    Museum of Natural History, prepared statement................   675
    Network of Community Options and Resources, prepared 
      statement..................................................   364
    Nurses Association, prepared statement.......................   670
    Psychological:
        Association, prepared statement..........................   456
        Society, prepared statement..............................   400
    Social Health Association, prepared statement................   554
    Society for:
        Clinical Pathology, prepared statement...................   635
        Microbiology, prepared statements......................378, 549
    Society of:
        Clinical Oncology, prepared statement....................   470
        Mechanical Engineers' (ASME International) Council on 
          Education, prepared statement..........................   714
        Tropical Medicine and Hygiene, prepared statement........   435
    Thoracic Society, prepared statement.........................   509
    Urogynecologic Society, prepared statement...................   451
    Urological Association, Inc., prepared statement.............   501
Ammerman, Howard K., Ph.D., prepared statement...................   715
Arrington, Robbie, prepared statement............................   351
Association for:
    Persons in Supported Employment, prepared statement..........   366
    Professionals in Infection Control and Epidemiology, prepared 
      state- 
      ment.......................................................   629
Association of:
    Departments of Family Medicine, prepared statement...........   622
    Family Practice Residency Directors, prepared statement......   622
    Population Centers, prepared statement.......................   534
    Public:
        Health Laboratories, prepared statement..................   566
        Television Stations, prepared statements...............705, 723
    Sciences Libraries, prepared statement.......................   484
    University:
        Centers on Disability, prepared statement................   666
        Programs in Occupational Health and Safety, prepared 
          statement..............................................   351
    Women's Health, Obstetric and Neonatal Nurses, prepared 
      statement..................................................   645

Babyland Family Sevices, Inc., prepared statement................   633
Battey, Hon. James F., Jr., M.D., Ph.D., Director, National 
  Institute on Deafness and Other Communication Disorders, 
  National Institutes of Health, Department of Health and Human 
  Services.......................................................   111
    Prepared statement...........................................   153
Blue Cross Blue Shield Association, prepared statement...........   656

Cassman, Hon. Marvin, Ph.D., Director, National Institute of 
  General Medical Sciences, National Institutes of Health, 
  Department of Health and Human Services........................   111
    Prepared statement...........................................   136
Center on Black Aged, prepared statement.........................   517
Chao, Hon. Elaine, Secretary of Labor, Office of the Secretary, 
  Department of Labor............................................   249
    Prepared statement...........................................   253
    Summary statement............................................   251
Charles R. Drew University of Medicine and Science, prepared 
  statement......................................................   495
City of:
    Miami Beach, FL, prepared statement..........................   701
    Newark, NJ, prepared statement...............................   602
Close Up Foundation, prepared statement..........................   659
Coalition for:
    American Trauma Care, prepared statement.....................   637
    Health:
        Funding, prepared statement..............................   407
        Services Research, prepared statement....................   418
Coalition of:
    National Health Education Organizations, prepared statement..   498
    Northeastern Governors, prepared statement...................   648
Cochran, Senator Thad, U.S. Senator from Mississippi:
    Opening statements.......................................6, 75, 195
    Prepared statement...........................................   195
Collins, Hon. Francis S., M.D., Ph.D., Director, National Human 
  Genome Research Institute, National Institutes of Health, 
  Department of Health and Human Services........................   112
    Prepared statement...........................................   166
Community of Agile Partners in Education, prepared statement.....   663
Consortium for Citizens with Disabilities Employment and Training 
  Task Force, prepared statement.................................   356
Consortium of Developmental Disabilities Councils (CDDC), 
  prepared statement.............................................   679
Council of State Administrators of Vocational Rehabilitation, 
  prepared statement.............................................   362
Council on Developmental Disabilities, prepared statement........   679
Craig, Senator Larry, U.S. Senator from Idaho, prepared statement   215
Crownpoint Institute of Technology, Crownpoint, NM, prepared 
  statement......................................................   703
Cystic Fibrosis Foundation, prepared statement...................   397
Dean, Hon. Donna, Ph.D., Acting Director, National Institute of 
  Biomedical Imaging and Bioengineering, National Institutes of 
  Health, Department of Health and Human Services................   112
    Prepared statement...........................................   170
DeWine, Senator Mike, U.S. Senator from Ohio, opening statement..    22
Digestive Disease National Coalition, prepared statement.........   473
Doris Day Animal League, prepared statement......................   388
Dystonia Medical Research Foundation, prepared statement.........   516

Elder Law of Michigan, Inc., prepared statement..................   566
Epilepsy Foundation, prepared statement..........................   429
Facioscapulohumeral Muscular Dystrophy Society, prepared 
  statement......................................................   543
Fauci, Hon. Anthony S., M.D., Director, National Institute of 
  Allergy and Infectious Diseases, National Institutes of Health, 
  Department of Health and Human Services........................   111
    Prepared statement...........................................   133
Ficca, Stephen A., prepared statement............................   193
Fight Crime: Invest in Kids, prepared statement..................   695
Florida State University, prepared statement.....................   673
Friends of National Institute of Environmental Health Sciences, 
  prepared statement.............................................   395

Gallaudet University, prepared statement.........................   591
Grady, Hon. Patricia A., Ph.D., Director, National Institute of 
  Nursing Research, National Institutes of Health, Department of 
  Health and Human Services......................................   112
    Prepared statement...........................................   164
Gregg, Senator Judd, U.S. Senator from New Hampshire, opening 
  state- 
  ment...........................................................    73

Hansen, William, Deputy Secretary, Department of Education.......    65
Hanson, Hon. Glen R., Ph.D., D.D.S., Acting Director, National 
  Institute on Drug Abuse, National Institutes of Health, 
  Department of Health and Human Services........................   112
    Prepared statement...........................................   159
Harborview Medical Center, prepared statement....................   347
Harkin, Senator Tom, U.S. Senator from Iowa:
    Opening statements..................................1, 65, 112, 249
    Prepared statement...........................................    67
    Questions submitted by..................................39, 93, 272
Health Professions and Nursing Education Coalition, prepared 
  statement......................................................   598
Heart of Hospice Music, prepared statement.......................   604
Helen Keller National Center for Deaf-Blind Youths and Adults, 
  prepared statement.............................................   561
Hepatitis Foundation International, prepared statement...........   505
HIV Medicine Association of IDSA, prepared statement.............   460
Hodes, Hon. Richard J., M.D., Director, National Institute on 
  Aging, National Institutes of Health, Department of Health and 
  Human Services.................................................   111
    Prepared statement...........................................   147
Hollings, Senator Ernest F., U.S. Senator from South Carolina, 
  questions submitted by.......................................104, 339
Humane Society of the United States, prepared statement..........   563
Hutchinson, Senator Kay Bailey, U.S. Senator from Texas, question 
  submitted by...................................................    60

Illinois NF Inc., prepared statement.............................   462
Infectious Diseases Society of America's, prepared statement.....   486
Inter-National Association of Business, Industry, and 
  Rehabilitation, prepared statement.............................   347
International Foundation for Functional Gastrointestinal 
  Disorders, prepared statement..................................   522
Iowa Substance Abuse Program Director's Association, prepared 
  statement......................................................   528
Iowa Talented and Gifted Association, prepared statement.........   680

Katz, Hon. Stephen I., M.D., Ph.D., Director, National Institute 
  of Arthritis and Musculoskeletal and Skin Diseases, National 
  Institutes of Health, Department of Health and Human Services..   111
    Prepared statement...........................................   150
Kennedy Krieger Institute, prepared statement....................   611
Keusch, Hon. Gerald T., M.D., Director, Fogarty International 
  Center, National Institutes of Health, Department of Health and 
  Human Services.................................................   112
    Prepared statement...........................................   181
Kington, Hon. Raynard, M.D., Ph.D., Acting Director, National 
  Institute on Alcohol Abuse and Alcoholism, National Institutes 
  of Health, Department of Health and Human Services.............   112
    Prepared statement...........................................   161
Kirschstein, Hon. Ruth L., M.D., Acting Director, National 
  Institutes of Health, Department of Health and Human Services..   111
    Prepared statement...........................................   115
    Summmary statement...........................................   113
Kohl, Senator Herb, U.S. Senator from Wisconsin:
    Opening statement............................................    24
    Questions submitted by.......................................   218

Landrieu, Senator Mary L., U.S. Senator from Louisiana:
    Opening statements..........................................35, 267
    Prepared statement...........................................   268
Leasure, Hon. Charles E., Deputy Director for Management, 
  National Institutes of Health, Department of Health and Human 
  Services.......................................................   112
Lenfant, Hon. Claude, M.D., Director, National Heart, Lung, and 
  Blood Institute, National Institutes of Health, Department of 
  Health and Human Services......................................   111
    Prepared statement...........................................   121
Leukemia & Lymphoma Society, prepared statement..................   384
Lindberg, Donald A.B., M.D., Director, National Library of 
  Medicine, National Institutes of Health, Department of Health 
  and Human Services.............................................   112
    Prepared statement...........................................   184
Lovelace Respiratory Research Institute, Albuquerque, NM, 
  prepared statement.............................................   619
Lymphoma Research Foundation, prepared statement.................   442

Maddox, Hon. Yvonne T., Ph.D., Acting Deputy Director, Office of 
  the Director, National Institutes of Health, Department of 
  Health and Human Services......................................   112
    Prepared statement...........................................   187
March of Dimes Birth Defects Foundation, prepared statement......   574
Marcus Institute, prepared statement.............................   628
Math/Science Partnership Coalition, prepared statement...........   666
Medical Library Association, prepared statement..................   484
Mended Hearts, Inc., prepared statement..........................   494
Murray, Senator Patty, U.S. Senator from Washington:
    Opening statements......................................32, 71, 251
    Questions submitted by.......................................   339

Nakamura, Hon. Richard, Ph.D., Acting Director, National 
  Institute of Mental Health, National Institutes of Health, 
  Department of Health and Human Services........................   111
    Prepared statement...........................................   156
National:
    AHEC Organization, prepared statement........................   606
    Alliance for Eye and Vision Research, prepared statement.....   393
    Alliance of State and Territorial AIDS Directors, prepared 
      statement..................................................   589
    Assembly on School-Based Health Care, prepared statement.....   613
    Association for State Community Services Programs, prepared 
      state- 
      ment.......................................................   692
    Association of:
        Children's Hospitals, prepared statement.................   630
        Developmental Disabilities Councils (NADDC), prepared 
          statement..............................................   679
        Retired and Senior Volunteer Program Directors, prepared 
          statement..............................................   726
        Senior Companion Project Directors, prepared statement...   726
        State Alcohol and Drug Abuse Directors, prepared 
          statement..............................................   539
    Breast Cancer Coalition, prepared statement..................   433
    Caucus, prepared statement...................................   517
    Center for:
        Health Education, prepared statement.....................   570
        Learning Disabilities, prepared statement................   464
    Coalition for:
        Heart and Stroke Research, prepared statement............   471
        Osteoporosis and Related Bone Diseases, prepared 
          statement..............................................   424
    Coalition of STD Directors, prepared statement...............   582
    Congress of American Indians, prepared statement.............   699
    Federation of Community Broadcasters, prepared statement.....   717
    Head Start Association, prepared statement...................   681
    Hemophilia Foundation, prepared statement....................   413
    Indian Education Association, prepared statement.............   689
    Marfan Foundation, prepared statement........................   370
    Mental Health Association, prepared statement................   524
    Minority Public Broadcasting Consortia, prepared statement...   719
    MPS Society, prepared statement..............................   373
    Multiple Sclerosis Society, prepared statement...............   497
    Network for Youth, prepared statement........................   649
    Public Radio, prepared statement.............................   720
    Rural Health Association, prepared statement.................   608
    Science Teachers Association, prepared statement.............   683
    Society of Professional Engineers, prepared statement........   663
    Treasury Employees Union, prepared statement.................   354
    Youth Sports Program Fund, Inc., prepared statement..........   653
NephCure Foundation, prepared statement..........................   482
North American:
    Brain Tumor Coalition, prepared statement....................   421
    Primary Care Research Group, prepared statement..............   622

Olden, Hon. Kenneth, Ph.D., Director, National Institute of 
  Environmental Health Sciences, National Institutes of Health, 
  Department of Health and Human Services........................   111
    Prepared statement...........................................   144
One Voice Against Cancer, prepared statement.....................   507

Paige, Hon. Roderick, Secretary of Education, Office of the 
  Secretary, Department of Education.............................    65
    Prepared statement...........................................    78
    Summary statement............................................    76
Pancreatic Cancer Action Network, prepared statement.............   467
Penn, Hon. Audrey S., M.D., Director, National Institute of 
  Neurological Disorders and Stroke, National Institutes of 
  Health, Department of Health and Human Services................   111
    Prepared statement...........................................   130
Pennsylvania Educational Telecommunications Exchange Network, 
  prepared statement.............................................   663
People for the Ethical Treatment of Animals, prepared statement..   388
Population Association of America, prepared statement............   534
Public Policy Council, prepared statement........................   513
Pulmonary Hypertension Association, prepared statements...475, 480, 551

Quantius, Hon. Susan, Associate Director for Budget, National 
  Institutes of Health, Department of Health and Human Services..   112
Quinault Indian Nation, prepared statement.......................   684

Railroad Retirement Board, prepared statement....................   360
Reid, Senator Harry, U.S. Senator from Nevada, questions 
  submitted by...................................................   216
Research:
    Society on Alcoholism, prepared statement....................   386
    To Prevention, prepared statement............................   555
Rotary International, prepared statement.........................   577
RTI International, prepared statement............................   594
Ruffin, Hon. John, Ph.D., National Center on Minority Health and 
  Health Disparities, National Institutes of Health, Department 
  of Health and Human Services...................................   112
    Prepared statement...........................................   178

Shupal, Kelly, Houston, TX, prepared statement...................   368
Sieving, Hon. Paul A., M.D., Ph.D., National Eye Institute, 
  National Institutes of Health, Department of Health and Human 
  Services.......................................................   111
    Prepared statement...........................................   141
Sjogren's Syndrome Foundation, prepared statement................   374
Skelly, Thomas, Director, Budget Service, Department of Education    65
Society for Animal Protective Legislation, prepared statement....   449
Society of:
    General Internal Medicine, prepared statement................   626
    Gynecologic Oncologists, prepared statement..................   453
    Teachers of Family Medicine, prepared statement..............   622
Specter, Senator Arlen, U.S. Senator from Pennsylvania:
    Opening statements..................................4, 72, 196, 270
    Questions submitted by.................................54, 105, 226
Spiegel, Hon. Allen M., M.D., Director, National Institute of 
  Diabetes and Digestive and Kidney Diseases, National Institutes 
  of Health, Department of Health and Human Services.............   111
    Prepared statement...........................................   127
Stevens, Senator Ted, U.S. Senator from Alaska:
    Opening statements.......................................3, 68, 259
    Prepared statement...........................................   260
    Questions submitted by............................61, 109, 224, 345
Straus, Hon. Stephen E., M.D., National Center for Complementary 
  and Alternative Medicine, National Institutes of Health, 
  Department of Health and Human Services........................   112
    Prepared statement...........................................   175
Sudden Infant Death Syndrome Alliance, prepared statement........   519

Tabak, Hon. Lawrence A., Ph.D., Director, National Institute of 
  Dental and Craniofacial Research, National Institutes of 
  Health, Department of Health and Human Services................   111
    Prepared statement...........................................   124
Thompson, Hon. Tommy G., Secretary of Health and Human Services, 
  Office of the Secretary, Department of Health and Human 
  Services.......................................................     1
    Prepared statement...........................................    10
    Summary statement............................................     7
Trust for America's Health, prepared statement...................   558

United:
    Cerebral Palsy Associations, prepared statement..............   585
    Tribes Technical College, prepared statement.................   708
Upper County Branch, Montgomery County, Maryland Stroke Club, 
  prepared statement.............................................   508

Vaitukaitis, Hon. Judith L., M.D., Director, National Center for 
  Research Resources, National Institutes of Health, Department 
  of Health and Human Services...................................   112
    Prepared statement...........................................   172
von Eschenbach, Hon. Andrew, M.D., Director, National Cancer 
  Institute, National Institutes of Health, Department of Health 
  and Human Services.............................................   111
    Prepared statement...........................................   118

Whitescarver, Hon. Jack, Ph.D., Acting Director, Office of AIDS 
  Research, National Institutes of Health, Department of Health 
  and Human Services.............................................   112
    Prepared statement...........................................   190
















                             SUBJECT INDEX

                              ----------                              

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

Additional committee questions...................................    93
Adult education and literacy.....................................   108
Alaska Native Education Equity Program...........................   109
Alaskan Native Education Equity Act..............................    69
Allocation of undistributed fiscal year 2002 funds...............    97
American Printing House for the Blind............................   103
Assistive technology programs....................................   102
Bipartisanship...................................................    93
Blue ribbon schools..............................................   104
Budget request, fiscal year 2003.................................    79
Campus crime....................................................72, 105
Carolyn White Physical Education for Progress Act................    69
CCAMPIS program, increasing awareness and utilization of the.....    99
Child care:
    Access means parents in school (CCAMPIS).....................    98
    Providers, loan forgiveness for..............................    96
Class size and school construction, increases in.................    73
Commitment to education..........................................    92
Demonstration projects to ensure quality higher education for 
  students with disabilities.....................................    97
Department management............................................    81
Differentiated teacher pay, based on performance.................    91
Digital educational programming grants...........................    75
Education funding:
    Flexibility in...............................................    84
    Increases of previous years..................................65, 73
Federal:
    Education dollars, targeting.................................    78
    Student aid programs.........................................    93
Flexibility for States and school districts, increasing..........    80
Higher education--assessing and improving the effectiveness of 
  Federal TRIO and gear up programs..............................    96
Implementing no child left behind................................    79
Incarcerated Youth Offenders Program (Prison Postsecondary)......   107
Javits Fellowship and GAANN programs.............................    98
Juvenile diabetes connected to low exercise levels...............    70
Learn television, ready to.......................................    76
Leveraging Educational Assistance Partnership Program............    94
Loan forgiveness--needed for all teachers, nurses................    89
New teacher quality mandates.....................................    85
No Child Left Behind Act of 2001.........66, 69, 71, 72, 73, 74, 76, 78
    Funding......................................................    77
Options for parents, expanding...................................    80
Pell Grant:
    Affordable college tuition...................................    66
    Funding......................................................    71
        Deficit..................................................    75
    Maximum award................................................    92
    Program.....................................................94, 106
        Increases................................................    92
    Shortfalls since academic year 1989-90.......................   106
Pennsylvania's:
    Classroom plus program.......................................   107
    Education Empowerment Act....................................   106
Physical education for progress..................................   109
Postsecondary education..........................................    81
Principles underlying no child left behind.......................    77
Program effectiveness, strategies for improving..................    97
Projects with industry...........................................   101
Proposed funding increase........................................    78
Recreational programs............................................   100
Rural education:
    Funding......................................................    83
    Program......................................................    82
Special education and vocational rehabilitation..................    80
Student:
    Aid administration funds--changing from mandatory to annual 
      discretionary appropriations...............................    95
    Loan administration--section 458 proposed transfer...........    94
Supply and demand aspect of loan forgiveness.....................    90
Supported employment state grants................................   101
Teacher Quality:
    Enhancement State Grant Program..............................    99
    Funding--fiscal year 2002 and fiscal year 2003...............    86
    Mandates.....................................................    85
        In no child left behind..................................    66
    Programs--funding increases..................................    73
    State grants.................................................    78
Teachers:
    And nurses, loan forgiveness for.............................    67
    Program, loan forgiveness for................................    88
    Recruitment and training.....................................    75
Title I:
    And IDEA funding increases...............................74, 75, 84
    Teacher quality funding requirement..........................    87
Vocational rehabilitation:
    Incentive grants.............................................   100
    Performance standards........................................   100

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                     National Institutes of Health

Acquired immune deficiency syndrome (AIDS).......................   135
    And other medical consequences...............................   160
    Epidemic in the United States................................   191
    Research plan and budget, comprehensive......................   191
Acute:
    And chronic pain, relieving..................................   125
    Lymphoblastic leukemia, learning deficits in children treated 
      for........................................................   165
Additional committee questions...................................   216
Advanced treatments, accessing the newest........................   244
Aging, understanding the biology of..............................   148
Alzheimer's disease, conquering..................................   148
Americans are living longer and healthier lives..................   147
Anthrax vaccine................................................141, 211
    Purchase.....................................................   226
Arthritis and other rheumatic diseases...........................   151
Autism...........................................................   230
    Seeking clues to genetic vulnerability for...................   157
Basic research...................................................   123
Biopolar disorder................................................   244
Bioterrorim research for other diseases, spin-offs of..........116, 134
Bone:
    Biology diseases.............................................   151
    Disease and osteoporosis.....................................   232
Brain changes in childhood schizophrenia, visualizing............   157
Budget:
    Increases, effectiveness of..................................   198
    Leveling.....................................................   200
    Request, other features of the...............................   118
    Statement/GPRA...............................................   121
    Summary, fiscal year 2003....................................   195
Cancer...........................................................   176
    Research.....................................................   115
        Highlights in............................................   119
    Trends.......................................................   119
Cardiac arrest, reducing risks of a second.......................   165
Caregivers, research to help.....................................   165
Cataract research................................................   142
Centers of Excellence Program....................................   180
Children, research in............................................   150
Clinical research..............................................124, 228
    Loan repayment program for...................................   245
Cloning, therapeutic...........................................203, 246
Common themes, different diseases................................   130
Corneal disease research.........................................   142
Criminal justice system, integrating treatment into the..........   161
Department of Defense research activities........................   224
Detection, early.................................................   209
Diabetes.........................................................   127
Digestive diseases...............................................   129
Disease and disability, reducing.................................   149
Disease, burden of...............................................   121
Disparities and ethnic differences...............................   205
Drug abuse:
    Is costly at many levels.....................................   159
    Revention research efforts, bringing a multi-disciplinary 
      approach to................................................   159
Early childhood education and school readiness...................   139
Education and outreach.........................................124, 169
Embryonic stem cell research.....................................   246
Endowment Program................................................   179
Environmental susceptibility genes, search for...................   145
Epilepsy.........................................................   218
Ethical, legal and social implications...........................   169
Eye diseases in the aging population.............................   212
Focal segmental glomeruloscelerosis..............................   239
Fragile X........................................................   242
General clinical research centers.........................222, 223, 244
Genomics:
    Genetic medicine.............................................   174
    The future of................................................   168
Glaucoma research................................................   143
Global:
    Health
        Needs: Fiscal year 2003 initiatives, meeting unmet.......   183
        Science for..............................................   181
    Leadership...................................................   182
Government Performance and Results Act..........124, 144, 164, 161, 195
Health:
    Disparities................................................152, 175
        Commitment to reducing...................................   125
    Education and communication..................................   144
    Information to public........................................   214
    Of children and pregnant women, drugs to improve the.........   141
Healthy people 2010..............................................   143
HIV/AIDS.........................................................   177
Human genome sequence, early and stunning results from the.......   167
Immune-mediated diseases, research on............................   135
Information dissemination......................................221, 230
Initiatives, new.................................................   180
    Expanded.....................................................   166
Intellectual property rights.....................................   211
International:
    Health research..............................................   178
    Research.....................................................   192
Interstitial cystitis............................................   216
Intramural Research Program......................................   152
Jackson heart study..............................................   204
John Edward Porter Neuroscience Research Center (NRC)............   158
Juvenile diabetes................................................   217
Kidney, urologic and blood diseases..............................   129
Knowledge gap, narrowing the.....................................   181
Land and sea, medicines from.....................................   137
Loan Repayment:
    And Scholarship Program......................................   190
    Program....................................................179, 198
LPA research.....................................................   204
Maintaining momentum.............................................   120
Mental illness:
    Is real and can be treated effectively.......................   156
    Treatments for...............................................   236
Developing new treatments for....................................   156
Mental retardation, advances in..................................   139
Milestones to success............................................   170
Minority:
    Aging/Alzheimers...........................................220, 229
    Health.......................................................   204
Mobility for all.................................................   140
Model, a good....................................................   136
Mouse genomics centers...........................................   146
Muscle biology and muscle diseases...............................   152
Nation's oral health, improving the..............................   124
National:
    Disease research interchange.................................   238
    Security.....................................................   146
NCMHD congressionally mandated programs..........................   179
Neurofibromatosis................................................   239
Neurological disorders, the burden of............................   130
Neurosciences....................................................   177
    Genetics research, advances in...............................   162
NHGRI, a new research plan for...................................   167
NIAID, overview of...............................................   133
Nicotine and other drugs of abuse, treating addiction to.........   160
NIDA'S:
    Clinical trials network, expanding...........................   160
    Strong research foundation...................................   159
NIH:
    Comprehensive strategic plan and budget......................   178
    Doubling.....................................................   245
NIMH:
    Directorship.................................................   158
    Efforts following 9/11.......................................   236
Obesity and diabetes.............................................   224
Office of:
    AIDS Research................................................   187
    Behavioral and Social Sciences Research......................   188
    Disease Prevention...........................................   189
    Research on Women's Health...................................   188
    Science Education............................................   190
Oral:
    And craniofacial tissues, learning to regenerate.............   126
    Cancer, reducing the burden of...............................   126
Outreach.......................................................164, 186
Pancreatic cancer................................................   209
Pandemic, the exploding..........................................   191
Parkinson's disease............................................202, 242
Planning and enabling research...................................   131
Premature births.................................................   140
President's request, amount of...................................   124
Prevention research, advances in.................................   162
Psychological aftermath, 9/11: responding to the.................   158
Public:
    Health need..................................................   234
    Outreach and translation of research.........................   146
Racial and ethnic minorities.....................................   193
Reading research.................................................   206
Recent initiatives...............................................   163
Recruitment approach, new........................................   205
Research:
    And development..............................................   186
    Applications.................................................   201
    Basic & clinical.............................................   226
    Capacity building............................................   175
    Mission, role in the.........................................   193
    On disease prevention........................................   117
    Portfolio, building a........................................   171
    Training.....................................................   138
        And career development...................................   174
Retinal disease research.........................................   142
Schizophrenia research...........................................   243
Science, the formidable force of.................................   161
Scientific discovery, unprecedented opportunity for..............   125
Serving:
    Scientists and the health professions........................   185
    The public...................................................   185
SIDS rates, decline in...........................................   141
Skin biology and skin diseases...................................   152
Smallpox.........................................................   226
Special initiatives..............................................   138
Stem cells.......................................................   210
Strabismus, amblyopia, and visual processing research............   143
Strategies, future...............................................   171
Stress and how it influences drug use............................   161
Success, building for............................................   175
Technologies, advanced...........................................   173
Threat of bioterrorism, responding to the........................   133
TMJ disorders: building the scientific infrastructure............   125
Toxicity of alcohol, advances in research related to the.........   163
Toxicogenomics...................................................   145
Trans-NIH coordination...........................................   192
Translating research into practice...............................   117
Uterine rupture in future pregnancies following initial cesarean 
  birth, risks of................................................   165
Vaccine development..............................................   134
Vascular disease.................................................   220
Vision impairments/nutrition.....................................   214
Women's health research..........................................   141

                        Office of the Secretary

Additional committee questions...................................    39
Biomedical research, investing in................................ 8, 12
Bioterrorism.....................................................40, 59
    Protecting the Nation against................................ 7, 11
Candidate qualifications.........................................    19
CDC buildings and facilities, budget for.........................    20
Chief dental officer at CMS......................................    43
Child:
    Care.........................................................    50
    Support proposals............................................    26
Children's graduate medical education............................    58
Chronic homelessness, response to................................    46
Community:
    Based services...............................................    44
    Health centers...............................................58, 61
    Services block grant.........................................    61
Compassion capital fund..........................................    51
Disability grants................................................    42
Dose reconstruction..............................................    41
Early childhood development......................................    48
Faith and community based organizations, barriers to.............    51
Federal Jail Diversion Program...................................    48
Foster care and adoption assistance..............................    22
Government Performance and Results Act...........................    17
Head Start.......................................................    49
Health:
    Care, expanded access to..................................... 9, 13
    Professions..................................................    58
    Reductions...................................................    39
Healthy communities innovation initiative........................    57
HHS:
    Programs, improving management and performance of............    16
    To committee, information flow from..........................    20
Institute of Medicine, implementing recommendations..............    44
Integrated treatment.............................................    47
Interagency task force on aging programs.........................    53
LIHEAP...........................................................52, 57
Management reforms...............................................    10
Medicare:
    Overpayments for equipment & supplies........................    42
    Reimbursement rates..........................................    26
    Strengthening................................................    15
Mental:
    Health.......................................................    45
    Illness treatment, commission to improve.....................    48
Nationwide health tracking network...............................    54
NIH:
    Director.....................................................    17
    Stem cell registry...........................................31, 32
Nursing:
    Home workers, background checks for..........................    24
    Shortage.....................................................59, 62
Nutrition:
    Program funding..............................................    54
    Services Incentive Program...................................    53
Office of the Secretary consolidations...........................    56
Poison control centers, funding for..............................    23
Reimbursement formula, statutory changes to......................    27
Ryan White, HIV/AIDS services through............................    39
Safe and healthy America, working together to ensure a...........    17
SAMHSA:
    Data collection activities...................................    46
    KDA reductions in............................................    43
    Role in research coordination council........................    43
Security.........................................................    40
State survey agencies and ombudsmen, funding for.................    25
Stem cell research...............................................    60
Substance abuse treatment........................................    62
Supporting health communities.................................... 8, 12
Tropical storm Allison, response to..............................    60
Welfare reform................................................... 9, 49
    Building upon the successes of...............................    13

                          DEPARTMENT OF LABOR

                        Office of the Secretary

Accrued benefits, lump sum distributions of......................   283
Additional committee questions...................................   272
Asbestos.........................................................   343
Bureau of International Labor Affairs............................   257
Carryover in a few States........................................   298
Cash balance plans, guidance for sponsors of.....................   282
Child labor:
    Combating....................................................   273
    Laws, enforcement of.........................................   273
Children in processing occupations, employment of................   277
Dislocated workers...............................................   340
Diversity within leadership, management and rank-and-file of ODEP   283
DOL:
    And USAID cooperative agreement..............................   272
    On petitions, dealing with...................................   342
Employment:
    And Training Administration, advisory system, U.S. Department 
      of 
      Labor......................................................   299
    And training programs........................................   254
ERGO advisory committee..........................................   290
Ergonomic:
    Hazards......................................................   328
    Standard's affect on health care profession, lifting of......   297
Ergonomics.......................................................   256
    Budget.......................................................   334
    Enforcement..................................................   335
ERISA enforcement................................................   284
Evaluation committee of experts request by petitioners in the 
  Customtrim/Autotrim case.......................................   274
Expenditure rate trends..........................................   292
Faith-based initiative...........................................   286
Federal training and employment reform...........................   257
Financial management.............................................   259
Funding for child labor basic education projects, availability of   274
Government Performance and Results Act...........................   259
Green card backlog, cleaning up the..............................   327
H-1B program.....................................................   326
Hazardous:
    Orders, poultry industry.....................................   278
    Work orders, review of.......................................   278
Job Corps........................................................   254
    And technology...............................................   343
    Centers and information technology employers, partnerships 
      between....................................................   339
    Expansion in Wisconsin.......................................   338
Job:
    Safety.......................................................   268
    Security.....................................................   269
    Training.....................................................   268
        Services, need to expand.................................   331
        Technical assistance.....................................   329
Labor statistics.................................................   257
Legislative savings..............................................   286
Local survey of spending.........................................   287
Migrant:
    And seasonal farmworker support services.....................   276
    And seasonal farmworkers.....................................   275
    Job training.................................................   337
NAFTA supplementary agreement on labor standards.................   274
National:
    Farmworker jobs program......................................   275
    Skill standards board........................................   339
Nursing shortage.................................................   296
Obligations of fiscal year 2001 and fiscal year 2002 funds.......   274
Office of:
    Disability Employment Policy (ODEP)........................257, 282
    Labor Management Standards...................................   257
    The 21st Century Workforce...................................   258
    The Inspector General........................................   256
Older workers....................................................   336
One-year targeted training grants................................   288
OSHA:
    Budget request...............................................   344
    Enforcement budget.........................................331, 345
    National office restructuring................................   344
    Regulatory agenda............................................   344
    Reorganization and standards budget..........................   288
    Standards....................................................   344
    Training grants..............................................   336
Patient's rights.................................................   284
Pension plans, cash balance......................................   279
Postal substations in grocery stores.............................   346
President's management agenda, implementing the..................   258
PWBA's oversight of cash balance plan fiduciaries................   281
Resources for Labor-Management Reporting and Disclosure Act 
  (LMRDA) enforcement............................................   284
Retirement:
    Savings of American workers, protection of...................   278
    Security.....................................................   256
Senior community service employment program......................   296
State and local spending, issues related to......................   295
Supplemental proposal, fiscal year 2002..........................   254
Trade adjustment assistance......................................   345
Training and employment guidance letter No. 13-01................   299
Underspending, pockets of........................................   332
Unemployment insurance and employment service reform.............   255
Veterans' Employment and Training Service........................   258
WIA expenditure data, quality of.................................   294
Worker protection................................................   255
Workforce cuts on employers, impact of...........................   325
Youth:
    Opportunity grants...........................................   330
    Programs.....................................................   339
    Training programs, cuts in...................................   331

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
